<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2001</title>
<body><pre>[Senate Hearing 106-831]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-831

    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2001

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                                   on

                       H.R. 4635, 4733, and 5483

 AN ACT MAKING APPROPRIATIONS FOR ENERGY AND WATER DEVELOPMENT FOR THE 
     FISCAL YEAR ENDING SEPTEMBER 30, 2001, AND FOR OTHER PURPOSES

                               __________

                         Department of Defense
                          Department of Energy
                       Department of the Interior
                       Nondepartmental witnesses

                               __________

         Printed for the use of the Committee on Appropriations


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
62-775                     WASHINGTON : 2001


_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402


                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             FRANK R. LAUTENBERG, New Jersey
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
JON KYL, Arizona
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

              Subcommittee on Energy and Water Development

                 PETE V. DOMENICI, New Mexico Chairman
THAD COCHRAN, Mississippi            HARRY REID, Nevada
SLADE GORTON, Washington             ROBERT C. BYRD, West Virginia
MITCH McCONNELL, Kentucky            ERNEST F. HOLLINGS, South Carolina
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
CONRAD BURNS, Montana                HERB KOHL, Wisconsin
LARRY CRAIG, Idaho                   BYRON DORGAN, North Dakota
TED STEVENS, Alaska (ex officio)

                           Professional Staff

                               Clay Sell
                           W. David Gwaltney
                        Drew Willison (Minority)

                         Administrative Support

                           Lashawnda Leftwich
                         Liz Blevins (Minority)


                            C O N T E N T S

                              ----------                              

                        Tuesday, March 21, 2000

                                                                   Page
Department of Defense--Civil: Department of the Army: Corps of 
  Engineers--Civil...............................................     1
Department of the Interior: Bureau of Reclamation................    73

                        Tuesday, March 28, 2000

Department of Energy: National Nuclear Security Administration...    95

                        Tuesday, April 11, 2000

Department of Energy:
    Office of Science............................................   187
    Office of Energy Efficiency and Renewable Energy.............   187
    Office of Nuclear Energy, Science and Technology.............   187
    Office of Civilian Radioactive Waste Management..............   323
    Office of Environmental Management...........................   323

                       NONDEPARTMENTAL WITNESSES

California navigation and related projects.......................   399
California water resource development projects...................   439
Department of Energy programs and activities.....................   505
New York and New Jersey water resource projects..................   529
Nationwide water projects........................................   540
Midwest U.S. water resource development projects.................   542
Southwest U.S. water resource development projects...............   573
Pacific Northwest water resource projects........................   585
Southeastern U.S. water resource development projects............   610
Ohio River Valley inland navigation projects.....................   630
Mississippi and Louisiana water resource projects................   634


    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2001

                              ----------                              


                        TUESDAY, MARCH 21, 2000

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Pete V. Domenici (chairman) 
presiding.
    Present: Senators Domenici, Gorton, McConnell, Burns, 
Craig, Stevens, Reid, and Dorgan.

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

STATEMENTS OF:
        DR. JOSEPH WESTPHAL, ASSISTANT SECRETARY OF THE ARMY (CIVIL 
            WORKS)
        LT. GENERAL JOE N. BALLARD, CHIEF OF ENGINEERS
ACCOMPANIED BY:
        GENERAL HANS A. VAN WINKLE, DEPUTY COMMANDING GENERAL FOR CIVIL 
            WORKS
        THOMAS F. CAVER, JR., CHIEF, PROGRAMS MANAGEMENT DIVISION, 
            DIRECTORATE OF CIVIL WORKS

               OPENING STATEMENT OF SENATOR PETE DOMENICI

    Senator Domenici. Senator Reid is opening the Senate this 
morning on the minority side and he will be here shortly. In 
the meantime, I have an opening statement and then we'll 
proceed with your testimony.
    First of all, it's a pleasure to welcome representatives of 
the Corps of Engineers and the Bureau of Reclamation to the 
subcommittee to review their budget request for fiscal year 
2001.
    Following our normal procedure of rotating the lead-off 
witnesses each year, we will first hear from the Corps of 
Engineers followed by the Bureau of Reclamation. I'm pleased to 
welcome you, Dr. Westphal, the Assistant Secretary for the Army 
for Civil Works. Likewise, you, Lieutenant General Joe Ballard, 
Chief of Engineers, and Major General Hans Van Winkle, the 
Director of Civil Works for the Corps.
    Gentlemen, it is truly a pleasure to have you here this 
morning to present and testify on the fiscal year 2001 budget 
request for the Corps of Engineers.

                    RECOGNITION OF LT. GEN. BALLARD

    General Ballard, it's indeed an honor to recognize you 
today, this being your final appearance before the 
subcommittee. I understand that you will be leaving the Army 
and the Corps of Engineers shortly after completing 4 years as 
the Chief of Engineers and 35 years of service to our country.
    General, your dedication to the Corps and to our country is 
to be commended, and I and the entire subcommittee thank you 
for your assistance and hard work over the years. We wish you 
well in your future endeavors and hope that you will have more 
time to spend with your family and doing whatever you would 
like.

                      MEDIA COVERAGE OF THE CORPS

    Gentlemen, we are all aware of the recent Washington Post 
articles which covered certain aspects of the Corps' program. 
We will get into that, I'm sure, during the questioning, but I 
want to say that while these articles raised some issues of 
concern, namely influencing the outcome of the study process 
and alleged activities of the Corps to ``grow'' their civil 
works program, the fundamental purpose of the Corps to oversee 
the development, management, protection and enhancement of our 
Nation's water resources is, in my opinion, very sound.
    For over 200 years, the Corps has been the primary agency, 
along with the Bureau of Reclamation, for translating the 
Nation's water resources infrastructure needs into reality and 
getting things done.
    The Corps' Civil Works program continues to provide 
billions of dollars of benefits to the Nation from deepdraft 
and inland navigation, billions of dollars of flood damages 
prevented annually and millions of dollars of forgotten 
environmental and recreational benefits that are provided as an 
integral part of each water resource project that is 
constructed. The project development process, established by 
Congress and carried out by the Executive Branch, is designed 
to maximize the benefits to our Nation--and we all understand 
that--while at the same time allowing review and input by 
Federal and State agencies and the general public.
    And I'm hopeful, if we have time, we'll go through the 
Upper Mississippi Navigation Study Process and indicate in the 
record with diagrams, et cetera, where that is, show that the 
public input process is intact, it is strong and it has still 
got a long way to go in terms of that participation before the 
project is completed.

                   MAINTAINING ENGINEERING CAPABILITY

    Another important but overlooked purpose of the Corps is to 
retain and maintain the capability to provide engineering and 
construction services to the Armed Services in support of the 
national defense.
    Dr. Westphal, General Ballard and General Van Winkle, it is 
good to have you here this morning to talk about the Corps 
Civil Works program. And I hope that you, General Ballard in 
particular, will help the subcommittee understand the current 
state of the Corps of Engineers.
    When Senator Reid arrives, we will do whatever he likes. If 
he wants to make a statement, we will interrupt and do that. If 
not, he will be here to do what he chooses today.
    Having said that now, we're going to proceed to hear first 
Assistant Secretary Westphal and then you, General Ballard. 
Would you proceed? Your entire statement is going to be made a 
part of the record you may proceed.

                      STATEMENT OF JOSEPH WESTPHAL

    Dr. Westphal. Thank you, Mr. Chairman. It is a great 
pleasure to be with you here today and also I join you in 
recognizing and commending General Ballard for his 30-plus, 35 
years of service to the Nation and to the Corps of Engineers, 
and we've worked together now almost 2 years since I've been on 
this job and so there is no question I'm going to miss him and 
I think the country is going to miss him in that regard.
    Mr. Chairman, back in 1824, 176 years ago--and I'm not 
going to follow whatever statements you got, because I rewrote 
my statement last night so I'm just going to kind of tell you 
some different things here
    Senator Domenici. Do you want to stand by that statement or 
do you want to throw it away?
    Dr. Westphal. The original statement is sort of cut and dry 
and all that.
    Senator Domenici. It's in the record
    Dr. Westphal. It's in the record. But back in 1824, 176 
years ago, Congress made its first appropriations to the Army 
Corps of Engineers for the ``removal of snags, sawyers, 
planters and other impediments of that nature'' from the Ohio 
and Mississippi Rivers.
    That appropriations, Mr. Chairman, was $75,000. This year, 
the President's budget request for fiscal year 2001 totals 
$4.063 billion. It is $160 million above last year's budgeted 
request to you. And we expect that the non-Federal 
contributions and other sources to be approximately $395 
million in fiscal year 2001, bringing the total funding to 
approximately $4.5 billion. So from the initial $75,000 
appropriations in 1824, our investment in water and related 
land resources is estimated to be worth today over $124 
billion.
    From that initial job of clearing snags on the Ohio River, 
the Army Corps of Engineers now works to serve the Nation's 
needs in such areas as toxic and hazardous waste cleanup, 
recreation, disaster relief, shoreline protection, hydropower 
generation, flood protection, environmental restoration, and 
provides support for other functions of technical oversight and 
management of engineering, environmental and construction 
contracts performed by the private sector firms on a totally 
reimbursable basis.
    Today, the Army Corps of Engineers is providing support to 
about 60 Federal, State and local governments. This year the 
President is requesting your support in funding three important 
initiatives that will greatly help our ability to integrate 
planning priorities, help us address an important backlog in 
maintenance of our infrastructure and protect lives, save 
money, and improve the environment through a nonstructural 
flood damage reduction program.

                           WATERSHED STUDIES

    First, with the budget we are proposing to undertake four 
comprehensive watershed studies. In 1997, my predecessor, 
Martin Lancaster, made a presentation to the World Water Forum. 
He stated, ``As we approach the 21st century, the need for new 
modes of interstate cooperation grows in both humid and arid 
areas. Reliance on court judgments has proved too expensive, 
inflexible, time consuming and precedent-bound to meet new 
needs realistically.'' I think he was right.
    Strengthening our ability to work with our Federal, State 
and Tribal partners early in the process is critical. I believe 
our proposal can serve as a model for future planning efforts 
that yield positive results and quicker and more effective 
solutions to problems that will enable us to design and build 
good projects in the future.
    Congresses and Presidents have greatly expanded the ability 
of the Corps of Engineers to meet both engineering demands as 
well as the environmental goals of society. Adding economics to 
the mix, we must now use an integrated approach to balancing 
all three priorities.
    Our population continues to increase, we continue to be 
vulnerable to droughts as well as to many effects of 
unacceptable water as a result of storm water drainage, 
combined sewer overflows, non-point source pollution, and lack 
of modern water delivery and sanitation infrastructure.
    We also have the needs of agriculture, flood control, 
industrial uses of water, and water supply for urban areas. 
These complex basin-wide issues can only be solved through a 
process that integrates the efforts of local stakeholders and 
State and Federal agencies.
    Our strategy is simple. We have selected four major 
watersheds that face many of the problems listed above. The 
four pilot projects will undertake a comprehensive study of the 
water resources needs of the basin. We will identify Federal, 
Tribal, State and local partners that will share the costs and 
we will focus on solving problems.
    The four pilot projects are the Rio Grande, the Lower 
Missouri-Middle Mississippi River basin, the White River in 
Arkansas, and the Yellowstone River in Montana.
    Mr. Chairman and members of the committee, I have discussed 
these projects with many of you, seeking your advice and 
counsel. I want to work with Congress on the best possible plan 
to establish a partnership with the States involved and 
facilitate practical results that will enhance water resources 
for multiple uses and ensure the protection of the ecosystem.
    I commit to work with you to expedite the study process and 
to produce tangible and workable solutions to already existing 
constraints on these great river basins.

                          MAINTENANCE BACKLOG

    The second initiative is aimed at reducing our significant 
backlog of maintenance on our recreation areas. The Corps of 
Engineers is responsible for 4,340 recreation areas at 456 
lakes in 42 States. These recreation areas host 377 million 
visitors annually.
    We are requesting $27 million in fiscal year 2001 to 
initiate the recreation modernization program which will 
replace or rehabilitate facilities at some of the more than 
2,389 recreation areas that the Corps of Engineers manages 
directly.
    Many of these facilities were constructed in the 1960s and 
1970s and the combination of heavy use, lack of routine 
maintenance, and changes in visitor needs has caused 
significant deterioration of recreation facilities and the 
natural resource base of our lakes.
    We hope to modernize about half the Corps-managed 
recreation areas over the next 5 to 10 years. These 
improvements include upgrading facilities, installing more 
family oriented facilities, and providing more access to water-
related recreation activities.

                        CHALLENGE 21 INITIATIVE

    The third initiative is our Challenge 21 program better 
known as the Riverine Ecosystem Restoration and Flood Hazard 
Mitigation Program.
    The fiscal year 2001 budget request includes $20 million to 
initiate Challenge 21 authorized in WRDA 1999. This initiative 
expands the use of nonstructural flood hazard mitigation 
options and restoration of riverine ecosystems to allow more 
natural recession of floodwaters and provide other benefits to 
communities and the environment. Challenge 21 will create 
partnerships with communities and establish a framework for 
more effective coordination with key agencies.
    The fiscal year 2001 budget for the Army Civil Works 
program includes $82 million to initiate new investments with a 
total of $1.6 billion--for a total of $1.6 billion. Of that 
total, $410 million will be financed directly by non-Federal 
sponsors, including lands, easements, rights of way and 
relocations.
    In addition to the four comprehensive studies and two new 
programs I noted earlier, the fiscal year 2001 budget will 
include four new surveys, one new special study, one new 
preconstruction engineering and design (PED) project and 12 
construction new starts.
    The Administration is committed to the traditional missions 
of improving our navigation and transportation system, 
protection of local communities from floods and other 
disasters, and maintaining and improving hydropower facilities 
across the country.
    Together with these important national priorities, the Army 
Corps of Engineers is also the Nation's premier environmental 
restoration agency.

                           PREPARED STATEMENT

    This budget provides for continued development and 
management of the Nation's water resources infrastructure and 
the continuation of our work to enhance, protect and restore 
the environment. Thank you, Mr. Chairman.
    [The statement follows:]

                Prepared Statement of Joseph W. Westphal

    Mr. Chairman and distinguished members of the subcommittee: Good 
morning. It is an honor and a pleasure to testify before this esteemed 
subcommittee of the Appropriations Committee and to present the 
President's budget for the Civil Works program of the Army Corps of 
Engineers for fiscal year 2001. It funds a strong program for Civil 
Works and is comparable to the funding levels enacted by Congress in 
recent years.
    Accompanying me this morning are Lieutenant General Joe N. Ballard, 
Chief of Engineers; Major General Hans A. Van Winkle, Deputy Commanding 
General for Civil Works; and Mr. Thomas F. Caver, Jr., Chief of the 
Programs Management Division, Directorate of Civil Works.
    My statement covers the following subjects: the Fiscal Year 2001 
Civil Works Program, the Harbor Services Fund Proposal, New Initiatives 
in the Army Civil Works Program, Other New Civil Works Investments, and 
Highlights of the fiscal year 2001 Continuing Program.

                  FISCAL YEAR 2001 CIVIL WORKS PROGRAM

    The President's budget for the Army Civil Works program for fiscal 
year 2001 includes nearly $4.1 billion in the discretionary program, 
comparable to the amount appropriated for the program in fiscal year 
2000 and $160 million above last year's budget proposal. Details are 
presented in Table A.
    Last year I began by stating that Civil Works programs and policy 
must be based on strong partnerships with states and local communities 
as well as among federal agencies. We worked hard to build those 
partnerships, and the commitment of our non-Federal sponsors to cost 
share Civil Works projects demonstrates the strong support our program 
has across the country. With the non-Federal contributions and other 
sources, the total fiscal year 2001 funding for the Army Civil Works 
program is nearly $4.5 billion.
    I remain committed to ensuring responsive and timely allocation of 
our resources to meet the Nation's needs. I look forward to working 
with both Houses of Congress to make this happen.

                    ARMY CIVIL WORKS NEW INITIATIVES

    The Fiscal Year 2001 Civil Works program includes funding for three 
initiatives: Comprehensive River Basin Planning; Recreation 
Modernization; and Riverine Ecosystem Restoration and Flood Hazard 
Mitigation.

Comprehensive River Basin Planning
    The first is an initiative that I strongly support and the Nation 
sorely needs. It has been nearly 20 years since the last major effort 
was initiated to understand and assess the complex relationships among 
various water resources problems and opportunities. On a river-basin 
wide basis, the Federal Government needs a comprehensive approach to 
water resources to work effectively with states, counties, tribes, and 
river basin authorities in assessing today's competing water uses.
    The Army Civil Works fiscal year 2001 budget commits $2 million to 
initiate four broad river basin studies. These studies, which will be 
carried out in coordination with other federal agencies and regional 
stakeholders, will adopt a holistic approach and include multi-
jurisdictional and trans-national considerations in resolving water 
resources issues. Two of these, the Rio Grande River Basin and the 
White River Basin in Arkansas, would proceed under the authority of 
section 729 of the Water Resources Development Act (WRDA) of 1986. The 
other two, the Yellowstone River Basin, Montana, and the Missouri and 
Middle Mississippi River Basins, would proceed under specific 
authorizations.

Recreation Modernization
    I am also pleased to announce that we will invest construction 
dollars in an area long-overlooked our Nation's recreation areas. The 
Corps of Engineers is responsible for 4,340 recreation areas at 456 
lakes in 42 states. These recreation areas host 377 million visitors 
annually.
    The Civil Works fiscal year 2001 budget includes $27 million to 
initiate the Recreation Modernization Program. Under this program, we 
will replace or rehabilitate facilities at some of the 2,389 recreation 
areas that the Corps of Engineers manages directly. Most of the 
facilities at Corps managed recreation areas were constructed in the 
1960s and 1970s. The combination of heavy use, lack of routine 
maintenance, and changes in visitor needs has caused significant 
deterioration of recreation facilities and the natural resource base at 
some of our lakes.
    The $27 million in the fiscal year 2001 budget will begin to 
implement this program. We hope to modernize many of the Corps managed 
recreation areas over the next 5 to 10 years. These improvements 
include upgrading facilities, installing more family oriented 
facilities, and improving general access to water-related recreation 
opportunities.

Riverine Ecosystem Restoration and Flood Hazard Mitigation
    I am also pleased to tell you that this year's budget includes $20 
million to initiate the Challenge 21 Riverine Ecosystem Restoration and 
Flood Hazard Mitigation Program authorized by WRDA 1999. This 
initiative expands the use of nonstructural flood hazard mitigation 
measures and restoration of riverine ecosystems to allow natural 
moderation of floods and provide other benefits to communities and the 
environment. Challenge 21 will create partnerships with communities and 
create a framework for more effective coordination with key agencies to 
develop comprehensive flood damage reduction solutions, while restoring 
natural values of flood plains and wetlands.

                         NEW INVESTMENT PROGRAM

    The fiscal year 2001 budget for the Army Civil Works includes $82 
million for new investments with a total cost of $1.6 billion. Of that, 
$412 million will be financed directly by non-Federal sponsors 
(including lands, easements, rights-of-way, and relocations). The 
Federal share is $1.2 billion. Details are presented in Table B.
    The fiscal year 2001 budget includes four new surveys, one special 
study, one new Preconstruction Engineering and Design (PED) start, four 
comprehensive studies, the three new programs that I have discussed, 
and 12 new construction starts. The new construction starts include:
  --2 environmental restoration projects;
  --2 commercial navigation projects;
  --4 flood damage reduction projects;
  --1 shore protection of critical environmental resources;
  --2 major rehabilitation projects, and
  --1 deficiency correction.

                     HARBOR SERVICES FUND PROPOSAL

    Like last year, a significant portion of the Civil Works budget is 
based on enactment of the proposed Harbor Services User Fee legislation 
that was transmitted to Congress. This new user fee would replace the 
Harbor Maintenance Tax (HMT), a portion of which was found 
unconstitutional. The HMT has also been the subject of questions raised 
by U.S. trading partners regarding claims that it violates the General 
Agreement on Tariffs and Trade. This fee would collect about the same 
total amount of revenue as would have been collected under the HMT 
prior to the Supreme Court's decision.
    The new user fees would make up $950 million of the fiscal year 
2001 Budget ($700 million for maintenance and $250 million for 
construction) and would enable commercial harbor and channel work to 
proceed on optimal schedules. I urge you to enact legislation to 
replace the Harbor Maintenance Tax with the Harbor Services User Fee.

         HIGHLIGHTS OF THE FISCAL YEAR 2001 CONTINUING PROGRAM

    The Army continues to be committed to the Civil Works missions of 
navigation and flood damage reduction. Other missions that contribute 
net economic benefits to the Nation are investments in hydropower, 
water supply, shore protection and recreation. In recent years, the 
Army's Civil Works responsibilities increasingly have expanded to 
include the restoration of the environment, with particular emphasis on 
restoring aquatic and wetland ecosystems.
    Environmental programs make up about 18.2 percent of the fiscal 
year 2001 Army Civil Works budget, or more than $740 million. This 
includes $125 million for the Regulatory Program; $140 million for the 
Formerly Utilized Sites Remedial Action Program; $91 million for the 
Columbia River Fish Mitigation program in the Pacific Northwest; and 
$158 million to restore, preserve and protect the Everglades and South 
Florida ecosystem. Also included are $28 million to fund the 
environmental restoration continuing authorities programs.
General Investigations
    The budget for the Civil Works study program is $138 million, $3 
million more than last year's request. Overall, the level of funding we 
propose for the General Investigations account is consistent with our 
plan to stabilize the Civil Works budget in the future. There is a 
large amount of construction work waiting for funding--more than the 
funds we can reasonably expect in the future. The study program feeds 
this pipeline of construction work. This budget keeps project study 
funding at a lower level, in order to reduce the backlog of potential 
construction projects that are beyond our capacity to budget within a 
reasonable time frame. Once the backlog of costly projects is worked 
down somewhat, then we expect to resume funding for studies at a higher 
level.
    We believe that keeping study funding at this level is the right 
thing to do for our local sponsors, who expect timely construction of 
projects, once studies are completed and the projects are authorized.
    We are also requesting a $6.6 million supplemental appropriation to 
conduct studies of an outlet for Devil's Lake, North Dakota, as well as 
$1.5 million to study the feasibility of a flood damage reduction 
project for Princeville, North Carolina.
Construction, General
    The fiscal year 2001 budget for the Civil Works Construction, 
General program is $1.346 billion, of which $1.268 billion is for the 
continuing program. Of the total, $250 million would be derived from 
the proposed Harbor Services Fund, allowing port related projects to 
proceed at optimal rates. This will enhance the competitiveness of our 
Nation's ports and harbors.
    Continuing construction of inland waterway, flood damage reduction 
and other projects is budgeted at a level that will, on average, result 
in completion of projects on about the same schedules as proposed in 
last year's budget.
    South Florida Ecosystem Restoration.--The Everglades is an 
ecosystem of international importance. It is also one that has 
dramatically deteriorated since the turn of the 20th Century. It is 
very important that we aggressively restoring this treasure that is so 
important to the Nation. Construction funding for the projects that 
will restore the Everglades and South Florida ecosystem is $135 
million. This amount includes $90 million for the Central and Southern 
Florida project to continue construction work at West Palm Beach Canal, 
South Dade County, and manatee pass-through gates, as well as planning, 
engineering and design work on the Comprehensive Restoration Plan, also 
known as the ``Restudy''; $20 million to continue construction on the 
Kissimmee River Restoration project; and $20 million for critical 
restoration projects authorized under the Everglades and South Florida 
Ecosystem Restoration program. Of the overall amount for Everglades 
restoration, $5 million is included in the new investment program to 
initiate construction of the Hillsboro and Okeechobee Aquifer Storage 
and Recovery pilot project to demonstrate aquifer storage and recovery 
technology.
    Columbia River Basin Fish Mitigation.--The budget includes $91 
million for Corps construction activities associated with Columbia 
River Fish Mitigation at 8 Corps dams on the Columbia and Snake rivers 
and to continue the mitigation analysis which evaluates additional 
measures to increase fish survival at those dams. This includes $41 
million for studies of surface bypass facilities, turbine passage, gas 
abatement, adult passage, spillway survival, and Lower Columbia 
configuration.
    Continuing Authorities Program.--The budget includes $72 million 
for a full program of continuing and new work under the 9 activities in 
the Continuing Authorities Program. This amount includes $2.5 million 
for beach erosion control projects (Section 103), $9 million for 
emergency streambank and shoreline protection projects (Section 14), 
$25 million for flood damage reduction projects (Section 205), $0.3 
million for navigation mitigation projects (Section 111), $7 million 
for navigation projects (Section 107), $0.2 million for snagging and 
clearing projects (Section 208), $10 million for aquatic ecosystem 
restoration (Section 206), $14 million for project modifications for 
improvement of the environment (Section 1135), and $4 million for 
beneficial uses of dredged material (Section 204).
Operation and Maintenance, General
    The overall funding for the Operation and Maintenance, General, 
account is at a healthy level: $1.85 billion, $18 million more than 
last year's request and equal to the fiscal year 2000 appropriation. 
This demonstrates the Administration's commitment to maintaining the 
Corps' existing infrastructure, much of which is aging and requires 
greater upkeep. Of the $1.85 billion, $700 million would be derived 
from the Harbor Services Fund. In addition to these funds, operation 
and maintenance of hydropower facilities in the Pacific Northwest will 
be directly financed by a transfer of approximately $108 million from 
Bonneville Power Administration revenues, pursuant to an agreement 
signed three years ago.
    We are also requesting a $19.2 million emergency supplemental 
appropriation for fiscal year 2000 for emergency dredging and repairs 
to Corps projects along the Atlantic seaboard that sustained hurricane 
damage.
Flood Control, Mississippi River and Tributaries (MR&T)
    The Army is pleased that the fiscal year 2001 budget for the MR&T 
account is at the same level of funding as that provided by Congress 
for fiscal year 2000. Within the total, there are some differences in 
proposed allocation of these funds. The fiscal year 2001 budget 
emphasizes main stem Mississippi River flood protection in the 
Atchafalaya River basin. No funding is provided to continue the 
Demonstration Erosion Control program. The Administration believes this 
program has fulfilled its purpose and should be discontinued. Any 
further streambank erosion control projects should be a local 
responsibility. Within the MR&T program, the allocation was reduced for 
work on those projects that primarily involve the drainage of wetlands 
to increase the production of surplus crops, particularly where 
lawsuits and continuing environmental studies have resulted in a hiatus 
on scheduled activities.
Regulatory Program
    The Army Civil Works Regulatory Program is funded at $125 million 
to ensure that we continue to provide effective and equitable 
regulation of the Nation's wetlands. Through the Regulatory Program, 
the Army is committed to serving the public in a fair and reasonable 
manner while ensuring the protection of the aquatic environment, as 
required by laws and regulations. In fiscal year 1999, the Regulatory 
Program authorized over 90,000 activities in writing, the most in any 
year, and over 90 percent of all actions were authorized in less than 
60 days. Under the President's budget, this level of service is 
maintained. Regional and nationwide general permits help streamline the 
regulatory process. By the end of fiscal year 2000, we will have 
established a full administrative appeals process that will allow the 
public to challenge permit decisions and jurisdiction determinations 
without costly, time-consuming litigation.
    Under the Regulatory Program, we are also active in the preparation 
of Special Area Management Plans (SAMPs) to address development in 
environmentally sensitive areas. In particular, the Corps has been 
asked to chair a task force to work with the Environmental Protection 
Agency and Riverside County, California in the development, funding, 
and implementation of a SAMP for the Santa Margarita and San Jacinto 
watersheds.
    Again this year, we are proposing to undertake a revision to the 
Regulatory User Fee, which has not changed since 1977. We ask the 
Subcommittee's support for this effort.
Formerly Utilized Sites Remedial Action Program (FUSRAP)
    FUSRAP is an environmental cleanup program that was transferred by 
Congress from the Department of Energy to the Army in fiscal year 1998. 
We are continuing the implementation of needed clean-up of contaminated 
sites. This year's budget includes $140 million in new appropriations 
for this program. This amount will be supplemented by approximately $10 
million from a Potentially Responsible Party settlement reached at one 
site.
Flood control and Coastal Emergencies (FCCE)
    No new funding is requested for the FCCE program for fiscal year 
2001. Sufficient carry over funding remains from prior year 
appropriations to finance the normal costs of emergency planning and 
preparation.

                               CONCLUSION

    In summary, the President's fiscal year 2001 budget for the Army 
Civil Works program is a good one. It demonstrates commitment to Civil 
Works with a strong program of new construction; a plan to solve the 
constitutional problem with the existing Harbor Maintenance Tax; 
maintenance of existing infrastructure; continuing support for 
historical Civil Works missions; and increased reliance on the Army 
Corps of Engineers' environmental restoration expertise. Thank you.

                                   TABLE A--DEPARTMENT OF THE ARMY CORPS OF ENGINEERS CIVIL WORKS FISCAL YEAR 2001 DIRECT PROGRAM PRESIDENT'S PROGRAM FUNDING
                                                                                    [In thousands of dollars]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                          Fund
                                                       -----------------------------------------------------------------------------------------------------------------------------------------
                                                                          Special                               Trust                       General
                                                       ------------------------------------------------------------------------------------------------------                Trust
                        Program                                                                                              Sd                                 Transfer     Rivers
                                                                                  Permit    Rcrtn     Coastal             trrstrl                                Bnnvll       and        Total
                                                           Harbor     Permanent   applctn    user    wetlands    Inland    wldlf   Ultimate \4\  Initial \5\     Power      harbors
                                                        services \1\  apprprtns  fees \2\    fees   rstrtn \3\  waterway    hbtt                              Administrtn   cntrbtns
                                                                                                                           rstrtn
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
COMBINED (discretionary and mandatory):
    DEFENSE: Formerly Utilized Sites Remedial Action    ............  .........  ........  .......  ..........  ........  .......      140,000       140,000  ...........  .........     140,000
     Program..........................................
    DOMESTIC:
        General Investigations........................  ............  .........  ........  .......  ..........  ........  .......      137,700       137,700  ...........     44,000     181,700
        Construction, General.........................     250,000    .........  ........  .......  ..........    74,000  .......    1,022,000     1,346,000  ...........    153,000   1,499,000
        Operation and Maintenance, General............     700,000    .........  ........   35,700  ..........  ........  .......    1,118,300     1,854,000     108,000       8,000   1,970,000
        Flood Control, Mississippi River and            ............  .........  ........  .......  ..........  ........  .......      309,000       309,000  ...........     45,000     354,000
         Tributaries Project..........................
        Regulatory Program............................  ............  .........  ........  .......  ..........  ........  .......      125,000       125,000  ...........  .........     125,000
        General Expenses..............................  ............  .........  ........  .......  ..........  ........  .......      152,000       152,000  ...........  .........     152,000
        Flood Control and Coastal Emergencies.........  ............  .........  ........  .......  ..........  ........  .......  ............  ...........  ...........  .........  ..........
        Revolving Fund................................  ............  .........  ........  .......  ..........  ........  .......  ............  ...........  ...........  .........  ..........
        Permanent Appropriations......................  ............    16,000   ........  .......  ..........  ........  .......  ............  ...........  ...........  .........      16,000
        Coastal Wetlands Restoration..................  ............  .........  ........  .......     55,000   ........  .......  ............  ...........  ...........      9,000      11,000
        South Dakota Terrestrial Wildlife Habitat       ............  .........  ........  .......  ..........  ........   10,000  ............  ...........  ...........  .........      10,000
         Restoration..................................
                                                       -----------------------------------------------------------------------------------------------------------------------------------------
        ALL...........................................     950,000      16,000   ........   35,700     55,000     74,000   10,000    3,004,000     4,063,700     108,000     251,000   4,458,700
          DISCRETIONARY...............................  ............  .........  ........  .......  ..........  ........  .......    3,004,000     3,004,000  ...........  .........   3,004,000
          MANDATORY...................................     950,000      16,000   ........   35,700     55,000     74,000   10,000  ............    1,069,700     108,000     251,000  1,454,700
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Proposed special fund to replace Harbor Maintenance Trust Fund.
\2\ Proposed fees for processing permit applications, to be paid to General Fund receipt account, not available to Corps.
\3\ Total for interagency task force; Corps' piece is reflected under ``Total.''
\4\ Net direct Congressional appropriation after reimbursement from mandatory ``Special'' and ``Trust'' funds, as applicable.
\5\ Direct Congressional appropriation. The total for all accounts comes from the General Fund, initially. Ultimately, it is reimbursed from mandatory accounts in the amount shown opposite
  ``Mandatory.''

  [GRAPHIC] [TIFF OMITTED] T10MA21.001
  
                      STATEMENT OF JOE N. BALLARD

    Senator Domenici. Thank you, very much, Mr. Secretary. 
General Ballard, we welcome your testimony. Your written 
remarks will be made a part of the record as you read them. 
Proceed as you see fit.
    General Ballard. Thank you, Mr. Chairman, Senator Byrd. I'm 
honored to testify on the President's fiscal year 2001 budget 
for the Civil Works Program.
    Senator Domenici. Just one moment. Senator Burns, did you 
want to make any remarks.
    Senator Burns. I think we ought to complete the statements 
and I'll submit my points I want to make. I think we should 
hear their testimony. Thank you very much.
    Senator Domenici. Please proceed, General.
    General Ballard. Mr. Chairman, I'm honored to testify on 
the President's fiscal year 2001 budget for the Civil Works 
program. As you noted, this is my last appearance before you as 
the Chief of Engineers and I very much appreciate your very 
kind remarks.
    Leading the Corps has been an inspirational experience as 
well as a rewarding personal and professional challenge. I take 
great pride in the results of our work with this Committee to 
ensure the Civil Works program remains strong, balanced, 
responsive and highly productive. Until my watch is over, 
however, I will continue to work with you to that end and I 
look forward to your continued partnership in this great 
program. My complete statement will cover three topics: the 
summary of the Civil Works program budget, reducing the Corps 
maintenance backlog, and I'll have some comments on meeting the 
Nation's water and related land resources management needs. And 
with your permission, I will submit this statement for the 
record.
    I would like to talk to you today about some significant 
challenges in water resource management and I will also address 
the recent media coverage on the Corps' work.

           MEETING THE NATION'S WATER AND LAND RESOURCE NEEDS

    First, a few words about the challenge of meeting the 
Nation's water and related land resource management needs. 
Public concerns about water resource investments continually 
change and, as a result, national needs and priorities must 
also be continually reevaluated to ensure that we provide the 
best possible service to the Nation. And we're examining 
national needs and priorities for water and land resource 
solutions.
    But based on our current assessment, we have identified 
five significant challenges that are currently facing the 
Nation. And these are navigation, which deals with the 
capacity, the efficiency, and the volumes needed in the 
national marine transportation system; flood protection, 
dealing with continued development of flood plains and coastal 
planes and coastline erosions; environmental management, 
dealing with restoration of habitat, especially protection of 
wetlands; wetland--I mean, infrastructure renovation, which is 
maintaining the Nation's water management infrastructure, 
including recreation facilities and the effects of global 
climate change; and disaster response assistance, dealing with 
increased severity and frequency of national disasters.
    We must meet these challenges in order to preserve and 
promote our future national welfare. And to that end, I believe 
that we need to carefully evaluate our level of investment in 
water resource management. We need to invest in improving our 
water resource infrastructure, many parts which have outlasted 
their 50-year design lives.
    Now, this comes at a time when national need for their 
continued benefits are growing and we need to meet new 
challenges for water resource management brought about by 
increasing trade, population and population shifts and 
environmental values. We need to invest, in addition to our 
water resource infrastructure, to the extent that improving 
existing infrastructure will not meet national needs. We also 
need to better manage existing infrastructure, where to invest 
and how to decide which facilities have outlived their 
usefulness.

                      MEDIA COVERAGE OF THE CORPS

    Now, to address very quickly some recent media coverage of 
the Corps. First, the allegation that I or members of my 
command are trying to grow the Corps with respect to the number 
of employees is absolutely ludicrous. For one thing, the Civil 
Works Program work force is only 24,000 strong, not 37,000 as 
implied by the media.
    More importantly, over the past 4 years, we have reduced 
the size of the organization by nearly 10 percent while 
streamlining and improving our business processes. We have 
pursued our mission to address the Nation's growing water 
resource management needs in an environment of deliberate 
downsizing. The Nation's work load for our mission is certainly 
growing, but we are not.
    Next, there are allegations of wrong-doing in the Upper 
Mississippi and the Illinois Navigation Studies. These 
allegations are very troubling to me, as they challenge the 
fundamental value of the Corps of Engineers to the Nation. The 
foundation for that value is trust in our absolute integrity to 
provide the Administration and the Congress with water resource 
investment recommendations that are unbiased and technically 
sound.
    Now, while the widely published allegations and the media 
reports attempt to erode that foundation, I know beyond a doubt 
that your trust has not been misplaced. I, therefore, welcome 
and will fully support all independent outside investigations 
of the allegations and any review of our processes. I will take 
prompt corrective action if wrongdoing is discovered and will 
make improvement in our processes, if warranted.
    However, I assure you that when all the facts are in, you 
will see that there is no need to do either and that your 
traditional trust in the Corps remains as always, very well-
founded.
    Now, let me explain the reasons for my confidence. First of 
all, I believe in the professionalism and dedication of the 
Corps team and have great trust in my leaders. Additionally, 
our planning processes provide for multiple reviews to ensure 
objectivity. And these include independent technical reviews, a 
minimum of two formal public reviews, Washington-level policy 
review, State and agency coordination requirements and, 
finally, the review by the Executive Branch under Executive 
Order 12322.
    Notably, for the study in question, the draft report has 
not yet been completed, much less undergone these reviews. As a 
rule, there are no easy, clear-cut answers to the complex 
issues we face in water resource management.
    Technical experts often disagree on specifics. 
Nevertheless, our planning process ensures that all sides of 
any technical disagreement are competently analyzed and 
subjected to proper peer, public and policy reviews. And 
ultimately, after full and open debate, balanced professional 
judgment must enter the process.
    And dealing with technical disagreement is the role of our 
field commanders. They must make tough decisions on whether to 
recommend investments in a project, often in the face of 
strongly held opposing views. Our processes ensure that all 
interests are heard and that final recommendations are 
unbiased, based on the best science available and in the public 
interest.
    In our business, invariably there is an interest group that 
is opposed to some aspect of our work. However, the 
accommodation and fairness of the Corps' planning process 
delivers recommendations that address the national interest 
based on sound engineering judgment. And for these reasons, I'm 
sure you will find the integrity of our process and of the 
leaders who guide it to be indisputable.

                UPPER MISSISSIPPI RIVER NAVIGATION STUDY

    Now, let me take a few minutes to report on the status of 
activity related to the Upper Mississippi River Navigation 
Study. There have been two significant intentional reviews.
    Senator Domenici. General, do you have the project 
development flow chart?
    General Ballard. I have the chart, sir.
    Senator Domenici. Do you have it over here? Why don't you 
put it up. This is the project development process, right?
    [The chart follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    General Ballard. That is the process, Senator.
    Senator Burns. Let the rest of us see it.
    Senator Domenici. You all don't mind in the audience if we 
look at it, do you? There you go.
    General Ballard. Bring it closer and I'll just talk off of 
it. I'll just deviate just for a second from my statement so I 
can explain this chart to everyone.
    Inside of the box there, is where we are with this study. 
We're in the feasibility portion of it. The large white arrow 
points out that we're in the study phase. What is important 
here is that we have not really had the appropriate oversight 
reviews that normally accrue to the public. And I'm talking 
about the public review process, the agency coordination or 
anything of that nature.
    We're in the preliminary stage. We are scheduled to 
submit--to complete a draft of this study in December of this 
year. The bottom line is, we're just starting this process. The 
dialogue is just beginning. So the comments that we have 
received from the media regarding ``cooking the books'' and all 
the other things that you read is definitely premature. We're 
not there yet.
    Senator Domenici. General, you meant by your statement 
that--you didn't mean that we have not done the public input. 
You meant that the time has not yet arrived according to the 
process and it's still to be done?
    General Ballard. The public comment, once we address the 
report, is still to be done. Thank you, sir, for correcting me. 
We have received public input to this process.
    Senator Domenici. But there will be a chance for more, 
won't there?
    General Ballard. Yes, sir.
    Senator Domenici. If people are wondering what you're 
doing----
    General Ballard. We will have a chance to submit this for 
agency review, we will have at least two more opportunities for 
public comment as we move to point those out. After the draft 
report is out, that next dark black arrow there, we will have a 
period of public review. We're scheduled to have the final 
report out by December of this year. And after that, we will 
release it again to the public one more time and we will 
release it to State and agency reviews.
    Senator Domenici. One more time.
    General Ballard. Yes, one more time. And we are projected 
to have a final Chief's Report by February 2001. Then it goes 
from me to the ASACW office for Administration review. And then 
finally to OMB for clearance and review before it is submitted 
to the Congress. So as you can see, if I can quickly count 
that, after we address, there are one, two, three, four, five 
more opportunities for public review and input by others.
    Senator Domenici. We're going to make this one part of the 
record. We can't put that one in.

                       ALLEGATIONS FOR WRONGDOING

    General Ballard. Yes, sir. In addition to the clarification 
on the review process, there have been some allegations of 
wrongdoing by some of our employees and I've directed an 
internal investigation according to my authority to take a look 
at that. The investigation is complete and I can submit that 
for the record if you desire. And we found no misconduct.
    There are several external investigations and reviews that 
are in process. The Office of Special Counsel [OSC] requested 
that the Secretary of Defense investigate the allegation and 
report the finding back to OSC. This investigation is being 
done by the Army Inspector General and we are providing 
information requested by the Army Inspector General in support 
of his investigations and we're scheduled to meet with him and 
provide some additional answers.
    In addition, the Survey and Investigations staff of the 
House Committee on Appropriations has begun its investigation. 
We have met with the staff, provided information and documents 
requested, and we remain committed to fully supporting it 
throughout the investigation.
    Finally, the Secretary of the Army has directed that an 
independent assessment be made of the economics of the study. 
The bottom line is, sir, I'm convinced that the findings of 
these investigations will confirm that our planning process and 
execution of that process are fundamentally sound.
    In conclusion, we need to invest in water resource 
management infrastructure to meet the challenges based on 
national needs. And through a deliberate streamlining and 
improvement of our business processes and downsizing of our 
work force, we continue to maximize actual and potential values 
of our organization to the Civil Works program, to the Army, 
and to the Nation.
    And finally, we are pursuing this mission with the utmost 
professionalism and integrity. And I'm confident that our 
planning process and the judgment of our leaders are sound and 
will yield balanced recommendations for wise water resource 
investments.

                           PREPARED STATEMENT

    Thank you very much, Mr. Chairman, and members of the 
Committee. This concludes my statement.
    [The statement follows:]

            Prepared Statement of Lt. General Joe N. Ballard

    Mr. Chairman and members of the subcommittee: I am honored to be 
testifying on the President's fiscal year 2001 (fiscal year 2001) 
Budget for the Civil Works Program. This is my last of four appearances 
before you as Chief of Engineers. Leading the Corps has been an 
inspirational and rewarding challenge for me personally and 
professionally. I take great pride in results of our work together to 
ensure that the Civil Works Program remains strong, balanced, 
responsive, and highly productive. Until my watch is over, I will 
continue to work with you to that end, and look forward to your 
continued partnership in this fine program, so broadly beneficial to 
our nation.
    In this, my final statement, I will depart from the usual practice 
of presenting details on such things as the budget, program execution, 
organizational restructuring, and improvement of business systems and 
operations, to focus on significant challenges for the nation in water 
and related land resources management, which I feel the Corps is 
eminently qualified to address. I will say just a few words about the 
budget and reducing the Corps' maintenance backlog, then devote the 
balance of my testimony to an assessment of national water and related 
land resources management needs. Accordingly, my statement covers just 
these three topics: Summary of the Civil Works Program Budget; Reducing 
the Corps' Maintenance Backlog; and Meeting the Nation's Water and 
Related Land Resources Management Needs.

                 SUMMARY OF CIVIL WORKS PROGRAM BUDGET

    This is a good budget. New funding for the Civil Works Program, 
including the Direct and Reimbursed programs, is expected to approach 
$5.20 billion.
    Direct Program funding, including discretionary and mandatory 
amounts appropriated directly to the Corps, totals $4.46 billion. 
Discretionary amounts total $4.06 billion; mandatory amounts total $395 
million.
    Reimbursed Program funding is projected to be $700 million.

                             DIRECT PROGRAM

    The proposed budget reflects the Administration's commitment to 
continued sound development and management of the nation's water and 
related land resources. It provides for continued efficient operation 
of the nation's navigation, flood protection, and other water resource 
management infrastructure, fair regulation of the nation's wetlands, 
and restoration of the nation's important environmental resources, such 
as the Florida Everglades. It is supported by a proposal to establish a 
Harbor Services User Fee (HSUF) and Harbor Services Fund (HSF) to fund 
the federal share of construction as well as operation and maintenance 
cost of our harbors and ports. Lastly, it is consistent with the 
President's overall domestic priorities and continued commitment to a 
balanced budget.
    The budget provides for continued funding of nearly all studies and 
projects underway, including many started in fiscal year 2000. It also 
provides for funding of new starts under the General Investigations 
(GI) and Construction, General (CG), programs.

                           REIMBURSED PROGRAM

    Through the Interagency and Intergovernmental Support Program we 
help non-DOD federal agencies, States, and other countries with timely, 
cost-effective implementation of their programs, while maintaining and 
enhancing capabilities for execution of our Civil and Military Program 
missions. These customers rely on our extensive capabilities, 
experience, and successful track record. The work is principally 
technical oversight and management of engineering, environmental, and 
construction contracts performed by private sector firms, and is fully 
funded by the customers.
    Currently, we provide reimbursable support for about 60 other 
federal agencies and several State and local governments. Total 
reimbursement for such work in fiscal year 2001 is projected to be $700 
million. The largest share--nearly $270 million--is expected from the 
Environmental Protection Agency (EPA) for cleanup of wastes at numerous 
sites under its Superfund program. 90 percent of Reimbursed Program 
funding is provided by other federal agencies.

                  REDUCING CORPS' MAINTENANCE BACKLOG

    Our fiscal year 2001 budget request for $1.854 billion matches the 
amount appropriated for fiscal year 2000. In the short term, despite 
level funding, we will be able to sustain customer services. However, 
in the long term, given the vast and aging infrastructure needing 
attention and care, this becomes increasingly difficult. As stewards of 
a diverse and widespread complex of water and related land resources 
management facilities, the Corps must do its best to preserve the 
nation's investment and ensure the continued flow of intended benefits. 
Toward that end, I have recently completed a comprehensive review of 
the O&M program, as explained below.
    Over the past year, I conducted an in-depth review of the O&M 
program. I spent a full day with each of my eight division commanders, 
along with their district commanders, covering every aspect of the O&M 
program. My purpose was to instill heightened interest in making this 
program as efficient and effective as possible, and to ensure that my 
commanders are fully engaged to that end. As a result, we are pursuing 
improvements throughout the program. For example, we are reviewing our 
inventory of property and equipment to determine the minimum required 
for mission accomplishment. We have compiled a list of over 300 
examples of cost-saving measures, resulting in $124 million in annual 
savings and $24 million in one-time savings. These examples have been 
publicized throughout the Corps, so that everyone might apply them to 
his/her own situation. Division and district commanders are continually 
reviewing their programs to determine best business practices to be 
employed in responding to the ever-changing marketplace.
    Improving the O&M program is not a one-time effort. It is a 
continuing commitment that will challenge the entire organization. 
Everyone involved in the O&M program will be looking for better ways to 
provide public services and products at least cost. The Corps' 
dedicated workforce takes pride in carrying out its stewardship 
responsibilities. It is up to this challenge and will continue to do 
its best.
    Notwithstanding these efforts, we still face a growing O&M backlog. 
We are making a concerted effort to identify the highest priority 
backlog and concentrate available resources on addressing the most 
critical needs. Improved program execution is helping. In fiscal year 
1999, we succeeded in reducing the unexpended carryover by $110 
million, and applied a good portion of this toward the backlog. 
Nevertheless, we now estimate that required funding for our highest 
priority backlog will be about $450 million in fiscal year 2001--up 
from $329 million in fiscal year 2000. I will continue to do all I can 
to make the O&M program as efficient as possible, and look forward to 
continued support of this committee in our endeavor to reverse the O&M 
backlog growth.

   MEETING NATION'S WATER AND RELATED LAND RESOURCES MANAGEMENT NEEDS
             CORPS' HISTORIC ROLE IN SERVICE TO THE NATION

    The Army Corps of Engineers began its distinguished public service 
in the New England Provincial Army, before our nation existed, with 
construction of fortifications for the Battle of Bunker Hill in 1775. 
Since then, for more than 225 years, the Corps has responded ably to 
the Army's and nation's needs.
    Throughout this period, the mission of the Corps has evolved from 
military only to both civil and military. What began as a military 
mission in birth of the nation in the 18th century grew into civil and 
military missions of building and preserving the nation in the 19th 
century. We mapped the frontier and laid out roads, canals, and 
railroads for westward expansion. We aided national commerce through 
development of a vast navigation system of coastal and inland channels, 
ports, and harbors. We initiated development of the first national 
parks. We built many public buildings of the nation's capital, 
including the Capitol. We also assisted in preserving the Union. In the 
20th century, we built the daunting Panama Canal, after others had 
failed. More importantly, based on our performance over the years, the 
Administration and Congress expanded both the civil and military 
missions dramatically.
    Civil Works project purposes included flood, hurricane, and shore 
erosion protection; water and related land environmental management; 
hydropower generation; water-based recreation; municipal and industrial 
water supply; irrigation; hazardous and toxic waste cleanup; and 
technical support for other federal agencies, States, and other 
nations. As a result of these and earlier duties, our water and related 
land management infrastructure has grown to include over 400 multi-
purpose reservoirs, 12,000 miles of navigation channels, hundreds of 
ports and harbors, and 11.6 million acres of land.
    As our national needs and priorities have changed, the Corps has 
been at the leading edge to meet them.
    We have increasingly focused on developing and honing our project 
management expertise. Concurrently, we have contracted with private 
sector architectural, engineering, and construction firms to accomplish 
our work, until, now, much of our design and all of our construction 
are done by such firms. Contracting gives us ready access to a force 
much larger than our own to accomplish our mission, resulting in the 
so-called force multiplication effect. Given that we can leverage civil 
program assets in support of our military mission, this effect, already 
available to our military program, can be doubled for execution of our 
military mission. For example, during the Persian Gulf War, we employed 
readily available force-multiplied assets from the civil program to 
assist U.S. forces. This enhanced our nation's readiness, 
responsiveness, effectiveness, and efficiency in the ``mother of all 
battles,'' won by the allies in 100 hours, and remains a powerful 
strength for future service to the Army, federal government, our 
nation, and other nations.
    Always, we have striven to stay at the leading edge in service to 
the Army, federal government, and our nation.
    Success in meeting our challenge depends principally upon our 
business operations. In recognition of this, we have improved our 
business processes for more responsive, expeditious, and productive 
performance. Additionally, we have improved partnerships with project 
sponsors and partnering with all stakeholders in project execution. 
These improvements are the foundation of our recently fielded project 
management business process, providing an orderly, logical, and 
reasoned approach to managing projects to meet the nation's water and 
related land resource management needs. Finally, we remain vigilant for 
and eager to explore other improvement opportunities.
    To facilitate improved business operations, we have restructured 
our organization at all levels to provide for more pertinent, flexible, 
and timely operations resourcing. Concurrently, we have tailored our 
resources to workload and eliminated surpluses, downsizing our 
workforce by over 16 percent since 1993. In addition to promoting 
improved operations, this has reduced our cost of doing business. Our 
goal has been, and remains, to stay fit for and in step with our 
nation's future.
    As we enter the 21st century, we envision that the Corps will 
continue in its longstanding and exemplary leadership role as the 
nation's problem solver.

                     CURRENT CIVIL PROGRAM MISSION

    The goal of our Civil Program is to contribute to the welfare of 
our nation by providing, in partnership with customers, desired goods 
and services of highest quality, designed to be economic, technically 
sound, and environmentally sustainable. We do this through:
  --formulation, development, and operation of facilities and practices 
        for management of the nation's water and related land resources 
        (including protection, restoration, and management of 
        environment resources);
  --administration of water resources management programs (including 
        resource use regulation, hazardous waste cleanup, and 
        assistance with natural disaster response and recovery); and
  --engineering and technical services for other federal agencies and 
        States.
    The Civil Program is prosecuted through subordinate programs 
established expressly for accomplishment of distinct phases of work, 
such as investigation, construction, and operation and maintenance. 
These programs are designed to address needs of all purposes 
thoroughly, fairly, and timely. They are executed by a talented team of 
multidisciplinary staff specialists and private sector contractors. 
This team develops comprehensive perspectives across technical, 
socioeconomic, cultural, political, geographic, and environmental 
boundaries, in examination and recommendation of solutions to problems 
in all phases of our work.
    We address all relevant purposes within appropriate ``frameworks'' 
in a multiojective trade-off process, ensuring optimum multipurpose 
solutions. The frameworks include regions, watersheds, coastal zones, 
and ecosystems. Our many partners participate in this process. They 
include customers; other stakeholders such as local, State, and federal 
agencies; and the general public. As a result, competing goals of many 
interests are balanced without bias to satisfy needs and desires of 
multiple constituencies for a wide variety of water and related land 
resource management goods and services that contribute directly to the 
national welfare.
    In light of the broad responsibility entrusted to us by the 
Administration and Congress for national water and related land 
resources management the breadth and depth of our experience in 
executing that responsibility, and national needs for water and related 
land resources management as we enter the new century, we feel obliged 
to present the following assessment.

                            NATIONAL TRENDS

    Throughout its history, our Civil Works Program has been affected 
by external forces. The most important of these have been, and continue 
to be, customer demands for goods and services and taxpayer concern 
that investment in such goods and services be advisable. Our customers 
include direct beneficiaries of our projects, most of whom are cost-
sharing partners. Taxpayers include the general public and taxpayer 
advocates. For our program to remain a relevant and viable contributor 
to national welfare, we must remain sensitive to these forces, 
continually reorienting, rescoping, and refocusing the program in light 
of them.
    As customer demands for, and taxpayer concerns about, water and 
related land resources management investment continually change, so, 
too, do national needs and priorities for such management. In light of 
this, in the coming months we intend to hold public listening sessions 
around the country with our customers, other partners, and concerned 
taxpayers to refine current national needs and priorities for water and 
related land resources management. These sessions will provide a forum 
for a national dialogue intended to produce more widespread discussion 
of needs and priorities, choices, constraints, tradeoffs, impacts, and 
challenges facing the nation and the implications they have for our 
national welfare.
    Meanwhile, our current assessments of current trends follow.

Current Assessments
    As the world's climate changes, changing hydrology and water 
distribution and, in turn, environmental and socioeconomic conditions, 
necessary changes in and additions to the nation's water and related 
land resources management facilities, systems, and practices must be 
anticipated and effected as opportunely as feasible.
    As global markets expand, international commerce will demand more 
efficient domestic ports and harbors and improved vessel and intermodal 
cargo handling facilities.
    With many properties and major populations located in the nation's 
floodplains, flooding will continue to threaten national welfare. 
Moreover, as pressures continue to develop flood-prone lands and 
natural flood management systems are compromised, the threat of flood 
damage will increase.
    Ongoing migration of the nation's population to coastal plains and 
coasts, and attendant property development, will increase risks of loss 
from coastal erosion, floods, and hurricanes.
    The ongoing migration to coastal plains and coasts will put 
increasing pressure on coastal habitat, especially wetlands, and other 
fish and wildlife ecosystems.
    Through Water Resources Development Acts of 1996 and 1999 (WRDA 96 
and WRDA 99), the American public placed national environmental health 
near the forefront of social priorities. These acts, providing 
additional authorities to the Corps for ecosystem and watershed 
protection and restoration, increase emphasis on national need such as 
for ecosystem restoration, wetlands management, and nonstructural 
floodplain management.
    As the nation's population grows, there will be growing conflicts 
among multiple interests within watersheds wanting to use available 
water for diverse needs.
    As the nation's water and related land management infrastructure 
ages, it must be rehabilitated, modified, replaced, or removed.
    Given the American public's strong and growing interest in 
downsizing the federal government and, in turn, its workforce, ongoing 
outsourcing and privatizing for accomplishment of government work, 
including engineering, will increase. Also, the nonfederal sector will 
have to take on more water resources responsibilities.

Current Challenges
    In light of our current assessments of trends in the nation's water 
and related land resources management, we have identified 5 significant 
challenges currently facing the nation. These are:
  --Navigation--dealing with capacity and efficiency needs;
  --Flood Protection--dealing with existing and continued development 
        of floodplains, including coastal plains and coasts, and 
        increased demand for protection from flooding, erosion, and 
        winds;
  --Environmental Management--dealing with restoration of habitat, 
        especially protection of wetlands;
  --Infrastructure Renovation--maintaining the nation's water and 
        related land management infrastructure and effects of global 
        climate change; and
  --Disaster Response Assistance--dealing with increasing severity and 
        frequency of natural disasters.
    We must meet these challenges in order to preserve and promote our 
future national welfare. In cases that other federal agencies have 
authorities to address them, we promote interagency alliances and 
partnerships. Each challenge is discussed next.

                               NAVIGATION

    The National Marine Transportation System (NMTS) comprises 
approximately 1,000 harbor channels; 25,000 miles of inland, 
intracoastal, and coastal waterways; and 238 locks. This system serves 
over 300 ports with more than 3,700 terminals for cargo and passenger 
movement, and connects to 152,000 miles of rail, 460,00 miles of 
pipelines, and 45,000 miles of interstate highways.
    The system annually provides enormous national benefits:
  --creating employment for more than 13 million citizens and 
        contributing about 8 percent of national Gross Domestic Product 
        (GDP);
  --moving more than 2 billion tons of domestic and international 
        freight having a value of approximately $1.01 trillion;
  --moving over 60 percent of the nation's grain exports;
  --importing 3.3 billion barrels of oil to meet national energy 
        demands;
  --providing 3-20 times less pollution per ton of cargo moved, as well 
        as reduced accident risk compared with alternate transportation 
        modes;
  --supporting 110,000 commercial fishing vessels and recreational 
        fishing together contributing $111 billion to State economies;
  --transporting 134 million passengers by ferry;
  --serving 78 million Americans engaged in recreational boating; and
  --hosting more than 5 million cruise ship passengers.
    However, the system is nearing capacity, while demands on it will 
grow substantially. The Corps estimates that total volume of domestic 
and international marine trade is expected to more-than-double in the 
next twenty years to more than 4 billion tons per year by 2020. We 
project that inland shipments will increase over that same period by 
200 million tons, to 830 million tons. This increase in shipment volume 
will severely stress the NMTS.
    International trade and competition are key factors in our economic 
growth and impacting foreign relations. Currently, 20 percent of our 
GDP and nearly that much of our employment are associated with 
international trade.
    Increasingly, the containerships of choice are mega-vessels with 
50-55 foot drafts. Few of our ports have sufficient depths for this, 
but key international ports do, including those of Halifax, Freeport, 
and Vancouver. These ports are able competitors for our international 
trade. A major hurdle in meeting demand for deeper channels required by 
mega-vessels will be in meeting dredging requirements themselves. Over 
the past 10 years an average of 275 million cubic yards of spoil has 
been dredged for deep-draft channels. With deeper and wider channels 
greater spoil quantities will be produced, stressing both the physical 
capacity of our dredge fleet, and our ability to dispose of the spoil 
economically and in an environmentally acceptable way.
    Also, unfortunately, more than 44 percent of our inland waterway 
locks and dams are at least 50 years old. Many locks are undersized for 
modern commercial barge movements. Yet, they are carrying beyond their 
original designs, and according to the Corps' calculations, will be 
asked to carry 30 percent more by 2020. Annual lock delays associated 
with aged facilities currently total over 550,000 hours, representing 
an estimated $385 million in increased operating costs borne by 
shippers, carriers, and ultimately consumers.
    Among the 36 locks with high average delays in 1998, 19 are on the 
Upper Mississippi River--Illinois Waterway system, 5 are on the Gulf 
Intracoastal Waterway (GIWW) or its connecting channels, and 12 are on 
the Ohio River system. Since the passage of WRDA 86, with $1.7 billion 
has been invested in 14 locks to date, and an additional $3.4 billion 
is programmed for ongoing construction at an additional 13 locks. 
Adequate and timely investments are needed to address the need for an 
efficient inland waterway system.
    There is much that the federal government can do to ensure that our 
NMTS will continue to make positive contributions to our national 
prosperity and global competitiveness.

                            FLOOD PROTECTION

    Flooding is the most destructive and costly natural disaster in our 
nation, accounting for 85 percent of all natural disasters that occur 
annually. We have made a major investment in flood protection 
infrastructure, including, for the Corps only, nearly 400 major 
reservoirs and 8,500 miles of levees and dikes, as well as hundreds of 
smaller local flood protection improvements. We estimate that, since 
1950, the Corps' infrastructure has prevented nearly $500 billion in 
riverine and coastal flood damage, returning nearly $6.00 in flood 
protection benefit for every $1.00 invested, and preventing, on 
average, $16 billion in flood damages annually.
    Despite its considerable success in flood protection, the nation 
still has an extensive residual flood damage problem. Costs of floods 
(emergency assistance costs plus property losses) still average over $4 
billion annually. News coverage of recent flood disasters, including 
the 1993 Mississippi River Flood and the 1997 catastrophe in Grand 
Forks, North Dakota, have shown, graphically, the enormous economic 
costs of flooding. Unquantifiable social costs include, in addition to 
injury and loss of life, stress on individuals and families caused by 
disruption, evacuation, and life in temporary quarters. It also 
includes trauma caused by injury and death, loss of irreplaceable 
property, and destruction of homes, neighborhoods, and entire 
communities.
    Major reasons for the nation's continuing flood damage problem 
include extensive and growing unprotected development in ``100-year'' 
floodplains along the nation's streams, rivers, and shorelines, as well 
as development just outside 100-year floodplains where use regulations 
do not apply, but risk of less frequent more damaging floods exists.
    Urban development in floodplains is increasing by 1.5-2.5 percent 
annually. In addition, the nation's population is migrating to coastal 
plains. Presently, more than 36 million people live in coastal areas 
subject to flooding, hurricanes, and shore erosion. Along the East and 
Gulf coasts, about $3 trillion in infrastructure is located along 
shores vulnerable to erosion from flooding and other natural hazards. 
During the 20th century, 23 hurricanes caused economic damages in 
excess of $1 billion, each, in today's dollars. Most recently, Floyd, a 
category 4 hurricane that ravaged the East Coast in September, 1999, 
caused loss of 75 lives and economic damages estimated at $6 billion. 
Populations of the coastal states of California, Florida, and Texas are 
each expected to grow by more than 36 percent over the next 25 years. 
In recent years, these states have sustained the greatest amount of 
total flood damages.
    The nation needs to develop policies to address floods, erosion, 
and hurricanes, and the social, economic, and environmental bases 
associated with them.

                        ENVIRONMENTAL MANAGEMENT

    Protection and restoration of the environment is an important goal. 
Indeed, restoration of native ecosystems and, possibly, creation of new 
ones, is crucial to sustaining natural systems and habitats for future 
generations. Our nation has more than 3.6 million miles of rivers and 
streams that, along with floodplains and upland areas, comprise 
corridors of great economic, social, and environmental value. These 
corridors are complex ecosystems that perform vital environmental 
functions, including modulating streamflows, storing water, removing 
harmful materials from water, and providing habitat for aquatic and 
terrestrial plants and animals. Until passage of the National 
Environmental Policy Act (NEPA) in 1970, however, development of these 
corridors proceeded without concern, resulting in degradation of water 
quality, decreased water conveyance and storage capacity, loss of 
habitat for fish and wildlife, and decreased recreational and aesthetic 
values. NEPA prescribed integration of environmental protection and 
social goals with economic ones in the development of water and related 
land resource management projects. However, despite the shift in 
emphasis toward environmental benefits in such projects, much work 
remains to be done. The environment has suffered heavily. In order that 
it might sustain future generations, it must be cleaned up and 
restored, and further development must be tempered by an ethic of 
ensuring environmental sustainability of any such development.
    Over the years, human activities have significantly stressed 
aquatic environments across the nation and contributed to detrimental 
changes in their dynamic equilibria. Environmentally stressing 
activities have included physically changing habitats, including 
converting them to something else; over-enriching waters with oxygen-
demanding nutrients; contaminating waters with bacteria; polluting 
lands and waters with chemicals; elevating the temperature of waters 
with oxygen-depleting heat; and spilling oil in oceans. For example, 
dredging of the nation's ports and harbors for cargo vessels, and 
disposal of the spoil, much of which is contaminated sediment, has 
adversely impacted coastal ecosystems. Bigger ships on the horizon will 
require deeper ports, more dredging, and more places to dispose of 
spoil. Such sites are quickly filling.
    Within the contiguous United States, over 100 million acres (53 
percent) of wetlands--an area the size of California--have been lost 
since colonial times, primarily from farming and urban development. 
Coastal areas have been particularly hard hit, although the rate of 
loss there has slowed since the 1980s. In addition to serving as 
habitats and spawning grounds for fish, waterfowl, and mammals, 
wetlands help reduce flood damage, protect shorelines from erosion, and 
improve water quality. About 35 percent of all federally listed rare 
and endangered species either live in or depend upon wetlands. The 
reduction in wetlands has allowed flooding to affect habitats and 
species populations adversely. The American Fisheries Society lists 364 
species or subspecies of fish as threatened, endangered, or of special 
concern, or at risk of habitat destruction. In all, about 600 species 
have been lost or endangered. Diminished flows to river deltas and 
estuaries from dams dry up wetlands, deteriorate water quality, reduce 
crucial habitat, and reduce fisheries.
    On average, coastal areas are twice as productive (ecologically) as 
inland areas. Coastal oceans and estuaries, among the most productive 
and valuable of natural systems, are also among the most threatened by 
human development. Over half of our population lives within 50 miles of 
a coastline, in areas collectively representing only 11 percent of the 
nation's total land area. This population concentration puts a great 
strain on many local ecosystems and coastal environments, leaving them 
more vulnerable to damage from coastal storms and chronic erosion.
    The nation needs a healthy environment, capable of sustaining its 
development for socioeconomic purposes, for current and future 
generations. Potential for restoring beneficial conditions of our 
nation's environment, focusing on floodplains including rivers, 
streams, wetlands, and coastal areas, and protecting them from further 
damage, is boundless.

                       INFRASTRUCTURE RENOVATION

    Water resources management infrastructure has improved the quality 
of our citizens' lives and provided a foundation for the economic 
growth and development of this country. Our systems for navigation, 
flood protection, hydropower generation, and recreation management all 
contribute to our national welfare. The stream of benefits is realized 
as reduced transportation costs, avoided flood damages, electricity, 
and recreation services. For example:
  --Navigable channels provide an efficient and economic corridor for 
        moving a staggering 2.3 billion tons of the nation's domestic 
        and foreign commerce.
  --For every $1 invested to improve navigation infrastructure, our GDP 
        rises more than $3.
  --Flood protection, on average, prevents $16 billion in damages per 
        year, saving $6 for every $1 spent.
  --Thousands of cities, towns and industries benefit from the 9.5 
        million acre-feet of water supply storage from 116 of our lakes 
        and reservoirs.
  --Hydroelectric power dams produce enough electricity to supply 4.64 
        million homes with power.
  --Coastal projects protect 426 miles of the nation's shoreline.
  --Over 30 percent of the recreation and tourism occurring on federal 
        lands takes place on Corps water and related land resources 
        management facilities.
    Quality of American urban and rural life is enhanced by the 
availability of high-quality recreational opportunities for users of 
all economic means. Recreational opportunities abound near reservoirs 
and other places where boating, swimming, and fishing otherwise might 
not be available. More than 180 million Americans visited ocean and bay 
beaches in 1993. It is estimated that coastal recreation and tourism 
generate $8 to $12 billion annually. In 1996, an estimated 77.7 million 
recreational boaters spent approximately $17.8 billion on products and 
services related to recreational boating, while recreational fishing 
contributed another $13.5 billion to the economy. Growing population 
will place a greater demand on performance of the national water and 
related land management infrastructure used for recreation.
    Investment in economically justified and environmentally sound 
maintenance, major rehabilitation, and new infrastructure is needed to 
maintain and improve our capital water and related land resources 
management stock, and, in turn, benefits received from it.

                      DISASTER RESPONSE ASSISTANCE

    In recent years, our nation has suffered a series of major 
disasters whose impacts have been measured officially in terms of lives 
lost and high costs of damage to property and relocations. In addition, 
impacts have included disruption of family life; loss of jobs; business 
failures; disruption of safe water, sanitation, food, and shelter, and 
transportation; chaos in communities for weeks; changing of lives 
forever; public health risks due to diminished capability of public 
health care systems; loss of income and tax revenues; and impacts on 
other government programs from diversion of tax dollars to disaster 
response, relief, and recovery.
    The Federal Emergency Management Agency reports that 25 major 
disasters occurred between 1988-1997 totaling $140 billion in damages. 
In the past 10 years, the nation has experienced the Loma Prieta and 
Northridge earthquakes in California; record flooding in the Midwest, 
California, and other regions; and hurricanes Andrew, Inicki, Marilyn, 
Fran, and Georges, among others. The Atlantic region alone saw 65 
tropical storms during the period 1995-1999, of which 20 were Category 
3-5 major hurricanes.
    The cost of disasters runs high. The National Science and 
Technology Council estimates that the structural losses from natural 
disasters averaged $1 billion weekly between August, 1992 and December, 
1995. Given the magnitude of disasters in recent years, new ways are 
needed to address disaster response, recovery, and mitigation. In fact, 
every federal, State, and local agency charged with emergency 
management responsibilities is stepping up to the task, with the 
support of the private sector. On one hand, the nation must avoid, 
withstand, and minimize economic losses on humans and property from 
disasters to the extent feasible; and on the other, it must be prepared 
to respond to and recover quickly from disasters when they occur.
    Disasters are a fact of life, especially in our country which is 
subject to more major storms than in any other on Earth. With the 
threat of major floods and hurricanes, potential damages are severe. 
Recognized experts in the field of natural hazards assessment predict 
that losses from disasters will continue to grow over the next 10-20 
years, despite the best efforts of our emergency management 
practitioners. The Southern California Earthquake Center forecasts a 
high probability of a major catastrophic earthquake in California 
within the next 20 years. The repetitive nature of damages in many 
parts of the country illustrates need for new strategies to mitigate, 
respond to, and recover from the many looming hazards.
    Several trends are increasing our vulnerability to disasters. One 
is global climate change. Extreme events believed to have been exceeded 
but once in a hundred years, on average, are occurring far more 
frequently, threatening the lives, property, natural resources, and 
vitality of local and regional economies throughout the nation. There 
is also a trend of increased development in risk-prone areas. As stated 
previously, the coastlines are particularly attractive to development 
and also especially vulnerable to disasters. Warning systems and shore 
protection efforts have made people feel more comfortable about 
development along shorelines, and, along with mitigation and insurance 
measures to alleviate short-term risks associated with living near the 
ocean and floodplains, may actually encourage concentrations of 
development in vulnerable areas.
    Adequate investment in emergency management is needed to ensure the 
capability of federal agencies to respond fully and quickly when 
disasters strike. Coordinated planning is needed among key agencies who 
must work together to perform the readiness requirements under the 
Federal Response Plan, avoiding needless duplication of 
responsibilities, and undue hardship for State, county, and city 
agencies. Our nation, subject to more major storms than any other, 
needs the federal capability to deal with multiple emergency 
contingencies.

                               CONCLUSION

    The President's Budget for the Corps of Engineers is a good one. 
However, we must continue to find ways to reduce our costs and shift 
more of those remaining to direct beneficiaries of our services. 
Meanwhile, we will do our very best to execute the Civil Works Program 
for maximum benefit to the nation.
    With funding provided for our Operation and Maintenance Program in 
the fiscal year 2001 budget, we will be able to sustain customer 
services. However, we estimate that required funding for our highest 
priority maintenance backlog will increase to $450 million in fiscal 
year 2001--up by over $120 million from fiscal year 2000. I will 
continue to do all I can to make the O&M program as efficient as 
possible.
    Based on our assessment of the nation's current water and related 
land resources management needs, we feel strongly that the nation faces 
significant, and demanding challenges in dealing with those needs. We 
also know that the Corps has many unique assets from which to draw in 
tackling those challenges. These include our longstanding and exemplary 
leadership role in water and related land resources management; highly 
competent multi-disciplinary workforce complemented through contracting 
by a large public sector workforce; world-class research and 
development laboratories; highly developed and continually improved 
business processes including the recently fielded project management 
process; geographically dispersed organization, recently restructured 
to provide more pertinent, flexible, and timely operations resourcing; 
and capital infrastructure including thousands of completed facilities.
    Finally, we are committed to improvement in performance and 
customer satisfaction within available resources--continually 
maximizing actual and potential values of our organization to the Civil 
Works Program, the Army, and the nation.
    Thank you Mr. Chairman and Members of the Committee. This concludes 
my statement.

    Senator Domenici. Thank you very much. Now, Senator Reid, 
would you like to comment on any observations before we start 
questions?
    Senator Reid. I will, in the interest of time, Mr. 
Chairman, submit my statement and questions for the record.
    Senator Domenici. Thank you very much. Senator Burns, do 
you want to have any comments first?
    Senator Burns. I'm just going to make mine in the form of a 
question, a couple of questions. I think it moves the process 
along.
    Senator Domenici. Senator McConnell.
    Senator McConnell. Same here, Mr. Chairman.
    Senator Domenici. Senator Craig.
    Senator Craig. Same.
    Senator Domenici. Senator Dorgan. Can I ask, are the 
Senators here interested in a specific item that they're going 
to inquire about? If it's a specific item, I'll let you proceed 
and I'll wait to do my indepth questioning.

                        FISCAL YEAR 2001 BUDGET

    I have very big concerns about this budget. Once again, the 
Administration funds all of its initiatives and projects it 
likes at either 100 percent, or 92 percent of the Corps 
capability, and they take 30 or 40 high priority congressional 
projects and don't request funds for them.
    Now, I don't think we can afford to just fund every one of 
the Administration's programs totally intact as they asked for 
and have a huge number of congressional priorities that aren't 
taken care of. Having said that, Senator McConnell, you wanted 
to ask about one project, one item?
    Senator McConnell. It's not one item, Mr. Chairman. It's 
related to the possibility of the Corps doing some of the 
cleanup at the Paducah uranium enrichment plant
    Senator Domenici. Let's go in order. We don't want to be 
here beyond maybe 11:30 or 11:45. You can start any questions 
if you have any, Senator Reid. Mr. Burns, you can proceed.

                   STATEMENT OF SENATOR CONRAD BURNS

    Senator Burns. I would ask that my full statement be made 
part of the record, Mr. Chairman.
    Senator Domenici. It will be.
    Senator Burns. I have a couple of comments and will start 
by apologizing that I am unable to stay for the whole hearing 
so I will address my questions to both the Bureau of 
Reclamation and Corps of Engineers now to get them in the 
record. Maybe we can take some of the responsibilities off the 
Bureau of Reclamation's shoulders, general. I notice they are 
still in the business of administrating grazing permits in 
Montana. Why? They aren't in that business. Shouldn't it be 
done by the BLM and could it be moved to the Bureau of Land 
Management?
    Senator Reid. You hope so.
    Senator Burns. Well, if it takes an amendment to do that, 
let us know and we'll be happy to try including it.
    Also, I'm still having some concerns about the overtures I 
hear of flirting with reducing the budgets for purchase power 
and wheeling in the Administration's budget.
    With the Corps, the issuance of permits in Montana 
continues to concern me. That is our biggest problem. I guess 
probably what has happened here, the attention to the Upper 
Mississippi Valley is carrying over into other smaller projects 
where the permits could be issued, yet we're just not getting 
any kind of timely issuance of those permits. We are having a 
hard time even receiving a decision whether a permit is needed 
or not. That's frustrating to a lot of folks along our rivers 
in Montana.
    Also, I'm wondering if we can get assurances from the BOR 
on the ownership transfer of intake? The intake diversion dam, 
Glendive, Montana, was supposed to have been done years ago. We 
have legislation in the works authorizing this to be done and 
we're wondering about BOR's willingness to do this is a timely 
manner.
    Now, saying all that, I want to end on a high note and 
thank the Corps for your interest in the fish hatchery at Fort 
Peck and other projects up and down the river. I think you've 
got a tremendous leadership team on the upper Missouri and we 
want to continue to work with you on those things. But there 
are additional things that I think we should direct your 
attention toward. I've heard from my constituents in Montana 
and they agree.

                           PREPARED STATEMENT

    I do continue to have some concerns about the priorities 
the Corps of Engineers are setting and look forward to working 
with you and trying to work our way through it with the 
Chairman of the Committee. Nobody works as hard on this 
particular subcommittee as our chairman does. And thank you 
very much, Mr. Chairman.
    [The statement follows:]

               PREPARED STATEMENT OF SENATOR CONRAD BURNS

    Thank you Mr. Chairman for the opportunity to address the committee 
today. As you well know, the Bureau of Reclamation and the Corp of 
Engineers both play vital roles in the management of the West's water 
resources. Overall, these agencies are a great asset to the West and 
have historically helped us in the management of our most valuable 
resource, water. I have been especially pleased with the working 
relationship that has developed between my office and the Corp of 
Engineers in our mutual effort to help the citizens of Montana.
    However, as is generally the case when dealing with a valuable 
resource, contentions do arise between my constituents and these 
agencies. With some attention to management details, I believe we have 
the opportunity to smooth out these rough spots.
    First, I would like to address some of the concerns with the Bureau 
of Reclamation. As most members of this committee are aware, many of 
the Bureau of Reclamation projects in my state are in dire need of 
repair. Unfortunately, I don't believe the Bureau has a comprehensive 
plan in place to address these needs. Additionally, the Bureau is 
consistently running into cost overruns and passing these added costs 
on to my state's constituents. In a time of economic hardship within 
our agriculture communities, these costs can be the difference between 
making ends meet and having to shut the family farm down. I would hope 
that the Bureau would examine their methods of cost estimation and 
construction costs and look for ways to keep our projects operational 
at a reasonable cost.
    Additionally, I am curious as to why, in this time of reinventing 
government, that the redundant activities of various agencies aren't 
being consolidated. I make this point in relation to the Bureau because 
we actually have Reclamation administrating grazing permits in some 
areas of Montana. Why aren't we turning this activity over to the 
Bureau of Land Management, an agency much more suited to the task? I 
have been asked numerous times by my ranchers why they operate under 
two sets of rules on BLM and BOR grazing land. It just doesn't make 
good sense. I believe we can streamline these processes and better 
address the needs of the public. This is only one example of a non-
traditional Bureau activity, I am sure that many others exist that are 
better provided by other agencies.
    The Bureau also is continuing to flirt with the idea of addressing 
wheeling concerns through administrative means. I have made the point 
previously that any wheeling changes must be done legislatively and we 
will not tolerate an administrative rule change. I stand by my prior 
comments and feel they must be reiterated for the benefit of the 
Bureau. The questions surrounding wheeling are extremely important to 
my constituents and any administrative decision that does not allow 
them the representation due to them will only create divisiveness 
between the agency and my state's residents.
    Last year I mentioned that I was curious as to what is holding up 
the ownership transfer on the Intake Diversion Dam north of Glendive, 
Montana. Supposedly this transfer was to take place in a fairly 
straightforward manner, yet we continued to wait for it to be 
finalized. In response I introduced legislation to transfer title to 
these projects, but I feel that it could have been done more quickly 
had the Bureau acted in better faith with the local irrigators.
    In regards to the activities of the Corps of Engineers in Montana, 
I have to commend the Corps on their efforts to deal with many 
competing interests. As the permitting process in the Yellowstone area 
illustrates, it is hard to make a decision that will make everyone 
happy. The stakes are high and everyone has something to lose. I don't 
envy the position of the Corps in that regard. However, whether it is 
addressing an eroding landfill near Billings, or working to balance the 
needs of flood mitigation and wildlife habitat, the Corps has continued 
to shoot straight in dealing with most of our locals.
    That being said, I must relay some of the frustration being felt 
due to the lack of timeliness in receiving permits. When we apply for 
permits in Montana, it is generally an urgent situation. Flooding may 
be threatening the land we earn our livelihoods off of. It may also be 
threatening our very homes. Unfortunately, I don't believe the Corps 
has a fast-track process in place that can address these urgent needs. 
I hate to go home and hear horror stories of bureaucratic inaction and 
work that didn't get done in time because the permit process moved too 
slowly. These are real people who have worked their lives for what they 
have. It is a tragedy when they watch it all disappear because the 
bureaucracy moved a little too slowly.
    I urge the Corps to examine this problem and look at ways to fix 
it. To be fair, last year was a better year for permitting. Of the 600 
404 permit requests in Montana last year, I am told that all were 
approved. This is good, however, I still have heard from numerous 
ranchers that they were given the run around in finding out whether 
they needed permits or who to contact to get the green light to move 
ahead on important projects. I would hope that the Corps would put a 
process in place and let this be known to Montanans that may need to 
apply for permits.
    Another wrinkle in the relationship with Montanans and the Corps 
was the redirection of $400,000 of Section 33 money from an extremely 
important study on the Missouri River. The time lost in this study as a 
result will only lead to more erosion and problems on the stretch of 
the Missouri below Fort Peck. This is an important project and the 
money must be restored as soon as possible.
    Finally, I would like to end on a high note and thank the Corps for 
their work on the Fort Peck Fish Hatchery. This project will be a great 
boon to Montana's fisheries and the Corps has moved forward quickly and 
professionally at the request of the State of Montana, local citizens 
and myself. I look forward to passing authorizing legislation this year 
and hopefully including beginning construction money in the fiscal year 
2001 appropriations.
    Mr. Chairman, thank you again for the opportunity to address the 
committee.

    Senator Domenici. Thank you. We're going to proceed, then, 
with first arrival, is that fair enough? You proceed, Senator.

                    PADUCAH GASEOUS DIFFUSION PLANT

    Senator McConnell. Thank you, Mr. Chairman. Secretary 
Westphal and General Ballard, I'm sure you've read the articles 
in The Washington Post documenting the wide stream 
contamination and radiation exposure to the work force at 
Paducah, Kentucky gaseous diffusion plant.
    As you can imagine, the workers and their families are 
justifiably outraged by the Department of Energy's misconduct. 
What is worse, up until the articles ran in the Post, the 
Department spent the past 50 years denying this sort of thing 
could have happened. Following the damaging press accounts, the 
Department of Energy committed more funding to cleanup and 
worker health testing.
    Perhaps predictably, DOE has absolutely failed to make any 
headway on the conversion of the 57,000 cylinders of depleted 
uranium hexafluoride that are stacked outside along the fence 
of the plants. These cylinders contain a potent cocktail of 
hazardous chemical and radiological material. DOE began 
accumulating these 14-ton cylinders since the day the plants 
began production 50 years ago. Today, if you lined up these 
contaminated cylinders end to end, they would stretch from 
Washington, DC, to Ocean City, Maryland, 136 miles away.
    In July 1998, I drafted legislation which was signed into 
law mandating that DOE begin converting this material into a 
nonhazardous state. To date, DOE has done little except study 
the situation. Already DOE has missed its self-prescribed 
timetable to have a contract award cleanup by the year and the 
fiscal year 2001 budget fails to provide sufficient funding to 
keep the cleanup on track. Frankly, I'm disappointed by DOE's 
inaction and lack of accountability. They have waited 50 years 
for cleanup and desperately needs a job. More importantly, the 
community deserves a start to the cleanup which by DOE's own 
projection will last more than 20 years.
    Now, I raise all this because the Corps of Engineers has a 
cleanup track record and I'm looking to the Corps for 
assistance in cleaning up DOE's environmental legacy. So with 
that backdrop, let me propound a few questions. General 
Ballard, does the Army Corps----
    Senator Reid. Senator McConnell, what was Paducah 
originally used for? Why do they have 57,000 drums? What was 
the plant initially established for?
    Senator McConnell. It's been a uranium enrichment plant for 
50 years. General Ballard, does the Army Corps have the 
expertise to undertake the conversion of 57,000 cylinders of 
depleted uranium cylinders immediately and convert this 
material to a benign state and to dispose of it permanently?
    General Ballard. The short answer is yes, Senator. And the 
long answer is that we've had quite a bit of experience not 
only working at the FUSRAP program but we are currently 
involved in--you may be aware of this--in doing a nuclear 
fissile storage facility in the former Soviet Union as part of 
the Nunn-Lugar amendment. So we have experience inside of the 
Corps, plus we have a number of our consultants and partners 
with us who have engaged in this type of work before.
    Senator McConnell. In fact, there is every reason to 
believe you could accomplish this task faster than the 
Department of Energy and better than the Department of Energy, 
is there not? Go ahead and brag if you want to.
    General Ballard. Well, we do have a fairly good track 
record of aggressively moving out on this type of work and I 
feel confident that we could accomplish the job now faster and 
I would rather not brag to that respect but we can do it.
    Senator McConnell. Are there legal impediments to--if I 
were to try to assign this task to you all rather than the way 
it's currently being done so ineptly, are there legal 
impediments to the Corps undertaking these kinds of tasks?
    General Ballard. Not if we do it as a contractor or support 
to DOE so we don't run into the regulatory issues. And I would 
have to look at it even deeper but I don't believe there are 
any legal impediments that would prevent me from doing this 
type work for DOE.
    Senator McConnell. The Department has prepared an 
environmental impact study, a Record of Decision and a cleanup 
plan. Have you or your staff reviewed this material and is 
there anything that you are unfamiliar with or unable to deal 
with from a technological standpoint?
    General Ballard. My staff has reviewed quite a bit of data 
surrounding the Paducah facility and another one in Ohio. So I 
don't think that there is anything that's there that we are not 
really familiar with. I think we understand what the process is 
pretty good.
    Senator McConnell. Finally, the Department of Energy has 
made a big deal and has just notified the Army of the potential 
threat to our men in uniform since the metal armor was produced 
from the depleted uranium from the plant. Are you familiar with 
recent evaluation by the U.S. Army radiation research office?
    General Ballard. I am somewhat familiar with it, Senator. I 
am not an expert on it but I read the documentation surrounding 
that testimony.
    Senator McConnell. Does what you've read give you any 
concern about proceeding with the conversion?
    General Ballard. No, it does not.
    Senator McConnell. Thank you very much, Senator.
    Senator Domenici. Senator Dorgan.

              RED RIVER VALLEY, GRAND FORKS, NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, thank you very much. And I 
want to thank you, Chairman Domenici, and also Senator Reid for 
the assistance on the projects that we've been working on in 
North Dakota and I want to thank General Ballard and Dr. 
Westphal and General Van Winkle and others.
    At one point in my congressional career, I was one of those 
who would use inappropriate language from time to time when I 
would reference the Corps because there are a number of things 
that I worked on, it just seemed to me like nothing quite got 
done. And then we got involved in a very significant flood 
fight in Grand Forks. The Red River Valley, particularly in the 
Grand Forks area caused us some problems. And I tell you, 
having the Corps involved in a flood fight with you is 
something to watch and I have deep admiration for the men and 
women who serve in the Corps of Engineers and I want to thank 
you for that.

                       DEVILS LAKE, NORTH DAKOTA

    We have been struggling mightily in North Dakota with a 
lake flood called Devils Lake. And my colleagues know it well 
because we continue to talk a great deal about it. But in human 
terms, it's not taking lives but it's destroying lives in many 
ways.
    Duane Howard, one of the great rodeo champions in America--
perhaps one of the best bull riders you would ever see in this 
country--lost 80 percent of his ranch. Eighty percent of it is 
gone. Now it's under the lake. He's lost his livelihood, lost 
his ability to make a living.
    And Randy Meyers is a gunsmith and a paraplegic who watched 
his home torched as a health hazard, as the water from the lake 
enveloped his home. These are real consequences and so we've 
been struggling mightily to address something we don't see in 
this country very often--a lake flood with no inlet and no 
outlet for which there is not an easy solution.
    And I want to thank you, Dr. Westphal and General Ballard, 
General Van Winkle. You all have been helpful. We're struggling 
to try to produce an outlet that would provide major releases 
of water in a manner that would not affect others but would 
take some pressure off that lake. And this is turning out to be 
a very, very difficult task but we must continue to work on it.
    I would ask a couple of brief questions. With respect to 
the outlet that we've been working on, I know it is alleged by 
some, that the proposed outlet, will send the boundary's waters 
to Canada. It is our intention and your intention and the 
intention of anyone who is talking about an outlet that we 
would be required to comply with the boundary waters treaty. 
And we would have to go through an EPA process and be in full 
compliance with the boundary water treaty. Will you concur with 
that?
    Dr. Westphal. Yes.
    General Ballard. Yes.
    Senator Dorgan. And it is also the case that if we 
construct an outlet to take the pressure off this lake 
successfully it will prevent this lake from going to the 1,460 
level, which it has done some many, many years ago. I believe 
the Corps has indicated that the cost of the 1,460 level is 
somewhere around 500 and a quarter million dollars additional 
damage. Is that correct?
    General Ballard. That's correct.
    Senator Dorgan. And the reason I ask these questions is, it 
describes the fact that this investment, in an attempt to 
address this flooding, is an investment that's good for the 
country. If we don't take some proactive measures here, we will 
certainly have to bear a much larger cost later. And we have to 
build dikes, raise roads, raise roads again, do all of these 
things to try to respond to the needs of people and we're still 
not able to keep up.
    So I just wanted to make the point, Mr. Chairman, that I 
have appreciated your attention to this and appreciate the 
attention of the Corps as we work forward here. The 
Administration has asked for some $4\1/2\ million for some 
front end planning design. I understand from speaking with the 
Chairman that the construction itself has to be approved by 
Congress. We have to deal with that at a later time but the 
design, we hope we can keep that in this process.
    That's a long way of saying thanks. I appreciate the work 
you're doing and the assistance you're giving us, both you and 
also Mr. Chairman and others in the committee
    Senator Domenici. Well, let me assure you, Senator, that 
Devils Lake is imprinted on my brain. I have seen more of 
Devils Lake for never having visited it than any project in 
America. And in an effort to know about it, I finally have 
pledged to you that if I visit another State on a Corps 
project, I will stop over first at Devils Lake because it's a 
phenomenon that is very difficult to understand but it is real. 
And we will do our very best to get it started in an 
appropriate way and in this bill.
    You keep reminding us but I think we won't have to work 
very hard. It will be in the Chairman's draft when we get the 
appropriation bill ready. If it's something that belongs in the 
supplemental, it will be there. I don't know what we're going 
to do in the supplemental. Some way we're not going to have any 
at all. So it won't be in there if there is none.
    Senator Dorgan. The recommendation in the supplemental is 
actually where the small amount of money is--the larger amount 
of money is requested in the regular appropriations. But I look 
forward to working with you.
    Senator Domenici. Senator Craig here next, please.

                        SNAKE/COLUMBIA CORRIDOR

    Senator Craig. I'll be only brief. I came to listen but 
also to express to the Army Corps the importance I place on 
their missions and their responsibilities in the Pacific 
Northwest and especially in the Snake/Columbia corridor. My 
colleague from Washington is with me this morning. He and I 
watch you all very, very closely. We like our dams, we like our 
slack water, we like our fish, we like our hydro and we expect 
you to handle them responsibly. Thank you.
    Senator Domenici. And that was even better than you did the 
last time in the Energy Committee. We can quote you on this. 
Senator Gorton?
    Senator Gorton. Thank you, Mr. Chairman. I join you in 
saying I've learned a great deal about Devils Lake. I perhaps 
have even more understanding than Senator Dorgan coming from a 
wet State than you do coming from a dry State. But the problems 
that he faces there are very real and do deserve our help and I 
wanted to say that.
    Senator Domenici. Incidentally, it's snowing in Albuquerque 
this morning, so don't call this dry. We're trying very hard to 
get a little water.

               COLUMBIA/SNAKE RIVER PREFERRED ALTERNATIVE

    Senator Gorton. But I do have some questions on the subject 
that Senator Craig rose, General Ballard. Two weeks ago, I met 
General Strock in my office to discuss the status of the Corps' 
environmental impact statement on the Columbia and Snake. He 
advised me that the Corps may be issuing a preferred 
alternative on whether to breach the Snake River dams this 
fall.
    Can you specify for me a more precise time frame during 
which the Corps intends to release this preferred alternative 
and whether the public will have an opportunity to comment on 
it before it becomes final?
    General Ballard. Yes. Let me take the second part of your 
question. Most certainly the public will have an opportunity to 
comment on the preferred alternative when we release it.
    Senator Gorton. Before it becomes final.
    General Ballard. Before it becomes final. The date--I'm 
looking at my colleagues now to give me the exact date.
    General Van Winkle. Sir, we have a tentative date of 
October of this year but again, there are some negotiations 
ongoing and we have to make some decisions. So this is very 
tentative. I would give you that date as a rough estimate at 
this point
    Senator Gorton. Can you tell me if there is additional 
information that the Corps will incorporate into its final 
decision or will it be based on what you know already?
    Dr. Westphal. Senator, let me try and answer that. We 
believe that the Corps really has most of the information it's 
going to need. Now, the biological opinion is going to be 
coming out here in a couple of months and how that would affect 
the EIS, we're not sure, but we believe that we are really 
ready to go forward with a final EIS. We've done the study, the 
analysis. This is not a decision document. This is an 
information document. So to expedite this, we think we can put 
out a final EIS probably in the October/November time frame.
    Senator Gorton. You said a little later. It was September/
October 2 weeks ago. Now it's October or November?
    Dr. Westphal. Well, only because before we were thinking 
about coming out with a draft EIS, another draft EIS, but if we 
go to a final, we could probably get it done by October. I 
don't want to speak for General Strock because they're still 
churning a lot of information and public comment, a significant 
amount of public comment from the recent meeting they had. So 
partly it's a function of that.
    General Ballard. But getting to the final rather than the 
draft, Senator, will get us into the dialogue much quicker.
    Senator Gorton. Now, can any of you here provide me with an 
estimate as to whether the natural runs for spring and summer 
Chinook salmon on the Snake River will increase or decrease 
this year?
    Dr. Westphal. Well, the expectations were that they were 
going to increase this year, but there is some new research 
coming out now that CRI is coming out and I am not sure exactly 
when that will be public. But we are being told that there may 
be some--that the news from that may not be that good. But I 
don't know what it is. I couldn't tell you today what the CRI 
will tell us.
    Senator Gorton. Will whatever happens this year be factored 
into the feasibility study and your recommendations?
    Dr. Westphal. No, because the CRI--well, we already have 
the analysis on the Snake River salmon. We don't really need to 
account for the remainder of the species in the Columbia River 
basin in our EIS because our EIS is lower Snake River EIS. So 
we've got what we need and we need to proceed forward with the 
EIS.

                         JOHN DAY LOCK AND DAM

    Senator Gorton. One last question on this subject. I 
understand there are reports that the Oregon State Fish and 
Wildlife Department questions your analysis or may question 
your analysis on the John Day study drawdown and it is pressing 
the Corps to pursue further study on this issue. I don't 
believe any more study is warranted. Can you explain the Corps' 
position on the drawdown and when we can expect the final 
decision?
    Dr. Westphal. We completed John Day phase 1 study and as 
you know, there is language in last year's appropriations bills 
that prohibits us from going to a phase 2 or a McNary drawdown 
study without permission of the Congress.
    Senator Gorton. I'm familiar with that.
    Dr. Westphal. I thought you might be. But we intend to 
adhere to that language and we are not proceeding further.

              COLUMBIA RIVER NAVIGATION CHANNEL DEEPENING

    Senator Gorton. Now something on which I wanted to 
congratulate you and say how much I want you to succeed, and 
that is the deepening of the Columbia River, the navigation 
channel. I'm delighted with your reports and it seems to me 
that you're doing very, very well. Some environmental features 
of the project which obviously are important may be ready for 
construction in fiscal year 2001 but the Chief's report was 
completed so late in the budget preparation cycle that it 
couldn't be included in the President's budget as a new 
construction start.
    If Congress were to appropriate a small amount of 
construction funds for fiscal year 2001, would the Corps be 
capable of beginning construction of these environmental 
features during that fiscal year?
    Dr. Westphal. I think so but let me defer to General Van 
Winkle.
    General Van Winkle. Senator, we could. We have some 
capability estimates of around $4.5 million to do that in 2001.

                    CAPABILITY DISCLOSURE STATEMENT

    Senator Gorton. Thank you. The National Marine Fisheries 
Service included a requirement that the Corps and local 
sponsors find and improve 5,000 acres of the habitat as 
mitigation. What are you doing to meet that requirement?
    Dr. Westphal. Sir, I'm not sure. I would have to get an 
answer for the record, unless you have one.
    General Van Winkle. No, we'll have to get the details for 
the record on that.
    [The information follows:]

                    CAPABILITY DISCLOSURE STATEMENT

    Although project and study capabilities reflect the readiness of 
the work for accomplishment, they are in competition for available 
funds and manpower Army-wide. In this context, the fiscal year 2001 
capability amounts shown consider each project or study PY itself 
without reference to the rest of the program. However, it is emphasized 
that the total amount proposed for the Army's Civil Works Program in 
the President's budget for fiscal year 2001 is the appropriate amount 
consistent with the Administration's assessment of national priorities 
for Federal investments. In addition, the total amount proposed for the 
Army's Civil Works Program in the President's Budget is the maximum 
that can be efficiently and effectively used. Therefore, while we could 
utilize additional funds on individual projects and studies, offsetting 
reductions would be required in order to maintain our overall budgetary 
objectives.
    Hereafter, this statement is referred to as ``the usual 
qualifications.
                                 ______
                                 

                    COLUMBIA RIVER CHANNEL DEEPENING

    The biological opinion for the Columbia River Channel Deepening 
project clearly states in the terms and conditions that the Corps will, 
``as part of the Corps' ecosystem restoration mission and 
responsibility under separate authority, independent of the Channel 
Improvements Project, expedite the attainment of the objectives of the 
Lower Columbia River Estuary Program by restoring 1,500 acres of tidal 
wetlands by 2005, and 3,000 acres between 2005 and 2010, subject to 
Congressional authority and appropriation''. The Corps intends to 
request funds for a new General Investigation (GI) study in order to 
fulfill this term and condition. This GI study would specifically 
address environmental restoration in support of the Lower Columbia 
Estuary Program. The restoration of habitat is not considered part of 
``mitigation for the deepening project''. We will also use Section 
1135, Project Modifications for Improvements to the Environment and 
Section 206, Aquatic Restoration, both part of our Continuing 
Authorities Program, for habitat restoration.

    Senator Gorton. If you will get an answer on how you are 
working with local sponsors, I would appreciate it. But I do 
want to say I'm very enthusiastic about your enthusiasm and I 
want to congratulate you. And Mr. Chairman, I wanted to thank 
you very much.
    Senator Craig. Mr. Chairman, could I do a follow up to an 
answer?
    Senator Domenici. Could I just comment before you do that, 
Senator? Senator Gorton, we were having a hearing not too long 
ago on the purchase of the Boca, that big ranch in New Mexico, 
and I sat next to you as you questioned a U.S. Representative 
from the district that Boca is from, it's in his district, and 
I curtailed him and anybody present that it is not an easy 
thing around here and will never be to tear down the poor dams 
that are up there in your part of the country. Our Congressman 
got a lot of press that he was for tearing them down but your 
comments got in the paper also. I just wanted you to know you 
were pretty tough on that Congressman. But apparently this is 
one of the most important issues you have going, is that right?
    Senator Gorton. It is very easy to say that and we did not 
appreciate the Congressman referring to it in that way. But as 
I told him then, he was extremely fortunate that he had you as 
a Senator because that means that he doesn't get punished with 
respect to the Boca ranch interference in our business.
    Senator Domenici. I understand.
    Senator Craig. Mr. Chairman, I was chairing that hearing 
and I must say that Senator Gorton, it was one of his finest 
hours, without question. In relation to final draft versus 
draft and public comment, what is it, what will it be, have you 
decided, and if it's a final, why then go back out for public 
comment?
    Dr. Westphal. When you do a final, you just simply put it 
out, not for public comment. You put it out for public review.
    Senator Craig. Consumption but not reaction?
    Dr. Westphal. Exactly.
    Senator Craig. So what are you doing?
    Dr. Westphal. We're heading towards a final. We believe 
we've got enough public comment and enough information to go 
right to a final. We don't need to put it out for more public 
comment and do another draft this time. That's my belief and 
that's what I would like to see happen.
    Senator Craig. So that is what we should expect to happen?
    Dr. Westphal. I think so.
    Senator Craig. All right. That it will be a final draft not 
for public comment, but for public consumption?
    Dr. Westphal. Right.
    Senator Craig. Thank you.
    Senator Domenici. Senator Stevens, I and Senator Reid have 
reserved our questions but if you would like to go, we would 
welcome them.

              ALASKA NATIONAL DEFENSE SYSTEM MISSILE SITES

    Senator Stevens. I just came over from another subcommittee 
because I saw my friends Dr. Westphal and General Ballard are 
here and I would just like to ask you a couple of questions.
    I just visited, General Ballard, with the Pacific Ocean 
Division of the Corps and, Secretary, this applies to you too. 
I believe the decision has been made that the Corps will handle 
the Alaska portion of the national defense system in terms of 
developing the site for the missiles and the support base that 
is necessary.
    I want to make sure that there is adequate funding here to 
carry out that process and that we have thought about the 
staffing in the Alaska District and the Pacific Ocean Division 
that will be needed to do that. I think they have the expertise 
to do it and they've gone to construction in Alaska and I want 
to make certain that these people have the knowledge, and that 
we're supporting them in getting the kind of people they need 
to assure this is getting done in time and done properly.
    General Ballard. Senator, I'll address that. As I informed 
your staff, about 2 weeks ago, I moved the project management 
for that work from Huntsville to the Alaska District and we are 
currently evaluating the appropriate staff that they require. 
As you know, this project is much too important for us to fail. 
So I'm putting the appropriate oversight and staffing in Alaska 
for them to handle this work.
    Senator Stevens. I want to make sure that people understand 
construction.
    Let me bore you all with a story. When I was a brand-new 
Senator, we got a new Federal building for Nome. I don't know 
if I told you this, but it was a really beautiful building for 
this small, historic town and they were going to have an 
opening in the spring. They decided to get the whole building 
warmed up before the opening. I went up there for the opening 
and guess what? The building had sunk about a foot and a half. 
No one understood the problems of permafrost and stability of 
soils and that's something we can't have happen on the national 
defense system.
    General Ballard. Absolutely.
    Senator Stevens. And so we have the ability and we have 
people who work in the Arctic who are contractors. And if we 
have people who have done beautiful work in Central America and 
they start doing it up there, we're going to pay the price. So 
I hope you really put some people in there that understand the 
Arctic, General, because this is going to be a big, big thing 
for the country if it happens. It's not that big for Alaska. 
The money is really going into the systems rather than into the 
ground but we want it to be done right when it's done.
    General Ballard. I understand, sir.
    Senator Stevens. Do you believe we have the supervision 
that will be necessary to do this job right?
    General Ballard. I'm confident that we will.

      U.S. ARMY COLD REGIONS RESEARCH AND ENGINEERING LABORATORIES

    Dr. Westphal. Senator, when you and I went up there last 
year, if I recall, I took a half a day away from being with you 
and went to visit the Corps of Engineers Cold Regions 
Laboratory there, and what we have is you basically go 
underneath the mountain and they study permafrost.
    You can go inside this mountain and you can see the ice 
sitting in layers of dirt. And as you see, if you don't account 
for that, you put something on top of it and it melts, you've 
got a serious problem. So I think the Corps has the expertise 
and the ability and has it on site to deal with these issues.
    Senator Stevens. Well, we think that you ought to make 
trips often, make sure you inspect those sites.
    Senator Reid. Senator Stevens, did they ever fix the 
courthouse?
    Senator Stevens. As a matter of fact, we built a new one 
and used the other one--it has a nice basement, it does--it is 
still used but not for a courthouse.
    Senator Craig. Keeps sinking?
    Senator Stevens. I don't have any other questions, 
gentlemen. I appreciate your response to requests for 
information I've made and I do have great confidence in the 
work that's done by the Army through the Corps of Engineers. 
They're our neighbors and do a great many things. We're hopeful 
in time we'll have reports to you on developments of perhaps a 
new port on the northwest coast so we can open up some of those 
mines up there. But that's still coming through the stage of 
design and research and it's not ready to come to the committee 
yet.
    I would like to have you all come up there and see that 
sometime. You ought to see this area of Alaska. Very few people 
come up to see the northwest coast of Alaska. It's beautiful. 
Tremendous mineral content. The problem is access.
    Senator Reid. Is that where Nome is?
    Senator Stevens. It's actually above Nome. It's north of 
Nome. But Nome is on the Seward peninsula in northwest Alaska.
    Senator Domenici. We appreciate you coming to our committee 
today. We look forward to working with you on the budget.
    Senator Stevens. I'm your humble servant if you're ready to 
talk about the budget.
    Senator Domenici. The Corps of Engineers funding for your 
missile project will be in Senator Burns' committee in military 
construction.
    Senator Stevens. Yes, but these two were both in your 
subcommittee.
    Senator Domenici. I'm with you. Senator Reid, please. Thank 
you.
    Senator Reid. Thank you, Mr. Chairman. First of all, 
General Ballard, I want to join with the others to congratulate 
you on a stunning military career. It's not often that you find 
someone who finishes their career with three stars and you 
should be very proud that you've rendered a great service to 
the country.
    General Ballard. Thank you, sir.

                RURAL NEVADA WATER SUPPLY INFRASTRUCTURE

    Senator Reid. This question could be answered by anyone who 
cares to. The Federal Government is imposing increasingly 
strict regulations on water supply. In areas like Las Vegas and 
Reno, they can handle that. But for 10, 15 percent of the 
population of Nevada covering 70 million acres, they have a 
real burden. And I'm particularly interested in one of the 
provisions for rural Montana and Nevada in section 595 of WRDA, 
9299. But, of course, there are a host of others around the 
country that are concerned in addition to Montana and Nevada. 
Do we have any reason that we haven't budgeted money to take 
care of these problems? Do we have threats, for lack of a 
better description, that we're going to have higher 
restrictions on arsenic content and other things and we have no 
money to cover all this?
    Dr. Westphal. Let me take a stab at that. I think these 
questions--and I'm going to get on a limb here but I think 
these questions, such as the one you posed, Senator Reid, and 
some of the ones that I'll have to deal with throughout 
testimony here and in the House will require, I think, some 
greater dialogue between the Administration and the Congress as 
to how far out we want to get into this type of work.
    This is not traditional mission work of the Corps of 
Engineers. However, there is a national need for this. There is 
no question that the need you just outlined is there. It's 
there in many rural areas. It's there in many parts of the 
country. We operated, putting together our budget, on the 
premise that we have a very tight budget and we needed to fund 
the projects we already had in the works. So these types of 
authorities that have been in previous WRDA bills simply didn't 
get the funding.
    But I think there is an increasing debate about doing this 
kind of work and I believe that the only way we're going to 
successfully attack it nationwide is to have a dialogue with 
you and to come to some understanding as to how far we want to 
get into it and how we want to do that work.
    Senator Reid. All I know is that we're going to have a 
crisis because when these restrictions in effect come into it 
and local companies are trying to--water companies are trying 
to meet these standards. Impossible, can't meet them. The 
amount of money, the cost is more than the water districts are 
worth just to solve one of the water problems.
    Do you think the Corps has the capability and expertise, if 
you had the money, to address these problems?

                  CONSTRUCTION AND MAINTENANCE BACKLOG

    Dr. Westphal. I think the Corps does have the capability 
and expertise. Now, again, we have to face the argument that 
some pose that say, well, you've got a huge backlog of work and 
construction and O&M. How do you reconcile putting money into 
other things when you've got this backlog?
    So I think we need to address both those issues. We need to 
address the backlog issue and how much it is and how much we 
have to--how much we're going to need to really make a dent on 
that. But we also have to--we can't stay still. We can't not 
support the needs of the country as they arise in the future. 
So we have to look to the future. We also have to address the 
past. And for us, it's a simple game of mathematics. We just 
have not had enough money to put in the budget to address all 
of these adequately.
    Senator Reid. Dr. Westphal, estimates range up to $45 
billion in backlog water resources this country needs. That 
doesn't take into consideration what I've just talked about, 
some of the new rules that will go into effect. And you have in 
your budget request $4 billion. It's without any question that 
this is inadequate funding, $4 billion.
    Do you have a plan to do away with this huge backlog? I 
mean, are we going to see additional requests in the years to 
come or are we going to continue doing less than one tenth of 
what is needed?
    Dr. Westphal. Well, there are a number of things we could 
do. We can certainly address the backlog from the standpoint of 
greater efficiencies and I think the Chief has done that. He 
has done a very good job of trying to find ways to make the 
program more efficient and use those gains to make up some of 
the backlog. But that's a very small dent into a big problem.
    Second, I think we can look at--you mentioned the $45 
billion. That includes a lot of projects that are absolutely 
not moving. They are simply--they are deferred or there is just 
nothing going on there. So there is a lot of--perhaps half of 
that work is work that we probably aren't going to do certainly 
in the near future and we need to address to determine with you 
if we are going to go forward with that work and at what pace 
and at what level and is there a Federal--non-Federal sponsor 
for the work.
    So we also need to look at the authorized projects that are 
simply not going to happen. They're not going to get built, 
they're not going to get constructed, because of the 
environmental issues or because there is no local sponsor. So 
there is a variety of ways of dealing with it, and as I 
requested from Chairman Smith of our authorizing committee, 
we're going to be looking at that backlog pretty seriously, 
taking a look at the lists of projects out there and making 
some analyses that we hope to be able to provide some 
recommendations on.

                           WETLAND PROPOSALS

    Senator Reid. Mr. Chairman, I have a number of other 
questions. One includes some technical answers that I need 
regarding wetlands proposals and whether or not, again, you 
have the adequate personnel to meet these demands. When 
problems arise regarding the wetlands rules, it's taking too 
long to resolve, and in the process of resolving these wetlands 
problems, people are literally going broke. They have to borrow 
money, waiting until there is some definitive answer from the 
Corps and, in the process, the interest payments are going up.
    So I have 12 other questions that we'll submit to you in 
writing because the Chairman hasn't had a chance to ask 
questions. I'm going to stop now. But if you would get back to 
me within the next couple of weeks with written responses to 
these written questions, I would appreciate it.

                       RIGID REGULATORY STANDARDS

    Senator Domenici. Senator, thank you so much for your being 
brief. I want to also say that inherent in what I see of the 
rural communities with smaller water systems and the new rules 
is a serious question as to whether the standards that have 
been set up are too rigid. I mean, nobody wants to look at it. 
I mean, they just want to say, how much is it going to cost to 
do what somebody is telling us to do.
    But the question may be, for a whole lot of America, are 
those standards that are being insisted upon, are they really 
necessary. And I'm not going to ask any of you. That's not your 
expertise. But it's obvious we're asking rural areas to build 
some rather fantastic facilities for very small systems that 
cannot achieve the kind of things that a major system can in a 
city. And I don't know who is going to look at it because it 
would seem to me the Administration doesn't want to look at it, 
at least for a while.

                             FALLON, NEVADA

    Senator Reid. Mr. Chairman, just in one rural committee, an 
agricultural community in Nevada, Fallon, Nevada, they have an 
arsenal and they've had it for many years. It's estimated that 
it will cost each water user in Fallon $100 a month to meet the 
requirements that they have. That's $1,200 a year. They can't 
do it.
    Senator Craig. I've been to Fallon. No, they can't afford 
it.
    Senator Domenici. The question, however, is that arsenic 
standard, is that reasonable and rational and does it make 
common sense? We have background arsenic in many communities 
that have been there forever. I imagine that community and many 
areas around it have a level of arsenic in the water that has 
not been dangerous and we come along and say--and you can't get 
it out of the natural environment. We say you've got to do it 
in the water system.
    Senator Craig. Mr. Chairman, I assume in Fallon, that's a 
very mineralized area, that that's a natural water level, is it 
not?
    Senator Reid. In Fallon, it's not a mineralized area, but 
for reasons we don't fully understand, it's always been heavy 
in arsenic. Like up where I'm from it is mineralized, we have 
an arsenic problem there.
    Senator Craig. But it is considered a natural State.
    Senator Reid. Totally.

                   FISCAL YEAR 2001 BUDGET PRIORITIES

    Senator Domenici. Okay. Let me just say, I have a series of 
questions for you, Dr. Westphal, with reference to the 
Administration's budget. I've alluded to them, but I'm just 
going to mark three points.
    The $4.064 million budget request has funds for high 
priority Administration environmental projects such as the 
Everglades funded at 100 percent of the Corps capability for 
2001, and deepwater ports, 92 percent of your capability. But 
its severely underfunded ongoing flood control and inland 
waterways--funding them at only 62 percent of the Corps' 
capacity, and it excludes from the budget requests 40 projects 
which are high priority for the Congress.
    Now, frankly, Dr. Westphal, you're to be commended for your 
efforts to put forth a somewhat better budget than we had last 
year, and I compliment you for it. I think in areas where you 
put some pressure on, we've got a better budget. But how are we 
going to deal with this enormous disparity between the 
Administration's priorities and Congressional priorities?
    Now, if they all meet the same tests, cost/benefit ratios 
and the rest, I mean, why are the President's more important 
than these items the Congress has continually supported? How am 
I going to do that? What do you recommend?
    Dr. Westphal. Well, Senator, I think that we did fully fund 
the Everglades and that's because we're at a point where that 
particular project is absolutely critical to get that 
comprehensive study underway. It's a 20-year project. The State 
is cost sharing that at a 50/50 rate, so we felt that's a very 
high priority to go forward. It's a national priority.
    In the navigation area, of course, we are still relying on 
the use of the new Harbor Services User Fee proposal which 
would allow us then to fully fund at capability levels all our 
navigation of our harbor projects. So we're able to make use of 
that fund for that. Last year, I think you appropriated 
somewhere in the vicinity of about $700 million out of the fund 
for the O&M part of that. This year, if the fund were 
implemented, it would be about $900 million out of the fund for 
O&M construction.
    Senator Domenici. The Everglades has $1.8 billion in new 
authorization for the Everglades.
    Dr. Westphal. It's $158 million in this particular year.
    Senator Domenici. But the new authorization is $1.8 
billion. Look, I'm not critical of the Everglades. It's a 
fantastic project and I'm sure this Committee wants to fund it 
mightily. But we're in a real spot when the Administration 
takes 40 projects that you have gone through and you've signed 
cost benefit sharing agreements with great fanfare. People are 
waiting, anticipating continued construction. They've got cost 
sharing agreements that you have signed, they're ready to put 
up their share. And all of a sudden they disappear from the 
President's budget.
    I can tell you right now, that's not going to happen. I'm 
not going to fund them unless we get some more money from the 
allocation, we're not going to fund the Administration's at its 
request and fail to fund Congressional priorities. You all are 
going to take a little cut in order to fund some of ours. There 
is no evidence that the President picks out better water 
projects in terms of those that have clear cost benefits than 
Congress can. So we have some prerogatives and I want you to 
know it's going to be tough. We'll work with you as best we 
can.
    I had a series of questions I was going to ask you about 
the integrity of the Corps process. I think you've satisfied my 
concerns. I'll submit them for the record .
    General Ballard. Thank you, sir.

                              CORPS REVIEW

    Senator Domenici. I would want to know, there is a serious 
internal study, Dr. Westphal, occurring within the 
Administration because of the articles about the Corps, perhaps 
The Washington Post story. Now, who is conducting the review? 
Is it the Defense Department that's conducting the review or 
who within the Administration is conducting that?
    Dr. Westphal. There are three things underway. The first 
is--and General Ballard alluded to them. The first is the 
Secretary of the Army has asked the National Academy of 
Sciences to do an independent review of the Upper Mississippi 
Navigation Study, of that process.
    Senator Domenici. National Academy of Sciences?
    Dr. Westphal. Right. The National Academy has done some 
work for the Corps of Engineers in the past on assessing the 
current principles and guidelines so they have some expertise 
in this area. There was a feeling that there was a need to have 
a totally independent and outside review of this study. So 
that's been ordered and that's underway, I believe, or will be 
underway shortly.
    The second matter is that there are--and I can't tell you 
specifically because I don't know, but there are investigations 
of these allegations of misconduct and that's being handled 
through the appropriate Inspector General and those types of 
organizations within the Department of Defense and the Army.
    The third matter is simply that the Secretary said, because 
there were also allegations that the Army may not have been in 
control of the program or something to this effect, that the 
Secretary simply said, we will assess, we will ensure that the 
management and oversight of the Corps of Engineers is there. 
And that is not a study. That is simply looking at the 
regulations, I assume. And again, I'm not a part of that. I 
don't know when the Secretary is going to put that out or make 
a statement about that.
    Senator Domenici. But I want to state for the record here, 
so there is no misunderstanding, Senator Reid has just agreed 
with me, and I'm sure that I will get Chairman Stevens and 
ranking minority member Byrd, we're going to make sure the 
Administration understands that if, as a result of this study, 
there are any serious recommendations regarding restructuring, 
that we want a review process for the Congress, and we will 
make sure they know that. I don't know whether it should be 6 
months or what, but clearly we support what you do, yet we 
think we have good oversight. There still remain people who 
think the Corps shouldn't be doing so much work in America and 
what they do is not necessarily in the best interest of our 
country. So there are a few of those in the Administration. 
That's their business, not mine.
    But you understand that we would be very concerned that 
from an investigation should any restructuring occur without 
Congress understanding why and what it's going to do to the 
Corps as it's conducting itself. We're pretty proud. The Corps 
went through a difficult year about 25 years ago and I was here 
for about 8 or 9 years. And it's highly respected and Congress 
respects it tremendously for the kind work it's been doing and 
that's thanks to you and your predecessors, Mr. Secretary, and 
the good Generals who have been in charge.

                      RIO GRANDE RIVER BASIN STUDY

    I'm going to ask you a couple of questions, but I'm going 
to move for a minute to your requests for Comprehensive Red 
River Basin studies. And let me just suggest, I'm going to ask 
you about them in writing. And I do want you to know that you 
included a river in my State called the Rio Grande River.
    I don't know what I'm going to do with your request as I 
share my concerns with the subcommittee members and the full 
committee members but I do want to suggest that there are large 
numbers of stakeholders that some of whom are Federal agencies 
who are equal stakeholders, if not more so than the Corps, and 
I have to try to figure out whether we're going to get 
something constructive out of a comprehensive river basin study 
that you all would do. No aspersions on you. It's just when you 
look at all the players, are we apt to get something better or 
something that's just going to make the stakeholders more upset 
and angry?
    I, myself, am looking for a way to bring the stakeholders 
together. Bureau of Reclamation is involved, I should know, 
because they control the water flows in some facilities. And 
the Commissioner will testify next, and he's been doing a 
yeoman's job trying to allocate the water shortage in the Rio 
Grande. You're aware of that and I very much appreciate your 
personal knowledge on the subject. But you understand that your 
operations may not be what I, as a Senator, think are going to 
solve any problems.
    Dr. Westphal. And Senator, as I said in my oral statement, 
I want to proceed by working first with you and the other 
members, I've engaged Senator Burns and Senator Baucus on the 
issues on the Yellowstone because I think we need that input. 
And if for some reason you think that we ought to change this 
plan in some way, I'm very, very attentive and very willing to 
do that.

                 PICATINNY ARSENAL HEAVY METAL CLEANUPS

    Senator Domenici. Now, do any of you have any further 
comments? I will submit questions if you'll answer them. I just 
have one question about the heavy metals cleanup at the 
training ranges. Last year $3 million was included in the 
defense appropriation bill for work of extracting heavy metal 
from soils at various training ranges. This is a joint project 
between the heavy metals office at the Picatinny Arsenal in New 
Jersey and New Mexico State University. Evidently someone in 
the office of the Secretary of Defense saw this term 
``remediation'' in the title of this project and sent the $3 
million to the Corps of Engineers. I'm not sure that's what was 
intended, but that's where it is.
    While you do remediation work for the Department of 
Defense, the $3 million is earmarked for heavy metals office at 
the Picatinny arsenal and it was not intended for the Corps--I 
know it was not intended for the Corps but it ended up there. 
We had been unsuccessful in having the funds transferred back 
to Picatinny. Are either of you, General Ballard or Secretary 
Westphal, familiar with the issue? And I understand that 
funding was directed to the Corps of Engineers by someone else 
in the Department of Defense, but I want to make it clear that 
this $3 million must be transferred back without delay so we 
can get something done.
    General Ballard. I'm familiar with it, Senator, and I was 
briefed on it this morning. We didn't go looking for it. I 
thought it was $3 million filed on post, but I'll quickly 
return it. We'll get it returned by----
    Senator Domenici. You can check it out and make sure what 
I'm saying is right.
    General Ballard. Yes, sir.
    Senator Craig. The check is in the mail.
    Senator Domenici. I do want to comment, with reference to 
cleanup that involves low level nuclear waste and the like. 
Somebody in the U.S. House had an ingenious idea that maybe we 
ought to experiment and let the Corps of Engineers do some of 
this cleanup because we had been involved in many of these 
projects, I mean, it's safe to say, but we never got anything 
done. We kept turning the soil and nothing happened.

            FORMERLY UTILIZED SITES REMEDIAL ACTION PROGRAM

    And now we have a program called FUSRAP and we've 
appropriated $150 million for the current year and the Corps is 
doing cleanup work. I want to suggest that from everything we 
know, you're doing a good job. And as compared with the huge 
delays and the kind of circuitousness of the Energy 
Department's efforts and cost increases, I mean, we get an 
estimate of $300 or $400 million, turns out $2 or $3 billion by 
the time the 10 years is examined.
    So are you confident that you all are monitoring this 
program and that the work is being done properly? And I ask 
both of you that. Do you have any complaints of a serious 
nature that you might want to put on the record?
    Dr. Westphal. I think we're finding great success with this 
program, doing it on time and in a very efficient manner. I 
think that the Corps has taken this task on very seriously and 
has done a great job.
    General Ballard. I share those concerns, those comments. We 
have taken this program on now and we, in fact, we are quite a 
bit further ahead of schedule. Probably the most important 
thing we did with then-existing authority and capacity, is that 
we did not grow one FTE for doing this program.
    Senator Domenici. Well, I want the record to show that 
nobody from the Corps, indirectly or directly, ever came to see 
me and ask me to fund this program. So if somebody thinks you 
all are lobbying for this cleanup, I never heard it. I believe 
the House came up with the idea. We transferred about $130 
million from DOE to the Corps.
    General Ballard. Yes, sir.
    Senator Domenici. So I think it's very, very important that 
you do that job right and that you monitor it very, very 
closely because these kind of programs have a tendency--you 
know, something seeps out and it becomes a very big eyesore for 
big groups of people and we don't want that on the Corps for 
having stepped up to the plate and doing a better job than 
anybody else in this regard.

                     ADDITIONAL COMMITTEE QUESTIONS

    Unless you, Senator Craig, have anything, I'm going to 
submit the questions.
    Senator Craig. I do not, Mr. Chairman
    Senator Domenici. You're excused. And thank you very much.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Pete V. Domenici


                            PROGRAM OVERVIEW

    Question. The budget request for fiscal year 2001 totals $4.064 
billion for programs and activities of the Corps of Engineers compared 
to a total appropriation for fiscal year 2000 of $4.142 billion. The 
budget structure and the approach taken by the Administration in 
funding projects are very similar to the fiscal year 2000 budget. 
Specifically, the Corps' budget request: funds high priority 
Administration environmental projects such as the Everglades 
Restoration at 99 percent of the Corps capability for fiscal year 2001; 
funds selected deep water port projects at 92 percent of the Corps 
capability for fiscal year 2001; severely under funds ongoing flood 
control and inland waterway projects (funded at only 60 percent of the 
Corps capability), and excludes from the their budget request about 40 
projects which are high priorities of the Congress. Dr. Westphal, you 
are to be commended for your efforts to put forth a somewhat better 
budget request for the Corps in fiscal year 2001. Yet similar to last 
year, there are a number of concerns as I have listed above. Can you 
explain to the Committee why there is such a significant disparity in 
the balance between various elements of the ongoing construction 
activities of the Corps water resource program?
    Dr. Westphal. In an ideal world, we would very much like to finish 
all our continuing projects on optimum schedules and start new projects 
to meet additional needs as they arise. However, in the real world 
where we have funding constraints, we must try to balance the need for 
new projects proposed by the Administration and Congress with the needs 
of our continuing projects. Ultimately, we blend the priorities 
together as best we can to meet the most urgent needs in both areas. 
For the fiscal year 2001 budget, 24 port development projects and 
activities are funded to meet near optimum completion schedules in 
accordance with the proposed Harbor Services User Fee, which would 
cover all federal construction costs. In addition, 8 high priority 
continuing projects and 1 high priority new start project for 
mitigation, ecosystem restoration, and other purposes are funded to 
meet optimum completion schedules. However, there are also 6 
environmental projects and 4 environmental programs that are not funded 
at optimum levels. Amounts for 168 flood damage reduction, inland 
waterways, and shore protection projects, as well as the 6 delayed 
environmental projects and 4 environmental programs, are constrained to 
a level that is, in the aggregate, about 63 percent of what is needed 
to maintain optimum completion dates. The varied funding schedules for 
different types of projects primarily reflect the sources of funds 
available to implement them.

                             PROJECT DELAYS

    Question. How many projects in this budget proposal have extended 
completion dates compared to the fiscal year 2000 program level? What 
would it take to fund all ongoing projects at a level which would 
maintain completion schedules anticipated by the appropriation for 
fiscal year 2000?
    Dr. Westphal. There are 57 projects in the fiscal year 2001 budget 
that have extended completion dates compared to the fiscal year 2000 
program level. About $158 million would be required to maintain the 
completion schedules anticipated for these projects by the 
appropriation for fiscal year 2000.
    Question. Now Dr. Westphal, as I understand it you are required to 
enter into a cost sharing agreement with a local sponsor before 
constructing a project, and that you do this with much publicity and 
fanfare. Is this correct? Why then, does this Administration not feel 
it is important to carry through on the commitment made when signing 
the cost sharing agreement by funding many of these projects at optimum 
or even near optimum rates? What do you expect these communities who 
have put themselves into debt to cover their share of the project costs 
to do? Since there is no funding requested in your budget for fiscal 
year 2001, how do you expect construction to continue to meet your 
commitment to these communities?
    Dr. Westphal. You are correct, we are required to enter into 
project cooperation agreements with non-Federal sponsors before 
initiating construction projects. However, public signing ceremonies 
for these agreements are held only when the sponsors desire such 
events. We do feel that it is important to carry through on the 
commitment made when signing the project cooperation agreement. 
Nevertheless, budget constraints do not allow us to implement all 
projects at optimum or near optimum rates. We hope that sponsors can be 
patient and work with us to complete their projects as soon as possible 
within the context of our budget ceilings. Some projects for which 
Congress has added funds in previous years are not included in the 
Corps budget. Generally, these are projects that are not economically 
justified or could be accomplished by local interests, and consequently 
have low budget priority. Projects of this nature may continue to the 
extent that funds are added by Congress.

                   INTEGRITY OF CORPS' STUDY PROCESS

    Question. In January and again in February, the Washington Post 
published articles that raised serious allegations regarding the 
integrity of the U.S. Army Corps of Engineers and its process for 
developing recommendations related water resource projects. If true, 
the validity of the investment of resources in carrying out projects 
resulting from the study and planning process is brought into question.
    Dr. Westphal and General Ballard, do you agree with these 
allegations as they relate to the broader study and evaluation process, 
excluding for the moment the Upper Mississippi River Navigation Study 
which was specifically mentioned?
    Dr. Westphal. I have great confidence in the Corps. With regard to 
the allegations in the press, I strongly believe we should withhold 
judgement until completion of the review and inquiry directed by the 
Secretary of the Army.
    General Ballard. No Sir, I continue to stand behind the integrity 
of the Corps and its processes. The Corps planning process is based on 
the Principles and Guidelines (P&G) that were adopted by the President 
on March 10, 1983. These Principles and Guidelines are the culmination 
of a series of earlier efforts to develop a coherent planning process 
beginning in 1958 that resulted in the publication of Senate Document 
No. 97 in 1962. This document established the principles, standards, 
and procedures for planning water projects. This evolutionary 
development of the planning process has had the support of the Congress 
and has stood the test of time. As recently as 1999, the National 
Research Council of the National Academy of Sciences produced a report 
entitled ``New Directions in Water Resources Planning for the U.S. Army 
Corps of Engineers''. Overall, the findings of that report were an 
endorsement of the Corps planning process.
    Within the framework established by the P&G, the Corps has 
established procedures for implementing cost-effectiveness analyses for 
environmental restoration projects and is continuing efforts to improve 
the quantification of restoration outputs. The Corps has also made 
great advances in evaluating potential flood damage reduction projects 
in a risk framework beyond what is called for in the P&G.
    Question. General Ballard, the Washington Post articles suggest 
problems with your study process. Are you concerned about the current 
process, and, if so, how do you intend to identify and correct possible 
deficiencies? Is the current study process sound, recommending the best 
projects possible?
    General Ballard. I believe that the current Corps study processes 
are sound and determine the best projects possible. However, reviews of 
these processes are underway. While I firmly believe that through these 
investigations the Corps will be vindicated of all allegations, 
appropriate actions will be taken if deficiencies or opportunities for 
improvement are identified.
    Question. Dr. Westphal, I understand that Secretary of the Army 
Caldera has initiated a review of the Army's management of the Corps of 
Engineers to ensure there is appropriate leadership and oversight. I 
believe it is fair to say that the appropriate Committees of the 
Congress expect to be consulted prior to the Army making any changes, 
but what are the specific concerns regarding the current leadership and 
oversight structure? What changes are being considered? Have any 
changes been instituted or approved for implementation?
    Dr. Westphal. I believe Secretary Caldera is looking for 
opportunities to improve the Army Civil Works program by clarifying 
responsibilities, improving communications, and strengthening 
accountability. No changes have at this time been instituted or 
approved for implementation, to my knowledge.
    Question. Specifically, who is conducting this review, and what 
Federal agencies or Executive Offices are involved?
    Dr. Westphal. The Secretary has assigned this review to the Under 
Secretary of the Army. No other Federal agencies or Executive Offices 
are involved.
    Question. What is the schedule for completing the review?
    Dr. Westphal. I am not aware of a definite schedule, although I am 
sure that Secretary Caldera wishes to implement whatever changes he 
recommends in a timely way.
    Question. Why is this review being conducted by an internal Army/
group instead of an outside independent entity?
    Dr. Westphal. The Secretary considers this to be an internal Army 
management issue.

               ``GROWING `` THE CORPS CIVIL WORKS PROGRAM

    Question. Another allegation put forth in the post inferred that 
the Corps of Engineers is involved in some secret, dark of the night 
plan to grow the Civil Works program from $4.0 billion annually to $6.0 
billion.
    Dr. Westphal, the Post article leads one to believe that the Corps 
of Engineers is out of control, running around without any oversight. 
Do you believe this to be the case?
    Dr. Westphal. No, Sir, I do not believe that the Corps of Engineers 
is out of control. The Civil Works program receives oversight from my 
office on a regular and continuing basis.
    Question. Dr. Westphal, your response to the Post reporter on this 
issue was, ``Oh my God. My God. I have no idea what you're talking 
about. I don't believe this.'' Could you explain your response? How is 
it possible that you could not know of such an effort if it were true?
    Dr. Westphal. First, let my say that the Post reporter caught me by 
surprise. I certainly knew that General Ballard and his staff had 
undertaken an analysis of the Nation's water resource needs and an 
evaluation of what the Corps could do to be more responsive to the 
needs. I had not been briefed on the specifics of their analysis, which 
I'm told was still in the formative stages at the time.
    Question. General Ballard, please explain any plans you may have 
underway to ``grow'' the Civil Works program. How would it be possible 
to carryout such an undertaking to double the size of the Corps program 
without the knowledge and approval of the Army, the Administration, and 
the Congress?
    General Ballard. First, let me state emphatically, growth in the 
Civil Works program is only possible if the Congress appropriates the 
funds. The ``growing'' the program referred to by the Washington Post 
was an internal presentation to me and the members of my Board of 
Directors aimed at generating discussion of National water resources 
needs and what the Corps could do to satisfy these needs. It is 
incumbent upon us in the Corps, as public servants, to lay out for the 
Army, the Administration and the Congress our assessment of water 
resources needs so that national decision makers can act in an informed 
manner. And, as I pointed out in my statement, I believe there are 
substantial needs that today are not being met.
    Question. Dr. Westphal, both you and General Ballard have spoken 
with me regarding the need to address serious and significant backlogs 
in the operation and maintenance, and recreation programs. Is this part 
of what the Post had in mind? What is the amount of authorized, but 
unfunded work the Congress has approved for the Corps of engineers to 
undertake?
    Dr. Westphal. I am not sure just what the Washington Post reporter 
had in mind, but the national needs that General Ballard and the Corps 
staff have laid out include the growing maintenance backlog and the 
seriously degraded recreation system. The backlog of deferred critical 
maintenance on projects will rise to $450 million in fiscal year 2001. 
These are a very important part of the water resources needs, along 
with new requirements for navigation, flood damage prevention, 
environmental restoration and enhancement, and others.
    The total estimated Federal cost of completing unfinished projects 
that Congress has authorized for construction by the Corps of Engineers 
is about $37 billion. This amount includes $23 billion for projects 
classified in the active category that are included in the fiscal year 
2001 budget, $7 billion for projects classified in the active category 
that are not included in the fiscal year 2001 budget, and $7 billion 
for projects classified in the deferred or inactive category that are 
also not included in the fiscal year 2001 budget.

                UPPER MISSISSIPPI RIVER NAVIGATION STUDY

    Question. Now with regard to the Upper Mississippi River Navigation 
Study, the Washington Post and I believe, an employee of the Corps have 
implied that certain Corps officials have inappropriately tried to 
influence the outcome of this study. General Ballard, do you believe 
this to be the case? Please explain.
    General Ballard. No, Senator, I do not. I have the utmost 
confidence in the professionalism and integrity of the members of the 
Corps of Engineers--both Civilian and Military. I am confident that the 
various investigations that have been launched to look into those 
allegations will show to everyone's satisfaction that the Corps has 
pursued this study properly and prudently. Having said that, I also 
want to state that if the investigations should uncover any wrongdoing 
by anybody in the Corps, I would not hesitate to take swift and 
decisive corrective action.
    Question. What actions have you taken to review this matter and 
when can we expect to know the outcome of your review?
    General Ballard. Actually, Senator, along those lines there have 
been two significant internal events. For one, the headquarters has 
completed its policy review of some of the study team's draft products. 
Our review found that the District conducted the study in consonance 
with the Principles and Guidelines. Nevertheless, additional 
information and explanation are required. The complete findings were 
provided to the Division for further action. This, by the way, is a 
normal step in our process for a study of this size and complexity.
    Additionally, due to the serious nature of the allegation of 
wrongdoing in reference to one of our employees, I directed an internal 
investigation in accordance with Army Regulation 15-6. The 
investigation is complete and found no misconduct. I am willing to 
provide you with the results of the investigation. There are also a 
number of external investigations or reviews in progress. First, the 
Office of Special Counsel (OSC) has requested that the Secretary of 
Defense investigate the allegations and report his findings back to 
OSC.
    Second, the Surveys and Investigation Staff of the House Committee 
on Appropriations has begun its investigation. We have met with them, 
provided them information and documents they requested, and remain 
committed to fully supporting them as they continue their 
investigation.
    Third, we have provided information requested by the Department of 
the Army Inspector General in support of their investigation and are 
scheduled to meet with them to answer any additional questions they may 
have.
    Finally, the Secretary of the Army has directed an independent 
assessment of the economics of the study.
    Question. As I understand, the major allegation is that Corps 
officials directed changes to an economic model, thereby creating the 
appearance of manipulating the process to gain a favorable benefit-cost 
analysis. How do you answer this allegation?
    General Ballard. The economic model that was developed for this 
study appears to be a good one, and many notable economists have 
applauded it. On the other hand, other economists differ with the 
application of the model. Models are merely analytical tools. What is 
of importance is the analytical methodology employed by a model and the 
accuracy of the data that is fed into it. Apparently at the heart of 
the controversy is a mathematical formula which is designed to predict 
the likelihood, based on changes in the costs of shipping, that 
shippers would change modes and destinations for shipments of given 
commodities that could otherwise use the waterway. Specifically, there 
is a term in the formula--often referred to as the ``N-value''--that 
reflects the elasticity of demand for river-borne commerce for a given 
commodity. To estimate this variable, assumptions must be made about 
future demand for commodities that move on the waterway as well as 
assumptions about alternative markets these commodities could move 
into. While the Corps economist who developed the model has his own 
ideas of what the ``N-value'' should be, other economists have 
complained that his assessment of the ``N-value'' is incorrect. Various 
examples for this divergence of opinions exist, but it appears to me 
that the ``N-value'' is not really a constant number, but is rather a 
function of many variables that are difficult to reliably predict for 
the 50-year economic life of the project. I should note many of the 
variables that determine N-values are also used in the commodity 
forecast for the study. This uncertainty in our analytical process is 
exactly why we require sensitivity analyses in our inland navigation 
studies to better understand the effect the assumptions have on the 
ultimate results. What has been averred as an attempt to manipulate the 
model is really an attempt by the people who ultimately will have to 
formulate the Corps recommendation to gain a better understanding of 
its operation and how it responds to alternative assumptions. These 
decision-makers must be sure that the model neither understates nor 
overstates the economic effects--especially considering that these 
effects are monetarily significant and will get compounded well into 
the future. Before we can make any recommendations, we need to have a 
firm grip on the sensitivity that the model will show toward the 
various assumptions.
    Question. Did anyone with the Corps of Engineers direct changes in 
the economic model with the intent to inappropriately influence the 
economic justification of the Upper Mississippi River Navigation Study?
    General Ballard. I don't believe so, Senator. Let me explain the 
reason for my confidence that such is the case. First I believe in the 
professionalism and dedication of the Corps team. While my trust in my 
own team is high, I am a realist enough to know that individuals can 
and do make mistakes. My confidence is high even in this regard, in 
that our process has a series of built in checks or ``safety nets''. 
These include independent technical reviews, a minimum of two formal 
public reviews, Washington level policy review, State and Agency 
coordination requirements, and a final review by the Executive Branch 
under Executive Order 12322. I note that, for the on-going study in 
question, we are in the midst of preparing the feasibility report, 
assimilating data, examining alternatives, and developing costs and 
benefits. A draft feasibility report has not been completed, much less 
undergone all of the aforementioned reviews. The allegations appear to 
be based around what the Corps intends to recommend. The Corps' 
recommendation is still almost a year away, and there is much outside 
input to be gathered, analyzed and incorporated into the decision 
making process.
    Question. General Ballard, this is an interesting charge given the 
fact that the study is not complete and, I believe, you have more than 
a year to go before you expect to set forth your recommendations. Let 
me ask this question: Has there ever been an occasion where the Corps 
of Engineers has been told or ordered to change their recommendations 
or outcome of a completed study with or without a Chief's report? Could 
you give us the details of those instances, including who ordered the 
change and the justification for making the changes?
    General Ballard. Certainly not that I am aware of.
    Question. What is the current status of the Upper Mississippi 
Navigation Study? Has the Study's integrity been damaged to the point 
that the nearly $54 million spent to date will have been wasted?
    General Ballard. We are continuing with the study. The impacts of 
the investigations or reviews should not appreciably affect the 
schedule or usefulness of the study. I assure you that when all the 
facts are in, the integrity of the Corps will be intact, and you will 
know that the trust you have traditionally placed in the Corps is well 
founded.
    Question. What assurances can you give the Committee that the Study 
can be completed in a way that results in an unbiased recommendation?
    General Ballard. I assure you that it will be, and the process 
guarantees that it will be.

                       CREDITS AND REIMBURSEMENTS

    Question. For the past several years the Committee has been 
concerned with the growing use of credits and reimbursements as a way 
to initiate and perform work on a project. The last estimate the 
Committee has was that the Corps had executed agreements totaling over 
$800 million and had another $500 million under negotiations. General 
Ballard, have these estimates changed substantially over the past year?
    General Ballard. The total of both executed and proposed credit and 
reimbursement agreements has grown only slightly to about $1.4 billion. 
We are closely monitoring the situation to identify projects that non-
Federal sponsors desire to construct in this manner.
    Question. Gentlemen, do you see an increasing trend to use this 
approach to funding projects, and does this concern you?
    Dr. Westphal. There has been an increasing trend over the past few 
years for non-Federal sponsors to use credit and reimbursement 
agreements to undertake projects. We are concerned about the impacts 
such activities may have on the Corps of Engineers construction 
program.
    Question. General Ballard, what impacts to the Civil Works program, 
and the Corps of Engineers would result from allowing non-Federal 
interests to perform work for credit or reimbursement or to advance 
funds for projects to a greater degree?
    General Ballard. If many non-Federal sponsors of large projects 
elected to undertake their projects using credit or reimbursement 
procedures, the funding requirement for such cases could consume a 
large part of the Corps construction program. We are concerned about 
the adverse impact such a scenario would have on our Districts. If the 
Corps became predominantly a grant agency, it would erode our ability 
to maintain a high level of technical expertise, in both our project 
management and engineering roles.
    Question. Congress enacted legislation in the Energy and Water Act 
for fiscal year 2000 that placed limitations on the use of this type of 
project financing. Have there been any problems implementing the 
Congressional directions? Do you see any future issues or problems 
complying with these limitations?
    Dr. Westphal. To date, there have been no problems implementing the 
Congressional directions. We do not foresee any problems with the 
credit or reimbursement limitations through fiscal year 2001. However, 
in fiscal year 2002 we estimate that local sponsors will seek credits 
and reimbursements subject to section 102 of the Energy and Water 
Development Appropriations Act that exceed the $50 million limit. We 
are working with the Office of Management and Budget to prioritize 
proposed work that is subject to section 102 and monitor the credit and 
reimbursement requirements so that we manage the program to not exceed 
the section 102 limits on a per project or fiscal year basis.

                    RECREATION MODERNIZATION PROGRAM

    Question. The budget request for fiscal year 2001 includes $27 
million to initiate the Recreation Modernization Program. I believe 
this is a new program with the objective of upgrading old, worn out and 
obsolete recreation facilities managed by the Corps of Engineers.
    Can you give the Committee some idea of the deteriorated conditions 
at your recreation areas, and the level of annual visitation at your 
facilities?
    Dr. Westphal. Most of the facilities at Corps managed recreation 
areas were constructed in the 1960s and 1970s. The combination of heavy 
use, lack of routine maintenance, and changes in visitor needs has 
caused significant deterioration of recreation facilities and the 
natural resource base at many of our lakes. Deteriorated conditions 
include antiquated facilities such as shower buildings, campsites, day 
use areas, shelters and playgrounds that were built 30 years ago and 
have been maintained with a ``Band-Aid'' maintenance program. These 
facilities have barely been kept functional, with no funds available to 
improve or replace as visitation has tripled and types of users have 
evolved. Restrooms are not large enough to accommodate the numbers of 
campers, and they have little or no ventilation, heat, or hot water. 
Many campsites have been lost to erosion and compaction from over-use. 
Electric service at Corps sites remains at 20 and 30 amps while the 
industry standard is now 50 to 100 amps. Most of the Corps sites were 
designed to accommodate tents and pop-ups trailers while most campers 
today are using 30 to 45-foot units that can't drive through the 
campgrounds, let alone fit on a campsite. Users today are asking for 
full hook-ups to include water, electricity, sewer, cable, and even 
Internet access, which the Corps 1960's vintage units are unable to 
provide.
    Question. How does visitation at Corps Facilities compare with 
other Federal agencies?
    Dr. Westphal. The Corps of Engineers is responsible for 4,340 
recreation areas at 456 lakes in 42 states. These recreation areas host 
380 million visitors annually. In terms of water-based recreation, the 
Corps is the Nation's number one provider. The Corps is second in 
overall visitation at 21 percent of the national total, with the Forest 
Service being first at 48 percent. But, an important part of this 
number is that the Corps manages only 2 percent of total Federal acres, 
yet its visitation is greater than the National Park Service, Bureau of 
Land Management, Fish and Wildlife Service, and the Bureau of 
Reclamation. One in ten Americans visits a Corps lake each year.

                       EXAMPLES OF PROPOSED WORK

    Question. What types of problems will be addressed with this 
funding?
    Dr. Westphal. Generally, all of the inadequacies just mentioned 
will be addressed. We will not only repair the broken and worn out 
facilities, but will also modernize the facilities to meet the ``new 
customers'' of this era.
    More specifically, a good example would be recommended work at Pool 
Knobs Recreation Area within the J. Percy Priest Lake project in 
Tennessee. Reflecting the nature of current unacceptable conditions, 
corrective measures at Pool Knobs Recreation Area will include: (a) 
replacement of asbestos roof tiles with a new roof, (b) reworking 45 
campsites to allow greater spur length and provide modern hookup zones 
with less erosion, (c) providing some sites free of barriers to the 
handicapped, (d) stabilizing the shoreline, (e) reworking entrance 
registration and security measures and (f) renovating playground and 
beach areas. The total estimated cost of the rehabilitation and 
modernization is estimated at $660,000.
    Other repairs and modernization recommendations common to many 
other sites include: (a) replacement or updating of toilet/shower 
buildings, (b) replacing deteriorating walks, steps and access ways, 
(c) providing safe access walkways to restrooms, (d) updating water, 
sewer, electric and phone utilities, (e) renovating the sanitary dump 
stations, (f) replacing sand filters at water treatment plants, (g) 
installing trash collection stations, sodding and seeding to stabilize 
eroded and impacted zones, (h) improving access road systems and 
parking areas to alleviate unsafe driving conditions and constant 
congestion, (i) renovating severely deteriorated interior drainage, (j) 
renovating boat launching areas, (k) enlarging picnic shelters and (l) 
providing amphitheater, walking trail, fishing piers, fish cleaning 
stations, bulletin boards and road signs.

                    FUNDING PRIORITIES AND SCHEDULE

    Question. What is the level of the backlog of improvements needed?
    Dr. Westphal. Of the 4,340 recreation areas at Corps projects 
nationwide, the Corps manages 2,389 of them. Currently, 1,000 areas are 
in need of modernization. The proposed five-year program will provide 
for completion of 225 of those areas most in need of modernization at a 
total estimated cost of $330 million.
    Question. Does the Corps have a plan in place which identifies the 
most critical work to be undertaken first?
    Dr. Westphal. Each division, district, and field project stands 
ready with prioritized lists of work needing to be done. Obviously, 
their attention is drawn to those situations where public safety, 
sanitation, overcrowding and environmental impacts are major factors. 
Currently the Corps is are developing standards for facilities and 
levels of service which will be used in a formal evaluation and 
selection process to ensure the most efficient and effective use of 
these funds. Of the recommendations submitted to the Corps 
Headquarters, selection criteria for sites to be included in the first 
year of implementation are as follows: (a) Addresses customer feedback/
needs. (b) Projects positive impact on fee collections. (c) Projects 
positive impact on long term operation and maintenance. (d) Corrects 
environmental shortfalls. (e) Takes advantage of consolidation 
opportunities. (f) Provides accessibility for persons with 
disabilities. (g) Executes plan, and potential/contractual tools exist 
or can be developed to execute modernization activities quickly.
    Question. Have you developed an annual funding profile through 
completion? If so, please provide it for the record.
    Dr. Westphal. Mr. Chairman, I will provide that information for the 
record.
    [The information follows:]

                RECREATION MODERNIZATION FUNDING PROFILE

    The proposed five-year program will provide for completion of 225 
areas most in need of modernization, at a total estimated cost of $330 
million. The proposed funding profile to complete the modernization 
program, subject to change due to future budgetary decisions, is as 
follows:

                        [In millions of dollars]

        Fiscal year                                             Estimate
2001..............................................................    27
2002..............................................................    63
2003..............................................................    80
2004..............................................................    80
2005..............................................................    80

       ECOSYSTEM RESTORATION AND FLOOD HAZARD MITIGATION PROGRAM

    Question. The budget request also proposed initial funding of $20 
million for the Riverine Ecosystem Restoration and Flood Hazard 
Mitigation program. The Administration has been trying to get the 
program funded over the past several years, but Congress provided 
program authorization only last year. Can you describe the need for 
this program?
    Dr. Westphal. Despite all of our efforts to reduce flood damages, 
there are still many communities susceptible to flood damage. 
Recognizing the significant role of natural floodplains in ameliorating 
flood peaks and thus damages, this program provides the opportunity to 
take a more holistic approach to the problem. In particular, it is 
hoped that in areas where relocation was not economically justified on 
its own that in combination with ecosystem restoration, projects may be 
implemented. It also provides a mechanism through which we hope to 
achieve results in a somewhat shorter time frame than through the 
traditional study and project authorization process.
    Question. How will the funding requested for fiscal year 2001 be 
utilized.
    Dr. Westphal. The funding requested for fiscal year 2001 will 
primarily be utilized for studies, however it is possible that some 
projects may reach the design or even the construction phase during the 
year.
    Question. Are there specific projects to which the funding will be 
allocated, if so, can you provide a list for the record which shows how 
the proposed Finding will be allocated?
    Dr. Westphal. Specific studies and projects to be funded have not 
yet been identified. We are still working on the eligibility and 
ranking criteria that will be used to select studies and projects for 
participation in the program.
    Question. The justification supporting the funding request for 
fiscal year 2001 seems to limit consideration of these funds to non-
structural projects. Is this true, and, if so, why? Doesn't the program 
authorization provide authorization of structural projects as well?
    Dr. Westphal. While the justification supporting the funding 
request failed to mention structural flood control, this was not meant 
to imply that structural flood control features would be excluded from 
consideration since as noted, the authorization does allow structural 
projects. However, in accordance with the language of Section 212(b)(3) 
we would expect the studies and projects to emphasize, to the maximum 
extent practicable and appropriate, nonstructural approaches to 
preventing or reducing flood damages.
    Question. Will the program be managed similar to other Continuing 
Authority Programs?
    Dr. Westphal. With the full funding limit and requirement to notify 
the committees and in some cases obtain a resolution prior to 
implementation of these projects, the program management will likely be 
something of a hybrid between the processes used for specifically 
authorized projects and other Continuing Authority Programs.
    Question. What are the Corps' plans to develop criteria and 
procedures under which proposals will be selected?
    Dr. Westphal. Corps staff is working with my staff to develop a 
draft list of rating criteria that will be coordinated with state and 
local agencies and tribes prior to submission to the committees. 
Additionally the process of drafting policies and procedures for 
implementing this program has been initiated and the Corps plans to 
have them in place prior to receipt of program funding.

        FORMERLY UTILIZED SITES REMEDIAL ACTION PROGRAM (FUSRAP)

    Question. Bring the Committee up to date on the Corps progress in 
cleaning up former sites under the FUSRAP program. How did your 
performance compare to the work schedules planned for fiscal year 1999 
and how are you progressing with work planned for fiscal year 2000?
    General Ballard. Our overall execution of FUSRAP since October 1997 
has been excellent. All of the $140 million appropriated, both in 
fiscal year 1998 and in fiscal year 1999, was expended and over 80 
percent of our expenditures in fiscal year 1999 were used for actual 
remedial activities, including the removal, shipment and disposal off-
site of FUSRAP materials. In addition, the Corps completed remediation 
at two sites during fiscal year 1999, the Ashland 2, Tonawanda, New 
York site and the Bliss and Laughlin, Buffalo, New York site. At all 
except two sites, scheduled work was completed with only minor schedule 
adjustments. The two exceptions were the Painesville, Ohio and the 
Ashland 2 sites. Remediation at the Painesville site was not completed 
as scheduled due to increased quantities of material to be remediated. 
We are now doing additional site characterization at Painesville and 
preparing a revised cleanup plan. At Ashland 2, a substantial increase 
in quantities of soil requiring remediation caused a delay in 
completing remediation and in initiating remediation at the Ashland 1 
site. This delay will not have a significant impact on the completion 
schedule at Ashland 1.
    Total program execution to date in fiscal year 2000 is well ahead 
of work scheduled. Initiation of soils remediation at the Linde, 
Tonawanda, New York site, under a Record of Decision (ROD) has been 
delayed to permit the Corps to address concerns regarding the level of 
cleanup that were raised by the state. The Linde ROD was signed in 
March 2000. As a result of this delay in finalizing the ROD, we 
anticipate there may be some minor delays in the remediation schedule 
at Linde during fiscal year 2000. In addition, remediation of the 
commercial/industrial properties at the Maywood, New Jersey site, which 
was scheduled to be initiated in fiscal year 2000, has been delayed 
while the Corps resolves issues pertaining to Nuclear Regulatory 
Commission licensed storage pits at Maywood. Remediation of the 
commercial/industrial properties is now scheduled for initiation in 
fiscal year 2001. With funds available from the slippage at the Maywood 
site, we will accelerate cleanup at other sites.
    Question. How many sites are in the program? I believe you have 
indicated that you could complete 16 sites by 2002, is that correct? 
Does the budget request of $140 million support this schedule? If not, 
please explain.
    General Ballard. The Department of Energy (DOE) designated 46 
FUSRAP sites. The DOE had completed remedial activities at 25 of these 
sites at the time responsibility for executing FUSRAP was transferred 
to the Corps in October 1997. Our testimony that the Corps could 
complete 16 sites of the remaining 21 sites by 2002 was predicated on 
receipt of an annual appropriation necessary for program execution at 
an optimum level of effort. However, the funding actually provided in 
the fiscal year 2000 Energy and Water Development Appropriations Act, 
as well as the amount budgeted for fiscal year 2001 fall short of that 
required to support an optimum schedule. As a result it is no longer 
feasible to complete 16 sites by fiscal year 2002.
    Question. What will it take to complete the remaining sites after 
2002 and over what period of time? What is OMB's 5-year funding 
projection for the FUSRAP program?
    General Ballard. At current funding levels, with the remaining 
requirement adjusted for anticipated cost growth but not adjusted for 
items not previously included in the Corps cost estimates, such as 
potential new sites referred to the Corps by the Department of Energy 
(DOE), it is estimated it will take until 2010 to complete remedial 
activities and require $1.2 billion. At current funding levels, without 
factoring in the possible impact of potential new sites referred by 
DOE, the Corps will complete 12 sites by 2002, and 4 additional sites 
by 2007.
    OMB's 5-year funding projection for FUSRAP provides $140 million 
annually in new budget authority, adjusted for inflation starting with 
fiscal year 2003. It also reflects estimated offsetting collections of 
$10 million annually, adjusted for inflation starting in fiscal year 
2003. The Corps has received and anticipates receiving $10 million 
annually, fiscal year 1999-fiscal year 2001, offsetting collections 
from the potentially responsible party (PRP) settlement negotiated with 
the W.R. Grace Corporation for use at the Wayne, New Jersey site. While 
the Corps continues with PRP activities at several FUSRAP sites, we 
have no expectation that additional PRP funds will be available in 
fiscal year 2002 or thereafter to supplement new budget authority. The 
PRP process can be protracted, and its outcome uncertain.
    Question. Why does the justification material continue to indicate 
that schedules to complete site remediation are still being determined?
    General Ballard. Out-year program ceilings had not been established 
at the time the justification material was being prepared; 
consequently, completion dates could not be determined.
    Question. Do you expect any problems in turning the Ashland #2 site 
to DOE for long term maintenance? Are there any issues in this regard 
that the Committee should be aware of?
    General Ballard. The Corps does not anticipate any problems in 
turning the Ashland #2 site over to the Department of Energy for long 
term maintenance. The Record of Decision (ROD) for Ashland 2 also 
includes the Ashland 1 site and a small area within the boundaries of 
the Seaway Landfill, Area D. The Corps will wait until the remediation 
of Ashland 1 and Seaway D are completed before starting the 2-year 
short term surveillance and maintenance clock at the Ashland 2 site.

                     ADMINISTRATIVE APPEALS PROCESS

    Question. Public Law 106-60, the Energy and Water Development Act 
for fiscal year 2000 directs that $5 million be used to fully implement 
an administrative appeals process including a single level appeal of 
jurisdictional determinations. Has this process been implemented as 
directed? If not, why?
    General Van Winkle. We expect to publish the final regulation by 
the end of March. It will implement the full appeals process, including 
appeal of jurisdictional determinations. We implemented the appeal of 
permit denials in fiscal year 1999.

                       REGULATORY PROGRAM STUDIES

    Question. The budget request for fiscal year 2001 includes an 
increase of $3 million over fiscal year 2000 for further development of 
specialized tools and studies to manage the aquatic environment in 
sensitive areas. Can you be more specific in describing what these 
tools and studies consist of and why they are needed? Also, how much 
has been spent over the last several years in this area, and 
specifically how the $3 million requested for fiscal year 2001 will be 
allocated?
    General Van Winkle. The Corps of Engineers has, for many years, 
conducted studies of watersheds where they involved high-value aquatic 
ecosystems and substantial pressure for development. These studies 
include watershed studies, Special Area Management Plans, or SAMPs, and 
similar efforts. Examples of substantial efforts include the SAMP for 
the City of Anchorage, Alaska, conducted in the late 1980s; a SAMP for 
wetlands west of Miami, called the Bird Drive Basin, completed in the 
mid 1990s; and studies of the vernal pools in central California's 
Santa Rosa Plain, conducted in the late 1990s. In each of these cases, 
the Corps, in cooperation with State, local and Federal agencies, 
studied the functions and values of aquatic ecosystems in the 
geographic areas, then worked toward issuing regional general permits 
for development in some of the moderate to lower value aquatic areas. 
The higher value aquatic ecosystems can be identified, mapped, and 
generally avoided or subjected to critical and comprehensive evaluation 
by the Corps if development is proposed. The advantage of this approach 
is that moderate to lower value aquatic ecosystems can be subjected to 
streamlined authorization by regional general permits and mitigation to 
improve degraded or lost portions of the aquatic ecosystems in 
watershed areas.
    The results of watershed studies allow more predictability for the 
regulated public and better, more focused protection of the aquatic 
environment. A substantial study will cost up to $1 million over 
several years. A more modest effort may cost $20,000 to $100,000. Over 
the last three years, we estimate that the total amount spent on these 
kinds of studies averaged less than $1 million per year, primarily due 
to funding limitations. A number of our districts have a need for these 
kind of studies in fiscal year 2001. However, due to the projected 
workload impacts of the replacement nationwide permits, we will have to 
do some careful prioritizing of program requirements. We may have to 
reprogram funds from these studies, as well as from other areas of the 
program, to handle the increase in individual permit applications.
    Question. The budget justification implies that these studies help 
reduce the workload for the Corps and reduce duplication for the 
regulated public. Specifically, how do these studies accomplish this 
outcome?
    General Van Winkle. Watershed-type studies provide more 
predictability for the regulated public by identifying the portions of 
the aquatic environment that have higher aquatic functions and values, 
as well as those with lower aquatic functions and values. Someone in 
the regulated community can make more informed decisions about future 
development by knowing the geographic areas in which the Corps will 
have greater concerns for impacts to the aquatic environment. The 
studies ultimately reduce Corps workload in the Regulatory Program by 
streamlining regulation in the area studied. Specifically, the Corps 
issues regional general permits for development in lower-value aquatic 
environment. These regional general permits typically specify 
mitigation measures that will help improve the watershed over time. 
Therefore, the process is expedited because general permits require 
less evaluation to authorize activities and mitigation measures are 
already identified.

                   COMPREHENSIVE RIVER BASIN STUDIES

    Question. The budget request for fiscal year 2001 includes funding 
to initiate four new comprehensive river basin studies. It is estimated 
that the studies will take 4 years and $2 million to complete. These 
studies, as I understand, are interagency efforts to address a host of 
water resource needs and issues in a particular river basin.
    Why are you requesting funding for comprehensive basins studies? 
Given the large and diverse interests in some of these river basins, 
how will you control the process so that one or a small group of 
interests don't inappropriately impact the outcome and pace of the 
study effort?
    Dr. Westphal. In an effort to be responsive to the national needs, 
the Corps is broadening the scope of Civil Works planning to address 
watershed issues and comprehensive impacts of multiple development 
decisions. These studies will address not only impacts of particular 
infrastructure projects, but also the impacts of permit decisions and 
non-Federal development plans. The other Federal agencies and state and 
local agencies involved would provide in-kind services to finance their 
own participation in the study. By calling on the expertise of 
interested Federal, state and local agencies to participate in these 
river basin studies, we will create a synergistic process through which 
the Army Civil Works program can make a major contribution. Study costs 
and schedules will be controlled using the recently developed Corps of 
Engineers automation and management procedures. We will leverage the 
responsibilities of the respective participants for the future benefit 
of the region and the wise use, development, preservation and 
conservation of the water and related land resources.
    Question. In your view, what are the benefits to undertaking a 
comprehensive basin study? What criteria were used in selection the 
four basin studies included in the fiscal year 2001 budget request?
    Dr. Westphal. We are now enjoying the economic benefits reaped from 
the wisdom and foresight of our predecessors who provided a strong 
federal role in national water resources development and management. 
Future generations will rely on our vision to maintain and improve the 
quality of life for them. Initiating studies of water resources needs 
for river basins or regions of the United States signals a return to 
proactive participation to address the future needs of the Nation. The 
difficult selection of these studies was based upon the existence of 
authorizations, the complexity of the watershed challenges, and the 
overall strength of the case presented in the new start justification 
sheets.
    Question. Now, your budget indicates that these studies are 
expected to cost $2 million. My experience is that these types of 
studies take a long time and cost much more than the $2 million dollar 
Federal cost put forth in your budget justification. How confident are 
you that these studies can be completed for $2 million?
    Dr. Westphal. Mr. Chairman, we do not intend these to be replicas 
of the long, drawn-out watershed studies of the past. Our proposal is 
to engage with States, local entities and other Federal agencies to 
take a watershed-based look at the complex interrelationship of the 
problems and opportunities for resource development and restorations. 
These studies are not intended to be decision documents in themselves. 
However, we fully expect comprehensive basin studies to identify 
numerous water resource problems and opportunities. If these turn out 
to be appropriate projects for the Civil Works program, the Corps would 
propose in-depth studies through our normal cost-shared feasibility 
process.

               RIO GRANDE RIVER BASIN COMPREHENSIVE STUDY

    Question. Specifically, as it relates to the Rio Grande River Basin 
Comprehensive Study, how will the Corps of Engineers be able to manage 
the study schedule given the diverse interests in the basin which runs 
from Colorado into Mexico?
    Dr. Westphal. In cooperation with our local sponsors, the Corps 
will integrate the concerns of the various basin interests in a 
comprehensive study scope and apply Corps project management procedures 
to the ultimate benefit of all stakeholders. Communication and 
coordination will be key. In addition to an intensive public outreach 
program, the Corps will conduct periodic focus group sessions with 
local agencies, non-governmental interests and the general public 
including our local sponsor and other interests on the multidisciplined 
study team.
    Question. What is the objective of the Rio Grande River Basin 
Comprehensive study?
    Dr. Westphal. The objective of the Rio Grande Comprehensive Study, 
in cooperation with others, is to evaluate current conditions and make 
recommendations for improving water management on the Rio Grande in 
order to improve environmental quality, prevent flooding, and protect 
the water deliveries required by the Rio Grande Compact and 
international treaty obligations.
    Question. Does the State of New Mexico support this effort?
    Dr. Westphal. Yes, the Corps is currently engaged in dialogue with 
the New Mexico Interstate Stream Commission concerning their 
involvement in this study as the local cost sharing sponsor.
    Question. Your budget justification indicates that the Study will 
be closely coordinated by the Consortium of the Rio Grande in 
accordance with the Memorandum of Agreement signed with federal 
agencies and the CoRio as part of the American Heritage Rivers 
Initiative. Who makes up the Consortium of the Rio Grande?
    Dr. Westphal. Members include Federal and local interests who have 
chosen to work cooperatively based upon the designation of the Rio 
Grande as an American Heritage River.
    Question. Who are the signatories of the Memorandum of Agreement?
    Dr. Westphal. The following are signatories of the Memorandum of 
Agreement: Ty Fain, General Secretary of the Consortium of the Rio 
Grande, Inc.; Representative Silvestre Reyes; Representative Ciro 
Rodriguez; U.S. Army Corps of Engineers; U.S. Department of 
Agriculture; U.S. Department of Commerce; Environmental Protection 
Agency; Housing and Urban Development; U.S. Department of Interior; 
NASA; Department of Health and Human Services; Department of Energy; 
U.S. Department of Education; International Boundary and Water 
Commission; Mayor of El Paso; and Mayor of Laredo; Mayor of 
Brownsville.
    Question. Was this Agreement coordinated with the State of New 
Mexico?
    Dr. Westphal. I have been informed the Agreement was not 
coordinated with the State of New Mexico.
    Question. I understand that the Study is to be cost shared on a 75 
percent Federal-25 non-Federal basis. Have any of the state of 
Colorado, Texas or New Mexico agreed to share the Study cost?
    Dr. Westphal. To date, the Corps has not received a commitment from 
any of the states to cost share this study. However, the Corps has been 
working with the State of New Mexico to establish its support.
    Question. Given the fact that a non-Federal cost share will be 
required, how does the Corps of Engineers plan to control and limit the 
costs of this effort?
    Dr. Westphal. The Corps is currently working with the State of New 
Mexico to develop a scope of activities and a funding schedule which 
will more clearly define the criteria on which decisions are made 
within existing agreements such as Rio Grande Compact and international 
treaty requirements.
    Question. Is it the Corps of Engineers' position that no additional 
work should be undertaken in the basin until this comprehensive study 
is completed?
    Dr. Westphal. No, Sir. Though we see the need for a comprehensive 
approach to Rio Grande watershed management, there are critical ongoing 
studies and projects which should proceed.
    Question. What assurances can you give that this study will not 
adversely impact New Mexico water law, and the State's entitlement and 
use of Rio Grande River water?
    Dr. Westphal. Mr. Chairman, we are extremely sensitive to the issue 
of state water law. I understand the Interstate Stream Commission, as 
the most probable local sponsor of studies under this authority within 
the State of New Mexico, would be interested in using this study to 
develop data and analyses which would assure adherence with New Mexico 
water law. Furthermore, the Army remains, as always, committed to 
supporting and preserving all provisions of the Rio Grande Compact.
    Question. Why shouldn't New Mexico evaluate the competing needs for 
water within New Mexico instead of submitting to this international, 
multi-national effort?
    Dr. Westphal. There are some very complex issues in this area. 
Diverse intrastate interests will influence the study direction 
significantly. However, those interests simultaneously recognize the 
need to mesh local concerns with interstate and international 
agreements. Addressing local needs in the larger forum will provide New 
Mexico additional opportunities to articulate the state's water 
requirements.

           ESPANOLA VALLEY, RIO GRANDE AND TRIBUTARIES STUDY

    Question. Funding was added to the fiscal year 2000 budget based on 
the City of Espanola expressing support for resumption of the Study and 
its willingness to cost share the feasibility phase studies on a 50-50 
basis. Do you expect any problems with the City providing its cost 
share as was the case in past years?
    General Ballard. The problem in past years was not funding but the 
inability of the City and Santa Clara Pueblo agreeing on the use of the 
necessary right-of-way for the project. However, now there is a concern 
that the City will be unable to provide funding to cost share the 
study. Previous assistance from the State may no longer be available.
    Question. I note that the budget justification shows only $24,000 
remaining after fiscal year 2001 to complete the feasibility stage of 
the study. Does the Corps have the capability to complete this work in 
fiscal year 2001?
    General Ballard. The budget request of $50,000 in fiscal year 2001 
and a follow-on funding of $24,000 in fiscal year 2002 reflects a basic 
level of effort due to the uncertainty of not executing the Feasibility 
Cost Sharing Agreement as scheduled. The Corps does not have the 
capability to complete this study in fiscal year 2001. The study will 
be a multi-year effort based on sponsor requested changes since the 
completion of the 1995 draft feasibility report.
    Question. If so how much would be needed?
    General Ballard. If the Feasibility Cost Sharing Agreement is 
executed as scheduled in fiscal year 2000, it is estimated that funds 
of $200,000 could be used to continue the feasibility study in fiscal 
year 2001.

                       ACEQUIAS IRRIGATION SYSTEM

    Question. As you are aware, there have been problems in the past in 
developing and finalizing cost sharing agreements of the Acequias 
Irrigation System project. Have the cost sharing agreement problems 
been resolved?
    General Ballard. Yes, Sir. The State of New Mexico has established 
a new procedure to resolve these problems by prioritizing projects for 
rehabilitation. This enables the State to select and prioritize 
qualified participants early in the process and avoid delay during 
project implementation.
    Question. Are there any issues and problems with the State or other 
non-Federal entity providing their portion of the non-Federal cost?
    General Ballard. State legislation was proposed in fiscal year 2001 
limiting annual state expenditures per project to $250,000. This would 
jeopardize local funding for larger projects and lengthen construction 
duration. Although the bill was not enacted, further discussion is 
expected in the upcoming special session of the State legislature.
    Question. What is the Corps capability on the project in fiscal 
year 2001?
    General Ballard. The Corps capability of $900,000 is the same as 
our budget request.

                    ALAMOGORDO FLOOD CONTROL SYSTEM

    Question. The budget request includes $3 million to continue work 
on the Alamogordo flood control project in New Mexico. Why doesn't the 
budget justification show an estimated completion date to the project?
    General Ballard. Completion dates were listed as ``being 
determined'' because program ceilings beyond fiscal year 2001 were not 
available when justification materials were finalized. Because of this, 
outyear schedules could not be established in time to be reflected in 
the budget justifications, although the schedules are now available.
    Question. Has the completion schedule changed from the date 
anticipated by the appropriation for fiscal year 2000 and, if so, why?
    General Ballard. The completion schedule of September 2009 is the 
same as presented to Congress last year.
    Question. What is the Corps capability to continue construction in 
fiscal year 2001?
    General Ballard. The Corps capability for fiscal year 2001 is $3 
million, the same as the budget request.

                               LAS CRUCES

    Question. The budget request for fiscal year 2000 included $2.4 
million to complete the Las Cruces, New Mexico flood control project. 
Yet I note that the budget request for fiscal year 2001 includes an 
additional $2.841 million to again complete the project. Why won't the 
project be completed as scheduled?
    General Ballard. Additional time was required for acquisition of 
real estate and to incorporate design changes requested by the City of 
Las Cruces. Construction is now underway, but due to the delay, surplus 
funds were reprogrammed from the project.
    Question. Do you expect any cost increases or other problems that 
would prevent you from completing the project in fiscal year 2001?
    General Ballard. No, Sir.
       rio grande floodway, san acacia to bosque del apache unit
    Question. Can you explain why the effort on the Rio Grande 
Floodway, San Acacia to Bosque del Apache project continues at such a 
low level, particularly when construction was initiated in fiscal year 
1992?
    General Ballard. There are many diverse and competing interests for 
water in this area. Meeting our local sponsor's requirements while 
addressing various concerns from other interests has impacted design of 
the recommended plan. The listing of two new endangered species has 
also given rise to environmental issues not considered during project 
formulation.
    Question. What is the 5-year budget profile for this project?
     General Ballard. The 5-year program, subject to change as a result 
of future budget decisions, is listed below:

Fiscal year
    2001......................................................  $600,000
    2002...................................................... 4,500,000
    2003...................................................... 8,300,000
    2004...................................................... 7,000,000
    2005...................................................... 5,600,000

    Question. What is the Corps fiscal year 2001 construction 
capability?
    General Ballard. Although our fiscal year 2001 capability is 
$600,000, the same as the budget request, physical construction would 
not be initiated until project issues have been resolved.
                                 ______
                                 

              Questions Submitted by Senator Thad Cochran


                   CORPS OF ENGINEERS FINANCE CENTER

    Question. Mr. Secretary, would you please explain the proposed 
capitalization of the Corps of Engineers Finance Center by the Defense 
Finance and Accounting Service and the impact that it would have on the 
Corps and it contractors?
    Answer. DFAS has proposed to capitalize the operating finance & 
accounting functions performed by the Corps of Engineers Finance Center 
(UFC) in Millington, Tennessee, on June 30, 2000, as one of the final 
actions under Defense Management Review Directive 910. With the 
capitalization, DFAS would assume all finance and accounting operation 
functions including disbursements performed by the UFC. Under this 
scenario, the UFC would become a DFAS operating location (OPLOC) 
reporting to DFAS, Indianapolis.
    The Army has worked closely with DFAS to review the savings already 
achieved by the Corps in its consolidation of its nationwide financial 
actions into the UFC and to identify any additional savings that might 
be realized by capitalizing the UFC into DFAS. The Army has noted to 
DFAS the unique nature of the Corps Civil Works and Support for Others 
financial actions and has expressed concerns about potential impacts on 
accuracy, timeliness and integrity of the financial data and timeliness 
of payments to contractors.
    Question. Would it have any impact on the Corps' ability to respond 
to emergencies?
    Answer. The Army and DFAS would make certain before any such 
capitalization occurs that the Corps emergency response capability, 
specifically the ability to procure/contract for goods and services 
very rapidly and to pay for those goods and services upon receipt, 
would not be compromised.
    Question. What impact could it have on the current workforce and 
service?
    Answer. There are about 300 hundred Corps of Engineers employees 
currently performing the functions which would be capitalized. These 
positions would become part of DFAS. Any future actions affecting these 
positions would be within the purview of DFAS, rather than the Corps.
    Question. How would the proposal impact local sponsors, which cost 
share most Corps projects?
    Answer. The Army has expressed to DFAS concerns that such a 
capitalization has the potential to increase costs, which would affect 
non-Federal sponsors as well as the Federal Government.
                                 ______
                                 

              Questions Submitted by Senator Slade Gorton

                  TIMEFRAME FOR PREFERRED ALTERNATIVE

    Question. Two weeks ago I met with General Carl Strock in my office 
regarding the status of the Corps' EIS. He advised at that time that 
the Corps may be issuing a (preferred alternative( on whether to breach 
the Snake River dams this fall. Can you specify a more precise 
timeframe as to when the Corps intends to release this information, and 
whether the public will have an opportunity to comment on it before it 
becomes final? What additional information, if any, will the Corps 
incorporate into its final decision?
    Dr. Westphal. There are a number of factors that make it difficult 
to precisely determine when the Corps will identify a Preferred 
Alternative. For example, the Corps must analyze all the comments 
received during the public review period. Therefore, the schedule is a 
function of the number and the complexity of the comments. To date we 
have received over 40,000 comments and we fully expect that the final 
number will be in the range of 100,000. We have granted the requested 
30 day extension of the public comment period until April 30. This will 
delay completion of the Final EIS. Additionally, the National Marine 
Fisheries Service (NMFS) is expected to release a Biological Opinion 
for the operation of the Federal Columbia River Power System this 
summer, which could significantly effect future actions for the lower 
Snake River dams. Although we considered preparing a Revised Draft 
Environmental Impact Statement with a preferred alternative, the 
current plan is to proceed directly to a Final EIS unless new 
information is received that would dictate otherwise. In either event, 
the public will have an opportunity to review the proposed federal 
action before a Record of Decision is prepared. It is anticipated that 
the document will be available for public review late this fall.
    It is our intent to use the best available information. New 
information arising from public and agency comments will be used in our 
decision process.

         SNAKE RIVER PREDICTED CHINOOK RUNS VS. COLUMBIA RIVER

    Question. Can you provide an estimate as to whether the natural 
runs for spring and summer chinook salmon in the Snake River will 
increase or decrease this year? How will the Snake River salmon runs 
compare this year to the runs on the Columbia? If the runs on the Snake 
River are improved from last year, will this new information be 
factored in on any additional feasibility studies?
    Dr. Westphal. The spring and summer chinook salmon adult returns to 
both the Snake and Columbia rivers are expected to be higher this year 
than in 1999. That includes both the hatchery and naturally-produced 
fish. All available scientific information will be factored into the 
feasibility studies; however, I must caution that the Summer of 2000 
adult returns are only estimates at this time, based on the jack 
returns in 1999, and subject to revision as the runs progress. Jacks 
are juvenile salmon that return a year early and serve as a predictor 
of the returns for the following year. There are natural fluctuations 
in salmon returns from year to year. Despite the encouraging returns 
for 2000, the National Marine Fisheries Service's modeling analyses 
(CRI) show that long term population trends indicate a decline for 
these salmon stocks.

                  COMPARISON TO UPPER SNAKE RIVER DAMS

    Question. Your draft EIS states that you have a very high rate of 
survival for juvenile and adult salmon through all four of the Snake 
River projects. I am assuming that some of this success may be 
attributed to the fish passage improvements at Ice Harbor, Lower 
Monumental, Little Goose, and Lower Granite Dams over the past few 
years. Isn't it true that no fall chinook may pass through on any of 
the dams further upstream on the Snake River because they have no such 
improvements?
    Dr. Westphal. That is correct. The Hells Canyon Project, which is 
the next complex of dams on the Snake River above Lower Granite 
Project, is made up of three dams: Hells Canyon, Oxbow and Brownlee. 
These projects, owned by Idaho Power Company, do not include passage 
facilities for either adult or juvenile salmon. All salmon and 
steelhead runs into Idaho above the Hells Canyon complex have been 
eliminated.

                DELAYED MORTALITY OF SALMON THROUGH DAMS

    Question. Will any additional scientific data be used in a final 
Corps EIS to explain the delayed mortality of salmon, which the Corps 
acknowledges in its draft EIS? Which agencies will the Corps be 
coordinating with to get this information?
    Dr. Westphal. The Corps has relied, and will continue to rely, on 
the National Marine Fisheries Service (NMFS) as the Federal biologist 
on anadromous fish issues. The short answer to your question is no. We 
do not anticipate that there will be additional scientific data 
available for the Final EIS on delayed mortality. NMFS has indicated 
that ``. . . the extent to which transported fish suffer differential 
delayed mortality is a crucial question because the answer strongly 
influences the possible advantage to be accrued by dam drawdown 
[breaching]. Ongoing direct experiments that contrast the return rates 
of tagged fish that pass through the hydrosystem versus the return 
rates of transported fish can resolve this question in a clear and 
unambiguous manner. It will, however, require several years to obtain 
sufficient data because sample sizes of recaptured returning fish are 
typically low, the magnitude of differential delayed transportation 
mortality may vary with climate, and measurements from only a few years 
may fail to capture extreme values that could have important ecological 
effects.''

                             CASPIAN TERNS

    Question. The Corps issued an Environmental Assessment in January, 
which reveals that some 1,200 terns were moved from Rice Island, and 
about 77 percent of the salmon population in that area was recovered. 
We understand that the Corps has an even more aggressive plan to remove 
terns this year. Will this information be incorporated into the Corps' 
final EIS?
    Dr. Westphal. The Portland District is proceeding with the Caspian 
Tern fiscal year 2000 Management Plan, which includes preventing 
Caspian Terns from nesting on Rice Island, Miller Sands Spit and Pillar 
Rock for the 2000 nesting season. Last year, 8,100 pairs nested on Rice 
Island while 1,400 pairs nested on prepared habitat on East Sand 
Island. Research indicated that in 1998 the Caspian Tern colony on Rice 
Island consumed between 7.7 percent (7.4 million) to 15.8 percent (10.8 
million) of the estimated 96.6 million salmonid smolts that reached the 
Columbia River estuary. The best estimate of smolts consumed by the 
terns is 11.2 percent (10.8 million).
    Analysis of Caspian Tern diets from the 1999 pilot project 
indicates that the consumption of salmonids by terns nesting at East 
Sand Island was 44 percent of their diet versus 75 percent of that of 
terns continuing to nest at Rice Island. Consequently, we expect that 
the avian management actions to be implemented this year will result in 
a significant reduction in juvenile salmonid loss due to bird 
predation. We are looking to the U.S. Fish and Wildlife Service to 
describe a long-term management plan for the terns with the hope that 
areas outside the Columbia River estuary can be found for the bird 
colony.
    We will continue to look at and include any new scientific 
information on bird predation that could affect study results in the 
final EIS. That includes the effect of predation on the juvenile fish 
and actions that could reduce predation.

                      OCEAN CLIMATE CHANGES & EIS

    Question. Why hasn't the Corps incorporated information regarding 
the impact of ocean climate changes on the decline of salmon runs in 
its EIS? Are there any plans to use research in a final EIS?
    Dr. Westphal. The Draft EIS does contain information on the ocean 
and climatic effects on salmon and steelhead. This information is 
referred to in a number of locations throughout the report, with the 
lengthiest discussion starting on page 5.4-62 and in Appendix A. As the 
primary study objective is to improve migration conditions through the 
lower Snake River, the study does not seek to develop a life-cycle 
recovery plan.
    If more detailed information becomes available on ocean conditions 
and how it effects salmon populations, we will incorporate it into our 
Final EIS. The CRI analysis suggests ``. . . survival of adults in the 
ocean is a key life history stage. Unfortunately, ocean conditions are 
little more than a black box for all salmonids, and there is a need for 
long-term research focused on the relationship between ocean conditions 
and salmonid population dynamics. This research will not help inform 
decisions over the next few years, but could help place population 
fluctuations in a broader context over the long term. So management 
actions might better respond to those threats that are best mitigation 
by non-ocean actions.'' Research efforts have recently begun on ocean 
conditions.

                        JOHN DAY DRAWDOWN STUDY

    Question. I am concerned reports that the Oregon State Fish and 
Wildlife department may be questioning your analysis on the John Day 
Drawdown study, and is pressing the Corps to pursue further study of 
this issue. I do not believe that further study is warranted, nor will 
it lead to any additional information that will positively impact. Can 
you explain the Corps' position on the John Day drawdown and when we 
can expect a final decision?
    General Ballard. As you know, the draft John Day report is out for 
public and agency review. Our preliminary recommendation is that no 
further study is required to allow Congress and the Region to make a 
decision regarding drawdown of the John Day reservoir or removal of the 
John Day Dam. We will evaluate all comments received during the review 
period, due to close on May 1, 2000, including those from the State of 
Oregon, before making our final recommendation to Congress.
    We fully understand that diverse views regarding further study are 
prevalent throughout the region. Let me assure you that the Corps of 
Engineers will base its recommendation on the best science available. 
We anticipate completion of the Phase I report this summer. Our final 
recommendation to Congress will be made in late September of this year.

                    COLUMBIA RIVER CHANNEL DEEPENING

    Question. As you know, I have strongly supported deepening the 
Columbia River navigation channel from 40 to 43 feet. It will enable 
the newer generation of cargo ships with their deeper drafts to serve 
the Columbia/Snake River system. Sustaining that service will allow 
thousands of businesses, farms, and ranches to continue to compete 
successfully in the world marketplace.
    The Corps of Engineers issued a favorable Chief's Report on the 
project in late December, so it is fully authorized. Pre-construction 
Engineering and Design and land acquisition are underway and will be 
completed during fiscal year 2001. Some environmental features of the 
project, which are very important to its success in my part of the 
country, will be ready for construction in fiscal year 2000.
    Unfortunately, because the Chief's Report was completed so late in 
the budget preparation cycle, construction funds for the Columbia River 
project could not be included in the President's budget request. 
However, if Congress were to appropriate a small amount of construction 
funds [$4 million] for fiscal year 2001, would be Corps be capable of 
beginning construction of these environmental features during fiscal 
year 2001?
    General Ballard. Yes, subject to the usual qualifications, the 
Corps of Engineers would be capable of initiating part of the 
environmental restoration component of the Columbia River Channel 
Improvements Project. This capability is dependent, however, upon the 
non-Federal sponsor's execution of their plan to acquire the lands 
necessary for construction.
    Question. In addition, the National Marine Fisheries Service 
included a requirement that the Corps and local sponsors secure and 
improve 5,000 acres in the estuarian habitat as mitigation for the 
deepening project. What steps is the Corps taking to meet this 
requirement?
    General Ballard. The Biological Opinion for the Columbia River 
Channel Deepening project clearly states in the terms and conditions 
that the Corps will, ``as part of the Corps' ecosystem restoration 
mission and responsibility under separate authority, independent of the 
Channel Improvements Project, expedite the attainment of the objectives 
of the Lower Columbia River Estuary Program by restoring 1,500 acres of 
tidal wetlands by 2005, and 3,000 acres between 2005 and 2010, subject 
to Congressional authority and appropriation''. Fiscal year 2002 funds 
for a new General Investigation (GI) study would be needed in order to 
fulfill this term and condition. This GI study would specifically 
address environmental restoration in support of the Lower Columbia 
Estuary Program. The restoration of habitat is not considered part of 
``mitigation for the deepening project''.
    Question. Although some mitigation measures were included in the 
Chief's Report, the number of acres involved will not meet the 
requirements established by NMFS. In what ways can the Corps use other 
authorities to work with the local sponsors to provide the habitat 
improvements required by NMFS?
    General Ballard. The items included in the Chief's report include 
mitigation for impacts due to upland disposal impacts to wildlife. The 
items referred to in the Biological Opinion's terms and conditions 
relate to restoration actions. This is an important distinction. The 
Biological Opinion states that the Corps will, ``as part of the Corps 
ecosystem restoration mission and responsibility under separate 
authority, independent of the Channel Improvement Project, expedite the 
attainment of the objectives of the Lower Columbia River Estuary 
Program by restoring 1,500 acres of tidal wetlands by 2005 and 3,000 
acres between 2005 and 2010, subject to congressional authority and 
appropriation.'' The Corps intends to use a future General 
Investigation Study as a vehicle for evaluating and seeking authority 
to provide the habitat restoration. We will also use Section 1135, 
Project Modifications for Improvements to the Environment and Section 
206, Aquatic Restoration, both part of our Continuing Authorities 
Program, for habitat restoration.
                                 ______
                                 

               Questions Submitted by Senator Harry Reid

    Question. Dr. Westphal, I sense a growing concern in this country 
regarding the state of our environmental infrastructure, that is, our 
water supply and distribution systems and sewage collection and 
treatment systems. We've correctly determined that much more needs to 
be done in the future to assure these systems are as modern and 
functional as possible, but our traditional process of assigning 
responsibility for this work mostly at the local government level, and 
our mechanisms for financing needed improvements have been found 
wanting. The Federal Government has imposed increasingly strict 
requirements on water supplies and discharges, realizing that water 
problems affect all of us, not just those within a given local 
political jurisdiction where a discharge, for example, might occur. 
These new standards are imposing great demands, however, on local 
governments. The demands are especially difficult for poor rural 
areas--and poor urban areas for that matter. Congress has taken a few 
steps in the right direction in recent Water Resources Development Acts 
by creating an opportunity for the Corps to bring its expertise to bear 
on the problem. I'm particularly interested in one of these provisions 
for rural Nevada and Montana contained in Section 595 of WRDA 99, but 
there are a host of others as well across the country, indicating to me 
that many of my colleagues have similar concerns. Despite your growing 
authorities to address these problems, you have not as yet budgeted for 
any of them. Why not? Don't you believe these needs are important?
    Answer. Answered at hearing P. 36 LINE 22.
    Question. Did you recommend to OMB that work under these 
authorities be funded?
    Dr. Westphal. I recommended to OMB that several environmental 
infrastructure projects for which Congress had previously appropriated 
funds be included in the President's budget. My recommendation did not 
include work authorized by section 595 because I believed that ongoing 
activities had a better chance of being budgeted.
    Question. General Ballard, does the Corps have the capability and 
expertise to address these problems?
    General Ballard. Yes, we do.

                         EVERGLADES RESTORATION

    Question. Dr. Westphal, The administration has placed a great deal 
on emphasis on restoration of the Florida Everglades. I too am in favor 
of this extensive environmental restoration. However, I am concerned 
about the cost and the potential impacts to other worthy projects 
within the Corps' annual budget. It is important to the Congress that 
the Corps' budget balance all of the various water resources needs of 
the nation. The extent of the financial commitment for the Everglades 
will put a tremendous strain on this balanced approach without 
significant increases in the Corps' budget in coming years. Dr. 
Westphal, Is the administration making provisions in the outyears to 
increase the Corps' budget targets to account for the tremendous 
increases necessary to fund the Everglades restoration?
    Dr. Westphal. OMB's outyear projections for the Army Corps of 
Engineers and other agencies illustrate funding levels that would 
maintain roughly a constant level of total spending in real terms. The 
outyear levels do not represent a particular level of funding in any 
future year. We would expect the next Administration to consider an 
appropriate balance of funding for Everglades restoration and other 
worthy Corps projects and activities when it establishes budget targets 
for the Corps of Engineers.
    Question. General Ballard, This tremendous amount of new work in 
Florida is likely to strain your staffing resources in the area. 
Assuming this work is funded at anticipated levels, how will the Corps 
undertake this additional work within current staffing levels?
    General Ballard. We believe we should be able to accommodate the 
Everglades work within the overall Corps FTE allocation using a 
combination of Corps FTE personnel and Architect/Engineering contracts.

                            SHORE PROTECTION

    Question. Dr. Westphal, Shore Protection projects, with very few 
exceptions, are conspicuously absent from the President's budget again 
this year. Congress, at the urging of the Administration, modified the 
cost sharing provisions for shore protection projects in WRDA 99. By 
making these changes, we expected some movement within the 
Administration to budget for these vital projects. Why has the 
Administration refused to budget for these projects despite the 
concessions by Congress on cost sharing issues?
    Dr. Westphal. The fiscal year 2001 budget includes $55 million for 
shore protection projects, a $21 million (62 percent) increase over 
funding requested for these projects in the fiscal year 2000 budget. 
Although the Water Resources Development Act of 1999 increased the cost 
sharing for shore protection, the Administration's policy on shore 
protection projects remains unchanged from prior years, because the 
revision included by Congress did not go far enough in changing the 
cost sharing for periodic nourishment. The Administration proposed 
increasing the non-Federal share of periodic nourishment from 35 
percent to 65 percent. WRDA 1999 increased the non-Federal cost share 
to 50 percent for shore protection projects for which a feasibility 
study is completed or for which the project is authorized after 31 
December 1999. Thus the non-Federal cost share falls short of the level 
the Administration had desired and a great many projects would be 
totally exempted from the new cost sharing. I look forward to 
continuing to work with congress to reach agreement on this issue in 
the next Water Resources Development Act.
    Question. Did you advocate to OMB that these projects should be 
budgeted?
    Dr. Westphal. Yes, I supported funding each of these projects at 
the level recommended by our Divisions.
    Question. Shoreside communities contribute billions of dollars to 
our national economy. These projects provide protection for these 
communities as well as providing recreation for the citizens of this 
country. Doesn't the Administration feel that jobs and tax dollars 
generated in these communities are worth preserving?
    Dr. Westphal. Yes, however the Administration also believes that, 
in most instances, these communities can use some of the funds they 
generate to finance the shore protection they need. It is for this 
reason that the Administration is seeking higher cost sharing from the 
non-Federal sponsors for shore protection.

                           REGULATORY PROGRAM

    Question. General Ballard, the Corps has recently proposed new 
wetland rules. In the past, I have been concerned over the length of 
time involved in securing Corps' permits. These new wetland rules will 
increase your workload tremendously. A comparison of your proposed 
Regulatory Program shows that you received $106 million in fiscal year 
1999, $117 million in fiscal year 2000 and are requesting $125 million 
in fiscal year 2001. An increase of only $8 million for fiscal year 
2001 does not seem adequate for the increase in workload that these new 
rules are likely to generate. Is your staff and budget adequate to 
respond to all of these new permit requests in a timely manner?
    General Ballard. The fiscal year 2001 budget request was not 
developed to reflect workload generated by the nationwide permit 
changes since the request predates completion of our study of the 
nationwide impacts. However, we do anticipate that the fiscal year 2001 
funding request increase, if approved, would partially address the 
individual permit workload but would not be adequate to maintain our 
current performance levels.

                          CONSTRUCTION BACKLOG

    Question. Dr. Westphal, estimates range from $30 to $45 billion in 
backlogged water resources needs in this country. An administration 
budget of $4 billion is inadequate to fund these great needs. Congress 
has generally increased the budget somewhat in order to try to fund 
some of these needs, however, the Congress cannot increase the Corps' 
budget to the levels needed without some leadership from the 
Administration. As the senior Administration advocate for the Corps, 
how are you actively seeking to increase the Corps' share of the 
Federal dollar?
    Dr. Westphal. I have actively worked within the Administration to 
educate others on the magnitude of water resources needs and their 
importance to the well being of the Nation. As you know there are many 
competing interests for the Federal dollar. The Administration's fiscal 
year 2001 budget request strongly supports investments in water 
resources, including $78 million for 14 new construction starts, $27 
million for recreation modernization, and $20 million for the newly 
authorized Challenge 21 program. In fact, the Administration's fiscal 
year 2001 budget request of $4.064 billion is virtually equivalent to 
Congress' fiscal year 2000 appropriation of $4.113 billion. As long as 
I am Assistant Secretary, I intend to continue advocating greater 
priority for Civil Works funding to better address the Nation's water 
resources needs.

                      HARBOR SERVICES FUND AND FEE

    Question. Dr. Westphal, the Committee is aware that the Supreme 
Court ruled a portion of the Harbor Maintenance Tax as 
unconstitutional. The Administration has proposed a Harbor Services 
Fund and Fee as a replacement for the Harbor Maintenance Trust Fund and 
Tax. What other options did the Administration consider in lieu of this 
fee?
    Doctor Westphal. The Administration worked to develop a proposal 
that was economically and constitutionally supportable. Chiefly due to 
the Supreme Court decision and the General Agreement on Tariffs and 
Trade (GATT) concerns of some of our international trading partners, no 
other options were determined to be viable. The tax has been challenged 
by the European Union in the World Trade Organization as a violation of 
GATT. If the European Union ultimately prevails in a case, the tax 
would most likely have to be repealed in order to avoid damages. If 
Congress does not replace it with another financing mechanism, one that 
can withstand constitutional tests, then work programmed for port 
improvements and maintenance will have much stiffer competition from 
appropriations from other Federal programs and activities. A 
constrained budget will not support a program that will bring 
navigation improvements on line sooner and, probably, at less cost.

                          MAINTENANCE BACKLOG

    Question. It is the Committee's understanding that there is a large 
backlog of critical maintenance at existing Corps projects. Could you 
please comment on this backlog, provide examples of the type of 
maintenance that is backlogged and the procedures used to prioritize 
and budget for this backlog.
    General Ballard. The fiscal year 2001 maintenance backlog is around 
$451 million, equal to 24 percent of the $1.854 billion budget request 
for O&M. It covers all of our O&M business functions as follows: 
Navigation--$276 million, Flood Control--81 million, Hydropower--$30 
million, Environmental Stewardship--$13 million and Recreation--$50 
million. Some specific examples would include: (a) repair spillway gate 
in the McNary Lock and Dam in Oregon, (b) dewater and perform major 
repairs at Port Allen Lock on the Gulf Intracoastal Waterway in 
Louisiana, (c) repair the South Beach Groin at Ventura Harbor in 
California; and (d) repair severe deterioration of existing riprap on 
Coyote Dam at Lake Mendicino in California.
    Over the last year I have conducted intensive reviews with each 
division commander analyzing his O&M program from top to bottom. We 
have identified the highest priority maintenance backlog and have 
instituted aggressive programming measures to concentrate available 
resources on the most critical needs. In fiscal year 1999, the 
unexpended carryover was reduced by $110 million with a good portion of 
these funds applied toward the backlog. We continue to look for 
efficiencies in the O&M program with savings being applied toward 
helping to reduce the maintenance backlog to a manageable level.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

          ROBERT C. BYRD LOCKS AND DAM, WEST VIRGINIA AND OHIO

    Question. Please provide an estimate of the increased capability 
and the reduction in navigation delays since operations of the new 
locks commenced in January 1993. Please also provide an estimate of the 
navigation savings during this same time.
    General Griffin. The capacity of the old Gallipolis locks was 
estimated to be 63.3 million tons. With the new R.C. Byrd locks, 15-
barge tows typically can be processed in one operation rather than the 
two operations necessitated by the smaller Gallipolis locks. Transit 
times have been reduced from an average of 16 hours per tow to 1.5 
hours per tow. The capacity of the new locks is estimated at 148.5 
million tons.
    Since the new locks opened in 1993, annual traffic has grown from 
45 million tons to 56 million tons in 1999. In the first seven years of 
operation, the new locks have realized transportation savings of an 
estimated $227 million. The total project cost is $379 million. The 
incremental cost (over the without-project condition) is estimated at 
$263 million. Cumulative savings to date represent 86 percent of the 
incremental cost of the new locks. At present traffic levels, it is 
expected that the R.C. Byrd Locks and Dam project will pay for itself 
by 2001.

                 WINFIELD LOCKS AND DAM, WEST VIRGINIA

    Question. Please provide an estimate of the increased capability 
and the reduction in navigation delays since operation of the new lock 
commenced in November 1997. Please also provide an estimate of the 
navigation savings during this same time.
    General Griffin. The capacity of the old Winfield project was 
estimated at 24 million tons. With the new lock, typical five barge 
tows can be processed on one operation, rather than the five operations 
necessitated by the smaller locks. Processing times were reduced from 
about 170 minutes per tow to 64 minutes. The capacity of the new lock 
is estimated at 69.5 million tons.
    Since the new lock opened, transit times through Winfield have been 
reduced by approximately 12.5 hours per tow and total lockages have 
reduced from over 22,000 to about 3,000. In the two years of operation, 
the new lock has realized an estimated $23 million in transportation 
savings. The cumulative savings represent 10 percent of the incremental 
cost of the new lock. The total cost of the project is estimated at 
$227.5 million. This total cost is also the incremental cost because 
there was no construction in the ``without project'' condition. The 
traffic forecast in the feasibility report tracks very well with actual 
traffic at Winfield. At forecast traffic levels, it is expected that 
Winfield lock will pay for itself by 2012.

          BLUESTONE LAKE (DAM SAFETY ASSURANCE), WEST VIRGINIA

    Question. Bluestone is a fifty-year-old dam on the New River just 
above Hinton and the confluence of the New and Greenbrier Rivers. The 
Huntington Corps of Engineers reports that the dam does not meet 
today's safety criteria. In fiscal year 2000, Congress provided 
$750,000, which was supplemented by a reprogramming of approximately 
$3.9 million, to initiate a new construction start on Phase I work on 
the Bluestone Dam Safety Project.
    What work will be completed with the fiscal year 2000 funds?
    General Griffin. Fiscal year 2000 funds will be used initiate 
construction of Phase 1, consisting of the resident engineer's office, 
penstocks extension, and mass concrete thrust blocks. Plans and 
specifications will be started for the second phase, which consists of 
a 13 foot pre-cast concrete wall, State Route 20 gate closure, and 
anchors.
    Question. What risks are currently posed by the Bluestone Dam to 
the communities and businesses, and environments below the dam?
    General Griffin. Under current design criteria, the probable 
maximum flood is estimated to overtop the existing dam by 13 feet. Dam 
failure would cause catastrophic flooding along the Greenbrier, New, 
Gauley, Kanawha, and Elk Rivers, including the metropolitan area and 
heavily industrialized capital city of Charleston, West Virginia. This 
would place more than 115,000 persons at risk, with property damages in 
excess of $6.5 billion. However, the probable maximum flood has a small 
likelihood of occurring in any given year.
    Question. What level of flooding would cause the dam to fail 
catastrophically? How likely is it that such a level of flooding might 
occur? What is the likelihood that the dam will fail in the next 50 
years? In the next 100 years?
    General Griffin. The dam would be in danger of failing if pool 
levels approaching the top of the existing dam were to occur. This 
flood level, known as the 500 year flood event, has a 0.2 percent 
chance of occurring in any year, a 10 percent chance of occurring at 
least once in the next 50 years, and an 18 percent chance of occurring 
at least once in the next 100 years.
    Question. Are there additional Corps capabilities for this project 
for fiscal year 2001 above those identified in the President's fiscal 
year 2001 budget?
    General Griffin. Yes, subject to the usual qualification, the Corps 
has additional capability of $8.7 million above the President's Budget 
request of $6.3 million, for a total of $15 million. The capability-
level funds would be used to complete engineering and design for the 
preferred alternative, complete phase 1 construction, and initiate 
phase 2 construction. Capability-level funds would advance overall 
project completion by one year.
    Question. What additional measures can be taken to minimize the 
risks to the public and to ensure that this project remains on track 
and a high priority?
    General Griffin. In order to reduce risk as early as possible in 
the project schedule, the project was separated into phases. The first 
phase includes modifications to the existing penstocks and construction 
of concrete thrust blocks. Construction of these features will improve 
stability of the dam and increase the discharge capacity of the dam 
during rare flood events.

                 GREENBRIER RIVER BASIN, WEST VIRGINIA

    Question. The pristine Greenbrier River Basin of West Virginia is 
one prone to extensive flooding. The Water Resources Development Act of 
1996 authorized the Corps to implement local protection plans to help 
mitigate damage from future flooding.
    Has the Corps reached an agreement with the City of Marlinton on a 
local flood protection plan? Have the details of the plan been worked 
out and agreed to among the participants?
    General Griffin. The Corps and the City of Marlinton have 
identified two plans of protection. Both include a levee down the front 
side of Marlinton that borders the Greenbrier River and a secondary 
levee along the Riverside area of town. One plan involves the extension 
of the levee upstream along Knapps Creek, and the other plan involves 
construction of a Knapps Creek diversion channel. The costs of the two 
plans currently are being evaluated.
    Question. What is the projected non-Federal cost? What is the total 
cost?
    General Griffin. The total cost of the least-cost plan is estimated 
to be not more than about $75 million. The local sponsor would qualify 
for a reduction in its cost share to 14 percent, based on ability-to-
pay provisions. Therefore, the non-Federal share of the least-cost plan 
would be no more than about $10.5 million. However, if one plan proves 
to be more costly and the local sponsor prefers that plan, the local 
sponsor also would pay the full incremental costs of that plan.
    Question. What activities are currently being conducted on the 
Marlinton local protection plan?
    General Griffin. The Corps is finalizing design, conducting field 
investigations, and evaluating the feasibility of the two alternatives 
in the Knapps Creek area.
    Question. What capabilities does the Corps anticipate for fiscal 
year 2001 for the Marlinton local protection plan?
    General Griffin. Subject to the usual qualification, the fiscal 
year 2001 capability is $1.0 million. If provided, these funds would be 
used to continue detailed design and to complete the detailed project 
report and NEPA compliance.
    Question. When can construction on the Marlinton project begin?
    General Griffin. If funds are provided, construction could begin in 
fiscal year 2002 in a limited area.
    Question. What is the status of the flood warning system for the 
Greenbrier River Basin? What benefits are anticipated or have been 
achieved already with its installation?
    General Griffin. The flood warning system is complete and 
operational. Since installation was completed in Fall 1999, there has 
been no basin flooding that has required use of the system. The primary 
benefit of the flood warning system is that it provides advanced 
notification of impending flooding conditions. This additional warning 
time is beneficial to reduce flood damages and save lives.
    Question. Have other localities, such as the cities of Ronceverte, 
Alderson, Durbin, Cass, Renick, which are authorized for flood damage 
reduction plans under the Water Resources Development Act of 1996, 
expressed interest in pursuing projects?
    General Griffin. At this time, there are no other expressions of 
interest to pursue a project.
    Question. Is the current authorization of $47 million as modified 
by section 360 of the Water Resources Development Act of 1999, for 
federal participation sufficient to complete the Marlinton project, 
factoring in inflation and possible future participation from other 
localities mentioned above in flood protection projects? What level 
would be sufficient?
    General Griffin. The current authorization of $47 million is not 
sufficient to complete the Marlinton project and initiate work on other 
projects. The Federal share of the Marlinton project alone, including 
expected price level adjustments for inflation, is estimated to be $65 
million. The Federal share of projects for other localities such as 
Ronceverte, Alderson, Cass, Durbin, and Renick would not be quantified 
until a definitive plan and schedule were established, but the total 
for the Greenbrier River Basin is likely to be well over $100 million.

                  MARMET LOCKS AND DAM, WEST VIRGINIA

    Question. Congress provided $11,350,000 last year to advance 
engineering, design, and land acquisition for the Marmet Lock 
replacement project. The President's budget request is $6,500,000, 
which is far less than last year's enacted level and the $9,800,000 
requested by the Administration.
    Is the Marmet Lock replacement important to maintain and increase 
the efficient flow of commerce? How many tons of cargo, and what type 
of cargo, were shipped through the locks in 1999? Does the project have 
a strong benefit/cost ratio?
    General Griffin. The Marmet lock replacement is essential to 
maintain and increase the flow of commerce. The locks move millions of 
tons of cargo to and from West Virginia. Improvements at Marmet would 
reduce the average transit time of 5.5 hours to around 1 hour, a 
reduction in lock transit time of 4.5 hours. At current traffic levels, 
the new lock would yield 23 thousand hours of reduced trip time for the 
4,300 tows that used the project. In 1999, more than 14.7 million tons 
of commerce locked through Marmet, including 13.6 million tons of coal, 
580 thousand tons of petroleum and chemical products, and 440 thousand 
tons of stone. The remaining benefit-to-cost ratio is 4.7 to 1.
    Question. The President's budget request for the project is 
$6,500,000, which is far less than last year's enacted level of 
$11,350,000 and the Administration's fiscal year 2000 request of 
$9,800,000. Why has the Administration significantly reduced the fiscal 
year 2001 request as compared to fiscal year 2000 request? Does this 
project not warrant continued strong support and funding?
    General Griffin. The fiscal year 2001 request reflects a 
constrained construction program Corps-wide. The President's budget 
reflects a reasonable schedule for continuation of real estate and 
design activities.
    Question. Last year, the Corps estimated that it would need to buy 
about 250 properties for this project. How many have been purchased to 
date, and how many do you anticipate having purchased by the close of 
fiscal year 2000?
    General Griffin. To date, 64 properties have been purchased. By the 
end of fiscal year 2000, approximately 100 properties will have been 
acquired.
    Question. When do you anticipate that the land acquisition for the 
project will be completed? When do you anticipate that the land 
acquisition will be sufficiently far enough along that the Corps can 
begin construction?
    General Griffin. The President's budget reflects that land 
acquisition will be completed by September 2002 and that sufficient 
land acquisition and design will be completed by the end of fiscal year 
2001 to enable initiation of construction of the lock in fiscal year 
2002.
    Question. How much money will be needed beyond fiscal year 2001 to 
complete the project? What work will remain to be done?
    General Griffin. An additional $273 million is required beyond 
fiscal year 2001 for continued engineering and design of the lock, 
acquisition of the remaining properties, and construction of the lock.
    Question. Are there additional Corps capabilities at Marmet for 
fiscal year 2001 above those identified in the President's budget?
    General Griffin. Subject to the usual qualification, the Corps has 
the capability to use an additional $7.1 million, for a total 
appropriation of $13.6 million, to advance engineering and design and 
land acquisition. Advancement of engineering and design at the 
capability level would advance project completion by one year.
    Question. I would like to again remind the Corps that many people 
are affected by this project--from those whose lives and homes are 
being disrupted by the construction, to all of the people and 
industries whose livelihoods depend upon the locks, the shipping, and 
the products that go through Marmet locks. Therefore, it is imperative 
for all of us to move this project forward efficiently so at to avoid 
any unnecessary delays.
    General Griffin. Yes, sir.

LEVISA AND TUG FORKS OF THE BIG SANDY RIVER AND UPPER CUMBERLAND RIVER, 
  WEST VIRGINIA, VIRGINIA AND KENTUCKY--WEST VIRGINIA TUG FORK FLOOD 
                          PROTECTION PROJECTS

    Question. For fiscal year 2000, Congress provided $4,400,000 to 
continue work on flood protection projects in southern West Virginia 
along the Tug Fork and its tributaries as part of the multi-state 
Section 202 project. While the President's request includes $12,100,000 
for Levisa and Tug Fork projects for fiscal year 2001, all of these 
funds are slated for other states.
    Last year, there were significant delays associated with the Corps 
executing Project Cooperative Agreements for the Upper Mingo County 
project and the McDowell County project. Have these project agreements 
been executed?
    General Griffin. Both project agreements have been executed. The 
Upper Mingo County Project Cooperation Agreement was amended in June 
1999 to include the tributary areas. The McDowell County Project 
Cooperation Agreement was executed in September 1999.
    Question. What activities will remain to be done beyond fiscal year 
2000 in lower Mingo County and what is the cost of the remaining 
effort? Does the Corps have capabilities in lower Mingo County in 
fiscal year 2001?
    General Griffin. The flood proofing or acquisition of structures 
would continue beyond fiscal year 2000 if funds were provided. The 
remaining cost is $2 million. The capability for fiscal year 2001 is 
$1.6 million, subject to the usual qualification.
    Question. What activities will remain to be completed beyond fiscal 
year 2000 in upper Mingo County along the Tug Fork and its tributaries 
and what is the cost of the remaining effort? Does the Corps have 
capabilities in upper Mingo County in fiscal year 2001?
    General Griffin. Non-structural flood damage reduction measures 
would continue beyond fiscal year 2000 if funds were provided. The 
remaining cost is $2,818,000. The capability for fiscal year 2001 is 
$1,500,000, subject to the usual qualification.
    Question. What activities will remain to be completed beyond fiscal 
year 2000 in McDowell County and what is the cost of the remaining 
effort? Does the Corps have capabilities in McDowell County in fiscal 
year 2001?
    General Griffin. Remaining activities include acquisition, flood 
proofing, and construction of relocated schools, town halls, and fire 
stations. The remaining cost is $166,359,000. The capability for fiscal 
year 2001 is $600,000, subject to the usual qualification.
    Question. What is the approved plan for schools in the McDowell 
County Nonstructural Project?
    General Griffin. The approved plan consists of the construction of 
ringwalls to protect schools in place, or relocation and re-
construction of schools out of the floodplain, whichever is the least 
costly, for six schools. The Government also requires the regulation of 
each former school site, consistent with the project's flood control 
purpose.
    Question. What is the locally preferred plan for the McDowell 
County project?
    General Griffin. The locally preferred plan is to construct two 
replacement schools, allowing the consolidation of five county 
elementary schools. The Federal participation in funding the school 
consolidation would be to contribute an amount equal to the least 
costly method of flood protection for each school. The approved plan 
and locally preferred plan both include relocation of the high school 
out of the floodplain.
    Question. What must be done to implement the locally preferred 
plans for the McDowell County project?
    General Griffin. A report on the locally preferred plan would be 
prepared that includes cost comparisons, documentation of NEPA 
compliance, and identification of any changes in Federal and non-
Federal responsibilities. The Project Cooperation Agreement would be 
amended based on the report. The non-Federal sponsor would agree to 
minimize flood risk to the new schools and prevent flood-prone 
construction at the former school sites.
    Question. What is the schedule for completing the additional design 
documents for the McDowell County project?
    General Griffin. The report on the locally preferred plan will be 
completed in May 2000. The first relocations design document for 
consolidation of three elementary schools will be completed in 
September 2000. The second relocations design document to consolidate 
the other two elementary schools will be completed in March 2001.
    Question. What activities will remain to be completed beyond fiscal 
year 2000 in Wayne County and what is the cost of the remaining effort? 
Does the Corps have capabilities in Wayne County in fiscal year 2001?
    General Griffin. The acquisition or flood proofing of structures 
would continue beyond fiscal year 2000 if funds were provided. The 
remaining cost is $6,244,000. The capability for fiscal year 2001 is 
$400,000, subject to the usual qualification.

                   WHEELING RIVERFRONT, WEST VIRGINIA

    Question. Wheeling, West Virginia, is in the midst of major 
preservation and rehabilitation project to protect and enhance its 
cultural and commercial resources in its central business district. In 
fiscal year 2000, Congress provided $100,000 for the U.S. Army Corps of 
Engineers to provide assistance and support to the preservation and 
revitalization plans associated with the Wheeling National Heritage 
Area. These funds were to allow the Corps to objectively analyze the 
planned and ongoing design and construction work connected with these 
restoration efforts. This is an important project and I believe that 
the Corps might have some expertise that would be useful in the effort.
    What is the status of this investigation?
    General Griffin. In March 2000, Pittsburgh District issued a Notice 
to Proceed to its indefinite Delivery Architect/Engineer contractor to 
complete a Special Project Report. This report that will evaluate 
improvements to the waterfront at the confluence of the Ohio River and 
Wheeling Creek within the Wheeling National Heritage Area, Wheeling, 
West Virginia. The contractor's report will be submitted in June 2000.
    Question. What types of capabilities has the Corps identified to 
date?
    General Griffin. Corps capabilities that are anticipated to be 
applicable to this project are to dredge the lower one mile of Wheeling 
Creek for recreational boating and use the dredged material, if clean, 
to cap two brownfield sites adjacent to the Wheeling waterfront.
    Question. What would be the next step toward further involving the 
Corps with the revitalization efforts underway in Wheeling, with each 
capability identified?
    General Griffin. After the Special Project Report is completed in 
June 2000, findings must be coordinated with the Wheeling National 
Heritage Corporation and the City of Wheeling to determine local 
interest in pursuing the identified initiatives.
     Question. What legislation, if any, would be required to authorize 
the Corps' participation in each area of assistance identified?
    General Griffin. Authorization legislation and funding would be 
required.
    Question. What would be the cost-share requirement for each of the 
capabilities identified?
    General Griffin. If the work were authorized, some or all costs 
would be assigned to recreation or recreational navigation and would be 
cost shared 50 percent Federal and 50 percent non-Federal unless 
otherwise specified in law.

                     LOWER MUD RIVER, WEST VIRGINIA

    Question. The Lower Mud River project, authorized by Section 580 of 
the 1996 Water Resources Development Act, was originally a Department 
of Agriculture project. Its purpose is to mitigate the repeated 
flooding events that have caused extensive damage to the City of 
Milton, West Virginia.
    What is the status of the limited reevaluation report being 
conducted by the Corps on the earlier Department of Agriculture study?
    General Griffin. The Corps reevaluation report is scheduled for 
completion in July 2000. The West Virginia Soil Conservation Agency is 
cost sharing this report.
    Question. What activities will remain to be completed beyond fiscal 
year 2000 for the Lower Mud River project and what is the cost of the 
remaining effort? Does the Corps have capabilities for this project in 
fiscal year 2001?
    General Griffin. The President's fiscal year 2001 budget requested 
$650,000 in General Investigations funds to continue preconstruction 
engineering and design (PED). Due to acceleration of the work, this 
amount is now sufficient to complete PED. Subject to the usual 
qualification, the Corps total capability in fiscal year 2001 is 
$1,000,000 of Construction, General funds to complete PED, negotiate 
and execute a Project Cooperation Agreement, and initiate construction.
    Question. When does the Corps anticipate that construction will be 
able to commence?
    General Griffin. If funded, project construction could begin in the 
third quarter, fiscal year 2001.

                  LONDON LOCKS AND DAM, WEST VIRGINIA

    Question. The fiscal year 2000 Energy and Water Appropriations Act 
included $600,000 to initiate construction of the London Lock and Dam 
rehabilitation project. This project will replace the upper guard wall 
and extend the lock chamber. The rehabilitation project is needed to 
avoid future lockage delays along the Kanawha River at London.
    What work will be accomplished with the fiscal year 2000 funds?
    General Griffin. Fiscal year 2000 funds will be used to initiate 
construction of phase 1, which consists of fabricating the needle dam 
beams, needle dam sheet piling, and pre-cast concrete needle sill, and 
to continue design for phase 2A, which consists of electrical and 
mechanical work not requiring closure of the lock chamber.
     Question. What is the total cost of the project?
    General Griffin. The total cost of the project is $22.2 million.
    Question. Does the Corps have additional capabilities for fiscal 
year 2001 that would accelerate the completion of this project if funds 
were available?
    General Griffin. Yes. Subject to the usual qualification, the 
fiscal year 2001 capability is $5 million, $3.2 million more than the 
President's Budget Request of $1.8 million. The additional funds would 
be used to complete engineering and design and to initiate construction 
of phase 2B, which involves closure of the lock chamber.

                     WEST FORK RIVER, WEST VIRGINIA

    Question. For the past two years, I have received communications 
from constituents in Harrison County, West Virginia, for a flood 
warning system along the West Fork River.
    To what extent has the Corps participated in the funding and 
installation of such early warning systems at other locations?
    General Griffin. In 1998, the Pittsburgh District completed 
implementation of a comprehensive flood warning system (FWS) for the 
Cheat River Basin in West Virginia, and the Huntington District 
completed a similar system for the adjacent Greenbrier River Basin, 
also in West Virginia. Both systems involved installing several new 
stream gages and connecting the new gages and existing stream and 
precipitation gages with flood forecasting software via radio, 
telephone, and satellite communications technology. Installation of 
these FWS was 100 percent Federally funded in accordance with the 
Energy and Water Development Appropriations Act, 1997. The State of 
West Virginia is the project sponsor of both FWS and pays for operation 
and maintenance of the new gages. The Pittsburgh District currently is 
planning a FWS in the Tygart River Basin, West Virginia, as an element 
of the West Virginia and Pennsylvania Flood Control, West Virginia and 
Pennsylvania, project, which does not extend to the West Fork Basin.
    Question. What role would there be for a flood warning system in 
protecting residents along the West Fork River?
    General Griffin. A flood warning system would likely provide 
several hours of additional warning time to communities and property 
owners along low-lying areas adjacent to the West Fork River and 
possibly some major tributaries. This would reduce the flood threat to 
life and property.
    Question. What would be the estimated cost for installation of such 
a system? Is there a cost-sharing requirement for this system? General 
Griffin. The West Fork Basin is roughly similar in size to the Cheat 
and Greenbrier Basins, so $500,000 should be sufficient to plan and 
implement a similar comprehensive FWS. There was no cost sharing for 
implementing the Cheat and Greenbrier FWS, because of the appropriation 
act language. In the absence of such special legislation, the Corps 
could plan and implement a FWS under its existing Section 205 
Continuing Authorities Program for flood damage reduction, with a 35 
percent non-Federal share of $175,000 and a 65 percent Federal share of 
$325,000.
    Question. How much does it cost to maintain a flood warning system 
once it is fully operational and what entity would be responsible for 
maintaining it?
    General Griffin. The new Cheat flood warning system gages are being 
maintained for approximately $6,500 per gage per year. There were seven 
new stream gages, so the total annual cost is about $45,000. As the 
local sponsor, the State of West Virginia, through its Office of 
Emergency Services, pays for maintenance of these new gages. Each 
stream or precipitation gage that existed prior to its incorporation 
into the new system is still maintained by its owner, which is either 
the National Weather Service, the U.S. Geologic Survey, or the Corps of 
Engineers.
      west virginia statewide flood protection plan, west virginia
    Question. Congress provided $400,000 in fiscal year 1998 and 
$624,000 in fiscal year 1999 for the Huntington Corps of Engineers, on 
a 50/50 cost-share basis with the West Virginia Department of 
Agriculture, to conduct a comprehensive study of the chronic flood 
problems that devastate West Virginia.
    What is the status of the study?
    General Griffin. The study was divided into two phases to match the 
two-year funding cycle of the sponsor. The Corps has completed twenty 
percent of the work tasks in phase I, including updating data on flood 
damages and the costs of prospective water resources projects and an 
analysis of local government financial capability to cost share those 
projects. The phase II agreement was provided to the non-Federal 
sponsor for review and execution in September 1999, but has not been 
executed by the sponsor at this time.
    Question. Is the project behind schedule? By how much? What factors 
are contributing to the delay and what is being done to get the project 
back on track?
    General Griffin. The project is behind schedule. Phase I is behind 
by eight months. Completion was scheduled for December 1999. Factors 
leading to the delay include late receipt of the sponsor's matching 
funds and a delay in establishing the multi-agency task force required 
in the study agreement. Phase II has not been initiated and thus far is 
behind two months from the initial schedule. The principal cause of 
delay of the second phase is difficulties encountered in defining the 
sponsor's in-kind contribution. The Corps and the sponsor are working 
to establish the task force, define in-kind contributions for phase II, 
execute the phase II agreement, and reschedule phase I and II studies 
to be concurrent, thus reducing schedule impacts.
    Question. What activities will be accomplished in fiscal year 2000?
    General Griffin. Following formation of the task force, remaining 
phase I study work tasks will be completed. These include flooding 
problem identification, plan formulation, and development of a 
statewide strategy for flood protection. Once the phase II agreement is 
executed, the phase II work tasks could be initiated. Phase II 
activities include development of a statewide flood warning system, 
training for floodplain managers, development of model watershed plans, 
and development of recommendations for flood control programs.
     Question. What activities will be accomplished in fiscal year 
2001?
    General Griffin. The phase II tasks will be completed, and phase I 
and II study documentation will be merged into a single decision 
document for the state executive and legislative offices.
     Question. When will the project be completed and what will the 
study provide?
    General Griffin. The study is scheduled for completion in July 
2001. It will provide a comprehensive strategy for addressing flooding 
problems throughout West Virginia, concentrating on unmet flood control 
needs, especially in high-priority areas of the state where chronic 
flooding occurs. It will provide a statewide flood damage assessment, 
identify existing flood control shortfalls, assess existing Federal and 
state flood protection programs, formulate flood protection and 
floodplain management program improvements, assess non-Federal 
financing capability, identify financing needs for investment in flood 
protection, develop a long-term investment strategy for the state, and 
a provide a detailed report on a statewide flood warning system.
    Question. What additional Federal resources are needed for this 
project?
     General Griffin. No additional Federal funds are required to 
complete the study.
                                 ______
                                 

                Questions Submitted by Senator Herb Kohl

                      LA FARGE DAM DEAUTHORIZATION

    Question. Why was the La Farge Dam/Kickapoo Reserve project not 
included in the President's Budget? I had several contacts with the 
Corps over the last year, all of which led me to believe that the Corps 
was committed to moving forward and towards completion. I was very 
surprised to see that no funding was included. We have been funding 
this program for three years through Congressional adds. What happened 
to this funding in the President's Budget?
    Answer. All work except the highway repairs and relocations is 
funded, and a decision that will establish the relative priority of the 
highway work in the Administration's program is still pending. This 
project was considered, along with many other worthy projects nation-
wide, for the budget, but was not selected for inclusion in the 
President's Budget. There were two primary factors that eliminated the 
La Farge project during the fiscal year 2001 budget prioritization 
process. First, the authorized project modifications do not provide Net 
Economic Development benefits. Second, under the terms and conditions 
prescribed by Section 361 of the Water Resources Development Act of 
1996, the State of Wisconsin must sign a written agreement to hold the 
United States harmless from any damages related to the transfer of 
lands and improvements before the Corps of Engineers can proceed with 
this project. Currently, the State does not have the legal authority to 
furnish the hold harmless provisions as required by law. However, it is 
our understanding that legislation to provide such authority recently 
passed the State legislature and is awaiting signature by the Governor.

                          FOX RIVER, WISCONSIN

    Question. I have recently been contacted by the State of Wisconsin, 
and notified by the Detroit District, that there is a proposal to turn 
over the locks on the Fox River to the State of Wisconsin. The State, 
with federal help, would then do the necessary repairs to reopen the 
locks to traffic and take on the operating costs. The State and the 
local community seem eager to take on responsibility for the locks, and 
I have a few questions about the potential transfer.
    Is there a concrete plan for turning over the locks and for the 
State of Wisconsin's management of those locks?
    General Griffin. Sir, the Corps has been involved in extensive 
negotiations with the State involving the transfer of the navigation 
facilities, and we anticipate signing a formal agreement this Spring. 
The actual transfer would take place after completion of historical, 
cultural, and environmental documentation and the appropriation of 
funds for transfer-related payments. The State intends to use Federal 
and non-Federal funds to repair and rehabilitate the locks and reopen 
them. The exception is the Rapide Croche lock, which has been closed to 
prevent invasion of the sea lamprey.
    Question. Are you aware of any existing claims to the land by 
Native American Tribes?
    General Griffin. No claims have been made by any Native American 
tribe for any portion of the Fox River navigation system. We are not 
aware of any former reservation on project lands or of any reversionary 
interest held in project lands by Native American tribes.
    Question. Do the locks have adequate invasive species control 
measures to protect the wildlife in Lake Winnebago?
    General Griffin. Sir, a sea lamprey barrier was installed by the 
Corps at the Rapide Croche lock and dam in 1988. As part of this 
barrier, the gates to the lock were permanently closed. Any agreement 
to transfer the locks would contain a condition that the Rapide Croche 
sea lamprey barrier be maintained. The sea lamprey has been the 
invasive species of most concern on the system. There are no other 
invasive species control measures in place. Transfer would not impact 
the status quo. After transfer, the State of Wisconsin could evaluate 
and, if necessary, modify its operations to address concerns with 
invasive species.
    Question. Will an environmental impact statement be necessary 
before the locks are reopened?
    General Griffin. An Environmental Assessment is being prepared to 
address the Federal action, which is solely the transfer of the land 
and facilities. Future operation (opening) and maintenance of the locks 
would become the responsibility of the State of Wisconsin.
    Question. Has the Corps examined whether the plan to reopen the 
locks is economically viable from a federal perspective?
    General Griffin. Sir, there are benefits to be gained from 
reopening the locks; however, not all repair and rehabilitation costs 
related to reopening the locks are economically justified. The payment 
to be made by the Corps under the agreement would be based on the 
avoided cost of placing the locks in a long term inoperable status and 
the repair and rehabilitation costs that are economically justified.
    Question. I understand that the Corps would seek authorization in 
WRDA for a direct appropriation for this project. Has this been done in 
other states and would headquarters support a direct appropriation?
    General Griffin. The payments under the agreement will be 
conditioned upon the Congress appropriating the necessary funds. Should 
the agreement be executed, the Corps would be in a position to seek 
appropriations for the payments. This would be done through the normal 
budget process. The Army does not intend to seek additional 
authorization to carry out the transfer and payments.

   UPPER MISSISSIPPI AND ILLINOIS NAVIGATION STUDY, ILLINOIS, IOWA, 
                   MINNESOTA, MISSOURI AND WISCONSIN

    Question. Reports have indicated that the Corps may have discounted 
the role small scale measures could play in ameliorating traffic delays 
at the locks on the Mississippi. Corps economists indicated that these 
measures, which include mooring cells, traffic scheduling, and industry 
self-help could save the taxpayers millions of dollars and eliminate 
the need for lock extensions. Have these options been fully considered? 
Can you explain why these measures were not accepted, and could you 
provide me with the data and analysis used to come to that conclusion?
    Answer. These three small-scale measures-mooring cells and buoys, 
traffic scheduling, and industry self-help have been fully considered 
in the study's plan formulation process. Documentation to date for 
small-scale measures is included in three interim study products: 
General Assessment of Small-Scale Measures report dated June 1995, 
which provides information on the 92 small-scale measures considered in 
early brainstorming sessions that screened the measures down to 16; 
Detailed Assessment of Small Scale Measures report dated December 1998 
which provides more detailed examination and quantification of 
performance for these 16 measures; and, Summary of Small-Scale Measures 
Screening report dated April 1999, which further screened the measures 
down to 5 remaining small-scale measures. The three referenced small-
scale measures are discussed in these three interim study reports.
    All three of these measures are present to some degree in the 
future river conditions. First, mooring cells and buoys are part of the 
alternative plans still under consideration for the with-project 
conditions. Mooring facilities provide some project benefits, but alone 
they do not considerably reduce future delay projections. Second, 
traffic scheduling has been an integral part of our standard operating 
procedure and will continue to be into the future in the without-
project condition, based on historic application and our study 
assumptions. The traffic scheduling is in the form of an N-up/N-down 
policy where the lock operator locks through ``N'' vessels traveling in 
one direction prior to locking through ``N'' vessels traveling in the 
opposite direction. Other studies have demonstrated that this existing 
N-up/N-down scheduling policy captures the majority of scheduling-
related benefits, and the effects of projected traffic growth and 
related delay potential would overwhelm the benefits of any other 
additive scheduling procedures. Third, industry self-help is the 
practice where industry tows assist each other by extracting unpowered 
cuts, usually 9-barge configurations, from the lock without the 
assistance of lock personnel or equipment. Industry self-help is 
currently utilized for approximately one to one-and-a-half percent of 
all lockages at the busiest locks on the system. Additional 
coordination with the navigation industry, U.S. Maritime 
Administration, and U.S. Coast Guard in 1998 indicated that regular use 
of industry self-help is not practical due to the variability in 
conditions where it can be implemented safely. The general industry 
comment was that industry self-help is a stop-gap measure that is used 
to minimize the impacts of a breakdown on the system, not a routine, 
long-term measure to address increasing system traffic and delay. In 
addition to this information, the study team considered site-specific 
input from Corps lock personnel; historical lock performance data and 
current usage, safety, risk, and liability considerations; and concerns 
raised over potential impacts to environmental and social resources 
from growing usage. Also, industry self-help with guidewall extensions 
was screened out because it is out-performed at a similar cost by 
powered kevels with guidewall extensions. Considering the variables 
involved, the successful implementation of industry self-help as a 
standard operating procedure does not appear to be viable as a long-
term solution. Lock statistics from 1992 to 1998 showed that the 
average actual usage of self-help was significantly less than 1.5 
percent of total commercial lockages, and that only Locks 24 and 25 had 
achieved significant time savings historically. The highest usage noted 
during that period was in 1992 at Lock 25 where it was 3.6 percent. 
Therefore, the assumptions for the model limited self-help usage to 5 
percent, which allows some increase over current usage while remaining 
close to observed rates and reasonably considers the above-stated 
concerns.
    The referenced interim products have been discussed in public 
forums. Additionally, copies of the documents discussed have been 
provided to the Committee. All aspects of the formulation will be 
documented as the study team continues to write the draft Feasibility 
Report and Environmental Impact Statement for eventual public release 
and review. The plan formulation process is still underway, and no 
final study conclusions have been reached. The Feasibility Report and 
Environmental Impact Statement will not be final until the issuance of 
the Division Commander's Public Notice, at which time the report and 
Environmental Impact Statement will be forwarded for Washington-level 
processing.
                                 ______
                                 

              Questions Submitted by Senator Byron Dorgan

                MAPLE RIVER, NEAR ENDERLIN, NORTH DAKOTA

    Question. After years of flooding along the Sheyenne River at West 
Fargo, ND, a dry dam was proposed on a tributary stream, the Maple 
River, near Enderlin. The Maple empties into the Sheyenne north of West 
Fargo and it was suggested that a dam would reduce back up flows in the 
Sheyenne. The dam would only hold water during flood emergencies. The 
Corps determined that the dam would not meet its cost-benefit ratio so 
local interests (Southeast Cass Water Board) decided to build it on its 
own. Although I've been told that the Water Board has tried to work 
with the Corps to take the necessary steps to construct the dam, action 
has been stalled for several years.
    I've heard from the water board that the Corps ought to be dealing 
with this issue more expeditiously. Can you please give me an update 
what the Corps is doing--if anything--to deal with the Maple River Dam 
situation?
    Dr. Westphal. The Corps is working to conclude its environmental 
studies that are required as part of the permitting process for the 
project. The permit applicant has chosen the same site that was 
considered earlier by the Corps for a flood control dam because it is 
the most effective location for such action. The site, however, is rich 
in cultural history as indicated by approximately 60 site leads, 
archeological sites and Indian village sites dating back hundreds of 
years. Because of this, there is considerable interest by 
representatives of seven Tribes.
    An effort was made to prepare a Programmatic Agreement (PA) setting 
forth how resources would be dealt with in the future. Because some of 
the Tribes oppose the project, we have been unable to develop a PA that 
is satisfactory to all. Therefore, the Final Environmental Impact 
Statement (FEIS) will identify, in detail, the cultural resources known 
in the area, their significance, expected effects of the proposed 
project and its reasonable alternatives, and possible mitigation for 
those effects. Each of the seven interested tribes must be included in 
this process, as required by regulations; however, completion of the 
process does not rely on their participation.
    We expect that the coordination and impact analyses will take a 
minimum of 120 days. Subsequent to that, the FEIS will be prepared and 
mailed. This should occur no later than August 20, 2000. A Record of 
Decision could be completed 30 days later, but due to the intensive 
opposition by Tribes, additional resolution processes are expected to 
occur with respect to the Section 106 compliance.

                        WILLISTON, NORTH DAKOTA

    Question. The water transmission line that serves the city of 
Williston, ND, has been damaged by the construction of the Garrison 
Dam. Much like the rising water table that has resulted in the need for 
the purchase of flowage easements at the Buford Trenton Irrigation 
District, the water transmission line is threatened by rising water 
tables. I've been advised that the Corps does not have authority to 
replace this line ( despite the federal government's clear 
responsibility to mitigate the negative consequences of the dam's 
construction.
    Can you please clarify if the Corps has the authority to replace 
the water transmission line? If the Corps does not have this authority, 
please suggest authorizing language that would enable the Corps to move 
forward with this construction.
    Dr. Westphal. The Corps does not have the authority to replace the 
water transmission line. The following proposed authorizing language is 
offered for your consideration: The Secretary is directed to use up to 
$4,000,000 of the funds appropriated herein to replace or relocate the 
municipal water transmission line owned by the City of Williston, North 
Dakota, and located adjacent to and running parallel to the levee 
protecting the City.
    Question. Last fall, my colleagues from North Dakota and I 
requested that the Corps reprogram funds into the Section 33 account 
for the continuation of the Missouri River Bank Stabilization study 
after funding for the cumulative Environmental Impact Statement (EIS) 
was not included in the fiscal year 2000 Energy and Water Development 
Appropriations bill. Because I think that this is one of our state's 
water management priorities, I am once again requesting money for this 
project because it is a critical component of the process to develop a 
common vision for the river across a variety of North Dakota interests.
    Would you agree that this kind of analysis has the potential to 
address many technical issues and provide a foundation for future 
policy decisions on bank stabilization?
    Dr. Westphal. Yes, I do agree. The potential for cumulative impacts 
from bank stabilization works along the Missouri River has not been 
documented in a comprehensive study. The Section 33 cumulative impacts 
study presents an opportunity to answer questions regarding the 
presence of bank stabilization structures in the river. A 
geomorphologic study is being conducted, as funds become available, to 
identify and address technical concerns and issues. The study will 
determine the existing physical condition of the river channel, project 
future channel conditions and determine the impacts that additional 
bank stabilization may have on the alluvial processes and channel 
formation. The information will be useful to help guide future 
decisions regarding construction under the Section 33 program 
authority. It will also be useful as the basis for recommending long-
term strategies for the management and protection of the Missouri 
River.
                       DEPARTMENT OF THE INTERIOR

                         Bureau of Reclamation

STATEMENT OF ELUID L. MARTINEZ, COMMISSIONER
ACCOMPANIED BY:
        DAVID COTTINGHAM, COUNSELOR TO THE ASSISTANT SECRETARY FOR 
            WATER AND SCIENCE, DEPARTMENT OF THE INTERIOR
        J. RONALD JOHNSTON, PROGRAM DIRECTOR, CENTRAL UTAH PROJECT 
            COMPLETION ACT OFFICE, DEPARTMENT OF THE INTERIOR

                            OPENING REMARKS

    Senator Domenici. We have Commissioner Eluid Martinez with 
the Bureau of Reclamation, David Cottingham, Counselor to the 
Assistant Secretary for Water and Science, Department of the 
Interior, and Program Director for the Utah Project Completion 
Act Office, J. Ronald Johnston.
    Commissioner, we're very pleased to have you and you're 
going to lead off. I think it's only fair to say to you right 
at the onset, we are very grateful and thankful for the job 
that you have done as Commissioner. A lot of new twists and 
turns have entered the playing field since you became 
Commissioner, and I think you have stepped up to the batter's 
box on most of them and have done an excellent job and I thank 
you for that. I know in particular in New Mexico on the water-
short Pecos River Basin and the Rio Grande Basin, you've done 
an admirable job of trying to help sort out things and get us 
through some difficult problems.
    If you've been looking at the drought in New Mexico, which 
we certainly have, I would like to report to you that about 40 
percent of the State got incredible snowfall overnight. I don't 
know what that means in terms of the total precipitation, but 
whatever we get helps you in your job and helps all of us.
    Your testimony will be made part of the record. If you 
could proceed to summarize it, we would be most appreciative.

                     STATEMENT OF ELUID L. MARTINEZ

    Commissioner Martinez. Mr. Chairman, I think the reason 
it's snowing and raining is probably because we showed up there 
last week. At any rate, Mr. Chairman, please allow me to 
express my sincere appreciation both to you and Senator Craig 
and to members of the committee for the support you've provided 
me during my tenure as Commissioner of Reclamation and to 
Reclamation in general.
    My appearance today in support of Reclamation's budget will 
most likely be my last before this subcommittee. My wife is 
looking forward to returning to New Mexico at the end of this 
Administration. Thank you for the opportunity to serve as 
Commissioner of the Bureau of Reclamation.
    I welcome the opportunity to appear today in support of the 
President's fiscal year 2001 budget for the Bureau of 
Reclamation, which is a request for $801 million, a $33.1 
million increase over fiscal year 2000 appropriations. My 
statement has been submitted for the hearing record and with 
your permission, I will summarize that testimony.
    Mr. Chairman, Reclamation's 2000-2005 Strategic Plan 
identifies three mission goals that are linked to Reclamation's 
budget and are the essence of what Reclamation is all about. 
These goals are to manage, develop and protect water and 
related resources to help meet the future needs of current and 
future generations; to operate, maintain and rehabilitate our 
facilities to provide projected benefits flowing from those 
projects; and to ensure organizational effectiveness.

                           PREPARED STATEMENT

    Mr. Chairman, in keeping with your statement that you would 
like to be out of here by 11:30 this morning, my statement has 
been submitted for the record and I would be glad to answer any 
questions you might have.
    [The statement follows:]

                Prepared Statement of Eluid L. Martinez

    Thank you Mr. Chairman and members of the subcommittee. I welcome 
the opportunity to appear before you today to support the President's 
fiscal year 2001 budget request of $801.0 million in new budget 
authority for the Bureau of Reclamation. This includes $741.0 million 
for Reclamation's programs and $60.0 million for the California Bay-
Delta Restoration activities.

                                MISSION

    As I am sure you are aware, Reclamation's mission is to manage, 
develop, and protect water and related resources in an environmentally 
and economically sound manner in the interest of the American public. 
The Bureau of Reclamation has been developing and managing water and 
related resources in the Western United States since 1902. Reclamation 
is today one of the largest suppliers and managers of water in the 17 
western states
    Its facilities, which include reservoirs with the capacity to store 
245 million acre-feet of water, deliver water to one of every five 
western farmers to irrigate about 10 million acres of land and to over 
31 million people for municipal, rural, and industrial uses.
    Reclamation is the second largest producer of hydroelectric power 
in the nation. Reclamation produces enough electricity to serve 6 
million homes, and generates nearly a billion dollars in annual power 
revenues.
    The ingenuity and expertise Reclamation used in the 20th Century to 
plan and construct dams, reservoirs and other water supply facilities 
is currently being used for:
  --Managing the dam safety program to minimize risks to the downstream 
        public, property, and natural resources,
  --Facilitating Reclamation's operation and maintenance program to 
        maximize public benefits at the least cost,
  --Developing partnerships with customers, states, and tribes,
  --Finding ways to bring competing interests together to address water 
        needs,
  --Transferring title and operation of facilities to local 
        beneficiaries,
  --Establishing results-oriented business practices that will provide 
        the most effective and efficient service to customers, 
        partners, and employees,
  --Placing greater emphasis on promoting the conservation, 
        reclamation, and reuse of existing water supplies,
  --Protecting and restoring fish and wildlife resources to ensure 
        future reliability of project water and power benefits.
    The fiscal year 2001 President's budget request continues to 
demonstrate the Administration's strong commitment to this mission.
    Water resource projects developed by Reclamation continue to 
contribute to sustained economic growth and an enhanced quality of life 
in the Western States. In recent years, Reclamation has primarily moved 
from development to management of these important resources. In 
cooperation with state, tribal, and local governments, along with other 
entities and the public at large, Reclamation develops solutions for 
water resource issues--solutions that are consensus-based, cost 
effective, and environmentally sound.
    Although this infrastructure is sophisticated and has allowed 
significant development of urban and agricultural areas, it is subject 
to and results in various stresses, such as aging facilities, land use 
changes, agricultural commodity prices, changes in domestic and 
international economies, instream flow needs for habitat protection, 
and water rights settlements.
    The future of the West's water supply infrastructure, including 
Reclamation project facilities, must focus on maintaining and 
optimizing the utility of existing facilities, keeping costs down, 
ensuring that public facilities fit more comfortably into the natural 
environment, and demonstrating ingenuity in meeting needs in the most 
efficient ways possible. While supply-oriented solutions should not be 
entirely ruled out, innovative solutions, such as water conservation 
and wastewater recycling, must be explored.
    One of Reclamation's strategies is to efficiently target its 
planning program to search for contemporary solutions deserving of 
national, state, and/or local investment. Financial resource 
constraints facing the Nation require a commitment to expand the use of 
decision support tools, including benefit-cost and risk analyses, and 
to choose only the most efficient and cost-effective solutions to the 
complex water resource challenges that we face.
    I would like to point out that every day we see immediate water 
resource needs important to state, local and tribal partners. Many 
states are developing State Water Plans, for instance, to address 
resource utilization and stewardship against the backdrop of large 
population increases and the growing notion of sustainable development.
    Reclamation can assist in the systematic evaluations of existing 
and potential water use within a river basin or subbasin to determine 
how present and future needs can best be met.

                      WATER AND RELATED RESOURCES

    The total request for projects and programs related to Water and 
Related Resources is $674.2 million. This is partially offset by an 
undistributed reduction of $31.1 million in anticipation of delays in 
construction schedules and other activities, resulting in a net request 
of $643.1 million.
    The fiscal year 2001 request provides a total of $288.9 million for 
facility operation, maintenance, and rehabilitation. Providing adequate 
funding for these activities continues to be one of Reclamation's 
highest priorities. Reclamation staff is working closely with water 
users and other stakeholders to ensure that available funds are used 
effectively.
    Facility operation, maintenance, and rehabilitation (OM&R) funds 
are used to allow Reclamation to identify, plan, and implement, among 
other activities, dam safety corrective actions and site security 
improvements. The fiscal year 2001 request includes $77.3 million for 
the Dam Safety Program to protect the downstream public by ensuring the 
safety and reliability of Reclamation dams.
    Reclamation plans to initiate safety of dams modifications at 
several facilities in the near future, including Horsetooth Dam, 
Colorado; Clear Lake Dam, Oregon; Pineview Dam, Utah; Salmon Lake Dam, 
Washington; Wickiup Dam, Oregon; Grassy Lake Dam, Wyoming; Keechelus 
Dam, Washington; Deer Creek Dam, Utah; and Warm Springs Dam, Oregon.
    The Administration sent legislation (H.R. 3595) to the Congress to 
increase by $380 million the authorized cost ceiling for the 
Reclamation Safety of Dams Act. Current projections indicate there is 
sufficient authority to support the fiscal year 2001 budget request, 
but additional authority will be needed in fiscal year 2002 and beyond.
    Additionally OM&R funds allow Reclamation to ensure the reliability 
and operational readiness of dams, reservoirs, powerplants, and 
distribution systems while also helping the timely and effective 
delivery of project benefits.
    The fiscal year 2001 request also includes a total of $385.3 
million for resource management and development activities. The request 
for these activities includes funding for projects currently under 
construction, including the Central Arizona Project, the Mni Wiconi 
Project in South Dakota and the Garrison Diversion Unit in North 
Dakota, as well as for the recently enacted Rocky Boy's Indian Water 
Rights Settlement in Montana.
    Resource management and development activities include funding for 
a number of high priority activities that emphasize improved water 
management and environmental compliance. In the area of environmental 
compliance, funds are requested for endangered species conservation and 
recovery efforts in the Columbia /Snake and other river basins, fish 
and wildlife and other work on California's Central Valley Project, and 
construction of a temperature control device at Glen Canyon Dam. Funds 
requested for other projects, such as the Lower Colorado River 
Operations Program and the Klamath Project, would meet objectives in 
both of these areas.
    Funds for the Lower Colorado River Operations Program are used to 
implement and accomplish the Secretary of the Interior's ``Water 
Master'' function for the lower Colorado River area. This function 
includes ongoing negotiation, development, and execution of water 
service contracts, determining consumptive use of Colorado River water, 
identifying non-contract water users and completing appropriate 
environmental and endangered species programs.

                CENTRAL VALLEY PROJECT RESTORATION FUND

    The fiscal year 2001 Reclamation budget includes a request for 
$38.4 million from the Central Valley Project (CVP) Restoration Fund, 
which is the estimated level of collections from project beneficiaries. 
The fiscal year 2001 request funds a wide variety of activities to 
restore fish and wildlife habitat and populations in California's 
Central Valley Project, including acquisition of water for anadromous 
fish and other environmental purposes, providing long-term water 
deliveries to wildlife refuges, implementation of the Anadromous Fish 
Restoration Plan, restoration of land to improve wildlife habitat, 
conserve water and reduce drainage, and construction of fish screens 
and other facilities.
    The request is financed by CVP water and power users, including an 
estimated $28.2 million in additional mitigation and restoration 
charges. The fiscal year 2001 budget contains a proposal that, in 
fiscal year 2001 and each year thereafter, the full amount of these 
additional charges would be collected, and all revenues deposited in 
the CVP Restoration Fund from this and other sources would be directly 
available for expenditure.

                    CALIFORNIA BAY-DELTA RESTORATION

    The fiscal year 2001 budget includes a request for $60.0 million 
for the Bay-Delta Restoration program. While funding is requested in 
Reclamation's budget, funds for specific projects or programs will be 
transferred to participating Federal agencies based on plans developed 
by CALFED. Reclamation manages most of these projects.
    Over the past three years, CALFED, a consortium of Federal and 
State agencies, has funded all or portions of some 240 ecosystem 
restoration projects and programs with monies from the State of 
California, the Federal Government and stakeholder funds.
    These funds support an ecosystem restoration program of vast 
breadth and scope with the ultimate goal of developing a long-term 
solution that addresses both environmental and water management 
problems associated with the Bay-Delta system.
    The fiscal year 2001 request includes $36.0 million to continue 
implementation of the ecosystem restoration program initiated in 1998. 
Activities funded in this program include improvements in fish screens 
and fish passage, restoration of habitat in flood plains and marshes, 
and river channel changes. Funding is also requested for improvements 
in instream flows, water quality and water temperature, as well as 
improvements in fish management and hatchery operations. The program 
also funds efforts to control introduced and undesirable species as 
well as monitoring, permit coordination and other special support 
programs.
    The request also includes $24.0 million for a broad variety of 
water management activities in accordance with the CALFED Bay-Delta 
Program including: water use efficiency, water transfers, integrated 
storage investigations and studies for Delta conveyance.
    The fiscal year 2001 budget contains a proposal extending the 
availability of funding authorized by the California Bay-Delta 
Environmental Enhancement Act through 2003. This proposed extension 
would support continued Federal participation in the CALFED Bay-Delta 
ecosystem restoration activities to meet the commitment of the State/
Federal Cost Share Agreement. There is no increase in the amount of 
funds authorized, rather an extension of time in which funds may be 
appropriated.

                             OTHER ACCOUNTS

    The request for Policy and Administration (P&A) is $50.2 million. 
The purpose of this appropriation is to support management and 
administration activities that are not chargeable directly to a 
specific project or program. P&A supports all of Reclamation's 
centralized management functions, such as overall program and personnel 
policy management; budgetary policy formulation and execution; 
information resources management; procurement, property and general 
services policy; and public affairs activities. Since a significant 
portion of the funding for P&A supports salaries and related costs, 
this account has been impacted significantly over the past few years, 
as the funding level for P&A has remained constant while cost-of-living 
increases associated with salaries and benefits have increased at a 
rate of 3 to 5 percent per year.
    The request for the Loan Program in fiscal year 2001 is $9.4 
million, and would continue funding for three loans in California.
    Permanent appropriations available in the Colorado River Dam Fund 
are estimated to be $66.1 million in fiscal year 2001, and non-Federal 
contributions to Reclamation's Trust Funds are estimated to be $4.5 
million.

                               CONCLUSION

    This completes my statement. Please allow me to express my sincere 
appreciation for the continued support that the Committee has provided 
Reclamation. I look forward to working with the Committee to further 
our mutual goals of managing, developing, and protecting water and 
related resources. I would be happy to answer any questions you may 
have at this time.

                    STATEMENT OF J. RONALD JOHNSTON

    Senator Domenici. We won't be out of here on time, but 
you're certain that you're comfortable with that?
    Commissioner Martinez. Yes, I'm comfortable with that, Mr. 
Chairman.
    Senator Domenici. Okay, let's proceed now. Do we have some 
other witnesses who are going to testify right now? Central 
Utah Project, would you like to enter your statement as part of 
the record and please comment for us?

                           PREPARED STATEMENT

    Mr. Johnston. Yes, I am pleased to be here today to 
represent the President's budget for implementation of the 
Central Utah Project. I would appreciate my statement being 
entered for the record and I think with that, I'll just answer 
any questions that you might have.
    [The statement follows:]

                Prepared Statement of J. Ronald Johnston

    I am pleased to be here today to present the President's fiscal 
year 2001 budget for implementation of the Central Utah Project 
Completion Act.
    The Central Utah Project Completion Act, Titles II-VI of Public Law 
102-575, provides for completion of the Central Utah Project (CUP) by 
the Central Utah Water Conservancy District. The Act also authorizes 
funding for fish, wildlife, and recreation mitigation and conservation; 
establishes an Account in the U.S. Treasury for the deposit of these 
and other funds; establishes the Utah Reclamation Mitigation and 
Conservation Commission to coordinate mitigation and conservation 
activities; and provides for the Ute Indian Rights Settlement.
    The Act provides that the Secretary may not delegate his 
responsibilities under the Act to the Bureau of Reclamation. As a 
result, the Department has established a program coordination office in 
Provo, Utah, that reports to the Assistant Secretary, Water and 
Science, and that provides oversight, review, and liaison with the 
District, the Commission, and the Ute Indian Tribe, and assists in 
administering the responsibilities of the Secretary under the Act.
    The fiscal year 2001 request for the Central Utah Project 
Completion Account provides $39.9 million for use by the District, the 
Commission, and the Department to implement Titles II-IV of the Act, an 
increase of $0.7 million over the fiscal year 2000 enacted level. The 
request includes $19.1 million for the District to continue 
construction on the remaining segments of the Diamond Fork System; to 
implement approved water conservation and water management improvement 
projects; and to continue development of planning and NEPA documents on 
facilities to deliver water in the Utah Lake drainage basin.
    The funds requested for transfer to the Mitigation Commission will 
be used in implementing the fish, wildlife, and recreation mitigation 
and conservation projects authorized in Title III ($12.8 million); and 
in completing mitigation measures committed to in pre-1992 Bureau of 
Reclamation planning documents ($1.4 million). Title III activities 
funded in fiscal year 2001 include the Provo River Restoration Project; 
acquisition of habitat, access, and water rights in other key 
watersheds; and fish hatchery improvements.
    Finally, the request includes funds for the Federal contribution to 
the principal of the Utah Reclamation Mitigation and Conservation 
Account ($5.0 million); for mitigation and conservation projects 
outside the State of Utah ($0.4 million); and for program 
administration ($1.3 million).
    In addition to this request, the Bureau of Indian Affairs' budget 
includes $24.9 million for the Ute Indian Rights Settlement; and $5.0 
million is included in the Western Area Power Administration budget for 
its contribution to the Utah Reclamation Mitigation and Conservation 
Account.
    This concludes my prepared statement. I would be pleased to answer 
any questions you may have at this time.

    Senator Domenici. Thank you so much. We will certainly be 
interested in the statement. Is that the extent of the 
witnesses? You're here in support?
    Mr. Cottingham. Yes, sir.
    Senator Domenici. Senator Craig, do you have any questions?
    Senator Craig. I do have one question.
    Senator Domenici. Could you chair for just a moment and I 
will be right back.

                          IDAHO INVESTIGATIONS

    Senator Craig. Thank you very much, Mr. Chairman, and 
Commissioner Martinez, let me also echo the comments of the 
chairman and the opportunity we've had to work with you and the 
initiatives you've taken, the kind of support you have given us 
and, in like turn, we've been able to provide you. It's been a 
positive working relationship and we thank you for that.
    I have one question in your fiscal year 2001 budget that I 
would like to visit with you about and that is a passback from 
OMB. I understand that the Pacific Northwest Region's budget 
was about $72 million, mostly O&M, and OMB cut that by about 
$7.9 million. The Idaho investigation program was cut 
approximately in half to about $248,000, while others such as 
Oregon investigations took no cuts. The Idaho investigations 
were listed as new. I understand these are not new.
    Could you explain here for the record what these 
investigations are and why Idaho took what I think is a 
disproportionate cut?
    Commissioner Martinez. Mr. Chairman, if, in fact, Idaho 
took a 50 percent cut, that was not the intent and should not 
be the intent of the Bureau of Reclamation. I believe that most 
of that cut came from a Fort Hall Reservation study. I will 
provide you the information for the record. If this program 
needs additional resources, I will look to see if some re-
programming capability exists.
    [The information follows:]

                          IDAHO INVESTIGATIONS

    Following the lead of Congress in recent years, the OMB 
``passback'' on the fiscal year 2001 budget did include a reduction in 
new study activities, but the decision on which study activities to cut 
was made by Reclamation. As a result of requests from the Department 
and from OMB to provide additional data on work being performed under 
the statewide investigation programs, Reclamation's Pacific Northwest 
Region revised its program narratives for the fiscal year 2001 budget 
submission. Activities begun under existing line items in prior years 
were separated from those line items and described as their own line 
item activity in greater detail. These separated items were then 
``deemed'' to be new starts since they had not appeared in any previous 
budget submission from the region. As a result, funding for these items 
was eventually cut from the fiscal year 2001 request.

         FORT HALL INDIAN RESERVATION GROUNDWATER CONTAMINATION

    Senator Craig. Well, let us look at the Fort Hall 
situation. I need to know the specifics of that. And I say 
that, Commissioner, because we've had a very substantial 
underground water contamination problem at Fort Hall and I'm 
not sure that you all were involved in that. And if you were, 
is that where these resources are now being taken from? So let 
us examine that with you. But I see that overall as 
disproportionate, and if there is a better explanation that you 
can provide us, we'll look for it.
    Commissioner Martinez. Senator, I'll provide that for the 
record. Based on my understanding the major part of the cut was 
for that one program. However, I'll provide you a detailed 
response. And if it is something that is needed in Idaho, I 
look forward to working with you to make sure we get that done.
    Senator Craig. Thank you. Mr. Chairman, that's the only 
question I have. Thank you.
    [The information follows:]

                               FORT HALL

    Fort Hall is a special study and has not been part of the Idaho 
Investigations Program. Although the Fort Hall study was not included 
in the President's request for fiscal year 1999, the Senate report 
accompanying the fiscal year 1999 appropriations bill contained a 
directive to use $200,000 of available funds to begin a feasibility 
study to address the serious dangers of ground water contamination at 
the Fort Hall Indian Reservation in Idaho. The Congress added $250,000 
to continue the study into Reclamation's fiscal year 2000 budget. The 
Congressional funding came after the Department had reviewed 
Reclamation's fiscal year 2001 budget request, so funding was not 
requested for the Fort Hall project.

                     DROUGHT SITUATION IN THE WEST

    Senator Domenici. Thank you very much. Thank you for 
attending. I appreciate it very much.
    I want to ask a few questions with reference to the drought 
and the anticipation of drought damages. Let me start by saying 
Congress provided you with $3 million and associated 
legislative language for funding provided under drought 
emergency assistance program. The law provided primarily for 
leasing of water in compliance with State water laws and that 
purchase be approved by the State in question.
    What is the current situation and evaluation with reference 
to droughts in the West and has it changed appreciably over the 
last year?
    Commissioner Martinez. Mr. Chairman, my information 
indicates that currently Arizona, New Mexico, Texas, southern 
California and Hawaii are experiencing drought conditions. 
There are emergency declarations either in place or expected in 
the near future. Many areas of the Southwest are in worse 
condition than they were a year ago. With respect to New 
Mexico, conditions of anticipated runoff are approximately what 
they were last year, which is about 40 to 50 percent of 
average.
    Last year, luckily it started raining. As you know, it 
rained all summer. If we don't have that same scenario, we're 
going to have a drastic situation in terms of drought in the 
American Southwest.
    With respect to Reclamation projects, the storage carryover 
in our reservoirs is sufficient to provide water to those 
project beneficiaries for the next couple of years. The purpose 
of these reservoirs is to provide that carryover capability.
    But with respect to the small irrigation ditches and the 
acequias in New Mexico, they're going to have some difficult 
times this summer.
    Of the $3 million that the Congress provided last year for 
fiscal year 2000 for the budget, we have $2.3 million which is 
still unallocated. But based on the projections, we will 
probably not have any carryover money into the next year.
    We have identified in our budget this year a request for 
$500,000. We honestly believe that the demand might be 
somewhere between 2 to 3 million additional dollars. Part of 
that is because, as you know, the National Drought Policy 
Commission is expected to send its report to Congress this 
June. As a result of the activities on the Drought Policy 
Commission, many more people will become familiar with our 
program and are going to be asking for more additional money.

                       DROUGHT AUTHORITY LANGUAGE

    There is one issue I need to bring to the Committee's 
attention. In the past, the Bureau of Reclamation has provided 
assistance to States and tribes to help them compile their 
drought contingency plans. The Bureau of Reclamation had been 
interpreting Public Law 102-250, which is the law that gives us 
authority to work on drought issues. Title 2 of that Act allows 
the Bureau of Reclamation to assist States and tribes with 
resources so they can do their drought contingency plans. The 
Bureau of Reclamation had been interpreting that language to 
mean that we could provide financial grants to the States and 
the tribes, as well as technical assistance.
    My attorneys tell me that they interpret the language to 
mean that we have no authority to provide money, only technical 
assistance. I would like to get the language corrected if the 
intent of Congress is to not only provide technical assistance 
but also financial grants to States and tribes to help them do 
their planning.
    A long answer to a short question.
    Senator Domenici. Well, I appreciate your frankness. I 
can't imagine with what's happening out there that we ought to 
take the risk that we have sufficient monies with the money 
that hasn't been spent, plus a half a million. I think we 
better put a little more in that fund and I appreciate your 
suggesting $2 to $3 million. I don't think we'll have any 
trouble getting support for that because those of us who come 
from arid States know what happens.
    People don't understand, if we have a drought, individual 
water wells that serve a home in a rural part of the State 
might go dry. If that happened as a result of a serious problem 
in a city, we would be helping with their water system. If it 
went out because of a great flood, we would help pay for the 
infrastructure and the like. We have to try to understand what 
are the kinds of things that might happen and make sure you 
have authority, or somebody does. So I would like to just ask 
two or three questions.

                     DROUGHT EMERGENCY AUTHORITIES

    Could you explain what the emergency authorities are and 
which are available to the Bureau of Reclamation to mitigate 
the impact?
    Commissioner Martinez. I would be delighted to provide you 
a detailed response for the record, but basically the National 
Drought Policy Commission to date has identified the fact that 
the authority that Congress has provided the Bureau of 
Reclamation under Public Law 102-250 is really the only 
authority a Federal agency has been given by Congress to react 
to drought situations.
    The Act basically provides authority to the Secretary of 
Interior to do two things: To assist States and tribes and 
governmental entities to do drought contingency plans, and then 
to provide financial assistance during droughts so the 
Secretary can drill wells, lay temporary pipelines and redirect 
water from Bureau of Reclamation projects.
    [The information follows:]

                      DROUGHT EMERGENCY AUTHORITY

    Emergency drought assistance is provided through Public Law 102-
250, Title I. This assistance is provided only in those instances where 
a Governor of a State or a tribal leader has made a request for 
temporary drought assistance and we have determined that such temporary 
assistance is merited.
    Mitigation is defined in recent drought-related literature as an 
essential, proactive element of drought preparedness which can reduce 
the overall need for and cost of drought response. In terms of 
mitigation efforts, Reclamation has the authority to undertake these 
efforts through programs such as water conservation or wastewater 
reuse. However, the ability to implement these mitigation efforts 
depends upon the criteria for eligibility for those programs as well as 
funding provided for those activities.

                    DROUGHT POLICY COMMISSION REPORT

    I need to again state that the National Drought Policy 
Commission report, which is anticipated to be transmitted to 
Congress in June, will define what the Federal agencies have in 
terms of authority and responsibility in these areas.
    Senator Domenici. Won't they also recommend what they think 
we should have?
    Commissioner Martinez. That's the intent. It will have 
recommendations regarding congressional actions as well as 
administrative actions.
    Senator Domenici. Well, I want to say I was privileged to 
draft that legislation. I got a lot of support here and then 
the House quickly joined and it took the Administration a year 
to get that commission going, but I attended the first meeting. 
You were there. There certainly is sufficient power by the 
people to make a strong recommendation.
    You're a member and I assume that so far, knowing the kinds 
of problems that you're confronted with in the event of a 
drought, do you believe that the recommendations are going to 
be sufficiently positive that we might consider them something 
we should do?
    Commissioner Martinez. Yes, Mr. Chairman. That is part of 
the discussions that are taking place amongst the 
commissioners. We feel that in order for that report to be 
effective, we need to make some concrete recommendations. 
Therefore, the report will recommend action that the 
Administration can take immediately, and then we'll also make 
recommendations regarding what Congress might do in terms of 
authorizations and funding for down-the-road type issues.

                        DESALINIZATION RESEARCH

    Senator Domenici. I'm going to come back to the Pecos River 
and the Rio Grande in my State, but I would like to talk a 
minute about desalinization research. Somehow or another 
desalinization has ended up in your packet of areas where you 
were expected to do something. How is the desalinization 
program within the Bureau in your opinion addressing critical 
issues regarding making desalinization competitive?
    Commissioner Martinez. Mr. Chairman, if you recall, last 
year we had basically the same discussion, and we provided a 
rather detailed answer for the record. The Bureau of 
Reclamation historically has been involved in the application 
of existing technology to try to provide desalinization needs 
across the Reclamation States.
    We work with the Department of the Army, and we also work 
overseas, especially in Saudi Arabia, to help with 
desalinization. The state of the art is a question of 
economics. My understanding is that over the last 10 years, the 
cost of desalinization has gotten down to where it's becoming a 
more viable option.
    Based on the figures that I have before me, you can now 
treat brackish water for about a dollar per thousand gallons 
and seawater from about $2 to $5 per thousand gallons, and 
that's becoming competitive.
    Our budget includes two requests. One is to fund at $1.2 
million our continuing efforts to apply the technology that is 
flowing from research and $300,000 to do research working with 
academia and the private sector. That goes back to the 
legislation introduced by Senator Simon, I believe.
    We divided the request in our budget into two components. 
In the past we had merged them both together, the application 
and the research. This year we have $1.2 million for 
application and $300,000 for research. I realize that Senator 
Reid's concern last year was that we were not putting enough 
money into the research component. I understand that. It's just 
a question of economics.
    I believe our program is effective. We went back and 
revisited our program. We work with a committee made up of 
folks from the universities and the private sector who review 
the research proposals. We have funded a significant number of 
proposals, although not as many as we would wish. We hope to 
continue to work in the research area as well as the 
application area.
    Senator Domenici. We understand that overall within the 
Federal Government, we're spending about $10 million annually 
for desalinization. Your program is about $1.5 million. The 
rest is primarily within the Department of Defense. Now, is 
there any coordination between what the Defense Department does 
with the $8.5 million I assume they have and the Bureau of 
Reclamation?
    Commissioner Martinez. Yes, it's my understanding, and I 
reviewed the response we provided last year for the record, 
that there is a committee that is involved with Federal 
agencies that coordinates their efforts. I'll provide 
additional information for the record.
    [The information follows:]

                       DESALINATION COORDINATION

    As stated last year, the Bureau of Reclamation has a unique role 
among the Federal agencies in desalination research, development, and 
demonstration. Other agencies use and adapt desalination technologies 
to meet mission specific needs. Many years ago it was generally 
recognized that a potential existed within the Federal Government for 
duplication of research efforts. As a result, the Bureau of Reclamation 
and the U.S. Army Tank-Automotive Research, Development, and 
Engineering Center created the Interagency Consortium for Desalination 
and Membrane Separation Research in 1992. Since that time, the 
Consortium, including other Federal agencies, has met yearly to discuss 
individual projects being carried out by the agencies and the future 
directions of their programs. The most recent meeting was held March 
21--22, 2000.
    The Consortium members work together to establish a communications 
network that has the following benefits: Prevent Federal duplication of 
efforts, Pool limited Federal research funding and other resources to 
obtain common goals, Identify future research needs, and Allow for 
discussion of new technologies with other experts in the field.
    For example, over the past year, the Army has continued to work 
with Reclamation and the Navy in its procurement of new desalting 
devices. Reclamation, the Army, and the National Institute of Standards 
and Technology (NIST) have continued to collaborate in membrane fouling 
research. The Army and Reclamation continue to develop a new chlorine 
resistant membrane with tests at the Yuma Water Quality Improvement 
Center (WQIC) in Yuma, Arizona, the Navy's seawater test facility in 
California, and Water Factory 21 in Orange County, California. One of 
the Defense Advanced Projects Agency's research contractors is using 
Reclamation's WQIC for their testing. The Army and Reclamation work 
together on the Industrial Advisory Board for the National Science 
Foundation's Membranes and Applied Separations Technology Center at the 
University of Colorado. Reclamation participated in the most recent 
program review of the Office of Naval Research's membrane program. 
Reclamation is co-chair with NIST and the University of Colorado for 
the North American Membrane Society (NAMS) meeting in May. We will also 
be providing a hands-on workshop with membrane test equipment in our 
Denver laboratories for the NAMS conference attendees. Reclamation is 
coordinating and supporting a consortium of membrane producers and 
users in the development of ultrafiltration characterization techniques 
by NIST.

                          DESALINIZATION COSTS

    Senator Domenici. I wonder, when you mentioned the costs, 
which it's been obvious forever, since I first came to the 
Senate, we had a desalinization program going on in Roswell, 
New Mexico. You might recall that when you were there. It was 
so prohibitive in terms of cost differential that we stopped 
it. But I imagine with Israel and others working on it, that we 
have done better.
    Who would be the science and economic expert that we might 
ask regarding your assessment that you gave us here today of 
the $2 to $5 cost and the relevance of that in terms of 
competitiveness? Do you have an expert?
    Commissioner Martinez. Yes, we will provide that 
information for the record.
    Senator Domenici. Could you have the expert provide us a 
narrative of what's going on and what they think the next steps 
are in moving in this area?
    Commissioner Martinez. We'll do that for the record.
    [The information follows:]

                         DESALINATION EXPERTISE

    We have an expert, Kevin Price in our Denver office, and a staff 
that supports the desalination program. Competitiveness is determined 
through the comparison of actual costs of alternative supplies of water 
determined by a specific community and actual desalination costs. 
Actual desalination costs are obtained through published information, 
which has given the cost at the seawater plants at Tampa Bay at $2.09 
per thousand gallons, Trinidad at $3.21 per thousand gallons, and 
Larnaca, Cyprus at $3.30 per thousand gallons. We also obtain current 
cost data through the communication and coordination with experts 
within the desalination industry and through professional organizations 
such as the American Desalting Association (ADA). We have jointly 
developed, validated, and are selling a cost model with the ADA. This 
model was created with the assistance of the National Institute of 
Standards and Technology and ADA desalting experts. It currently 
focuses on brackish and seawater desalination with membranes; future 
work will add electrodialysis. ADA is currently negotiating with the 
International Desalination Association for support to include the costs 
of thermal desalting technologies.

                        DESALINATION-NEXT STEPS

    The status of desalination today is that there are commercially 
available processes, reverse osmosis, nanofiltration, distillation and 
electrodialysis, which the potential user of desalination can select 
depending on the particular requirements. The Desalting Plant Survey 
conducted for the International Desalting Association indicates that 
there were approximately 12,000 desalting plants worldwide at the end 
of 1997.
    Federal funding of desalination research began in 1954 with the 
creation of the Office of Saline Water and largely ended when the 
Office of Water Research and Technology closed its doors in 1982. Also 
in 1982 with the end of Federal funding, a significant patent was 
issued for a specific type of very efficient membranes. That patent, 
which was ultimately owned by the Department of the Interior, remains 
as the basis of today's commercial desalination membrane market.
    While significant progress has been made in applying cost-effective 
desalination technologies, they remain too expensive an option for the 
majority of small communities in the United States. Specifically, 
further work is needed to reduce the costs related to the clogging or 
fouling of membranes, and work is need to find environmentally friendly 
ways of byproduct or concentrate disposal
    While the issues of membrane fouling and concentrate disposal have 
a high priority, other issues have also been identified by the 
Desalination Research and Development Program's constituents. They are:
  --development of membranes with increased resistance to chlorine,
  --development of techniques to reduce surface fouling,
  --development of ion- or component-specific membranes for reverse 
        osmosis, electrodialysis or other membrane-based processes,
  --increased rates of mass transfer at membrane surfaces,
  --development of ``leak-proof'' recycling treatment technologies for 
        potable reuse,
  --standardized membrane integrity tests,
  --improved predictive measurements for accurate modeling,
  --support and development of innovative processes,
  --evaluation of economic and environmental benefits of recovering the 
        byproducts of desalting processes,
  --development of more energy efficient systems,
  --development of accurate cost models,
  --development of non-conventional concentrate disposal methods,
  --development of methods to cost effectively recover by-products,
  --testing and demonstration to assist in the development of public 
        health and environmental regulations,
  --development of tools and resources for planners and engineers.
    As progress continues to be made through the research planned in 
the identified areas, the effectiveness and efficiency of desalination 
processes are expected to improve. Supporting research funding is 
essential to achieve these objectives in order to produce more 
affordable desalinated water supplies that can help meet the nation's 
current and future potable, industrial, and environmental water supply 
needs.

                      ENDANGERED SPECIES RECOVERY

    Senator Domenici. I appreciate it. I have questions 
regarding the Carlsbad project with reference to fish and 
wildlife, but I'll submit it to you for your answers and also 
one with reference to the endangered species recovery and 
implementation of that program and your efforts to comply with 
the so-called biological opinions.
    Would you care to just generally comment with reference to 
those two--that situation, please?
    Commissioner Martinez. Yes, Mr. Chairman. Thank you for 
your assistance over the years on this issue. Generally what 
we're doing is working with the State of New Mexico on the Rio 
Grande and the Pecos River to look at long-term operations of 
the Bureau of Reclamation projects and the Corps of Engineers 
projects as appropriate. Both of these are underway. The final 
EISs are a few years down the road.

                         RIO GRANDE INITIATIVE

    But we continue to work with the stakeholders, especially 
on the Rio Grande. There is a new initiative to put together a 
conservation plan agreeable to the State as well as the Corps 
of Engineers, the Bureau of Reclamation and the business 
community.
    The Bureau has taken the lead working with the agencies and 
the State to coordinate this initiative to maximize the 
benefits of these projects, at the same time dealing with 
endangered species issues.
    I hope that by this time next year we will have a plan in 
place that will address some of your concerns about bringing 
all the parties together and making sure that we don't have 
duplicate programs in place.
    Senator Domenici. And that the stakeholders are really 
talking to each other with reference to having to accommodate 
somewhat to differing views. Could I ask you, what is the name 
of the entity that you just described so that I am working with 
the right one? They were in my office the other day and I 
assume that's the group that you're talking about.
    Commissioner Martinez. On the Rio Grande?
    Senator Domenici. Yes.
    Commissioner Martinez. If not, I'll provide it. I'll 
provide it for the record.
    Senator Domenici. We think it's the ESA work group and 
middle Rio Grande restoration initiative.
    Commissioner Martinez. That is the group, but the habitat 
conservation plan has about six signatories. I'll provide that 
information for the record.
    [The information follows:]

                             ESA WORKGROUP

    You were correct that the group is called the ESA Working Group. 
They formulated the Habitat Conservation Plan with seven signatories, 
including the Bureau of Reclamation, the U.S. Army Corps of Engineers, 
the U.S. Fish and Wildlife Service, the New Mexico Interstate Stream 
Commission, the Attorney General of New Mexico, the New Mexico 
Department of Game and Fish, and the Middle Rio Grande Conservancy 
District.

                       FEDERAL GOVERNMENT'S ROLE

    Senator Domenici. I want to state for the record that with 
reference to the Rio Grande and the Pecos, I know a little bit 
more about the Rio Grande, having been born and raised right 
there. But ultimately, you know, I'm not at all bashful about 
thinking that the Federal Government might have to come up with 
some money in the end with reference to an appropriate habitat. 
The problem is we don't know what to do yet. And I assume when 
you speak of maybe next year we'll be ready to have a unified 
effort, you would also be addressing what is the Federal 
Government's role if we have to provide for the endangered 
species, what should the Federal Government be doing. Would 
that part of what's being discussed?
    Commissioner Martinez. Yes, Mr. Chairman. I think the 
foundations are what the Federal Government is doing. On the 
Rio Grande there was a big debate, as you're aware, as to 
whether the Secretary of the Interior was going to release 
water from the upstream reservoirs just by his own action. The 
position of the Bureau of Reclamation and the Secretary 
basically is that we will not be releasing water unilaterally 
from reservoirs across the West. We will be trying to work with 
Congress or to seek appropriations to acquire water rights 
under existing State law to address some of these concerns, 
keeping in mind that the different stakeholders also have to 
bring something to the table. It's not an entire federally 
financed project. But if you look at our budget we have money 
for these kinds of acquisitions. We have a budget request on 
the Rio Grande and on the Pecos River, and of course, we've 
been leasing water on the Columbia/Snake River system to the 
extent of 427,000 acre feet since 1996.
    That generally is the direction where we're heading. I will 
make sure that a report to the Committee on these issues is 
provided for the record.
    [The information follows:]

                  ENDANGERED SPECIES/WATER ACQUISITION

    Reclamation supports the goals and requirements of the Endangered 
Species Act to conserve threatened and endangered species and avoid 
actions that might jeopardize the continued existence of these species 
or destroy their critical habitat.
    In regards to conservation, our policy is to participate in the 
development and implementation of recovery plans for listed species 
that are affected by Reclamation's projects and actions or where 
resources under our control are identified in a recovery plan. We also 
undertake conservation actions to avoid future listings of species. In 
determining what conservation actions are appropriate for 
implementation, we consider such things as: species' needs, impacts and 
benefits to species, funding availability and priorities, costs, 
authorities, local support, technical feasibility, availability of 
agency resources, impacts on Indian Trust Assets and the availability 
of cost-sharing partners. We support using a multi-species/ecosystem 
approach, where possible, and involving stakeholders from the public 
and private sectors in developing and implementing conservation plans. 
Some of the conservation programs that we are presently engaged in are: 
the Upper Colorado River Recovery Implementation Program, the Platte 
River Recovery Implementation Program, the Lower Colorado River Multi-
Species Conservation Program, and the Central Valley Project 
Improvement Act implementation. Conservation activities may involve 
increasing in-stream flows through changes in dam operations and 
acquisition of water through lease or purchase; and acquiring lands for 
habitat restoration and protection.
    We involve the Fish and Wildlife Service and National Marine 
Fisheries Service early in project planning or in decisions involving 
existing operations to determine effects on any threatened or 
endangered species. For formal consultations, we work with the Services 
in preparing Biological Assessments, Biological Opinions and Reasonable 
and Prudent Alternatives that are technically and economically 
feasible.

                         RIO GRANDE RESTORATION

    Senator Domenici. I thank you very much for the way you 
have attempted to work as an intermediary and to be unbiased 
and even-handed and to recognize that the State has a genuine 
interest as you have been doing is really gratifying to this 
Senator and I commend you for it.
    I will begin very shortly furthering my involvement with 
ESA Working Group and the Rio Grande Restoration Initiative. 
They've been in my office. I've discussed with them; in fact, 
we have to all get together and start talking about where we 
end up. If you think they are a good, workmanlike group, I 
appreciate that sort of advice and I will begin to work more 
diligently with them.
    Commissioner Martinez. Mr. Chairman, I look forward to 
working with you down the road as a fellow New Mexican, and I 
am personally interested in these issues. These issues affect 
not only the Rio Grande stream system, but they're common to 
every stream system across the West. If we don't come to grips 
with them, we are going to be in constant litigation and 
causing fractionalization among different stakeholders across 
the West.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Domenici. Thank you all very much. The questions 
will be submitted and whenever you can get them answered, we 
would appreciate it.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Pete V. Domenici

                              DESALINATION

    Question. Mr. Commissioner, what is the state of desalination 
technology today?
    Answer. The status of desalination today is that there are 
commercially available processes, such as reverse osmosis, 
nanofiltration, distillation and electrodialysis, which the potential 
user of desalination can select depending on the particular 
requirements. The Desalting Plant Survey conducted for the 
International Desalting Association indicates that there were 
approximately 12,000 desalting plants worldwide at the end of 1997.
    Federal funding of desalination research began in 1954 with the 
creation of the Office of Saline Water and decreased substantially when 
the Office of Water Research and Technology, or OWRT, closed its doors 
in 1982. Also in 1982 as a result of OWRT's work, a significant patent 
was issued for a specific type of very efficient membranes. That 
patent, which was ultimately owned by the Department of the Interior, 
remains as the basis of today's commercial desalination membrane 
market.
    While significant progress has been made in cost effectively 
applying desalination technologies, they remain too expensive an option 
for the majority of small communities in the United States. 
Specifically, further work is needed in the public or private sector to 
reduce the costs related to the clogging or fouling of membranes, and 
work is needed to find environmentally friendly ways of byproduct or 
concentrate disposal.
    Question. What kinds of research must be undertaken in order to 
make desalination competitive?
    Answer. There are two types of research that could be undertaken: 
basic and applied. Basic research tends to be expensive and long-term, 
while applied research tends to be incremental, with shorter-term 
payoffs. Our current approach in the Bureau of Reclamation's 
Desalination Research and Development Program is to use the funding 
available primarily to support applied research projects from bench-
scale to pilot-scale to demonstration.
    When determining whether or not desalination costs are competitive, 
desalination costs must compare favorably with fresh water costs. In 
the past, fresh water sources were much less expensive than 
desalination. But today, in many cases, there are no good alternatives. 
Fresh water sources are in many cases over-allocated. Desalination 
could provide an opportunity to increase the total water supply by 
purifying impaired waters.
    Question. What are the key issues that must be addressed?
    Answer. While the issues of membrane fouling and concentrate 
disposal have a high priority, other issues have also been identified 
by the Desalination Research and Development Program's constituents. 
They are:
  --development of membranes with increased resistance to chlorine,
  --development of ion- or component-specific membranes for reverse 
        osmosis, electrodialysis or other membrane-based processes,
  --increased rates of mass transfer at membrane surfaces,
  --development of ``leak-proof'' recycling treatment technologies for 
        potable reuse,
  --standardized membrane integrity tests,
  --improved predictive measurements for accurate modeling,
  --support and development of innovative processes,
  --evaluation of economic and environmental benefits of recovering the 
        byproducts of desalting processes,
  --development of more energy efficient systems,
  --development of accurate cost models,
  --development of non-conventional concentrate disposal methods,
  --development of methods to cost-effectively recover by-products,
  --testing and demonstration to assist in the development of public 
        health and environmental regulations,
  --development of tools and resources for planners and engineers.
    Question. How is the Desalination Program within the Bureau of 
Reclamation addressing the critical issues?
    Answer. The critical issues are addressed first through 
communication and planning with the potential users of the technology, 
e.g. utilities, water management agencies, regulators, equipment 
suppliers, associations, engineering firms, nonprofit research 
organizations, and the academic community. From the extensive 
suggestions of the potential users, research investigations, pilot 
plants, and demonstration projects are developed with priorities 
matched to a budget. The priority areas are advertised and contracted 
through a competitive process to qualified researchers. Upon completion 
of the work, it is disseminated through conferences, workshops, 
reports, patents, electronic media, and electronic files available from 
the Desalination Research and Development Program's website. On a 
regular basis, the Desalination Research and Development Program is 
reviewed by outside evaluators and the research is reprioritized.
    Question. Is there a research ``Road-map'' in place to focus 
available funding on the most critical issues?
    Answer. The Desalination Research and Development Program's 
research road-map is determined through the input of two committees, 
the Steering Committee and the Technical Review Committee. Both of 
these committees assist in the implementation of the research process. 
The Steering Committee is comprised of six non-Reclamation individuals 
from various desalination constituencies and is chaired by 
Reclamation's Director of Research. It is responsible for assisting in 
developing the strategic plan and vision, recognizing unexplored 
opportunities and assuring the Desalination Research and Development 
Program meets the intent of Congress. The Technical Review Committee is 
made up of five highly qualified experts from outside of Reclamation. 
They make recommendations concerning the research goals and objectives, 
as well as assisting in the development of research priorities, or 
road-map. The committees are new for fiscal year 2000. We will have the 
first Steering Committee meeting April 10, 2000.
    The current road-map concentrates funding into five emphasis areas. 
They were established through extensive input from seven workshops with 
constituents held between 1989 and 1997. The five emphasis areas are 
membranes, especially fouling issues, and increased efficiencies; 
concentrate disposal for inland and coastal plants; innovative 
concepts, especially reduced costs for small systems; demonstration, 
especially for broad regulatory approval and for testing of laboratory/
pilot successes; and technology transfer. Currently, Reclamation is 
partnered with the American Water Works Association Research Foundation 
(AWWARF) to bring together in July representatives of the membrane 
industry, academia, design engineering companies, utilities, and 
regulatory agencies in order to develop a detailed, prioritized list of 
projects for desalting and water filtration membranes. This list will 
guide the Desalination Research and Development Program in desalting 
membrane research and guide AWWARF investments in water filtration 
membrane research.
    Question. Could you give the Committee an idea of the comparative 
costs between desalinated water and the next lowest alternative?
    Answer. Costs for various alternative water supplies vary widely 
site-to-site. This is difficult to provide an across the board 
response. The next lowest cost alternative to desalination may be 
conservation, reallocation of existing resources, or water reuse. Last 
year, San Diego, California, estimated costs for their limited options 
to increase water supply as: water transfer costs of $0.84-$1.33 per 
1000 gallons, marine transport costs of $1.58 per 1000 gallons, 
reclaimed water for industry of $2.22 per 1000 gallons. These options 
are all available on a limited scale, whereas some form of desalination 
is available on a more widespread basis. A general rule of thumb is 
that brackish water desalination costs about $1 per 1000 gallons and 
seawater desalination costs between $3 and $4 per 1000 gallons.
    Question. Are there any unusual factors in the Tampa, Florida 
desalination project that would skew comparisons with that project?
    Answer. The Tampa Bay Project will produce water for approximately 
$2.08 per thousand gallons. The unusual factor in this project is its 
low cost. Factors in the project that affect the water production cost 
include sharing infrastructure with the adjacent power plant, a 
favorable electric power cost, feed water warmed by a few degrees, and 
a feed salinity about 80 percent of that of normal seawater. These 
factors would tend to skew comparisons with other facilities.
    Question. Under what conditions do you see desalination being 
feasible for a rural community or small town in an interior location?
    Answer. Desalination is used in a number of small communities in 
the interior, like Buckeye, Arizona, and Las Animas, Colorado, which 
had no alternative but to desalinate locally available brackish waters. 
The primary condition that leads to this is the lack of a good water 
supplies nearby. Decreased desalination costs will make good quality 
water available for many more such communities.
    Question. Why does the budget justification material separate out 
the Desalination R&D activities from Advanced Water Treatment 
Desalination?
    Answer. The two programs were separated because they represent the 
needs of two different constituencies. It became apparent during an 
external program Peer Review in 1998, that the Desalination Research 
and Development Program was national in scope and should not be used 
primarily to support research within the agency. The Advanced Water 
Treatment Program is comprised of research and technology development 
to specifically address Reclamation's water treatment needs such as 
rural and Native American water treatment, treatment of irrigation 
returns, treatment of impaired waters, salinity control through 
treatment, water reuse, and increasing water supplies with treatment 
technologies.
    Question. How are these two programs different?
    Answer. The Desalination Research and Development Program is 
authorized by the Desalination Act of 1996 and focuses on water 
purification and technology development. The Secretary of the Interior 
is designated as the responsible official in this Act, and Reclamation 
serves as his steward for implementing this national program. The 
Desalination Research and Development Program serves as a catalyst in 
accelerating the reduction in cost of desalination technologies through 
cost-shared, competitive, cooperative agreements. The Advanced Water 
Treatment Program focuses on Reclamation's needs, using Reclamation's 
researchers to develop and apply new water treatment technologies that 
benefit Reclamation projects. The program may use desalination 
technologies created by the Desalination Research and Development 
Program. The Advanced Water Treatment Program is carried out under 
Reclamation's Science and Technology Program using Reclamation's 
general research authority. Water treatment is undergoing a 
technological revolution, which is being driven by more stringent 
drinking water and environmental regulations and an increased need for 
water. Reclamation must meet these regulations and work to develop 
additional supplies of water.
    Question. Why isn't there a greater non-Federal contribution to 
this research effort?
    Answer. The Desalination Act of 1996, Public Law 104-298, requires 
that the Federal cost share not exceed 50 percent. Further, it provides 
that a Federal contribution in excess of 25 percent may not be made 
unless the project is determined to not be feasible without such 
increased Federal contribution. Up to $1,000,000 in each fiscal year 
may be awarded to universities without any cost-sharing requirement. In 
our Desalination Research and Development Program, the non-Federal 
contribution from non-academic institutions has varied from 50 percent 
to 90 percent. While academic institutions are not required to cost 
share, their cost share has ranged up to 70 percent.
    Currently, the majority of contracts have been with more than 16 
universities including New Mexico State University, University of 
Nevada, Montana State University, University of Texas at El Paso, 
Arizona State University, University of Illinois, and University of 
Colorado. The Federal funding helps to motivate the best and brightest 
of the faculty and students to chose to study desalination issues. In 
the majority of cases, the universities match the Federal funding with 
in-kind contributions such as use of specialized equipment, facilities, 
and faculty time.
    Generally, the private sector does not fully invest in desalination 
research because many other areas in their businesses return higher 
short-term profits. However, we have found that Federal funds attract 
corporate researchers, and help to justify essential desalination 
research that may not have an immediate return on their investment.
    Question. Would you support increasing the non-Federal cost sharing 
in this program?
    Answer. Yes, we would support increasing the non-Federal cost 
sharing in this program.

                                DROUGHT

    Question. What is the current drought situation in the West?
    Answer. Currently Arizona, New Mexico, Texas, southern California, 
and Hawaii are experiencing drought conditions, with emergency 
declarations in-place or expected in the near future.
    Question. Has it changed appreciably over the past year?
    Answer. Many areas in the southwest are in much worse condition 
than the previous year due to the previous year's drought conditions, 
coupled with almost no snowpack or run-off expected in large areas of 
the southwest this year.
    Question. Has the Bureau of Reclamation encountered any problems in 
using the funding provided by the Congress for drought emergency 
assistance?
    Answer. The Solicitor's Office has informed us that Public Law 102-
250 does not authorize financial assistance to cooperating entities for 
development of drought plans.
    Question. Can you detail for the Committee how the additional $2.5 
million appropriated over the budget request for fiscal year 2000 has 
been used to date?
    Answer. The table below indicates the use of the funding available 
fiscal year 2000.

Carryover.....................................................  $100,000
Fiscal year 2000 Appropriation................................ 3,000,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Beginning Fiscal Year 2000 Allocation................... 3,100,000
Underfinancing................................................  -250,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Subtotal................................................ 2,850,000
Program Administration Costs..................................  -100,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Subtotal................................................ 2,750,000
National Drought Mitigation Center, Drought Planning Technical 
    Assistance to the State of Arizona........................   -40,000
Navajo Nation for Drought Plan................................   -75,000
Hualapai Nation for Drought Plan..............................   -50,000
Budgeted for Drought workshop in GP Region....................   -50,000
Technical Assistance to the State of Hawaii for drought 
    planning..................................................   -75,000
Funding stakeholder education and public outreach efforts 
    through Western Governor's Association....................   -10,000
Drought Response Fund Study (Public Law 102-250, Section 205).  -100,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Unallocated Balance..................................... 2,350,000

    Question. Do you expect carryover funds into 2001?
    Answer. Requests are expected to exceed available funding, 
therefore we anticipate little or no carryover.
    While there is currently an unallocated balance, inquiries for 
assistance have been received, and we anticipate receipt of formal 
requests for both emergency and planning assistance in the very near 
future. Requests are currently in the development phase at the area 
office level.
    Question. Is the $500,000 requested for 2001 plus any expected 
carryover sufficient to meet your expected needs for 2001?
    Answer. As a result of activities related to the National Drought 
Policy Commission, we anticipate that the number of requests for 
drought-related assistance could increase due to increased awareness 
and conditions that currently exist or are being forecast; therefore, 
our fiscal year 2001 request may well not be sufficient to meet all 
requests for funding.
    Question. Could you explain what emergency authorities are 
available to the Bureau of Reclamation to help mitigate the impacts of 
drought?
    Answer. Emergency drought assistance is provided through Public Law 
102-250, Title I.
    Question. The committee has had to extend authority under the 
Reclamation States Emergency Drought Relief Act on several occasions. 
Has the bureau given thought to proposing legislation to give 
Reclamation permanent emergency drought authority?
    Answer. The National Drought Policy Commission is currently in the 
final stages of preparing its report to Congress and to the President. 
As part of its analysis and recommendations, the Commission is 
considering the need for legislation to support its proposed National 
Drought Policy report. We are examining the need for permanent 
authorization for the Bureau of Reclamation drought-related efforts 
within this context.

                                CARLSBAD

    Question. The budget request includes $2.1 million for Fish and 
Wildlife Management and Development activities. Most of the increase 
over the last year's request is to obtain additional supplemental 
water. Why is this additional water needed?
    Answer. Water is needed to offset Pecos River depletions. 
Depletions occur when water is bypassed through Sumner Dam to benefit 
the threatened Pecos bluntnose shiner. In past years, water would have 
been stored at Sumner Dam or released in such a manner as to incur 
fewer depletions. However, these operations had negative impacts on the 
threatened fish.
    Question. How much additional supplemental water do you expect you 
will need in fiscal year 2000 to meet the endangered species 
requirements?
    Answer. The amount of water needed is dependent on the hydrology 
and weather conditions. It depends on how much we need to bypass at 
Sumner Dam for the shiner and how much of that water needs to be offset 
through Reclamation's water acquisition program. We may need as much as 
an additional 6,000 acre-feet.
    Question. How have you obtained any additional water in fiscal year 
2000?
    Answer. We have leased 2000 acre-feet for fiscal year 2000 from 
Pecos River pumpers who have non-project water rights. These farmers 
have agreed to fallow the land. We are continuing our efforts to look 
at other options and sources to offset depletions.
    Question. Have there been and do you expect any adverse impacts 
resulting from this diversion of this water for support of endangered 
species?
    Answer. The operations in question do not involve diversion of 
water for endangered species in the Pecos River. Rather, operations of 
Sumner Dam have been changed to either bypass natural inflow to assist 
meeting flow recommendations or alter storage release regimes to 
minimize impacts to the fish. These operations may increase water 
depletions over the more than 150 river miles between Sumner Dam and 
the Carlsbad Irrigation District (CID). Reclamation has committed to a 
program of water leasing and acquisition that will attempt to offset 
those increased depletions to CID. The adverse impacts of not being 
able to provide sufficient additional water could include non-
compliance with ESA standards, increased vulnerability to lawsuits for 
non-compliance, and payment to the State of New Mexico of $106 for each 
acre-foot of depleted water not offset as required. This latter measure 
is required by our cooperative agreement with the State of New Mexico 
Interstate Stream Commission.
    Question. Can you give the Committee some idea of the estimated 
total cost and length of time it will take to fulfill the requirements 
of the Biological Opinion on the Pecos River?
    Answer. The Fish and Wildlife Service requested that target flows 
not fall below a certain level. The amount of water needed varies from 
year to year with the hydrologic conditions. We will need to supply 
supplemental water as long as fish need it. We cannot estimate time or 
cost because of dependence on available water. However, Reclamation, 
CID, and the State of New Mexico are working jointly to mesh river 
operations, Biological Opinion requirements, Pecos River Compact 
delivery obligations, New Mexico State Engineer water rights 
administration and other pertinent requirements.

           ENDANGERED SPECIES RECOVERY IMPLEMENTATION PROGRAM

    Question. Mr. Commissioner, can you explain to the Committee your 
legal obligations to comply with Biological Opinions issued by the Fish 
and Wildlife Service?
    Answer. Section 7 of the Endangered Species Act requires each 
Federal agency to assure that any action it authorizes, funds, or 
carries out is not likely to jeopardize the continued existence of any 
listed species. To do so, agencies consult with the Fish and Wildlife 
Service or with the Commerce Department's National Marine Fisheries 
agency, as appropriate on any action which may affect endangered 
species. If the Service determines the action is likely to jeopardize 
the continued existence of the species, the Service recommends 
reasonable and prudent alternative to the original action. Reclamation 
generally works cooperatively with the Services to develop an 
acceptable reasonable and prudent alternative and then accepts and 
implements each Biological Opinion. The consequence for not accepting 
it could be jeopardy to the species and potential litigation.
    Question. Does the Bureau of Reclamation ever put forth a 
definitive recovery plan with firm costs and schedules for 
implementation?
    Answer. Technically, the Fish and Wildlife Service is responsible 
for development of Recovery Plans for a particular species. The Fish 
and Wildlife Service will nominate and approve experts to serve on a 
``Recovery Team''. This team may be represented by various private, 
state, and Federal agency technical members. The Recovery Team develops 
a Recovery Plan for the specific endangered species. In some cases, 
portions of a Recovery Plan may be adopted as part of Reasonable and 
Prudent Alternatives for various proposed Reclamation actions.
    The key issue is that a Recovery Plan is developed by a Recovery 
Team established by the Fish and Wildlife Service, not by Reclamation 
alone. Reclamation does, on an annual basis, establish funding and 
schedule estimates to implement Reasonable and Prudent Alternatives and 
in some cases those Reasonable and Prudent Alternatives involve 
elements of a ``Recovery Plan''. Eventually such a ``Plan'' will be 
accomplished and the species will be recovered. Each Reclamation 
project or program with a biological opinion updates the costs 
associated with the opinion, at least annually, while preparing the 
budget for that project or program.
    Question. I understand that legislation has been proposed that 
would require non-Federal cost sharing for capital improvements related 
to endangered species recovery activities in the Upper Colorado and San 
Juan River Basins. What is the Administration's position on this 
legislation?
    Answer. The Department testified in support of H.R. 2348, the House 
version of this legislation last October, with amendments to address 
some concerns. The Administration believes the legislation is critical 
to the continued recovery of the four species of endangered fish and to 
future successful water management for multiple uses.
    Question. What are your concerns, if any?
    Answer. During its testimony, the Department noted concerns about 
two aspects of the bill. The first was that Section 3(e) ``Authority to 
Retain Appropriated Funds,'' is not only unnecessary, but may also 
unduly restrict Reclamation's ability to manage its program. In 
addition, the Administration has policy and PAYGO concerns with 
allowing power revenues to be used to both write-off debt to the 
Treasury and at the same time be redirected to fund new investments. 
The Department would like to work with the Congress to address these 
concerns, so that the legislation might be enacted.
    Question. Do you support the idea that non-Federal interests should 
bear a greater portion of these fish and wildlife costs?
    Answer. Reclamation is very supportive of all program participants 
providing financial and other support to the program roughly 
proportionate to the benefits they receive.
    Question. What is the position of the affected States on increased 
cost sharing?
    Answer. Recognizing the program is best accomplished cooperatively, 
the states developed and support the cost share formula proposed in the 
legislation.

                           MIDDLE RIO GRANDE

    Question. The budget request for Fish and Wildlife Management and 
Development on the Middle Rio Grande Project increases by 56 percent 
over fiscal year 2000 request. Mr. Commissioner, the Bureau of 
Reclamation continues to spend increasing amounts of money on studies, 
coordination, data collection and computer models.
    Is there a plan for the recovery of the Rio Grande silvery minnow?
    Answer. Yes, the official recovery plan was issued by the Fish and 
Wildlife Service in July 1999. Reclamation is an active participant in 
recovery efforts, including development of a Habitat Conservation Plan.
    Question. When do you expect to finalize a plan, and what do you 
expect it to cost?
    Answer. The final recovery plan was issued in July 1999. The 
estimated cost of the plan is $6,950,000 over a five year period.
    Question. How much additional water do you expect will be needed to 
support the recovery plan?
    Answer. Depending on actual water supply and weather conditions an 
additional 50,000 to 100,000 acre-feet of water could be needed each 
year.
    Question. How much additional water do you expect will be needed in 
fiscal year 2000 to support the recovery plan?
    Answer. We anticipate that over 50,000 acre-feet will be needed in 
fiscal year 2000.
    Question. How and from whom will this water be obtained?
    Answer. We have obtained 38,000 acre-feet from current contractors 
of San-Juan Chama Project water. The remaining water will have to be 
found from undefined sources.
    Question. Do you have an agreement with the State of New Mexico 
regarding the additional water for fiscal year 2000 and any additional 
needs for fiscal year 2001?
    Answer. The Bureau has discussed with the State of New Mexico and 
others the additional amount of water that might be required in fiscal 
year 2000 and fiscal year 2001 to support the recovery plan, but we do 
not have a formal agreement with the State.

                               RIO GRANDE

    Question. I note that funding is being requested to initiate 
``clean water activities and silt research'' studies on the Rio Grande 
Project. Why is this work required and what is the estimated cost and 
schedule for completion for this work?
    Answer. Water quality activities including research efforts at 
Elephant Butte and Caballo Reservoirs will begin in fiscal year 2001. 
The funding requested for fiscal year 2001 for these efforts is 
$85,000. The total estimated cost and schedule for the efforts are not 
available until current investigations are completed.
    Question. What is the current status of the adjudication of water 
rights in New Mexico and Texas?
    Answer. There are three distinct legal cases involved with Rio 
Grande Project water rights. The New Mexico State Court continues its 
hydrology committee activities and issuance of the year 2000 hearing 
schedule. In the quiet title case the United States District Court on 
November 30, 1999, issued a Memorandum Opinion and Order staying 
mediation and allowing the litigation of this matter to proceed. The 
Texas Natural Resource Conservation Commission continues to be on hold 
with its administrative hearings pending outcome of the other two 
cases.
    Question. Has there been any movement or progress over the past 
year?
    Answer. Yes, the United States team views the progress made with 
the majority of the parties during mediation in the quiet title case as 
significant.
    Question. Why has the development and use of the Upper Rio Grande 
Water Operations model been delayed an additional 2 years?
    Answer. With the increasing demand for water among competing uses, 
it has become necessary to develop more sophisticated methodologies 
related to water accounting. A draft operations model is currently 
being used for the Annual Operating Plan and will be tested side by 
side with existing accounting methods i.e., manual data input to 
spreadsheets, etc. As more is learned about the hydrologic 
characteristics of the Rio Grande Basin, the Upper Rio Grande Water 
Operations Model, referred to as URGWOM, has continued to evolve to 
take full advantage of the additional data. Efforts to incorporate the 
emerging legislative constraints into the URGWOM have led to the 
development of more sophisticated methodologies which will enable 
URGWOM end users to make more informed and better decisions in a more 
timely manner.
    Question. Is your work funding constrained, and if so, what is your 
funding capability for fiscal year 2001?
    Answer. We have received adequate funding in the past, but we have 
a capability in fiscal year 2001 of an additional $300,000 to 
accelerate continuation of collaborative efforts with other agencies 
and stakeholders, model refinements as deemed necessary, and continue 
work on database development, end user support, model implementation, 
testing and calibration, and ongoing data collection efforts for the 
URGWOM.
    Question. How important is this operational model to the water 
quantity and quality studies of the Bureau of Reclamation?
    Answer. The URGWOM is becoming increasingly essential to the daily 
water operations because of the enlargement of the number of involved 
and vested parties, the amount of data, the complexities of the issues, 
and the demand for water . The ability to analyze and respond quickly 
to competing demands for water requires analysis tools like the URGWOM. 
As more data is made available that affects water supply within the 
basin, the URGWOM will play an even more important role with its 
ability to analyze this data and allow decisions makers to more quickly 
assess the impacts of operational decisions and respond accordingly.

                        TAOS WATER SUPPLY STUDY

    Question. What is the current status of the Taos Water Supply 
Study?
    Answer. Environmental compliance and negotiations among the main 
parties on how to spend the money have been completed as well as 
putting the cooperative agreements in place. Drilling of one of seven 
wells for the city has been completed. Additional work on some of the 
non-drilling components of the project, such as water planning, 
budgeting and prototype projects, is in progress.
    Question. When will this work be completed?
    Answer. The additional wells and the non-drilling components should 
be completed by the end of this calendar year.
    Question. Have there been any delays in the completion schedule 
since last year? If so, please explain.
    Answer. Upon initial receipt of funds, no firm completion schedule 
was established. We had hoped for perhaps a May 2000 completion. The 
time needed for environmental compliance and agreement among all 
parties delayed the initial contract award. There have been no drilling 
delays other than the expected shut down for the winter months. We now 
anticipate completion by December 2000.


                          SUBCOMMITTEE RECESS


    Senator Domenici. We stand in recess until March 28th when 
we will have the DOE testify on defense programs.
    [Whereupon, at 11:55 a.m., Tuesday, March 21, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2001

                              ----------                              


                        TUESDAY, MARCH 28, 2000

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:15 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Pete V. Domenici (chairman) 
presiding.
    Present: Senators Domenici, Gorton, Craig, and Reid.

                          DEPARTMENT OF ENERGY

                National Nuclear Security Administration

STATEMENTS OF:
        GEN. THOMAS F. GIOCONDA, ACTING DEPUTY ADMINISTRATOR, DEFENSE 
            PROGRAMS, PRINCIPAL DEPUTY ASSISTANT SECRETARY FOR MILITARY 
            APPLICATIONS
        ROSE GOTTEMOELLER, ACTING DEPUTY ADMINISTRATOR, ATOMIC ENERGY 
            DEFENSE AND NONPROLIFERATION PROGRAMS
        ADM. FRANK L. BOWMAN, DIRECTOR, NAVAL NUCLEAR PROPULSION 
            PROGRAM
        GEN. EUGENE E. HABIGER, DIRECTOR, SECURITY AND EMERGENCY 
            OPERATIONS

             OPENING STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. The hearing will come to order. I 
understand everybody is busy, so I guess our goal ought to be 
to expedite things this morning.
    This is a very, very important set of witnesses, and I have 
a few opening remarks. We will then proceed as quickly as we 
can and, if any one has any remarks after I am finished we will 
hear them.
    The subcommittee is going to consider the fiscal year 2001 
budget request for the National Nuclear Security Administration 
[NNSA] covering defense programs, nonproliferation, and naval 
reactor programs this morning. This is the first appearance of 
the new NNSA before this committee, and I am very pleased to 
have you here. Combined, these programs account for $6.2 
billion of the $18.1 billion requested for the Department from 
this subcommittee and representing the core of its national 
security functions of the Department of Energy. The request 
represents an increase of $224 million over comparable levels 
last year, a 3.7 percent increase from the current level.
    The defense and nonproliferation programs together are the 
backbone of our strategic nuclear deterrent, on the one hand 
reducing the threat to our Nation posed by other weapons of 
mass destruction and, on the other hand, maintaining our 
deterrence against the threat that remains.
    We are considering the programs together because they are 
interrelated. If, for example, in the coming decade we made 
rapid progress on the disposition of plutonium and uranium in 
Russia and our ability to verify our potential adversary's 
stockpile levels, we may be able to reduce our nuclear 
stockpile. Conversely, lack of progress in those areas will 
prevent us from pursuing stockpile reductions. At least, many 
people think that.

              STOCKPILE STEWARDSHIP PROGRAM--30-DAY REVIEW

    I would like to make an additional comment about the 
stockpile stewardship program before we proceed. During the 
Comprehensive Test Ban Treaty debate last year there was 
testimony from committed and well-respected public servants 
that the science-based stockpile stewardship program was 
underfunded and under stress. Stress was a word that was used.
    Thereafter, Secretary Richardson ordered a comprehensive, 
internal 30-day review of stockpile stewardship. Frankly, I did 
not think 30 days and a review internally would produce 
anything very significant, but that is not for me to say. It 
turns out it did produce something rather significant, and 
there is no question that the review concluded that the 
stockpile stewardship program was on-track, but that, 
``additional pressures such as increased security requirements, 
newly discovered stockpile issues, and resource limitations 
have collectively forced the program overall to be wound too 
tight,'' with ``too little program flexibility for 
contingencies.'' All of the last words I have cited are in 
quotes from that report.
    My review of the study leads me to the conclusion that we 
are not on schedule, given the current budget to develop the 
tools and technologies and stockpile base to refurbish our 
weapons and certify their safety and reliability for the 
stockpile. Further, a successful stewardship program requires 
qualified and motivated nuclear weapons experienced personnel, 
a very serious problem, well-noted in the 30-day review, an 
indication we had better do something about retaining the 
scientist we have and finding new ways to encourage others to 
the program.

                      INFRASTRUCTURE REQUIREMENTS

    Second, modern and well-maintained facilities, the special 
experimental and computational facilities needed for 
stewardship in the absence of testing and a sound management 
structure, each year we continue to lose to retirement our most 
experienced designers and most highly skilled technicians, and 
we all understand recruiting and retaining the next generation 
of nuclear weapons stewards has been made more difficult by 
resource constraints, fewer opportunities for exploratory 
research, and diminished morale from a perceived lack of 
confidence in nuclear weapons scientists. At least some of them 
pursue that.
    DOE has failed to keep good facilities. This report 
suggests that we had better do something about that. The 30-day 
review said we have a huge bow wave of deferred improvements. 
For example, 70 percent of the facilities at Y-12, 80 percent 
of the facilities at the Kansas City plant, 40 percent of the 
facilities at Pantex, and 40 percent of Savannah River's 
tritium facilities are more than 40 years old.
    The Department has experienced tremendous difficulty in 
constructing its special experimental computational facilities 
within budget and within schedule. The National Ignition 
Facility is only the most recent example.
    Now, I am delighted that we are going to spend time today 
exploring the needs and potential problems and issues facing 
the weapon complex. If we need you again we will call on you 
informally. We are going to hear from the Department of 
Energy's Office of Security and Emergency Operations, the Naval 
Nuclear Propulsion Program, and then we are going to go to our 
Acting Deputy Administrator for Defense Nuclear 
Nonproliferation. It is good to have you with us. And finally, 
General Habiger of the Department's Office of Security and 
Emergency Operations.
    I note the presence of our Ranking Member from Nevada, 
Senator Reid, and I started a bit late, for which I apologize.

                    STATEMENT OF SENATOR HARRY REID

    Senator Reid. Boy, was I ever glad you were late, though. I 
know, Mr. Chairman, you have tremendous responsibilities, 
especially this time of year with the Budget Resolution that is 
due out any day now, and so I am going to summarize my 
statement and ask permission to place some of my questions and 
materials in the record.
    I have several concerns, most involving defense programs 
side of DOE. I had a recent discussion with Secretary 
Richardson about most of them, so I will not go into any great 
detail at this time. However, as we move forward with program 
funding for fiscal year 2001, I hope most of these issues can 
be resolved.

                       NATIONAL IGNITION FACILITY

    First and foremost, I am concerned about the NIF, the 
National Ignition Facility. This program is substantially 
behind and well over budget. I understand this subcommittee is 
likely to receive a new NIF cost and schedule baseline in the 
coming weeks for those of you new to Washington, a new baseline 
is code word for hundreds of millions of dollars additional 
cost. Needless to say, I am not comforted when I read sentences 
like the following in your testimony we have reviewed already:
    ``The NIF task force believes, however, that with 
appropriate corrective actions, a strong management team, 
additional funds, and extension of the schedule and recognition 
that NIF is at its core a research and development project, the 
NIF laser system can be completed.''
    NIF has been sold to this subcommittee as the cornerstone 
of this Nation's stockpile stewardship program, not as some 
long-term lab full employment program. I am pleased that there 
has been an offer in some of the testimony to work with 
Congress on this issue. Suffice it to say that I am going to 
take a great deal of convincing at this stage.
    To me, Mr. Chairman and members of the subcommittee, the 
project is beginning to remind me of the Superconducting Super 
Collider and, as we all know, that project is dead now. I think 
that there is going to have to be some tremendous work done by 
a lot of people to keep this program going, because I do not 
think it would take a great deal on the Senate floor to kill 
this project, and I think--I only speak for myself. I am 
terribly disappointed how this subcommittee has been treated. I 
think we have been misled.

                   MEGASTRATEGY FOR DEFENSE PROGRAMS

    Second of all, as you are aware, Senator Domenici--and I 
put language into last year's energy and water conference 
report that more or less codified the so-called megastrategy. 
Part of that strategy involved moving the Atlas pulse power 
facility from Los Alamos to the Nevada Test Site. This 
megastrategy I guess has collapsed, and I am not convinced that 
anything has yet filled that void.
    I would appreciate a detailed, written response outlining 
the direction the new Defense Programs is planning to take. 
None of this is to suggest that I have softened in my resolve 
to see Atlas moved. Quite the opposite. I thought it was the 
right thing to do last summer, and I still feel that way.
    [The information follows:]

                              MEGASTRATEGY

    The term ``megastrategy'' or ``integrated strategy'' is an 
official, short-hand reference to a suite of long-term actions that 
have been under consideration by Defense Programs to achieve more 
effective mission and resource integration within the sites and 
programs supporting the Stockpile Stewardship Program. A broad outline 
of the concept was informally articulated in the summer, 1999. The 
strategy looked at several factors including various weapons complex 
capabilities, options to rebalance workload, elimination of duplication 
between sites, concentration of efforts in centers of excellence, and 
increased attention to needed investments in infrastructure in some 
areas.
    Consistent with direction from the Congress in the fiscal year 2000 
legislation withholding authority to fully implement the integrated 
strategy, several actions have been undertaken. The transfer of 
activities supporting the W80 weapon system from the Los Alamos 
National Laboratory (LANL) to the Lawrence Livermore National 
Laboratory is still under discussion both internally and with the 
Department of Defense. The consolidation of major hydrotesting 
capabilities at LANL is also being considered. A conceptual design for 
the Microsystems and Engineering Sciences Applications (MESA) facility 
at the Sandia National Laboratories in Albuquerque is underway, and it 
is proposed in the fiscal year 2001 budget as a candidate project for 
preliminary design funding. The PEGASUS machine has been transferred 
from LANL to the University of Nevada. The Department has conducted 
further analysis of the ATLAS facility at LANL, and has concluded that 
its construction should be completed and the facility put in cold 
standby, pending clarification of its future role in the weapons 
research programs. Moving the facility to a location in Nevada is also 
under consideration as a potential option. Another aspect of the 
integrated strategy sought to focus increased attention on the 
infrastructure improvements needed at the production plants. A complex-
wide study of recapitalization needs is now underway to couple it with 
the fiscal year 2002 budget formulation and beyond.

                  UTILIZATION OF THE NEVADA TEST SITE

    Senator Reid. My final thoughts today have to do with the 
decision-making process, how the decision-making process works 
within Defense Programs. It is increasingly difficult for the 
weapons labs to get permission to do risky experiments at their 
sites due to urban encroachments, public health and safety 
risks, threats to the environment. Nevertheless, by all 
accounts the labs continue to push for more and more test 
facilities of this sort. Ultimately, these will prevent 
continued operations at any place other than the Nevada Test 
Site.
    The test site is a place where these experiments and 
activities that cannot take place any place else should be 
conducted. That is why it is there. Unless the Nevada Test Site 
as utilized is maintained as a healthy and viable part of the 
stewardship program, the Federal Government will have to 
replicate these experimental facilities at great cost and even 
greater difficulty.
    This all seems simple enough to me. Do dangerous activities 
and experiments in a place where the danger to the public and 
environment is lowest and do what you need to do to maintain 
that place properly.
    My concern is that is not what is happening. DOE is doing 
the same things the same way they always do, despite dramatic 
changed conditions. So again, Mr. Chairman, I would appreciate 
a detailed, written discussion of what the Department is doing 
to prepare for the day when it becomes impossible to perform 
the dangerous activities and experiments at the labs due to the 
encroachment that I have talked about.
    People raise the health, safety, and other concerns, and I 
have a lot of other things to talk about, but I would ask your 
permission to insert that in the record.
    [The information follows:]

                   URBAN ENCROACHMENT ON LABORATORIES

    All Defense Programs facilities and activities, including those at 
the laboratories, can be safely conducted at their current locations 
for the foreseeable future. Hazards associated with all our facilities 
and activities have been analyzed to assess their potential impact on 
the public, workers, and the environment during both routine operations 
and in hypothetical accident scenarios. The physical location of 
hazards relative to the public is specifically considered in these 
analyses. These analyses are reviewed continuously to assure that 
changes in work, hazards or safety requirements are addressed. Safety 
features including engineered systems, procedures and other controls 
are in place to assure compliance with applicable public health and 
safety requirements.
    In the unlikely event that a safety requirement can not be met, 
operations are suspended and a review is conducted immediately to 
determine a path forward. Many options exist to restart operations, 
including redesigning the work, implementing new controls or moving the 
most hazardous portion to a better suited facility or more remote site 
such as the Nevada Test Site. The Nevada Test Site is being maintained 
not only as part of readiness to resume underground testing, if 
necessary, but to support the experimentation programs conducted at the 
site, including the subcritical experiments and the hydrotesting at the 
Big Explosives Experimental Facility, and work performed at the site 
for others such as the Defense Threat Reduction Agency.

    Senator Domenici. You've got it.
    Senator Craig.
    Senator Craig. Mr. Chairman, my statement will come in the 
form of questions, so why don't we proceed with the testimony.
    Senator Domenici. Senator, I want to thank you for your 
interest. This is a very important subcommittee, and frequently 
nobody is around, and sometimes I need some people around. 
There are some tough decisions to be made this year, and so I 
need the counsel of Senators like you. I just cannot write this 
bill this year alone and in a vacuum. It is very, very 
difficult.
    Senator Craig. I appreciate you saying that. It is an 
important issue for me and for my State and for the Nation. 
That is why I am here.
    Senator Domenici. We will proceed now with you, General 
Gioconda. First of all, let me say you succeed a very 
exceptional person who actually is the father of stockpile 
stewardship, Vic Reis. I am sorry, in the last few months, that 
you and I have not been able to meet as often as I used to meet 
with Dr. Reis to talk about what we are doing. But from what I 
am hearing, you are working diligently and doing a good job.
    You have some prepared remarks. They will be made a part of 
the record. You may proceed as you wish in terms of your 
testimony, but even without a light up here, let's kind of 
shoot for no more than 10 minutes.
    General Gioconda. That is where I think I have it, if I do 
not linger.
    Senator Domenici. All right, proceed.

                    STATEMENT OF THOMAS F. GIOCONDA

    General Gioconda. Good morning, Mr. Chairman and members of 
the subcommittee. I am pleased to report to you today that 
stockpile stewardship is working to ensure the continued safety 
and reliability of America's nuclear deterrent.
    Our nuclear deterrent remains the cornerstone of this 
Nation's defense. The highly trained men and women working in 
our production plants and weapons laboratories possess the 
critical nuclear weapons skills needed to support the 
stockpile. Your ongoing support for their stewardship program 
is absolutely essential for its continued success. If approved 
by Congress, our supplemental will also provide funds needed by 
the production sites to cover work load costs and stabilize our 
highly skilled workforce.

                  STOCKPILE STEWARDSHIP--30-DAY STUDY

    Before I get into the details of the fiscal year 2001 
request, I would like to draw your attention to two 
developments impacting the stewardship program. First, as you 
stated, Mr. Chairman, at the Secretary's direction we undertook 
a comprehensive internal review of the Stockpile Stewardship 
Program last November. This detailed review was led by Under 
Secretary Dr. Moniz.
    I will not repeat your summary, Mr. Chairman, but this 
review concluded that the program was on track and developing 
the science, technology, and production capabilities needed to 
support the stockpile. Several of the findings will help us to 
shape future decisions that are needed in the program. In this 
effort, we must continue to prioritize investment schedules and 
resources.
    The program faces challenges, and there are 15 specific 
actions that emerged from the report's findings. We are 
aggressively working these action items to further strengthen 
the program. Key among these is the need for the DOE and the 
DOD to refine our process for determining the scheduling of 
stockpile refurbishments over the next several decades to take 
into consideration military, human, and budgetary needs. We are 
working with DOD right now to address this issue.

                        REVISED BUDGET STRUCTURE

    Second, we have a new business strategy for the Stockpile 
Stewardship Program. We have transitioned from the old paradigm 
of design, test and produce to an environment of maintaining 
the safety, security, and reliability of our current weapons 
with advanced science and manufacturing techniques. We needed a 
new business strategy to support our new business approach. We 
feel this is a superior approach, as it provides more 
visibility into our program and, quite frankly, gives us a 
better means to integrate and balance the competing needs of 
the program.
    The major elements of this new approach are Directed 
Stockpile Work [DSW] that encompasses all activities that 
directly support the specific weapons in the stockpile, as 
directed by the nuclear weapons stockpile plan of the 
President. It covers all the activities to support the day-to-
day needs of the stockpile. DSW work occurs across the entire 
weapons complex.
    Next, we have Campaigns, which are the technically 
challenging research and development programs designed to 
provide us with the critical science and engineering 
capabilities needed for the certification of the nuclear 
weapons stockpile over the long term. Campaigns have definitive 
milestones, work plans, and specific end dates. There are 
currently seven campaigns which are being conducted across the 
complex.
    Finally, infrastructure, which you mentioned, Mr. Chairman. 
Our facilities must be in a safe, secure, and reliable 
operating condition to support our work. This category also 
includes our new construction work, our transportation system 
for moving components and weapons safely and securely through 
the complex, and our Federal staffing that provides the 
oversight of the program.

              FISCAL YEAR 2000 SUPPLEMENTAL BUDGET REQUEST

    Let me talk a little about the fiscal year 2000 
supplemental that is before you. Our supplemental of $55 
million is targeted to the Y-12 plant in Tennessee, the Kansas 
City plant, and the Pantex plant in Texas. The funding, if 
approved, will allow us to meet increased work load 
requirements related to weapons refurbishment, upgrade the 
enriched uranium infrastructure at Y-12, and avoid lay-offs of 
critically skilled personnel at the three locations. These are 
unique assets that must be protected. The fiscal year 2001 
request is predicated on getting this important supplemental in 
fiscal year 2000.

                   ADVANCED MANUFACTURING TECHNOLOGY

    I have some examples of the fine work done by Sandia 
National Labs to show you today. This safety device is a strong 
link switch designed by Sandia and manufactured by Kansas City. 
It is employed in a number of weapons in today's stockpile, and 
is designed to prevent detonation in the highly unlikely event 
that a weapon is involved in an accident. Almost 500 pieces 
make up this strong link switch.
    Sandia is examining advance technology----
    Senator Domenici. Would you repeat that one again? I'm very 
sorry.
    General Gioconda. Sir, this is a strong link switch, and it 
is designed by Sandia and is manufactured by Kansas City. It is 
employed in many of our weapons today, in today's stockpile, 
and it is designed to prevent detonation in the highly unlikely 
event that a weapon is involved in an accident, and in this 
little box is almost 500 pieces that make up the strong link to 
prevent a detonation. Sandia is examining advanced technologies 
to reduce the size and number of parts in the strong link.
    This smaller prototype will fit into detonators of existing 
weapons. Future strong links like this, using microsystem 
technology, decreases the size, and would enable our scientists 
and tech engineers to place these devices anywhere in the 
weapons system, further improving safety of the stockpile. This 
is what we are doing today, and this is what we can do in the 
future. These examples give you an idea of how the technology 
is advancing. This is but one example of the 6,000 parts that 
make up a nuclear weapon. These parts must be expertly managed, 
studied, and produced.

                    FISCAL YEAR 2001 BUDGET REQUEST

    Our fiscal year 2001 overall budget request of $4.6 billion 
is about 6 percent greater than our fiscal year 2000 
appropriation. The major reasons for this increase are a 
significant fraction of the Nation's nuclear arsenal, the W-80 
and the W-76, are scheduled for refurbishment over the next 
decade. Work associated with these two weapons systems will 
constitute the majority of directed stockpile work. We must 
meet the schedules of these activities, including the 
development of scientific capabilities required to certify 
those weapons without testing.
    We are working with the DOD to identify and assess the 
final technical drivers and schedules for weapon component 
replacement or certifiable modifications. We are also making 
significant security improvements in our transportation system 
used to transport components, materials, and actual weapons 
within the complex. We are requesting a few new construction 
line items in the fiscal year 2001 budget also.
    The preliminary project design and engineering pilot 
program is a new initiative with about $15 million to fund 
preliminary design before setting the hard baseline in asking 
for construction approval, similar to what DOD does in design 
completion. Several candidate projects are proposed. We believe 
this will provide an improvement in our project management 
system.
    We also have three other new projects, one at Pantex, the 
Weapon Evaluation and Testing Laboratory; a new storage 
facility for highly enriched uranium at Oak Ridge Y-12; and a 
Distributive Information System at Sandia. In total, however, 
our construction request is down from 2000.

                       NATIONAL IGNITION FACILITY

    While I am on the topic of construction, let me say a word 
about the National Ignition Facility [NIF]. As many of you 
know, the project has encountered significant technical issues 
in assembling and in stalling the laser infrastructure. Let me 
emphasize that the problems with NIF are not scientific. A new 
baseline will be submitted to Congress by June 1, 2000 as 
required. The previous funding plan for NIF has been included 
in this budget, which reflects the majority of the decrease in 
construction.
    I would like to point out one last but important area of 
growth. Even though it only represents 1/10th of 1 percent of 
my budget, we are developing a plan that will focus on building 
and sustaining a talented, diverse workforce of Federal R&D 
technical managers, as recommended by the Chiles Commission 
plan.
    The plan will include innovative recruiting strategies, 
retention incentives, and comprehensive training and 
development programs of new and current employees. We also have 
included resources to reengineer our organization to place 
employees closer to where the work is accomplished and 
streamline some of our outmoded administrative functions.

                 STOCKPILE STEWARDSHIP ACCOMPLISHMENTS

    Our 2001 budget request will allow us to build upon a 
significant list of accomplishments that you mentioned, Mr. 
Chairman, in the Stockpile Stewardship Program as compiled over 
the last several years. Let me just review a few others. First, 
and most important, we have completed three annual 
certifications and expect a fourth shortly. Secretary Cohen 
signed off on the certification letter last Wednesday, and 
Secretary Richardson now has the package for his review and 
signature and I believe he will complete it by the end of the 
week.
    Through the continuing success of the Stockpile Stewardship 
Program, we have been able to support the Secretary of Energy 
in joining with the Secretary of Defense in certifying that the 
nuclear weapons stockpile is safe and reliable, and there is no 
requirement for underground testing at this time.

               ACCELERATED STRATEGIC COMPUTING INITIATIVE

    Last month, we announced the first ever three-dimensional 
simulation of a nuclear weapon explosion using our ASCI Blue 
Pacific computer at Lawrence Livermore National Lab. To get a 
sense of the complexity of this calculation, it took our Blue 
Pacific machine some 20 days to run the calculation. It would 
have taken an average desktop machine over 30 years to do the 
same. This is important, because as our weapons get older, the 
problems are expected to get harder, and we must have ready 
more sophisticated tools, and the people to allow our 
assessment of whether our weapons will continue to be safe, 
secure, and reliable. Our ASCI program is key to that 
requirement.

                             PIT PRODUCTION

    As you may recall, we decided in 1996 to reestablish 
limited capability to produce plutonium pits at Los Alamos 
National Laboratory, which was necessary with the closure of 
Rocky Flats. We have now fabricated four development pits. 
While many other scientific and production steps are needed to 
verify the quality of the pits produced, this is a very 
positive sign. We plan to have a certifiable pit by 2001.
    The subcritical experiment program at the Nevada Test Site 
continues to provide important data for the stewardship program 
and maintain test readiness as directed by the President. Last 
week, the Nevada Test Site team successfully executed the 
Thoroughbred experiment. Data from this experiment will be used 
to compare the plutonium manufacturing process used at Rocky 
Flats with those being developed today at Los Alamos to make 
sure we are on the right track.
    The Department also plans to undertake a preconceptual 
study of a pit production facility during fiscal year 2001. 
This study will build on earlier work done by DOE. Based on our 
ongoing pit aging studies from our campaigns, we believe that 
we have at least a 15-year lead time for the construction of a 
pit manufacturing facility. Our overall course of action on pit 
manufacturing has been reviewed and approved by the Nuclear 
Weapons Council and will continue to be, since it's so 
essential.

                           TRITIUM PRODUCTION

    Our tritium program is making significant progress. We 
signed a 35-year, $1.5 billion agreement with the Tennessee 
Valley Authority for the irradiation of tritium iridium 
producing burnable, absorber rods. With this in place, we now 
have three reactors, Watts Bar and both Sequoyah units 
available for tritium production. We expect to break ground at 
the Savannah River site this summer for construction of the 
Tritium Extraction Facility. This facility will begin to 
deliver tritium gas to the stockpile by 2006.
    With the success of the commercial light water reactor 
program and other competing financial demands on other parts of 
Stockpile Stewardship, DOE has been forced to redefine the work 
associated with the Accelerator Production Tritium [APT] 
program. We will continue limited engineering development and 
demonstration activities at Los Alamos National Lab as well as 
work with other parts of DOE to develop a joint program for the 
many other uses of APT technology.
    We are also accomplishing our life extension requirement 
for the W87 involving principally Kansas City, Y-12, and 
Pantex, and have produced the first neutron generators at 
Sandia since the close of the Pinellas plant in the early 
nineties.

                           CONCLUDING REMARKS

    Mr. Chairman, over the last 5 years the Stockpile 
Stewardship program has made significant scientific and 
technical advances, strides that many of our critics and even 
some of our supporters doubted we could achieve. These 
accomplishments increase our confidence that the men and women 
of the stewardship team will be able to meet the scientific and 
engineering challenges of stewardship in the decades to come.

                           PREPARED STATEMENT

    These challenges include: meeting the requirement for 
nuclear deterrence, our primary job; attracting and retaining a 
preeminent nuclear team as many people reach retirement age; 
certifying replacement pits; producing tritium; and 
implementing new security standards. Our ability to meet these 
and other challenges is dependant on your continued support and 
the support of this committee of our budget for this vital 
national security program and our aggressive Federal 
management.
    Thank you.
    [The statement follows:]

             PREPARED STATEMENT OF GEN. THOMAS F. GIOCONDA

    Mr. Chairman and distinguished members of the Subcommittee, thank 
you for the opportunity to testify on the Department of Energy (DOE) 
National Nuclear Security Administration's fiscal year 2001 budget 
request for Defense Programs' Stockpile Stewardship Program. This 
request of $4.594 billion represents a 6.3 percent increase over the 
comparable fiscal year 2000 level. Due to mission transfers out of the 
weapons activities account, this request is roughly comparable to a 
program level of about $4.7 billion, using previous year comparisons. A 
detailed summary of the fiscal year 2001 request for Defense Programs 
is included near the end of the statement.
    As part of the fiscal year 2001 budget process, the Administration 
is also requesting supplemental funding for fiscal year 2000 in the 
amount of $55 million to address shortfalls in production readiness at 
the Kansas City, Pantex, and Y-12 plants. Provision of this 
supplemental funding is essential to maintain employment levels and 
skills necessary to support important workloads in fiscal year 2000 and 
future years and we appreciate this subcommittee's support for our 
request.
    With your support, the program, to date, has achieved some major 
milestones as we move from underground nuclear test-based to science-
based nuclear weapons assessment and certification. Most notably, we 
are about to certify, for the fourth consecutive year, that the safety, 
security and reliability of the nation's nuclear weapons stockpile is 
assured without the need for underground nuclear yield testing at this 
time. This fourth annual certification of the nuclear weapons stockpile 
will be transmitted to the President by the Secretaries of Energy and 
Defense shortly. The people, tools, and technologies supported by this 
budget make this accomplishment possible.
    Our nuclear deterrent remains the foundation for U.S. national 
security. We believe that our accomplishments and the new budget and 
management structures we have put in place, along with your continued 
support, will maintain the success of the Stockpile Stewardship Program 
in serving our supreme national interest.

            MAJOR CHANGES IN PROGRAM PLANNING AND BUDGETING

    The men and women of the Stockpile Stewardship Program continue to 
meet formidable challenges with ingenuity and innovation both in the 
way we do science and manufacturing, and in the way we organize the 
work we do. Without the critical work of our ``stockpile stewards'' at 
the labs, plants and in the federal structure--no program will succeed. 
Our people remain our number one resource that must be carefully 
attended now and into the future.
    During the past year, for the first time ever in the weapons 
program, we have organized our tasks according to a streamlined 
business model. Quite simply, in a world where competition for budget 
resources is intense, we need to be able to demonstrate clearly that we 
are taking every step to operate in a cost effective manner--we must 
use metric that both the folks inside and outside of the program can 
use to measure our progress.
    Our budget request is based on planned performance. It is the 
outcome of planning processes that focus our efforts on specific 
performance goals and strategies that flow from strategic planning. The 
cycle of planning, budgeting, program execution, and evaluation is the 
foundation of our program's accomplishments and our initiatives to 
improve management and accountability to the public.
    The fiscal year 2001 budget reflects a new budget structure, which 
is part of the implementation of the National Nuclear Security 
Administration. The structure emphasizes the integrated nature of the 
Stockpile Stewardship Program, and is built upon three principal 
elements: Directed Stockpile Work, Campaigns, and Readiness in 
Technical Base and Facilities. Overall, these changes reflect our 
vision for the future of the program and the nuclear weapons complex.
    The fiscal year 2001 budget request is presented in the proposed 
budget and reporting structure. A more technical discussion of all 
aspects of the proposed budget structure change is included as an 
appendix to the Executive Budget Summary document. We are continuing to 
execute the fiscal year 2000 budget in the current ``old'' structure as 
it was appropriated; however, we are also collecting data unofficially 
in the new structure as a further check on the viability of the 
approach.
    Directed Stockpile Work encompasses all activities that directly 
support specific weapons in the nuclear stockpile as directed by the 
Nuclear Weapon Stockpile Plan. These activities include current 
maintenance and day-to-day care of the stockpile as well as planned 
refurbishments as outlined by the Stockpile Life Extension Program. 
Additionally, this category includes: research, development and 
certification activities in direct support of each weapon system; and 
long-term future-oriented research and development to solve either 
current or projected stockpile problems. These activities are conducted 
at the national laboratories, the Nevada Test Site (NTS), and 
production plants.
    Campaigns are focused scientific and technical efforts to develop 
and maintain critical capabilities needed to enable continued 
certification of the stockpile for the long-term. Campaigns are 
technically challenging, multi-function efforts that have definitive 
milestones, specific work plans, and specific end dates. The approach 
was initiated several years ago in the planning and executing the 
stewardship program. There are currently 17 planned campaigns. These 
activities are conducted at the laboratories, NTS, production plants, 
and other major research facilities such as the OMEGA laser at the 
University of Rochester and the NIKE laser at the Naval Research 
Laboratory.
    Readiness in Technical Base and Facilities (RTBF) provides the 
physical infrastructure and operational readiness required to conduct 
the Directed Stockpile Work and Campaign activities at the national 
laboratories, NTS and the plants. This includes ensuring that 
facilities are operational, safe, secure, compliant, and that a defined 
level of readiness is sustained at DP-funded facilities. For the 
production plants, all site overhead is also included in RTBF.
    The new structure proposal also includes separate decision units 
for Secure Transportation Asset (formerly Transportation Safeguards 
Division), Program Direction, and Construction.
    Another business practice introduced this year by Defense Programs 
was the establishment of a rigorous planning process that clearly lays 
out within each business line, firm programmatic milestones to be 
achieved within each element of Stockpile Stewardship. The complete 
program is now defined by a series of program plans that have a five-
year planning horizon, each with an accompanying annual implementation 
plan. Five-year program plans describe the goals and objectives of 
program elements, and annual implementation plans provide detailed sets 
of milestones that allow for accurate program tracking and improved 
oversight.
    The rigorous planning that has been done is key to better 
management, improved focus and sustaining the laboratories as premier 
scientific and engineering institutions, as well as supporting balanced 
manufacturing activities necessary to maintain and modernize the 
stockpile.
    Within this business model structure, we have laid out an improved 
plan, weapon by weapon, part by part, that addresses the tasks required 
to maintain the stockpile over the next one, five, ten years and 
beyond. We have support for our program from the Department of Defense 
(DOD), and the Administration has committed to funding it.
    In addition, we have established an Office of Project Management 
Support to serve as the focal point for all critical construction 
decisions and performance reviews. It will conduct project readiness 
reviews and provide technical experts to assist line managers in 
project planning and execution. It will also serve as a single point of 
contact for construction policy and procedures, working with program 
offices and field elements to improve and standardize construction 
management within Defense Programs.
    A key element of the Stockpile Stewardship's continued success is 
an effective corporate level strategic planning process. We expect to 
transmit the fiscal year 2001 Stockpile Stewardship Plan (SSP), also 
called ``The Green Book'' to the Congress shortly. In the development 
of the SSP, we rely heavily on the DOD, the National Security Council 
staff, the Office of Science and Technology Policy, the Office of 
Management and Budget, and other senior policy officials in the 
``nuclear community'' to help ensure that we continue on the right 
track.

                            ACCOMPLISHMENTS

    In October 1999, Secretary Richardson ordered a review of the 
health and status of the nuclear weapons complex and of the status of 
recruitment, retention and training of top scientists and engineers 
needed to sustain Stockpile Stewardship. The principal finding of this 
internal Department of Energy review, led by Under Secretary Ernest 
Moniz, is that Stockpile Stewardship is on track; both in terms of 
specific science, surveillance, and production accomplishments and in 
terms of developing a program management structure that improves the 
certification process.
    Several of the findings of this review will help to shape future 
decisions in the program. We must continue to prioritize investments, 
schedules and resources. There are 15 specific actions that emerged 
from the report's findings. Key among them is the need for DOE and DOD 
to refine the process for determining the scheduling of stockpile 
refurbishments over the next several decades to take into consideration 
military, human, and budgetary needs. We are working with DOD to 
address this issue right now.
    Let me give you just a few examples of how Stockpile Stewardship is 
already working today:
  --In early February our Accelerated Strategic Computing Initiative 
        announced the successful completion of the first-ever three-
        dimensional simulation of a nuclear weapon ``primary'' 
        detonation using the IBM Blue Pacific supercomputer at DOE's 
        Lawrence Livermore National Laboratory. On the supercomputer, 
        this calculation ran for more than 20 days. A desktop computer 
        would have taken 30 years to accomplish the task. Modern 
        nuclear weapons consist of two main components: the 
        ``primary,'' or trigger, and the ``secondary'' which produces 
        most of the energy of a nuclear weapon. The ability to ``see 
        and understand'' the action of the primary is a critically 
        important step in simulating the entire weapon detonation in 
        three dimensions.
  --Subcritical experiments are being conducted at the Nevada Test Site 
        to understand aspects of weapons physics and the aging 
        properties of plutonium to help: assess the stockpile, qualify 
        the pit production facility at Los Alamos National Laboratory; 
        and subsequently, certify our pit manufacturing. The 
        subcritical experimental program also helps to ensure nuclear 
        test readiness as directed by the President with the current 
        underground test moratorium.
      Three subcritical experiments were conducted in fiscal year 1999. 
        We successfully conducted the first fiscal year 2000 
        subcritical experiment on November 9, 1999. It was one of the 
        Oboe series of experiments that are conducted in vessels in the 
        same underground alcove. These experiments are somewhat simpler 
        than the typical ``full-size'' subcritical experiment. Since 
        that time, we have conducted two more experiments in the Oboe 
        series to study technical issues.
      We plan to conduct four additional Oboe experiments this fiscal 
        year, as well as one full-sized subcritical experiment, 
        Thoroughbred, to measure early time dynamic behavior of special 
        nuclear material. In fiscal year 2001, we tentatively plan to 
        conduct one full-size subcritical experiment and several 
        smaller experiments similar to the Oboe series.
  --In November 1999, the first successful hydrodynamic test at the 
        Dual Axis Radiographic Hydrodynamic Test facility provided a 
        freeze-frame photo of materials imploding at speeds of more 
        than 10,000 miles an hour; allowing scientists to study solids 
        and metals as they flow like liquids, thus, becoming 
        hydrodynamic when driven by the detonation of high explosives.
  --On January 27, 2000, tests that are key to certification of the W76 
        Acorn gas transfer system were conducted in the Annular Core 
        Research Reactor at Sandia National Laboratories--five days 
        ahead of our earliest goal. The reactor and all diagnostics and 
        data gathering equipment operated as desired. Initial 
        evaluation of the required data that was obtained from the 
        tests indicate good results for Acorn certification to the 
        stockpile.
  --On August 12, 1999, the first lot of 24 War Reserve, W76 neutron 
        generators were placed in inventory by Sandia National 
        Laboratories (SNL), thus demonstrating the capability lost when 
        our Pinellas plant was closed in 1994. Neutron generators are 
        limited life components that help to initiate a fission 
        reaction. SNL is more than doubling neutron generator 
        production capacity to reflect a request by the DOD to produce 
        enough neutron generators to support both the active and 
        inactive stockpiles. Accelerated Strategic Computing Initiative 
        simulations have enabled the certification of the W76 neutron 
        generator as the first radiation hardened component certified 
        without underground testing.
  --The Kansas City plant has successfully begun production of tritium 
        reservoirs and is meeting new production requirements for the 
        W76, W80 and W88 warheads parts inventories.
  --The Y-12 Plant has resumed uranium processing operations in four of 
        five major mission areas and in portions of the fifth. We are 
        currently working on plans for the difficult resumption of 
        enriched uranium recycle and recovery operations.
  --We have signed a 35-year, $1.5 billion agreement with the Tennessee 
        Valley Authority (TVA) for irradiation of tritium producing 
        burnable absorber rods beginning in the Fall of 2003 at TVA's 
        Watts Bar and Sequoyah reactors.
      A contract for the assembly of the first 6,000 Tritium Producing 
        Burnable Absorber Rods and follow-up fabrication work is 
        expected to be awarded in the next few months. Site preparation 
        and detailed design of a Tritium Extraction Facility are 
        underway at the Savannah River Site. To date, we have made up 
        three months of the fiscal year 1999, 12 month congressionally-
        mandated moratorium on construction of the facility. The 
        facility is scheduled to begin delivering tritium gas to the 
        stockpile in February 2006.
  --In fiscal year 1998, Los Alamos National Laboratory fabricated 
        development pits for the W88, demonstrating a capability that 
        DOE has not had since the closure of the Rocky Flats Plant in 
        1989. We expect to produce the first pit qualified for 
        stockpile use in 2001. By fiscal year 2007, a limited 
        capability to manufacture replacement pits for the units 
        destructively evaluated during surveillance activities will be 
        available.
  --DOE has dismantled almost 12,000 weapons since 1990. Disassembly of 
        the W69 was finished at Pantex in fiscal year 1999. DOE plans 
        to finish disassembling the current backlog of retired weapons 
        by the end of fiscal year 2005.
  --The Secure Transportation Asset (STA) has met all direct stockpile 
        maintenance shipment schedules, which currently average 1,000 
        weapon and 4,000 Limited Life Component shipments per year. A 
        further demand on STA is the need to ship an annual average of 
        3,000 containers of fissionable materials from DOE sites 
        scheduled for closure to other DOE and customer sites for 
        disposal or remanufacture into fuel elements for nuclear 
        reactors. Overall, STA has transported sensitive cargo more 
        than one hundred million miles since 1975 without compromise of 
        its security or release of radiation.
      We have continued upgrades of the STA fleet with new safeguard 
        transporters, secure communication upgrades, and new tractor 
        replacements. Additional security enhancements have been 
        directed in response to security guidance and recent analyses 
        which will accelerate these upgrades and require more intensive 
        agent training and recruitment of additional federal agents. We 
        have included increased funding for this in fiscal year 2001.
    The Stockpile Stewardship Program has already been able to solve 
some problems that in the past would most likely have required a 
nuclear test to resolve. We expect our ability to solve problems 
without testing to be greater as new tools and expertise come on-line. 
Keep in mind that it has been nearly 11 years since we have 
manufactured a new nuclear weapon and over seven years since the last 
underground nuclear test, yet our confidence in the safety, security 
and reliability of the current stockpile remains strong. Nuclear 
deterrence for our nation demands no less!

                               THE PEOPLE

    At the heart of Stockpile Stewardship is the people who make it 
work. The Chiles Commission on Maintaining U.S. Nuclear Weapons 
Expertise offered 12 specific recommendations for action under four 
broad categories: national commitment, program management, personnel 
policies, and oversight. A key driver in the time frames within which 
we have been planning and executing the program has been the fact that 
scientists and engineers with nuclear test experience are nearing 
retirement age and will be leaving the program in large numbers over 
the next decade. To transfer the knowledge they have to a new 
generation is vital so that the role of testing in the process of 
maintaining our stockpile is well understood in all its dimensions. To 
make that crucial transition properly we must retain experienced test 
workers while we recruit and train new workers.
    In addition, we are attempting to make that transition in a booming 
economy where technical expertise is highly recruited and rewarded by 
the private sector. The skill mix at the laboratories will shift away 
from nuclear test-based expertise toward a more science-based expertise 
for maintaining the nuclear weapons stockpile. At the production 
plants, there will be more emphasis on computer and network-based 
design tools and advanced manufacturing techniques. These changes in 
skill mix are major recruiting and retention challenges facing us right 
now.
    There are fewer opportunities to conduct exploratory research at 
the laboratories due to limits on Laboratory Directed Research and 
Development (LDRD), which has been a key source of new talent and 
training at the laboratories. A pay freeze implemented in the early 
1990s has resulted in loss of market position for the salaries of 
scientists and engineers, especially in highly competitive areas such 
as information science and technology. Increased security requirements 
may also affect recruitment and retention. Such factors make it more 
difficult to recruit and retain top scientific talent for Stockpile 
Stewardship.
    Defense Programs is addressing many of these and others issues 
through actions to implement the Chiles Commission recommendations. 
Among them is the request for supplemental fiscal year 2000 funding to 
avoid further layoffs at the plants and to maintain critical skills 
which you have favorably considered. The fiscal year 2001 request also 
provides stability in plant funding with some flexibility to address 
skill mix concerns. For the nuclear weapons labs, the fiscal year 2001 
request maintains our commitment to balance the pace and scope of 
security requirements implementation with preservation of the research 
environment. To that end, a restoration of LDRD funding to six percent 
for fiscal year 2001 has been requested. The fiscal year 2001 budget 
also provides for stability in employment and increases in support for 
the varied work of science-based stewardship at the labs.

                    HOW STOCKPILE STEWARDSHIP WORKS

    Let me briefly summarize the Stockpile Stewardship process and the 
challenges it now faces before I go into a more detailed discussion of 
program elements. Each year, eleven samples of each type of weapon are 
returned from the active force and are disassembled, examined, tested, 
and analyzed for defects. If defects are found, their effect on 
reliability and safety is assessed. Some parts, like neutron generators 
and gas reservoirs, require replacement at regular intervals, as 
limited life components. Other parts of a nuclear weapon are made from 
radioactive materials which decay; and as they decay, both their own 
properties and the properties of other materials within the weapon may 
change.
    Remanufacturing replacement parts for our nuclear weapons sounds 
simple enough, but since the time that many of the current weapons in 
the stockpile were originally manufactured, some of our production 
plants have been closed and manufacturing processes, techniques and 
standards have changed. We must adhere to more stringent health and 
safety standards, and are more concerned about the proper handling and 
storage of nuclear waste materials. Today, replacement parts require 
even tighter production controls than the extraordinarily rigid 
standards under which the original parts were designed and 
manufactured. A nuclear weapon, less than the size of a small desk, has 
enough explosive power to completely destroy a modern city, and yet it 
must be able to survive extraordinary accidents with less than a one-
in-a-million chance of exploding. Industrial materials advancements and 
new manufacturing processes make it difficult, if not impossible, to 
get exact replacement parts. Yet, we in the nuclear weapons program, 
must produce replacement parts using modern material and processes that 
will still maintain the safety and reliability of our weapons while 
certifying their safety, security and reliability without underground 
nuclear testing.
    As our stockpile weapons continue to age, we expect more parts to 
require replacement. Because new warheads have not been produced since 
1988, we are not replacing old weapons with new ones. In about ten 
years, most of our weapons designers with nuclear testing experience 
will have retired. This means that when our newest system, the W88, 
reaches the end of its original design life in 2014, we may no longer 
have anyone with the test-based job experience to help us evaluate 
modifications that may be required due to aging at that time. 
Successfully dealing with this time factor is critical to the success 
of the Stockpile Stewardship Program.
    Instead of an underground nuclear test, we can conceptually divide 
the explosion sequence into each of its parts, then test and analyze 
each of these separately. We plan to put all the data together into a 
computer calculation--a simulation--to see if the resulting performance 
is within its original specification. Each part of the simulation must 
predict the results of each of the separate tests, and where they 
exist, the results must be consistent with archived underground nuclear 
test data and research. These simulations will be validated with state 
of the art experimental tools such as the Dual Axis Radiographic 
Hydrodynamic Test facility and the National Ignition Facility. We also 
hope these modern codes and experimental tools will serve to attract 
and maintain a cadre of outstanding technical staff, the grand 
challenge of stockpile stewardship.

               STOCKPILE LIFE EXTENSION AND SURVEILLANCE

    We are working closely with the DOD to finalize detailed plans to 
indefinitely extend the lifetime of each weapon system in the 
stockpile. The Stockpile Life Extension Program (SLEP) is DOE's 
planning framework for a proactive management of system maintenance 
activities. Under SLEP, options are developed to address potential 
refurbishment actions. These life extension options address: 
``musts''--to correct known problems; ``shoulds'' to prevent 
foreseeable problems; and ``coulds'' to improve safety, use control and 
other items given the opportunity while working ``musts'' and 
``shoulds.'' These life extension options allow the DOE and DOD to 
anticipate and plan for future resource requirements such as workforce, 
skills mix, equipment, and facilities. These requirements provide the 
framework for: our surveillance of the stockpile and stockpile research 
and development activities at our laboratories, guiding our production 
plants in validation of new materials, and development and 
certification of new manufacturing processes. The cycle is continuous 
and is closely integrated. Data and information from our surveillance 
programs and from the hundreds of experiments and simulations being 
performed, help to identify which parts of a weapon are aging 
gracefully, and which parts present current and potential future 
problems.
    Stockpile surveillance has been a major element of the U.S. nuclear 
weapons program ever since the first weapons were put into service. 
Approximately 1,100 stockpile weapons are thoroughly examined each 
year. The results provide data not only for assessing the current 
safety and reliability of the stockpile, but also for developing 
predictive models and age-focused diagnostics required to anticipate 
weapons refurbishment requirements.
    The Enhanced Surveillance Program (ESP) is developing the 
technologies and methods, as well as a fundamental understanding of 
materials properties and weapons science, to significantly improve 
detection and predictive capabilities. For example, the ESP identified 
an aging mechanism in a stockpile high explosive, ultimately concluding 
that the changes actually improved the stability of the explosive. This 
assessment is permitting us to reuse the high explosive during the W87 
life extension program, thus avoiding significant costs. We have also 
embarked on a novel strategy to accelerate the aging process in 
plutonium. The capability to predict the lifetime of components made 
from plutonium will permit us to more accurately identify when pit 
replacements are needed and when the significant facility investments 
must be made in order to support pit replacement.
    Technical work on the W76/Mk4 Dual Revalidation Project drew to a 
close in December 1999. There were significant accomplishments in each 
of its major areas of investigation.
    System Level Assessment.--The Military Characteristics and 
Stockpile to Target Sequence were reviewed and updated and the system 
was shown to meet requirements. The system also was assessed against 
safety requirements and for abnormal environments and successfully met 
them. Results from various tests are being used to validate new 
computational models, leading to an improved understanding that will be 
used for future assessments, evaluations and other analyses.
    Primary Physics Assessments.--Five hydrodynamic tests were 
completed, four by Los Alamos National Laboratory and one by Lawrence 
Livermore National Laboratory. Two of the tests used stockpile-aged 
high explosives. A modern one point safety assessment was completed 
that reaffirmed the safety margin calculated in previous assessments. A 
modern intrinsic radiation analysis was performed. Significant progress 
was made in baselining.
    Secondary Physics Assessment.--There is an improved understanding 
of the secondary. Significant progress was made in baselining and 
benchmarking of the secondary.
    Physics Package Engineering Assessment.--A test of the ability of 
the secondary to withstand the revised long-term shipboard vibration 
environment was completed and the results show it meets requirements. 
Extensive testing of the high explosive thermal sensitivity, chemical 
composition, and density properties was completed. An aged physics 
package was disassembled, inspected, and the aged components tested. A 
detailed description and catalogue of the function, composition, 
requirements, state, and design intent of each component was assembled.
    Arming Fuzing and Firing (AF&F) and Weapon Electrical System 
Assessment.--Nineteen AF&Fs were disassembled, inspected, and put 
through product acceptance testing. An age aware model of the fire set 
was completed and electronic sub-component models were developed. Most 
AF&F hostile environment testing is complete.
    In addition to these specific accomplishments, the Dual 
Revalidation Project provided an opportunity to train many people 
within the DOE and DOD nuclear weapons communities. Engineers and 
scientists responsible for the system have developed in-depth 
experience. The project also provided significant contributions to the 
W76/Mk4 6.2/6.2A life extension study. The review team reports are 
scheduled to be submitted by the end of March 2000.
    DOE has redirected the Dual Revalidation effort into baselining and 
peer review. The decision was made to baseline all the systems over the 
next five years while designers with underground test experience are 
still on the payroll. After the systems are baselined, we will assess 
any gaps discovered in our knowledge and develop a plan to fill them 
in.

                       MANUFACTURING CAPABILITIES

    Manufacturing continues to play a critical role in the Stockpile 
Stewardship Program. During fiscal year 1999, almost 1,300 Limited Life 
Components (LLCs) were produced. Plans call for the production of over 
2,000 LLCs in fiscal year 2000. These product deliveries signal the 
successful transfer of production activities from plants which have 
been closed. The weapons complex is also performing major refurbishment 
actions on several weapon types, including the B61 and the W87.
    The W87 is a key component of the U.S. land based ballistic missile 
element of the U.S. nuclear deterrent triad. In December 1998, the Y-12 
plant at Oak Ridge completed and shipped to Pantex the first 
refurbished canned sub-assembly for the life extension program of the 
W87 under our Stockpile Life Extension Program. Early in 1999, the 
first deliveries of electronic and mechanical parts for the W87 life 
extension were shipped to Pantex from the Kansas City plant. The first 
W87 life extension unit was delivered to the Air Force in May 1999. The 
W87 was the first production unit completed under the life extension 
program. This is considered a major milestone in meeting a DOE 
commitment made to the Air Force.

                                 ADAPT

    The Advanced Manufacturing, Design, and Production Technologies 
Campaign (ADAPT) is providing the nuclear weapons complex with advanced 
capabilities for: designing, developing, and certifying components and 
systems; and for producing, assembling, and delivering weapons 
components and products for systems. ADAPT is radically changing how 
DOE supports the nuclear weapons stockpile by infusing new product and 
process technologies, and by adopting state-of-the-art business and 
engineering practices. Our production complex must take advantage of 
modern design and manufacturing techniques to keep the complex vitally 
strong and capable under modern technology. We have now begun to use a 
``paperless'' product realization system to quickly design and evaluate 
components prior to their release for production. Once released for 
production, the same paperless designs (computer models) are used to 
develop and drive manufacturing operations. This approach is already 
cutting costs and time while improving our ability to deliver extremely 
high quality parts. We have begun to use computer-based multimedia 
systems to guide production technicians on the shop floor and we expect 
to see quality improvements similar to those now being gained in U.S. 
industries using these methods, where manufacturing defects have been 
cut 60-90 percent. As an additional example, we are using models of the 
various operations in our production complex to identify and alleviate 
scheduling and operational bottlenecks. In one instance, we were able 
to remove a bottleneck in certain dismantlement operations, allowing us 
to cut in half, the time required to complete dismantlement of a 
warhead being removed from the stockpile with no compromise in safety 
and security.
    We remain committed to exploring a robust and world-class 
microsystems engineering capability at Sandia National Laboratories. 
This effort could allow us to both develop and exploit emerging 
technologies that show great promise for miniaturizing weapon 
components, improving their reliability; and for maintaining a critical 
capability in radiation-hardened electronics needed to address 
potential safety, security, and hostile radiation threat environments 
of the future.

                                TRITIUM

    Every U.S. nuclear weapon requires tritium to function as designed. 
Because tritium, a radioactive isotope of hydrogen, decays at a rate of 
5.5 percent per year, it must be periodically replenished. DOE has not 
produced tritium since 1988 and the current START I inventory will be 
sufficient only until about 2005, after which the five year tritium 
reserve will be reduced and a new source of tritium will be needed.
    In May 1999, the Department issued a Record of Decision that 
formalized the Secretary's December 1998 announcement that Tennessee 
Valley Authority (TVA) reactors would be used to produce tritium. That 
decision was codified in the National Defense Authorization Act for 
fiscal year 2000.
    Three TVA reactors Watts Bar and both Sequoyah units will be 
available to irradiate DOE designed, commercially manufactured, 
tritium-producing rods. DOE plans to start production of tritium in TVA 
reactors beginning with the scheduled refueling of the Watts Bar 
reactor in October 2003. After irradiation, the rods will be shipped to 
the Savannah River Site where a new Tritium Extraction Facility is 
under construction. The facility will extract tritium gas from the rods 
and send it to the existing Tritium Loading Facility. Extraction 
operations are scheduled to begin in February 2006, later than 
originally planned because of the congressional restriction against 
tritium construction activities in fiscal year 1999. Again, we have 
made up three months of this 12 month construction moratorium. The 
Tritium Extraction Facility's operating capacity will be such that the 
five year reserve will be fully replenished in two to three years.
    An interagency agreement between DOE and TVA went into effect on 
January 1, 2000. TVA, with DOE assistance, is preparing requests to the 
Nuclear Regulatory Commission (NRC) to amend the licenses of the TVA 
reactors to permit tritium production. TVA plans to submit those 
requests at the beginning of calendar year 2001. The NRC review of the 
license amendment cannot begin until TVA has submitted its application 
for amendment of the operating licenses for Watts Bar and the two 
Sequoyah units. TVA will be putting that license amendment package 
together during the rest of calendar year 2000, with assistance from 
its two fuel vendors (Westinghouse and Framatone) and DOE. TVA 
corporate and plant licensing and engineering personnel will also be 
performing analyses and preparing significant portions of the license 
amendment submission. This work is on schedule.
    Also during fiscal year 2000, DOE will award a contract for 
commercial fabrication of 6,000 tritium-producing rods. Thirty-two rods 
underwent an irradiation demonstration in the Watts Bar reactor over 
the course of a full reactor operating cycle that was completed in 
March 1999. The rods have been taken to a DOE laboratory and are 
currently undergoing a series of examinations. So far, the results of 
all examinations have been as expected. Site preparation and detailed 
design of the Tritium Extraction Facility are in progress this year. In 
fiscal year 2001, we will begin construction of the facility building.
    The Record of Decision on tritium production stated that the 
Accelerator Production of Tritium (APT) alternative would be developed 
as a backup tritium technology by completing engineering development 
and preliminary design. With the success of the commercial light water 
reactor program and with competing financial demands on other parts of 
Stockpile Stewardship, DOE has been forced to redefine the work 
associated with the APT, the backup tritium technology. Consequently, 
we plan to work with Congress this year to suspend preliminary design 
work for an APT plant. However, engineering development and 
demonstration activities at LANL will continue to assure that, should 
the backup technology be needed, it will be ready. In addition, DOE 
will explore the potential for a multi-mission accelerator program that 
could include tritium production, isotope production, and waste 
transmutation.

                         EXPERIMENTAL PROGRAMS

    It is at the DOE's Los Alamos, Sandia, and Lawrence Livermore 
National Laboratories and at the Nevada Test Site, that the science 
base of the Stockpile Stewardship Program is developed and applied. The 
experimental program is how, in the absence of nuclear testing, we 
divide the physics of the explosive sequence into each of its parts and 
analyze each separately. Information that we have from the production 
and surveillance activities described previously, helps us to focus our 
experiments. Information from over 1,000 U.S. nuclear tests also tells 
us where we need to fill in gaps in our knowledge through experiment 
and observation.
    Thousands of experiments, large and small, are performed each year 
in support of stockpile stewardship. Subcritical experiments help us 
fill in gaps in empirical data on the high pressure behavior of 
plutonium, realistically bench marking data on the dynamic, non-nuclear 
behavior of components in today's stockpile; analyzing the effects of 
remanufacturing techniques; understanding the effects of aging 
materials; and addressing other technical issues. Information from 
these experiments will be key to qualifying the pit production 
capability at Los Alamos National Laboratory, as well as certifying the 
performance of weapons which will contain the replacement pits. These 
experiments also contribute significantly to the maintenance of the 
critical infrastructure and qualifications of skilled personnel at the 
Nevada Test Site to maintain readiness.
    With the right tools, we can do a thorough job of investigating the 
first part of the nuclear explosion; that is, the implosion of the 
plutonium pit by high explosive, with non-nuclear experiments. We can 
measure a number of important features by taking X-ray pictures during 
critical parts of the experiment, and we can measure the time evolution 
of the implosion with arrays of contact sensors (called pins). We can 
then compare these pictures and time histories with calculations and 
with previous data from the more than 1,000 underground nuclear tests 
and 14,000 surveillance tests. Ultimately, we require better pictures 
at multiple times to certify rebuilt pits and 3-D simulations of weapon 
performance.
    During fiscal year 1999, we conducted some 14 non-nuclear 
hydrotests at the Pulsed High Energy Radiographic Machine Emitting X-
rays (PHERMEX) and related facilities at the Los Alamos National 
Laboratory; and about 15 tests at the Flash X-Ray (FXR) and B851 Site 
300 facilities at the Lawrence Livermore National Laboratory. In 
addition, we conduct up to 1000 less complex experiments per year aimed 
at preparing for larger tests and subcritical experiments, and for 
understanding high-explosives behavior and explosive effects on 
materials. In fiscal year 2000 and fiscal year 2001, we anticipate 
conducting a similar number of experiments with major radiography 
shots, primarily at the Dual-Axis Radiographic Hydrodynamic Test 
(DARHT) Facility.
    The DARHT facility at the Los Alamos National Laboratory, a 
massive, advanced X-ray facility, will examine an imploding pit model 
from two different directions at greatly improved resolution and will 
replace PHERMEX as the primary radiography machine at Los Alamos. The 
first axis of DARHT is now operational. In addition, under the auspices 
of the National Hydro Program, DARHT will perform some of the Livermore 
tests formerly done at the FXR machine located at LLNL. The building to 
house the second axis of DARHT is complete, and the accelerator is 
under construction, due for completion in fiscal year 2002.
    The FXR firing site has been shut down since early fiscal year 1999 
for construction of the Contained Firing Facility which will be 
completed in fiscal year 2001. FXR is currently being used for non- 
explosive, beam target development tests in support of the second axis 
of DARHT.
    Experiments using the Los Alamos Neutron Science Center (LANSCE) 
are investigating proton radiography, a new technique in which proton 
beams from a linear accelerator are used directly in a novel approach 
to hydrodynamics-radiography that, if successful, could provide 
required additional information to our radiographic process of 
certifying pits. This technique is one of the candidate technologies 
being considered to make detailed, three-dimensional ``motion 
pictures'' of the implosion process. Smaller-scale dynamic proton 
radiography experiments have already been performed at LANSCE to 
address important certification issues (e.g., cold high-explosives 
performance), paving the way for validation of advanced explosives 
simulation models.
    In 1998, the Z-pulsed power facility at Sandia achieved record X-
ray energy and temperature levels. In 2001, we plan to conduct about 
180 shots in Z in the areas of weapons effects, weapons physics, and 
ignition. A major activity at Z during fiscal year 2001 will be the 
completion of installation of the beamlet laser from the Lawrence 
Livermore National Laboratory which will be used as a diagnostic on Z. 
This diagnostic will enhance investigations in all areas.
    The Inertial Confinement Fusion Program, in conjunction with the 
other stewardship campaigns, is currently developing detailed 
experimental plans to achieve ignition and to address other stewardship 
issues during National Ignition Facility (NIF) operations.
    Construction is underway for NIF, an essential element in the long-
term success of the Stockpile Stewardship Program. NIF, the world's 
largest laser, will enable our scientists to generate conditions of 
temperature and pressure approaching those that occur in nuclear 
weapons. Demonstrations of how aged or changed materials could behave 
under these unique conditions will provide data essential to validate 
computer based predictions. Recently, laser glass has been produced 
which meets all required technical specifications. This is a major 
program accomplishment. All the enabling technologies required for 
construction of NIF have been demonstrated with the exception of 
coatings that will not incur damage at the laser energy levels required 
for ignition later in this decade. The NIF building is about 85 percent 
completed. The 10-meter diameter aluminum target chamber is installed 
in the building. The Optics Assembly Building to be used for final 
precision cleaning of the optical components which will be installed in 
the laser's beam path, and the Central Plant and its cooling towers, 
have been turned over to the laboratory for operation.
    Integration, schedule and cost problems associated with the 
construction of the National Ignition Facility (NIF) were identified to 
DOE in late August of last year. On September 3, 1999, Secretary of 
Energy Richardson announced a series of actions to address these 
problems. In response, Defense Programs, DOE's Oakland Operations 
Office, the Lawrence Livermore National Laboratory, and NIF project 
management have been working together to put the project back on track 
as directed by Secretary Richardson. The NIF project method of 
execution is being changed to address the increased complexity of this 
state-of-the-art system, and the cleanliness problems in assembling and 
installing the laser and target system infrastructure. As a result, 
assembly and installation of the beampath infrastructure system will 
now be managed and performed by industrial partners with proven records 
of constructing similarly complex facilities.
    At the Secretary's direction, an independent task force was formed 
by the Secretary of Energy Advisory Board (SEAB) to review options to 
complete the project and to recommend the best technical course of 
action. The overall conclusion in the interim report to the SEAB 
stated, ``The Task Force has not uncovered any technical or managerial 
obstacles that would, in principle, prevent the completion of the NIF 
laser system. Nevertheless, serious challenges and hurdles remain. The 
NIF Task Force believes, however, that with appropriate corrective 
actions, a strong management team, additional funds, an extension of 
the schedule and recognition that NIF is, at its core, a research and 
development project, the NIF laser system can be completed.'' The 
project is currently developing a new NIF baseline which will be 
certified by the Department and submitted to Congress as required. We 
will be working with the Lawrence Livermore National Laboratory 
management and internally within Defense Programs to get the project 
back on track. Your continued support of the NIF project, as a key 
element of the Stockpile Stewardship Program, is essential. The 
Secretary has committed to work closely with Congress on this issue.

                       SIMULATION AND COMPUTATION

    Data from U.S. nuclear tests, experiments, surveillance, and 
production activities, provide input to the Stockpile Stewardship 
Program supercomputers. Sandia, Los Alamos and Lawrence Livermore 
National Laboratories are collaborating on the supercomputing program. 
While advanced computing has always been a feature of the nuclear 
weapons program, the computing speed, power and level of detail 
required to certify existing nuclear weapons without nuclear testing 
has required an extraordinary collaborative effort that is breaking 
barriers undreamed of only five years ago.
    The Accelerated Strategic Computing Initiative (ASCI) is developing 
the high-performance computational modeling and numerical simulation 
capabilities necessary to integrate theory, existing data, and new 
experimental data to predict results that can be verified and 
validated. The ASCI program, a collaborative effort between the U.S. 
government and U.S. industry, is developing the world's fastest, most 
powerful computational and advanced simulation and modeling 
capabilities. These advanced supercomputers are needed to fully 
implement science-based methods and to assess and certify the safety, 
security, and reliability of the stockpile without underground nuclear 
testing.
    Advanced computational capabilities that include application codes, 
computing platforms, and various tools and techniques, are being 
developed under ASCI and incorporated into ongoing stockpile 
computational activities. This technology is being developed at about 
twice the rate of commercial computing speed and power advances. ASCI 
has been highly successful in meeting its milestones and providing 
effective new tools to support Stockpile Stewardship. Information 
developed from other elements of the Stockpile Stewardship Program, 
such as NIF and our subcritical experiments, will provide the basic 
physics models and data for ASCI simulations.
    At the end of fiscal year 1998, ASCI unveiled its second generation 
of computing systems. Two major systems capable of running in excess of 
three trillion operations per second (3 TeraOps) peak speed were 
delivered ahead of schedule and within budget. Blue Pacific, developed 
by IBM, is located at the Lawrence Livermore National Laboratory 
(LLNL), and Blue Mountain, developed by SGI, is located at the Los 
Alamos National Laboratory (LANL). These systems are each 15,000 times 
faster and have roughly 80,000 times the memory of the average personal 
desktop computer. Under the Blue Pacific program, a world record 1.2 
TeraOPS was achieved on a hydrodynamics benchmark while a second 
benchmark run set a world record with 70.8 billion zones.
    On February 12, 1998, the Department announced the selection of IBM 
to partner with ASCI on the Option White 10 TeraOps supercomputer to be 
located at LLNL. Building upon the experience and knowledge gained with 
the 3 TeraOps Blue Mountain system, LANL is procuring a computational 
system that will achieve a peak performance level of 30 TeraOps by mid-
year 2001. And the Department's first generation Option Red Intel 
computer system, installed at the Sandia National Laboratories in 1996, 
has been upgraded with faster processors and more memory and is now 
operating in production mode at a peak speed of more than 3 TeraOps.
    The ASCI Defense Applications and Modeling Campaign has recently 
completed the first three-dimensional simulation of a nuclear weapon 
primary explosion and has compared the results with the data from an 
underground test. This calculation, an important first step toward 
simulating a complete nuclear weapon, was performed by the Lawrence 
Livermore National Laboratory during December 1999.
    Completion of the prototype ASCI burn code required to perform the 
above calculation was the first of an ambitious serious of mileposts 
required to achieve a high-fidelity simulation of a full nuclear weapon 
system by 2004. The code team at LLNL met this very difficult milepost 
on schedule and with code capabilities that exceeded the established 
programmatic specifications. Future mileposts require a continued 
effort to extend this calculation to nuclear weapons secondaries and 
later to full weapons systems. At the same time, other mileposts 
address the advanced physics and materials models that will be required 
to achieve the highly accurate simulations that are needed in the 
absence of underground nuclear tests.
    Weapons designers are already utilizing these new three-dimensional 
codes and the ASCI computer systems to support assessment of the 
stockpile. They have run simulations to support the certifications of 
the B61 modification and the W76 neutron generator. These simulations 
would not have been possible without the capability provided by the 
ASCI platforms performing at the TeraOps level. However, three-
dimensional, high-fidelity simulation of a full weapon system and its 
performance, as defined by scientists and engineers at DOE national 
laboratories, will require a minimum of 100 TeraOps of computing 
capability.
    The unprecedented computational power of ASCI is also being made 
available to selected groups in the university community through the 
Academic Strategic Alliances Program. In 1997, the Department awarded 
contracts to five major U.S. universities--Stanford University, 
California Institute of Technology, the University of Chicago, the 
University of Utah, and the University of Illinois. The work of the 
university teams is of similar difficulty and complexity to that needed 
for Stockpile Stewardship and will provide benchmarks by which we can 
assess the accuracy of our own work. These projects are expected to 
lead to major advances in computer simulation technologies as well as 
to discoveries in basic and applied science, areas important to ASCI, 
the broader Stockpile Stewardship Program, and other application areas. 
Applications being developed and run by the university teams are 
unclassified and deal with significant non-defense scientific 
priorities.

                    TECHNOLOGY PARTNERSHIPS PROGRAMS

    The Defense Programs Technology Partnerships Program, which has 
been restructured and directly integrated into Stockpile Stewardship 
activities, represents an important investment in near-term and future 
capabilities. The private sector has technical leadership in many areas 
that are critical to the nuclear weapons program. The Technology 
Partnership Program sponsored collaborations between the national 
laboratories, plants and industry are contributing to all components of 
the Stockpile Stewardship Program. Developing these collaborations has 
been challenging but there are a number of successes. For example, a 
partnership between Sandia National Laboratories (SNL) and General 
Electric has improved SNL's capability in the production of neutron 
generators, a critical weapons component. Another example is the Los 
Alamos National Laboratory collaborations with Dow Chemical and PPG on 
predictive modeling of materials aging. The ability to accurately 
predict material lifetimes and reliability has paramount consequences 
for the Nuclear Weapons Stockpile Stewardship Program and for major 
industrial challenges like aging effects on an array of materials from 
car frames and engine parts to medical implants. Measured progress in 
these partnerships remains beneficial to Stockpile Stewardship and to 
other national concerns.

                     BUDGET SUMMARY FOR FISCAL YEAR 2001--WEAPONS ACTIVITIES ACCOUNT SUMMARY
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal year
                                       ---------------------------------------------------------
                                                                           2000                     Comparable
                                         1999 Current   2000 Current    Comparable      2001     change--percent
                                        appropriation  appropriation  appropriation    Request
----------------------------------------------------------------------------------------------------------------
Operations & Maintenance..............    $3,899,601     $3,904,464     $3,798,654   $4,179,827          10.0
Fiscal year 2000 Supplemental.........  .............        55,000         55,000   ..........        -100.0
PY Work conducted in fiscal year 1999.        28,558   .............  .............  ..........  ...............
                                       -------------------------------------------------------------------------
      Subtotal, O&M...................     3,928,159      3,959,464      3,853,654    4,179,827           8.5
Construction..........................       518,984        530,256        530,256      414,173         -21.9
                                       -------------------------------------------------------------------------
      Subtotal, Weapons Activities....     4,447,143      4,489,720      4,383,910    4,594,000           4.8
Use of PY Balances....................       -50,994         -7,668         -7,668   ..........        -100.0
Less Proposed Supplemental............  .............       -55,000        -55,000   ..........        -100.0
                                       -------------------------------------------------------------------------
      Total Weapons Activities........     4,396,149      4,427,052      4,321,242   4,594, 000           6.3
----------------------------------------------------------------------------------------------------------------

    The fiscal year 2001 Operations and Maintenance (O&M) request 
increases 8.5 percent above the comparable fiscal year 2000 
appropriated level, including the pending supplemental request. The 
supplemental request is a result of recommendations in the 30 Day 
Review which highlighted fiscal year 2000 budget pressures caused by 
increased security requirements and issues that have emerged since the 
fiscal year 2000 Congressional budget was submitted. The $55 million 
would provide additional funding to address critical skills retention 
and other issues at the Y-12, Kansas City and Pantex plants, and would 
continue activities necessary to restart enriched uranium operations at 
Y-12.
    The construction request is about 22 percent below the fiscal year 
2000 request level, reflecting programmed decreases in appropriations 
for major projects, including the National Ignition Facility (NIF) and 
the Dual Axis Radiographic Hydrodynamic Testing Facility (DARHT), and 
completion of funding for six projects. The request level supports a 
continuing program of infrastructure renewal at the laboratories, as 
well as the start of construction for three key new experimental and 
manufacturing facilities.

                                              DECISION UNIT SUMMARY
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                             Fiscal year
                                    ------------------------------------------------------------
                                                                        2000           2001         Comparable
                                      1999 Current   2000 Current    Comparable   Congressional  change--percent
                                     appropriation  appropriation  appropriation     request
----------------------------------------------------------------------------------------------------------------
Stockpile Stewardship..............      $2,113.1       $2,200.6   .............  .............  ...............
Stockpile Management...............       2,055.4    \1\ 1,991.8   .............  .............  ...............
PY Work conducted in fiscal year             28.6   .............  .............  .............  ...............
 1999..............................
Stockpile Stewardship O&M:
    Directed Stockpile Work........  .............  .............        $760.0         $836.6            10.1
    Campaigns......................  .............  .............         928.6        1,049.9            13.1
Readiness in Tech Base.............  .............  .............       1,870.0        1,953.6             4.5
                                    ----------------------------------------------------------------------------
      Subtotal.....................  .............  .............       3,558.6        3,840.1             7.9
Secure Transportation Asset........  .............          91.5           91.5          115.7            26.5
Program Direction..................         250.0          205.8          203.6          224.1            10.1
Construction.......................  .............  .............         530.3          414.2           -21.9
                                    ----------------------------------------------------------------------------
      Subtotal.....................       4,447.1        4,489.7        4,383.9        4,594.0             4.8
Use of Prior Yr Balances...........         -51.0           -7.7           -7.7   .............         -100.0
Less Proposed Supplemental.........  .............         -55.0          -55.0   .............         -100.0
                                    ----------------------------------------------------------------------------
      Total, Weapons Activities....       4,396.1        4,427.0        4,321.2        4,594.0             6.3
                                    ============================================================================
Federal Staffing...................         1,777          1,751          1,751          1,787             2.1
DP-Funded M&O \2\..................        22,739         21,582         22,625         22,570            -0.2
----------------------------------------------------------------------------------------------------------------
\1\ Includes $55 million proposed supplemental funding.
\2\ Fiscal year 1999 End of Year; fiscal year 2000 and fiscal year 2001 projections are averages for labs and
  headcounts for plants.

    The fiscal year 2001 budget request supports the transition to 
performance-based program management and budgeting for the Stockpile 
Stewardship Program. The overall increase in fiscal year 2001 will 
cover: inflationary increases; support current infrastructure; and does 
not anticipate involuntary layoffs at the laboratories, Nevada Test 
Site, or production plants at this time. We have protected our highest 
priority work associated with pit aging issues, surety improvements, 
and stockpile support activities.
    Stewardship O&M provides funding for activities carried out by 
integrated contractors encompassing Directed Stockpile Work, Campaigns, 
and Readiness in Technical Base and Facilities; principally at the 
Lawrence Livermore, Los Alamos and Sandia National Laboratories, 
production facilities at Kansas City, Pantex, Savannah River and Y-12, 
and the Nevada Test Site. The program activities link directly with 
DP's performance goals and objectives in the Strategic Plan. They 
provide the technical basis for confidence in the safety, reliability, 
and performance of the U.S. weapons stockpile in the absence of 
underground nuclear testing. The programs have been balanced to develop 
and maintain essential scientific and technical capabilities over the 
long-term while meeting near-term workload requirements and schedules, 
within a modern integrated complex with unique and interdependent 
facilities. On a comparable basis, the fiscal year 2001 request for 
Stewardship O&M activities is approximately 7.9 percent above the 
fiscal year 2000 request, including the pending fiscal year 2000 
supplemental.
    Directed Stockpile Workload increases 10.1 percent in fiscal year 
2001. Production schedules for gas generators, neutron generators and 
tritium reservoirs in the Master Nuclear Schedule, Volume II, are met. 
Alteration and modification schedules as specified in the Production 
and Planning Directive, principally focused on the W87 Life Extension 
Program, schedules are supported. Although we will be working with the 
DOD to relax certain outyear schedules, critical near-term stockpile 
needs are supported. Limited full scale engineering development 
continues in support of the W80 and W76, although we are interested in 
exploring less complex, lower cost workload options with the DOD. We 
are studying the potential transfer of the work on the W80 from the Los 
Alamos National Laboratory to the Lawrence Livermore National 
Laboratory as a longer-term workload leveling measure. Pit 
manufacturing and certification efforts for the W88 continue.
    The Campaigns increase $121.3 million, or 13.1 percent above the 
fiscal year 2000 comparable level of $928.6 million, to support the 
development of the tools and scientific capabilities required to 
maintain and certify the nuclear stockpile without underground nuclear 
testing into the future. The budget request allocates significant 
program growth over fiscal year 2000 to the highest priorities: 
supporting campaign activities and key milestones in Pit Manufacturing 
Readiness (+54 percent growth); Primary Certification (+41 percent 
growth); Enhanced Surveillance (+21 percent growth); and ICF and High 
Yield (+21 percent growth). Program growth in the 10 to 20 percent 
range is allocated in the Secondary Certification, Advanced 
Radiography, and Certification in Hostile Environments campaigns.
    Pit Manufacturing Readiness, which increases $38.1 million, or 54 
percent above the fiscal year 2000 comparable level, will focus on 
continuing the manufacture of development pits leading towards the 
manufacture of a certifiable W88 pit. Increased funding will support 
the hiring of production staffing and the procurement and installation 
of reliability equipment. Subsequent to fiscal year 2001, activities 
will move from manufacturing development pits to steady state 
manufacture of pits for qualification and production pits for placement 
into the stockpile.
    Primary Certification, which increases $11.9 million, or 41 percent 
above the fiscal year 2000 comparable level, performs increasingly 
complex integrated hydrodynamic radiography and subcritical experiments 
for development of simulation codes and weapon certification.
    Enhanced Surveillance, which increases $15.6 million, or 21 percent 
above the fiscal year 2000 comparable level, will include a pit study 
to determine whether pit lifetimes equal or exceed 60 years (enabling 
substantial deferral or downsizing of a potential new pit manufacturing 
facility) and the development and implementation of new, non-
destructive examination tools for early detection of potential flaws.
    Inertial Confinement Fusion Ignition and High Yield, which 
increases $21.1 million, or 21 percent above the fiscal year 2000 
comparable level, will support the design and development of the NIF 
Cryogenic System, the development of the initial set of core target 
diagnostics and laser characterization diagnostics for NIF, ignition 
target design, development and experiments to verify conditions 
necessary for ignition, weapons physics experiments which also support 
other Stewardship campaigns.
    Secondary Certification and Nuclear Systems Margins, which 
increases $8.6 million, or 19 percent above the fiscal year 2000 
comparable level, will support design of above ground experiments to 
examine HE-induced case dynamics and performance issues required for 
code validation and to enhance capabilities in hydrodynamic modeling.
    Advanced Radiography, which increases $5.1 million, or 14 percent 
above the fiscal year 2000 comparable level, optimizes the first axis 
beam on DARHT which became operational in fiscal year 1999. Research 
and development will be conducted to begin to define the requirements 
for advanced radiography capabilities to support certification of 
refurbished and replaced primaries.
    Certification in Hostile Environments, which increases $1.6 
million, or 12 percent above the fiscal year 2000 comparable level, 
will allow us to start the development of System Generated 
Electromagnetic Pulse model validation for the ASCI codes to support 
the W76 Arming Firing and Fusing (AF&F) certification, to work on 0.5 m 
rad/hard (silicon-on-insulator) technologies for the W76 and future 
AF&F refurbishments , and to accelerate the calculations of weapons 
outputs.
    We are maintaining progress on achieving an assured source of 
tritium, although we are suspending the efforts on the preliminary 
design for the backup Accelerator Production of Tritium plant. We are 
developing advanced stewardship tools, particularly simulation and 
modeling, the Dual Axis Radiographic Hydrodynamic Test (DARHT) 
facility, 3D burn codes, and subcritical experiments. These activities 
are essential to maintain confidence in the safety of the stockpile 
without underground nuclear testing to assure that the U.S. will 
continue to certify the effectiveness of the nuclear weapon stockpile 
into the future.
    Within the Readiness in Technical Base and Facilities decision 
unit, the largest category supporting operations of facilities is 
essentially flat from the fiscal year 2000 level. There is significant 
growth over fiscal year 2000 in other categories such as Containers, 
Program Readiness, and Advanced Simulation and Computing.
    Advanced Simulation and Computing increase $80 million, about 20 
percent, including: $3.9 million to accommodate final development and 
delivery of 10 TeraOps system and ongoing operating expenses for the 3 
TeraOps (LANL and SNL) systems; $8.7 million for Distance and 
Distributed Computing (DisCom \2\) efforts to scale up software 
development and network bandwidth substantially in order to enable tri-
lab use of the 10 TeraOps platform under demanding conditions; $45.1 
million for Visual Interactive Environment for Weapons Simulation 
(VIEWS) for integrating visualization and data management and 
developing technologies that contribute to the ``see and understand'' 
capabilities for 3D simulation codes data with increased levels of 
fidelity and for new computing and display equipment and software 
development to use scalable parallel technologies and, $13.0 million 
for Collaborations with University Partners, Alliances, Institutes and 
Fellowships for existing commitments and expansion of the program along 
with continued development of partnerships with expertise in academia.
    The Department's Secure Transportation Asset is requesting a 
funding increase of 26.5 percent over fiscal year 2000 to support its 
plan to continue to redress security and other vulnerabilities 
identified in recent Departmental evaluations, including the 
replacement of safe secure transporters (SST's) with the next 
generation SafeGuards transporters, equipment and escort vehicle 
upgrades, recruitment of new courier classes, and enhanced inservice 
training.
    Defense Programs is requesting an increase in Program Direction 
funding of $20.5 million, a 10.1 percent percent increase over the 
fiscal year 2000 appropriation. The largest portion of this increase, 
$11.0 million, is to cover the DP federal staff's salaries and 
benefits. This increase covers expected cost of living increases, step 
increases, promotions, and full year funding for the 30 new hires to be 
brought on-board during fiscal year 2000 at headquarters as part of the 
Secretary's Workforce 21 initiative to fill critical mission skill 
positions. The request supports the Secretarial Scientific Retention 
and Recruiting initiative to enhance scientific and technical talent in 
the federal workforce, and provides flexibility to relocate staff and 
consolidate functions among headquarters, operations office and area 
offices in fiscal year 2001.
    Construction includes all DP-funded, line item infrastructure and 
programmatic construction projects at the laboratories, Nevada Test 
Site, and plants. The construction request is about 22 percent below 
the fiscal year 2000 level. This reduction reflects the completion of 
appropriations for six projects, and planned decreases for three more, 
including the National Ignition Facility (NIF) and DARHT experimental 
facilities that are progressing towards completion. Three new starts 
are also proposed: the Distributed Information Systems Lab at the 
Sandia National Laboratory in California; Highly Enriched Uranium 
Storage Facility at Y-12; and Weapon Evaluation Testing Laboratory at 
Pantex; and in addition, Defense Programs is piloting the Departmental 
initiative to request ``Preliminary Project Design and Engineering'' 
funding for potential out year new construction starts. This pilot 
project is intended to remedy problems in construction projects related 
to inadequate scope definition and premature cost estimates. 
Construction funds included in the fiscal year 2000 request for NIF do 
not reflect forthcoming cost and schedule changes.

                               CONCLUSION

    Stockpile Stewardship is a one-of-a-kind endeavor. It is unique in 
that we are responsible for a product that everyone hopes we will never 
have to use. It is unique in the same way that the Manhattan Project 
and Apollo moon program were: innovative, creative approaches to 
something new under the sun with no margin for error. It is unique in 
that we are not making any new weapons, but are only maintaining 
existing inventory. We must continue both to maintain current models 
without total system testing, but also be prepared to return to design, 
production and testing if directed to do so by the President. Every 
year, our success on the job must be certified to the President. Our 
responsibilities and capabilities are often the focus of heated public 
debate and occupy a singular position in the formulation of foreign and 
defense policy.
    On the other hand, Stockpile Stewardship involves many industrial 
processes common to private industry. We must be sure that product 
replacement parts continue to be available and that new materials and 
processes are compatible with maintaining our existing inventory in 
perfect working order without underground nuclear testing. To get the 
job done right, we rely on advanced scientific expertise, complex 
experimental capabilities, historic product data, and highly 
sophisticated computer calculations--bottom line--more high tech than 
almost any other organization. We have high level security and safety 
concerns, transportation needs, environmental responsibilities, 
downsizing requirements, workforce and training issues, cost-benefit 
trade-offs to consider, and other problems similar to those faced by 
private businesses, although in a unique context. And, as is usually 
the case in any business or government activity, our people remain the 
key to our success now and in the future.
    Properly supported and carefully managed, I believe the Stockpile 
Stewardship program will continue to maintain, indefinitely, a safe and 
reliable stockpile without the need to conduct nuclear testing. I know 
of no other national security issue more important for our nation in 
this new millennium of great challenges.

                   ADVANCED MANUFACTURING TECHNOLOGY

    Senator Domenici. Thank you very much. Now you have 
provided examples of the type of improvements needed in the 
weapons program. Can I clarify those three items you sent up 
here for us to look at?
    General Gioconda. The strong link, switches----
    Senator Domenici. Yes, now the very heavy one is the 
current one?
    General Gioconda. Yes. It is the one currently in a lot of 
our stockpile, or versions of it.
    Senator Domenici. Then the second one is a little machine 
inside of that plastic box. Is that little machine going to 
take the place of the big one?
    General Gioconda. Yes, sir, it can. It also will be closer 
to the actual prevention of detonation by moving it closer to 
the actual thing you are worried about.
    Senator Domenici. Then the third one was another change in 
evolution into a little tiny strip that will do the same thing 
as the box with 500 pieces?
    General Gioconda. Yes, sir.
    Senator Domenici. I note there are some young people in the 
audience this morning. You are not from my State, but could you 
maybe tell us where you are from? Who is the leader of the 
crowd?
    Voice. We are from Alabama, Minnesota, South Dakota, and 
Nebraska.
    Senator Domenici. Well, we welcome you to this hearing. We 
are going to pass these three exhibits to you, and you can look 
at them.
    Without going into too much detail, the heavy one is the 
one we are currently using to make sure our nuclear weapons 
cannot be armed in the case of accidents or the like. The next 
one right behind it is a modern, technologically improved item 
that takes the place of that one, and then if you look at the 
third one you will see a little tiny strip of tape. It is a 
microchip. It takes the place of the other two, and this will 
just show you the kind of changes that are occurring in science 
and technology.
    This committee is going to consider and ultimately pass a 
bill that provides for the nuclear weaponry for the United 
States, and also for the Energy Department in terms of 
nonnuclear energy research and the like. So this is a small but 
important Subcommittee on Appropriations, and we welcome you to 
our hearing, and we hope you have a great time from the States 
you're from, and that you have a safe trip home.
    Do any of you young people have a quick question for the 
witnesses?
    [No response.]
    Senator Domenici. Okay. You can be thinking about that and 
we will let you ask that later. If you stick around awhile 
maybe you can write one up between you.
    The next witness today is Ms. Rose Gottemoeller, Acting 
Deputy for Defense Nuclear Nonproliferation. Would you proceed 
with no more than 10 minutes?

                     STATEMENT OF ROSE GOTTEMOELLER

    Ms. Gottemoeller. Mr. Chairman, Thank you very much for the 
opportunity to appear before this subcommittee. As always, I 
welcome the opportunity to tell you and your colleagues about 
our program.
    As you know, my office has undergone a number of 
organizational changes over the course of the last year. 
Specifically, in the National Nuclear Security Administration, 
my office, the Office of Nonproliferation and National 
Security, has been redesignated as the Office of Defense 
Nuclear Nonproliferation. In addition, the Department's Office 
of Fissile Materials Disposition was incorporated into this new 
office. Implementation of these new arrangements has gone very 
well, and we are now better able to respond to proliferation 
challenges, in my view.

                    FISCAL YEAR 2001 BUDGET REQUEST

    In the office's fiscal year 2001 budget request is $906 
million. This figure incorporates both the former Office of 
Nonproliferation and National Security, for which we are 
requesting $683 million, and on a comparable basis an increase 
of $136 million, or 21 percent above the fiscal year 2000 
appropriation and the Office of Fissile Material disposition 
for which we are requesting $223 million on a comparable basis, 
an increase of $22 million, or a 10-percent increase above the 
fiscal year 2000 appropriation.
    Mr. Chairman, I appear to need my glasses at this age for 
numbers. I apologize. In any event, I will proceed.

                      LONG-TERM RUSSIAN INITIATIVE

    A major priority for the Department of Energy in the coming 
fiscal year is a proposed $100-million long-term, 
nonproliferation program with Russia developed by Secretary 
Richardson as a key part of the President's fiscal year 2001 
budget request for the expanded threat reduction initiative. 
The proposed $100-million initiative should be reviewed in the 
context of our broader effort in Russia to end the production 
of fissile materials and reduce existing stockpiles, an effort 
that includes the plutonium disposition program, the HEU 
purchase agreement, and the plutonium production reactor 
agreement.
    Allow me to give you a few details concerning the new 
initiative, which is divided into two parts. The first involves 
the nuclear fuel cycle, for which we are requesting $70 
million, and the second covers the Russian nuclear 
infrastructure, for which we are requesting $30 million.
    Let me turn first to our work on the nuclear fuel cycle 
under the new initiative. Since 1992, the United States has 
invested substantial resources to cooperate with Russia to 
secure and eliminate weapons-grade nuclear materials in 
Russia's military nuclear program.
    We aim to expand these efforts by strengthening the 
security and accounting for existing civil plutonium 
stockpiles, preventing the further accumulation of separated 
plutonium from spent fuel produced by civil nuclear power 
reactors, and raising technical barriers to the possible misuse 
of civil nuclear technologies to further weapons programs.

                MORATORIUM ON SEPARATED CIVIL PLUTONIUM

    A key aspect of the nuclear fuel cycle work is a proposed 
moratorium on the further accumulation of separated civil 
plutonium from spent fuel. Each year, Russia produces 
approximately 2 metric tons of separated civil plutonium at its 
Mayak reprocessing plant, adding by 2 metric tons per year to 
their growing stockpile of more than 30 metric tons of this 
material and, sir, I feel it is particularly important, given 
our emphasis in our plutonium disposition program on disposing 
of approximately 2 metric tons a year, that we do get a handle 
on this additional production of 2 metric tons per year.
    To support this moratorium, we are proposing to assist 
Russia in designing, licensing, and constructing a dry storage 
facility for civil reactor spent fuel that would otherwise have 
been reprocessed. Our funds will support the development of 
technically sound, environmentally safe and secure approaches 
to spent fuel packaging and storage.
    A second program area involves collaborative research to 
enhance the proliferation resistance of nuclear reactors and 
fuel cycles. The stages of collaboration include refining 
nonproliferation performance metrics, evaluating specific 
technologies against these metrics, and ultimately developing 
the most promising options that incorporate safety, 
environmental, and economic considerations in addition to 
nonproliferation. Major research and development investments in 
this area are conditioned on Russia fulfilling its commitments 
to curtail nuclear cooperation with Iran.

                     RUSSIAN NUCLEAR INFRASTRUCTURE

    Now, let me turn to the second part of the initiative, our 
work on the Russian nuclear infrastructure. A requested $30 
million is to support new initiatives to address 
nonproliferation dangers associated with Russia's nuclear 
infrastructure. We will expand efforts to consolidate nuclear 
weapons usable material in fewer sites and fewer buildings, and 
to improve material protection and control in highly sensitive 
Russian Navy nuclear sites.
    New funds will also further advance national security goals 
by helping to accelerate the closure of nuclear warhead 
assembly and disassembly lines at the Avangard and Penza-19 
plants in Russia, two out of the four Russian warhead 
production plants.
    New funds will also support the expansion of our work in 
cooperation with the Ministry of Atomic Energy Situation and 
Crisis Center to permit networking of Russian nuclear complex 
facilities to that center for emergency management and 
response.
    Now, Mr. Chairman, I would like to turn briefly to two 
other program areas, our material protection control and 
accounting program, which is progressing well, and our brain 
drain programs. We have improved the security of 450 metric 
tons of fissile material at more than 30 sites in Russia under 
our material protection control and accounting program.

                    GENERAL ACCOUNTING OFFICE REPORT

    A recent GAO report of which you may be aware criticizes 
the Department for having completed security upgrades for only 
7 percent of the material considered at risk. The GAO's 
assertion is not accurate. In fact, we have completed rapid 
security upgrades for 450 metric tons of highly enriched 
uranium and plutonium, or approximately 70 percent of the 
estimated stock of at-risk materials.
    These upgrades include quick fixes, such as fortifying 
entrance and exit points, placing 1-ton concrete blocks on 
material storage areas, or even just bricking up windows to 
secure these sites against terrorist and outsider attacks.
    The 7-percent figure cited by the GAO refers only to those 
sites where we have completed all upgrades.
    A key part of our strategy in the coming year is to embark 
upon a strategic planning process, which was one recommendation 
in the GAO report, with an eye toward increasing efficiencies, 
reducing costs, and promoting sustainable operations.
    We are completing at the present time a model project 
further to consolidate and convert more than 200 kilograms of 
highly enriched uranium and plan to convert an additional 600 
kilograms of this material. Over the next 2 years, our goal is 
to convert 8 to 10 additional metric tons of highly enriched 
uranium and that, as I see it, is an important new direction 
for the program to consolidate materials and ensure that over 
time the number of facilities and buildings we have to address 
are actually fewer in number through the consolidation process.

                       NUCLEAR CITIES INITIATIVE

    I would now like to turn very briefly to our flagship brain 
drain prevention programs, the Nuclear Cities Initiative [NCI], 
for which we are requesting $17.5 million, and the Initiatives 
for a Proliferation Prevent [IPP] program, for which we are 
requesting $22.5 million.
    I would like to make a couple of remarks about the Nuclear 
Cities Initiative, which has had considerable successes in the 
last couple of weeks. In fact, we have had underway high-level 
strategic planning efforts with the Ministry of Atomic Energy 
in both Sarov and Snezhinsk. The Sarov strategic plan was 
completed last September, and we have among other things 
identified the reduction of 6,000 employees at the Institute 
for Experimental Physics in Sarov.
    In addition, we are accelerating the shut-down of weapons 
assembly and disassembly at the Avangard plant, and recently 
signed an agreement to produce medical equipment at the 
Avangard plant through a German-American medical equipment 
company. This particular project was mentioned, you may have 
seen, on CNN last Friday night, when we were actually able to 
announce that program just last Friday.
    Also last week we completed a strategic planning process 
for the City of Snezhinsk, and there we will have a second open 
computing center as well as a number of major industrial 
projects, and so I feel for our two out of three cities we are 
proceeding to a closing stage in completing the strategic 
planning process, which was an effort that was really 
underscored as necessary by our counterparts and colleagues 
here on Capitol Hill.
    A third team is in Moscow at the present time to move 
forward on strategic planning for the City of Zheleznogorsk, so 
Mr. Chairman, I will just conclude by underscoring that we have 
taken the recommendations of this body to heart and are truly 
moving out on trying to define carefully successful projects 
under this particular effort.

                           PREPARED STATEMENT

    I would like to submit the rest of my remarks for the 
record, if I may, and thank you for your attention.
    [The statement follows:]

                Prepared Statement of Rose Gottemoeller

                              INTRODUCTION

    Mr. Chairman and members of this Subcommittee, thank you for the 
opportunity to appear before you today to present this statement for 
the record on the Department of Energy's fiscal year 2001 budget 
request for the Office of the Deputy Administrator for Defense Nuclear 
Nonproliferation, formerly the Office of Nonproliferation and National 
Security. I look forward to working with you, Chairman Domenici, and 
with the rest of the members of the Subcommittee on Energy and Water 
Development, as we address some of the many serious challenges facing 
our nation today.
    It has been more than a decade since the Berlin Wall fell, opening 
a new era in history. While the Soviet threat is gone, dangers arising 
from the global spread of nuclear, chemical and biological weapons, and 
missiles for their delivery, remain with us. These dangers are real and 
increasingly unpredictable. As President Clinton recently declared, the 
proliferation of weapons of mass destruction ``continues to pose an 
unusual and extraordinary threat to the national security, foreign 
policy, and economy of the United States.'' As a nation, we may face no 
greater challenge than to prevent these weapons from falling into the 
hands of those who would use them against us or our allies.
    As you know, my Office has undergone a number of organizational 
changes over the course of the last year. Specifically, Title 32 of the 
National Defense Authorization Act for fiscal year 2000 calls for the 
creation of a new National Nuclear Security Administration (NNSA). In 
the NNSA, my Office, the Office of Nonproliferation and National 
Security, has been re-designated as the Office of Defense Nuclear 
Nonproliferation. In addition, the Department's Office of Fissile 
Materials Disposition was incorporated into this new Office. 
Implementation of these new arrangements have gone very well. We are 
now better able to respond to proliferation challenges. In a separate 
reorganization effort, the Office of Security Affairs and the Office of 
Emergency Management, formerly in the Office of Nonproliferation and 
National Security, were transferred to the new Office of Security and 
Emergency Operations led by General Eugene Habiger (USAF Ret.). This 
move was part of the Secretary's initiative to centralize the 
Department's domestic nuclear security functions. And finally, to 
address the management demands and significant budget share of our 
Material Protection, Control and Accounting Program (MPC&A), I created 
a new division in 1999 and added to it important remaining functions in 
international emergency management. The new division is called the 
Office of International Materials Protection and Emergency Cooperation. 
I am confident that the combined effect of these changes will sharpen 
our ability to address the proliferation problem.

                    FISCAL YEAR 2001 BUDGET REQUEST

    The Office's fiscal year 2001 budget request is $906 million. This 
figure incorporates both the former Office of Nonproliferation and 
National Security, for which we are requesting $683 million, on a 
comparable basis, an increase of $136 million or 21 percent above the 
fiscal year 2000 appropriation, and the Office of Fissile Materials 
Disposition, for which we are requesting $223 million, on a comparable 
basis, an increase of $22 million or a 10 percent increase above the 
fiscal year 2000 appropriation. In general terms, this increase 
reflects our commitment to meet the ever growing challenges our nation 
faces in the international arena, as well as new opportunities to 
consolidate and expand our nonproliferation work in cooperation with 
Russia.

             LONG TERM NONPROLIFERATION PROGRAM WITH RUSSIA

    A major priority for the Department of Energy in the coming fiscal 
year is a proposed $100 million long term nonproliferation program with 
Russia, developed by Secretary Richardson as a key part of the 
President's fiscal year 2001 budget request for the Expanded Threat 
Reduction Initiative (ETRI). This new program will improve our ability 
to respond to the most serious challenges presented by Russian nuclear 
facilities and nuclear weapon-usable materials. Activities included in 
this program will supplement existing efforts to reduce proliferation 
dangers in the Russian military nuclear complex, while addressing a new 
area, that is, separated plutonium produced in Russia's civil nuclear 
sector.
    The proposed $100 million initiative should be viewed in the 
context of our broader effort in Russia to end the production of 
fissile materials and reduce existing stockpiles, an effort that 
includes the Plutonium Disposition program, the HEU Purchase Agreement, 
and the Plutonium Production Reactor Agreement. These activities, in 
addition to the hundreds of millions of dollars we are spending to 
assist the Russian Government's activities to improve fissile material 
security in Russia, reflect our deep concerns over the risks of theft 
and diversion of nuclear materials in the unique circumstances of the 
post-Cold War environment.
    Allow me to provide you with a few details concerning this new 
initiative. There are essentially two parts. The first involves the 
nuclear fuel cycle, for which we are requesting $70 million; the second 
covers the Russian nuclear infrastructure, for which we are requesting 
$30 million.
    Nonproliferation and the Nuclear Fuel Cycle ($70 million).--Since 
1992, the United States has invested substantial resources to cooperate 
with Russia to secure and eliminate weapon-grade nuclear materials in 
Russia's military nuclear program. We aim to expand these efforts by 
strengthening security and accounting for existing civil plutonium 
stockpiles, preventing the further accumulation of separated plutonium 
from spent fuel produced by civil nuclear power reactors, and raising 
technical barriers to the possible misuse of civil nuclear technologies 
to further weapons programs.
    A key aspect of the nuclear fuel work is a proposed moratorium on 
the further accumulation of separated civil plutonium from spent fuel. 
Each year, Russia produces approximately two metric tons of separated 
civil plutonium at its Mayak reprocessing plant, adding to two metric 
tons per year to their growing stockpile of more than 30 metric tons of 
this material. To support this moratorium, it will be necessary to 
assist Russia in designing, licensing, and constructing a dry storage 
facility for civil reactor spent fuel that would otherwise have been 
reprocessed. Funds will support the development of technically sound, 
environmentally safe, and secure approaches to spent fuel packaging and 
storage. Funds will also support accelerated completion of material 
control and accounting work on tens of tons of civil plutonium 
currently stored at the Mayak site.
    A second program area involves collaborative research to enhance 
the proliferation resistance of nuclear reactors and fuel cycles. The 
stages of collaboration include refining nonproliferation performance 
metrics, evaluating specific technologies against those metrics, and 
ultimately developing the most promising options that incorporate 
safety, environmental and economic considerations, in addition to 
nonproliferation. Major research and development investments in this 
area are conditioned on Russia fulfilling its commitment to curtail 
nuclear cooperation with Iran. Restrictions will also continue on 
Russian nuclear entities that engage in nuclear assistance to Iran.
    We will also propose research collaboration on long term solutions 
to the problem of managing spent fuel and nuclear waste. This will 
include further developing the science underlying geologic repositories 
and researching environmental, safety and related issues involved in 
spent fuel storage.
    It bears noting that this bilateral initiative is not intended to 
address civil fuel cycle programs outside of Russia. Specifically, the 
United States will maintain its commitments regarding the use of 
plutonium in civil nuclear programs in Western Europe and Japan.
    Russian Nuclear Infrastructure ($30 million).--$30 million is 
requested to support new initiatives to address nonproliferation 
dangers associated with Russia's nuclear infrastructure. We will expand 
efforts to consolidate nuclear weapon-usable materials in fewer sites 
and fewer buildings and to improve material protection and control in 
highly sensitive Russian Navy nuclear sites. New funds will also 
further advance national security goals by helping to accelerate the 
closure of the nuclear warhead assembly and disassembly lines at the 
Avangard and Penza-19 plants. Our plan includes financing for non-
military projects to support displaced warhead production workers. New 
funds will also support the expansion of our work in cooperation with 
the Ministry for Atomic Energy's Situation and Crisis Center to permit 
the networking of Russian nuclear complex facilities to that Center for 
emergency management and response purposes. And finally, funding will 
facilitate negotiations on an internationally funded program to 
cooperate with Russia on repatriating highly enriched uranium from 
Soviet-supplied research reactors in Eastern Europe and elsewhere.

              MATERIALS PROTECTION, CONTROL AND ACCOUNTING

    The new $100 million Russia initiative builds on existing programs 
and successes. Our Materials Protection, Control and Accounting (MPC&A) 
program is a good example of this success. Through the MPC&A program, 
we have built a legacy of trust, solid working relationships and 
cooperation with Russian agencies, institutes and scientists, 
facilitating our efforts to improve the security for the nuclear 
materials at highest risk throughout the Russian nuclear complex. This 
program is an essential bulwark against the nuclear weapons aspirations 
of terrorists or countries of proliferation concern.
    Our MPC&A efforts are progressing well. We have improved the 
security of hundreds of tons of fissile material at more than 30 sites 
in Russia. Last October, Secretary Richardson and Russian Minister for 
Atomic Energy Adamov signed a government-to-government agreement that 
will ensure the job gets done at the remaining sites. We are also 
nearing completion of a separate implementing agreement with the 
Russian Ministry of Defense that will advance our MPC&A work at a 
number of very sensitive Russian Navy sites. I have been very impressed 
with the unprecedented degree of cooperation and access shown by the 
Russian Navy to Department of Energy employees.
    A recent GAO report \1\ criticizes the Department for having 
completed security upgrades for only seven percent of the material 
considered at risk. The GAO's assertion is not accurate. In fact, we 
have completed rapid security upgrades for 450 metric tons of highly 
enriched uranium and plutonium, or approximately seventy percent of the 
estimated stock of at-risk material. These upgrades include quick 
fixes--such as fortifying entrance and exit points, placing one ton 
concrete blocks on material storage areas, or even just bricking up 
windows--to secure these sites against terrorist or outside attack. The 
next level of protection includes material tracking and accounting 
systems to protect against insiders siphoning off these fissile 
materials. Both layers of protection are needed to secure materials 
well into the future. The seven percent figure cited by the GAO refers 
only to those sites where we have completed both short and long term 
upgrades.
---------------------------------------------------------------------------
    \1\ ``Limited Progress in Improving Nuclear Material Security in 
Russia and the Newly Independent States,'' GAO/RCED/NSIAD-00-82 (March 
2000).
---------------------------------------------------------------------------
    While the emphasis in our first years of operation was on the 
``quick fix,'' today we are implementing a strategic plan, with an eye 
towards increasing efficiencies, reducing costs, and promoting 
sustainable operations. A key part of this strategy is our effort to 
consolidate and convert highly enriched uranium into a non-weapons-
usable form. We recently completed a model project to consolidate and 
convert more than 200 kilograms of highly enriched uranium, and plan to 
convert an additional 600 kilograms of this material. Over the next two 
years, our goal is to convert 8-10 additional metric tons of highly 
enriched uranium.
    ``Sustainability'' is another important part of our longer term 
efforts. We must ensure that computers for nuclear materials accounting 
and control remain operational and that the protective locks we help to 
install do not rust and break away. For this task, we will establish 
training centers, identify credible Russian suppliers of MPC&A 
equipment, and help in the development of regulations and security 
force procedures, as well as a central system to track amounts and 
locations for all of Russia's nuclear material.
    Our strategic plans address two additional issues raised in the GAO 
report that I would like to comment on: access to facilities and 
taxation by the Russian government. As you might imagine, access is a 
sensitive point for Russia since we are working at some of their most 
highly secret sites. But we are making progress. Secretary Richardson, 
for example, recently established a special task force to help us 
better understand Russia's requirements for approving visits by DOE 
personnel and to share ideas on ways to better facilitate access. I 
should also stress that this is not a complex-wide problem. In fact, I 
would argue that we have more access to sites than we have money to 
perform upgrades. Moreover, at major defense sites, such as Mayak, 
Krasnoyarsk-45, and Sverdlovsk-44, we have gained considerable access 
and are moving quickly to upgrade material security. Sites that fail to 
grant access do not receive contracts for work.
    Russian taxation of our MPC&A cooperation is another area where we 
are making good progress. New Russian legislation and implementing 
regulations are now on the books which exempt the entire MPC&A program 
(and all other DOE cooperative programs with Russia) from direct 
Russian taxes. I am pleased to report that the MPC&A program was one of 
the first to be registered as tax exempt. This is a very positive step 
forward. The GAO report correctly indicates that approximately $1 
million in taxes were included in a contract for MPC&A work by a 
particular Russian institute. In fact, we have not paid the $1 million 
in taxes, and we are working on ways to avoid ever paying. In the 
meantime, I have directed the MPC&A program to review all existing 
contracts to ensure that DOE takes full advantage of its tax-exempt 
status. I have also issued updated guidance to DOE labs on this topic.
    For the coming fiscal year, our base request for the MPC&A program 
is $149.9 million, or approximately $5 million above the comparable 
amount appropriated in fiscal year 2000. This increase reflects the 
transfer of international emergency cooperation from the Office of 
Security and Emergency Operations to our MPC&A program. In the 
international emergency cooperation program, we conduct nuclear threat 
assessments; obtain samples of seized nuclear materials for forensic 
analysis; and develop training and emergency response plans for foreign 
governments and international organizations. In addition, $2 million 
from the proposed $100 million Russia nonproliferation initiative will 
support the continuation of our work with the Russian Situation and 
Crisis Center, which is now linked by a direct televideo line to our 
own Emergency Operations Center. We are also requesting an additional 
$20 million for MPC&A work under the proposed $100 million Russia 
nonproliferation initiative. Together, this would constitute a 15 
percent increase over the fiscal year 2000 appropriation. The increase 
will allow us, among other things, to improve security at highly 
sensitive Russian Navy sites and to continue consolidating and 
converting Russia's stocks of weapon-usable nuclear material.

                   ARMS CONTROL AND NONPROLIFERATION

    Our arms control and nonproliferation budget for fiscal year 2001 
is $123 million, representing an increase of $6.7 million, or 
approximately 5 percent above the comparable funds appropriated in 
fiscal year 2000. Activities covered by this budget line include a 
number of critical nonproliferation programs in Russia and the Newly 
Independent States, but also technical, analytical, and operational 
support for the major pillars of the larger nonproliferation regime, 
that is, treaties and agreements, export controls, international 
nuclear safeguards, and work in regions of proliferation concern. Our 
activities in these areas highlight the breadth and depth of the 
Department's contribution to U.S. arms control and nonproliferation 
priorities.
    Knowing your interest in the Russia problem, let me turn to our 
flagship ``brain drain'' prevention programs--the Nuclear Cities 
Initiative (NCI), for which we are requesting $17.5 million; and the 
Initiatives for Proliferation Prevention (IPP) program, for which we 
are requesting $22.5 million. This represents a $10 million increase 
for these programs together above the fiscal year 2000 appropriation. 
The $10 million increase would be applied to NCI, building on the 
momentum the program has gathered over the past year.
    As you know, Secretary Richardson and Minister Adamov established 
the Nuclear Cities Initiative in late 1998 to cooperate with Russian 
efforts to create peaceful, commercial jobs for displaced Russian 
nuclear weapons scientists and engineers in the ten ``closed'' cities. 
Our initial focus has been on three municipalities--that is, Sarov 
(Arzamas-16), Snezhinsk (Chelyabinsk-70), and Zheleznogorsk 
(Krasnoyarsk-26). NCI is a new type of ``brain drain'' prevention 
program in that it is focused on nuclear workers who are slated to 
leave the nuclear weapons complex as facilities, and their jobs, are 
eliminated.
    This program is on track. Since April 1999, when my Office was 
first authorized to spend funds, we have commissioned an Open Computing 
Center in Sarov, an International Business Development Center in 
Zheleznogorsk (with similar centers to open soon in Snezhinsk and 
Sarov), and signed an agreement in December 1999 with the European Bank 
for Reconstruction and Development to open small business loan centers 
in the three cities, providing access to millions of dollars in 
potential financing. The first loan was recently approved for a small, 
5-person company in Zheleznogorsk.
    We have also initiated high-level strategic planning efforts with 
the Ministry for Atomic Energy to establish goals, costs, and time-
lines for workforce reduction and facility closures in each of the 
three cities. The Sarov strategic plan was completed last September, 
identifying, among other things, the reduction of as many as 6,000 
employees of the Institute for Experimental Physics, a nuclear weapons 
design institute. Through the plan, we have also agreed to the 
accelerated shutdown of weapons assembly and disassembly at the 
Avangard plant: weapons assembly will halt by the end of 2000; weapons 
disassembly will halt by the end of 2004. A commercial agreement for 
the production of kidney dialysis equipment was also recently 
completed, linking Avangard (home of a Russian nuclear weapons assembly 
in Sarov), a German-American medical equipment company, and the 
Lawrence Livermore National Laboratory. Similar private industry 
partnerships are under development in other closed cities.
    I am proud to say that NCI is already working to create jobs. The 
Open Computing Center will have 100 new contract research employees 
this year, with another 500 jobs expected by 2001. A separate center in 
Sarov for nonproliferation analysis has opened and will employ 30 or so 
workers displaced by down-sizing in the Russian nuclear weapons 
complex. The kidney dialysis equipment project at Avangard could create 
more than 100 jobs and has the potential to bring major investments 
into Sarov. In all, more than 30 civil projects, equating to more than 
700 jobs, are either funded or under development across a range of 
commercial areas--from laparoscopy in Sarov, to fiber optic production 
in Snezhinsk, to canola oil and seed processing in Zheleznogorsk. The 
$10 million increase in fiscal year 2001 will allow us to build this 
program by creating perhaps as many 1,000 new jobs in the three cities.
    Like NCI, the IPP program works to secure weapons of mass 
destruction expertise and know-how. Since the program's inception in 
1994, more than 6,000 weapons scientists in Russia and the Newly 
Independent States have been supported through 400 non-military 
projects. The program partners Russian and NIS scientists with 
specialists at the Department's national laboratories and concentrates 
aggressively on the commercialization of projects that are cost-shared 
with U.S. industry. Major corporations--such as United Technologies, 
DuPont, and American Home Products--are participating in this program. 
To date, U.S. industry has contributed $64 million, eclipsing the $38 
million provided by the Department of Energy for cost-shared projects. 
Six commercial projects have already been launched, with full 
graduation from U.S. government financing, and another thirteen are 
poised for full commercialization by the end of 2001.
    Improving the commercial thrust of the IPP program is just one of 
the recommendations suggested by the GAO in its February 1999 report 
(GAO/RCED-99-54, ``Nuclear Nonproliferation: Concerns With DOE's 
Efforts to Reduce the Risks Posted by Russia's Unemployed Weapons 
Scientists.'') that we have moved to implement quickly. All of our IPP 
projects are now reviewed by the U.S. Industry Coalition, helping to 
promote those having genuine commercial potential. Other issues raised 
by the GAO report have been addressed as well. For example, we now use 
the Civilian Research and Development Foundation to avoid the payment 
of taxes on IPP projects in Russia; we have the agreement of the 
governments of Ukraine and Kazakhstan not to tax IPP payments; we vet 
all projects through an interagency screening process to rule out 
activities that might further a weapons program; and we cap the amount 
of IPP budgeted funds going to DOE's national laboratories at 35 
percent.
    Our progress to prevent a ``brain drain'' of weapons expertise 
complements our related efforts to prevent illicit nuclear trade and 
secure nuclear materials outside of Russia. MPC&A is the first line of 
defense. Our ``second line of defense'' program is working to help 
Russia block unauthorized nuclear trade at nine key border crossing 
points and transportation centers. We plan to place radiation detection 
equipment at all nine points by the end of this calendar year. These 
efforts are above and beyond my Office's responsibility to support 
multilateral export control regimes, to administer U.S. controls over 
transfers of American nuclear technology to other countries, and to 
ensure that DOE-funded activities take place in compliance with U.S. 
export control laws and procedures.
    We have additional nuclear material security programs focused on 
MPC&A improvements in former Soviet states outside of Russia and the 
protection of plutonium-bearing spent fuel in two special cases--North 
Korea and Kazakhstan. Our ``on the ground'' efforts to can and secure 
more than 8,000 spent fuel rods in North Korea is nearing completion, 
and we hope to move to the long-term maintenance phase of this project. 
We will maintain a presence in the country to preserve equipment, 
ensure the continued integrity of the fuel canisters, and address any 
International Atomic Energy Agency safeguards issues that might arise. 
In Kazakhstan, the news is also good. There, the first phase of 
operations to can and secure 3,000 plutonium-bearing spent fuel rods in 
the BN-350 reactor at Aktau is nearly complete. The next phase involves 
placing the material in long-term storage. Expert discussions on this 
issue are progressing well, and we expect to launch a long-term 
management program in fiscal year 2001.
    Our efforts to control weapons of mass destruction materials and 
expertise at their source is a critical part of our nonproliferation 
mission. But we must also do more to address the concerns that motivate 
states to pursue these weapons. Drawing on the Department's and its 
national laboratories' tradition of excellence in arms control and 
nonproliferation, my Office supports a number of projects and 
institutions that are dedicated to improving dialogue and communication 
in regions of tension, including the Middle East, South Asia and 
Northeast Asia. Among other activities, we will continue to fund the 
Cooperative Monitoring Center (CMC) at close to $5 million in fiscal 
year 2001. Located outside the fence of Sandia National Laboratories, 
the CMC provides training and education for regional officials and 
specialists in the use of unclassified monitoring technologies that can 
be applied across a broad range of potential agreements and 
arrangements--from demilitarized monitoring to monitoring shared 
watersheds. On his visits abroad, Secretary Richardson has made it a 
special point of emphasis with India, Israel, Egypt, and others to 
encourage their participation in CMC and related arms control and 
nonproliferation training activities.
    And finally, allow me to say a word about our other efforts to 
strengthen bilateral and multilateral arms control and nonproliferation 
agreements. We hope to complete a START III Agreement with Russia in 
2000. My Office is preparing for that agreement, evaluating the impact 
of a warhead dismantlement verification regime on the U.S. weapons 
complex and developing, in some cases in cooperation with Russian 
scientists, technologies to demonstrate that warheads can be verifiably 
dismantled without disclosing sensitive nuclear weapons design 
information. We are developing similar ``information barrier'' 
techniques for other agreements designed to promote transparent and 
irreversible reductions of nuclear stockpiles, including the U.S.-
Russia-IAEA Trilateral Initiative, the HEU Purchase Agreement, and 
negotiations, led by the Department of Defense, with Russia to 
construct a weapons-origin plutonium storage facility at Mayak and an 
associated agreement to measure that plutonium before it is converted 
in a packaging and processing facility.

                     FISSILE MATERIALS DISPOSITION

    The transfer of the Office of Fissile Materials Disposition to the 
new Office of Defense Nuclear Nonproliferation is now complete and has 
gone extremely well. Laura Holgate, who has served very ably as 
Director of that Office, is now Associate Deputy Administrator for 
Fissile Materials Disposition and Special Secretarial Negotiator for 
Plutonium Disposition. There is a strong synergy between fissile 
materials disposition and my Office's broader mission to demilitarize 
large stocks of U.S. and Russian fissile materials surplus to national 
security requirements.
    On the domestic front, the Office of Fissile Materials Disposition 
made significant progress this past year. We transferred substantial 
quantities of surplus U.S. highly enriched uranium to the U.S. 
Enrichment Corporation for down-blending and peaceful use as commercial 
fuel. We entered into contracts with the private sector for the design 
of two key plutonium disposition facilities--a plutonium pit 
disassembly and conversion plant and a mixed-oxide (MOX) fuel 
fabrication plant. We continued to demonstrate our capability to 
disassemble various types of nuclear weapons pits at the Los Alamos 
prototype ``ARIES'' facility. And in January 2000, the Department 
issued a Record of Decision, codifying the decision to construct and 
operate three new plutonium disposition facilities at the Savannah 
River Site in South Carolina. This decision calls for the 
immobilization of 17 metric tons of plutonium and the use of up to 33 
metric tons of plutonium as mixed oxide fuel for irradiation in 
existing U.S. commercial nuclear power reactors.
    On the international front, as part of the President's Expanded 
Threat Reduction Initiative, we continued our efforts in partnership 
with Russia to demonstrate a number of plutonium disposition 
technologies, demonstrations that will accelerate Russia's ability to 
build the facilities needed to dispose of its own surplus plutonium. We 
also continued extensive negotiations with Russia on a bilateral 
plutonium disposition agreement. Implementation of such an agreement is 
needed to trigger the start of actual disposition in both countries. I 
am pleased to report that U.S. and Russian negotiators are now very 
close to a final document; both sides are pushing hard to have an 
agreement in hand this spring.
    The fiscal year 2001 budget request for U.S. and Russian 
disposition activities is $223 million, an increase of $22 million over 
the comparable amount appropriated in fiscal year 2000. The increase 
will enable us to begin Title I design of a facility to immobilize 
surplus non-pit plutonium; incorporate aqueous processing in the design 
for the MOX fuel fabrication facility; fund MOX lead test assembly 
activities; facilitate advanced gas reactor and reactor fuel 
qualification work in Russia; and hire additional Federal staff 
necessary to oversee these disposition activities.

        HIGHLY ENRICHED URANIUM TRANSPARENCY AND IMPLEMENTATION

    In addition to plutonium, our work with Russia to convert surplus 
highly enriched uranium from the Russian military stockpile into a non-
weapon-usable form is also progressing well. The 1993 U.S.-Russia HEU 
Purchase Agreement remains one of the more impressive nonproliferation 
achievements of the last decade. Through the end of calendar year 1999, 
more than 80 metric tons of weapons grade uranium--enough for 3,200 
weapons--had been removed from the Russian military program under this 
Agreement and converted to low enriched uranium for commercial sale. 
Already, Russia has received close to $1.5 billion as compensation for 
converted HEU. Secretary Richardson and Under Secretary Moniz have been 
instrumental in keeping this complex agreement on track.
    My Office administers the HEU transparency and implementation 
program to monitor the conversion and processing of this material at 
Russian facilities subject to the Agreement. Over 70 teams--the 
equivalent of nearly 43,000 inspection hours--have visited these 
facilities to monitor conversion operations. During the past year, we 
installed a Blend Down Monitoring System (BDMS) at one Russian facility 
to provide continuous monitoring data in support of our transparency 
objectives. For fiscal year 2001, we are requesting $15.2 million to 
continue these efforts, principally by upgrading transparency measures 
at additional Russian blending facilities and exploring new 
opportunities to strengthen this important activity.

              INTERNATIONAL NUCLEAR SAFETY AND COOPERATION

    Reducing safety risks at the 64 operating Soviet-designed nuclear 
power reactors is another priority area for my Office. While our fiscal 
year 2000 appropriation was half of the requested amount, we 
nevertheless had a successful year, including a vigorous effort to 
prepare Russia and Ukraine, the two primary users of Soviet-design 
reactors, for Y2K. We provided computer hardware and software, 
equipment and technical guidance to these countries, as well as experts 
in country for the actual rollover. The best measure of success may 
have been that the Y2K rollover came and went without incident. Our 
contributions to nuclear safety can be expressed by other metrics--we 
installed safety parameter systems at seven nuclear power plants; we 
completed six simulators to model normal operating and response 
procedures; we provided U.S. training methods for nuclear plant 
operators; and we continued to provide in-depth reactor safety 
assessments to identify risks and prioritize safety upgrades.
    We are encouraged not just by our progress to address nuclear 
safety at operating reactors, but by the early closure of older 
reactors as well. Ukraine remains on track to shutdown permanently 
Chornobyl's Unit 3, the sole operating reactor at the Chornobyl plant, 
by the end of this calendar year. Our efforts to support the 
construction of a replacement heat plant at Chornobyl for 
decontamination and decommissioning purposes are also proceeding well. 
In addition, Kazakhstan has shut down the BN-350 reactor and our 
attention is now focused on plans for decommissioning and 
decontamination of the reactor's sodium coolant. Removal of the coolant 
effectively bars the reactor's restart. And in Lithuania, the 
government recently called for the closure of Unit 1 at the Ignalina 
nuclear power plant in 2005, representing another important nuclear 
safety achievement.
    Our fiscal year 2001 budget request is $20 million, representing an 
increase of $5 million, or 33 percent, above the fiscal year 2000 
appropriation. This increase will allow our program to accelerate 
efforts to address the most pressing nuclear safety risks associated 
with these reactors and to ensure the safe and orderly shutdown of 
reactors nearing the end of their service life. In all of these 
efforts, we work closely with our colleagues in the U.S. Government, 
including the Department of State, the Agency for International 
Development, and the Nuclear Regulatory Commission.

                        RESEARCH AND DEVELOPMENT

    I wish to end on what may in some respects be the most pernicious 
security threat of the 21st century--the danger that Americans will be 
the targets of nuclear, chemical or biological weapons attacks. 
Responding to this threat is extremely complex. Not only must we be 
ready to mitigate the consequences of an actual attack, but we must 
also discriminate between real threats and the hoaxes that occur almost 
daily. In 1999, the FBI investigated more than 150 threats involving 
anthrax. While none of these threats proved to be real, the disruption, 
in terms of confusion and wasted resources, continues to be a source of 
concern.
    Our research and development efforts are breaking new ground in the 
campaign to combat proliferation and protect U.S. security. We do this 
by developing and delivering field-tested, state-of-the-art 
technologies and systems for proliferation detection to our customers. 
We are developing new technologies to counter nuclear smuggling, detect 
nuclear materials diversion, and prepare for new arms control 
verification challenges in a future START III agreement. We are also 
advancing new remote systems to detect the early stages of a 
proliferant's nuclear weapons program.
    In the area of nuclear test detection, we are developing new space-
based systems to monitor above ground nuclear explosions world-wide and 
are delivering a ``knowledge base'' system on regional seismicity to 
the U.S. Air Force that will improve our national capability to detect 
nuclear explosions at lower yields than could be detected using 
traditional, teleseismic systems. We have also delivered a new 
generation of detectors to identify radioactive particulates from 
atmospheric nuclear explosions. These systems and capabilities are all 
needed irrespective of whether a Comprehensive Test Ban Treaty is in 
force.
    We have numerous examples of success in other areas. Our solid 
state, fiber optic neutron and gamma ray sensor for nuclear materials 
detection was transferred to industry and selected by R&D magazine as 
one of the 100 most technologically significant products of the year. 
For the U.S. Customs Service, we completed upgrades for an advanced 
nuclear smuggling detection demonstration unit. Just recently, we 
launched the Multispectral Thermal Imager satellite, providing a state-
of-the-art system to help us ``see'' reflected and thermally radiated 
electromagnetic waves.
    The chemical and biological weapons threat is particularly 
worrisome. To meet this threat, the Department of Energy is drawing 
upon the diverse and extensive expertise of its national laboratories. 
Fortunately, we are making progress. Last year at this time, I reported 
that we possessed no simple, portable, and reliable tools for the 
detection of biological agents. Now, we are building half a dozen 
prototype devices that could soon be available for ``first 
responders,'' that is, local police, medical and other community 
officials. Our goal is to provide these first responders with advanced 
systems that have laboratory sensitivity for use in the field; we 
recently developed a battery operated, hand-held gas chromatograph, 
sensitive to parts per billion, that gives us that capability. We are 
also demonstrating and field-testing integrated chemical and biological 
protection systems for high-risk infrastructure and events, whether at 
a subway or the Super Bowl, and developing advanced genetic and 
computational tools to ``fingerprint'' biological agents, leveraging 
DOE's investment in the Human Genome Project.
    The Research and Development budget request for fiscal year 2001 is 
$233 million, representing an increase of $8 million, or 3 percent, 
above the fiscal year 2000 appropriation. This increase will allow us 
to continue to improve our abilities to detect and counter weapons of 
mass destruction programs. Our research and development programs are 
breaking new scientific and technological ground and strengthening our 
response to current and projected threats to U.S. national security.

                           PROGRAM DIRECTION

    The success of our programs is a testament to the motivated men and 
women we employ to further our critical nonproliferation missions. As 
our programs grow, so must our workforce. We also must have a 
sufficient number of Federal employees to oversee the many projects and 
activities we lead. Our program direction budget request for fiscal 
year 2001 is $41.6 million, an increase of $13.5 million, or 48 
percent, above our fiscal year 2000 comparable appropriations. This is 
a large, but essential jump. We will use this increase to hire 56 new 
Federal employees to meet our expanding nonproliferation and national 
security mission and to support augmented DOE operations at the U.S. 
embassies in Moscow, Russia and Kiev, Ukraine. By ``federalizing'' our 
workforce, we can also reduce our reliance on M&O and support service 
contractors.

                               CONCLUSION

    Mr. Chairman and members of this Subcommittee, as I am sure you can 
agree, the proliferation dangers we face today are clear and present. 
We have no room for error. I am confident that the programs we are 
advancing today will have dramatic payoffs tomorrow. The budget request 
we provide to you today puts us on the road to safety and security and 
avoids the path of danger and destruction. It also sends a clear 
message to the world community that the United States and Secretary 
Richardson will spare no effort to reduce the global danger of the 
spread of weapons of mass destruction.

                   STATEMENT OF ADM. FRANK L. BOWMAN

    Senator Domenici. Now, Admiral Bowman, would you like to 
talk to us about your program, please, and what you need?
    Admiral Bowman. Yes, sir. Mr. Chairman, distinguished 
committee members, I know the next time I testify in the wake 
of Tom Gioconda I am going to bring some artifacts with me so 
not to be upstaged by all of these trinkets Tom brought.
    Senator Craig. A sub will not fit in this room.

                         NAVAL REACTOR PROGRAMS

    Admiral Bowman. Naval Reactors, Mr. Chairman, as you know, 
was organized in the late 1940's by Admiral Rickover with the 
visionary concept of cradle-to-grave responsibility for all 
aspects of maintaining and operating the Navy's nuclear-powered 
fleet. It is a centrally managed, single-purpose organization 
with clear lines of authority, responsibility, and 
accountability for all aspects of its operation. Naval Reactors 
has enjoyed the benefit of the full support of Congress over 
these years. As a result, the country has benefited.
    The program's basic structure, policies, and practices were 
preserved in an executive order signed by President Reagan upon 
Admiral Rickover's retirement in 1982. The fiscal year 2000 
National Defense Authorization Act specified this executive 
order as the charter for naval reactors within the new National 
Nuclear Security Administration and, similar to the fiscal year 
1985 National Defense Authorization Act, mandated that the 
provisions of the naval nuclear propulsion executive order 
remain in full force until changed by law. Adherence to the 
tenets of this executive order have been key to naval reactors' 
operational excellence and unsurpassed record of safety.

                       NAVAL REACTORS OPERATIONS

    Specifically, Mr. Chairman, our nuclear Navy has now 
steamed safely over 119 million miles in the ocean, equivalent 
to nearly 5,000 times around the globe. We are responsible 
today for 103 operating nuclear reactors, equal to the number 
of commercial reactors in this country. We have accumulated 
over these years over twice the operating experience of the 
United States' commercial power industry and over half the 
operating experience of the entire commercial power industry 
worldwide. Our outstanding and fully public environmental 
record enables our ships to visit over 150 ports worldwide, 
visits that are absolutely critical to our Nation's forward 
presence and deterrence strategy and ability to project power.

                      NAVAL REACTORS ORGANIZATION

    Last summer, as the Senate Armed Services Committee was 
considering the issue of reorganization of the Department of 
Energy, both former Senator Warren Rudman and retired Admiral 
Hank Chiles recognized the importance of Naval Reactors' 
organizational structure to its success and to national 
security in their testimony. Admiral Chiles specifically 
testified, ``I want to state emphatically that Naval Reactors, 
the DOE arm of the Naval Reactors program, is carrying out its 
mission in an exemplary manner. Therefore, I strongly recommend 
that you retain Naval Reactors' authorities, responsibilities, 
and structure.''
    This was, of course, done in the implementation of title 32 
of the National Nuclear Security Administration and, Mr. 
Chairman, I want to thank you personally, as well as the 
committee and your staff, for your continuing efforts in 
support of the Naval Reactors program and its basic tenets. The 
country and our Nation's security will continue to benefit from 
your actions.
    If I may quickly recount some facts about the Naval 
Reactors' program in our fiscal year 2001 DOE budget request, 
today's Navy operates 83 nuclear-powered warships and one 
nuclear-powered research submarine and, as I discussed earlier, 
we oversee 103 operating reactors. Nine of our 12 country's 
aircraft carriers are nuclear-powered, giving us the capability 
to sprint where needed and arrive on-station ready for 
sustained power projection.
    Last year was the first full year of a 15-year DOE 
laboratory development effort on the new reactor plant for this 
carrier of the 21st Century, called the CVNX.
    All 56 of our country's attack submarines are nuclear-
powered. They possess inherent characteristics such as stealth, 
endurance, mobility, fire power, multimission capability, which 
afford unfettered access to contested battle space 24 hours a 
day, 7 days a week, 24/7, as we say today.
    Once there, submarines can surveil new or emerging 
adversaries undetected and provide timely insight on their 
intentions and capabilities to policymakers without risk of 
political escalation. This is particularly valuable, since many 
of the world's bad actors today understand their own 
vulnerability to satellite reconnaissance and often are able to 
employ deceptive means to cover it.
    Usefulness of these traits has resulted in the near 
doubling of the intelligence surveillance and reconnaissance 
tasking requirements over the last 10 years for our attack 
submarine force. While those same numbers of attack submarines 
have decreased by nearly 40 percent. Should tensions escalate, 
submarines can also execute Tomahawk strikes from undisclosed 
locations without warning, often from inside an adversary's 
defensive umbrella.
    I predict that in the future we are going to demand more 
and more of these first-in, last-out, versatile platforms. It 
is worth noting that the Joint Staff, in conjunction with our 
unified war-fighting CINC's, recently completed an exhaustive 
study of attack submarine missions and force structure. That 
study reconfirmed that submarines are far from being cold war 
relics.
    In fact, I was with Senator Lieberman just yesterday in 
Groton, Connecticut, at the unveiling of a centennial stamp 
collection in honor of the U.S. Submarine Force. Senator 
Lieberman in his remarks called the attack submarine a sunrise 
system for this country, certainly not a sunset system. They 
provide unprecedented multimission capability, and will 
continue to be a significant value as we execute the national 
security strategy in the challenging decades ahead.
    The design of the reactor plant for today's new attack 
submarine, the Virginia class, will be about 93 percent 
complete at the end of fiscal year 2001. Today, 90 percent of 
the components for that lead ship have been already delivered 
to the ship-builder. Overall, ship construction is 25 percent 
complete and is on schedule. All 18 of our Ohio-class Trident 
ballistic missile submarines are nuclear-powered. They remain 
the most survivable leg of the Nation's strategic deterrence 
triad.

                    FISCAL YEAR 2001 BUDGET REQUEST

    Our DOE budget request for fiscal year 2001 is $677.6 
million, less than 4 percent of the DOE budget request, and 
less than 1 percent of the prospective total defense budget of 
the country. I believe our record says this is a pretty good 
investment.
    Our DOE 2001 budget request is about $11 million less, 
about 2 percent less in real dollars than our fiscal year 2000 
request. Naval Reactors is a very lean organization. We 
continually scrub our operating and infrastructure 
requirements. For example, we have downsized our DOE 
laboratories, we have shut down six of our eight land-based 
research and development prototypes, and we continue to look 
for ways to save.

                           PREPARED STATEMENT

    The Office of Naval Reactors within the Department of 
Energy transferred into this new NNSA on March 1, 2000. There 
have been no interruptions in program operations or support for 
the Navy, nor will there be. Naval Reactors' operations in our 
DOE budget request are outlined in more detail in my written 
statement.
    Thank you again for your continuing support.
    [The statement follows:]

               PREPARED STATEMENT OF ADM. FRANK L. BOWMAN

    Thank you for inviting me to testify on Naval Reactors' fiscal year 
2001 Department of Energy budget request.
    Naval Reactors is a centrally managed, single-purpose organization 
with clear lines of authority and total responsibility and 
accountability for all aspects of Naval Nuclear Propulsion. As the 
Director of Naval Reactors, I have direct access to the Secretary of 
the Navy and to the Secretary of Energy. Naval Reactors' principal 
mission is to provide militarily effective nuclear propulsion plants to 
the U.S. Navy and to ensure their safe, reliable, and long-lived 
operation.
    Under the visionary leadership of Admiral Hyman G. Rickover, Naval 
Reactors was organized in the late 1940's with the concept of cradle-
to-grave responsibility. Upon Admiral Rickover's retirement in 1982, 
President Reagan signed Executive Order 12344 with the express purpose 
of ``. . . preserving the basic structure, policies, and practices 
developed for this program in the past. . . .'' The fiscal year 2000 
National Defense Authorization Act specified the Executive Order as the 
charter for Naval Reactors and, similar to the fiscal year 1985 
National Defense Authorization Act, mandated that ``. . . the 
provisions of the Naval Nuclear Propulsion Executive Order remain in 
full force and effect until changed by law.'' The charter, as 
incorporated within Title XXXII, maintains my responsibility for all 
aspects of the Program, including the following:
  --Research, development, design, and construction;
  --Operation, operator selection and training, maintenance, and 
        disposal; and
  --Administration (e.g., security, nuclear safeguards, transportation, 
        public information, procurement, and fiscal management).
    Operating within the tenets of the Executive Order, the Naval 
Reactors Program has a flat organization with clear, simplified lines 
of authority and a culture of technical, managerial, and fiscal 
excellence. The longevity of its senior managers and staff ensures 
continuity of expertise through the extremely long lives of the nuclear 
propulsion plants it builds and supports. The Program has compiled an 
unparalleled record of success, including the following:
  --Nuclear-powered warships have safely steamed over 119 million 
        miles--equivalent to nearly 5,000 trips around the Earth.
  --Naval Reactors is responsible today for 103 operating nuclear 
        reactors. For perspective, this is equal to the number of 
        licensed commercial power reactors in the United States. In 
        addition, over the years, we have accumulated over twice the 
        operating experience of the U.S. commercial power industry. 
        Naval reactor plants have accumulated over 5,100 reactor-years 
        of operation, compared to about 2,400 for the U.S. commercial 
        industry. In addition, our operating experience is about half 
        that of the entire commercial power industry worldwide (our 
        5,100 reactor-years compared to about 9,200 worldwide--
        including the United States).
  --Naval Reactors' outstanding (and fully public) environmental record 
        enables our ships to visit over 150 ports around the world--
        critical to our Nation's forward-presence strategy and ability 
        to project power.
    Both former Senator Warren Rudman and Admiral Henry G. Chiles 
recognized the importance of Naval Reactors' organizational structure 
to its success and to national security in testimony before the full 
Senate Armed Services Committee last June.
    Senator Rudman stated:

          We called for the integration of the DOE Office of Naval 
        Reactors into the new agency for nuclear stewardship. We 
        recommend this because we believe the ANS [now NNSA] should be 
        the repository for all defense-related activities at DOE. 
        However, we believe the Office of Naval Reactors must retain 
        its current structure and legal authority, under which its 
        director is a dual-hatted official, both a four-star admiral 
        and a part of DOE.

    Admiral Chiles also advised the Committee:

          . . . I want to state emphatically that Naval Reactors, the 
        DOE arm of the Naval Reactors Program, is carrying out its 
        mission in an exemplary manner. Therefore, I strongly recommend 
        you retain Naval Reactors' authorities, responsibilities, and 
        structure. A most important point is [that it is] crucial to 
        ensure Naval Reactors remains outside the Department of Defense 
        so the program can continue to successfully carry out its 
        regulatory responsibility. I can personally attest, based upon 
        my long and direct experience, to the success of the Naval 
        Nuclear Propulsion Program. This program is a model of how a 
        defense activity should be carried out within the Government.

    Today's Navy operates 83 nuclear-powered warships and 1 nuclear-
powered research submarine. Nuclear power enhances a warship's 
capability and flexibility to sprint where needed, and arrive ready for 
sustained power projection. The Navy has repeatedly employed the unique 
capabilities inherent in nuclear propulsion. Sustained high speed 
(without dependence on a slow logistics train) enables rapid response 
to changing world circumstances, allowing operational commanders to 
surge these ships from the U.S. to trouble spots or to shift them from 
one crisis area to another. Nuclear propulsion helps the Navy to 
stretch available assets to meet today's worldwide commitments.
  --Nine of twelve aircraft carriers are nuclear-powered-growing to 
        eleven of twelve when CVN 76 and CVN 77 enter the Fleet. 
        Nuclear-powered carriers can transit to a crisis area 
        unsupported at sustained high speed and arrive fully ready to 
        launch the awesome firepower of the airwing. Then, they can 
        sustain that presence and response without immediate 
        replenishment of combat consumables, and with tactical mobility 
        and flexibility, free from the need for propulsion fuel 
        replenishment. The future carrier, CVNX, will continue to 
        provide these benefits.
  --The 56 U.S. nuclear attack submarines possess inherent 
        characteristics such as stealth, endurance, mobility, 
        firepower, and multimission flexibility. These characteristics 
        afford unfettered access to contested battlespace 24 hours a 
        day, 7 days a week, for as long as required. Once there, 
        submarines can surveil new or emerging adversaries undetected 
        and provide timely insight on their intentions and capabilities 
        to policymakers without risk of political escalation--
        particularly valuable because many potential adversaries 
        understand their vulnerability to satellite reconnaissance, and 
        often employ deceptive methods to defeat it. The usefulness of 
        these traits has resulted in the near doubling of Intelligence, 
        Surveillance, and Reconnaissance (ISR) tasking requirements 
        over the last 10 years while submarine force levels have been 
        reduced by nearly 40 percent. Should tensions escalate, 
        submarines can also execute Tomahawk strikes from undisclosed 
        locations without warning, often from inside an adversary's 
        defensive umbrella.
        Additionally, within its Research and Development (R&D) 
            programs, the Navy is investing the R&D dollars necessary 
            to equip submarines with new and dominant technologies. The 
            Navy is developing offboard sensors (such as unmanned 
            undersea vehicles) to facilitate a clearer picture of the 
            battlespace, and is leveraging the explosion in information 
            systems technology to more readily share this insight with 
            other naval and joint forces in a timely and useful manner. 
            The Navy is working to increase payload capacity and 
            enhance multimission flexibility. These technologies will 
            be integrated into VIRGINIA Class submarines as they are 
            built, and backfitted into earlier submarines, where 
            appropriate. The Navy is also pursuing electric drive 
            technology, which will dramatically improve our acoustic 
            stealth and provide the power density required for 
            revolutionary advances in sensors and weapons.
        Finally, it is worth noting that the Joint Staff, in 
            conjunction with our unified warfighting CINC's, recently 
            completed an exhaustive study of attack submarine missions 
            and force structure. The study reconfirmed that submarines 
            are far from being Cold War relics. They provide 
            unprecedented multimission capability and will continue to 
            be of significant value as we execute the national security 
            strategy in the challenging decades of the 21st century.
  --The 18 nuclear-powered OHIO Class ballistic missile submarines are 
        the most survivable and cost-effective leg of the Nation's 
        strategic deterrence triad. These reliable, stealthy ships also 
        carry more strategic warheads than the other two legs of the 
        triad combined. These ships use only 34 percent of our 
        strategic budget and are manned by less than 1.5 percent of our 
        naval personnel.

                  FISCAL YEAR 2001 DOE BUDGET REQUEST

    Naval Reactors' principal charge, as well as the bulk of its 
resources and work, is to ensure safe and reliable operation of reactor 
plants in U.S. Navy nuclear-powered warships, enhance their 
performance, and develop improved reactor plants in support of the 
Navy's needs.
    Sustaining today's 103 operating reactors requires continuous 
analysis, testing, and monitoring of plant and core performance. 
Nuclear propulsion is a demanding technology--the harsh environment 
within a reactor plant subjects equipment and materials to the 
deleterious effects of irradiation, corrosion, high temperature, and 
pressure over a lifetime measured in decades. In addition, naval 
reactor plants must be rugged enough to accommodate ships' pitching and 
rolling; have the resilience to respond to rapidly changing demands for 
power; be robust enough to withstand the rigors of battle; and be safe 
for and easily maintainable by the Sailors who must live next to them.
    Development efforts at Naval Reactors' DOE laboratories have led to 
significant advancements. Improved components and materials, longer 
core lives, and improved predictive capabilities have allowed the Navy 
to extend the service life and intervals between major maintenance 
periods for nuclear-powered warships. The reduction in ship off-line 
time for maintenance effectively increases ship availability and, thus, 
the Navy's warfighting capability, while also reducing maintenance 
costs. Added ship availability is particularly important in the face of 
Fleet downsizing as the operational demands on each remaining ship 
increase. In the same vein, development efforts are ensuring that we 
can meet the Navy's need for extended warship lifetime.
    However, new development and analysis challenges arise as a result 
of these advancements. For example, the longer intervals between major 
maintenance periods reduce opportunities to examine and/or replace 
aging components. Thus, a more extensive analytical and testing effort 
is required to verify materials and component performance. Extended 
ship lifetime also demands exhaustive testing and performance 
enhancements to ensure that component endurance--despite potential 
corrosion and mechanical strain--can be assured for significantly 
greater than the design life. As data are gathered from deploying ships 
with long-lived reactor cores, the emphasis on this area has grown. A 
life-of-the-ship core offers extraordinary advantages in terms of ship 
availability, cost reduction, and reduction in radiation exposure and 
waste generation; however, a life-of-the-ship core eliminates mid-life 
opportunities to examine reactor components. Moreover, the adverse 
consequences of, and the cost to deal with, a flawed core or component 
would be much greater. Testing and verification, therefore, will be 
paramount to ensure that naval reactor plants will continue to perform 
safely.
    New DOE laboratory development work is focused on the next 
generation submarine reactor for the Navy's new VIRGINIA Class attack 
submarines and on a new reactor plant intended for the Navy's new CVNX 
Class aircraft carriers.
    The design of the reactor plant for the Navy's VIRGINIA Class 
submarine will be about 93 percent complete by the end of fiscal year 
2001. Currently, the design of the reactor plant for the VIRGINIA Class 
is about 85 percent complete. Today, 90 percent of the components for 
the lead ship have been delivered, all on schedule and within budget. 
The pre-reactor-fill test program has begun and is on schedule to 
support ship delivery. The forward end of the engine room module 
(including associated reactor plant systems) has been delivered from 
Quonset Point to Electric Boat for final outfitting. Overall, ship 
construction is 25 percent complete and is on schedule. The lead 
submarine incorporating this plant is expected to go to sea in fiscal 
year 2004. The VIRGINIA Class submarines will provide badly needed 
capability for the Navy at an affordable price.
    In September 1998, the Defense Acquisition Board approved the Navy 
recommendation for a new design nuclear propulsion and electric plant 
for CVNX Class aircraft carriers and authorized the beginning of 
propulsion plant design efforts. CVNX is expected to be authorized in 
fiscal year 2006 and to go to sea in fiscal year 2014 to replace USS 
ENTERPRISE (CVN 65).
    The CVNX reactor plant design will be consistent with the CVNX 
Mission Needs Statement approved in March 1996, the approved CVNX 
evolutionary strategy, and the CVNX Operational Requirements Document, 
which is expected to be approved shortly.
    CVNX is the first new carrier designed since the 1960's NIMITZ 
Class design. The new design CVNX reactor plant will build on three 
generations of nuclear propulsion technology developed for submarines 
since NIMITZ to incorporate needed advancements in warfighting 
capabilities and to significantly reduce life-cycle costs.
    Last year was the first full year of a 15-year DOE laboratory 
development effort on the new reactor plant for CVNX. Reactor plant 
design work began in earnest to support the long design and 
manufacturing lead-times required for reactor plant components and the 
CVNX ship construction schedule. Current design efforts include general 
arrangement studies, system description development, and component 
design, including sizing and system interface evaluations. Naval 
Reactors approved the first CVNX system description (steam generating 
system) last month. Current design work is focused on supporting 
procurement of long lead reactor plant forgings planned for fiscal year 
2001 and establishing the necessary system descriptions and general 
arrangements required for later design activities.
    Naval Reactors also is proceeding with the inactivation of six 
shutdown DOE developmental and training prototype reactor plants. The 
increased sophistication of computer models and the accumulation of 
operational data, along with the decrease in the need for Navy plant 
operators, have allowed the shutdown of six of the eight land-based 
prototype reactor plants. Since 1993, Naval Reactors has been 
inactivating and dismantling the shutdown plants as promptly as funding 
and manpower will allow to eliminate surplus facilities, reduce 
environmental liabilities, and contribute to positive remediation in 
three States.
    This inactivation and cleanup work is progressing well. Today, this 
effort is over 80 percent complete. The last of the prototype reactor 
plants at the Naval Reactors Facility in Idaho was defueled in fiscal 
year 1999. By the end of fiscal year 2000, inactivation at the Windsor 
site in Connecticut will be complete and regulatory approval for 
unrestricted release is expected. Two of four prototype reactors at the 
Kesselring site in New York have been inactivated and defueled, and 
dismantlement and cleanup are proceeding.
           naval reactors department of energy budget detail
Program technical requirements
    Naval Reactors' technical budget request is categorized into 
``areas of technology'' including Reactor Technology and Analysis; 
Materials Development and Verification; Plant Technology; and 
Evaluation and Servicing. This approach conveys the integrated and 
generic nature of our DOE research and development work. When research, 
development, and design work is executed in individual technology 
areas, it frequently can be both retrofitted into existing ships and 
incorporated into future ships.
  --The fiscal year 2001 request of $216.9M for Reactor Technology and 
        Analysis will ensure continuation of work on the next 
        generation reactor for the VIRGINIA Class submarine and 
        development work on the new reactor for CVNX Class aircraft 
        carriers, as well as ensure the safe and reliable operation of 
        existing reactors. The reduction in operating plant maintenance 
        periods places greater emphasis on thermal-hydraulics, 
        structural mechanics, fluid mechanics, and vibration analysis 
        work to accurately predict reactor performance and to avoid 
        problems. The continued push for longer life cores also means 
        we will continue to operate reactors beyond our operational 
        experience base for many years to come. Improved analysis tools 
        and understanding of basic nuclear data will allow us to 
        predict performance more accurately and safely through a more 
        than 30-year core life. Other efforts in this area are 
        dedicated to revising core manufacturing processes to reduce 
        cost and hazardous waste; perform reactor safety analyses; 
        accomplish component and system development efforts to support 
        the Navy's acoustic requirements; and develop improved shield 
        designs to reduce costs and radiation levels.
  --The $118.2M request for Plant Technology will allow Naval Reactors 
        to develop and analyze those systems that transfer, convert, 
        control, and measure reactor power to maximize plant 
        performance. The request reflects the requirement to design and 
        develop CVNX steam generators--the largest developed to date--
        as well as instrumentation and control equipment for the new 
        carrier reactor plant. Development of technologies in the areas 
        of chemistry, energy conversion, instrumentation and control, 
        plant arrangement, and component development will continue to 
        improve performance and address operational problems. Naval 
        Reactors is also developing components to address known 
        limitations or to improve reliability, including a redesigned 
        main coolant pump for the NIMITZ Class plants and new 
        instrumentation and power distribution equipment to replace 
        older, technologically obsolete, and increasingly hard-to-
        support equipment.
  --The $127.6M request for Materials Development and Verification is 
        the amount necessary to conduct essential material analysis and 
        testing as ships are kept in service longer than originally 
        intended, and materials are called upon to perform safely and 
        reliably over longer time periods. Effort on the core and core 
        structural materials includes testing and analysis of fuel, 
        poison, and cladding materials to verify acceptable 
        performance, as well as developing improved materials with 
        enhancements such as reduced susceptibility to corrosion or 
        swelling. Testing and development of reactor plant materials 
        also ensures reliable performance and leads to improvements 
        such as reduced cracking and stress.
  --Evaluation and Servicing ($134.0M in fiscal year 2001) decreased 
        17.2 percent from fiscal year 2000. The decrease is primarily 
        due to completion of A1W prototype defueling and reduction in 
        inactivation work at Naval Reactors Facility, Idaho, and at the 
        S1C prototype in Windsor, Connecticut. Evaluation and Servicing 
        funds the operation and servicing of land-based test reactor 
        plants and Naval Reactors' share of the Advanced Test Reactor, 
        a specialized materials testing facility operated by DOE's 
        Office of Nuclear Energy Science and Technology. Testing of 
        materials, components, cores, and systems in these plants 
        provides important technical data and experience under actual 
        operating conditions, and allows potential problems to be 
        identified and addressed before they occur in the Fleet. The 
        two operating test reactor plants and the Advanced Test 
        Reactor, with proper maintenance and servicing, will meet 
        testing needs for some time.
        Evaluation and Servicing also funds the inactivation of the six 
            prototype plants that have been shut down. Fuel has been 
            removed from all six plants, and extensive dismantlement 
            and disposal have been accomplished. Cleanup of one site, 
            the Windsor site in Connecticut, is nearly complete; 
            regulatory approval for unrestricted release is expected 
            later this year. The other shutdown prototypes are located 
            in Idaho and New York on sites that have continued use for 
            the Program. At these sites, we have defueled the plants 
            and are conducting plant and site remediation. For those 
            plants that have progressed to dismantlement, the Program 
            desires to complete the dismantlement work as promptly as 
            funding and manpower allow, consistent with published 
            environmental impact statements for those projects.

Program infrastructure and administrative requirements
    The $21.4 million in Program Direction request will cover Naval 
Reactors' 201 DOE personnel at headquarters, the Program's field 
offices, and the Idaho Operations Office, including salaries, benefits, 
travel, and other expenses. This staff maintains oversight of the 
Program's extensive day-to-day technical and administrative operations, 
while continuing to ensure compliance with growing environmental, 
safety, and other regulatory requirements, which--notwithstanding our 
excellent record--necessitate substantial effort.
    The $42.2 million in Facilities Operations (a 9 percent decrease 
compared to fiscal year 2000) will maintain and modernize the Program's 
facilities, including the Bettis and Knolls laboratories and the 
Expended Core Facility (ECF).
    The Construction funding request in the amount of $17.3 million 
principally provides for refurbishment and replacement of the Program's 
facilities. This includes continuation of West End Modification to the 
ECF Dry Cell project to allow transfer of nuclear fuel from the Idaho 
Nuclear Technology and Engineering Center to ECF for interim dry 
storage, as well as beginning the Major Office Replacement Building 
project. Overall, investment in these various projects will extend the 
lives and improve the efficiency of the Program's facilities.

                          NNSA IMPLEMENTATION

    The Office of Naval Reactors within the Department of Energy 
transferred into the NNSA on 1 March 2000. The efforts expended for 
this transition ensured that there have been no interruptions in 
Program operations or support for the Navy. Naval Reactors' smooth 
transition can be primarily attributed to:
  --The hard work of the Congress and their staffs in invoking and 
        preserving the Naval Reactors' Program charter, Executive Order 
        12344, in Title XXXII; and
  --The unique nature of the Program, which has a single-mission focus 
        with laboratories and field offices solely dedicated to naval 
        nuclear propulsion.
    Naval Reactors' Executive Order provides the Program with the tools 
necessary to ensure the continuation of its historical technical and 
managerial excellence. For example, because the Program maintains total 
responsibility for administration and because the Director has a 
mandated long term (8 years), I can ensure that areas essential to our 
Program's success (such as radiological controls, nuclear safety, 
environmental safety and health, and security) continue to be 
mainstreamed into all aspects of our daily work.

                               CONCLUSION

    The Naval Reactors Program recently moved into its second half 
century of successfully supporting the Nation's national security with 
safe and effective nuclear propulsion plants for the Navy's most 
formidable forward-deployed ships. At no time in the history of our 
Program has the value of nuclear propulsion been more clear. As the 
Navy diligently works to more efficiently meet increasing worldwide 
demands with decreasing assets, naval nuclear propulsion eases the 
strain.
    Nuclear-powered warships' long lives, ability to surge to meet 
emergent requirements, and fast transits allow our Nation to ensure 
that American forces are in place when needed. No other nation has this 
capability. To a large extent, the credit for this capability belongs 
to the wisdom of the Congress, which has consistently supported our 
Program, our ideas, and the way we conduct business.
    Naval Reactors, working with the Navy and the DOE, is committed to 
maintaining this record of excellence and ensuring that our technology 
meets the rigorous demands of the 21st century. Your support will 
continue to be needed and appreciated.

                    NAVAL REACTOR OPERATIONAL SAFETY

    Senator Domenici. Thank you very much, Admiral. I remain 
totally and absolutely convinced that your activities indicate 
a way to have safe, totally safe, nuclear power and secure your 
own--in terms of within your organization you have your own 
security.
    We have not heard of any leaks, or thefts of secrets from 
your Department and, frankly, the best reason we can put forth 
to the American people with reference to nuclear power and its 
future is to cite the record of the U.S. Navy, with 103 
reactors that are the same kind of reactors we have got in our 
inland cities, but they are afloat in the ocean, or under the 
ocean and, if something were to happen there, they are in the 
midst of all of the dangers we talk about would be right there 
in the water and almost every port in the world accepts you 
with your engines on, right?
    Admiral Bowman. Yes, sir.
    Senator Domenici. And you know, it is just amazing that the 
United States, with all of that going on, and all of that 
proof, we are walking around wondering whether we can have 
nuclear reactors in the future on the continent of the United 
States, and I use you as an example.

                      WOMEN SERVICE ON SUBMARINES

    But now I have a tough question, because one of the 
youngsters submitted a question directed at you, Admiral 
Bowman, and it says, when will women be able to serve on 
submarines?
    Admiral Bowman. Well, that is an excellent question and it 
has, unfortunately, not a short answer.
    As the former Chief of Naval Personnel, having absolutely 
nothing to do with reactor technology, I studied this issue 
very closely. I was, in fact, in that role as the Chief of 
Naval Personnel when the combat exclusion law was passed in 
1994, and I worked diligently to include women in as many of 
our combatant ships and roles as possible.
    There are many good reasons to consider bringing women into 
submarines. However, a submarine represents a very major 
challenge to our desire to integrate women fully into the Navy. 
Frankly put, it is difficult to imagine being able to achieve 
the necessary privacy that we would all feel comfortable with 
on board this very cramped and equipment-dense platform, so I 
will tell you that we are continuing to study it, but we do not 
see an immediate break-through in this.
    We do have women in the Navy's nuclear power program, Mr. 
Chairman. I am happy to report we have 100 women officers on 
board our nuclear-powered aircraft carriers today. We have on 
the order of 400 enlisted women on our nuclear-powered aircraft 
carriers working inside the Naval Reactors program, and they 
are moving into all walks of life in that regard.
    Senator Domenici. Thank you very much. That is the best we 
are going to do today, okay.
    Senator Reid. Mr. Chairman, to see the progress made, all 
you need to do is read John McCain's book about his father. Was 
it his father, or grandfather?
    Admiral Bowman. His father was a submariner.
    Senator Reid. Boy, things have changed a great deal, and 
they certainly have. I read that myself, Faith of Our Fathers.

    UNITED STATES HELPING THE RUSSIANS CONTROL THEIR NUCLEAR WEAPONS

    Senator Domenici. Thank you very much for your comment, 
Senator.
    Could I, before these young people leave, and then I will 
go right to the General, could I ask you, Dr. Gottemoeller, I 
am sitting out there and I am listening to you talk about the 
United States spending all of this money in Russia to establish 
or to open up some of their nuclear cities, to pay for some of 
their scientists, do other things for them. Maybe I would ask 
you, are you serious? Why are we helping Russia?
    Ms. Gottemoeller. That is a very good question, Mr. 
Chairman, but it is in the national security interest of the 
United States because, after the Soviet Union broke up in the 
early 1990's, we were facing the danger of a chaotic break-up 
of the enormous Soviet nuclear arsenal, and that chaotic break-
up could have led to a lot of warheads and nuclear materials 
simply walking out of Russia and ending up in the hands of 
terrorists or third countries not friendly to the United 
States.
    Senator Domenici. Including their scientists.
    Ms. Gottemoeller. And their scientists as well, because 
they were not getting paid much money, and many of them were 
poverty-stricken, and they were getting job offers from places 
like North Korea and Iran, so it is very important for us to 
step up to this challenge as a national security challenge for 
the United States. It deals with threats to our national 
security.
    Senator Domenici. General, it is a pleasure to have you.

                  STATEMENT OF GEN. EUGENE E. HABIGER

    General Habiger. It is my pleasure to be here, Mr. 
Chairman. I thank you for the opportunity. I would like today 
to run through the Department of Energy's fiscal year 2001 
budget request for the Office of Security and Emergency 
Operations. Mr Chairman, I would request my written comments be 
entered into the record, and I will keep my comments here this 
morning very brief.
    Senator Domenici. It will be made a part of the record.
    General Habiger. Thank you, sir. This past year, the 
Department took unprecedented steps to address major internal 
security problems and we have made, Mr. Chairman, significant 
progress in fixing those problems. The Cox and the Rudman 
reports provided a wake-up call that emphasized the urgency for 
needed change in the Department's approach to its security 
responsibilities.
    Our proposed budget response to this wake-up call in our 
new security organization, which was not even a figment of 
anyone's imagination last year at this time, when the fiscal 
year 2000 budget was being briefed to this committee, is also a 
result of that wake-up call.
    With your permission, Mr. Chairman, I would like to quickly 
introduce the leadership of my security team. Mr. Joe Mahaley. 
Mr. Mahaley is back behind me, sir. Mr. Mahaley is in charge of 
our safeguards and security program, and his claim to fame, in 
addition to doing a superb job since going into that job in 
1997, he got his training at the U.S. Naval Academy, so he has 
a solid foundation to do this job.
    Next is Major General (retired) Boomer McBoom. Boomer is in 
charge of emergency operations and emergency response. Boomer 
was wing commander of the F-15 outfit that was first into Saudi 
Arabia in 1990. He also served for 2 years at National Military 
Command Center, so he has got a tremendous background in 
emergency operations.
    Mr. John Gilligan. I have known John for many years. He was 
my source selection authority when I was Commander-in-Chief of 
the Strategic Command for my information technology systems. He 
came over from the Department of Defense, and is the CIO and 
Cyber Security Chief for the Department of Energy.
    And finally, but not least, Mr. Chairman, is Ms. Nancy 
Holmes. Nancy is in charge of our resource management. She is 
the one that has pulled together our budget. She has been 
working at the Department of Energy for nearly 40 years, and 
she is awesome, sir.

                    FISCAL YEAR 2001 BUDGET REQUEST

    That is the team, and each of these professionals has been 
totally involved with our fiscal year 2001 security request of 
$340.4 million that comes before this committee today. This 
request represents an increase of 16.5 percent over our fiscal 
year 2000 funding level. The majority of this increase funds 
additional requirements in cyber security, critical 
infrastructure protection, and program direction.
    The fiscal year 2000 level of $292.2 million includes an 
additional $8 million supplemental request, which is still 
working through the system. This additional $8 million is to 
provide adequate staffing for the Office of Security and 
Emergency Operations, and to support our cyber security 
initiatives.
    Next, Mr. Chairman, I would like to say a few words about 
our fiscal year 2001 budget amendment that will be submitted to 
Congress in the near future. Strong security is based on a 
foundation of clear line management authority, responsibility, 
and accountability. To do this, we must address the control and 
accountability of security activities within the Department. 
Historically, security activities were funded from overhead 
accounts at the DOE National Laboratories and other facilities. 
There was no single source for reviewing or accounting for the 
security budget.
    To remedy this, and to strengthen our ability to manage the 
responsibility of this office, in August of last year the 
Deputy Secretary directed that the DOE fiscal year 2001 budget 
request include security as a specifically identified direct-
funded activity within my office. This, Mr. Chairman, is the 
first time a unified security budget has been submitted. This 
amendment will provide the Department with the funding 
authority to help strengthen DOE, provide security, allow 
better management of funds, provide visibility to the 
Department's commitment to appropriately fund the security 
throughout the complex and, finally and most importantly, those 
responsible for security in the field will have an advocate.

                           PREPARED STATEMENT

    In closing, Mr. Chairman, we understand our security 
challenges, we understand that we must meet those challenges, 
and we will, with your support. Thank you.
    [The statement follows:]

              Prepared Statement of Gen. Eugene E. Habiger

                              INTRODUCTION

    Mr. Chairman and distinguished members of the Committee, thank you 
for the opportunity to appear before you today to testify on the 
Department of Energy's fiscal year 2001 budget request for the Office 
of Security and Emergency Operations (SO).
    This past year the Department took unprecedented steps to address 
major internal security problems and we have made significant progress 
in fixing those problems. Publication of the Cox and Rudman reports 
emphasized the urgency for needed change in the way the Department 
performed its security responsibilities. As the Rudman report correctly 
concluded, security at the Department had suffered from diffused 
authority and inattention. The confidence and trust of both the 
American people and Congress began to fade when enormous negative media 
coverage brought national attention to security-related incidents at 
the national laboratories. Combined with DOE's historical track record 
of security deficiencies, criticism of the Department as an ineffective 
and incorrigible agency incapable of reforming itself prevailed as 
public sentiment.
    The Secretary directed an abrupt end to this unacceptable situation 
and in May 1999 announced his Security Reform Package--the most 
sweeping reform of security programs in the Department's history. This 
comprehensive plan, which included the creation of the Office of 
Security and Emergency Operations, gave DOE the tools and authority 
needed to detect security infractions, correct institutional problems 
and protect America's nuclear secrets. Of paramount importance, was the 
need to change the security culture at DOE and establish a program to 
re-energize and restore confidence in the Department's security 
program.

                   FISCAL YEAR 2001 BUDGET AMENDMENT

    Today, I will focus my testimony on the current budget before the 
Committee. However, before I do that, I feel the need to say a few 
words about an fiscal year 2001 Budget Amendment that will be submitted 
to the Congress soon. This amendment will provide the Department, for 
the first time, with a unified separate budget for its safeguards and 
security program. It will provide the Department with the funding 
authority to help strengthen DOE-wide safeguards and security, allow 
better management of funds, and provide visibility to the Department's 
commitment to appropriately fund safeguards and security throughout the 
complex. We believe this action, coupled with the Department's 
commitment to change the security culture, refocus its commitment to 
security, and the establishment of the Office of Security and Emergency 
Operations, will correct institutional problems and ensure that we 
protect America's nuclear secrets.
    Strong security is based on a foundation of clear line-management 
authority, responsibility and accountability. To implement change, one 
of the first steps required was to address the control and 
accountability, or lack thereof, of security activities within the 
Department. Currently, safeguards and security activities are funded 
from overhead accounts at the DOE national laboratories and other 
facilities. There is no single source for reviewing or accounting for 
the security budget. To remedy this and to strengthen my ability to 
manage the responsibilities of this office, in August 1999 the Deputy 
Secretary directed that the DOE fiscal year 2001 budget request include 
Safeguards and Security as a specifically identified, direct-funded 
activity within SO, which the pending budget amendment will accomplish.

                    FISCAL YEAR 2001 BUDGET REQUEST

    Now, let me turn to the fiscal year 2001 budget request of $340.4 
million that is before this Committee today. This request represents an 
increase of 16.5 percent over our fiscal year 2000 funding level. The 
majority of this increase funds additional requirements in Cyber 
Security, Critical Infrastructure Protection and Program Direction. The 
fiscal year 2000 level of $292.2 million includes an additional $8.0 
million supplemental request. This additional $8.0 million identified 
in fiscal year 2000 is sought to provide adequate staffing for the new 
Office of Security and Emergency Operations and to support cyber-
security improvements.

                            SECURITY AFFAIRS

    The Office of Safeguards and Security (OSS) ensures the protection 
of the Department's Special Nuclear Material, classified information, 
and facilities against theft, sabotage, espionage and terrorist 
activity. As part of the Security Reform, we have developed improved 
security policy and provided assistance to sites in implementing these 
revised policies. We are modifying current technologies for safeguards 
and security application and developing new safeguards and security 
technologies based on identified user needs.
    For fiscal year 2001, this program's budget request of $60.2 
million reflects increases in response to the U.S. policy on 
counterterrorism, for the initial implementation of nuclear/chemical/
biological (NBC) programs across the DOE complex, by providing NBC 
protection, training and chemical/biological detection equipment. Our 
Information Security program has expanded its information assurance 
forensics analysis capabilities to support investigations and 
prosecutions of unauthorized disclosures of classified information. We 
have increased our focus on development of physical security technology 
applications to address vulnerabilities at DOE sites, and on the 
testing of delay tactics for use around the DOE complex.
    Unclassified foreign visits and assignments to Department of Energy 
national laboratories are vital to ensure that U.S. scientists remain 
knowledgeable of developments throughout the scientific world. 
Consequently at the end of last fiscal year, we established a new 
Office of Foreign Visits and Assignments. This Office has made 
tremendous strides in implementing the appropriate balance between 
enabling international scientific exchange while ensuring the 
protection of national security interests. A number of changes have 
occurred in the way we manage foreign nationals who visit our 
facilities. Specific changes include: involving counterintelligence, 
nonproliferation, export control and security officials at the national 
laboratories in the review process authorizing visits and assignments 
from foreign nationals; extending security oversight measures to DOE 
headquarters and DOE-sponsored off-site visits and assignments; 
granting the Secretary of Energy sole authority to approve visits and 
assignments from terrorist-list countries; and removing authority for 
facility directors to grant waivers of the DOE security requirements. 
Fiscal year 2001 funding will be used to upgrade a centralized tracking 
system for all foreign visitors or assignees at DOE facilities. It will 
also be used to enhance education and awareness activities at DOE 
facilities to ensure that all personnel are fully cognizant of the 
responsibilities associated with hosting foreign nationals.
    The Security Investigations program is requesting $13.0 million in 
fiscal year 2001. The request funds background investigations for DOE-
wide federal employees, headquarters support services, protective force 
contractors, and miscellaneous non-federal personnel, who, in the 
performance of their official duties, require a security clearance 
permitting access to Restricted Data, National Security Information, or 
Special Nuclear Material. Offsets of $20.0 million will be provided by 
four other program offices (Defense Programs, Environmental Management, 
Nuclear Energy, and Science). In fiscal year 2001, the offset program 
organizations will be severely impacted due to language contained in 
the National Defense Authorization Act for fiscal year 2000 (S.1059, 
Section 3144). Background investigations on individuals who are 
employed in certain sensitive positions must now be conducted by the 
Federal Bureau of Investigation (FBI) rather than the Office of 
Personnel Management (OPM) at a much higher price. There has been no 
funding increase to support our field contractor requirements. Without 
the necessary funding, the Department may need to submit a notification 
letter to Congress regarding a program funding increase for the third 
year in a row.

                            DECLASSIFICATION

    Under the authority granted in Public Laws 105-261 and 106-65, the 
Office of Nuclear and National Security Information continues its 
program to review other-agency documents scheduled for declassification 
under Executive Order 12958, to determine if they contain sensitive 
nuclear design information, i.e., Restricted Data and Formerly 
Restricted Data. The office also continues its effort to declassify the 
Department's own archived documents under the President's Executive 
Order on classification and declassification. Our responsibility to the 
American people under these initiatives is twofold: protecting the 
nation's most sensitive nuclear design information from inadvertent 
release; and eliminating excessive secrecy through the declassification 
of documents not warranting protection.
    The declassification budget request for fiscal year 2001 is $4.2 
million more than our fiscal year 2000 appropriation, representing a 25 
percent increase over the fiscal year 2000 funding level. The majority 
of this increase is required to implement Public Law 106-65, section 
3149, which supplements Public Law 105-261 and requires the Department 
to audit an additional 450 million pages of documents at the National 
Archives and Records Administration (NARA) which have already been 
declassified by other agencies and designated for release by NARA. To 
date, the Department has audited in excess of 64 million pages of 
documents under these two statutes and, in the process, has discovered 
erroneously declassified documents containing Restricted Data and 
Formerly Restricted Data. To date, the audits have prevented the 
inadvertent release of significant amounts of sensitive nuclear weapon 
design information.
    Also in support of its program under Public Law 105-261 and Public 
Law 106-65, the Office of Nuclear and National Security Information 
conducts Restricted Data/Formerly Restricted Data training courses for 
other-agency declassification reviewers. These courses are designed to 
alert other-agency reviewers of the presence of critical nuclear weapon 
design information which may be embedded in documents earmarked for 
declassification. We have already trained over 1,000 reviewers; during 
this fiscal year, over 150 reviewers have attended these training 
courses. We project an additional 500 reviewers will attend the courses 
through the end of this fiscal year.
    As hundreds of millions of pages of data are reviewed for release 
throughout government, the Department's program to ensure the 
appropriate protection of information so vital to the nation's security 
must be maintained.

                   CRITICAL INFRASTRUCTURE PROTECTION

    The Department created the Office of Critical Infrastructure 
Protection to direct DOE's responsibilities under the national mandates 
of Presidential Decision Directive 63 regarding work with industry to 
develop and implement a plan to protect against, mitigate, respond to, 
and recover from attacks that would significantly disrupt the nation's 
energy infrastructure. The fiscal year 2001 request of $13.0 million 
supports policy and R&D activities necessary to fulfill these 
responsibilities.
    An important DOE mandate is to assure reliability and security of 
the energy grid. The nation's energy infrastructures (electric power, 
oil and gas) are susceptible to threats from natural, accidental, and 
intentional sources. The threats are directed at both physical and 
cyber assets of the energy sector. Recent trends toward increasing 
complexity and interconnectedness of the energy sector serve to 
increase the potential for significant disruptions to energy supply, if 
an element of the infrastructure is damaged, destroyed, or otherwise 
compromised. Because the energy grid is the life blood of our nation's 
critical infrastructures, such significant disruptions can have major 
impacts on the economy, human health and safety, and national security. 
Operating under the guidance of PDD-63, DOE funds activities to address 
and remedy the energy sector's vulnerability to the increasing 
diversity of threats.
    Focused on the thrust areas of Analysis and Risk Management and 
Protection and Mitigation Technologies, the critical infrastructure 
program will result in real-time control mechanisms, integrated multi-
sensor and warning systems, and risk management and consequence 
analysis tools that will help the national energy sector address the 
physical and cyber threats to, and vulnerability of, the energy 
infrastructure. DOE also will develop infrastructure interdependence 
tools to improve the capability to assess the technical, economic and 
national security implications of cascading energy infrastructure 
disruptions and to improve the reliability and security of the nation's 
interdependent energy grid. This program will involve collaboration 
between DOE and the major stakeholders, including private sector owners 
of energy elements, other federal agencies involved in critical 
infrastructure protection, and state and local governments. The 
capabilities of the national laboratories, academia, and private 
research organizations will be used to develop and implement the 
program.

                             CYBER-SECURITY

    When our office was established in July 1999, a single cyber 
security organization, under the direction of the Chief Information 
Officer, was included to address the pervasive lack of attention to our 
cyber security practices in a world of increased computer hacking and 
cyber terrorism. The $30.3 million requested for the Cyber Security 
Program in fiscal year 2001 is an increase of $17.0 million over the 
fiscal year 2000 request. This increase provides policy and planning, 
training, technical development, and operations to provide consistent 
principles and requirements that line management can implement for the 
protection of classified and unclassified information used or stored on 
Departmental Information Systems. The policies for the protection of 
this information will ensure that classified and unclassified 
information is protected consistently across the various elements of 
the Department in a cost-effective manner and consistent with the 
protection of this information in paper form.
    A goal of the program is to implement enterprise-wide training to a 
broad audience of individuals responsible for implementing Cyber 
Security programs and protection measures. These include, but are not 
limited to managers, system administrators, Cyber Security 
professionals, and general users. Training will use commercial and 
government off-the-shelf materials where available. The fiscal year 
2001 request provides for an increase in Computer Incident Response 
Capability (CIAC at LLNL) from 15 to 25 contractor staff to provide 
cyber security incident response, analysis of cyber intrusions and 
attempted intrusions, and warning capability for the Department.
    A large portion of the funds will support the Cyber Security Core 
Architecture engineering and deployment, which will enable the program 
to implement baseline Cyber Security capabilities at 12 sites. The 
Public Key infrastructure (PKI) Initiative started in fiscal year 2000 
will be enhanced to operate and expand inter-site PKI capability for 
the protection of unclassified data in transit, as well as limited 
capability for protection of unclassified data in storage. The PKI 
Initiative will also provide Departmental infrastructure to support 
token or biometric authentication.
    The program will also provide for Departmental cyber security tools 
and capabilities to support the establishment of a limited testing 
capability for commercial off-the-shelf (COTS) cyber security products 
prior to being deployed in the Department. There is a continuous need 
to evaluate and potentially modify COTS cyber security products: (1) to 
ensure that the application of these products does not significantly 
interfere with primary organizational or computer missions, and (2) to 
identify weaknesses in COTS products that must be mitigated to ensure a 
consistent, comprehensive cyber security implementation.

                          EMERGENCY OPERATIONS

    The fiscal year 200l budget request for the Office of Emergency 
Operations is $93.6 million. This represents a $5.94 million technical 
adjustment over the fiscal year 2000 appropriation. This adjustment 
restores much needed funding for the Radiological/Nuclear Accident 
Response program.
    The Office of Emergency Operations serves as the central 
organization within the Department of Energy for all emergency 
functions. To carry out this role, the office employs the necessary 
command, control and communications capabilities augmented by trained 
response personnel to ensure the successful resolution of an emergency 
event affecting Departmental operations and activities. In addition, 
the office ensures that the Department's seven unique assets (Aerial 
Measurement System, Atmospheric Release Advisory Capability, Accident 
Response Group, Federal Radiological Monitoring and Assessment Center, 
Nuclear Emergency Search Team, Radiological Assistance Program and 
Radiological Emergency Assistance Center/Training Site) are in place to 
provide an appropriate response to any DOE facility or nuclear/
radiological emergencies within the U.S. or abroad. These capabilities 
are organized into an integrated set of radiological emergency response 
assets which provides overall program management and the organizational 
structure during both emergency and non-emergency conditions for the 
personnel, equipment, and activities that collectively comprise the 
program.
    For fiscal year 200l, by prioritizing our program efforts, we will 
continue to improve and expand our capabilities to effectively plan for 
and respond to an emergency event. For example, we will: increase the 
number of Department-wide drills and exercises and evaluate our 
readiness to implement the Department's emergency management system; 
improve our atmospheric release plume modeling capability; expand the 
number of sites and technical features of the Emergency Communications 
Network; and increase our training of emergency management personnel at 
the Emergency Operations Training Academy.

                           PROGRAM DIRECTION

    The fiscal year 2001 request for Program Direction of $89.4 million 
will provide the salaries, benefits, travel, support services, and 
related expenses associated with overall management, oversight, 
staffing and administrative support necessary to carry out the Security 
and Emergency Operations Program. This represents an increase of $7.6 
million over the fiscal year 2000 appropriation and requested 
supplemental. The requested increase in funds would provide additional 
staff and cover their associated costs (including inflation).

                               CONCLUSION

    Today, the Department has raised its level of consciousness 
regarding security activities that led to the deterioration of security 
awareness and education. We now function in a security environment 
decidedly different from the one we faced a decade earlier. We cannot 
directly control or alter the threats to the security interests 
entrusted to our care. What can be controlled, however, is our ability 
to plan, train, and respond should these threats ever materialize. The 
changing security environment and other threats over the past decade 
have fundamentally altered the Department's security perspective and 
posture. This is a significant challenge, but one that the Department 
of Energy must be prepared to meet.
    The bottom line is clear . . . The Department has made significant 
progress over the past year in standing up a new security organization. 
We're seeing a change in the culture and an improved level of security 
awareness. With the support, cooperation and buy-in of other program 
offices across the DOE complex, the initiatives that the Secretary has 
put forth are working. Our professionals are committed to serving their 
country in an environment that produces the very best science within a 
framework of security that is effective, but not unjustifiably 
intrusive.

                       NATIONAL IGNITION FACILITY

    Senator Domenici. Thank you very much, General.
    Senator Reid.
    Senator Reid. Thank you a lot, Mr. Chairman.
    General, one of the questions was answered--I guess when I 
say General, I have to identify the General. Like when people 
say Senator around here, everybody turns around.
    General Gioconda, you answered a question that I had as to 
when the new NIF baseline will come up, and you said around 
June 1.
    General Gioconda. Sir, that is the reporting requirement. 
Secretary Richardson has made a commitment, understanding your 
accelerated mark up schedule, to provide to you, as early as 
possible the NIF options.
    In fact, this afternoon I am meeting with the Secretary to 
go through the options that have been developed and take him 
through several weeks of work outlining what options are 
available. They range from zero, no continuation, to all the 
way through full funding to get the program back on track.
    Senator Reid. General, I hope that you heard not only what 
I said, but how I said it. I personally feel we have really 
been misled. We were working under very tight budget 
constraints and we were promised, and we said, is this going to 
work out, and I think we were misled.
    They recognized once we started we never stop anything 
around here. Well, that is not quite true. We have stopped 
things, and when I mentioned the Superconducting Super 
Collider, that was a tough thing that we did, but I think NIF, 
unless we get that resolved, there is going to be more than 
this Senator concerned about it. This is something, I can just 
see how this is going to develop on the floor. I hope you got 
that message.
    General Gioconda. Yes, sir. There are three steps we have 
been engaged in with NIF, and when you say you have been 
misled, that is quite frankly how the Secretary feels. He made 
his speech that it was on-cost, on-schedule, and it was not 
communicated to Defense Programs, nor was it, obviously, 
communicated to the Secretary. The first thing that the 
Secretary had to do, was determine the program, who do you 
trust and what is the truth.
    Then he had to put together a management team to develop 
the options that you can rely on if you were to move forth with 
the program, and that is kind of the step we are in now. Many 
people have been reassigned, moved out of their jobs, resigned, 
and been told, quite frankly, their performance was 
unacceptable.
    Next, I believe, we have put together, a good management 
team. We have put in the hands of the lab what they are world-
class at, which is science, and we have put in the hands of 
people who are world-class in integration, which is not the 
lab, and that is what got them in trouble. Now what we are 
figuring out is the path forward, and that is what we owe you.
    Senator Reid. General, I am not saying this because 
Secretary Richardson is from New Mexico, or that the chairman 
of the subcommittee is from New Mexico. But I really feel, 
again speaking only for me, that I have gotten better 
information from the two labs in New Mexico on a continual 
basis than I have from the outfit in California, and I am going 
to take a real close look at programs that emanate from that 
facility. I have the distinct impression that they feel they 
own this subcommittee, and they should understand, all those 
within the sound of my voice, that they do not.
    General Gioconda. Sir, what I would like to offer, if I 
could at this point in the record, is to give you, when the 
Secretary approves, two white papers, one classified and one 
unclassified, on NIF, what its requirements are, how it fits 
Stockpile Stewardship, and how it relates to the rest of the 
program. When that is approved by the Secretary, sir, I would 
like to offer that to you, because I think that is important to 
what you are saying--how NIF relates to all of Stockpile 
Stewardship, and how all of stockpile stewardship relates to 
each other.

                        DEVICE ASSEMBLY FACILITY

    Senator Reid. I know the chairman has so many things to do, 
but I have another question or two that I would like to ask.
    We constructed at the Nevada Test Site, at great expense, a 
Device Assembly Facility. We did that because the original 
facility was real close to the perimeter. It was reachable, and 
this is something we were very proud of. Well, it has not been 
used much at all since we spent a large amount of money 
building it. It is only 20 to 25 percent, at best, utilized 
today.
    I would like you to take a look at this facility and have 
your people give me a report as to what can be done to more 
fully utilize this facility. The Department's combined budget 
request for national security for next year is about $7 
billion, and it seems that this facility simply isn't being 
used at all, so I would like you to get back to me on that.
    Senator Domenici. Could it be back to the committee?
    Senator Reid. Yes, please. Of course.
    General Gioconda. Sir, our Albuquerque Operations Office 
and our Nevada Operations Office are doing that right now as 
part of our infrastructure plans. So yes sir. We will get it 
back to you.
    [The information follows:]

                        DEVICE ASSEMBLY FACILITY

    The Device Assembly Facility (DAF) at the Nevada Test Site (NTS) 
was designed to assemble test devices for underground nuclear tests. 
With the cessation of underground testing, new missions have been 
sought for the facility. Currently there are four mission assignments 
for the DAF: (1) support to the subcritical experiments; (2) readiness 
to resume underground nuclear tests; (3) readiness to receive damaged 
U.S. nuclear weapons; and (4) plutonium target assembly for the JASPER 
two-stage gas gun. Additional long-term missions for the DAF are being 
studied by the Los Alamos and Lawrence Livermore National Laboratories 
in conjunction with the Albuquerque and Nevada Operations Offices. 
Activities being looked at are those which would add strength to the 
current NTS mission and help build and maintain a cadre of experienced 
nuclear explosives technicians and engineers such as stockpile 
surveillance activities including advanced aging units, drop testing, 
limited dismantlement, shelf life evaluation, and other lab research 
and developments. The DAF is also being considered as an alternative 
for the relocation of the Los Alamos Critical Experiments Facility now 
in Technical Area 18 at the Los Alamos National Laboratory and as a 
possible monitored disassembly facility under future arms control 
regimes.

    Senator Reid. Mr. Chairman, I have a series of questions 
that I will submit. As you know, I have spoken to you on the 
Atlas, the pulse power facility. I have a significant number of 
questions on that that I would like you to focus some attention 
on. I think that again, for whatever reason, I was told certain 
things. We put certain things in our last bill. They just have 
been ignored. I would like you to take a look at that.
    Senator Domenici. I think that is really important. We went 
through a lot of effort last year to work on this, and it looks 
like it is not happening. We just have to know all about it. We 
would like to know why.

                          INTEGRATED STRATEGY

    General Gioconda. You are talking about the megastrategy or 
integrated strategy?
    Senator Reid. Yes, with particular emphasis for me on the 
Atlas program.
    General Habiger, when can we have an exact date for the 
security budget, your security budget? When are you going to be 
able to do that?
    General Habiger. Mr. Chairman, that budget left the 
Department of Energy 2 weeks ago. It is now over in the Office 
of Management and Budget. We are going over there today to try 
to break that loose, and I cannot give you a date, sir.
    Sir, I should have had this over here 2 months ago, and I 
am very frustrated that it is not here.
    Senator Reid. Well, I think we are very fortunate, and I 
speak for all four of you here. I mean, I think that if people 
knew the quality of folks that we had running this most 
important part of our national security, our Government today, 
they would be and should be very proud and I think this is a 
great collection of minds, with a lot of experience, and I am 
very happy to be working with you.
    Mr. Chairman, Thank you.

                        NEED FOR FUNCTIONAL NNSA

    Senator Domenici. General Habiger, I am not sure, because 
of time, that I will get around to questions. I will probably 
submit them to you, but let me suggest that you probably have 
done the best job, looking at the past, of trying to 
consolidate the office that you have alluded to, the security 
office, but I still want to tell you what I believe.
    I believe that the office is going to be no better 
ultimately than the management scheme for nuclear weaponry 
within the Department of Energy. I believe it is subject to so 
many cross-currents of regulations, that is, the function that 
we would try to isolate and call nuclear weaponry, that it is 
almost impossible for anybody to truly have their hands around 
security or anything as generic as that, and that is why we--
will ask the Secretary, but that is why we believe it is very 
important that the law that we pass be complied with, and that 
we begin the structural reform.
    You heard the Admiral. Now, they are not comparable 
programs, but you heard that everything to do with the naval 
reactor program is under one person, one commander, all of it--
security, production, management, the whole scheme, and to a 
very real extent we have watched in the past when a problem 
comes up in the Department, a new box is created, and I am not 
suggesting your box, because you could probably put something 
together that would describe it better than the rather profound 
word, box, but we watched it, and that is what happens.
    A big problem occurs, and a new box is created, but it gets 
lost when it comes into contact with the proliferation, the 
pieces of the Department that want to get a piece of the action 
of what is going on. I want you to know that it is my plain, 
simple evaluation that there will be an NNSA in full function 
soon and it will be sooner rather than later, because whether 
we can make it work with Secretary Richardson, who has a couple 
of very big concerns--and it is just a matter of time, but it 
is going to be done.
    And so I urge that as you put this apparatus together and 
suggest a new budgeting approach where you are going to do more 
harmonizing, I hope you will look at the statute on NNSA and 
make sure that you are not building something that will have 
difficulty fitting into that, because I assure you that when 
you send it up here we are going to look at it that way, and 
this is one Senator--and I think on this score I will be 
listened to.
    I am not going to address your amended request if I see 
this as building a brand-new box that is to be independent and 
will not fit into the NNSA that we modeled somewhat after 
theirs, but certainly Admiral Chiles and others know that it is 
different than yours, so we created what is necessary, it 
seems, to try to do a better job for the next decade.

               ADEQUACY OF STOCKPILE STEWARDSHIP PROGRAM

    Now, General Gioconda, I have a lot of questions, but what 
I am really concerned about is the adequacy of the 2001 budget. 
Even though we all sit here and say, isn't it good, it has got 
an increase in it, you yourself must be familiar with some 
things that are pretty critical that we may not be able to do 
under this budget that we ought to be doing. I wonder if you 
could tell us a few of those.
    General Gioconda. Sir, the one thing, and thank you for the 
very kind words about Dr. Reis. As an Italian, he is still my 
godfather.
    Sir, the three things that have to be the priority in 
stockpile stewardship is what I call people, places, and 
process. The first is the people. If we do not attack that 
issue, to get the next generation trained, make sure the people 
believe this is a vital national issue and stay with the 
program. This budget, there is not enough to do that, but we 
are working on the plans to do that.
    The second thing is, places, infrastructure. As you 
mentioned, if you look back at the history of Stockpile 
Stewardship in the last 5 years, the thing that has caused us 
the most problems is start-up of infrastructure. It has not 
started up very gracefully.
    If you look at the way we designed new infrastructure--we 
built a new weapon, then the infrastructure was updated as the 
new weapon flowed through the system. Well, since we do not 
have that forcing function any more, we have to figure out how 
we are going to update the infrastructure. With 50 to 60 
percent of the current stockpile coming through the complex for 
refurbishment, we need to do that very quickly.
    The third part is the process, which drives the other two. 
We have to make sure that we have a process that is based on 
requirements, requirements that can stand your review, our 
review, and go forward on those. I think we now have the 
process. Those other two areas, infrastructure and people, 
quite frankly, have paid the price any time we've gotten in a 
budget crunch.
    Senator Domenici. Well, while we look at some very 
important issues regarding the maintenance and our ability to 
attract the expert personnel we have to look at some very 
mundane-type things, because they are very adversely affected 
by polygraph, the polygraph positions of the U.S. Government, 
and limitations on laboratory research and development and 
travel.
    I have some very specific questions, but I will submit 
them, but essentially I am very hopeful that we are developing 
a polygraph sense about the laboratories that is way, way far 
from let's have polygraphs for everybody, and that it will not 
be that. It will be a program that is directed at polygraphs 
being an integrated approach to try and do better surveillance 
of the activities of our scientists and those in the labs. You 
are developing that.

                            POLYGRAPH TESTS

    General Gioconda. Sir, I consider myself the spokesman for 
that in the Department, and just recently we have had several 
meetings with the lab directors present. General Habiger has 
been there, and we sat down and worked out the details, and so 
the implementers understand what they are implementing.
    I have taken a polygraph, after 30 years in the Air Force, 
to understand what it is all about, and we are going through 
that step-by-step. We are not trying to jump ahead. We are 
trying to make sure this is all integrated but it is a very 
fragile area of trust.
    Senator Domenici. I think it is very important that either 
you or the lab directors, as soon as practicable, begin to 
communicate with the workforce, that in fact this is evolving, 
and whatever they have read--and we are not there yet, so they 
do not assume they are working just 2 or 3 more years trying to 
get the hell out of here, as some would say, because I do not 
want it to be part of my Ph.D. career to end up with me having 
to take polygraph tests every year, and so I hope we can 
communicate that is a very, very big morale problem.
    Now, also, regarding travel, we had a series of questions, 
but let's just say, you and I and everybody running the 
Department knows that people in the laboratory have to travel, 
right? It is just part of being a great scientist, a great 
engineer, a great manager of programs. They have got to get out 
and interact with others. That is part of the academic aspect 
of their lives, and they have to travel to foreign countries, 
which some people around do not want that to happen, either, 
but they have got to.
    In fact, any prohibition that they cannot go to Taiwan or 
communist China, somebody is going to look at that after a 
while and say, now, who is winning and who is losing in this 
exchange program, so for the record, you all are concerned 
about that, are you not, and you are trying to put something 
together that is realistic, yet not as ambitious as they have 
had in the past. It was too ambitious and too costly.
    General Gioconda. Sir, my comment on travel is, we have 
just got to ask the questions that need to be asked before 
someone travels. We can't assume the dollars are there. We need 
to take the GAO comments and implement a process, and then I 
think, sir, that can withstand anyone's scrutiny.

                           TRITIUM PRODUCTION

    Senator Domenici. We had an option called accelerator 
production of tritium that was a back-up to using a reactor, 
and incidentally I compliment the entire Department on the 
success of using the reactor system of the TVA. I never thought 
we would clear that program that easily but I assume, 
environmentally and otherwise, that people have looked at it 
objectively instead of with some of the typical emotionalness, 
and we are going to proceed.
    General Gioconda. Sir, the only hurdle we have left is the 
NRC licensing, and that is the paperwork we are doing this 
year.
    Senator Domenici. NRC licensing has become a much more 
positive and realistic activity in the past 2 or 3 years, and I 
take a little credit for that, and I am proud of it, but I 
think they are doing pretty well.
    We are thinking about a composite that will involve 
continuation of accelerator research and include transportation 
of waste. We think there is a real chance at this point, when 
we are worried about energy and our dependance, that we would 
take a real serious look at the science of transportation as 
well as alternatives for tritium and other things an 
accelerator can do. We are going to try to put a program 
together and submit it to you all for your analysis.
    General Gioconda. We in Defense Programs support that. I 
resisted the temptation to take the money, because I am blessed 
with two really good programs that are working very, very well.
    No action was taken against the APT program as a bad 
program. In fact, it was excellent. It made the choice hard. We 
cut the design capability. We put that in the back seat, and we 
went on with the engineering because that is important, and we 
are trying to link up with other parts of the Department to 
have that program continue, and Defense Programs wants to be a 
part of that.

                       NUCLEAR WEAPONS PRODUCTION

    Senator Domenici. I think we ought to state here for the 
record and in public that, contrary to impressions and 
accusations, as the head of stockpile stewardship and your 
position in the Department, the United States of America to 
your knowledge, and certainly to my knowledge, is not producing 
any new nuclear weapon, right? We're not manufacturing any new 
weapons?
    General Gioconda. Absolutely not, sir.
    Senator Domenici. And we are continuing to develop a budget 
that is predicated upon that premise that we are not going to 
build any.
    On the other hand, the Russians, they keep their stockpile 
safe, et cetera, by building new nuclear weapons. That sounds 
strange to Americans, but they build a completely different 
nuclear weapon, and so they rebuild them. Are you satisfied, in 
your position, that there is no significant disadvantage to the 
United States, in the current posture of them building new ones 
to keep theirs solid and solvent, and us doing ours under 
stockpile stewardship and replenishment of parts?
    General Gioconda. Sir, as long as I carry out the second 
part of my mandate, which is to maintain a design capability 
and work on that, then I believe that our program, our 
scientists, our great minds, and our production people will 
stay sharp--then I think we're okay. But if I just do half, and 
just fall asleep at the switch, then I will have problems.
    But right now, sir, I am confident we are doing the right 
thing.
    Senator Domenici. General, let me suggest that one thing we 
are least capable of doing as a people, probably because of our 
governance style, is to maintain an effectiveness that is not 
needed. We just have a very difficult time saying, let's keep 
the Nevada Test Site ready. I mean, it is hard for us to put 
money into that kind of a thing, just like it is to put money 
into maintaining great scientists who are not doing the design 
and keeping that workforce.
    I think it is a very important part of your role, and I 
think every chance you get you ought to make sure you analyze 
it from the standpoint of us not cutting corners with reference 
to the parts of the Department that are attractive to those 
people we may need if ever this approach is not working.

                 LONG-TERM STOCKPILE STEWARDSHIP BUDGET

    Now, let me talk a minute about the $45 billion framework 
that comes forth from your 30-day review. Is it possible to 
meet the stockpile work load to develop the technical tools 
needed to ensure the reliability of the stockpile and maintain 
the readiness of the technical facility base within this $45 
billion for the over 10 years? Would you just answer it and 
give us a brief explanation if you think it is?
    General Gioconda. No, sir. Yes, I will answer it, but no, 
sir. I have to watch my answers here.
    It is important, I believe, to go through and look at what 
it was. The $4.5 billion over 10 years was a good start as far 
as what was projected for the program, but a lot of things have 
changed in the program. I think it has to be a requirements-
based program, that you base it on requirements and then you 
make decisions based on how much and what requirements you want 
to have done and what requirements you want to put on hold. Our 
new budget structure will allow us to do that in a much more 
stringent manner, but I do not think a magic formula at this 
point is the right way of doing it.
    Senator Domenici. Well, look, I was just going to tick off 
some things that have obviously changed dramatically, but I 
will just use one. Obviously, the NIF overruns could be very 
substantial. In that $45 billion in that period, they could be 
$600 to $800 million, and nobody planned for that. That is a 
huge amount.
    We do not have to have very many of those, and the $45 
billion is not available for what you need it for. I believe 
your continued work with the Department of Defense to make sure 
they are fully supportive of our defense work so that they 
treat it like regular defense work when they consider how much 
you need--and then we will have to do that up here.
    People think the DOE nuclear weapons program is a 
stepchild. They fund the Department of Defense appropriation, 
but forget this is defense money as well. This is a continuing 
problem and is very difficult for us. The Department must push 
very hard that these are very important defense issues, and 
that is what they are. We do not need them if they are not 
defense.
    General Gioconda. Sir, that is one of my jobs as a General 
Officer assigned to DOE, to open up the communication between 
the Departments. What has been very useful is STRATCOM, with 
Admiral Mies and General Habiger, opening up the communication 
with the Department. A lot of people in the Defense Department 
need the same knowledge, and we have to keep that going. I can 
say it is on a positive upswing.
    Senator Domenici. Well, I think it is a matter of 
communications and making sure that the Pentagon knows the 
importance of these programs, because they will be just as 
impressed as with the importance of whether we build a new 
aircraft carrier or not.
    General Gioconda. Every one of my assistants meets with a 
defense official once a week, picks one and makes sure they 
stay in contact, both the Navy and the Air Force, and I do the 
same, and that is the way to open it, making sure we keep these 
items center stage.
    Senator Domenici. I am going to submit questions for your 
response. For example, to explain the pit production at Los 
Alamos, what it really is intended to be, and where we are 
going in terms of our requirements on pits. I guess it is a 
fair statement to say as of today Pakistan has more ability to 
manufacture pits than the United States of America. Is that 
true? Somebody said that to me.
    General Gioconda. Sir, I am not conversant on the Pakistan 
program. They obviously did one.
    Senator Domenici. Well, if they could do one, they are 
better than us.
    General Gioconda. Sir, for the record, I will take our 
stockpile over theirs.

                        RELATIONSHIP WITH RUSSIA

    Senator Domenici. Of course. I am just making a point about 
one little piece of it. It is not always appropriate to do 
that.
    Okay, what I think I am going to do is recess now and 
submit questions to all three of you. Let me also suggest that 
in Russia, where you spend a lot of time and where I have some 
great friends, like Sid Hecker, who spends almost all of his 
life trying to figure out how to do better over there, this is 
also a time where we have to be careful about what is going on 
in Russia.
    They have a new president. None of us really know what that 
means right now. It does not seem to me like he is going to be 
anything like the president that they have had the last 4 or 5 
years over there, and our continued assistance in these areas 
has to be on the basis that we are getting some real feed-back 
from them that is tangible and objective, that they are really 
cooperating in an effort to reduce the threats and to eliminate 
every opportunity we can for further proliferation.
    If that is not happening, that can get turned off awful 
fast up here, because we are on a thin, thin reed right now in 
terms of support. I continue to support it, even the new 
initiative on the cities, the nuclear cities initiative. I have 
very serious doubts that you can convert those cities the way 
we think, but I think it is worth a small amount of money to 
see if we can.
    Ms. Gottemoeller. Thank you for your support, Mr. Chairman. 
It has been an exciting year, as I mentioned in my testimony, 
but I agree with you, we need to keep on top of the situation 
and keep in close communication to make sure that we are 
getting results from the Russian side.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Domenici. Thank you, we will submit all of the rest 
of the questions.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Pete V. Domenici

               CONDITION OF THE NUCLEAR WEAPONS STOCKPILE

    Question. General Gioconda, is the nuclear weapons stockpile safe, 
reliable and secure?
    Answer. Yes, the Secretaries of Energy and Defense have recently 
certified, for the fourth consecutive year, that the safety, security, 
and reliability of the Nation's nuclear weapons stockpile is assured 
without the need for underground nuclear yield testing at this time.
    Question. Do you have confidence that the weapons in the stockpile 
can and will perform as designed?
    Answer. Yes, the integrity of the existing nuclear weapons 
stockpile is assured through the execution of the Stockpile Stewardship 
Program which includes routine surveillance, regular replacement of 
limited life components such as gas reservoirs and neutron generators, 
and the replacement or upgrade of other components and subsystems. Each 
year in the surveillance program, eleven weapons of each weapon type 
are disassembled and examined. Laboratory and flight tests are also 
conducted to simulate expected deployment environments. The data from 
these examinations and tests are compiled and carefully analyzed by the 
DOE and the national laboratories using extensive computer modeling, 
which helps to understand the long-term, time-dependent behavior of 
weapons materials and the implications of any observed changes on 
weapon life projections.

              ADEQUACY OF FISCAL YEAR 2001 BUDGET REQUEST

    Question. Are there any critical needs not addressed in the budget 
request because of the lack of budgetary resources? If so, please 
explain.
    Answer. There are no critical needs that are not addressed in the 
budget request with the exception of the NIF rebaseline. However, as I 
testified to, when we've gotten in a budget crunch, it's our people and 
our infrastructure which seem to have paid the mortgage price. This 
budget is no different and we know if we don't fix the problems soon 
they will be very critical. We must recruit and train the next 
generation of scientists and engineers and it must be done while we 
still have a cadre of workers whose experience with the stockpile can 
be passed on to the next generation. There must be a transition period 
with both the experienced workers and the new recruits on board and 
that expenditure has been deferred in light of more pressing needs the 
past few years. At the same time with no new weapons moving through the 
complex to force the issue, our investment in our infrastructure has 
not kept pace with future needs. As a large portion of the stockpile 
must move through the complex for reburbishments in the coming years 
that situation must also be reversed.
    However, the investments we are making in developing our scientific 
capabilities are mandatory if we are to continue to certify the safety 
and reliability of the stockpile without underground testing. That 
scientific capability is already paying off and we just certified to 
the President for the fourth consecutive year that underground testing 
is not necessary at this time. As these scientific capabilities mature 
these investments will be reduced. Our work with DOD to identify and 
assess the final technical drivers and schedules for weapon component 
replacements and our new budget structure will hopefully allow us to 
more effectively balance the program.
    Question. Will the budget request before the committee allow NNSA 
to meet all DOD annual weapons alterations, modifications, and 
surveillance schedules? For example, does this budget put us on a 
schedule to make all of the safety and security upgrades available when 
the weapons go in for refurbishment?
    Answer. The fiscal year 2001 budget request assumes enactment of 
the supplemental request in fiscal year 2000. If this funding is 
provided, we will be able to meet all fiscal year 2001 scheduled 
weapons alterations, modifications, and surveillance requirements. The 
Department will continue to assess weapon workload priorities to ensure 
weapons in the stockpile remain safe and secure.
    Question. Does this budget request make the appropriate investments 
in future manufacturing facilities, process development, critical 
skills so that the NNSA will be able to meet the known future military 
requirements as well as the requirements of the Stockpile Life 
Extension Program?
    Answer. I believe the balance we have reached in the fiscal year 
2001 budget request is the best one to fulfill the requirement to 
maintain a national deterrent while ensuring a path for the viability 
of the weapons production complex to produce components into the 
future. One of the avenues we are pursuing is our production readiness 
campaigns. In fiscal year 2001, we are proposing in initiate the 
Secondary Readiness Campaign, which will begin to address these issues 
for secondary production. These efforts are planned to be expanded in 
fiscal year 2002 covering two additional production readiness 
campaigns, high explosives/assembly and nonnuclear component 
manufacturing. To address the critical skills issues, we continue to 
fund the Laboratory Directed Research and Development program and have 
requested the establishment of an analogous program in the production 
plants, Plant-Manager Research, Development and Demonstration (PMRDD), 
to attract and retain the best possible people to the laboratories and 
production plants.
    Question. If the Committee were to provide you additional funds, 
what would be your next priorities and at what level of funding?
    Answer. I believe we have struck an appropriate balance in the 
fiscal year 2001 budget request between Directed Stockpile Work, 
Campaigns, and infrastructure. Of course, funding for the NIF 
rebaseline was not included in the request, but we will soon transmit a 
budget neutral amendment to accommodate the new baseline. As always 
there are items which could not be accommodated within the budget 
request, or which could benefit from additional funding, but it is our 
judgement that these are not critical needs.

            ADEQUACY OF 10 YEAR $45 BILLION BUDGET FRAMEWORK

    Question. A key outcome of the 30 Day Review was the need for DOE 
and DOD to refine the process for determining the scheduling of 
stockpile refurbishing requirements considering military, human, and 
budgetary needs. What are the critical underlying issues that make this 
such an important area of focus? What progress has been made to resolve 
these issues?
    Answer. There are never enough resources to satisfy all 
requirements. Choices must be made. In Defense Programs, the choices 
are complicated by the fact that the DOE and DOD have had differing 
views on which requirements should take precedence; stockpile work, 
scientific and technical tools, security, reliability, or 
infrastructure. In the final analysis, all of these requirements and 
many others must be balanced and integrated in order to have a viable 
and responsible program.
    We are working within the program and with the DOD to reach 
agreement on a prioritized set of requirements. A group within the DOE, 
the Requirements Assessment and Implementation Team, has started work 
on a DOE list. In the DOD, the Nuclear Weapons Requirements Working 
Group, has embarked on a similar task, and both groups are working 
together to establish a common set of prioritized requirements for the 
stockpile stewardship program of the future.
    Question. In your judgement, is it possible to meet the Direct 
Stockpile workload; develop the scientific and technical tools needed 
to insure stockpile safety, security, and reliability; and maintain the 
Readiness of the technical and facility base within the $45 billion, 
10-year budget framework? Please explain.
    Answer. The Stockpile Stewardship Program is working, we have been 
able to certify to the President for the fourth consecutive year that 
underground testing is not necessary, but we've made some difficult 
choices as to where limited resources must be spent.
    Recognizing the changes that have occurred in the program since its 
inception, last Fall the Secretary ordered a review of the health and 
status of the nuclear weapons complex, including its physical 
infrastructure, and of the status of recruitment, retention, and 
training of top scientists and engineers needed to sustain the program. 
While the review indicated that Stockpile Stewardship is on track both 
in terms of specific science, surveillance, and production 
accomplishments and in terms of developing a program management 
structure to improve the certification process, it did provide insight 
into areas that still need attention.
    We are engaged with the DOD in identifying the process for 
determining the scheduling of refurbishments to more fully consider 
military, workforce, and budgetary needs. At the same time we must 
aggressively develop the scientific capabilities required to certify 
the stockpile without testing. This is proving to be more expensive 
than estimated at the program's inception and is requiring less than 
optimum funding for our future infrastructure and for recruiting, 
retention and training of our people. The Stockpile Stewardship Program 
is a requirements-based program and it is our determination regarding 
when those requirement must be meet that drives the budget.
    Question. In your view, what is the appropriate annual budget level 
needed to meet these requirements? Can you even set a baseline for a 
program still in development?
    Answer. There is no absolute formula for determining the annual 
budget level with the challenge of certifying our stockpile without 
underground testing. I do believe that our budget each year should be 
requirements based and not measured against an arbitrary standard and 
that as we refine and prioritize requirements with the DOD and gain 
more experience with our developing scientific capabilities the annual 
budget can be refined to the point where a requirements based future 
year budget can be confidently forecasted.

                   NEW BUDGET AND REPORTING STRUCTURE

    Question. DOE's fiscal year 2001 budget proposes a significantly 
changed budget and reporting structure. The new structure integrates 
the activities under the old Stockpile Stewardship and Management 
approach into the Stockpile Stewardship Program which consist of 3 main 
elements: Directed Stockpile Work, Readiness in Technical Base and 
Facilities, and Campaigns which has 17 sub-elements. General Gioconda, 
your statement indicates that you are ``collecting data in the new 
structure as a further check on the viability of the approach,'' Why is 
this approach being put forth if you are unsure of its success?
    Answer. We believe this new business line approach better 
integrates our program elements, and if approved and implemented, will 
provide an improved program framework. Prior to receiving official 
approval of the structure change, we are continuing to fine tune with 
the Headquarters and Operations Office Chief Financial Officers the 
categories underpinning the major new structure elements. We are having 
the M&O contractors collect fiscal year 2000 budget execution data 
unofficially in the new structure. It allows Headquarters to assure 
that the new cost categories provide the intended information; it also 
permits the contractors to begin to develop and put into place the 
complex cost accounting mapping tools to successfully accomplish the 
structure change in order to execute it officially in fiscal year 2001.
    Making a major accounting and budgeting change is a formidable 
task, and a transition period is not unusual to assess each measure 
with the assured confidence that we expect.
    Question. The budget justification material for Campaigns provides 
a very general description of the goals and end states, and provides 
general, non-specific performance measures for each Campaign. How can 
the work on critical research and development, and analysis of the 
nuclear weapons stockpile be managed in a focused way without specific 
milestones and performance measures?
    Answer. We are doing the ``focused way'' just as the question 
implies. As stated in the budget justification, the Campaigns are 
managed by detailed implementation plans that include specific year-by-
year technical milestones and deliverables. The table to which you 
refer in the budget contains the highest level information from these 
plans--the end state for each campaign, and the highest level 
performance measures for the 5 year period. The Detailed Budget 
Justification section of the budget cascades to the next lower level of 
detail in support of those high level performance measures, 
highlighting each Campaign's Major Technical Elements with associated 
fiscal year 2001 funding. The specific milestones and performance 
measures supporting this lower level are not included in the budget 
document. Rather, they are included in the implementation plans, which 
we would be happy to make available to the Committees if desired. The 
measures in the implementation plans are referenced in the Department's 
Work Authorization system when the programs are executed.
    Question. How detailed are the annual Implementation Plans? Explain 
if, or how personnel performance evaluations are tied to the success of 
these annual plans?
    Answer. The Implementation Plan for Campaigns are primarily 
documentation of the technical goals and detailed milestones and 
deliverables for the M&O contractors who execute the Stockpile 
Stewardship programs. These plans contain the types of milestones which 
could be utilized by M&O contractors in evaluation of their employees, 
although the DOE is not directly involved in these efforts. At a higher 
level, these plans could be enumerated in the performance measures 
associated with the M&O contracts. Federal managers may also choose to 
include a reference to a specific Implementation Plan as part of their 
personnel performance measurement package. We are looking at the 
potential for all of this throughout our federal structure and M&O 
contracting.

                 ABILITY TO MEET MILITARY REQUIREMENTS

    Question. The DOD is the military customer for the nuclear 
stockpile and partners with the DOE to set requirements for the 
stockpile stewardship program. A significant fraction of the weapons in 
the stockpile are aging well beyond their design lives. Since we are 
not producing new weapons, we must begin rebuilding our existing 
weapons by fiscal year 2006. When we begin rebuilding weapons, we want 
to be able to make them more safe, reliable, and secure.
    The 30-Day Review said ``Failure to develop and mature these 
technologies [to make weapons safer, more reliable, and more secure] 
during the next 3-5 years could lead to the reuse of 20-30 years old 
technology in refurbished weapons.''
    General Gioconda, has the Administration requested a budget that 
supports the schedule to rebuild weapons and incorporate the latest 
technologies to make our weapons safer, more reliable and more secure?
    Answer. The Administration has requested a budget that strikes an 
appropriate balance between developing new technologies, incorporating 
those technologies into the stockpile, and being able to certify that 
the stockpile is safe, secure, and reliable without a nuclear test. 
More work in the surety options available for each weapon in the 
stockpile is being conducted prior to large resource decisions.

                             CYBER SECURITY

    Question. The 30-Day Review identified the special challenge of 
balancing the implementation of program requirements and new security 
requirements. It noted a recent study that found secure information 
environments across the complex were outdated and poorly supported 
compared to unclassified systems. The 30-Day Review stated, ``The study 
concludes that a robust set of cyber-security related upgrades would 
cost approximately $850 million over four years to complete. At 
present, funds are not identified to commence the needed upgrades.'' 
What is the Department's plan to upgrade cyber-security throughout the 
weapons complex?
    Answer. Defense Programs, in conjunction with the Chief Information 
Officer, will convene the Integrated Security Management (ISecM) 
leadership team to review, update, and attempt to reduce the projected 
costs of the program described in the October 1999 report. The cyber 
security standard used for ISecM will be changed from ``preeminent'' to 
``national security best practice'' based on lessons learned from the 
intelligence community and DOD, with an emphasis on secure computing 
operations in the weapons complex. Using the results of this review, 
analyses of nuclear weapons information assets, and analysis of data 
flows within the nuclear weapons complex, Defense Programs will develop 
a revised set of requirements for improved cyber security throughout 
the weapons complex. Defense Programs will complete the analyses, 
revise the requirements, and develop a program plan (including 
anticipated funding requirements) within the next few months.
    Question. Why hasn't the Administration requested the $850 million 
over four years to implement the proposed cyber security upgrades?
    Answer. Funds for the Integrated Security Management (ISecM) 
proposal were not included because the proposal was still being 
reviewed. The ISecM proposal was based on ``pre-eminent protection 
against the insider threat'' which substantially increase the overall 
project costs without a corresponding significant increase in 
protection. Defense Programs in close coordination with the DOE Chief 
Information Officer has initiated an effort to define a program to 
improve cyber security in the weapons laboratories using effective, but 
less stringent, criteria. A detailed program plan and funding 
requirements will be forthcoming through the DOE Chief Information 
Officer.
    Question. How important is cyber security and what is the 
appropriate level of funding to address our cyber security 
vulnerabilities over the next five years?
    Answer. Protecting nuclear weapon information against an ever-
increasing threat, including increasingly sophisticated insiders is 
important. Funding requirements will be defined during the planning and 
design phase of the weapons complex enterprise secure network. In 
addition to the development and integration costs, the costs of 
maintaining the integrated enterprise-wide secure computing 
infrastructure will require a substantial ongoing investment to stay 
ahead of the evolving threat.

                       NATIONAL IGNITION FACILITY

    Question. NIF has been described by the Department as critical for 
Stockpile Stewardship. Recently, many reports have surfaced with major 
concerns regarding schedule and costs for NIF.
    General Gioconda, how important is NIF to the success of the 
Stockpile Stewardship program and maintaining the nuclear deterrent? 
Will a fully operational NIF be necessary to certify weapons systems in 
the future?
    Answer. NIF is a unique facility and a key element of the Stockpile 
Stewardship Program because it will allow the experimental study of 
thermonuclear burn and important regimes of high energy density 
science, directly related to the primaries and secondaries of modern 
nuclear weapons. Thermonuclear burn is at the very heart of how our 
stockpile works. The ability to experimentally study physical 
phenomenon under these conditions will lead to greater confidence in 
the US stockpile over the long-term. Although NIF ignition experiments 
will not test all of the phenomena for the success of nuclear weapons, 
they will provide a stringent test of the understanding and integration 
of a significant subset of these phenomena in a way that no other 
Stockpile Stewardship experiments will be able to do.
    NIF supports the SSP in three essential ways: (1) it permits the 
study of issues which can affect an aging or refurbished stockpile; (2) 
it permits an advancement of the critical elements of the underlying 
science of nuclear weapons and thus will play a major role in 
validation of the advanced simulation codes under development by the 
Accelerated Strategic Computing Initiative (ASCI) which will form our 
basis for certification; and, (3) it will attract and help train the 
exceptional scientific and technical talent required to sustain the SSP 
over the long term.
    Question. The original cost estimate was for $1.1 billion. I keep 
hearing rumors that the new cost baseline may increase by $500 to $800 
million, and that operational costs associated with NIF may double 
original projections. At what point does NIF get simply too expensive? 
Must we have NIF at any cost, or is there an alternative path the 
Committee should consider?
    Answer. NIF is a key element of the Stockpile Stewardship program. 
Several options to complete the NIF have been developed and a new cost 
and schedule baseline proposal is being prepared. The total additional 
funding requirement is dependent on which option the Department 
selects. After reviewing the proposed solutions, the Secretary will be 
in a position to identify the funding required for the preferred 
option. At the current time and with the projected state of technology, 
there are no alternatives to NIF that can produce the physical 
performance regimes required.
    The projected costs to operate NIF have not changed. The one 
remaining operational cost uncertainty represents a very small element 
of the total operating cost. It is associated with the ability of the 
final optics to withstand the high damage levels associated with 
operating the laser at the required ultraviolet wavelength for the most 
energetic experiments to be conducted on NIF. The issue is one of 
economics--how frequently these optics need to be refurbished or 
replaced. There is a technology program in place to increase the damage 
tolerance of the optics and their coatings. Highly energetic 
experiments are not planned until the latter half of this decade and 
prior to that time, significant experimental mission needs can be 
satisfied with current technology.
    Question. General Gioconda, as the Department prepares a new cost 
and schedule baseline for NIF, I would also like for you to report to 
me on alternatives to NIF (within the next 90 to 120 days).
    Answer. My scientific advisors tell me there is no alternative 
technology having the maturity of lasers which can address the 
requirements of the SSP. Although current results from pulse power 
systems based on Z-pinch technology have been impressive, we do not 
have the scientific knowledge at this point to scale this technology to 
the temperature and pressure regime needed for the stockpile 
stewardship mission. The Z-machine will be useful as a complement to 
NIF, particularly in enhancing weapon effects testing. It is also able 
to perform a subset of the SSP experiments in hydrodynamics and 
radiation flow although at conditions further from the nuclear weapons 
regimes. Z-pinch technology has great potential and could become the 
means for studying high yield weapons physics, but at this point it is 
not a credible alternative to NIF.
    Question. Would you compare NIF to the similar program in France? 
Is their machine similar or different? Do their programmatic 
assumptions correlate to ours? Have they encountered similar troubles?
    Answer. The elements of the French Laser Megajoule (LMJ) and the 
NIF are very similar although the LMJ has 25 percent more beams than 
NIF. LMJ was originally scheduled to be completed in 2010 but has been 
accelerated to 2008 because of the urgent needs of the French Stockpile 
Stewardship Program now that they no longer have a test site. Their 
programmatic assumptions are similar, using experiments to train the 
next generation of weapons scientists and to test weapons design codes 
under conditions of temperature and pressure close to that of a nuclear 
weapon. Ignition is a central test of this philosophy for the French. 
The French are currently building an eight beam engineering prototype 
called the Laser Integration Line (LIL) which will be operational in 
2002 and serve as a useful test bed. The French have historically drawn 
upon their industrial contractors to develop and build their high power 
laser systems. They are continuing this practice for LIL and LMJ. This 
is the approach which is now being used for NIF to address the 
previously unaccounted for complexity of our state-of-the-art system, 
and cleanliness problems in assembling and installing the laser and 
target system infrastructure. As a result, assembly and installation of 
the NIF beampath infrastructure system will now be managed and 
performed by industrial partners with proven records of constructing 
similarly complex facilities.

              NIF-TECHNOLOGICAL BREAKTHROUGHS STILL NEEDED

    Question. Isn't there still significant technological risk 
associated with NIF, beyond the problems of getting it built?
    Answer. The Conceptual Design Report of May 1993, identified six 
major technological breakthroughs required to make NIF a functional 
reality meeting all mission performance requirements. During the 
intervening years, five of these breakthroughs have been demonstrated. 
These include: (1) a high-gain pre-amplifier module which amplifies and 
conditions the laser light before it enters the large glass lasers; (2) 
a servo-controlled deformable mirror which aligns the laser light to 
very exacting tolerances as it transmits the light to the main 
amplifiers on multiple passes; (3) a large aperture optical switch 
which traps the light inside the main amplifier and enables the multi-
pass operation; (4) the production of laser glass in a continuous 
versus batch process thus reducing the cost by a factor of five below 
that for NIF's predecessor Nova; and, (5) the development and 
production of large frequency conversion crystals which are grown in a 
couple months as compared to two years for those used on Nova. The one 
remaining challenge is the demonstration of long-life optics that can 
withstand the high damage levels associated with operating the laser at 
the required ultraviolet wavelength. The issue is one of economics, 
namely, how frequently the final optics in the system need to be 
refurbished or replaced. With current technology, the optics lifetime 
goal can be achieved with as much as 60 percent of the maximum desired 
energy. To achieve the full goal, a technology program is in place to 
increase the damage tolerance of the optics and coatings needed for the 
most energetic experiments to be conducted on NIF, which will not be 
conducted until the latter half of this decade.
    Question. Isn't it true that in order for NIF to get the laser 
energy levels required for ignition, it must have major breakthroughs 
in performance?
    Answer. No major breakthroughs are required to demonstrate the 
energy levels needed for ignition. The objective of the technology 
development program described in the previous question is to reduce the 
cost of operating NIF at full energy. In addition, there have been 
recent advances in target physics and fabrication which while not 
completely tested and reviewed, increase the confidence in achieving 
ignition with 192 beams.
    Question. Isn't it true that there still exist major technological 
issues with the Final Optical Assembly design?
    Answer. There are no technological issues with the Final Optics 
Assembly design. During system engineering evaluation of the design, an 
error was uncovered and resulted in the need to redesign the assembly. 
This component is not on the project's critical path schedule and there 
is time to correct the design prior to release for bid.

                          NIF--SEAB CONCLUSION

    Question. General Gioconda, in your written testimony about NIF, 
you refer to the Secretary of Energy Advisory Board's conclusion that,

          The Task Force has not uncovered any technical or managerial 
        obstacles that would, in principle, prevent the completion of 
        the NIF laser system. Nevertheless, serious challenges and 
        hurdles remain. The NIF task force believes, however, that with 
        appropriate corrective actions, a strong management team, 
        additional funds, an extension of the schedule and recognition 
        that NIF is, at its core, a research and development project, 
        the NIF laser system can be completed.

    Their conclusion is filled almost completely with disclaimers. It 
seems to promise only an open-ended R&D effort with continual cost 
overruns, schedule delays and technological hurdles. Do you draw any 
encouragement at all from such a statement?
    Answer. The SEAB Task Force's Interim Report provided seven 
detailed findings and associated recommendations, all of which are now 
being acted upon. In one key recommendation, the SEAB urged the NIF 
team to clarify the roles and lines of authority of NIF management; to 
implement an external project management review process; and, to 
strengthen the management team at Lawrence Livermore National 
Laboratory. The NIF Project and Lawrence Laboratory have streamlined 
reporting relationships and implemented a reorganization to establish 
clear authority and accountability in the project. The NIF Project has 
a new Associate Director for NIF Programs, George Miller, who reports 
directly to LLNL Director Bruce Tarter. In addition, a new project 
manager, Ed Moses has been assigned to the project.
    The Project is also using industry to its fullest, contracting to 
industry essentially all fabrication, assembly and installation tasks 
and maintaining only those tasks that are a unique capability of 
Lawrence Livermore National Laboratory. One of the highest sources of 
cost growth for NIF has been the clean assembly of the laser system. 
Originally the assembly of the laser system was envisioned to use in-
house labor, but this task has now been identified to be too 
complicated and difficult to be managed and executed by Livermore. The 
project has worked with industrial experts from fields such as 
aerospace and semiconductor plant construction, to develop both a 
construction method and a contracting strategy for laser assembly that 
is in the process of being executed. This is a significant step on the 
path to getting NIF back on track.
    In aggregate, the Task Force's report provides a great deal of 
confidence that we understand the issues with NIF. We expect to have a 
path forward that will ensure the success of the project within the new 
cost and schedule baseline currently being developed by the Secretary 
of Energy for presentation to Congress by the June 1, 2000 deadline. My 
confidence is in the issues identified and solution set promulgated at 
this point I will continue to gage the program success with a host of 
milestones and will expect the program and project to excel.

                          TRITIUM--APT FUNDING

    Question. When the Secretary selected reactor production of tritium 
as the preferred option for maintaining our stockpile, he stated in the 
Record of Decision the importance of keeping accelerator-based 
production in the APT program as a viable backup.
    Furthermore, Sec. 3134 of last year's Defense Authorization Act 
required the Department to complete engineering development and 
preliminary design of the APT as a back-up source to the reactor.
    The President's budget provided only $19 million for APT, rather 
than the $84 million that is required to complete the design work on 
schedule.
    Why has the Department chosen to ignore the clear statutory 
requirement to fund APT through design?
    Answer. The Department has not chosen to ignore the statutory 
requirement to fund the APT through completion of design. In fiscal 
year 2000, the APT project has been funded and developmental and 
preliminary design work is proceeding. However, the Department made 
clear in its budget submission that there is not sufficient funds in 
fiscal year 2001 to support both its basic stockpile obligations and 
continue as originally planned the backup program for tritium 
production. Given the success of the Commercial Light Water Reactor for 
the production of tritium to date, the Department has focused available 
funding on meeting basic stockpile obligations. The Department will 
continue the APT project with available resources in fiscal year 2001 
as a back up for tritium production, though it must suspend the design 
effort and replan development to reflect funding realities.
    The Department is pursuing as an alternative approach a joint 
program for Advanced Accelerator Applications to include transmutation 
of waste, tritium production, and other efforts. Such a program is 
supported by both Defense Programs and the Office of Nuclear Energy. A 
DP/NE working group is developing the joint program concept. The 
Department remains committed to a back up tritium production program 
but must do so within the boundaries of available balanced resources 
and good management for the overall Stockpile Stewardship Program.

                   TRITIUM-STATUS OF REACTOR DECISION

    Question. On January 28, the GAO issued their report on 
``Challenges Remain for Successful Implementation of DOE's Tritium 
Supply Decision.'' The GAO report notes:

          ``DOE's current approach for developing the accelerator 
        introduces cost and schedule risks that threaten the 
        accelerator's availability as a tritium production backup 
        option as originally intended.''
          ``This report recommends that the Secretary of Energy 
        reassess the Department's current approach for the backup 
        accelerator.''

    General Gioconda, please update the Committee on the status of the 
commercial light water reactor for the production of tritium?
    Answer. The commercial light water reactor (CLWR) project is 
working to achieve two major milestones: (1) to begin producing new 
tritium in Tennessee Valley Authority (TVA) reactors in October 2003, 
and (2) to begin extracting the tritium in the new Tritium Extraction 
Facility (TEF) being constructed at the Savannah River Site (SRS) in 
February 2006. As discussed below, the project is making progress as 
planned to meet these milestones.
    DOE plans to use TVA's Watts Bar Unit 1, Sequoyah Unit 1, and 
Sequoyah Unit 2 reactors for tritium production, with Watts Bar being 
the first. To do this, work is being done in three major areas. TVA is 
preparing the analyses and reports needed to request the Nuclear 
Regulatory Commission (NRC) to amend the operating licenses of the 
three reactors to permit them to irradiate DOE-designed, tritium-
producing rods. TVA is working under the DOE-TVA interagency agreement 
that went into effect on January 1, 2000. These license amendment 
requests are scheduled to be submitted to the NRC at the end of January 
2001. NRC has previously committed to an expeditious review of the 
license amendment requests. Since the first insertion of tritium rods 
will not occur until the fall of 2003 (they must actually be on site at 
Watts Bar in August 2003), the schedule leaves more than adequate time 
for the NRC to complete its review and approve the license amendments.
    With respect to tritium rod fabrication activities, DOE is in the 
process of procuring commercial services for the fabrication of 
tritium-producing rod components and for commercial services to 
assemble the components into complete rods. The procurement process for 
rod components is well underway, and several contracts have already 
been signed. With respect to acquiring the services of a fabricator for 
production-scale manufacture of the tritium rods, proposals have been 
received and are presently being evaluated. The selection of a 
commercial fabricator is expected within the next several weeks.
    Site preparation for the Tritium Extraction Facility has begun, and 
groundbreaking is scheduled for July 2000. Detailed design of the 
facility is continuing. Procurement of long-lead major equipment items 
is underway.
    Question. Do any significant hurdles remain that could prevent the 
NNSA from producing tritium on the proposed schedule, such as technical 
issues, regulatory approval, etc.?
    Answer. There are no significant hurdles that will prevent the NNSA 
from producing tritium although there are still a number of actions 
that must be completed. Laboratory tests and post-irradiation 
examinations continue to confirm that the technology is sound.
    The regulatory process is expected to yield reactor license 
amendments in advance of when they are needed. Since the first 
insertion of tritium rods will not occur until the fall of 2003 (they 
must actually be on site at Watts Bar in August 2003), the schedule 
leaves more than adequate time for the NRC to complete its review and 
approve the license amendments. It is important to emphasize, in this 
regard, that the NRC has already conducted three technical reviews of 
the technical and safety issues associated with the use of the tritium 
rods, and all generic issues associated with their use have been 
resolved. The only remaining items are the reactor-specific items that 
will be the subject of TVA's license amendment requests next year. In 
addition, the NRC has previously committed to the expeditious review of 
the amendment requests.
    We are on track to construct and start up the Tritium Extraction 
Facility by February 2006, but the schedule has very little float in it 
because of prior-year constraints. To complete the facility on time, 
the Department must continue to carefully manage all aspects of the 
project.
    Question. Explain DOE's reasoning for terminating design work on 
the APT plant. DOE obviously believes that there in very little risk 
with the CLWR approach and is, therefore, willing not to comply with 
Congressional direction to complete the APT plant design. What is your 
response General Gioconda?
    Answer. Faced with funding constraints in fiscal year 2001 and 
unable to support both our primary stockpile obligations and the backup 
tritium production source as planned, Defense Programs prioritized in 
favor of meeting basic stockpile needs. The success to date of the CLWR 
program was certainly a factor in deciding where scarce funds should be 
allocated.
    It should be understood, however, that the APT project is fully 
funded for fiscal year 2000 and will be continued with available 
funding in fiscal year 2001. In addition, the Department is pursuing a 
joint program for Advanced Accelerator Applications to include 
transmutation of waste, a backup tritium capability, and other 
potential efforts as an alternative approach to ensuring a backup 
capability for tritium production. We are working with the Office of 
Nuclear Energy to define such a program.
    The Department remains committed to a backup tritium production 
program but must do so within the boundaries of available balanced 
resources and good management.
    Question. What is the status of the plant design? What is the cost 
and schedule to complete the design?
    Answer. The APT plant preliminary design is on schedule and on 
budget. A recent Independent Cost Estimate was in agreement with the 
project estimates, to within 3 percent. By the end of fiscal year 2000, 
the preliminary design will be approximately 66 percent complete. The 
Baseline Change, approved last June, included $38 million for design in 
fiscal year 2001, and $19 million in fiscal year 2002 or a total of $57 
million to complete preliminary design and essential elements of final 
design by the end of fiscal year 2002.
    Question. How long would it take to reassemble the design team once 
the design effort is terminated?
    Answer. Assuming that the current design team was entirely 
terminated, it is estimated that reassembly of the team, including 
contracting and staffing up, would take approximately 12-18 months. If 
the proposed joint accelerator program were fully funded, it is 
anticipated that the APT design team would be retained to complete work 
on design and upgrade of the Low Energy Demonstration Accelerator 
prototype for that program. If the proposed joint program were 
initiated but not fully funded, it is expected that the design contract 
would be retained, with some portion of the design team. In that event, 
reassembly of the APT design team could be accelerated, requiring only 
6-12 months for staffing up.

   COMBINING ACCELERATOR PRODUCTION OF TRITIUM (APT) AND ACCELERATOR 
                      TRANSMUTATION OF WASTE (ATW)

    Question. I understand that there may be opportunities for 
synergies in an advanced accelerator program that would help maintain 
APT as a viable backup to reactor-based production of tritium, while at 
the same time allow the Department to continue important research into 
Accelerator Transmutation of Waste (ATW).
    I understand that both APT and ATW use the same accelerator design. 
Such an accelerator could also provide the nation's supply of medical 
radioisotopes with a small fraction of its total beam.
    General Gioconda, you and others have indicated that there are 
several options under discussion for an integrated program, probably at 
around $70 Million in the first year. This strikes me as a good way to 
address two national issues, tritium and nuclear waste. Unfortunately, 
the budget zeroed out all funding for the ATW program.
    Would a program such as this that integrated several applications 
of advanced accelerators be of interest to the NNSA?
    Answer. Yes, such a program would be of interest to the NNSA. It 
could provide not only a backup capability for tritium production, but 
a source for other defense-related isotopes, demonstration of a 
potential means for transmutation of defense waste, development of 
defense-related technologies, and development of an important nuclear 
technology, all of which are important to national security. The 
current APT accelerator design can, indeed, be used for such a program.
    Defense Programs believes that there is a real opportunity for 
synergy in a joint program that could spur development of accelerator 
technology, providing a facility capable of demonstrating transmutation 
of waste, isotope production, and production of tritium--all of which 
are of interest to the NNSA. As stated earlier, we are working with the 
Office of Nuclear Energy to define such a program.

                 INFRASTRUCTURE AT THE LABS AND PLANTS

    Question. DOE has failed to keep good modern facilities. In fact, 
where the industry and DOD have a historic reinvestment rate of 2-4 
percent, DOE has historically reinvested in its facilities at a rate of 
0.8 percent.
    The 30-Day Report said this has ``resulted in a huge bow wave of 
deferred improvements. For example, 70 percent of the facilities at Y-
12, 80 percent of the facilities at the Kansas City Plant, 40 percent 
of the facilities at the Pantex Plant, and 40 percent of the facilities 
at the Savannah River tritium facilities are more than 40 years old.'' 
For example, ``before the B-61 and W-76 SLEP refurbishments can be 
completed, it may be necessary to reestablish material formulation and 
fabrication capabilities for critical weapons components.''
    General Gioconda, what is the Department's plan to address the 
crumbling infrastructure in the weapons complex?
    Answer. Despite our ambitious efforts over the past few years to 
simultaneously downsize and modernize the weapons complex 
infrastructure, we have fallen behind the pace of degradation of our 
facilities. Even aided by additional funding provided by the Congress 
for use at the production plants, the infrastructure issues are so 
pervasive that one of the recommendations of the recent 30 Day Review 
advocated immediate corrective action. Consequently, we are requesting 
supplemental funding for infrastructure needs in fiscal year 2000. In 
addition, we have recently commissioned comprehensive internal and 
independent assessments of our recapitalization needs in response to 
the recommendation. When that information is integrated into the 
Stockpile Stewardship Program, we will bring it forward to the 
Congress.
    Question. How much money is needed over how many years?
    Answer. I am not in a position to speculate on this until the 
comprehensive independent assessment is complete, but any additional 
resources applied here will be put to immediate use. It is my hope that 
we can present a responsible, achievable, multi-year recapitalization 
initiative with the fiscal year 2002 budget request.
    Question. What is the impact on the weapons refurbishment schedule 
if the facilities are not improved and restarted?
    Answer. Our present stockpile refurbishment planning requires 
former capabilities be reestablished, new capabilities added, and 
existing capacities expanded. Without the following investments, 
currently planned refurbishments will have to be rethought and 
rescheduled. These investments include: A new Highly Enriched Uranium 
Materials Facility and a new Special Materials Complex are needed to 
support the secondary manufacturing capability at Y-12 Plant. The 
production capacity at Sandia National Laboratories, New Mexico, for 
neutron generators must be expanded to provide sufficient quantities to 
refurbish the stockpile. At the Savannah River Site, the Acorn gas 
transfer system production capacity must be expanded to provide other 
production lines to support scheduled refurbishments. Also, at Los 
Alamos National Laboratory, the detonator facility capacity must be 
expanded to support neutron generator production. In all of these 
facility efforts we have attempted to strike a balance between 
production, maintaining the infrastructure, assuring the availability 
of critical skills, and security, while ensuring the safety of our 
workers. Each year we must in an integrated, measured way improve our 
infrastructure for the long haul.
    Question. Has the Department ever considered 3rd party financing 
arrangements for infrastructure such as the ones DOD has experimented 
with?
    Answer. To my knowledge, the Department has not formally considered 
3rd party financing arrangements for infrastructure. Although Los 
Alamos National Laboratory has an extensive background in 3rd party 
financing for major telecommunications and supercomputer acquisitions, 
there is no precedent in the Department of Energy complex for 3rd party 
financing of construction projects on government owned land.

                 RECAPITALIZATION OF PRODUCTION PLANTS

    Question. The budget request includes about $60 million to continue 
the Stockpile Management Restructuring Initiative (SMRI) projects to 
resize the production plants consistent with planned workload levels. 
Of the $60 million, nearly $24 million is for the Kansas City Plant and 
$31 million is for the Savannah River Plant. This leaves only $5 
million for the Pantex Plant.
    How do you explain this apparent imbalance? What factors, other 
than resource constraints, were considered in arriving at this 
allocation of funding for fiscal year 2001?
    Answer. The scope of each of the Stockpile Manufacturing 
Restructuring Initiative (SMRI) projects reflects the amount of 
infrastructure restructuring that could be done that could provide cost 
effective operational efficiencies. Each of the projects underwent 
thorough reviews by Defense Programs and by independent external 
reviewers. Based on these reviews, we ended up with a fairly wide range 
of projects. At one extreme is the Kansas City Plant, where we are 
radically reducing our footprint at a total estimated cost of about 
$122 million. At the other extreme is the Pantex Plant where the 
reviews determined that only about $13 million in reconfiguring was 
necessary to support anticipated workloads.
    Question. The industry standard for infrastructure replacement is 
3-5 percent of the replacement value. What is the replacement value of 
each of the production plants and how does your fiscal year 2001 budget 
request compare to the 3-5 percent industry standard?
    Answer. The replacement values for the Pantex and Kansas City 
Plants are $5.1 and $1.2 billion respectively. The replacement values 
for the DP owned portions of the Y-12 Plant and Savannah River Site are 
$1.7 billion and $713 million respectively. The infrastructure 
replacement investment for these plants included in the fiscal year 
2001 budget request is about 2 percent of their total replacement 
value. I recognize these investments fall short of industry standards 
and have recently commissioned a comprehensive assessment of our 
recapitalization needs in response to the 30-Day Study recommendation.
    Question. Does DOE have a detailed plan for recapitalizing the 
production plants and facilities at the national labs?
    Answer. In my view we do not yet have enough detail for proper 
future planning in an integrated fashion. That is why we are doing the 
comprehensive assessment mentioned previously.
    Question. What are OMB's 5-year budget projections for each of the 
production plants and national labs for infrastructure replacement?
    Answer. OMB does not provide specific site by site outyear 
projections. The five year funding projection for Weapons Activities 
that accompanies the fiscal year 2001 Congressional Budget Request was 
provided by OMB and grows from $4.594 billions in fiscal year 2001 to 
$4.870 by the end of the five year period.

                STRATEGIC ARMS REDUCTION TREATY (START)

    Question. The budget request for several years, including fiscal 
year 2001, has been based on a ``lead-hedge'' nuclear weapons policy 
established by President Clinton in 1995 or 1996. Under that policy, 
DOE is required to maintain facilities and capability to support a 
stockpile inventory of 6,000 weapons under START II, with the ability 
to return to START I levels of around 9,000 weapons.
    Could you explain this policy and how requirements, both budgetary 
and production support could change under START II or START III?
    Answer. The ``lead-hedge'' nuclear weapons policy is designed to 
lead the Russians into a START II regime, while at the same time 
maintaining our ability to return to START I levels should the 
situation warrant. The impact of a possible START III agreement on 
budget and production support cannot be determined with any degree of 
accuracy at this time. The result would be highly dependent on the 
numbers and types of nuclear weapons as well as the agreed upon 
schedule for stockpile reductions and transparency measures.
    Question. How does maintaining the capability to produce several 
thousand weapons above START II or an assumed START III level of 2,500 
weapons, aid overall non-proliferation and weapons reduction goals?
    Answer. Regardless of the size of our nation's stockpile, to ensure 
the safety and reliability of that stockpile requires maintaining a 
production capability to replace parts as necessary as the stockpile 
ages. It is our safe and reliable stockpile that supports non-
proliferation by providing our allies a nuclear umbrella which reduces 
their incentive to develop a nuclear stockpile of their own and that 
support reduction goals by allowing us to negotiate from a position of 
strength.
    Question. How does START III enter into DOE's current strategic 
planning? Can we afford to refurbish warheads which would be discarded 
in a short period of time if START III is ratified?
    Answer. START III is one of the scenarios that DOE considers in its 
strategic planning. As START III takes shape, so will our plans. Until 
more is known, we will continue our plans to refurbish the directed 
stockpile as contained in the President's Nuclear Stockpile Memorandum.
    Question. Ms. Gottemoeller, unlike START I and START II, is it 
likely that a START III will restrict the size of an inactive warhead 
reserve?
    Answer. At this point, the United States is involved in discussions 
with Russia about the framework for START III and formal negotiations 
have not commenced. A final decision has not been made about the 
central limits for deployed warheads or the composition of U.S. 
strategic forces. As a consequence, it is premature to address the 
question of how to treat an inactive warhead reserve.
    Question. General Gioconda, how does the annual funding need change 
based on a START I, START II or START III assumption? Is there a 
significant reduction in funding requirement if planning to meet a 
START III stockpile level of 2,000-2,500 weapons?
    Answer. Current policy regarding START II requires a hedge to 
return to a START I stockpile thus making essentially no difference 
between them for DOE resource and management activities. START III 
discussions have not matured to a point that enables a detailed 
assessment of funding impacts. The impact would depend on the timing, 
specific weapons involved, and policies about an inactive reserve.
    Question. General Gioconda, how would planning and funding change 
under a START III level of 2,500 weapons with an upward hedge of 50 
percent?
    Answer. The approach to planning for a START III level of 2,500 
weapons with an upward hedge of 50 percent would be very similar to the 
approach we take now. The biggest difference most likely would be in 
the planning associated with a potentially more limited mix of weapon 
types in the stockpile. The complex required to support the stockpile 
and the associated funding would be dependent on the specific 
composition of the active and inactive stockpile and the time required 
to reactivate warheads linked to specific weapon systems DOD requests.
    The budget request for several years, including fiscal year 2001, 
has been based on a ``lead-hedge'' nuclear weapons policy established 
by President Clinton in 1995 or 1996. Under that policy, DOE is 
required to maintain facilities and capability to support a stockpile 
inventory of 6,000 weapons under START II, with the ability to return 
to START I levels of around 9,000 weapons.
    Question. Ms. Gottemoeller, what is the current status and schedule 
for finalizing START III?
    Answer. The United States and Russia are currently engaged in 
discussions on the provisions that would be appropriate for inclusion 
in a START III Treaty and for an Amendment to the ABM Treaty to permit 
a U.S. National Missile Defense System. These discussions involve the 
explanation and clarification of potential treaty elements, but they do 
not involve the negotiation of specific provisions for either START III 
or the ABM Treaty. Now that the Russian Duma has ratified the START II 
Treaty, the United States and Russia will make a decision on how to 
proceed with START III Treaty negotiations. However, a schedule for 
finalizing START III and ABM Treaty Amendments has not been developed.

                  DUAL REVALIDATION OF WEAPONS SYSTEMS

    Question. The concept of dual revalidation, that is having a second 
independent check by the national weapons design lab that did not 
design the particular weapon, has been the guiding concept for the life 
extension review program in DOE. The Nuclear Weapons Council approved 
this concept in 1996 to insure a critical, impartial assessment of 
design and performance issues.
    Am I correct that the fiscal year 2001 budget backs away from that 
concept? If so, why is this change being made?
    Answer. The fiscal year 2001 budget includes funding for the 
baselining program. The Nuclear Weapons Council approved dual-
revalidation only for the W76. Baselining efforts will capitalize on 
robust experimental, simulation, and production activities as described 
in the Department's high level plan: Directed Stockpile Work Program 
Plan, Campaign Plans, and Readiness in Technical Base and Facilities 
Plan. Additionally, the baselining efforts will incorporate peer review 
to maintain the strictest standards of intellectual oversight. It is 
the Department's judgement that a properly executed baselining program 
will achieve the initial goals of the dual revalidation program earlier 
while capitalizing on existing nuclear weapons complex programs, better 
utilizing the limited resources under our stewardship.
    The W76 Dual Revalidation effort began in 1996 and was completed in 
December 1999 with significant cost in time, money, and scientific 
manpower. Although the nuclear weapons complex greatly benefited from 
the experience gained in the dual revalidation program, it was 
determined that the Department must streamline these efforts to 
complete the task of studying the entire nuclear stockpile within an 
acceptable period of time. The baselining program will document our 
current understanding of engineering models, simulation tools, data, 
and other information critical to understand the certification basis 
for each warhead along with an analysis of their quality and 
sufficiency. This information will form the basis upon which future 
weapons research will be focused and will provide tools for future 
assessment and certification activities. Additionally, the baselining 
program will capture institutional expertise from our ``gray beards'' 
with underground nuclear test experience before the majority of them 
retire over the next five years. The baselining program begins in 
fiscal year 2000 with baselining efforts on the W80 warhead and 
continues for the next four years, baselining two warheads each year 
until complete.
    If after baselining all weapons, we find areas to focus dual 
revalidation efforts in a focused manner with expected milestones we 
will use our baselining result as the starting point of the 
revalidation.
    Question. How will an impartial, critical peer assessment from the 
designing lab be possible?
    Answer. Baselining activities are planned to include an integral 
peer-review element in each technical area. This peer-review process 
has been successfully employed at the respective labs for years and 
will continue to be a crucial element of all Department design 
laboratory plans.
    Question. I understand that the new Campaign concept being proposed 
in this budget is what DOE now believes will better identify and 
address the life extension issues of the remaining weapons systems in 
the stockpile. Yet the Campaign approach appears to address development 
of scientific and technical tools and does not focus on critical design 
and operational issues. Do you share my concerns?
    Answer. I am very confident that our new business model containing 
Direct Stockpile Work (DSW), Campaigns, and Readiness in Technical Base 
and Facilities (RTBF) is addressing all the areas that you discussed. 
Together, these three high-level plans completely address and properly 
focus the requirements of the Stockpile Stewardship Plan.
    For example, the DSW Program clearly defines the scope and schedule 
of planned weapon refurbishment activities. Based upon this 
information, the supporting production and engineering campaigns align 
their deliverables with the requirements of the DSW plan while RTBF 
infrastructure needs are similarly aligned. In parallel with these 
efforts, the science campaigns continue to improve their fundamental 
science efforts to impact and enable the certification requirements of 
these refurbished warheads. Together, this business model maintains 
focus on the stockpile while supporting necessary scientific efforts 
that provide high confidence in the safety, reliability, and 
performance of our nuclear arsenal.
    Question. What is the justification for moving away from a 
rigorous, in depth peer analysis to an accelerated baseline formulation 
proposed in the fiscal year 2001 budget?
    Answer. As stated previously, baselining will achieve the initial 
goals of the dual revalidation program but is a more streamlined effort 
which allow the entire stockpile to be studied in a more acceptable 
time frame and with less resources. Peer review will still play an 
integral role in the baselining process. Once the stockpile is properly 
baselined we can then in focused, accountable fashion call for dual 
revalidation efforts in gray or shortfall areas as they emerge in the 
baseline analysis.

                                 SAFETY

    Question. Recently, a safety engineer from within Defense Programs 
wrote a harsh 29 page report called the The Safety Basis Debacle, in 
which he alleges safety requirements at Pantex and other sites are 
routinely ignored and institutionally discouraged. Among other things, 
he wrote:

          The pattern of stylized and ineffectual safety analysis, of 
        accident precursors unheeded, and of management complacency is 
        strongly reminiscent of the Nuclear Regulatory Commission 
        before the accident at Three-Mile Island or NASA before the 
        Challenger disaster.

    General Gioconda, are you aware of the report and how serious are 
the allegations?
    Answer. We in Defense Programs take safety very seriously. I, along 
with my senior managers, have read the report in detail and have 
received extensive briefings by the author. The issues raised in the 
report have prompted further review by Defense Programs; the Office of 
Environment, Safety, and Health; the Inspector General; and 
consultation with the Defense Nuclear Facilities Safety Board. This 
review and analysis, aimed at what actions are necessary responses to 
keep Defense Programs safety center-stage, is on-going and will be 
forwarded to the Congress once finalized.
    Question. How will the NNSA respond to the issues raised in the 
report?
    Answer. I have asked the writer to provide me with recommendations 
to improve the safety requirement processes and to sharpen his focus to 
what can be done to address the issues he raises. This would include a 
clear process to ensure all safety issues are raised and appropriately 
addressed. I have also asked the plants and laboratories, headquarter 
elements and the Defense Nuclear Facilities Safety Board to respond 
along the same lines to develop an integrated action plan as necessary. 
I will be working with my staff at Headquarters and in the field to 
implement recommendations that come out of the reviews.

                            CRITICAL SKILLS

    Question. The Chiles report, the 30-Day Review and other reports 
continue to identify critical skills as a major problem for the weapons 
complex.
    What have you proposed in this budget request to address the 
ongoing problem of recruiting and retaining the critical technical and 
scientific workforce needed to support and maintain over the long term 
a safe and reliable nuclear weapons stockpile in the absence of 
underground nuclear testing?
    Answer. For the Federal workforce, we have proposed $3.6M for our 
Scientific Retention and Recruitment Initiative. This will enable the 
recruitment and retention of experienced scientists and related support 
staff in areas of emerging importance to the science mission. Funds 
will also be used to motivate and retain highly skilled top performing 
technical managers.
    In regard to the contractor work forces, we have attempted to 
stabilize the employment situation in the last few years following a 
multi-year period of recurring downsizing and work force restructuring 
at most of our sites. Recognizing budget constraints, we have relied on 
attrition to create the ``headroom'' necessary in our work forces to 
pursue recruitment strategies to replenish existing critical skills and 
develop the necessary skill base for new requirements. We have not 
proposed any specific additional activities in this budget for the 
contractor workforce; however, we have been working with all of our 
contractors on their work force plans aimed at ensuring the 
availability of required technical and scientific skills through 
effective recruitment and retention measures.
    Pursuant to section 3163 of the National Defense Authorization Act 
for fiscal year 2000, the Department will submit a joint DOE/DOD plan 
to Congress addressing various issues related to the Chiles report. The 
report will discuss the current situation at each contractor site, 
outlines measures necessary to retain required nuclear weapons 
expertise, and identifies resource requirements.

                             PIT PRODUCTION

    Question. NNSA continues to work to reestablish plutonium pit 
manufacturing at Los Alamos to replace pits destructively tested in the 
surveillance program and to replace pits in the future should 
surveillance indicate a problem. This capability is central to the 
weapons complex of the future. The 30-Day Review identified the 
challenge to build new, certifiable weapons primary pits, using new 
tools and processes in a new environment, and stated, ``Presently, the 
U.S. is the only nuclear power that lacks the ability to manufacture 
pits.''
    General Gioconda, please update the committee on NNSA's efforts to 
reestablish pit production at Los Alamos?
    Answer. Since we initiated the reestablishment of pit 
manufacturing, we have put in place at Los Alamos several critical 
pieces of equipment necessary to manufacture pits, completed the plans 
with agreements between designers and manufacturing personnel for 
qualifying all the processes necessary to manufacture war reserve W88 
pits for the stockpile, and manufactured five development pits in 
preparation for the manufacture of pits necessary to qualify the 
production processes through physics and engineering testing.
    Question. Have you been able to produce a certifiable pit? What 
problems or issues remain to be resolved in order to achieve 
certification? Will you meet the requirement for W-88 pit production by 
the end of fiscal year 2001?
    Answer. We have not yet manufactured a certifiable pit, however we 
have produced five developmental pits. One of the important elements we 
are currently working on and is necessary before a certifiable pit is 
manufactured is to have, in place, the quality controls and 
manufacturing organization and infrastructure necessary to ensure, 
through documentation, data gathering and analysis, and procedural 
controls that the design requirements have been met and that there is 
consistency in manufacture of the pit. Beyond this, the pits must be 
certified through a number of physics and engineering testing. These 
tests will provide assurance that the pits manufactured will meet the 
environments expected to be encountered in the stockpile and that the 
manufacturing differences between LANL and Rocky Flats have not 
introduced unacceptable physical behavior, which would affect 
performance of the pit. We are currently planning to have manufactured 
pits for qualification and complete the physics and engineering testing 
sufficient for pits to enter the stockpile by the end of fiscal year 
2004.
    Question. Does the fiscal year 2001 budget request fully support 
the production schedule? If not, please explain.
    Answer. We are pursuing options in fiscal year 2000 to provide 
additional funding to LANL to reduce the risks in achieving program 
objectives in fiscal year 2001. It is important, however, to understand 
that the funds requested under pit readiness rely upon a base 
capability funded under direct stockpile support and facility 
infrastructure. Successful implementation of the Pit Readiness Program 
within any 1 year is dependent upon the total funding received by the 
laboratories in support of the Stockpile Stewardship Program.
    Question. Isn't it true that the budget request does not support a 
schedule to achieve annual production capacity of 20 pits by 2007?
    Answer. Defense Programs is currently reevaluating the 
manufacturing equipment and facility infrastructure upgrades 
requirements for reestablishing an interim pit manufacturing capability 
of nominally 20 pits per year by 2007. This is being done to assure 
near-term requirements to support the stockpile will be met and that 
funding for the interim manufacturing capability is appropriate with 
any planning for a pit manufacturing facility to support the stockpile 
for the long term. The funding requested in the fiscal year 2001 budget 
request is in keeping with this objective. Results of this reevaluation 
will be incorporated within the fiscal year 2002 budget request.

             PIT PRODUCTION NEW DESIGNS OR REMANUFACTURED?

    Question. There have been several stories in New Mexico lately 
regarding language in DOE Budget documents about manufacture of new 
weapon pits at Los Alamos. Several DOE spokesman have since stated that 
the budget documents were in error and there is no intent to 
manufacture newly-designed pits.
    For the record, can you clarify the types of weapon pits that would 
be manufactured at Los Alamos in the next few years?
    Answer. For the next few years, Los Alamos will be focused solely 
on the manufacture of the W88 pit to support the stockpile. There will 
be some work on developing manufacture processes for the W87 and B61-7 
in order to demonstrate that the technologies to remanufacture the pits 
found in the enduring stockpile have been recaptured.
    Question. Are they really ``newly-designed weapons'' or ``re-
manufacture of existing designs''?
    Answer. The work being accomplished on the manufacture of the W88 
and manufacture process development of the W87 and B61-7 is associated 
with the remanufacture of existing designs. We have no requirement for 
pits in the stockpile other than to replace the one W88 pit we 
destructively test each year and for which there is a shortfall of 
spares caused by the closure of the Rocky Flats Plant during the 
production of W88. We are on a course to do just that.

           ACCELERATED STRATEGIC COMPUTING INITIATIVE (ASCI)

    Funding of the Accelerated Strategic Computing Initiative has 
ramped up very rapidly. Large new computers are in place at each Lab 
now.
    I've heard impressive figures for peak computing speeds from these 
machines. But I've also heard serious concerns that the labs have not 
demonstrated sustained performance at levels more than a few percent of 
the peak speeds.
    Question. What percent of peak speeds are currently being achieved 
in the ASCI program with the existing large machines?
    Answer. Percentage of peak processor speed on various ASCI computer 
programs currently range from about 3 percent to about 50 percent. This 
range is exactly as expected and planned from the beginning of the ASCI 
program. The range is a function of the maturity of the computer 
programs and the method of solution (algorithm) required by the problem 
being solved.
    While processor utilization is one useful measure of computer use 
efficiency, it does not give the full picture in that some algorithms 
require extensive logical and data transfer operations for problem 
solution. In those cases, the processor units must wait for data 
transfer operations to complete before they can continue processing, 
resulting in lower percentage of peak speeds being attained by such 
algorithms. Low percentage of peak speed in such cases absolutely does 
not imply that the machine is being poorly used. It simply means that 
particular algorithm for the problem solution required by the Stockpile 
Stewardship program requires the supercomputer level data transfer 
capabilities of the ASCI machine in different proportion than other 
algorithms used by the ASCI program. As has always been the case with 
new supercomputer architectures, the initial efficiencies of our new 
parallel applications will improve significantly as the computer 
programs are optimized for production.
    Question. Is the ASCI program moving too rapidly to acquire new 
impressive hardware before waiting for the software programming tools 
to develop to enable full utilization of the machines?
    Answer. No. It has always been the case in the supercomputing 
environment that the hardware exists before and always drives 
development of the software. The software will not be developed until 
the hardware exists that demands its development. This was true for the 
Cray supercomputer delivered in 1976 with virtually no software and 
will likely always be true of new supercomputing architectures.
    The programming tools needed for full utilization of the hardware 
are being made available on a planned timetable that is directly tied 
to the application mileposts for ASCI. The delivery of these tools, 
with appropriate mileposts, has been planned through the achievement of 
initial capability for three-dimensional high-fidelity-physics full 
nuclear weapons simulations in 2004. The ASCI Program is on track and 
is meeting mileposts required by the Stockpile Stewardship Program.

           LABORATORY DIRECTED RESEARCH & DEVELOPMENT (LDRD)

    Question. LDRD was held to 4 percent in the Conference Report 
impacting the current fiscal year. As I've visited at the Laboratories, 
I find that this cut in LDRD is having very severe consequences.
    LDRD investments have a proven track record of high returns to the 
taxpayer. In addition to significant contributions to mission relevant 
areas, these funds account for over 30 percent of the new knowledge, as 
measured by publications, at a laboratory like Los Alamos. There's no 
question that LDRD investments help attract the high-caliber staff 
required to meet the challenges of nuclear-weapons science and 
engineering.
    I appreciate that your budget for fiscal year 2001 restores the 
LDRD funding back up to 6 percent.
    Do you concur that the weapons programs have benefitted very 
significantly through the LDRD program and the funding should be 
restored to at least 6 per cent?
    Answer. We most definitely concur that the weapons programs have 
benefitted significantly from LDRD investments and that LDRD funding 
should be restored to at least the 6 percent level. This opinion is 
also stated in the President's Budget for fiscal year 2001; the DOE 
Stockpile Stewardship Program Review, dated 11/23/99, (also called 30-
Day Study); and the Laboratory Operations Board's recent report (1/00) 
on LDRD. The three DOE DP Laboratory Directors and the Secretary of 
Energy unanimously support restoration to a six percent LDRD program.
    Question. What impact has the 4 percent limitation had on your 
ability to meet critical Stockpile Stewardship Program goals? Please be 
specific.
    Answer. The impact of reducing the allocation from 6 percent to 4 
percent has been serious, and this negative impact will continue unless 
adequate funding is restored. Reductions in LDRD are resulting in lost 
knowledge and capabilities to meet future national defense needs. The 
LDRD Program cut caused numerous cancellations of fiscal year 2000 
weapons-related research and the scaling back of many other projects, 
thus reducing the breadth and depth of fundamental and exploratory 
science.
    The LDRD fiscal year 2000 funding cut has been creating an 
environment of uncertainty about future funding for science that has 
negatively affected morale. This uncertainty, coupled with constrained 
Program budgets, has had a noticeable impact on the ability of the 
national laboratories to attract and retain the needed scientific 
talent.
    The following is a sample list of specific curtailed or eliminated 
projects illustrating the connections to the weapons program:
  --Research and Development for Future Proton Applications
  --Application of Multi-scale Science to Weapons Issues in Fluids and 
        Materials
  --Next Generation Sophistication in High Energy Density Physics
  --Nano-Structure High Explosives Using Sol-Gel Chemistry
  --Chemical Reactions at Actinide Surfaces: Implications for Nuclear 
        Material Aging and Safety
  --RadSensor: Optical Dielectric-Modulation Sensing of Ionizing 
        Radiation
  --Atomic Resolution Probes of Strategic Materials
    Question. A criticism has been that there is far too much freedom 
and flexibility under LDRD which allows the work to get far afield of 
stockpile requirements. Do you believe this to be valid? Is it 
realistic to confine LDRD to stockpile related work only?
    Answer. We do not consider this a valid criticism today. DOE and 
the laboratories carefully manage the LDRD program to ensure support of 
their mission areas with a particular emphasis on national security. 
LDRD proposals undergo rigorous peer reviews to ensure technical 
excellence, and formidable management reviews to guarantee strategic 
alignment with the long-term goals of DOE and the laboratories. 
Additionally, DOE HQ and field offices oversee and concur on all LDRD 
projects prior to funding and an annual report on LDRD projects is 
provided to Congress.
    The national security programs at the laboratories provide about 70 
percent of the LDRD funds, yet they receive over 95 percent support 
from the LDRD projects. This is due to the synergistic nature of the 
R&D pursued under LDRD. Confining LDRD to only stockpile work would 
unnecessarily restrict the innovative impact of the program by stifling 
the creativity of the scientists and engineers. The multi-disciplinary 
nature of the Labs is generally beneficial because various DOE missions 
draw on related science and technology. Mission-oriented, LDRD-
supported basic and applied research almost always provides science and 
technology to more than one mission. LDRD helps develop and maintain 
first-class scientific and engineering capabilities in all laboratory 
competencies.
    Question. Historically, what portion of LDRD funding has been for 
direct stockpile work and how much has gone to other activities that 
are not directly related to stockpile needs?
    Answer. Consistent with statutory authority and Department policy, 
LDRD funds cannot be used to support direct stockpile work. LDRD 
supports fundamental R&D efforts that are high-risk. If proved viable, 
the results are then incorporated in the stockpile efforts of the 
laboratories. All LDRD projects at the national laboratories support 
DOE and laboratory missions. The Stockpile Stewardship Program provides 
just over 50 percent of the funds to the DP labs and is supported by 
more than 60 percent of the LDRD research funding. More than 95 percent 
of the LDRD research portfolio has a direct impact on the national 
security missions of the DP Laboratories.
    Question. How could a similar program at the production plants be 
used to address the problems identified by the Chiles Commission in 
recruiting and retaining the best engineers and technicians for the 
weapons complex of the future?
    Answer. Defense Programs is exploring a program in the production 
plants that is analogous to the Laboratory Directed Research and 
Development (LDRD) program to attract and retain the best possible 
people through activities including the development of new production 
and design concepts and the establishment of intern and cooperative 
student programs.

                   TRANSPORTATION SAFEGUARDS DIVISION

    Question. The 30-Day Review found that ``During the past year, DP's 
Transportation Safeguards Division (TSD), which is responsible for 
providing safe, secure and cost effective transportation for nuclear 
weapons in DOE custody received a `marginal' security rating.''
    What is the Department's plan to improve the ``marginal'' safety 
rating the Transportation Safeguards Division received?
    Answer. The marginal rating was the result of the postulated 
security threats growing faster than TSD resources. We have initiated a 
five year plan to enhance the resources of TSD that will put us into a 
position to satisfactorily respond to the postulated security threat. 
These resource enhancements are in both personnel, including enhanced 
training and an approximately 40 percent increase in the number of 
couriers over the next five years, and in equipment, including the 
accelerated replacement of the old-generation Safe Secure Transport 
fleet with the new-generation SafeGuards Transporters and the 
procurement of additional non-conventional escort vehicles.
    Question. Has the Administration requested sufficient funds to 
improve TSD security as soon as possible?
    Answer. Of the $115 million requested for secure transportation in 
fiscal year 2001, approximately $25 million is requested to fully 
support the security enhancements to overcome the marginal rating. The 
balance of the request, about $90 million, is needed to maintain the 
current level of operational availability of secure transportation 
assets for Defense Programs, other DOE programs, and the Department of 
Defense.

                     TRAVEL LIMITATIONS AT THE LABS

    Question. Last year, a $150 million cap on contractor travel 
expenses was imposed in an attempt to require greater efficiency and 
economy in lab travel. However, in talking to individuals at the labs, 
I am concerned that the travel cap has unfortunately forced cutbacks in 
programmatic work , significantly damaged morale of the workforce, and 
damaged the labs ability to recruit and retain the best and brightest 
scientists.
    General Gioconda and Ms. Gottemoeller, do you agree that the travel 
cap has had some very negative effects and do you support raising the 
travel cap to a reasonable level?
    Answer. (General Gioconda) Travel ceilings have resulted in 
efficiency and economy through improved business operations, including 
prioritization of travel, allocation and tracking of ceilings, and 
utilizing best practices in travel management such as following the 
Federal Travel Regulations reimbursement schedules. However, travel 
ceilings have also decreased the contractors' flexibility to handle 
discretionary travel such as training, recruitment and retention, and 
decreased their capability to handle new or unexpected requirements for 
programmatic travel. Compliance with travel ceilings has caused the 
contractors to utilize less than optimum methods of mission performance 
in order to keep travel costs down. We are concerned that these work-
arounds and delays could actually increase the overall costs to the 
Stockpile Stewardship mission both in the short-term and the long-term.
    Answer. (Ms. Gottemoeller) We recognize the concerns that led to 
the imposition of travel ceilings on the National Laboratories but, as 
a practical matter, they are translating into programmatic reductions 
that will delay the work on major Departmental initiatives in Russia, 
Ukraine, and other countries in the Former Soviet Union. Proper 
implementation and oversight of our work at the sometimes very remote 
sites in these countries require judicious travel by contractors as 
well as DOE headquarters personnel. These trips are strictly for 
project development, management, or audit and examination purposes. The 
impact of the cap on these programs, especially the international 
materials protection, control and accounting program, will be 
particularly devastating since expansion to new sites will require 
more, not less, travel for successful implementation.
    I agree with General Gioconda regarding disposition of the travel 
ceiling. The minimum that should be done in fiscal year 2001 is raise 
statutory travel ceiling to a more reasonable level to cover critical 
missions. Even better than raising the statutory ceiling would be the 
elimination of the ceiling as a legal requirement since the statutory 
ceiling is excessively expensive to manage from both the Federal and 
the contractor standpoints. Another option, such as the inclusion of a 
reasonable travel goal or target for the Department to manage in the 
report language only, is also preferable to continuation of the 
statutory ceiling.

                          PRODUCTION READINESS

    Question. The 30-Day Review found that ``production readiness, 
especially at Y-12, needs more support because many of these facilities 
have not been maintained and need to be restored in a timely manner to 
meet refurbishment production schedules.''
    The 30-Day Review also stated, ``Changes and upgrades to the 
manufacturing facilities are needed in order for DOE to meet the 
military's near-term and long-term production requirements'' necessary 
to meet the stockpile refurbishment mission.''
    General Gioconda, what is plan for and cost of this needed support?
    Answer. We are addressing these needs in three ways. First, we have 
established readiness campaigns to fill gaps in manufacturing processes 
and capabilities that are required to support future workload, but are 
not available within the complex today. Campaigns for reestablishing 
the capability to produce tritium and plutonium pits are ongoing. In 
fiscal year 2001, we are proposing to initiate the Secondary Readiness 
Campaign to ensure future manufacturing capabilities (equipment, 
people, processes) are in place and ready for production of 
secondaries. The High Explosives/Assembly and Nonnuclear Readiness 
campaigns are scheduled for initiation in fiscal year 2002. The fiscal 
year 2001 budget request includes about $200 million to support these 
activities.
    Second, we have proposed new construction activities at the Y-12 
Plant to help address these issues as well. The Highly Enriched Uranium 
Materials Facility will support the consolidation of long-term highly 
enriched uranium materials and the Special Material Complex, a 
candidate under the Defense Program Preliminary Project Design and 
Engineering Project, will enhance operational reliability for materials 
processes required for future workload. The fiscal year 2001 budget 
request includes about $27 million to support these activities.
    Finally, we have recently commissioned a comprehensive assessment 
of our recapitalization needs in response to the 30-Day Study 
recommendation. Despite our recent investments to downsize and 
modernize the weapons complex infrastructure, we realize that more 
improvements are needed to meet future refurbishment production 
schedules.
    Question. What is the total cost over how many years?
    Answer. We are in the process are finalizing our planning for the 
production readiness campaigns and are initiating planning efforts for 
the recapitalization needs. I expect that this information will be 
fully developed in time for the fiscal year 2002 budget.
    Question. Is the appropriate amount in the 2000 and 2001 budgets?
    Answer. The Department has submitted a supplemental budget request 
for fiscal year 2000 primarily to restart of Enriched Uranium 
Operations at the Y-12 Plant. All critical needs for fiscal year 2001 
are addressed in the budget request. As always, there are items which 
could not be accommodated, or those which could benefit from additional 
funding, but it is our judgement that these are not critical needs.

                             TEST READINESS

    Question. The 30-Day Review found, ``more long-range planning is 
needed to ensure that the Nevada Test Site will have the infrastructure 
and intellectual base to maintain readiness for twenty years or more. 
Work is currently underway in the Nuclear Weapons Council to evaluate 
options for enhancing test readiness through consideration of specific 
testing scenarios.''
    What options have the Nuclear Weapons Council identified to address 
the long-term infrastructure and intellectual base at the Nevada Test 
Site that will allow us to maintain test readiness?
    Answer. The Nuclear Weapons Council (NWC) chartered the DOD Program 
Analysis and Evaluation (PA&E) Office together with Defense Programs to 
review the adequacy of DOE and Defense Threat Reduction Agency (DTRA) 
planning and programs to maintain the test readiness posture directed 
by the President. Those results were briefed to the NWC on October 14, 
1999, at which time the NWC requested DOE and PA&E perform additional 
case studies to evaluate specific weapons systems and the possibility 
to reduce readiness time to 18 months. Current plans are for the NWC to 
be briefed on the results of that analysis on April 19, 2000.
    For the past 8 years Defense Programs has committed resources to 
archive knowledge, preserve unique equipment and infrastructure, and 
maintain access to experienced personnel. It is generally accepted that 
over time the ability to access personnel or to operate and maintain 
aging equipment will deteriorate to some level if not exercised.
    In order to attract and maintain a workforce with skills and 
knowledge relevant to test readiness, NTS is actively involved in 
supporting the technical campaigns centered at the design laboratories. 
Included in these campaigns are subcritical experiments which are 
critical to the maintaining test readiness since they exercise most of 
the functional area required for an underground nuclear test. The DOE 
Nevada Operations Office is also attracting various work-for-others 
programs to the NTS. These programs, also help to distribute the costs 
for NTS infrastructure across several customers.
    Although there are many unique capabilities at the test site that 
must be preserved, most of the special technical knowledge and skills 
required to prepare a device for testing, field the diagnostics, 
perform the test and analyze the results resides at the design 
laboratories and production facilities. These are capabilities that 
will be maintained though other stockpile stewardship activities. 
Consequently there is no line-item in the DOE Defense Program budget 
labeled Test Readiness.
    Question. What is the cost of these efforts in fiscal year 2001 and 
future years?
    Answer. Because test readiness is derived primarily from other 
Stockpile Stewardship programs, there is no line-item in the DOE 
Defense Program budget labeled Test Readiness. However, the Stockpile 
Stewardship portion of the DOE/NV budget is generally characterized as 
the test readiness budget, and the planned amount identified for fiscal 
year 2001 is approximately $188 million. In the outyears, we expect the 
cost to be approximately level, assuming that we maintain the current 
level of readiness.
    Question. Is the budget request adequate to support test readiness?
    Answer. The Stockpile Stewardship portion of the NTS budget is 
generally characterized as the test readiness budget. As long as the 
budget is adequate for maintaining active experiment programs, 
particularly subcritical experiment programs which exercise most of the 
functional areas required for an underground nuclear test, the 
Department will be able to maintain test readiness. The current budget 
request will provide adequate funding to meet those needs.

             DOE/NIH PARTNERSHIP FOR TECHNOLOGY DEVELOPMENT

    Question. Report language in the Defense Authorization bill for 
this current year established a partnership between DOE and NIH. The 
language set aside $6 Million in the DOE Defense Programs budget, to be 
paired with comparable funding from the NIH, to set up a pilot program 
to jointly explore the potential of DP technologies to impact medical 
health. Similar language also appeared on the NIH bills.
    The Pilot Program seeks to ensure that technologies developed 
within the nuclear weapons program are carefully evaluated for their 
impact on the health sciences, with the goal of achieving clinical 
applications and improved national health care. To the best of my 
knowledge, the DOE has not begun to implement this program.
    What is the status of this DOE/NIH Medical Technology Partnership 
program?
    Answer. We have begun this work with NIH. A number of successful 
activities are underway utilizing the imaging capabilities developed 
for the DP mission. In one case, the three-dimensional ultrasound 
developed for stockpile stewardship is improving resolution as an early 
diagnostic for breast cancer. This improved resolution will transfer 
directly back to stockpile stewardship benefit. In other cases, the 
femtosecond laser, developed as a cutting tool for national security 
requirements, is being refined as a tool for neurosurgeons and 
knowledge of fluorescing molecules is being redirected to diabetes 
therapy and potentially an artificial pancreas.
    A preliminary discussion occurred between Secretary Richardson's 
staff and NIH Deputy Director Wendy Baldwin. This will be followed by 
discussions between Defense Programs staff and NIH personnel to 
formalize the program. The Joint Conventional Munitions Memorandum of 
Understanding between the Departments of Energy and Defense will serve 
as a model for this new partnership.

                        INDUSTRIAL PARTNERSHIPS

    Question. The challenges faced by the weapons laboratories and 
plants have dramatically escalated with the cessation of nuclear 
testing. Now, more than ever before, they need access to the very best 
engineering and scientific talent in our nation.
    The labs and plants have great staff, but they don't have a corner 
on the nation's expertise. American industry, both large and small 
companies, frequently has the cutting edge technology that the complex 
needs.
    Sometimes we can buy the help we need, but in many cases, 
partnerships are the best way to leverage the talents of different 
contributors. I'm very concerned that the Department has sent strong 
and consistent messages for the last few years that partnerships with 
industry are discouraged. I think that's exactly the wrong message to 
be sending.
    In fiscal year 1996, more than $200 Million was requested for 
industrial partnerships. There isn't even a line item for these in 
fiscal year 2001. In the current year, $14 Million was identified.
    On February 14, I chaired a Hearing of the Energy and Natural 
Resources Committee in Albuquerque. The Directors of each New Mexico 
laboratory expressed strong support for industrial partnerships and 
great concern that the funding for them has vanished.
    Do you concur with my view that industrial partnerships are a 
critical contributor to the ability of the laboratories to deliver on 
their missions?
    Answer. In fiscal year 2001 there is no longer a specific 
Technology Partnership decision unit in the budget, although Defense 
Programs will continue to support various technology partnerships 
within the Campaigns which they support as a means to reach the goals 
and objectives of the Stockpile Stewardship Program. I agree with your 
assessment that leveraging partnerships with industry is critical to 
the successful achievement of the Department's nuclear weapons mission. 
By teaming with the private sector, our laboratory scientists and 
engineers have been able to solve technological problems that exist in 
the laboratories and industry in a timely, creative, and cost-effective 
manner.
    I also agree that the message to industry needs to be one of 
renewed support and funding stability to encourage development of 
productive partnerships both for the benefit of the Stockpile 
Stewardship Program and U.S. economic competitiveness. For example, 
Sandia National Laboratories is working with the State of New Mexico 
Legislature to pass a bill where a portion of the gross receipts tax 
paid by Sandia can be used to foster partnerships and small business 
technical assistance. However, this is very limited as it represents 
only $1.8 million this year, but is indicative of how valuable 
partnership activity is to the Department and the Laboratories.
    Question. Are you interested in working with me to restore a 
significant focus within the Department on these activities?
    Answer. Yes. We are establishing a significant focus on industrial 
partnerships by further integrating them with our primary mission, 
Stockpile Stewardship. The fiscal year 2001 Budget Request for the 
Stockpile Stewardship Program includes approximately $14 million for 
technology partnership activities, an increase of $1.5 million over 
fiscal year 2000 funding and the first increase in this program in 
years. Beginning in fiscal year 2001, the Department has proposed a new 
budget structure for the integrated Stockpile Stewardship Program. 
Within this new budget structure, Technology Partnerships will directly 
support the Stockpile Stewardship Program within the Campaigns budget 
line. While the details of how this strategy will be executed in the 
field have not been finalized, one of our goals is to leverage industry 
capabilities in order to meet our program challenges within the fiscal 
year 2001 budget. We would like to promote industrial partnerships with 
the weapons program, especially those that support Stockpile 
Stewardship and I am open to discussing options to accomplish this.

                   RADIOGRAPHIC DIAGNOSTIC FACILITIES

    Question. DOE is currently operating several radiographic 
diagnostic experimental facilities. They include PHERMEX and DARHT at 
Los Alamos, FXR and the Contained Firing Facility at Lawrence 
Livermore, LANSCE at Los Alamos, and the Z-pulsed power facility at 
Sandia.
    Could you briefly explain the importance of each of these 
facilities to the stockpile stewardship program?
    Answer. PHERMEX, DARHT, FXR and the Contained Firing Facility are 
or will be experimental hydrodynamics facilities. They provide x-ray 
images through an imploding nuclear weapons system containing a high-
explosive driven primary but with the special nuclear materials 
replaced by surrogates. Absent nuclear testing, these experiments are a 
principal means by which the weapons laboratories can observe the 
impact on system behavior of changes resulting from aging or design, 
material and manufacturing changes during refurbishment. These 
experimental facilities are providing higher resolution will be 
required to validate predictions of nuclear weapons performance that 
will be generated through the new ASCI codes.
    The two principal LLNL facilities are FXR and Building 851, located 
at site 300, about 15 miles southeast of LLNL. Both are used for 
experimental work on primary systems and for reimbursable work for the 
Department of Defense. FXR conducts about 10-15 major experiments in 
weapon full geometry each year. The Building 851 facility has been used 
for ``Manybeam Velocimetry'' experiments. In total about 150-200 
smaller tests are conducted each year. Conducting the full complement 
of weapon experiments has required the capacity of two facilities. 
PHERMEX at LANL provides similar capabilities for LANL experiments that 
FXR does at LLNL.
    The Contained Firing Facility of CFF, is a facility upgrade to FXR. 
It will maintain the same beamline, but will provide for full 
containment of the explosion in order to mitigate adverse environmental 
effects. Closure of the FXR facility has never been planned., but its 
use will be changed as many full system hydrodynamics shots will be 
moved to DARHT.
    DARHT's second axis, under construction at LANL, will, for the 
first time, provide two-axis multi-time radiographs of imploding 
primary systems with improved resolution and intensity over current 
single axis facilities. This will provide improved ability to infer 
cavity shape and criticality of imploding primary systems essential for 
both performance and nuclear safety assessments. Once operational, this 
will be the mainstay of DP radiographic efforts.
    The Z-pulsed power facility at Sandia is principally a high energy 
density experimental facility that supports physics relevant to 
radiation flow and hydrodynamics of secondaries and also will study 
materials properties. To support these experiments Z will use the NIF 
beamlet experiment as a radiographic source for experiments relevant to 
secondary physics. This will complement the radiographic facilities 
above that support primary research.
    LANSCE's principle relevance to radiography is to provide the 
proton beam that is used in experiments to explore proton radiography 
for potential use on a future hydrodynamic test facility. This new 
technology shows great promise to image very dense systems with high 
resolution. These experiments have also been valuable in measuring 
properties of some small scale high-explosive experiments. These LANSCE 
experiments are small-scale scientific experiments and do not per se 
constitute major hydrodynamics tests of stockpile devices. Such uses 
are a small part of the total LANSCE effort which is principally 
focused on obtaining materials properties and nuclear data in support 
of both Defense Programs and the Office of Science.
    Question. What is the schedule for closing some of the older 
facilities as the newer more advanced facilities come on line?
    Answer. Currently Defense Programs is developing a hydrotest 
facility user plan to consolidate operation at FXR/CFF and DARHT with 
both labs using each facility, and other facilities to be closed.
    PHERMEX is scheduled for shutdown in fiscal year 2001 after 
completion of a major special hydrodynamics test. It is intended that 
LLNL B851 be closed within about a year of the time CFF is completed in 
late fiscal year 2001.
    Until recently, both LLNL and LANL operated two accelerators, FXR 
and an RF LINAC at LLNL, and PHERMEX and ECTOR at LANL. When the 
current hydrotest projects are completed, the LLNL RF LINAC, and LANL 
PHERMEX and ECTOR machines will be decommissioned, leaving only DARHT 
and CFF to meet the needs of the hydrotest program.
    Question. FXR is currently being used to support development work 
for DARHT. Why hasn't FXR been closed as planned? When do you expect 
the FXR mission will be completed and the facility closed entirely?
    Answer. CFF [Contained Firing Facility] is a facility upgrade to 
FXR. It will maintain the same beamline, but will provide for full 
containment of the explosion in order to mitigate adverse environmental 
effects. Closure of the FXR facility has never been planned but its use 
will be changed as many full system hydrodynamics shots will be moved 
to DARHT.
    Question. Does DOE plan to close any of the existing facilities 
upon completion of the second axis of DARHT? Please explain.
    Answer. PHERMEX, ECTOR, and Building 851 will be closed as 
operations are consolidated at DARHT and CFF. This will happen before 
DARHT second axis is operational. While these schedules anticipate 
DARHT second axis operations they are not contingent upon it.
    Question. What will proton radiography being developed at LANSCE 
provide that DARHT, Advanced DARHT or other hydrodynamic facilities 
cannot?
    Answer. Primary weapons designers have believed for years that they 
will need a multi-time mutli-axis radiographic capability in order to 
provide the resolution necessary to assess the safety and performance 
of a primary system to the small margins of uncertainty that will be 
required. The goal is to be able to reconstruct a 3-D moving picture of 
an imploding primary system. Efforts are ongoing to provide a sound 
scientific justification for the requirements for such a facility, 
including the number of axes. Most estimates indicate that it would 
require 4-12 beam lines.
    While multiple x-ray beams of the type used in current facilities 
could be one approach, recent improvements suggest that proton 
radiography could be an excellent alternative. Proton radiography uses 
magnetic lenses to focus high energy photons onto an imaging system 
during an imploding weapon experiment. This works very much the way a 
camera lens focuses light on film to make a photograph. With x-ray 
radiography only a small fraction of the energy makes it through the 
target, whereas most high energy protons would make it through a 
target, providing much better resolution. Though this application to 
radiography is a recent development, it is a mature technology since 
the basic capabilities have been employed in proton accelerators for 
years. The principal challenge is to tailor an accelerator design and 
beam transport system to the requirements for multi-axis radiography in 
a way that minimizes costs.

                         PLUTONIUM DISPOSITION

    Ms. Gottemoeller, the Congress provided $200 million in fiscal year 
1999 to jump-start negotiations on disposing of surplus weapons 
plutonium in Russia. I have repeatedly heard that the existence of this 
$200 million, which can be obtained by Russia only after the 
disposition work actually starts, has been a tremendous impetus towards 
finalizing the disposition protocol.
    I'm very concerned that we move as rapidly to start with the 
disposition. As you know, this is material for well over 6,000 weapons. 
I'm therefore puzzled that the Department chose to identify $49 Million 
of that $200 Million to cover prior year balances and very recently has 
proposed to defer another $40 Million of this Fund in your fiscal year 
2000 supplemental request.
    I don't think we are sending an appropriate message to the Russians 
about the urgency of disposition of weapons-grade plutonium with these 
funding cuts, even if we propose to restore the cuts later.
    Question. Ms. Gottemoeller, do you share my view that disposition 
of these weapons materials represents one of our most critical national 
security challenges before us?
    Answer. Yes. The disposition of surplus weapons-usable fissile 
materials does represent one of our most critical national security 
challenges. These disposition activities, along with other efforts to 
dismantle weapons delivery systems, secure nuclear materials, and 
prevent the spread of nuclear weapons knowledge, are key parts of the 
United States Government's strategy to reduce the global danger from 
the proliferation of weapons of mass destruction.
    Question. Can you assure me that the Department's actions in using 
almost one-half of the $200 million for other purposes will not harm 
the negotiations?
    Answer. The Department's fiscal year 2001 budget requests $49 
million to become available in fiscal year 2004, when the funds are 
needed for plutonium disposition in Russia. Congressional approval of 
the Department's fiscal year 2001 budget request will restore funding 
to the $200 million level, which provides the greatest assurance that 
this important arms control and nonproliferation initiative with Russia 
can be successfully concluded.
    Question. What is the status of the negotiations with the Russians?
    Answer. Following extensive negotiations with Russia over the past 
year on a bilateral plutonium disposition agreement, all of the 
outstanding issues, save one, have been resolved. Our aim is to resolve 
this issue in a matter of weeks and have an agreement that can be 
signed later this Spring.

           OVERALL BUDGET--PRIORITIES FOR ADDITIONAL FUNDING

    Question. If the Committee were to provide you additional funds, 
what would be your next priorities and at what level of funding?
    Answer. The President's request is an appropriate level for 
competing requirements and for meeting critical program objectives. I 
can assure you that we will continue to carefully examine our program 
and budget priorities through the budget process.

                     TASK FORCE ON NONPROLIFERATION

    Secretary Richardson recently announced the creation of a new task 
force, to be led by former Senator Howard Baker and Lloyd Cutler. The 
Secretary has tasked the group to send him a report by September 
outlining ways to improve programs involving materials protection, 
economic development and cooperation on R&D between Russian and 
American Scientists.
    Question. What types of concerns prompted the Secretary's creation 
of the panel?
    Answer. Secretary Richardson decided to use the established 
Secretary of Energy Advisory Board (SEAB) as the vehicle for this Task 
Force on Russia. The objectives of this Task Force are: to provide 
recommendations to the Secretary of Energy regarding the policy 
priorities established by DOE to pursue cooperative nonproliferation 
and nuclear safety programs with Russia and the other countries of the 
Newly Independent States (NIS); to identify crucial program areas that 
may not have been addressed in the past; and to provide an assessment 
of the performance of DOE's programs in achieving national security and 
nonproliferation missions. The Task Force's recommendations of new 
potential areas of cooperation may be used as a blueprint for future 
programs in the next Administration.
    Question. Are there areas where the Labs can increase their 
collaborations with the Russians on non-proliferation R&D programs?
    Answer. Yes, there are at least two such areas. First, as part of 
the $100 million Long-term Nonproliferation Initiative, we are hoping 
to engage our labs and Russian specialists on the subject of enhancing 
the proliferation resistance of reactors and the nuclear fuel cycle. 
This, of course, is contingent on Russia complying with the commitments 
it has given the United States regarding cooperation with Iran. We are 
also proposing research on long-term solutions for spent fuel and 
radioactive waste. Secondly, under the Nuclear Cities Initiative, a 
number of our laboratories are hoping to contract for services from 
Russian counterparts on a range of non-military issues, from the 
development of simplified computer codes, to analyses of radionuclide 
transport through various geological media.
    Question. Do you have a good system for measuring success in the 
Russian programs? Should we limit future funding for NCI to 
demonstrable conversion from military to civilian activities?
    Answer. All of our Russian programs have measures of success; 
however, some of them are more easily measured than others. Among those 
with straightforward metrics are the MPC&A program, where we measure 
the amount of special nuclear material and number of facilities 
secured, the Highly Enriched Uranium Purchase program, where we measure 
the amount of uranium blended down, and the Plutonium Disposition 
program, where we measure the number of kilograms of plutonium that are 
to be processed. The programs directed at preventing the migration of 
scientists with weapons knowledge to countries and organizations of 
concern are more complex to measure. The Initiatives for Proliferation 
Prevention Program measures the number of scientists employed, the 
number of institutes engaged, financial contributions from industry, 
the number of new enterprises created, and similar metrics. The Nuclear 
Cities Initiative measures number of workers employed, number of new 
jobs created, number of individuals trained, level of private industry 
participation, number of facilities converted, and the square footage 
of space transferred from weapons to non-weapons work. NCI also 
provides for changes in municipal infrastructure to enable 
transformation of the nuclear cities from a total weapon-based economy 
to a commercial economy in the ten closed cities.
    The Nuclear Cities Initiative is making demonstrable progress in 
transferring former weapons facilities to non-weapons work. The recent 
agreement to dedicate over 500,000 square feet of floor space at the 
Avangard nuclear weapons plant at Sarov to commercial work is a notable 
example of such progress. Such metrics clearly indicate that the 
Nuclear Cities Initiative can achieve important national security goals 
for the United States by working with the Russian Federation to 
accelerate the downsizing of the Russian nuclear complex.
    Question. Can you elaborate on the types of threats the United 
States and the world community are facing in Russia?
    Answer. The current economic and security situation in Russia poses 
strong challenges for U.S. security interests. Within Russia, there 
continue to be cases of ``insider thefts'' of sensitive material, 
almost certainly a reflection of the prevailing economic conditions in 
Russian society. Underpaid security guards and workers at nuclear 
facilities, as well as world class scientists with access to sensitive 
materials and information, remain a worrying ``insider'' problem. Over 
the past several years, Russia also has experienced a sharp rise in 
terrorist activity. The Russian military in 1999 reported 560 terrorist 
incidents in Russia, including several reported threats against 
facilities holding sensitive materials. In addition, Iran and other 
nations seeking to develop WMD capabilities also are looking to exploit 
Russia's security conditions through aggressive efforts to acquire 
fissile material and expertise. The MPC&A program, in cooperation with 
the Russian government, has provided upgraded security for nearly 450 
metric tons of nuclear material, enough material to build 24,000 
nuclear devices. In so doing, the program represents a powerful 
countervailing force against those trying to exploit Russia's endemic 
security problems.

               MATERIALS PROTECTION CONTROL & ACCOUNTING

    Securing and disposing of nuclear material in Russia is one of our 
most important national security objectives. However, the GAO recently 
issued a report that indicated the Department had achieved very limited 
progress in improving the security of nuclear materials in Russia. The 
report stated that only 7 percent of the 650 metric tons have been 
identified as being at risk for theft or diversion, are stored in 
buildings with installed security systems.
    Question. How would you respond to the GAO Report?
    Answer. The GAO only had one recommendation--to develop and 
annually update an overall cost estimate and time frame for completing 
the MPC&A program. We completely agree with this recommendation and 
have already begun developing this estimate. It will be completed in 
May.
    However, the GAO Report also stated that ``About 50 metric tons, or 
about 7 percent of the approximately 650 metric tons of the weapons-
usable nuclear material, are in buildings with installed security 
systems.'' Actually, rapid upgrades to approximately 450MT of 
additional at-risk nuclear material are either ongoing or have been 
completed. The 450MTs that have either been secured or are in the 
process of being secured is equivalent to roughly 24,000 nuclear 
devices. The 7 percent refers to weapons-usable material that has 
received comprehensive security upgrades, meaning all aspects of the 
MPC&A installation work is complete. Rapid upgrades are the first steps 
DOE takes to immediately improve security and thus reduce the 
proliferation threat. Rapid upgrades include, for instance, 1-ton delay 
blocks, steel cages, bricked windows, hardened doors and mechanical 
locks. Once rapid upgrades are complete, focus is then placed on 
completing the required comprehensive security upgrades, which involve 
more advanced material control and accounting systems.
    Access to sensitive MinAtom facilities was another issue raised by 
the GAO, and DOE is addressing this concern in a number of ways. 
Secretary Richardson and Minister Adamov established a Task Force to 
develop solutions to the problem, and there are ongoing discussions and 
negotiations in this forum. DOE has developed additional guidance 
regarding access, and this guidance will be used in future MPC&A 
upgrade negotiations and contracts. Access needs vary at each site, and 
the access guidance provides for access to be negotiated on a site by 
site basis as needed.
    Question. The GAO report also recommended the Department develop a 
cost estimate and schedule for completing the MPC&A program. Is that 
possible at this time?
    Answer. Yes. DOE has already begun developing this updated MPC&A 
Life Cycle Cost and Schedule Estimate. The revised estimate will be 
completed by May 2000 and, as the GAO recommended, will be updated 
annually in December.
    Question. Please update the Committee on recent developments in 
your work with the Russian Navy?
    Answer. The Department of Energy's (DOE) cooperative relationship 
with the Russian Federation Navy (RFN) began in 1996, when the RFN 
requested assistance from DOE to secure highly enriched uranium (HEU) 
fuel. In 2000, DOE will:
  --commission four HEU fuel facilities;
  --complete work to secure test reactors belonging to the Russian 
        Ministry of Defense at a facility in Sergeiev Posad;
  --continue work supporting MPC&A upgrades at RFN facilities at 
        Kurchatov Institute; and
  --provide MPC&A training for Russian Navy personnel.
    Building on what is now a solid record of accomplishment--reflected 
by security upgrades to some 30 Metric Tons of proliferation attractive 
material--DOE has also been asked by the Russian Navy to expand this 
relationship to include a long term plan for the physical protection of 
over 30 Navy strategic and tactical nuclear weapon storage sites. In 
2000, DOE will complete initial rapid upgrades at seven sites, complete 
comprehensive upgrades at one of these sites and sign contracts for 
initial rapid upgrades at least seven additional sites.
    DOE will work only at those sites where access can be granted to 
ensure that appropriated funds are being spent properly.

                    NEW INITIATIVE FOR $100 MILLION

    Question. Couldn't both requests just as well be included within 
the existing MPC&A program and within an expanded Nuclear Cities 
Initiative?
    Answer. From a budgetary perspective, the requests could just as 
well be included within the existing MPC&A program and within an 
expanded Nuclear Cities Initiative. However, the Long-Term 
Nonproliferation Program for Russia will establish a series of new 
efforts to respond to recognized but previously unaddressed threats to 
U.S. national security. This expanded component of our nonproliferation 
work will supplement on-going Departmental programs and establish new 
and accelerated solutions to the most serious dangers presented by the 
Russian nuclear weapons complex and civilian nuclear facilities.
    This program both builds upon successful on-going projects and 
takes advantage of new opportunities presented by the Russians to 
dramatically reduce the production of plutonium; enhance the 
proliferation-resistance of nuclear fuel cycle technologies; accelerate 
the planned downsizing of the Russian nuclear weapons complex through 
the closure of facilities and consolidation of nuclear materials into 
fewer locations; and expand nuclear material protection activities to 
the most sensitive Russian Navy sites. All of these activities reflect 
our deep concern over the risks of theft and diversion of nuclear 
materials in the unique circumstances of the post-Cold War environment.
    Question. Why were they included as new initiatives instead of 
suggested as very logical and very positive additions to existing 
programs?
    Answer. The work in the $100M initiative does not duplicate any 
existing MPC&A work and responds to new opportunities. The $20 million 
for MPC&A will expand work into the new, unplanned and previously 
unfunded areas of Russian Navy cooperation at highly sensitive sites, 
and provide similar opportunities for our material consolidation and 
conversion and Russian emergency management system work. For example, 
the new funding will enable us to convert an additional 1.5 metric tons 
of highly enriched uranium--which is attractive to proliferators--to 
low enriched uranium.
    The $10 million for the Nuclear Cities Initiative (NCI) will be 
used in a new project to accelerate the closure of the weapons 
production capabilities at Sarov (Avangard) and Zarechnyy (Penza-19) to 
shift large portions of their work force to work outside of the nuclear 
weapons complex, related commercial activities, and provide civilian 
employment opportunities for scientists and technicians currently 
working in these facilities. We are already achieving success in the 
transfer of 500,000 square feet from weapons work to commercial 
production at Avangard. We would like to accelerate this process at 
Avangard and begin work a similar effort as quickly as possible at 
Penza-19.
    Question. The budget request includes a new $100 million non-
proliferation initiative. Included within that request would be funding 
for increased Materials Protection, Control and Accounting work on 
Russian Naval fuels as well as funding for conversion of some of the 
Russian weapons facilities.
    A portion of the funding presumes an agreement with the Russians 
for them to stop the reprocessing of civilian spent fuel and the 
production of plutonium. Is there an agreement with the Russians? What 
is the status of negotiations?
    Answer. Negotiations continue to take place on an intensive basis 
with Russian Federation officials to develop a high-level Joint 
Statement on a moratorium on further accumulation of separated civil 
plutonium resulting from the reprocessing of civil power reactor fuel 
in Russia. This effort will complement established U.S. programs to 
secure and eliminate plutonium arising from weapons dismantlement. Once 
this high-level Joint Statement is signed, which we expect to occur 
early this summer, we will proceed immediately to complete the Work 
Plan and Implementing Agreement necessary to implement the Initiative. 
These documents, which we are already developing with the Russians, are 
to be completed by October 1.

                       NUCLEAR CITIES INITIATIVE

    Question. I've spoken out in several statements, most recently at 
Princeton University on March 14, with concerns that the credibility of 
the current Nuclear Cities program suffers in Congress from a lack of 
transparent milestones. I've suggested that the only way to gain 
significant funding for the Initiative would be for our support to be 
tied to such milestones that lead to downsizing of the entire Russian 
nuclear cities complex to levels consistent with their future national 
security needs.
    Dr. Gottemoeller, you've described progress within the Initiative 
along the very lines that I've suggested. I appreciate your progress. 
Based upon your understanding of the interests of the Russian MinAtom 
leadership, would you anticipate that the Russians would agree to a 
firm schedule for downsizing with verifiable milestones, in return for 
a significant increase in the Nuclear Cities budgets?
    Answer. The Department of Energy fully shares your interest in 
securing the rapid downsizing of the Russian nuclear complex to levels 
consistent with Russia's national security needs. MinAtom has developed 
a plan for significant reduction of their complex, and I believe the 
Russians are committed to implementation of the plan. Senior leadership 
within MinAtom responded to your remarks at the Princeton Conference by 
affirming the Russian Government's strong desire to downsize its 
nuclear weapons complex; they also stated that NCI is essential if they 
are to implement their conversion plans on an accelerated basis, 
consistent with the desires of both Governments. I believe that there 
is a widely held view within the Russian leadership that the nuclear 
weapons complex is larger than necessary and too costly to sustain. On 
March 31, 2000, President Putin, in his first major policy address as 
the newly elected President of the Russian Federation, reaffirmed this 
position during a speech to nuclear workers in Snezhinsk. With the 
Russian acceptance of downsizing, we should indeed be able to provide 
concrete and verifiable measures of downsizing of facilities and 
transfer of people to the civilian sector. In a significant new 
development, we recently signed an agreement with the Avangard weapons 
production plant that will move 500,000 square feet of work space from 
within the weapons complex to the open part of the city. This 
constitutes a real and measurable reduction in the Russian nuclear 
complex. Furthermore, strategic plans are under development by U.S. 
representatives and Russian scientific and downsizing community 
stakeholders within the three closed cities of Sarov, Snezhink, and 
Zhleleznogorsk to map out the commitment and the time-line to 
accomplish these complex, downsizing efforts. With your support and the 
support of the Congress, we can make even greater progress in the 
future.

                  CORE CONVERSION OF RUSSIAN REACTORS

    Question. In 1997, Vice President Gore announced a centerpiece of 
the Clinton Administration's arms control package. It involved a 
commitment from Russia to halt production of weapons-grade plutonium by 
the end of this year by converting their production reactors to new 
cores that would not continue the plutonium production. The project was 
advertised to cost about $80 Million.
    The Russians have stated that these reactors produce critically 
needed heat for their cities, and can't simply be shut down. Most of 
this project is funded through Nunn-Lugar DOD funds, but the safety 
evaluations are being done through DOE funds.
    Lately, reports are circulating that this program is being called 
into serious question by the Russians. For one thing, The Vice 
President's plan called for conversion of these reactors to Highly 
Enriched Uranium cores--the very material that we're desperately trying 
to encourage the Russians to dispose of. It's never been clear to me 
why the core conversion was such a great idea if it increase Russian 
use and traffic in HEU.
    Then there's the issue of safety. These reactors are early versions 
of the Chernobyl reactor. These reactors have glaring safety problems, 
we've got plenty of evidence of that already. Our and Russian experts 
are pointing out that the safety margins are even worse if we convert 
these cores to HEU.
    The Russian have proposed that this project be canceled and that we 
assist them in procurement of gas turbines instead. I understand there 
is a cost issue on these gas turbines, with Russian and Administration 
cost estimates very different ($230 Million vs $1 Billion).
    What's your view of this core conversion program? Should we be 
encouraging this use of HEU and perpetuation of Chernobyl-type 
reactors, to say nothing of Chernobyl-type reactors with degraded 
safety margins?
    Isn't it time for the Administration to explore other options?
    Answer. Both the United States and Russian governments remain 
committed to achieving the objective of the 1997 Plutonium Production 
Reactor Agreement (PPRA), i.e., stopping the production of weapons-
grade plutonium from the three remaining Russian plutonium-producing 
reactors. Those reactors have not been shut down because, in addition 
to producing a combined two metric tons of plutonium a year, they also 
supply energy for the surrounding regions. Since receiving initial 
funding in fiscal year 1998, a joint effort was undertaken to end 
weapons-grade plutonium production through the conversion of the three 
operational reactors to a highly enriched uranium fueled core design. 
The results of this design effort have raised significant questions in 
Russia and the U.S. regarding the benefits versus the risks of this 
approach. We are now assessing with Russia whether core conversion, 
possibly with a low-enriched uranium fuel, or provision of fossil fuel 
energy sources is the most safe, efficient and cost-effective approach. 
Our joint goal remains to end the production of weapons-grade plutonium 
consistent with the intent of the PPRA.

                       COMPETING NN R&D CONTRACTS

    Question. What is the status of your efforts to comply with this 
provision?
    Answer. Regarding competing R&D contracts, we are following 
Congressional direction, and have initiated the process to start open, 
competitive acquisition of 25 percent of our R&D program. While there 
are no projects where work is procured through a DOE competitive 
process open simultaneously to DOE laboratories, universities, and 
private companies, approximately 3 percent of our program funds go 
directly to industry and 1 percent to universities. In addition, 
approximately 15 percent of R&D funds provided to the laboratories go 
to industry, as well as 3 percent to university researchers.
    As a start to this process, we are finalizing a draft, joint 
solicitation with the Department of Defense for release this summer 
that will procure seismic-related research and development for the 
ground-based portion of our Nuclear Explosion Monitoring program, 
resulting in approximately 4 percent of that part of our fiscal year 
2000 program being acquired through open competition. Our progress 
toward acquiring more work through open, competitive means has been 
slowed by fiscal year 2000 undistributed reductions which eliminated 
the source of funds for any new work. The remaining budget is dedicated 
to many large, multi-year projects, and we did not believe it prudent 
to terminate or adversely impact on-going work that is scheduled to 
meet firm delivery dates or is jointly funded with other agencies. We 
are currently identifying specific research and development thrusts in 
each program area for open competition in fiscal year 2001.

             PROPOSAL TO ESTABLISH SEPARATE SECURITY BUDGET

    Question. General Habiger, you have testified that the Department 
will be proposing a unified separate budget for its safeguards and 
security program, and that safeguards and security through-out the 
weapons complex will be your responsibility. However, Sec. 3212(b)(6) 
of the National Nuclear Security Administration Act specifically gives 
responsibility for safeguards and security to the Administrator. And 
Sec. 3232(c) of the Act provides that there will be a Chief of Defense 
Nuclear Security working for the Administration to implement security 
policies. Isn't your proposal for a unified Department-wide security 
budget inconsistent with the clear Congressional direction of the NNSA 
Act?
    Answer. No, we believe that it fully supports the intent of the 
legislation, i.e, to strengthen safeguards and security throughout DOE, 
and the NNSA. This unified budget will provide the NNSA Administrator 
and his Chief of Defense Nuclear Security, with a definitive budget 
profile that can be used to provide overall better planning and 
execution. In the past, the security funding was obtained from overhead 
accounts that were subject to nonprogrammatic changes depending on 
individual priorities at each facility.
    Question. Shouldn't the responsibility for security be integrated 
into the line program? Shouldn't we hold the lab director's responsible 
for security at their site?
    Answer. Responsibility for security at our laboratories remains 
unchanged, i.e., the field office managers and contractors will 
continue to be the first line of defense to assure appropriate security 
at their respective locations, and the LPSO's will continue to be 
accountable for integrated security and program implementation. The 
unified budget will provide them with a definitive funding profile that 
will permit better planning of security implementation.

                               POLYGRAPHS

    Question. What is the current best estimate of the number of 
employees subject to polygraphs? If the figure is above 1000, why was 
it changed? And will my concerns on the use of polygraphs be part of an 
integrated security program.
    Answer. In October 1999, Congress passed the National Defense 
Authorization Act (NDAA) for fiscal year 2000. Section 3154 of the NDAA 
requires the Secretary of Energy to carry out a counterintelligence 
polygraph program for the defense-related activities of the Department. 
The counterintelligence polygraph program consists of the 
administration of a counterintelligence polygraph examination to 
specified persons who have access to high-risk programs.
    On December 17, 1999, reflecting the Congressional mandate of 
Section 3154, DOE published a final rule for the use of polygraph 
examinations for certain DOE and contractor employees, applicants for 
employment, and other individuals assigned or detailed to Federal 
positions at DOE. (64 FR 70962) The Polygraph Examination Regulation 
identifies eight categories of positions which are eligible for 
counterintelligence polygraph examinations.
    On December 13, 1999, I issued a memorandum for all DOE employees 
identifying the specific positions within the eight counterintelligence 
categories covered by the Polygraph Examination Regulation that will be 
subject to the polygraph testing. I estimated that approximately 800 
individuals throughout the DOE complex would undergo 
counterintelligence polygraph testing during the implementation of the 
counterintelligence polygraph program. I also noted that Section 3154 
forbids DOE from providing anyone initial access to a SAP or the PSAP 
without first signing a consent agreement and then taking a 
counterintelligence polygraph examination. I stated that this statutory 
requirement would be implemented in accordance with the terms of the 
Polygraph Examination Regulation.
    I estimate that between 2600 and 3100 employees currently in one or 
more of the eight counterintelligence categories covered by the 
Polygraph Examination Regulation will be polygraphed over the next five 
years; however, approximately 1350 additional employees will require 
initial access to a SAP or the PSAP during Calendar Year 2000, and must 
be polygraphed in accordance with Section 3154. I intend to submit to 
the Congress legislation that would amend Section 3154 of the NDAA to 
provide authority to identify the specific positions within the 
Department which should be eligible for a counterintelligence polygraph 
examination.
    I share your concern on the use of polygraphs as part of an 
integrated counterintelligence program. Section 3154(g) of the NDAA 
required DOE, in consultation with the Federal Bureau of Investigation 
(FBI), to develop procedures for identifying and addressing ``false 
positive'' results of polygraph examinations, and to ensure that 
adverse actions are not taken against an individual solely by reason of 
that individual's physiological reaction to a question in a polygraph 
examination. DOE provided a draft of its Polygraph Examination 
Regulation to the FBI for its review and comment. The FBI concurred in 
the issuance of the Polygraph Examination Regulation and did not 
recommend any changes relative to those portions addressing DOE's 
procedures for addressing ``false positive'' results and not denying or 
revoking an individual's access based solely on the results of a 
polygraph examination.
    I believe that these procedures as set forth in the final Polygraph 
Examination Regulation successfully address your concerns and those 
received during the public comment period on the use of polygraph 
examinations as part of an integrated counterintelligence program.

                             CYBER SECURITY

    Question. General Habiger, you have requested $30.3 million for 
cyber security at the Department. The budget indicates a great majority 
of that money will be spent at headquarters for hiring new FTEs, and to 
provide policy, planning, training, and technical development. Why did 
the Department not request money for actual cyber security upgrades at 
the laboratories?
    Answer. A majority of the $30.3 million requested is directed 
towards improving security Department-wide and is broken out as 
follows: $15 million is for hardware and software tools to improve 
unclassified system security; $3.35 million is requested for conducting 
cyber security training; $12 million will be spent to significantly 
increase our cyber security incident response capability ($5M), 
implement a Public Key Infrastructure Department-wide ($2M), and 
complete additional ongoing cyber security activities.
                                 ______
                                 

               Questions Submitted by Senator Larry Craig

              LABORATORY DIRECTED RESEARCH AND DEVELOPMENT

    Question. Last year, Congress eliminated the use of environmental 
management funds for the purpose of laboratory directed research and 
development--so called ``LDRD'' programs. I do not agree with this 
restriction because LDRD contributes to the development of innovative 
new technologies. DOE has requested an increase in LDRD for non-
Environmental Management programs from the current 4 percent to 6 
percent. Would you comment on the value of LDRD research?
    Would you comment on the value of LDRD research?
    Answer. (General Gioconda) We believe that LDRD research does 
return substantial value to the taxpayer. First and foremost, it plays 
a critical role in ensuring the scientific and technical vitality of 
the laboratories, which support the current and future needs of the 
national security missions. The Stockpile Stewardship Program (SSP), in 
the absence of nuclear testing, is a major challenge, requiring the 
laboratories to remain at the cutting edge in relevant scientific 
fields. LDRD has helped the scientific foundation for SSP (e.g., 
massively parallel computing for ASCI, use of lasers for material 
processing, high explosives research, and proton radiography) and has 
enabled the laboratories to attract the high caliber staff needed to 
meet these challenges.
    Answer. (Dr. Gottemoeller) Our Nonproliferation and Verification 
R&D program conducts applied research, development, testing, and 
evaluation of science and technology for strengthening the U.S. 
response to national security threats posed by the proliferation of 
nuclear, chemical, and biological weapons and diversion of special 
nuclear material. Through the LDRD process, the laboratories pursue 
basic or high risk research that is the wellspring of many of the 
concepts that are subsequently supported by our program, but which at 
the outset are not mature enough to be funded in a directed research 
and engineering program. Limiting LDRD to four percent reduces the pool 
from which successful research concepts may arise to feed our future 
applied research needs.
    Question. Do you feel that LDRD research returns value to the 
taxpayer?
    Answer. (General Gioconda) LDRD investments at the three DP 
laboratories have a proven track record of high returns to the 
taxpayer:
  --Over 25 percent of new knowledge, as measured by peer-reviewed 
        publications;
  --Over 30 percent of useful new technologies, as measured by patents 
        granted;
  --Over 40 percent of new science and technology workers, as measured 
        by the participation of students and recent doctoral recipients 
        on LDRD projects; and
  --Over 60 percent of R&D 100 Awards, many in partnership with 
        industry.
    Answer. (Dr. Gottemoeller) I believe the taxpayer gets a very good 
return on the LDRD investment. In addition to being the basic research 
source of many of our innovative, operationally oriented development 
projects, the LDRD program is a magnet for new, young scientists to 
pursue innovative concepts that push the boundaries of science and 
technology. The six percent level of LDRD support in past years was 
believed to be an appropriate balance between the funding for basic 
research concepts and our program of directed research on national 
security and nonproliferation issues. We believe that six percent 
should be reinstated.

                            BN-350 SHUT-DOWN

    Question. I understand that DOE's program to secure the spent fuel 
from the BN-350 breeder reactor in Kazakhstan has been successful so 
far. Argonne National Laboratory has been assisting in the safe 
shutdown of the reactor by transferring experience gained in the 
shutdown of the EBR-II reactor in Idaho and in designing a system to 
remove radioactive cesium from the reactor coolant. I understand that 
Kazakhstan has decided to shut down this reactor permanently.
    What is the current U.S. role at the BN-350 with respect to 
permanent shutdown of the reactor?
    Answer. In April 1999, Kazakhstan announced its intention to 
permanently shut down the BN-350 breeder reactor located in Aktau, 
Kazakhstan on the eastern shore of the Caspian Sea. Since that time, 
the Office of International Nuclear Safety and Cooperation (NN-30) has 
been assisting Kazakhstan with immediate safety and decommissioning 
issues. In December 1999, Secretary Richardson and the Kazakhstan 
Minister of Energy, Industry and Trade signed an Implementing 
Arrangement that formalizes the U.S. intent to assist in the 
decommissioning of the reactor. This assistance will include joint 
development of a shutdown plan that will be peer-reviewed under the 
auspices of the IAEA. Upon completion, the plan will be used by 
Kazakhstan to solicit technical and financial assistance other nations 
and international organizations.
    The technical focus of the U.S. assistance will be to ensure that 
the shutdown of the reactor is irreversible. This will be accomplished 
by decontaminating, draining, and deactivating the reactor's highly 
radioactive sodium coolant. These actions will be performed using 
technologies and procedures developed by Argonne National Laboratory at 
EBR-II.

                         NUCLEAR SAFETY CENTERS

    Question. Argonne West personnel are involved with two joint 
centers--the Russian International Nuclear Safety Center and the 
Kazakhstan Nuclear Technology Safety Center--that were established with 
the goal of enhancing the nuclear safety infrastructure in each 
country. The work of the safety centers addresses nuclear safety 
through activities such as providing training on the use of nuclear 
safety computer codes, developing safety procedures, and transferring 
knowledge gained from nuclear operations around the world.
    Would you comment on the role the centers have played in enhancing 
nuclear safety in these countries?
    Answer. The International Nuclear Safety Centers in Russia, 
Kazakhstan and the United States have made significant contributions to 
nuclear safety. The centers currently carry out collaborative 
activities that support plant-specific safety assessment projects and 
promote the development of a sustainable nuclear safety infrastructure 
in Russia and Kazakhstan.
    The Russian International Nuclear Safety Center (RINSC) is 
chartered as a separate organization within the Russian Ministry of 
Atomic Energy (Minatom). However, essentially all Russian institutes, 
such as the Kurchatov Institute, the Russian Academy of Sciences' 
Nuclear Safety Center (IBRAE), and GAN technical center, are official 
members of the Nuclear Safety Center. Minatom provides RINSC with 
supporting funds as well as the office space. An important element in 
maintaining the competence of the Russian center is its direct 
connection with the corresponding centers abroad, in particular the 
Argonne center.
    In fiscal year 2000, planned activities at the Center include:
  --Safety analysis computer code management and configuration control. 
        The Russian Federation International Nuclear Safety Center 
        (RINSC) has been designated as the official repository of U.S. 
        safety analysis code technology. The U.S. provides computer 
        codes to RINSC that are used for nuclear safety work concerning 
        individual nuclear power plants. From RINSC, U.S. safety 
        analysis codes are distributed, with the appropriate 
        configuration controls, to Russian users in other institutes 
        and organizations. The Center maintains and controls the 
        Russian version of the codes, as well as the manuals on code 
        use.
  --Management of nuclear safety analysis computer code validation. 
        Russia, with U.S. help, is preparing safety analyses of several 
        nuclear power plants. The application of U.S. safety analysis 
        codes to Soviet-designed reactors requires an extensive 
        validation process, requiring applicable experimental data. 
        RINSC is managing this project because of its established 
        relationship with all Russian institutes involved in this 
        process. Through the technical institutes belonging to RINSC, 
        it is able to access needed experimental data and establish the 
        bases for validated codes. Development and maintenance of the 
        Russian safety analysis data bank. RINSC maintains a nuclear 
        data base for use in safety analysis. Nuclear power plants and 
        their supporting organizations need analytical information from 
        the data bank in order to carry out in-depth safety 
        assessments. Of particular importance are basic data on 
        material properties.
  --Development of technical basis for accident management. While 
        design basis safety and risk assessments are plant specific, 
        the general technical basis for management of severe accidents 
        is applicable for all reactors of a given type. RINSC, in 
        coordination with several Russian institutes, is developing 
        this technical basis for the Russian nuclear power plants.
  --Archiving and distribution of safety and risk analysis results. The 
        quantitative results of the safety assessment projects are 
        maintained in a database and distributed by RINSC on an as-
        needed basis to nuclear power plants. This ensures the widest 
        possible distribution and application, with the necessary 
        quality control, of the DOE-supported safety assessments.
    The operation of RINSC has been quite successful despite its 
limited budget. RINSC was tasked by Minatom to develop the first ever 
Russian Nuclear Safety Research Plan. This plan received a favorable 
international review by nuclear safety experts under the auspices of 
the OECD/Nuclear Energy Agency. RINSC continues to contribute to the 
international database on nuclear reactor materials, including some 
valuable high-temperature data previously unavailable in the West. Some 
of these data (e.g, high temperature properties of Zirconium) have 
already found use in improving the accuracy of U.S. severe accident 
analysis computer codes.
    The Kazakhstan Nuclear Technology Safety Center was created by a 
joint U.S.-Kazakhstan agreement, signed by the U.S. Secretary of Energy 
and the Kazakhstan Minister of Science in 1997. The purpose of the 
Center is to provide expertise and infrastructure for nuclear safety 
analysis. The focus of the activity is the BN-350 fast breeder reactor 
in Aktau, Kazakhstan. To date, the Center has conducted safety analysis 
review (SAR) workshops on spent fuel packaging and failed fuel 
packaging. Similar workshops are planned for decommissioning activities 
such as: spent fuel transportation, cesium decontamination, sodium 
coolant draining and deactivation, and liquid and solid waste 
management. The Center also has hosted shutdown planning conferences 
that included DOE and NRC personnel as well as Kazaki personnel from 
several ministries and from BN-350 plant management. In addition, the 
Center's Deputy Director has observed aspects of the EBR-II shutdown 
project in Idaho so that these can be applied to the BN-350 project. 
The Center also addresses nuclear safety issues for the six nuclear 
research reactors and related facilities within Kazakhstan that were 
designed and supported previously by institutes located in Russia.

             LONG-TERM NONPROLIFERATION PROGRAM FOR RUSSIA

    Question. The Administration has proposed a new program on long-
term nonproliferation in the Russian Federation, in exchange for 
certain concessions by the Russians related to reprocessing and 
assistance to Iran's program.
    What is the status of your negotiations with the Russian 
Federation, and how confident are you that the desired concessions will 
be granted?
    Answer. Negotiations are ongoing, and we are making good progress 
on developing a Joint Statement outlining the intention of the two 
sides to move forward with this program, including a moratorium on 
further accumulation of separated civil plutonium resulting from the 
reprocessing of civil power reactor fuel in Russia. Regarding Russia's 
nuclear cooperation with Iran, we are currently in intense and high-
level discussions with Russia to try to resolve these concerns. The 
Russians understand that the implementation of the R&D program within 
the new Long-Term Nonproliferation Initiative is conditioned on the 
resolution of these issues. In addition, we, and other parts of the 
Administration, are having detailed technical discussions with MinAtom 
on the implementation of Russian export control laws, with a view 
towards improving Russia's compliance with its undertakings regarding 
nuclear transfers to Iran.

             INTERNATIONAL CENTERS FOR ENVIRONMENTAL SAFETY

    Question. DOE signed a bilateral agreement with Russia to 
collaborate on environmental clean-up technologies through 
establishment of the International Center for Environmental Safety. 
This Center has existed on paper for nearly two years, but DOE's 
financial support has been only about $500,000 a year.
    Is there a chance this Center could get a pledge of increased 
financial support from DOE in fiscal year 2001?
    Answer. The International Center for Environmental Safety (ICES) 
was established jointly, in June 1999, by the Russian Federation 
Ministry of Atomic Energy (MinAtom) and DOE. MinAtom funded an office 
in Moscow for the Center, hired core personnel, and assigned it the 
responsibility of coordinating environmental safety projects at MinAtom 
industrial sites. In fiscal year 1999, DOE provided $100,000 to INEEL 
to help establish the Center. DOE had planned to provide additional 
support in fiscal year 2000, but was unable to do so due to a 50 
percent reduction in the International Nuclear Safety Program budget 
and restrictive language in the Appropriation Committee Conference 
Report.
    DOE still believes that, as a coordinating activity, the Center 
would improve the efficiency of environmental efforts at MinAtom 
industrial sites and that the U.S. could benefit from collaboration on 
legacy environmental problems. For example, Russia has conducted 
criticality safety benchmark experiment projects that could improve 
operational safety with spent nuclear fuels at DOE facilities. 
Similarly, Russian experience in modeling the subsurface flow of 
contaminants could improve assessment and resolution of problems at DOE 
sites. However, unless funds are appropriated and restrictive language 
removed, no further funding of ICES is planned.

                     FISSILE MATERIALS DISPOSITION

    Question. The DOE Fissile Materials Disposition program has been 
working with Russia to help develop MOX fuel for the BN-600--a breeder 
reactor in Russia. At last year's hearing, I raised this issue with 
DOE's program director Laura Holgate, and she stated that ``we have an 
active R&D program underway in Russia to work on converting the BN-600 
reactor to use MOX fuel, and a key element of that will be removing the 
breeder blankets that actually create the plutonium, and I am convinced 
that there is a cooperative role for Argonne West's experience as we 
move forward with the Russians on that project.''
    However, since that response, very little progress has been made in 
MOX fuel development, and essentially no progress has been made on 
converting the BN-600 breeder blanket to a stainless steel reflector. 
Also, no progress has been made in identifying a storage location for 
the spent fuel and blanket assemblies that would have to be removed 
from the reactor during conversion to MOX.
    Can you please comment on the status of the R&D program and the 
blanket removal?
    Answer. A significant volume of work continues with regard to the 
development of mixed oxide (MOX) fuel for the BN-600 fast reactor. The 
Russian Research Institute of Research Reactors (RIAR) fabricated three 
vibro-compacted (VIPAC) powder MOX lead test assemblies for the BN-600 
using plutonium metal from Russian weapons components. The experimental 
subassemblies will begin to be irradiated in the BN-600 restart 
following a May maintenance and refueling shutdown. The Argonne 
National Laboratory is participating in meetings to discuss 
accelerating the path forward for the VIPAC MOX option. As an 
alternative, the U.S. is also studying the possibility of fabricating 
BN-600 MOX fuel in pellet form at the Mayak facility.
    Work continues with Russia with regard to the removal of the 
irradiated breeding blanket in the BN-600 reactor. Russia has completed 
the technical designs for a stainless steel reflector subassembly and a 
boron shield subassembly--two components required for blanket 
replacement. However, proceeding with the blanket replacement will 
require Russia to make a decision for the location of a dry storage 
facility for both spent MOX fuel and irradiated breeding blanket 
subassemblies. Dry spent fuel storage technology used at the 
Radioactive Waste Storage Facility at the Argonne-West site is one of 
the possible technologies under consideration.

                             NAVAL REACTORS

    Question. Is the President's budget request for Naval Reactors 
sufficient to meet the Navy's commitments to the State of Idaho under 
the clean-up settlement agreement?
    Answer. Yes, the President's budget request for Naval Reactors is 
sufficient to meet the Navy's commitments in the 1995 Idaho agreement. 
The Navy has met all its commitments under the agreements to date, and 
expects to continue to satisfy the terms of the agreement in fiscal 
year 2001 and beyond.

                          SUBCOMMITTEE RECESS

    Senator Domenici. We stand in recess.
    [Whereupon, at 11:40 a.m., Tuesday, March 28, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2001

                              ----------                              


                        TUESDAY, APRIL 11, 2000

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:15 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Pete V. Domenici (chairman) 
presiding.
    Present: Senators Domenici, Gorton, McConnell, Craig, Reid, 
Murray, and Dorgan.

                          DEPARTMENT OF ENERGY

                           Office of Science

STATEMENT OF DR. JAMES DECKER, ACTING DIRECTOR

                 Office of Energy and Renewable Energy

STATEMENT OF DAN REICHER, ASSISTANT SECRETARY OF ENERGY

            Office of Nuclear Energy, Science and Technology

STATEMENT OF BILL MAGWOOD, DIRECTOR

                   STATEMENT OF SENATOR SLADE GORTON

    Senator Gorton [presiding]. Well, the Chairman is delayed, 
and I must preside at another hearing at 9:30. But rather than 
keep the witnesses waiting or Senator Dorgan waiting, perhaps 
it would be well to start.
    The Chairman has a detailed opening statement. He may want 
to give it later, but we will place it in the record.
    The jurisdictions of the various witnesses are of 
considerable interest to me as well, and I suspect to the Vice 
President and to Senator Dorgan as well.
    Do you have any opening statement that you would like to 
make?

                  STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. Well, Mr. Chairman, thank you. Apparently 
this is a morning where all committees are holding all of their 
subcommittee hearings. And I think I have four that are 
starting at either 9:00 or 9:30 today. So we are all under the 
same circumstance.
    This is an important programmatic area. And in an 
interesting way, it is a timely area to be discussing because 
of the actions of the OPEC countries and the spike up in gas 
prices. When we talk now about renewal energy technologies and 
extending America's energy supply through new technologies, I 
think it is exactly what we ought to be talking about. I have 
had an opportunity to work with Mr. Reicher and others on a 
range of issues.
    Because you bicycled through North Dakota at one point, 
Senator Gorton, you probably know this. But North Dakota is the 
Saudi Arabia of wind energy.
    Senator Gorton. Fortunately the winds were in the right 
direction.
    Senator Dorgan. As I understand it, you were biking from 
west to east----
    Senator Gorton. Yes.
    Senator Dorgan [continuing]. Which would be logical if you 
wanted a tail wind in our State.

                   NORTH DAKOTA WIND ENERGY POTENTIAL

    But if you look at wind energy potential in our country, 
North Dakota really is the Saudi Arabia of wind energy 
potential, but it exists in a fair number of areas, including 
the State of Washington. Wind energy and biomass and a whole 
range of opportunities exist. We have programs and initiatives 
in the Federal Government that I think are exciting. And I know 
they are niche areas, but I think they are exciting.
    And if we make the right investments and take this 
opportunity during this period of a discussion about being 
captive or dependent on energy supplies from foreign sources, 
we can make the right investments and extend our energy 
supplies by developing what some people call green power and 
others call renewable energy sources. Abundant energy gathered 
from self-renewing resources makes a great deal of sense in our 
country.
    And so I came by today just to say that as we begin looking 
at the resources we devote to this, I am especially interested 
in wind energy. And I especially want to keep, if we can, the 
administration's recommendation on wind energy investment. But 
I want to work with other members of the subcommittee, 
including the chairman, on a range of these projects.
    So thank you very much.
    Senator Gorton. Senator Craig? We just got started.
    Senator Craig. I am delighted to be here and I will ask 
questions of our first panel.
    Senator Gorton. Fine.
    Senator Craig. Thank you.
    Senator Gorton. And if the witnesses have a preferred 
order--I have Dr. Decker first. If you all wish to change the 
order, it is okay with us.
    And of course, as always, your formal written statements 
will be included in the record of the hall. So we would 
appreciate you summarizing.
    Dr. Decker. Mr. Chairman and members of the subcommittee, 
thank you for the opportunity to----
    Senator Gorton. Here is the Chairman. Just getting them 
started.

                 STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici [presiding]. Hello, everybody. I am very 
sorry. I guess everybody knows I am sorry, though.
    Good morning. Today the subcommittee is going to continue 
its review of the Department of Energy's budget request for 
fiscal year 2001 in two separate panels.
    The first panel we will hear, Mr. Dan Reicher, Assistant 
Secretary for the Office of Energy Efficiency and Renewable 
Energy; Mr. Bill Magwood, Director of the Office of Nuclear 
Energy, Science and Technology; followed by Dr. James Decker, 
Acting Director of the Office of Science.
    In the second panel, we are going to hear from Dr. Carolyn 
Huntoon, Assistant Secretary for the Office of Environmental 
Management, and Dr. Ivan Itkin, who is the Director for the 
Office of Civilian Radioactive Waste Management.
    First of all, I thank you all very much for the flexibility 
that you have shown us in accommodating to the committee's 
schedule. As many of you know, the subcommittee had to cancel 
last week's hearing because the ranking member and I were on 
the Senate floor with a budget resolution. And it was 
impossible to be both places. I look forward to getting back 
into the appropriations matters today.

                   SOLAR AND RENEWABLE BUDGET REQUEST

    The solar and renewable budget request for next year is 
$409.5 million, a 32-percent increase over the current year. 
Meanwhile, just my own observation, the nuclear energy budget 
request for next year is $306 million, an increase of 7.4 
percent over the current year.
    I remain very concerned about the relative investments the 
Department is proposing in these two areas. According to a 1997 
study, the U.S. Federal R&D investment per thousand kilowatts 
was approximately 5 cents per kilowatt for nuclear and 4,800 
per kilowatt for wind, 17,000 per kilowatt for photovoltaic.
    Despite the considerable investment this country has made 
in non-hydro renewables over the last several decades, the 
technology remains rather uncompetitive on the large scale and 
today contributes less than one percent of the U.S. electrical 
power. I think we have to be realistic.
    And while we commend the director, Mr. Reicher, who has 
taken over this part of the budget and, I must say comparably 
speaking, is running a much, much better department than ever 
before, the facts still kind of shine rather brightly on this 
issue.

                    OFFICE OF SCIENCE BUDGET REQUEST

    The budget request for the Office of Science for next year 
is $3.51 billion, a 12-percent increase. Hopefully we are going 
to be able to accommodate that, and maybe a little more, in our 
appropriation process.

                ENVIRONMENTAL MANAGEMENT BUDGET REQUEST

    The environmental management request is $6.738 billion, a 
6.9-percent increase. While this program is producing visible 
progress at a number of sites, many challenges remain in 
developing clean-up technologies and managing costs for these 
clean-ups. Next year is a very critical year for the Office of 
Civilian Radioactive Waste Management as it prepares to make 
and issue a final AIS and a formal site recommendation to the 
Secretary on the Yucca Mountain site.
    I ask that you be as brief as you can, but we clearly want 
to hear from you. Your prepared remarks will be made part of 
the record as if read.
    Any Senator have any comments?
    Senator Gorton. Well, everyone else has done their opening 
statement. I had just recognized Dr. Decker when you came in.
    Senator Domenici. Thank you very much. Let us proceed on 
that basis.
    Dr. Decker.

                     STATEMENT OF DR. JAMES DECKER

    Dr. Decker. Mr. Chairman and members of the subcommittee, 
thank you for the opportunity to testify before you today on 
the fiscal year 2001 budget request for the Office of Science. 
Before I begin, let me thank you, Mr. Chairman and members of 
the committee, for the committee's strong support for our 
research programs in past years.
    The Office of Science supports basic research that 
underpins the science, energy, environment and national defense 
missions of the department. It is the major supporter of 
fundamental research in the physical sciences and plays an 
important and unique role in life sciences, environmental 
sciences, mathematics, computer sciences and engineering 
sciences.
    The Office of Science also plays an essential role in the 
Nation's scientific infrastructure by constructing and 
operating major scientific facilities, such as accelerators, 
light sources and neutron sources. Each year these facilities 
serve more than 15,000 scientific users from all research 
sectors, academia, industry and federal laboratories.

                            ACCOMPLISHMENTS

    The past year has been a very productive one for the Office 
of Science. We have completed a number of new research 
facilities and completed upgrades to existing facilities on 
time and within budget. It has also been a year of exciting 
science. I will mention two examples that illustrate the 
scientific breath of our research.
    The Lawrence Berkeley National Laboratory Group has found 
evidence that the expansion of the universe is speeding up, 
suggesting the presence of a new force. In genomic research, we 
have completed sequencing the three million base pair of 
Deinococcus radiodurans, nicknamed Conan the Bacterium.
    Since it can survive 600 times more radiation than the 
human being, this should provide insights into mechanisms for 
DNA repair and may show us how to engineer Conan into a 
workhorse for helping to clean up some of DOE's most difficult 
mixed waste problems.

                             NANOTECHNOLOGY

    In the fiscal year 2001 budget request, there are several 
areas of exciting and challenging scientific opportunities for 
the future that I would like to highlight. First, nanoscale 
science, engineering and technology. This area of basic science 
will allow for the creation of new materials tailored for 
specific uses, one atom at a time. The resulting materials will 
have new or greatly improved properties. The impact of Nano 
technologies could equal that of the transistor.

                 ADVANCED SCIENTIFIC COMPUTING RESEARCH

    Second, advanced scientific computing research. Every 
scientific program supported by the Office of Science is faced 
with enormously complex problems. They can only be addressed 
through computational models. Such models are already essential 
tools for our research, but our current computers are not 
powerful enough to address many of our most important problems.
    Computers that can are rapidly becoming available. Industry 
can now supply super-computers ten times faster than those that 
are now available to our civilian scientists. And far more 
powerful computers will be available very soon.
    But these are very complex machines. Producing the unique 
software and mathematical models that will make them useful, 
for our scientific programs requires a focused program of 
research and development. For a relatively modest investment, 
we can begin to provide all of our science programs with a 
powerful tool for basic research.

                             MICROBIAL CELL

    Third, understanding the microbial cell. Microbes are 
amazing little chemical factories. The revolutionary tools 
developed in the life sciences over the last few years, such as 
genetic sequencing technologies, give us the opportunity to 
determine how they work and to modify them to work for us in 
areas such as bioremediation, carbon sequestration and 
sustainable energy production.

                             BIOENGINEERING

    Fourth, bioengineering. In bioengineering we will take 
advantage of our unique resources to support innovative program 
research in nano medicine, bio materials and molecular biology.
    In addition to the enhanced activities just noted, the 2001 
request will provide for a wide range of important scientific 
activities in each of our programs and will support increased 
investment and existing user facilities.

                       SPALLATION NEUTRON SOURCE

    In closing, I would note the substantial progress made on 
the Spallation Neutron Source. On December 15 we broke ground 
and began construction of the project. R&D and design 
activities are proceeding on schedule. Last month the Office of 
Science conducted its regular semiannual review of the project.
    While this review examined all aspects of the project, the 
review committee was specifically asked to examine whether the 
project's cost and schedule baseline are consistent with the 
President's 2001 budget request. The review committee judged 
that this Spallation Neutron Source project is making good 
progress and that it can be completed on schedule and within 
budget.
    The budget request for the Office of Science balances 
support for our existing programs and facilities and new 
investments and tools, such as the Spallation Neutron Source 
and advanced computational modeling, and in promising new 
areas, such as nano science. It provides a strong basis for 
scientific progress and all the disciplines that we support.
    And I will be pleased to answer any questions that you may 
have.
    [The statement follows:]

                 PREPARED STATEMENT OF DR. JAMES DECKER

    Mr. Chairman and Members of the Subcommittee: Thank you for the 
opportunity to testify on behalf of the Office of Science (SC) of the 
U.S. Department of Energy (DOE). The fiscal year 2001 budget request 
for the Science appropriation supports: Advanced Scientific Computing 
Research, Basic Energy Sciences, Biological and Environmental Research, 
Fusion Energy Sciences, High Energy Physics, Nuclear Physics, Energy 
Research Analyses, Multiprogram Energy Laboratories-Facilities Support, 
and Science Program Direction. The Technical Information Management 
program budget request is located within the Energy Supply 
appropriation.
    The DOE budget for fiscal year 2001 requests $3,151.1 million for 
SC programs in the Science Appropriation and $9.3 million for the 
Technical Information Program in the Energy Supply Appropriation. The 
activities supported by this budget will build on SC's achievements in 
the physical and biological sciences, leverage our current investments 
for new opportunities, and permit new investments in individual 
research projects at our national laboratories and research 
universities across the country. The Department's science programs and 
infrastructure advance basic research and provide the technical 
foundations and resources for DOE's applied missions in national 
security, energy, and environment.
    This request will enable SC to pursue new and challenging 
scientific opportunities in nanoscale science, engineering and 
technology to allow for the creation of new materials one atom at a 
time; advanced scientific computing research to advance all of our 
research programs by taking advantage of the prodigious increases in 
computing power that will occur in the next few years; molecular level 
understanding of microbes to harness nature's remarkable chemical 
factories; and bioengineering to use the science and engineering 
capabilities of our programs for new breakthroughs. In addition, the 
ongoing programs representing our core competencies will remain strong 
and vigorous.
    The requested funding will allow Fermilab to initiate Run II of the 
Tevatron Collider using the new Main Injector, which will increase its 
beam intensity by up to a factor of ten, and the correspondingly 
upgraded the Collider Detector at Fermilab (CDF) and the DO detector. 
Run I discovered the top quark and Run II will allow a search for the 
origin of mass and new symmetries in the fundamental interactions of 
matter. Late in fiscal year 2000, a major new nuclear physics facility 
at the Brookhaven National Laboratory called the Relativistic Heavy Ion 
Collider (RHIC) begins colliding gold nuclei to create a form of matter 
that has not existed since the Big Bang and the first results are 
expected in fiscal year 2001. Encouraging hints of this ``quark-gluon 
plasma'' have recently been detected at CERN. The B Factory at Stanford 
Liner Accelerator Center (SLAC), designed to study the subtle matter-
antimatter asymmetry in our matter-dominated world, will have its first 
full year of running at full design luminosity. Major new results on 
the depleted neutrino signal from the sun will be provided by the 
Sudbury Neutrino Observatory (SNO) detector, located 2 kilometers 
underground in Sudbury, Ontario, Canada. The request will also allow 
SLAC to begin the final design and prototyping for Gamma Large Area 
Space Telescope (GLAST). This exciting new initiative between DOE and 
NASA combines the sophisticated experimental techniques of our high 
energy physics programs with the expertise of NASA in space to enhance 
our ability to solve the mysteries of the universe.
    This request will also permit SC to increase funding for its most 
heavily used facilities, continue construction of the Spallation 
Neutron Source, and continue our participation in the Large Hadron 
Collider. The coming year promises to be an exciting and productive one 
for the programs that use our major facilities. Our synchrotron 
radiation light sources and neutron sources will run at maximum 
capacity to serve their large and growing multidisciplinary user 
communities; every one of our major high-energy and nuclear physics 
facilities has just been upgraded and will be available to serve these 
communities; the National Spherical Torus Experiment will be 
operational with its neutral beam heating system; and our computing 
facility, National Energy Research Scientific Computing (NERSC), will 
undergo a major upgrade to enable multi-teraflops operation. The 
restructured Fusion Energy Science program will: pursue the physics of 
advanced tokamaks; launch a new competition for innovative confinement 
concepts; continue our heavy ion beam accelerator research; and enhance 
our support for plasma science in such areas as plasma processing and 
plasma chemistry.
    Continued leadership in science and technology is a cornerstone of 
our nation's economic prosperity and growth. Information technology 
alone accounts for one third of U.S. economic growth and is creating 
jobs that pay almost 80 percent more than the average private-sector 
wage. Many of the technologies that are fueling today's economy, such 
as the Internet, build upon government investments, such as the SC 
ESnet, in the 1960's and 1970's. The Department of Energy, and its 
predecessor agencies, have been the proud sponsor of science-driven 
growth through the combined efforts of the national laboratories, 70 
Nobel Laureates, and thousands of outstanding university and industry 
based researchers nationwide. As we begin the new millennium, SC 
reaffirms its commitment to these quality investments in scientific 
programs and tools to enable tomorrow's advances.

                OUR ACCOMPLISHMENTS AND RECENT SUCCESSES

    SC is the nation's major supporter of fundamental research in the 
physical sciences. It is also among the nation's largest supporters of 
fundamental research in mathematics and computing, engineering, and 
environmental sciences. The SC programs fund research at 250 colleges 
and universities located in 49 states. The inclusion of research 
activities at this large number of academic institutions is a vital 
part of the SC programs. These academic scientists and their students 
are funded through individual peer-reviewed grants and as members of 
peer-reviewed research teams involving investigators from both national 
laboratories and universities.
    SC also provides the major support for 32 major scientific user 
facilities, which together host more than 15,000 users annually from 
all research sectors. University-based scientists are among the 
principal users of these facilities. New research capabilities came on 
line at the Combustion Research Facility, the Continuous Electron Beam 
Accelerator Facility (CEBAF) at Thomas Jefferson National Accelerator 
Facility (TJNAF), and the B-factory at SLAC during fiscal year 1999 and 
fiscal year 2000. Projects and other major facilities completed on time 
and within budget include: the Relativistic Heavy Ion Collider (RHIC), 
the U.S./Canadian Sudbury Neutrino Observatory (SNO) detector, the 
National Spherical Torus Experiment (NSTX), the Fermilab Main Injector, 
and the Joint Genome Institute's (JGI) Production Sequencing Facility. 
Ground was broken on December 15, 1999, for the Spallation Neutron 
Source (SNS), SC's newest construction start.
    Each year, hundreds of principal investigators funded by SC win 
dozens of major prizes and awards sponsored by the President, the 
Department, the National Academy of Sciences, the National Academy of 
Engineering, and major professional scientific societies. The awards 
have included: the Nobel Prize for Chemistry and Physics, the National 
Medal of Science, Presidential Young Investigator Award, Enrico Fermi 
and E.O. Lawrence awards, National Science Foundation Career Award, R&D 
100 awards, Discover Magazine Awards, the Federal Laboratory Consortium 
Award, the Gordon Bell Prize and the Fernbach Award, IBM's 
Supercomputer Award, and many others.
    This research portfolio supports the goals of the Department and 
the Administration while advancing science and contributing to U.S. 
economic growth. Presented below are recent program accomplishments. 
The selected program highlights are representative of the broad range 
of research supported in SC. These highlights demonstrate the discovery 
of new knowledge to challenge our imagination, the rapidity with which 
new knowledge often can be incorporated into other scientific 
disciplines and into the commercial sector, and the great potential of 
new knowledge for future impacts in energy production and use.
Advanced Scientific Computing Research Accomplishments
    Today's high performance scientific computations rely on high 
performance, efficient libraries of numerical linear algebra software. 
These libraries, which are the core of numerical efforts in the 
solution of differential and integral equations LINPACK, EISPAC, 
LAPACK, SCALAPACK are the direct result of decades of DOE funding of 
basic research in this area. These libraries are used by thousands of 
researchers worldwide and are a critical part of the world's scientific 
computing infrastructure.
    The Transmission Control Protocol (TCP) part of TCP/IP (Internet 
Protocol) is responsible for ensuring that packets of information 
traveling over the internet arrive at their destination. In 1987, as 
DOE and the other federal agencies were interconnecting their networks 
to form the core of the Internet, critical parts of the infrastructure 
began to fail. There was concern that this represented a fundamental 
flaw in the TCP/IP architecture; however, a researcher at LBNL applied 
ideas from fluid flow research to understand the problem and develop a 
solution. This new TCP algorithm was incorporated in virtually every 
commercial version of Internet software within six months and enabled 
the Internet to scale from a small research network to today's 
worldwide infrastructure.
    To meet the nation's energy needs, the United States oil and gas 
industry must continue to advance the technology used to extract oil 
and gas from both new and old fields. Computer scientists at Argonne 
National Laboratory, in collaboration with petroleum engineers at the 
University of Texas at Austin, have recently developed a software 
package capable of simulating the flow of oil and gas in reservoirs. 
These codes, which are based on software tools designed at Argonne, are 
able to run on a variety of computer platforms. The software codes will 
enable the oil and gas industry to lower exploration and drilling costs 
and enhance the yield of oil from new and old fields alike.
    The Advanced Scientific Computing Research program is pioneering 
national collaboratories which link researchers at their home 
institutions with the instruments at the SC user facilities to change 
the way science is being done at these facilities.
    The small Laboratory Technology Research subprogram ($15.7 million) 
supported research projects that received five R&D 100 Awards in fiscal 
year 1999.

Basic Energy Sciences Accomplishments
    As part of a nationwide program in high-resolution electron-
microscopy applied to fundamental materials sciences research, a new 
imaging technique was developed that achieved the highest resolution 
image of a crystal structure ever recorded, resolving adjacent columns 
of silicon atoms separated by a scant 0.78 angstroms (3 billionths of 
an inch). The precise atomic-scale structure of a material controls the 
performance of materials for semiconductor devices, superconductors, 
and a host of other applications. Combined with improved electron 
imaging optics currently under development, this result promises to 
revolutionize the atomic-scale understanding of materials.
    As part of its stewardship responsibility for neutron science, the 
Basic Energy Sciences (BES) program made substantial investments in 
human and facility resources for neutron science. In addition to the 
construction of the Spallation Neutron Source, all BES neutron science 
facilities are being upgraded and/or provided additional funds to 
increase hours of operation to enable a major increase in the national 
neutron science effort. Finally, a neutron science summer school is 
being supported to give students hands-on experience with the 
techniques of neutron scattering.
    As part of a major program to theoretically predict and then 
synthesize new materials with unusual chemical and physical properties, 
a new fullerene species, C<INF>36</INF>, has been synthesized and 
produced in bulk quantities for the first time. Fullerenes or 
``buckyballs'' are hollow clusters of carbon atoms. They have been 
studied extensively since the Nobel prize-winning discovery of 
C<INF>60</INF> in 1985 (supported by BES). C<INF>36</INF> is the 
smallest fullerene discovered to date and is characterized by unusual 
and potentially very useful properties. For example, in contrast to 
C<INF>60</INF> molecules, which interact only very weakly with one 
another, C<INF>36</INF> molecules stick together--hence the nickname 
``stickyballs.''
    A powerful new instrument completed at the Combustion Research 
Facility promises to provide new information about how molecules 
dissociate when given enough internal energy. Understanding such 
processes is critically important for combustion, because, at the high 
temperatures of combustion, dissociation occurs in a variety of ways 
that are difficult to observe, model, and predict. With this new 
instrument, measurements are made one molecule at a time, making this a 
tool of unrivaled power for the validation of predictive models and 
theories of chemical reactions.
    It has long been recognized that tools and concepts developed in 
the physical sciences can revolutionize the life sciences. One need 
only consider the impact of x-ray synchrotron radiation and MAD 
(multiple wavelength anomalous diffraction) phasing on macromolecular 
crystallography; both were developed within the SC program. In fiscal 
year 1999, many of the program highlights illustrate the rapidity with 
which advances in the physical sciences are impacting the life 
sciences. Two such examples are new techniques of nuclear magnetic 
resonance (NMR) that are being used to study the molecular structures 
of solid protein deposits implicated in brain diseases such as 
Alzheimer's Disease and BSE (Mad Cow Disease), and a nano-laser device 
that has been shown to have the potential to quickly identify a cell 
population that has begun the rapid protein synthesis and mitosis 
characteristic of cancerous cell proliferation.

Biological and Environmental Research Accomplishments
    Each year, Science Magazine honors a ``Breakthrough of the Year'' 
and nine additional major discoveries in fields that span the 
scientific disciplines, from the edgy dance of subatomic particles to 
the biological wizardry that imprints memories. Genomics was again 
included for 1999. Genomics is one of today's most exciting and high 
profile fields in biology and DOE supports the full range of genomic 
research from microbes to the Human Genome. For example, SC researchers 
have completed sequencing the entire 3 million base pair genome of 
``Conan the Bacterium''-Deinococcus radiodurans. This DNA sequence 
information should provide additional insights into the astonishing 
mechanisms for DNA repair in Deinococcus radiodurans in addition to 
improving opportunities for engineering Deinococcus radiodurans into a 
potential workhorse for helping cleanup some of DOE's most troublesome 
waste problems.
    Deinococcus radiodurans cannot normally degrade solvents that are 
part of the mixed wastes at many DOE sites. A team of SC-funded 
scientists at the Uniformed Services University for the Health Sciences 
(USUHS) in Bethesda, Maryland has transferred genes that code for 
enzymes that degrade toluene and related solvents from Pseudomonas 
putida into Deinococcus radiodurans. The new Deinococcus radiodurans 
can degrade toluene and toluene-related solvents. The engineered 
Deinococcus could also survive levels of toluene and trichloroethylene 
that would normally dissolve most other bacteria, suggesting that these 
engineered microbes might survive in radioactive and solvent containing 
mixed wastes and degrade the solvents.
    The DOE Joint Genome Institute's Production Sequencing Facility in 
Walnut Creek, California will complete a working draft of human 
chromosomes 5, 16, and 19 by March 2000. This is part of SC's 
contribution to the international effort to sequence the entire human 
genome by 2003. This working draft represents roughly 90 percent of the 
entire sequence of these three chromosomes completed to 99 percent 
accuracy. This draft sequence, together with drafts produced by other 
sequencing centers around the world, will open the floodgates of 
biological information to scientists and reduce the time and effort 
needed to complete the entire high quality sequence. SC's effort to 
complete the finished sequence for chromosomes 5, 16, and 19 is 
scheduled for completion by October 2001.
    A massively parallel version of the Community Climate Model (CCM3) 
was developed by a multi-institutional partnership that includes 
several DOE laboratories, the National Center for Atmospheric Research 
(NCAR), and university research groups. CCM3 runs on a massively 
parallel computer and performs coupled climate model simulations. 
Highly optimized atmosphere, ocean, and sea ice general circulation 
model codes that run effectively on massively-parallel scientific 
supercomputers have been completed and tested for use in climate change 
studies. The Parallel Climate Model (PCM), which more accurately 
represents the physical ocean, sea ice and atmosphere motion, has been 
tested on three different parallel supercomputers. This is a 
significant step in developing the next generation of climate models.
    Brain imaging studies using positron emission tomography (PET) show 
that methamphetamine is toxic to the brain and this is associated with 
long-term memory loss and motor impairment. Studies are in progress to 
determine if recovery occurs on drug withdrawal.

Fusion Energy Sciences Accomplishments
    The tearing and reconnection of magnetic field lines is of 
fundamental importance in many areas of plasma physics, including 
fusion science. Newly developed laboratory experiments at the 
California Institute of Technology, Swarthmore, and the Princeton 
Plasma Physics Laboratory have led to significant advances in the 
understanding of this phenomenon. This is of particular importance in 
the eruptions of energetic bursts from the surface of the sun, which, 
in turn affect radio and satellite communications.
    Considerable progress has been made in areas such as the 
macroscopic equilibrium and stability of magnetically confined plasmas, 
and turbulence and transport in tokamak plasmas. Software and hardware 
have been developed to allow remote collaborations on a wide variety of 
fusion experiments in the United States and abroad.
    Plasma turbulence increases energy transport and thereby limits 
magnetic confinement. There have been recent attempts to compare plasma 
transport phenomena with avalanche or ``sand pile'' transport models. 
Although plasmas are fluids, Self-Organized Criticality (SOC) models 
that are used to simulate a wide variety of natural phenomena such as 
earthquakes, avalanches, etc., describe some nonlinear aspects of 
plasma turbulence. Tokamak measurements are providing information about 
the size and frequency of transport events, thus improving comparisons 
with theoretical avalanche models.

High Energy Physics Accomplishments
    DOE is entering into an exciting and expanding partnership with 
NASA in the area of Particle Astrophysics. Research and development for 
the Alpha Magnetic Spectrometer (AMS) and Gamma Large Area Space 
Telescope (GLAST) experiments has been underway for some time. 
Preliminary consideration is being given to the SuperNova Acceleration 
Probe (SNAP) experiment. These experiments, and others that may be 
proposed, will provide important new information about cosmic rays and 
the rate of expansion of the universe which will in turn lead to a 
better understanding of dark matter, dark energy, and the big bang. For 
example, the AMS flew in a space shuttle payload bay for 10 days in 
June 1998 and gathered about 100 hours of data. The data provide a far 
more comprehensive and accurate description of the global distribution 
and movement of cosmic rays than available previously. Researchers 
analyzing this global data have found intriguing and unexpected 
information about cosmic rays and how they interact with the earth's 
magnetic field.
    Charge-Parity (CP) Violation is one of the central problems of 
subatomic-particle physics. It is arguably the only known subatomic 
effect for which no clear explanation exists in the Standard Model of 
particles and their interactions. CP violation is a manifestation of 
subtle difference between the properties of particles and of 
antiparticles, it has been postulated (by Russian physicist Andrei 
Sakharov) to have been responsible for the development, shortly after 
the Big Bang, of the slight excess of matter over antimatter from which 
the entire material universe has since evolved. Thirty years of 
experimental effort to study CP Violation have succeeded in determining 
only two parameters of the theory--parameters that explain no other 
known effect. In March 1999, scientists working on Fermilab's KteV 
experiment announced evidence that established the existence of direct 
CP Violation beyond reasonable doubt. This is a significant advance in 
our understanding of this important phenomena. The finding definitively 
rules out the existing Superweak Theory as the sole source of CP 
Violation and indicates that the phenomena can be accommodated within 
the Standard Model.
    The observation was made, by the international CDF collaboration 
working at Fermilab, of the existence and properties of the B meson 
containing a charmed quark. This discovery completes the theoretically 
predicted family of B mesons.
    Evidence of neutrino mass and quantum mixing was obtained in a 
U.S.-Japanese experiment with the Super-Kamiokande experiment in Japan. 
Neutrino beam experiments in Japan and at Fermilab are underway to 
verify these results.

Nuclear Physics Accomplishments
    In fiscal year 1999, observations of two new chemical elements (Z 
(number of protons)=116 and Z=118) were reported in measurements 
performed at the Lawrence Berkeley National Laboratory's 88-Inch 
Cyclotron using the Berkeley Gas-filled Spectrometer (BGS). Continued 
measurements are planned for fiscal year 2000 and fiscal year 2001.
    The Gammasphere, coupled with the Fragment Mass Separator at the 
Argonne Tandem-Linac Accelerator System (ATLAS) facility at Argonne 
National Laboratory, provided surprising results on the structure of 
the Nobelium isotope (<SUP>254</SUP>  No) showing that nuclear shell 
structures, which are entirely responsible for the stability of nuclei 
with charges greater than Z=100, persist up to very high deformation. 
Other measurements performed at the ATLAS facility have established 
properties of nuclei and reaction processes that allow for more 
stringent tests of models for supernova collapses and improved 
predictions for chemical element production in stellar burning and 
supernovae.
    National laboratory theorists have found, quite unexpectedly, that 
effects due to special relativity can explain a previously unexplained 
symmetry in the low lying states of a large number of atomic nuclei.
    In keeping with the Government Performance and Results Act (GPRA), 
the SC fiscal year 2001 budget request includes program specific goals, 
strategies, and measures that focus our research activities and ensure 
continuity with Departmental plans and national goals. The DOE 
Strategic Plan and Science Strategic Plan outline the vision, goals and 
strategic objectives that will, through leadership in science and 
technology, help the DOE to meet its technology driven missions.

                LOOKING TO THE FUTURE--FISCAL YEAR 2001

    Last year, in the Science Strategic Plan, SC provided a framework 
for addressing its mission through four science goals:
  --Exploring Matter and Energy--understanding the building blocks of 
        matter from subatomic particles to living systems;
  --Fueling the Future--supporting fundamental science for affordable 
        and clean energy;
  --Protecting Our Living Planet--supporting fundamental science to 
        understand and mitigate the impacts of energy production and 
        use; and
  --Extraordinary Tools for Extraordinary Science--providing major 
        facilities and tools for the nation's researchers in academia, 
        federal laboratories, and industry.
    In fiscal year 2001, new activities that support these goals 
include nanoscale science, engineering, and technology; advanced 
computational modeling and simulation; understanding the workings of 
microbes at the molecular level; applications of science and 
engineering expertise to problems in the life sciences; increased 
utilization of scientific user facilities; support for the Spallation 
Neutron Source and the Large Hadron Collider; and augmentation of the 
skills of our technical workforce.
    Nanoscale Science Engineering and Technology.--In 1959 Richard 
Feynman delivered a now famous lecture, There is Plenty of Room at the 
Bottom--An Invitation to Enter a New Field of Physics. He challenged 
his audience to envision a time when materials could be manipulated and 
controlled on the smallest of scales, when new materials could be 
fabricated and devices could be designed atom by atom. ``In the year 
2000,'' he said, ``when they look back at this age, they will wonder 
why it was not until the year 1960 that anybody began seriously to move 
in this direction.''
    Unfortunately, it took longer than Feynman predicted to arrive at 
the threshold of such complete control of materials. Now, in the year 
2000, controlling and manipulating matter at the atomic and molecular 
scale--which is the essence of nanoscale science, engineering, and 
technology--has finally become feasible. In the 40 years since 
Feynman's lecture, instruments have been invented and perfected that 
enable visualization and control at the nanoscale. Many of these 
instruments and techniques are contained within SC's collection of 
scientific user facilities. Theory, modeling, and simulation have also 
reached the stage at which it is possible to understand and predict 
phenomena at the nanoscale.
    The principal DOE missions in science, energy, defense, and 
environmental quality will benefit greatly from developments in these 
areas. For example, nanoscale synthesis and assembly methods will 
result in significant improvements in solar energy conversion; more 
energy-efficient lighting; stronger, lighter materials that will 
improve efficiency in transportation; greatly improved chemical and 
biological sensing; use of low-energy chemical pathways to break down 
toxic substances for environmental remediation and restoration; and, 
better sensors and controls to increase efficiency in manufacturing.
    A key challenge in nanoscience is to understand how deliberate 
tailoring of materials on the nanoscale could lead to novel properties 
and new functionalities. Examples include: the addition of aluminum 
oxide nanoparticles that convert aluminum metal into a material with 
wear resistance equal to that of the best bearing steel; and, novel 
chemical properties of nanocrystals that show promise as photocatalysts 
to speed the breakdown of toxic wastes and meso-porous structures 
integrated with micromachined components that are used to produce high-
sensitivity and highly selective chip-based detectors of chemical 
warfare agents. These and other nanostructures are already recognized 
as likely components of 21st century optical communications, printing, 
computing, chemical sensing, and energy conversion technologies.
    SC has been a leader in the early development of nanoscale science, 
engineering, and technology since the 1980s, supporting research and 
sponsoring workshops to help establish the importance of nanostructured 
materials. Because of the confluence of advances during the past 
decade, SC is well prepared to make major contributions to develop 
nanoscale scientific understanding, and ultimately nanotechnologies, 
through its research programs and its materials characterization, 
synthesis, in-situ diagnostic, and computing capabilities. The DOE and 
its national laboratories maintain a large array of major scientific 
user facilities that are ideally suited to nanoscience discovery and to 
developing a fundamental understanding of nanoscale processes.
    New funding in the amount of $36.1 million in fiscal year 2001 is 
requested for these activities as part of the proposed multiagency 
National Nanotechnology Initiative. This effort has the following broad 
goals: (1) attain a fundamental scientific understanding of nanoscale 
phenomena, particularly collective phenomena; (2) achieve the ability 
to design and synthesize materials at the atomic level to produce 
materials with desired properties and functions; (3) attain a 
fundamental understanding of the processes by which living organisms 
create materials and functional complexes to serve as a guide and a 
benchmark by which to measure our progress in synthetic design and 
synthesis; and, (4) develop experimental characterization and theory/
modeling/simulation tools necessary to drive the nanoscale revolution.
    The synergy of DOE assets, in partnership with universities and 
industry, will provide the best opportunity for nanoscience discoveries 
to be converted rapidly into technological advances. These will meet a 
variety of DOE mission and national needs, while enabling the U.S. to 
reap the benefits of an emerging technological revolution.
    Scientific Discovery through Advanced Computing.--Modeling and 
simulation was one of the most significant developments in the practice 
of scientific research in the 20th century. It is essential to all of 
the Department's missions, including the design of nuclear weapons, the 
development of new energy technologies, and--most importantly--the 
discovery of new scientific knowledge. Research programs throughout SC 
have high priority scientific problems that can only be addressed by 
advances in computational modeling and simulation. These problems 
include:
  --Predicting the effects of aging, cracking, fatigue, and 
        catastrophic failure in materials; as well as designing new 
        materials with desired properties and functions, e.g., 
        catalysts, alloys, and photovoltaic devices.
  --Designing new particle accelerators that provide the beam energy, 
        intensity, and quality needed to continue our investigations 
        into the fundamental nature of matter.
  --Predicting the interaction of chemical reactivity and fluid 
        dynamics to understand the mixing of reactants and the removal 
        of products for applications as diverse as combustion, 
        atmospheric chemistry, and chemical processing.
  --Predicting the fate of contaminants in the subsurface, including 
        chemical reactions and biological transformations, as well as 
        fluid flow through porous material.
  --Predicting and controlling plasma instabilities that lead to a 
        critical loss of power density in Tokamaks and other magnetic 
        fusion devices.
  --Predicting the earth's climate at both regional and global scales 
        from decades to centuries, including quantification of the 
        uncertainties associated with the predictions.
    Theoretical and experimental approaches alone do not provide 
sufficient information to understand and predict the behavior of 
systems as complex as those listed above. Computational modeling and 
simulation, which allows a complete description of the system to be 
constructed from basic physical principles and the available 
experimental data, is key to solving these problems.
    SC has a long history of accomplishment in scientific computing and 
has served as the proving ground for new computer technologies-
subjecting these technologies to the demands that only its most 
computationally intensive simulations could provide. In 1974, the 
Department established the first civilian supercomputer center for a 
national scientific community, the National Magnetic Fusion Energy 
Computing Center, which became the National Energy Research Scientific 
Computing Center (NERSC) and also became a model for centers 
established a decade later by NSF and other agencies.
    SC's achievements in software for scientific computing are equally 
impressive. SC led the transition from the vector supercomputers of the 
1970s and 1980s to the massively parallel supercomputers of today, 
providing much of the basic software required to use the massively 
parallel supercomputers. Many of the scientific simulation software 
packages for massively parallel supercomputers were developed by SC, a 
fact recognized by periodic awards from the supercomputing community.
    To meet the current and future scientific challenges in its 
research programs, SC will capitalize on the 1,000-fold increase in 
computer capabilities that are predicted to occur in the next five 
years. In fiscal year 2001, SC will make a set of coordinated 
investments that build on its established strength in computational 
modeling and simulation, computer science, applied mathematics, and 
high-performance computing as well as in the organization and 
management of large scientific projects. The SC-wide effort will 
address:
  --Scientific Applications Codes including research, development, and 
        deployment of advanced computational modeling and simulation 
        codes, new mathematical/computational methods for advanced 
        computers, and application of the codes and methods to 
        challenging scientific problems.
  --Computing Systems Software including the development and deployment 
        of systems software and specifically mathematical methods, 
        algorithms, and libraries that scale to ten thousand or more 
        processors; software systems to enable the development and use 
        of scientific applications codes; distributed computing and 
        collaboration tools to support use of remote computing 
        resources and enable integration of geographically-dispersed 
        teams; scientific data management and analysis (visualization) 
        systems to enable the extraction of knowledge from scientific 
        simulations; and scalable, open-source operating systems to 
        provide the basic infrastructure needed to use massively 
        parallel computer systems.
  --Computing Infrastructure includes an upgrade of the National Energy 
        Research Supercomputing Center from 3\1/2\ to 5 teraflops, an 
        upgrade to the ESnet to handle the larger datasets required by 
        our scientific applications, and to investigate alternate 
        computer architectures to determine those most effective to 
        address the Department's scientific problems.
    The proposed SC investments support the recommendations outlined in 
the report by the President's Information Technology Advisory Committee 
(PITAC) and take advantage of the capabilities being developed in the 
Accelerated Strategic Computing Initiative (ASCI) in the Office of 
Defense Programs for DOE's Stockpile Stewardship Program.
    Unraveling the Mysteries of Nature's Chemical Factories--Microbial 
Cell.--The fiscal year 2001 request includes funds for a new activity 
to understand microbial processes at the molecular level. The 
understanding of the biochemical, metabolic, physiological and cellular 
processes will permit the generation of solutions for today's and 
tomorrow's challenges in energy production and use, environmental 
cleanup, carbon sequestration, plant sciences, and industrial 
processing. Microbes have dramatic impacts on energy production and 
conservation. Adverse effects include the fouling or corrosion of 
pipelines and other metal components used in energy production, 
significant reductions in the efficiency of heat exchangers, and the 
souring of fossil energy reserves. Conversely, microbes play a valuable 
role in numerous industrial fermentations and other bioprocesses that 
convert complex biomass into potential biofuels and chemical 
feedstocks. Harnessing microbes for our own uses is the goal.
    This work capitalizes on SC's pioneering and leadership role in 
high throughput genomic DNA sequencing as part of the Human Genome 
Program; its longstanding support of microbial biochemistry, metabolism 
and physiology; its support of national user facilities for determining 
protein structures; and, the capabilities of its national laboratories 
in computational analysis and instrumentation research. The key 
scientific challenges are far greater than simply understanding how 
individual genes and proteins work. We need to understand how genes and 
proteins are regulated in a coordinated manner and how they are 
integrated into a functional, interactive cell.
    Bioengineering.--The fiscal year 2001 budget request includes an 
increase for a research program in bioengineering, which uses SC's 
unique resources and expertise in the biological, physical, chemical 
and engineering sciences to develop new research opportunities for 
technological advances in biomedical applications. This activity will: 
advance fundamental concepts; create knowledge from the molecular to 
the organ systems level; and, develop innovative biologics, materials, 
processes, implants, devices, and informatics systems. The work will 
complement that of other federal programs by supporting early stage 
research that is not funded by other federal agencies. This program 
will be coordinated with all activities under the auspices of the 
Bioengineering Consortium (BECON), which includes SC, the National 
Science Foundation (NSF), and all of the individual NIH institutes.
    Scientific Facilities Utilization.--Each year, over 15,000 
university, industry, and government-sponsored scientists conduct 
cutting edge experiments at the particle accelerators, high-flux 
neutron sources, synchrotron radiation light sources, and other 
specialized facilities operated by SC. The user community continues to 
be pleased with the service provided to them by the SC scientific 
facilities, as evidenced by their many letters of support, by the 
positive results of surveys conducted at the facilities, and by the 
investigations of review committees.
    In fiscal year 2001, operating budgets are increasing at our user 
facilities, such as the synchrotron radiation light sources, the 
neutron scattering facilities, and the Environmental Molecular Sciences 
Laboratory, to provide increased operating time and support for users 
and to fabricate instruments and beamlines to serve the large and 
growing user community at these facilities.
    Spallation Neutron Source (SNS).--The purpose of the SNS Project is 
to provide a next-generation short-pulse spallation neutron source for 
neutron scattering. The SNS will be used by researchers from academia, 
national labs, and industry for basic and applied research, and for 
technology development in the fields of condensed matter physics, 
materials sciences, magnetic materials, polymers and complex fluids, 
chemistry, biology, and engineering. It is anticipated that SNS will be 
used by 1,000-2,000 scientists and engineers annually, and that it will 
meet the nation's need for neutron science capabilities well into the 
21st century. When completed in 2006, the SNS will be more than ten 
times as powerful as the best spallation neutron source now in 
existence--ISIS at the Rutherford Laboratory in England.
    Neutrons enable scientists studying the physical, chemical, and 
biological properties of materials to determine how atoms and molecules 
are arranged and how they move. This is the microscopic basis for the 
features that make materials of technological significance for many 
economically important areas. Major research facilities, such as the SC 
synchrotron and neutron sources, are used to understand and 
``engineer'' materials at the atomic level so that they have improved 
macroscopic properties and perform better in new applications. The SNS 
is a next-generation facility for this type of research. Neutron 
scattering will play a role in all forms of materials research and 
design, including the development of smaller and faster electronic 
devices; lightweight alloys, plastics, and polymers for transportation 
and other applications; magnetic materials for more efficient motors 
and for improved magnetic storage capacity; and, new drugs for medical 
care.
    The importance of high neutron flux (i.e. high neutron intensity) 
cannot be overstated. The relatively low flux of existing neutron 
sources and the very small fraction of neutrons that get scattered by 
most materials means that most measurements are limited by the source 
intensity. However, the pursuit of high-flux neutron sources is more 
than just a desire to perform experiments faster, although that, of 
course, is an obvious benefit. High flux enables broad classes of 
experiments that cannot be done with low-flux sources. For example, 
high flux enables studies of small samples, complex molecules and 
structures, time-dependent phenomena, and very weak interactions.
    The SNS Project is a partnership among five DOE laboratories that 
takes advantage of specialized technical capabilities within the 
laboratories: Lawrence Berkeley National Laboratory in ion sources, Los 
Alamos National Laboratory in linear accelerators, Brookhaven National 
Laboratory in proton storage rings, Argonne National Laboratory in 
instruments, and Oak Ridge National Laboratory in targets and 
moderators.
    The Department has met the conditions stipulated in the House 
Report (Report 106-253, pages 113-114) accompanying the fiscal year 
2000 Energy and Water Development Appropriations Act concerning the 
release of construction funds for the SNS project, and has regularly 
communicated its progress to Congress. During the past year, the 
project has: established a revised project management structure with a 
single Executive Director who has been designated as the primary 
authority for the project; filled all senior positions with qualified 
individuals; established cost and schedule baselines that were 
externally reviewed and determined to be the most cost effective way to 
complete the project; and, established an inter-Laboratory Memorandum 
of Agreement and incorporated it by reference into the laboratory 
contracts, thus making it legally binding.
    In the President's budget request, the estimated Total Project Cost 
(TPC) has increased from $1,360 million to $1,440 million and the 
construction schedule has been extended six months to the third quarter 
of fiscal year 2006 as a result of project restructuring during fiscal 
year 1999. Fiscal year 2001 funding of $281 million is requested for 
the SNS Project to conduct detailed design and start fabrication of key 
components and systems. Production of several significant equipment 
items will continue. Construction will begin on several conventional 
facilities in preparation for starting installation of major equipment. 
Construction will be completed on roads into the site, site 
preparation/grading, waste systems, and retention basins. Project 
management and integration activities, which are exceptionally 
important during this phase of the project, will also be conducted. 
Work will continue on the Safety Assessment Document for all of the 
facility except for the target system, for which a Safety Analysis 
Report will be prepared.
    Since the Tennessee use tax, that applies to all tangible property 
either purchased in the state or brought into the state, had applied to 
the SNS, $28 million was included in the TPC for this tax liability. 
However, in late January 2000 the Tennessee legislature passed 
legislation, that was signed by Governor Sundquist, exempting the SNS 
from these taxes. The fiscal year 2001 estimate for these taxes was 
$2.5 million. This exemption will reduce the TPC to $1,411.7 million 
and will reduce the fiscal year 2001 request from $281 million to 
$278.5 million a reduction of $2.5 million for the fiscal year 2001 tax 
liability exemption.
    Large Hadron Collider (LHC).--The foremost high energy physics 
research facility of the next decade will be the LHC at CERN, the 
European Laboratory for Particle Physics. The primary physics goals of 
the LHC will impact our understanding of the origin of mass through 
studies of the elusive ``Higgs'' particle, exploration of the structure 
and interactions of quarks, and unanticipated phenomena. The High 
Energy Physics Advisory Panel (HEPAP) strongly endorsed participation 
in the LHC to provide U.S. access to the high energy frontier in order 
to maintain the U.S. as a world leader in this fundamental area of 
science.
    DOE and NSF have entered into an agreement with CERN, signed in 
1997, arranging for participation in the LHC project (accelerator and 
detectors) at CERN that will primarily take the form of the U.S. 
accepting responsibility for designing and fabricating particular 
subsystems of the accelerator and of the two large detectors. Thus, 
much of the funding will go to U.S. laboratories, university groups, 
and industry for fabrication of subsystems and components which will 
become part of the LHC accelerator or detectors. A portion of the funds 
will be used to pay for purchases by CERN of material needed for 
construction of the accelerator. As a result of the negotiations, CERN 
has agreed to make these purchases from U.S. vendors.
    This agreement, provides access for U.S. scientists to the next 
decade's premier high energy physics facility. Under the agreement, the 
DOE will contribute $450 million ($250 million for the detectors and 
$200 million for the accelerator) to the LHC effort over the period 
fiscal year 1996 through fiscal year 2004. The total cost of the LHC is 
estimated at about $6,000 million. The U.S. contribution represents 
less than ten percent of the total cost of the project. The Office of 
Science has conducted a cost and schedule review of the entire LHC 
project and similar reviews of the several proposed U.S. funded 
components of the LHC. All of these reviews concluded the costs are 
properly estimated and that the schedule is feasible.
    The LHC collaboration includes a very active interagency 
cooperation. A DOE-NSF Joint Oversight Group meets every six months and 
a program level working group meets every two weeks. The agreement 
negotiated with CERN provides for U.S. involvement in the management of 
the project through participation in key management committees such as 
the CERN Council, CERN Committee of Council, and the LHC Board. In 
addition, both DOE and NSF participate in the Joint Coordinating 
Committee established with CERN to oversee the collaboration on an 
annual basis. Laboratory and university collaborations have even more 
extensive contacts.
    Work on the LHC detectors is progressing across the United States. 
Brookhaven is the host laboratory for the ATLAS detector, which also 
involves Argonne and Lawrence Berkeley National Laboratories, and 28 
university groups. Fermilab is the host laboratory for the Compact Muon 
Solenoid (CMS) detector, which also involves Brookhaven and Los Alamos 
National Laboratories, and 33 university groups. Cost and schedule 
baselines have been reviewed and validated for each U.S. portion of the 
project, and management systems are in place to monitor progress 
against baselines.
    Scientific and Technical Workforce Retention and Recruitment.--
During 1999, DOE conducted a systematic analysis of staffing needs 
required for current and projected R&D program missions. As a result, 
staffing shortfalls were identified, especially in scientific and 
technical disciplines. Alarmingly, one half of the R&D technical 
managers are currently eligible to retire. In fiscal year 2001, the 
Department will focus on building and sustaining a talented and diverse 
workforce of R&D technical managers through innovative recruitment 
strategies, retention incentives, comprehensive training and 
development programs, and succession planning.
    SC, using Program Direction funds, will recruit experienced 
scientists and related support staff in areas important to the 
Department's science mission. Other key activities to be supported 
include motivating and retaining highly skilled, top-performing 
technical managers, and the training of new and current scientists.
    In addition, SC university research programs and projects at the 
national laboratories provide competitive financial support for 
undergraduate and graduate students and post-doctoral investigators as 
an integral part of the funding for fundamental scientific research in 
universities and in the private sector. SC scientific user facilities 
provide outstanding hands-on research experience to many young 
scientists. Specific fellowship programs are also sponsored by SC to 
target emerging areas of need. A total of 6,550 graduate students and 
post-doctoral investigators were supported at universities and national 
laboratories in fiscal year 1999 and 4,840 made use of the SC 
Scientific User Facilities. SC will continue its support for graduate 
students and post-doctoral investigators in fiscal year 2001.

                          PERFORMANCE MEASURES

    All three of SC's global scientific performance measures were fully 
met in fiscal year 1999.
  --Construct large-scale facilities so that projects are completed 
        within 110 percent of cost and schedule baselines. All SC 
        projects completed in fiscal year 1999 met 100 percent of the 
        cost and schedule baselines.
  --Maintain and operate the scientific user facilities so that the 
        unscheduled down time on average is less than 10 percent of the 
        total scheduled operating time. Fiscal year 1999 performance 
        resulted in an average of less than 9 percent unscheduled 
        downtime.
  --Excellence in basic research: All research projects will continue 
        to be reviewed by appropriate peers and selected through a 
        merit-based competitive process. In fiscal year 1999, 91 
        percent of DOE grants were awarded through a competitive merit-
        based process.
    In addition, the following performance goals were fully met in 
fiscal year 1999:
  --Continued collaborative efforts with NASA on space science and 
        exploration.
  --Delivered on the 1999 U.S./DOE commitments to the international LHC 
        project.
  --Completed construction and began commissioning of the Relativistic 
        Heavy Ion Collider (RHIC) at Brookhaven National Laboratory on 
        time and within budget.
  --Began Title I design activities, initiated subcontracts and long-
        lead procurement and continued R&D work necessary to begin 
        construction activities of the SNS.
  --Completed the National Spherical Torus Experiment (NSTX) at the 
        Princeton Plasma Physics Laboratory within scope and budget, 
        achieving first plasma milestone ahead of schedule.
        science programs--advanced scientific computing research

Fiscal Year 2001 Request--$182.0 M
    The Advanced Scientific Computing Research (ASCR) program supports 
advanced computing research--applied mathematics, high performance 
computing, and networking--and operates supercomputer and associated 
facilities that are available to researchers 24 hours a day, 365 days a 
year. The combination of support for fundamental research, 
computational and networking tools development, and high-performance 
computing facilities provides scientists with the capabilities to 
analyze, model, simulate, and--most importantly--predict complex 
phenomena of importance to SC and DOE.
    A new federally-chartered advisory committee has been established 
for the ASCR program and has been charged with providing advice on: 
promising future directions for advanced scientific computing research; 
strategies to couple advanced scientific computing research in other 
disciplines; and the relationship of the DOE program to other federal 
investments in information technology research. This advisory committee 
will play a key role in evaluating future planning efforts for research 
and facilities.
    Some of the pioneering accomplishments of the ASCR program are: 
development of the technologies to enable remote, interactive access to 
supercomputers; research and development leading to the High 
Performance Parallel Interface (HiPPI) standard; and, research leading 
to the development of the slow start algorithm for the Transmission 
Control Protocol (TCP), which enabled the Internet to scale to today's 
worldwide communications infrastructure. This long history of 
accomplishments in the ASCR program continued to be recognized in 
fiscal year 1999 including: the Maxwell Prize, the Crystal Award of 
Excellence, several awards at Supercomputing 1998 and Supercomputing 
1999 including ``Best of Show'' and ``Best Paper'' in 1998, a Genius 
Grant from the MacArthur Foundation, the 39th Annual G.H.A. Clowes 
Memorial Award, the American Physical Society's James C. McGroody 
Prize, the Humboldt Research Award, Presidential Early Career Awards, 
and Federal Laboratory Consortium Awards.
    During the past quarter century computational simulation has 
dramatically advanced our understanding of the fundamental processes of 
nature and has been used to gain insights into the behavior of such 
complex natural and engineered systems as the earth's climate and 
automobile design. The new generation of terascale computing tools, and 
the 1,000 times more powerful petascale computing capabilities that are 
now on the horizon, will enable scientists to dramatically improve 
their understanding of fundamental processes in many areas. In 
addition, these new tools will enable scientists to predict the 
behavior of many complex natural and engineered systems from a 
knowledge of the underlying physical, chemical, and biological 
processes involved. This new capability, to predict the behavior of 
complex systems based on the properties of their components, will 
change the way DOE and other government agencies solve their most 
demanding, mission-critical problems. A workshop held at the National 
Academy of Sciences in July 1998 identified opportunities for new 
scientific discovery through advanced computing in all of the SC 
programs.
    The ASCR program has worked with the other SC research programs, 
other federal agencies, and the broad scientific community to formulate 
a vision for advanced scientific computing within SC. This work, 
conducted during the past two years, forms the basis for the investment 
choices described in the fiscal year 2001 budget; aspects of these 
investments have been previously described in this testimony. Success 
in the scientific applications of high-performance computing depends on 
investments in applied mathematics and computer science to provide the 
algorithms, mathematical libraries, and underlying computer science 
tools to enable the scientific disciplines to make effective use of 
terascale computers.
    Despite considerable progress during the past ten years in making 
massively parallel computer systems usable for science applications, 
much remains to be done. The next generation computer systems to enable 
leading-edge applications will have between 5,000 and 10,000 individual 
computer processors rather than the 500 to 1,000 processors in today's 
typical high performance systems. In addition, the internal structure 
of the computers will become more complex as computer designers are 
forced to introduce more layers of memory hierarchy to maintain 
performance and develop new hardware features to support rapid 
communication and synchronization. The end result five years from now 
will be hardware systems that, while having their roots in today's 
systems, will be substantially different, substantially more complex 
and therefore more challenging to exploit for high performance. These 
challenges will require substantial improvements in parallel computing 
tools, parallel I/O (input/output) systems, data management, 
algorithms, and program libraries that must work together as an 
integrated software system. In addition to the fundamental research 
challenges that are implied by this evolution in computer hardware, DOE 
must integrate the output from successful SC research projects into 
integrated sets of software tools that scientists in disciplines as 
diverse as global climate, materials science, and computational biology 
can build on to address scientific challenges.
    In fiscal year 2001 the ASCR program will, through enhancements to 
the Mathematical, Information, & Computational Sciences (MICS) 
subprogram, produce the scientific computing, networking and 
collaboration tools that SC researchers require to address the 
scientific challenges of the next decade. These enhancements build on 
the historic strength of the MICS subprogram in computational science, 
computer science, applied mathematics, and high-performance computing. 
They also take full advantage of the dramatic increases in computing 
capabilities being fostered by the Accelerated Strategic Computing 
Initiative (ASCI) in the Office of Defense Programs.
    Research programs throughout the Office of Science have high 
priority scientific problems that can only be addressed by 
computational modeling and simulation. These problems include:
  --Predicting the effects of aging, cracking, fatigue, and 
        catastrophic failure in materials; designing new materials with 
        desired properties and functions, e.g., catalysts, alloys, and 
        photovoltaic devices.
  --Designing particle accelerators that provide the beam energy, 
        intensity, and quality needed to continue forefront 
        investigations into the fundamental nature of matter.
  --Predicting the interaction of chemical reactivity and fluid 
        dynamics to understand the mixing of reactants and the removal 
        of products for applications as diverse as combustion, chemical 
        processing, and atmospheric chemistry.
  --Predicting the fate of contaminants in the subsurface, including 
        chemical reactions and biological transformations, as well as 
        fluid flow through porous material.
  --Predicting and controlling plasma instabilities that lead to a 
        critical loss of power density in tokamaks and other magnetic 
        fusion devices.
    The size and complexity of these problems require the development 
of fast and efficient algorithms and software that can take advantage 
of the power of today's massively parallel computing platforms.
    The MICS subprogram will address these challenges by establishing a 
small number of competitively selected partnerships focused on 
discovering, developing, and deploying to scientists key enabling 
technologies. These partnerships, which will be called enabling 
technology centers, must support the full range of activities from 
basic research through deployment and training because the commercial 
market for software to support terascale scientific computers is too 
small to be interesting to commercial software providers. These centers 
will build on the successful experience of the program in managing the 
DOE2000 initiative, as well as the lessons learned in important 
programs supported by DARPA such as Project Athena at MIT, the Berkeley 
Unix Project, and the initial development of the Internet software and 
the Internet Activities Board (IAB). These enabling technology centers 
will have close ties to key scientific applications projects to ensure 
their success.
    In addition, the MICS subprogram will support increased fundamental 
research in networking and collaboration tools, partnerships with key 
scientific disciplines, and advanced network testbeds. This is 
necessary to support researchers using the major experimental 
facilities, computational resources, and data resources supported by 
DOE. With leadership from SC, geographically distributed laboratories 
or collaboratories have begun to play an important role in the nation's 
scientific enterprise. The importance of collaboratories is expected to 
increase in the future.
    However, significant research questions must be addressed if 
collaboratories are to achieve their potential. For example, typical 
Relativistic Heavy Ion Collider (RHIC) experimental collaborations 
involve thousands of scientists and hundreds of institutions spread 
around the world who need access to petabytes of data (a billion times 
as much data as a large web page). Using the current Internet, it would 
take about 2,500 hours to transmit one day's data from RHIC to one 
remote site for analysis. Significant research is needed to enable 
today's commercial networks to be used for scientific data retrieval 
and analysis, to provide remote visualization of terabyte to petabyte 
data sets from computational simulation, and to enable remote access to 
petabyte/year High Energy and Nuclear Physics facilities such as the 
RHIC and to tomorrow's advanced scientific computer.
    To realize this scientific opportunity, enhancements to SC's 
computing and networking facilities are required. The current computers 
at the National Energy Research Scientific Computing (NERSC) Center 
provide less than half of the computer resources that were requested 
last year. This pressure on the facility will continue to increase in 
future years as more applications become ready to move from testing the 
software, to using the software to generate new science. In addition, 
as the speed of computers increases, the amount of data they produce 
also increases. Therefore, focused enhancements to SC's network 
infrastructure are required to enable scientists to access and 
understand the data generated by their software. These network 
enhancements are required to allow researchers to have effective remote 
access to the SC experimental facilities.
    The MICS subprogram will also increase funding for SC's computing 
and networking facilities. The ASCR budget request includes $32.3 
million in fiscal year 2001 to support NERSC. This investment will 
provide computer time for about 2,000 scientists in universities, 
federal agencies, and U.S. companies and will enable NERSC to maintain 
its role as the nation's largest, premier unclassified computing 
center. Research communities that benefit from NERSC include: 
structural biology; superconductor technology; medical research and 
technology development; materials, chemical, and plasma sciences; high 
energy and nuclear physics; and environmental and atmospheric research.
    The research and development activities supported by the ASCR 
program are coordinated with other federal efforts through the 
Interagency Principals Group, chaired by the President's Science 
Advisor, and the Information Technology Working Group (ITWG). The ITWG 
represents the evolution of an interagency coordination process that 
began under the 1991 High Performance Computing Act as the High 
Performance Computing, Communications, and Information Technology 
(HPCCIT) Committee. SC has been a key participant in these coordination 
bodies from the outset and will continue to coordinate its R&D efforts 
closely through this process.
    This program will make significant contributions to the nation's 
Information Technology Basic Research effort just as previous SC 
mission-related research efforts have led to SC's leadership in this 
field. In particular, the enhanced MICS subprogram will place emphasis 
on software research to improve the performance of high-end computing 
as well as research on the human-computer interface and on information 
management and analysis techniques. In addition, through NERSC and the 
Advanced Computing Research Facilities, the program will provide the 
most powerful high-end computers available to the nation's scientific 
and engineering communities.
    In addition to these computing related activities, ASCR also 
manages the Laboratory Technology Research (LTR) program. The mission 
of this program is to support high risk, energy related research that 
advances science and technology to enable applications that could 
significantly impact the nation's energy economy. LTR fosters the 
production of research results motivated by a practical energy payoff 
through cost-shared collaborations between SC laboratories and 
industry. In fiscal year 1999, the LTR subprogram initiated a portfolio 
of Rapid Access Projects that address research problems of small 
businesses by utilizing the unique facilities of the SC laboratories. 
These projects were selected on the basis of scientific, technical and 
potential commercial merit, using competitive external peer review. The 
LTR subprogram received five R&D-100 Awards in 1999.
    The Advanced Energy Projects subprogram under ASCR was terminated 
in fiscal year 2000.

                         BASIC ENERGY SCIENCES

Fiscal Year 2001 Request--$1,015.8 M
    The Basic Energy Sciences (BES) program is one of the nation's 
major sponsors of fundamental research in the broad areas of materials 
sciences, chemical sciences, geosciences, plant and microbial sciences, 
and engineering sciences. The program encompasses more than 2,400 
researchers in nearly 200 institutions and 16 of the nation's 
outstanding user facilities. The BES program funds research at 149 
colleges and universities located in 48 states. The inclusion of 
research activities at this large number of academic institutions is a 
vital part of the program. These scientists are funded through 
individual peer-reviewed grants and as members of peer-reviewed 
research teams involving investigators from both national laboratories 
and universities. In addition, university-based scientists are among 
the principal users of the BES user facilities. The BES program has 
taken a leadership role in defining and addressing the 21st century 
challenges facing the natural sciences--from understanding collective 
effects in materials to designing new materials atom by atom and, 
finally, to developing functional materials. Functional materials are 
those with the ability to self assemble, self repair, sense, respond, 
and evolve in order to provide functional properties--optical, 
mechanical, catalytic, electrical, and tribological. Envisioning and 
creating these materials is the coming challenge for the disciplines of 
materials sciences, chemistry, physics, and biology. This work during 
the past few years has led to the expansion in the base program effort 
in nanoscale research.
    Within the base research effort in fiscal year 2001, a program in 
Nanoscale Science, Engineering, and Technology Research will continue 
to support work at the frontiers of basic research that hold the 
promise of delivering revolutionary breakthroughs. In the fiscal year 
2001 request, new funding in the amount $36.1 million is requested for 
these activities. Funds are distributed within the Materials Sciences, 
Chemical Sciences, and Engineering and Geosciences subprograms. The BES 
program has worked with the National Science and Technology Council's 
Interagency Working Group on Nanotechnology, the Basic Energy Sciences 
Advisory Committee (BESAC), and the broad scientific community from 
academia, industry, and the national laboratories to define and 
articulate the goals of this research and determine how best to 
implement a program.
    In the fiscal year 2001 request, funding in the amount of $2.4 
million is requested for Microbial Cell research activities within the 
Energy Biosciences subprogram. New research activities coordinated with 
activities in the Biological and Environmental Research program focus 
on a bacterial cell consisting of a minimal set of genes essential for 
life. The specific research target will be understanding the 
biochemical and physiological functions of this set of genes. 
Additional studies will determine the genes and gene functions required 
for a particular physiological process.
    The fiscal year 2001 budget supports continued activities within 
the Climate Change Technology Initiative (CCTI). In fiscal year 2001, 
resources of $19.5 million are being requested in BES, which is the 
same amount as the fiscal year 2000 appropriation. These funds will be 
used to continue the research projects selected in fiscal year 2000. 
All CCTI activities are peer-reviewed fundamental scientific research 
that expand upon core research activities.
    Also included in the fiscal year 2001 request are funds in BES in 
the amount of $47.1 million that potentially impact solar and renewable 
energy resource production and use in the categories of biomass, wind 
energy, photovoltaics, hydrogen, and other (solar photoconversion). 
These funds provide continuing support for multidisciplinary, basic 
research in the BES Materials Sciences, Chemical Sciences, and Energy 
Biosciences subprograms.
    In addition to directly supporting research performers, BES is also 
the steward of 16 major national user facilities. Research communities 
that have benefited from the BES supported Scientific User Facilities 
include materials sciences, chemical sciences, earth and geosciences, 
environmental sciences, structural biology, superconductor technology, 
medical research, and industrial technology development. Included 
within this request to sustain a constant level of effort increase 
operations at each of the four BES synchrotron radiation light sources 
as well as additional funding to address specific recommendations of 
the 1997 BESAC review ``Synchrotron Radiation Sources and Science'' for 
each of the light sources.
    Also included within this request are funds to address neutron 
science following the closure of the High Flux Beam Reactor. Additional 
operating funds are provided to permit increased operations at other 
neutron sources, and additional capital equipment and accelerator 
improvement funds are provided for new instruments and infrastructure 
improvements, respectively. These actions are in accord with 
recommendations recently provided by BESAC, which was charged with 
providing guidance to the BES program for the near-term needs of the 
neutron science community, i.e., for the period during which the 
Spallation Neutron Source will be under construction. The synchrotron 
radiation light sources and the neutron sources serve a wide variety of 
research disciplines, and it is important that these facilities be 
operated so as to optimize beam availability and reliability to serve 
their users. The funds requested will ensure this high level of 
operation.
    BES scientific user facilities enable researchers to gain the new 
knowledge necessary to achieve the Department's missions and, more 
broadly, to advance the nation's entire scientific enterprise. The 
number of scientists conducting research at the BES user facilities has 
grown dramatically in recent years. BES user facilities are open to all 
qualified investigators in academia, industry, and government 
laboratories on a no-charge basis to all qualified researchers whose 
intention is to publish in the open literature. Over 6,000 users were 
accommodated at the BES scientific user facilities in fiscal year 1999. 
These facilities have an enormous impact on science and technology, 
ranging from determinations of the structure of superconductors and 
biological molecules to the development of wear-resistant prostheses; 
from atomic-scale characterization of environmental samples to 
elucidation of geological processes; and from the production of unique 
isotopes for cancer therapy to the development of new medical imaging 
technologies.
    Materials Sciences.--The Materials Sciences subprogram supports 
basic research in condensed matter physics, metal and ceramic sciences, 
and materials chemistry. This basic research seeks to understand the 
atomistic basis of materials' properties and behavior and how to make 
materials perform better at acceptable cost through new methods of 
synthesis and processing. Basic research is supported in corrosion, 
metals, ceramics, alloys, semiconductors, superconductors, polymers, 
metallic glasses, ceramic matrix composites, catalytic materials, non-
destructive evaluation, magnetic materials, surface science, neutron 
and x-ray scattering, chemical and physical properties, and new 
instrumentation. Ultimately the research leads to the development of 
materials that improve the efficiency, economy, environmental 
acceptability, and safety in energy generation, conversion, 
transmission, and use. These material studies affect developments in 
numerous areas, such as: the efficiency of electric motors and 
generators; solar energy conversion; batteries and fuel cells; 
stronger, lighter materials for vehicles; welding and joining of 
materials; plastics; and petroleum refining.
    Chemical Sciences.--The Chemical Sciences subprogram has two major 
components. One major component is comprised of photo- and radiation-
chemistry; chemical physics; and atomic, molecular and optical (AMO) 
science. This research provides a foundation for understanding 
fundamental interactions of atoms, molecules, and ions with photons and 
electrons. This work also underpins our fundamental understanding of 
chemical reactivity. This, in turn, enables the production of more 
efficient combustion systems with reduced emissions of pollutants. It 
also increases knowledge of solar photoconversion processes resulting 
in new improved systems and production methods. The other major 
component of the research program is comprised of physical chemistry, 
inorganic chemistry, organic chemistry, analytical chemistry, 
separation science, heavy element chemistry, and aspects of chemical 
engineering sciences. The research supported provides a better 
molecular level understanding of homogeneous and heterogeneous 
reactions occurring at surfaces, interfaces, and in bulk media. This 
has resulted in improvements to known heterogeneous and homogeneous 
catalytic systems, new catalysts for the production of fuels and 
chemicals, and better analytical methods in a wide variety of 
applications in energy processes. It has also provides new knowledge of 
actinide elements and separations important for environmental 
remediation and waste management, and better methods for describing 
turbulent combustion and predicting thermophysical properties of 
multicomponent systems.
    Engineering and Geosciences.--The Engineering and Geosciences 
subprogram conducts research in both of these disciplinary areas. In 
Engineering Research, the goals are to extend the body of knowledge 
underlying current engineering practice to create new options for 
improving energy efficiency and to broaden the technical and conceptual 
knowledge base for solving the engineering problems of energy 
technologies. In Geosciences Research, the goal is fundamental 
knowledge of the processes that transport, concentrate, emplace, and 
modify the energy and mineral resources and the byproducts of energy 
production. The research supports existing energy technologies and 
strengthens the foundation for the development of future energy 
technologies. Ultimately the research impacts control of industrial 
processes to improve efficiency and reduce pollution, increase energy 
supplies, lower cost, and increase the effectiveness of environmental 
remediation of polluted sites.
    Energy Biosciences.--The Energy Biosciences subprogram supports 
fundamental research related to a molecular level understanding of the 
formation, storage, and interconversion of energy by plants and 
microorganisms. Plants and microbes serve as renewable resources for 
fuel and other fossil resource substitutes, as agents to restore 
previously disrupted environmental sites, and as potential components 
of industrial processes to produce new products and chemicals in an 
environmentally benign manner. The program supports research in a 
number of topics related to these areas. These include research in 
photosynthesis and bioenergetics; the biosynthesis, structure and 
function of plant cell walls (the major component of plant biomass); 
the bioproduction and bioconversion of methane; the biodegradation of 
lignocellulose; the biosynthesis of starch and lipids (plant energy 
storage compounds); plant secondary metabolism; microbial fermentations 
; microbial thermophily; and processes that offer unique possibilities 
for research at the interface of biology and the physical, earth, and 
engineering sciences.

                 BIOLOGICAL AND ENVIRONMENTAL RESEARCH

Fiscal Year 2001 Request--$445.3 M
    For over 50 years, the Biological and Environmental Research (BER) 
program has been investing to advance environmental and biomedical 
knowledge connected to energy. Through its support of peer-reviewed 
research at national laboratories, universities, and private 
institutions, the program develops the knowledge needed to identify, 
understand, anticipate, and mitigate the long-term health and 
environmental consequences of energy production, development, and use.
    The BER program continues its commitment to and dependence on 
research scientists at our nation's universities. University-based 
scientists are an integral part of research programs across the entire 
range of the BER portfolio and are the principal users of BER 
facilities for structural biology--at the Environmental Molecular 
Sciences Laboratory, and the Natural and Accelerated Bioremediation 
Research (NABIR) Program's Field Research Center. University scientists 
also form the core of the Atmospheric Radiation Measurement (ARM) 
science team that networks with the broader academic community as well 
as with scientists at other agencies, such as the NASA and the National 
Oceanic and Atmospheric Administration (NOAA). In addition, university-
based scientists are funded through their response to Requests for 
Applications across the entire BER program.
    The BER request includes funding for Scientific User Facilities 
such as the William R. Wiley Environmental Molecular Sciences 
Laboratory which enables research activities that underpin long-term 
environmental remediation. This funding will provide for the operation 
of the facilities, assuring access for scientists in universities, 
federal laboratories, and industry. It will also leverage both 
federally and privately sponsored research at these facilities. The 
request includes support for infrastructure and development of user 
facilities at synchrotrons and neutron sources for the nation's 
structural biologists. Support of structural biology user facilities is 
coordinated with NIH and NSF. Support is also included for the 
operation of the Natural and Accelerated Bioremediation Research 
(NABIR) Program's Field Research Center and ARM research sites.
    The Human Genome Program continues to be a centerpiece of the BER 
research program, both in terms of its contribution to the 
international effort to sequence the human genome, and in terms of the 
spin-off technologies. Through efforts at the Joint Genome Institute 
(JGI) and its Production Sequencing Facility, DOE does its share of 
high-throughput human DNA sequencing and develops, validates, and 
integrates new DNA sequencing technologies into the production of DNA 
sequencing. Fiscal year 2001 is the fourth year of a major five year 
scale-up of DNA sequencing capacity to achieve the international goal 
of a complete sequence by 2003. The BER request for fiscal year 2001 
includes $90.3 million for human genome research. The DOE's share of 
the funding for the U.S. Human Genome Program is about 25 percent of 
the national effort. University scientists, working with the JGI, play 
a key role in completing DOE's share of determining the human DNA 
sequence.
    The fiscal year 2001 request also includes $9.7 million for the 
Microbial Cell project. This project, a joint effort between BER and 
Basic Energy Sciences, capitalizes on DOE's pioneering and leadership 
role in high throughput genomic DNA sequencing; its longstanding 
support of microbial biochemistry, metabolism and physiology; its 
support of national user facilities for determining protein structures; 
and the capabilities of its national laboratories in computational 
analysis and instrumentation research. The goal of the Microbial Cell 
project is to develop a comprehensive understanding of the complete 
workings of a microbial cell, from the DNA sequence, to the 
identification of all the genes, to the production of all the proteins 
whose assembly instructions are contained in the genes, to the complex 
interaction of the genes and proteins in a cell that give the microbe 
its life and its unique characteristics and behaviors.
    The fiscal year 2001 request also includes $6.7 million for a 
research program in Bioengineering Engineering. The Bioengineering 
program will support collaborations between the DOE national 
laboratories and leading medical schools and teaching hospitals. These 
collaborations will leverage the laboratories' unique resources and 
expertise in the biological, physical, chemical, engineering, and 
computing sciences to provide innovative solutions to medical 
application. The program builds on research in the nuclear medicine 
field that SC originated and has supported for over half a century.
    The fiscal year 2001 budget request supports a continuation of two 
carbon-related programs, each coordinated among several offices and 
agencies. The first is the Climate Change Technology Initiative (CCTI). 
CCTI focuses on the underpinning fundamental science that will enable 
mitigation of climate change and is supported by both BER and the Basic 
Energy Sciences program. The second is the U.S. Global Change Research 
Program (US/GCRP). US/GCRP research focuses on developing the 
fundamental understanding of the comprehensive climate system and the 
global and regional manifestations of climate change. The two programs 
complement one another. For example, ``A U.S. Carbon Cycle Science 
Plan'' was undertaken by the US/GCRP and the ``Carbon Sequestration 
Research and Development Report'' was developed under the auspices of 
the CCTI. The BER request includes fiscal year 2001 funding for CCTI of 
$16.3 million. Ongoing CCTI research includes two focused efforts in 
carbon sequestration in oceans and the earth, and the sequencing of the 
DNA of several microbes critical to biological sequestration. Research 
projects span a broad array of disciplines, including ecology and 
biology.
    Life Sciences.--In addition to the Human Genome Program and the 
Microbial Cell project, life sciences research is focused on utilizing 
unique DOE resources and facilities to develop fundamental biological 
information and advanced technologies for understanding and mitigating 
the potential health effects of energy development, use, and waste 
cleanup. Research is conducted in five areas: structural biology, 
cellular biology, molecular biology, human genome, and health effects.
    Structural biology research supports national user facilities and 
emphasizes the development and use of robust computational processes 
and new technologies and methodologies to predict and understand the 
three-dimensional structure and dynamic behavior of proteins and 
protein complexes involved in the recognition and repair of DNA damage 
or the bioremediation of metals and radionuclides.
    Molecular biology research emphasizes microbial systems, including 
the Microbial Cell project, microbial genomics, and molecular aspects 
of the CCTI program. The field of microbial genomics continues to be 
one of the most exciting, high profile, and rapidly growing fields in 
biology today, expanding from the SC-initiated program to other federal 
agencies and private industry. The BER Microbial Genome program has 
supported the complete genomic sequencing of 15 of the approximately 50 
bacteria whose DNA have been sequenced. The sequencing of more than 40 
additional microbes is in progress in the scientific community. The 
broad impacts of this research emphasize a central principle of the SC 
genome programs--complete genomic sequences yield answers to 
fundamental questions in biology. Microbes are being sequenced and 
characterized in several parts of the BER program with potential 
impacts across several DOE missions including: CCTI, microbes for 
cleaning up the environment, alternative fuel sources (methane 
production or energy from biomass), and microbes that produce 
industrially useful enzymes. As the number of complete and in-progress 
microbial genomes grows, the microbial genome program is shifting its 
emphasis from a predominant focus on genomic sequencing to a broader 
emphasis on the use and discovery of new knowledge from microbes whose 
genomic DNA sequences have been determined. In addition to sequencing 
the DNA of microbes important to the CCTI, a key component of CCTI 
research is to identify and understand genes, proteins, and entire 
biochemical pathways or gene regulatory networks that address the fuel 
production or carbon sequestration goals of CCTI.
    The low dose radiation research program, the central focus of 
cellular biology research, provides information that is a key 
determinant in decisions made to protect people from adverse health 
risks from exposure to radiation. This information will provide a 
better scientific basis for remediating contaminated DOE sites and 
achieving acceptable levels of human health protection, both for 
cleanup workers and the public, in a more cost-effective manner that 
could save billions of dollars.
    Health Effects conducts research and develops tools needed to speed 
understanding of the human genome. If the sequencing of the human 
genomic DNA provide the complete parts list for the human genome, this 
research contributes to the development of a ``high tech owner's 
manual'' that is critical for understanding normal human development 
and disease processes.
    Environmental Processes.--Research is focused on understanding the 
basic chemical, physical, and biological processes of the earth's 
atmosphere, land, and oceans and how these processes may be affected by 
energy production and use, primarily the emission of carbon dioxide 
from fossil fuel combustion. A major part of the research is designed 
to provide the data that will enable an objective assessment of the 
potential for, and consequences of, global warming. The program is 
comprehensive with an emphasis on understanding the radiation balance 
from the surface of the earth to the top of the atmosphere (including 
the role of clouds) and on enhancing the quantitative models necessary 
to predict possible climate change at the global and regional scales.
    The Atmospheric Radiation Measurement (ARM) program produces the 
experimental and modeling results necessary to resolve the greatest 
uncertainty in climate prediction--the role of clouds and solar 
radiation. Climate modeling uses massively parallel supercomputers to 
simulate climate change, predict climate, and evaluate model 
uncertainties due to changes in atmospheric concentrations of 
greenhouses gases on decade to century time scales. The Atmospheric 
Science program acquires data to understand the atmospheric processes 
that control the transport, transformation, and fate of energy-related 
chemicals and particulate matter. Emphasis is placed on processes 
relating to new air quality standards for tropospheric ozone and 
particulate matter and relationships between air quality and climate 
change. Funding is included in Environmental Processes for DOE's 
contribution to the US/GCRP that was codified by Congress in the Global 
Change Research Act of 1990.
    BER supports research, at several levels, to understand and 
identify the sources, destinations, and impacts of carbon dioxide in 
our global environment. The Carbon Cycle program is designed to study 
the natural carbon cycle, including quantifying the role of the 
terrestrial biosphere as a sink or source of carbon dioxide. The 
program on Ecosystem Research is designed to provide information on the 
effects of atmospheric and climate changes on terrestrial organisms and 
ecosystems, including the potential direct effects of increasing 
atmospheric carbon dioxide levels. CCTI research supports two focused 
efforts on the sequestration of carbon in terrestrial or ocean systems. 
Research includes the identification of biochemical or physical 
pathways or processes that could be modified to enhance the net flow of 
carbon out of the atmosphere and an assessment of the environmental 
implications of long-term carbon sequestration or storage options.
    Environmental Remediation.--Research is primarily focused on 
gaining a better understanding of the fundamental biological, chemical, 
geological, and physical processes that must be marshaled to develop 
and advance new, effective, and efficient processes for the remediation 
and restoration of the nation's nuclear weapons production sites. 
Bioremediation activities are centered in the Natural and Accelerated 
Bioremediation Research (NABIR) program, a basic research program 
focused on determining the conditions under which bioremediation will 
be a reliable, efficient, and cost-effective technique. A key goal is 
to define and develop an integrative model to aid collaboration and 
direction across research teams within the NABIR program.
    The ``Bioremediation and Its Societal Implications and Concerns'' 
(BASIC) component of NABIR will explore societal issues surrounding 
bioremediation research and promote open and two-way communication with 
affected stakeholders.
    A high priority for this program is the operation of the William R. 
Wiley Environmental Molecular Sciences Laboratory (EMSL), a national 
user facility for basic research that will underpin safe and cost-
effective environmental remediation methods and technologies and other 
environmental priorities. Research is also included in support of 
pollution prevention, sustainable technology development, and other 
fundamental research to address problems of environmental 
contamination.
    Medical Applications and Measurement Science.--The Medical 
Applications subprogram supports research to develop beneficial 
applications of nuclear and other energy-related technologies for 
medical diagnosis and treatment. The research is directed at 
discovering new applications of radiotracer agents for medical research 
as well as for clinical diagnosis and therapy. The program seeks 
breakthroughs in noninvasive imaging technologies such as positron 
emission tomography. A major emphasis is placed on cutting edge 
research to image gene expression and to develop new approaches to 
pharmaceutical design that will enable the development of technology to 
actually see genes in action in cells and organs. This new technology 
will strongly impact and have broad utility for scientists in 
developmental biology, genomics, and general medical scientists.
    Bioengineering is included in the medical applications program. As 
previously described, research is directed to fundamental studies in 
artificial organs, biological and chemical sensors, imaging, lasers, 
informatics, and other areas of technical expertise in the DOE 
laboratories.

                         FUSION ENERGY SCIENCES

Fiscal Year 2001 Request--$247.3 M
    The Fusion Energy Sciences program is the nation's primary sponsor 
of research in plasma physics and fusion science. The program is a 
multi-purpose, scientific research effort, producing valuable 
scientific knowledge and technological benefits in the near term and 
providing the science base for a fusion energy option in the long term. 
The mission of the Fusion Energy Sciences program is to advance plasma 
science, fusion science and fusion technology, and thereby establish 
the knowledge base for an economically and environmentally attractive 
fusion energy source. The program also trains future researchers not 
only for fusion research, but also for related areas such as plasma 
processing, space plasma physics, plasma electronics, and accelerator/
beam physics. In fiscal year 1999, the program supported 365 graduate 
students and post doctoral investigators; 49 of these graduate students 
and post doctoral investigators conducted research at the Fusion Energy 
Sciences' scientific user facilities.
    The Fusion Energy Sciences program is composed of three 
subprograms; Science, Facility Operations, and Enabling R&D. The 
Science subprogram includes research funds for: general plasma science; 
for experiments on the physics of high temperature plasmas in magnetic 
fields, in both tokamaks and other configurations; for the physics of 
heavy ion beam accelerators; and for theory and modeling of fusion 
plasmas. Funds for building, operating, upgrading and decommissioning 
of major facilities are in the Facility Operations subprogram. The 
Enabling R&D subprogram includes funds for key fusion technology 
research and innovations needed to advance fusion science and have thus 
enabled many of the advances in fusion science that have occurred 
during the past 30 years. All three subprograms contribute to the 
knowledge base for an attractive fusion energy source.
    Fusion research provides two major benefits--in the near term there 
are both advances in plasma science and technology spinoffs and in the 
long-term there is the basis for development of a new energy source. 
Advances in plasma science have contributed to numerous other areas of 
science. In astrophysics, it has allowed an understanding of the 
behavior of plasma and magnetic fields in the earth's magnetosphere, in 
the sun, other stars, and the galaxies. Plasma physics is integral to 
our understanding of magnetic storms, solar flares, shock waves in 
space, magnetic fields, black holes, and star formation. In the area of 
large-scale scientific computing, fusion research pioneered the use of 
supercomputers to solve complex problems. Novel optical and magnetic 
diagnostics have been created to provide access to the extreme 
temperature, density, and magnetic fields prevalent in fusion 
experiments. In addition, fusion and other plasma based research has 
provided a stimulus to the development of large superconducting 
magnets, development of advanced materials, advancement in pulsed-power 
technology, and plasma aided manufacturing processes such as those used 
in semiconductor device fabrication.
    This is a time of important progress and scientific discovery in 
fusion research. By virtue of previous investments in facilities, 
sophisticated diagnostics, critical technologies, and modeling 
capabilities, the Fusion Energy Sciences program is making great 
progress in understanding the fundamental processes involved in 
confining fusion fuels, such as the turbulence responsible for loss of 
particles and energy across magnetic field lines. In addition, the 
program is exploring innovative approaches to fusion energy, including 
supporting advances in state-of-the-art enabling technology, in search 
of an optimized confinement system that could result in an affordable 
development path.
    A major review of magnetic and inertial fusion energy options was 
carried out by a task force of the Secretary of Energy Advisory Board 
(SEAB) in response to Congressional requests. The task force report was 
issued in August 1999. The report's Executive Summary states that, ``In 
the light of the promise of fusion and the risks arising from 
increasing worldwide energy demand and from eventually declining fossil 
energy supply, it is our view that we should pursue fusion 
aggressively.'' The task force also endorsed the revised focus of the 
magnetic fusion program to understand the science and technology of 
fusion. It also concluded that the inertial fusion energy program 
warranted continued exploration and development. The National Academy 
of Sciences is reviewing the quality of science in the Fusion Energy 
Sciences Program. An interim report was issued in August 1999, 
highlighting the contributions of fusion science to other fields of 
research. The full study, including strategic recommendations, will be 
completed in fiscal year 2000.
    At a two-week long workshop in the summer of 1999, 350 fusion 
researchers from the United States and about 15 researchers from abroad 
discussed virtually all of the key technical issues associated with 
fusion science. This workshop provided a very effective forum for 
enhanced interaction between magnetic fusion and inertial fusion 
approaches, between science and technology issues, and between basic 
understanding and energy applications of fusion. The community 
reaffirmed that the next frontier in magnetic fusion is the science of 
burning plasmas, and that the tokamak is technically ready for a high-
gain burning plasma experiment. The Fusion Energy Sciences Advisory 
Committee (FESAC) led a community assessment of the restructured fusion 
program and provided a report, with specific recommendations on program 
priorities and balance, in September 1999.
    Preparation of a strategic plan for Fusion Energy Sciences was 
initiated in fiscal year 1999. It will be completed early in 2000 
incorporating the results of the SEAB and National Research Council 
reviews, the recommendations of the FESAC, and technical understandings 
that came from the 1999 Fusion Summer Study.
    In pursuit of the mission of the fusion energy sciences program, 
the program's objectives are to:
  --Understand the science of plasmas, the fourth state of matter.
  --Identify & explore innovative and cost-effective development paths 
        to fusion energy.
  --Explore the science and technology of energy producing plasmas, the 
        next frontier in fusion research, as a partner in an 
        international effort.
    Following restructuring, the Fusion Energy Sciences program is 
focused primarily on the first two objectives and the related enabling 
technology research. Only a small effort on burning plasma physics and 
related fusion technology, e.g. materials science and engineering 
research on energy conversion and tritium handling, continues. The 
fusion program is exploring a wide range of confinement concepts other 
than the tokamak. Three new experiments started operation in fiscal 
year 1999-the Sustained Spheromak Physics Experiment (SSPX) at the 
Lawrence Livermore National Laboratory, the flow stabilized pinch 
experiment (ZAP) at the University of Washington, and the Helically 
Symmetric Stellarator Experiment (HSX) at the University of Wisconsin. 
During fiscal year 2000, the Levitated Dipole Experiment at the 
Massachusetts Institute of Technology will begin operation. This will 
bring the total number of exploratory level alternate magnetic concept 
experiments in the United States to 13. This important new investment 
in the Fusion Energy Sciences program is expected to pay dividends in 
the form of enhanced understanding of the interaction of plasmas with 
electric and magnetic fields and lead to significantly better magnetic 
confinement concepts over the next decade. In addition, there was 
increased effort on exploring the physics of a heavy ion accelerator 
for inertial fusion energy.
    DOE and NSF issued a joint announcement for new opportunities for 
funding in fiscal year 2000 in September 1999 as part of the NSF/DOE 
Partnership in Basic Plasma Science and Engineering. In fiscal year 
1999, the general plasma science program was extended to include 
national laboratories with a solicitation for proposals on applications 
of plasma science. All proposals, many of which will have evolved from 
Laboratory Directed R&D programs, will be competitively peer reviewed.
    As a part of the ongoing restructuring of the program, the major 
U.S. experimental facilities--the DIII-D at General Atomics, the 
Alcator C-Mod at the Massachusetts Institute of Technology, and the new 
National Spherical Torus Experiment (NSTX) at the Princeton Plasma 
Physics Laboratory (PPPL)--have been operating as national facilities 
with research teams composed of participants from throughout the fusion 
science community. Program advisory committees assure scientific 
quality and program relevance of the research conducted at each 
facility. Also as part of the restructuring of the fusion program, a 
Virtual Laboratory for Technology has been established to improve the 
governance of the various, diverse enabling R&D elements through 
improved advocacy, coordination, and communication.
    The Tokamak Fusion Test Reactor (TFTR) located at PPPL was closed 
down in fiscal year 1997 after 13 years of pioneering experiments 
yielding significant scientific results from producing actual fusion 
power in a laboratory. Preparations for the decontamination and 
decommissioning (D&D) of TFTR were initiated at PPPL in fiscal year 
1999. During fiscal year 2000, PPPL will complete removal of all 
systems/components to be retained for future use in the program; and 
will prepare the remaining systems/components for dismantling, removal, 
and shipment offsite. When D&D is completed, the TFTR test cell will be 
available for reuse by the Fusion Energy Sciences program.
    At the direction of Congress, U.S. participation in ITER was 
successfully completed. The U.S. ITER work site in San Diego was closed 
and returned to the owner; U.S. secondees to the Joint Central Team 
returned; and the U.S. responsibilities in component R&D were 
discharged. Of particular note, the Central Solenoid Model Coil, the 
largest pulsed superconducting magnet ever built, was completed and 
shipped to Japan for testing. The European Union, Japan, and the 
Russian Federation are proceeding with a three-year extension of the 
ITER program to complete the design of a reduced cost and reduced 
objectives facility. They are now considering their preparation for 
decisions, within the next three years, whether and where to construct 
ITER. We will be involved only on the periphery of the project 
consistent with traditional exchange of scientific information. If the 
ITER parties decide to construct a burning plasma facility like ITER, 
the United States will then consider whether to propose to be involved.
    In conclusion, the U.S. Fusion Energy Sciences program has made 
excellent scientific progress and has been responsive to the 
congressional request to restructure the program. Fusion and plasma 
science make a unique contribution to the nation's scientific 
infrastructure in the near-term and provide a vital energy option for 
the future. Europe and Japan are making large investments in this area. 
The challenge to the United States is to continue a strong scientific 
base program, including making effective use of existing facilities, 
and to sustain meaningful participation in the world program.

                          HIGH ENERGY PHYSICS

Fiscal Year 2001 Request--$714.7 M
    High energy physics research seeks to understand the nature of 
matter and energy at the most fundamental level, as well as the basic 
forces which govern all processes in nature. DOE provides more than 90 
percent of the federal support for the nation's high energy physics 
(also called elementary particle physics) research program. The balance 
is provided by the National Science Foundation (NSF). Our knowledge of 
the universe, the fundamental constituents of matter, and the laws of 
nature that underlie all physical processes, continues to grow as a 
result of this research.
    High energy physics research not only helps us learn how the world 
works, it also contributes to the nation's economic competitiveness in 
the high-technology marketplace. High energy physics research requires 
accelerators and detectors utilizing state-of-the-art technologies in 
many areas, including fast electronics, particle detectors, high-speed 
computing, superconducting magnets, and high power radiofrequency 
devices. In these areas, high energy physics research frequently drives 
the technology, which not only contributes to other scientific 
disciplines, but also has led to many practical applications having 
major economic and social impacts. Who could have predicted that 
research that went into the building of accelerators and particle 
detectors and the subsequent technology would contribute so much to 
today's medical imaging capabilities?
    The High Energy Physics program also has a history of attracting 
and training some of the best and brightest young minds. The training 
they receive prepares them for careers not just in high energy physics, 
but also in other disciplines as well, including computer sciences, 
teaching, and industrial research. It is the unique problem solving 
ability, learned from this scientific discipline, that makes them 
attractive. More than half of the Ph.D.'s trained for high energy 
physics find permanent employment outside the field.
    Carrying out high energy physics research effectively depends on 
many elements including the availability of forefront experimental 
capabilities, effective use of specialized facilities, and the 
availability of new and upgraded facilities to take advantage of new 
technologies and research opportunities. The Department supports two 
major high energy physics accelerator centers--the Fermi National 
Accelerator Laboratory (Fermilab) and the Stanford Linear Accelerator 
Center (SLAC). Each of these laboratories provides unique capabilities 
and is operated as a national facility available to qualified 
experimenters around the nation and abroad on the basis of the 
scientific merit of their research proposals. Approximately 2,000 U.S. 
scientists and about 500 foreign scientists work at these facilities at 
any given time.
    Experimental and theoretical researchers from more than 100 
universities conduct about 75 percent of HEP research, with the 
remainder being done by national laboratory staff. In general, the 
laboratories and universities perform different, but complementary, 
activities. University scientists provide the primary intellectual base 
for the program, performing experimental research at accelerators and 
non-accelerator facilities, technology R&D, and theoretical research. 
University grantees are selected and retained based on the quality, 
appropriateness, and performance of their research activities. All 
research proposals received are subjected to a rigorous multi-stage 
review.
    National laboratories primarily house the major accelerator 
facilities at which university scientists perform their research. In 
addition, the laboratories provide the related technical and scientific 
expertise, as well as day-to-day liaison between university 
researchers, laboratory experts, and management. Research requiring the 
use of a facility at one of the laboratories is reviewed extensively by 
the laboratory and its Program Advisory Committee (PAC), another form 
of peer review. The Department carries out its oversight 
responsibilities by conducting annual reviews of the laboratories' 
scientific programs. In addition, the Department tracks project 
progress against budget and schedule milestones using semiannual 
project reviews.
    Fermilab is home to the world's highest energy superconducting 
accelerator, the Tevatron, which provides both fixed target and 
colliding beam research programs. The colliding beam research program 
has two major detector facilities, the Collider Detector at Fermilab 
(CDF) and the D-Zero Detector, which complement each other in their 
different technical capabilities. These two collaborations continue to 
produce new scientific knowledge. For example, the CDF collaboration at 
Fermilab observed the existence and properties of the B meson 
containing a charmed quark--completing the theoretically predicted 
family of B mesons; and another team observed direct violation of 
Charge-Parity (CP) symmetry in the decays of K mesons. Measurements 
such as these will improve even more with data from the upcoming run of 
the Tevatron with the newly upgraded Main Injector.
    Construction of the Fermilab Main Injector project was completed in 
fiscal year 1999 on schedule and within budget. The final data 
collection with the Fermilab 800 GeV fixed-target program is being 
completed in fiscal year 2000. In fiscal year 2001, the prime focus of 
the Fermilab program will turn to research using the Tevatron Collider 
with the higher luminosity of the new Main Injector. Also at Fermilab, 
design of the NuMI (Neutrinos at the Main Injector) project got 
underway in fiscal year 1998 and is proceeding. The project will 
provide a new neutrino beamline aimed at the Soudan Underground 
Laboratory in Soudan, Minnesota where the large MINOS detector will be 
installed to search for and study neutrino oscillations.
    In addition, Fermilab continues to play an active role in the Large 
Hadron Collider (LHC). Fermilab is the host and center of the 
U.S.Compact Muon Solenoid (CMS) detector effort of university and 
laboratory scientists, and host and center of the U.S. LHC accelerator 
collaboration, with specialized expertise in the design and fabrication 
of superconducting magnets.
    At the SLAC, the Stanford Linear Collider (SLC), the world's only 
high energy linear collider, continued to achieve record high 
luminosities in positron-electron collisions. The B-factory at SLAC was 
completed on schedule and within budget in fiscal year 1999. In fiscal 
year 2000 the B-factory was brought into full operation. Some 27 DOE-
funded universities participate in large international collaborations 
doing experiments at SLAC. The experiments involve the BaBar detector 
and other smaller detectors for fixed target experiments. These 
experiments are investigating fundamental constituents of matter such 
as the b quark. In particular, the BaBar detector is being used to 
study the nature of Charge-Parity (CP) Violation in the B meson system. 
Researchers from universities and laboratories conducting research at 
SLAC are in the process of analyzing the large amounts of data 
collected. In fiscal year 2000, work will continue on R&D in support of 
a future linear collider. Participation with NASA and university 
scientists to fabricate a non-accelerator-based experiment, the Gamma-
ray Large Area Space Telescope (GLAST), is also planned.
    The Alternating Gradient Synchrotron (AGS) at Brookhaven National 
Laboratory (BNL) was transferred in fiscal year 1999 to the Nuclear 
Physics program to be operated as the injector for RHIC. Operation of 
the AGS for the high energy physics program in fiscal year 2001 will be 
on an incremental cost basis. Brookhaven is also a key participant in 
the LHC project as host and center of the U.S. ATLAS detector 
collaboration of university and laboratory scientists, as well as a 
participant in the U.S. accelerator collaboration. BNL's Accelerator 
Test Facility (ATF), a small, low energy electron linac, has achieved 
one of the brightest electron beams in the world. It is used by 
universities, national laboratory groups, and industry for testing new 
advanced accelerator concepts.
    During the past year, progress continued to be made on the 
technical components for the LHC and many management details were 
refined. Fabrication of LHC subsystems and components by U.S. 
participants began in fiscal year 1998. Funding was provided in fiscal 
year 1996 ($6,000,000) and fiscal year 1997 ($15 million) for 
preliminary R&D, design and engineering work on the subsystems and 
components being proposed for inclusion in the agreement with CERN. 
This funding was essential in order to provide the cost and technical 
bases for the proposed U.S. responsibilities in LHC, and to be ready 
for rapid start to satisfy the anticipated timetable for the project. 
$70 million was provided in fiscal year 2000, and $70 million will be 
provided in fiscal year 2001 to support continuation of these R&D and 
design efforts, and the continuation of fabrication of those subsystems 
and components specified in the agreements with CERN.

                            NUCLEAR PHYSICS

Fiscal Year 2001 Request--$369.9 M
    The primary goal of nuclear physics research is to understand the 
structure and properties of atomic nuclei and the fundamental forces 
between the constituents that form the nucleus. Nuclear processes 
determine essential physical characteristics of our universe and the 
composition of its matter.
    The Nuclear Physics program continues to be a vital source of 
trained people for fundamental research and for applied technology 
areas. The program supports the graduate training of approximately 450 
students per year, and typically 100 doctorates in nuclear physics are 
awarded each year in DOE-supported nuclear physics programs. A majority 
of these highly trained researchers will take positions in high-
technology private industry. In fiscal year 2000, the Nuclear Physics 
Program initiated an Outstanding Junior Investigator (OJI) program to 
recognize and support young promising scientists pursuing nuclear 
physics research.
    Many future nuclear physics investigations will study questions 
related to the quark presence in composite nuclei. Until recently, the 
fundamental understanding of nuclear properties has been based on the 
concept of a nucleus composed of protons and neutrons that interact 
through weak, strong, and electromagnetic forces. It became clear that 
achieving a real knowledge of many nuclear properties depends on 
understanding nuclear structure based on quarks, and particles called 
gluons that bind the quarks together. Quarks and gluons are the 
building blocks of protons and neutrons (nucleons). The Nuclear Physics 
program works in close coordination with the Nuclear Physics program at 
the NSF and, jointly with NSF, charters the Nuclear Science Advisory 
Committee (NSAC) to provide advice on scientific opportunities and 
priorities.
    Studies of nuclear structure require ultra-high resolution 
``microscopes,'' accelerators that produce particle beams of various 
energies, depending on the problems to be studied. The cost and 
complexity of these machines requires the creation of national 
Scientific User Facilities such as the Department has established at 
its laboratories.
    Research programs at the Thomas Jefferson National Accelerator 
Facility (TJNAF), formerly the Continuous Electron Beam Accelerator 
Facility (CEBAF), are studying effects due to the presence of quarks in 
nucleons in the nucleus. Two principal focuses of these studies are to 
continue to develop an understanding of how the ``spin'' of a nucleus 
originates in the quarks, and how the size of a quark cluster in a 
nucleus affects the strength of the interaction of that cluster with 
other nucleons in the nucleus. TJNAF has consistently delivered highly 
polarized electron beams for experiments. Precision measurements 
performed in fiscal year 1999 with TJNAF's world-class polarized 
electron beams provide important new insight into the role of the 
strange quark in determining the fundamental properties of the nucleon. 
As of fiscal year 2000, twelve experiments will have been completed in 
Hall C and ten experiments will have been completed in Hall A at TJNAF. 
The complex large-acceptance spectrometer in Hall B is complete and the 
research program is well underway. By the end of fiscal year 2001, 
three major experiments will have been completed, and partial data will 
have been accumulated on many more. TJNAF scientists are also 
participating in the assembly of a new detector for the ``GO'' 
experiment, in cooperation with the National Science Foundation. TJNAF 
involves a users group of 1,460 scientists from 80 institutions, in the 
U.S. and 36 foreign countries.
    In fiscal year 1999, the Relativistic Heavy Ion Collider (RHIC) 
construction project at Brookhaven National Laboratory (BNL) was 
completed on schedule and within budget. RHIC is a unique facility 
whose colliding relativistic heavy ion beams will permit exploration of 
hot, dense nuclear matter and recreate the transition from quarks to 
nucleons, the quark-gluon plasma, that characterized the early 
evolution of the universe. Ever since quarks and gluons were 
discovered, theorists have looked to the discovery of the quark-gluon 
plasma as the crowning triumph of Quantum Chromo-Dynamics. Studies with 
colliding heavy ion beams at RHIC will provide researchers with their 
first laboratory opportunity to directly explore this new regime of 
nuclear matter and nuclear interactions that up to now has only been 
studied theoretically. On February 10, 2000, scientists at CERN 
announced the accumulation of significant pieces of evidence, though 
indirect, for the existence of the quark-gluon plasma. This is very 
encouraging news for the research program at RHIC.
    Fiscal year 2001 will be a critical year, as all four RHIC 
detectors reach their full potential for studies of the expected new 
forms of nuclear matter that will be created in the heavy ion 
collisions. Detector fabrication, including the additional experimental 
equipment recommended by NSAC for purposes of particle detection and 
data analysis, will be largely completed by fiscal year 2001, as 
scheduled. Four experiments (STAR, PHENIX, BRAHMS and PHOBOS) involving 
over 950 researchers and students from 90 institutions and 19 countries 
will pursue a vigorous research program at RHIC.
    Another new generation facility, the Holifield Radioactive Ion Beam 
Facility (HRIBF) at Oak Ridge National Laboratory, is now producing 
previously unavailable, highly radioactive, short-lived, nuclear beams 
to study important stellar processes and nuclear structure at limits of 
stability. In fiscal year 1999, HRIBF completed a series of experiments 
that provide input to refined astrophysical calculations for the 
breakout from the Carbon-Nitrogen-Oxygen (CNO) cycle responsible for 
element production beyond oxygen. An expanded series of measurements 
will be carried out in fiscal year 2000-2001 as new beam species are 
developed and beam intensities increase. Radioactive ion beams, in 
addition to the stable beams normally provided, are also being produced 
at the ATLAS accelerator at Argonne National Laboratory and the 88-inch 
Cyclotron at Lawrence Berkeley National Laboratory. These laboratories 
are pursuing research as well as developing new techniques for the 
generation of radioactive beams. The experience gained and ideas 
generated at all three laboratories will provide important input to the 
design of a proposed new rare isotope facility presently being studied 
by the Nuclear Physics program.
    In fiscal year 1999, the NSAC Isotope Separation On-Line (ISOL) 
Task Force, identified an optimal configuration for a next generation 
Rare Isotope Accelerator (RIA). RIA will produce short-lived nuclei 
(with lifetimes of greater than a thousandth of a second) in nuclear 
reactions using intense beams of stable nuclei; these nuclei will then 
be extracted and accelerated in a post-accelerator to be used in 
experiments. RIA would provide unique, world-class capabilities for the 
low energy, nuclear astrophysics, and nuclear structure communities for 
several decades. R&D and preconceptual design activities will continue 
in fiscal year 2000 and fiscal year 2001.
    In fiscal year 2001, the BLAST detector at the MIT/Bates Linear 
Accelerator Center facility will be completed and will initiate 
commissioning for a research program in fiscal year 2002-2004 studying 
the structure of the nucleon and few-body nuclei. Upon completion of 
the BLAST research program in fiscal year 2004, MIT and DOE have agreed 
that the Bates facility will begin a two-year phaseout.
    The solar neutrino problem remains one of the great challenges in 
astrophysics. The predicted rate of neutrino production by the sun is 
significantly higher than the observed rate. There are two possible 
explanations for the discrepancy. Either our understanding of solar 
burning is very wrong, or the neutrino has a small mass, contradicting 
the long-held belief that it is massless. The Sudbury Neutrino 
Observatory (SNO) was created to study this problem and the processes 
that control our sun. This observatory consists of a 40 foot diameter 
plastic (acrylic) vessel holding 1,000 tons of heavy water that is the 
solar neutrino detector. SNO is located 6,800 feet underground. The 
detector water-fill was completed in fiscal year 1999 and data taking 
is underway. The SNO detector's first results are expected in fiscal 
year 2001.

          MULTIPROGRAM ENERGY LABORATORIES-FACILITIES SUPPORT

Fiscal Year 2001 Request--$33.9 M
    Fulfillment of the DOE's science and technology goals depends 
heavily on the existence and operating efficiency of the five 
multiprogram SC laboratories. The five multiprogram energy laboratories 
are: Argonne National Laboratory-East, Brookhaven National Laboratory, 
Lawrence Berkeley National Laboratory, Oak Ridge National Laboratory, 
and Pacific Northwest National Laboratory. These laboratories are 
government-owned, contractor-operated (GOCO) and have over 1,100 
buildings with 14.3 million gross square feet of space with an average 
age of 35 years and an estimated replacement value of over $9,000 
million. Total operating funding for these laboratories is over $3,000 
million a year. The Office of Science manages this program to provide a 
comprehensive, prioritized and equitable approach to its stewardship 
responsibility for the general purpose support infrastructure of these 
laboratories.
    Portions of the infrastructure of these laboratories are old, 
deteriorating, and, in some cases, obsolete. Improvements are needed to 
comply fully with the environment, safety and health requirements in 
effect today as well as to meet everyday operational needs.
    SC established the Multiprogram Energy Laboratories-Facilities 
Support (MEL-FS) program in 1981 to provide a systematic approach to 
its stewardship responsibility for the general purpose infrastructure 
of these laboratories. The MEL-FS program helps to preserve the 
government's investment in infrastructure and to maintain 
infrastructure integrity in a reasonable and economic manner at these 
laboratories. Beginning in fiscal year 2000, this program includes 
funding of Oak Ridge Operations Office Site Landlord activities.
    The MEL-FS program supports line item construction projects to 
refurbish and replace inadequate general purpose facilities and 
infrastructure. Capital investment requirements are identified in 
laboratory Institutional Plans that address needs through the year 2004 
based on expected programmatic support. The projected needs through the 
period total over $450 million. Of this amount, 65 percent is to 
rehabilitate or replace buildings; 21 percent is for utility projects; 
and 11 percent for ES&H projects. All projects are first ranked using a 
prioritization model that takes into account risk, impacts, and mission 
need. The projects that have ES&H as the principal driver are further 
prioritized using the Risk Prioritization Model from the DOE ES&H and 
Infrastructure Management Plan process.
    The fiscal year 2001 MEL-FS budget request provides for the 
continuation of three on-going projects and five new projects. The 
three projects that are ongoing in fiscal year 2001 are: the Fire 
Safety Improvements, Phase IV (TEC $8.4 million) at Argonne which will 
bring 30 major facilities into compliance with the Life Safety Code and 
the National Fire Alarm Code; the Sanitary System Modifications, Phase 
III (TEC $6.5 million) at Brookhaven which will replace or rehabilitate 
approximately 9,900 feet of existing deteriorated sewer piping, replace 
the sewage digester, connect five facilities to the sanitary system, 
and make other modifications to reduce discharges to the environment; 
and the Electrical Systems Upgrade (TEC $5.9 million) at Oak Ridge 
which will include: replacing overhead feeders; installing advanced 
protective relaying capabilities at major substations; and replacing 
major switchgear and transformers.
    Two new starts for fiscal year 2001 are proposed at Brookhaven. The 
Groundwater and Surface Water Protection project (TEC $6 million) will 
begin to reduce a backlog of ground and surface water protection 
projects per commitments to regulators. These include: proper closure 
of inactive supply and injection wells; runoff control for the surplus 
material storage yard; containment and runoff control for the 
radioactive material storage yard; replacement of 12 hydraulic elevator 
cylinders; removal of 22 underground fuel oil tanks; replacement of 
radioactive waste tanks with secondarily contained tanks. The 
Electrical Systems Modifications, II project (TEC $6.7 million) will be 
the second phase of the modernization and refurbishment of the 
laboratory's deteriorating 50 year-old electrical infrastructure.
    Two new starts for fiscal year 2001 are proposed at Oak Ridge. The 
Fire Protection System Upgrade project (TEC $5.9 million) will: replace 
deteriorated, obsolete systems with more reliable fire alarm and 
suppression capabilities; replace the single 16-inch water main in the 
east central section of ORNL with a looped system; and extend coverage 
of automatic alarm systems and sprinkler systems to areas not 
previously served. The Facilities HVAC Upgrade project (TEC $7.1 
million) will provide improvements to aging HVAC systems (average age 
38 years) located in the thirteen buildings which comprise ORNL's 
central research complex and additions and improvements to the chilled 
water distribution system.
    The Site-wide Water Distribution System Upgrade project (TEC $8.3 
million) is a proposed new start for fiscal year 2001 at Lawrence 
Berkeley National Laboratory that will rehabilitate the Lab's High 
Pressure Water (HPW) System. This activity will: replace all 1.4 km of 
cast iron pipe with ductile iron pipe; install cathodic protection; 
replace and enhance pressure reducing stations; add an emergency fire 
water tank to serve the East Canyon; and provide new liners and seismic 
upgrades for two existing emergency fire water tanks.
    Four projects are scheduled for construction completion in fiscal 
year 2001: the Central Supply Facility and the Electrical Systems 
Upgrade, Phase III at Argonne; the Electrical Systems Modifications--
Phase I at Brookhaven; and the Building 77 Rehabilitation at Berkeley.
    The direct funding for the American Museum for Science and Energy 
(AMSE) under the Oak Ridge Landlord activities will end in fiscal year 
2000. Museum operation is transferred to Oak Ridge National Laboratory 
where alternative funding mechanisms are being developed, including 
support by private or industrial partners, and possibly, an admission 
fee for adults.

                        ENERGY RESEARCH ANALYSES

Fiscal Year 2001 Request--$1.0 M
    The mission of the Energy Research Analyses (ERA) program is to 
conduct technical assessments of the Department's civilian research and 
development programs and to provide direction to future research and 
development activities. ERA also conducts science policy analyses, and 
coordinates the development of the Office of Science Strategic Plan and 
the DOE Science Portfolio.
    The fiscal year 2001 budget request will provide funding for peer 
reviews of projects in the Office of Science, Environmental Management, 
and Energy Efficiency to continue to improve the quality and relevance 
of DOE research and development. Other activities will include 
evaluation of critical planning and policy issues of DOE science and 
technology using expert groups at the National Academy of Sciences, the 
JASON group, etc., as deemed appropriate.

                       SCIENCE PROGRAM DIRECTION

Fiscal Year 2001 Request--$141.2 M
    This program provides the federal staffing and associated funding 
required to provide overall direction of activities carried out under 
the SC programs cited in this testimony. This funding also provides the 
necessary support to the Director of SC to carry out SC's 
responsibilities under the Department of Energy Organization Act 
(Public Law 95-91) and as mandated by the Secretary. These 
responsibilities include: providing advice on the status and priorities 
of the Department's overall research and development programs and on 
the management of the Department's multipurpose laboratories; 
developing research and development plans and strategies; supporting 
university and science education; and ensuring the institutional health 
and overall site integration at three multi-program field offices. This 
program also provides program-specific staffing resources at the 
Chicago, Oakland, and Oak Ridge Operations Offices directly involved in 
executing SC programs within the field complex. In fiscal year 2001, 
there will be continued emphasis on integrated business management 
technology initiatives and supporting the ongoing efforts begun in 
fiscal year 2000 related to succession planning and increasing 
diversity of the workforce. In addition, resources will be devoted to 
enhance the Spallation Neutron Source Project Office management 
structure; fulfill waste management responsibilities; and build and 
sustain a talented technical workforce through the Department's 
Scientific and Technical Workforce Retention and Recruitment effort.
    The Program Direction subprogram has been divided into four 
categories: Salaries and Benefits, Travel, Support Services, and Other 
Related Expenses, the latter including the Working Capital Fund. 
Support Services refers to support services contracts that provide 
necessary support functions to the federal staff, such as technical 
support, computer systems development, travel processing, and mailroom 
activities. Other Related Expenses refers to other administrative costs 
of maintaining federal staff, such as building and facility costs and 
utilities in the field, information technology expenses, and training. 
The Working Capital Fund includes centrally provided goods and services 
at headquarters, such as supplies, rent and utilities.
    The Field Operations subprogram funds the core management and 
administrative federal staff and is the central funding source for the 
infrastructure requirements at three of the Department's multiprogram 
operations offices: Chicago, Oakland and Oak Ridge. The staff is 
responsible for the full range of administrative functions critical to 
the success of all programs executed through these offices, including 
fundamental science, energy research, national security, and 
environmental management. By fiscal year 2001, the federal workforce 
sponsored by this subprogram will be 5.2 percent less than mid fiscal 
year 1999; therefore, SC plans to support technology investments and 
integrate business management systems aimed at providing coordinated, 
efficient and effective services and process improvements.
    The Science Education subprogram focuses primarily on undergraduate 
research experiences at the national laboratories. Science Education 
also supports the Albert Einstein Distinguished Educator Fellowships, 
the National Science Bowl, and the DOE Institute of Biotechnology, 
Environmental Science, and Computing for Community Colleges. The Energy 
Research Undergraduate Laboratory Fellowships, formerly known as the 
Laboratory Cooperative Program, are designed to provide educational 
training and research experiences at DOE laboratories for highly 
motivated undergraduate students. These opportunities complement 
academic programs and introduce students to the unique intellectual and 
physical resources present at the DOE laboratories. Appointments are 
available during the spring, summer, and fall terms.
    In 1991, as a national initiative, the National Science Bowl was 
developed to encourage high school students from across the nation to 
excel in math and science and to pursue careers in those fields. It 
provides students and their teachers a forum to receive national 
recognition for their talent and hard work. DOE is committed to math 
and science education to help provide a technically trained and diverse 
workforce for the nation. The National Science Bowl is a highly 
publicized academic competition among teams of high school students who 
answer questions on scientific topics in astronomy, biology, chemistry, 
mathematics, physics, earth, computer and general science. Since its 
inception, more than 60,000 high school students have participated in 
regional tournaments leading up to the national finals.
    The Albert Einstein Distinguished Educator Fellowship Act of 1994 
was signed into law in November 1994. The law gives DOE responsibility 
for administering the program of distinguished educator fellowships for 
elementary and secondary school mathematics and science teachers. This 
program supports outstanding teachers of science and mathematics, who 
provide insights, extensive knowledge and practical experience to the 
Legislative and Executive branches.
    The DOE Institute of Biotechnology, Environmental Science, and 
Computing for Community Colleges is a collaboration between DOE (and 
five of its multiprogram laboratories) and the American Association of 
Community Colleges. It is designed to provide educational training and 
research experiences at five DOE national laboratories for highly 
motivated community college students. Each laboratory will offer a ten-
week summer experience for selected students from a regional consortium 
of community colleges partnering with DOE and that laboratory.
    There is a national need to maintain worldwide leadership in 
science and technology and to stay competitive in critical research 
areas such as high energy and nuclear physics, computational science, 
and renewable energy technologies. Our outstanding national 
laboratories help to drive the progress of science and technology 
development in the United States. To replenish our stocks of scientists 
and engineers for the next century, we must invest in our nation's 
youth to encourage interest in science and scientific careers. A proven 
method to achieve this is by introducing students to the excitement of 
scientific research through exposure to the national laboratories. 
Historically, over two-thirds of undergraduates who have participated 
in DOE programs have gone on to graduate school in disciplines directly 
related to DOE missions.
    The SC staff includes scientific and technical personnel as well as 
program support personnel in the areas of budget and finance; general 
administration; grants and contracts; information resource management; 
infrastructure management; construction management; safeguards and 
security; and environment, safety and health.
    Through Program Direction, SC Headquarters continues to achieve 
technical excellence in its programs despite managing one of the 
largest, most diversified and most complex basic research portfolios in 
the Federal Government with a relatively small Federal and contractor 
support staff.

            ENERGY SUPPLY--TECHNICAL INFORMATION MANAGEMENT

Fiscal Year 2001--$9.3 million
    The Technical Information Management (TIM) program provides timely, 
accurate technical information to DOE's researchers and the public by 
collecting, preserving, and disseminating scientific and technical 
information, the principal product resulting from DOE's multi-billion 
dollar research and development programs. The TIM program maximizes the 
return on DOE's $7 billion annual R&D investment by collecting, 
preserving, and disseminating information resulting from these research 
programs. This information is recorded in three forms: journals, 
technical reports, and pre-prints. The TIM program has produced world-
class web-based systems to provide full-text, electronic access to all 
three sources of information. The DOE Information Bridge (www.doe.gov/
bridge) provides access to 70,000 technical reports. The newly launched 
PubScience (www.doe.gov/pubsci) provides electronic access to over 
1,000 physical science journals--analogous to the capability PubMed 
provides in the life sciences. Fiscal year 2001 activities will include 
expanded coverage of science journals and a fully operational, 
searchable pre-print network. Also, the TIM program will continue its 
important role in obtaining foreign research information through two 
international information exchanges and, for the first time, will 
provide access to this information in electronic full-text. Finally, 
the TIM program will continue reengineering systems to provide enhanced 
protection and secure electronic access to a 50-year old repository of 
classified and sensitive R&D information.

                                CLOSING

    The significant increase in the fiscal year 2001 budget request for 
the Office of Science recognizes the critical role that fundamental 
knowledge plays in achieving the DOE missions and for the general 
advance of the nation's economy and the welfare of its citizens. The SC 
request supports thousands of individual research projects at hundreds 
of research facilities across the U.S., primarily at our national 
laboratories and research universities. In addition, the fiscal year 
2001 request will support continuing construction of the Spallation 
Neutron Source; increasing investments in nano-scale science to make 
significant contributions to the interagency initiative in nano-
technology; implementing advanced computational modeling and simulation 
for DOE's broad scientific challenges; investigating the workings of 
the microbial cell for DOE applications; improving the utilization of 
our major scientific user facilities; and updating the skills of our 
technical workforce.
    However, it must be noted that the reduction of fiscal year 2000 
funds for contractor travel is having a significant impact on our 
ability to conduct forefront research in the fundamental sciences. 
Travel to meetings is a traditional mechanism by which the results of 
research are delivered to, and actively discussed by, the scientific 
community. Failure to participate lessens the impact of the basic 
research investment in the federal laboratory system. Reductions in 
contractor travel have hampered these exchanges and have impacted SC's 
ability to recruit young scientists to the national laboratories. In 
addition, DOE has been pursuing the construction of major new 
scientific user facilities, such as the SNS, as collaborations between 
several laboratories. Successful completion of these projects require 
large amounts of contractor and DOE travel. Proper oversight of these 
activities through major project reviews also requires use of 
contractor travel funds, and is negatively impacted by restrictions on 
such funds. Finally, our partnership with CERN in construction of the 
Large Hadron Collider, combined with the need to send researchers 
abroad to participate in experiments at forefront research facilities 
in other nations, required a significant level of foreign travel. I 
look forward to working with the Congress to address the unique 
situation for SC laboratory researchers with regard to travel.
    On behalf of the Administration and the Department, I am pleased to 
present this budget for the Office of Science and welcome the challenge 
to deliver results.
    This concludes my statement. I would be happy to answer your 
questions.

    U.S. DEPARTMENT OF ENERGY, FISCAL YEAR 2001 CONGRESSIONAL BUDGET
                       REQUEST, OFFICE OF SCIENCE
                          [Dollars in Millions]
------------------------------------------------------------------------
                                               Fiscal year
                               -----------------------------------------
            Program                  1999           2000
                                  Comparable     Comparable      2001
                                appropriation  appropriation    Request
------------------------------------------------------------------------
Science.......................       $791.7          $779.4     $1,015.8
    Basic Energy Sciences.....        425.9           434.1        445.3
    Biological and                    220.6           247.8        247.3
     Environmental Research...
    Fusion Energy Sciences....        153.5           127.9        182.0
    Advanced Scientific               682.7           703.8        714.7
     Computing Research.......
    High Energy Physics.......        338.5           355.8        369.9
    Nuclear Physics...........         32.2            33.1         33.9
    Multiprogram Energy Labs-           1.0             1.0          1.0
     Facilities Support.......
    Energy Research Analyses..        135.0           131.7        141.2
    Science Program Direction.         81.5    .............  ..........
                               -----------------------------------------
SBIR/STTR.....................      2,862.6         2,814.6      3,151.1
      Subtotal................        (13.8)   .............  ..........
General Reduction for Use of           (7.6)   .............  ..........
 Prior Year Balances..........
                               -----------------------------------------
      Superconducting Super         2,841.2         2,814.6      3,151.1
       Collider...............
                               =========================================
Energy Supply:
    Technical Information               8.8             8.6          9.3
     Management...............
    SBIR/STTR.................          4.9    .............  ..........
    General Reduction for Use          (0.3)   .............  ..........
     of Prior Year Balances...
                               -----------------------------------------
      Total...................         13.4             8.6          9.3
------------------------------------------------------------------------

                      STATEMENT OF DAN W. REICHER

    Senator Domenici. Thank you very much. We are going to 
proceed with each panel and then ask questions.
    Mr. Reicher?
    Mr. Reicher. Thank you, Mr. Chairman. Rather than read an 
oral statement, if you have this in front of you, I would like 
to go through these quickly. I would like to first briefly 
address an issue that I think is on everyone's mind today, and 
that is the growing gap between oil production and oil 
consumption in the United States. And I will just quickly make 
the point that programs in our Office of Energy Efficiency and 
Renewable Energy can help in addressing that gap.

                   ALTERNATIVE ENERGY SOURCE FROM OIL

    If you would turn to page two. Whether it is replaced oil 
from transportation and industry with biofuels and 
biochemicals, whether it is replacing oil with natural gas for 
both heating and electricity, whether over the long haul 
looking to hydrogen as an ultimate energy source, or most 
importantly, perhaps, what we are doing in improving the 
efficiency of cars and trucks, radically increasing the fuel 
efficiency, through the partnership for a new generation of 
vehicles, our programs can help.
    So I think it is important that we can contribute a lot to 
that vexing national problem that Mr. Dorgan referred to in his 
opening statement.

                      PROGRESS IN RENEWABLE ENERGY

    Now I would like to review the progress we have made and 
the challenging work that remains to be done in some of our 
programs. If you turn to page two, some exciting progress has 
been made. Wind energy cost 40 cents a kilowatt hour, Mr. 
Chairman, in 1979. It is down to 4 to 6 cents a kilowatt hour 
in the year 2000. And with continued R&D support, we think we 
can get it down by 2003 in the 2\1/2\ to 4\1/2\ cent per 
kilowatt hour range.

                                  WIND

    From coast to coast and border to border, the United States 
is blessed with a phenomenal wind resource. If you turn to page 
three, you will see what I mean. This is a ranking of the 
States with the best wind resources in the United States.
    Interestingly, Mr. Chairman, California, typically thought 
of as the wind State, does not even get into the top 15. It is 
number 17 on the list. States like North Dakota, Montana, New 
Mexico, Idaho, even New York, has a better resource. And North 
Dakota alone has 2\1/2\ times the wind resource of Germany, 
which now leads the world in wind investment. And wind has 
literally become a new cash crop for farmers.
    If you turn to the next page, this is a major wind 
development in Iowa, over 100 megawatts recently installed. And 
on this farm alone that is pictured, the farmers are being paid 
between $2,000 and $3,000 per turbine per year for the use of 
their land. So that $8,000 to $12,000 payment for just these 
four turbines can literally mean the difference between 
profitability and losing the family farm for farmers in many 
parts of the country.
    Secretary Richardson on Friday is going to break ground on 
a major new wind development in Upstate New York in dairy 
country. We expect to see--we are going to see many, many more 
across the Northeast, the Midwest, the Dakotas and west from 
there, very interesting opportunities all across the United 
States.
    And the sale of wind turbines has grown phenomenally 
internationally. If you turn to page five, Mr. Chairman, this 
is a very interesting comparison. And it tells the following 
story: That in 1999, more new megawatts of wind were installed 
in the world than new megawatts of nuclear.
    Both technologies are critical to our energy mix. The point 
is that wind technology now has gotten to a point where we are 
installing it in the thousands and thousands of megawatts 
worldwide. And we had the best year on record in the United 
States last year with about 1,000 megawatts installed.

                               GEOTHERMAL

    Turning to another great power source on page six, 
geothermal energy has dropped from 15 to 16 cents per kilowatt 
hour in 1985 to 5 to 8 cents today. And with continued R&D 
support, we see it going to 4 to 6 cents in 2003. And like 
wind, we have a very rich resource in the United States, 
particularly in the West. If you would turn to page seven, 
please, you will see the top three States, Nevada, California 
and Utah. But you will see a variety of other States with major 
resources, Idaho, Hawaii, New Mexico, Oregon, South Dakota, 
Texas and Wyoming. And we think that we can dramatically 
increase the use of this excellent energy source, both for 
electricity and for heat across the western United States.

                                 SOLAR

    We have also seen stunning progress with solar, if you 
would turn to page eight. Solar electric costs $1 per kilowatt 
hour in 1980, $1 per kilowatt hour. It is down to around 20 
cents per kilowatt hour today. And with continued R&D support, 
we see it going to around 10 cents in 2005. This is a result in 
part of the great work done by the national labs, the National 
Renewable Energy Laboratory, Sandia, in particular.
    And solar is now in use in all kinds of settings all over 
the United States and not just in the sunny parts of the 
country. If you turn to page nine, Mr. Chairman, Times Square 
in New York, a 50-story office building has recently been 
completed. The upper 20 floors of that building are wrapped in 
solar panels, replacing the skin of the building. So it is a 
partially self-powered building. It is also powered with fuel 
cells on the second floor.
    To the left of that is my home at 8 Heskus Street, where I 
have put solar panels on my roof a year ago. I can proudly 
report today, after 1 year of use, that my average electricity 
bill is $1 per day for the year, including air conditioning in 
my home in the Washington, DC, area.

                      INTERNATIONAL SOLAR INDUSTRY

    Unfortunately, Mr. Chairman, the United States is losing 
our lead in the multi-billion dollar solar industry to the 
Japanese, if you turn to the next page. Between 1998 and 1999, 
the Japanese surpassed us in terms of world market share in 
this multi-billion dollar market. Government support there is 
about three times what it is in the United States.

                                BIOMASS

    Another renewable with huge opportunities and great 
adaptability is, of course, biomass. If you would turn to page 
11. Mr. Chairman, we know how to make all sorts of things, and 
starting with trees, grasses, crops, residues, animal waste and 
municipal solid waste. We have developed through support from 
this subcommittee, a number of technological conversion 
processes. And as you see on the right, we can make fuels, 
electricity, heat and a huge array of chemicals.
    Biomass now represents three percent of U.S. primary 
energy. It is a great emerging cash crop for farmers, for 
ranchers, for foresters. Mr. Lugar pushed successfully through 
the Senate in late February, a bill that would stimulate the 
growth of this industry in a very, very important way. And the 
President has set a goal to triple United States use of 
bioenergy by 2010.
    Two quick examples. On page 12, in Indiana and in several 
other parts of the country, coal fired utilities are now mixing 
their goal stream with biomass to make use of a local resource, 
to cut pollution, and to extend the life of these coal-based 
power plants.
    Down in Louisiana, Mr. Chairman, a new plant is under 
construction that will make ethanol, 20 million gallons a year, 
from waste from the sugar cane industry that that industry is 
now paying to get rid of.
    I visited New York State yesterday. There they will be 
getting under construction with a new ethanol plant that will 
make ethanol from municipal solid waste, 10 million gallons a 
year.

                             HYDROELECTRIC

    Now, I need to make a very important point, if you would 
turn to page 13. And I think this is responsive to your opening 
statement. Maturing an energy source requires both time and 
money. In the case of hydroelectric, we have been at it since 
about 1903 with major investments of about $50 billion in 
today's dollars in dams across the United States. In the case 
of nuclear, we have been at it for about 50 years with 
investments in the $25 billion to $50 billion a year range. 
With renewables, Mr. Chairman, we have been at it for 20 to 25 
years with less than $13 billion.
    We are between 2 and 3 percent of U.S. electricity that 
comes from renewables. And we have seen almost a 20-percent 
growth in the last year in renewable-generated electricity 
versus a 1.3 percent overall electricity growth in the same 
year.
    Senator Domenici. Twenty percent is of what?
    Mr. Reicher. Twenty percent--the actual number is 18 
percent of--we saw about 18-percent growth in U.S. electricity 
coming from renewables, from 71.5--I can give you the numbers, 
but that is the approximate number, 18-percent growth between 
1998 and 1999.
    [The information follows:]

    ENERGY INFORMATION ADMINISTRATION ESTIMATES OF INDUSTRY RENEWABLE ENERGY ELECTRICITY GENERATION 1997-1999
                  [Generation in Terawatt Hours, thousands of Gigawatts, billions of Kilowatts]
----------------------------------------------------------------------------------------------------------------
                                                                                   Fiscal years
                                                                 -----------------------------------------------
                                                                     1999 \1\          1998            1997
----------------------------------------------------------------------------------------------------------------
Geothermal......................................................          13.904          14.726          14.569
Bioenergy.......................................................          62.819          53.012          54.647
Wind............................................................           4.213           2.988           3.222
Solar \2\.......................................................           1.143           0.856           0.869
                                                                 -----------------------------------------------
      Renewable Subtotal........................................          82.079          71.582      \3\ 73.307
      Total Electricity.........................................       3,662.300       3,617.900       3,494.200
----------------------------------------------------------------------------------------------------------------
\1\ Based on preliminary EIA 1999 table 60 net generation data, finals may vary slightly.
\2\ Solar 99 estimated based on prior year PV trends.
\3\ Non-hydro renewables.

Note: Notable Changes in electricity generation: Electricity generation grew 1.0 percent in 1999; Renewables
  grew from 2 percent of all electricity generation in 1998 to 2.24 percent in 1999; Renewables' generation grew
  15 percent in 1999, from 71.6 GW to 82.1 GW.

                             BUDGET REQUEST

    Mr. Reicher. Now, we have submitted a budget request, Mr. 
Chairman, that we believe is critical to advancing clean power 
technologies in the way we have supported other technologies. 
And if you turn to page 14, I will not go through this chart 
other than to point out that, whereas we have asked for a 32-
percent increase between 2001 and 2000, we actually saw a 
fairly substantial cut between 1999 and 2000. So that increase 
relative to 1999 would be about 24 percent.

                      DISTRIBUTED ENERGY RESOURCES

    Now I would like to highlight just one more important 
element of our work, and that is on page 15. Mr. Chairman, 
increasingly this country is moving to what are called 
distributed energy resources, moving the generation source 
closer to the end user, closer to industry, closer to 
commercial buildings, closer to homes. These include gas-fired 
microturbines, reciprocating engines, fuel cells, and include 
renewables like photovoltaics and wind.
    And in this picture you will see a new fuel cell that 
General Electric will start selling in 2001 that will provide 
electricity and heat for a home. And we see this as an exciting 
new opportunity to generate electricity in this country, also 
very useful for ensuring the reliability of our electricity 
system. And it has environmental and economic benefits as well.

                          IMPROVED MANAGEMENT

    Finally, I would like to emphasize that underlying all this 
work on clean energy is what I believe to be improved 
management of our office. And I appreciate your compliments in 
your opening statement. If you turn to the final page, we have 
increased competition and merit review in our programs between 
1996--and you will see this on this chart--from 24 percent to 
88 percent.
    This is competition for the discretionary financial 
assistance. This is something you told us you wanted us to do, 
as they did in the House. And I think we have come quite a 
distance.
    And the National Academy of Public Administration did a 
multi-month review of the management of our office. And while, 
Mr. Chairman, we did not get an A, they definitely told us we 
are moving in the right direction and complimented the reforms 
that we have made, and they are many.

                             NO-YEAR MONEY

    That leads me to my final point. And I guess it is in a 
sense almost a plea. We think we have improved our management 
to the point that the subcommittee should provide us with funds 
on a no-year basis instead of the 1-year funds that you moved 
us to in fiscal year 1998.
    No-year money is a far more flexible way to pursue R&D. The 
1-year funding that you gave us beginning in 1998 has severely 
restricted our work and made for decision making that I do not 
think is in the ultimate interest of the technologies and the 
companies and the laboratories that carry out this work. So I 
urge you to consider returning us to no-year money.
    Thank you, Mr. Chairman.
    Senator Domenici. Thank you very much, Mr. Reicher.
    [The statement follows:]

                  PREPARED STATEMENT OF DAN W. REICHER

                              INTRODUCTION

    Mr. Chairman and members of the Subcommittee, I am pleased to have 
the opportunity to appear before you today to discuss the Energy and 
Water Development portion of the fiscal year 2001 budget request for 
the Department of Energy's Office of Energy Efficiency and Renewable 
Energy (EERE).
    As we begin a new decade--and a new millennium--the Office of 
Energy Efficiency and Renewable Energy's mission of advancing clean 
energy technologies, including energy efficiency, renewable energy and 
natural gas, will play an increasingly critical role in securing our 
energy future, improving our environment and maintaining our economic 
growth. EERE leads the nation in the research, development, 
demonstration, and deployment of affordable, advanced energy efficiency 
and renewable energy technology and practices, and, together with the 
Office of Fossil Energy advances natural gas research, development and 
demonstration.
    Mr. Chairman, in my testimony today, I plan to cover the following 
areas. First, I will discuss energy trends that have emerged over the 
last decade and that will drive great change into the next. Second, I 
will speak about how our EERE programs as relayed in our strategic plan 
will help to meet these emerging challenges, and in particular, I will 
discuss some recent exciting technology improvements and the 
opportunities and challenges still facing us. Finally, I will 
specifically highlight the fiscal year 2001 budget request as it 
relates to the EERE programs within the jurisdiction of this 
subcommittee, primarily renewable energy technologies and advanced 
energy production, storage and transmission systems. The rest of the 
EERE budget is funded under the Interior and Related Agencies 
appropriations account and focuses on energy efficiency in industry, 
transportation and buildings.
    Mr. Chairman, as I noted, several energy trends have emerged over 
the last decade that will drive great change into the next decade. (1) 
Economic Competitiveness--the end of the Cold War in the early 1990's 
unleashed a global economy that is forecast to consume almost twice as 
much electricity in 2020 as it does today, providing new challenges and 
opportunities for U.S. energy technology exports and employment. (2) 
Climate Change--over the last 10 years, our confidence in the science 
of climate change has made greenhouse gas emissions an issue of concern 
for policymakers around the world, significantly changing our view of 
the role of energy efficiency and clean power in our nation's energy 
economy. Energy use as a whole generates most of the greenhouse gas 
emissions in the United States. (3) Clean Air--Energy and the 
environment are closely linked--the use of energy is the largest source 
of pollution in this country. Vehicles and power plants are the largest 
contributors to problems like ground-level ozone, acid rain, and 
particulates. In the past decade, we have seen increased regulatory 
support for urban and rural areas to mitigate their pollution problems 
by deploying energy efficiency and clean power technologies. (4) 
Electricity Industry Restructuring--The 1990s also saw significant 
change in electricity regulatory policies, with wholesale competition 
occurring across the country and about half of the states implementing 
retail competition, providing significant new market opportunities for 
clean energy technologies, as well as new challenges. Last year when I 
testified before this Subcommittee, only 14 states had adopted 
restructuring policies through legislation or regulation. Today, 24 
states have enacted legislation and the other 26 states are debating 
the option.
    And finally, Mr. Chairman, the most recent and fast-paced area of 
change is energy security. In 1999 we saw the price of crude oil rise 
from $10 per barrel in January to $26 in December and we saw the 
average U.S. gasoline price rise from $0.97 per gallon to $1.29. We saw 
home heating oil costs increase by 30 percent, residential natural 
gases increase by 19 percent, and residential propane costs increase by 
12 percent. And this trend continues in 2000. In January 2000, five 
leading U.S. airlines imposed a $20 per flight fuel surcharge on 
tickets. In February, oil prices reached $30 per barrel and U. S. 
gasoline prices rose to $1.41 per gallon, the highest prices since the 
Gulf war. In late February, in response to high fuel prices, hundreds 
of truckers came to the Capitol to protest. Mr. Chairman, these impacts 
are real and are being felt by most sectors of society. The Energy 
Information Administration in its Annual Energy Outlook 2000, projects 
that our dependence on foreign oil will increase from 50 percent in 
1999 to about 63 percent by 2015.
    My point, Mr. Chairman, is that EERE programs can help mitigate 
energy price spikes and slow our rising dependence on foreign oil. For 
example, through our multi-agency integrated bioenergy initiative, and 
our DOE core research and development programs, we are working to bring 
down the costs of ethanol as a substitute for conventional 
transportation fuels. With sufficient funding, we expect a substantial 
market share for cellulosic ethanol--i.e., ethanol produced from a 
variety of agricultural and forestry residue and wastes over the next 
two decades.
    And, Mr. Chairman, our energy security is not just about foreign 
oil. Last summer we were involved in a different type of energy 
security issue--the reliability of our electricity delivery system. In 
the summer of 1999, power outages occurred in New York City, New 
Jersey, and in the Southern and Central States. In Chicago, New England 
and the Mid-Atlantic region, power delivery disturbances were caused by 
high heat and humidity that strained the power distribution system. The 
Department of Energy's Power Outage Study Team, established by 
Secretary Richardson in August 1999, warned in their interim report 
``that while the electricity industry is undergoing fundamental change, 
the necessary operating practices, regulatory policies, and 
technological tools for dealing with those changes are not yet in place 
to assure an acceptable level of reliability. A significant increase in 
electricity use, especially during times of peak demand, is stressing 
the electric system.''
    Mr. Chairman, our programs are working to remedy the situation. One 
example is our distributed generation/grid reliability work. As our 
electricity industry restructures, we expect that fewer central 
generating power stations will be built. As much as 40 percent of new, 
smaller-scale generation will be located closer to its point of use and 
should encounter fewer siting difficulties. Our work will enhance the 
systems operations while maintaining grid reliability to ensure a 
constant electricity supply and to get the most optimal energy 
generation, delivery and use system obtainable.

                          STRATEGIC MANAGEMENT

    In March, we released our strategic plan. In the rapidly changing 
world I have described, strategic planning is critical to ensure that 
EERE's research, development, demonstration and deployment portfolio is 
adequately addressing our nation's clean energy needs. In addition to 
strengthening EERE's traditional sector work, our strategic planning 
activities are leading to increased emphasis on a number of cross-
cutting initiatives that allow us to leverage our resources across 
multiple markets. A further discussion of our corporate cross-cutting 
initiatives is presented later in my testimony.
    Our strategic plan includes three overarching EERE goals which are: 
(1) to increase the supply and use of clean energy resources and the 
reliability of the energy system; (2) to increase the efficiency of the 
energy system; and (3) to continuously demonstrate EERE managerial and 
operational excellence.
    In particular, we have set three quantitative goals dealing with 
renewable energy. They are to:
  --Triple the non-hydroelectric renewable energy generating capacity 
        to 25,000 megawatts of installed capacity by 2010 and maintain 
        the viability of hydropower as an important energy resource.
  --Triple U.S. use of bio-based products and bioenergy by 2010 from 
        the 1999 level, which would create as much as $20 billion a 
        year in new income for farmers and rural communities.
  --Achieve 20 percent market penetration of distributed energy 
        resources by 2010 to help optimize electricity generation and 
        use.
    Mr. Chairman, we have the strategies in place to achieve these 
goals. Most importantly, our R&D programs will provide the building 
blocks for a cleaner, more efficient and diverse energy economy in the 
twenty-first century. Decisions made now about energy production and 
use commit the nation to an energy path for future decades. To the 
extent that economically attractive, clean, and efficient technologies 
are chosen, both the economy and the environment benefit. Thus, a 
robust energy R&D program--the core of our work--is needed to enable 
the country to achieve a healthy and prosperous future.
    However, as a complement to strong and focused R&D, we also need to 
undertake field verification projects. Many of the technologies that we 
develop with our partners are considered ``high risk'' investments. 
While progress in the laboratory is critical to the eventual deployment 
of advanced clean energy technologies, taking the technologies from the 
laboratory to a testing and evaluation setting helps build confidence 
in advanced energy technologies and practices. The data collected from 
these field verification activities also provide important information 
used by scientists and engineers in the R&D activities, which in turn, 
brings further advances to the technologies.
    Further, Mr. Chairman, one of our key strategies is creating R&D 
partnerships among energy companies, energy-intensive industries, 
states, local governments, universities, and our national laboratories 
to advance the development of new energy technologies and practices. 
Such alliances help maximize the efficiency of the technology R&D 
process by leveraging public and private R&D resources, and bringing 
together interdisciplinary teams of scientists, engineers, and analysts 
to deliver technology results acceptable to energy markets. EERE works 
with its partners in both the planning and implementation phases of its 
R&D programs. In recent years, EERE has been making greater use of 
technology ``visions'' and ``roadmaps'' to develop shared goals among 
diverse groups within each sector and provide a framework for 
cooperative technology development efforts.
    I am proud to report, Mr. Chairman, that our strategies are 
generating substantial success. For example, EERE-funded researchers 
have won 25 R&D 100 awards from 1996 to 1999. The R&D awards are judged 
each year by a panel of 75 respected scientists and are given by R&D 
Magazine for the most outstanding technology developments with 
significant commercial potential. Let me share just one example:
  --High Efficiency Photovoltaic (PV) Modules.--This technology 
        converts sunlight into electricity using copper indium 
        diselenide based solar cells. Tests have demonstrated 
        efficiencies of more than 12 percent, by far the highest of any 
        commercial thin film module. Thin film PV modules have the 
        potential of greatly reducing the cost of solar electricity and 
        providing a wide range of new products with mass appeal. 
        (Siemens Solar Industries and National Renewable Energy 
        Laboratory).
    Mr. Chairman, in addition to our R&D and field verification 
strategies, we have other strategies to advance clean energy 
technologies and practices. The market of energy users is broad and 
diverse, including hundreds of millions of residential, commercial, and 
transportation users, hundreds of thousands of industrial users, and 
millions of users in the power sector. To enable deployment of advanced 
energy technologies and practices, we work with the leadership of high 
leverage public and private organizations that can influence energy 
decisions. In addition, we work with the banking, insurance, and 
bonding industries that determine where and how much capital is 
invested in the energy economy to look for opportunities to partner on 
initiatives that advance our mutual interests.
    Finally, Mr. Chairman, when I testified last year, I informed you 
of my efforts to improve the management of my office--the third 
overarching goal of our EERE Strategic Plan. I want to report that I 
have continued to make management reform a major priority and I believe 
that we are achieving significant results. For example, the proportion 
of EERE Discretionary Financial Assistance (DFA) funding awarded on a 
competitive basis increased from 24 percent of funding in fiscal year 
1996 to 88 percent in fiscal year 1999.

EERE Obligations for New Discretionary Financial Assistance Awarded on 
Competitive Basis

                              [In percent]

Fiscal year:
    1996..........................................................  24.4
    1997..........................................................  33.3
    1998..........................................................  56.7
    1997..........................................................  88.2

Source: DOE Office of Procurement Policy and Procurement and Assistance 
Data System Percents do not include Congressional earmarks. If 
Congressional earmarks are included for fiscal year 1999, competitive 
percent increases to 93 percent.

    In fiscal year 1999, I also established a Chief Operating Officer 
and new EERE Office of Planning, Budget, and Management to oversee all 
corporate EERE planning, budget, and management activities. And, Mr. 
Chairman, while I am pleased with our results so far, I am committed to 
further improvements. Under the leadership of this new office, a key 
approach is the creation of a Strategic Management System. Based on the 
complexity of our Nation's energy markets, the range of energy 
technology options that could be pursued, and the need to invest 
federal resources wisely, it is essential that the EERE programs be 
carried out with superior corporate management and business acumen. As 
you know and can appreciate, Mr. Chairman, the government cycles often 
involve the management of up to four budget years at any time. To do 
this in the most effective manner, an orderly, systematic approach is 
needed to the business of planning, budget formulation, budget 
execution and program analysis and evaluation. Mr. Chairman, for these 
reasons, I instituted our Strategic Management System.
    As I stated in my testimony last year, I welcome external reviews 
to assist us in identifying areas for further management improvements. 
The National Academy of Public Administration has undertaken one of 
these efforts and I expect their report to be released later this 
month.
    Similarly, the National Academy of Sciences has been reviewing our 
renewable R&D portfolio and we are awaiting their draft report late 
this month.
    While the actions and initiatives that I have described have 
resulted in significant management improvements, implementing and 
sustaining these improvements are dependent upon staffing levels and 
employee competencies. The modest increase that we are requesting in 
program direction is focused on the staffing levels and employee 
competencies that will support these management improvements.
    We acknowledge the EERE management issues raised by this 
Subcommittee that led to one-year funding limitations several years 
ago. We have diligently worked to address these concerns and to 
implement management systems that will prevent their reoccurrence in 
the future. It is my belief, Mr. Chairman, that one-year funds have 
limited the flexibility of the programs. I would therefore like to work 
with you and this Subcommittee on the restoration of no-year funds.

                           RECENT R&D SUCCESS

    In my testimony before this Subcommittee last year, I spoke to you 
about the tremendous strides we made in reducing the cost of 
electricity from our nation's vast renewable energy resources, which is 
down 80 percent since 1980.
    Today, I am pleased to announce that since last year we have 
achieved further successes that will help increase the supply and use 
of clean energy resources and the reliability of the energy system. Let 
me take a moment to highlight a few examples of these accomplishments:
  --In photovoltaics, research supported by the program has achieved 
        two world solar cell efficiency records: (1) a 32 percent 
        efficient gallium arsenide-based concentrator cell was produced 
        under a project led by the National Renewable Energy 
        Laboratory; and (2) a Thin Film Partnership project has 
        produced a 12 percent efficient thin film photovoltaic module, 
        using copper indium diselenide material, that is now 
        commercially available.
  --Nearly 1000 MW of wind power generation capacity was installed in 
        the U.S. in just the last 18 months--enough electricity for 
        about 400,000 U.S. homes--bringing the total installed capacity 
        in the United States to about 2500 MW. More than 400 MW was 
        installed in the Upper Midwest alone, including a 107 MW 
        facility at Lake Benton, MN, which is producing unsubsidized 
        power at $0.04 per kWh. Additionally, Northern States Power 
        recently announced that two proposed wind energy facilities are 
        among six projects--including natural gas-fired generation and 
        hydropower--that have been selected for contract negotiations 
        in its competition for 1200 MW of new generation from all 
        sources. This marks the first time that wind energy has been 
        able to compete with conventional baseload, cycling and peaking 
        technologies for new power generation.
  --As the world leader in high temperature superconductivity 
        technology R&D, the U.S. program research focuses on developing 
        advanced materials and technologies that will significantly 
        enhance electric grid system reliability, reduce transmission 
        losses, and substantially increase the efficiency in end-use 
        applications such as large industrial motors. Recent research 
        breakthroughs at Oak Ridge National Laboratory set the stage 
        for the initiation of grid-connected field tests of high 
        temperature superconductivity technology in Detroit, Michigan, 
        Chicago, Illinois and Carrollton, Georgia in fiscal year 2001. 
        Laboratory, industry, and DOE partnerships will continue to 
        advance the development of thin, lightweight superconducting 
        ``tapes'' that will be able to carry up to 100 times the 
        capacity as much heavier copper wires--with essentially no 
        energy losses.
  --The Energy Storage program, which is focused on addressing the 
        growing number of grid reliability and power quality issues 
        facing the U.S. and is helping to resolve intermittency issues 
        faced by some renewable technologies, achieved a very notable 
        success this past year. At S&C Electric--Chicago's largest 
        manufacturing plant--a truck-sized 2 MW battery was installed 
        to protect the facility's extrusion machinery which molds high 
        voltage insulators. Such processes are particularly vulnerable 
        to short power outages because the entire run must be discarded 
        and equipment may be severely damaged. This new system ensures 
        that power will continue to be supplied seamlessly whenever an 
        outage or voltage sag happens. The system has been estimated to 
        prevent production losses of approximately $500,000 annually--
        representing a one-year payback period. Similar systems can be 
        developed to help protect other vulnerable industries such as 
        semiconductor and pharmaceutical plants.

                       CONTINUING R&D CHALLENGES

    While we continue to make tremendous strides in these and other 
renewable and power delivery technologies, we still have much work to 
do. Competition in the power generation sector has led to significant 
decreases in the price of power from new sources of generation. In 
particular, natural gas-fired combustion turbine technology, which 
produces power at $0.03 per kWh or less, has set a new threshold for 
market penetration of new generation technologies in most locations 
here in the U.S. Strong efforts in core technology R&D, coupled with 
research on integrating renewable and renewable/hybrid systems, will 
help accelerate cost reductions and make these systems more attractive 
both domestically and overseas. As U.S. technologies continue to pursue 
the global market, where the need for energy far outstrips supply and 
electricity costs are typically much higher, sales will spur improved 
economies of scale in production and help lower costs.
    However, both self interest and the great economic potential in 
this international energy marketplace has also encouraged other nations 
to aggressively pursue their own renewable energy technology research, 
development, and deployment programs--oftentimes funded at much higher 
levels than our U.S. programs. For example, for several years now we 
have cautioned that Japan's very aggressive RD&D program threatened 
U.S. technology and sales leadership in the area of photovoltaics, 
which the U.S. regained in 1993. While U.S. companies still increased 
their overall sales volume in 1999, Japan's four to five-fold higher 
funding levels and favorable domestic policies have enabled them to 
recapture world sales leadership with 40 percent of the world market 
compared to 31 percent for the U.S. (In 1998, the U.S. held a slim 
lead--35 percent to 32 percent--over Japan.)
    How can we meet these challenges to our technology leadership? 
Increased and sustained levels of federal funding is part of the 
answer. Fluctuation in funding disrupts research efforts, can result in 
losses of key scientists, and delays achievement of goals. Better 
coordination among researchers in federal agencies, private sector 
organizations, and industry is another part of the answer.
    Another is to update and improve key facilities at our national 
laboratories--the workhorses of our core R&D. For example, the National 
Renewable Energy Laboratory (NREL) is a global leader in renewable 
energy research, development, and field validation activities, and is 
home to the National Wind Technology Center and the National 
Photovoltaic Center. Upgrades in the highly specialized research 
instruments and the physical plant are needed annually to avoid 
critical failures and maintain world leadership. Unfortunately, NREL 
receives the least capital funding of DOE major research and 
development laboratories, and capital investment is well below the 
research and development industry average. Sustained capital 
reinvestment at NREL is essential to maintain American leadership in 
renewable energy research and development activities.
    An additional way to meet the challenges to U.S. technology 
leadership is to reduce institutional, regulatory, and trade barriers 
to the sales of our technology overseas. As a successful example, we 
have now established performance and reliability standards, and a 
globally recognized certification process, so that American-produced 
wind energy technologies will be accepted in countries around the 
world.
    Mr. Chairman, I am proud of our successes and I appreciate your 
support and the support of this Subcommittee for our activities. 
However, the promise of these programs is enormous and while we have 
made great progress, we continue to ask for your support to carry out 
our important mission.

                    FISCAL YEAR 2001 BUDGET REQUEST

    The following tables provide details of our fiscal year 2001 budget 
request. The sections following the tables describe ongoing programs 
and our fiscal year 2001 budget request in the areas of Solar and 
Renewable technologies, the National Renewable Energy Laboratory 
(NREL), the Departmental Energy Management program, and program 
direction. Solar and Renewable Resource Technologies (in millions of 
dollars)

                SOLAR AND RENEWABLE RESOURCE TECHNOLOGIES
                        [In millions of dollars]
------------------------------------------------------------------------
                                                 Fiscal year
                                   -------------------------------------
                                                        2001   2000-2001
                                      1999     2000   Request    Change
------------------------------------------------------------------------
Power Technologies................    269.1    252.4    330.0      +77.6
    Solar Building Technology           3.5      2.0      4.5       +2.5
     Research.....................
    Photovoltaic Energy Systems...     70.6     65.9     82.0      +16.1
    Concentrating Solar Power.....     16.8     15.2     15.0       -0.2
    Biomass/Biofuels Energy            30.8     31.8     48.0      +16.2
     Systems--Power Systems.......
    Wind Energy Systems...........     34.1     32.5     50.5      +18.0
    Renewable Energy Production         4.0      1.5      4.0       +2.5
     Incentive....................
    Solar Program Support \1\.....  .......      4.9      6.5       +1.6
    International Renewable Energy      6.3      3.8     11.5       +7.7
     Program \1\..................
    Geothermal Energy Systems.....     28.2     23.6     27.0       +3.4
    Hydrogen Research.............     22.0     24.6     23.0       -1.6
    Hydropower Development........      3.2      4.9      5.0       +0.1
    Renewable Indian Energy             4.8      3.9      5.0       +1.1
     Resources....................
    Electric Energy Systems and        40.8     37.8     48.0      +10.2
     Storage......................
    Federal Buildings/Remote Power      4.0  .......  .......  .........
     Init.........................
                                   =====================================
Transportation Technologies:           41.2     38.9     54.4      +15.5
 Biomass/Biofuels Energy Systems--
 Transportation...................
                                   =====================================
National Renewable Energy               3.9      1.1      1.9       +0.8
 Laboratory.......................
Program Direction.................     18.1     17.7     18.2       +0.5
Departmental Energy Management      .......  .......      5.0       +5.0
 Program..........................
                                   -------------------------------------
      Subtotal, Solar and             332.3    310.1    409.5      +99.4
       Renewable Energy...........
                                   =====================================
Use of Prior Year Balances........      1.0      0.8  .......       -0.8
                                   -------------------------------------
      Total, Solar and Renewable      331.3    309.3    409.5    +100.2
       Energy.....................
------------------------------------------------------------------------
\1\ Excludes funding for international energy efficiency programs under
  Energy Conservation.

    Our fiscal year 2001 program level for Solar and Renewable Energy 
Technologies is $409.5 million--an increase of $99.4 million (or 32 
percent) over fiscal year 2000. The bulk of the EERE Energy and Water 
Development Appropriation supports the work of the Office of Power 
Technologies (OPT) at $334.6 million. OPT works with electric service 
providers and related industries to advance clean, competitive and 
reliable power technologies. It develops renewable energy technologies 
that use solar, wind, hydropower, geothermal and biomass energy 
resources and conduct R&D that will enable a hydrogen energy 
infrastructure in the future. Our programs also develop advanced 
technologies--including high temperature superconducting materials, 
real-time power system controls, and energy storage--that will improve 
the energy efficiency and cost-effectiveness of the nation's electric 
systems. Finally, the office facilitates the export of renewable energy 
power generation internationally.
    Included in the Energy and Water Development Appropriation is $54.4 
million for the Office of Transportation Technologies (OTT) to support 
R&D on production of biomass-based transportation fuels. The requested 
funds also include: $18.2 million for Program Direction, which provides 
the federal staffing resources and associated funding to support the 
management and oversight of the Solar and Renewable programs; $1.9 
million for the National Energy Renewable Laboratory (NREL); and $5 
million for the Department Energy Management Program (DEMP), to manage 
both the utility demand and supply functions at DOE sites.
    Included in our fiscal year 2001 request are several new and 
ongoing initiatives. Let me begin by discussing two initiatives that 
involve several EERE programs, the Bioenergy and Bioproducts Initiative 
and the International Clean Energy Initiative. I will also briefly 
discuss consolidation of our distributed generation activities and, 
finally, I will discuss our ongoing programs and the specific budget 
requests for those programs.

               BIOENERGY AND BIOBASED PRODUCTS INITIATIVE

    Recent scientific advances in bioenergy and biobased products have 
created enormous potential to: enhance U.S. energy security; help 
manage carbon emissions; protect the environment; and develop new 
economic opportunities for rural America. This nation has abundant 
biomass resources (crops, trees, agricultural wastes). These resources 
have the potential to provide substantial amounts of power, fuels, 
chemicals and other biobased products. Today they already provide about 
3 percent of U.S. energy. This initiative can capitalize on the many 
separate but related activities across the government, industry, and 
academia by coordinating the planning projects designed to accelerate 
the use of bioenergy.
    In the past year, industry executives from the pulp and paper, 
agricultural commodity, major chemicals, and the fuel ethanol and 
biomass power utility industries, met in St. Louis and Washington, DC 
to develop a bioenergy vision for the industry and nation. ``The 
Bioenergy Vision: Achieving Integrated Development and Use of Our 
Nation's Biologically Derived Renewable Resources'' challenges industry 
and government alike to develop a sustainable energy future founded on 
domestic, renewable biomass. The vision document is currently being 
reviewed and will be published soon, but the message is clear, we can 
work in partnership towards a common goal with substantial national 
benefits.
    On August 12, 1999, the President issued an Executive Order on 
Biobased Products and Bioenergy that will coordinate federal efforts to 
accelerate the development of 21st century biobased industries that use 
trees, crops, agricultural, forest, and aquatic resources to make an 
array of commercial products including fuels, electricity and 
chemicals. The President set a goal of tripling U.S. use of biobased 
products and bioenergy by 2010. In the President's remarks at the 
Executive Order signing ceremony, he stated that reaching the tripling 
goal ``would generate as much as $20 billion a year in new income for 
farmers and rural communities, while reducing greenhouse gas emissions 
by as much as 100 million tons a year--the equivalent of taking more 
than 70 million cars off the road.''
    The Executive Order has been complemented by the introduction of 
several bills in Congress. Senator Richard Lugar (R-IN) introduced the 
National Sustainable Fuels and Chemicals Act of 1999, which was adopted 
by the full Senate on February 29, 2000. This is a research and 
development bill designed to overcome technical barriers to low-cost 
biomass conversion by encouraging closer coordination and integration 
among federal agencies, national labs, universities, private sector 
companies, and environmental organizations. Companion biomass bills 
were introduced by Representatives Ewing (R-IL) and Udall (D-CO). The 
Congressional and White House support demonstrates the growing 
importance of investing in the development of biobased products and 
bioenergy industries today, which will help the country prosper in this 
new century.
    Through a newly-formed Interagency Council, the Administration is 
currently in the process of surveying all of the programs that have a 
direct role in meeting the goals of this initiative. This includes 
programs at DOE, USDA, NSF, DOC, and DOI. This survey will lead to the 
development of a strategic plan that will help us adjust our portfolio 
in coming years to concentrate efforts on the most promising 
technologies to realize our goals. At this point, we have already begun 
to respond to input and think more wholistically about the 
technologies. The fiscal year 2001 request directs new funds toward 
priority areas. Of particular importance are R&D activities designed to 
advance the development of ``biorefineries''--facilities that can 
process biomass into an array of fuels and products much like oil 
refineries do today. We are also beginning to focus more on 
intermediate chemicals such as sugars that can be used as platform 
chemicals, to be used to produce many different end products.
    To support the Bioenergy initiative, the Administration proposes an 
increase of more than $93 million over the amounts available for fiscal 
year 2000, with $49 million of this increase for programs managed by 
DOE and $44 million for enhanced efforts at USDA. For fiscal year 2001, 
efforts will follow the new strategic plan that will be developed under 
the Executive Order and roadmaps identified under the Bioenergy and 
Bioproducts Initiative. It is anticipated that new partnerships will 
come together for the first time in an integrated fashion, across the 
several sectors of the currently fragmented bioenergy and bioproducts 
industry, leading to new business opportunities. We are already funding 
in fiscal year 2000, per Energy and Water Development direction, new 
R&D that cuts across the biopower, biofuels and bioproducts sectors. 
New and broader innovative approaches will be encouraged through a 
multi-agency, industry peer review project selection process in fiscal 
year 2001. Below is a brief description of the two of the four base 
programs in EERE that directly or indirectly support the work of the 
initiative. The four programs are Biopower Technologies, Biofuels 
Technologies, Forestry and Paper Products and Agriculture: the Biopower 
and Biofuels programs are funded by this subcommittee; the Forest and 
Paper Products and the Agriculture programs are funded in the 
appropriation for the Interior and Related Agencies.
    Biopower Technologies--The budget request for the Biopower program 
within the Office of Power Technologies (OPT) is $48 million in fiscal 
year 2001. The mission of Biopower Technology is to integrate 
sustainable biomass feedstock production with efficient biomass power 
generation systems that can provide substantial energy, economic, and 
environmental benefits. Collaborative partnerships between OPT and the 
private sector will focus on critical research, development, and cost-
shared technology verification activities. Biopower Technologies will 
include a full complement of efficient biomass technologies, size 
ranges, and feedstocks (agricultural residues, wood residues, energy 
crops, etc.). The program's goal is the establishment of 3,000 MW of 
new renewable biomass power generation capacity installed by 2010. The 
request includes $5.0 million for thermochemical conversion and $26.4 
million for systems development. Also included are $4.0 million for 
feedstock development; $1.6 million for the regional biomass energy 
program; and $11.0 million in support of integrated projects under this 
initiative.
    This request will support an expanded research effort that will aid 
in defining chemical characteristics of biomass under various forms of 
thermochemical conversion (e.g. gasification, combustion, etc.). 
Efforts will include laboratory modeling and process simulation which 
will reduce technical risks and development costs of biopower 
technologies. These efforts should also result in shorter development 
time during field validations. The Biopower Technologies will also 
examine methods to increase the net energy output of biopower systems 
per unit of carbon used through high efficiency power and thermal 
recovery. The systems development activity request is $9.4 million for 
the co-firing biomass with coal effort, $5.5 million for the small 
modular biopower systems, $4.0 million for biomass power for rural 
development, $4.0 million for the Vermont gasifier project, $2.0 
million for the international clean energy initiative to develop grid-
systems and off-grid/mini-systems with biomass and other renewables, 
and $1.5 million is requested for a new agriculture residues to energy 
program.
    Biofuels Technologies.--Biofuels technologies managed by the Office 
of Transportation Technologies (OTT) has a budget request of $54.4 
million in fiscal year 2001. This RD&D effort will lead to cost 
competitive technologies for the production of renewable transportation 
fuels, in collaboration and partnership with industry, other government 
organizations, and academic institutions. In support of this mission, 
the program pursues the development of low-cost biomass feedstocks and 
cost competitive conversion technologies for liquid fuels production 
from agricultural residues, forestry wastes, and energy crops. The 
development and deployment of biofuels technologies can displace a 
substantial amount of imported petroleum while promoting rural economic 
development. Since biofuels produce almost no net carbon on a life-
cycle basis, they are a very promising supply side option for reducing 
carbon emissions in the transportation sector. The Biofuels 
technologies request of $54.4 million includes: $38.4 million for 
ethanol production; $1.0 million for renewable diesel fuel 
alternatives; $4.5 million for feedstock development; $3.5 million for 
the regional biomass energy program; and $7.0 million in support of 
integrated activities under the initiative.

                 INTERNATIONAL CLEAN ENERGY INITIATIVE

    While Japan, Germany, the Netherlands, Denmark and others forge 
ahead with international energy technology sales opportunities, the 
U.S. is losing its leadership role. U.S. firms are losing a significant 
share of the multi-hundred-billion dollar per year global market in 
energy supply technologies, most of which is and remains overseas. 
About 2-3 billion people lack access to a reliable supply of 
electricity. The International Clean Energy Initiative (ICEI) 
initiative will strengthen America's capacity for energy technology 
innovation and advance clean energy technology applications in large 
foreign markets.
    Its purpose is to help developing countries and countries with 
economies in transition to ``leap frog'' conventional approaches to 
energy production and instead make the best use of clean energy 
technologies. We will focus on providing technical assistance to 
countries and regions to develop their capacity to conduct sector-
specific economic analyses of technologies and policies. ICEI will 
provide technical assistance to undertake project assessments, to 
identify the unique mix of clean energy technologies (e.g., wind, 
hydro, PV, biomass, solar thermal and natural gas) and to develop 
strategies that fit the country's climates, resources, and local needs. 
It will also provide in-country analysis of models that could be used 
to identify cost effective energy efficiency and fuel switching 
opportunities. ICEI will also help attract U.S. public and private 
financing sources to develop projects as well as create long-term 
relationships between U.S. public and private laboratories and 
organizations and those in developing and transition countries.

                   DISTRIBUTED ENERGY RESOURCES (DER)

    Mr. Chairman, I also have begun to consolidate all distributed 
energy resources activities within the EERE portfolio from three 
distinct sectors into one Distributed Energy Resources program. The DER 
program will accelerate the development and deployment of cleaner and 
more efficient, affordable, and reliable distributed energy resources 
which include renewable, natural gas, enabling and power delivery 
technologies. We will create a plan for realizing the potentially large 
public benefits (e.g., 30-40 percent of new electric generation and use 
equating to over $5 trillion in annual sales), both domestically and 
internationally.

                     MILLION SOLAR ROOFS INITIATIVE

    In fiscal year 2001, we are requesting $3.0 million (up $1.5 
million) to facilitate and expand deployment of solar energy systems 
throughout the U.S. through training and outreach programs with state 
and local partnerships. The initiative works with partners in the 
building industry, local governments, state agencies, the solar 
industry, electric service providers, and non-governmental 
organizations to remove market barriers and strengthen grassroots 
demand for photovoltaic and solar thermal technologies. We work with 
nearly 50 State and local partnerships that provide training and 
technical assistance to builders, solar equipment installers, utilities 
and financial institutions in order to develop the technology and 
support infrastructure to create sustainable solar energy markets.

                  THE FISCAL YEAR 2001 BUDGET REQUEST

    Mr. Chairman, at this point, I will discuss our fiscal year 2001 
budget request, in the order of the budget submission. The proposed 
increase will support research, development and field validation 
activities in solar building technologies, photovoltaic energy systems, 
concentrating solar power technologies, biopower and biofuels systems, 
wind energy systems, international renewable energy, renewable energy 
production incentives, solar program support, the National Renewable 
Energy Laboratory (NREL), geothermal, hydrogen, and hydropower 
technologies, renewable Indian energy resources, and electric energy 
systems and storage. Additionally, I will address the Departmental 
Energy Management Program, and Solar program direction; activities 
which cut across several EERE sectors.

                         SOLAR ENERGY PROGRAMS

    Our Solar Energy programs request is $101.5 million. The request 
covers solar building technologies, photovoltaics systems and 
concentrating solar power technologies. These three items follow and 
will be discussed individually in the order that they appear in the 
budget.

Solar Building Technologies
    Imagine ``zero energy, zero emission'' buildings that not only 
economically provide all their own energy, but also provide a 
comfortable environment in which to live or work and insure against 
power outages. To achieve this new goal, Solar Buildings Technologies 
is requesting $4.5 million--an increase of $2.53 million to conduct R&D 
to optimally combine solar energy technologies with energy efficient 
appliances and advanced construction techniques. Three areas of effort 
will be pursued in fiscal year 2001, including: the development of new 
polymer (plastic) solar collectors that provide inexpensive energy for 
water heating; research on a new technology that collects sunlight and 
distributes it into the interior rooms of a building through fiber 
optics; and coordination of complementary R&D activities.
    OPT requests $2.8 million for solar thermal R&D to develop a new 
generation of solar water heaters that is 50 percent less expensive 
than today's technology (from $0.08/kWh to $0.04/kWh delivered energy 
cost). This advanced lightweight system would replace heavier, more 
expensive copper tubing and glass systems and would enable a family to 
buy a solar water heater for about $1,000, with energy savings 
returning their investment within four years. Cost reduction will be 
realized through the development of industry concepts that use 
inexpensive polymers, improved manufacturing processes, and innovative 
design. Prototype systems will be built and tested during fiscal year 
2001.
    Solar building technologies will also determine the feasibility of 
using solar concentrating technologies (e.g. small scale parabolic 
dishes) with large-core optical fibers to bring sunlight into the 
interior of buildings. In addition, a proof of concept model will be 
built. Activities will be coordinated with DOE's Office of Building 
Technology, State and Community Programs (BTS) since this light source 
would have to be integrated with a building's conventional lighting 
system. This ``hybrid'' system uses the visible portion of the solar 
spectrum in its natural form (light) and supplements it with electric 
light when necessary. In fiscal year 2001, $0.7 is requested for this 
effort.
    Technology coordination will assess the optimum mix of solar 
technologies to provide all the energy needed by efficient buildings in 
representative U.S. climates. This assessment also will be coordinated 
with BTS. Two competitive solicitations will be issued to: (1) explore 
the potential of integrating solar technology with fossil fuel based 
heating systems (e.g. heat pumps and radiant heating); and (2) develop 
conceptual designs of zero energy buildings.

Photovoltaic Energy Systems
    The strategic goal of Photovoltaic Energy Systems is to make 
photovoltaic (PV) technologies a significant part of the U.S. domestic 
economy, both as an energy source and a technology export industry. In 
order to achieve this goal, Photovoltaic Energy Systems has identified 
certain key milestones for each of the PV technologies that address 
conversion efficiency, cost, and reliability. For example, the 
Photovoltaic Energy System expects to set performance records in all 
leading PV technologies (i.e., thin film and crystalline silicon) by 
2004 and reduce the direct manufacturing cost of PV modules by 40 
percent from the current average cost of $2.50/watt to $1.50/watt 
(equivalent to 15 cents/kWh in an installed system). The Photovoltaic 
Energy System also intends to ensure that PV modules have a service 
lifetime greater than 25 years by improving reliability and reducing 
recurring costs.
    There are three main elements to the Photovoltaic Energy Systems 
mission and the fiscal year 2001 request--Fundamental Research ($20.3 
million), Advanced Materials and Devices ($27.0 million), and 
Technology Development ($34.7 million). The major fiscal year 2001 
program activities that will be carried out in each category are 
addressed below.

            Fundamental research

    Fundamental research involves three component programs: measurement 
and characterization; basic research/university programs; and high 
performance advanced research for which we are requesting $20.3 million 
(up $6.1 million). The first component measures and characterizes PV 
cell materials and devices, in part to identify and reduce defects, 
using state-of-the-art equipment. Through the National Renewable Energy 
Laboratory (NREL), Photovoltaic Energy Systems has access to more than 
40 techniques to measure electrical and optical properties of PV cells, 
as well as their chemistry, structure, and physical nature.
    Under the basic research/university programs, the Photovoltaic 
Energy System supports research to understand cell structures and 
properties of the four primary materials (i.e., amorphous silicon, 
cadmium telluride, copper indium diselenide, and thin silicon 
materials) used in thin film technologies. This component also looks at 
advanced and innovative materials and deposition methodologies, and 
works with universities to conduct cutting-edge research and explore 
innovative new ideas. In fiscal year 2000, we will issue a new 
solicitation for breakthrough, non-conventional PV technologies, such 
as liquid cells, polymers, and biochemical processes aimed at dramatic 
cost reductions. Continuation of both of these basic research 
activities are crucial to the program's efforts to develop the advanced 
technologies needed to meet the long-term goal of $0.06/kWhr 
electricity.
    The third component is high performance advanced research. This 
research activity, started in fiscal year 2000, is aimed at 
substantially increasing efficiency of two key photovoltaic 
technologies: large area, monolithically interconnected thin films; and 
(multi-junction III-V-based) concentrator cells. Fundamental 
innovations are required to essentially double the conversion 
efficiency of thin films from their current 8-10 percent to 15-20 
percent, and to increase multi-junction cell efficiency from 30 percent 
to 40 percent under 500X concentration. Successful development of a 40 
percent efficient, four-junction cell will enable the development of a 
33 percent efficient complete PV module. Both the enhanced thin film 
and the multi-junction III-V approaches should yield dramatic cost 
reductions.

            Advanced materials and devices

    The advanced materials and devices request of $27.0 million (no 
change) will support the specific research areas such as the thin film 
partnership and the crystalline silicon/high efficiency devices 
programs. The thin film partnership is a government/industry/university 
partnership to accelerate development of cost-effective, thin film 
technologies using the four primary materials discussed above. Thin 
film technologies are considered the best option for meeting the mid- 
and long-term cost goals. Some accomplishments of the thin film 
partnership are a new world record at NREL for an 18.8 percent 
efficient copper indium diselenide (CIS) cell, and a new world record 
and prestigious R&D 100 Award by Siemens Solar Industries for the 
highest module efficiency (12.1 percent) using CIS technology.
    Research on crystalline silicon/high efficiency devices 
investigates the role of impurities and defects in crystalline silicon 
technologies and seeks to develop new processes and device structures 
to increase performance. Core research on high efficiency III-V gallium 
arsenide (GaAs) materials and devices for concentrator and flat plate 
applications will also be continued in fiscal year 2001.

            Technology development

    The last major category, technology development, contains research 
activities in photovoltaic manufacturing R&D, systems engineering and 
reliability, PV building integrated opportunities, and partnerships for 
technology introduction, to support our request of $34.7 million (up 
$10.0 million from the fiscal year 2000 appropriation).
    Photovoltaic manufacturing R&D improves the manufacturing processes 
for thin film technologies and assists industry in developing advanced 
techniques for manufacturing higher performance and lower cost 
commercial products. Work is conducted through the photovoltaic 
manufacturing technology (PVMaT) project. PVMaT is designed to help the 
U.S. industry improve manufacturing processes, accelerate manufacturing 
cost reductions for PV modules, improve commercial product performance, 
and lay the groundwork for a substantial scale-up of U.S.-based PV 
manufacturing plant capacities. In fiscal year 2001, a new competitive 
solicitation will be issued for new in-line process diagnostics and 
state-of-the-art measurement and characterization equipment needed for 
module scale-up and successful manufacturing. These advanced 
manufacturing and processing techniques are key to achieving further 
cost reductions.
    The systems engineering and reliability research is essential to 
achieving the Photovoltaic Energy Systems goal of developing modules 
and systems that can last 30 years in the field. Cost competitiveness 
for PV generated electricity is directly dependent on payback over the 
life of the system under actual operating conditions. The fiscal year 
2001 program will continue to collaborate with industry to improve 
systems and balance of system reliability to reduce life-cycle cost by 
providing technical assistance, field engineering, accelerated 
durability testing, and system outdoor testing and evaluation. Specific 
to module reliability, this activity works to understand the photo/
thermal/chemical/environmental factors that influence the stability of 
encapsulated materials and performance of cells in modules. This 
activity also supports development of domestic and international 
standards and codes, and procedures for certifying performance of 
commercial systems.
    The PV building integrated opportunities activity is a highly cost-
shared R&D effort with industry to develop building integrated PV 
products. The PV industry's market projections show substantial growth 
opportunities in the next five years for building integrated PV 
products and systems, and this R&D responds to their need for continued 
development. The activities planned in fiscal year 2001 are to continue 
conducting R&D on advanced PV building products, concepts, tools, and 
modeling procedures in support of industry's development efforts. 
Technical and institutional barriers that inhibit market growth for PV 
in the buildings sector will also be addressed.
    The partnership for technology introduction is a collaboration 
between the U.S. utility industry and DOE to increase and accelerate 
electric utility use of grid-connected and grid-independent 
photovoltaics for the benefit of the utilities and their customers. 
This will also be continued in fiscal year 2001. Through the utility 
photovoltaic group's (UPVG) TEAM-UP program, a new competitive 
Partnership for Technology Introduction solicitation will be issued for 
highly leveraged projects emphasizing building integrated applications, 
including school buildings.

Concentrating Solar Power Technologies
    The Concentrating Solar Power Technologies program works in 
collaboration with U.S. industry to develop solar technologies that can 
provide clean power, when it is needed, at prices competitive with 
current sources of peaking energy supply. With a fiscal year 2001 
funding request of $15.0 million, Concentrating Solar Power 
Technologies will focus its efforts on two five-year objectives: (1) 
developing highly reliable, kilowatt-sized power systems for 
distributed and stand-alone applications (including residential use); 
and (2) reducing the cost of fully dispatchable systems (from 10-12 
cents/kWh to 6-8 cents/kWh) capable of producing power on demand. 
Achieving both of these targets will provide both U.S. industry and 
U.S. citizens with green energy options that will create a broad range 
of jobs domestically, while contributing substantially to the world's 
need for cleaner power production alternatives.
    Ranging in size from several kilowatts (dish/engine systems) to 
multi-megawatt installations (parabolic troughs and power towers), 
Concentrating Solar Power Technologies are expected to satisfy 
substantial domestic and international energy needs, contributing over 
5,000 MW of power by 2010, and reducing greenhouse gas emissions. 
Energy from CSP systems is high-value renewable power because energy 
storage and hybrid designs allow it to be provided on-demand--even when 
the sun is not shining. This dispatchable feature is an added-value for 
CSP technologies that greatly enhances their acceptance by users. CSP 
Program efforts are in three areas: Distributed Power Systems 
Development ($4.3 million); Dispatchable Power System Development ($5.2 
million) and Advanced Components and Systems ($5.5 million).

            Distributed Power System Development

    Distributed Power System Development--$4.3M (down $0.8M from the 
fiscal year 2000 appropriation). The CSP Program is currently cost-
sharing the development and testing of two ``larger-scale'' (25kW) 
dish/engine designs for grid-connected applications. One industry team 
installed their first three units in 1999. These systems are currently 
undergoing reliability testing at utility sites in Arizona. A second 
industry team, with an alternate design, will operate and test several 
first-generation units in California while making component 
modifications and installing an advanced system in early 2001. Having 
two dish/engine technology teams strengthens the position of U.S. 
industry in their efforts to develop commercially viable products. 
Within the next three years, 25kW dish/engine systems will be providing 
power for an increasingly well defined market.
    Dish/engine technology is well suited to serve remote power needs 
where grid-connected power is not available. With initial system 
checkout completed in 1999 and off-grid capability achieved in 2000, 
the Concentrating Solar Power Technologies will complete the field 
installation and initiate testing of two second-generation 10kW dish/
engine units on Native American lands in Arizona and New Mexico in 
2001. This project will provide Native Americans with access to power 
where there is none, and create job opportunities through system 
manufacture, installation, operation, and maintenance. In addition, 
comprehensive studies have recently shown that residential markets in 
the Sunbelt offer opportunities for ``smaller-scale'' (1-5kW) CSP 
systems. To initiate R&D in this area, competitive solicitations were 
issued in fiscal year 2000 to both universities and private industry to 
explore alternative solar dish-based system concepts. Prototype design 
efforts will begin in fiscal year 2001.

            Dispatchable Power System Development

    Dispatchable Power System Development--$5.2M (down $0.8M from the 
fiscal year 2000 appropriation). Concentrating Solar Power Technologies 
launched the USA Trough Initiative in fiscal year 1999 in order to work 
with a resurgent U.S. industry and achieve the first solar electric 
power for under 10 cents/kWh. Fiscal year 2001 activities include the 
development of innovative trough concepts and R&D on advanced trough 
components. CSPT is also working through U.S. industry with the current 
manufacturers of trough components to improve the reliability of 
receiver tubes and increase the performance of the solar collector. 
State-of-the-art components are being tested at California's working 
trough plants in fiscal year 2000, with new component designs expected 
in fiscal year 2001. Based on their low cost and ease of hybridization 
with fossil fuel, solar troughs are currently the leading candidate for 
MW-scale solar power projects, both domestically and internationally. 
Further, analysis by the World Bank suggests economical storage will 
greatly enhance the value of trough technology, especially in markets 
where solar-only dispatchable power is required. Accordingly, 
Concentrating Solar Power Technologies with U.S. industry to 
investigate both near-term and long-term storage options for trough 
plants.
    Recent events such as the ``royal decree'' in Spain (where the 
government is offering up to a 24 cents/kWh incentive for solar-only, 
dispatchable power), and the World Bank/Global Environment Facility 
approval of $200 million to support the installation of Concentrating 
Solar Power Technologies projects in four countries, have stimulated 
U.S. industry into forming strategic partnerships to capitalize on 
these near-term project opportunities. OPT will provide technical 
assistance to U.S. industry in all three technologies (troughs, towers, 
and dishes) to ensure the U.S. maintains a leadership role, in the form 
of jobs and manufacturing, as trough plants begin to enter world 
markets within the next three years.

            Advanced Components and Systems

    Advanced Components and Systems--$5.5M (up $1.4M from the fiscal 
year 2000 appropriated level). Advanced research on high-efficiency 
system designs and new component materials will produce the long-term 
technical advances required for Concentrating Solar Power Technologies 
to successfully compete in large-scale dispatchable and distributed 
power markets. Several broad-based competitive solicitations were 
issued to both universities and industry in fiscal year 2000 to 
diversify and strengthen the research base for the development of CSP 
technologies. Advances resulting from this work will enhance the 
technical and economic competitiveness of Concentrating Solar Power 
Technologies. This advanced research will provide the breakthroughs 
needed to achieve the long-term program goal of developing CSP 
technology capable of providing electric power in the 4-to-6 cents/kWh 
range. Balanced RD&D with laboratories, universities and industry 
working together will be employed.

Biopower/Biofuels
    We are requesting $48.0 million for Biopower programs in fiscal 
year 2001, an increase of $16.2 million. The program supports biomass 
energy projects aimed at principal markets of electric power and 
transportation. For biofuels transportation programs we are requesting 
$54.4 million. This RD&D effort will lead to cost competitive 
technologies for the production of renewable transportation fuels, in 
collaboration and partnership with industry, other government 
organizations, and academic institutions. Biopower and Biofuels are two 
of the core programs that participate in the Bioenergy and Biobased 
Products Initiative as previously discussed in my testimony.

Wind Energy Systems
    The fiscal year 2001 funding request for the Wind Energy Systems 
program is $50.5 million, an increase of $18.0 million over the fiscal 
year 2000 appropriation. This increase reflects our belief that wind 
energy technology offers an important opportunity for America to gain 
important and substantial economic, environmental, and energy security 
benefits. While wind energy growth has been rapid and consistent on a 
worldwide basis during recent years, its growth in the U.S. remains 
highly uncertain as electric power markets deregulate and place 
increased emphasis on low cost of energy production. The key to 
positioning wind as an important clean energy technology for U.S. 
industry and competitive power markets, as well as export markets, is 
the innovative, world-class research being carried out under the Wind 
Energy Systems program. An essential near-term focus of these efforts 
are the program's partnerships with industry to develop wind turbines 
capable of producing energy as low as 2.5 cents per kWh at sites with 
good winds. This will help substantially in leveling the playing field 
in competition for new energy supply in the U.S. For wind to realize 
its full potential for America, Wind Energy Systems is continuing 
emphasis on completing the R&D that will further reduce costs, and 
thereby expand the range of wind resources that can be economically 
harnessed.
    In fiscal year 2001, we will begin implementation of WindPowering 
America, an aggressive activity with the goal of installing power 
generation facilities that will produce 5 percent of America's 
electricity by 2020. Next Generation Turbine research and development 
activities will accelerate to help achieve the market-driven 2002 goal 
of 2.5 cents per kWh on good sites.
    In fiscal year 2001, the Wind Energy Systems program will focus on 
applied research ($15.0 million), turbine research ($14.5 million), and 
cooperative research and testing ($21.0 million).

            Applied Research

    Applied Research (up $1.5 million from the fiscal year 2000 
appropriation) addresses fundamental engineering and technology issues 
with a broad range of applications, and is carried out at the national 
laboratories and numerous universities. Advancements to computer aided 
models for wind turbine design will be completed using key data 
obtained from full-scale turbine wind tunnel testing completed in 2000. 
The requested increase will accelerate the wind partnerships for 
advanced component technologies (WindPACT) project. The WindPACT 
project has identified promising wind turbine component and subsystem 
concepts for further development and testing. In 2001, industry 
partners will be competitively selected to fabricate and test these 
innovative component technologies in close collaboration with 
laboratory researchers. After performance and viability are proven 
through laboratory and field testing, the program will work with 
industry to incorporate WindPACT component technologies into leading-
edge wind turbines for commercial markets.

            Turbine Research

    Turbine Research (up $2.0 million from the fiscal year 2000 
appropriation) is a cost-shared cooperative program with industry and 
utilities that supports competitively-selected research, testing, and 
field verification needed for advanced technology wind turbines. The 
requested increase for turbine research will support continuing 
partnerships with five U.S. companies located in California, Oklahoma, 
Vermont, and Washington. Two companies are designing turbines under the 
next generation turbine project, which is targeted to lead to wind 
turbines in operation by 2002 that are capable of achieving a cost of 
2\1/2\ cents/kWh at 15 mph wind sites by 2002. In fiscal year 2001, 
these companies will be completing fabrication, installation, and 
beginning field testing of their engineering and manufacturing 
development prototype turbines. Field tests of two prototype turbines 
under the small wind turbine project will be completed, and efforts 
will begin to obtain field verification experience with the 
manufacturers early production units. The program will also carry out 
R&D and field verification on the cold weather wind turbine, with 
prototypes in operation at the National Wind Technology Center and in 
Alaska. The advance turbine concepts project will be launched in fiscal 
year 2001, which will allow U.S. industry to explore the feasibility of 
moving toward larger scale, multi-megawatt or other advanced turbine 
architectures in response to a major trend in the European wind 
industry.

            Cooperative Research and Testing

    Cooperative Research and Testing (up $14.5 million from the fiscal 
year 2000 appropriation) focuses on addressing the near-term R&D 
priorities of the U.S. wind industry. A key focus of this activity for 
2001 will be the Wind Powering America initiative, a commitment 
announced by the Secretary of Energy in June 1999 to dramatically 
accelerate U.S. wind energy use, with a goal of meeting 5 percent of 
the nation's total electricity needs from wind power by 2020. Wind 
power now represents a major economic opportunity for the United 
States. Substantially increasing the amount of wind generation could 
lead to: as much as $60 billion in capital investment in rural America 
over 20 years, generating $1.2 billion in new income for American 
farmers, Native Americans, and rural landowners; displacing 35 million 
tons of atmospheric carbon; and creating 80,000 permanent U.S. jobs in 
the wind industry. The initiative is a broad-based, regionally-tailored 
program involving close coordination with a multitude of stakeholders 
across the country to communicate the opportunity for economic 
development from wind technology, provide technical and market support 
for pilot projects, and facilitate development and purchase of wind 
generated power on federal facilities and Native American lands. 
Funding for the initiative will support both regional program 
development, as well as targeted projects and activities coordinated at 
the national level. EERE's six regional offices will play a key role in 
developing and implementing the regional components of the initiative 
using funding supplied by the Wind Program.
    In fiscal year 2001, support will continue for the world-class 
National Wind Technology Center (NWTC) in Colorado, which features a 
user facility that allows U.S. industries to expand testing of new wind 
energy technologies. A new wind performance monitoring network will be 
established to provide verifiable data on long-term performance of 
several large new wind projects. This information is needed for 
developing strategies to accelerate the use of wind energy under the 
new rules of the emerging competitive power markets. NWTC capabilities 
for providing accredited certification testing services will be 
expanded, and efforts will continue to support Underwriter's 
Laboratories (UL) in providing certification services to the wind 
industry. New wind turbine field verification projects will be 
undertaken to address unique siting, regulatory, technical, and market 
issues in key regions for wind power development. Under the 
international clean energy initiative, the Wind Energy program will 
support analytical efforts to maximize the benefits of grid-connected, 
distributed wind power, which is expected to be the prevalent mode for 
wind energy use in developing countries. In addition, performance of 
advanced wind hybrid power systems will be verified in remote off-grid 
and mini-grid applications in developing countries.

Renewable Energy Production Incentive
    The request for the Renewable Energy Production Incentive (REPI) is 
$4 million, a $2.5 million increase from fiscal year 2000 funding 
levels. Annual appropriations provide financial production incentives 
to stimulate the construction and operation of new, qualified renewable 
energy facilities owned by state entities, municipal utilities, and 
electric cooperatives that produce and sell electricity. We estimate 
that fiscal year 2001 payments to qualified Tier I facilities--which 
use solar, wind, geothermal or dedicated (closed-loop) biomass 
resources--will require approximately $0.3 million to pay for 
electricity generated and sold. Remaining funds will be applied to 
qualified Tier II facilities, and include non-dedicated (open-loop) 
biomass resources and landfill methane projects.
    REPI motivates the public power and electric cooperative sector of 
the nation's electric industry to make new investments in renewable 
energy. These highly leveraged investments in new renewable energy 
projects give important economic and environmental benefits to the 
local communities served. Moreover, these projects help move near-term 
deployment of renewable energy forward in a time of uncertainty due to 
electric industry restructuring. Continuing REPI payments is essential 
for continued progress in renewable energy deployment.
    However, a legitimate concern exists regarding the need to improve 
the incentive value of the REPI program. Unlike the certainty of a tax 
credit, the uncertainty associated with future REPI payments based on 
potentially variable annual appropriations does make it harder for a 
qualifying utility to convince financiers to provide long-term 
financing. The program will explore whether changes in the authorizing 
law would be needed to create a better incentive value, and, likewise 
will also use administrative rulemaking procedures should this 
mechanism offer effective improvement opportunities.

Solar Program Support
    The fiscal year 2001 request for Solar Program Support is $6.5 
million (up $1.6 million compared to fiscal year 2000; excludes fiscal 
year 2000 funds for distributed power addressed under transmission 
reliability), $4 million at this level is for a competitive 
solicitation which would encourage innovative applications and field 
validation of renewable electric technologies, and $2.5 million is 
proposed for electricity restructuring.
    The $4 million requested for a competitive solicitation will speed 
early deployment of renewable technologies by seeking technology 
proposals on the best ways to use renewable technologies, either singly 
or in combination with other renewable technologies, or in hybrid 
configurations with fuel cells, natural gas or energy storage systems.
    The primary objectives of the competitive solicitation program are 
to: (1) prove the availability of clean, affordable, and reliable 
electric power supply options for the many remote and/or poor regions 
of the nation; and (2) obtain essential data on operational 
performance, reliability, and benefits of renewable energy and hybrid 
renewable energy systems in various geographic locations and climatic 
conditions.
    The information and experiences gained through this competitive 
solicitation will help overcome specific impediments to more widespread 
use of renewable electricity technologies. Currently, market 
penetration of renewable energy projects are hampered by the 
uncertainties of electric utility restructuring, the current low price 
and availability of natural gas, and improvements in gas turbine 
technology. The increasingly competitive restructured electric 
environment also favors technologies with low capital costs over 
technologies with higher capital costs, but lower life cycle costs. 
Rather than high technical or financial risk, the major hurdle often 
facing renewable energy projects is identification of renewable 
projects in the new marketplace that would allow acquisition of long-
term power purchase contracts and project financing.
    This highly-leveraged activity would designate two targeted areas 
for competitive awards, systems benefitting Native Americans and 
systems addressing the needs of federal facilities, in addition to 
providing for an open solicitation for other applications of these 
systems. Remote power needs will continue to be addressed in all 
segments of this solicitation. Of the $4.0 million proposed for fiscal 
year 2001, up to $2.0 million of the solicitation will be dedicated to 
projects benefitting Native Americans. Native American projects will 
require a minimum 20 percent cost-sharing, and the open portion of the 
solicitation will require at least 75 percent non-DOE funding. For a 
number of reasons, there are tremendous synergies between renewable 
energy technologies and the energy needs of Native Americans. Renewable 
resources such as solar and wind are often abundant on tribal lands. In 
addition, Native Americans often have substandard or, in some cases, no 
electricity service at all. Renewable energy technologies can often 
provide the most cost-effective option for providing electricity on 
tribal lands and can also be a source of employment for tribes 
installing and operating such systems on-site.
    The fiscal year 2001 budget request for electricity restructuring 
is $2.5 million, which represents an increase of $1.5 million over 
fiscal year 2000 appropriations. The fiscal year 2001 electricity 
restructuring activity consists of two parts, the Technical Analysis 
and Assistance activity (request of $1 million), and the International 
Clean Energy Initiative (request of $1.5 million).
    The mission of the technical analyses and assistance activity is to 
provide unbiased technical analyses and assistance to Federal, Native 
American, and state officials on electricity restructuring issues with 
a primary focus on public purpose programs, particularly those relating 
to renewable energy and energy efficiency. This work is critical to 
renewable and energy efficiency technologies because the emerging 
restructured electricity markets and changes in the state laws and 
regulatory rules will have a major impact on future technology 
deployment.
    The transition to competition in electricity markets is challenging 
for a number of reasons due to the technical complexity of the 
electricity system, the intricate web of federal, state, and local laws 
and regulations, and regional differences. As a consequence, policy 
makers at all levels of government are requesting analyses and 
technical assistance on a portfolio of market and policy mechanisms to 
achieve their restructuring goals. Although each state and region face 
unique electricity policy challenges, there are many common issues. 
Furthermore, many states lack the resources and expertise needed to 
address the complexities of electricity restructuring and to keep track 
of what other States are doing. Consequently, it is often more cost-
effective and efficient for certain technical assistance and analysis 
to be provided at the Federal level rather than duplicated on a state-
by-state basis.
    In fiscal year 2001, the OPT proposes to add a component ($1.5M) of 
the international clean energy initiative to the electricity 
restructuring program. This international clean energy initiative will 
allow credible analysis of key utility restructuring concepts in the 
United States and their successful transfer to evolving electric 
markets in other countries. Technical reports, conferences, training 
workshops, and other communication mechanisms will be used to transmit 
the information from the analyses to as wide an audience as possible. 
Regional networking activities will be developed that include existing 
regulatory authorities as well as newly-established regulatory agencies 
from Central and Eastern Europe and the Newly Independent States. 
Support will be provided for the measurement and analyses of the social 
costs of energy production, transportation, and consumption, and for 
the social costs of rural electrification programs. The successful 
transfer of these key utility restructuring concepts will facilitate 
the increased use of U.S. energy technologies in these markets, thereby 
increasing the benefits of investments in our energy R&D programs.

International Renewable Energy
    The fiscal year 2001 budget request for International Renewable 
Energy is $11.5 million, an increase of $7.7 million from $3.8 million 
in fiscal year 2000. The mission of this activity is to encourage 
acceptance and use of renewable energy technologies by developed and 
developing countries in support of U.S. national interests and 
policies. With World Bank estimates indicating developing countries 
alone will require five million MWs of new electricity capacity over 
the next four decades (the world's total installed capacity today is 
three million MWs), international markets will provide growing 
opportunities for U.S. sales of advanced renewable energy and energy 
efficient technologies and domestic job creation. And these same 
technologies also hold the greatest potential for reducing emissions 
and mitigating global climate change.
    International Renewable Energy will expand U.S. renewable energy 
and energy efficiency technology exports to help meet the energy needs 
of developed and developing countries, reduce the rate of consumption 
of finite global resources, and address local and transnational 
environmental issues. Refocused in response to Congressional direction, 
the International Renewable Energy activity will be restructured into 
three broad program areas: emerging global environmental and energy 
issues; facilitating market and trade development; and advancing U.S. 
energy and environmental security interests.
    The emerging global environmental and energy issues will be 
implemented specifically through and in conjunction with the U.S. 
Initiative on Joint Implementation (USIJI). USIJI is a DOE-co-led 
interagency activity that supports the development of flexibility 
mechanisms under the U.N. Framework Convention on Climate Change 
(UNFCCC) such as Joint Implementation. This element will also focus on 
encouraging meaningful participation by developing countries in the 
effort to reduce worldwide greenhouse gas emissions.
    The market and trade development element will accelerate reductions 
in U.S. technology production costs and advance clean energy technology 
deployment through overseas market expansion. Activities will focus on 
stimulating global economic development and regional economic 
stability, and accelerating domestic economic growth, market 
competitiveness, and employment. This element will be implemented in 
key regions through bilateral (e.g., Gore-Mbeki in South Africa) and 
multilateral (e.g., Asia Pacific Economic Cooperation, Hemispheric 
Initiatives and International Energy Agency) technology cooperation 
activities and information exchange and dissemination. Private sector 
technology development will be encouraged while seeking opportunities 
for leveraging U.S. funds and stimulating deployment in strategic and 
emerging markets through project-based activities.
    The energy and environmental security element is designed to 
advance U.S. strategic interests in bilateral and multilateral energy 
and environmental security activities and will provide specialized 
assistance in the utilization of appropriate technologies. This element 
will be implemented in support of existing and emerging bilateral and 
multilateral treaties and agreements. This element will also assist DOE 
in meeting U.S. obligations and commitments to provide disaster relief 
and assistance by facilitating private sector technology development 
and deployment in strategic and emerging markets.
    International Renewable Energy also includes the International 
Clean Energy Initiative (ICEI). This Initiative was discussed 
previously in my statement.

National Renewable Energy Laboratory (NREL)
    The National Renewable Energy Laboratory is a world class facility, 
but is losing stature because of a slowly degrading physical plant. The 
fiscal year 2001 request of $1.9 million for the National Renewable 
Energy Laboratory (NREL), (a 72.7 percent increase from the fiscal year 
2000 appropriation), includes the necessary repairs, maintenance, 
upgrades, new construction and facility modifications to protect the 
federal government's investment and ensure that NREL remains the 
nation's exemplary center for R&D of energy efficiency and renewable 
energy technologies. The request will fund: replacement of a Nuclear 
Magnetic Resonance Spectrometer which is essential scientific 
equipment; information technology equipment upgrades and replacements; 
a substantial upgrade of the fire detection and response capabilities 
in the Field Test Laboratory Building, NREL's oldest building; and a 
substantial addition to the Site Entrance building to house additional 
security personnel and equipment.

Geothermal Energy Technologies
    The Geothermal Energy technologies request for fiscal year 2001 is 
$27 million, an increase of $3.4 million over fiscal year 2000 
appropriation levels. Geothermal Energy technologies works in 
partnership with U.S. industry to establish geothermal energy as a 
sustainable, environmentally sound, and economically competitive 
contributor to the U.S. and world energy supply. These joint efforts 
sponsor R&D that leads to advanced technologies to improve reliability, 
reduce environmental impacts, and lower costs of geothermal energy 
systems. Competition is key to the cost-effective management of 
geothermal R&D activities. Virtually all participants sponsored or 
funded by Geothermal Energy technologies outside the national 
laboratories will be chosen through competitive solicitations. The 
budget request supports three key goals: (1) reduce the levelized cost 
of generating geothermal power to 3-5 cents per kilowatt-hour by 2007; 
(2) double the number of states with geothermal power facilities to 
eight by 2006; and (3) supply the electrical power or heat energy needs 
of 7 million homes and businesses in the United States by 2010. The $27 
million request is allocated among: geoscience and supporting 
technologies ($11 million); drilling research ($5.5 million); and 
energy systems research and testing ($10.5 million).
    Based on the excellent potential of geothermal resources in 19 
western states, GeoPowering the West will be launched in fiscal year 
2001. The goal of this Initiative, providing 10 percent of the 
electricity consumed in western states by 2020, could be realized 
because it is estimated that about 300 cities and towns in the western 
U.S. are adjacent to geothermal deposits. Research and development 
activities to improve drilling efficiencies and recycling of waste-
water will be accelerated.

            GEOSCIENCE AND SUPPORTING TECHNOLOGIES RESEARCH

    Geoscience and supporting technologies research ($11 million) will 
continue to improve and expand our knowledge base of how geothermal 
systems form and evolve. This knowledge is essential to finding and 
using geothermal resources in the most efficient and economic manner. 
The enhanced geothermal systems project will verify industry's most 
promising conceptual designs in cost-shared field experiments. These 
experiments will focus on extending the productivity and lifetime of 
geothermal reservoirs through rock fracturing and fluid injection. 
Exploration technology will remain a strong focus of the program with 
continued collaboration with industry on 3D-seismic techniques to 
locate and characterize new geothermal fields. Various geophysical 
exploration methods will be integrated to develop smart systems which 
will select more reliable targets. Greater effectiveness in locating 
geothermal resources will reduce the number of costly, non-productive 
wells.

            DRILLING RESEARCH

    Under drilling research ($5.5 million), Geothermal Energy 
technologies will give highest priority to development of the 
geothermal advanced drilling system which will give economic access to 
the extremely large geothermal resources contained in rocks at great 
depth. One element of the Geothermal Advanced Drilling System is a high 
speed data link that will transmit a variety of real-time drilling data 
to the surface for decision making while drilling. About 50 percent of 
the cost of developing the high speed data link will be provided by 
major private sector partners.

            ENERGY SYSTEMS RESEARCH AND TESTING

    Energy systems research and testing ($10.5 M) will see a major 
expansion in fiscal year 2001 as Geothermal Energy technologies seeks a 
broader, more substantial role for geothermal energy in the nation's 
economy. Field verification of small-scale geothermal power plants (<1 
MW) will bring about the use of geothermal energy in new locations. 
This effort is key to achieving the goal of doubling the number of 
states with geothermal power facilities by 2006. Geothermal Energy 
technologies will help U.S. industry to bring the benefits of 
geothermal energy to developing countries through the international 
clean energy initiative. Prefeasibility studies, resource assessments, 
technical assistance and outreach to enable countries to make informed 
decisions about the use of their resources will be used.

Hydrogen Technologies
    The request for Hydrogen Technologies is $23 million, a decrease of 
$2.0 million from the fiscal year 2000 appropriation. Industry is 
investing substantially in both hydrogen production systems and the 
development of the Proton Exchange Membrane (PEM) fuel cells that 
require a hydrogen stream to operate. In a recent announcement, DOE 
joined the California Fuel Cell Partnership. This Partnership is 
comprised of the State of California (Air Resources Board and Energy 
Commission), auto manufacturers (Daimler Chrysler, Ford, Volkswagen, 
and Honda), energy providers (ARCO, Texaco, Shell), and a fuel cell 
company (Ballard Power Systems). By 2003 the Partnership will test 20 
fuel cell-powered buses and 50 fuel cell-powered light duty vehicles in 
regular service. These ventures will lead to early commercial 
activities for the distributed production, storage and utilization of 
hydrogen by 2003.
    Hydrogen technologies is authorized by the Hydrogen Future Act of 
1996 to fund those projects which are evaluated on a competitive basis. 
In fiscal year 2000, the Department funded 94 percent of the projects 
in Hydrogen technologies competitively. The fiscal year 2001 request 
will support a balanced portfolio to increase market penetration of 
renewable/hydrogen energy systems and hydrogen-powered vehicles, and 
long-term research and development in the production of hydrogen from 
renewable resources through a similar competitive process. The program 
focuses on three key activities: core research and development ($13 
million), technology validation ($7.5 million), and analysis and 
outreach ($2.5 million).

            CORE RESEARCH AND DEVELOPMENT

    Core research and development (down $0.4 million from the fiscal 
year 2000 appropriation) supports R&D on hydrogen production, storage 
and utilization. The funding will support thermal conversion processes 
that produce hydrogen from natural gas with a 25 to 35 percent decrease 
in the cost of producing hydrogen over conventional processes and long-
term research programs for photobiological and scaled-up 
photoelectrochemical processes. These key activities, in conjunction 
with the industrial development of the PEM fuel cell, will enhance the 
ability of the industry to consider low-cost hydrogen options for the 
power, industry and transportation market sectors by 2004.
    Hydrogen storage R&D is focused on developing and field validating 
hydride and carbonaceous materials for the high density storage of 
hydrogen at low temperatures for power and transportation applications. 
The funding will support one project to characterize the properties of 
compressed hydrogen in a series of environmental tests and compare the 
results to other gaseous fuels.
    Utilization technology research is focused on developing and 
demonstrating end-use power systems that are safe, and have near-zero 
or zero emissions with an overall generation efficiency greater than 45 
percent. A newly developed solid state hydrogen detector will be 
fabricated and integrated with a new, low-cost PEM fuel cell for a 
field test.

            TECHNOLOGY VALIDATION

    Technology validation (down $1.3 million from the fiscal year 2000 
appropriation) supports 50/50 cost-shared ventures with industry on 
hydrogen vehicle fueling stations, vehicle-mounted hydrogen storage 
systems, reversible fuel cells to operate with renewable systems, and 
small hydrogen fuel cell systems for remote power applications. The 
fiscal year 2001 request supports the operation of a reversible fuel 
cell with 60 percent round-trip efficiency; the incorporation of high-
pressure hydrogen storage on vehicles; the completion of a quick-fill 
refueling station to service shuttle buses as well as the installation 
and testing of a PEM fuel cell system to provide on-site power in Las 
Vegas, Nevada; and the design and construction of small-scale fuel 
cells for remote applications.

            ANALYSIS AND OUTREACH

    Analysis and outreach conducts scenario planning, portfolio and 
technology analyses to determine what steps are required to transition 
to a hydrogen energy economy. Technology analyses will periodically 
review specific areas (i.e., photoelectrochemistry, storage, etc.) to 
ensure that research is of high quality and of significance to the 
overall objectives of the program.

Hydropower Technologies
    For fiscal year 2001, the Department is requesting $5.0 million for 
Hydropower Technologies, an increase of $0.79 million over fiscal year 
2000 funding. With this funding, Hydrogen Technologies will continue 
proof-of-concept testing of an innovative, ``fish-friendly'' turbine 
design (competitively selected in earlier activities) and continue 
experiments to develop biological performance criteria for advanced 
turbine design, as well as testing small environmentally-friendly 
turbines. OPT will also initiate the competitively selected testing of 
large ``fish-friendly'' turbines to determine operational environmental 
performance.
    Once complete, these new turbines can replace equipment at existing 
facilities where fish mortality concerns may cause a reduction in 
generation. Hydropower provides approximately 10 percent of the total 
U.S. electricity generation today. Diminished power production from 
this clean baseload power resource would have serious environmental and 
economic impacts on America. This cost-shared program with industry 
would maximize power generation from our existing hydropower facilities 
and help develop an important export market for U.S. companies.

Renewable Indian Energy Resources
    The fiscal year 2001 budget request for the Renewable Indian Energy 
Resources program is $5 million, an increase of $1.1 million from 
fiscal year 2000. Funding in fiscal year 2000 was earmarked for four 
projects in Alaska. America has over 550 tribes and many do not have 
access to clean, reliable, efficient sources of electricity. In fiscal 
year 2001, funds will be used to initiate the tribal energy program 
which will enable Native American Tribal governments, and organizations 
to gain expertise in energy planning capabilities, particularly for 
remote settings, and in developing both conventional and renewable 
energy resources.
    This effort reflects DOE's commitment to a government-to-government 
relationship as expressed in its American Indian Policy. Inadequate 
recognition and insufficient energy services on Native American lands 
are well documented even though many reservations have an abundance of 
fossil and renewable energy resources. Historically, Tribes have not 
had ready access to energy development, energy efficiency, and 
renewable energy assistance.
    The primary goal of the Tribal energy program will be to provide 
tribal governments the same supportive framework that is now in place 
for the states as in DOE's state energy program which funds projects 
through state energy offices across the country. It will serve as a 
focal point for a wide range of activities that promote a cleaner 
environment, provide economic development enhancement opportunities, 
and efficient use of Tribal energy resources consistent with cultural, 
Tribal, and environmental concerns.

Electric Energy Systems and Storage
    For Electric Energy Systems and Storage, $48.0 million is requested 
in fiscal year 2001, an increase of $10.2 million from fiscal year 
2000. This activity is working with partners to develop advanced power 
delivery systems that will enable the efficient and reliable delivery 
of electric services for consumer use. The effort includes transmission 
reliability research ($11.0 million), high temperature 
superconductivity ($32.0 million), energy storage systems ($5.0 
million), and climate challenge (no funds requested).
    Within DOE, the Secretary has established an Energy Grid 
Reliability Initiative to address the growing number of electric power 
blackouts and brownouts, as well as the quality of electricity that is 
delivered. This initiative addresses the critical R&D needs for energy 
delivery systems. The electricity component of this initiative consists 
of transmission reliability (power system reliability and distributed 
power) and energy storage systems. The transition to restructured, 
competitive electric markets coupled with growing consumer demand for 
electricity and constraints in the nation's transmission and 
distribution systems, requires the development of an integrated set of 
advanced power delivery system technologies to enable the reliable 
delivery of electric services for consumers.
    Overcoming regulatory, technical, and institutional barriers to 
distributed power will provide more efficient use of the power delivery 
system by producing electricity close to its point of use. The 
development of lower cost, high performance power electronic 
controllers coupled with advanced energy storage systems will provide 
improved power quality; provide an ability to fully integrate and 
reliably operate the power delivery system with the full spectrum of 
central and distributed generation technologies; and enable real-time 
systems control of the existing transmission and distribution systems 
to result in additional operational capacity, security, and 
reliability.
    The development of high temperature superconducting equipment will 
significantly reduce losses in the generation, delivery, and end-use of 
electricity and will relieve power delivery system constraints, 
particularly in urban areas, through the deployment and use of very 
high capacity transmission and distribution cables in key locations.
    The fiscal year 2001 budget request for transmission reliability 
research is $11.0 million, an increase of $8.0 million from the fiscal 
year 2000 appropriated level. Transmission reliability has two key 
activities: power system reliability ($8.0 million), and distributed 
power ($3.0 million).

            POWER SYSTEM RELIABILITY

    Power system reliability (up $5.5 million from the fiscal year 2000 
appropriated level) will develop advanced measurement/information 
systems and advanced power electronic controls to monitor and control 
the power delivery system in real-time, and facilitate the operation of 
efficient electric markets. In addition to the program carrying out 
activities to determine how new market structures are affecting grid 
reliability, it will develop reliability technologies and policy 
options to provide incentives for market participants to invest in 
adequate power system upgrades and R&D to assure reliable electric 
power delivery in the future. Real time control of the power delivery 
system will also facilitate the integration of distributed resources 
into the system, providing individual customers the opportunity to 
supply their own energy, enhance system reliability, and sell energy in 
a competitive market.

            DISTRIBUTED POWER

    Distributed power (down $0.5 million from the total fiscal year 
2000 funding when $3.0 million Solar Program Support fiscal year 2000 
appropriations for distributed power are included in the calculations) 
continues multi-year cooperative efforts with industry initiated under 
a competitive solicitation to address barriers to the use of 
distributed generation. These efforts focus on the development of 
advanced technologies for the interconnection of distributed power 
generation systems; modeling; and conducting engineering analyses, case 
studies, testing and evaluation to accelerate the development and 
validation of a national interconnection standard.
    It is anticipated that transmission reliability activities will 
last five to ten years in order to ensure that R&D for reliable systems 
and competitive markets is maintained until new market and/or 
regulatory structures are established and provide the incentives for 
the private sector to assume this work. The program will be reassessed 
each year to determine the need for federal involvement depending on 
the nature and implementation needs of new regulations, and the impact 
of market forces

            HIGH TEMPERATURE SUPERCONDUCTIVITY

    The fiscal year 2001 budget request for high temperature 
superconductivity is $32 million, an increase of $0.6 million. Funding 
for this program is divided between the superconductivity partnership 
initiative ($14.0 million), second generation wire initiative ($8.0 
million), and strategic research ($10.0 million). The program is on 
track for accomplishing two major technological goals: solving the 
difficult problem of manufacturing electrical wires from high-
temperature superconducting materials while, in parallel creating 
designs of super-efficient electrical systems. The outcome will be 
resistance-free electrical wires able to carry 100 times the current of 
conventional alternatives and advanced systems that have only half the 
energy losses, are half the size of conventional alternatives of the 
same power rating, and cut energy losses in half.
    The Superconductivity Partnership Initiative will support seven 
major projects to develop first-of-a-kind electrical systems that can 
provide quantum improvements to the efficiency and capacity of the 
national electrical grid. These include transmission cables, 
transformers, large motors, flywheel energy systems, and magnetic 
separation systems. The revolutionary equipment emerging from the 
program in the 2005--2010 timeframe will play a major role in meeting 
the new demands of a competitive electricity industry for increased 
capacity and reliability. Superconducting cables will relieve 
congestion at critical parts of the grid as well as improve delivery 
efficiency. They will also accommodate load growth in urban areas by 
repowering existing infrastructure ducts without the need for acquiring 
new property. Superconducting transformers will accommodate increased 
demand for electricity without the need for construction of new 
substations and will protect against accidental fault currents that now 
cause serious damage and power outages.
    The Second Generation Wire Initiative is crucial to producing 
superconducting wire that meets the program's performance goals. Four 
industrial consortia will be working with the national laboratories to 
scale up recent discoveries that are the basis for this initiative. 
Private sector participants leverage program funds with 50 percent 
cost-sharing.

            STRATEGIC RESEARCH

    The strategic research element (up $0.6 million from fiscal year 
2000 appropriations) is the incubator for discoveries and innovations 
that have characterized this successful program. The activities 
supported include in-house national laboratory research and research 
carried out collaboratively with private companies under 50 percent 
cost-shared agreements. The requested level of funding will adequately 
support multi-disciplinary research teams that have made major 
breakthroughs in the past, and will also support a number of 
cooperative research projects with industry. Important leveraging is 
obtained through integrating research funded by the DOE Office of 
Science and leveraged research at two NIST (National Institute of 
Science and Technology) laboratories where each program dollar is 
matched by two NIST dollars. The funding increase will be used to 
initiate high priority tasks identified in the cryogenic roadmap. 
Efficient and reliable cryogenic systems that also meet performance 
needs are needed for all superconducting power applications.

            ENERGY STORAGE SYSTEMS

    The $5.0 million request for the energy storage systems program (up 
$1.6 million from the fiscal year 2000 appropriation) will fund focused 
research on energy storage technologies which will be integrated with 
the power electronic control development under power system reliability 
to improve power delivery system reliability and operation, improve 
power quality, and enhance technology choices in a competitive utility 
environment. Program emphasis will be placed on battery systems 
integration and on the development and evaluation of advanced storage 
technologies. All projects will be carried out in close cooperation 
with industry.
    No funding is requested for the Climate Challenge program in fiscal 
year 2001.

                 DEPARTMENTAL ENERGY MANAGEMENT PROGRAM

    In today's environment where the electricity industry is being 
restructured, the reliability of the nation's energy supply is 
variable, and energy prices are fluctuating, DOE must have new 
strategies for improving energy efficiency and managing utility costs. 
The Federal Energy Management Program is requesting $5 million in 
funding to support a new initiative to manage both the utility demand 
and supply functions at DOE sites.
    This fiscal year 2001 budget request for a Departmental Energy 
Management Program (DEMP) will allow DOE to fund energy and efficiency 
projects at 71 DOE sites across the nation, develop model programs for 
energy efficiency and utilities management, and expand the use of 
energy savings performance contracts. We will evaluate renewable, 
natural gas and on-site use of combined heat and power to increase the 
reliability of our supply. We will evaluate and retrofit DOE office 
buildings to acquire Energy Star labels, actively participate in the 
procurement of energy efficient products, demonstrate the use of energy 
efficient technologies at DOE sites, and request cost-effective green 
power in our competitive electricity procurements.
    Our experience to date informs us that smart energy management--
managing both the demand and supply aspects of utilities--is good 
business. Our total utility bill in 1985 was $330.7M. In 1998 our total 
bill was $257.0M--almost $74 million less. If we had done nothing to 
conserve energy and our energy consumption today were the same as 1985, 
our utility bill today would be $225M higher. This equates to a 47 
percent reduction in utility costs in 1998 dollars.
    We have already reduced our federal energy consumption by 36 
percent compared to 1985. This budget request will continue our 
movement toward reducing our energy use by 40 percent in 2005, while 
providing energy and water cost savings for the government and the 
taxpayer. Funding for this program will allow DOE to demonstrate strong 
leadership in energy management.

                           PROGRAM DIRECTION

    Program Direction provides the federal staffing resources and 
associated funding to support the management and oversight of the Solar 
and Renewable Energy Programs. This activity includes all funding for 
support service contractors, equipment, travel, crosscutting 
activities, and Assistant Secretary initiatives. This permits the 
continuation of a diverse array of Solar and Renewable projects to be 
integrated into a national portfolio of world renowned research. 
Program Direction encompasses two principal activities: (1) 
headquarters executive and program management; and (2) program 
operations at the Golden Field Office and the Idaho Operations Office. 
We have requested $18.159 million for this activity.
    The fiscal year 2001 request provides for continued implementation 
of Workforce 21 increases to off-set the adverse impacts of prior 
downsizing. In addition, EERE has adopted smarter, more effective 
business and management practices and, as revealed in a workforce 
analysis, these efforts have greatly reduced the need for most--but not 
all--of the staff lost due to downsizing. EERE's Workforce 21 strategy 
is to concentrate the majority of the critical hires to the technical 
and professional category, leaving the clerical/administrative, and 
manager/supervisor staffing levels virtually the same.

                               CONCLUSION

    Thank you once again, Mr. Chairman, and members of the Subcommittee 
for the opportunity to discuss our fiscal year 2001 budget request. I 
hope you agree that the management improvements we have instituted--and 
continue to refine--are enhancing the value received by American 
citizens for their investment. We can now build on past success while 
planning for the future. The promise of clean energy technologies is 
clear and an increased commitment by the public and private sectors is 
needed to realize the full benefits of our investment. We will redouble 
our efforts to move our nation closer toward our goal of Clean Energy 
for the 21st Century.

                    STATEMENT OF WILLIAM D. MAGWOOD

    Senator Domenici. Mr. Magwood.
    Mr. Magwood. Thank you, Mr. Chairman, members of the 
subcommittee.
    Senator Domenici. I want to compliment you on your office, 
also. Obviously, we do not spend a lot of money there yet, but 
I really think your leadership is making a dent of a positive 
nature. And I appreciate it very much.
    Mr. Magwood. I appreciate those comments, Mr. Chairman. I 
am pleased to be here today to talk about our 2001 budget 
request. Our written statement has a great deal more 
information for the record.
    First, I would like to thank you, Mr. Chairman, and the 
subcommittee for the vision that you have shown over the last 
couple of years in helping us revitalize the nuclear energy 
program. As you know, the nuclear energy program has gone from 
being one of the biggest programs in DOE at over half a billion 
dollars a year funding in about the early 1980s down to a low 
point in 1998 at almost zero. We have recovered significantly 
since then and I think we are moving in the right direction.
    With your support, the Department has led a resurgence 
internationally in the investigation of a wide range of nuclear 
technologies, and it has reenergized the research community in 
this country. We have seen hundreds of researchers with new, 
creative ideas compete for our NERI awards.
    We have seen the downward slide in the numbers of nuclear 
engineering students halted and a new option for nuclear 
education brought to students who never had that opportunity 
before. We have seen the international research community race 
to collaborate with us to develop Accelerator Transportation of 
Waste, and to provide additional funds to companies, 
universities and labs, and universities and companies in the 
United States who are working on DOE-funded research.
    DOE research has been very successful over the decades, Mr. 
Chairman. We have invested about $7 billion in the commercial 
light water reactor technology over the decades. And as a 
result, nuclear energy now provides about 22.8 percent--which 
is a high point for nuclear energy--of all the electricity 
generated in this country. Most nuclear power plants now 
generate electricity at around 1 cent per kilowatt hour, which 
is quite an accomplishment.
    The private sector has made great strides in reducing their 
costs. And a big success was achieved last month with the 
renewal of the license for the Calvert Cliffs Nuclear Power 
Plant. So we are very optimistic about the future. However, I 
think that we still have a lot of issues to deal with.
    For nuclear energy to expand in the future, we must deal 
with many important issues, such as the cost of constructing 
new plants, concerns about proliferation, and the issue of 
nuclear waste. All these must be addressed in order for nuclear 
energy to expand.
    But as you know, the inherent environmental benefits of 
nuclear are prompting new discussions across the world about 
the future of nuclear energy, as the world focuses on issues 
such as clean air, reducing CO<INF>2</INF> emissions, reducing 
ground-level ozone, and preventing acid rain. Nuclear power 
provides a real option to deal with these issues.

                   NUCLEAR ENERGY RESEARCH INITIATIVE

    At the core of our activities, we successfully launched the 
Nuclear Energy Research Initiative, or NERI, program. NERI is 
an investigator-initiated peer reviewed research program to 
advance revolutionary nuclear power technologies. There are 
currently approximately 46 research projects under way at 20 
universities, 8 research labs and 14 private sector companies 
working individually and collaboratively.
    This year we received proposals for another 120 projects. 
From these we will select the best and most creative 7 or 8 
proposed projects. Our fiscal year 2001 budget request would 
enable us to increase the number of research activities by more 
than 70 by the end of the next fiscal year.

                  GENERATION IV NUCLEAR POWER SYSTEMS

    A major area of focus for the NERI program this year and a 
growing area of interest internationally are the Generation IV 
nuclear power systems. Generation IV, which has become the 
worldwide lexicon to describe nuclear power systems that will 
be competitive with natural gas and other energy options for 
the future, use safe proliferation resistant technologies to 
provide a greater range of options for nuclear power across the 
world.
    In January, senior policy representatives from eight 
governments came to the United States to discuss the prospects 
for Generation IV and consider how we might work together to 
achieve its goals. We provided you in the package a joint 
statement issued by the representatives of the governments of 
Argentina, Brazil, Canada, South Africa, South Korea and the 
United Kingdom, as well as the United States, that initiates a 
multilateral consideration of this important subject.
    Last week international experts from these countries met 
again in Washington to discuss the research under way in our 
respective countries and how multilateral research on 
Generation IV technologies could be conducted. Next month about 
100 experts from the United States and these countries will 
meet to discuss the criterion attributes of Generation IV 
technologies. These activities will result in the preparation 
of a Generation IV roadmap which we plan to begin developing 
this fall. A proposed international NERI program could be the 
center point of this international effort.

                           MEDICAL IOSOTOPES

    Shifting now to another major focus of my office--medical 
isotopes. Many people do not know the enduring role the 
Department has served in developing, producing and delivering 
isotopes for research, medical diagnosis and treatment. Using 
our facilities at Los Alamos, Sandia and other sites, we are 
the provider of virtually all the important emerging medical 
isotopes available to American researchers.
    And this chart, which I think you will find particularly 
interesting, demonstrates that we have a wide range of emerging 
isotopes that are now under examination by researchers across 
the country. And it could some day lead to cures of everything 
ranging from breast cancer to prostate cancer to colonrectal 
cancer and many other maladies.
    Medical isotopes are a staple in today's advanced American 
medical infrastructure. Use of isotopes will expand 
dramatically in the future. A report issued by our advisory 
committee, NERAC, projects the demand for medical isotopes will 
dramatically increase in this century, growing 8 to 17 percent 
each year over the next 20 years. Unfortunately, despite the 
fact that the cure for many terminal illnesses, including brain 
and prostate cancers, may be laying in wait in our isotope 
program, funding for this program has been dropping 
dangerously.
    In the past, we were able to rely on revenues from the sale 
of commercial isotopes. But we are privatizing the commercial 
part of our program aggressively, and far less revenue comes in 
from researchers we are committed to support.

              ADVANCED RADIOISOTOPES POWER SYSTEMS PROGRAM

    Even more disturbing trends have been experienced by our 
advanced radioisotope power systems program. For almost 40 
years the department has provided the power systems needed for 
space exploration and important ongoing national security 
applications.
    The unique characteristics of these systems make them 
especially well suited for application where large arrays of 
solar cells or batteries are not practical. For example, at 
large distances from the sun, where there is little sunlight, 
or in harsh environments.
    You may have heard of NASA's decision to once again extend 
the mission of the Galileo spacecraft. And there are plans to 
pair it with the Cassini probe for observations of the planet 
Jupiter later this year. You may not have heard that because of 
the truly remarkable performance of our power systems, the 
Pioneer spacecraft launched in 1972 and now 7 billion miles 
away is still sending signals to earth and will soon pass 
through the heliosphere, the very outer edge of the solar 
system.
    Senator Reid. How many miles away?
    Mr. Magwood. Seven billion. It is the farthest manmade 
object to exist. And we are still in communication with it, 
since 1972.
    But if we are to continue and expand our success, we must 
maintain an adequate infrastructure. While NASA and other users 
pay all the costs associated with actually providing these 
systems, DOE owns and must maintain the infrastructure to 
develop, build and test them.
    In recent years, the program has seen its budget drop 
dangerously. I would hope that we here today would not want it 
said that for the lack of a relatively small annual investment, 
we close the doors to space exploration for succeeding 
generations.
    While our budgets are shrinking, the future is calling for 
action. Most of the key missions for U.S. space exploration 
over the next 20 years, sustained exploration of Mars, human 
missions to the planets, nearly all the activities that capture 
the imagination of the American people, will require the use of 
space fission power systems. As illustrated by this chart, 
which we developed with NASA experts, the long lead time 
required for development of these power systems means we must 
begin our efforts very soon.
    We have proposed beginning with a very small, very modest 
interagency assessment of special purpose fission technology to 
determine the needs and requirements of these systems. With DOE 
leadership, other agencies are expected to participate, 
providing funds and personnel to support the effort. User 
agencies, such as NASA and DOD, will ultimately pay all the 
development costs. But because of the generic nature of these 
technologies and the expertise that exists at our laboratories, 
the responsibility falls to DOE to take the first critical 
step.
    In closing, over the last couple of years, we have made 
great strides in the nuclear energy program. We are very proud 
of how much we have accomplished with limited resources. Our 
program is firmly focused on the future, and we look forward to 
continuing to work with this subcommittee to bring that future 
closer. I look forward to answering your questions.
    Senator Domenici. Thank you very much.
    [The statement follows:]

                PREPARED STATEMENT OF WILLIAM D. MAGWOOD

    Mr. Chairman, and members of the Subcommittee: It's my pleasure to 
present the Department of Energy's fiscal year 2001 budget request for 
the Office of Nuclear Energy, Science and Technology. We are proposing 
a $306 million investment in fiscal year 2001 to conduct vital research 
and development; to enhance the Nation's science, technology and 
education infrastructure; and to manage NE's Federal nuclear facilities 
and materials.
    The investments we propose to make in nuclear energy, science and 
technology are driven by the recognition that nuclear technology serves 
the national interest for reliable, affordable and environmentally 
sustainable electricity; for space exploration and expanding our 
understanding of the universe; and for advancing isotopes for medical 
diagnosis and treatment of devastating illnesses.
    These investments are also based on the understanding that in order 
to meet the challenges and accelerate innovation in the 21st Century, 
we must begin today training and preparing tomorrow's scientists and 
engineers and providing focused investments in the science and 
technology infrastructure. Finally, these investments are based on the 
1997 and June 1999 recommendations of the President's Committee of 
Advisors on Science and Technology (PCAST) and DOE's Nuclear Energy 
Research Advisory Committee (NERAC).
    Mr. Chairman, this budget request builds on the Administration's 
and Subcommittee's investments of the last couple of years, with modest 
growth in our research initiatives to prepare for scientific innovation 
in this century and to continue rebuilding U.S. technology leadership, 
which had waned over the last decade. Principally, in fiscal year 2001 
we are requesting additional funding for Nuclear Energy Research 
Initiative (NERI), to enable support of more of the best ideas coming 
out of our universities, laboratories, and industry; and to launch an 
International-NERI program to leverage U.S. research activities on 
advanced nuclear technologies with new investments made by the research 
organizations of other countries. In total, we are proposing $56 
million for nuclear energy research activities in fiscal year 2001.
    This budget request also provides funding necessary to: begin 
design of depleted uranium hexafluoride conversion facilities; to 
maintain the Fast Flux Test Facility in a safe standby condition and 
begin implementing the Secretary's final decision on its future; 
continue implementing the decision made this year on whether to 
initiate full-scale treatment of DOE's remaining sodium bonded fuel; 
continue the Advanced Nuclear Medicine Initiative by providing critical 
isotopes and financial support for medical research; and maintain the 
support, research, and utility infrastructure at the Test Reactor Area 
and Argonne National Laboratory-West in Idaho.
    Mr. Chairman, I want to thank you for your leadership on this 
Subcommittee and for the commitment and support of the Subcommittee in 
advancing nuclear energy technologies. The last year of the last 
century was indeed a banner year for nuclear power. The Nation's 
existing nuclear power plants surpassed peak operating performance 
records set over the last few years, increasing plant capacity to 85.5 
percent. Nuclear plants generation increased to 728 billion kilowatt-
hours, setting an all-time record for their share of electricity 
generation--almost 23 percent of total generation. Additionally, the 
industry is aggressively and successfully moving forward with plant 
relicensing--extending operation of the fleet of existing plants 
another twenty years. Last month, with the unanimous vote of the 
Nuclear Regulatory Commission, the two Calvert Cliffs reactors in 
Maryland became the first in the Nation to have their operating 
licenses renewed. All of these significant changes and accomplishments 
bode well for continued use of nuclear power in the U.S. Also on the 
Federal front, with the Committee's support, we are engaged in many 
exciting, promising research projects and strategic planning activities 
that will help shape the future of nuclear energy in the United States 
and globally.
    We are in a time of tremendous opportunity, where the research and 
policies we engage in today will define the technologies that are 
deployed over the next 20 or more years when demand for energy is 
expected to increase substantially. The rate of turnover in energy 
supply systems is typically slow--energy technology life-spans are 
typically four or more decades; transmission system lifetimes even 
longer. For these reasons, we need to focus today on tomorrow's energy 
needs.
    I'd now like to discuss in more detail, drivers for nuclear energy 
research, how we have structured and improved our processes for 
conducting research, our major accomplishments, and provide more detail 
on the fiscal year 2001 budget request and how this request helps 
position the Nation for the next 50 years of innovation.

Fiscal Year 2001 Budget Authority

                        [In thousands of dollars]

        Program Element                                          Request

Nuclear Energy R&D:
    Advanced Radioisotope Power Systems.......................   31,200 
    Test Reactor Area.........................................    9,000 
    University Reactor Fuel Assistance and Support............   12,000 
    Nuclear Energy Research Initiative........................   35,000 
    Nuclear Energy Plant Optimization.........................    5,000 
                    --------------------------------------------------------------
                    ____________________________________________________

      Subtotal................................................   92,200 
                    ==============================================================
                    ____________________________________________________
Isotope Support...............................................   17,215 
Termination Costs.............................................   74,000 
Fast Flux Test Facility.......................................   44,010 
Uranium Programs..............................................   53,400 
Program Direction.............................................   27,620 
Offset from revenue...........................................   (2,352)
                    --------------------------------------------------------------
                    ____________________________________________________

      Total nuclear energy, science and technology request....  306,093 

             TRENDS AND CHALLENGES IN NUCLEAR ENERGY SUPPLY

    The International Energy Agency projects that world energy 
consumption will increase substantially over the next twenty years, 
requiring over 3,500 gigawatts of new generating capacity by 2020. 
Clearly, the largest growth will take place in the developing 
countries--China and India alone will add over 20 gigawatts of 
generating capacity by 2020. Today, 434 nuclear plants provide 
electricity worldwide--16 percent of electricity supply worldwide.
    Although some countries may reduce their market share of nuclear 
energy for electricity generation, many countries, especially the 
developing countries or those with limited natural resources, are 
likely to increase their dependence on nuclear energy. In particular, 
the recognized benefits of nuclear energy are prompting new discussions 
on the future of nuclear energy as world attention focuses on clean 
air, preserving the earth's climate, avoiding ground-level ozone 
formation and preventing acid rain.
    Nuclear power plants operating in the U.S. today account for over 
20 percent of electricity generation and operate on average at less 
than 2 cents per kilowatt-hour. Over the last decade the nation's 
existing nuclear plants have steadily improved their operating 
performance, reaching record operating capacities in 1998 and again in 
1999 (79.5 percent in 1998 and 85.5 percent in 1999), thus increasing 
their share of electricity generation. Additionally, between 1973 and 
1997, nuclear generation avoided the emission of about 82 million tons 
of sulfur dioxide and more than 37 million tons of nitrogen oxides. 
This is a carbon avoidance of about 1.5 million tons per year per 
operating nuclear power plant. Continued operation of these plants is 
therefore, very important for meeting not just demand for electricity 
but today and tomorrow's environmental needs.
    In the decades ahead, the existing U.S. nuclear plants will remain 
an essential part of our nation's diverse energy resource portfolio, 
fueling our economy with a secure, domestic source of electricity. The 
safe, long term operation of the existing nuclear power plants serves 
our national interest by providing for energy security and diversity, 
and providing for reliable and affordable energy--a fundamental 
underpinning of economic prosperity.
    In the longer term future, for commercial nuclear power to expand, 
obstacles to its continued use must be satisfactorily resolved--issues 
such as unattractive economics caused by historically high construction 
costs, concerns about the links between nuclear fission systems and 
nuclear weapons development, and concerns about generation and disposal 
of nuclear waste.
    In 1997 and again in June 1999, the President's Committee of 
Advisors on Science and Technology affirmed both the important role 
that nuclear energy can play in the short and long-term future and 
articulated the challenges to nuclear energy, recommending that the 
Department initiate specific, focused research to address these 
challenges. The nature of our R&D initiatives has been shaped by these 
recommendations and by the guidance we have received from the NERAC.
      a strategic shift in nuclear energy research and development
    Over the past several years, we have reinvented the Federal role in 
nuclear energy research and development. Recognizing the realities of 
today's fiscally constrained environment, we have reorganized how we 
conduct research, how best to accelerate innovation and how to assure 
the best return on the investment for the Nation. We have returned to a 
more focused Federal role in conducting R&D--that is, investing most of 
our research portfolio on long term, higher risk basic research aimed 
at reducing or eliminating significant barriers to future use of 
nuclear energy. This is research that typically is not within the 
shorter-term planning horizon of industry. Our R&D programs are 
designed to promote innovation and breakthrough technologies while 
limiting both the rate and duration of federal investment--making good 
decisions on when to expand research that is promising, when to hand-
off successful projects to the private sector and when to terminate 
projects that fall short. As mentioned above, we have also established 
an independent advisory board, the Nuclear Energy Research Advisory 
Committee (NERAC) to help guide the future direction of our R&D 
initiatives, including identifying promising research that warrants 
additional investment.
    NE's largest research activity, the Nuclear Energy Research 
Initiative (NERI), reflects this fundamental shift in the way in which 
research is scoped, funded, conducted, and evaluated. Focused on 
obstacles to long-term use of nuclear energy, NERI promotes 
investigator-initiated, peer reviewed research, enabling us to consider 
a broad range of innovative ideas brought forth from industry, 
laboratory research organizations and the private sector, that in the 
future could lead to more significant stand-alone research initiatives.
    As I think most of us would agree, in order for nuclear energy to 
expand in the long-term, we must successfully deal with issues such as 
plant economics, waste, and proliferation. For example, in the longer 
term, by changing the way we manage and design commercial nuclear fuel, 
we may be able to quite effectively address proliferation concerns, 
making it more difficult to use nuclear power systems to advance 
nuclear weapons programs. Technology may be able to reduce or even 
eliminate the production of plutonium in spent fuel. This area of 
proliferation-resistant fuel cycles and reactors are an area of major 
investigation in our NERI program.
    In the first year of the NERI program, the Department awarded three 
research grants for the development of proliferation resistant reactor 
technologies and three others for the development of proliferation 
resistant fuel cycle technologies. By exploring these advanced 
technologies such as modular reactors with long life cores and thorium-
based fuel cycles, we may find technology-based solutions to one of 
nuclear's greatest challenges.
    To further advance the research in this area, the NERAC has 
chartered a panel to identify, by Summer 2000, the various technical 
opportunities for increasing the proliferation resistance of fission 
systems and fuel cycles--both near-term opportunities for increasing 
proliferation resistance of existing technologies and long-term 
opportunities for advanced and future generation commercial nuclear 
power systems. In addition, we will be carefully coordinating NERI 
research in this area with the Long-Term Proliferation Program for 
Russia. Our office would co-manage the NERI proliferation-resistant 
technology component of this program with the Office of 
Nonproliferation and National Security.
    Another major area of focus for the NERI program this year, and an 
area of growing interest in the U.S. and with the international 
research community, are Generation IV reactor technologies. Generation 
IV reactor technologies are next generation advanced technologies that 
are economically competitive with combined cycle gas fired systems and 
deployed over the next 20 years when demand for electricity increases 
significantly worldwide. In January, the Department sponsored a 
workshop with representatives of the governments of Argentina, Brazil, 
Canada, France, Japan, South Africa, South Korea, and the United 
Kingdom to begin discussing the attributes of Generation IV reactor 
systems. The workshop included observers from the International Atomic 
Energy Agency, the OECD Nuclear Energy Agency, the U.S. Department of 
State, American Nuclear Society, and DOE's Nuclear Energy Research 
Advisory Committee. Following the conclusion of the workshop the 
participants issued a joint statement agreeing to pursue Generation IV 
nuclear power systems as a potential next generation energy option for 
the future.
    In April, as a follow-on to the January workshop, another 
international meeting with about 50 technical experts will be held in 
Washington, DC to develop specific recommendations on the future 
direction of multilateral cooperation on Generation IV technology. This 
May, we will also sponsor a meeting with established and emerging 
experts from U.S. and international universities, industry, and 
laboratory research organizations to begin the process of establishing 
requirements and attributes for Generation IV reactor systems and 
determining how those criteria would be satisfied. The results of this 
workshop will become the basis of a technology roadmap for Generation 
IV reactor technologies.
    In fiscal year (FY) 2000, another major shift in our research 
priorities occurred with the initiation of the Nuclear Energy Plant 
Optimization (NEPO) program. Recognizing the important role that the 
nation's existing nuclear power plants continue to serve over the next 
several decades in meeting demand for electricity in an environmentally 
sound manner, $5 million was provided in fiscal year 2000 for NEPO 
research conducted in cost-shared cooperation with the Electric Power 
Research Institute, the research arm of the electric power industry, 
for the purpose of improving existing plant operations, safety, and 
reliability.
    This $5 million represents a federal investment in intermediate 
term, higher risk research that is needed to increase the pace of 
innovation for developing new technologies for today's nuclear power 
plants. While industry's $85 million annual investment is focused on a 
short term horizon, funding ``just-in-time'' solutions to problems for 
existing plants, our investment serves to leverage federal research 
dollars with industry's matching funds in order to expedite and conduct 
intermediate term generic research needed by all of the nuclear utility 
industry to continue safe, economic, and reliable operation of the 
Nation's nuclear plants.
    Finally, over the last several years, our isotope program, has 
refocused the Federal role in promoting research, production and 
distribution of isotopes that benefit medical diagnosis and treatment. 
Our focused investments in the isotope program reflects this 
philosophy. Today, many of our former commercial isotope production 
activities have successfully transitioned to the private sector. 
Recognizing the important role that isotopes serve in medicine and 
their promise for the future, DOE proposed and Congress funded a new 
initiative this year--the Advanced Nuclear Medicine Initiative--to 
apply DOE's unique expertise and capabilities in isotopes to advance 
nuclear medicine technology. This program sponsors nuclear medical 
science by providing isotopes for research, supporting research, and 
funds fellowships, scholarships and internships to advance nuclear 
medicine in the U.S.

            DOE'S NUCLEAR ENERGY RESEARCH ADVISORY COMMITTEE

Guiding the Future Direction of Nuclear R&D
    To help guide this shift in our research and development and shape 
the future direction of nuclear energy research and development, in 
November 1998, Secretary Richardson established an independent advisory 
committee, the NERAC, under the chairmanship of Dr. James Duderstadt, 
former president of the University of Michigan. NERAC membership 
consists of experts in nuclear power plant operations, research, 
nuclear medicine, economics, environmental programs, nuclear physics 
and engineering who are from universities, national laboratories, and 
the private sector.
    Currently, seven NERAC subcommittees are chartered on the following 
topics:
  --developing a long-range R&D Plan with a 20-year horizon,
  --developing a nuclear science and technology infrastructure roadmap,
  --providing independent review of operating reactor R&D,
  --providing independent review of accelerator transmutation of waste 
        research,
  --recommending future federal investments in isotope research and 
        production,
  --recommending focused research to increase proliferation resistance 
        of fission systems, and
  --recommending the future direction of university nuclear engineering 
        and research reactors.
    Let me point out just a few examples of NERAC's near-term 
activities.
    Presently, a NERAC chartered subcommittee under the lead of Dr. 
John Ahearne, Sigmi Xi, is developing a Long Term Nuclear Energy 
Science and Technology Research Plan to guide nuclear energy research 
out to the year 2020. Another subcommittee, under the lead of Dr. Dale 
Klein, Vice Chancellor, University of Texas, is developing the nuclear 
science and technology infrastructure roadmap to evaluate the ability 
of our nation's R&D infrastructure to meet current and future R&D 
demands.
    The R&D Plan will provide a critical input to the infrastructure 
roadmap, identifying the direction of nuclear energy research over the 
next 20 years. Other inputs come from the Office of Science, the new 
National Nuclear Security Administration, the Office of Environmental 
Management, Defense Programs and others. The infrastructure roadmap 
will identify any gaps in our ability to conduct the research required 
to support likely missions in the areas of nuclear energy, medical and 
industrial isotopes, NASA-led space exploration, general nuclear 
sciences, and defense needs. Both the long range R&D plan and the 
infrastructure roadmap are to be submitted to the full NERAC this 
spring.
    This month, NERAC will sponsor a panel on the Technology 
Opportunities for Increasing Proliferation Resistance of Global 
Civilian Nuclear Power Systems. This panel, headed by Dr. John Taylor, 
Vice President Emeritus from the Electric Power Research Institute, 
will help us identify specific focus areas for further research into 
proliferation resistant systems and fuel cycles. The work of this panel 
will help us provide additional focus to future proliferation resistant 
research conducted under NERI and International-NERI.

                     FISCAL YEAR 2001 PROGRAM FOCUS

Accelerating Technology Innovation
    Our research and development initiatives remain the cornerstone of 
the Department's nuclear energy, science and technology program. These 
initiatives are undertaken on the basis that nuclear science and 
technology will continue to provide important technological benefits 
and advancements for the Nation in the 21st century.
    For over 50 years, the Department and its predecessors have been 
involved in development of reactor technologies. This past July, in 
recognition of the important role that the Idaho National Engineering 
and Environmental Laboratory and Argonne National Laboratory have 
served in the development of prototype reactor technologies, and on the 
occasion of their 50th anniversary, the Office of Nuclear Energy, 
Science and Technology designated these laboratories as Lead 
Laboratories for nuclear reactor technology. In this capacity, we will 
work with these lead laboratories to apply their world-class technical 
capabilities to help us maximize the value of the various reactor 
research activities conducted by the Department. Also, we expect to 
establish additional centers of excellence for various aspects of 
nuclear energy research at other laboratories across the complex.
    The Nuclear Energy Research Initiative (NERI), program supports our 
nation's future ability to apply nuclear technology to our energy, 
environmental, and economic goals. NERI, started in fiscal year 1999, 
funds innovative investigator-initiated, peer reviewed research and 
development at universities, national laboratories, and industry to 
advance nuclear power technology; thus paving the way for expanded use 
of nuclear energy in the future and for rebuilding U.S. leadership in 
nuclear technology.
    The goals of NERI are to develop revolutionary advanced concepts 
and scientific breakthroughs in nuclear fission and reactor technology 
to address: scientific and technical barriers to long-term use of 
nuclear energy; advance the state of nuclear technology to maintain a 
competitive position in overseas and future domestic markets; and 
promote and maintain the nuclear science and engineering infrastructure 
to meet future technical challenges.
    NERI research focuses on proliferation-resistant reactor and fuel 
technologies, high performance/efficient reactor technology, advanced 
nuclear fuels, new technologies for the minimization and management of 
nuclear waste, and fundamental nuclear science. A peer review process 
is used to evaluate and select research projects having the highest 
scientific and technical merit and relevancy to program objectives. The 
program is managed to promote collaboration among U.S. research 
institutions and information exchange with international organizations. 
Projects are conducted over a maximum of three years subject to annual 
appropriations.
    In the first year of this program, funded at $19 million, the 
Department received over 300 NERI proposals in response to the 
solicitation. The proposals were each reviewed by more than 120 
independent peer reviewers and in May 1999, the Department awarded 
funding to begin 46 research projects. These awards represented 
significant U.S. collaboration among universities, research 
laboratories and the private sector and significant international 
cooperation. By the end of fiscal year 1999, the appropriate contract 
mechanisms in place for the lead and collaborating organizations and 
this research is well underway today.
    This year, with the $3.4 million increase in funding over fiscal 
year 1999 levels, we will continue funding the projects started in 1999 
and award about seven new research projects. With limited funding for 
new projects, we are targeting research on the following areas: 
proliferation resistant reactors and fuel cycles, fundamental science, 
and Generation IV reactor technologies. Peer review of over 120 
proposals submitted this year is now underway and we expect to award 
the new projects this spring.
    By the end of the next fiscal year, the first three-year phase of 
NERI research will be complete. A process will be developed and 
implemented to evaluate these projects to identify the research that 
presents the most potential for future success and that should be 
consider for additional investment. With the $35 million proposed in 
fiscal year 2001, we will award about 20 new NERI projects, including 
as discussed below, projects conducted in cost-shared cooperation with 
international R&D organizations.
    In fiscal year 2001, the Department proposes to launch a new 
initiative within NERI, the International Nuclear Energy Research 
Initiative (I-NERI) with $7 million for bilateral and multilateral 
research. This program would focus on advanced technologies for 
improving cost, safety, waste management and proliferation resistance 
of fission energy systems by leveraging our federal investment with 
investments made by the international research community. In addition 
to accelerating innovation and leveraging costs, I-NERI would provide 
the United States and the Department, a key seat at the table in 
international policy discussions on the future direction of nuclear 
energy.
    I-NERI would allow us to leverage international resources through 
specific cost-share arrangements with each participating country, 
working with countries such as France, Japan, South Africa, and South 
Korea on a wide range of nuclear technology topics. This program, based 
on the recommendations of the June 1999 international PCAST report will 
feature a competitive, investigator-initiated, peer selection process 
directed by the Department with additional independent peer reviews 
using international experts from each of the participating countries.
    The Nuclear Energy Plant Optimization (NEPO) program started in 
fiscal year 2000, to develop key technologies that can help assure the 
long term reliability and efficiency of our nation's existing nuclear 
power plants. As discussed above, this program recognizes the important 
asset that existing nuclear plants are in meeting demand for 
electricity during the first half of this century, with low 
environmental impacts. The program is conducted in cost-shared 
cooperation with the research arm of the electric power industry, the 
Electric Power Research Institute and in coordination with the U.S. 
Nuclear Regulatory Commission. The Department is requesting $5 million 
for this program in fiscal year 2001, the same level the Administration 
proposed and Congress appropriated in fiscal year 2000.
    In fiscal year 2000, we will begin 15 high priority research 
projects, based on the critical R&D needs identified in the Joint DOE-
Electric Power Research Institute Strategic R&D Plan to Optimize U.S. 
Nuclear Power Plants, and guided by a chartered subcommittee of the 
NERAC. This strategic R&D plan includes short term R&D that industry 
should be doing on its own and short to medium term R&D in which a 
federal investment is leveraged with industry to apply the unique 
infrastructure or expertise of DOE or to accelerate solutions of 
generic technical issues affecting existing nuclear power plants. These 
first 15 projects will address technical issues associated with a range 
of topics, including material fatigue, fuel performance, component 
inspections, in-service inspections and testing, stress corrosion, and 
digital instrumentation and control.
    Some of the key projects include development of a technology for 
detection and characterization of defects in steam generator tubes, R&D 
on the mechanical behavior of irradiated structural steels, and an 
assessment of the natural aging effects on components. Although 
industry has made great strides, we believe that the NEPO program can 
accelerate innovation and provide intermediate-term research. As 
example, investigation into technologies for detection and 
characterization of defects in steam generators can have a profound 
effect on further reducing the potential for steam generator tube leaks 
such as recently experienced at the Indian Point 2 nuclear power plant 
in New York State.
    NEPO is jointly managed by DOE and EPRI, with either EPRI or DOE 
taking the lead on individual projects and with clear assignment of 
management responsibility at the task or subproject level. Each project 
consists of a program plan to which universities, laboratories, and the 
private sector can use as a basis for submitting proposals for specific 
projects/tasks. Research funding will be awarded based on technical and 
scientific merit and cost. In fiscal year 2001, we will continue to 
address the technology issues as guided by the Joint Strategic R&D Plan 
and the NERAC.
    In fiscal year 2000, Congress directed the Department to pursue 
research and development on an accelerator technology with potential to 
significantly reduce the radioactive toxicity and volume of civilian 
spent nuclear fuel while potentially producing electricity to help 
offset the life cycle costs of the program. Congress provided $9 
million to the Office of Nuclear Energy, Science and Technology, under 
Civilian Research and Development to establish the Accelerator 
Transmutation of Waste (ATW) program.
    The mission of the program is to conduct science-based research to 
derive system requirements, compare options, collect physics data, and 
address the major technical issues, and analyze programmatic and 
institutional issues associated with the deployment of an ATW system. 
The program will include leading edge scientific and engineering 
research in the areas of materials, high energy physics data, high 
powered accelerators, advance reactor coolants, and the unique areas of 
coupled subcritical reactors driven by accelerators. These new areas of 
nuclear science and engineering can open the door to advances in new 
reactor technologies and have the potential to enhance the 
proliferation resistance of nuclear power.
    In fiscal year 2001, the Department has requested no new funds for 
ATW research. While the roadmap prepared in 1999 by DOE provides a good 
basis to begin the program planning process, the Department plans to 
apply funds provided for fiscal year 2000 to complete critical trade 
studies, evaluate experimental data, and complete its detailed program 
plan. Once this is done, the program will be equipped to suggest the 
next stage of research.
    A chartered subcommittee of NERAC, headed by Dr. Burton Richter, 
Nobel Laureate and Professor of Physical Science at Stanford 
University, has been established to guide the Program Plan and provide 
recommendations on the research activities conducted this year and on 
future research. Once the plan is complete, it will be submitted to DOE 
management, the Office of Management and Budget, the Office of Science 
and Technology Policy, and interested Congressional committees.
Nuclear Science, Technology and Education Investments for the Future
    Government, industry, and academia alike face similar challenges 
today as we seek to preserve the aging but highly developed science and 
technology infrastructure the United States has developed over the last 
fifty years. This infrastructure is vital to delivering current and 
future mission critical technologies and products to the nation. 
Similarly, preserving the human and research facility infrastructure at 
our universities and colleges remains key to preparing tomorrow's 
nuclear scientists and engineers, to ensure an adequate knowledge base 
to support innovation and technological advancement.
    The University Reactor Fuel Assistance and Support program carries 
out the Department's commitment to maintain U.S. leadership in nuclear 
research and education. By supporting the operation and upgrade of 
university research reactors, providing fellowships and scholarships to 
outstanding students, and providing Nuclear Engineering Education 
Research grants, the program helps maintain domestic capabilities to 
conduct research, and address pressing environmental challenges. The 
program also helps to maintain the critical infrastructure necessary to 
attract, educate and train the next generation of scientists and 
engineers with expertise in nuclear energy technologies.
    Our efforts to attract students to nuclear engineering careers 
continue to be a major focus of our program. Our scholarship and 
fellowship activity also pairs minority-serving institutions with 
nuclear engineering degree granting institutions to increase the number 
of minority students entering the field of nuclear engineering while 
simultaneously strengthening the infrastructure of nuclear engineering 
education. The Department is requesting $12 million for this program in 
fiscal year 2001, the same level that Congress appropriated in fiscal 
year 2000.
    University research reactors in the U.S. form a vital component of 
the nuclear science and technology and education infrastructure in this 
country. These facilities are an important source of neutrons 
supporting research that is critical to national priorities such as 
health care, materials science, environmental protection, food 
irradiation, and energy technology. Currently, there are 29 operating 
research reactors at 27 campuses in 20 states. This year and proposed 
in fiscal year 2001, we will continue to supply fresh fuel to and 
transport spent fuel from university research reactors; fund reactor 
equipment upgrades; and continue the conversion of university reactor 
fuel cores from highly-enriched uranium to low-enriched uranium. Also, 
under the reactor sharing initiative, this year and proposed in fiscal 
year 2001, we will continue to pair 23 institutions with research 
reactors to those institutions without research reactors to increase 
their opportunities for training, education and research in nuclear 
science and technology.
    In fiscal year 2000 and fiscal year 2001, the Department will 
provide 17 or more grants under the Matching Grants initiative to 
support education, training and innovative research at participating 
universities in 50-50 cost shared participation with industry. 
Beginning this year, we are increasing the funding to up to $60,000 to 
participating universities. We also expect to award up to 50 
scholarships and 24 fellowships this year and next. Along with this, we 
have restructured our scholarship and fellowship program to increase 
minority student entries into nuclear engineering by linking students 
at minority serving institutions to nuclear engineering programs at 
universities with nuclear engineering departments. We propose to 
continue these efforts in fiscal year 2001.
    The fiscal year 2001 request supports the Nuclear Engineering 
Education Research (NEER) program to stimulate innovative research at 
U.S. universities at a level of $5 million, the same level as 
appropriated this year. This investigator-initiated, peer reviewed 
research program is vital to attracting and retaining faculty and 
students in nuclear engineering programs. This year, with well over 100 
proposals received from universities, we will award at least 6 new NEER 
grants, increasing the total research projects underway to 45. In 
fiscal year 2001, previously awarded R&D will continue and with the 
completion of research projects that started in fiscal year 1998, we 
expect to award up to 15 new NEER projects.
    Finally, this fiscal year a NERAC-chartered Blue Ribbon Panel of 
experts from universities, government and laboratories, headed by Dr. 
Michael Corradini, Associate Dean of the College of Engineering at the 
University of Wisconsin, will evaluate the future of university 
research reactors and their relationship to the national laboratories 
in conducting nuclear engineering research. The recommendations of the 
panel expected this summer as well as other NERAC reviews related to 
university programs, will serve as a basis for recommending the future 
direction of these facilities, including recommendations for reactor 
upgrades.
    The Advanced Radioisotope Power Systems program is our nation's 
only program for developing and building advanced nuclear power systems 
for deep space exploration and national security applications. The 
program supports and funds DOE activities related to development, 
demonstration, testing, and delivery of power systems to the National 
Aeronautics and Space Administration (NASA) and other Federal agencies. 
In fiscal year 2001, the Department is requesting $31.2 million for 
this program, which is the minimum amount required to sustain the basic 
capability.
    Critical national security activities and NASA missions to explore 
deep space and the surfaces of planets could not occur without these 
systems. To date, DOE has provided over 40 radioisotope power systems 
for use on a total of 25 spacecraft. Previous NASA missions that have 
used DOE-built power systems include: the Apollo lunar scientific 
packages, Pioneer, Viking, Voyager, Galileo, Ulysses, Mars Pathfinder, 
and Cassini. As we consider the American enterprise in space in the 
first decades of this new century, it is clear that DOE's advanced 
power technology will be indispensable if we are to continue our 
exploration and advance human understanding of the universe. Projected 
future missions include the Europa Orbiter, Pluto/Kuiper Express, and 
Solar Probe missions planned for launch in fiscal year 2003, 2004, and 
2007, respectively.
    An expansion to the national security applications is also underway 
that will require delivery of several radioisotope power systems over 
the next decade. We are currently developing a new, more efficient 
thermoelectric generator for these national security applications and 
in fiscal year 2001, we will continue testing the thermoelectric 
element, proceed with design and initiate fabrication of an engineering 
unit of this new thermoelectric generator.
    During fiscal year 2001, the emphasis will be on supporting NASA's 
Europa Orbiter and Pluto/Kuiper Express missions scheduled for launch 
in 2003 and 2004, respectively. The program had been pursuing the 
Alkali-Metal Thermal to Electric Conversion (AMTEC) technology for 
these missions but recently shifted focus on a Small Radioisotope 
Thermoelectric Generator since the AMTEC technology could not be ready 
to meet the projected launch dates. Consideration is also being given 
to a new, more efficient, Stirling engine conversion technology since 
it would require less plutonium-238, the heat producing isotope that is 
used for all radioisotope power systems. Technology efforts may 
continue on the AMTEC technology for potential future missions but the 
major near term focus has shifted to the Small Radioisotope 
Thermoelectric Generator and Stirling technologies.
    Our efforts will also proceed in support of providing already 
fabricated Radioisotope Heater Units for several NASA Mars Surveyor 
missions. The first mission is currently targeted for launch in 2001. 
This effort includes safety and environmental analysis to support both 
NASA's environmental documentation and the Department's preparation of 
Safety Analysis Reports required to seek launch approval.
    The fiscal year 2001 request also includes funding to complete the 
scrap recovery line for plutonium-238 in Building TA-55 at the Los 
Alamos National Laboratory and to begin full scale operation of the 
process to recover several kilograms of plutonium-238. In addition, the 
request maintains the option to establish a domestic supply of the 
nonfissile plutonium-238 required to fuel these systems, includes a 
small effort on non-mission specific technologies for future 
applications, and provides for an assessment of special purpose fission 
technology, with particular emphasis on potential use in future space 
systems.
    This assessment of special purpose fission technology will evaluate 
potential future requirements and the types of generic fission 
technologies that may be required. The focus of the assessment will be 
to establish what efforts should be undertaken and the timing for 
initiating these efforts if fission systems are to be ready to support 
the potential applications that are currently being considered. The 
Department, as the nuclear development agency for the Federal 
government, must take the lead in this evaluation; however, it will be 
done in cooperation with user agencies, who would have the major 
responsibility for funding, if these programs move forward into full 
development.
    Finally, the advanced radioisotope power system program has been 
significantly streamlined over the last several years and we continue 
to seek opportunities for further savings. The overall funding of the 
program has decreased substantially, from $58.7 million in fiscal year 
1995 to the requested level today of $31.2 for fiscal year 2001. These 
reductions reflect the several actions taken by the Department, 
including a decision to maintain and consolidate the operation of 
assembly and testing operations at the Mound Site and assuring that 
user agencies fund mission-specific costs. Presently, user agencies 
fund mission-specific development and hardware and DOE provides funding 
necessary to sustain the critical program and facility infrastructure.
    The Isotope Support program exploits the Department's unique 
infrastructure that includes research reactors and particle 
accelerators to provide a reliable supply of stable and radioactive 
isotopes used in medicine, industry, and research. Continuing its 
emphasis on isotope-based research, the program continues the Advanced 
Nuclear Medicine Initiative, started this year at a level of $2.5 
million, to apply the Department's unique expertise to advance the 
state of U.S. medical research, diagnosis, and treatment. We believe 
that advanced isotope-based therapies may hold the key to creating safe 
and efficient treatments for many types of cancer. The isotope program 
provides isotopes to researchers across the country and remains 
indispensable to conduct of advanced research in the United States 
where isotopes are needed. Finally, the Department continues its effort 
to exit commercial markets and to encourage new isotope production 
ventures by selling or leasing its facilities to the private sector, 
where possible. The Department's fiscal year 2001 request is for $17.2 
million, reflecting a reduction in funding over last year's 
appropriated level of $20.4 and the nearly complete new beam spur at 
the Los Alamos Isotope Production Facility at the Los Alamos Neutron 
Science Center (LANSCE). The fiscal year 2001 program would also 
continue to serve its customers through the production and distribution 
of stable and radioactive isotopes necessary for medical, industrial, 
and research purposes.
    The Advanced Nuclear Medicine Initiative, launched this year, 
sponsors nuclear medicine research for diagnosis and treatment of 
serious illnesses and diseases. This program is focused on using the 
Department's inventory of alpha particle-emitting isotopes to fight 
malignant diseases and to strengthen the nuclear medicine science and 
education infrastructure by providing scholarships and fellowships for 
nuclear medicine specialists. This summer, DOE will complete the peer 
review selection process for the first year of research projects, 
awarding grants on the basis of technical merit to individual and 
collaborating research organizations. We are very pleased with the 
response to this program, with over 40 organizations, representing 
private sector, teaching hospitals, universities, and research 
laboratories responding to the Department's solicitation for the first 
year of funding under this initiative, some of them submitting multiple 
proposals. Similar to our other peer reviewed R&D initiatives, ANMI 
projects will be awarded for up to three years, subject to annual 
appropriations. With the $2.5 million requested in fiscal year 2001, we 
propose to continue the research projects and assistance to students 
provided this year as well as begin a few more in 2001.
    The fiscal year 2001 request includes $0.5 million to complete 
construction of a building to house the Los Alamos Isotope Production 
Facility. When operational, the new 14.0 million isotope target 
irradiation facility will enable year-round production of vital, short-
lived isotopes for medical research.
    The request also includes $0.3 million to develop a private 
partnership that will replace the aged stable isotope production 
facility at Oak Ridge, Tennessee with a new, less costly production 
facility. Finally, the request includes $0.9 million to increase the 
supply of alpha-emitting isotopes to support the expansion of human 
clinical trials that are showing great promise for cancer therapy.
    Modification of facilities at Los Alamos and Sandia National 
Laboratories for molybdenum-99 production were completed with fiscal 
year 1999 appropriations and no funds were requested for the activity 
in fiscal year 2000 and fiscal year 2001. At this point, production of 
molybdenum-99 can be mobilized on an emergency basis if foreign supply 
is significantly disrupted, and facilities will be ready for private 
sector investment to take the project to routine commercial production. 
This year, the Department will continue to pursue privatization of the 
production facilities for this vital medical isotope.
    Finally, as you know, this program operates under a revolving fund 
as established by the fiscal year 1990 Energy and Water Development 
Appropriations Act (Public Law 101-101), maintaining its financial 
viability with Congressional appropriations and revenues from the sales 
of isotopes and services. The last few years' efforts to privatize 
production and distribution of commercially viable isotopes, though 
successful, has placed additional pressure on the program's working 
capital. Commercial revenues, which contribute to the infrastructure 
fixed costs, are no longer available and as a result, we are unable to 
invest in maintenance and upgrades needed for our infrastructure--an 
infrastructure which is vital to providing isotopes to our research 
customers.
    Although we have taken steps to address infrastructure and facility 
issues to support nuclear medicine research, with the need for isotopes 
expected the increase significantly over the next 20 years, perhaps as 
much as 14 percent annually, the result is that we are more reliant 
today and tomorrow on federal appropriations. As such, we have asked 
the NERAC to examine the need for isotopes for medicine and research 
and to provide recommendations for the Department's long term research 
and production plan and for focused investment in the isotope 
production infrastructure. This plan, to be completed this Spring, will 
consider creative approaches such as public-private partnerships for 
new isotope production facilities to serve the longer term projected 
isotope needs.
Managing Federal Nuclear Facilities and Materials
    The Office of Nuclear Energy, Science and Technology also is 
responsible for facilities and materials associated with current and 
past missions of the Office. In this capacity, NE serves as landlord at 
Argonne National Laboratory-West and the Idaho National Engineering and 
Environmental Laboratory's Test Reactor Area (TRA), both of which are 
located in Idaho; at two of the gaseous diffusion plant sites, located 
in Kentucky and Ohio; and is responsible for the maintenance of the 
FFTF in Hanford, Washington in a safe shutdown condition, pending a 
decision on its future. As part of our stewardship over these 
facilities, we are responsible for the management and disposition, 
where appropriate, of nuclear materials. For example, NE is responsible 
for the management of depleted uranium hexafluoride inventories stored 
at the gaseous diffusion plant sites, including the former K-25 site at 
Oak Ridge, Tennessee--the current East Tennessee Technology Park 
(ETTP).
    The Fast Flux Test Facility (FFTF), located at the Hanford Site in 
Washington, is a Government-owned, 400 megawatt, sodium-cooled reactor 
that operated from 1982 to 1992, providing a materials testing facility 
for nuclear fusion and fission programs. It is the largest and most 
modern facility of its kind. In April 1992, the FFTF was placed on hot-
standby because the Department anticipated that it had enough nuclear 
research reactors in operation or planned to meet its needs. However, 
the Department later terminated one new reactor project and shut down 
two existing research reactors. As a result, the Department launched a 
process to determine whether the Nation requires additional research 
reactor capacity and, if so, whether the FFTF should serve a role.
    Pending the final decision on its future in fiscal year 2000, the 
facility is maintained in hot standby, defueled but with sodium coolant 
maintained at 400 degrees Fahrenheit and with continued surveillance 
and maintenance to ensure no degradation of key plant systems. The 
Department is proposing $44.0 million for FFTF in fiscal year 2001 to 
maintain it in a safe, environmentally compliant condition and support 
the activities required to restart or permanently shutdown and 
deactivate the facility.
    The Department is currently preparing the Nuclear Infrastructure 
Programmatic Environmental Impact Statement and other cost and 
nonproliferation analyses that will help inform a final decision on the 
future of FFTF during fiscal year 2001. The Programmatic EIS is 
assessing the impacts of operating FFTF, other DOE facilities or 
entirely new facilities. It considers the range of missions for which 
steady state neutron facilities are required, e.g., reactor research, 
isotope production, plutonium-238 production, and materials research. 
The Department is currently proposing to the Congress, a reprogramming 
request of $9.0 million to provide the additional funds necessary in 
fiscal year 2000 to maintain the facility in compliance with applicable 
Federal and State environment, safety and health requirements.
    The activities of the Termination Costs program are focused on 
Experimental Breeder Reactor-II (EBR-II) shutdown and deactivation, 
treatment and disposition of EBR-II and Fermi reactor sodium coolant, 
and treatment of sodium-bonded spent nuclear fuel. The program also 
supports maintenance of the Argonne National Laboratory-West nuclear 
infrastructure, including maintaining a core capability to foster 
innovative nuclear reactor research and maintaining the safety, 
security, and safeguards infrastructure. We believe that the name of 
this program does not reflect the range of missions underway at Argonne 
National Laboratory-West. In fiscal year 2001, the Department is 
proposing $74.0 million for the Termination Cost program, near the 
level appropriated in fiscal year 2000.
    The project to demonstrate electrometallurgical technology by 
treating 125 EBR-II spent fuel and blanket assemblies was completed in 
fiscal year 1999. During fiscal year 2000, the Department is evaluating 
the suitability of the electrometallurgical technology for full-scale 
treatment of the remaining EBR-II spent fuel assemblies through the 
preparation of an Environmental Impact Statement. DOE's decision on 
whether to deploy this technology for full-scale treatment of the 
remaining fuel will be made this year based on the EIS and the results 
from the National Research Council reviews requested by the Department. 
No further treatment of spent fuel assemblies will occur until a final 
decision is made.
    Additionally, by the end of fiscal year 2001, the Department will 
complete draining of the EBR-II primary system and process 100 percent 
of all EBR-II sodium in compliance with Idaho National Engineering and 
Environmental Laboratory Treatment Plan. The schedule for this project 
has slipped by several months as technical difficulties were 
encountered with the process. As a result, the Department suspended 
operation of the sodium process facility while analyses and reviews 
were conducted. Those reviews are complete and we expect sodium 
processing operations to resume in May 2000 for process and product 
qualification operations. The Department has substantially increased 
its oversight of this project by assigning to the project, senior, 
highly experienced technical staff with proven experience in managing 
complex technical projects and by establishing a new, independent 
expert technical and project review organization to make ongoing 
recommendations to the Department on ways to assure the success of this 
project.
    Next fiscal year, we propose to carry out the activities at Argonne 
in accordance with the Record of Decision on the treatment of sodium 
bonded fuel, complete processing of all stored Fermi and EBR-II sodium 
and continue deactivation and closure of EBR-II surplus facilities. We 
would also continue research that supports Nuclear Regulatory 
Commission approval of disposal of metal and ceramic waste forms from 
the demonstration project in a geologic repository, and continue 
repackaging and removal activities for spent nuclear fuel that remains 
from an earlier fuel burn-up development program now stored by a 
commercial entity.
    The TRA Landlord program ensures reliable support for TRA 
activities such as naval reactor fuel and core component testing at the 
Advanced Test Reactor and supporting privatized production of isotopes 
for medicine and industry. The program also funds operations, 
maintenance and upgrade activities for site common facilities and 
utilities and ensures environmental compliance at the Test Reactor 
Area, including identification of legacy waste and mitigation in 
accordance with State regulations and DOE agreements with the State of 
Idaho. The Department is requesting $9.0 million for this program in 
fiscal year 2001, at about the same level as was requested and 
appropriated in fiscal year 2000.
    The fiscal year 2001 request would allow TRA Landlord activities to 
continue at the same level the Administration proposed and Congress 
appropriated in fiscal year 2000. This fiscal year and next, we propose 
to continue with major modifications to the existing fire protection 
systems in this area of the Idaho National Engineering and 
Environmental Laboratory and to complete Title II design and begin the 
construction phase of the TRA Electric Utility Upgrade construction 
project.
    Uranium Programs support activities related to the Department's 
former uranium enrichment program that were not transferred to the 
United States Enrichment Corporation (USEC Inc), including management 
of the Department's inventory of 700,000 metric tons of depleted 
uranium hexafluoride stored in Ohio, Kentucky, and Tennessee. USEC, 
privatized in July 1998, operates the Department's gaseous diffusion 
plants in Portsmouth, Ohio and Paducah, Kentucky under a lease 
arrangement.
    At the gaseous diffusion plants, DOE is responsible for the 
maintenance of numerous facilities, maintenance of the grounds, clean-
up of PCB spills in leased areas, electricity contracts, legal 
expenses, payment of the post-retirement life and medical costs for 
retired contractor personnel, and conducting a project to convert the 
Department's depleted uranium hexafluoride inventory to a more 
chemically stable form. The increase for Uranium Programs in fiscal 
year 2001 reflects $12.0 million to be appropriated from the Treasury 
Fund holding depleted uranium disposition funds from USEC Inc to 
support the depleted uranium hexafluoride conversion project.
    As you know, this past August, health and safety concerns were 
raised at the Paducah gaseous diffusion plant site. Concerns centered 
around the presence of plutonium and other contaminants in recycled 
uranium historically processed at Paducah, inadequate progress in 
environmental cleanup, and other alleged health and safety problems. In 
response, the Department conducted a two-phase investigation to 
determine whether environment, safety and health programs put in place 
since 1990 provided adequate protection for workers and the public and 
to provide for a full investigation of past practices. The reports of 
these investigations were issued in October 1999 and February 2000, 
respectively.
    In particular, the Phase I report identified potential criticality 
concerns related to storage of materials and equipment in certain DOE 
Material Storage Areas (DMSAs) that are the responsibility of the 
Office of Nuclear Energy, Science and Technology to resolve. DMSAs are 
areas containing spare parts, equipment and other items that were 
established during the transition and lease of enrichment facilities to 
the USEC, which DOE agreed to manage. DOE's investigation and 
subsequent review by the site contractor specifically identified 13 
potential higher risk areas of concern requiring near term 
characterization and mitigation. Although not anticipated in the fiscal 
year 2000 budget appropriation, we are deferring other work to proceed 
more quickly with the resolution of the DMSA concerns.
    This past year, we created a new office, the Office of Depleted 
Uranium Hexafluoride Management and increased program staffing to 
provide more focused support and oversight over landlord programs at 
the gaseous diffusion plant sites and the depleted uranium hexafluoride 
conversion program. The office has implemented a number of reforms that 
we believe will improve the effectiveness of our oversight of site 
operations, including the designation of staff dedicated to uranium 
hexafluoride conversion and conducting program reviews every four 
months with Oak Ridge, the site offices, and the Office of 
Environmental Management.
    In fiscal year 2001, $53.4 million is requested to manage Uranium 
Programs activities, of which $29.5 million will be used to manage the 
inventory of depleted uranium hexafluoride: $16.6 million for cylinder 
storage maintenance; and $0.9 million for conversion development and 
$12.0 million for the depleted uranium conversion project.
    Consistent with Public Law 105-204, the Department is proceeding 
with plans for a project to build and operate conversion facilities to 
convert the inventory of depleted uranium hexafluoride to a more stable 
form. In fiscal year 2001, the Department is requesting $12.0 million 
for the conversion project and later this year, will issue a Request 
for Proposals to the private sector to initiate design of conversion 
facilities. The Department plans to add an additional $12.0 million to 
this amount from funds obtained under Memoranda of Agreement with USEC 
Inc to further support this project.
    However, because of the possibility that the depleted uranium 
hexafluoride inventory could be contaminated with transuranic materials 
from the years in which recycled uranium was used as feed stock to the 
gaseous diffusion plants, this year we have initiated an assessment of 
historical data and a cylinder sampling program to obtain a better 
understanding of whether there will be an impact to the design of the 
conversion facilities or to worker safety programs at these facilities. 
We hope to soon issue a schedule reflecting the change this development 
has on the procurement strategy for conversion plants. The Department 
remains committed to meeting the deadline established in Public Law 
105-204 on constructing conversion facilities.
    The remaining $23.9 million requested in fiscal year 2001 will be 
used to: support the maintenance of leased and non-leased facilities at 
DOE's former gaseous diffusion plant sites, clean up PCB spills in the 
leased areas, defend lawsuits, and pay the post-retirement life and 
medical costs of retired contractor personnel as well as other pre-
existing liabilities. The Department also remains responsible for 
safety documentation and assists the Nuclear Regulatory Commission in 
preparing reports for Congress.

                           PROGRAM DIRECTION

    In fiscal year 2001, we are requesting $27.6 million for salaries, 
travel, support services and other administrative expenses for 171 
headquarters and field personnel providing technical direction to 
Nuclear Energy Research and Development, uranium programs, isotope 
support, and other nuclear energy programs. A $2.9 million increase 
over the fiscal year 2000 appropriation, the fiscal year 2001 request 
includes additional funding for five technical positions at the Paducah 
and Portsmouth site offices. This increase is important to providing 
for adequate oversight over activities at the gaseous diffusion plant 
sites, including improved oversight of environment, safety and health 
programs at these sites and technical activities associated with 
depleted uranium hexafluoride conversion and evaluating transuranics 
and recycled uranium. Our Program Direction funding also supports the 
many intensive activities of the NERAC.

                               CONCLUSION

    Mr. Chairman, this concludes my prepared statement. I will be happy 
to answer any questions. Over the last couple of years, I believe we 
have made great strides in the nuclear energy program. We have launched 
three new research initiatives, are proposing more focused 
international collaboration and leveraging of the federal investment, 
have successfully demonstrated a major technology for treatment of 
spent fuel, would continue our enduring role in support of space 
exploration, and would continue providing for safe stewardship of our 
federal nuclear facilities and materials.
    As I said at the beginning of my testimony, we have a historic 
window of opportunity today to begin planning the next several decades 
of innovation. The decisions we collectively make today can 
significantly influence energy supply options and the environmental 
outcomes over the next fifty years. I look forward to working with you 
and the Subcommittee as we embark on preparing the technologies needed 
for this new century.

    Senator Domenici. Senator Reid, would you like to either 
query or make some observations, whatever you like?
    Senator Reid. Mr. Chairman, I will be very, very brief. I 
am sorry I am late. I had a meeting at 9 o'clock that I had to 
attend.
    With gas taxes as high as they are, I think we need to 
really take a look at alternate energy. And as we have been 
through the last three times we have brought our bill on the 
floor, we have had a lot of problems on the floor on that 
issue.
    I have a letter here signed by approximately 60 Senators 
who feel we should provide more money in that program. So that 
is something we have to take a close look at. That is the 
reason these gentlemen are here, is to give us some expertise 
in doing that.
    I have a full statement that I would like to make part of 
the record. And in that I did not get here on time, I will not 
read it, but ask that it be made part of the record.
    Senator Domenici. It will be made part of the record.
    [The statement follows:]

                PREPARED STATEMENT OF SENATOR HARRY REID

    Good Morning, Mr. Chairman. Thank you for scheduling this third--
and, as it turns out, final--oversight hearing as we prepare to begin 
writing the fiscal year 2001 Energy and Water Appropriations bill.
    Representatives of five important DOE programs have joined us this 
morning:
  --Dan Reicher, the Assistant Secretary for Energy Efficiency and 
        Renewable Energy
  --Bill Magwood, the Director of the Office of Nuclear Energy, Science 
        and Technology
  --Dr. Ivan Itkin, the Director of the Office of Civilian Radioactive 
        Waste Management
  --Carolyn Huntoon, the Assistant Secretary of the Environmental 
        Management; and
  --Dr. James Decker, the Acting Director of the Office of Science
    I would like to welcome all of you to this morning's hearing. I 
have read each of your statements and have a number of questions for 
all of you.
    However, in the time available this morning, I want to focus my 
comments on only one or two of the topics before us, primarily Energy 
Efficiency and Renewable Energy.
    With gas prices approaching $2 per gallon, now is the perfect time 
for Congress and the American people to re-engage in a conversation on 
the importance of renewable energy and energy efficiency technologies 
to our nation's future.
    At best, Congress has moved in fits and starts over the years in 
its support for wind, solar, and geothermal power, biofuels, hydrogen, 
and other technologies that will allow us to lessen our ever-increasing 
dependence on imported oil.
    We need to do a better job.
    In recent years, many clean new energy technologies have emerged 
that are simply waiting for sufficient market incentives to enable 
widespread deployment. What is lacking is a clear, unambiguous stamp of 
approval from Congress for a range of policies, mechanisms, and funding 
to move forward.
    Many of these technologies are tremendously promising. For example, 
in the area of solar energy, collector technology has now improved to 
the point where we could cover an area the size of the Nevada Test Site 
with solar collectors and generate enough power to take care of ALL of 
the nation's needs.
    In fact, I think that covering the Test Site with solar collectors 
is a MUCH better use of this Subcommittee's dollars than some of the 
others we have talked about in recent years. The top of Yucca Mountain, 
in particular, is an exceptionally sunny spot.
    On a more serious note, all of us on this Subcommittee know that 
the benefits of a stronger commitment to renewable energy are clear: 1. 
Enhanced national security due to reduced dependence on foreign sources 
of oil; 2. Enhanced security of energy supply; 3. Revitalized and 
stabilized agricultural economy; 4. New manufacturing and service jobs; 
increased export markets; 5. Cleaner air and water; and 6. More 
sustainable use of productive lands and forests.
    However, for a variety of reasons, Congress has never been able to 
move forward in anything other than something of an ad hoc fashion. One 
of the big disadvantages of such an approach is that it inadvertently 
pits the various sectors against one another at a time when they really 
need to be rowing in the same direction.
    This is no longer a question of wind versus solar or geothermal 
versus biomass. All of these technologies potentially have a role in 
our nation's future.
    It is the role of the government to incubate these programs up to 
the point that they become viable and then kick them out of the nest 
and let the market dictate the path forward.
    Even with relatively small appropriations in recent years, many 
renewable technologies have moved forward to the cusp of being 
competitive with traditional sources of energy. Wind energy, in 
particular, has enjoyed great success putting them on the verge of 
being pushed into the market and weaned off of federal funds. Not this 
year or next or the one after that, but very soon.
    It takes time and money to develop mature energy sources. Our 
nation has invested over $50 billion in its pursuit of hydroelectric 
power; between $25 and $50 billion in its development of nuclear power. 
To date, the U.S. has spent less than $13 billion on ALL forms of 
renewables.
    We need to do better.
    We can do better.
    And we are going to do better.
    I have with me today a letter I received last week signed by 56 of 
our colleagues requesting that we provide full funding--$409 million--
for the renewables program. I think that is a fine starting point.
    Senator Domenici, you and I are scheduled to talk about several 
Subcommittee matters tomorrow and this will be one of them. You might 
want to consider bringing the Subcommittee's wallet with you!
    Several other thoughts before I wrap up:
    Interrelated thoughts for Assistant Secretary Huntoon and Dr. 
Itkin:
    I am very concerned with reports of the inadequacy of the Nevada 
Test Site ground water monitoring program. It is my understanding that 
the peer review of the Frenchman Flat water flow model is being 
severely criticized.
    I have in the past and will continue to support additional drilling 
at the NTS to determine whether contaminated ground water is moving at 
the Test Site.
    Mr. Magwood, as you know I am interested in a continuation of 
funding for the Accelerator Transmutation Waste program. I realize that 
you have zeroed this program out in fiscal year 2001, but I hope you 
can give me an update on your thoughts in regards to this program.
    We have a lot of witnesses today, so I will stop here. Thanks again 
to all of you for coming. I look forward to working with all of you as 
we put together next year's funding bill. Thank you.

                          BIOENERGY INITIATIVE

    Senator Domenici. Do you have any questions?
    Senator Reid. Yes, I do have some questions.
    Mr. Reicher, you have requested a significant increase for 
programs within your bioenergy initiative. Tell us about that. 
And what is the potential for biomass power and biomass ethanol 
in the future?
    Mr. Reicher. Senator Reid, I think the potential is quite 
extraordinary. I think before you came in I said that today we 
get 3 percent of U.S. energy, U.S. primary energy, from 
biomass. And I think that we have the technologies today and 
under development that the goal that we have set to triple that 
by 2010 is quite realistic.
    We now know how to make a ton of biomass into fuels that 
can power vehicles, into electricity, and into chemicals and 
precursors to chemicals that increasingly the chemical industry 
is interested in using.
    So I think the opportunity is very, very large. What comes 
with it and what I think is so exciting to so many people on 
and off Capitol Hill is that we can do very good things for 
farmers and foresters, who obviously find themselves in a very 
tough situation right now economically; looking for new uses 
for what they grow, and looking for new uses for the wastes and 
residues that they leave behind.
    So I think with the support that we have gotten in Senator 
Lugar's bill that the full Senate adopted at the end of 
February, with the President's goal of tripling biomass energy 
use, with the technological breakthroughs we have seen, with 
the new plants that are under construction, with the interest 
ranging from the chemical industry to the power industry to the 
ethanol industry, I think the future is very, very bright.
    And what we strongly urge you to do is to strongly consider 
the funding request we have made so that we can move forward 
with this exciting opportunity.
    Senator Reid. If your program were not initiated--well, 
initiated is not the right word. If your program was not 
funded, what happens to this biomass?
    Mr. Reicher. Well, I think the big thing that we lose is 
the following. Over the last year and a half, we have brought 
major companies together from the chemical industry, the power 
industry, the fuel industry. They have all agreed that if we 
are going to make radical progress in biomass, we have to take 
a more integrated approach.
    We cannot have one company interested in making a liquid 
fuel, another company interested in making electricity, and a 
different company interested in making chemicals. This has all 
got to be integrated.
    So the big thrust of our work and what this extra money 
would fund is to spur integrated approaches, so that a ton of 
biomass would go into what we are increasingly calling a bio-
refinery, just like an oil refinery. And out of that would come 
not only liquid fuels, but electricity, chemicals or chemical 
precursors.
    And we are moving to a day that we think we can accelerate 
with adequate funding where a ton of biomass can be a viable 
market competitor to a barrel of imported oil. We are moving 
towards that day. And that is a very exciting prospect for the 
economy, particularly in rural America.

             REDUCING OIL IMPORTS THROUGH INCREASED BIOMASS

    Senator Reid. With oil prices in a state of flux, to say 
the least, right now, could biomass help alleviate this 
situation that we face? We are always talking about reducing 
the need for importing oil.
    Mr. Reicher. Well, let me say, we are all familiar, of 
course, with corn ethanol. And that has been an important 
contributor to reducing our dependence on foreign oil. What is 
exciting is with these new technologies, we now know how to 
make ethanol out of just about every other kind of biomass. For 
example, the rest of the corn plant, the cob, the stalk, the 
leaves.
    I think before you came in I mentioned there are new plants 
under way in New York State. They will be making ethanol out of 
municipal solid waste in Louisiana, out of waste from the sugar 
cane industry; in California out of waste from the rice 
industry that they no longer can burn in the fields under air 
pollution regulations; in North Carolina from the sweet potato 
industry; in the Dakotas apparently from sugar beets.
    So what we have is an opportunity, if we can push this 
technology forward, to make a lot more ethanol out of both corn 
and a variety of other products to displace our dependence on 
oil.

                     ENERGY EFFICIENCY INVESTMENTS

    Senator Reid. We always focus on the fact that when the 
first energy crisis came in the early seventies, we were 
importing 40 to 45 percent of our oil. Now it is up to 55, 56 
percent.
    But the thing we do not talk about, if we had not developed 
ethanol and some other programs that are in use now, it would 
be even higher than 55, 56 percent, would it not be?
    Mr. Reicher. If we had not developed those alternative 
sources and if we had not made the investments that we have 
made in energy efficiency, that level of dependence would be 
substantially higher. And equally or more important, our 
national energy bill would be substantially greater.
    We estimate that the investments in efficiency over the 
last couple of decades have left our economy on an annual basis 
about $200 billion better off than it would have been had we 
not seen those energy efficiency improvements and the 
development of these clean power sources as well.
    Senator Reid. You indicated that just with biomass alone 
you could increase the amount of our total energy cost from 3 
percent to three times that. So that would be 9 or 10 percent.
    Mr. Reicher. Correct.
    Senator Reid. I wonder what that would translate into 
barrels. You know, we are always talking about importing 
barrels of oil. What does that translate to?
    Mr. Reicher. Well, we are one-and-a-half billion gallons 
today. And we think we could be substantially above that, 
several billion gallons a day.
    Senator Reid. You indicated three times that, so that would 
be----
    Mr. Reicher. In the range of--what gets confusing, Senator 
Reid, is that we can do a variety of----
    Senator Reid. Those notes get confusing.
    Mr. Reicher. Yes. These get quite confusing. So I would 
throw them away. What gets very confusing is that biomass can 
be made into so many things. And tripling it, we might get some 
of that tripling by making liquid transportation fuels. We 
might get a part of that tripling by mixing it with coal and 
making electricity. We might get a part of that tripling by 
replacing the oil in the chemical industry, increasing it with 
biomass.
    So we cannot tell you exactly today where the economy will 
take us in that tripling. All we know is that prices of biomass 
technologies are coming down. And we think that tripling U.S. 
primary energy use from about 3 percent to about 9 percent is 
quite realistic. And as I say, both the President's goal and 
Senator Lugar's bill provide strong support for moving forward 
with that.

                           GEOTHERMAL ENERGY

    Senator Reid. Earlier, within the past few months, I 
participated in the announcement of a new initiative by the 
Department of Energy called Geopowering the West. This 
initiative is to substantially increase the use of geothermal 
power in 19 western States. Talk to us a little bit about what 
your ideas are with geothermal power.
    Mr. Reicher. Senator Reid, geothermal power today is seeing 
a very impressive price decline. We have brought the price down 
substantially since 1985. And we think through additional R&D 
we can bring it down further.
    There is a vast geothermal resource in the western States, 
a really phenomenal resource, and not only for making 
electricity, but for also using it for heat, heat for 
buildings, heat for industrial activities. And together, we 
think that it is--we could provide 10 percent, our goal is 10 
percent, of electricity in the western States from geothermal 
by 2020.
    Today, California alone gets 6 percent of its electricity 
from geothermal. Nevada has an extraordinary resource. Many of 
the western States do. And what we want to do is give much 
greater familiarity to the 250 to 300 communities across the 
West that are located adjacent to a good geothermal resource.
    We want to give them much greater experience than they have 
to date with this energy source. It is a clean source. It is an 
abundant source. And it is one that I think is worth the 
investment that we are seeking.

                        PROGRESS OF SOLAR ENERGY

    Senator Reid. Mr. Chairman, just one other question. Then I 
will ask permission to submit my others in writing.
    Tell us a little bit about solar energy. Are we making any 
progress? I went to the plant a number of years ago down by 
Barstow. And that is 200 megawatts, which is the largest in the 
world. But their technology is very old. Are we doing any 
better than that?
    Mr. Reicher. We are doing much better. We have come a long, 
long distance. I think in the briefing slides we were at $1 a 
kilowatt hour in 1980. Literally the only place we were using 
it was in space. And as a result of the work of the labs and 
industry, we literally brought this technology down from space. 
We are down to 20 cents a kilowatt hour. We think we can get in 
the range of 10 cents a kilowatt hour by 2005.
    Senator Reid. How does that compare to natural gas, for 
example?
    Mr. Reicher. Natural gas is substantially cheaper. Combined 
cycle natural gas plant is between 2 and 3 cents. But the 
interesting thing about solar is, number one, from an export 
perspective, there are 2 billion people who are not connected 
to an electricity grid in the world, 2 billion. And their solar 
can often compete well or can beat almost any other energy 
source for bringing electricity to developing countries.
    Within our own country, it brings a variety of 
environmental benefits. It is highly adaptable. I will just 
give you two--this is a roofing shingle. This is what would be 
an asphalt shingle. But actually the solar material is built 
right into the shingle. And instead of putting an asphalt roof 
on, you put this solar roof on. You have to put a roof on your 
house anyway. Wire it up, and you are making electricity.
    We are now getting to a point--and I think beginning next 
year we are going to see this--where glass--and this is 
relatively translucent. But literally transparent glass going 
into buildings will have a multi-fine layer of the photovoltaic 
material laid down on it. And so literally windows in buildings 
will be producing electricity. And it is an exploding market 
all over the world.
    And as I said, I think before you came in, the unfortunate 
fact is that we have lost our number one market share to the 
Japanese in the last year.

                    SOLAR ENERGY IN REMOTE LOCATIONS

    Senator Reid. Mr. Chairman, I traveled earlier this year to 
Nepal, and 84 percent of the people in Nepal have no 
electricity. I got a letter yesterday from a Peace Corpsman 
there who sent a number of pictures and explained what he was 
doing. I asked him to do that.
    One of the pictures showed out in this remote part of Nepal 
a roof with a solar panel on it. And it is the first 
electricity they have ever had. And they are able to, with that 
solar panel--and the sun does not shine a lot there. They are 
able to have light in their houses, basically what it is for. 
And the panel was very small.
    Mr. Reicher. Yes. It is a highly adaptable technology. And 
as I say, the near term opportunity and the growth has been 
some 20 to 25 percent a year for the last many years, the 
opportunity is in developing countries. And we have some very 
strong U.S. companies that can sell abroad and are making 
money.
    Senator Reid. Explain to us, Japan has surpassed us in 
what?
    Mr. Reicher. In world market share, just this past year. 
Their government support is about three times what it is in the 
United States. And they have, frankly, a stronger domestic 
deployment program than we do in the United States, although I 
think we are doing a good job. But they have a much stronger 
one there.
    Senator Reid. Thank you, Mr. Chairman.
    Senator Domenici. Thank you, Senator.
    Senator, you are next.
    Senator Craig. Thank you very much, Mr. Chairman, Dr. 
Decker, Mr. Reicher and Mr. Magwood. Thank you.
    Let me make a couple of observations first, because I know 
this administration right now is scrambling to try to publicly 
display an energy policy that frankly I think has been lacking. 
And I have been speaking out about that, as has other Senators. 
And I spent years with this type of budgeting that reflects an 
anti-nuclear and an anti-fossil fuel bias which has clearly 
emerged.
    And to spend the last good number of minutes talking about 
new emerging technologies, Mr. Reicher, is something that I 
will vote for, because I do not believe we ought to demonstrate 
narrow bias that shove large portions of our energy base out of 
the marketplace. I think we ought to work on a full basket. And 
clearly solar, photovoltaic and wind are a part of the total.

                 WIND ENERGY PRODUCTION ON PUBLIC LANDS

    But when I look at your map on page three, I see an 
emerging problem. I see Idaho, Montana, Wyoming, Colorado and 
New Mexico as major wind-producing States potentially. The 
problem with that is that those are all public land States. And 
most of those areas that show that excellent opportunity is 
public land.
    Right now the bias in this country will not allow energy 
development on public land, will not allow drilling, will not 
allow coal mining. Why would it allow the slopes of the Rocky 
Mountains to be covered with windmills?
    Mr. Reicher. Senator, that is an excellent question. I do 
not know the total details of this, but I can tell you in a 
general way that when this ranking was put together, it took a 
count of a variety of constraints on land use.
    Senator Craig. But I bet it did not take account of 
environmental impact statements, the NEPA process and the 
public bias that wants to leave those vistas open and 
beautiful.
    Mr. Reicher. I actually think that it took into account 
areas where, for a variety of restrictions placed by Federal, 
State and local governments, you could not. But there is a more 
important point, Senator. And that is that what we have found 
is that these generally go well and are highly accepted in 
agricultural areas.
    Senator Craig. But those are private lands.
    Mr. Reicher. Private lands.
    Senator Craig. That is right.
    Mr. Reicher. And farmers----
    Senator Craig. The areas that you are saying here, most of 
these States are 60, 70, 80 percent public lands.

                      WIND ENERGY ON PRIVATE LAND

    Mr. Reicher. I understand that. But we do not need a huge 
land area for the kind of development we are talking about. And 
what we have found is that farmers, because they can plant 
their crops and graze their animals literally up to the base of 
these energy technologies and get paid for the use of their 
land, they love this technology.
    Senator Craig. Well, I do not dispute that. I totally agree 
with you. And I think in North Dakota and other places like 
that that are more private land, I agree. But what you are 
talking about is something that is well known. That is 
basically the wind tunnel of the Rocky Mountains that rolls 
down out of Canada, that generates that pattern that is 
demonstrated on your map. Any of us who understand the 
geography of the West understand that.
    Those are--that is public land. And I have been around wind 
farms. They are big. They are very visible. And they are loud. 
They make a whopping sound that I do not think the public out 
west is going to like very well when they are out recreating on 
these mountain slopes.
    Mr. Reicher. If I could----
    Senator Craig. Please do.
    Mr. Reicher. Actually, the modern turbines, the new 
turbines, developed in the last few years are quite quiet. They 
are----
    Senator Craig. They do not stand up on a large promontory 
and have large blades?
    Mr. Reicher. Oh, they are large.
    Senator Craig. Yes.
    Mr. Reicher. They have large blades. They are quite tall. 
But they are relatively quiet compared to the old versions that 
you might have see in California, for example, where the major 
development----
    Senator Craig. Well, I only bring that because my guess is 
that if you expect that explosion of development other than on 
private property, we are going to have to change our attitudes 
as a public.
    Mr. Reicher. Actually, I do have a note here from someone 
with me that the studies did take into account NEPA, public 
lands, et cetera, for wind. So we were quite conservative in 
the analysis of this.

                               GEOTHERMAL

    Senator Craig. Good. The same is also true of your 
geothermal development. I know the Senator from Nevada has just 
expressed that. I watched a flurry of geothermal excitement in 
the 1970's, after the last energy spike. And they came to my 
State of Idaho. They drilled in a variety of places. And the 
result was relatively disappointing because of the high 
temperatures needed at that time.
    Now I know technology is bringing down the overall 
temperature requirement some, and that is valuable. Once again, 
the problem is that the great geothermal basic of Idaho is tied 
to Yellowstone. And there is a tremendous fear that we might 
deplete the geothermal energies that are tied to Old Faithful.
    If you look at that pocket on your map on page 7 in 
northeastern Idaho and into Wyoming, that is the geothermal 
basin of Yellowstone Park. I do not think there will be any 
drilling there, because it was disallowed at the time with a 
great fluffy of concern, and legitimately so. And I did not 
criticize it.
    I think what I am trying to suggest to you is that the 
public in whatever fashion is going to have to accept some 
degree of tolerance to allow any kind of energy development, 
especially when you target large public land States of the 
West. Less true of biomass and all of that. Although on public 
lands in the West, collection of biomass, if we are not allowed 
to enter those lands and do stewardship programs to reduce the 
bio-loading and therefore make that stuff available, which we 
are not being allowed to do today, largely because of biased 
inter-public lands. Those are all going to be factors.

                               HYDROPOWER

    But certainly on private properties and in the West, those 
are going to be extremely valuable. The reason I point those 
out, I am going to vote for this budget. But I am going to vote 
to put more into nuclear. I am going to vote to put more into 
hydro. And the question I would like to ask of you, Mr. 
Reicher, the advanced turbine research and development program 
requested for fiscal year 2001 is $5 million. The budget 
justification for 2001 States that the plan is to complete 
laboratory biological studies of the effect of turbulence on 
turbine-passed fish.
    Now the reason this is important, Mr. Chairman, we are 
engaged in a major controversy in the Snake-Columbia River 
system that is probably one of the greatest hydro-networks of 
the western world. There is a discussion of the removal of four 
dams with a generating capacity of 1,000 megawatts, a peaking 
capacity of 3,000, a huge abundance. And that is at a time 
that, within a year, Bonneville Power is going to be reporting 
a deficit of energy supply in the region. And yet this 
administration, some in the administration, have been very 
active advocates in the removal of those dams.
    I, quite the opposite. In fact, one of the areas of 
research here is to make the turbines less damaging to fish, 
more fish friendly. And that research is applicable all over 
the world and most certainly in that area.

                         FISH FRIENDLY TURBINES

    So I guess my question to you is: Could you explain why 
there is no funding being requested for the pilot scale proof 
of concept testing of the conceptual design to verify 
biological criteria and the predicted biological performance 
using live fish? That is the next step that we have to get to. 
That is, if we do not have an anti-hydro bias, and we want to 
improve the fish-friendly character of our hydro systems.
    Mr. Reicher. Senator Craig, first of all, it is an 
important energy resource. It is an area of R&D that we are 
committed to. And I brought an example of what this work 
involves, which is literally testing the impacts of various 
turbine designs with respect to both the actual mechanical 
impacts that a turbine can have on fish and the impacts on the 
dissolved oxygen at the base of a turbine.
    We literally have what somebody joked as sort of like a 
crash dummy fish. These are wired electrically, and we can do 
all sorts of important experiments looking at these designs.
    So we are very, very supportive of making these dams, these 
turbines, as people say, more fish friendly. We do think it is 
critical to what I think a number of dams are facing or will 
face in terms of relicensing over the next several years.
    And so that $5 million is designed to in fact move this 
whole opportunity forward to put new turbine designs into 
greater use, particularly as dams face relicensing.
    Senator Craig. But there is no money requested for the 
pilot scale----
    Mr. Reicher. I did not understand that question. And I am 
told that in fact----
    Senator Craig. We could not find it, at least. If it is in 
there, could you identify it for us?
    Mr. Reicher. Yes. We will identify that. And we will be 
quite specific about what that money is for, because I thought 
that was what the next step involved.
    [The information follows:]

                   PILOT-SCALE FISH FRIENDLY TURBINE

    The Department of Energy is committed to the goal of developing 
hydropower technology which will reduce turbine-induced fish mortality 
to 2 percent or less. No fiscal year 2001 funding was requested for the 
proof-of-concept, pilot-scale, test of the fish-friendly turbine design 
developed by the Alden Research Laboratory, since fiscal year 2000 
funding was considered sufficient to cover this activity and allow it 
to continue through fiscal year 2001. In addition, fiscal year 2001 
funding is requested for biological research, including sensor fish 
refinement, to gain the necessary understanding of stresses and 
behavior of fish in the turbine environment. The DOE program will also 
explore other fish-friendly designs by providing funding support for 
biological testing of turbines provided by industry.

    Senator Craig. It is. We are really going to reach forward 
and make--we have already done some retrofitting. I think we 
did it at Bonneville in the Lower Columbia, and we are moving 
up the system. But what is most important is that we advance 
this design so it is applicable, both in large and small scale, 
for all of our hydro systems around the country.
    Mr. Reicher. Absolutely.

                    SODIUM BONDED SPENT NUCLEAR FUEL

    Senator Craig. Mr. Magwood, would the environmental impact 
statement for treatment and management of sodium bonded spent 
nuclear fuel scheduled to be completed in December 1999, why 
has the final environmental impact statement not be finalized? 
And when do you expect the record of decision to be issued?
    Mr. Magwood. Yes, that is true, Senator. We have been 
delayed in getting that out. There are two primary reasons for 
that. I think the most important reason is that we have been 
waiting for completion of a study by the National Research 
Council on the viability of the electrometallurgical treatment 
technology demonstration project and the use of this technology 
for treating DOE sodium bonded fuel.
    And if you have ever worked with the National Research 
Council, they are not always the most time-efficient 
organization, but they do come out with good answers. I am 
pleased to tell you that I met with them last week and their 
final report is now complete. And I have been informed that 
they have a very favorable view of the use of 
electrometallurgical technology for the use of treatment of our 
sodium bonded fuels.
    So we are currently completing the environmental impact 
statement, and I expect that we will issue the final EIS in the 
next 3 or 4 weeks, and 30-days later the Record of Decision. So 
I think that in May or so, we will see the Record of Decision.
    Senator Craig. Well, thank you. I think that is obviously 
necessary and important.
    Mr. Chairman, I have other questions. Let me ask just one 
last one, and then we will go another round, if you feel it 
necessary.
    Senator Domenici. Sure.

                       NUCLEAR REACTOR TECHNOLOGY

    Senator Craig. To help maximize the benefit of its nuclear 
energy research programs and facilities, DOE has selected 
Argonne National Laboratories and the Idaho National 
Engineering and Environmental Laboratory to serve as its lead 
laboratories for nuclear reactor technology.
    The lead laboratory's charter calls for Argonne and the 
INEEL to continually evaluate and integrate the results of 
research and consider the need for follow-on research 
development and demonstration programs, as required to meet the 
Department's long-term goals and serve as a technical resource 
to provide support for the DOE and decision making or R&D 
efforts.
    Mr. Magwood, would you please comment on the DOE's nuclear 
power programs?
    Mr. Magwood. Yes, I would be happy to. We have established 
a lead laboratory relationship with Argonne and INEEL in Idaho. 
And it has proven to be very, very helpful in dealing with 
nuclear reactor technology issues. For example, our efforts to 
develop Generation IV nuclear power systems has been 
facilitated in large part by the lead laboratories.
    The meetings that we have been having with the 
international community have been hosted by those laboratories. 
The Idaho National Engineering Laboratory in particular has 
been instrumental in pulling together a large workshop that we 
are holding in May that will include about 100 experts from 
across the world to talk about next generation nuclear power 
technologies.
    They also have been helpful in working with the other 
laboratories that have nuclear expertise, integrating an 
overall picture on nuclear technology. Obviously, we are to a 
certain extent resource constrained, so we have not been able 
to push that relationship as far as we would like.
    But I am very hopeful that in the future we will be able to 
devote more resources to those laboratories to establish the 
kind of pool of experts that are constantly available to us to 
support future nuclear power needs in the United States.
    Senator Craig. Thank you very much, Mr. Chairman. I will 
come back in the second round. Thank you.

                             NUCLEAR ENERGY

    Senator Domenici. Senator, let me just say I personally am 
very proud of the fact that within the Department of Energy 
they are doing some nuclear work now. Two years ago, they were 
doing none--2 years ago, you would assume that nuclear energy 
did not belong in an energy department of the greatest nation 
on earth. And we are doing some exciting things, little by 
little. And Mr. Magwood has taken a real positive approach with 
small amounts of money.
    It is quite obvious that we have a long way to go, but we 
are catching up very, very fast in terms of these other 
countries that have taken our technology and are moving ahead. 
The Nuclear Regulatory Commission has become much more 
realistic in terms of the way they are regulating the industry. 
It is with great success. But it would appear that it is not 
with the idea of making it difficult, making it prolonged 
beyond reason.
    And I very much appreciate your interest, because, frankly, 
the world is going to find a new reactor that is safe, and 
there will be no way for anybody to worry about it. And we will 
put that in the mix in the United States, also, sometime in the 
future, I believe.
    Senator Craig. Well, Mr. Chairman, it is appropriate that 
you say that. And I must say the leadership for that turnaround 
has come largely from this committee and from your effort and 
those of us who are involved and interested. Because when I 
look at the scheme of things and I look at our desire to have 
clean air in this country, and we should----
    Senator Domenici. Exactly.
    Senator Craig [continuing]. I am not quite sure how we get 
there without at least the nuclear component and the hydro 
component sustaining a percentage of the share of the total. I 
do not think we get there. And yet we are wanting it as a 
country, and we deserve it with our capabilities and our 
technologies.
    So we will push in that area. And if we have to, we will 
lead. Thank you.
    Senator Domenici. Well, I want to also make an observation, 
because I do not have time today. Mr. Reicher, having 
complimented you, I continue that compliment in terms of 
managing your office. It is very diverse and very difficult.
    But I do not have time today to engage in a series of 
questions with you whereby we would establish some of the 
limitations that are real with reference to solar energy and 
the other energies that you have described today.

                   PROS AND CONS OF RENEWABLE ENERGY

    There are others who have looked at it and say yes, it 
should be pursued, but we ought to be realistic as to what it 
can accomplish. And we also ought to be realistic as to what 
pollution it will ultimately cause, if you use conventional 
solar apparatus and wind apparatus, and you really think you 
are going to add substantially to the national need, that there 
will be a huge amount of apparatus left over that assume 
gigantic status in terms of ground pollution.
    So I am going to try, in which event I will notify you, I 
am going to try to bring a witness from that side of the 
equation, that would come before the committee and say, you 
know, you are not going to touch the dependence on crude oil 
very much for the next 15 years, or tell us out of all of these 
which one has the best chance of doing something significant.
    I do not want anyone to think I am against these 
technologies. I cannot find enough money for all the solar 
energy requests and the others in the budget, in the 
appropriations. We might this year. We will try. But, frankly, 
I look at it from the standpoint of our growing dependence on 
oil.
    And I just do not see in the foreseeable future a very 
major reduction in crude oil dependence in the United States. I 
see more in conservation probably than any other thing we have 
addressed here today. That is real. We could do tremendously 
better, if we set about to do it. But I am not sure that the 
other technologies that have been spoken about here today are 
really going to make a very big dent.
    But I need somebody who knows more than I know, knows as 
much as you know, but knows it from a different slant. I need 
to have them come before the committee and tell us about it.
    And like I say, I will be fair. I will prompt you and tell 
you that we have that person. And if you want to come up, maybe 
you would come up with them. In any event, we are going to hear 
from somebody on the other side of this.
    Now having said that, let us----
    Senator Reid. Mr. Chairman, just one brief comment.
    Senator Domenici. Sure.
    Senator Reid. And also, I think in fairness we need 
somebody to give us the other side of the nuclear----
    Senator Domenici. Sure. Whatever you would like.
    Senator Reid. I do not know what that is, but----
    Senator Domenici. We are not planning to build a new 
nuclear reactor, from what I can see, for a long time. So right 
now we are still stuck with what we have.
    Senator Reid. I have supported you in your efforts to 
develop transmutation and other programs like that. I think it 
is important we understand the full program.
    Mr. Reicher. And, Mr. Chairman, if I could just for one 
second?
    Senator Domenici. Sure.

                        RENEWABLE ENERGY SOURCES

    Mr. Reicher. I also urge you to take a look at what some of 
the oil companies themselves, in terms of their own 
projections, are considering with respect to the role over time 
that various technologies are going to play in our energy mix. 
And it is very illuminating.
    You will see, for example, a variety of these oil companies 
take the opportunities with biomass very seriously, very 
seriously, and there are projections of----
    Senator Domenici. Right.
    Mr. Reicher. And hydrogen in a very fundamental way.
    Senator Domenici. Well, I heard that today. And we 
certainly are going to be asking questions about that. That is 
an exciting thing. If in fact we have it moving in that 
direction, we may get more biomass, also, than I have 
perceiving looking at what others predict.
    You may be more right on biomass. It may very well be a new 
combine is taking place in terms of generating the interest.
    Mr. Reicher. And with respect to solar, the breakthrough 
for the solar electric will be when we succeed, as we are 
moving towards actually building it into building materials, 
literally the materials that we build our houses and buildings 
and making them self-generating. We are moving in that 
direction, and it is very exciting to have a technology that 
literally will be part and parcel of the structures in our 
cities and other areas.
    Senator Domenici. Let me ask Senator McConnell, how long 
can you stay?
    Senator McConnell. Well, I have several things----
    Senator Domenici. I am going to have to leave shortly. And 
I had a few questions of this panel. Did you have questions of 
this panel?
    Senator McConnell. Yes, of Mr. Magwood.
    Senator Domenici. And then we have another panel of two. 
Would any of you be able to stay and call those people?
    Senator Craig. I think I can stay for a little while 
longer.

                             NANOTECHNOLOGY

    Senator Domenici. All right. I just have a couple of quick 
questions. Dr. Decker, first, I understand you really had to go 
out of your way personally to be here today. You had something 
much more pleasant planned for your life. And you were entitled 
to that. And I very much appreciate your coming.
    The notion of nano science, which the President is now 
bantering around, and so people are beginning to take this 
technology and listen to it and look at it, it is obviously 
some of the most exciting science work that we have ever seen. 
I had occasion to see a little piece of nano science at Sandia 
National Laboratories, where they were talking about micro-
engines and the production of little, tiny engines on a chip, 
like a computer chip. And they actually ran. Little engines run 
and produce power and do things, although mighty small.
    As a matter of fact, I was very privileged to have been in 
the presence of a young engineer who got the national award for 
engineer of the year for being the design engineer of a micro-
engine on a computer chip. And I thought--I never thought 
engineers would recognize that that is engineering. I thought 
engineering is engineering.
    It is not making micro-engines that are as small as a 
strand of hair and putting thousands of them on a chip. And 
thinking that you might put them in the bloodstream some day 
and they will attack what you ask them to attack, perhaps the 
stuff that accumulates around the human heart. There are all 
kinds of uses.
    The President is asking for a lot of nano money spread out 
across six different agencies and departments. I would just 
like to ask you, could we be confident here that the national 
laboratories, who do a lot of work and those that are involved 
in nuclear weaponry, need nano science all the time. Theirs is 
the business of miniaturization. Will they be part of this 
effort, as you see it?
    Dr. Decker. Yes, Mr. Chairman, they certainly will. We 
have, I think, enormous capabilities within the national 
laboratories in the whole area of materials. In fact, the 
Department is, I believe, the leading supporter of material 
science.
    We have a terrific investment in facilities that are going 
to be incredibly important in characterizing and understanding 
science and technology at this scale. Our synchrotron light 
sources, our neutron sources, our electron micro 
characterization facilities, all will be incredibly important, 
I think, in carrying out this initiative.

                       SPALLATION NEUTRON SOURCE

    Senator Domenici. You have requested $262 million for the 
Spallation Neutron Source at Oak Ridge. It had a little bit of 
a delay because of an overrun and a little bit of confusion 
with reference to management of the project. I assume we are on 
all four burners, moving right ahead now. Is everything in 
order?
    Dr. Decker. Yes, Mr. Chairman. I am pleased to say that it 
is. We just had a very significant review of that project. And 
the review team concluded that in fact the project is on--can 
be built on cost and schedule. But we did do some significant 
restructuring, as you indicated, on the management of that 
project over the last year. We have an excellent management 
team in place now, and I think they are doing an outstanding 
job.
    Senator Domenici. Are there any technical, engineering, 
management or scientific issues that remain that could impact 
on the successful completion of this project?
    Dr. Decker. I think any time you build a facility like 
this, which is pushing the state-of-the-art, you always have 
some unknowns with regard to incorporating technology. But we 
believe that the risks, any risks that we have, are quite 
manageable. And we are quite comfortable that there will not be 
any technical show stoppers at this point.
    Senator Domenici. I just got that question on the record, 
fellow Senators, because we do not have a great record within 
the Department of Energy of building major kind of facilities 
and getting them done on time, or even getting them done. That 
is not complaining about anyone. It is just a statement of 
fact. And this is not one of the giant projects, but it is a 
pretty good sized one.
    Dr. Decker. It is.
    Senator Domenici. And I would very much not like to see 
this one go the way a number of them have. So we are going to 
follow it very carefully. And when we ask you these questions, 
we are very serious about your telling us on the record, so we 
do not have something new occur later.
    Dr. Decker. Yes, sir.
    Senator Domenici. Thank you for your dedicated effort. You 
have put some really good people together.
    I yield now to Senator McConnell.
    Senator McConnell. Thank you, Mr. Chairman.

                          CYLINDER CONVERSION

    Mr. Magwood, when I drafted the cylinder conversion bill 
which is now Public Law 105-204, it established a time table 
that would give the Department more than enough time to 
implement this legislation. Unfortunately, my lowest 
expectations for the Department have been exceeded.
    I am very skeptical that the budget offered by the 
Secretary is sufficient to keep this project on track and able 
to meet the time table that you have set forth. In fact, it is 
my understanding that this budget only provides enough funding 
for your office to complete one-third of the total design work 
for the facilities.
    Based on information from project experts, as well as 
information from your office, at least $60 million is needed to 
keep the project on track.
    Further, I am disappointed the Secretary offered only $12 
million of the available $24 million he had committed to 
provide last year.
    So I have several questions in that regard. Has the 
Secretary withdrawn his commitment on this project, Mr. 
Magwood?
    Mr. Magwood. No, Senator. I have spoken with the Secretary 
about this, and he is insisting that we proceed along with this 
project as efficiently as we can. I have also worked very 
closely with the Deputy Secretary, and he has spent a great 
deal of time with me personally discussing this, and how to 
keep it on track.
    There are obviously significant funding limitations, but I 
think that given where we are in the project, the need to do 
some sampling of the cylinders--I think you are very familiar 
with the issue that we have run into, where we are concerned 
about the possibility that there are transuranic materials in 
the depleted uranium that could affect the design of the 
facilities down the road.
    Given where we are, I think the amount of money we have 
asked for is just about right.
    Senator McConnell. What about the remaining $12 million in 
funding that has not been obligated?
    Mr. Magwood. Well, let me explain. We expect to issue an 
RFP in October. If we keep to that schedule, and I expect that 
we will, we will be able to award a contract probably around 
this time next year.
    Because of the fact that this will only leave a small 
amount of time left in the fiscal year to do work, we think 
that the $12 million we have asked for in appropriations and 
the $12 million we have matched it with--the available USEC 
monies--is sufficient to get through the rest of that fiscal 
year.
    What that means is that the $60 million you spoke of will 
probably be needed up in the 2002 budget or the balance will be 
needed in the 2002 budget to complete the design work.
    So it has not reduced the need. It has simply pushed it off 
into the future a bit. But we are still on track. We are 
obviously behind schedule because of the transuranic issue, but 
I believe we are on track and moving along as best as possible.

                      SALE OF LOW ENRICHED URANIUM

    Senator McConnell. Last year, the Secretary promised to 
commit the revenue from the sale of low enriched uranium held 
by the Department to fund the conversion of 57,000 cylinders of 
depleted uranium stored at Paducah, Portsmouth, and Oak Ridge.
    The President's budget assumes that the sale will raise $21 
million in fiscal year 2001. Yet, as we have said, only $12 
million is budgeted for the conversion program.
    How do you explain this? Is this a budget sleight of hand 
or what? How would you explain that?
    Mr. Magwood. I did not answer the first part of your last 
question--or the second part of your last question.
    The $12 million that you spoke of, the rest of the $24 
million, is still available and can still be devoted to the 
project. We still plan to put that in the project in the future 
years. So it is not that we have used it elsewhere. We simply 
are deferring its use for now.
    The money that we expect to collect from the sale of LEU, 
my understanding--and I have talked with our CFO about this--is 
that we did provide some language to different members to try 
to get that into the budget so we could use it for this 
project.
    And for whatever reason--I am not as familiar with this as 
the CFO is--that did not happen. And I do not know what the 
plan is to go forward. So, I am not, perhaps, the best person 
to address that aspect of it.
    But we do expect to apply all of the available USEC funding 
to this project. And we have been working very closely with the 
staffs of the Kentucky and Ohio delegations as we try to apply 
those monies.

                       TRANSURANIC CONTAMINATION

    Senator McConnell. Well, going back to the transuranic 
waste that you mentioned, you informed my staff in a meeting 
last month that this waste was found in depleted uranium 
cylinders generated in 1988 and 1993.
    If the Atomic Energy Commission stopped using recycled 
uranium during the mid-1970s, how do you explain the fact that 
this material is found in these cylinders 10 to 15 years later?
    Mr. Magwood. I am not being facetious, but that is a really 
good question. We have been trying to figure that out. It is 
something that was a surprise to my office.
    We suspect that it may have come from the foreign research 
reactor field, but we are not really certain of that. It is an 
ongoing investigation to try to understand why that is there.
    As you indicated, we know that in the late 1950's to 1960's 
and late 1960's to early 1970's, the Department recycled 
uranium. Why material would show up 15 years later is something 
that we are still investigating.

                GASEOUS DIFFUSION PLANTS WORKER LAYOFFS

    Senator McConnell. You are probably aware that USEC is 
preparing to lay off 825 workers at the gaseous diffusion 
plants. It is my understanding that your office has control 
over $10 million in funds that have been obligated to cylinder 
maintenance between fiscal year 2002 and fiscal year 2010. The 
level of funding would be more sufficient--this level of 
funding would be more than sufficient to provide these basic 
benefits.
    Is there any reason why this funding cannot be used 
immediately to provide a voluntary reduction in force benefits 
package? And what about worker health testing or accelerating 
cleanup?
    Mr. Magwood. I have not heard that idea come up. It is 
certainly something that, I am sure, if you would like to make 
a recommendation, we would certainly take it back to the 
Secretary and discuss it.
    It simply has not come up, and I do not know if there is a 
technical reason why some of the monies could not be diverted. 
Clearly, if we do not spend money on cylinder maintenance, we 
do have the risk that some of the cylinders could corrode. We 
could have a leak. But as you know, we do not think that that 
is the situation now.
    There is a possibility that we could take after reductions 
and use that money elsewhere. But it is something we would have 
to look into very, very thoroughly before doing so. We would 
certainly be willing to take that recommendation back if you 
want to state that formally.

                      CYLINDER MANAGEMENT PROGRAM

    Senator McConnell. Yes. Why do you not do that?
    I have a budget document that was prepared by your cleanup 
contractor that states that at the end of fiscal year 2001, the 
cylinder management program will have an uncosted balance of 
$9.2 million between Paducah and Portsmouth.
    How do you explain this? And why are you requesting such a 
massive increase, if the contractor will not be able to spend 
this amount of funding?
    Mr. Magwood. I do not believe that is correct. From what I 
understand, we actually have less money available right now 
than we need to complete the work that has been assigned to the 
contractors.
    So I would have to understand more about where that number 
comes from before I can really respond to that.
    [The information follows:]

                          CYLINDER MANAGEMENT

    It is my understanding that as part of the budget formulation 
process for the uranium programs' fiscal year 2001 budget request, 
various funding scenarios were developed for allocation of funding 
among Paducah, Portsmouth, and the East Tennessee Technology Park by 
the management and integration contractor. Although the Office of 
Nuclear Energy, Science and Technology is not familiar with the budget 
document cited in this question, we are familiar with a scenario that 
maximized cylinder maintenance at Paducah and Portsmouth, and resulted 
in a somewhat lower uncosted balance. However, neither scenario is 
considered credible because of other program mandates that were not 
considered in the scenarios. As we proceed through the fiscal year 2001 
appropriations process, the Department will continue to analyze options 
for allocation of limited funding to meet the numerous priorities of 
the program at the three sites. Regardless, we do not envision the 
allocation of the funding among the sites to result in a high uncosted 
balance in fiscal year 2001.

    Senator McConnell. Would it not be better to just go on and 
spend the money on cylinder conversion to eliminate the threat, 
than to continue to maintain?
    Mr. Magwood. My view, Senator, is that you need a balance. 
It is going to take us 25 or 30 years to treat all of the 
depleted uranium. If we were not to keep a cylinder maintenance 
program going over that period of time, we would clearly, 
clearly have some environmental problems with some of those 
cylinders.
    As you know, some of the cylinders date back to the 
Manhattan Project, and they require a great deal of care and 
feeding, so to speak. We have to paint them; we have to inspect 
them. There are still some cylinders that we have not re-racked 
in the way that we can inspect them visually. So that work 
needs to continue.
    And obviously, as time goes on and as we complete the 
painting of at least one coat on each of the cylinders, the 
tempo of those activities can start to decrease.
    Quite frankly, I do not know whether we could spend a great 
deal more money than we have identified at this point because 
of the sampling issue and because of the fact that it simply 
takes time to award a contract like this and to do it right.
    So I do not think more money would help at this point.
    Senator McConnell. Mr. Chairman, if I could get in one more 
question, and then I will submit the balance of them to Mr. 
Magwood.
    Senator Domenici. Please proceed.

                          CYLINDER MAINTENANCE

    Senator McConnell. In testimony before the Energy Committee 
2 weeks ago, you claimed that your office has met the standards 
set by the Defense Nuclear Facilities Safety Board 
Recommendation 95-1 for depleted uranium cylinder management, 
and you are confident that the program has solved the cylinder 
storage problems.
    If you are in full compliance, how do you justify a 30 
percent increase in your budget for the cylinder--cylinder 
maintenance program at Paducah?
    Mr. Magwood. When I met with the Board, I believe it was in 
November, they asked why our funding for the cylinder 
maintenance program had decreased, because they knew our 
spending profile. And my response to that was that I had 
promised them that we would increase funding in the future to 
make up for the work that we had not done.
    And I believe that their dismissal of the recommendation 
was predicated on the program for cylinder maintenance that we 
have put in place and on the idea that we would make up for the 
work that had not been accomplished. So it is work that still 
needs to get done, and the Board recognized that.
    Senator McConnell. Well, Mr. Magwood, as I indicated, I 
have a number of other questions--which in the interest of 
time, Mr. Chairman, I would like to submit to him and have the 
responses in writing at whatever time we----
    Senator Domenici. They will be submitted. And would you 
answer that as soon as possible?
    Mr. Magwood. Absolutely.
    Senator McConnell. Thank you.
    Senator Domenici. I have a series of questions to be 
answered by all three of you, but I am not going to ask them. I 
will submit them to you.
    Senator Murray?
    Senator Murray. Thank you, Mr. Chairman. I, too, have a 
series of technical questions. If I could just submit them, so 
that we can move along. I do have some questions for the second 
panel. So I would be happy to submit these.
    Senator Domenici. Thank you very much.
    Senator, do you have any further questions?

                        EBR-II SODIUM PROCESSING

    Senator Craig. I do have just two more. And let me ask one 
of Mr. Magwood and one of Mr. Reicher. Mr. Magwood first.
    There has been some criticism of delays and technical 
problems in processing the sodium coolant at EBR-II at the 
INEEL. Will you please describe what steps have been taken to 
correct those problems and assure that the sodium will be 
treated by March 2002, as the department has committed to do?
    Mr. Magwood. Yes, I will be happy to. Just to give a little 
bit of background for the Senators who may not be familiar with 
this, we have been treating the sodium that has been drained 
from the EBR-II reactor system as part of the process of 
shutting the reactor down. The first portion of that sodium was 
being converted to sodium hydroxide for disposal using a 
process that has been established at Argonne National 
Laboratory.
    We had been on track to treat all this material and treat 
it to a dry, cake-like substance that can be disposed of. 
Unfortunately, late last year we discovered that the process 
was not working as Argonne had anticipated, and that we had 
found some liquid in some of the drums, the process material. 
We traced the problem down to a faulty textbook that one of the 
Argonne scientists used in designing the process. The 
temperatures were not at the right level.
    We were very concerned about the fact that Argonne failed 
to refine this problem before they produced so much material. 
So I shut the process down, ordered Argonne's lab director into 
Washington to explain how this happened. I was very concerned 
about the fact that this went so long without being discovered.
    And since that time, I have authorized a recovery path to 
begin processing the material again. But at the same time, I 
have also instructed Argonne to reorganize, to make the sodium 
processing activity report much higher in the Argonne chain of 
command.
    And I have also established an independent technical expert 
that consists largely of the Merrick Corporation to observe 
what Argonne's activities are related to sodium processing, and 
report directly to my office on Argonne's technical progress.
    So we put some things in place that we think will prevent 
any further delays in the program. It is something that we are 
extraordinarily unhappy about, quite frankly. But Argonne has 
been very cooperative in trying to rectify the problem. And I 
think we are on track to get this done.
    Senator Craig. Thank you very much.

                          GEOPOWERING THE WEST

    Mr. Reicher, one last question of you as it relates to your 
2001 budget request for renewable resource technologies. It 
proposes $2 million to initiate a new program, and that is 
Geopowering the West to take advantage of the abundance of the 
geothermal resources that are found in the western States, 
including Alaska, Hawaii and my State of Idaho.
    The initiative proposes to increase the use of geothermal 
for electrical production, in addition to fostering the use of 
low temperature sources across the West to supply energy for 
residents, commercial establishments, and industrial 
applications. Before I ask the question, I think, while I may 
have sounded critical a few moments ago, I was attempting to 
sound probative, because I do believe that this initiative has 
some excellent opportunities.
    Literally hundreds of homes in Idaho are heated by 
geothermal. The statehouse in Idaho and a large portion of 
downtown Boise is heated by geothermal wells that a lot of 
people do not know about. It is obviously abundant, and it is 
clean. It is limited.
    But there is a great deal about the technology we do not 
know, and the replenishment of it that is critical, including 
injection wells and all of the kinds of things that would be 
necessary to return moisture to those levels, if we are going 
to attempt a full cycle system and all of those kinds of things 
with geothermal.
    Obviously, space heat can accept substantially cooler 
temperatures compared to electrical generation by turbines or 
steam turbines coming off the geothermal heat. So while I am 
concerned about it, I am aware of it and spent a great deal of 
time watching it, looking at it, studying it, during the decade 
of the seventies, after America stood in energy lines and then 
became frustrated, as did the department at that time launch 
out into these new areas.
    Is this an ambitious program? And could you explain 
specifically how the $2 million would be used that is in the 
budget now?
    Mr. Reicher. Senator, I think it is an ambitious program, 
but I think it is a realistic one, given how far we have come 
with the technology and given the quality of the resource in 
the West. You note absolutely correctly that we are looking at 
both the electric potential and the heat potential of 
geothermal.
    And those do differ substantially, and that this is why I 
think a subsidiary goal, in fact, of this Geopowering the West 
is to heat seven million homes using geothermal energy by 2010. 
I noted that the electricity goal is 10 percent of western 
electricity by 2020. So those two goals fit together quite 
nicely.
    In terms of the overall geothermal work, we are in fact 
focused on some of the issues that you raise. For example, how 
do we replenish the geothermal resource? And there is a variety 
of interesting things that we are working on. And I will give 
you one very interesting example.
    There are geothermal sites now in the West where the 
effluent from sewage treatment plants, which is difficult in 
some cases to dispose of, is literally injected down into the 
geothermal setting to replenish the moisture that you need to 
continue to make abundant use of the steam and the heat. So we 
are very mindful of that issue.
    With respect to the initiative itself, the Geopowering the 
West, what we have found with these relatively immature 
technologies is that we have to acquaint people with how they 
work.
    And most fundamentally, that, I think, is what Geopowering 
the West is about, to literally go into these hundreds of 
communities that have a good geothermal resource in the West 
and explore the possibilities of tapping that resource, from a 
technical perspective, from a financial perspective, and from 
an institutional perspective.
    It may well involve in some cases the issue you raised in 
terms of the use of public lands, although I am told that we 
did look at sensitive lands in our analysis of the western 
resource.
    So the opportunity is there in sort of a scientific sense, 
a technological sense. But what is missing is the kind of 
acquaintance that we think we need, community by community, 
State by State. And so the third goal of this is in fact to 
double the number of States with geothermal facilities to eight 
by 2006.
    We have found in our wind program that when we actually get 
wind turbines into States that have not had them before, 
Minnesota, Iowa, Vermont, Wisconsin, Texas, the technology 
begins to feed on itself. It begins to grow because people 
become comfortable with it. They understand it. And they know 
that it works and that it works well. And that is what we need 
to do for geothermal.

        DOE LABORATORY INVOLVEMENT IN GEOTHERMAL ENERGY RESEARCH

    Senator Craig. Would you care to comment on the status of 
your search for designating a geothermal laboratory in the 
department?
    Mr. Reicher. We today have a large number of our labs doing 
some geothermal work. And the decision that I made was that we 
needed to concentrate that work in a smaller number of labs. 
That has in fact been much of the focus in DOE and a whole host 
of programs, that we are spread too thin. And we are in the 
process, over the course of the next year, to identify both the 
lead labs for geothermal and then those that will remain in a 
supporting role.
    And to be very frank with you, we will make some decisions 
that will likely take a couple of labs out of the geothermal 
business, at least as funded by my office. I will get you the 
details of that, and we will keep you apprised of it as we go 
forward.
    [The information follows:]

                           GEOTHERMAL PROGRAM

    The process for selecting a lead laboratory and supporting 
laboratories for our fiscal year 2001 geothermal program is under 
development. The Department expects to announce its decision before the 
end of this fiscal year. We will notify the Subcommittee when the 
process has been completed.

    Senator Craig. I would like to know that. And I might 
suggest, just for your own information--and it would be worth 
your time or your people's time to observe if they have not--
the State campus in downtown Boise, the Statehouse and many of 
its office buildings, are heated by geothermal. There is a 
marvelous avenue in Boise called warm springs with beautiful, 
old turn-of-the-century homes that have been heated since they 
were built by geothermal.
    Geothermal is a technology that has been used in Idaho for 
about 85 to 90 years and very successfully. But clearly, the 
greater efficiencies by technology and the application can come 
about, I think, and probably in most areas where the absence 
of--and I think maybe that is an ambitious figure to get 
electrical generation to where you want it, because we have 
studied that rather thoroughly.
    And while there is great opportunity for space heat, which 
is still as valuable in many instances, the opportunities for 
electrical generation, based on at least the exploration of the 
seventies and early eighties, would appear to be considerably 
more limited.
    But I am interested in that. Idaho is interested in that. 
We have been at the business for a good long while.
    Mr. Reicher. Well, Senator, I both look forward to working 
with you on this. And with respect to the electricity goal for 
2020, what gave me a degree of confidence about that goal was 
the fact that California today gets 6 percent of its 
electricity from geothermal.
    Senator Craig. Well, those are the fields in northern 
California that I have been to and looked at and that 
generation--and, of course, we are pretty knowledgeable in 
where it is today. The question is, can we create the turbines 
that are efficient enough to get more from them? I am not quite 
sure we can get more from the resource itself, as much as we 
can get more from technological development.
    Thank you.
    Thank you, Mr. Chairman.
    Senator Domenici. I have to leave for a budget conference 
which starts at 11:00. And I am hoping to be through within a 
couple of hours. So we will have the budget finished. Would one 
of you be able to proceed with the next two witnesses? I would 
appreciate it immensely.
    Let me just say, Mr. Reicher, just because I remain silent 
while my good friend talked about geothermal energy does not 
mean that all of us are abandoning our enthusiasm to the 
enthusiasm of his State. There are others of us who have 
similar geothermal interests with long-standing R&D efforts. 
And to see it rekindled is exciting to me. It sort of dropped 
off the wall.
    Senator Craig. We think our geothermal is much better than 
his.
    Senator Domenici. I did not want to say that, because --you 
can say it. You are from that side of the aisle.
    Senator Craig. I do not come from a gambling State. I just 
know mine is better.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Domenici. Thanks to all three of you very, very 
much.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

             Question Submitted to the Department of Energy

             Question Submitted by Denator Pete V. Domenici

             WVU NATIONAL EDUCATIONAL AND TECHNOLOGY CENTER

    Question. In the fiscal year 1999 Energy and Water Development 
Appropriations bill, I added $3.5 million to be used toward the 
construction of the proposed $18 million National Educational and 
Technology Center to be located on the campus of West Virginia 
University. This proposed facility will provide a centralized national 
clearinghouse to maintain a comprehensive holding of regulatory source 
information, policy documents, reference material and scientific 
literature pertinent to maintaining a Positron Emissions Tomography 
facility.
    Unfortunately, the distribution of these fiscal year 1999 funds to 
West Virginia University was delayed significantly until I was able to 
speak personally to Secretary Bill Richardson in December 1999. I am 
advised that these fiscal year 1999 funds were finally released to West 
Virginia University officials in mid-February of 2000.
    In the fiscal year 2000 Energy and Water Development Appropriations 
bill, I secured an additional $1.5 million for this project. I 
understand that an application from West Virginia University will be 
submitted to the Office of Biological and Environmental Research of the 
Department of Energy in the very near future. This project is among my 
highest priorities in the Energy and Water Development bill. What 
assurances can you provide me that delays similar to last year will not 
occur and that the award of the fiscal year 2000 funding along with any 
future funding the Congress may provide for this project will be made 
in a timely manner?
    Answer. There is currently no delay on the release of funding for 
fiscal year 2000 Congressional earmarks. The fiscal year 2000 earmarks 
are being reviewed by the relevant program offices to ensure the funds 
will be appropriately spent and fit within the mission of the 
Department of Energy. The review requires cooperation between the 
program office and the entity to which the funds are proposed to be 
released. A detailed scope of work and process must be developed that 
may take several weeks or months. In addition, the Department must make 
a determination of competitive or non-competitive financial assistance 
that requires review by legal counsel. Once this review process is 
completed, each proposal is submitted to the Secretary for final 
approval.
                                 ______
                                 

   Questions Submitted to the Office of Energy and Renewable Science

            Questions Submitted by Senator Pete V. Domenici

        FUNDING FOR SOLAR AND RENEWABLES AT THE NEW MEXICO LABS

    Question. Mr. Reicher, I am concerned about a disturbing trend in 
the requested funding for some of your programs. For example, 
department-wide, the solar and renewable request increased 32 percent, 
while Sandia's solar and renewable work increased only 12 percent and 
LANL received a small 4 percent increase. All other labs doing solar 
and renewables work received between 25 percent and 40 percent increase 
in funding for fiscal year 2001.
    I have heard that funding was reduced for the New Mexico labs 
because you perceived a ``lack of support by the New Mexico 
delegation.'' Will you commit to me today that funding decisions will 
be based on merit rather than on political considerations?
    Answer. Solar and Renewable Energy funding is, and will continue to 
be, allocated based on the performer's ability to execute the technical 
and management tasks required by the programs. Political considerations 
do not influence DOE decisions on the distribution of funds, unless a 
specific mandate is included in the Energy and Water Appropriation 
Bill.
    In the case of Sandia National Laboratories, several factors 
influenced the apparently modest (12 percent) increase in the funding 
request for fiscal year 2001:
  --On October 1, 1999, Sandia significantly altered its cost 
        structure. This resulted is an almost 4-fold increase in 
        Sandia's overhead charge on subcontracts (from 7 percent to 26 
        percent).
  --Much of the work in EE, and solar and renewable resources 
        technologies in particular, is applied research that is done in 
        cooperation with industry, therefore warranting a significant 
        amount of subcontract work, with private sector partners.
  --To get the most for the taxpayer's dollar, prudent program 
        management required these programs to shift as much of the 
        subcontracted work as possible to other field offices/labs 
        (e.g., ALO, GFO, NREL). While the benefits gained from direct 
        management by Sandia were sufficient at the lower overhead 
        rates, the four fold increase exceeds any benefits that might 
        accrue from Sandia managing the subcontracts.
    It should also be noted that although this resulted in reduced 
subcontracting at Sandia, some of these funds went directly to 
subcontracts in New Mexico. These include the City of Albuquerque 
Development Services Division (a Million Solar Roofs partner), EG&G, 
KPMG, New Mexico State University--Las Cruces, Spectra Research, and 
the Laguna Native American tribe. This change will allow more money to 
reach our partners than if they had been fully burdened by Sandia's new 
overhead rates.
    New Mexico laboratories continue to be integral partners in the 
development of solar and renewable technologies. Sandia, for example, 
is the lead laboratory in the development of solar parabolic troughs 
and dishes, and provides essential engineering support to the 
development of photovoltaic and solar water heating technologies. The 
12 percent increase proposed for Sandia in the fiscal year 2001 DOE 
budget request indicates DOE's continuing support for this very 
important laboratory.
    In the case of Los Alamos National laboratory, funding will be 
essentially constant for fiscal year 2001, reflecting the constant 
budgets for the Solar and Renewables programs where Los Alamos receives 
substantial funding--High Temperature Superconductivity and Hydrogen.
    Los Alamos has an important role in the High Temperature 
Superconductivity program, having received $6,210K in fiscal year 1999 
and $5,700K thus far in fiscal year 2000. Since a substantial amount of 
the fiscal year 1999 funding was for new cooperative work with 
industry, this year's spending will actually be somewhat higher. In the 
future, this cooperative research is expected to be carried out in the 
new research park now under construction. This will build on Los 
Alamos' success in working with industry to rapidly bring high 
temperature superconductivity to commercialization.
    The Hydrogen program responsibilities for Los Alamos have increased 
with their being selected as Lead Laboratory on all research and 
development activities in the area of utilization. This includes all 
work on sensors, fuel cells, and other applications. In addition, Los 
Alamos is also responsible for managing the technology validation 
systems for the production of hydrogen from renewable energy resources. 
A budget increase for fiscal year 2001 is anticipated due to these 
increased responsibilities.

                         WIND POWERING AMERICA

    Question. Mr. Reicher, the budget request contains $5.0 million to 
initiate Wind Powering America--a new national program to accelerate 
use of wind power in America. Can you tell the committee how this 
program will be executed? How will DOE determine the appropriate use of 
the funding requested? What criteria or guidelines will be used to 
evaluate competitive requests or proposals?
    Answer. Wind Powering America will leverage federal dollars with 
states, industry, utilities, and rural communities to undertake 
regionally-based activities to identify and facilitate opportunities 
for increasing wind power use. DOE Regional Offices, National 
Laboratories, and selected stakeholder organizations will evaluate 
technical, institutional, and regulatory issues and provide appropriate 
assistance to overcome barriers to wind power development. In addition 
to in-house funding, specific competitive solicitations will be 
developed as required for activities to be carried out through 
stakeholder partnerships to achieve the goals of the initiative. These 
solicitations and their related evaluation criteria will be tailored to 
suit the specific topics for the procurement, and will be developed in 
accordance with Federal procurement regulations.
    Question. Specifically, how will the $5.0 million be used? Is this 
for lobbying, advertising, or just what?
    Answer. Funding will support regionally-based analyses and strategy 
development (including stakeholder meetings and workshops); technical 
support such as feasibility analyses, identification of power 
transmission constraints, distributed generation opportunities, and 
wind mapping; and outreach activities to involve key potential partners 
such as rural electric cooperatives, Federal agencies, and State 
regulatory agencies. The DOE Regional Offices will assist the Wind 
Program in determining the most effective use of Federal resources to 
address the technical and institutional challenges unique to each 
region.
    Question. What are the expected annual out year funding 
requirements?
    Answer. The estimated out year funding of $5 million annually for 
five years is expected to leverage over $100 million in new investment, 
driven by needs expressed by regional stakeholders.

INTERNATIONAL CLEAN ENERGY INITIATIVE AND INTERNATIONAL NUCLEAR ENERGY 
                          RESEARCH INITIATIVE

    Question. Mr. Magwood and Mr. Reicher, the budget request includes 
$6.8 million under Nuclear Energy to initiate the International Clean 
Energy Initiative/International Nuclear Energy Research Initiative. I 
note that there are several additional new items under Solar and 
Renewable Energy programs where the Department is requesting new money 
for the International Clean Energy Initiative separately. Explain the 
scope of these initiatives and why it is necessary to begin these new 
programs in fiscal year 2001?
    Answer. The International Clean Energy Initiative (ICEI) and 
International Nuclear Energy Initiative (INEI) are important to assure 
access to these emerging markets by the U.S. private sector and to 
support economic development aspirations of the developing world. 
Economic development and quality of life improvements for most of the 
world's population will require a major expansion in the provision of 
energy services in the decades ahead. Most of the expected growth will 
take place outside the United States, especially in developing 
countries and countries with economies in transition, and these markets 
represent some of the most significant growth opportunities for U.S. 
energy firms in the coming decades. The World Bank has estimated that 
developing countries alone, over the next four decades, will require 
five million megawatts of new electrical generating capacity to meet 
anticipated needs (Today's total world installed capacity is about 
three million megawatt's). The result of satisfying the needs of the 
developing countries will be to double the world's installed capacity 
during the next four decades. This translates into investments 
approaching $15 to $25 trillion dollars and accounts for more than half 
of the projected global investments in energy supply during this 
period. Ninety percent of the markets for coal, nuclear, and renewable 
energy technologies are expected to be outside the United States. 
Improvements in efficiency would require additional investment. 
Strategic investments today--by the U.S. government and the private 
sector--will assure strong participation in those markets tomorrow.
    The private sector plays a major role in energy innovation and 
related international cooperation. Private sector investments alone, 
however, will not adequately capture the full range of public benefits-
like reduced pollution, increased energy security, long-term technology 
innovation, and developmental equity issues. Government activities 
focused on filling gaps in private-sector investment can achieve 
significant benefits for the United States.
    Present government programs cannot meet the challenges of future 
global energy growth. In 1997, government expenditures on international 
cooperation on energy innovation amounted to about $250 million per 
year, but these funds were primarily in nuclear fission and fusion. The 
government has few programs to bridge the gap between R&D and 
commercial deployment. This gap impedes the commercialization of 
innovative energy technologies. Strengthening North-South cooperation 
on clean and advanced energy technologies is a promising approach which 
would help secure developing country participation in the international 
framework for addressing global climate change as requested by the 
Senate's 1997 Byrd-Hagel Resolution. Further, the United Nations 
Framework Convention on Climate Change--signed by President Bush and 
ratified by the U.S. Senate--explicitly calls for such cooperation from 
the United States and other Parties. This cooperation would help 
provide alliances, information, and foundations needed for developing 
countries to take on greenhouse gas emissions-reductions targets and 
timetables. Indeed, such cooperation can lead to sustainable 
development with the U.S. private sector playing a significant role.
    Question. What is the estimated total cost of these programs?
    Answer. The initiatives in Energy Efficiency and Renewable Energy 
would be $26 million, in Fossil Energy $13 million, in Nuclear Energy 
$7 million for fiscal year 2001, for a total of $46 million, in fiscal 
year 2001.
    Question. What are the annual out year funding requirements 
expected?
    Answer. Following the PCAST recommendations, funding levels for the 
ICEI would increase for five years. Specifically, PCAST called for a 20 
percent increase in investments in international cooperation on energy 
innovation each year for five years from an initial program budget in 
fiscal year 2001 of $250 million. However, the President requests a 
smaller amount in fiscal year 2001--$100M for ICEI in fiscal year 2001, 
($46M for DOE)--and no decision has been made on future funding levels.
    Question. What commitments does DOE have from other countries to 
support these programs?
    Answer. These programs promote U.S. technologies. Other countries 
have programs promoting their technologies. Because these activities 
are proposed new initiatives, no firm commitments have been obtained at 
this time. Once funding levels have been provided, strategies for 
obtaining optimal cost sharing with the host country will be developed 
and implemented.
    Question. Provide a chart for the record which shows each country 
participating and how much funding each country has committed to 
support the programs.
    Answer. Cost sharing information is not presently available.
    Question. Provide a detailed breakout for the record which shows 
the total amount requested for both of these programs and how that is 
spread by program throughout DOE.
    Answer. The distribution of International Clean Energy Initiative/
International Nuclear Energy Research Initiative (ICEI/INERI) is shown 
in the following table.

             ICEI/INERI BUDGET REQUEST FOR FISCAL YEAR 2001
------------------------------------------------------------------------
Organization                  Description                     Amount
------------------------------------------------------------------------
     EETotal Energy Efficiency and Renewable Energy        $26,000,000
        Request
      BTotal Office of Building Technology, State and        4,500,000
        Community Programs
       Development of whole building design tools and        3,000,000
        building codes and standards, including energy
        efficient building equipment and appliance
        standards
       Development of cost-effective biomass-fuel-             500,000
        based stoves
       Develop International Energy Star training            1,000,000
        program
      OTotal Office of Industrial Technology                 2,500,000
       Establish an industrial best practice program         2,500,000
        and assist in the development and
        harmonization of standards
      OTotal Office of Power Technologies                   19,000,000
       Develop tools for resource estimation/mapping,        1,500,000
        data bases, etc
       Develop strategic options for deploying               6,000,000
        distributed grid-connected PV, wind, biomass
        power/coproducts
       Develop strategic options for minigrid/offgrid        6,000,000
        applications for PV, wind, bio-  mass
       Provide analytical support in development of            500,000
        country-specific models
       Provide technical assistance in developing long       1,000,000
        term relationships among U.S. industry, DOE
        laboratories, and host country institutions
       Provide technical assistance for regulatory           1,500,000
        reform, including support for the measurement/
        analysis of social/environmental costs
       Provide technical assistance in project               2,500,000
        assessments and prefeasibility analyses
       Total Fossil Energy Request                          13,000,000
       Develop new and adapt existing analytical tools       4,000,000
        to assess potential combined heat & power
        (CHP) sites. Collaborate on prefeasibility
        assessment of potential sites. Develop
        international performance based standards for
        CHP
       Develop strategic options for addressing              5,000,000
        methane leakage reduction
       Promote the Asia Pacific Economic Cooperation         1,000,000
        (APEC) Natural Gas Initiative
       Develop strategic options for advanced coal           3,000,000
        power and hydrogen production and use
       Total Nuclear Energy-Fission Request                  7,000,000
       Support for the INERI the purpose is to               7,000,000
        preserve and enhance the possibility that
        nuclear power could play an expanding role in
        addressing climate change and other energy-
        related challenges in the next century
                                                       -----------------
             Total                                          46,000,000
------------------------------------------------------------------------

                LIFE CYCLE EVALUATION OF ENERGY SYSTEMS

    Question. Do you concur that a study of the total life cycle costs 
and impacts of each energy source needs to be completed?
    Answer. The Department explores life-cycle impacts of energy 
choices in policy and program deliberations through both exploration of 
primary or total energy impacts and estimation of the costs and 
benefits of energy investments over the life of the investment. As an 
example of how consideration of primary energy flows can benefit energy 
analyses, we may look to the renewed interest in combined heat and 
power technologies, where the benefits are most clearly seen through a 
life-cycle framework that recognizes overall system efficiency.
    The Energy Information Administration provides detailed information 
on primary energy use that Department analysts and interested 
stakeholders can use to explore the environmental or other impacts of 
energy policy choices and programs. Programs such as the Federal Energy 
Management Program (FEMP) may report primary as well as site energy 
consumption in order to provide a fuller picture of energy impacts.
    The National Renewable Energy Laboratory recently undertook a 
series of somewhat more detailed studies on behalf of the Department 
utilizing computer models of energy and materials flows (``input-output 
models''). DOE also substantially participates in the U.S. Interagency 
Working Group on Industrial Ecology, Material and Energy Flows 
(chartered by the Council on Environmental Quality) which provides a 
useful platform for life-cycle explorations. A recent short report of 
this working group may be found at: http://www.oit.doe.gov/mining/
materials.
    The consideration of energy cost savings over the life of equipment 
investments is utilized extensively by the Department in its 
formulation of policies, programs, and rulemakings, with analyses based 
as appropriate on OMB cost-benefit analysis guidelines, and guidance 
such as 10 CFR 436 on the use of lifecycle cost analysis for energy use 
in the buildings sector.
    These and similar on-going efforts provide the Department with a 
strong basis for exploring the life-cycle implications of energy 
policy, program, and investment choices and, as a result, a separate 
detailed study does not seem to be necessary at this time.
    Question. How would you recommend that this task be accomplished?
    Answer. Assessments of life cycle costs and impacts of energy 
sources should continue to be reflected in analytic efforts throughout 
the Department. Continued focus on enhancing the tools and capabilities 
that we utilize in undertaking these assessments can provide the 
Department and interested congressional committees with on-going, up-
to-date information about the costs and impacts of energy policy and 
program choices.

                     CARBON COST SAVING INITIATIVE

    Question. Mr. Reicher, the budget request includes $1.5 million for 
a new Carbon Savings Initiative. What is the objective of this new 
program?
    Answer. The new initiative we propose seeks to reduce carbon 
emissions by increasing the net energy output of biopower systems per 
unit of carbon used and couples this feature to a carbon sequestration 
process. We envision this initiative being carried out in two steps. 
These are: (1) investigating ultra-high efficiency processes that 
optimize carbon utilization, such as combined heat and power systems, 
with overall objective of reaching 90 percent process efficiency; and 
(2) examining novel chemical processes for carbon management.
    The first step of this initiative is structured to introduce higher 
efficiency electricity generation technologies. By increasing 
electricity production capabilities and overall system efficiency, this 
maximizes energy production per unit of biomass and optimizes carbon 
conversion. For example, the majority of today's coal-based electricity 
capacity is only 33-35 percent efficient for electricity and recovers 
none of the waste thermal energy. If we can develop small utility scale 
systems that have high efficiency for electricity production (greater 
than 40 percent), and that also produce usable thermal energy (either 
steam or hot water), the net result will be higher overall efficiency. 
The European industry has realized this fact, and almost all biomass 
power facilities are combined heat and power systems that reach 33 
percent electrical efficiency and 85 percent overall efficiency.
    The second step is to investigate the potential of mineral-based 
carbon sequestration mechanisms that permit carbon capture in a stable 
mineral form during the production of electricity. It is well known 
that alkaline metals will capture carbon as demonstrated by the 
Co<INF>2</INF> acceptor process that uses calcium. The initiative is 
designed to explore the ability of various minerals to form carbon 
containing inorganic compounds during thermochemical processes. These 
compounds may have even greater carbon sequestration potential than 
calcium.
    Question. What do you expect the annual out year funding 
requirement to be?
    Answer. The initiative will be carried out through multi-phase 
competitive solicitation process, starting with feasibility studies, 
and proceeding through proof of concept prototypes to field 
verification. The effort will require approximately $8 million over a 
period of four years.

                      PHOTOVOLTAIC ENERGY SYSTEMS

    Question. Mr. Reicher, the budget request for Thin Film Partnership 
Program under Photovoltaic Energy System in previous years indicates 
that the funding level of around $19 million was considered appropriate 
``based on staff experience and historical precedence in similar 
activities.''
    Are there any studies or analysis to support a funding request of 
$19 million in fiscal year 2001?
    Answer. Studies and publications that provide insight into the 
potential and critical importance of thin films for low-cost 
photovoltaics include:
  --``Millennium Special Issue, PV 2000--And Beyond,'' Jan 2000, 
        Progress in Photovoltaics, V. 8 No. 1, M. Green, E. Lorenzo, H. 
        N. Post, H. W. Schock, K. Zweibel, P. Lynn (eds), John Wiley, 
        London, 200 p.
  --``Issues in Thin Film PV Manufacturing Cost Reduction,'' K. 
        Zweibel, 1999, Solar Energy Materials and Solar Cells, V. 59, 
        p. 1-18.
  --``Thin Films: Past, Present, Future,'' K. Zweibel, 1995, Progress 
        in Photovoltaics, Special Issue on Thin Films, John Wiley, 
        London (also available as NREL report TP-413-7486), V. 3, 279-
        293.
    These studies describe the research activities in the Thin Film 
Partnership Program and their importance to DOE's mission to develop 
photovoltaics as an energy-significant source of electricity. The Thin 
Film PV Partnership Program is the central research activity in the 
development of a class of advanced PV technologies based on ultra-thin 
semiconductor layers. There are four thin film technologies under 
development: amorphous silicon, copper indium diselenide, cadmium 
telluride, and thin crystalline silicon. To date, each of these 
technologies has been brought from a very early, laboratory state to a 
successful pilot-scale manufacturing stage. Funding for each technology 
is about $4.5 million, which is much less than what was spent on single 
crystalline silicon in its similar stage of development.
    The PCAST study, Federal Energy Research and Development for the 
Challenges of the Twenty-First Century, addressed the need for 
photovoltaic R&D. In particular, it recommended that photovoltaic 
research be increased to $133 million for fiscal year 2001 (the DOE 
request for all photovoltaic research is $66 million in fiscal year 
2001). And though the document is silent on the specific funding for 
thin film research, this research comprised approximately fifty percent 
of the photovoltaic budget at the time of the recommendations. To 
extrapolate from the PCAST recommendations would suggest a thin film 
budget of $66 million, or over three times the current request of $19 
million.
    The DOE PV Program has chosen to emphasize thin films because they 
are widely seen as having the greatest potential to significantly 
reduce PV electricity costs in comparison to existing photovoltaic 
options, e.g., crystalline silicon wafer technologies. PV cost is the 
greatest barrier to using PV for energy-significant applications such 
as rooftops on residences and commercial buildings. Our work in the 
Partnership is the critical activity within this commitment to cost 
reduction. The Partnership funds research in materials science, process 
development, PV cell and modules. Over two-thirds of the funding in the 
Partnership is awarded to US universities and businesses on a 
competitive basis. The remainder funds the National Renewable Energy 
Laboratory's (NREL) internal research in thin films as well as the 
Partnership management costs. The NREL in-house researchers are 
acknowledged leaders in their fields, holding world records for cell 
efficiencies in two of the three leading thin film technologies and 
leading the National Research Teams made up of all the participants in 
the Partnership's research activities (about 150 PhD scientists 
nationwide).
    Funding for thin film research within the DOE Program has been 
level (at approximately the $15-19M/year) for the last decade. This 
lack of enhancement reflects the general static funding of the DOE PV 
Program. It does not reflect the needs of thin film semiconductor 
research, which are vastly larger than this level. For example, similar 
semiconductor research such as the development of flat panel displays 
(which also requires the low-cost deposition of thin semiconductors 
over large areas) absorbs significantly greater research funding. By 
comparison, the Federal resource commitment to thin film PV is small 
and generally viewed as sub-critical. We have leveraged our Federal 
research resources with those of forward-thinking members of the 
private sector to sustain our generally recognized progress in this 
field. We have also had the benefit of the DOE's ongoing commitment to 
thin films (i.e., allowing funding stability within a constrained 
funding environment) as well as the effective organizational leadership 
of the Partnership, which has received many national awards. Indeed, 
the Partnership has been the co-recipient (with industrial members) of 
four prestigious R&D 100 Awards that recognize new PV products based on 
these key thin films. Because of the successes of the Thin Film 
Partnership, the US leads the world in thin film photovoltaics, a major 
achievement of the DOE PV Program.
    In general, were funding for this key element of the PV Program to 
fall below its already sub-critical level, it would possibly end our 
Nation's chances of leading the world in the development of this new 
large-scale source of electricity.
    Question. Is there a minimum industry (non-Federal) cost share that 
is required on all contracts or grants under this fiscal year 2001 
solicitation?
    Answer. As in the past, businesses are expected to cost-share. 
Although the Partnership does not require 50 percent or greater cost 
sharing, we often receive it (see next question) because those who 
propose higher cost-sharing are more likely to be awarded funds. The 
Partnership breaks down contracts with companies into two categories: 
Technology Partners and R&D Partners. Technology Partners are companies 
with a clear commitment to near-term manufacturing. They are usually 
embarking on pilot production of a new thin film technology. R&D 
Partners are companies and universities who are developing the 
necessary innovations to maintain future progress toward truly low-cost 
PV energy production. Their work is further from commercialization, so 
they are required to provide a smaller proportion of cost-sharing.
    The Partnership also recognizes the much greater burden that cost-
sharing can put on a small business by reducing those requirements as 
compared to a large business. The breakdown for the Partnership is as 
follows:

                              [In percent]
------------------------------------------------------------------------
                                                   Technology     R&D
         Corporate Cost-Sharing Required             Partner    Partner
------------------------------------------------------------------------
Large Business...................................          40         20
Small Business...................................          20         10
------------------------------------------------------------------------

                      PHOTOVOLTAIC ENERGY SYSTEMS

    Question. Provide for the record a list of contracts or grants for 
the past 2 cycles which show the breakout of Federal and non-Federal 
costs.
    Answer.
    Thin Film Partnership 1998-2001 Subcontracts (3 years)
    Total: $53,830
    DOE Funding: $37,157
    Private Cost-Share: $16,673 (31 percent of all subcontracts, 
including universities)

----------------------------------------------------------------------------------------------------------------
                                                       University
                                                        Small or                                         [Cost
                 Organization (state)                     Large             Period          Total $K    Share]
                                                        Business
----------------------------------------------------------------------------------------------------------------
United Solar (MI)....................................         S          5/5/1998-5/5/2001     5,560    [2,780]
SSI (CA).............................................         L      11/24/1998-11/24/2001     5,409    [2,705]
Solarex (VA).........................................         L          5/8/1998-5/8/2001     5,192    [2,792]
EC/U. Delaware (DE)..................................         U      10/23/1998-10/23/2001     4,120      [360]
AstroPower (DE)......................................         S      11/24/1997-11/24/2000     3,737    [1,475]
First Solar (OH).....................................         S        5/30/1998-5/31/2001     3,735      [756]
BP Solar (CA)........................................         L        6/30/1998-6/30/2001     3,509    [2,009]
EPV (NJ).............................................         S        6/15/1998-6/15/2001     2,953      [591]
Global Solar Energy (AZ).............................         S          4/4/1998-4/4/2001     2,475      [777]
ISET (CA)............................................         S        6/29/1998-6/29/2001     2,169      [208]
ECD (MI).............................................         S        5/10/1998-5/10/2001     1,888      [943]
U. Toledo (OH).......................................         U          3/3/1998-3/3/2001     1,566      [623]
USF (Tampa, FL)......................................         U        7/25/1998-7/25/2001     1,411      [433]
CSM (CO).............................................         U        7/21/1998-7/21/2001       994  ..........
Penn State (PA)......................................         U        9/16/1998-9/16/2001       825  ..........
UF Gainesville (FL)..................................         U          9/7/1998-9/7/2001       810  ..........
ITN (CO).............................................         S        3/25/1998-3/25/2001       796       [63]
Iowa State U. (IA)...................................         U        8/30/1998-8/31/2001       702  ..........
MV Systems (CO)......................................         S      12/31/1997-12/31/1999       565       [40]
Harvard (MA).........................................         U        6/14/1998-6/14/2001       540  ..........
CSU (CO).............................................         U        3/19/1998-3/19/2001       461  ..........
UNC (NC).............................................         U        1/27/1998-1/27/2001       430  ..........
Washington State U. (WA).............................         U        2/28/1998-2/28/2001       411  ..........
Oregon (OR)..........................................         U        1/15/1998-1/15/2001       410  ..........
Weizmann Institute...................................         U        9/26/1998-9/26/2001       405  ..........
Syracuse (NY)........................................         U        5/23/1998-5/23/2001       405  ..........
Daystar (CO).........................................         S        6/26/1998-6/26/2001       399       [80]
MRG (CO).............................................         S          2/9/1998-2/9/2001       378       [38]
U. Utah (UT).........................................         U        1/13/1998-1/13/2001       284  ..........
CSM (CO).............................................         U        7/21/1998-7/21/2001       252  ..........
Penn State (PA)......................................         U      12/14/1998-12/14/2001       156  ..........
UCLA (CA)............................................         U        6/19/1998-6/19/2001       143  ..........
U. Illinois (IL).....................................         U        9/15/1998-9/15/2001       140  ..........
Florida Solar Energy Center (FL).....................         U          1/4/1998-1/4/2001       128  ..........
Purdue (IN)..........................................         U          2/6/1999-2/6/2002       127  ..........
NIST (CO)............................................       Lab        6/30/1999-6/30/2001       345  ..........
                                                      ----------------------------------------------------------
      Total..........................................                                         53,830   [16,673]
----------------------------------------------------------------------------------------------------------------

                  NATIONAL RENEWABLE ENERGY LABORATORY

    Question. Mr. Reicher, funding for the National Renewable Energy 
Laboratory increased from $123.3 million in fiscal year 2000 to $169.5 
million in fiscal year 2001. What accounts for the large (37.5 percent) 
increase?
    Answer. The funding increase in fiscal year 2001 at the National 
Renewable Energy Laboratory (NREL) is primarily for three programs: 
Biopower and Biofuels Energy Systems; Wind Energy Systems; and the 
Photovoltaic Energy Systems programs.
    The Biopower and Biofuels Energy Systems Program is expanding its 
focus to include a full complement of efficient biomass technologies, 
size ranges, and feedstocks (agricultural residues, wood residues, 
energy crops, etc.) The program is working to balance research and 
demonstration efforts to most effectively advance the technology. To 
achieve these results, the budget request for Biopower has been 
increased for thermochemical conversion research which is performed at 
the National Renewable Energy Laboratory's Thermal Conversion User 
Facility. The increased funding will also support A new initiative to 
increase the net energy output of biopower systems per unit of carbon 
used.
    The Wind Energy Systems Program is seeking increased support in the 
area of Cooperative Research and Testing. Cooperative Research and 
Testing is comprised of several programs such as: Wind Powering 
America, Regional Field Verification, and International Clean Energy 
Initiative. The Wind Powering America Program is a new nationally-led 
program to accelerate use of wind energy in the United States. This is 
a regionally-based program to coordinate and implement tailored 
strategies to help each region of the Nation benefit from harnessing 
their wind power resources. The Regional Field Verification Program 
will issue competitive solicitations in key regions for wind power 
development in the United States. These competitive solicitations will 
support projects addressing unique siting, regulatory, electric power 
system, and market issues in each region. The use of wind power in 
central station generation, distributed power, and off-grid or mini-
grid applications will be targeted by this program. The International 
Clean Energy Initiative will play a vital role in meeting growing needs 
in developing countries for both distributed, grid-connected power, and 
remote off-grid and mini-grid power. This program will competitively 
award partnerships with industry for analyses of distributed wind power 
systems in weak grid applications, and to explore opportunities to 
enhance these applications through wind energy forecasting, grid 
control, storage options, and/or firming with natural gas or other 
generation sources. Competitive solicitations will be awarded for wind 
hybrid system verification projects in developing countries where local 
utilities or villages currently use stand-alone diesel power systems.
    The Photovoltaic Energy Systems Program is requesting increased 
funding to support: Fundamental Research in the areas of Measurement 
and Characterization, Basic Research/University Programs, and High 
Performance Advanced Research; and Technology Development in the areas 
of Manufacturing R&D, Systems Engineering & Reliability, PV Building 
Integrated R&D, Partnerships for Technology Introduction, Million Solar 
Roofs Initiative, and International Clean Energy Initiative.
    The funding table below reflects all Solar and Renewable Energy 
program funding in fiscal year 2000 and fiscal year 2001 at NREL.

FISCAL YEAR 2001 CONGRESSIONAL BUDGET REQUEST--NATIONAL RENEWABLE ENERGY
                               LABORATORY
                         [Dollars in thousands]
------------------------------------------------------------------------
                                                 Fiscal year
                                    ------------------------------------
                                        2000        2001        Change
------------------------------------------------------------------------
Biopower Energy Systems............      $9,621     $14,506      $4,885
Hydrogen Research..................       4,743       4,437        (306)
Hydropower.........................         152         154           2
Biofuels Energy Systems............      21,801      30,516       8,715
Geothermal.........................       1,785       2,040         255
Electric Energy Systems and Storage       1,644       3,475       1,831
    High Temperature                        928         945          17
     Superconductivity.............
    Energy Storage Systems.........          59          85          26
    Transmissions Reliability......         657       2,445       1,788
NREL Facility Maintenance..........       1,100       1,900         800
Wind Energy Systems................      25,172      39,136      13,964
Concentrating Solar Power..........       6,288       6,218         (70)
Solar Building Technology Research.       1,469       3,359       1,890
Photovoltaic Energy Systems........      48,318      60,112      11,794
International Renewable Energy            1,226       3,692       2,466
 Program...........................
                                    ------------------------------------
      Total........................     123,319     169,545      46,226
------------------------------------------------------------------------

                  CLIMATE CHANGE TECHNOLOGY INITIATIVE

    Question. Mr. Reicher, the President proposes to spend $1.2 Billion 
in fiscal year 2001 in the Climate Change Technology Initiative within 
the DOE. Of this $1.2 Billion, $5 million is identified for nuclear 
energy and $56 million is identified for Fossil Energy.
    Most of the funds, about 95 percent of them, are set aside for 
Solar and Renewable Energy work and Energy Conservation. Since the 
combination of nuclear and fossil fuels account for about 70 percent of 
the electrical generation in this country, the trivial role identified 
for these sources in the Administration's Climate Change Initiative 
seems quite questionable.
    Why does the Department focus 95 percent of this Initiative's 
resources on energy sources that provide less than 1 per cent of our 
electrical energy, and allocate minimal funding for the fossil and 
nuclear resources that provide 70 percent of our electricity?
    Answer. The Climate Change Technology Initiative (CCTI) is a cross-
cut of Administration programs that are related in some way to climate 
change, including direct-combustion (e.g., in buildings and 
automobiles) as well as electricity production and use. As such, the 
CCTI encompasses only a portion of the Department's budget request. 
Because of it's focus on opportunities to reduce greenhouse gas 
emissions, virtually all EERE expenditures are included, while only 
those portions of the fossil, nuclear, and basic science budgets that 
related to reducing greenhouse gas emissions are included in the CCTI. 
In reviewing the CCTI components, it is important to remember that the 
EERE components related to the buildings and industry end use sectors 
are often related to electricity production in general, and to 
utilizing more effectively fossil- and nuclear-produced electricity.
    In developing its fiscal year 2001 budget request, the Department 
looks carefully at areas of opportunity to meet each of its strategic 
goals. The overall budget typically includes many programs that meet 
multiple Departmental goals and objectives, and many of the programs 
included in the CCTI address additional goals, and may even be included 
in other initiatives. Areas of opportunity for specific goals, 
objectives, or initiatives may or may not be proportionate to current 
energy use patterns. This is especially true for opportunities found in 
emerging energy resource areas, such as renewable energy and many 
advanced sources of energy conservation, where smaller current market 
share is a factor of historical technology development, and not 
necessarily indicative of future energy resource uses or opportunities 
for meeting environmental and related energy challenges. The 
Departmental request for renewable energy resources, both those that 
produce electricity and those that can be used in direct heat or other 
energy applications, is based on their large potential to help meet 
multiple environmental, security, and other national energy goals and 
objectives in our evolving energy markets.

                           FUNDING SHORTFALL

    Question. Mr. Reicher, I do not think the Subcommittee will be able 
to provide a 32 percent increase in Solar and Renewable Energy 
programs. Would you provide the Committee your recommendations of the 
allocation of funding at the current level?
    Answer. We appreciate the fact that there are budgetary constraints 
that may limit Congressional flexibility in meeting all the Solar and 
Renewable Energy funding requests made by the Department for fiscal 
year 2001. However, the request for these proposed programs was 
developed after long deliberation and is considered vital to addressing 
the country's need for clean, domestically-produced electric power 
generation, transportation fuel, heat energy, and transmission/
distribution/reliability technologies. These proposed programs also 
contribute substantially to the energy security, economic and 
environmental needs of the country, and are an integral part of the 
broader budget package proposed by the Administration for fiscal year 
2001. Given the importance of these programs to both the near and 
longer term well-being of the Nation, we stand by the programs and 
funding levels as requested.

                         WORKING WITH NNSA LABS

    Question. The National Nuclear Security Administration started 
operation as a semi-autonomous agency with the Department on March 1. 
The NNSA labs of Los Alamos, Sandia, and Lawrence Livermore have a long 
tradition of supporting a broad range of scientific initiatives beyond 
weapons activities. As the NNSA was created, I emphasized the 
importance of the NNSA labs continuing their multi-program support of 
the Department and other federal agencies.
    The enabling legislation, in Section 3264, state that: ``The 
Secretary, in consultation with the Administrator, shall establish 
procedures to provide for the use . . . of the national security labs 
by elements of the DOE not within the Administration . . .''
    Despite the legislation, I am concerned that the NNSA labs will not 
continue to receive high priority funding from the Department.
    Will each of you assure me that you will continue to aggressively 
fund projects within the NNSA labs?
    Answer. The NNSA laboratories have been important resources for our 
renewable energy technologies in the past, and we expect these 
laboratories will continue to be valuable to our future research 
activities. We expect to continue using the expertise of these labs at 
levels consistent with our historical funding positions.
    Question. Have discussions been initiated between your Office and 
NNSA to define mechanisms to maintain close collaboration, both for 
NNSA laboratory support to your Office and for your labs to support 
NNSA as required?
    Answer. We will continue to maintain strong communications with the 
Office of Defense Programs, and we feel we have agreement regarding the 
role of NNSA laboratories in our research programs.
    Question. Do you foresee any barriers to maintaining close working 
relations between your Office and the NNSA?
    Answer. No, we do not foresee any barriers to our currently strong 
working relationship with NNSA.
                                 ______
                                 

              Questions Submitted by Senator Slade Gorton

                          GEOTHERMAL PROJECTS

    Question. In your testimony, you made clear your support for 
geothermal energy and new programs to support developing this energy 
source. I also support these programs. However, this Administration is 
not unified in its support of this industry. There are two geothermal 
projects in California--the output of these projects are expected to be 
purchased by the Bonneville Power Administration and sold in the 
Northwest--that have their respective EIS process completed. They have 
been waiting approximately 18 months for the Forest Service just to 
make a decision on these projects, and if the decision is not made in 
the next few days they could miss another construction season. This 
delay is irresponsible and sends all the wrong signals to geothermal 
developers. I support these projects, as do many environmental 
organizations in the state of Washington. How can this industry expand 
when the Administration is not unified in its approach to this energy 
source?
    Answer. The Department of Energy continues to work closely with 
industry to conduct comprehensive research and development to establish 
geothermal energy as an economically competitive, environmentally sound 
contributor to the U.S. energy supply. We have recently announced three 
solicitations seeking industrial partners to identify, develop, and use 
geothermal resources. These solicitations offer substantive support to 
the Administration's new initiative, GeoPowering the West, which will 
bring the benefits of geothermal energy to 19 western states. As is 
addressed in the following question, other arms of this Administration 
are aware of the Administration's interest in advancing the use of 
alternative energy sources. We are confident that actions such as these 
will allow the nation to realize its considerable potential for new 
geothermal development over the coming decade.
    Question. What have you done to urge the Forest Service to make a 
decision?
    Answer. On March 2, 2000, I sent letters regarding the projects to 
high-ranking officials of the Department of Agriculture and the 
Department of Interior. I noted that both projects will contribute 
significantly to the President's energy and environmental policy goals, 
and they represent an economically-sound, productive use of energy 
resources on multi-use Federal lands. The letters expressed the wish 
that the remaining issues preventing the projects from moving ahead 
would be resolved in a timely manner.
    Question. What will you commit to do to get the Forest Service to 
make a decision before this construction season is lost?
    Answer. I stated my support for the projects in my letters of March 
2. However, the Forest Service and Bureau of Land Management are solely 
responsible for the decision making process with regard to the 
projects. Those agencies are well aware of the timing issues, and I 
understand that decisions will be forthcoming in the near future.

                  AGRICULTURE AND CARBON SEQUESTRATION

    Question. As you know, the Energy Efficiency Budgets are in a 
separate Subcommittee, but I have a question relative to the Renewable 
Budgets. What is the overall strategy of the Department relative to 
Agriculture and Carbon Sequestration? As you know, there are several 
Bills that have been introduced in the Senate dealing with this issue. 
Please give me a short description of the Department of Energy's role 
in Agriculture relative to Renewable Energy, Bio-energy and Carbon 
Sequestration strategies.
    Answer. The Department of Energy has a long history of scientific 
and technical involvement in agricultural-related issues. In this 
fiscal year, the department is spending over $100 million in this area; 
most of that is focused on applied research on bio-based products and 
bio-energy, or the use of crops, trees and wastes to make 
transportation fuels, electricity and chemicals for a whole host of 
consumer goods, like plastics, paints and adhesives. A new Department 
of Energy report recently concluded that by the year 2010, the 
agricultural and forestry industries could help reduce greenhouse gases 
by producing and utilizing more of these bio-based products.
    The report, ``Emission and Reduction of Greenhouse Gases from 
Agriculture and Food Manufacturing'', was the first comprehensive 
analysis of U.S. agricultural activities and their impact on greenhouse 
gas emissions. The report found that agricultural and forestry 
industries currently produce one-tenth of all greenhouse gases emitted 
in the U.S. A copy of the report is submitted.
    President Clinton's Executive Order 13134 on bio-based products and 
bio-energy, issued in August, 1999, was designed to stimulate 
development of a new bio-based industry. The President's goal of 
tripling U.S. use of bio-based products and bio-energy by the year 2010 
could create billions of dollars in new income for farmers and rural 
Americans, while reducing greenhouse gas emissions by tens of millions 
of tons of carbon. The use of advanced agricultural practices--such as 
improved forest and animal waste management, cultivation, and 
irrigation techniques--can also contribute to this initiative.
    Question. What is the role of the National Laboratories and 
Universities in the opportunities that exist, if there is an 
Agricultural-related initiative in the fiscal year 2001 Budget?
    Answer. We consider our National Laboratories and Universities full 
partners with the federal government, industry and growers in the 
implementation of the President's Bio-based Products and Bio-energy 
Initiative. For example, representatives of all of these important 
groups have been involved from the very beginning in the development of 
a new strategic vision for a bio-based industry, and they will 
participate in the drafting of a technology roadmap to guide our 
research and development spending. Planning is now underway for a 
workshop to discuss and showcase what the nation's state universities 
and land-grant colleges can contribute to the growth of this emerging 
industry. In addition, competitive solicitations for research and 
development proposals related to this area will be open to 
participation by both the national laboratories and the academic 
community.

                      MEMORANDUM FOR UNDERSTANDING

    Question. As you know, the DOE has signed a memorandum of 
understanding with the Association of State Energy Research and 
Technology Transfer Institutes ``ASERTTI'', The California Energy 
Commission ``CEC'', and the New York State Energy Research and 
Development Authority ``NYSERDA'' to work together to leverage state 
and federal resources through collaboration of energy R&D planning and 
research efforts. The state energy offices are also participating in 
these efforts though they do not have a specific MOU in place. This 
past budget there was roughly $6m put in place for joint energy R&D 
projects through the competitive process to work with state entities. 
It is my understanding that DOE received approximately 160 proposals of 
which 6 to 8 were from the MOU partners, which means non-MOU partners 
are also competing for the funds.
    It is important to note that California and New York have millions 
of dollars earmarked for energy R&D planning and projects as do other 
states in the public benefit charges. It is not unreasonable to expect 
the states will have as much money if not more than the federal 
government to spend on R&D. It is the goal of the MOUs to work together 
in planning and executing R&D to be good stewards of the resources and 
provide benefits to the people of the states and country. The basic 
premise of collaboration between states and the federal government is 
in its infancy and it would be advantageous to find ways to foster its 
growth and benefits rather than strangle it with unnecessary 
bureaucracy. How is the $6 million state R&D solicitation proceeding?
    Answer. In light of our close work with the committee staff, we 
have issued a solicitation requesting proposals from state energy 
offices and state energy research institutions for cooperative RD&D in 
seven technical areas. These areas were identified through a 
collaborative effort which began more than a year ago when DOE signed 
Memorandums of Understanding with the California Energy Commission 
(CEC), the New York State Energy Research and Development Agency 
(NYSERDA), and the Association of State Energy Research and Technology 
Transfer Institutes (ASERTTI). DOE, led by the Office of Energy 
Efficiency and Renewable Energy (EERE), and working with the Office of 
Fossil Energy (FE), Office of Science (OS) and the Energy Information 
Administration (EIA), created a Joint Planning and Collaboration 
Committee to identify research opportunities for collaboration and to 
determine the best ways to do joint budget planning and form 
collaborations. Out of these discussions seven research areas of 
collaborative focus and collaborative teams resulted: Schools, 
Transportation, EIA data, Petroleum Oil Field Operations, Microturbines 
and Fuel Cells, and Distributed Generation and Combined Heat and Power. 
The solicitation is currently open and does not close until April 27, 
2000.
    The solicitation is posted at: http://www.eren.doe.gov/golden/
solicitations.html.
    Question. How many responses did DOE receive to the solicitation?
    Answer. The solicitation for $6 million has drawn over 130 pre-
application proposals. We expect to award projects in one or all of the 
technical areas identified by the DOE/State Joint Planning and 
Collaboration Committee (i.e. Schools, Transportation, EIA data, 
Petroleum Oil Field Operations, Micro-turbines and Fuel Cells, and 
Distributed Generation/Combined Heat and Power). We encouraged 
proposers to form teams with multiple state partners to improve 
selection chances. The goal of the solicitation was to make the $6 
million as responsive to multi-state collaboration interests as 
possible.
    Question. Is the competitive process the appropriate mechanism to 
meet the objectives of the MOUs with ASERTTI, CEC, NYSERDA, and NASEO?
    Answer. Yes, it is. A competitive process will draw the highest 
quality research proposals address multi-state agency needs, and foster 
collaborations among states on proposals. We encouraged proposers to 
form teams containing multiple state partners to improve their 
proposals' selection chances as well as to cooperate among states. The 
selection criteria awards additional selection points for having a 
multi-state proposal. The cost share requirement of 50 percent will 
leverage both DOE and State agency money.
    Question. Does DOE have plans to increase the amount of funds to 
collaborate with their MOU partners?
    Answer. Although the President's budget request did not propose 
funding for the State Collaborative Research and Development for fiscal 
year 2001, this program is a high priority. In fact, like the Congress, 
we believe that this program is a crucial element of our research and 
development efforts and should be continued on an annual basis at least 
at the same level of funding.
    The omission of a funding request for this program in our fiscal 
year 2001 budget was due to a timing issue. First, the fiscal year 2000 
budget was not enacted and signed by the President until November 18, 
1999. Second, the detailed elements of this program were not set forth 
in the Conference Report, and it was necessary for our Assistant 
Secretary and staff to conduct detailed analytical work and to work 
with the Subcommittee staff in reaching agreement on the full scope and 
objectives of the program. Such agreement was not reached until late 
December 1999, and by that time, our fiscal year 2001 budget already 
had been transmitted to and approved by OMB. At that point, EERE was 
not able to make funding modifications.
    In our discussions with the Subcommittee staff in December 1999, we 
discussed the need for multi-year funding to support the type of 
projects envisioned under the State Collaborative Research and 
Development Program and the fact that it was too late to include 
funding under our fiscal year 2001 budget request. The Subcommittee 
staff indicated that funding would be considered for fiscal year 2001, 
if EERE's progress was good in implementing the initiative in fiscal 
year 2000. Based on these discussions, EERE is soliciting projects for 
up to three years in its State Collaborative Research and Development 
Program solicitation. We believe that continuing on the path described 
in the above two approaches will increase the funding for joint 
collaborations with our MOU partners.
                                 ______
                                 

               Questions Submitted by Senator Larry Craig

                               HYDROPOWER

    Question. The advanced turbine research and development program 
request for fiscal year 2001 is $5 million. The budget justification 
for fiscal year 2001 states that the plan is to complete laboratory 
biological studies of the effects of turbulence on turbine-passed fish.
    Could you explain why there is no funding being requested for the 
pilot scale proof of concept testing of the conceptual design to verify 
biological criteria and predicted biological performance using live 
fish?
    Answer. DOE is committed to the goal of developing hydropower 
technology which will reduce turbine-induced fish mortality to 2 
percent or less. No fiscal year 2001 funding was requested for the 
proof-of-concept, pilot-scale, test of the fish-friendly turbine design 
developed by the Alden Research Laboratory, because fiscal year 2000 
funding was considered sufficient to cover this activity and allow it 
to continue through fiscal year 2001. Additional funds may be requested 
in fiscal year 2002 to complete full-scale testing. In addition, fiscal 
year 2001 funding is requested for biological research, including 
sensor fish refinement, to gain the necessary understanding of stresses 
and behavior of fish in the turbine environment. The DOE program will 
also explore other fish-friendly designs by providing funding support 
for biological testing of turbines provided by industry.

              RENEWABLE ENERGY BENEFITS TO FAMILY FARMERS

    Question. Times are particularly tough on the family farm right now 
with low commodity prices and a farm safety net that has failed the 
agricultural community. Renewable energy sources--like wind energy and 
biomass--have potential to help struggling farmers through these 
difficult times. Could you paint a picture of how a family farmer might 
be able to make a profit by creatively using renewable energy sources?
    Answer. Renewable energy sources hold the potential to both reduce 
the energy cost of the farmer's operations, and provide new business 
opportunities. In the future, a traditional farm could be converted 
into a fully integrated system for producing energy, chemicals, 
plastics, and other products in addition to food. Some of these 
technologies are suitable for small and medium-size farms. To cite a 
few examples, the traditional farmhouse and barn could receive power 
from a photovoltaic array and advanced wind turbines. Livestock manure 
may be used to fuel a biogas plant. Trees genetically created to grow 
to maturity in two to three years, and other farm crops, potentially 
grown on currently underutilized agricultural land, could be used for 
biomass power.
    The Department of Energy supports the Clinton administration's 
analysis of the Comprehensive Electricity Competition Act that was sent 
to Congress last year. The analysis underscores the substantial 
economic and environmental benefits since the advent of competition. 
The Administration's package is projected to benefit both urban and 
rural consumers in all regions of the country primarily due to the 
forces of competition being unleashed throughout the industry. However, 
several provisions are aimed specifically at rural areas, to ensure 
that rural residents garner the full benefits of restructuring. These 
include:
  --authorizing new grants for remote and rural electric service and 
        electricity services to Native Americans;
  --retaining current arrangements for the provision of federal power 
        at cost-based rates;
  --establishing a Renewable Portfolio Standard that will generate new 
        economic activity and raise farm income in rural areas as it 
        promotes important environmental and energy security needs; and
  --providing for a rural safety net.
    As another renewable, wind power is already helping family farmers 
in Iowa and Minnesota. Assume a typical farm of 1000 acres in Iowa. 
Using very conservative spacing that does not pack turbines tightly and 
accommodates roads and property lines, one might expect about fourteen 
750 kW turbines installed. These would produce almost 35 million 
kilowatt-hours of electricity per year. Assuming typical royalties of 2 
percent of gross revenue and a selling price of 4 cents per kilowatt-
hour, these turbines would provide revenue to the farmer of about 28 
thousand dollars per year or two thousand dollars per wind turbine. In 
North Dakota, with a better wind resource, revenues would be closer to 
40 thousand dollars per year. All of this is accomplished with limited 
impact on cultivated lands. Wind developers make as much use as 
possible of existing service roads and allow farmers to cultivate right 
up to the roads. All in all, no more than 5 percent of cultivated land 
is lost due to turbine pads, transformers, distribution lines and 
service buildings. Similarly, livestock would be minimally affected.
    In addition, Wind Powering America is an initiative announced by 
Secretary Bill Richardson last year to increase substantially 
deployment of wind energy through a regionally-based effort in which 
technical, institutional and environmental barriers to wind energy 
development are identified by local groups and resolved with the help 
of the Department of Energy, its laboratories, the wind industry and 
other stakeholders. The Department has just announced the award of 15 
projects, worth $2.7 million, that will support this initiative. In 
summary, a small Federal investment is expected to catalyze wind 
development in regions where there has been little or none, leading the 
way to a goal of 10,000 MW by 2010.

                              WIND ENERGY

    Question. You are requesting $6.7 million for the Next Generation 
Turbine Project, an increase of $1.1 million from the fiscal year 2000 
Appropriation. What is this increase to be used for and when do you 
expect completion of the program?
    Answer. The Next Generation Turbine project is aimed at development 
of advanced wind turbines capable of generating electricity at a cost 
of 2\1/2\ cents per kWh at sites with winds that average 15 mph or 
better, which can be found in many areas of the country, particularly 
the Great Plains. This is a challenging task and we have two projects 
under way. The requested funding, including the increase of $1.1 
million, will support design and fabrication of final turbine 
prototypes, which is a highly cost-intensive phase of the projects. 
Because of the challenging nature of the goal, proof-of-concept 
turbines have been fabricated and will be tested in fiscal year 2000 to 
verify design concepts at a more modest scale. We plan to complete 
testing of final prototypes in fiscal year 2003 and close out the 
program by the end of that year.
    Question. You are requesting $5.0 million for a new effort called 
Regional Field Verification. Would you explain the purpose and outcome 
of this large new start?
    Answer. Regional Field Verification is intended to introduce 
advanced wind turbines into regions of the country having promising 
wind resources. Competitively selected wind projects will help the 
Department and industry verify performance and refine wind energy 
technologies while addressing unique siting, regulatory, and market 
issues in each region. The model would follow the Turbine Verification 
Program, in which a small amount of Federal funds were leveraged by 
utilities and industry to install several projects, varying in size 
from a few machines to over 5 megawatts. We expect that a small amount 
of highly leveraged funding and technology transfer will greatly expand 
understanding of the performance of wind energy in selected regions 
permit State regulatory authorities, land owners and investors to make 
informed decisions about wind energy technology. We estimate the 
Federal funds would be leveraged at least 4 to 1 overall in these 
projects.
    Question. You are requesting $5 million for the Wind Powering 
America initiative. Please explain the composition of this new effort 
and what you hope to accomplish through it.
    Answer. Wind Powering America is a grass roots effort to accelerate 
the use of wind energy throughout the United States. It is a 
regionally-based effort in which technical, institutional and 
environmental barriers to wind energy development are identified by 
local groups and resolved with the help of the Department of Energy, 
its laboratories, the wind industry and interested stakeholders. 
Initially, we have identified the Upper Midwest for emphasis, but we 
are working to establish activities in all regions. We've had a series 
of meetings across the country to define the strategy for this 
initiative. We are planning extensive involvement of the Department of 
Energy Regional Offices in carrying out this strategic plan to most 
effectively employ Federal funds in addressing technical and 
institutional challenges unique to each region. Through this 
decentralized effort we hope to leverage a small Federal investment to 
catalyze development in regions where there has been little or no wind 
energy market penetration goal is 10,000 MW by 2010.
                                 ______
                                 

              Questions Submitted by Senator Patty Murray

                  AGRICULTURE AND CARBON SEQUESTRATION

    Question. As you know, the Energy Efficiency Budgets are in a 
separate Subcommittee, but I have a question relative to the Renewable 
Budgets. What is the overall strategy of the Department relative to 
Agriculture and Carbon Sequestration? As you know, there are several 
Bills that have been introduced in the Senate dealing with this issue. 
Please give me a short description of the Department of Energy's role 
in Agriculture relative to Renewable Energy, Bio-energy and Carbon 
Sequestration strategies.
    Answer. The Department of Energy has a long history of scientific 
and technical involvement in agricultural-related issues. In this 
fiscal year, the department is spending over $100 million in this area; 
most of that is focused on applied research on bio-based products and 
bio-energy, or the use of crops, trees and wastes to make 
transportation fuels, electricity and chemicals for a whole host of 
consumer goods, like plastics, paints and adhesives. A new Department 
of Energy report recently concluded that by the year 2010, the 
agricultural and forestry industries could help reduce greenhouse gases 
by producing and utilizing more of these bio-based products.
    The report, ``Emission and Reduction of Greenhouse Gases from 
Agriculture and Food Manufacturing'', was the first comprehensive 
analysis of U.S. agricultural activities and their impact on greenhouse 
gas emissions. The report found that agricultural and forestry 
industries currently produce one-tenth of all greenhouse gases emitted 
in the U.S. A copy of the report is submitted.
    President Clinton's Executive Order 13134 on bio-based products and 
bio-energy, issued in August, 1999, was designed to stimulate 
development of a new bio-based industry. The President's goal of 
tripling U.S. use of bio-based products and bio-energy by the year 2010 
could create billions of dollars in new income for farmers and rural 
Americans, while reducing greenhouse gas emissions by tens of millions 
of tons of carbon. The use of advanced agricultural practices--such as 
improved forest and animal waste management, cultivation, and 
irrigation techniques--can also contribute to this initiative.
    Question. What is the role of the National Laboratories and 
Universities in the opportunities that exist, if there is an 
Agricultural-related initiative in the fiscal year 2001 Budget?
    Answer. We consider our National Laboratories and Universities full 
partners with the federal government, industry and growers in the 
implementation of the President's Bio-based Products and Bio-energy 
Initiative. For example, representatives of all of these important 
groups have been involved from the very beginning in the development of 
a new strategic vision for a bio-based industry, and they will 
participate in the drafting of a technology roadmap to guide our 
research and development spending. Planning is now underway for a 
workshop to discuss and showcase what the nation's state universities 
and land-grant colleges can contribute to the growth of this emerging 
industry. In addition, competitive solicitations for research and 
development proposals related to this area will be open to 
participation by both the national laboratories and the academic 
community.
                                 ______
                                 

             Questions Submitted by Senator Byron L. Dorgan

                      PHOTOVOLTAICS/SOLAR PROGRAMS

    Question. For a number of years the DOE has been putting 
significant funding towards various photovoltaics (solar) energy 
programs. What have been the gains of this program?
    Answer. When the Photovoltaic R&D Program began a number of years 
ago there was no industry, no terrestrial products, and no market. The 
first solar cells were developed in the 1960s and used to power 
satellites. In the late 1970s the U.S. Department of Energy began an 
R&D program to develop a clean alternative for use in terrestrial 
applications. At that time, the only known way to make a solar cell was 
with crystalline silicon, and this was a labor intensive process that 
produced six percent efficient cells that cost hundreds of dollars per 
Watt. Over the years the Department has built a successful program that 
has made dramatic improvements. Scientists in the national 
laboratories, industry and universities have steadily improved the 
silicon solar cell. As a result, the technology progressed 
significantly, with automated manufacturing capabilities, improved 
device efficiencies, greater reliability, and longer module lifetimes. 
Today, silicon cells and modules are 14 percent efficient and cost 
around $4.00 per Watt. More important to the Program, during this time 
scientists have discovered new, more innovative ways to make different 
kinds of cells that will ultimately cost less to make than the silicon 
cell. This new family of cell materials is called thin film 
technologies and consists of amorphous silicon, cadmium telluride, and 
copper indium diselenide. In the 1970's thin films didn't exist. In the 
early 1980's scientists struggled to make six percent efficient devices 
in the laboratory. Today we have pilot-plant sized manufacturing lines 
producing 11-percent efficient thin film modules for the same cost as 
the more mature silicon technology. In summary, in a relatively short 
period of time the Department's Photovoltaic R&D Program has created a 
photovoltaic industry and a promising, clean alternative energy source 
where once there was none. Since 1980, the U.S. PV industry has grown 
an average of 20 percent a year and in 1999 manufactured over 60 
megaWatts of products.
    Question. Do you see value in continuing this type of expenditure 
in the area of photovoltaics?
    Answer. Yes. The return on investment for photovoltaic R&D is well 
worth the cost. In addition to the dramatic improvement in science, 
technology and the growth of the industry to date, we, and industry, 
believe this is just the beginning. Last June, about 35 representatives 
from the U.S. PV industry held an intensive workshop to develop an 
industry roadmap. The result of this meeting concluded that a sustained 
growth rate of 25 percent is achievable. At such a growth rate, 
worldwide shipments would approach 18 billion watts per year by 2020, 
representing a direct PV market of about $27 billion and an indirect 
market double that. Of this, U.S. PV shipments would reach 7 billion 
watts by 2020, with more than 3 billion watts for domestic use. This 
means that PV could be supplying about 15 percent of the nation's added 
generation capacity. And a large, growing industry bodes well for 
American workers. According to some estimates, the PV industry creates 
more than 3000 direct and indirect jobs for every $100 million in 
direct module sales. As this industry grows toward its potential, it 
will generate hundreds of thousands of jobs.

                                 TRIBAL

    Question. The DOE currently has a Tribal Energy Program. What 
efforts has the DOE taken to work with tribes to develop renewable 
systems.
    Answer. The Tribal Energy Program is a reconfiguration of the pre-
existing Renewable Indian Energy Resources Program for fiscal year 2001 
and represents an evolution in the Department's continuing work with 
the Tribes in assisting them to develop their energy resources and in 
addressing their energy needs. The Department recently released a 
report, ``Energy Consumption and Renewable Energy Development Potential 
on Indian Lands'' (March 2000), which discloses that some 14.2 percent 
of Native Americans, versus 1.4 percent of the general population, do 
not have access to electricity. The Department has been attempting to 
rectify that situation, beginning in fiscal year 1994 with our efforts 
under Title XXVI of the Energy Policy Act of 1992 whereby 35 Tribes 
received competitive awards to construct renewable energy projects on 
Tribal lands; continuing in fiscal year 1999, where, through our Remote 
Power Program, we competitively awarded $1.9 million to eight Tribes to 
construct both grid-connected and off-grid renewable energy projects 
which will bring reliable power to Tribal residents; and culminating 
this year with $700,000 being made available to Tribal Colleges and 
Universities through our Competitive Solicitation Program for 
feasibility studies for renewable energy projects that will educate 
these future Tribal leaders on the benefits of renewable energy 
technologies. For fiscal year 2001, the Tribal Energy Program builds on 
these activities to develop expertise among Tribal leaders and 
communities on energy system design and implementation and to ensure 
that energy planning and installations are technically, economically, 
and environmentally sound.

                             NO YEAR FUNDS

    Question. One issue that was addressed at last years appropriation 
hearing was the use of ``no year funds'' for Research and Development. 
I see that you are requesting language this year that would grant you 
``no year funds'' for research and development. What would (sic) the 
Administration done to ensure that the administration of these funds is 
properly carried out?
    Answer. The Administration, through the Office of Energy Efficiency 
and Renewable Energy, has instituted numerous management improvements 
over the course of the last 18 months. We began by conducting internal 
reviews to assess the management problems and identify those actions 
that could most improve our performance. This led to the establishment 
of a Chief Operating Officer who also serves as the Deputy Assistant 
Secretary for Planning, Budget and Management (PBM). The Chief 
Operating Officer is the single point of focus for all business 
management and resource issues. The Chief Operating Officer oversees 
all planning, budget formulation, budget execution, program evaluation, 
field management, and human resources activities for the entire EERE 
enterprise.
    We also participated in an external review by the National Academy 
of Public Administration (NAPA). Their review identified areas for 
improvement and also acknowledged the improvement that has already 
occurred. Their report has been published and was the subject of a 
hearing before Congressman Regula's House Appropriation Subcommittee on 
Interior and Related Agencies, April 4, 2000.
    The NAPA report recommended two-year or no-year funding for the 
Energy Supply appropriations account. The report discussed the 
financial management problems associated with one-year funding and 
stated that, ``some unproductive project fiscal and administrative 
effort could be avoided'', by funding the account on a multi-year 
basis.
    The NAPA team also found that the Strategic Management System (SMS) 
through the Chief Operating Officer is sufficiently robust to achieve 
the level of funds control envisioned by Congress. The SMS is a 
systematic process that outlines all proper funds control mechanisms 
and ensures that proper checks and reviews occur in time to prevent 
problems. The system is over 75 percent implemented, and is on track 
for full implementation before fiscal year 2001.
biomass research at the energy and environmental research center (eerc)
    Question. Last year, this Subcommittee included report at my 
request in the fiscal year 2000 Energy and Water Development Report. 
The language, which was not negated in the conference report, read:

          ``Within the amount provided for systems development, 
        $1,000,000 is for the continuation of biomass research at the 
        Energy and Environmental Research Center on key barrier issue 
        impeding the technical feasibility, cost-effectiveness, and 
        environmental acceptability of biomass utilization processes. 
        The funding is intended to advance the Center's work in 
        integration of biomass with fossil fuels to increase baseload 
        renewable electricity generation, development of practical 
        methods for using biomass in advanced power systems, and 
        improvement of efficiency and environmental performance in 
        agricultural processing and forest-based product industries.''

    It is my understanding that the EERC has asked you and your staff 
to follow up on the implementation of this report language to date, 
there has been little action toward this end. Will you please give me 
some guidance about how the EERC should proceed?
    Answer. It is a primary objective of the Department to issue 
competitive solicitations whenever possible to ensure best value. As a 
result of discussions in Spring, 1999 between your staff and the 
Department of Energy's (DOE) Office of Energy Efficiency and Renewable 
Energy (EERE), it became apparent that opportunities exist for the 
Department to expand its efforts in co-firing by including 
subbituminous and lignite coals, this would provide an opportunity for 
EERC's expertise. As a result, a solicitation was issued (Supplemental 
Announcement to the Broad Based Solicitation DE-PS36-99GO10383), with 
the objective of successfully demonstrating the viability of co-firing 
biomass with lignite for power production. Although DOE intended to 
make one award of up to $1.0M, no responses were received.
    In fiscal year 2000, the Department, requested proposals again 
through an open solicitation. This solicitation entitled ``Biomass 
Cofiring Opportunities'' (DE-PS26-00FT40775), administered through 
National Energy Technology Laboratory (NETL) on behalf of EERE, is 
aimed at cost-shared applications for research and development on co-
firing biomass feedstocks with fossil fuels. It also included a 
component involving the co-firing of biomass with both lignite and 
subbituminous coals. It is our understanding that EERC has responded 
with an application. Although the review process has just begun, it is 
our intention to inform your office about the outcome as soon as the 
selection process has been completed.
                                 ______
                                 

   Questions Submitted to the Office of Nuclear Energy, Science and 
                               Technology

            Questions Submitted by Senator Pete V. Domenici

                   ACCELERATOR TRANSMUTATION OF WASTE

    Question. Mr. Magwood, during the current year, $9 million was 
provided for the Accelerator Transmutation of Waste (ATW) program. ATW 
offers an exciting new option for dealing with spent nuclear fuel. I 
understand the Department recently completed a technology road map 
called for an expenditure of $280 Million over six years. This year was 
the first step down this road of technology exploration.
    Despite this road map and the promise of ATW, the proposed budget 
for next year is zero. Please explain why the Department's zeroed the 
funding for ATW after your road map effort expressed significant 
enthusiasm for if?
    Answer. In fiscal year 2000 the ATW program is conducting trade 
studies on various technology pathways to identify the specific 
directions to conduct experimental research. The Department believes 
that a full evaluation of the various research activities needs to be 
accomplished and presented to both the Office of Management and Budget 
(OMB) and the Office of Science and Technology Policy (OSTP) before we 
consider any future integrated ATW research program.
    Question. I understand that there may be opportunities in a new 
advanced accelerator applications program that would combine the ATW 
program with the Accelerator Production of Tritium program (APT).
    Has a joint program combining APT and ATW been considered in your 
Office and could you comment on the national benefits that might accrue 
from such an approach?
    Answer. A joint APT/ATW program has been discussed between the 
Office of Defense Programs (DP) and the Office of Nuclear Energy, 
Science and Technology (NE). If a new program were established, for 
example, the investment of over $150 million in the Low Energy 
Demonstration Accelerator would be leveraged to provide the foundation 
of a test-bed for new frontiers of nuclear science and engineering that 
could be used in the ATW program. Of particular interest is the 
coupling of an accelerator to sub-critical reactor fuel assemblies, a 
new area of science which is not well understood today. This type of 
research could lead to new technology such as Generation IV reactors, 
advancements in proliferation-resistant reactors and fuel, advanced 
materials, and space nuclear power. In addition, an activity of this 
nature would help rebuild our critical nuclear infrastructure in terms 
of education, expertise and facilities.

                         NUCLEAR ENERGY PROGRAM

    Question. Mr. Magwood, the budget request includes a new line, 
Special Purpose Fission Power Technology, for $2 million.
    Why is the work proposed under this request not duplicative of work 
performed under Radioisotope Power Systems?
    Answer. The funding request for the Special Purpose Fission 
Technology effort is included as one of four sub-items under the 
funding line Advanced Radioisotope Power Systems in the fiscal year 
2001 budget request. The other three sub-items are: Radioisotope Power 
Systems, Special Applications, and Pu-238 Acquisition and Processing. 
While the other three sub-items are focused only on efforts related to 
radioisotope power systems, the Special Purpose Fission Power 
Technology effort would focus only on an assessment of fission power 
technologies. Therefore, this proposed work does not duplicate work in 
the other sub-items.
    Question. Explain why the $2 million is needed.
    Answer. This funding is needed to support a technology evaluation 
effort to examine options and requirements for using small, compact 
fission reactor systems capable of meeting higher power requirements 
(both thermal and electrical) for emerging future needs. In the near-
term, the effort would be focused on projected space exploration 
applications, and would provide for the assessment of performance 
attributes and requirements associated with use of these systems for 
meeting advanced propulsion and power needs (both for in-space and 
planetary surface operations). Due to the long lead time necessary to 
develop these systems, it is important that an evaluation effort be 
conducted at this point to provide credible information to support 
long-term planning. This near-term assessment would be an interagency 
effort with NASA funding significant portions of key technology areas. 
The DOE funding is critical to serve as the core of a coordinated U.S. 
assessment analysis. If the assessment identified a need for a large 
R&D effort in the future, most of the funding would be provided by the 
user agency.
    The requested funding would make possible a coordinated evaluation 
effort consisting of nuclear fission reactor system concept definition 
and technical evaluation; technology subsystem assessment; and 
identification of programmatic requirements associated with system 
development including safety, technology advancements, and test 
facilities. An interagency assessment report would be developed 
providing the results of this evaluation effort and options to support 
future mission planning, integration, and decision-making related to 
potential development of these systems for meeting future needs.

                      ADVANCED REACTOR DEVELOPMENT

    Question. Mr. Magwood, significant progress has been made in re-
establishing a research base in nuclear engineering in this country. 
Despite this progress, I'm concerned that we are not doing enough, 
especially since nuclear energy is providing immense environmental 
benefits to the nation as it supplies 22 percent of our electricity. 
I've heard excitement among some groups about a Generation 4 reactor 
that would have lower costs and greater safety than current systems.
    Do you agree that the time is right to encourage technical 
evaluation of a Generation 4 reactor? Are there technologies in sight 
that make it feasible?
    Answer. This is absolutely the right time to evaluate Generation IV 
nuclear power systems. Both we and the international community 
recognize that the economic, reliable, and widespread availability of 
electric power is an essential element in all developing countries' 
plans to improve the quality of life for their citizens. Worldwide 
energy demand is predicted to increase substantially, as much as 65 
percent by 2020 (International Energy Agency, 1999). Because of its 
attributes, nuclear power will be a key option for many countries, both 
industrialized and developing. In order to meet demand and bring 
advanced technologies to commercial use over the next 15 to 20 years, 
the time is now to begin planning for tomorrow's nuclear energy 
systems.
    The United States has an indispensable role as a leader in 
developing nuclear technologies and has begun to reach out to our 
partners overseas to explore the potential for working on these 
technologies together. This past January, the Department sponsored a 
meeting with government representatives of eight other countries to 
begin discussing Generation IV advanced nuclear energy technologies. In 
April, a small group of experts from those countries met again to 
develop specific recommendations on the future direction of 
multilateral cooperation on Generation IV technologies. In early May, 
the Department sponsored a three-day workshop with a broader group of 
approximately 100 international and U.S. experts from the government 
agencies, research organizations, and representatives of the 
International Atomic Energy Agency and other multilateral organizations 
to begin the process of establishing requirements and attributes of 
Generation IV reactor technologies.
    The results of these discussions and considerations will help us 
initiate a DOE-led Generation IV technology roadmap, which will bring 
together the views and requirements of the entire U.S. and 
international research community to set a direction for advanced 
research to develop next generation nuclear power systems.
    From the discussions that we have had with the international and 
U.S. research community, it's clear that there are many innovative and 
enabling technologies that make Generation IV reactors feasible over 
the next fifteen years. The Nuclear Energy Research Initiative research 
includes several Generation IV concepts such as secure transportable a 
LWR, encapsulated fission heat sources, reactors that directly convert 
energy from fission, and new designs that produce hydrogen or methane 
for alternative fuel sources. The United States has made a very 
promising start. Working with the research community, we hope to apply 
what we have learned in creating our Generation IV technology roadmap 
to set upon a path that will enhance the long-term prospects for 
building advanced nuclear power systems in the twenty-first century.
    Question. Would development of a Gen 4 reactor by the United States 
help re-establish some degree of international leadership and 
rejuvenate interest in the profession?
    Answer. The Office of Nuclear Energy, Science and Technology's 
initiation of its Generation IV activities, combined with other 
programs such as our Nuclear Energy Research Initiative, is helping 
reassert U.S. technology leadership in the nuclear R&D field. One of 
the most satisfying aspects of launching our new programs has been the 
eagerness with which the international community has embraced the 
return of the U.S. to leadership in the nuclear R&D field.
    The countries participating with us in our Generation IV 
international activities are as concerned as we about rejuvenating the 
nuclear science and technology profession. The primary focus of our 
efforts is to attract the best young talent available into the nuclear 
technology field. Apart from Generation IV activities, NE is actively 
working both domestically and with international partners to make 
advanced education in the nuclear science and engineering available and 
attractive to talented, ambitious students. It is our hope that these 
efforts will yield an increase in the number of students entering 
nuclear engineering programs at our universities and rejuvenate 
interest in the nuclear profession.

                NUCLEAR ENERGY PLANT OPTIMIZATION (NEPO)

    Question. What led to cancellation of the original NEPO 
solicitation and when will grants be awarded?
    Answer. There was no cancellation of the original NEPO 
solicitation. The Department signed a Cooperative Agreement with the 
Electric Power Research Institute in May 2000 that provides for the 
solicitation and award of research contracts for 14 projects to be 
initiated this fiscal year. Research awards under NEPO will be made 
this summer.

             NATIONAL NUCLEAR SECURITY ADMINISTRATION LABS

    Question. The National Nuclear Security Administration started 
operation as a semi-autonomous agency within the Department on March 1. 
The NNSA labs of Los Alamos, Sandia and Lawrence Livermore have a long 
tradition of supporting a broad range of scientific initiatives beyond 
weapons activities. As the NNSA was created, I emphasized the 
importance of the NNSA labs continuing their multi-program support of 
the Department and other federal agencies.
    The enabling legislation, in Section 3264, stated that: ``The 
Secretary, in consultation with the Administration, shall establish 
procedures to provide for the use . . . of the national security labs 
by elements of the DOE not within the Administration . . .''
    Despite the legislation, I am concerned that the NNSA labs will not 
continue to receive high priority funding from the Department. Will 
each of you assure me that you will continue to aggressively fund 
projects within the NNSA labs?
    Answer. The NNSA Act allows the NNSA laboratories to continue to 
perform significant research for all DOE programs, for other federal 
agencies and non-federal organizations. It also permits the Department 
to continue the important role the NNSA laboratories have as part of 
the integrated laboratory system.
    The Department recognizes that non-defense research is important to 
maintain the vital overall science and technology base and core 
competencies of the NNSA laboratories. This point was recently 
reinforced by Secretary Richardson in a memorandum to the Heads of 
Departmental Elements on May 11, 2000, in which he reinforced the 
Department's strong commitment to encouraging and supporting the 
diversity of work performed by the Department's national laboratory 
complex, including the laboratories that report to the NNSA.
    The Office of Nuclear Energy, Science and Technology (NE) will 
continue work closely with the NNSA laboratories in research and other 
programmatic activities of our office. As part of NE's Isotope Program, 
Nuclear Energy Research Initiative program, Accelerator Transmutation 
of Waste program, and our space power systems program, we are engaged 
in a number of important research and other mission-related activities 
with the NNSA laboratories, including Sandia National Laboratory, 
Lawrence Livermore National Laboratory, and Los Alamos National 
Laboratory. We are committed to continuing to work closely with these 
laboratories as we accomplish the mission of NE.
    Question. Have discussions been initiated between your Office and 
NNSA to define mechanisms to maintain close collaboration, both for 
NNSA lab support to your Office and for your labs to support NNSA as 
required?
    Answer. An Implementation Plan for the NNSA has been prepared and 
issued. This implementation plan is structured as the mechanism that 
provides maximum flexibility for both NNSA and non-NNSA laboratories, 
to continue to perform the type of research that they do best and to 
allow the initiating program sufficient control over their research. 
The Implementation Plan is structured to ensure continued utilization 
of the national laboratory complex by all parties. It allows the NNSA 
laboratories to continue to perform significant research for all DOE 
programs and to work together with the non-NNSA laboratories 
efficiently and effectively to complement each others' expertise in 
important scientific collaborations that can benefit all Departmental 
programs, including the NNSA.
    Question. Do you foresee any barriers to maintaining close working 
relations between your Office and the NNSA?
    Answer. No. The Implementation Plan for the NNSA adequately 
addresses the concerns you raise, and the Department is committed to 
maintaining a culture that permits the laboratories to continue this 
effective relationship.
                                 ______
                                 

              Questions Submitted by Senator Slade Gorton

                        FAST FLUX TEST FACILITY

    Question. Given the imminent approval of the Department's $9 
million reprogramming request on FFTF (and again, I very much 
appreciate the chairman's support for this reprogramming), what is the 
timetable for conducting the NEPA review on future restart or shutdown 
options for the FFTF?
    Answer. The National Environmental Policy Act (NEPA) review 
addresses more than actions regarding the Fast Flux Test Facility 
(FFTF). As recommended by the Nuclear Energy Research Advisory 
Committee and directed by Secretary Richardson, this review will 
evaluate through the preparation of a Programmatic Environmental Impact 
Statement (EIS) enhancing the Department of Energy's nuclear facility 
infrastructure to meet growing civilian research needs over the next 35 
years. The alternatives of restarting or deactivating FFTF will be 
included in this evaluation. The Programmatic EIS is expected to be 
completed by the end of the current calendar year. The final decision 
on the future of the FFTF will be made as part of the broader decision 
on the nuclear research facility infrastructure. This decision is 
expected to be issued in January 2001, following completion of the 
Programmatic EIS and other related documents, including studies 
analyzing the costs and nonproliferation impacts of proposed actions, 
and a long-range nuclear technology research and development plan.
    Question. Again assuming the approval of the reprogramming, what 
are the Department's plans to maintain FFTF in a safe condition and to 
minimize layoffs?
    Answer. The funding available under the proposed reprogramming 
would be used by the Department to maintain the FFTF in a safe standby 
condition in compliance with applicable environmental and safety 
regulations, through the end of the fiscal year. Impact to FFTF staff 
will be minimized through reassignments, as practicable, to retain 
needed expertise and skills-mix.
    Question. Please describe the nuclear science and technology 
research missions that are suitable for FFTF, including the production 
of medical isotopes.
    Answer. The FFTF, if restarted, would be a reliable and versatile 
source of neutrons, and would provide the largest core volume for 
neutron irradiation among the Department's research and test reactors. 
Neutron irradiation in the FFTF could support a number of nuclear 
science and technology missions, meeting specific civilian nuclear 
technology needs in the areas of isotope production, domestic and 
international nuclear technology research and development (R&D) and 
plutonium-238 production for national needs.
    In isotope production, FFTF could provide critically needed medical 
isotopes used to diagnose and treat a number of conditions, including 
various cancers. Even conservative market surveys project that for many 
medical isotopes future demand will exceed supply.
    In the area of nuclear technology R&D, FFTF core space could be 
used to support research efforts in transmutation of radioactive 
wastes, development of proliferation resistant fuels, space power 
systems development, and materials development for advanced reactor 
applications and fusion research.
    FFTF could also support specific needs in plutonium-238 production 
for use as a source of heat and electricity in long-range space probes.
    Question. Our country's increasing dependence on foreign oil and 
the groaning [growing] concerns on global warming underscore the 
importance of maintaining nuclear power as an energy option. Yet our 
nuclear energy research infrastructure is deteriorating. Please explain 
the role the FFTF could play in supporting a robust nuclear energy R&D 
program.
    Answer. If restarted, the FFTF would operate as one of a suite of 
DOE-owned test and research reactors. As a nuclear science and 
irradiation user facility it would significantly increase the nation's 
available neutron flux capacity for materials and nuclear fuels testing 
crucial to nuclear technology R&D efforts. Working in tandem with other 
nuclear facilities such as the High Flux Isotope Reactor and the 
Advanced Test Reactor, FFTF, if restarted, could help the Department 
address growing civilian nuclear technology research needs over the 
next 35 years. As such, FFTF could directly support research and 
development under the Nuclear Energy Research Initiative (NERI); for 
example, materials testing to support advanced fuel development. 
Materials testing could also provide data to support life extension of 
existing reactor plants. FFTF could also be an important tool in 
technology development to help reduce nonproliferation concerns and in 
expansion of cooperative international nuclear research efforts. A 
robust nuclear energy R&D program would include active U.S. involvement 
and leadership in international reactor research programs.
    Question. FFTF is the nation's most modern nuclear test reactor. If 
FFTF were to be decommissioned, what is the next newest research 
reactor that the Department would rely on to support the nation's 
nuclear R&D missions? How old is that reactor? Can it meet the 
Department's needs?
    Answer. The Department's nuclear R&D missions needs are met by a 
suite of facilities, including two operating research and test 
reactors, the High Flux Isotope Reactor (HFIR) and the Advanced Test 
Reactor (ATR), which provide the currently available core capacity for 
neutron irradiation and testing. HFIR and ATR have operated for 33 and 
31 years, respectively. The FFTF operated for 10 years before being 
placed in standby in 1993.
    Since 1993 the DOE Complex has experienced a significant decline in 
the total availability of steady-state neutrons for research, testing, 
and isotope production, while the Department's nuclear R&D and 
production needs are increasing. The Department is evaluating how best 
it can meet these projected mission demands. In addition to the 
National Environmental Policy Act (NEPA) review of the Department's 
nuclear research facility infrastructure, including the potential role 
of the Fast Flux Test Facility, the independent Nuclear Energy Research 
Advisory Committee is preparing a long-term nuclear energy research and 
development plan and an infrastructure roadmap. When these evaluations 
are complete, the Department will be in a position to make 
infrastructure decisions based on well-defined needs and capabilities.
                                 ______
                                 

             Questions Submitted by Senator Mitch McConnell

                     DEPLETED URANIUM HEXAFLUORIDE

    Question. Mr. Magwood, you are probably aware that USEC is 
preparing to lay-off 825 workers at the gaseous diffusion plants. It is 
my understanding that your office has control over $10 million in funds 
that have been obligated to cylinder maintenance between fiscal year 
2002-fiscal year 2010. This level of funding would be more than 
sufficient to provide these basic benefits.
    Is there any reason why this funding can't be used immediately to 
provide a voluntary reduction-in-force benefits package? What about 
worker health testing or accelerating cleanup?
    Answer. The $10 million identified in the question is part of a 
balance of $66 million received from the United States Enrichment 
Corporation (USEC Inc) under a Memoranda of Agreement (MOA) under which 
the Department voluntarily accepted responsibility from USEC for 
management and disposition of some 11,000 cylinders of depleted uranium 
hexafluoride. This arrangement was a ``work for others'' transition and 
the money the Department received from USEC for conducting this 
activity was ``miscellaneous revenues'' that are appropriated annually 
to the Department, enabling the Department to retain and use those 
revenues in the general fund of the Treasury as miscellaneous receipts. 
Thus, we concluded that under current law, the Department must use 
those amounts just for the purpose they were received from USEC.
    The Department has worked closely and actively with USEC to 
formulate programs under which we can mitigate the effects on workers 
of anticipated USEC workforce reductions (now estimated by USEC to be 
625 positions rather than the earlier estimate of 825 referenced in the 
question). Those efforts have included the recent redirection of other 
appropriations balances to enhance voluntary separation benefits from 
amounts available for worker and community transition accounts.
    Question. I have a budget document that was prepared by your 
cleanup contractor that states that at the end of fiscal year 2001, the 
cylinder management program will have an uncosted balance of $9.2 
million between Paducah and Portsmouth.
    How do you explain this and why are you requesting such a massive 
increase if the contractor won't be able to spend this amount of 
funding?
    Answer. As part of the budget formulation process for the uranium 
programs' fiscal year 2001 budget request, various funding scenarios 
were developed for allocation of funding among Paducah, Portsmouth, and 
the East Tennessee Technology Park by the management and integration 
contractor. Although the Office of Nuclear Energy, Science and 
Technology is not familiar with the budget document cited in this 
question, we are familiar with a scenario that maximized cylinder 
maintenance at Paducah and Portsmouth, and resulted in a somewhat lower 
uncosted balance. However, neither scenario is considered credible 
because of other program mandates that were not considered in the 
scenarios. As we proceed through the fiscal year 2001 appropriations 
process, the Department will continue to analyze options for allocation 
of limited funding to meet the numerous priorities of the program at 
the three sites. Regardless, we do not envision the allocation of the 
funding among the sites to result in a high uncosted balance in fiscal 
year 2001.
    Question. Instead of wasting this funding on cylinder maintenance, 
where it obviously can't be spent, wouldn't it be better applied to the 
cylinder conversion program to eliminate the threat?
    Answer. Although the Department is committed to addressing the 
final disposition of the depleted uranium hexafluoride 
(DUF<INF>6</INF>) inventory in an expeditious manner and is proceeding 
with plans for a project to build and operate conversion facility, 
maintenance of the inventory will be required in the interim and 
throughout the duration of conversion facility operation. The 
significant increase requested in the President's fiscal year 2001 
budget will enable us to rectify funding shortfalls in surveillance and 
maintenance in prior years.
    As you know, for decades as the Department continued its uranium 
enrichment program, it filled large steel cylinders with 
DUF<INF>6</INF>. This material, which results from the enrichment of 
uranium for commercial nuclear fuel or defense purposes, if properly 
maintained, has and can be stored safely for decades without causing a 
hazard to workers, the public, or the environment. However, proper 
maintenance of the inventory was neglected in prior years, resulting in 
cylinders that were stacked in a less than optimal manner and often in 
direct contact with the ground.
    Over the last seven years, DOE has taken positive steps to address 
this situation, putting a comprehensive program in place to maintain 
and monitor the inventory pending its disposition. These management 
activities are consistent with consent agreements involving the states 
and with the Defense Nuclear Facilities Safety Board (DNFSB) 
recommendations. In fact, last December, the DNFSB notified DOE that 
the Board considers the recommendation closed because the Department 
had met all of the relevant commitments. In large part, the Board's 
conclusions were based on the maintenance and surveillance program put 
into place as well as the fiscal year 2001 budget request, which with 
about $4 million more than this fiscal year, will rectify prior funding 
shortfalls and will enable us to manage the inventory in a manner that 
protects workers, the public and the environment.

                   DOE MATERIAL STORAGE AREAS (DMSAS)

    Question. I noticed that budget funding for the management of the 
148 DOE material storage areas (DMSA) was reduced by 16 percent, yet 
the Phase I Report identified 11 of the 148 sites pose a criticality 
threat. How do you justify a budget reduction?
    Answer. The funding reduction in fiscal year (FY) 2001 is the 
result of accelerating the characterization schedule for the 13 
critical DMSAs in fiscal year 2000. The Department reprioritized 
activities in fiscal year 2000 to fund the urgent work to address 
questions about potential criticality concerns in the 11 DMSAs that 
were identified in the Environmental, Safety and Health Phase 1 
Investigation Report and another 2 DMSAs subsequently identified by the 
Office of Nuclear Energy, Science and Technology.
    Characterization of these DMSAs is proceeding, with completion 
expected by July 2000. As such, no increase in funding is required in 
fiscal year 2001.
    Question. Why aren't these projects being cleaned up?
    Answer. While there are 148 DMSAs on the Paducah site, only 13 have 
been identified as high priority for near-term action due to a 
potential for nuclear criticality concerns. Until recently, the 
strategy for management of the DMSAs at the Paducah and Portsmouth 
sites had been to take action as needed to maintain the materials in a 
safe configuration, pending final shutdown of the gaseous diffusion 
plants. This approach was based on the recognition that some of the 
material and equipment represented a potential strategic benefit to the 
Government or USEC. Further, it was considered more cost-effective to 
postpone disposition of the materials in the DMSAs to the time in which 
the overall decontamination and decommissioning of the facilities was 
performed.
    However, we are currently evaluating options for accelerating 
characterization of the DMSAs, and where appropriate, for transferring 
radioactive, hazardous and other waste identified in the DMSAs to the 
Office of Environmental Management for disposition. A characterization 
and disposition plan for the DMSAs at Paducah is under development and 
expected to be completed in the first quarter of the next fiscal year. 
However, that material and equipment that is of potential strategic 
benefit to the Government and USEC will continue to be retained in a 
safe configuration, pending its final disposition.

           DEPLETED URANIUM HEXAFLUORIDE CYLINDER MANAGEMENT

    Question. In testimony before the Energy Committee two weeks ago, 
you claimed that your office has met the standards set by the Defense 
Nuclear Facility Safety Board (DNFSB) Recommendation 95-1 for depleted 
uranium cylinder management and you are confident that the program has 
resolved the cylinder storage problems. If you are in full compliance, 
how do you justify a 30 percent increase in your budget for the 
cylinder maintenance program at Paducah?
    Answer. As the Department produced more and more depleted uranium 
hexafluoride over the years, it stacked cylinders in less than an 
optimal manner, often storing cylinders too closely together and some 
of the cylinders were in direct contact with the ground, resulting in 
corrosion. Over the last several years, DOE has taken positive action 
to address this situation. We put in place a comprehensive program to 
maintain and monitor the inventory pending its disposition. As a part 
of our commitment to the Defense Nuclear Facility Safety Board's 
Recommendation 95-1, Improved Safety of Cylinders Containing Depleted 
Uranium, we established a cylinder management program that requires 
continuous oversight to maintain the integrity of the cylinders through 
a systems engineering process. In December 1999, the DNFSB notified DOE 
that the Board considers the recommendation closed, because the 
Department has met all of the relevant commitments. In particular, the 
Board recognized DOE's efforts to develop a workable and justifiable 
cylinder management program and our commitment to continuing with 
cylinder maintenance as part of the accelerated conversion program.
    The President's fiscal year 2001 budget request provides $16.6 
million to maintain the cylinders, about $4 million more than was 
appropriated this year. Because of funding shortfalls in previous 
years, this increase is needed to enable us to follow through on 
commitments made to the States and DNFSB and is important to the safe 
and efficient management of the inventory in a manner that protects 
workers, the public and the environment. The increase in funding 
reflects our continued efforts to come into full compliance with the 
requirements of the plan approved by the DNFSB, particularly in the 
areas of cylinder painting and disposal of empty cylinders.
    Question. Mr. Magwood--the Programmatic Environmental Impact Study 
on the depleted uranium conversion facility specifically stated, 
``depleted UF<INF>6</INF> produced as a result of uranium recovered 
from spent nuclear fuel would not be expected to contain appreciable 
amounts of transuranic radionuclides.'' (Page 3-16, April 1999)
    Do you stand by this statement?
    Answer. Last summer when concerns were raised about the 
introduction of recycled uranium feed materials, the possibility that 
the DUF<INF>6</INF> inventory could be contaminated with transuranic 
materials was identified as an issue requiring additional evaluation. A 
review of the historical data regarding the inventory, conducted last 
year, did not yield sufficient information to enable us to assure that 
future workers would be adequately protected. Because of this, we are 
proceeding this year with additional sampling of representative 
cylinders, dating back to the years in which recycled uranium was 
processed. This will enable us to obtain a clear understanding of 
whether the contaminants present in the cylinders will impact the 
design of conversion facilities or worker safety programs at the 
proposed conversion facilities. The sampling will be completed this 
year, the results of which will be used to finalize the DUF<INF>6</INF> 
conversion project Request for Proposals (RFP).
    Based upon preliminary samples, we believe that whatever the 
specific levels of contamination are they will not be appreciable 
enough to have a significant impact on the design, construction or 
operation of the conversion plants. However, it is important that we 
complete our current analysis and sampling so that sufficiently 
detailed information can be used in the design of the conversion plants 
and provide the confidence we need to allow contractors to bid on a 
contract for conversion plants.
    Question. Why didn't the Department ever disclose this information 
in its Plan for Conversion or the Record of Decision that were 
delivered to Capitol Hill prior to the Washington Post story?
    Answer. The Final Plan for the Conversion of Depleted Uranium 
Hexafluoride was completed in July 1999, and delivered to Congress. The 
concerns regarding use of recycled uranium feed were not raised until 
last summer, and our analysis of this concern was initiated in August. 
The final results of that analysis will not be available until near the 
end of this summer. Therefore, no data were available for inclusion in 
either the plan or the Record of Decision last year. However, as stated 
in the response to the previous question, we do not believe that the 
levels or the extent of contamination are significant enough to have 
impacted either the Plan or the Record of Decision.
    Question. Earlier this year, the U.S. Army completed its analysis 
of the depleted uranium armor provided from the Department of Energy's 
depleted uranium stockpiles to determine if the transuranic 
contamination posed a threat to U.S. soldiers. Thankfully, the Army's 
evaluation found that the trace amounts of contaminants were within 
acceptable limits.
    Are your findings consistent with those of the U.S. Army?
    Answer. We will not have the final results of our analysis of 
transuranic contaminants until later this year; however, we anticipate 
that the level of such contaminants will not pose a health or safety 
concern to workers or the public in properly designed conversion 
facilities.
    Question. I find it astounding that the Army, which only recently 
learned about the contamination, has completed its inspection; while 
your office has tested only four cylinders despite having full 
knowledge of the transuranic contamination. Why is taking so long?
    Answer. There are nearly 50,000 cylinders in the Department's 
inventory. Determining which of those cylinders should be sampled has 
involved an extensive and time-consuming search of sometimes incomplete 
records, development of a sampling plan that balances cost against 
expected gain, peer review of that sampling plan, and modification of 
procedures to permit sampling using USEC leased autoclaves. Finally, 
conducting sampling and analyzing the results has also been time-
consuming.
    Since December 1999, the Department has sampled six depleted 
uranium hexafluoride cylinders all of which were filled after 1989--two 
from Paducah, three from Portsmouth, and the ``heels'' from an empty 
cylinder at Paducah. Of the six, we are awaiting analysis of results or 
confirmation of the analytical results. Additionally, we are in the 
process of sampling two uranium hexafluoride ``feed'' cylinders from 
Paducah containing recycled uranium generated from processing reactor 
return material. The Department plans to empty these ``feed'' cylinders 
and sample the ``heels.'' Finally, we are evaluating approaches to 
obtaining samples from up to 12 additional depleted uranium 
hexafluoride cylinders at Paducah generated during the years in which 
recycling occurred. We are progressing with these activities and expect 
to have the results later this year, providing us a better 
understanding of the contaminants so that the final Request for 
Proposals can be issued this October.
    Question. DOE issued a Final Plan and a Programmatic Environmental 
Impact Statement for the depleted uranium conversion facilities at 
Paducah and Portsmouth. These documents describe a conversion plan with 
an estimated lifespan of nearly 25 years and an estimated cost of $2 
billion. The plan envisions converting this material either to uranium 
oxide, uranium metal or a combination of both.
    What form does the Department prefer this material be converted to 
for disposal?
    Answer. The Department believes that acceptable disposal paths 
exist for any of the product forms identified by the respondents to our 
request for expressions of interest. The Source Evaluation Board has 
not yet finalized a strategy on whether the Department should specify 
the final product form in the Request for Proposals or leave the 
product form open to potential bidders.
    Question. Your office has proposed beginning construction by 2003 
and operations to begin by 2005. What assurances can you give me that 
you will meet this schedule?
    Answer. The Department remains committed to dealing quickly and 
effectively with its depleted uranium hexafluoride inventory and to 
meeting the goals, objectives and requirements of Public Law 105-204. 
The President's fiscal year 2001 budget requests $12 million for the 
depleted uranium hexafluoride conversion project; an amount that we 
plan to match with an additional $12 million from funds obtained under 
the Memoranda of Agreement with USEC, bringing the total to $24 million 
in fiscal year 2001. Another $12 million is reserved for the conversion 
project and related activities. This funding will keep the project on 
track to issue the final Request for Proposals in October 2000, award a 
contract early next year and begin design in fiscal year 2001. Our 
budget request for fiscal year 2001 keeps the Department on schedule to 
meet the start of construction in 2003 and the start of operations in 
2005.
    Question. How much material is expected to be converted and what 
are the expected uses of this converted material? Where will this 
material be stored for the long term?
    Answer. There are about 700,000 metric tons of depleted uranium 
hexafluoride stored in cylinders at Paducah, Kentucky; Portsmouth, 
Ohio; and Oak Ridge, Tennessee, which we plan to convert. The 
Department has prepared a roadmap for developing beneficial uses of 
depleted uranium products. Other than for the fluorine, no uses have 
been identified for the depleted uranium that would be required in the 
short-term future. However, we believe that there may be uses for the 
material in the longer term future. To more fully explore this option, 
the Department is initiating domestic research projects and is 
exploring collaborative research opportunities with the international 
community to define uses for the depleted uranium product.
    Question. The documents state that unused conversion products will 
require disposal. What does DOE mean by ``unused conversion products?'' 
Where will DOE disposal of the unused conversion products? What are 
your alternatives?
    Answer. If an end use is identified for the conversion product, any 
material produced in excess of that need will require disposal. 
Although no decision has been made relative to disposal of unused 
conversion products, the Nevada Test Site, other DOE sites, and 
commercial low level waste disposal sites are among the options that 
would be available to the Department.
    Question. What are the impacts of the depleted uranium conversion 
facilities at Paducah on the sites cleanup schedule? Has the Office of 
Nuclear Energy coordinated with the Office of Environmental Management 
to address the potential impacts of cleaning the site? If so, what has 
been the result of this coordination?
    Answer. The Office of Nuclear Energy, Science and Technology and 
the Office of Environmental Management have established a working 
group, with participation by DOE's Offices of Policy, Worker and 
Community Transition, and General Counsel, to develop an integrated 
plan to guide the completion of all non-United States Enrichment 
Corporation (USEC) activities occurring at the gaseous diffusion plants 
(GDP) sites.
    The integrated plan will be completed this summer, and will serve 
as a living document to reflect the Department's plans for addressing 
our responsibilities at the GDP sites. The plan will provide cost and 
schedule estimates for all of the DOE activities at these sites: 
conversion of the inventory of depleted uranium hexafluoride; 
management of DOE Material Storage Areas; decontamination and 
decommissioning of excess facilities, eventually including those 
currently leased to USEC; waste management, remedial actions; and the 
final end state for the GDP sites. The plan will also take into account 
the impacts and uncertainties associated with GDP transition, funding 
levels, labor issues, and regulatory and stakeholder priorities.
    Question. Where do you envision locating the two conversion 
facilities and what has your office done to prepare the sites?
    Answer. Consistent with the Final Plan for Conversion of Depleted 
Uranium Hexafluoride issued in July 1999, and subject to the 
availability of appropriations, the Department plans on constructing 
two conversion facilities, one each located on the Paducah, Kentucky 
and Portsmouth, Ohio sites. As part of the acquisition process, in 
order to provide information to potential bidders, site 
characterization data is being developed for both sites and will be 
completed this fiscal year. Additionally, the Department is planning to 
request funding for fiscal year 2002 for site-specific preparation 
activities.
    Question. What are the funding requirements over the projected 25-
year period of operation? What contracting approach do you envision 
using to construct and operate these two facilities?
    Answer. The total life cycle cost for the depleted uranium 
hexafluoride (DUF<INF>6</INF>) conversion project is under review; 
however, the current estimate ranges from $1.731 billion to $4.920 
billion, which was reported in the Department's fiscal year 1999 
Accountability Report. An independent cost estimate is being prepared 
for this project, to be completed this summer.
    Further, the Deputy Secretary has established a DUF<INF>6</INF> 
working group of procurement, program, and other experts from within 
the Department to develop the Management and Acquisition Strategy Plan 
to be utilized to guide the contracting approach for the final request 
for proposals.
    Question. What are the implications if the Governors of Kentucky, 
Ohio and Tennessee decided to regulate the cylinders as waste under the 
Resource Conservation and Recovery Act?
    Answer. The Department's position with regard to depleted uranium 
hexafluoride is that it is a source material as defined by the Atomic 
Energy Act, and not a waste. The Resource Conservation and Recovery Act 
(RCRA) excludes source material, special nuclear material, and by-
product material from regulation under RCRA (40 CFR 261). Depleted 
uranium hexafluoride, as a chemical compound of uranium and fluorine, 
is a chemical form of uranium, and thus, a source material. Further, as 
none of the Department's depleted uranium hexafluoride has been mixed 
with other materials that are regulated under RCRA, it is the 
Department's position that the material is excluded from RCRA 
definitions of solid and hazardous waste. A decision to regulate the 
material under RCRA would significantly impact the cost of storing and 
managing the material, potentially ranging into the billions of 
dollars.
    Question. The Decommissioning and Decontamination Fund was created 
to fund the removal and cleanup of the nation's three gaseous diffusion 
plants in Oak Ridge, Tennessee, Paducah, Kentucky, and Piketon, Ohio. 
Nuclear utility companies contribute to this fund. The Department of 
Energy estimated in 1998, it could cost 10.7 billion to remove and 
cleanup the three plants. Is there any prohibition on the use of D&D 
funds to deal with the conversion of the depleted uranium cylinders?
    Answer. There is no prohibition in the Energy Policy Act of 1992 on 
the use of the Uranium decommissioning and decontamination (UE D&D) 
fund for the conversion of the depleted uranium cylinders. 
Traditionally, the UE D&D fund has been used to support cleanup 
activities at the three uranium enrichment facilities, including 
environmental restoration, waste management, and decontamination and 
decommissioning work, as well as, reimbursements to uranium and thorium 
licensees under Title 10.

                     DEPLETED URANIUM HEXAFLUORIDE

    Question. Mr. Magwood, when I drafted Public Law 105-204, I 
established a timetable that would give the Department more than enough 
time to implement this legislation. Unfortunately, my lowest 
expectations for the Department have been exceeded. I am very skeptical 
that the budget offered by the Secretary is sufficient to keep this 
project on track and able to meet the timetable you have set forth. In 
fact, it is my understanding that this budget only provides enough 
funding for your office to complete one-third of the total design work 
for the facilities. Based on information from project experts, as well 
as information from your office, at least $60 million is needed to keep 
this project on track. Further, I am disappointed the Secretary offered 
only $12 million of the available $24 million that he had committed to 
provide last year.
    Has the Secretary withdrawn his commitment on this project?
    Answer. The Secretary remains committed to meeting the target date 
anticipated by Public Law 105-204 to begin construction of the 
conversion facilities not later than January 31, 2004. We believe that 
the funding requested in the Administration's budget request will allow 
us to meet and maintain this schedule.
    Question. What will the Department do with the remaining $12 
million in funding that hasn't been obligated?
    Answer. The Department is proceeding with plans for a project to 
design, build and operate conversion facilities at Paducah and 
Portsmouth that will convert the inventory of depleted uranium 
hexafluoride to a more stable form. As part of the Administration's 
budget request, we are proposing to apply $12 million to the depleted 
uranium hexafluoride conversion program in fiscal year (FY) 2001. 
Further, we plan to use an additional $12 million from funds obtained 
under a Memoranda of Agreement (MOA) with the United States Enrichment 
Corporation (USEC Inc), bringing the total to $24 million in fiscal 
year 2001. This will enable the Department to issue the formal 
DUF<INF>6</INF> conversion project Request for Proposals to the private 
sector by October 2000 and to initiate design activities in fiscal year 
2001. We anticipate applying the remaining $12 million of the USEC Inc 
MOA funding, along with additional appropriations in fiscal year 2002 
and beyond to maintain this schedule.
    Question. Mr. Magwood, you informed my staff in a meeting last 
month that transuranic waste was found in depleted uranium cylinders 
generated in 1988 and 1993. If the Atomic Energy Commission stopped 
using recycled uranium during the mid-1970's, how do you explain the 
fact that this material was found in those cylinders 10 to 15 years 
later?
    Answer. The Government ceased processing its recycled uranium in 
the mid-1970's. During the fiscal years 1986 through 1989, a small 
amount of recycled uranium was received by the Department from the 
French Company Comurhex, which was introduced to the diffusion cascades 
during that time frame. We suspect the transuranic materials found in 
some of the cylinders resulted from the French recycled uranium.
    Question. How much funding will this project require annually in 
order for the Department to fulfill its legal obligations to have two 
conversion plants operational by 2005?
    Answer. We will go out with an RFP in October, and once a contract 
is awarded, the Department will be in a better position to provide 
annual cost estimates. Prior to that time, all cost estimates by any 
source, including informal staff estimates, are procurement sensitive. 
Any estimate made public at this time could influence the responses 
that we hope to get from prospective bidders.
    We will provide Congress with the annual costs as soon as numbers 
are available for release.
                                 ______
                                 

               Questions Submitted by Senator Larry Craig

                     NUCLEAR ENERGY BUDGET REQUEST

    Question. In the budget request, DOE recommended that the name of 
the Termination Costs budget line be changed to ``Nuclear Facilities 
Management.'' Can you discuss the reasons for this recommendation?
    Answer. Three components make up the Termination Costs or ``Nuclear 
Facilities Management'' program: infrastructure, facility termination 
activities, and technology activities. The infrastructure is required 
to satisfy safety, security, and environmental requirements; maintain 
facilities in a user-ready status with a capable, knowledgeable well-
trained core staff; and provide support functions for the ongoing 
program work. It also includes operation of facilities not related to 
facility termination activities such as the storage and protection of 
facilities housing special nuclear materials. Facility termination 
activities consist of placing the EBR-II in a radiologically and 
industrially safe condition and deactivating associated facilities. It 
also includes the treatment of sodium-bonded spent nuclear fuel that 
was used in the reactor, which is performed in the Fuel Conditioning 
Facility. Technology activities provide for technical support for 
sodium-bonded spent nuclear fuel treatment by developing and testing 
waste stream treatment process equipment of a scale suitable for 
inventory treatment. It also involves conducting long-term tests to 
characterize performance of reference waste forms and gain Nuclear 
Regulatory Commission approval for placement of metal and ceramic waste 
forms in a geologic repository.
    The majority of the fiscal year 2001 and future year funds that 
will be used in this budget line will involve nuclear infrastructure 
and technology activities. Therefore, we believe that a more 
representative title for this budget item is ``Nuclear Facilities 
Management.''
    Question. Can you provide a summary of the Department's objectives 
for closing the Experimental Breeder Reactor-II and treating EBR-II 
spent fuel?
    Answer. EBR-II was a research and test reactor at Argonne National 
Laboratory-West used to demonstrate the engineering feasibility of the 
sodium-cooled, liquid metal reactor with a steam electric power plant 
and integral fuel cycle. It operated from 1964 through 1994 and upon 
mission completion in 1994, it was shut down.
    EBR-II spent nuclear fuel contains metallic sodium. Metallic sodium 
reacts vigorously with water, producing heat, potentially explosive 
hydrogen gas, and sodium hydroxide, a corrosive substance. Metallic 
sodium is also pyrophoric. The current repository waste acceptance 
criteria exclude reactive and potentially explosive materials from 
being accepted into a geologic repository unless they exist in only 
trace quantities. In order to satisfy the waste acceptance criteria, 
the sodium, which is bonded to uranium metal alloy within the fuel 
cladding must be further treated in order for it to be removed from the 
spent fuel.

             UNIVERSITY REACTOR FUEL ASSISTANCE AND SUPPORT

    Question. DOE has proposed $12 million for the university program 
in fiscal year 2001, the same as was appropriated for fiscal year 2000. 
This program is essential to ensuring an adequate supply of nuclear-
trained professionals for the nuclear power industry, the national 
laboratories, the environmental restoration industry, and a host of 
other industries. This program also provides funding to support the 
operation of more than two dozen university-based nuclear research 
reactors in the U.S. Given the importance of university nuclear 
engineering programs and university research reactors to maintaining 
the viability of nuclear power in the U.S., do you believe the 
requested funding level is adequate?
    Answer. The Department has requested $12 million for the University 
Reactor Fuel Assistance and Support Program for fiscal year 2001 which 
is the same funding level appropriated for fiscal year 2000. At this 
funding level, the Department will continue to provide critical 
assistance to the Nation's university nuclear engineering programs as 
they educate and train the next generation of nuclear engineers and 
scientists. University research reactors are a vital component of our 
national research and education infrastructure. Many university 
research reactors support the development of highly qualified, 
technically knowledgeable personnel needed by national laboratories, 
private industry, the Federal government, and academia. Through the 
Department's Reactor Sharing program, the university research reactors 
also serve as centers for education programs offered to other colleges 
and universities and high school students and teachers who visit the 
reactors for instructional programs and research.
    To help ensure the continued success of the university nuclear 
engineering programs, the Department provides assistance through 
activities such as the DOE/Industry Matching Grants program which 
leverages public sector funds with private contributions in a 50/50 
cost share arrangement. Fiscal year 2000 marked the first year that 
this program's private sector funding exceeded DOE's ability to match 
it. The Department also provides academic assistance to outstanding 
students through our Scholarships and Fellowships program with a new 
dimension in fiscal year 2000 and fiscal year 2001 that supports 
students at minority institutions in achieving a nuclear engineering 
degree at a university with a nuclear engineering department. We 
continue to receive more applications from outstanding graduate and 
undergraduate students than we, typically, can support. However, the 
requested level of funding is adequate to maintain our participation at 
its current level.
    With respect to the future direction of this program, the 
Department's Nuclear Energy Research Advisory Committee (NERAC) has 
convened a Blue Ribbon panel, led by Dr. Michael Corradini of the 
University of Wisconsin, to consider the best ways of preserving our 
irreplaceable university nuclear education infrastructure. This panel 
is evaluating the future of university research reactors and their 
relationship to the national laboratories in conducting nuclear 
engineering research. The recommendations of this panel, expected this 
Summer, as well as other NERAC reviews related to university programs 
will serve as a basis for recommending the priorities and funding needs 
for this program in the future.

                             REPROGRAMMING

    Question. Your office took approximately $1.8 million in fiscal 
year 2000 funds from the TRA landlord program in Idaho to help pay for 
a $9 million reprogramming for the FFTF at Hanford surveillance and 
maintenance. The fiscal year 2001 request for TRA landlord is increased 
by only $97,000 compared to the fiscal year 2000 appropriation of $8.9 
million. Do you plan to restore to Idaho the remaining amount of the 
$1.8 million taken from TRA in fiscal year 2000?
    Answer. The impact to the TRA Landlord scope of work from the 
reprogramming request has been to defer for up to one year, the 
Retention Basin System upgrade and the purchase of new portal monitors 
for radiation detection and one motorized man lift used to repair 
equipment. The Department plans to proceed with this project and the 
equipment procurements during the fiscal year 2002 budget cycle.
                                 ______
                                 

              Questions Submitted to the Office of Science

            Questions Submitted by Senator Pete V. Domenici


                             SUPERCOMPUTING

    Question. Dr. Decker, across the Department, $908 million is 
targeted for the Information Technology Initiative. $182 million of 
this program resides within the Office of Science in the Advanced 
Scientific Computing Research program.
    This is in addition to $726 million associated with the National 
Nuclear Security Agency's (NNSA's) Advanced Strategic Computing 
Initiative. That program has demonstrated significant improvements in 
computational power, both in hardware and software.
    Are these two major Departmental efforts in high performance 
computing benefiting from each other's research and capabilities?
    Answer. The total fiscal year 2001 funding requested by the 
Department for the Information Technology (IT) research initiative is 
$667 million of which $477 million is in NNSA's Advanced Strategic 
Computing Initiative (ASCI) and $190 million is in the Office of 
Science. Of the proposed investments in the Office of Science, $170 
million is in the Mathematical, Information and Computational Sciences 
(MICS) subprogram of the Office of Science's Advanced Scientific 
Computing Research program, and the remaining $20 million is 
distributed across the other programs in the Office of Science ($2 
million in Basic Energy Sciences, $8 million in Biological and 
Environmental Research, $3 million in Fusion Energy Sciences, and $7 
million in High Energy and Nuclear Physics).
    Investments in high performance computing research in NNSA and SC 
have been and will continue to be managed so that they take maximum 
advantage of each other. Basic research in applied mathematics 
supported by SC underpins many of the mathematical software libraries 
that are critical to NNSA's applications. Many of these same libraries 
are used by scientists supported by SC on unclassified computers to 
help solve problems in the science of materials, folding of proteins, 
plasma turbulence and understanding the fundamental structure of 
matter. In addition, for a number of years SC and NNSA have cofunded 
activities such as the Advanced Computational Testing and Simulation 
(ACTS) Toolkit to pioneer new ways of creating high performance 
parallel applications more quickly. We expect both the collaborative 
funding on common problems and the two-way exchange of technology and 
research to continue in the future.
    Question. Please discuss how these two programs within the 
Department are coordinated? Are advances in the NNSA being carefully 
evaluated in the Office of Science program, and vice versa?
    Answer. The two research programs are coordinated through ongoing 
direct interactions of the staff at DOE who are charged with managing 
these efforts. There are regular and ongoing discussions between the 
staff in MICS and the Associate Director for SC's Advanced Scientific 
Computing Research program and the staff in NNSA who are responsible 
for ASCI. In addition, staffs from both organizations regularly attend 
each other's Principal Investigator meetings and planning meetings and 
sit on each other's review panels. Finally, SC funds significant basic 
information technology research efforts at NNSA laboratories, and 
encourages its researchers to collaborate with researchers at NNSA 
laboratories on common problems. Yes, advances in both organizations 
are carefully evaluated.
    Question. What is the five-year plan for the ASCR program?
    Answer. On March 24, 2000, the Office of Science delivered to 
Congress its five-year plan, Scientific Discovery through Advanced 
Computing, which describes the investments across SC including those in 
its ASCR program. A copy of the plan is provided for the record.

                         FUSION ENERGY SCIENCES

    Question. The Secretary of Energy Advisory Board report on the 
Department's fusion program recommended a funding level of 
approximately $300 million for fiscal year 2001. However, the 
Department has only requested $247 million.
    Why is the Department not supportive of the fusion program funding 
level recommended by the Secretary's own advisory board?
    Answer. The fusion energy sciences program is a multi-purpose 
scientific research effort providing the science base for a fusion 
energy option in the long-term and producing valuable scientific 
knowledge and technological benefits in the near-term. The Secretary's 
Advisory Board's recommended funding level was arrived at without 
consideration of other Office of Science or Departmental budget 
constraints. Given the program's current mission and its focus on 
plasma science and fusion science, the Department feels that the 
current funding level is appropriate within the overall Office of 
Science budget constraints. However, the Department recognizes and is 
most appreciative of the strong support that the advisory committees 
and the Congress have provided for the restructured Fusion Energy 
Sciences Program, and it will give careful consideration to the 
requirements of this program in formulating future budget requests.

                       SPALLATION NEUTRON SOURCE

    Question. Dr. Decker, the funding request for construction of the 
Spallation Neutron Source (SNS) for fiscal year 2001 is $281 million. 
Explain how the project has been restructured. What were the reasons 
for the restructuring?
    Answer. In the Spring of 1999, the management of the SNS project 
was significantly strengthened by assigning a new leader, Dr. David 
Moncton, with recent experience in building a large scientific research 
facility (the Advanced Photon Source). As SNS Executive Director, Dr. 
Moncton immediately assembled a team of experts who completed a 
thorough assessment of the project and developed a plan for its 
completion. During the next few months, Dr. Moncton reorganized the SNS 
Project Office at Oak Ridge, proceeding to fill all of the project's 
senior management positions with experienced personnel, and fully 
integrated and optimized the SNS technical design to provide maximum 
scientific capability within cost constraints. In addition, a number of 
management improvements were implemented that strengthened the 
authority of the SNS Executive Director and the central SNS Project 
Office over the project's staff at the six partner laboratories. 
Business and project management systems were improved to better support 
construction activities.
    This restructuring resulted from the recommendations of a January 
1999 DOE Office of Science review of SNS, and served to meet certain 
funding language in the House report accompanying the fiscal year 2000 
Energy and Water Development Appropriations Act.
    Regarding the $281 million request for the SNS, please note that as 
a result of legislation passed by the Tennessee legislature that 
excludes the SNS from Tennessee sales and use taxes, the fiscal year 
2001 requirement is reduced by $2.5 million to $278.5 million.
    Question. What assurances can you give the committee that the 
project can now proceed and be completed on schedule and within the 
current cost estimate?
    Answer. The DOE managers in the Office of Science and at the Oak 
Ridge Operations Office who are responsible for the SNS have overseen 
the successful construction of several similar projects. Given their 
collective experience, I am very confident in their abilities to 
deliver the SNS on time and within cost. Please note that it was their 
prompt action in early 1999 that brought about the contractor 
management changes and project restructuring that have been credited 
with putting this project back on track.
    Since the beginning of this restructuring period, there have been 
two DOE Office of Science reviews (in July 1999 and March 2000), and a 
congressionally mandated Independent External Review, performed by 
Burns and Roe during the Fall of 1999. All of these reviews by outside 
experts have concluded that the SNS can be completed on time and within 
budget. In the case of the most recent review (March 2000), the review 
committee's report stated: ``Overall, the Committee judged that the SNS 
project is making good progress thanks to an extremely competent and 
experienced management team . . . Together with their staff, they have 
demonstrated clear ownership of all technical, cost, and schedule 
aspects of the project. The cost and schedule information presented to 
the Committee adequately supports the President's fiscal year 2001 
Budget Request, and the Committee expressed confidence that the project 
can be successfully completed as planned by June 2006 and within a 
Total Project Cost of $1,411.7 million (as spent).''
    Question. Are there any technical, engineering, management or 
scientific issues that remain that could impact successful completion 
of the project?
    Answer. Apart from any uncertainties in future annual funding 
levels, there are no known issues that are likely to impact the 
successful completion of the project. Although the SNS will be the 
first spallation source to use a liquid mercury target, this is judged 
to be a moderate technical risk which is being addressed by an ongoing 
research and development program. Results to date indicate that the SNS 
target will be able to meet its designed performance objectives.

             NANOSCALE SCIENCE, ENGINEERING AND TECHNOLOGY

    Question. Dr. Decker, I've seen some of the exciting work on 
nanotechnology that is ongoing at our national security labs. I 
appreciate that nanotechnologies may revolutionize our ability to craft 
highly specialized materials with unique properties. I'm pleased to see 
the Department undertake this program.
    The Administration has requested approximately $84 M, an increase 
of $36 M, in the Office of Science to fund the science and technology 
of this new field. Government wide, the budget requests $495 M. I 
understand the funding is spread over the National Science Foundation, 
Defense, Energy, Commerce, NASA and NIH.
    Why are so many agencies involved in this research area, and can 
the program be effectively managed over 6 independent agencies?
    Answer. Many agencies are involved because nanoscale science 
affects science and technology broadly. Nanoscale science is important 
to the Department of Energy because the Department is the largest 
supporter of materials sciences and chemical sciences in the Federal 
government. This area is one which the Department helped pioneer 
because of its fundamental importance to the physical sciences for 
which the Department provides the most support among all of the 
agencies. The Department is also interested because with a better 
understanding of nanoscale science we can (1) improve catalysts for 
energy conversion, (2) improve photocells and photochemical solar 
energy conversion, (3) make better, lighter composites, (4) make much 
better and more sensitive sensors, and (5) improve the safety and 
reliability of the nuclear weapons stockpile. NSF is interested in 
nanoscale science because of its importance to fundamental science. 
NASA is interested in the development of nanotechnologies because it 
will significantly reduce the weight of satellites and space vehicles. 
DOD is interested in the nanotechnology effect on weapons and 
communications system. The DOC is interested in nanoscale science, 
through the National Institute of Standards and Technology, because of 
the problems that need to be addressed related to measurement 
technology and development of standards. NIH has many potential 
applications for nanotechnology, including drug delivery, diagnostics, 
and protective coatings for prosthetics.
    For over a year, the agencies have been working together through 
the National Science and Technology Council's Interagency Working Group 
on Nanoscience, Engineering and Technology. This Working Group has 
developed an extensive and comprehensive document detailing the 
priority areas for the initiative. Each agency agreed to these 
priorities. The priorities are both relevant to the missions of the 
agencies and to the national effort that will expedite progress with 
the agencies working together rather than separately.
    Question. Since the national security labs have considerable 
expertise and many applications for miniaturized systems and 
technologies, will the national security laboratories be participants 
in the Office of Science nanotechnology program?
    Answer. From the beginning, the Office of Science's planning for 
the nanoscale science, engineering, and technology initiative has 
involved the national security laboratories. Researchers from these 
laboratories participated in the workshop that developed the Office of 
Science's programs and in preparing a report titled ``Nanoscale 
Science, Engineering and Technology Research Directions,'' which is 
available at http://www.sc.doe.gov/production/bes/NNI.htm. The 
Department's Office of Science and the Office of Defense Programs have 
signed a memorandum of agreement to form a joint Office of Defense 
Programs and Office of Science Nanoscience Network to create 
synergistic collaborations among DOE laboratories. A joint Office of 
Defense Programs and Office of Science workshop was held on April 27-28 
to establish this network. The network will operate very much like the 
Office of Science's Center of Excellence for Advanced Synthesis and 
Processing, which is run by Sandia National Laboratories, and involves 
the Department's laboratories (including the national security 
laboratories), industry, and universities. The Nanoscience Network is 
being organized now so that it can begin research promptly when the 
fiscal year 2001 starts in October should Congress appropriate the 
funding requested for the Nanotechnology Initiative.

                         MICROBIAL CELL PROJECT

    Question. Dr. Decker, the budget request includes about $10 million 
to start the Microbial Cell Project.
    Could you explain the objectives and potential applications of this 
effort?
    Answer. The Microbial Cell Project is a coordinated research effort 
between the Biological and Environmental Research (BER) and Basic 
Energy Sciences (BES) programs. The goal of the Microbial Cell Project 
is to develop a comprehensive understanding of the complete workings of 
a microbial cell, starting from the DNA sequence (the molecular parts 
list), to the identification of all the genes, to the production of all 
the proteins whose assembly instructions are contained in the genes, to 
the complex interaction of the genes and proteins in a cell that gives 
the microbe its life and its unique characteristics and behaviors. The 
Microbial Cell Project will identify and characterize a minimum set of 
genes, proteins, and metabolic capabilities that are both necessary and 
sufficient for a microbe to survive in various extreme environments. 
Eventually we will understand the detailed workings of individual genes 
and proteins, regulatory networks of genes and proteins, and their 
integration into whole functional interactive cells. Instead of simply 
inserting genes that encode pollutant degrading enzymes into radiation 
resistant cells, we may be able to ``tune'' microbes (just as we tune 
lasers) to a desired degree of radiation resistance and pollutant 
degrading capability so that they are maximally useful for a given 
cleanup challenge. Similarly, microbes will be ``tuned'' for the cost 
effective production of methane or hydrogen, maximizing fuel production 
and minimizing the production of unnecessary wastes, or for the 
sequestration of excess atmospheric carbon.
    Question. Can you tell the Committee what the total cost of this 
effort is expected to be? What are the annual out year costs for the 
program?
    Answer. Funding for this project is requested as part of the 
Biological and Environmental Research (BER) and Basic Energy Sciences 
(BES) program budgets. Total funding for this initiative could be in 
the range of $325 million over ten years or approximately $35 million 
per year after fiscal year 2001. Funding in fiscal year 2001 is 
requested at $12.5 million ($10 million for BER and $2.5 million for 
BES).

               NEW ``MOUSE HOUSE,'' OAK RIDGE, TENNESSEE

    Question. Dr. Decker, the budget request includes funding for 
construction of a new facility to house and protect the genetic mice at 
Oak Ridge in Tennessee.
    Dr. Decker, can you explain to the committee the nature of this 
project including the importance of these mouse populations to 
research? What are the overriding programmatic reasons for replacing 
the facility?
    Answer. The Laboratory for Comparative and Functional Genomics 
(LCFG) will provide a modern gene function research facility to support 
Department of Energy research programs and provide protection for the 
genetic mutant mouse lines created during the past 50 years. The LCFG 
will replace the deteriorated mouse-housing facility located at the Y-
12 Weapons Plant on the Oak Ridge Reservation to meet these 
programmatic needs. It will accommodate the entire DOE live mutant 
mouse colony in Oak Ridge, which will be reduced in size by utilizing 
cryogenic preservation technology. The facility will be designed to 
permit the establishment of specific pathogen free colonies of mice 
making the mouse strains more widely available to the broader 
scientific community than has been possible with mice from the current 
facility. The principle programmatic reasons for constructing the new 
facility are to ensure adequate, cost effective housing for the 
national resource embodied in the mutant mouse colony to support the 
next phase of the Human Genome Program--the identification of gene 
function. It will support an important future direction of mouse and 
genomics research, the determination of gene function on a genome-wide 
basis. There are a number of complementary strategies being used by 
biologists today to understand gene function in the human using the 
mouse. These different strategies include the complete ``knockout'' of 
a gene's function, the introduction of genes into mice, and the 
induction of recessive mutations in large numbers of genes. A major 
focus and strength of the Oak Ridge National Laboratory mouse genetics 
group is the production of ``recessive'' mutants that cannot be 
directly observed without inbreeding for 3 generations. This approach 
can only be accomplished efficiently by breeding large colonies of 
mice. This important, but labor intensive, genetics strategy is not 
possible without high quality facilities like the LCFG. The fiscal year 
2001 request for the facility is $2,500,000. The total project cost is 
$14,420,000.
    Question. What is the condition of the facility where the current 
activities are housed? Are there other major drawbacks to current 
operations?
    Answer. The building currently housing the animals has deteriorated 
with age and cannot be maintained cost effectively. An increasing 
fraction of the funds provided for research using the mice housed in 
this building need to be diverted each year to keep the facility 
operational. The building systems need to be upgraded to assure 
continued compliance with accreditation standards for animal research 
facilities. The facility nearly failed a final American Association for 
Laboratory Animal Care inspection several years ago that would have 
required either a complete shutdown of the facility or its operation 
without accreditation. In addition to being expensive to operate and 
maintain, the existing facility is classified as an ``open'' facility. 
That means the animals have not been derived from stocks that were free 
of specific pathogens. This has had a detrimental impact on the full 
utilization of the colony by the broader mouse genetics research 
community.
    Question. What programmatic benefits will be realized if the 
facility is replaced?
    Answer. A new mouse facility at Oak Ridge will be of programmatic 
value to the future of the DOE and the Nation's human genome programs 
because it will maintain, in a single location, valuable mice strains, 
expertise in mouse genetics, and technologies needed to conduct high-
throughput mouse biology. The Department's functional genomics research 
facility at Oak Ridge includes a mouse colony that consists of 
approximately 70,000 live mice representing approximately 400 different 
genetic strains. In addition, approximately 375 strains are 
cryopreserved. These are currently not the subject of active 
investigation, but important for future genomics research. The 
cryopreservation will also allow the rederivation of these valuable 
mouse strains free of pathogens. The mouse colony is integral to the 
important part of the functional genomics research effort that is aimed 
at developing new ways to create and to genetically characterize new 
mutant strains of mice. These new strains serve both as important 
models of human genetic diseases and as tools with which to decode the 
functionality of the human genome as human DNA sequence becomes 
available. Several of these methodologies developed by Oak Ridge are 
also widely in use by research laboratories around the world. 
Discoveries resulting from this research program include identification 
of genes involved in obesity and cancer, neonatal cleft palate, 
oculocutaneous albinism, and neonatal liver failure, polycystic kidney 
disease, serotonin metabolism disorders, and epilepsy, to name a few. 
In addition, the facility has been a key component of numerous studies 
on the effect of dose and dose rate of radiation on risk of genetic 
defects being passed on to future generations, including pioneering 
studies on individual variation in susceptibility to genetic damage 
induced by radiation and potentially toxic chemicals.
    Question. Would it be possible to replace or reestablish this 
resource if lost or significantly damaged?
    Answer. Some components of this resource could be reestablished in 
other locations. However, it would be nearly impossible to reconstruct 
the mouse genetics capabilities, mouse strains, and high throughput 
technologies for biological analysis that currently makes Oak Ridge a 
leader in mouse genetics and biology. While there are indeed private 
companies that provide mice for experimental purposes, the issue is not 
obtaining mice for experimental purposes, but rather a cost-efficient 
facility to perform the functional genomics experiments pioneered by 
the Department at Oak Ridge National Laboratory (ORNL). A major focus 
of the ORNL mouse genetics group is to produce ``recessive'' mutants 
(mutants that cannot be directly observed without inbreeding for 3 
generations). This approach can only be accomplished efficiently by 
breeding large colonies of mice. There is no private company offering 
that capability. While it is a very important approach, it is not a 
profitable business model and that is why it is left to government 
funded projects such as the one at ORNL. As a result, several companies 
have expressed interest and are discussing collaborative research 
arrangements with ORNL to benefit from this unique research facility. 
Academic researchers, on the other hand, produce ``dominant'' mutants 
(mutants where the phenotypic effects can be easily observed in all the 
offspring). These dominant mutants can be bred and sold very 
economically and easily in private companies. Finally, the mouse colony 
is an integral part of the Department's functional genomics research 
facility. Private ownership of the research facility would result in 
intellectual property situations that impede quick dissemination of 
research results and scientific progress. The loss of this resource 
would be a major setback for biology and genomics at the DOE and 
nationally.

                     ADVANCED COMPUTING INITIATIVE

    Question. Dr. Decker, the fiscal year 2001 budget includes a 
significant increase for Advanced Computing under the Office of 
Science. Explain why this enhanced scientific computing initiative is 
necessary.
    Answer. This initiative is needed to enable scientists across all 
Office of Science (SC) programs to take full advantage of multi-
teraflop computers as tools for scientific discovery. Within the past 
two decades, scientific computing has become a contributor to 
essentially all scientific research programs. It is particularly 
important to the solution of research problems that are (i) insoluble 
by traditional theoretical and experimental approaches, e.g., 
prediction of future climates or the fate of underground contaminants; 
(ii) hazardous to study in the laboratory. e.g., characterization of 
the chemistry of radionuclides or other toxic chemicals; or (iii) time-
consuming or expensive to solve by traditional means, e.g., development 
of new materials, determination of the structure of proteins, 
understanding plasma instabilities, or exploring the limitations of the 
``Standard Model'' of particle physics. In many cases, theoretical and 
experimental approaches do not provide sufficient information to 
understand and predict the behavior of the systems being studied. 
Computational modeling and simulation, which allows a description of 
the system to be constructed from basic theoretical principles and the 
available experimental data, are key to solving such problems. The 
increase provided for advanced computing under SC will provide 
investments to solve problems in core basic science research at DOE, 
such as the science of materials, folding of proteins, plasma 
turbulence, and the fundamental nature of matter. A more detailed plan 
is attached.
    Question. How is it different from the Accelerated Strategic 
Computing Initiative (ASCI) in the Defense Stockpile Stewardship 
program?
    Answer. The proposed initiative is different from ASCI because the 
applications are different and because the effort in SC supports the 
open scientific community. The computational modeling and simulation 
efforts in both the National Nuclear Security Agency (NNSA), i.e., the 
Accelerated Strategic Computing Initiative (ASCI), and the Office of 
Science (SC) are both focused on large scale scientific and engineering 
simulations. In the case of ASCI, the simulations are focused on 
complex nuclear weapons systems as a critical component of the 
Department's ability to guarantee the safety and reliability of the 
nuclear stockpile in the absence of testing. The ASCI program and its 
computers are fully dedicated to this mission. The investments in SC, 
however, cover a wide range of non-weapons related scientific problems 
such as understanding the fundamental properties of magnetic materials; 
understanding the chemistry of complex molecules such as hydrocarbon 
fuels and nuclear waste products; understanding the physics of plasma 
turbulence and its impact on energy transport; and understanding the 
fundamental properties of nuclear matter. SC, through its Advanced 
Scientific Computing Research program, provides the computing and 
communications infrastructure to support these simulation efforts as 
well as the advances in the underlying software, computer science and 
applied mathematics which are required to enable scientists to make 
progress on this class of complex simulation problems.
    The computing infrastructures to support NNSA must be separate 
because NNSA's investments are fully used in supporting its missions 
and because of the special security requirements of NNSA applications 
and programs. However, in the areas of software technology, computer 
science and applied mathematics many of the technical problems that 
arise are common. In this area, the investments in SC continue our long 
history of effective collaboration with research supported by ASCI.
    Question. What is the total cost of this effort expected to be? 
What is the total amount requested in the fiscal year 2001 budget and 
how does that compare to the fiscal year 2000 level of funding?
    Answer. The fiscal year 2001 estimated level of investment in the 
Office of Science in the Information Technology Initiative is $190 
million of which $170 million is in the Mathematical, Information and 
Computational Sciences (MICS) subprogram of the Office of Science's 
Advanced Scientific Computing Research program and the remaining $20 
million is distributed across the other programs in the Office of 
Science ($2 million in Basic Energy Sciences, $8 million in Biological 
and Environmental Research, $3 million in Fusion Energy Sciences, and 
$7 million in High Energy and Nuclear Physics). In fiscal year 2000 the 
comparable budget would be the budget for the MICS subprogram or $120 
million. On March 24, 2000 the Office of Science delivered to Congress 
its five-year plan, Scientific Discovery through Advanced Computing, 
that describes in detail the investments across SC including those in 
its ASCR program. This plan was delivered to the Congress on March 24, 
2000, and a copy is being provided for the record in response to the 
Committee's questions.
    Question. What are the annual out year funding requirements 
expected to be?
    Answer. As described in the five-year plan, the proposed plan will 
have significant accomplishments if the fiscal year 2001 level is 
continued in the outyears without further increases. However, there are 
significant opportunities for further benefits if additional funding 
were available.
    Question. What elements of the ASCI program are transferable to the 
Office of Science Advanced Computing Initiative?
    Answer. The principal element that is transferable from the ASCI 
program to the Office of Science initiative is the understanding that 
ASCI develops on how to use multi-teraflop class computers effectively. 
This builds on our long history of collaborating with ASCI on basic 
research in applied mathematics and computer science problems.

                  LOW DOSE RADIATION EFFECTS RESEARCH

    Question. What is the Department's rationale for funding this 
critical program substantially below the Department's own program plan?
    Answer. The fiscal year 2001 funds requested ($12 million) for this 
program are $5.5 million less than the amount appropriated in fiscal 
year 2000; however, DOE's fiscal year 2001 request is $2 million 
greater than its request in fiscal year 2000. In fiscal year 2000, DOE 
requested $10 million and Congress provided $19.5 million ($17.5 
million for low dose research and $2 million for neutron dosimetry 
associated with the atomic bomb at Hiroshima). The difference between 
DOE's request in fiscal year 2001 and its appropriation in fiscal year 
2000 reflects overall programmatic priorities in the BER program and 
across the entire Office of Science.

                       SPALLATION NEUTRON SOURCE


    Question. Please summarize the current status of the Spallation 
Neutron Source.
    Answer. Construction funding and associated design and procurement 
activities were initiated in fiscal year 1999 and continued in fiscal 
year 2000. The formal ``Start of Construction'' decision for the SNS 
was approved by the Department in November 1999, a groundbreaking 
ceremony was held, site preparation began, and major site excavation 
and grading to support civil construction has commenced. Preliminary 
design of technical systems and procurement of technical components is 
continuing. A new partner, Thomas Jefferson National Accelerator 
Facility has recently joined the project as a sixth partner lab to 
assist with a change in the linear accelerator design to incorporate 
superconducting technology. Design and construction management of the 
conventional facilities is being handled by a commercial architect 
engineer/construction management (AE/CM) team under a task order 
contract to Oak Ridge National Laboratory (ORNL). Research and 
development to reduce the moderate technical risk associated with the 
liquid mercury target is proceeding on schedule using the prototype 
facility constructed for this purpose at ORNL. In fiscal year 2001, 
design of all buildings will be complete and construction will begin. 
Major procurements will then be awarded for accelerator systems 
technical components.
    Question. Are the five laboratories now working as one team toward 
the common goal of finishing the SNS?
    Answer. Including the recent addition of the Thomas Jefferson 
National Accelerator Facility, the senior managers at all six SNS 
partner laboratories are fully committed to ensuring the successful 
completion of the project. Their specific responsibilities and 
commitments are defined in a revised inter-laboratory Memorandum of 
Agreement (MOA) between the SNS Executive Director and the laboratory 
directors. This MOA is a key part of the SNS Project Execution Plan, 
which has been approved by Secretary Richardson and is incorporated by 
reference in the laboratories' management and operating contracts.

                         WORKING WITH NNSA LABS

    Question. The National Nuclear Security Administration started 
operation as a semi-autonomous agency within the Department on March 1. 
The NNSA labs of Los Alamos, Sandia and Lawrence Livermore have a long 
tradition of supporting a broad range of scientific initiatives beyond 
weapons activities. As the NNSA was created, I emphasized the 
importance of the NNSA labs continuing their multi-program support of 
the Department and other federal agencies.
    The enabling legislation, in Section 3264, stated that: ``The 
Secretary, in consultation with the Administrator, shall establish 
procedures to provide for the use . . . of the national security labs 
by elements of the DOE not within the Administration . . .''
    Despite the legislation, I am concerned that the NNSA labs will not 
continue to receive high priority funding from the Department.
    Will each of you assure me that you will continue to aggressively 
fund projects within the NNSA labs?
    Answer. The NNSA Act allows the NNSA laboratories to continue to 
perform significant research for all DOE programs, for other federal 
agencies and non-federal organizations. It also permits the Department 
to continue the important role the NNSA laboratories have as part of 
the integrated laboratory system.
    The Department recognizes that non-defense research is important to 
maintain the vital overall science and technology base and core 
competencies of the NNSA laboratories. Science support necessary to 
accomplish national projects is an important component of the 
interdisciplinary approach of all the laboratories, and it helps 
maintain and strengthen the multiprogram nature of the laboratories.
    The Office of Science will continue to consider and fund 
outstanding research proposals submitted by NNSA laboratories and to 
ensure their capabilities are utilized in carrying out important 
multilaboratory collaborations.
    I hope this adequately addresses the concerns you raise, and 
demonstrates that the Department is committed to maintaining a culture 
that permits the laboratories to continue this effective relationship. 
Question. Have discussions been initiated between your Office and NNSA 
to define mechanisms to maintain close collaboration, both for NNSA lab 
support to your Office and for your labs to support NNSA as required?
    Answer. The Implementation Plan for the NNSA is structured to 
permit non-NNSA laboratories to continue to do both national security-
related research and science. It also allows the NNSA laboratories to 
continue to perform significant research for all DOE programs. The 
laboratories are able to continue to work together efficiently and 
effectively to complement each others' expertise in important 
scientific collaborations that can benefit all Departmental programs, 
including the NNSA. While unexpected barriers may, of course, arise 
from time to time, we are in a position to address them and solve them 
within the implementation plan.
    Question. Do you foresee any barriers to maintaining close working 
relations between your Office and the NNSA?
    Answer. No. Non-defense research is important to maintain the vital 
overall science and technology base and core competencies of the 
laboratories. Science support is an important component of the 
interdisciplinary approach of the laboratories necessary to accomplish 
national projects, and it helps maintain and strengthen the 
multiprogram nature of the laboratories. A high level of collaboration 
among the laboratories utilizing their respective core competencies, 
increases their collective contribution, making the system as a whole 
much more valuable than the sum of its parts. The Implementation Plan 
for the NNSA adequately addresses the concerns you raise, and the 
Department is committed to maintaining a culture that permits the 
laboratories to continue this effective relationship
                                 ______
                                 

               Question Submitted by Senator Larry Craig

                           COMPUTING RESEARCH

    Question. What is the status of the Scientific Simulation 
Initiative? You may recall that the conference report for fiscal year 
2000 urged the Department to submit a comprehensive plan for a non-
defense supercomputing program that would reflect a unique role for DOE 
in this multi-agency effort, and a budget plan with spending 
requirements over a five year budget cycle.
    Answer. The Department of Energy did not propose a Scientific 
Simulation Initiative (SSI) in the fiscal year 2001 budget request. As 
you may be aware, in the fiscal year 2000 request, the proposed SSI 
focused on two major applications, global climate and combustion 
systems, and requested funds for a new 5 Teraflop computing facility. 
The Advanced Scientific Computing Research request for fiscal year 2001 
focuses on a broad spectrum of basic science applications and includes 
modest funding investments for upgrades to existing computing 
facilities to enable scientists to make progress on scientific 
problems.
    On March 24, 2000, the Office of Science (SC) submitted to Congress 
a comprehensive plan for its supercomputing program, entitled, 
``Scientific Discovery Through Advanced Computing.'' This plan provides 
a five year vision for scientific computing within the Office of 
Science. It outlines a carefully designed strategy for building both 
the scientific computing software infrastructure, which is needed to 
take full advantage of terascale computers, and the scientific 
computing hardware infrastructure, which provides the resources needed 
to solve challenging scientific and engineering problems.
    The Plan focuses on the scientific issues faced by all of the 
programs within the Office of Science--Basic Energy Sciences, 
Biological and Environmental Research, Fusion Energy Sciences, and 
High-Energy and Nuclear Physics--that can be expected to benefit from 
the extraordinary advances being made in computing technology as well 
as on the underlying computer science research supported by Advanced 
Scientific Computing Research. The funds requested in this Plan are 
essential to realizing the specific goals of the Department; however, 
the advances made with this funding will have a broad impact across the 
nation's scientific and engineering community. Outyear estimates are 
not provided in the Plan. However, it should be noted that the request 
for each fiscal year will be structured and implemented in such a 
fashion that it will deliver significant results with no additional 
increases in funding. A copy of the plan is attached.
    [Clerk's note: Scientific Discovery through Advanced Computer, by 
the Office of Science, U.S. Department of Energy, March 24, 2000 can be 
found in the Energy and Water Subcommittee files.]
                                 ______
                                 

              Questions Submitted by Senator Patty Murray

                       CIVILIAN RESEARCH PROGRAMS

    Question. There has been a lot of controversy over computational 
capabilities for the Department of Energy and its civilian research 
programs. Can you give us the philosophy of the Department relative to 
computational capabilities for its research programs, both those 
sponsored by Defense Programs in the Weapons Laboratories and those 
sponsored by Office of Science in the Civilian Laboratories? Also, 
would you explain under the auspices of NNSA how the ASCI Program and 
the ASCR inter-relate.
    Answer. The computational modeling and simulation efforts in both 
the National Nuclear Security Agency (NNSA), i.e., the Accelerated 
Strategic Computing Initiative (ASCI), and the Office of Science (SC) 
are focused on large scale scientific and engineering simulations. In 
the case of ASCI, the simulations are focused on complex nuclear 
weapons systems as a critical component of the Department's ability to 
guarantee the safety and reliability of the nuclear stockpile in the 
absence of testing. The ASCI program and its computers are fully 
dedicated to this mission. The investments in SC cover a wide range of 
non-weapons related scientific problems such as understanding the 
fundamental properties of magnetic materials; understanding the 
chemistry of complex molecules such as hydrocarbon fuels and nuclear 
waste products; understanding the physics of plasma turbulence and its 
impact on energy transport; and understanding the fundamental 
properties of nuclear matter. The Office of Science, through its 
Advanced Scientific Computing Research (ASCR) program, provides the 
computing and communications infrastructure to support these modeling 
and simulation efforts as well as the advances in the underlying 
software, computer science and applied mathematics that are required to 
enable scientists to make progress on this class of complex scientific 
problems.
    The computing infrastructures to support NNSA must be separate 
because NNSA's investments are fully used in supporting its missions 
and because of the special security requirements of NNSA applications 
and programs. However, in the areas of software technology, computer 
science and applied mathematics many of the technical problems that 
arise in using terascale computing capabilities are generic to 
scientific simulation and apply equally to ASCI and SC applications. 
Areas of common interest include:
  --Scientific data management.
  --Analysis and visualization of petabyte data sets.
  --Scalable numerical algorithms for some fundamental computational 
        tasks.
  --Computer operating systems.
    In these areas the SC Plan has been carefully coordinated with 
those of ASCI as well as those of the National Science Foundation. 
However, there are needs unique to SC's mission. Examples of such needs 
include:
  --Efficient access to petabyte data sets from both national 
        laboratory and university computer and network environments. 
        DOE operates a number of major scientific facilities for the 
        nation with significant university use. These include high 
        energy and nuclear physics experiments such as the Relativistic 
        Heavy Ion Collider (RHIC) at Brookhaven National Laboratory, 
        the BaBar experiment at the Stanford Linear Accelerator, and 
        experiments at Fermilab and the Thomas Jefferson National 
        Accelerator Facility. In addition, the Office of Science 
        operates high luminosity light sources such as the National 
        Synchrotron Light Source at Brookhaven National Laboratory, the 
        Advanced Photon Source at Argonne, and the Advanced Light 
        Source at Lawrence Berkeley National Laboratory. Finally, the 
        Office of Science operates high performance computing 
        facilities with associated data archival facilities such as the 
        National Energy Research Scientific Computing Center at 
        Lawrence Berkeley National Laboratory. Many of these facilities 
        produce tens of thousands to millions of gigabytes (petabytes) 
        of data annually, which must be made accessible to researchers 
        at national laboratories and universities. This requirement to 
        efficiently manage access to petabyte-scale data resources by 
        thousands of scientists nationwide is significantly different 
        from the typical requirements faced by NSF. Even in the case of 
        global climate modeling, where NSF supports a major facility, 
        NCAR, the large data sets from the worldwide initiative to 
        systematically compare the results of the different climate 
        model codes, PCMDI (Program in Climate Model and Data 
        Intercomparison), were stored at NERSC in its archival storage 
        systems.
  --Collaboration technologies to support the integration of widely 
        dispersed researchers.
  --Mathematical and software libraries and technologies specific to 
        the scientific mission of the SC, e.g., global climate, 
        molecular science, plasma physics, elementary particle physics, 
        and accelerator physics.
  --Robust, easy-to-use scientific applications codes for use by the 
        larger scientific community (``community codes'').
    In the areas of Information Technology Research supported by the 
Office of Science a significant portion of the effort is invested in 
teams which can not only advance the state of the art in basic research 
but also integrate the results of that research into software which can 
be used by scientists in other disciplines. This requirement for 
lifecycle support is critical to enable advanced information 
technologies to be adopted and used effectively by scientists. It is 
important to note, however, that the effort to integrate the products 
of basic research into software objects is itself a significant 
research activity and the Office of Science's work in this area, and 
especially software component technologies for high performance 
computing, has advanced the state of the art in software development 
methodologies.
    By building on the accomplishments of ASCI and working closely with 
ASCI on projects of common interest, SC will be able to focus more of 
its effort on the problems in computational science, computer science, 
and applied mathematics that are unique to SC's mission and research 
environment.

                   COMPUTATIONAL UPGRADE FOR THE EMSL

    Question. As you know, the Environmental Molecular Sciences 
Laboratory at PNNL was opened approximately three years ago. At that 
time, the Laboratory had one of the most sophisticated and advanced 
computational capabilities in the United States. Technology is moving 
rapidly, therefore, there is a continuing need for all of DOE's Science 
facilities to have access to continuing computational upgrades. What is 
the impact of not having continuing computational upgrade capabilities 
in the Biology and Environmental Research Program for EMSL or other 
facilities in that Program?
    Answer. The Biological and Environmental Research (BER) Program has 
a need for significant computational resources for modeling, data 
analysis, and simulation in structural biology, environmental molecular 
sciences, global climate change, and subsurface sciences. BER's current 
research needs will require access to approximately 5-8 teraflops of 
sustained, high-end computing capability distributed among three 
centers that also contain 1-3 Petabyte-scale data archives and Gigabit 
per second network access in the very near future. The current \1/4\ 
teraflop system (the IBM SP) and the associated data storage and 
research systems and staff at the EMSL form the basis for one of these 
centers. Significant modeling and simulation research involving multi-
disciplinary teams from multiple institutions across the country is 
being undertaken on EMSL's IBM SP, including research on biomolecular 
interfaces, the quantum chemistry of actinides, and the fate of 
contaminants in groundwater, among others. Results from these modeling 
and simulation efforts are expected to be quite useful for addressing 
DOE's environmental needs. Nevertheless, the BER Program recognizes the 
future need for upgrading the IBM SP, as well as its other systems.
    Question. Given the technological advances that are taking place in 
Biological and Computational Sciences, what are the potential 
capabilities that exist within EMSL relative to the Proteome Project, 
especially with the unique instrumentation that exists at EMSL?
    Answer. Although BER's fiscal year 2001 request is not specifically 
focused on a Proteome Project, the BER request does include a 
continuation of structural biology and functional genomics research, as 
well as the initiation of the microbial cell project. Primary 
instrument capabilities within the EMSL that are being applied to 
structural biology and functional genomics include the suite of nuclear 
magnetic resonance (NMR) spectrometers, and the suite of mass 
spectrometers. Current computational capabilities within the EMSL that 
are being applied to structural biology studies include the high 
performance computer (IBM SP) within the Molecular Sciences Computing 
Facility (MSCF). However, most of the large, multi-institutional 
projects making use of the IBM SP are currently focused on DOE's 
environmental problems in groundwater, the vadose zone, and the 
atmosphere.
    The BER Program recognizes the need to enhance EMSL capabilities in 
structural biology and functional genomics, and as a first step, has 
requested an additional $3,000,000 in capital equipment for EMSL in the 
fiscal year 2001 President's Request to allow users to undertake 
functional genomics and structural biology research. The additional 
funding will be used for acquisition of NMR and mass spectrometers, 
including a 9.4 Tesla Fourier Transform mass spectrometer specifically 
for functional genomics and structural biology research.
            Office of Civilian Radioactive Waste Management

STATEMENT OF IVAN ITKIN, DIRECTOR

                   Office of Environmental Management

STATEMENT OF CAROLYN HUNTOON, ASSISTANT SECRETARY

    Senator McConnell. [presiding]. All right. With that, we 
will hear from Ivan Itkin, Director, Office of Civilian 
Radioactive Waste Management, and Carolyn Huntoon, Assistant 
Secretary, Office of Environmental Management.
    If you all would, plan that your opening statements be 
about 10 minutes each. And we will put what further 
observations you may have in writing in the record. That would 
be appreciated.
    Dr. Itkin, do you want to--I see you listed first here. So 
go right ahead.

                      STATEMENT OF DR. IVAN ITKIN

    Dr. Itkin. Thank you, Senator. Mr. Chairman and members of 
the committee, I am Ivan Itkin. I am the director of the Office 
of Civilian Radioactive Waste Management. And I appreciate the 
opportunity to present our fiscal year 2001 budget request and 
to discuss our scientific and technical activities at the Yucca 
Mountain site in Nevada. And with your permission, I will 
submit my written statement for the record.
    Our budget request of $437.5 million supports our Nation's 
policy for the long-term management of spent nuclear fuel and 
high-level radioactive waste. We are nearing the completion of 
scientific and engineering work that will be the foundation for 
a presidential recommendation on whether or not to proceed with 
a permanent geologic repository at Yucca Mountain. This 
decision should occur in 2001. It must be based on sound 
science, and it must include the documentation required by the 
Nuclear Waste Policy Act.

                               BACKGROUND

    Let me restate the importance of geological disposal. It is 
the cornerstone of our national policy for radioactive waste 
management. A permanent geologic repository will address the 
management of commercial spent nuclear fuel, but it is also 
essential to achieve our nonproliferation goals, to dispose of 
materials from dismantled nuclear weapons and nuclear-powered 
naval vessels, and to manage waste from the cleanup of former 
weapons production sites.
    The Civilian Radioactive Waste Management Program has made 
significant accomplishments under this Administration. During 
the last 5 years, Program scientists and engineers have been 
examining Yucca Mountain. We completed a cross-drift tunnel 
above and through the rock formation that may house a 
repository.
    For almost 2 years, scientists and engineers have been 
examining that formation. We continue to conduct the world's 
largest thermal test of a geologic formation. We believe that 
we are close to a decision on whether we can recommend this 
site for further development as a repository.

               SUMMARY OF FISCAL YEAR 2001 BUDGET REQUEST

    Let me now summarize the program's fiscal year 2001 budget 
request.
    We plan to devote $358.3 million, over 80 percent of the 
fiscal year 2001 budget request, to the Yucca Mountain Project. 
These funds will be principally devoted to completing remaining 
work. We will also address some work that was deferred because 
of past funding shortfalls.
    With the full support of the fiscal year 2001 budget, the 
Program can proceed to the license application, should the 
President and Congress, approve the site.

                          PERFORMANCE MEASURES

    By fully funding the fiscal year 2001 budget request, 
Congress will enable the program to meet the most critical 
performance measure: That is, to begin waste emplacement by 
2010. This has been the Department's stated goal since 1989. We 
remain on track to meet this goal.

                      FISCAL YEAR 2001 ACTIVITIES

    Now, let me speak briefly on how the program will apply the 
funding requested in our fiscal year 2001 request. My written 
testimony provides greater details. I would like to point out 
some of the highlights.

                             YUCCA MOUNTAIN

    In the 1998 Viability Assessment, the program identified 
the progress to date, the remaining work, and the cost for the 
remaining work.
    In fiscal year 2001, we expect to close out the remaining 
uncertainties that the Assessment identified. We will address 
aspects of design and engineering work suggested by the Nuclear 
Waste Technical Review Board, and build upon the quality 
assurance program to meet the expectations of the Nuclear 
Regulatory Commission.
    A key task we have set for ourselves before a 
recommendation is the completion of the Site Recommendation 
Consideration Report. This report, with supporting documents, 
will be made available to the State of Nevada, the Nuclear 
Regulatory Commission, and stakeholders to elicit their views.
    In fiscal year 2001, we will continue to support external 
oversight by the State of Nevada by again requesting the 
restoration of funding. We will again fund payments-equal-to-
taxes, as required by the Nuclear Waste Policy Act.
    We will continue to fund a cooperative agreement with the 
University and Community College System of Nevada. This 
agreement provides an independently derived body of scientific 
and engineering data concerning the study of Yucca Mountain.

                           CONCLUDING REMARKS

    Mr. Chairman and members of the committee, as I said in my 
opening remarks, we have made significant progress. We are on 
track to make a decision on site recommendation in 2001 and a 
subsequent license application in 2002, with the overall goal 
of beginning emplacement by 2010.
    When we set out to characterize the Yucca Mountain site 
through an ambitious scientific program, we knew that we would 
be faced with challenges. I believe that by the end of 2001 we 
will have met those challenges. While there will likely be 
additional issues that we will have to address if we proceed to 
licensing, the Program is well positioned to move forward.
    The funding we have requested is needed to enable us to 
complete, on schedule, the activities that are necessary for 
informed policy decisions. Now, when we are so close, we should 
not allow resource considerations to undermine the public 
confidence in our decision-making process and delay this 
program.
    I urge you to consider favorably our appropriation request. 
I thank the committee very much for hearing our testimony this 
morning. I would be pleased to answer any questions that you 
may have. Thank you.
    [The statement follows:]

                    PREPARED STATEMENT OF IVAN ITKIN

    Mr. Chairman and members of the Committee, I am Ivan Itkin, 
Director of the Department of Energy's Office of Civilian Radioactive 
Waste Management. I appreciate the opportunity to present our fiscal 
year (FY) 2001 budget request to you and to discuss our plans for the 
scientific and technical activities at the Yucca Mountain site in 
Nevada.
    Our fiscal year 2001 budget request of $437.5 million is devoted to 
advancing our nation's policy for the long-term management of spent 
nuclear fuel and high-level radioactive waste. This request provides 
for the near-term completion of scientific and engineering work that 
will be the foundation for a Presidential site recommendation on 
whether or not to proceed with a permanent geologic repository at Yucca 
Mountain, Nevada. We are nearing this Presidential decision, which 
should occur in fiscal year 2001. A recommendation of such national 
importance must be based on sound science. It must not only be 
accompanied by the documentation required by law, but must also inform 
our policy makers, our oversight agencies, and the public regarding the 
scientific basis for the decision.

                               BACKGROUND

    The Civilian Radioactive Waste Management Program, particularly the 
ongoing scientific and technical work at Yucca Mountain, is the 
cornerstone of our national policy for the management of nuclear waste. 
Permanent geologic disposal not only addresses our management of spent 
nuclear fuel from commercial electric power generation, but it is 
essential to advancing our non-proliferation goals. A permanent 
disposal solution will secure highly enriched spent nuclear fuel from 
foreign research reactors. It will also provide for the disposition of 
surplus plutonium from dismantled nuclear weapons. In order to continue 
the operation of our nuclear-powered naval vessels, a permanent 
geologic repository is necessary for the disposition of spent nuclear 
fuel from our naval reactor program. Finally, a permanent geologic 
repository is vital for cleaning up the legacy of our past nuclear 
weapons production at sites throughout the country.
    Over the past few years, the Department has made significant 
progress toward a recommendation decision on a permanent solution for 
spent nuclear fuel and high-level radioactive waste. Construction of 
the Exploratory Studies Facility has afforded us almost five years of 
direct examination of the geology underneath Yucca Mountain. From this 
study, our scientists and engineers, including world experts from our 
nation's universities and from our national laboratories, have advanced 
our understanding of a potential repository system. This understanding 
has led us to further focus our investigations, responding in part to 
the Nuclear Waste Technical Review Board and other experts.
    This year, we will complete niches and alcoves in the cross-drift 
tunnel that will assist us in developing a more complete three-
dimensional model of the geologic formation that might house a 
repository. For nearly two years, we have gathered and integrated data 
input from the cross-drift tunnel into our performance models to refine 
our predictions of repository performance. We continue to conduct the 
largest thermal test of a geologic formation in the world. This test, 
commonly known as the drift-scale test, assesses how long-term 
exposures to heat from waste packages might affect the hydrology and 
near-field environment within tunnels that may be constructed within 
Yucca Mountain. This work will help determine the effects of heat on 
waste package performance and assist in the further refinement of 
repository designs that must be accomplished as we move toward 
potentially licensing a repository, if the site is recommended for 
development.
    Since the enactment of the Nuclear Waste Policy Act in 1982, our 
nation has made a substantial investment in permanent geologic 
disposal. Over $4 billion has been committed to the scientific and 
technical work at Yucca Mountain. After almost 18 years of cutting-edge 
science and engineering, we are very close to making a recommendation 
regarding the suitability of this site for further development as a 
repository.

           SUMMARY OF FISCAL YEAR 2001 APPROPRIATIONS REQUEST

    The fiscal year 2001 budget request is $437.5 million for the 
Office of Civilian Radioactive Waste Management. This request includes 
a funding level of $325.5 million from the Nuclear Waste Fund 
appropriation, and $112 million from the Defense Nuclear Waste 
appropriation.
    The fiscal year 2001 budget request of $437.5 million is devoted 
principally to the activities that are most important to support a 
determination of whether the Yucca Mountain site is suitable and should 
be recommended for further development as a permanent geologic 
repository. A Secretarial decision to recommend the site to the 
President is expected to occur in fiscal year 2001. As required by 
Section 114 of the Nuclear Waste Policy Act, a recommendation by the 
Secretary to the President will be accompanied by documentation that 
provides a comprehensive basis for that recommendation.
    The fiscal year 2001 budget request is 25 percent greater than our 
fiscal year 2000 funding level of $351.2 million. This increase 
reflects the program's effort to address the remaining work that is 
necessary for a site recommendation. This remaining work was described 
in substantial detail in the December 1998 Viability Assessment. The 
fiscal year 2001 request is also necessary to achieve to the work 
schedule published in the Viability Assessment. Regaining momentum with 
the fiscal year 2001 request will enable the program to meet its 
obligation to be responsive to emerging scientific issues, such as 
those raised during our extensive ongoing interactions with the Nuclear 
Waste Technical Review Board and the Nuclear Regulatory Commission. The 
fiscal year 2001 budget request also provides the foundation, again as 
described by the Viability Assessment, to begin the activities 
necessary to submit a license application in the following fiscal year, 
if the President recommends and Congress approves the site for 
development as a repository. Our approach to address these issues with 
the Board and the Commission as we proceed toward submitting a license 
application, is provided in our recently issued and updated Program 
Plan (Revision 3).
    From the fiscal year 2001 budget request of $437.5 million, we have 
proposed allocating $358.3 million, an increase of 27 percent above the 
fiscal year 2000 allocation, to the Yucca Mountain Site 
Characterization Project. For activities under the purview of the Waste 
Acceptance, Storage, and Transportation Project, $3.8 million is 
allocated. For essential program management and integration functions, 
including those that are required to support a quality assurance 
program in accordance with Nuclear Regulatory Commission regulations 
and to finalize the Environmental Impact Statement that must accompany 
a site recommendation, $75.4 million is allocated. In addition, we plan 
to continue our commitment to further streamline overhead functions.
    Consistent with the Department's contracting policy regarding 
management and operations contracts, and in conformance with direction 
provided in the enacted Energy and Water Development Appropriation, in 
fiscal year 2001 we are recompeting our management and operations 
contract. The program's current management and operations contract was 
awarded in 1991 and will expire in February 2001. We expect to award a 
follow-on performance-based contract in fiscal year 2001. With full 
support of our fiscal year 2001 request, we expect to successfully 
recompete and achieve our milestone for the decision on site 
recommendation. Within each budget element, we have allocated funds for 
contractor transition to ensure continuity of the technical work during 
fiscal year 2001.
    Also in fiscal year 2001, the Program will work closely with the 
Russian Federation to address radioactive waste management strategies. 
A new initiative to advance the Department's nonproliferation 
objectives with Russia is included in the Departmental budget request 
for the National Nuclear Security Administration. The funding requested 
for that initiative would be co-managed by the Office of Civilian 
Radioactive Waste Management and the Office of Non-Proliferation and 
National Security. We will address issues related to spent nuclear fuel 
storage and disposal through cooperative activities under bilateral 
agreements that we are developing with the Russian Federation.

                          PERFORMANCE MEASURES

    Our request reflects the funding that will be needed to enable us 
to meet a most critical performance measure: maintaining the schedule 
to begin waste acceptance by 2010. This has been the Department's goal 
since 1989. The Department takes seriously its obligation to accept 
commercial spent nuclear fuel, as well as the need to provide a 
permanent disposal solution for defense spent fuel and other 
government-owned high-level radioactive wastes.
    Our measures for fiscal year 2001 are: issuing the Final 
Environmental Impact Statement with the site recommendation decision in 
fiscal year 2001; and continuing to prepare a license application to 
the Nuclear Regulatory Commission for submission in fiscal year 2002, 
contingent on a site recommendation by the President and designation of 
the site by Congress.

                      FISCAL YEAR 2001 ACTIVITIES

    I would now like to describe in more detail our fiscal year 2001 
objectives and how the funding requested in our budget request will 
support our activities. I have, as an attachment to my testimony, 
provided a summary of the program's accomplishments in fiscal year 1999 
and our ongoing activities this fiscal year.

                             YUCCA MOUNTAIN

    In fiscal year 2001, the funds allocated to the Yucca Mountain Site 
Characterization Project will be used to advance the work identified in 
the Viability Assessment. This work includes addressing the remaining 
uncertainties by studying the presence and movement of water through 
the repository block, the effects of water movement on the waste 
package, and the effects of heat from the decay of radioactive 
materials inside the waste packages on the site's geologic and 
hydrologic behavior. In addition, the program is addressing some of the 
design and engineering work suggested by the Nuclear Waste Technical 
Review Board. Through our work activities, we will:
  --Complete the necessary scientific and engineering work for the 
        characterization of the Yucca Mountain site.
  --Update the total system performance assessment of Yucca Mountain, 
        supporting the development of a site recommendation and 
        integrating process models refined to reflect our current 
        understanding of the geology, hydrology, and geochemistry 
        within Yucca Mountain.
  --Issue the Site Recommendation Consideration Report to inform all 
        parties about our evaluation to date.
  --Hold public consideration hearings, before the Secretary decides 
        whether or not to recommend the site to the President.
  --Issue the Final Environmental Impact Statement for a Geologic 
        Repository for the Disposal of Spent Nuclear Fuel and High-
        Level Radioactive Waste at Yucca Mountain, Nye County, Nevada.
  --Continue and increase our efforts to support the preparation of a 
        high-quality, complete, and defensible license application to 
        the Nuclear Regulatory Commission if the President recommends 
        the site in 2001.
    The plan for fiscal year 2001 and beyond reflects the evolution of 
the project emphasis from scientific investigations to data synthesis, 
model validation, repository and waste package design, safety analysis, 
and documentation. The program's near-term priorities upon completion 
of site characterization will be to enhance and refine repository 
design features and to develop the remaining information required to 
continue to a license application if a decision to recommend the site 
is made.
    Our budget request for Yucca Mountain is allocated under the 
following project elements: Core Science, Design and Engineering, 
Licensing/Suitability/Performance Assessment, Environmental Review 
under the National Environmental Policy Act, Operations/Construction, 
External Oversight and Payments-Equal-to-Taxes, and Yucca Mountain 
Project Management. The activities planned under each of these 
categories are described below.

Core Science:
    Core Science includes: collecting site characterization and 
performance confirmation data from the surface and subsurface; 
performing laboratory tests; monitoring and collecting environmental 
data; formulating scientific hypotheses; modeling individual and 
combined natural processes; compiling scientific information for 
technical data bases; and writing scientific descriptions and analyses 
used to document results and findings.
    The fiscal year 2001 allocation of $69.4 million to Core Science is 
a decrease of two percent ($1.2 million) below the fiscal year 2000 
funding level. In fiscal year 2000, we began to concentrate on data 
synthesis and documentation, model updating and validation, and 
definition of performance confirmation activities, reflecting our plans 
to complete site characterization. In fiscal year 2001, we will 
complete our effort to acquire and analyze site characterization 
information needed to reduce the scientific uncertainties identified in 
the Viability Assessment, prior to making a suitability evaluation site 
recommendation decision, and if appropriate, submitting a license 
application. In the coming years, Core Science activities will focus on 
confirmatory testing supporting a license application. Specific 
activities will focus on testing in the Exploratory Studies Facility, 
including the cross-drift and the drift-scale heater test; confirmatory 
field-scale tests; modeling; environmental, safety, and health 
compliance; and environmental monitoring and mitigation activities.
    Within the Exploratory Studies Facility, we will continue the long-
term drift-scale heater test that began in December 1997. This test 
will allow us to determine how the rock and fluids in a repository 
system will behave over the long-term in the presence of heat generated 
by radioactive decay of the emplaced waste. We will continue testing in 
the cross-drift to collect data on hydrologic properties of the 
repository horizon. For example, we will study fracture-matrix 
interaction and fracture flow properties, particularly of the lower 
lithophysal unit where approximately 65 percent of the emplacement 
drifts are expected to be located.
    We continue to incorporate test results into geologic and 
hydrologic process models. These models underlie the total system 
performance assessment models that support both the site recommendation 
and license application. Confirmatory data collection and long-duration 
testing will continue.
    The fiscal year 2001 budget request includes $10 million for a 
cooperative agreement between the Department and the University and 
Community College System of Nevada (UCCSN). The agreement started in 
fiscal year 1999 and will continue into fiscal year 2002. The 
cooperative agreement provides the public and the Yucca Mountain 
Project with an independently derived body of scientific and 
engineering data concerning the study of Yucca Mountain. Under this 
agreement, UCCSN will perform scientific and engineering research and 
will foster collaborative working relationships between government and 
academic researchers.

Design and Engineering:
    Design and Engineering includes three major areas: waste package 
development, repository design, and systems engineering. In turn, waste 
package development includes two distinct areas: design of the waste 
package, and testing of waste forms and waste package materials. 
Repository design also includes two areas: subsurface and surface 
facilities. Systems engineering coordinates all aspects of design, 
construction, and operations to ensure that designs meet all 
requirements and that facilities are fully integrated.
    The fiscal year 2001 allocation of $111.2 million to Design and 
Engineering is an increase of 68 percent ($44.9 million) above the 
fiscal year 2000 funding level. This fiscal year 2001 funding level 
will allow the program to resume design work that was deferred due to 
budget shortfalls that forced the program to focus efforts on site 
characterization. As part of a natural design evolution, we will 
continue to refine the repository and waste package design features 
beyond the concept that was evaluated in the Viability Assessment. Our 
activities in this area will focus on providing the basis for decisions 
and advancing the designs consistent with the regulatory requirements 
for a license application, if the site is recommended. Program 
scientists and engineers will analyze the design features in a total 
system performance assessment that incorporates updated data from core 
science activities and process models. In part, the increased fiscal 
year 2001 allocation addresses requests and recommendations made by the 
Nuclear Waste Technical Review Board and the Nuclear Regulatory 
Commission for further design enhancements and details. This work is 
necessary to develop a repository and waste package design suitable for 
a site recommendation and, further, evolving to a license application 
design.

Licensing/Suitability/Performance Assessment:
    Activities under Licensing/Suitability/Performance Assessment 
encompass compiling the technical documentation that serves as the 
basis of a suitability determination and a possible recommendation to 
proceed with developing the Yucca Mountain site. If the Yucca Mountain 
site is recommended by the President and Congress, for further 
development, the program will refine and subsequently document its work 
to shift the focus toward addressing the licensing expectations of the 
Nuclear Regulatory Commission. Assessing the performance of a 
repository system at Yucca Mountain is critical to both a site 
recommendation in fiscal year 2001 and any subsequent licensing 
activities.
    The fiscal year 2001 allocation of $85 million to Licensing/
Suitability/Performance Assessment is an increase of 38 percent ($23.6 
million) above the fiscal year 2000 funding level. The culmination of 
the program's site characterization efforts is to prepare the 
documentation required under the Nuclear Waste Policy Act to support a 
decision on whether or not to submit a site recommendation to the 
President. In support of a recommendation, the program's focus for 
early fiscal year 2001 is to complete the Site Recommendation 
Consideration Report. This report will present general background 
information and descriptions of the site characterization program and 
the site. It will also include descriptions of the repository design, 
the waste form and waste packages, a discussion of data related to the 
safety of the site, and a description of the performance assessment of 
the repository.
    The Site Recommendation Consideration Report and its supporting 
documents will be made available to the State of Nevada, the Nuclear 
Regulatory Commission, and stakeholders in fiscal year 2001. The 
program will then focus its efforts on addressing their comments and 
views. Public hearings will be held in the area around the Yucca 
Mountain site. We also expect to receive comments from the Nuclear 
Regulatory Commission, and views and comments from the Governor and 
legislature of Nevada. These comments and our responses will be part of 
the basis for a site recommendation presented to the President.
    Assessing how a repository system at Yucca Mountain might perform 
is critical to a decision regarding whether to recommend the site. The 
performance assessment of a repository system at Yucca Mountain will be 
refined to incorporate advances in the program's scientific 
understanding of the natural systems at Yucca Mountain, and to 
integrate refinements in waste package and repository design. Even 
after a suitability evaluation and site recommendation decision is 
made, performance assessment iterations would continue to address the 
licensing expectations of the Nuclear Regulatory Commission and to 
present the program's understanding of how a repository will perform at 
limiting human exposure to radionuclide releases.
    The license application technical data used for a repository and 
waste package design, total system performance assessment, and models 
for site processes and conditions, must be traceable and electronically 
retrievable in accordance with the Commission's regulation 10 CFR Part 
2, Subpart J. We will use the latest available web-based technologies 
to ensure that program data and records are easily retrievable and 
available to stakeholders.

Environmental Review under the National Environmental Policy Act:
    The fiscal year 2001 allocation of $1.6 million to Environmental 
Review is an increase of 21 percent ($0.3 million) above the fiscal 
year 2000 funding level. During fiscal year 2001, we will complete all 
necessary Environmental Review documentation, including the Final 
Environmental Impact Statement, which is required by the Nuclear Waste 
Policy Act to accompany a site recommendation. The fiscal year 2001 
activities include a Departmental and inter-agency review of all 
documents in accordance with Council on Environmental Quality 
requirements, Environmental Protection Agency rules, and Department of 
Energy implementing regulations. The program will also complete the 
administrative work necessary to support the Final Environmental Impact 
Statement.

Operations/Construction:
    The fiscal year 2001 allocation of $33 million to Operations/
Construction is an increase of 10 percent ($3.0 million) above the 
fiscal year 2000 funding level. This budget request will support the 
completion of construction of the Exploratory Studies Facility. 
Following completion, the program's operations activities will 
transition to the maintenance of the underground facilities to conduct 
confirmatory testing. These activities are in part to verify what we 
have learned from our core science work, as well as to verify the 
effectiveness of waste package and repository design.
External Oversight and Payments-Equal-to-Taxes (PETT):
    The fiscal year 2001 allocation of $21.8 million to External 
Oversight and Payments-Equal-to-Taxes is an increase of 33 percent 
($5.4 million) above the fiscal year 2000 funding level. In its budget 
request, the Administration continues to support the oversight 
activities of the State of Nevada as required by the Nuclear Waste 
Policy Act. These oversight activities are solely for independent 
review of ongoing scientific and technical work. The fiscal year 2001 
increase is the result of a newly negotiated payment-equal-to-taxes 
agreement with the State of Nevada and the local counties; it restores 
funding to the State of Nevada to support oversight activities.
    External oversight activities consist of financial and technical 
assistance to the State of Nevada and affected units of local 
government (i.e., Churchill, Clark, Esmeralda, Eureka, Lander, Lincoln, 
Mineral, Nye, and White Pine Counties in Nevada and Inyo County in 
California). Payments-equal-to-taxes are made to the State of Nevada 
and Nye and Clark Counties.

Yucca Mountain Project Management:
    The fiscal year 2001 allocation of $36.3 million to Project 
Management is a small increase--3 percent ($1.1 million)--above the 
fiscal year 2000 funding level.
    Project Management includes conducting public information and 
outreach programs to ensure open and informative interactions with the 
State of Nevada, units of local government, the public, technical 
review organizations, and other program stakeholders. In fiscal year 
2001, we expect increased interest due to the impending site 
recommendation and environmental review activities. Project Management 
will continue in fiscal year 2001 to further enhance project control 
activities, including planning, budgeting, and scheduling, in 
coordination with Program Management and Integration.

              WASTE ACCEPTANCE, STORAGE, AND TRANSPORATION

    The primary responsibilities of the Waste Acceptance, Storage, and 
Transportation (WAST) Project are to develop a process for the physical 
transfer of spent nuclear fuel to the federal government in accordance 
with applicable legal requirements. In preparation for such a transfer 
when a federal facility becomes available, the small budget request for 
this area maintains the core capability to implement a private sector-
based national transportation capability for waste acceptance and 
transportation, and to resolve institutional issues with stakeholders 
in preparation for the implementation of the transfer.

Transportation
    The fiscal year 2001 allocation of $1.75 million to Transportation 
represents the resumption of activities to develop a private sector-
based national transportation capability that would be required if a 
positive site recommendation is made in fiscal year 2001. The 
Department plans to update and solicit comments on a draft request for 
proposals for waste acceptance and transportation services after fiscal 
year 2001, if the site is recommended by the Secretary and approved by 
the President and Congress. After considering comments on the draft 
request for proposals, we plan to release the final request for 
proposals in fiscal year 2002.

Waste Acceptance
    The fiscal year 2001 allocation of $1.5 million for Waste 
Acceptance is a 20 percent ($0.25 million) increase from the fiscal 
year 2000 funding level. Waste Acceptance activities will focus on 
developing modifications to the Standard Disposal Contract to support 
the acquisition of waste acceptance and transportation services from 
the private sector. Fiscal year 2001 activities include updating the 
commercial spent nuclear fuel discharge projections, which are 
necessary to determine implementation of the Standard Disposal 
Contract.
    The fiscal year 2001 allocation will serve to integrate acceptance 
criteria and schedules for Department-owned spent nuclear fuel and 
high-level radioactive waste under the auspices of the Office of 
Environmental and Waste Management; surplus plutonium and mixed-oxide 
fuel under the auspices of the National Nuclear Security 
Administration; and spent nuclear fuel and high-level waste from the 
naval reactor program.

                   PROGRAM MANAGEMENT AND INTEGRATION

    The Program Management and Integration Activity oversees the 
integration of Yucca Mountain Site Characterization Office and Waste 
Acceptance and Transportation Project activities to ensure that they 
comply with all external regulatory requirements, Departmental 
reporting and accounting systems, and oversight organizations.
    The fiscal year 2001 allocation of $75.4 million to Program 
Management and Integration is a 10 percent increase ($7.2 million) 
above the fiscal year 2000 funding level. The increase reflects the 
need to assure that major programmatic decision documents expected in 
fiscal year 2001 comply with the statutory requirements of the Nuclear 
Waste Policy Act, as well as regulatory requirements imposed by the 
Nuclear Regulatory Commission, the Environmental Protection Agency, and 
other federal oversight groups.
    A significant portion of the fiscal year 2001 Program Management 
and Integration allocation will go towards continuing to implement a 
Nuclear Quality Assurance program that sufficiently addresses the 
expectations of the Nuclear Regulatory Commission. Under the Nuclear 
Waste Policy Act, as amended, any facility that may be constructed must 
be licensed by the Commission, thus necessitating the implementation of 
an effective Nuclear Quality Assurance program.
    The Program Management and Integration allocation funds a critical 
element of the work required to reach the decision on site 
recommendation, and that support the completion of the Final 
Environmental Impact Statement, which must accompany a site 
recommendation. A specialist contractor continues to finalize the 
Environmental Impact Statement to develop an independent assessment 
that meets the requirements for environmental reviews.
    Finally, the fiscal year 2001 allocation will be utilized for 
federal salaries and benefits, and mandatory costs to utilize 
facilities and infrastructure for the federal staff.

                               LITIGATION

    The Department is in litigation over the delay in meeting our 
contractual obligation to accept spent fuel from the nuclear utility 
companies by January 31, 1998. The issue of waste acceptance is clearly 
one that is high on our agenda and we are actively working with 
utilities in an effort to resolve it and the ongoing litigation.

                           CONCLUDING REMARKS

    Mr. Chairman and members of the Committee, as I said in my opening 
remarks, we have made significant progress. The Department is coming to 
the end of a long road. When we set out to characterize the Yucca 
Mountain site through an ambitious scientific program, we knew that we 
would be faced with challenges. I believe that by the end of fiscal 
year 2001, we will have met those challenges. While there will likely 
be additional scientific and institutional issues that we will have to 
address to support the licensing process if the site is recommended by 
the Secretary and the President approves the recommendation, the 
program is well positioned to move forward.
    The program is nearing a decision in fiscal year 2001 to determine 
if we can move ahead with a permanent solution to the management of our 
nation's spent nuclear fuel and high-level radioactive waste. The 
funding we have requested is needed to enable us to complete, on 
schedule, the activities that are necessary for an informed policy 
decision. The program has been able to maintain the schedule for major 
milestones over the past years despite significant reductions from our 
request level, but only by deferring critical work. Now, when we are so 
close to significant decision points, we should not delay this program.
    I urge you to consider favorably our appropriation request.
    Thank you. I would be pleased to answer any questions you may have.

              FISCAL YEAR 1999-FISCAL YEAR 2000 HIGHLIGHTS


                                SUMMARY

Fiscal year 1999 and fiscal year 2000 funding overview
    In fiscal year 1999, OCRWM received an appropriation of $358 
million. Of this, $4 million was allocated to evaluate the feasibility 
of Accelerator Transmutation of Waste technology, as directed by 
Congress. We allocated $282 million (79 percent) to the Yucca Mountain 
Site Characterization Project.
    In fiscal year 2000, OCRWM received an appropriation of $351.2 
million. Of that, we allocated over $281.2 million (80 percent) to the 
Yucca Mountain Site Characterization Project, the Program's principal 
focus.

Focus of activities in fiscal year 1999 and fiscal year 2000
    The near-term focus of the Program is to complete the work to 
support the Secretary's decision on whether or not to recommend the 
Yucca Mountain site to the President for further development as a 
repository. Since the publication of the Viability Assessment of a 
Repository at Yucca Mountain early in fiscal year 1999, the Program has 
continued to gain momentum toward this recommendation. The Viability 
Assessment has been used as a management tool to focus our site 
characterization activities to support this recommendation.
    In fiscal year 2000, as a result of a funding level below the 
President's budget request, we prioritized our technical 
investigations. Our focus in fiscal year 2000 was on the science and 
engineering activities that most effectively reduce the level of 
uncertainty in analyses of repository performance.
    We have continued the transition begun a number of years ago from a 
program previously dominated by underground construction activities and 
corresponding investigative science to data synthesis, model 
development and validation, performance assessment, and engineering 
related to repository and waste package designs. The Program also 
continues to place emphasis on Nuclear Quality Assurance activities to 
ensure that the data and models we utilize will support licensing, 
assuming the site is recommended and the President and Congress accept 
the site recommendation.

                          KEY ACCOMPLISHMENTS

Yucca Mountain
    The Yucca Mountain Site Characterization Office has made 
significant progress toward completing the scientific investigations 
and engineering studies that are necessary to support a determination 
on the suitability of the Yucca Mountain site and a possible site 
recommendation. Our work focused on three areas identified in the 
Viability Assessment for further study: the presence and movement of 
water through the repository block, the effects of water movement on 
the waste package, and the effects of heat from the decay of 
radioactive materials inside the waste packages on the site's geologic 
and hydrologic behavior. Testing activities in all these areas have 
yielded important data that enhance our understanding of the natural 
characteristics and properties of Yucca Mountain and how a repository 
at that site would perform.
    In January 2000, we updated the Repository Safety Strategy. This 
strategy is the roadmap that lays out our postclosure safety case to 
support a site recommendation decision. It identifies the key factors 
that affect repository performance and provides the basis for focusing 
our remaining site characterization activities. As a result of this 
prioritization, we believe that the basic processes that could affect 
repository performance are understood, and that the main emphasis for 
completing site characterization is to reduce uncertainties and to 
validate our models.
    Among our scientific and technical accomplishments are:
  --Continuation of the drift-scale heater test, which we are 
        conducting to obtain data on the mechanical, thermohydrologic, 
        and thermochemical properties of the potential repository host 
        rock, 1000 feet below the surface of Yucca Mountain. The test 
        has been in operation since 1997 and will continue for several 
        more years. We have heated the rock and are maintaining the 
        drift wall temperature at 392 degrees Fahrenheit for two years, 
        before beginning a cool-down cycle. We have bored holes into 
        the drift walls at varying distances from the heater to collect 
        data and measure the results as the test progresses.
  --Testing in the underground facility at Busted Butte near Yucca 
        Mountain, which provides an analog to the rock that lies below 
        the potential repository horizon. These tests are important to 
        understand the potential transport of certain radionuclides 
        from the repository area, through the unsaturated zone, and 
        into the water table underlying Yucca Mountain. We have found 
        that certain minerals, found naturally in the rock, bond with 
        radionuclides and inhibit their movement.
  --Examination of the movement of moisture within the mountain. We 
        completed the cross drift in the Exploratory Studies Facility 
        and will complete construction of test alcoves this year. We 
        have begun a final set of experiments that will introduce water 
        above the Exploratory Studies Facility and will monitor 
        humidity and seepage in the Exploratory Studies Facility. We 
        are analyzing information from tracer injection experiments to 
        validate our estimates of seepage.
  --Measurement of water levels from a series of monitoring stations 
        located in deep bore holes.
  --Monitoring and collecting of information for the environmental 
        baseline, including wind, air quality, rainfall, surface water 
        runoff, and flora and fauna.
  --Materials testing on the nuclear waste types expected to be 
        disposed in the repository to determine the effects on the 
        waste and cladding from heat, moisture, and chemical reactions.
  --Continued testing of potential waste package materials to determine 
        corrosion rates and to identify other potential changes due to 
        heat, moisture, and chemical reactions.
  --Design and trade-off studies to select the repository and waste 
        package reference design for the site recommendation and the 
        final environmental impact statement.
    We recognize that uncertainty can affect confidence in decisions 
related to the suitability of the Yucca Mountain site. In evolving the 
repository design concept over the past year, we have sought to select 
a design and to specify conditions on its implementation that are 
responsive to concerns about demonstrating performance, while at the 
same time balancing such significant factors as long-term public 
safety, intergenerational equity, worker safety, and cost.
    In September 1999, this natural evolution resulted in an enhanced 
design that addresses these overarching concerns and responds to 
recommendations by the Nuclear Waste Technical Review Board. A key 
aspect of the enhanced design is a lower repository temperature, 
achieved through a set of thermal management techniques. We have also 
emphasized the need for flexibility to ensure that new scientific and 
engineering data gathered throughout the site characterization, 
construction, and operation and monitoring phases can be accommodated 
through reasonable changes in the repository design or operational 
concept. Similarly, our emphasis on flexibility allows for changes that 
might be driven by evolution in national policy at some future 
juncture.
    Our efforts to make necessary modifications to the regulatory 
framework for evaluating the suitability of the Yucca have progressed. 
On November 30, 1999, the Department published a proposed revision to 
its repository siting guidelines. The comment period closed on February 
28, 2000. The proposed revised guidelines reflect a shift away from a 
generic approach, which compared one site to another using individual 
technical criteria to a site-specific approach that relies on an 
overall, integrated systems evaluation of the expected performance of a 
repository at Yucca Mountain. The Nuclear Regulatory Commission took 
this same approach in its licensing regulation. These regulations must 
be compatible: a site that meets the Department's suitability 
guidelines should be one that is likely to satisfy the Commission's 
requirements and receive a license.
    If the repository is to be licensed, the dose to a member of the 
public, as predicted by our total system performance assessment models, 
cannot exceed the regulatory standards that are now being finalized. In 
fiscal year 1999, we developed the detailed bases of the performance 
assessment models that will support this evaluation. These models 
integrate data from site investigations and laboratory studies, expert 
judgment, and information about engineered barriers. We updated the 
performance assessment models to reflect new information from site 
investigations and laboratory studies, advances in the modeling of 
physical processes at the site, and the enhanced repository design. We 
also completed a comprehensive peer review of our total system 
performance assessment. This independent evaluation and critique 
supports ongoing model refinement, which will be completed in fiscal 
year 2000.
    The Program's completion of the initial performance confirmation 
plan for the repository is a forward-looking accomplishment that 
underscores our commitment to ensuring repository performance. This 
plan establishes that confirmatory testing will continue as long as 
necessary before repository closure to assure the Department and the 
Nuclear Regulatory Commission that the repository system will isolate 
waste as planned.
    In July 1999, we reached a major program milestone by releasing the 
Draft Environmental Impact Statement for a Geologic Repository for the 
Disposal of Spent Nuclear Fuel and High-Level Radioactive Waste at 
Yucca Mountain, Nye County, Nevada. The draft environmental impact 
statement presents the results of an analysis of potential impacts 
associated with constructing, operating and monitoring, and eventually 
closing a repository at Yucca Mountain and of transporting waste to 
Yucca Mountain from 77 sites across the United States.
    We recognize the need for public review of, and input into, this 
important document and have accommodated many requests from our 
stakeholders. During a 199-day public comment period, we conducted 21 
hearings throughout the country to solicit comments on the draft 
environmental impact statement. Over 2,600 individuals attended those 
hearings and over 700 provided comments; the total number of comments 
received at the hearings and in writing exceeded 3,300. The final 
environmental impact statement will accompany a decision by the 
Secretary on whether or not to recommend the site for development as a 
permanent repository.
    The U.S. leads the world in the science needed to develop a 
geologic repository, and the Program is active in efforts to share 
information and foster safe radioactive waste management around the 
globe. On October 31-November 3, 1999, the Department sponsored an 
international conference on geologic repositories. This conference 
highlighted global progress on the management of nuclear materials and 
radioactive waste, and provided a forum to discuss ongoing and planned 
activities to develop geologic repositories. Both the policy and 
technical aspects of geologic disposal were addressed, and conference 
participants were invited to tour Yucca Mountain. Conference 
participants issued a Joint Declaration reiterating the international 
commitment to the safe management of nuclear waste.
    As a separate initiative, OCRWM is working with the Russian 
Federation in a cooperative program to support our nation's 
nonproliferation objectives. We expect to complete a bilateral 
agreement with the Russian Federation in fiscal year 2000 that will 
foster collaborative repository research and assist the Russian 
Federation in developing a path forward for radioactive waste and 
surplus fissile materials disposition.
    The Program also evaluated the potential application of accelerator 
transmutation of waste to civilian spent nuclear fuel. In October 1999, 
in response to prior Congressional direction, the Department submitted 
to Congress ``A Roadmap for Developing Accelerator Transmutation of 
Waste Technology.'' To prepare the report, OCRWM established a steering 
group that included representatives from the key National Laboratories 
and from the National Academy of Sciences. In addition, an 
international expert panel outlined a science-based research program to 
address key issues and possible implementation scenarios for 
development and deployment of accelerator transmutation of waste 
technology. One critical issue is whether the achievable benefits 
outweigh the costs. Research by the National Academy of Sciences found 
that accelerator transmutation of waste is technically feasible, but 
would require billions of dollars and many decades to implement, and 
would not eliminate the need for a repository.

              WASTE ACCEPTANCE, STORAGE AND TRANSPORTATION

    During fiscal year 1999 and to date in fiscal year 2000, the Waste 
Acceptance, Storage, and Transportation Project focused on planning the 
process for accepting spent nuclear fuel from utilities and Department-
owned spent nuclear fuel and high-level wastes from the defense 
complex. Our activities included updating inventories of commercial and 
Department-owned materials destined for repository disposal, updating 
verification plans, and completing prelicensing interactions with the 
Nuclear Regulatory Commission on the Phase 1 Centralized Interim 
Storage Facility Topical Safety Analysis Report, the Dry-Transfer 
System for Spent Nuclear Fuel Topical Safety Analysis Report, and the 
Actinide-Only Burn-Up Credit Topical Report. The Department made 
progress in developing modifications to the Standard Disposal Contract 
to support the processes related to waste acceptance and transportation 
services that will be provided by private sector vendors.

                   PROGRAM MANAGEMENT AND INTEGRATION

    During fiscal year 1999 and to date in fiscal year 2000, the 
Program's management center continued to support the activities of the 
two projects--the Yucca Mountain Site Characterization Project and the 
Waste Acceptance, Storage, and Transportation Project.
    Quality Assurance is a critical component of our work products to 
ensure that they can withstand scrutiny when the Site Recommendation 
Consideration Report is released in fiscal year 2001. Through audits, 
surveillances, and assessments, our QA personnel continued to work 
closely with technical personnel conducting scientific studies, design 
work, and performance assessment to identify the activities with 
greatest impact on levels of confidence related to evaluations of site 
suitability and possible license application. They examined whether 
that work was performed under appropriate QA requirements, whether 
requirements were fully understood, whether they were properly 
implemented, and whether compliance was adequately documented. For 
performance assessment, QA reviews focused on model validation, 
qualification of existing data, and software control. Deficiencies were 
evaluated and, where warranted, root causes were investigated. For each 
deficiency, a corrective action plan was implemented.
    We provided systems engineering and integration support for site 
characterization, waste package design, and repository design 
activities and for the waste acceptance and transportation initiatives. 
We continued to conduct systems analyses to support selection of design 
alternatives for the site recommendation and license application. We 
prepared updates of the total system life-cycle cost and the fee 
adequacy report. We updated interface control documents and refined the 
Program's waste acceptance criteria for non-commercial spent nuclear 
fuel and high-level radioactive waste.
    We coordinated and integrated the Program's activities with other 
Departmental elements. With the Office of Environmental Management and 
the Office of Fissile Materials Disposition, we continued to develop 
and implement an integrated schedule for the Monitored Geologic 
Disposal System.
    We prepared updates to the OCRWM Program Plan and the Annual Report 
to Congress, and supported updates of the Department's Strategic Plan. 
In addition, we participated in numerous Nuclear Waste Technical Review 
Board and panel meetings and in pre-licensing meetings with the Nuclear 
Regulatory Commission.
    Our current management and operations contract expires in February 
2001. We are currently recompeting this contract to ensure appropriate 
support as we plan, integrate and manage a complex program in a Nuclear 
Regulatory Commission licensing environment. In January 2000, we issued 
a draft request for proposals to announce our intent to recompete this 
contract, in accordance with Departmental guidelines and consistent 
with Congressional direction.
    We continued the development and implementation of a Program-wide 
information architecture to provide the foundation for definition, 
development, organization, management of, as well as access to, all 
Program data, records, and information systems.
    We continued to use the Internet to distribute a variety of 
information to interested stakeholders. Many of the Program's policy 
and technical documents are available to the public through our 
electronic databases.
    Finally, the Program met all Departmental Y2K milestones. Our 
mission-critical systems were subsequently independently verified and 
validated, and the transition to 2000 was problem-free.

    Senator McConnell. Thank you, Dr. Itkin.
    Dr. Huntoon.

                  STATEMENT OF DR. CAROLYN L. HUNTOON

    Dr. Huntoon. Senator McConnell, other members of the 
committee, it is a pleasure to be here today to appear before 
you. I have had the opportunity in the past several months to 
visit the sites that I am responsible for, the former nuclear 
weapon production sites. We are left with huge volumes of waste 
that must be managed and stored.
    There is extensive subsurface contamination that must be 
remediated and large quantities of nuclear materials left over 
from the production of the nuclear weapons--that we must store 
and protect to make the public safe, as well as our workers.
    We have a tremendous job to do. I have seen most of it 
firsthand. In the 10 years since Environmental Management, EM, 
was established, the department has made great strides in 
addressing these problems. We have characterized a lot of the 
waste streams and the subsurface contamination. We understand 
better the nature and extent of the waste.
    And we also have developed a life cycle analysis that we 
continue to refine to improve our baseline cost. And we are 
improving our project baselines to reduce costs.
    Through contract reform, we are trying to improve our 
performance and the accountability of our contractors. We have 
accelerated the cleanup at Rocky Flats, and we have shown that 
we know how to reduce costs and schedules, to improve project 
management, and to incentivize the contractor.
    In February, we signed a new performance-based contract for 
the closure of Rocky Flats, which----
    Senator Reid. Mr. Chairman, if I could interrupt just 
briefly. Senator Daschle has asked me to attend a meeting. I 
have a number of questions I would like to submit, and I will 
do those with your permission. And they can respond at their 
earliest convenience.
    Senator McConnell. Thank you, Senator Reid. We will be 
happy to do that.
    Senator Reid. Pardon me for the interruption.
    Senator McConnell. Go ahead, Dr. Huntoon.

                     WASTE ISOLATION PILOT PROJECT

    Dr. Huntoon. Each year we are making significant progress 
all across the country. Last year we opened the Waste Isolation 
Pilot Plant, the world's first geological repository for 
nuclear waste.
    To date, we have made 48 shipments of transuranic waste to 
WIPP from Rocky Flats, Los Alamos and Idaho. This includes 3 
shipments from Rocky Flats under the new WIPP permit. This year 
we expect to begin shipping from Hanford and Savannah River. In 
fiscal year 2001, we plan to make about 485 shipments.
    We completed our cleanup work at three more sites in fiscal 
year 1999. We will complete two more sites this year and three 
more in 2001, which will bring a total of 74 sites completed, 
nearly two-thirds of our inventory.
    In fiscal year 1999, we vitrified 248 canisters of high-
level waste at Savannah River and West Valley. And we expect to 
produce 400 more at Savannah River in 2000/2001.
    In fiscal year 2001, we are requesting $6.318 billion: $4 
billion in the defense and environmental restoration management 
appropriation, a little over $1 billion in the defense 
facilities closure project appropriation, $286 million in non-
defense environmental management appropriation, and $303 
million for the uranium enrichment decontamination and 
decommissioning fund. In addition, $515 million is set aside in 
the defense privatization appropriation.
    Let me offer just a few highlights from our request. At 
Richland we are beginning to move corroding spent nuclear fuel 
from wet storage in the K Basins near the Columbia River to a 
new dry, safe facility away from the river. At Savannah River, 
we continue to process spent nuclear and plutonium-bearing 
materials in both the F and H Canyons, where these materials 
will be converted into safe forms for longer storage.
    Our request would significantly increase funds to 
accelerate the pace of cleanup at the gaseous diffusion plants 
at Paducah, Kentucky, and Portsmouth, Ohio. At Paducah we will 
complete removal of Drum Mountain by the end of the year using 
additional funds provided by Congress for fiscal year 2000.
    However, to reduce our cost and schedules further, we need 
new technologies. Our previous science and technology 
investments are beginning to pay off. We now have over 500 
deployments of new technologies across the complex. I plan to 
continue these necessary investments.
    Our laboratory in Idaho plays a critical research role as 
the lead laboratory for our EM science and technology programs. 
The Idaho site is developing technologies to fulfill our long-
term stewardship responsibility. It also specializes in 
subsurface science to enable us to better understand the 
movement of the contaminants below the earth's surface.
    Also concerning our Idaho site, we submitted a 
reprogramming last week for $11.5 million to allow us to 
complete the transfer of the Three Mile Island spent nuclear 
fuel, from an old storage pond to a new dry storage facility. 
Without this reprogramming, we will have to stop work on this 
important project in May, putting commitments under the 
settlement agreement at risk. We would appreciate your 
consideration of this request.

                        PRIVATIZATION ACTIVITIES

    In August of this year, we will determine whether or not to 
authorize BNFL to proceed with the construction of a privatized 
facility to vitrify high-level waste at Hanford. Currently 
there are about 54 million gallons of waste stored in 
underground tanks near the Columbia River.
    These tanks were designed for temporary, not permanent, 
storage. Some of the older tanks have leaked radioactive waste 
into the ground water that eventually flows to the river. Our 
agreement with the State of Washington requires us to begin 
removal and treatment of the waste by 2007.
    Under the privatization approach, the department will not 
pay the contractor until vitrified waste is produced according 
to the terms of the contract. The assumption of financial risk 
by other contractors will provide more incentives for 
performance than traditional government contracting approaches.
    I assure you the department will not authorize construction 
of these facilities until we are convinced the contractor's 
proposal meets all of our requirements and is in the best 
interest of the Federal Government. We will provide a rigorous 
review of the contractor's financing mechanisms, technical 
approaches, work schedules and cost information.
    If BNFL is authorized to proceed, I request a $450 million 
in privatization budget authority that will enable the 
contractor to begin long lead procurement of items, start 
construction, and provide additional design. This will enable 
them to have a higher degree of confidence in the design prior 
to construction. At lower levels of funding, we would have to 
reevaluate the benefits of privatization approach.
    Finally, my philosophy has been to do all our work safely. 
We will not compromise the safety of our workers or the 
environment for a schedule. We have communicated that principle 
to all of our contractors. I intend to ensure that all the EM 
personnel understand and meet their safety and security 
responsibilities.
    In conclusion, cleaning up the legacy of environmental 
contamination from nuclear weapon production will fulfill a 
legal and a moral obligation that we owe to the States and the 
communities that helped us both in the Second World War and the 
Cold War. This is important work. I am enthusiastic about it 
and committed to meeting the challenge.
    Thank you.
    [The statement follows:]

              PREPARED STATEMENT OF DR. CAROLYN L. HUNTOON

    Mr. Chairman, and Members of the Subcommittee, I appreciate this 
opportunity to appear before you to discuss the Department of Energy's 
Environmental Management (EM) program and its fiscal year 2001 budget 
request.
    Our budget request of $6.318 billion for fiscal year 2001 for the 
EM program will enable the Department to continue our progress cleaning 
up our sites. The request seeks $5.803 billion in traditional budget 
authority and $515 million in budget authority to support privatization 
projects. This is a total increase of approximately $440 million over 
this year's current appropriation.
    This level of funding in our request supports critical safety 
programs for the protection of workers who carry out cleanup activities 
across the DOE complex; accelerates cleanup at key sites; enables the 
Department to be substantially in compliance with legal agreements and 
requirements; responds to Defense Nuclear Facilities Safety Board 
recommendations; addresses significant safety risks; and continues 
efforts to develop alternative technologies that can reduce the cost 
and schedule of cleanup. The request keeps us on track with meeting 
accelerated closure schedules at Rocky Flats in Colorado, and at the 
Mound and Fernald sites in Ohio. We will be able to continue progress 
at all sites, including treatment and disposal of nuclear waste and 
safe management of nuclear materials.
    The fiscal year 2001 request for the EM program represents a 
significant increase over the fiscal year 2000 appropriation, both in 
traditional budget authority and in funding for privatization projects. 
We are requesting an additional $113 million in traditional budget 
authority and $327 million more for privatization, an eight percent 
increase overall. These additional funds will enable the Department to 
make more progress in fiscal year 2001--more shipments of transuranic 
waste to the Waste Isolation Pilot Plant (WIPP), accelerated cleanup at 
the Paducah and Portsmouth Gaseous Diffusion Plants, and the completion 
of EM cleanup at Argonne National Laboratory-West in Idaho, Monticello 
Remedial Action Project in Utah, and Grand Junction Site in Colorado. 
With this request we will also be able to maintain the schedule for the 
design, construction, and operation of a privatized vitrification plant 
for high-level nuclear waste at the Hanford site in Washington. This 
waste is currently in underground storage tanks near the Columbia 
River.

                              INTRODUCTION

    Before discussing our fiscal year 2001 budget request, I would like 
to provide an overview of our program and describe some of the actions 
I have taken since being confirmed as Assistant Secretary for 
Environmental Management in July 1999, as well as highlight some of our 
accomplishments in the past year and our planned achievements for the 
current fiscal year.

Meeting the Challenge of the Environmental Legacy
    The Environmental Management program is responsible for managing 
and cleaning up the environmental legacy of the nation's nuclear 
weapons program and government-sponsored nuclear energy research. If 
there is one common theme at all of the very diverse facilities across 
the country where the EM program is conducting cleanup, it is the 
challenge presented by the magnitude and complexity of the task we face 
in managing large volumes of nuclear wastes, safeguarding materials 
that could be used in nuclear weapons, and remediating extensive 
surface and groundwater contamination.
    In total, we are responsible for addressing an estimated 1.7 
trillion gallons of contaminated groundwater and 40 million cubic 
meters of contaminated soil and debris. EM is responsible for safely 
storing and guarding more than 18 metric tons of weapons-usable 
plutonium, enough for hundreds of nuclear weapons. Our inventory 
includes over two thousand tons of intensely radioactive spent nuclear 
fuel, some of which is corroding. EM is also responsible for storage, 
treatment, and disposal of radioactive and hazardous waste, including 
over 340,000 cubic meters of high-level waste stored at the Hanford, 
Idaho, New York and Savannah River sites; and for deactivation and 
decommissioning of about 4,000 facilities that are no longer needed to 
support the Department's mission. In addition, the EM program also has 
responsibility for critical nuclear non-proliferation programs to 
accept and safely manage spent nuclear fuel from foreign research 
reactors that contains weapons-usable highly enriched uranium.
    Completing the cleanup of the legacy from nuclear weapons 
production will meet our legal and moral obligation to those 
communities and states that supported our national defense effort and 
helped win both the Second World War and the Cold War. Completing this 
cleanup will allow us to turn lands and facilities to other public uses 
and allow the Department to focus on its science, security, and energy 
missions.

Principles and Priorities for the EM Program
    The actual tasks of remediating contamination and storing, 
treating, and disposing of wastes are performed exclusively in the 
field, at the sites where the contamination and wastes are located. The 
role of Headquarters is to provide program guidance and management as 
to how this work will be conducted. I have established several 
management principles and priorities that will guide the program under 
my leadership. They are:
  --Safety first;
  --Reduce risks;
  --Meet our commitments;
  --Accelerate site cleanup and project completion; Strengthen project 
        management;
  --Integrate nuclear waste and materials management and operations to 
        take advantage of site capabilities across the DOE complex;
  --Build public confidence and involve stakeholders in our cleanup 
        decisions and actions;
  --Develop an effective long-term stewardship program--at many sites 
        after cleanup is completed the Department will retain 
        responsibilities for long-term monitoring and maintenance; and
  --Apply the best science and technology to solve technical problems 
        and reduce costs.
    The EM Headquarters office has recently been organized to implement 
these principles and better align the EM program with our goals. The 
new structure groups management of closure sites together to ensure the 
lessons learned about facilitating closure are shared across the 
complex. It also establishes specific organizations focused on safety, 
project management, and long-term stewardship, as well as science and 
technology and cross-complex integration. The re-organization, formally 
in place last November, provides stability to an organization that had 
seen significant personnel reductions in the past few years and 
establishes permanent managers and staff throughout the organization.
    We will continue to work towards cleaning up as many of the 
remaining contaminated sites as possible by 2006, safely and cost-
effectively. By working toward this goal, we not only reduce the 
hazards presently facing our workforce and the public, but also reduce 
the long-term financial burden on the taxpayer. For every year that a 
site remains open because cleanup has not been completed, we are paying 
a ``mortgage'' of overhead costs for activities such as site security, 
facility operations, personnel, and safety. Our budget request, and our 
organization in Headquarters, is now structured to emphasize site 
closure, and site/project completion at our larger sites and our sites 
with continuing missions.

Progress and Accomplishments in Cleaning Up and Closing Sites
    I am pleased to report that our program has produced substantial 
cleanup results at contaminated nuclear facilities around the country. 
Our accomplishments reflect the program's continued commitment to 
performance-based management, establishing stretch goals and 
performance measures that demonstrate our progress in on-the-ground 
environmental cleanup and meeting our goals. For example:
  --The Waste Isolation Pilot Plant (WIPP) opened and began disposal 
        operations in March 1999. Since its opening through November 
        1999, 44 shipments of transuranic waste have been sent to WIPP 
        for disposal from Los Alamos National Laboratory, Rocky Flats, 
        and Idaho National Engineering and Environmental Laboratory 
        (INEEL). We expect that the Hanford and Savannah River sites 
        will begin shipping waste to WIPP in fiscal year 2000.
  --We continued to successfully operate two high-level waste 
        vitrification facilities in South Carolina and at West Valley 
        in New York where last year we produced 248 canisters of 
        vitrified high-level waste. In fiscal year 2000, we expect to 
        produce at least 200 more canisters at the Savannah River Site 
        facility, bringing the total canisters poured at this facility 
        to more than 900 canisters since the facility began operating 
        in 1996. We will vitrify five canisters of waste at West 
        Valley.
  --At Rocky Flats, we continued to make great strides towards meeting 
        our 2006 closure goal, including completing shipments of 
        plutonium pits to the Pantex Plant in Texas and shipments of 
        highly enriched uranium to the Y-12 facility in Oak Ridge 
        Tennessee. In addition, we demolished a plutonium research 
        facility and made 12 shipments of transuranic waste to WIPP.
  --EM completed its cleanup work at three more sites in fiscal year 
        1999 and will clean up two more sites by the end of fiscal year 
        2000. This will bring the number of completed sites to 71, with 
        42 sites remaining.
  --At the Hanford Site, we have made significant progress in reducing 
        the urgent risks associated with the 177 underground high-level 
        waste tanks at the Hanford site, some of which are known to 
        have leaked to the surrounding soils threatening groundwater 
        and the nearby Columbia River. We resolved high priority safety 
        issues in several tanks, such as the generation of high heat in 
        one tank and a rise in the surface level in another. We are 
        also interim stabilizing single-shell tanks, transferring free 
        liquids in the tanks to more secure double-shelled tanks. We 
        have begun pumping free liquids from six single-shelled tanks, 
        meeting all milestones in the Consent Decree with the State of 
        Washington. Also at Hanford, we continue stabilization 
        activities to reduce the risks posed by unstable plutonium 
        materials. In addition, in August 2000 we expect to make a 
        decision on whether to authorize the construction of the 
        privatized facility to vitrify the liquid tank waste.
  --At Weldon Spring in Missouri, we finished treatment of waste pit 
        sludge in the Chemical Stabilization and Solidification 
        Facility in fiscal year 1999, with about 180,000 cubic yards of 
        treated sludge placed in the disposal facility, and the 
        treatment facility was decommissioned. We plan to complete 
        waste placement in the 1.5 million cubic yard capacity disposal 
        facility in fiscal year 2000, with only the completion of the 
        facility cover remaining.
  --At INEEL, we completed construction of a dry storage facility for 
        the Three Mile Island spent nuclear fuel and began transfer of 
        the fuel to the facility. We also made four shipments of 
        transuranic waste to WIPP, meeting a major milestone in the 
        settlement agreement with the State of Idaho, signed in October 
        1995. In addition, we expect to begin construction on the 
        Advanced Mixed Waste Treatment facility in fiscal year 2000.
  --In fiscal year 1999, we disposed of 49,000 cubic meters of low-
        level waste, 14,000 cubic meters of mixed low-level waste, and 
        282 cubic meters of transuranic waste at disposal facilities at 
        DOE sites and at commercial disposal facilities.
  --At the Mound Plant in Miamisburg Ohio, we continue progress toward 
        the 2004 closure goal. In fiscal year 1999, we completed 
        shipment of all remaining legacy low-level and mixed low-level 
        waste from the site. By the end of fiscal year 2000, we expect 
        to complete the removal of all remaining nuclear materials from 
        the site and complete decommissioning of three more buildings.
  --Also at Mound, we transferred two buildings and 27 acres to the 
        City of Miamisburg in fiscal year 1999, and we expect to deed 
        over two more buildings and another 100 acres in fiscal year 
        2000.
  --We awarded the privatization contract for the design, construction, 
        operation and capping of a waste disposal facility at Oak Ridge 
        for up to 400,000 cubic meters of contaminated soils and 
        debris. In addition, we expect to issue a Record of Decision 
        for the transuranic waste treatment project at Oak Ridge.
  --In support of non-proliferation goals, we have now completed a 
        total of fourteen shipments of spent nuclear fuel from foreign 
        research reactors in 23 countries including Brazil, South 
        Korea, and Venezuela.
  --On-the-ground use of new innovative technologies continues to 
        increase. During fiscal year 1999, DOE sites used innovative 
        technologies 218 times in cleanup activities. For example, the 
        Segmented Gate System (SGS) was successfully used for projects 
        at Sandia National Laboratories and Los Alamos. This technology 
        is a computer-controlled mechanical sorter that separates clean 
        soil from contaminated waste streams, thereby significantly 
        reducing the volume of waste to be packaged and disposed of, 
        and reducing costs by up to 75 percent.
  --Also in fiscal year 1999, 40 innovative technologies were made 
        available for use for the first time. One such technology is 
        the Multifunction Corrosion Probe now being used in the tanks 
        at Hanford. This technology helps reduce the volume of tank 
        waste by allowing workers to directly monitor the rate of tank 
        corrosion and add only the minimum amount of sodium hydroxide 
        necessary to inhibit corrosion.
  --During fiscal year 2000, the sites expect to deploy new technology 
        at least 60 times in cleanup activities. For example, the 
        Lasagna electro-osmosis process will be used to remove 
        groundwater contaminants at the Paducah Gaseous Diffusion 
        Plant.

                      THE FISCAL YEAR 2001 REQUEST

    The fiscal year 2001 budget request of $5.803 billion in 
traditional budget authority and $515 million in budget authority to 
support privatization projects will enable EM to continue making 
progress across the country. In fiscal year 2001, we will continue to 
give priority to high risk problems such as stabilizing and ensuring 
the security of plutonium at several sites; stabilizing tanks 
containing high-level radioactive waste; and ensuring the safe storage 
of spent nuclear fuel, including foreign research reactor fuel in 
support of non-proliferation goals. We will continue to move closer to 
the goal of completing the cleanup of Rocky Flats, the Mound Site and 
Fernald in Ohio, and Weldon Spring in Missouri by 2006. We will 
complete the cleanup of three additional DOE sites. We will accelerate 
the cleanup of the uranium enrichment plants at Portsmouth, Ohio, and 
Paducah, Kentucky, and will significantly increase the number of 
shipments to WIPP. We also are requesting funds to begin construction 
of the privatized high-level waste vitrification plant at the Hanford 
site.

Safety First
    The safety of our workers is our highest priority. We will not 
compromise the safety of our workers in any of our activities. As our 
cleanup accelerates, we must ensure that we have truly implemented and 
institutionalized Integrated Safety Management--the systems, 
procedures, and behavioral attitudes in place to continually improve 
our safety performance. In the recent EM reorganization, I created the 
Office of Safety, Health and Security to consolidate EM's resources, 
expertise and experience in these areas. A primary objective of this 
office is to ensure all EM personnel understand their responsibilities 
in the areas of safety and security so that these concepts and 
practices are integral to all EM programs and activities. Safety 
culture flows from actions by the senior management of an organization. 
These actions enforce understanding at every level that constant 
attention to safety has incremental beneficial effects, and the absence 
of these actions can almost guarantee adverse consequences. We are 
improving our safety orientation and performance as we strive to become 
a leader in safety throughout the DOE complex, with an approach to and 
record in safety that meets or exceeds the best private industrial 
firms. Managers at all levels are responsible for monitoring, taking 
appropriate actions to ensure that a commitment to safety is engendered 
throughout the organization, and participating in feedback systems so 
that continual improvements can be realized. We will be successful when 
we consider safety in everything we do--whether it is budget 
allocation, work formulation and prioritization, or staffing.

Making more Progress in Reducing Risks
    Move spent nuclear fuel from K Basins at Hanford.--The fiscal year 
2001 request furthers our efforts to protect the Columbia River by 
beginning the removal of spent nuclear fuel from K-Basins at the 
Hanford Site in Washington. Our request will enable us to meet the 
milestone to begin fuel removal in November 2000. This project will 
carry out a first-of-a-kind technical solution to move 2,100 metric 
tons of corroding spent nuclear fuel from at-risk wet storage 
conditions in the K-East and K-West basins adjacent to the Columbia 
River into safe, dry storage in a new facility away from the river.
    Achieving this milestone will represent a significant 
accomplishment for a project that previously suffered from technical 
and management problems that delayed schedules and increased costs. We 
are now on track with a new baseline established in December 1998 that 
provides a realistic means to move this spent fuel to a safer facility 
and location.
    Move Three Mile Island Spent Nuclear Fuel to Safe Storage.--At 
INEEL, we will complete the transfer of Three Mile Island spent nuclear 
fuel to dry storage and the transfer of spent nuclear fuel at the Idaho 
Nuclear Technology and Engineering Center (INTEC) from aging, 
deteriorating underwater storage to safer storage facilities. These 
transfers reduce environmental and safety risks and fulfill commitments 
in the Idaho Settlement Agreement.
    Stabilize Plutonium at Hanford and Savannah River Sites.--We are 
reducing risks by stabilizing plutonium-bearing materials at the 
Hanford and the Savannah River Sites. At Hanford, we will continue 
stabilization of plutonium-bearing materials and oxides at the 
Plutonium Finishing Plant. In addition, we will begin operating the 
bagless transfer system for packaging plutonium-bearing materials and 
complete brushing and repackaging of plutonium metal inventory. These 
stabilization activities support our commitment to the Defense Nuclear 
Facilities Safety Board and are a critical step in the deactivation of 
Plutonium Finishing Plant, which will significantly reduce mortgage 
costs at Hanford.
    The request supports critical work to stabilize plutonium residues 
and other plutonium-bearing materials from the Savannah River Site and 
other sites across the complex, including plutonium residues and other 
plutonium-bearing materials from the Rocky Flats site in Colorado, in 
the F-Canyon and H-Canyon at Savannah River. Stabilization of these 
``at risk'' materials is critical in resolving health and safety 
concerns surrounding these radioactive materials, since they are now in 
liquid or unstable forms unsuitable for long-term storage; supporting 
closure goals at Rocky Flats; and responding to Defense Nuclear 
Facilities Safety Board recommendations.
    Stabilize High-Level Waste in Underground Storage Tanks at 
Hanford.--In fiscal year 2001, we will continue improving safety of the 
high-level waste tanks by resolving high priority safety issues such as 
flammable gas generation and continuing interim stabilization work that 
involves pumping liquid waste from single-shelled tanks into double-
shelled tanks. The remaining two tanks which are suspected of having 
leaked in the past will be pumped during fiscal year 2001.
    Receive Foreign Research Reactor Fuel.--The fiscal year 2001 
request continues support for the return of spent nuclear fuel 
containing uranium originally enriched in the United States from 
foreign research reactors around the world. This program reduces the 
threat of nuclear proliferation by ensuring enriched uranium will not 
be used to make nuclear weapons. It also supports a U.S. nuclear 
weapons nonproliferation policy calling for the reduction and eventual 
elimination of the use of highly enriched uranium in civil programs 
worldwide.
    Spent nuclear fuel will be shipped from research reactors in 
Argentina, Austria, Italy, Sweden, Denmark, Germany and Japan to the 
United States in fiscal year 2001, and the Department is working with 
other interested, eligible foreign research reactors in The 
Netherlands, Chile, and Indonesia in an attempt to include additional 
countries in the 2001 shipment schedule.
    Blend-down of Highly Enriched Uranium at Savannah River.--The 
fiscal year 2001 EM request includes $37.9 million to support a 
creative approach to convert the Department's store of surplus highly 
enriched uranium to low enriched uranium for use as a commercial 
reactor fuel, offering a means to eliminate the proliferation risk 
posed by this weapons-grade material. The ``Blend-Down'' project, 
managed by the Office of Fissile Materials Disposition, is a 
collaboration between DOE and the Tennessee Valley Authority (TVA), 
which will use the converted fuel in its nuclear power reactors. The 
project is highly beneficial to both agencies. First, blending down the 
highly enriched uranium to low enriched uranium furthers DOE's non-
proliferation goals. Second, it will reduce DOE's long-term liabilities 
and risks associated with storing the material as highly enriched 
uranium or converting it to a waste form for disposal. Third, 
transferring the low enriched uranium solution to TVA's vendors will 
satisfy a DOE commitment to the Defense Nuclear Facilities Safety 
Board. Fourth, TVA will realize significant savings as compared to 
buying virgin fuel on the open market. Depending on actual program 
costs and uranium market prices, DOE may ultimately receive a share of 
the savings.
    The request will provide for a loading station at the Savannah 
River Site to transfer the uranium solutions from the H-area tanks to 
shipping containers and fund other infrastructure requirements for the 
project at the site. The project will use existing reprocessing 
facilities at the site and, as currently planned, will not extend the 
life of Savannah River reprocessing facilities or increase EM 
operational funding requirements.

Meeting our Commitments
    At the fiscal year 2001 request level of $6.318 billion, EM will be 
substantially in compliance with applicable environmental and other 
legal requirements. Most of our activities are governed by federal and 
state environmental statutes and regulations and enforceable agreements 
between the Department and federal and state agencies. We are committed 
to complying with these legal requirements and agreements. In addition, 
we plan to meet our commitments to the Defense Nuclear Facilities 
Safety Board. In several cases, we need to work closely with our 
regulators and the Board as well as our stakeholders and Tribal 
Nations, on the appropriate schedule and milestones for our program. We 
will continue to work to reduce costs and accelerate schedules so that 
we can meet our compliance requirements in the most practical and cost-
effective manner.

Accelerating Site Cleanup and Project Completion
    Complete More Site Cleanups.--In fiscal year 2001, we will continue 
to make progress toward the goal of cleaning up as many of the 
remaining contaminated sites as possible by 2006, safely and cost-
effectively. At the start of fiscal year 1997, shortly after the EM 
program first established this goal, 61 of the 113 sites in the EM 
program required active cleanup. We now have completed cleanup at 69 
sites, and have 44 sites that still require active cleanup. We plan to 
complete cleanup at two additional sites this fiscal year and at three 
sites in fiscal year 2001--Argonne National Laboratory-West in Idaho, 
Monticello Remedial Action Project in Utah, and Grand Junction Site in 
Colorado. In fact, we are accelerating the cleanup at Grand Junction to 
2001 from 2002 as initially planned. We plan to reduce the number of 
cleanup sites remaining to 39 by the end of fiscal year 2001.
    Complete Vitrification of High-Level Waste at West Valley.--At the 
West Valley Demonstration Project in New York, we will achieve 
significant milestones in carrying out the Department's 
responsibilities at this once privately-owned commercial nuclear 
processing facility. We will complete high-level waste vitrification 
processing, producing the final five canisters, and begin deactivation 
of the vitrification facility. At the end of the vitrification 
campaign, the Department will have vitrified 600,000 gallons of liquid 
high-level waste, reducing risks to the workers and public by 
converting the waste into a stable form. We will also complete the 
shipment of all spent nuclear fuel to INEEL. Removing the 125 spent 
fuel elements from the spent fuel pool at West Valley is a prerequisite 
for decontamination and decommissioning of facilities.
    Make Progress Toward Closing Rocky Flats by 2006.--The budget 
request of $664.7 million supports closure of Rocky Flats by December 
15, 2006, the closure date targeted in the new cost-plus-incentive-fee 
contract with Kaiser-Hill that took effect February 1, 2000. The Rocky 
Flats site is the largest site challenged to accelerate site cleanup 
and achieve closure in 2006 and, to date, significant progress has been 
made toward making this goal a reality. Despite the many challenges 
facing the closure of Rocky Flats, we are confident that the terms and 
conditions of the closure contract, including the schedule and 
performance incentives, better position us to achieve our goal of 
realizing substantial savings and dramatic risk reduction through 
accelerated closure. Critical elements in the closure strategy are 
stable funding for the life of the project and the ability to move 
nuclear materials and radioactive wastes from the site, which requires 
that other sites--often DOE sites--are available and prepared to accept 
the materials. The coordination of these planned shipping campaigns to 
the receiver sites demonstrates the Department-wide commitment to the 
goal of achieving accelerated closure of Rocky Flats.
    In fiscal year 2000, we began operating under a baseline that 
supports closure in 2006, which replaced a baseline for completing 
cleanup in 2010, and our activities and schedules for fiscal year 2001 
are consistent with this baseline. Under this baseline, by the end of 
2001, we will:
  --complete 98 percent of plutonium residues packaging for shipment;
  --complete the draining of the liquid plutonium from the pipes in 
        Building 771 and remove the pipes in preparation for 
        demolishing the building;
  --complete 88 percent of plutonium metal and oxides packaging for 
        shipment;
  --complete 80 percent of plutonium metal and oxides off-site 
        shipments.
    The new closure contract, valued at nearly $4.0 billion plus 
incentive payments, requires Kaiser-Hill to submit a revised baseline 
reflecting the terms and conditions of the contract by the end of June 
2000. The specific activities detailed within the fiscal year 2001 
request will be adjusted pending review and acceptance of the new 
baseline.
    Under the new contract, the Department and Kaiser-Hill are better 
positioned to safely achieve site closure by 2006. We have clearly come 
a long way since the previous contractor estimated a few years ago that 
it would take $30 billion and 30 years to complete cleanup at Rocky 
Flats.
    Increase Shipments to WIPP.--The fiscal year 2001 budget request of 
$194.5 million, a $13 million increase over the fiscal year 2000 
appropriation, supports more shipments of transuranic waste to WIPP in 
New Mexico. The fiscal year 2001 request supports shipments of contact-
handled transuranic waste at a rate of 13 shipments per week by the end 
of fiscal year 2001, a significant increase over the end-of-year rate 
of two shipments per week in fiscal year 1999, and five shipments per 
week in fiscal year 2000. The number of shipments will increase from 
about 120 in fiscal year 2000 to about 485 in fiscal year 2001, from 
Rocky Flats, Los Alamos, INEEL, Hanford, and the Savannah River Site. 
We will also be completing remote-handled transuranic waste equipment 
upgrades and regulatory submittals, in preparation for beginning 
remote-handled waste shipments in fiscal year 2002.
    Begin the Construction Phase of High-level Waste Treatment Facility 
at Hanford.--The fiscal year 2001 request provides $450 million in 
budget authority to support the privatization project to develop 
treatment facilities to vitrify at least 10 percent by volume of the 54 
million gallons of high-level waste now stored in underground tanks at 
the Hanford Site in Washington, a project managed by DOE's Office of 
River Protection. This significant increase over the request of $105.7 
million in the fiscal year 2000 appropriation anticipates a decision in 
fiscal year 2000 authorizing the contractor, BNFL, Inc., to proceed 
with the start of the construction phase for the facilities. The 
project is now in a phase in which the contractor will complete 30 
percent of the design process, obtain financing, and submit a fixed-
price bid. The Department will evaluate the contractor's proposal, as 
well as determine whether all other critical elements, such as the 
delivery of the waste to the facility, are in place and ready to 
support the project and the schedule. Based on this in-depth 
evaluation, the Department will make a decision, expected in August 
2000, on whether to proceed. If the Department authorizes construction 
to proceed, the amount requested in fiscal year 2001 will allow the 
contractor to initiate long-lead procurements and begin construction.
    We are requesting less for fiscal year 2001 than previously 
indicated because design work has progressed at a slower pace than 
originally anticipated. We are confident that we will have sufficient 
design completed to make the authorization to proceed decision in 
August as scheduled, but we intend to develop a robust and complete 
design before beginning construction and long-lead procurement. As a 
result, construction and long-lead procurement activities will not be 
at the same pace in fiscal year 2001 as indicated previously. This 
approach will provide the Department and the Congress with additional 
confidence in the project before we move forward.
    In addition, we are requesting $382 million in traditional budget 
authority for the Office of River Protection, a $44 million increase 
from last year. This funding enables the Department to mitigate the 
hazards associated with the high-level waste in the tanks and safely 
maintain them. It also funds the preparation of the tank farm retrieval 
system that will deliver tank waste to the privatized treatment 
facility. The schedule for developing the waste delivery system and 
preparing waste must be fully integrated with the privatized facility 
schedule in order for the treatment to begin on time. We will be 
determining the readiness of this waste feed system when making the 
decision next August regarding the authorization-to-proceed with a 
treatment facility. This part of the project will continue to be funded 
through traditional budget authority, as reflected in this year's 
request.
    Accelerate Cleanup at Portsmouth and Paducah.--Our fiscal year 2001 
budget request responds to concerns raised by investigations by DOE's 
Office of Environment, Safety and Health (EH) about the pace of 
cleanup, and fulfills the Secretary's commitment to seek additional 
funds to accelerate cleanup of environmental contamination at the 
gaseous diffusion plants at Paducah, Kentucky and Portsmouth, Ohio. 
This also meets the recommendations in the Conference Report for the 
fiscal year 2000 Energy and Water Development Appropriations Act to 
substantially increase funding for cleanup of these two sites. These 
plants were used to enrich uranium for defense and energy purposes and 
were transferred to the U.S. Enrichment Corporation in 1998.
    The Department is requesting $78 million for Paducah in fiscal year 
2001, nearly $24 million more than in fiscal year 2000 and almost a 
two-fold increase from the appropriation in fiscal year 1999. These 
funds will allow us to complete the removal of ``Drum Mountain,'' a 
large scrap pile containing thousands of drums, which is a suspected 
source of contamination of the Big and Little Bayou Creeks from surface 
run-off. We will remove the remaining 51,000 tons of contaminated scrap 
metal stored in outside storage areas, allowing characterization of the 
ground underneath the piles. The funds will be used to continue 
stabilization activities in two shut down buildings. We will also be 
able to characterize and dispose of the remaining 9,000 drums of low-
level radioactive waste, some of which are currently stored in 
deteriorating drums, and ship 2,000 drums of mixed waste to an off-site 
disposal facility. These activities address specific concerns raised by 
the EH investigation team.
    The request provides $76.2 million for cleanup activities at the 
Portsmouth Gaseous Diffusion Plant, about $30 million more than in 
fiscal year 2000. This funding will allow the site to complete final 
corrective actions for the groundwater plumes on the south side of the 
site containing such chemical contaminants as polychlorinated byphenyls 
(PCBs), trichloroethylene (TCE), and chromium and begin design and 
construction for soil and groundwater contamination on the north side. 
We will also dispose of contaminated soil and accelerate 
characterization and disposal of mixed hazardous and radioactive waste. 
The increased funding will keep us on track with completing 
environmental restoration activities by fiscal year 2002 and waste 
management activities by fiscal year 2006.
    We also have submitted a supplemental request for $16 million in 
fiscal year 2000 to accelerate work at the Portsmouth and Paducah 
plants. We appreciate this Subcommittee's favorable consideration of 
our request.
    Make Progress Toward Closure at Ohio Sites.--At the Fernald 
Environmental Management Project, we will continue accelerating closure 
of this former uranium production facility. We will place a permanent 
cap on Cell 1 of the On-site Disposal Facility using an innovative 
capping technology. This facility, designed to have seven cells with an 
option for an eighth, is enabling us to accelerate disposal of 
contaminated soil and debris resulting from cleanup and building 
demolition.
    At the Mound Plant in Ohio, we will accelerate tritium 
decontamination in buildings on the ``critical path'' to closure, 
completing decontamination of three of eight acres in the Semi-Works 
building, one of three significant contaminated buildings that comprise 
the tritium complex. We will also continue demolition of surplus 
buildings. Of the 107 buildings to be removed from the site, 
approximately 50 percent will be either demolished or auctioned off by 
fiscal year 2001.
    Begin Work at the Uranium Mill Tailings Site in Moab.--The budget 
request also includes a proposal that the Department undertake cleanup 
of a uranium mill tailings site in Moab, Utah, formerly owned by the 
now-bankrupt Atlas Corporation. The tailings contain low-levels of 
radioactivity from uranium, radium and their decay products, as well as 
hazardous constituents that present a small but continuing risk for 
contamination of the Colorado River. There have been concerns expressed 
by the U.S. Fish and Wildlife Service, as well as local communities and 
downstream states, about the risks posed to the river. Located next to 
the river, the site is in a major tourist area because of its proximity 
to two National Parks. The Department believes it is important to 
preserve these national treasures and restore the environment. Our 
experience with cleanup of older uranium mill tailings sites, many of 
which were located along streams and rivers, makes the Department well-
suited to this task. We are proposing to work with Congress to develop 
legislation that would direct the Department to undertake this $200 to 
$300 million cleanup project to relocate and stabilize the Moab 
tailings at a secure site, away from the river. We are requesting $10 
million in fiscal year 2001 in the non-defense account to initiate 
activities at this site.

Strengthening Project Management
    Project management principles and practices provide the discipline 
for EM to achieve its cleanup goals efficiently. To effectively oversee 
and manage our contractor workforce, we must be knowledgeable of and 
employ state-of-the-industry project management practices. I have 
created an Office of Project Management within EM to set project 
management policies and procedures, conduct independent project 
reviews, and train our staff in project management practices. This 
office is working with organizations such as the Construction Industry 
Institute, the Project Management Institute, and the National 
Aeronautics and Space Administration, to bring state-of-the-art project 
management tools and training into the EM program to enable us to 
better manage our projects.
    Many of our sites have improved their project baselines and project 
management practices in the last year. The Oak Ridge Operations Office 
completed a comprehensive revision of their baselines that provides the 
most complete and thorough baselines to date for their sites. The Idaho 
Operations Office implemented a process for re-estimating about half of 
their baselines, resulting in higher confidence in their estimates. A 
new baseline for the project at the Hanford site to move spent nuclear 
fuel from the aging K-Basins to safer, dry storage was established in 
fiscal year 1999 that provided the first realistic and achievable cost 
and schedule to accomplish the transfer of the fuel. The Rocky Flats 
site revised its baseline to reflect a 2006 closure rather than the 
2010 closure date in last year's baseline. Additional improvements in 
baselines are under way this year at Idaho and Rocky Flats with 
selected improvements elsewhere.
    Over the past year we have developed and implemented a system of 
internal controls. We are requiring that all work be organized into 
discrete projects and that baselines be documented, and have 
established a change-control system. EM has re-instituted a rigorous 
``change-control'' and critical decision process with defined 
thresholds for approval to enable us to better control our projects. 
Finally, I am formalizing quarterly reviews of major systems and other 
high visibility projects.
    The Department has created the Office of Engineering and 
Construction Management within the Office of the Chief Financial 
Officer to provide a Department-wide focus on project management 
policies, tools, and procedures. EM is working closely with this office 
to develop and implement a new DOE Order governing project management. 
Included in this Order will be enhanced policies on change control, 
critical decision approval by the Deputy Secretary for Major Systems, 
quarterly project reviews, and monthly project performance reporting.

Integrating Waste and Materials Management
    Sharing information and the unique capabilities for managing and 
treating nuclear wastes and materials at many of our sites is critical 
to our success. Our integration initiative seeks to consolidate 
treatment, storage and disposal facilities and use available capacity 
rather than construct new facilities; apply innovative technologies at 
multiple sites; and apply lessons learned and site successes complex-
wide.
    We have several key initiatives to facilitate site closure by 
moving materials to other sites for interim storage, with requested 
funds supporting the necessary activities in both the receiving and the 
sending sites. The Department has made substantial progress in 
consolidating storage of certain special nuclear materials from the 
Rocky Flats site in Colorado. In fiscal year 1999, Rocky Flats 
completed shipments of plutonium weapons pits to the Pantex Plant in 
Texas and highly enriched uranium to the Y-12 Plant in Oak Ridge, 
Tennessee. Rocky Flats also began shipments of plutonium scrub alloy to 
the Savannah River Site in South Carolina in fiscal year 1999; we will 
complete these shipments this year. This consolidation of nuclear 
materials has supported our 2006 closure goal for Rocky Flats and 
reduced the cost of maintaining security for the remaining special 
nuclear materials. The Department is also preparing to ship containers 
of excess plutonium to the Savannah River Site for storage in modified 
K-Reactor Area facilities. These shipments are scheduled to begin in 
fiscal year 2000.
    The Department has made progress in identifying sites that will 
treat and dispose of similar waste generated by sites across the DOE 
complex. In December 1999, after extensive technical analyses and 
consultation with state representatives and other stakeholders, we 
announced our site preferences for disposal of DOE low-level and mixed 
low-level waste based on the Waste Management Programmatic 
Environmental Impact Statement. This allowed us to complete a formal 
Record of Decision in February 2000 on low-level and mixed low-level 
waste treatment and disposal facilities, after further consultations 
with the affected states. The decisions, when implemented, will result 
in more efficient waste disposal operations as well as development of 
capabilities that do not currently exist. These capabilities are needed 
to move waste from storage to disposal and support cleanup and closure 
of sites. The Department also has 340,000 cubic meters of high-level 
waste at four sites, and is storing spent fuel at a number of sites. 
These will be safely stored until a geological repository is available. 
The Department is now evaluating the suitability of Yucca Mountain in 
Nevada as a repository.
    The opening of WIPP in New Mexico for disposal operations in March 
1999 provides a good example of the benefits of integration. For 
decades a large amount of transuranic waste has been stored at about 
two dozen sites across the United States. Beginning disposal operations 
at WIPP provides a means for the Department to permanently dispose of 
this long-lived radioactive waste while reducing the number of sites 
where this waste is stored. WIPP is critical for closing sites like 
Rocky Flats; for meeting compliance obligations for more than a dozen 
other sites, including the Idaho Settlement Agreement; and for reducing 
storage costs and risks to the public. In October 1999, the State of 
New Mexico Environment Department issued a final hazardous waste permit 
that became effective in November 1999. The permit allows WIPP to 
dispose of mixed transuranic waste. The Department is working to 
implement the permit while challenging several provisions that we 
believe are inappropriate, such as financial assurance requirements and 
certain technical requirements. It is critical that these issues are 
successfully resolved so that our waste management commitments and 
goals for WIPP can be met. From March 26, 1999, when WIPP began 
disposal operations until November 1999 when shipments were temporarily 
stopped to align the program with requirements in the newly-issued RCRA 
permit, WIPP received 44 shipments of non-mixed waste from three 
sites--Los Alamos, Rocky Flats, and INEEL.
    Finally, the transport of radioactive waste and material between 
sites is critical to the success of our integration priorities. Our 
transportation program, which successfully moved spent nuclear fuel 
containing U.S. enriched uranium from research reactors around the 
world to the U.S. for safe storage, is applying its success to other 
DOE shipments. EM is working with other DOE program offices and with 
the sites to develop a corporate strategy that will enable us to 
identify future packaging and transportation needs, to support 
aggressive shipping schedules, and to utilize our transportation assets 
more efficiently.

Building Public Confidence
    We have found that performing good technical work is not enough. 
Getting the job done requires cooperation with regulators and others 
outside of DOE that have a stake in our actions. By working 
cooperatively with regulators, stakeholders, local communities and the 
Tribal Nations, we have improved the efficiency of the EM program and 
have been able to meet our regulatory commitments in a more efficient 
and cost-effective way. Our request continues support for effective 
public participation through continued relationships with states, site-
specific and national advisory boards, and Indian tribes potentially 
affected by our activities.

Developing Effective Long-Term Stewardship
    As the Department completes stabilization, cleanup and disposal of 
waste, we must consider the next and final stage in the cleanup 
process: meeting our enduring environmental protection obligations 
through long-term stewardship. At most sites the Department is 
performing cleanup that will make the land available for other uses, 
but not necessarily unrestricted use, because of the presence of 
residual contaminants or deliberate entombment of waste or facilities. 
The Department has been completing cleanup that results in substantial 
risk and maintenance cost reductions. Similar to the cleanup of private 
sites, cleanup to levels allowing for unrestricted use often cannot be 
achieved at DOE sites for economic or technical reasons and has not 
been demanded by regulators. The Department has been able to take 
advantage of the Superfund administrative reforms developed by the U.S. 
Environmental Protection Agency (EPA) to allow anticipated future land 
use to be considered in developing cleanup remedies.
    The goal of long-term stewardship is the sustainable protection of 
human health and the environment after cleanup, disposal or 
stabilization is completed. A robust long-term stewardship program 
emphasizes good project management, the value of applying the best 
science and technology to manage residual hazards, and increasing 
public confidence through effective involvement of state and local 
governments, Tribal Nations, and stakeholders in long-term stewardship 
decision making. A reliable long-term stewardship program can also 
provide confidence to regulators and the public that non-removal 
remedies are acceptable because the Department can be trusted to care 
for the sites after the waste is contained in place.
    Most of the explicit long-term stewardship activities in the field 
are conducted by our staff in Grand Junction, Colorado. This office is 
responsible for long-term stewardship at approximately 30 sites across 
the United States in fiscal year 2000. These sites range from large 
uranium mill tailings sites (mostly in Colorado, Arizona, Utah, and New 
Mexico), former nuclear weapons productions facilities (e.g., Pinellas, 
Florida), and commercial nuclear fuel cycle facilities (e.g., AMAX in 
Parkersburg, West Virginia) that did work for the federal government.
    During the past year, the Department has taken action to strengthen 
its long-term stewardship program. First, we increased the budget for 
long-term stewardship to respond to the greater demand resulting from 
the completion of more cleanups. Our fiscal year 2001 budget request 
for the long-term stewardship program, managed by our Grand Junction 
Office, is more than $5 million, an increase of approximately 60 
percent over the fiscal year 2000 budget level. The budget largely 
reflects the expected transition of new responsibilities to the Grand 
Junction Office for long-term stewardship of the Monticello and Weldon 
Spring sites when they complete cleanup. This funding will provide 
continued cost-effective stewardship of approximately 35 sites in 2001, 
which is more than a 50 percent increase since 1999, when Grand 
Junction managed 25 sites. This funding will enable us to comply with 
Nuclear Regulatory Commission (NRC) permit requirements for long-term 
surveillance and maintenance for closed uranium mill tailings sites, as 
well as for increased responsibilities under Superfund and hazardous 
waste laws for protecting human health and the environment at several 
additional sites where closure occurred with residual contamination in 
place.
    Second, we recently established an Office of Long-Term Stewardship 
at our Headquarters office. The office is addressing these emerging 
challenges with responsibility for field guidance and policy 
development, technical analysis, and identification of science and 
technology needs. While this may be the first office addressing long-
term stewardship in the federal government, I would suggest to you that 
it will not be the last. This is because the issues we are grappling 
with are not unique to the Department of Energy. This new office is 
located within and funded through our Office of Science and Technology. 
This reflects the fact that we intend to continue investing in science 
and technology to help ensure that the protections provided by our 
remedies can be maintained as cost-effectively as possible for the 
necessary duration.
    There are a number of activities that this office will complete by 
the end of this year that will help establish the basis for a stronger 
long-term stewardship program. First, EM is responding to the mandate 
in the fiscal year 2000 National Defense Authorization Act (NDAA) to 
report to Congress by October 1, 2000, on the Department's long-term 
stewardship responsibilities. This report will provide the best 
available information on the cost, scope, and schedule for long-term 
stewardship at sites and portions of sites in sufficient detail to 
undertake the necessary stewardship responsibilities.
    Third, we are preparing a study on long-term stewardship pursuant 
to the lawsuit settlement agreement (Natural Resource Defense Council, 
et. al. v. Richardson, et. al., Civ. No. 97-963 (SS) (D.D.C. Dec. 12, 
1998)). The study will address national, programmatic, and cross-
cutting issues related to long-term stewardship.
    The management system required for performing long-term stewardship 
as cost-effectively as possible will likely build on the existing EM 
system. However, there may also be an additional need for new 
technologies, new contracting mechanisms, and new specialized personnel 
to ensure reliable and cost-effective long-term stewardship. This is 
what we are now examining as we accelerate our efforts to complete 
cleanup and close more sites, which in turn will require more long-term 
stewardship.

Solving Problems Through Science and Technology
    Our investments in science and technology are providing the 
scientific knowledge and new technologies necessary to help us reduce 
the cost and time frame of the complex-wide cleanup effort, and enable 
us to tackle cleanup problems that had no effective solutions. We are 
requesting $196.5 million in fiscal year 2001 for investments in both 
basic and applied research. These funds will target our highest 
priority needs and will be applied across the spectrum of science and 
technology work from basic research through deployment among EM's five 
major problem areas: mixed waste, high-level tank waste, subsurface 
contamination, deactivation and decommissioning, and nuclear materials.
    Our science and technology program has made a significant impact on 
how we conduct our cleanup operations. Over 75 percent of the 
approximately 250 innovative solutions made available for use over the 
past ten years are making real on-the-ground contributions. For 
instance:
  --Site characterization represents a large portion of the cost for 
        environmental restoration activities. We now have very 
        sophisticated, safe methods to identify, characterize, quantify 
        and monitor contamination.
  --New remotely operated machines now exist to perform work in 
        conditions that are too hazardous for humans, such as inside 
        radioactive waste tanks.
  --Among the new technologies making a difference is a process that 
        uses a concentrated caustic solution to dissolve and remove 
        large quantities of unwanted nonradioactive elements in the 
        sludge, thereby decreasing waste volume (Enhanced Sludge 
        Washing). This process has been selected as the technology to 
        be used to pretreat Hanford tank sludges where it is expected 
        to avoid $4.8 billion in costs compared to other technology 
        choices.
  --An in-ground ``wall'' of iron filings (Permeable Reactive Treatment 
        Wall) has been installed at the Kansas City Plant and 
        Monticello Uranium Mill Site to remove contaminants from 
        groundwater as the water passes through the ``wall.'' This 
        eliminates the need for a more costly ``pump and treat'' 
        system.
  --A third Passive Reactive Barrier is in place in the Solar Ponds at 
        Rocky Flats to destroy nitrates and remove uranium from 
        groundwater; compared against a thirty-year pump-and-treat 
        baseline, this technology will save more than an estimated $20 
        million. Other reactive barriers deployed at Rocky Flats have 
        been designed to destroy chlorinated solvents and capture 
        radionuclides.
  --Optimized use of the existing re-injection well network at the 
        Fernald site in Ohio will enable the site to accelerate 
        groundwater remediation. It may enable us to complete 
        groundwater remediation as much as 17 years ahead of schedule, 
        potentially saving the Department up to $50 million.
    EM's science and technology program is also now providing on-the-
ground technical assistance, sending some of our top scientists out of 
the laboratory and into the field to help with specific technical 
problems. Our first formal technical assistance effort was to identify 
solutions for groundwater remediation at the Paducah Gaseous Diffusion 
Plant in Kentucky. The federally-led team, including four national 
laboratories, responded quickly and produced a strong plan for 
aggressive remediation of the contaminants in the groundwater and the 
soil. It is my intention to continue this approach to ensure our 
cleanup efforts are based on technically defensible decisions.
    We are also pleased with the progress of our EM Science Program 
(EMSP), which is conducted in partnership with DOE's Office of Science. 
Since its inception in fiscal year 1996, EMSP has invested over $224 
million in support of 274 research projects. Our open, competitive 
approach has ensured the highest caliber of research involving 90 
universities, 13 national laboratories, and 22 other governmental and 
private laboratories. Research is being conducted in 34 states and the 
District of Columbia, two Canadian provinces, Australia, Russia, the 
United Kingdom, and the Czech Republic. Our efforts are already 
providing some encouraging results. For instance, a high-level waste 
research project, being led by Pacific Northwest National Laboratory, 
focuses on determining the effect of radiation on the stability of 
glasses and ceramics at an atomic, microscopic and macroscopic level. 
Because these materials are an integral part of the planning for the 
final waste forms of a number of DOE waste streams, an understanding of 
how radioactive materials influence their long-term stability is 
critical in material selection.
    The increasing number of deployments of new technologies to solve 
real cleanup problems demonstrates that the field is recognizing their 
value. Preliminary data, now being verified, indicate that during 
fiscal year 1999, DOE sites used innovative technologies 218 times in 
cleanup activities, 129 of which were first uses by the site. Of these 
deployments, 166 were science and technology-sponsored technologies. 
This is a definite and dramatic improvement over previous years. Since 
the inception of this program, we have seen nearly 450 deployments at 
DOE sites of 194 new technologies that were sponsored by EM's science 
and technology program. The accelerated site technology deployment 
effort initiated in fiscal year 1998 has contributed to these increased 
deployments. A total of 47 projects have been initiated that involve a 
total of 92 technologies. From a total life-cycle EM investment of $300 
million, we estimate $1.5 billion in life-cycle savings. Selections for 
new projects for fiscal year 2000 will be announced in March.
    To help ensure that this upward deployment trend continues, the 
Department is in the process of evaluating contracts with our site 
contractors to provide better incentives for them to use innovative 
technologies. We believe contract incentives, coupled with the 
integration of our technology developers and users, will ensure that 
the innovative technology we are providing is used to accomplish our 
cleanup goals cheaper, faster and safely.

                               CONCLUSION

    In conclusion, the Department is making progress in cleaning up the 
legacy of contamination left from the nuclear weapons production 
process. We are reducing our most serious risks, accelerating and 
finishing cleanup at sites across the country, safely storing and 
safeguarding weapons-usable nuclear materials, and reducing the long-
term costs of the program. We will continue to improve our project 
management, make the most effective use of our unique resources across 
the DOE complex, use science and technology to reduce costs and 
schedules, and maintain our focus on worker safety. We pledge to 
continue to work closely and cooperatively with the Congress to ensure 
that this progress continues and that we can meet the challenges ahead 
in the most effective way.

           APPENDIX A--SUMMARY OF THE FISCAL YEAR 2001 BUDGET

    The total fiscal year 2001 budget request for the Department of 
Energy's Environmental Management Program is $5.8 billion in 
traditional budget authority and $515 million of privatization funding. 
The fiscal year 2001 appropriation will fund cleanup at sites in 19 
states across the Nation. Five sites receive two-thirds of 
Environmental Management funding--Savannah River Site in South 
Carolina, the Richland Operations Office Hanford Site and Office of 
River Protection at the Hanford Site in Washington, Rocky Flats in 
Colorado, Idaho National Engineering and Environmental Laboratory in 
Idaho, and Oak Ridge Reservation in Tennessee.
    We are requesting $4,551.5 million in Defense Environmental 
Restoration and Waste Management (including $420 million for the 
Federal contribution to the Uranium Enrichment Decontamination and 
Decommissioning Fund); $1,082.3 million in the Defense Facilities 
Closure Projects; and $515 million in Defense Environmental Management 
Privatization. This totals $5,633.8 million in traditional budget 
authority and $515 million for privatization funding in the Defense 
accounts. The current appropriations levels in fiscal year 2000 are 
$4,467.3 million in Defense Environmental Restoration and Waste 
Management; $1,060.4 million in the Defense Facilities Closure 
Projects; and $188.3 million in Defense Environmental Management 
Privatization.
    Our fiscal year 2001 budget proposal provides details on each 
project, including performance measures, which we use to hold managers 
accountable, and expect to be held accountable by Congress. We would 
like to summarize the budget request and some major activities for 
several sites:
    1. Savannah River Site, South Carolina
    2. Hanford Site, Washington
    --Office of River Protection
    --Richland Operations Office
    3. Rocky Flats Environmental Technology Site, Colorado
    4. Idaho National Engineering and Environmental Laboratory, Idaho
    5. Oak Ridge Reservation, Tennessee
    6. Fernald Environmental Management Project, Ohio
    7. Waste Isolation Pilot Plant, New Mexico
    8. West Valley Demonstration Plant, New York
    9. Los Alamos National Laboratory, New Mexico
    10. Miamisburg Environmental Management Project (Mound), Ohio
    11. Paducah Gaseous Diffusion Plant, Kentucky
    12. Portsmouth Gaseous Diffusion Plant, Ohio
    13. Nevada Test Site and Operations Office, Nevada
    14. Weldon Spring Remedial Action Project, Missouri
    15. Brookhaven National Laboratory, New York
    16. California Sites. 
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
Savannah River Site, South Carolina Fiscal Year 2001 Request

                             (In thousands)

Defense, Site/Project Completion.............................. $452,871 
Defense, Post 2006 Completion.................................  814,013 
                    --------------------------------------------------------------
                    ____________________________________________________

      Subtotal................................................1,266,884 
Pension Fund Offset...........................................  (50,000)
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................1,216,884 

    The Savannah River Site continues its work to stabilize legacy 
nuclear materials and spent fuel from both the Savannah River Site and 
other sites across the complex, including plutonium residues and other 
plutonium-bearing materials from the Rocky Flats site in Colorado. This 
work is critical to resolve health and safety concerns, since these 
radioactive materials are now in liquid or unstable forms unsuitable 
for long-term storage, and to support closure goals at Rocky Flats. It 
is being carried out in response to Defense Nuclear Facilities Safety 
Board recommendations. In July 1997, the Secretary of Energy approved 
the operation of both the F-Canyon and H-Canyon for the stabilization 
of ``at-risk'' nuclear materials. In fiscal year 1999, these canyons 
stabilized plutonium residues and other nuclear materials. Activities 
were begun to characterize and repackage the Savannah River Site 
plutonium residues for stabilization.
    In fiscal year 2000 and fiscal year 2001, we will continue to 
operate the two canyons as well as FB-Line, 235-F, and HB-Line to 
stabilize plutonium-bearing materials and spent nuclear fuel. The 
budget request also includes activities associated with future 
vitrification of americium/curium solutions and, as discussed 
previously, the Highly Enriched Uranium Blend Down Project.
    We are not requesting funding for the Actinide Packaging and 
Storage Facility in fiscal year 2001. In light of the 1999 decision by 
the Department identifying Savannah River Site as the preferred 
location for new missions related to excess plutonium disposition, we 
have decided to temporarily suspend work on this facility until we can 
reevaluate the site's overall requirements and options to ensure, for 
example, that any facility developed is properly sized and integrated 
with other facilities, given these new missions. We are, however, 
continuing modification of facilities in the K-Area and are ready to 
receive surplus plutonium-bearing materials from Rocky Flats supporting 
the accelerated closure of that site.
    Much of the EM work at the Savannah River Site that will be 
completed after fiscal year 2006 involves management of approximately 
34 million gallons of high-level waste in tanks, including vitrifying 
waste for final disposal and removing waste from storage tanks so the 
tanks can be closed. In fiscal year 1999, the Savannah River Site 
workers closed another storage tank, removing waste and backfilling 
with grout, and produced 236 canisters of vitrified waste in the 
Defense Waste processing Facility (DWPF), 36 canisters above their 
fiscal year 1999 goal. As of February 2000, we had a total of 775 
canisters of vitrified waste in storage. The DWPF goal for production 
of canisters in fiscal year 2001 is 200.
    Due to the long-term nature of this project, we are able to develop 
and insert new and innovative technologies in the high level waste 
treatment train. We are currently moving forward with technologies that 
will make it easier to retrieve waste, to improve the way we 
decontaminate our canisters once they are filled, to reduce worker 
exposure through use of high efficiency filters that can be regenerated 
and reused, and to increase waste loading. These advances will allow 
DWPF to operate more efficiently and ensure that our goals for 
increasing canister production are realized.
    In-Tank Precipitation operations were terminated in January 1998 
because we were unable to successfully pre-treat the waste and limit 
the levels of benzene generation in the tanks to safe and manageable 
levels. Pre-treatment of the waste is necessary to separate the high-
activity and low-activity wastes, in order to minimize the amount of 
waste that must be vitrified and disposed in a deep geologic 
repository. We undertook a systems engineering analysis, which was 
reviewed by a panel of independent experts, to evaluate all possible 
alternatives. The Department will continue research and development in 
fiscal year 2001 on technology alternatives to support a decision on 
which technology to pursue.
    The fiscal year 2001 budget request continues support for receipt 
and storage at the Savannah River Site of spent nuclear fuel from 
domestic and foreign research reactors in support of national and 
international non-proliferation goals. In fiscal year 2001, we expect 
to receive 49 casks of spent nuclear fuel from foreign and domestic 
sources and safely store them at the Savannah River Site's basins. By 
the end of fiscal year 2001, we expect to have received almost one-
third of the spent fuel assemblies that we know other countries plan to 
return.
    We will also continue to treat and reduce our legacy of mixed and 
low-level waste at the site through continued operation of the 
Consolidated Incinerator Facility (473 cubic meters will be treated in 
fiscal year 2001). The first shipment of Savannah River Site 
transuranic waste to the Waste Isolation Pilot Plant will occur in 
September 2000; four additional shipments are scheduled for fiscal year 
2001.
    We will also continue to aggressively pursue the use of new 
technology to characterize and cleanup contaminated release sites and 
ground waste plumes. We are using the Vadose Zone Monitoring System to 
determine how fast and in what concentration contaminants are traveling 
to the ground water. This approach provides sensitive early warning of 
aquifer contamination from the E-Area shallow disposal trenches. In 
fiscal year 2000 we will deploy a steam injection system, recently used 
at our Portsmouth site, to destroy chlorinated solvents beneath the 
321-M Solvent Storage Area. This could replace the technology currently 
being used at the site and reduce the time of cleanup by more than 20 
years. In fiscal year 2001, we will complete remediation of one release 
site and assessments for eight others. We will also operate eight 
groundwater remediation systems.
    Finally, scientists and engineers at the Savannah River Site have 
been collaborating to develop a cost-effective path forward for some of 
the spent fuel through research and development of new technologies. 
This work is helping to address one of our most daunting problems--how 
to manage spent nuclear fuel and other nuclear materials without 
chemical separations. Our investment in the Alternative Technology 
Program has shown progress. A draft Environmental Impact Statement 
(EIS) identifying the ``melt-and-dilute'' process as the preferred 
alternative technology to prepare aluminum-based spent nuclear fuel for 
geologic disposal was issued in December 1998, and a final EIS is 
expected to be issued in March 2000. The fiscal year 2001 budget 
contains funds for the construction and startup of the L-Area 
Experimental Facility to demonstrate the viability of the melt and 
dilute process which will provide a firm basis for the design and 
construction of the full-scale facility. As other countries begin to 
address similar problems, these new U.S.-developed technologies will be 
available to help.

Hanford Site, Washington--Office of River Protection, Fiscal Year 2001 
Request

                             (In thousands)

Defense, Post 2006 Completion.................................  $382,139
Defense, Privatization........................................   450,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................   832,139

Richland Operations Office--Fiscal Year 2001 Request

                             (In thousands)

Defense, Site/Project Completion..............................  $349,467
Defense, Post 2006 Completion.................................   375,313
Non-defense, Site/Project Completion..........................     1,500
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................   726,280

    The Hanford Site in Washington remains perhaps our greatest cleanup 
challenge. The 560-square mile site was carved out of a broad curve of 
the Columbia River during World War II. It is now the nation's largest 
former nuclear weapons production site, and the cleanup of the Hanford 
Site is the largest, most technically complex, environmental cleanup 
project yet undertaken. The site contains large amounts of spent 
nuclear fuel, unstable weapons grade plutonium, 177 underground tanks 
containing 54 million gallons of high-level radioactive waste tanks, 
and more than 100 square miles of contaminated ground water. It is 
important not to lose sight of the successes and accomplishments that 
have occurred despite the serious remaining challenges. We believe that 
our fiscal year 2001 budget request for Hanford addresses the 
requirements for continued cleanup progress.
    Following Congressional direction in the Strom Thurmond National 
Defense Authorization Act for fiscal year 1999, the Department 
established the Office of River Protection (ORP) in December 1998. ORP 
is responsible for all aspects of the Tank Waste Remediation System--to 
store, treat, and immobilize the high-level radioactive Hanford Site 
tank waste in a sound, safe, and cost effective manner. Roles, 
responsibilities, and authorities for ORP are more fully specified in 
the Integrated Management Plan submitted to Congress in January 1999. 
The ORP reports directly to the Assistant Secretary for Environmental 
Management.
    The Richland Operations Office manages all aspects of the Hanford 
Site except the Tank Waste Remediation Program.
Office of River Protection
    ORP works with the Richland Operations Office to protect the health 
and safety of the public, workers, and the environment and to control 
hazardous materials to protect the Columbia River. Under the Defense 
Environmental Management, Post 2006 Completion account, ORP manages the 
Tank Waste Remediation System Project located on the central plateau 
(200 Area) of the Hanford Site. Treatment of the tank waste will be 
performed in two phases. Phase I will provide treatment for at least 10 
percent of the waste by volume and 20 to 25 percent of the 
radioactivity in the tanks and is being carried out by a contractor on 
a fixed price for services basis (privatization). The storage, 
retrieval, and disposition of the waste will be managed by ORP using a 
conventional cost reimbursement contract. In August 1998, the 
Department of Energy signed a contract with BNFL, Inc. that allowed for 
an initial 24-month period to enable the contractor to develop more of 
the design for the treatment facility and to obtain financing and 
submit a fixed-price bid.
    In fiscal year 2000, the Department will decide whether to 
authorize BNFL, Inc. to proceed to construction and operation, based on 
an evaluation of whether the proposal represents the best value for the 
taxpayer. To date, pilot testing has provided strong technical 
confirmation of pretreatment and vitrification capabilities. DOE and 
BNFL, Inc. have reached preliminary agreement on pricing methodology 
and major contractual terms. Financing of the project appears viable 
based on in depth discussions with financial institutions. BNFL, Inc. 
has mobilized a design and engineering team of over 600 people to 
support the privatization effort.
    Management of 177 underground high-level waste tanks remains one of 
the biggest challenges at the Hanford site. We have made significant 
progress in reducing the urgent risks associated with these tanks. The 
high heat safety issue was resolved in tank C-106 by diluting the waste 
and transferring it to a larger double-shell tank with a higher heat 
removal capacity. The surface level rise issue was resolved in tank SY-
101 by dissolving the crust on the surface of the waste through a 
series of waste transfers and back dilutions. Elimination of the crust 
will reduce the retention of flammable concentrations of gas in SY-101. 
We signed a Consent Decree with the State of Washington which 
established a schedule for interim stabilization of the single-shell 
tanks. To date, we have met all Consent Decree milestones, which 
includes initiating pumping of free liquids from six single-shell 
tanks. The contract for maintenance and operations of the tank farms, 
which will provide waste feed to the privatized treatment facility, has 
been placed directly under ORP.
    For fiscal year 2001, ORP will continue improving tank safety by 
resolving high priority safety issues such as flammable gas generation 
and by transferring free liquids from single-shell tanks to double-
shell tanks in accordance with the Consent Decree schedule. The 
remaining two tanks which are suspected of having leaked will be pumped 
during fiscal year 2001. In addition, design and construction will 
continue on tank farm retrieval systems and other infrastructure 
improvements necessary to support future waste feed delivery to the 
privatized treatment facility. One of these improvements is the use of 
a multi-function corrosion probe. This probe reduces the amount of 
sodium hydroxide that needs to be added to inhibit corrosion by 
allowing site workers to directly monitor the rate of tank corrosion. 
The potential savings from the use of this technology is in excess of 
$100 million.
    The fiscal year 2001 request for $450 million in privatization 
funding will be used to maintain momentum on high-level waste treatment 
design, initiate actions to proceed with long lead project procurement 
and construction, manage the project, and meet contractual commitments 
in the unlikely event of a termination of the privatization contract. 
It will provide the contractor and the financial community with 
assurance that costs incurred to mobilize the team, secure financing, 
and demobilize the team in the event of a contract termination will be 
fully supported.
Richland Operations Office
    The goals for the Hanford Site are the restoration of the Columbia 
River corridor (the majority of the Hanford land, including the river 
shoreline); transition of Hanford's 200 Area ``central plateau'' to 
long-term waste treatment and storage; and utilization of the 
government's Hanford assets, including land, cleanup technologies, and 
experience for the taxpayers.
    The Department is continuing to remediate waste sites and dispose 
of the contaminated soil and debris in the Environmental Restoration 
Disposal Facility (ERDF). In fiscal year 1999, ERDF received over 
320,000 cubic meters of contaminated soil and debris from cleanup sites 
along the Columbia River corridor. In fiscal year 2000 ERDF will 
receive over 170,000 cubic meters to complete interim closure of Cells 
1 and 2, and will complete construction of new cells 3 and 4.
    We are also pursuing the use of innovative technology to solve 
problems in the subsurface. In 1999, we deployed the In-Situ Redox 
Manipulation (ISRM) technology to treat groundwater contaminated with 
chromium. ISRM creates a chemically altered treatment zone in the 
subsurface to reduce the mobility of chromium. This technology is 
expected to save more than $6 million compared to the pump-and-treat 
technology that the site had planned to use.
    In fiscal year 1999, we restarted stabilization of plutonium oxides 
at the Plutonium Finishing Plant. In fiscal year 2000, stabilization 
activities will be expanded to begin stabilization of plutonium-bearing 
solutions and residues, as well as the continuation of plutonium oxide 
stabilization. Stabilization activities will eliminate the risk posed 
by the plutonium bearing materials and is a critical step in the 
deactivation of Plutonium Finishing Plant, which will significantly 
reduce mortgage costs at Hanford.
    In addition, we continue to decommission the reactor facilities in 
the 100 Area through the Interim Safe Storage Project. In fiscal year 
1999, the D and DR reactor stacks were demolished, and F and DR reactor 
decommissioning is proceeding ahead of schedule. In fiscal year 2000 
and 2001, decommissioning activities will continue at the DR and F 
reactors as well as at the 233-S Plutonium Concentration Facility.
    The Spent Nuclear Fuel Project will complete fuel retrieval, 
drying, transport, and storage system testing in fiscal year 2000. 
Additionally, non-mixed transuranic waste has been prepared for 
shipment to the Waste Isolation Pilot Plant, and the shipments will be 
initiated in fiscal year 2000.
    In addition, our fiscal year 2001 budget request supports a number 
of key commitments, including:
  --Begin K-West Basin spent fuel removal, drying, and transport to the 
        Canister Storage Building for dry storage. This effort will 
        begin to remediate one of the highest risks at the Hanford Site 
        posed by the fuel stored in the aging K Basins near the 
        Columbia River.
  --Complete 13 waste site remediations in the Hanford 100 and 300 
        Areas, and send 240,025 cubic meters of contaminated soil and 
        debris to ERDF.
  --Complete 12 shipments of 55 cubic meters of transuranic waste to 
        the Waste Isolation Pilot Plant for disposal.
  --Initiate and complete thermal treatment of 717 cubic meters of 
        mixed low-level waste at a contract facility.
  --The Hanford Site Groundwater/Vadose Zone Integration Project will 
        implement the high-priority Science and Technology activities 
        identified in fiscal year 2000.
  --Complete stabilization of 2,045 liters (cumulative total of 2,316 
        of 4,300 liters) of plutonium-bearing solutions and 500 
        containers (cumulative total of 1,050 of 5,845 containers) of 
        plutonium metals and oxides at the Plutonium Finishing Plant.
  --Begin operations of the bagless transfer system for packaging of 
        plutonium-bearing materials, and complete brushing and 
        repackaging of plutonium metal inventory at the Plutonium 
        Finishing Plant.

Rocky Flats Environmental Technology Site, Colorado Fiscal Year 2001 
Request

                             (In thousands)

Defense, Facilities Closure Projects..........................  $664,675

    Almost two-thirds (61 percent) of the Defense Closure Account 
request supports accelerated cleanup at the Rocky Flats Site, a former 
nuclear weapons production facility located 16 miles northwest of 
Denver, Colorado. The site was used to shape plutonium and uranium 
weapons components and for other defense-related production work. The 
cleanup poses significant challenges because of the large amounts of 
plutonium and other compounds remaining in tanks and production lines, 
the significant volumes of hazardous and radioactive wastes stored 
throughout the site, and widespread contamination of soils, sediments, 
and groundwater.
    The Rocky Flats Site is one of the highlighted projects, and 
certainly the largest site, for our goal of accelerating site cleanup 
and closure by 2006. There are many challenges facing this project, but 
we are confident that by remaining focused on our goal we can produce 
substantial savings and provide dramatic risk reduction. We recently 
awarded Kaiser-Hill, L.L.C. a closure contract valued at approximately 
$4 billion (excluding incentive payments) to complete the closure of 
the site. The target closure date is December 15, 2006, although the 
contract includes incentives for accelerated completion and reduction 
in fee for any delay beyond the targeted end date. This contract became 
effective February 1, 2000, and Kaiser-Hill is in the process of 
developing a revised 2006 baseline which will reflect the provisions of 
the new cost-plus-incentive-fee contract. These provisions include cost 
and schedule incentives focused on ensuring the cleanup is conducted 
safely in full compliance with all safety, health, environmental, and 
safeguard and security requirements. The contract also stipulates an 
assumption that level funding at $657 million will be provided through 
December 2006. Under the contract terms, Kaiser-Hill is assuming more 
financial responsibility than any site management contractor in the 
history of DOE. Significant progress has been made over the past year 
to transition from the previous 2010 Closure Baseline to 2006 Closure 
Project Baseline submitted last May. However, this contract formalizes 
the Department's commitment to achieve the closure of Rocky Flats by 
the end of 2006, and better positions the Department and Kaiser-Hill to 
meet--or even exceed--this. We have clearly come a long way since the 
earlier estimates that it would take $30 billion and 30 years to 
complete cleanup at Rocky Flats.
    The key ingredient for closing Rocky Flats is being able to move 
nuclear materials and waste off of the site. Making progress in this 
critical area requires not only preparing the materials and waste for 
shipment, but also making sure that the receiving sites are ready. We 
have made some significant progress, such as exceeding our planned 
shipments of low-level and mixed-low level waste for offsite disposal 
in fiscal year 1999. Also, we initiated shipments of transuranic waste 
to WIPP, disposing of 65 cubic meters in fiscal year 1999, and we are 
expecting to receive approval from the New Mexico Environment 
Department to resume transuranic waste shipments under the RCRA Part B 
Permit very soon. Rocky Flats will be the first site to be certified by 
New Mexico as meeting the requirements of the permit. In total, there 
are nearly 15,000 cubic meters of transuranic waste and approximately 
100,000 kilograms of plutonium residues that need to be packaged and 
sent to WIPP. There are also approximately 2,300 containers of nuclear 
materials which must be shipped off site by the end of 2002 to allow 
for the closure of the Protected Area, a critical step in the 2006 
Closure Project Baseline.
    The Department has clearly made enormous progress both in reducing 
risks at the site, and in greatly improving our management plans for 
cleanup and closure. Approximately 35 metric tons of plutonium residues 
have been stabilized and/or repackaged to date, and we expect to 
stabilize or repackage 41 metric tons in fiscal year 2000. In fiscal 
year 1999 we completed the shipments of pits to Pantex and weapons-
grade uranium to Y-12. We also shipped nearly half of the plutonium 
scrub alloy to Savannah River Site, and this campaign will soon be 
completed. Currently, we are continuing our preparations to initiate 
the shipment of plutonium metals and oxides to Savannah River for 
storage in the recently opened K-Area.
    We are making progress on demolishing buildings at Rocky Flats, not 
only reducing risks but also reducing mortgage costs required to 
maintain those excess buildings. The demolition of the Building 779 
cluster--which once held 133 contaminated glove boxes--was completed in 
early January. Our efforts to reduce risks and mortgages includes the 
use of innovative technology. For example, we are using new ways to 
stabilize and remove contamination using strippable coatings. These 
coatings are sprayed onto the surfaces of contaminated walls to reduce 
airborne contamination and worker exposure. In some cases airborne 
contamination is reduced by a factor of 900. In fiscal year 2000 we are 
moving forward with an automated robotic size reduction and packaging 
process. This technology which will be deployed in Building 776/777 
will improve worker safety and increase efficiency by allowing workers 
to remotely dismantle plutonium contaminated glove boxes.
    The fiscal year 2000 appropriation and fiscal year 2001 budget 
request for Rocky Flats ($664.7 million each year) fund the activities 
we have already identified as necessary for accelerated closure. We are 
committed to producing the following results:
  --Make significant progress in the decontamination and 
        decommissioning of Building 771 by tapping, draining and 
        removing remaining liquid process systems and dismantling, size 
        reducing and packaging glove boxes, tanks and other equipment 
        for shipment.
  --Ship nearly 8,000 cubic meters of radioactive waste offsite for 
        disposal.
  --Process more than 16 metric tons of plutonium residues in 
        preparation for safe disposition.
  --Package 960 containers of plutonium.
  --Ship over 1,000 containers of plutonium metals and oxides to the K-
        Area at the Savannah River Site.
    We are fully committed to maintaining our progress towards the 
accelerated cleanup at Rocky Flats, thereby reducing risk and long-term 
costs. We also understand the vital role of accelerated site closure to 
the community where commercial and residential development along the 
Denver-Boulder corridor has reached nearly to the fence line of Rocky 
Flats.

Idaho National Engineering and Environmental Laboratory, Idaho Fiscal 
Year 2001 Request

                             (In thousands)

Defense, Site/Project Completion.............................. $100,692 
Defense, Post 2006 Completion.................................  348,711 
Non-defense, Site/Project Completion..........................    1,856 
Defense, Privatization........................................   90,092 
                    --------------------------------------------------------------
                    ____________________________________________________

      Subtotal................................................  541,351 
Use of Prior Year Balances (Defense)..........................  (34,317)
Use of Prior Year Balances (Privatization)....................  (25,092)
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................   481,942

    The fiscal year 2001 budget request for the Idaho National 
Engineering and Environmental Laboratory (INEEL) supports the receipt 
and safe interim storage of spent nuclear fuel, including Naval and 
domestic and foreign research fuel; the storage and treatment of high 
level waste in 11 underground tanks; the cleanup of six ``release 
sites,'' or contaminated areas, and two surplus facilities; and the 
management of legacy waste, including transuranic waste to be shipped 
to the Waste Isolation Pilot Plant (WIPP). Many of the critical 
activities at the site are in accordance with the Settlement Agreement 
signed with the State of Idaho in 1995.
    One of the most complex challenges at INEEL is the remediation of 
buried wastes, contaminated release sites, contaminated soils, and 
ground water. Progress has been made under the Operable Unit 7-10 
Staged Interim Action Project for the cleanup of Pit 9 at the 
Radioactive Waste Management Complex (RWMC) with the insertion of 20 
probes into the pit and the planned sample coring of waste and soils 
later this year. A strategic review of the Pit 9/RWMC remediation 
effort is currently underway to determine an appropriate path forward. 
Progress at Test Area North is being made with the application of 
bioremediation to the cleanup of the ground water plume at the 
injection well. At the Test Reactor Area, remediation of identified 
release sites will be completed in fiscal year 2001, two years ahead of 
schedule. This includes four additional release sites added since the 
signing of the Record of Decision. At the Idaho Nuclear Technology and 
Engineering Center (INTEC), with the signing of the Record of Decision 
in fiscal year 1999, we are undertaking the complex process of 
remediating soil and ground water release sites while continuing to 
operate INTEC for spent fuel storage and waste management missions. In 
addition, we have plans to design and build the Idaho CERCLA Disposal 
Facility at this site, which will be used for the disposal of 
contaminated soils generated in the cleanup of INTEC and other 
contaminated sites at the INEEL.
    INEEL plays a key role in providing safe storage and management of 
spent nuclear fuel in support of the Administration's non-proliferation 
goals. INEEL received shipments of foreign research reactor fuel in 
fiscal year 1998 and fiscal year 1999 and will continue to receive 
shipments in fiscal year 2000 and 2001. In addition, INEEL is actively 
improving storage conditions at the site, transferring fuel from wet to 
dry storage, or from aging facilities to modern, state-of-the-art 
facilities. For example, we expect to complete the transfer of all 
spent nuclear fuel in wet storage in the CPP-603 South Basin to 
improved storage facilities well in advance of the Settlement Agreement 
milestone date of December 31, 2000. We will also complete moving Three 
Mile Island spent nuclear fuel and core debris from wet storage at Test 
Area North to dry storage at INTEC by the June 1, 2001, Idaho 
Settlement Agreement milestone date. The Department also plans to award 
a privatization contract in fiscal year 2000 for the packaging and safe 
interim storage of other spent nuclear fuel at the INEEL. The fiscal 
year 2001 budget request includes the use of $25 million in prior year 
balances for this project in the privatization account.
    A substantial portion of the INEEL budget request supports the 
management of high level waste. INEEL has about 1.3 million gallons of 
liquid sodium-bearing waste stored in 11 underground tanks, and about 
150,000 cubic feet of calcined mixed high level waste in separate 
robust temporary storage. Through June 2000, we will calcine a small 
percentage of the liquid. Calcined waste is in a more stable (solid 
granular) form for storage and is reduced in volume. After June 1, 
2000, the calcining facility will be placed in standby mode as required 
by the State of Idaho, until an environmentally safe, technically 
viable, and economic path forward can be identified for the final 
treatment of the calcine and liquid. A draft environmental impact 
statement (EIS) for the high-level waste alternatives has been issued, 
and a final EIS is planned for the end of fiscal year 2000. An 
associated Record of Decision is planned in early fiscal year 2001. 
Support activities include sampling and characterizing the liquid tank 
contents in fiscal year 1999 and fiscal year 2000, the sampling and 
characterization of air emissions from the calcining facility in fiscal 
year 1999 and fiscal year 2000, and submission of the first tank 
closure plan to the State in early fiscal year 2001 to permanently 
close tanks as they are emptied and removed from service.
    In fiscal year 1999, we deployed the Light Duty Utility Arm (LDUA) 
in Tank WM-188. The LDUA is the core of a suite of technologies that 
can inspect, sample, and retrieve waste remotely through openings in 
the tank dome. In this case, we visually inspected the tank interior 
and obtained samples of the tank waste. We are moving forward in 2000 
to inspect and obtain samples from two additional tanks. This 
information is critical to the preparation of the first tank closure 
plan due to the State in early fiscal year 2001.
    INEEL has approximately 65,000 cubic meters of stored transuranic 
waste and mixed low-level waste contaminated with transuranic 
radionuclides that must be removed from the State of Idaho under the 
terms of the 1995 Settlement Agreement. We continue to make progress in 
characterizing and processing the transuranic waste for shipment to the 
WIPP for disposal. In fiscal year 1999, the INEEL completed its first 
shipment of non-mixed transuranic waste to the WIPP, meeting a 
Settlement Agreement milestone, and additional shipments for a total of 
26 cubic meters. In fiscal year 2000 and 2001, the amounts of 
transuranic waste to be shipped to the WIPP will increase to 96 and 
1,160 cubic meters, respectively. Progress also continues on the 
Advanced Mixed Waste Treatment Project, a privatization project that 
will greatly increase the INEEL's processing capability for this waste. 
The National Environmental Policy Act evaluation for the project was 
completed in fiscal year 1999, and all environmental regulatory permits 
for the project are expected to be received in fiscal year 2000, 
enabling facility construction to begin in fiscal year 2000. 
Construction activities are targeted to continue in fiscal year 2001 
and fiscal year 2002, and the facility is expected to begin operations 
in fiscal year 2003. We are requesting $65 million in privatization 
budget authority for this project.
    INEEL now operates under the sponsorship of EM, and has been 
designated a lead laboratory assisting DOE with its Environmental 
Quality mission. The INEEL will continue to perform world-class 
scientific research and development, technology demonstration and 
deployment, and systems analysis and integration in support of EM 
across the DOE complex. A major initiative in subsurface science will 
improve the understanding of contaminant transport and fate in the 
subsurface environment. This will result in better decision-making and 
allow DOE to consider alternatives to baseline plans for cleanup, 
resulting in more efficient use of available resources. This initiative 
and other related activities will ensure a sound scientific basis for 
decision-making and full integration of science and technology into 
INEEL and EM operations.
    As part of EM's Lead Program Secretarial Office designation with 
respect to INEEL, EM assumes the function of landlord. This 
responsibility entails all construction, maintenance, and site-wide 
management of shared essential systems such as utilities, roads and 
infrastructure. This important function enables the safe and efficient 
accomplishment of the long-term and varied programs assigned to the 
INEEL.

Oak Ridge Reservation, Tennessee Fiscal Year 2001 Request

                             (In thousands)

Defense, Post 2006 Completion.................................  $293,896
UE D&D Fund...................................................   118,838
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................   412,734

    The Oak Ridge Reservation is comprised of three facilities--the Y-
12 Plant, the East Tennessee Technology Park (ETTP) (formerly the K-25 
uranium enrichment facility), and the Oak Ridge National Laboratory 
(ORNL). Funding for environmental management activities at Oak Ridge is 
included in the Defense, Post-2006 Completion Account, with funding for 
the cleanup of ETTP coming from both this account and the Uranium 
Enrichment Decontamination and Decommissioning Fund.
    The Department continues its efforts to reindustrialize facilities 
in Oak Ridge, particularly at ETTP. The primary goal is to clean up 
ETTP as quickly and as safely as possible so that the site can be 
reused as an industrial park. As of September 1999, about 850,000 
square feet of space has been leased to 30 private companies in a total 
of 51 separate leases. In some cases, the Department has conducted 
cleanup of the building and, in other cases, the private company is 
undertaking the cleanup. Overall, we estimate that this strategy will 
save $165 million in life-cycle costs. We are making good progress on 
the largest decommissioning project to date at ETTP. Cleanup of K-33, 
the first DOE uranium enrichment facility to be decommissioned, is 
already 27 percent complete as of February 2000, and most of the 
project's infrastructure is in place. The K-33 building is the largest 
building the Department has decommissioned to date. We will begin 
operations of the supercompactor in October 2000, which will reduce the 
volume of waste generated by cleanup of the buildings at ETTP and 
thereby reduce disposal costs.
    The Department has developed a DOE-wide policy to ensure that the 
health and safety of private industry workers at ETTP and other leased 
facilities are protected. The Department plans to evaluate the 
application of the reindustrialization approach at other sites to 
accelerate cleanup, reduce costs, and create private sector jobs.
    The fiscal year 2001 request continues support for the 
decommissioning of the Molten Salt Reactor Experiment at ORNL. This 
experimental nuclear reactor was designed to use a fuel of highly-
reactive uranium-233 blended with a molten salt coolant. After 4\1/2\ 
years of operation, the reactor was shut down in December 1969. The EM 
program has made substantial progress, with input from the National 
Academy of Sciences, in stabilizing and deactivating this reactor. For 
example, the EM program has installed and continues operation of a 
system to remove reactive gases from the reactor tanks and keep the 
reactor systems below atmospheric pressure until the fuel salt can be 
removed. In fiscal year 2001, we plan to complete the equipment 
installation and readiness assessment for fuel salt removal and convert 
uranium captured in the sodium fluoride traps to a stable oxide for 
storage.
    We have completed cleanup of the fourth of eight highly radioactive 
waste storage tanks, called the ``Gunite Tanks,'' at ORNL and have 
started work on the next tank, expected to be completed six months 
ahead of schedule. The tanks were built in 1943 and were used for waste 
from chemical separations (reprocessing) operations until the late 
1970's. The tanks vary in size, with some having a capacity of 170,000 
gallons (approximately the size of a 4-bedroom house). The estimated 
cost of the project is now $80 million, less than half the original 
estimate of $200 million. A key factor in the accelerated schedule has 
been the development of a variety of remote remediation technologies, 
such as the ``Houdini'' vehicle and a robotic arm that provide access 
to the tank interior, which have allowed work to proceed on two tanks 
simultaneously, rather than sequentially as initially planned. The 
lessons learned in deploying new technologies in the Gunite tanks are 
being shared with the Office of River Protection to accelerate cleanup 
of the tanks at Hanford.
    The Toxic Substances Control Act (TSCA) incinerator at Oak Ridge, 
permitted by the State to treat mixed radioactive and hazardous wastes 
regulated by the Resource Conservation and Recovery Act and by EPA to 
treat PCB-contaminated wastes regulated under TSCA, offers unique 
capability within the DOE system. In addition to treating wastes 
generated by Oak Ridge facilities, the TSCA incinerator has also been 
used to treat wastes from other sites in the DOE complex, providing a 
cost-effective and integrated approach to managing these wastes. 
However, the Governor of Tennessee rejected the Department's proposed 
annual burn plans for fiscal year 1999 and fiscal year 2000, citing 
equity concerns. Responding to these concerns, the Department limited 
the use of the incinerator to wastes generated at DOE sites managed by 
the Oak Ridge Operations Office. However, the publication of the Record 
of Decision for disposal of DOE low-level and mixed low-level waste in 
February 2000 based on the Waste Management Programmatic EIS should 
address the Governor's concern regarding the availability of disposal 
for waste from Oak Ridge.
    Construction of the Environmental Management Waste Management 
Facility is scheduled to be completed in fiscal year 2001, allowing 
operations to begin soon after. This facility has been designed for 
disposal of CERCLA wastes generated during the cleanup of the Oak Ridge 
Reservation. The facility is the critical component of the Department's 
cleanup plan for the Oak Ridge Reservation.

Fernald Environmental Management Project, Ohio Fiscal Year 2001 Request

                             (In thousands)

Defense, Facilities Closure Projects..........................  $290,793

    The cleanup activities at Fernald Environmental Management Project 
account for more than $290 million, or 27 percent of the funding in the 
Defense Facilities Closure Projects Account. The Fernald site, 
encompassing approximately 1,050 acres near Cincinnati, produced 
uranium for nuclear weapons from 1951 to the end of Cold War in 1989. 
Nearly forty years of uranium production left the Fernald Site with 
soil and groundwater contamination, a large backlog of wastes, 
including some unstable liquids, as well as stored nuclear materials 
such as depleted and enriched uranium. Several years of cleanup 
progress have included stabilization of liquid uranium solutions, off-
site shipment of low-level waste, and deactivation, decontamination and 
demolition of several large industrial buildings at Fernald. The 
current baseline calls for cleanup to be completed by fiscal year 2008, 
but the Department is seeking to complete work by fiscal year 2006. 
Groundwater remediation and long-term institutional controls will be 
necessary after active cleanup is completed.
    One approach we are taking to achieve the accelerated closure goal 
is the use of new technology. For example, we are saving time and money 
by using a suite of technologies that identify, in real time, 
radioactive contaminants in the soil. This rapid characterization 
reduces the amount of soil we have to excavate and improves worker 
productivity. We have already deployed this technology in three 
separate areas at Fernald. We estimate these technologies will reduce 
remediation cost by over $30 million.
    In fiscal year 2000, we will continue to dispose of waste into the 
On-site Disposal Facility, including debris from the completion of 
decontamination and decommissioning of all nuclear facilities and on-
site contaminated soil. In fiscal year 2001, we will complete the 
placement of a permanent cap on Cell 1. The availability of this 
facility is enabling us to accelerate disposal of contaminated soil and 
debris resulting from cleanup and building demolition at a significant 
cost savings.
    For the Silos project, in fiscal year 1999 we awarded subcontracts 
for Silos 1 and 2, and Silo 3. In fiscal year 2000 we will initiate 
pre-operational activities for Silo 3 remediation and in fiscal year 
2001 plan to initiate remediation of Silo 3, submit draft Record of 
Decision Amendment to the Environmental Protection Agency, and continue 
construction of Silos 1 and 2 Accelerated Waste Retrieval.
    We will continue to excavate and load Waste Pit material into 
railcars and transport these materials by rail for disposal. In fiscal 
year 1999, we disposed of 32,241 cubic meters of treated waste and are 
planning to treat and dispose of 92,570 cubic meters in fiscal year 
2000 and 91,570 cubic meters in fiscal year 2001.
    Finally, Fernald personnel have continued the process of razing 
deactivated and decontaminated industrial buildings. They completed 
demolition of 6 of the 11 major facility complexes (Maintenance 
Building/Tank Farm Complex), and plan to complete Plant 5 Complex in 
fiscal year 2000, and, in fiscal year 2000, continue decontamination 
and decommissioning of Plant 6 Complex, and initiate the East Warehouse 
Complex resulting in outyear reductions in mortgage and landlord costs.

Waste Isolation Pilot Plant, New Mexico Fiscal Year 2001 Request

                             (In thousands)

Defense, Post 2006 Completion.................................  $194,498

    Opening and operating WIPP is a key element of the Department's 
strategy to provide for the permanent disposal of the Department's 
inventory of radioactive transuranic waste. Currently a large amount of 
transuranic waste, more than 100,000 cubic meters, is being stored at 
more than two dozen sites around the United States. In many cases, this 
waste has been stored for decades. By shipping this waste to WIPP for 
disposal, the Department will be able to reduce the number of sites 
where this type of waste is stored, reducing the costs of storing this 
waste and the long-term risks to the public and the environment.
    On March 26, 1999, WIPP began operations, receiving its first 
shipment of defense-generated, non-mixed, transuranic waste from Los 
Alamos National Laboratory. The first shipment from INEEL was made in 
April 1999, thereby meeting an important milestone in the Idaho 
Settlement Agreement between the Department and the State of Idaho. The 
first shipment from the Rocky Flats site to WIPP was made in June 1999 
and represented the first step in meeting the Department's commitment 
to complete cleanup and site closure by December 2006.
    On October 27, 1999, the State of New Mexico issued the final 
Resource Conservation and Recovery Act (RCRA) permit, with an effective 
date of November 26, 1999. The permit contains numerous new provisions 
which must be incorporated in the generator and storage sites 
procedures, and staff must be trained to the new requirements. Quality 
assurance audits must be performed by DOE and audit reports must be 
submitted to the New Mexico Environment Department for approval before 
shipments under the permit can begin. The Department is striving to 
meet all permit requirements so that waste shipments can quickly 
resume, but has legally challenged certain provisions of the permit, 
including the financial assurance and certain technical requirements.
    Rocky Flats is the first site scheduled to resume shipments under 
the permit. DOE conducted a quality assurance audit at Rocky Flats in 
December, and submitted the audit report to New Mexico in late January. 
New Mexico approval of the audit report is expected by late February, 
and shipments are expected to resume within the next several weeks.
    The fiscal year 2001 budget request will allow WIPP to increase the 
receipt of contact-handled transuranic waste shipments from about 120 
shipments in fiscal year 2000 to about 485 shipments in fiscal year 
2001. The five sites scheduled to ship transuranic waste to WIPP in 
both fiscal year 2000 and fiscal year 2001 are Rocky Flats, INEEL, 
Hanford, Los Alamos, and Savannah River Site.
    The Carlsbad Area Office and the Office of Science and Technology 
have teamed up to develop and introduce technologies that reduce risk, 
ensure proper certification of shipments, and increase the movement of 
waste from storage to disposal. One of these technologies, HANDS-55, is 
a robotic system that handles and segregates waste in 55 gallon drums. 
This technology not only improves worker health and safety but will 
increase the throughput of waste available for final disposal.
    The funding request for fiscal year 2001 includes $20.8 million 
that will be paid into a trust fund established by the Department to 
meet the financial assurance requirements of the RCRA permit. In 
previous years, these funds were used to provide economic assistance to 
the State of New Mexico, as required by the WIPP Land Withdrawal Act of 
1996, but the Energy and Water Development Appropriations Act for 
fiscal year 2000 allowed the Department to use funds otherwise 
available to New Mexico for economic assistance to meet financial 
assurance requirements.
    The WIPP program also funds a variety of institutional programs 
that provide for operational oversight and other assistance for 
affected governments and stakeholder groups. Funds are included in the 
request for cooperative agreements with the Indian Tribes, 
Environmental Evaluation Group, Western Governors Association, and 
other State regional groups.
    The Department is relying on a privatization approach to procure 
shipping casks for transuranic waste transportation. This project 
received $19,605,000 in budget authority in the Defense Privatization 
account in fiscal year 1999 for the purchase of waste shipping 
containers to ship remote-handled transuranic waste from the generator 
sites to WIPP. The fiscal year 2001 budget request proposes to reduce 
this privatization funding to $15,513,000. This contract is expected to 
be awarded in June 2000.
    We have withdrawn the privatization project for transportation 
services for contact-handled transuranic waste and are funding this 
work through traditional appropriations. In 1999, Congress approved a 
reprogramming that allowed the EM program to acquire 12 contact-handled 
transuranic waste shipping containers to meet an urgent need for 
additional containers. EM reevaluated the acquisition strategy for the 
remaining transportation services and concluded that the project no 
longer fit the profile for privatization. The remainder of the capital 
equipment will now be funded from within the Post-2006 Account. The $21 
million for this privatization project will be used to offset the 
request for the Spent nuclear Fuel Dry Storage Project at INEEL.

West Valley Demonstration Plant, New York Fiscal Year 2001 Request

                             (In thousands)

Non-Defense, Post 2006 Completion.............................  $107,353

    Cleanup of the West Valley Demonstration Project, located in 
upstate New York near Buffalo, is being conducted at the site of the 
only commercial nuclear fuel reprocessing facility to operate in the 
United States. The private company processed commercial spent nuclear 
fuel to extract plutonium and uranium from 1966 to 1972, generating 
2,200 cubic meters of liquid high-level waste.
    The principal operation at West Valley is the solidification of the 
liquid high-level waste into borosilicate glass using a process called 
vitrification. The primary vitrification campaign began in June 1996 
and was completed ahead of schedule in June 1998. Vitrification of the 
high-level waste tank heels is currently underway and will be completed 
in fiscal year 2001.
    Following the vitrification of the high-level waste, the equipment 
and facilities used in carrying out the project will be decontaminated 
and decommissioned. The New York State Energy Research and Development 
Authority and DOE are working together and with stakeholders to 
formulate a preferred alternative for remediation and closure or long-
term management of the site. The estimated completion date for West 
Valley may extend to 2015 or beyond, depending on the decisions made 
through this process.
    Another critical element of the EM program at West Valley is the 
safe management of 125 spent nuclear fuel elements stored at the site. 
EM will continue surveillance and maintenance of the spent fuel 
facility to ensure safe storage until the spent fuel can be shipped to 
the Idaho National Engineering and Environmental Laboratory (INEEL) in 
fiscal year 2001.
    In fiscal year 2000, the Department will continue vitrification of 
the high-level waste tank heels (producing approximately five canisters 
of solidified high-level waste) and preparations for shipment of spent 
nuclear fuel. We also plan to complete an Environmental Impact 
Statement Preferred Alternative for cleanup and management of the site 
and to resolve responsibility issues with the State of New York.
    In fiscal year 2001, we will complete vitrification activities 
(producing approximately five canisters of solidified high-level 
waste), complete shipment of the spent nuclear fuel elements to INEEL, 
complete the final design for the Remote Handled Waste Facility, and 
continue off-site shipments of low-level waste for disposal.

Los Alamos National Laboratory, New Mexico Fiscal Year 2001 Request

                             (In thousands)

Defense, Post 2006 Completion.................................   $92,129
Non-Defense, Post 2006 Completion.............................     3,981
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................    96,110

    Our goal at Los Alamos National Laboratory is to complete cleanup 
work by 2013 and disposition of legacy waste by 2015. Through fiscal 
year 1999, the Department completed remediation of 1,401 of 2,000 
``release sites,'' or specific areas where releases of contaminants had 
occurred, and had decommissioned 41 out of 145 surplus facilities. We 
plan to complete cleanup of two release sites and two facilities in 
fiscal year 2000 and five release sites and one facility in fiscal year 
2001.
    A little more than half of the fiscal year 2001 request for Los 
Alamos funding is devoted to environmental restoration work, such as 
drilling new regional ground water wells to characterize the 
hydrogeology. It also includes cleanup work in anticipation of 
transferring land to the community. As required by law, DOE has 
identified ten parcels totaling about 4000 acres for potential transfer 
to the County of Los Alamos and the San Ildefenso Pueblos. We have 
published a final Environmental Impact Statement on the land transfers 
and a supporting Environmental Restoration Report, and are now 
preparing an implementation plan for cleanup of all land parcels that 
will be submitted to Congress in spring of 2000. DOE intends to follow 
a phased approach in accomplishing the land transfers, starting with 
the transfer of the relatively simple, uncontaminated parcels in 2000 
and continuing with the transfer of the more complex sites in the later 
years. The Department has budgeted approximately $4 million in fiscal 
year 2000 and fiscal year 2001 to address cleanup requirements for the 
ten parcels under consideration.
    The Los Alamos legacy waste project provides for the treatment, 
storage, and disposal of all legacy waste that is presently in storage 
at the Los Alamos National Laboratory. The legacy waste consists of 
mixed low-level waste, transuranic waste, and mixed transuranic waste. 
The waste was generated at 33 Technical Areas and is treated, stored, 
and disposed of in compliance with applicable Federal and State of New 
Mexico requirements.
    Los Alamos has accelerated the treatment and disposal of legacy 
mixed low-level waste and retrieval of legacy transuranic waste (both 
transuranic and mixed transuranic) stored on asphalt pads under earthen 
cover, and now expects to complete these activities a year earlier than 
previously planned. Treatment and disposal of legacy mixed low-level 
waste with an identified path for disposal is now planned to be 
completed in fiscal year 2003. Retrieval of legacy transuranic and 
mixed transuranic waste stored on Asphalt Pads 1 and 4 has been 
completed. Retrieval of waste drums on Pad 2 will begin during fiscal 
year 2000 with completion now scheduled for fiscal year 2002.
    Los Alamos National Laboratory was the first DOE site to receive 
authority to certify transuranic waste for shipment to the WIPP and the 
first DOE site to ship transuranic waste to the WIPP. We have completed 
17 shipments of legacy transuranic waste to the WIPP during fiscal year 
1999. Los Alamos plans to make 28 shipments to WIPP in fiscal year 
2001, which includes transuranic waste from the EM and Defense 
Programs.
    The Department designated Los Alamos as the lead laboratory for 
research and development efforts to support the Department's nuclear 
materials management. In this capacity, Los Alamos provides solutions 
to complex-wide technical and operational issues associated with 
stabilization and storage of plutonium and other nuclear materials.

Miamisburg Environmental Management Project (Mound) Fiscal Year 2001 
Request

                             (In thousands)

Defense, Facilities Closure Projects..........................   $94,353

    The Miamisburg Environmental Management Project, a 306-acre 
facility near Dayton, Ohio used for tritium and plutonium operations, 
consists of 152 buildings and approximately 230 potentially 
contaminated soil areas. We have a goal of completing cleanup of the 
site prior to 2006 and we are making good progress. By the end of 
fiscal year 2000, nearly one-half of the 107 buildings scheduled for 
removal will have been demolished or auctioned off, a quarter of the 42 
buildings scheduled to be transferred to the City of Miamisburg will 
have been decommissioned and decontaminated, and two-thirds of the 
potential soil release sites will have been remediated.
    In fiscal year 1999, Mound completed the disposition of its legacy 
low-level, mixed low-level and hazardous chemical waste streams. In 
fiscal year 2000 the site will complete the disposition of its 
remaining legacy nuclear materials, generally sealed sources that were 
used to calibrate and test equipment. The site will remove or cleanup 
three additional buildings in each of fiscal years 2000 and 2001 and 
will remediate six soil areas in fiscal year 2000 and nine more in 
fiscal year 2001. More importantly, the site will continue to 
accelerate remediation of the tritium operations facilities. This 
project comprises three highly contaminated, complex buildings and 
constitutes the site's ``critical path'' for cleanup and closure.
    We have negotiated an agreement to transfer the ownership of the 
site to the City of Miamisburg as remediation of discrete parcels are 
completed. In 1999, we transferred two buildings and 27 acres and this 
year we expect to deed over two more buildings and another 100 acres. 
Currently, 30 private businesses, employing 350 workers, are leasing 
facilities at Mound. The Department's Office of Nuclear Energy's 
radioisotope heat source program will remain at Mound after the cleanup 
and transfer of the rest of the site is concluded. The program will 
retain three of the site's current buildings.

Paducah Gaseous Diffusion Plant, Kentucky Fiscal Year 2001 Request

                             (In thousands)

UE D&D Fund...................................................   $78,000

    This uranium enrichment facility occupies a 3,500 acre site in 
Paducah--including 750 acres within the fenced security area and 2,000 
acres leased to the Kentucky Department of Fish and Wildlife. Initially 
constructed to support the Federal government's uranium enrichment 
program, the facility now produces enriched uranium for commercial 
nuclear reactors under the auspices of the U.S. Enrichment Corporation 
(USEC). USEC is responsible for all primary process facilities and 
auxiliary facilities associated with the enrichment services and for 
waste generated by current operations. The Department has 
responsibility for facilities, materials, and equipment not needed by 
USEC for their operations. EM is responsible for the cleanup of 
existing environmental contamination at the site and management of 
legacy waste.
    The cleanup problems and contaminants at Paducah include both on-
site and off-site contamination from radioactive and hazardous 
materials. The environmental problem receiving our earliest and most 
focused attention has been groundwater contamination, primarily 
trichloroethylene (TCE) and technetium-99, which has contaminated 
private residential wells. Two plumes traveling in a northeasterly and 
northwesterly direction extend more than two miles offsite in the 
direction of the Ohio River. A third plume, traveling southwest, 
extends 1,500 feet outside of the plant boundary. Dense non-aqueous 
phase liquids (DNAPLs) have also been found in the vadose zone on-site.
    There are also numerous contaminated areas around the site where 
chemical and radioactive wastes or trace amounts of plutonium and other 
transuranics were disposed or inadvertently spilled or otherwise 
released to the environment. We also must safely manage and disposition 
about 65,000 tons of scrap metal, and 6,000 cubic meters of low-level 
waste in drums, much of which is currently stored outdoors and exposed 
to the elements.
    The Department continues to pay municipal water bills for residents 
whose drinking water wells were affected by the groundwater 
contamination, and continues to monitor residential wells. We will 
continue to operate ``pump and treat'' systems installed at the 
northeast and northwest plumes during the early 1990's; approximately 
12,000 pounds of TCE have been extracted from groundwater since these 
systems began operation. In fiscal year 2000, an innovative technology, 
an in-situ permeable reactive barrier, will be installed in the 
Southwest Plume to treat the DNAPLs. In fiscal year 2001, we will issue 
a Record of Decision for final remedy for sources contributing to the 
northeast and northwest plumes.
    The fiscal year 2001 request for $78 million for Paducah cleanup 
activities is nearly $24 million more than in fiscal year 2000 and 
almost a two-fold increase from the appropriation in fiscal year 1999 
that will allow us to accelerate cleanup and respond to concerns raised 
by investigations by DOE's Office of Environment, Safety and Health 
(EH) about the pace of cleanup. In fiscal year 2000, DOE received an 
additional $6 million for Paducah through a budget amendment that has 
allowed us to accelerate the removal of ``Drum Mountain,'' a large 
scrap pile containing thousands of empty, radioactively-contaminated 
drums, which is a suspected source of contamination of the Big and 
Little Bayou Creeks from surface run-off. These drums will be removed 
in fiscal year 2000, and off-site disposal completed in fiscal year 
2001. Disposition of the remaining scrap metal will continue on an 
accelerated pace for completion by fiscal year 2003, a critical path 
activity to completing the burial grounds investigation and final site 
cleanup. We will complete an engineering and cost analysis for removing 
the scrap metal in fiscal year 2000 and initiate disposition in fiscal 
year 2001.
    The request also allows the Department to accelerate 
characterization and disposition of thousands of drums of low level 
waste which have been stored out of doors for many years and to begin 
removing contaminated equipment and materials from two large shut down 
facilities. The Department, U.S. EPA and the Commonwealth of Kentucky 
have identified these and other activities that could be accelerated to 
achieve cleanup completion in 2010 rather than in 2012 as planned under 
the current baseline. The Department continues to work with State and 
Federal regulators to ensure agreement on site priorities and to 
identify opportunities to accelerate cleanup.
    The Department has submitted to Congress a supplemental budget 
request for fiscal year 2000 funding that would provide an additional 
$8 million for cleanup activities at the Paducah site. The funds would 
be used to remove concrete rubble piles from the Wildlife Management 
Area, one of which was identified as having low levels of radiological 
contamination. The funds would also allow us to begin acceleration of 
other priority activities, such as stabilization of the shut-down 
facilities, in fiscal year 2000.

Portsmouth Gaseous Diffusion Plant, Ohio Fiscal Year 2001 Request

                             (In thousands)

UE D&D Fund...................................................   $76,200

    Initially constructed to support the Federal government's uranium 
enrichment program, the Portsmouth Gaseous Diffusion Plant now produces 
enriched uranium for commercial nuclear reactors under the auspices of 
the U.S. Enrichment Corporation (USEC). EM is responsible for the 
cleanup of existing environmental contamination at the site and 
management of legacy waste. Primary environmental problems include 
contaminated areas around the site where chemical and radioactive 
wastes were disposed or inadvertently spilled or otherwise released to 
the environment, remediation of several old landfills, disposition of 
legacy waste, and remediation and containment of groundwater 
contaminated with both radioactive contaminants, specifically uranium 
and technetium, and chemical contaminants such as trichloroethylene 
(TCE) and heavy metals. There is no off-site contamination, and 
groundwater contamination is contained within the shallow aquifer 
bedrock at 30 feet below land surface. With the requested increased 
funding in fiscal year 2000 and fiscal year 2001, EM plans to complete 
active remediation by fiscal year 2002 and all legacy waste disposition 
by fiscal year 2006.
    In fiscal year 1999, the Department completed all corrective 
actions required for release sites, or areas where releases of 
contaminants had occurred, located on the west side of the plant. A 
phytoremediation project was completed which involved planting 765 
hybrid poplar trees over a small groundwater plume area contaminated 
with industrial solvents. Phytoremediation uses the natural growth 
process of plants to treat contaminated soils, sediments, and 
groundwater. In addition, a 1-year steam stripping pilot study was 
completed on the groundwater plume located in the vicinity of retention 
ponds for the old chemical cleaning facility (X-701B), which resulted 
in the removal of 824 pounds of solvent contaminants.
    In fiscal year 2000, the Department will complete current 
investigations and interim corrective measures and begin final 
corrective actions required by regulatory agreements. We will focus on 
closure of the remaining hazardous waste units, containment and 
contaminant removal of on-site groundwater plumes, treatment or 
disposal of legacy waste, and surveillance and maintenance of shut down 
facilities and post-closure sites. We will begin implementing the final 
corrective actions for groundwater plumes and burial grounds located in 
the southern portion of the site by constructing the final groundwater 
treatment systems and initiating the construction of caps on several 
landfills.
    In fiscal year 2001, we will initiate construction of the final 
treatment system for the X-701B groundwater plume and continue removing 
contaminated soils from areas associated with this plume and in other 
areas. We will also begin construction of the final corrective action 
for the groundwater plume located in the vicinity of the main process 
buildings, for completion in fiscal year 2002.
    The Department has submitted to Congress a supplemental budget 
request for fiscal year 2000 funding that would provide an additional 
$8 million for cleanup activities at the Portsmouth site. The funds 
would be used to accelerate the disposal of hundreds of containers of 
cleanup waste generated from earlier removal actions. We would also 
accelerate the characterization of thousands of drums of low level 
waste, a necessary step before the waste can be disposed. These wastes 
have been in storage for many years, and many of the drums are 
deteriorating and require constant surveillance. The fiscal year 2001 
request would continue acceleration of these activities.

Nevada Test Site and Operations Office, Nevada Fiscal Year 2001 Request

                             (In thousands)

Defense, Post 2006 Completion.................................   $90,212

    The Nevada Operations Office manages $90 million for cleanup and 
waste management activities at the Nevada Test Site, as well as 
remediation of eight other inactive sites contaminated by past DOE 
nuclear testing in five states (Alaska, Colorado, Mississippi, Nevada, 
and New Mexico). The Nevada Test Site (NTS) is located 65 miles North 
of Las Vegas and encompasses 1,350 square miles (an area roughly the 
size of Rhode Island). In addition to the cleanup of radioactive 
contamination resulting from above- and below-ground testing of nuclear 
weapons and management of its on-site waste, NTS plays a crucial role 
for other DOE sites as one of the major low-level waste disposal 
facilities in the DOE complex.
    The Department expects to complete restoration of the surface areas 
at the inactive test sites other than NTS and to complete shipments of 
transuranic waste from NTS to WIPP by fiscal year 2006. The Department 
will continue to operate low-level waste disposal facilities at NTS for 
the DOE complex. Institutional controls and groundwater monitoring will 
be maintained at closed sites for the foreseeable future.
    We are making progress in cleaning up contamination at NTS and in 
addressing concerns about ground water contamination. We plan to 
complete the cleanup of 575, or about 28 percent, of the ``release 
sites'' at NTS by 2000. We will continue groundwater characterization 
efforts. Based on new scientific findings about transport of plutonium 
and other actinides in groundwater, the Department is increasing its 
efforts to characterize groundwater at NTS and improve our 
understanding of this complex issue. Two additional wells will be 
drilled in fiscal year 2001 at the underground test area at Frenchman 
Flat, per recommendation of the groundwater peer review group and the 
State, to validate ongoing monitoring and modeling of the site.
    NTS will continue its important role as a disposal site for low 
level radioactive waste from other DOE sites. In fiscal year 2000, the 
Department expects to dispose of more than 14,000 cubic meters of low-
level waste, more than half of which is from other DOE sites and plans 
to dispose of 11,000 cubic meters of low level radioactive waste at NTS 
in fiscal year 2001. In December 1999, the Department announced its 
site preferences for disposal of DOE low-level and mixed low-level 
waste based on the Waste Management Programmatic Environmental Impact 
Statement, identifying NTS as one of two disposal sites in the DOE 
complex, and on February 25, 2000, we published a formal Record of 
Decision.
    The fiscal year 2001 request provides for characterization of 
transuranic waste drums, in preparation for shipment to begin to the 
Waste Isolation Pilot Plant in fiscal year 2002. We expect to open the 
transportation waste corridor from the Nevada Test Site to WIPP in the 
end of fiscal year 2001.

Weldon Spring Site Remedial Action Project, Missouri Fiscal Year 2001 
Request

                             (In thousands)

Non-Defense, Site Closure.....................................   $53,116

    The Weldon Spring Site Remedial Action Project in Missouri includes 
a decommissioned uranium processing plant, an abandoned quarry used as 
a dump site, as well as numerous vicinity properties that were 
contaminated by uranium and thorium processing operations conducted for 
nuclear weapons support in the 1950's and 1960's, similar to the 
Fernald Site in Ohio.
    Cleanup of the Weldon Spring Site is currently planned for 2003. 
All contaminated material will be placed in an on-site, above-grade 
cell for permanent disposal. Long-term surveillance and monitoring for 
the disposal facility will be conducted after project completion, and 
the remaining land will be released for unrestricted use.
    In fiscal year 1999, we continued waste placement in the 1.5 
million cubic yard capacity disposal facility, with about 650,000 cubic 
yards of material being placed in the facility in fiscal year 1999, for 
a total to date of over 1.3 million cubic yards in just 2 years. We 
expect to complete all waste placement in fiscal year 2000, with only 
the completion of the facility cover, begun in fiscal year 1999, 
remaining. In fiscal year 1999, we finished treatment of waste pit 
sludge in the Chemical Stabilization and Solidification Facility, with 
about 180,000 cubic yards of treated sludge placed in the disposal 
facility, and the treatment facility was decommissioned. We began 
remediation of the waste pits in fiscal year 1999 and plan to complete 
this work in fiscal year 2000. We began restoration of the quarry area 
in fiscal year 1999 and will continue this work in fiscal year 2000, 
including the start of operations of the quarry groundwater interceptor 
trench. The Record of Decision that will establish the remedy for 
groundwater contamination at the site is expected to be finalized in 
fiscal year 2000.
    In fiscal year 2001, the construction of the disposal facility 
cover will be nearly completed. We will complete the treatment of 
trichloroethylene contaminants in groundwater. Work will continue on 
cleanup of site facilities and the soil borrow area. We will also 
continue cleanup of the quarry area, including the groundwater 
interceptor trench operation.

Brookhaven National Laboratory, New York Fiscal Year 2001 Request

                             (In thousands)

Non-Defense, Site/Project Completion..........................   $27,233

    At the Brookhaven National Laboratory, we are continuing to treat 
contaminated groundwater and, in September 1999, began operation of the 
first off-site groundwater treatment system, to complement several 
systems already in operation on the Brookhaven site. This off-site 
treatment system, installed under EM's Accelerated Site Technology 
Deployment program, uses innovative technology (in-well air stripping) 
to extract contaminants within the well. We have nearly completed the 
stakeholder and regulatory review process to finalize groundwater 
remedies, and expect the Record of Decision to be signed this Spring. 
Over the remainder of fiscal year 2000 and 2001, we will design and 
install additional groundwater treatment systems.
    In September 1999, DOE and state and federal regulators finalized 
the remedy for contaminated soil, which involves excavation and off-
site disposal. Remedy design is underway, and we will begin soil 
excavation later this year. Soil excavation will continue over the next 
several years.
    The proposed remedy for cleaning up contaminated sediments in the 
Peconic River is currently under regulatory and stakeholder review. The 
proposed remedy involves excavation of contaminated sediments, with 
disposal off-site, and restoration of affected wetlands. We anticipate 
finalizing the Record of Decision for this project by the end of fiscal 
year 2000, with remedial design activities beginning in fiscal year 
2001.
    In February 1999, the Office of Environmental Management assumed 
responsibility for characterizing, stabilizing, and decommissioning the 
Brookhaven Graphite Research Reactor. Since that time, we have 
undertaken substantial project planning, and field work has already 
begun. This project is being executed as a series of removal actions, 
allowing an early start to decommissioning. Under current planning, we 
will accomplish substantial field work by the end of fiscal year 2001, 
including removal of above-ground ductwork and below-ground piping.
    In fiscal year 2000, the EM program will continue disposal of 
legacy wastes and storage, treatment and disposal of wastes generated 
by on-going Brookhaven operations. In fiscal year 2001, management of 
newly-generated waste will transfer to the Office of Science. EM will 
continue management of legacy waste; we expect to complete legacy waste 
disposal in fiscal year 2001.

Sites in the State of California Fiscal Year 2001 Request

                             (In thousands)

Defense, Post 2006 Completion--Lawrence Livermore National 
    Laboratory................................................   $48,500
Defense, Site/Project Completion--Lawrence Livermore National 
    Laboratory................................................     2,000
Non-Defense, Post 2006 Completion:
    Energy Technology Engineering Center......................    17,500
    General Electric..........................................     2,000
    Oakland Operations Office.................................        10
Non-Defense, Site/Project Completion:
    Lawrence Berkeley National Laboratory.....................     5,000
    General Atomics...........................................       100
    Laboratory for Energy-Related Health Research.............     6,500
    Stanford Linear Accelerator Center........................     1,400
    Oakland Operations Office.................................        90
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................    83,100

    Lawrence Livermore National Laboratory.--Lawrence Livermore 
National Laboratory consists of two geographical sites--the Main Site, 
an operating weapons research and development laboratory, and Site 300, 
located about 15 miles east of the Main Site, which has been used to 
test high explosives and other technologies for defense programs. The 
EM program is responsible for waste management of both legacy and waste 
generated from on-going operations. It also is responsible for 
remediation of the site, which includes cleanup of hazardous 
contaminant releases to the soil and ground water contamination at the 
Main Site, and releases of hazardous and radioactive materials to soil 
and ground water from landfills, drum storage areas, and dry wells at 
Site 300. Both sites are listed on the Superfund National Priorities 
List and have cleanup agreements with U.S. EPA and the State of 
California.
    At the Main Site, we are making significant progress using pump and 
treat technology to capture and contain contaminant groundwater plumes 
moving offsite. We are using an aggressive cleanup strategy to contain 
and extract groundwater contaminants, which supplements the existing 
permanent treatment system network with portable treatment units, and 
emphasizes specific source area removal. In fiscal year 1999, we 
expanded the permanent groundwater treatment facilities and installed 
several portable treatment units to remove contaminants at several 
locations. In fiscal year 2000 we are evaluating several advanced 
technologies that would enable us to cost-effectively remediate source 
areas in fine-grained sediments where contaminants are hard to reach. 
In fiscal year 2001, we plan to apply an electro-osmosis technology to 
remove groundwater contaminants more effectively and to install 
additional extraction wells and portable treatment units. Cleanup of 
the Main Site is scheduled to be completed in 2007.
    In fiscal year 1999, we began operation of a treatment facility to 
treat explosive wastes. In fiscal year 2000, we have completed testing 
of the Molten Salt Oxidation unit for treating mixed low-level and 
hazardous waste and have awarded a contract to a commercial vendor who 
will own and operate the treatment unit to treat waste. In fiscal year 
2001 we will complete construction of the Decontamination and Waste 
Treatment Facility, a treatment system for mixed low-level waste, and 
begin operational testing.
    At Site 300, we have focused on removal actions such as capping the 
Pit 6 Landfill to control release and getting groundwater treatment 
systems in place to contain off-site plume migration, and on 
characterizing the contamination at the site. In fiscal year 1999, we 
installed a cost-efficient portable groundwater unit to treat 
groundwater and control plume migration from the site. In fiscal year 
2000, we will issue final plans and schedules for site-wide cleanup of 
the site and begin design work in fiscal year 2001. We will also begin 
operation of an innovative groundwater treatment system in a canyon in 
the southeast part of the site using the Iron Filing/Geosyphon 
technology to remediate high concentrations of contaminants in 
groundwater. We plan to complete cleanup at Site 300 by 2008.
    General Atomics.--General Atomics is a privately-owned and operated 
site, located near San Diego. General Atomics has maintained and 
operated a Hot Cell Facility for over 30 years to conduct both 
government and commercially funded nuclear research and development. EM 
responsibilities have been cleanup of the Hot Cell Facility and 
surrounding contaminated soils. In fiscal year 1999, we completed the 
dismantlement of the Hot Cell Facility and soil remediation activities. 
In fiscal year 2000, after an independent verification certification is 
conducted, all EM activities at the Hot Cell Facility will be complete 
except for surveillance and maintenance of spent nuclear fuel. The 
spent nuclear fuel will remain on site until 2005, at which time it 
will be shipped to the Idaho National Engineering and Environmental 
Laboratory for interim storage.
    Laboratory for Energy-Related Health Research.--The Laboratory for 
Energy-Related Health Research is located at the University of 
California, Davis. Research at the laboratory originally was directed 
toward the health effects from chronic exposure to radionuclides using 
animal subjects to simulate radiation effects on humans. The Department 
terminated the research program and closed the laboratory in 1988. EM 
activities are directed toward cleaning up the DOE areas of 
contamination for eventual release back to the University without 
radiological restrictions. The site was put on the Superfund National 
Priorities List in 1994, and a Federal Facility Agreement was signed in 
fiscal year 1999.
    We are achieving significant cleanup progress at this site. In 
fiscal year 1999 we completed contaminated soil removal from the 
southwest trenches and shipping of low-level, legacy biowaste. In 
fiscal year 2000, we will complete the closure of the mixed waste 
storage facility and remove three dry wells, a distribution box and 
piping, and Domestic Tank 2. In addition, several removal actions will 
be completed in fiscal year 2001, including the Colbalt-60 source, 
Domestic Tanks 3, the radium tank, Imhoff Facility tanks and associated 
leachfield. However, due to additional contamination found and volumes 
of waste removed during soil excavation of the southwest trenches in 
fiscal year 1999 and additional regulatory requirements related to 
health and safety, project completion has been extended to fiscal year 
2004 from fiscal year 2002.
    Energy Technology Engineering Center.--The Energy Technology 
Engineering Center is a DOE facility located on 90 acres of land leased 
from Boeing North American Corporation in Simi Valley, California. EM 
activities at this site involve remediation of contaminated 
groundwater; decontamination and decommissioning of the remaining 
radiological facilities; deactivation and cleanup of existing sodium 
facilities; landlord functions; and characterization and off-site 
disposal of waste.
    In fiscal year 1999, the Department completed the decontamination 
and decommissioning of the Small Component Test Loop and Reactor Test 
Facility, with demolition planned for fiscal year 2000. In fiscal year 
2000, we will also decontaminate and decommission of the Former Sodium 
Disposal Facility, and begin work at the Hazardous Waste Management 
Facility. In fiscal year 2001, we will continue decontamination and 
decommissioning of the Hazardous Waste Management Facility and complete 
below-grade work at the Reactor Test Facility. We will also dispose of 
500 cubic meters of low-level waste; and continue landlord activities 
associated with deactivation, equipment divestiture and records 
retention. We now expect to complete EM's cleanup responsibilities and 
return the site to Boeing North American in 2007.
    Stanford Linear Accelerator Center.--This 426-acre site at Stanford 
University is managed for DOE by the University to conduct theoretical 
research in high-energy particle physics. Remediation activities at the 
site involve the cleanup of polychlorinated biphenyls (PCB)-
contaminated soil areas and several solvent-contaminated groundwater 
and soil areas. Fiscal year 1999 activities involved characterizing the 
Lower Salvage Yard and completing restoration of the master substation 
area. In fiscal year 2000, contaminated soils in the Research Yard and 
the Lower Salvage Yard were excavated, and a remedial investigation of 
the IR-6 Drainage Channel was completed. We will complete the 
Feasibility Study and pilot testing of the soil vapor extraction system 
at the Former Hazardous Waste Storage yard in fiscal year 2001. The 
Department expects to complete cleanup at the site in fiscal year 2002.
    Lawrence Berkeley National Laboratory.--EM responsibilities at 
Lawrence Berkeley National Laboratory include storage, treatment and 
off-site disposal of both legacy waste and hazardous and radioactive 
waste generated by current operations, and remediation of contaminated 
soil and groundwater created from past Departmental operations. In 
fiscal year 2001, we will continue to excavate contaminated soils at 
on-site locations and operate groundwater treatment systems to contain 
off-site plume migration, and will continue off-site disposal of 
hazardous and radioactive waste. The Office of Science will assume 
responsibility for newly generated waste in fiscal year 2001, but EM 
will continue to store, treat, and disposal of legacy waste. We plan to 
complete cleanup at the site by 2003.

                     PADUCAH GASEOUS DIFFUSION PLAN

    Senator McConnell. Thank you, Dr. Huntoon. Did I hear you 
correctly, that you are going to get Drum Mountain cleaned up 
by the end of the year, as you said last October?
    Dr. Huntoon. By the end of this year, that is correct.
    Senator McConnell. Yes. And you are working apace, are you? 
I mean----
    Dr. Huntoon. We----
    Senator McConnell [continuing]. Progress has been made?
    Dr. Huntoon. It is underway. We issued a request for 
proposal and have awarded the contract for it, and the work has 
begun.
    Senator McConnell. So that is a commitment we can count on 
being kept?
    Dr. Huntoon. Yes, sir.
    Senator McConnell. Thank you.
    I am sure you have reviewed the draft report by the General 
Accounting Office regarding the cleanup plan for the Paducah 
plant. GAO concluded that the Department has purposefully 
ignored numerous hazardous waste sites known as DOE Material 
Storage Areas, DMSAs, that are scattered across the site.
    It is my understanding that several of these waste piles 
pose a criticality threat. Overall, this material makes up 1 
million cubic feet of uncharacterized waste that is not 
included in the overall cleanup plan.
    GAO contends that as long as this waste remains 
uncharacterized, DOE can ignore the material and it will not be 
added to the long list of cleanup responsibilities. GAO has 
stated that as long as Mr. Magwood's Office of Nuclear Energy 
controls this material, it will remain outside of the overall 
scope of cleanup.
    So I have several questions in that regard. First, why are 
not the 148 DMSAs included in the overall site cleanup plan?
    Dr. Huntoon. Senator, I believe that the reason that is, is 
because these areas are comprised of potentially useful 
materials, excess materials if you will, that were brought 
there for use by the company doing the work. USEC reviewed it, 
and it is my understanding they concluded they did not need the 
material, and turned it back over to the Nuclear Energy Office.
    I do not know that the materials have been characterized as 
waste. I think it is considered excess materials. So it has not 
been turned over to Environmental Management to deal with it.
    Senator McConnell. Well, the staff tells me it is really 
not excess material, that it--that the cylinders really are 
part of the DMSAs.
    Dr. Huntoon. Okay. I am not aware of that.
    Senator McConnell. Okay.
    Dr. Huntoon. I thought the DMSAs were materials that were 
scavenged from the closure of other facilities and brought 
there for use.
    Senator McConnell. So the----
    Dr. Huntoon. I have not been brought up to speed, on 
exactly what is in all of those DMSAs. But that is what I was 
led to believe.
    Senator McConnell. So the rationale----
    Dr. Huntoon [continuing]. That is----
    Senator McConnell [continuing]. For giving----
    Dr. Huntoon [continuing]. Something we will be looking at.
    Senator McConnell. So the rationale for giving Mr. 
Magwood's office responsibility for material that, clearly, 
should be cleanup in our view, is what again?
    Dr. Huntoon. Well, I did not make that decision, Senator, 
but let me tell you: I think it is because we are dealing with 
the materials that are no longer wanted by anyone, and that 
needs to be dealt with.
    I believe the DMSAs--and I will have to ask Mr. Magwood, 
but I believe the DMSAs were part of excess materials when the 
contractor took over the facility in Paducah. They are 
materials that need to be dealt with. But they have not been 
turned over to the EM program as waste to be dispositioned.
    That is probably something that we will have to consider, 
and certainly will, when we get the GAO report.
    Senator McConnell. But it is hard to imagine a reason why 
the 57,000 cylinders of depleted uranium should not be 
transferred to your office immediately, is there?
    Dr. Huntoon. Well, I guess there is no reason why we should 
not consider it.
    Senator McConnell. You know, it----
    Dr. Huntoon. It is just not our responsibility the way the 
Department set it up.
    Senator McConnell. I know, but just sort of looking at it 
from outside, it is hard to conclude that this is not an 
attitude of indifference toward cleanup.
    So I would like to get you to commit to fully 
characterizing every single DMSA and building at the Paducah 
plant and ensure that it is included in the overall cleanup 
plan.
    I would hope you would provide me and the subcommittee with 
an appropriate time--time table and cost estimate for the 
cleanup of all of this material. Can you--can you make that 
commitment, Dr. Huntoon?
    Dr. Huntoon. I will commit to you, Senator, that I will go 
back to the Department and work with people to try to find out 
how we can best characterize that material and get an overall, 
total cleanup picture for Paducah.
    I share your frustration with the division of labor, at 
many of our sites. And this is a primary example, because 
different work is done by different programs within the 
Department. That is our current division of labor and it is 
awfully hard sometimes to get a total picture of it.
    So I will commit to you to go back to the Department and to 
work to provide you with a complete picture of the cleanup.
    Senator McConnell. And if you think it is hard for you to 
figure it out, imagine the frustration of those--of all of the 
rest of us.
    Dr. Huntoon. Yes, sir.
    Senator McConnell. How long do you think it will take you 
to pull that together and give me a report on that?
    Dr. Huntoon. I do not know. But I will get back to you just 
as soon as I can muster a group to look at that.
    Senator McConnell. Well, do it as soon as you can.
    Dr. Huntoon. I will.
    Senator McConnell. I would really appreciate it.
    Dr. Huntoon. I will.

              ADEQUACY OF THE URANIUM ENRICHMENT D&D FUND

    Senator McConnell. The decontamination and decommissioning 
fund was created to pay for the removal and cleanup of the 
nation's three diffusion plants. Nuclear utility companies 
contribute to this fund, which has a balance of $1.6 billion.
    Given the level of cleanup required at the three facilities 
and increased cost estimates, what is the likelihood that the 
fund will be adequate to cover all necessary cleanup 
activities?
    Dr. Huntoon. Well, Senator, I believe the fund would be 
adequate. I am not sure that we have always asked for the full 
amount required from the fund, or that our requests for cleanup 
in the past have not always been approved.
    I think we are getting a better idea of what cleanup is 
going to cost at both Paducah and Portsmouth. As to whether 
there is enough money there, I cannot exactly say. I know that 
our cost for cleaning up those facilities has increased, as we 
have gotten better baselines, and particularly considering the 
ground water contamination. And we are working to understand 
that better.
    Taking into account the recent draft GAO report that I saw 
this week, they have certainly questioned a lot of the 
assumptions that were made in the total cleanup numbers. So I 
think we are going to probably have to address those issues 
also.

                  depleted Uranium cylinder conversion

    Senator McConnell. Finally, are there any specific 
prohibitions on the use of D&D funding for conversion of the 
depleted uranium--uranium cylinders that, as you know, have 
been rusting away for the past 50 years?
    Dr. Huntoon. Not to my knowledge. There may be, but I do 
not know of it.
    Senator McConnell. Okay.
    Senator Murray?

            CLEANUP OF THE HIGH-LEVEL WASTE TANKS AT HANFORD

    Senator Murray. Thank you, Mr. Chairman.
    Dr. Huntoon, certainly from my perspective, the 
department's most compelling environmental management need is 
the clean up of the high-level waste tanks at Hanford. These 
tanks are well beyond their expected life time, and many of 
them have already leaked. There are plumes of radioactive 
contamination that are slowly moving toward the Columbia River. 
And this is very disconcerting to those of us who live and work 
in the Pacific Northwest.
    As you know, the department has to work through a legally 
enforceable consent decree that is negotiated with the State of 
Washington to adhere to a clearly understood schedule for the 
removal of the waste from these tanks and for their 
vitrification into a form that is suitable for disposal. But 
negotiations to revise the tri-party agreement, as you know, 
recently broke down. And regulators with the State and the 
regional EPA office recently imposed deadlines to keep DOE on 
track for building the vitrification and treatment facilities.
    Can you describe for us what the Department's plans are to 
resolve the tri-party agreement dispute and to maintain the 
schedule for stabilizing and cleaning up the high-level waste 
in the Hanford tanks?
    Dr. Huntoon. Yes, Senator Murray. As you cited, dealing 
with those high-level waste tanks on the banks of the Columbia 
River is one of our very highest priorities. And when we talk 
about things that we consider are risky to the environment and 
people, those tanks certainly stand out in our minds as the 
most important.
    And that is one of the reasons we undertook this 
privatization approach with a contractor to deal with the high-
level tanks. That is now on schedule: we are to get a proposal 
from the contractor for that on April 24, I believe. And then 
we will spend the next several months, of course, negotiating 
with them.
    If after working through that it is acceptable, in July, we 
owe a report to Congress. And if there are no problems with 
that and we get the go-ahead, we will sign the contract in 
August. And that is the schedule to begin the work on that 
plant.
    And I mention that, when you asked what we were doing, 
because that is the first step toward dealing with the high-
level waste, to have a contractor in place to build the 
vitrification facility. That will--the August date for signing 
that contract is critical to meeting the tri-party agreement 
milestones.
    Another milestone that is very important to us is 2007, 
when we are supposed to begin treating waste in that new 
facility. That would be correct, according to our contract and 
according to the TPA milestones. So we have moved forward to 
meet these commitments.
    Back to the first part of your question. As you know, we 
have worked with the State of Washington for many years through 
some rather turbulent times trying to reach agreements and deal 
with problems that we have out at Hanford. Most recently, we 
have been working with them, I think, for about the past year 
and a half to try to resolve some questions that they had about 
the Department of Energy's ability to meet some of the 
milestones required by the tri-party agreement.
    You mentioned that the talks had recently broken down. I 
think maybe everyone just got tired, after about a year and a 
half of this. The parties have recently talked on the phone, 
and we are getting back to it again. Secretary Richardson and 
the Deputy Secretary have both engaged in this and plan to meet 
with State officials. The Deputy Secretary was due to go out 
this week. I understand he has had to delay the trip for 
personal reasons, so maybe in the next week or so he will get 
out there.
    Senator Murray. So talks are going to resume.
    Dr. Huntoon. Yes. And we will try to resolve these issues. 
Everyone wants the same thing. And it is just a matter of being 
able to agree to things that we know just may not be possible 
to get the State and the regulators to have enough confidence 
in our efforts to meet these milestones.
    When you ask about our confidence in doing this, you know, 
the first demonstration of our commitment that I point out is 
our request for a budget increase this year for this effort. We 
are quite serious about it. We have worked very hard this year 
with the contractor.

      SHIPMENTS OF LOW-LEVEL AND MIXED LOW-LEVEL WASTE TO HANFORD

    Senator Murray. Can you tell me more specifically how the 
Secretary plans to address the concerns that Governor Gary 
Locke and others have in my State, that they should not be 
asked to accept shipments of additional DOE low-level and mixed 
radioactive waste for disposal at Hanford until we do have an 
absolute commitment that the department will maintain the 
schedule for cleaning up the high-level waste in the Hanford 
tanks?
    Dr. Huntoon. Well, as I mentioned, they have asked for a 
show of commitment for cleaning up. And I think our schedule 
with the contractor to receive a proposal, to deal with the 
proposal and to try to sign a contract in August, in addition 
to the extra money we have put into the budget, I think, 
demonstrates our commitment. I know that the State has asked us 
to wait until we have an opportunity to have that in place 
before we continue the low-level waste shipments there. That is 
part of what we are working out with them now.
    Senator Murray. Okay. So that will be part of the 
discussions you have this week or next week.
    Dr. Huntoon. We are having those discussions whenever we 
can.

              PRIVATIZATION OF HIGH-LEVEL WASTE TANK WASTE

    Senator Murray. All right. You have talked a little bit 
about the vitrification plant. Can you tell me, will the use of 
a privatization contractor for the Hanford tank waste 
vitrification be more cost effective to the taxpayer than the 
use of traditional DOE management and operating contractors?
    Dr. Huntoon. What we have planned and discussed in the past 
and what we are anticipating is a proposal that would be most 
beneficial to the taxpayer. The reason I qualify what I am 
saying is that there is much to be worked out between now and 
next August--we have not seen yet the plan that the contractor 
is bringing for the financial part of this program.
    As you know, the idea of the privatization is that the 
contractor is assuming risk by using their own facilities and 
resources and all. And I think that is one of the things that 
we are also hoping will help us keep on track with this, 
because the contractor does have a lot more at risk than in the 
traditional way we usually do projects.
    However, depending on the scoring of the money, depending 
on the cost to the contractor for financing the project we will 
have to assess exactly what is the best deal for the 
government. But that is what we are after.
    Senator Murray. Well, thank you, Dr. Huntoon. I really 
believe the vitrification plan at Hanford is really essential 
to meet the government's obligation to clean up this area. This 
area gave a lot in the war to win it, and we have an obligation 
as a country to clean it up. And we need to move forward on 
that. So I look forward to working with you and members of this 
committee to move that forward.
    Dr. Huntoon. Thank you.
    Senator Craig. Thank you very much, Senator.
    Dr. Huntoon, Dr. Itkin, thank you very much for being with 
us today. I have several questions I will be asking. But first 
of all, Dr. Itkin, thank you for restating the importance of 
the deep geological repository development as it relates to the 
overall need to handle our high-level waste, our high-level 
materials, and to do so in the timely fashion that we are 
already well out of step with. But with your energy and 
commitment and the dedication that this budget shows to it, 
hopefully we will meet those time lines that are really 
fundamentally very critical.
    I also am going to submit for the record a policy paper 
from a group, the National Taxpayers Union. I would have done 
this, if I had had the information with me at the time, when 
Mr. Reicher was with us, because I think it is important when 
we talk about the energy initiatives that are present in this 
budget and the wind initiative.
    Simple calculations based on these new 750 kilowatt wind 
turbines is that to meet the projection that is within the 
overall plan of the Department of Energy, these objects are as 
tall as the Capitol dome of the United States Capitol. They are 
as high as the Statue of Liberty. And it would take about 
123,000 of them to meet that 5-percent factor that was talked 
about this morning.
    So while we are talking these things, we need to make sure 
we maintain the perspective as to what we are doing or what we 
might be doing and the effects of that, and the public's 
acceptance or willingness to accept these kinds of initiatives.

          LABORATORY DIRECTED RESEARCH AND DEVELOPMENT FUNDING

    Dr. Huntoon, last year--well, last year's Energy and Water 
Appropriations bill prohibited the use of environmental 
management funds for laboratory-directed research and 
development. I did not agree with that action. I took 
opposition to that action. I have believed, and I still 
strongly believe, that LDRD is critical to the development of 
innovative and cost-effective cleanup technologies.
    Last month, in testimony before the Senate Energy 
Committee, Secretary Richardson pledged to help get this 
restriction lifted in fiscal year 2001. Do you support the use 
of environmental management funds for LDRD? And do you think 
LDRD returns a value to the taxpayer?
    Dr. Huntoon. Well, yes, Senator Craig, I do support it. I 
know that the LDRD work done in our laboratories for 
environmental management has been very valuable in the past. 
And I would assume it would be in the future. I know that the 
Secretary made this commitment. I know that the language to 
have that added back has been approved and sent forward.
    So I am, as you are, very hopeful that it will be added 
back. We sorely miss the opportunity to use LDRD to solve some 
of our problems.

         ALTERNATIVE TECHNOLOGIES FOR TREATING HIGH-LEVEL WASTE

    Senator Craig. Well, when we are on the edge of technology 
and attempting to develop new technology in these areas that 
your area is certainly a part of, to do it in the best and 
soundest of ways, that kind of flexibility properly managed is 
critical, I think. For 3 consecutive years, beginning in fiscal 
1997, the energy and water appropriations conference report has 
included language recommending that DOE fund backup technology 
for vitrification of DOE's high-level waste.
    A recent national academy report, entitled Alternate High-
Level Waste Treatment at the Idaho National Engineering and 
Environmental Laboratory, states that a technology, which would 
produce high-level waste by melting waste, is in the same 
cannister it will be disposed in had advantages over the 
current continuous melder process now in use.
    In the past, DOE funded such a technology, the advanced 
vitrification system, but has recently discontinued funding 
this promising technology.
    My question is: For Idaho's calcined waste, is DOE 
exploring alternatives to the type of high-level waste glass 
now being produced at Savannah River, alternatives which might 
have higher waste loading and more durability?
    Dr. Huntoon. Well, I would like to answer you in two ways. 
One, the advanced vitrification system that you referred to, we 
are going to continue funding that to help resolve some of the 
questions that came out of the review. It is an alternative--
and for the very reasons you just stated. It is the only thing 
that has come to us recently that showed any promise for 
dealing with this issue without vitrification in the more 
traditional Savannah River way and would allow it to be done in 
the cans, as you mentioned.
    The review of it, the technical review, had some real 
problems because a lot of the work had not been demonstrated at 
a scaled-up test, if you will. Because of our own requirements 
for such technology, if we could get it developed, we decided 
to fund work that would allow us to answer some of the 
questions that came out of the review. So we are going to 
continue funding to answer those questions.
    One of the reasons we need alternative technologies would 
be the calcining work that you mentioned that is going to be 
set aside until we have a way to deal with its problems.

           ADEQUACY OF FUNDING TO MEET COMPLIANCE AGREEMENTS

    Senator Craig. Dr. Huntoon, under current budget 
projections for the out years, which are relatively flat at all 
DOE sites, is the Department of Energy concerned about its 
ability to meet all of its compliance agreements for cleanup 
nationwide? That would be one question. And if there is not 
going to be enough money, how will DOE then prioritize the 
cleanup initiatives?
    Dr. Huntoon. Well, Senator, the out years costs continue to 
hover around $185 to $200 billion total life cycle costs for 
the DOE complex. And we are trying to take care of high risk 
problems first and taking care of our compliance agreements, 
and doing the legally correct things in the States that we have 
our regulators working with us to meet our compliance 
agreements.
    The total cost is something that is, to me, almost 
unbelievable. I believe that the baselines are getting better 
for these long-term projects, whose completions are out there 
in the future. We have seen that as we get closer to closure on 
some of our sites, like Rocky, Fernald, and Mound, our cost 
estimates, our baseline costs, are much more accurate because 
they are in the immediate time frame, closer to the center of 
the radar screen.
    The sites that are obviously either not closing or that 
have large problems, such as the tanks at Hanford, those costs 
are in the out years up to 2070. And those are very hard for us 
to predict. But I will tell you that with our compliance 
agreements, according to the budget that we have requested now, 
we are in substantial compliance across the board.
    We have some challenges for the out years. I think some of 
those will have to be revisited depending on our various 
schedules and these long-term projects. I think about the tank 
vitrification we were just talking about at Hanford. We are due 
to have 10 percent of that waste, 10 percent, dealt with by 
2018. One of our compliance agreements with the State of 
Washington wants all of the waste dealt with by 2018.
    So we have to go back and revisit these issues with our 
regulators. But I believe we have to show our commitment to 
them and the path that we are taking forward in order to ask 
regulators for some relief on some of these out year compliance 
agreements.

       PIT 9 AT IDAHO NATIONAL ENGINEERING AND ENVIRONMENTAL LAB

    Senator Craig. What is the status of the cleanup effort at 
Pit 9 in Idaho?
    Dr. Huntoon. Pit 9 is part of a waste area group, WAG 7, as 
it is referred to out at INEEL. And that entire waste area 
group is about 88 acres, I believe. And Pit 9 was a 1 acre 
portion of it. And as you know, it was chosen to demonstrate 
whether we could privatize the cleanup of this area.
    In the past 2 years after we ceased the contract on Pit 9 
because it was not working, we have continued, in our 
characterization of Pit 9 and in working the cleanup of the 
entire waste area group.
    Right now, I am talking with the folks out at Idaho about 
the possibility of considering an approach based on the data we 
have received from the more exploratory work we have done at 
Pit 9. This work puts probes inside the pit, as well as around 
the pit, to define the conditions inside the pit, and to take 
that information and use it for the entire WAG 7, giving me an 
idea of what it would take to deal with that entire 80-some 
acres of buried waste.
    So we have utilized knowledge we gained from Pit 9. We are 
going to continue working with Pit 9. But I want them to 
address the entire waste burial ground there.

                 ADVANCED MIXED WASTE TREATMENT PROJECT

    Senator Craig. Okay. My last in the series of questions, 
Dr. Huntoon, we have spoken privately about the Secretary's 
recent decision to defer the incinerator portion of the 
advanced mixed waste treatment facility at Idaho. Are you still 
confident, in light of the action, that DOE will meet its 
milestone commitments to the State of Idaho?
    Dr. Huntoon. Yes, sir, I am. And as we said, when you and I 
discussed this earlier, that it was, I think, one of the most 
primary, if not the primary reason that the Secretary asked for 
us to proceed with requesting a permit, but to set aside the 
incinerator in the permit until we could identify another 
technology, or make sure there was no other suitable technology 
available before we asked the State to permit the incinerator.
    By doing that, we were able to make that request, and, I 
believe, on Friday afternoon the letter went forward to the 
State to ask for the permit to build, from both the contractor, 
BNFL, and the Idaho laboratory. It is a dual permit, a dual-
requested permit. When that permit is issued, the contractor 
will begin working immediately to build this facility and will 
be on schedule then to meet all the agreements that we have for 
starting the shipment of waste off of the site, et cetera.
    I think the idea, also, that maybe everyone did not fully 
understand is that the incinerator portion of the facility 
would only deal with about 3 percent of the waste. Therefore, 
we can deal with a lot of the waste, get on with it, and meet a 
lot of our commitments, and still work on how to best deal with 
that remaining 3 percent of the waste. It might be an 
incinerator. But it might also be that we can find some 
technology, and with additional resources to better define the 
problem, and be ready to deal with that portion of the waste 
before we need to. So we are on track to meet those agreements.
    Senator Craig. Well, to your knowledge now, are you 
personally aware of any alternatives to incineration which 
currently have the appropriate level of EPA approval?
    Dr. Huntoon. No, sir, I am not aware of any. And we asked 
the EPA that question. And I received a letter back from the 
EPA headquarters office saying there are currently no other 
technologies available to treat mixed waste of this sort, 
except for incineration, or a thermal-type of treatment.
    So that was one reason incineration was in the plan all 
along, because we knew that. But we asked again recently, and 
there is still nothing else available. We asked if there were 
any technologies about to be permitted, or were they studying 
some, had they had a request or something. And the answer was 
no to that.
    The third thing is what the Secretary has established a 
blue ribbon committee to look out on the horizon, if you will, 
at the next level. Is anyone working on technology that shows a 
great deal of promise that DOE could sponsor some increased 
activity to have it ready? So we are trying every avenue we can 
to avoid building the incinerator. But it might be necessary at 
the end.
    Senator Craig. Well, thank you very much, Doctor. That ends 
my questioning. I will have some questions that I will submit 
to the record and to you, Dr. Itkin, I think there are 
important that we have as relates to Yucca Mountain and the 
progress that is going on there.
    I know the chairman wishes he were here. His absence does 
not in any way reflect how he prioritizes this budget and its 
importance. We have encouraged the chairman of the budget 
committees in the House and the Senate to move very quickly to 
get a conference report out and to stay on or ahead of schedule 
with the budget process. And that is why he is not here at this 
moment.
    But I know that others may have questions that they will 
submit, as did the chairman. And I have a few. We will submit 
those for your response.

                     ADDITIONAL COMMITTEE QUESTIONS

    So we thank you very much for your time here this morning. 
Your areas of responsibility are critical to our country and, 
in some instances, to our States. And we appreciate the 
opportunity to work with you on these things.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Pete V. Domenici

                         WORKING WITH NNSA LABS

    Question. For all witnesses: The National Nuclear Security 
Administration started operation as a semi-autonomous agency within the 
Department on March 1. The NNSA labs of Los Alamos, Sandia and Lawrence 
Livermore have a long tradition of supporting a broad range of 
scientific initiatives beyond weapons activities. As the NNSA was 
created, I emphasized the importance of the NNSA labs continuing their 
multi-program support of the Department and other federal agencies.
    The enabling legislation, in Section 3264, stated that: ``The 
Secretary, in consultation with the Administrator, shall establish 
procedures to provide for the use . . . of the national security labs 
by elements of the DOE not within the Administration . . .''
    Despite the legislation, I am concerned that the NNSA labs will not 
continue to receive high priority funding from the Department.
    Will each of you assure me that you will continue to aggressively 
fund projects within the NNSA labs?
    Answer. (Dr. Huntoon) Under the NNSA Implementation Plan, the 
Office of Environmental Management (EM) maintains responsibility for 
environmental restoration activities throughout the DOE complex 
including remediation activities at NNSA facilities. As such, EM will 
continue to fund environmental cleanup projects and activities at NNSA 
facilities. In addition, EM will continue to fund projects conducted at 
NNSA laboratories that support the goals and mission of EM as 
appropriate.
    Answer. (Dr. Itkin) Under the Nuclear Waste Policy Act, as amended, 
the Office of Civilian Radioactive Waste Management is conducting site 
characterization activities at Yucca Mountain, Nevada. As part of the 
site characterization, numerous activities such as performance 
assessment and modeling, hydrological studies, and waste package 
development, are conducted by the three national laboratories through 
the Program's Management and Operating (M&O) contractor. The Program 
expects to continue funding these activities to support the site 
characterization effort and, if the site is found suitable, 
confirmatory testing.
    Question. Have discussions been initiated between your Office and 
NNSA to define mechanisms to maintain close collaboration, both for 
NNSA lab support to your Office and for your labs to support NNSA as 
required?
    Answer. (Dr. Huntoon) Yes, discussions have been initiated between 
EM and NNSA on these issues. We will continue to coordinate to ensure 
the necessary support for both NNSA and our office.
    Answer. (Dr. Itkin) The Office of Civilian Radioactive Waste 
Management has an ongoing relationship with all three laboratories and 
will continue to have the same collaborative relationship in the 
future. We are coordinating with NNSA in our effort to develop a 
bilateral agreement with the Russian Federation to collaborate on 
science related to geologic repositories. We anticipate funding from 
the nonproliferation initiatives to support work in this area in 2001, 
if approved by the Congress.
    Question. Do you foresee any barriers to maintaining close working 
relations between your Office and the NNSA?
    Answer. (Dr. Huntoon) No, I do not foresee any barriers to 
maintaining close working relations between EM and the NNSA.
    Answer. (Dr. Itkin) Our current relationship both with the NNSA 
laboratories and the NNSA is excellent. In the future, we expect that 
the national laboratories will continue to be key participants in our 
program if the site is approved.

             SPENT NUCLEAR FUEL CLEANUP PROGRAM AT HANFORD

    Question. The Spent Nuclear Fuel Program has had problems in the 
past. The fiscal year 2001 budget request included $191.3 million to 
continue cleanup activities. Costs have grown substantially and 
completion schedules have slipped several years since the program 
began.
    Up date the committee on the current costs and schedules to 
complete the removal and storage of the spent nuclear fuel in the K 
Basins at Hanford.
    Answer. The Project to remove N-Reactor spent nuclear fuel from the 
K Basins at Hanford is currently on schedule to begin fuel removal from 
the K-West Basin in November 2000, complete fuel removal in fiscal year 
2004, and complete deactivation and decommissioning of the K-Basins in 
fiscal year 2007 at a total project cost of $1.7 billion. All major 
milestones since establishment of the revised baseline in December 1998 
have been met, including several interim Tri-Party Agreement 
milestones. To ensure that the first fuel removal milestone is met on 
time, the project is undertaking a phased startup initiative to test 
the various critical components and systems well in advance of November 
2000.
    This project will move 2,100 metric tons of degrading N-Reactor 
spent nuclear fuel from the present deficient wet storage in the K-East 
and K-West basins, which are within 1,500 feet of the Columbia River, 
into safe, dry, interim storage in the Canister Storage Building in the 
Hanford Site 200 Area Central Plateau (which is located about 15 miles 
from the Columbia River). The fuel will be stored in the Canister 
Storage Building until ultimate disposal in an offsite geologic 
repository.
    Question. Are there any engineering, technical, or other issues 
that would significantly alter the current costs and completion 
schedule?
    Answer. There are currently no known engineering, technical, or 
other issues that would significantly alter the current costs or 
completion schedule. The phased startup initiative is now underway to 
test the critical components and systems; this initiative will allow 
early identification of any problems in fuel removal, stabilization, 
and storage. The contractor has just recently proposed, and DOE has 
approved, a revised outyear strategy that will accelerate sludge 
removal, and more efficiently utilize personnel and budget resources. 
This revised strategy is supported by the regulators, and the schedule 
is currently being negotiated, since several Tri-Party Agreement 
milestones will need to be changed to accommodate this change in 
strategy. Essentially, the strategy will level project resources in the 
outyears by eliminating the overlap between fuel removal in the two 
basins, allow deletion of requirements for additional processing 
equipment, and accelerate completion of sludge removal by about 12 
months, thereby reducing the largest risks to the environment sooner.
    Question. What actions have been taken to comply with the 
recommendations of the Defense Nuclear Facilities Safety Board 
Recommendation 94-1?
    Answer. There are four commitments that apply to the Spent Nuclear 
Fuel Project at Hanford from Defense Nuclear Facility Safety Board 
(DNFSB) Recommendation 94-1, Revision 2: (1) Commence fuel removal from 
K-Basins in November 2000; (2) Complete fuel removal from K-Basins in 
December 2003; (3) Commence sludge removal from K-Basins in July 2004; 
and (4) Complete sludge removal from K-Basins in August 2005.
    Actions taken to date to meet these commitments include completing 
major construction activities at the Canister Storage Building and the 
Cold Vacuum Drying Facility, and completing upgrades to equipment at K-
West Basin in support of commencing fuel movement in November 2000. 
Testing of new equipment and facilities and closeout construction 
activities have commenced at all three facilities in preparation for 
startup in November.
    A revised outyear strategy that would accelerate sludge removal was 
recently approved by DOE, and is supported by the regulators and the 
DNFSB. This revised strategy would more efficiently utilize personnel 
and budget resources. The revised schedule for the strategy is 
currently being negotiated with the regulators and the DNFSB, since 
several Tri-Party Agreement and DNFSB commitments will need to be 
changed to accommodate this change in strategy. Essentially, the 
strategy will level project resources in the outyears by eliminating 
the overlap between fuel removal from the two basins, allow deletion of 
requirements for additional processing equipment, and accelerate 
completion of sludge removal by about 12 months, thereby reducing the 
largest risks to the environment sooner. The result is that commencing 
sludge removal is accelerated 18 months to December 2002; completing 
sludge removal is accelerated by one year to August 2004; and 
completing fuel removal is deferred seven months to July 2004. Overall 
completion of the final Spent Nuclear Fuel Project DNFSB commitments, 
represented by completion of sludge removal, will occur about one year 
earlier under the revised strategy.
    Question. What assurances can you give the committee that the 
changes to this program will ensure the project proceeds on schedule 
and remain within the current cost estimate?
    Answer. The project to remove N-reactor spent nuclear fuel from the 
K-Basins at Hanford is currently on schedule to begin fuel removal from 
the K-West Basin in November 2000, complete fuel removal in fiscal year 
2004, and complete deactivation and decommissioning of the K-Basins in 
fiscal year 2007 at a total project cost of $1.7 billion. All major 
regulatory milestones since establishment of the revised project 
baseline in December 1998 have been met. To ensure that the first fuel 
removal milestone is met on time, the project is undertaking a phased 
startup initiative to test the various critical components and systems 
well in advance of November 2000.
    Fiscal year 1999 work had excellent cost and schedule performance. 
The budget execution resulted in less than 1 percent cost variance, and 
all activities were completed on schedule with less than 3 percent 
negative schedule variance in fiscal year 1999. The contractor is 
working diligently to deliver similar results in fiscal year 2000. 
Activities this year include closeout of construction activities and 
commencement of testing of systems in K-West Basin, the Canister 
Storage Building, and the Cold Vacuum Drying Facility. The Operational 
Readiness Reviews, which demonstrate readiness to start removing fuel, 
are scheduled for the summer and fall of 2000.
    In addition to the above activities, DOE recently approved a 
revised outyear strategy, which is supported by the regulators, that 
would accelerate sludge removal, and more efficiently utilize personnel 
and budget resources. The revised strategy is currently being 
negotiated with the regulators, since several Tri-Party Agreement 
interim milestones will need to be changed to accommodate this change 
in strategy. Essentially the strategy will level project resources in 
the outyears by eliminating the overlap between fuel removal from the 
two basins, allow deletion of requirements for additional processing 
equipment, and accelerate sludge removal by about 18 months, thereby 
reducing the largest risks to the environment sooner.
    Monthly project reviews are held with the contractor to review 
technical, cost, and schedule performance and issues. The Deputy 
Secretary reviews the project on a periodic basis and reviews updates 
on a monthly basis.

       SAVANNAH RIVER SITE (SRS)--NUCLEAR MATERIALS STABILIZATION

    Question. The Defense Nuclear Facilities Safety Board issued follow 
up recommendations in January regarding the stabilization of nuclear 
materials around DOE's weapon production complex. The top 4 priority 
items dealt with issues at the Savannah River Site.
    Are you aware of the Defense Board's Recommendation 2000-1? What is 
your response to their recommendations?
    Answer. Recommendation 2000-1 cites the Defense Nuclear Facilities 
Safety Board's (DNFSB) previous Recommendation 94-1 and discusses the 
progress made in nuclear material stabilization to date. It further 
details the remaining activities which need to be completed to 
stabilize and ensure safe storage of those materials. Recommendation 
2000-1 specifically criticizes the Department for failing to meet 
stabilization schedules due to insufficient funding. The Recommendation 
describes the Board's interpretation of their enabling legislation 
relative to this circumstance, specifically that the Department must 
advise Congress and the President of any shortfall in funding that 
impacts Recommendation 94-1 commitments.
    The Department sent its response to Recommendation 2000-1 to the 
DNFSB on March 13, 2000. In the response, the Department accepted the 
technical portions of the recommendation relating to nuclear materials 
stabilization. However the Department does not agree that funding is 
the primary factor in schedule delays and did not accept the portions 
of the recommendations dealing with funding.
    The Department is working aggressively to complete resource loaded 
baselines to finish the stabilization work begun under Recommendation 
94-1. By the end of May, we plan to provide the DNFSB with an 
implementation plan for completing the remaining Recommendation 94-1 
activities, and satisfying the risk-reduction requirements of 
Recommendation 2000-1. It is our intention that this combined plan will 
serve as the Department's 2000-1 Implementation Plan, and enable 
Recommendation 94-1 to be closed.
    Question. Why is it taking so long to resolve these issues at the 
SRS?
    Answer. While significant progress on nuclear material 
stabilization has been made at SRS, factors contributing to slowing 
that progress include: suspending construction of a new plutonium 
stabilization and storage facility that was planned to be built at SRS, 
based on a determination that the Department needed to reevaluate 
plutonium storage needs at the site in light of both significant 
estimated construction cost increases for the facility and a 
Departmental decision to name SRS as the preferred location for a new 
plutonium disposition facility; the need to reassess the Americium/
Curium Vitrification Project because development of the vitrification 
equipment and process proved to be more formidable than originally 
estimated; and the longer-than-anticipated length of time needed to 
both finalize an interagency agreement between DOE and the Tennessee 
Valley Authority (TVA) for making surplus uranium available to TVA for 
use in reactor fuel. DOE is now finalizing a revised implementation 
plan for submittal from the Secretary to the Board that reflects a 
resource-loaded path forward to complete all Recommendation 94-1 
stabilization activities.
    Question. What is DOE doing to stabilize the uranium solution in 
tanks outside H-Canyon? Specifically, why should this stabilization 
work wait on plans to convert the uranium to fuel for TVA and the 
Defense Board states?
    Answer. DOE is continuing to work with TVA to make this surplus 
uranium available for use in reactor fuel. This program will result in 
stabilization of the existing uranium solution and solutions to be 
produced by dissolving certain SRS spent nuclear fuel that requires 
stabilization. The first step in solution stabilization is to blend it 
down to a low enrichment level (for this program, about 4.9 percent U-
235). This activity will take place at SRS. The final step in 
stabilization, converting the low enriched solution to a solid oxide 
form, will take place at a commercial facility under contract to TVA. 
This work cannot begin until DOE and TVA finalize an interagency 
agreement, which is expected to occur this summer, and the necessary 
SRS [and commercial] facilities are constructed, which must be 
authorized by Congress. Language authorizing the start of project 
design in fiscal year 2000 is contained in an emergency supplemental 
appropriations bill. The Department cannot initiate project design 
until Congress acts to authorize this project.
    SRS does not currently have the capability to convert the low 
enriched solution to oxide; however, preliminary design work to develop 
this capacity using on-site facilities or via a commercial vendor has 
begun. DOE believes it is prudent to pursue this path in parallel with 
the efforts to provide the uranium to TVA in the event that the TVA 
fuel program is not successful. If this comes to pass, SRS will blend 
the uranium solution to an enrichment of less than one percent U-235, 
convert it to an oxide either in SRS facilities or at a commercial 
vendor, and store the material at SRS pending ultimate disposition. 
This form of the material would have no commercial value and would 
likely be classified as waste. Even if DOE decided to devote full 
resources to this alternative now, it is unlikely that stabilization of 
the uranium solution could be accomplished as soon as with the program 
to provide the material to TVA.
    Question. What are the costs, schedules and major milestones in 
dealing with this issue?
    Answer. The Department's cost for the design and construction of 
the capital project required at SRS to enable transfer of the surplus 
uranium to TVA for use as reactor fuel is estimated to be approximately 
$100 million during fiscal years 2001-2003. An estimated additional 
$200 million in operating costs would be required for activities at SRS 
and the Y-12 Plant (Oak Ridge) during fiscal years 2001-2007. These 
costs cover not only the 8.7 metric tons (MT) of SRS uranium that is 
subject to DNFSB Recommendations 94-1 and 2000-1, but also 24 MT of 
other off-specification highly enriched uranium at SRS and the Y-12 
Plant. DOE and TVA will share costs, as well as any potential savings 
generated by use of the fuel, in accordance with an Interagency 
Agreement expected to be finalized this summer. In comparison, the 
estimated cost to disposition all of the material as waste is over $900 
million.
    Schedules and major milestones for this and other SRS nuclear 
material stabilization activities will be provided in an updated plan, 
expected to be forwarded to the Defense Nuclear Facilities Safety Board 
by the end of May 2000, to address both Board Recommendations 94-1 and 
2000-1.
    Question. Another high priority problem cited by the Board was 
remediation of highly radioactive solutions of Americium and Curium in 
F-Canyon at the SRS. Could you explain the issues there, particularly 
why DOE plans to defer vitrification of this material?
    Answer. The Department intends to continue with its plan to vitrify 
the Americium/Curium solution currently stored in the F-Canyon facility 
at SRS as expeditiously as possible. The Department has encountered 
delays in stabilizing this material because development of the 
vitrification equipment and process proved to be more formidable than 
originally estimated. As a result, the Americium/Curium Vitrification 
Project was reassessed, and a new cost and schedule baseline was 
recently approved by DOE. DOE is committing the necessary resources to 
complete this stabilization project in accordance with the new 
baseline. A revised Implementation Plan, to be submitted to the Board 
by the end of May 2000, will reflect that baseline.
    Question. How does DOE plan to process this material?
    Answer. The Americium/Curium solution will be stabilized by 
vitrification, i.e., it will be encapsulated in a glass form. This will 
be accomplished by installing and operating new equipment, which is 
currently undergoing detail design, in the Multi-Purpose Processing 
Facility inside F-Canyon.

                              ROCKY FLATS

    Question. Dr. Huntoon, I am impressed by the work that is being 
done to clean-up and close Rocky Flats by 2006. The contractor 
continues to make good progress on shipments of material and 
decontamination and decommissioning of buildings. The sooner we 
complete the project, the more money the department will save on 
safeguards, security and other overhead expenses. However, the DOE has 
never completed a clean-up of this scale and complexity.
    Is the DOE committed to completing the clean-up by December 15 of 
2006?
    Answer. The Department is fully committed to its target for 
achieving closure of Rocky Flats by December 15, 2006. On January 24, 
2000, the Department signed a new contract with Kaiser-Hill that 
formalizes this commitment.
    The new Rocky Flats ``closure'' contract, which became effective 
February 1, 2000, includes contractor incentives for closure by 2006, 
as well as reductions in fee for schedule slippages. It also includes a 
detailed process for the identification and provision of Government-
furnished services and items necessary to support the closure schedule. 
These services and items include the identification of receiver sites 
for materials and wastes, the certification of shipping containers, the 
coordination and resolution of issues, and other support activities. 
Kaiser-Hill will submit a revised Rocky Flats 2006 Closure Project 
Baseline in June 2000. This baseline will reflect the terms of the 
contract including an assumed annual funding level of $657 million.
    Question. Are you confident that the regulatory framework 
established under the Rocky Flats clean-up agreement will stay in 
place, and no new regulatory changes will occur to increase the current 
work scope?
    Answer. The Department is committed to the framework established by 
the Rocky Flats Cleanup Agreement (RFCA). The RFCA, which was signed in 
1996, is a legally binding agreement between DOE, the Environmental 
Protection Agency (EPA), and the Colorado Department of Public Health 
and Environment (CDPHE) to achieve cleanup at the Rocky Flats site. On 
December 10, 1999, DOE, EPA and CDPHE jointly issued a memorandum in 
which they committed to: expedite the closure of Rocky Flats by 2006; 
provide DOE sufficient regulatory flexibility to achieve the 2006 
closure goal; set priorities for cleanup work done at the site to 
emphasize reductions in risk and ``mortgage'' costs, and continue the 
closure process; and continue to ensure public and environmental safety 
consistent with the Comprehensive Environmental Response, Compensation 
and Liability Act, the Resource Conservation and Recovery Act, and 
other relevant statutes.
    The regulatory framework of the RFCA identifies the processes 
through which final end-state decisions are made regarding the Rocky 
Flats site, and it grants authorization of interim cleanup actions. It 
also provides for interim radionuclide soil action levels. The contract 
for closure of Rocky Flats signed between DOE and Kaiser-Hill in 
January 2000 recognizes the RFCA framework. While the underlying 
framework of the RFCA is not expected to change, it is possible that 
the interim assumptions and decisions carried out under the 1996 
agreement will be revised or finalized through the RFCA amendment 
process. If these changes result in increased work scope, a contract 
modification will be implemented.
    Currently, the Department is in the process of responding to the 
recommendation from the independent oversight panel that a revised, 
more stringent radionuclide soil action level be formally adopted in 
the RFCA. The panel's recommendation is based on an assumed future land 
use that would allow greater access than the land use assumed in the 
current RFCA. A significant change to the action levels would likely 
require additional remediation activities, a possible extension in the 
remediation schedule, and a possible increase in total cost of cleanup 
for the Rocky Flats site.
    Question. What kind of challenges would prevent the DOE from 
completing clean-up of Rocky Flats on time?
    Answer. There are several basic factors that could prevent the 
Department from completing the cleanup of the Rocky Flats site on time. 
These include any significant reductions to the planned funding level 
of $657 million assumed in the new closure contract; significant 
changes to the regulatory assumptions underlying the Department's 
current cleanup plans, particularly assumptions about future land use, 
which guide the cleanup; inadequate contractor performance; and the 
Department's failure to provide the Government-furnished services and 
items identified in the contract, including availability of sites to 
receive various materials and waste streams from Rocky Flats. The 
Department is developing a detailed process for the identification and 
provision of Government-furnished services and items. The Department 
and Kaiser-Hill are actively working to resolve issues related to 
finalizing disposition paths for all material on site and will continue 
to work to ensure the primary receiver sites for Rocky Flats waste and 
material remain available as currently planned. These primary receiver 
sites are the Waste Isolation Pilot Plant and the Savannah River site.

                          ROCKY FLATS CLOSURE

    Question. The budget request for fiscal year 2001 includes $664.7 
million to continue clean up activities at Rocky Flats. This is the 
same as the amount appropriated for fiscal year 2000.
    Does the fiscal year 2001 budget request for Rocky Flats maintain 
the 2006 clean up schedule? If not, why?
    Answer. Yes, the Department's fiscal year 2001 budget request of 
$664.7 million for Rocky Flats fully supports the 2006 cleanup 
schedule.
    Question. Dr. Huntoon, your statement mentions ``challenges'' 
facing the closure of Rocky flats by 2006. What specifically are these 
challenges, and how will they impact DOE's ability to bring about 
closure by 2006?
    Answer. At Rocky Flats, the scope of work required to close the 
site by 2006 is well understood and will be documented in the revised 
Rocky Flats 2006 Closure Project Baseline. This new baseline will be 
submitted to the Department by Kaiser-Hill in June 2000. While the 
schedule is ambitious, the new closure contract is a valuable tool for 
incentivizing the resolution of any obstacles impeding site closure. 
One of the key challenges that must be met to successfully close the 
site is the removal of all special nuclear material from the site in 
2002. This requires the identification of firm disposition paths for a 
number of nuclear material and waste streams and coordination with and 
availability of sites to accept the materials and waste. The Rocky 
Flats site also needs to finalize the details of the anticipated end 
state through regulatory and public processes. However, the Department 
and Kaiser-Hill are actively working to address these challenging 
issues, and the Department does not believe they will adversely impact 
DOE's plans to close Rocky Flats in 2006.
    Dr. Huntoon, your statement cites stable funding and the ability to 
move nuclear waste and material from the site as possible obstacles.
    Question. What are the critical issues related to movement of 
materials that could adversely impact the 2006 completion schedule?
    Answer. The critical issue related to the off-site shipment of 
material and waste from Rocky Flats is the identification of firm 
disposition paths for a number of nuclear material and waste streams. 
This includes the identification of DOE sites receiving these materials 
and wastes, securing final agreements with these sites, storage 
capacity and acceptance criteria at the receiver sites, the requisite 
National Environmental Policy Act and regulatory approvals, and the 
timely certification and procurement of shipping containers and 
transportation services. These issues are being resolved through the 
Government-furnished services and items process defined under the new 
Rocky Flats closure contract.
    Question. What is DOE's strategy for successfully making the 
required shipments?
    Answer. The Department's strategy for successfully making the 
required shipments is embodied within the terms and conditions of the 
new Rocky Flats closure contract. The process for the identification 
and delivery of Government-furnished services and items (GFS/I) 
provides the framework for identifying and resolving issues related to 
nuclear materials and waste shipment. The delivery of the GFS/I 
requires careful coordination among various Departmental sites and 
organizations. The strategy requires continued interaction with the 
sites receiving wastes and materials, particularly the Waste Isolation 
Pilot Plant and the Savannah River Site. The strategy also assumes 
continued management attention to resolve National Environmental Policy 
Act and other policy issues affecting shipment.
    Question. Would providing additional funding in fiscal year 2001 
over the budget request significantly affect the 2006 closure schedule?
    Answer. The Department's budget request of $664.7 million for Rocky 
Flats fully supports the fiscal year 2006 closure schedule.
    Question. Are there any on going WIPP related issues that would 
impact the 2006 closure schedule?
    Answer. The Rocky Flats site has planned an aggressive shipping 
campaign for transuranic waste to achieve the 2006 closure schedule. 
The site currently expects to dispose of about 15,000 cubic meters of 
transuranic waste through 2006. While shipments to the Waste Isolation 
Pilot Plant (WIPP) continue, some WIPP-related issues could potentially 
impact the Rocky Flats shipping campaign. However, these issues are 
actively being addressed to avoid any impact to the 2006 closure 
schedule.
    One potential issue relates to obtaining the remaining approval 
needed to ship all forms of transuranic waste. On March 9, 2000, Rocky 
Flats received approval from the State of New Mexico to characterize, 
certify, and ship debris waste under WIPP's Resource Conservation and 
Recovery Act (RCRA) permit. Efforts are underway to obtain a similar 
approval for Rocky Flats solid homogeneous waste by the end of calendar 
year 2000.
    Another issue that could affect Rocky Flats closure relates to an 
ongoing judicial challenge to the WIPP RCRA permit by the Southwest 
Research and Information Center. The current schedule for shipping 
transuranic waste from Rocky Flats assumes that the existing RCRA 
permit remains in effect and that shipments are not affected by the 
litigation.

             HANFORD TANK WASTE REMEDIATION PROJECT (TWRS)

    Question. The fiscal year 2001 budget request includes $450 million 
to support the TWRS privatization project at Hanford, Washington. This 
is a significant increase over the $105 million appropriated in fiscal 
year 2000. DOE expects to make a decision in August of this year on 
proceeding with the construction phase of the privatization project.
    What is the status of the project particularly the scientific, 
technical and engineering basis needed to make the project a success?
    Answer. Based upon monitoring the technical progress of British 
Nuclear Fuels Limited, Inc., (BNFL) during the Part B-1 period and 
review of its April 24, 2000, proposal for the Hanford TWRS 
privatization project, the Department has concluded that the processes 
proposed for treating and immobilizing the tank wastes will meet DOE 
requirements. In addition, it appears that the planning, engineering, 
and safety basis for the process and facility will provide a successful 
remedy for the high-level waste tanks at Hanford. However, the 
Department has determined that other aspects of BNFL's April 24, 2000, 
proposal, including cost, schedule, management, and business approach, 
were unacceptable. Therefore, on May 8, 2000, the Secretary announced 
that the privatization contract with BNFL will be terminated. The 
Department will compete a non-privatized design and construction 
contract with a new contractor being selected by January 15, 2001. This 
effort may use the technical and design approaches developed by the 
Part B-1 contractors. Plant operating expertise, needed as input to the 
design, will be transitioned from BNFL to an existing contractor. The 
Department will solicit competitive bids for operation of the facility 
at an appropriate future date.
    Question. How is it possible to have a credible design, one that 
reflects firm work schedules and milestones if these issues are not 
thoroughly understood?
    Answer. Based on monitoring the technical progress of the BNFL team 
during the Part B-1 period and the review of its April 24, 2000, 
proposal, no significant technical issues have been identified. The 
technical work performed under Part B-1 is credible and may continue to 
be the basis for the treatment facility at Hanford under the new non-
privatized contract that will replace the BNFL contract.
    Question. Each nuclear waste project is unique, and TWRS is no 
exception-it is truly one of a kind. Therefore, what have you learned 
from other privatization projects that would be helpful with the TWRS 
project at Hanford?
    Answer. The Department determined that BNFL's April 24, 2000, 
proposal for the Hanford privatization contract was unacceptable in 
many areas, including cost, schedule, management, and business 
approach. The price of the proposal included high contingency, fees, 
and return on investment which essentially shifted the financial risk 
from BNFL back to the Federal Government. Thus, a key benefit of 
privatization, in this case, was lost. Therefore, on May 8, 2000, the 
Secretary announced that the privatization contract with BNFL will be 
terminated. The Department will compete a non-privatized design and 
construction contract, with a new contractor being selected by January 
15, 2001. Plant operating expertise, needed as input to the design, 
will be transitioned from BNFL to an existing contractor. The 
Department will solicit competitive bids for operation of the facility 
at an appropriate future date.
    Question. How confident is DOE that this is the best approach and 
that all major issues are resolved such that the project may proceed 
without significant delays and cost increases attributable to unknown 
factors?
    Answer. The Department determined that BNFL's April 24, 2000, 
proposal for the Hanford privatization contract was unacceptable in 
many areas including cost, schedule, management, and business approach. 
Therefore, on May 8, 2000, the Secretary announced that the 
privatization contract with BNFL will be terminated. The Department 
will compete a non-privatized design and construction contract, with a 
new contractor being selected by January 15, 2001. Plant operating 
expertise, needed as input to the design, will be transitioned from 
BNFL to an existing contractor. The Department will solicit competitive 
bids for operation of the facility at an appropriate future date. Even 
though this change in acquisition approach has been necessary, the 
technical concept and the design work accomplished to date provide a 
sound approach to treatment of the high-level waste at Hanford.
    Question. The GAO has indicated in their report RCED 99-13 that the 
BNFL melter technology is unverified for Hanford application. Do you 
agree with the GAO assessment? If not, why?
    Answer. We do not agree with the GAO assessment. The assessment was 
completed at a point in the project in which little specific 
vitrification testing had been completed. Since that time, BNFL/GTS 
Duratek has used its pilot melter facility with simulated wastes to 
demonstrate that the vitrification technology for low activity waste 
will produce an acceptable glass product at production rates that meet 
or exceed design requirements. Approximately 80 metric tons of glass 
have been produced with this melter during Phase I, Part B-1. The team 
has also successfully tested its technology for high activity waste 
using actual high-level wastes at a bench scale. In addition, a number 
of the design concepts (e.g., glass bubblers, pouring system design) 
have been verified, and production rates 20-50 percent above design 
requirements have been achieved. From this information BNFL/GTS Duratek 
has been able to further refine the vitrification technology process 
and equipment.
    Question. Should the BNFL joule melter be demonstrated with Hanford 
high activity wastes (either simulated or actual) with the anticipated 
waste loading prior to proceeding with construction or agreeing to a 
price for processing vitrified waste?
    Answer. Pilot melter testing using simulated high-level waste feed 
compositions and laboratory vitrification of actual Hanford tank waste 
samples have been completed by BNFL/GTS Duratek. Testing will continue 
to further refine glass compositions and process strategies.
    Question. Hanford high level wastes are known to vary widely in 
chemistry due to on going chemical reactions in the tanks. How does 
this variability affect DOE's plans for obtaining a homogenous waste 
feed by blending the wastes?
    Answer. DOE does not plan on blending tank wastes prior to the year 
2018. DOE has had numerous samples of tank waste tested and has found 
that the waste feed specifications capture the composition of 
approximately 90 percent of all Hanford wastes. These wastes can be 
processed in a vitrification facility without blending. The equipment 
in the tank farms, planned upgrades, tank space availability, and 
operational experience will be sufficient to accomplishing blending 
needed for 2018.
    Question. What is the government's liability in the event DOE 
cannot deliver a homogenous waste feed to BNFL?
    Answer. The Department determined that BNFL's April 24, 2000, 
proposal for the Hanford privatization contract was unacceptable in 
many areas, including cost, schedule, management, and business 
approach. Therefore, on May 8, 2000, the Secretary announced that the 
privatization contract with BNFL will be terminated. The Department 
will compete a non-privatized design and construction contract, with a 
new contractor being selected by January 15, 2001. Under either a 
privatized or non-privatized contract, the Government would be liable 
if the proper feed cannot be delivered. However, in the latter type of 
contract, the liability would not include costs specifically associated 
with privatization, such as financing and return on investment.
    Question. Has blending of nuclear waste on the scale necessary at 
Hanford ever been demonstrated or accomplished?
    Answer. Planned blending to achieve acceptable feed will not occur 
until after the year 2018. Incidental mixing of waste from different 
tanks takes place currently in the routine transfers at Hanford. Waste 
from one tank is transferred into another after verifying compatibility 
of the two wastes. One of the most recent examples occurred in 1998-99 
with the transfer of waste from Tank C-106 (about 190,000 gallons) to 
Tank AY-102 (about 700,000 gallons). The purpose for the transfer was 
to eliminate a safety concern in Tank C-106; however, as part of the 
process, wastes from both tanks were successfully combined in a one 
million gallon tank.
    Question. Is substantial piping required in the blending process 
and in delivery of the waste to BNFL for vitrification? Can the piping 
become clogged and if so, what steps will be taken to avoid clogging?
    Answer. The equipment presently in the tank farms, along with the 
planned upgrades to the tank farms, will fully support all future 
blending (after 2018) and feed delivery activities. Currently, Hanford 
is planning to upgrade existing equipment (pump pits, ventilation, 
valves, etc.) and install new pipelines that connect the various tank 
farms to each other and to the processing facilities. These are 
necessary for general retrieval, not blending, but will also be 
utilized for blending activities after 2018. The piping has the 
potential to become clogged; however, several preventative measures are 
in use and are planned for the future. DOE is performing laboratory 
tests on physical properties of the waste in order to determine 
dilution and thermodynamic parameters that will prevent formation of 
solids in the pipes. Control of these parameters is incorporated in the 
current plans for waste feed delivery. DOE plans to dilute the waste 
prior to and during transfers. Also, DOE has included redundancy in the 
piping plans. DOE will connect four pipelines to the processing 
facilities, two primary lines and two back-ups. If a primary line 
clogs, DOE will use a back-up line during the period the primary line 
is being unclogged. Hanford occasionally experiences pipeline clogs on 
some of the tank-to-tank transfers. These are readily unclogged by 
injecting hot water flushes into the clogged pipeline.
    Question. What is the expected cost to the government for making a 
blended, homogenous waste feed?
    Answer. The waste that will be delivered to the processing plant 
prior to 2018 will not need to be blended or homogeneous. This waste 
will conform to waste feed specifications without blending. The 
equipment presently in the tank farms and the planned upgrades will be 
sufficient to accomplish any blending needed after 2018. Costs to 
perform those future blending operations will be comparable to current 
costs for routine transfers.
    Question. Will it be possible to insert new, more efficient and 
less costly waste treatment technologies into the TWRS project at 
Hanford? Please explain.
    Answer. Based on monitoring of the technical progress of the BNFL 
team during the Part B-1 period and review of its April 24, 2000, 
proposal, the Department believes the technical approach and design are 
sound. The process facilities and equipment concepts for the treatment 
facilities are being designed for remote maintenance and replacement. 
Using these design concepts, it is possible that newer, more efficient 
technologies could be employed in the treatment facilities as they 
become cost effective to do so. Examples include higher temperature 
melters and the use of different radionuclide separation technologies 
(e.g., improved resins and/or inorganic engineered materials). DOE 
continues to invest in related science and technology development 
through its High-Level Waste Focus Area. The results from this program 
are targeted toward eventual applications at TWRS.

                         SCIENCE AND TECHNOLOGY

    Question. The budget request for Science and Technology totals 
$196.5 million for fiscal year 2001 compared to $236.7 million for 
fiscal year 1999 and $229.4 million for fiscal year 2000.
    Are the basic science and technology needs of the program declining 
or is there some other reason that accounts for this continued downward 
trend in the Science and Technology program?
    Answer. The Office of Science and Technology continues to review 
technology needs as sites modify their cleanup programs or identify 
more aggressive approaches to conducting their work. While intractable 
problems still exist, and there is still a definite need for the 
further development of new technology, our thrust has turned to 
ensuring widespread deployment of innovative technologies to meet 
closure site schedules. We are working with our field offices to ensure 
that new technologies are applied where they are most needed.
    We are now placing added emphasis on the deployment of technologies 
that are already developed. During our recent reorganization of the EM 
program, we created a Deployment Assistance Team whose mission is to 
provide the tools needed to accelerate and increase the deployment of 
new technology and the delivery of key products to address the needs of 
site closure and project completion activities.
    Question. For example, is DOE pursuing any alternatives that could 
be used in the event the BNFL vitrification melter process proposed for 
the Hanford waste cleanup program fails or does not perform as 
expected? Please explain.
    Answer. The successful operation of high-level waste (HLW) 
vitrification at the West Valley Site and at the Defense Waste 
Processing Facility at the Savannah River Site has provided confidence 
that vitrification of HLW at Hanford can be equally as successful. 
Additionally, BNFL has successfully vitrified simulated Hanford (low 
activity) wastes in the Duratek facility in Columbia, Maryland, at 
production rates 20-50 percent above design requirements. The 
Department continues to seek technical improvements in current 
vitrification methods for better cost effectiveness and reliability.
    However, the recognized complexity and diversity of HLW at Hanford 
and the high total life cycle costs at Hanford have led the Department 
to commission a review of alternatives, in order to provide 
recommendations by the end of this calendar year on the specific new or 
different technologies that should be comprehensively developed as cost 
saving alternatives over the next several years. Specific emphasis is 
on alternatives to vitrification that could reduce the total life cycle 
costs, including final disposal costs.

                            EM PRIVATIZATION

    Question. Dr. Huntoon, as you know, CBO has changed the outlay 
scoring for DOE privatizations. As a result, the outlays for the 
Hanford tank privatization jump up to 53 percent. There is now no 
scoring advantage to the Appropriations Committee for DOE to use 
privately financed contracts for these projects because they cost the 
Appropriations Committee the same (in the near term) as a standard, 
multi-year procurement.
    In fact, since the private financing rates are substantially over 
government borrowing rates, the total project costs are much higher 
under the privatization contracts.
    Why should the Congress proceed with a privatization proposal that 
will dramatically increase the cost of a project as a result of the 
cost of private financing versus the cost of government financing?
    Answer. The Department determined that British Nuclear Fuels 
Limited, Inc.'s, (BNFL) April 24, 2000, proposal for the Hanford 
privatization contract was unacceptable in many areas, including cost, 
schedule, management, and business approach. Therefore, on May 8, 2000, 
the Secretary announced that the privatization contract with BNFL will 
be terminated. The Department will compete a non-privatized design and 
construction contract, with a new contractor being selected by January 
15, 2001. Plant operating expertise, needed as input to the design, 
will be transitioned from BNFL to an existing contractor. The 
Department will solicit competitive bids for operation of the facility 
at an appropriate future date.
    Question. Do you still expect construction to be complete in fiscal 
year 2007 at a cost of $5.4 billion for Phase I?
    Answer. The Department determined that BNFL's April 24, 2000, 
proposal for the Hanford privatization contract was unacceptable. 
Therefore, on May 8, 2000, the Secretary announced that the 
privatization contract with BNFL will be terminated, and the Department 
will compete a non-privatized design and construction contract. The 
request for proposals, to be issued in August 2000, will ask for 
proposals that would enable the Department to meet the 2007 milestone 
under the Tri-Party Agreement. The costs will not be determined until a 
new contractor is awarded by January 15, 2001.

                         NUCLEAR WASTE DISPOSAL

    Question. The fiscal year 2001 budget request for the Nuclear Waste 
Disposal program at Yucca Mountain totals $470.3 million. This includes 
$358.3 million of non-Defense discretionary funding and $112 million 
for the Defense portion of the program.
    The Department will issue a comprehensive Final Environmental 
Impact Statement contemporaneously with the finalization of the Site 
Recommendation. A Site Recommendation Consideration Report will be 
prepared, and if the site is determined to be suitable and the 
Secretary of Energy decides to recommend the site for repository 
development, the Site Recommendation Report will be submitted to the 
President in fiscal year 2001. If the President and then the Congress, 
accept the Site Recommendation, a License Application will be prepared 
and submitted to the Nuclear Regulatory Commission in fiscal year 2002.
    Since the submission of the Viability Assessment in December 1998, 
have you found any scientific or technical fault with the Yucca 
Mountain site that would suggest that it is not a suitable site for a 
permanent geologic repository?
    Answer. The fiscal year 2001 budget request for the Nuclear Waste 
Disposal program at Yucca Mountain totals $437.5 million. This includes 
$325.5 million of non-Defense discretionary funding and $112 million 
for the Defense portion of the program.
    The scientific studies and analyses we have conducted since the 
Viability Assessment indicate that Yucca Mountain remains a promising 
site for a geologic repository. We are therefore pursuing the work that 
will support a Secretarial decision in 2001 on whether to recommend the 
site to the President for development as a repository.
    Question. There have been ongoing concerns related to the migration 
of water at the site. Is this something new, and have you been able to 
assess the problem? Do you believe this to be a problem?
    Answer. To date, Yucca Mountain remains a promising site for 
development as a geologic repository. The movement of water is an 
important consideration which is being examined. Our understanding of 
how water flows through the saturated and unsaturated zones is 
integrated in a total system performance assessment that models and 
predicts how a repository may perform within Yucca Mountain. At this 
time, given our understanding of how a repository may perform, we do 
not anticipate problems with the migration of water at this site.
    Question. What is your schedule for major repository milestones? 
Have you met last years goals? What, in your judgement are the 
impediments to meeting future milestones?
    Answer. In fiscal year 1999, we met the major milestones for that 
year of issuing the Viability Assessment and Draft Environmental Impact 
Statement and completing a formal, independent peer review of the total 
system performance assessment (TSPA) that supported the Viability 
Assessment. The peer review findings and recommendations will be 
considered in developing the TSPA to support decisions on site 
recommendation. We also completed repository and waste package designs 
for use in developing the TSPA and other documentation that will 
support decisions on site recommendation. We are now further developing 
those designs based on the results of our analyses to reflect 
recommendations made by the Nuclear Waste Technical Review Board.
    Milestones leading to the opening of a permanent repository, and 
potential impediments to the schedule, are identified and discussed 
below. Because these milestones are on the critical path to the start 
of repository operations, a factor that jeopardizes one date may 
jeopardize subsequent dates. The greatest impediment to the schedule 
would be inadequate funding, and recently, our ambitious schedule has 
been made more challenging by a funding shortfall in excess of $100 
million during the past three years. Note that the discussion of 
milestones below assumes that the Department's work would not be 
curtailed or delayed by court orders due to potential lawsuits filed by 
parties who oppose implementation of the Nuclear Waste Policy Act 
(NWPA).
  --Prepare Site Recommendation Consideration Report, late 2000. OCRWM 
        will issue a Site Recommendation Consideration Report in late 
        2000. After that, OCRWM plans to hold public hearings in the 
        vicinity of Yucca Mountain to inform residents of a possible 
        site recommendation.
      Potential schedule risk: At this time, we identify no major 
        factors that would jeopardize this date.
  --Complete final environmental impact statement (EIS) to support the 
        Secretary's submittal to the President of a site 
        recommendation. The NWPA requires that an EIS accompany a 
        Secretarial site recommendation. The Department issued a draft 
        EIS for public comment in fiscal year 1999 and comments are now 
        being reviewed. The final EIS will be completed in fiscal year 
        2001.
      Potential schedule risk: At this time, provided sufficient fiscal 
        year 2001 funding, we identify no major factors that would 
        jeopardize completion of the EIS in fiscal year 2001.
  --Prepare and submit a site recommendation, fiscal year 2001. After 
        holding public hearings in the vicinity of Yucca Mountain and 
        reviewing public comments, OCRWM will advise the Secretary on 
        site recommendation. If the Secretary decides to submit a site 
        recommendation to the President, this may trigger a series of 
        steps defined by the NWPA. At least 30 days prior to that 
        recommendation, the Secretary must notify the Governor and 
        legislature of Nevada of his intent to submit the 
        recommendation. If the President, upon receipt of the 
        Secretary's recommendation, decides to recommend the site to 
        Congress, the Governor and legislature of Nevada may submit a 
        notice of disapproval to Congress. If a notice of disapproval 
        is submitted, Congress may act in accordance with the timetable 
        and procedures in the NWPA to approve the Presidential 
        recommendation. If Congress approves it, the site designation 
        takes effect.
      Potential schedule risk: Insufficient funding could affect this 
        schedule. In addition, decisions by the Secretary, the 
        President, or Congress not to recommend or approve the site for 
        development as a repository will affect the timetables and 
        procedures to be followed under the NWPA.
  --Develop and submit a license application, fiscal year 2002. If the 
        President and Congress approve development of a repository at 
        the Yucca Mountain site, the Department will submit a license 
        application to the NRC.
      Potential schedule risk: A license application is a complex 
        document, the preparation of which requires long lead time. 
        Because of budget shortfalls over the past few years, OCRWM has 
        had to defer much of the work on the license application in 
        order to remain within budget and on schedule for the site 
        recommendation. The fiscal year 2002 date for submittal of a 
        license application will be jeopardized if OCRWM receives less 
        funding than the current funding profiles indicate is required.
  --Obtain construction authorization from the NRC, fiscal year 2005. 
        The NWPA requires the NRC to issue its decision on 
        authorization of repository construction within three years of 
        the date that the Department submits a license application.
      Potential schedule risk: Our careful planning for many years with 
        the NRC to prepare for licensing should serve to mitigate any 
        delays. However, the NWPA allows NRC to extend their review for 
        an additional 12 months. If this provision is exercised, our 
        schedule would be impacted. An additional factor that might 
        impact this schedule is scientific uncertainty.
  --Submit license application amendment to receive and possess waste, 
        fiscal year 2008. The Department will have to update its 
        license application and submit it to the NRC in order to obtain 
        authorization to receive and possess waste.
      Potential schedule risk: With sufficient funding, we see no 
        factors that would jeopardize this milestone. An additional 
        factor that might impact this schedule is scientific 
        uncertainty.
  --Start waste acceptance and emplacement, fiscal year 2010. If 
        construction begins in 2005 and proceeds as planned, waste 
        emplacement could begin by 2010.
      Potential schedule risk: Inadequate funding would jeopardize this 
        date. An additional factor that might impact this schedule is 
        scientific uncertainty.

                     OUT-YEAR FUNDING REQUIREMENTS

    Question. Budget constraints forced Congress to reduce the funding 
for the program in fiscal year 2000. What impact has the funding 
reduction have on your progress in fiscal year 2000? Would you give the 
Committee your views on the out-year funding requirements for the 
Radioactive Waste Management Program?
    Answer. Over the past three years (FY 1998, fiscal year 1999, and 
fiscal year 2000), the Office of Civilian Radioactive Waste Management 
has received over $100 million less than the Administration's budget 
request for the Program. In each of those years, the Program has 
adjusted its efforts to focus on those science and engineering 
activities most essential to support a decision on site recommendation. 
Although we have deferred planned work, the Department is still on 
schedule to complete the work necessary for a site recommendation in 
2001 and a License Application to the Nuclear Regulatory Commission in 
2002. The fiscal year 2001 budget request of $437.5 million is 
necessary to complete work the Program deferred due to the funding 
shortfalls.
    Should the Office of Civilian Radioactive Waste Management Program 
receive less than the requested amount in fiscal year 2001, and 
depending on the extent of the reduction, the overall quality of the 
science and engineering supporting a site recommendation decision could 
be jeopardized and potentially delay that decision. In turn, submission 
of the license application in 2002 could be substantially delayed.
    If the site is recommended by the President and approved by 
Congress, the need for adequate funding will become necessary to 
maintain schedules for waste emplacement in 2010. The total funding 
profiles, including Yucca Mountain, transportation, and program 
management, for fiscal year 2001-2010 is as follows:

                          FUNDING REQUIREMENTS
                        [In millions of dollars]
------------------------------------------------------------------------
                                        Program     Fiscal      Program
             Fiscal year                funding      year       funding
------------------------------------------------------------------------
2001................................         438        2006       1,397
2002................................         438        2007       1,341
2003................................         871        2008       1,220
2004................................         935        2009       1,210
2005................................       1,289        2010         950
                                     -----------------------------------
      Total.........................                              10,089
------------------------------------------------------------------------

    Question. What is the annual out-year funding requirements to keep 
the program on schedule?
    Answer. The Office of Civilian Radioactive Waste Management Program 
will require significant increases in funding if the site is 
recommended by the President and the site designation is effective. Our 
outyear estimates, that we provided in the recently issued revision to 
the Program Plan, range from over $870 million in fiscal year 2003 to 
almost $1.3 billion in fiscal year 2005.
    The Program funding estimates reflect the Department's best 
projections, given the scope of work identified and the planned 
schedules. The total funding profiles, including Yucca Mountain, 
transportation, and program management, for fiscal year 2001-2010 is as 
follows:

Funding Requirements

                        [In millions of dollars]

        Fiscal year                                      Program funding
2001..............................................................   438
2002..............................................................   438
2003..............................................................   871
2004..............................................................   935
2005.............................................................. 1,289
2006.............................................................. 1,397
2007.............................................................. 1,341
2008.............................................................. 1,220
2009.............................................................. 1,210
2010..............................................................   950
                                                                  ______
      Total.......................................................10,089

            DEFENSE NUCLEAR WASTE APPROPRIATION REQUIREMENTS

    Question. What is the status of the Defense Nuclear Waste 
appropriation requirements? Is it paid up?
    Answer. Through fiscal year 1999, approximately $1.2 billion has 
been appropriated from the Defense Nuclear Waste Appropriation. As of 
the end of fiscal year 1999, the outstanding defense obligation was 
approximately $1.5 billion, which needs to be fully paid up before the 
defense waste can be accepted.

            DEFENSE NUCLEAR WASTE FUTURE GROWTH REQUIREMENTS

    Question. How must the Defense portion of the program grow in order 
to meet your major milestones and completion schedule?
    Answer. In the fiscal year 2001 budget request, the Department is 
requesting Defense Nuclear Waste Disposal appropriations that are level 
with fiscal year 2000. However, this does not reflect the necessary 
appropriations to ensure that the defense obligations are fully paid up 
prior to the acceptance of defense waste for disposal.
    The outstanding defense obligation must be fully paid up prior to 
accepting defense waste for disposal. The outstanding balance as of the 
end of fiscal year 1999 is approximately $1.5 billion. Various funding 
scenarios have been developed that will result in a zero outstanding 
defense balance by 2010. The following table depicts three such 
scenarios. The first scenario mirrors the fiscal year 2001 budget 
request for fiscal year 2002-2005 and then shows the increase that is 
required for the fiscal year 2006-2010 outyears to reduce the balance 
to zero. Alternative 1 is the profile assumed in the ``Report on 
Assessment of Fee Adequacy Based on fiscal year 1999 TSLCC Update,'' 
prepared by our M&O contractor, which is available on OCRWM's Internet 
Home Page. Alternative 2 is a profile that has the advantage of 
producing a zero balance while also smoothing out the large increases 
that would be required with either the fiscal year 2001 budget request 
profile or the profile in the fee adequacy report.

              DEFENSE NUCLEAR WASTE DISPOSAL APPROPRIATION
                        [In millions of dollars]
------------------------------------------------------------------------
                                      Fiscal
                                     year 2001
            Fiscal year               budget    Alternative  Alternative
                                      request        1            2
                                      profile
------------------------------------------------------------------------
2002..............................         112          200          250
2003..............................         113          200          350
2004..............................         116          200          450
2005..............................         122          630          540
2006..............................         810          630          540
2007..............................         810          630          540
2008..............................         810          630          540
2009..............................         810          630          540
2010..............................         810          620          535
------------------------------------------------------------------------

         NUCLEAR WASTE FUND CURRENT BALANCE AND FUTURE ESTIMATE

    Question. What is the current balance in the Nuclear Waste Fund, 
and what is the current estimate to construct the waste storage 
facility at Yucca Mountain?
    Answer. As of February 29, 2000, the current balance in the Nuclear 
Waste Fund was $9.0 billion. This balance does not take into account 
outstanding one-time fee payments and defense appropriations. The 
Program funding estimates reflect the Department's best projections, 
given the scope of work identified and the planned schedules. The total 
funding profiles, including Yucca Mountain, transportation, and program 
management, for fiscal year 2001-2010 is as follows:

Funding Requirements

                        [In millions of dollars]

        Fiscal year                                      Program funding
2001..............................................................   438
2002..............................................................   438
2003..............................................................   871
2004..............................................................   935
2005.............................................................. 1,289
2006.............................................................. 1,397
2007.............................................................. 1,341
2008.............................................................. 1,220
2009.............................................................. 1,210
2010..............................................................   950
                                                                  ______
      Total.......................................................10,089

                  NNSA IMPACTS AT SAVANNAH RIVER SITE

    Question. Dr. Huntoon, the NNSA legislation placed the tritium 
operations at the Savannah River Site under the NNSA, but the overall 
Savannah River Site is being managed by Environmental Management..
    Are NNSA activities at SRS under the control of NNSA personnel, or 
EM personnel?
    Answer. Under the NNSA Implementation Plan, the SRS Field Manager 
is also serving as the Field Manager for NNSA Operations and in this 
capacity is accountable to the NNSA Deputy Administrator for Defense 
Programs. Therefore, NNSA activities are under the control and 
direction of the NNSA, not EM.
                            carlsbad issues
    Question. When the Request for Proposals for a new contractor to 
manage the WIPP site was issued, it dropped requirements for economic 
development activities. These activities have been essential in 
building a supportive local community and infrastructure around key 
department facilities. It has proven its value to Department missions 
with the progress at Sandia and Los Alamos.
    Why were economic development requirements dropped from the 
solicitation for the next WIPP management contractor?
    Answer. The current WIPP Request for Proposals (RFP), like other 
recent RFPs and contracts issued by DOE, does not require the 
contractor to fund economic development. This approach is consistent 
with current Departmental policy.
    However, it is the policy of DOE to be a constructive partner in 
the geographic region in which DOE conducts its business. The basic 
elements of this policy include: (1) recognizing the diverse interests 
of the region and its stakeholders, (2) engaging regional stakeholders 
in issues and concerns of mutual interest, and (3) recognizing that 
giving back to the community is a worthwhile business practice. The 
current WIPP contract solicitation requires the prospective contractors 
to address this policy in their proposals.
    Question. Dr. Huntoon, does the Department intend to live up to its 
commitment to the Carlsbad region to support missions in the area that 
go beyond operation of WIPP? What is it doing to support this 
commitment?
    Answer. It is DOE's policy to be a constructive partner in the 
geographic region in which DOE conducts its business. The basic 
elements of this policy include: (1) recognizing the diverse interests 
of the region and its stakeholders, (2) engaging regional stakeholders 
in issues and concerns of mutual interest, and (3) recognizing that 
giving back to the community is a worthwhile business practice. The 
current WIPP contract solicitation requires prospective contractors to 
consider and address this policy in their proposals.
    Question. Does the Department support a leadership role for the 
Carlsbad Office, as they have already demonstrated in the application 
of technologies to address problems along the border?
    Answer. The Department is supporting the President's Southwest 
Border Initiative to bring the collective expertise of the Department 
and other Federal agencies to bear on issues in the border region. 
Additionally, on April 6, Secretary Richardson announced the Southwest 
Border Energy & Technology Collaboration Program to partner with 
universities in border states to focus on ways to reduce pollution 
while introducing new energy-related manufacturing options that will 
result in sustainable economic development in the region.
    We expect to use the expertise of our national laboratories, field 
offices and area offices, including Carlsbad, and Headquarters program 
offices in these efforts. However, due to the cross-cutting nature of 
the issues and the need to coordinate across the Department and with 
other Federal agencies, we plan to retain the leadership role at 
Headquarters. Not only will this allow for maximum ability to leverage 
the necessary resources, it will allow Carlsbad to maintain its focus 
on achieving its critical mission of getting WIPP fully operational so 
that we can complete cleanup at our sites.
    Question. When the Secretary made his April 6 announcement of a new 
technology collaboration in the border region, which sounds very 
similar to S.397, he did not mention leadership by the Carlsbad office 
as the bill demands. Why not?
    Answer. As you know, DOE supports the President's Southwest Border 
Initiative by using the resources and expertise of all of the 
Department's programs and national laboratories to address border 
issues. On April 6 of this year, Secretary Richardson announced the 
``Southwest Border Energy & Technology Collaboration Program'' to 
partner with universities in border states to focus on ways to reduce 
pollution while introducing new energy-related manufacturing options 
that will result in sustainable economic development in the region. We 
expect to manage this program from Headquarters in order to coordinate 
most effectively with other DOE offices and other Federal agencies. 
Because of the cross-cutting nature of the initiative and the need to 
ensure that Carlsbad stays focused on its critical mission--getting 
WIPP fully operational so that we can complete cleanup at our sites--we 
prefer to coordinate this program from Headquarters.

                                  WIPP

    Question. Dr. Huntoon, why did the Department remove $9.3 Million 
from Sandia National Laboratories' WIPP-funding for waste 
characterization costs at other sites, when waste characterization 
costs are not a part of the WIPP budget? [Such costs have always been 
part of individual site budgets.]
    Answer. The fiscal year 2000 WIPP budget was realigned in order to 
implement the provisions of the WIPP Resource Conservation and Recovery 
Act (RCRA) permit, which was issued in October 1999. These funds were 
used by the Carlsbad Area Office and the sites to realign their 
transuranic waste programs to meet the requirements of the permit, 
enabling them to ship to WIPP. By realigning these funds, the 
Department was able to pay for the work required under the permit and 
more effectively manage the national transuranic program in order to 
resume shipments under the RCRA permit.
    Question. The funds in question supported key work at Sandia that 
is essential for WIPP continued performance, especially for the re-
certification required on five year intervals. Will the Department 
restore the $9.3 Million to Sandia in Fiscal year 2001?
    Answer. Sandia National Laboratory's efforts on WIPP primarily 
support the requirement to recertify the facility to meet EPA standards 
on a five-year cycle. The Department believes, now that WIPP is 
operational, efficiencies will be realized that eliminate the need to 
restore the $9.3 million fiscal year 2000 funding to Sandia National 
Laboratory in fiscal year 2001. Proposed fiscal year 2001 funding for 
Sandia National Laboratory for the WIPP recertification effort is $19.8 
million.

               WIPP--WASTE STORAGE TRANSPARENCY TEST BED

    Dr. Huntoon, the National Defense Authorization Act for fiscal year 
2000 stated that ``The committee directs the Department of Energy to 
develop a Plan to establish a demonstration and training program using 
the WIPP repository system as a test bed facility to develop 
transparent monitoring technologies for waste storage and to 
demonstrate them to the international community. The Department will 
report its plan to the Congress by March 1, 2000.''
    This Report is now long overdue.
    This use of WIPP could be used to enhance the mission of the 
Carlsbad facility to support an area of international importance.
    Question. When will the DOE report on the use of WIPP as a test bed 
for international transparency of waste storage technologies be 
delivered to Congress?
    Answer. The Office of Environmental Management and the Office of 
Nuclear Non-Proliferation are preparing this report. The report will be 
forwarded to the Congress in the near future.
                                 ______
                                 

              Questions Submitted by Senator Thad Cochran


                        VITRIFICATION TECHNOLOGY

    Question. The DOE Safety Division, the National Academy of Sciences 
and the GAO have warned against DOE placing all its reliance on a 
single high level nuclear waste vitrification technology. Should DOE 
have a backup vendor and an alternate technology under development?
    Answer. Given the extensive and successful testing, demonstration, 
and independent reviews conducted to date on the vitrification 
technologies proposed for treatment of Hanford's tank wastes, DOE has 
confirmed, with a high degree of confidence, the technical performance 
of the proposed vitrification technologies. The proposed technologies 
are mature and robust and are expected to perform as designed and be 
capable of processing essentially all of Hanford's tank wastes. The 
technologies are in existence and in use around the world, and have 
been extensively and successfully tested during the design phases on 
Hanford's tank waste. The technologies have been applied on a 
production scale basis using validated simulants and on a bench scale 
basis using actual high-level wastes. Additional samples have been 
tested on a pilot-scale basis using validated simulants; and a pilot-
scale melter, operating successfully in Columbia, Maryland, is 
continuing to test the technologies. In addition, similar technologies 
are currently being used for high level waste (HLW) vitrification at 
the West Valley Demonstration Project in New York and the Defense Waste 
Processing Facility at the Savannah River Site in South Carolina.
    Nevertheless, given the significant life-cycle costs related to HLW 
disposition across the EM complex and in response to previous years' 
Energy and Water Development Appropriations Conference Report language, 
the Department is looking at alternatives to the current pre-treatment 
processing and vitrification processes. Fiscal year 2000 activities 
include funding for additional bench-scale tests of the Advanced 
Vitrification System (AVS), a concept to vitrify high-level waste in 
individual canisters. Future development and funding of AVS and other 
technologies will be contingent on results showing potential high 
payback.
    Question. Concerns have been raised that DOE's Waste Acceptance 
Product Specifications' focus only on existing technology and a 
borosilicate glass vitrified product may serve as a barrier to the 
development of better technology for waste vitrification. What is your 
response?
    Answer. The Department issued the Waste Acceptance Product 
Specifications (WAPS) in 1996 and the latest revision (3) in 1999. The 
WAPS were coordinated with the Department's Civilian Radioactive Waste 
program and cover the requirements that a producer of a high-level 
waste (HLW) form must meet. The present HLW glass production at West 
Valley and at the Defense Waste Processing Facility at the Savannah 
River Site are producing glass that will meet these requirements. The 
glass product must be comparable to a ``benchmark'' glass, and any 
product that is comparable in characteristics is considered to meet the 
requirements.
    Development of HLW glasses in the United States and abroad has 
focused on borosilicate glass. Thus, the highest degree of confidence 
and experience is with borosilicate glass. However, if there were 
sufficient incentive and adequate performance, other HLW forms may also 
be determined to be acceptable in the future. Such a determination will 
require that valid data are available to meet the WAPS, including 
leaching data acceptable to the U.S. Environmental Protection Agency to 
allow delisting of components that are regulated as hazardous under the 
Resource Conservation and Recovery Act.
    The Department is reviewing the incentives and performance 
requirements for other forms of HLW and the available technologies to 
produce other waste forms with lower volumes. The results of this 
review will provide a basis for longer term research and development.
    Question. Is there any high level waste vitrification technology 
(existing or under development) with the potential to accept variable 
chemistry waste feeds with minimal or no blending? In answering this 
question, please address the Advanced Vitrification System and its 
potential use at INEEL.
    Answer. Each situation is unique and requires specific 
investigations as to the variability of the chemistry that may be 
acceptable. In all cases, the product must be evaluated against 
predetermined criteria to determine its consistency, homogeneity, and 
acceptability as the composition varies. Blending of the initial feed 
materials is considered necessary to establish uniformity for quality 
control of the solidified product in canisters, because sampling of a 
canister filled with glass is not practical.
    A number of technologies exist that have the potential to process a 
wide variability in feed compositions, with comparable blending, by 
achieving higher temperatures, e.g., cold-wall crucible melters under 
development in France and Russia, various plasma arc furnaces, and the 
Advanced Vitrification System under development by the Radioactive 
Isolation Consortium. As concentrations of certain chemicals become 
higher, higher melting temperatures are required to produce an 
acceptable product. We anticipate that wastes from some of the tanks at 
Hanford and the Idaho National Engineering and Environmental Laboratory 
waste may benefit from vitrification at higher temperatures to assure 
an economical low volume of solidified waste.
    Question. Is there any high level waste vitrification technology 
(existing or under development) with the potential to allow the HLW 
feed loading to be above 60 percent, greatly reducing the number of 
canisters for disposal?
    Answer. The amount of waste oxides that can be included in a waste 
form directly affects the melting temperature and the quality of the 
final product. At present, we do not have data that show that we can 
achieve an acceptable product with waste oxide loadings at 60 percent 
or above. A number of technologies exist that have the potential to 
process higher waste oxide loading by achieving higher temperatures, 
e.g., cold-wall crucible melters under development in France and 
Russia, various plasma arc furnaces, and the Advanced Vitrification 
System under development by the Radioactive Isolation Consortium. 
However, no assurance exists that the products are acceptable according 
to the DOE Waste Acceptance Product Specifications.
    Question. The DOE standards for vitrified product have been judged 
by the Nuclear Regulatory Commission to be unrelated to the regulatory 
standards for disposal in a repository. DOE terms the standards ``Waste 
Acceptance Criteria.'' Why is DOE specifying a product to be delivered 
when that product has not been approved by the NRC for disposal?
    Answer. The DOE Office of Civilian Radioactive Waste Management 
(OCRWM) has developed acceptance requirements for commercial spent 
nuclear fuel and Government-owned nuclear materials expected to be 
disposed of by DOE in a licensed geologic repository. These were 
established in an attempt to ensure compliance with applicable statutes 
and regulations including Nuclear Regulatory Commission (NRC) 
requirements contained in Title 10, Code of Federal Regulations, Part 
60 (10 CFR 60) for the ``Disposal of High-Level Radioactive Wastes in 
Geologic Repositories.'' The DOE Office of Environmental Management 
(EM) developed the ``Waste Acceptance Product Specification'' (WAPS) to 
meet specific OCRWM acceptance requirements for high-level waste (HLW), 
and support the treatment of HLW in parallel with separate efforts 
aimed at determining the suitability of the Yucca Mountain site for a 
geologic repository. These criteria will continue to be refined, as 
more is understood about long-term disposal, and as regulations are 
updated. The NRC is updating 10 CFR 60 to 10 CFR 63, and there are no 
expected changes in the proposed waste acceptance criteria concerning 
HLW. The NRC will not evaluate the acceptability of HLW products, but 
rather will issue a license based on the ability of the repository to 
safely contain HLW and spent nuclear fuel from the accessible 
environment. DOE plans to submit a license application for a geologic 
repository in 2002.
    OCRWM works with the NRC, and EM works closely with OCRWM on the 
development of the waste acceptance criteria contained in the WAPS. The 
WAPS are specified for the vitrified HLW being produced by the Defense 
Waste Processing Facility at the Savannah River Site and the West 
Valley Demonstration Project. The Department initiated radioactive 
operations at these two sites, in order to place the waste in a safer, 
more stable vitrified form, recognizing that there was some 
programmatic risk in beginning to produce HLW canisters without final 
acceptance requirements. However, the risk is minimal because these 
vitrified products meet the WAPS waste acceptance criteria, and DOE 
believes that they can be safely disposed of in a repository licensed 
under NRC repository disposal requirements. For the same reasons, the 
WAPS are specified for vitrification of the Hanford HLW.
    Question. In 1997, and for two years following, Congress requested 
the Department to invest in a promising technology that would vitrify 
waste in its final storage container, thereby offering a potential 
alternative technology for nonhomogeneous tank wastes at Government 
facilities. What is the status of DOE's investigation into this 
technology? Does DOE have plans for its further development?
    Answer. Through fiscal year 1999, the Department has provided a 
total of $3.3 million to support the development of an Advanced 
Vitrification System (AVS). Under the terms of the contract with the 
AVS developer, Radioactive Isolation Consortium, the Department 
conducted a technical and programmatic review in October 1999 to 
determine if AVS had met all of the technical criteria required to 
proceed to an advanced development phase of the project, which would 
have included the construction of a pilot facility. Based on the 
research and development conducted by the developer, the review panel 
concluded that the AVS did not meet the technical criteria needed to 
move to the next phase of development.
    However, given the inherent complexities associated with treating 
high-level waste and the consequent life cycle cost, the Department is 
working expeditiously to consider viable technology options to address 
the treatment of high-level waste at Hanford and other sites. In view 
of the initial AVS review, which found the process to have merit, the 
Department has decided to structure continued work on the AVS 
technology in a manner that addresses the identified technical 
weaknesses and supports additional bench-scale tests during fiscal year 
2000.
    Question. Is DOE aware of a recent National Academy of Science 
report entitled ``Alternative High-Level Waste Treatment at the Idaho 
National Engineering and Environmental Laboratory'' in which a single 
use melter concept is described as having advantages over continuous 
single melters? What is DOE's view of the single use melt-in-final-
disposal container development program? Should it be extended to cover 
the Idaho (INEEL) high level waste?
    Answer. Yes, we are aware of the National Academy of Sciences (NAS) 
report, which covers many of the options for treatment and production 
of various waste forms for the Idaho National Engineering and 
Environmental Laboratory (INEEL) high-level waste. The single-use 
melter concept is one among several alternatives that are candidates. 
As the report states, ``the committee concluded that, in short, not 
enough information is available to make a sensible choice among 
technical alternatives.'' DOE's view is to technically review the many 
options available, including the Advanced Vitrification System under 
development by the Radioactive Isolation Consortium, on a comparable 
basis to determine the course of developments best applicable to future 
Hanford applications as well as INEEL. We currently expect to complete 
this review by the end of the fiscal year. In addition, the Department 
is preparing an Environmental Impact Statement (EIS) on the INEEL high-
level waste that evaluates various technologies and programmatic 
alternatives; this EIS will lead to a Record of Decision (ROD) late 
this calendar year that will document the path forward for high-level 
waste disposition at INEEL. The results of this review, the NAS report, 
and the final EIS and ROD will provide a basis for future funding and 
development of melters and waste forms.
                                 ______
                                 

              Questions Submitted by Senator Slade Gorton

                             HANFORD TANKS

    Question. The Department's most compelling environmental need is 
the cleanup of the high-level waste tanks at Hanford. These tanks are 
well beyond their expected lifetime and many have already leaked. 
Plumes of radioactive contamination are slowly moving toward the 
Columbia River--the very lifeblood of my region.
    The Department is obligated through a legally enforceable consent 
decree negotiated with the state of Washington to adhere to a clearly 
understood schedule for the removal of the wastes from these tanks and 
for their vitrification into a form suitable for ultimate disposal. But 
negotiations to revise this Tri-Party Agreement recently broke down and 
environmental regulators with the state and regional EPA office 
recently imposed deadlines to keep DOE on track for building the 
vitrification and treatment facilities.
    What are the Department's plans to resolve this Tri-Party Agreement 
dispute and to maintain the schedule for stabilizing and cleaning up 
the high-level waste in the Hanford tanks?
    Answer. On May 10, 2000, following a meeting with Washington 
Governor Gary Locke and Attorney General Christine Gregoire, Secretary 
Richardson announced new commitments to the State of Washington. They 
include amending an existing consent decree to include two new 
milestones for selecting a new Hanford high-level waste treatment 
design and construction contractor, attempting to negotiate a new 
consent decree to establish commitments aligned to the new contract, 
committing to no shipments of waste to Hanford from new sources while 
the Department works to get the new contract on firm footing, 
discussing with the State longer term commitments on shipment of waste 
into the State, and engaging the Department, the State and the U.S. 
Environmental Protection Agency in a discussion on realigning Hanford 
cleanup commitments to ensure they are achievable and address the most 
important problems first.
    Question. Specifically, how does the Secretary plan to address the 
concerns of Governor Locke and others that my state should not be asked 
to accept shipments of additional DOE low-level and mixed radioactive 
waste for disposal at Hanford until we have an absolute commitment that 
the Department will maintain the schedule for cleaning up the high-
level waste in the Hanford tanks?
    Answer. On May 10, 2000, following a meeting with Washington 
Governor Gary Locke and Attorney General Christine Gregoire, Secretary 
Richardson announced new commitments to the State of Washington. They 
include amending an existing consent decree to include two new 
milestones for selecting a new Hanford high-level waste treatment 
design and construction contractor, attempting to negotiate a new 
consent decree to establish commitments aligned to the new contract, 
committing to no shipments of waste to Hanford from new sources while 
the Department works to get the new contract on firm footing, 
discussing with the State longer term commitments on shipment of waste 
into the State, and engaging the Department, the State and the U.S. 
Environmental Protection Agency in a discussion on realigning Hanford 
cleanup commitments to ensure they are achievable and address the most 
important problems first.
    Question. Please describe the Department's commitment to proceed 
with the privatization project for vitrifying the high-level waste in 
the Hanford tanks.
    Answer. The Department is strongly committed to treating the wastes 
in the tanks at Hanford for subsequent permanent disposal using the 
most cost-effective contracting mechanism. The Secretary's May 8 
announcement maintains this commitment, but through a different 
acquisition strategy.
    Question. Will the use of a privatization contractor for the 
Hanford tank waste vitrification be more cost-effective to the taxpayer 
than use of traditional DOE management and operations contractor?
    Answer. The Department determined that British Nuclear Fuels 
Limited, Inc.'s (BNFL) April 24, 2000, cost proposal for the Hanford 
privatization contract was unacceptable in many areas, including cost, 
schedule, management, and business approach. Therefore, on May 8, 2000, 
the Secretary announced that the privatization contract with BNFL will 
be terminated. The Department will compete a design and construction 
contract, with a new contractor being selected by January 15, 2001. 
Near-term operating responsibility will be transitioned to an existing 
contractor, and later the Department will solicit competitive bids for 
operation of the completed facility.
                                 ______
                                 

               Questions Submitted by Senator Larry Craig


                          STATUS OF LITIGATION

    Question. What is the status of the utility lawsuits against DOE 
for failure to begin removing spent nuclear fuel from reactor sites in 
1998?
    Answer. Several utilities have sued DOE for breach of contract in 
the Court of Federal Claims. However, those cases are stayed pending 
resolution of special appeals to the Federal Circuit on the issue of 
whether the utilities first must exhaust administrative remedies and 
file claims with the Department. DOE believes the proper forum is with 
DOE's contracting officer. Oral arguments in the special appeals were 
heard on May 3, 2000.

                     RADIATION PROTECTION STANDARDS

    Question. Prior to your confirmation, you and I had a private 
discussion about the need for some common sense in setting a radiation 
standard for the proposed repository at Yucca Mountain. The EPA has 
proposed 15 millirem, with 4 millirem allocated for groundwater. The 
Nuclear Regulatory Commission has proposed 25 millirem as fully 
protective of public health and safety. You committed to look into this 
matter. What have you concluded regarding the radiation standard?
    Answer. The NRC's proposed licensing requirements for Yucca 
Mountain differ in two important respects from the standards in EPA's 
proposed rule. First, NRC proposes an all-pathways individual dose 
limit of 25 mrem per year, consistent with standards applicable to 
commercial nuclear facilities, and as opposed to the 15 mrem all-
pathways per year limit proposed by EPA. More importantly, NRC does not 
include separate groundwater protection requirements.
    EPA's proposed 15 mrem/year all-pathways individual protection 
standard is extremely rigorous. The Department believes a 25 mrem/year 
all-pathways standard is more reasonable and fully adequate as the 
generally applicable standard for all nuclear facilities.
    The Department is particularly concerned with the proposed 
groundwater standard. While the Department supports the general goal of 
protecting individuals from exposures through any potential pathway, 
including groundwater, the proposed groundwater standard is redundant 
and unnecessary for the protection of public health and safety because 
the all-pathways standard adequately protects human health and safety 
without the need for another standard.
    The Department has provided comments to EPA on the issues discussed 
above and urged the adoption of a 25 mrem/year standard, which, if 
adopted, would result in a stringent but implementable rule, and would 
provide appropriate protection of the public and the environment. If 
EPA were to select unrealistic or unnecessarily conservative standards, 
the result could be the rejection of an otherwise suitable site, and 
the de facto rejection of the geologic disposal option without 
commensurate benefit to the protection of public health and safety. 
Such rejection would not avoid the consequences of radioactive waste 
management, but it would require society to resort to a different and 
currently undefined approach.
                                 ______
                                 

              Question Submitted by Senator Robert C. Byrd

            DEACTIVATION AND DECOMMISSIONING PROGRAM FUNDING

    Question. The National Energy Technology Laboratory located in 
Morgantown, West Virginia, and Pittsburgh, Pennsylvania, administers 
nearly half of the Department of Energy's Deactivation and 
Decommissioning focus area, which seeks to promote the rapid deployment 
of better technologies to treat, stabilize, and dispose of nuclear 
waste at Department of Energy sites across the nation; reduce risks to 
site workers, the public, and the environment; and to provide a 
practical approach for testing a technology's capabilities. I 
understand that the DOE's deactivation and decommissioning backlog is 
currently estimated at $33 billion. I am further advised that one-third 
of all technologies deployed by the EM science and technology program 
have been in the D&D focus area. Despite successes of the Deactivation 
and Decommissioning focus area thus far and its potential to continue 
to help address the nation's $33 billion clean-up backlog, the D&D 
science and technology funding been cut from $27 million in fiscal year 
2000 to $18 million in fiscal year 2001, which constitutes a 33 percent 
cut.
    Should not the program be increased, rather than reduced, in view 
of the savings that even a small increase in efficiency in cleanup 
operations could yield? My figures indicate that if the Deactivation 
and Decommissioning program could stimulate a mere 3 percent in 
efficiency in the $33 billion cleanup effort, the taxpayers could save 
nearly a billion dollars. Why is the program being cut instead of 
increased?
    Answer. In developing its fiscal year 2001 budget request, the 
Department had to make a number of tough decisions among the competing 
demands for funding. One resulted in a slight reduction ($9.1 million) 
in the Science and Technology budget request. Similarly, there are also 
competing science and technology needs. Our Science and Technology 
investments are planned and managed in conjunction with EM's cleanup 
project managers and stakeholders. The allocation of funding among our 
Science and Technology activities is done based on needs that have been 
identified by cleanup project managers and ranked using a national 
multi-attribute prioritization system. This process takes into 
consideration major cleanup cost drivers, technology deployment, site 
needs, and technical risk.
    Based on our total budget request for Science and Technology and 
competing priority needs, such as the high-level tank waste and nuclear 
material technology areas, we consider $18.4 million an appropriate 
level for deactivation and decommissioning activities.

                         CONCLUSION OF HEARINGS

    Senator Craig. Thank you very much. And the subcommittee 
will stand recessed.
    [Whereupon, at 12 noon, Tuesday, April 11, the subcommittee 
was recessed, to reconvene subject to the call of the Chair.]


    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2001

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--At the direction of the subcommittee 
chairman, the following statements received by the subcommittee 
are made part of the hearing record on the Fiscal Year 2001 
Energy and Water Development Appropriations Act.]

               CALIFORNIA NAVIGATION AND RELATED PROJECTS

               Prepared Statement of the Port of Stockton

    Mr. Chairman: I am LeRoy F. Hieber, Port Director of the Port of 
Stockton in Stockton, California.
    The San Francisco Bay to Stockton Ship Channels Project is an 
authorized project.
    The Port of Stockton is primarily a bulk port that serves industry 
and agriculture in the San Joaquin Valley in California, and the bulk 
imports and exports of the Western States.
    The Port of Stockton recognized as far back as 1952 that deeper 
channels would be needed for the movements of bulk cargoes and 
requested the Corps of Engineers to deepen the channel in 1952. Coal, 
grain, fertilizers and many other bulk materials require deeper 
channels to serve the larger bulk carriers.
    The Nation needs ports that can handle larger, more economical and 
more fuel-efficient vessels close to the production areas, both 
agricultural and industrial.
    The Port of Stockton is such a port.
    The dredging of the Stockton Channel portion of the project to 
thirty-five feet was completed in 1987. A copy of the Port of 
Stockton's most recent annual report is attached. Cargo volume has 
increased since the dredging of the Stockton Channel was completed; and 
the project is certainly paying off.
    Therefore, we requested the Corps of Engineers for a new navigation 
study (reconnaissance study) to deepen the Channel further, to forty 
feet or more, if economically feasible. The funding for this study was 
appropriated in fiscal year 1998. The reconnaissance study determined 
that there is a Federal interest in further deepening the Channel.
    For the 2001 fiscal year, we are requesting $300,000 for the 
feasibility study. Because this study has to be coordinated for proper 
timing with the U.S. Navy's project to deepen the Channels to the 
Concord Weapons Station, this study needs to be done now. The 
feasibility study is fifty percent cost-shared.
    The President's proposed 2001 budget only contains $150,000 for the 
feasibility study, but the feasibility study and the eventual 
construction, needs to be closely tied to the deepening of the Channel 
through San Pablo Bay, and this project needs to be timed appropriately 
with that construction. Deferring $150,000 now could cost millions in 
extra cost later.
    The President's proposed 2001 budget includes $2,028,000 for 
maintenance. This is insufficient. Every time insufficient funds are 
provided for complete maintenance, and the maintenance dredging, 
therefore, cannot be completed at one time, an additional mobilization 
and de-mobilization cost of between $500,000 and $1 million is incurred 
when it is completed. $3 million is required for an average, complete 
maintenance dredging job. Appropriating less than $3 million results in 
extra mobilization and de-mobilization cost between $500,000 and $1 
million each time each additional maintenance job, which increases the 
cost by thirty percent to sixty percent, not counting staff time, 
testing cost, permitting cost, et cetera. It could very well double the 
actual cost.
    We urge you to appropriate $300,000 for the Stockton Deep Water 
Channel Feasibility Study. We also strongly urge that $3 million be 
appropriated to maintain the Channels so that the present benefits also 
may continue to accrue, and to avoid the additional cost incurred when 
insufficient funds are provided to complete the required maintenance at 
one time.
                                 ______
                                 

              Prepared Statement of the Port of Long Beach

    I am E. D. Allen, Chief Harbor Engineer for the Port of Long Beach, 
California. The Port of Long Beach is this nation's largest container 
port. I have been authorized by the Board of Harbor Commissioners of 
the City of Long Beach to represent the Port of Long Beach in regard to 
fiscal year 2001 appropriations for the Los Angeles and Long Beach 
Harbors Model Study and Wave Data Collection Program; Los Angeles River 
maintenance dredging; Feasibility Studies for beach erosion; assessment 
study of LA Ocean Disposal Site 3; and Reconnaissance and Feasibility 
Studies for Contaminated Sediment Disposal.
    My more specific requests follow for listed projects.

Harbors Model Maintenance (Civil Works Budget Category--O&M)
    The Water Resources Development Act of 1976, Section 123, 
authorized the Chief of Engineers to operate and maintain the Los 
Angeles-Long Beach Harbor Hydraulic Model at the U.S. Army Corps of 
Engineers Waterways Experiment Station in Vicksburg, Mississippi as 
part of the Los Angeles and Long Beach Harbors Model Study. This model 
encompasses both port complexes in San Pedro Bay, which, as the third 
largest container port complex in the world, are ports of national 
strategic and defense significance. The hydraulic model, along with 
several numeric models, provide state-of-the-art methodology that can 
be used to provide operational improvements to the San Pedro Bay ports 
and many other harbor complexes. In addition, the Port, as the local 
agency, is assisting in the Corps effort to provide collection of 
continuous wave-gauge data by providing necessary support personnel and 
equipment for the maintenance of portions of the systems located at the 
Port.
    In fiscal year 2000, $165,000 was appropriated for maintenance of 
the physical model of San Pedro Bay. Recently, the Port used the model 
to analyze necessary navigation-related modifications to our upcoming 
port expansion and validate numerical model results. This effort is 
being funded by the Port and is on-going. It is necessary that the 
model remain ready for service such as this. Funding in fiscal year 
2001, in the amount of $170,000, would continue annual maintenance on 
the model. Additionally, we are requesting $335,000 in continued 
funding for the wave gauge (prototype) data acquisition and analysis 
program. The wave data gathering program is essential as it provides 
real-world information to compare to model performance. The wave data 
acquisition program began in 1987 to provide validation of the design 
of the 2020 Plan, our Master Plan for port expansion and navigation 
improvements. This program has now evolved to construction monitoring 
and model verification which needs to continue to confirm expected 
levels of impacts of the expansion plans. The shipping industry's 
increasingly larger vessel size continues to challenge port engineers. 
The need for modeling and wave gauge data acquisition continues to be a 
critical tool supporting the ports ability to create facilities 
compatible with changing trade conditions and operations. As a local 
agency, we are funding a new numerical modeling effort in the amount of 
$755,000 and this effort by us requires wave gauge data for 
verification. In summary, Congress is respectfully requested to 
appropriate $505,000 for fiscal year 2001 to perform this needed model 
data acquisition work.

Los Angeles River Maintenance Dredging (Civil Works Budget Category--
        O&M)
    The Port of Long Beach also concurs with and supports the 
recommendation of C-MANC and the City of Long Beach to federal fund 
remedial maintenance dredging to remove accumulated flood-deposited 
silt in the mouth of the Los Angeles River. During the storms of 1995, 
flood-deposited silt closed the mouth of the Los Angeles River to 
navigation. This restricted regularly scheduled water route 
transportation between the cities of Long Beach and Avalon, creating an 
economic emergency. Reacting to this, the U. S. Army Corps of Engineers 
removed 300,000 cubic yards from the channel which allowed for minimal 
resumption of navigation.
    On a yearly basis substantial quantities of silt accumulate and 
remain in the channel. These silt deposits create the likelihood of 
future serious restrictions and safety hazards to commercial and 
recreational boating activity in, and adjacent to, the Long Beach 
Harbor District and the associated businesses in Long Beach. Such 
restrictions and hazards have resulted in prior accidents and 
litigation against the City and Federal Government.
    The Port supports the City in recommending that these silt deposits 
be removed on an annual basis as a scheduled work item. In the draft of 
``Project Plan for Los Angeles River Estuary Maintenance Dredging, Long 
Beach, CA, October 1994'' (Draft Project Plan-1994), the Corps of 
Engineers estimated an average annual deposit of silt in the estuary of 
485,000 cubic yards. It is imperative for current operations, that a 
long range remedy be found for the Los Angeles River mouth, if 
navigational utility and effective flood control capability is to be 
maintained.
    It is estimated by the Corps of Engineers, that maintenance 
dredging of the channel to a minimum usable width requires removal of 
approximately 185,000 cubic yards at an annual cost of over $2,000,000.
    Since work has not been annually done, Congress is therefore 
requested, to appropriate $3,800,000 for silt removal. This work is 
included in the line item known as Los Angeles Long Beach Harbors in 
the Civil Works Budget.

LA-3 Site Designation Study (Civil Works Budget Category--General 
        Investigation)
    The Corps of Engineers and U.S. Environmental Protection Agency 
initiated a study in fiscal year 1999 to permanently designate an Ocean 
Disposal Site (referred to as LA-3) in the deep waters offshore of 
Newport Beach. As the LA-3 study progressed, it was concluded that the 
annual capacity of a currently designated Ocean Disposal site referred 
to as LA-2 offshore of the Port of Long Beach and the Port of Los 
Angeles needed to be reassessed for potential expansion. We believe 
that the reassessment of LA-2's annual capacity could best be 
accomplished by combining this effort into the LA-3 study. LA-2 has 
historically played a vital role in the economic expansion of both the 
Port's of Long Beach and Los Angeles by providing a receiving site for 
material dredged to deepen our navigation channels. Expanding the 
capacity of LA-2 would ensure the continuation of our economic 
vitality. Therefore, we request the Federal funds in the amount of 
$1,000,000 be applied to the LA-3 Ocean Disposal Site Study in fiscal 
year 2001 to allow this study to incorporate the LA-2 annual capacity 
reassessment work effort and to continue the site designation work 
effort for LA-3.

Los Angeles County Regional Dredge Management Plan (Civil Works Budget 
        Category--General Investigations)
    The Contaminated Sediment Task Force, of which the Los Angeles 
District of the U.S. Army Corps of Engineers is a key member, is 
charged with investigating the major issues involved in formulating and 
implementing a regional contaminated sediment management strategy 
including four major issues:
  --Upland Disposal.--Blending of contaminated sediments with clean 
        sediment to make structural fill as a promising disposal 
        option. However, there is no quantitative data on proportions, 
        handling methods, and desired end products that would support 
        management decisions on disposal/reuse options. There is great 
        need to undertake a pilot handling project to collect that 
        information.
  --Screening Guidelines.--Quantitative sediment chemistry guidelines 
        are required to screen sediments for aquatic disposal and 
        necessitate gathering historical regional data on sediment 
        chemistry, toxicity, and bio-accumulation to be analyzed for 
        region-specific relationships between sediment chemistry and 
        toxicity.
  --Watershed Management.--Control of future contamination via land 
        runoff as a key management issue. Field and modeling study of 
        sediment and contaminant transport in the Los Angeles region 
        are required both to build on existing watershed efforts and to 
        acquire specific data on the movement of contaminants into 
        harbors.
  --Aquatic Disposal.--A regional confined aquatic disposal facility is 
        a promising management tool which provides a multi-user site 
        active over a period of many years. The approach requires an 
        engineering feasibility study of such issues as: quantifying 
        the containment disposal capability, the interface chemistry 
        between sediments of multiple users, and determining best 
        management practices.
    The program would be managed by the Los Angeles District and 
requires $400,000 in Federal funding; substantial additional funding 
would come from State and local sources. Congress is therefore 
requested to appropriate $400,000 in fiscal year 2001 to support the 
Contaminated Sediment Task Force in their effort to continue 
development of a Los Angeles County Regional Dredge Management Plan.

Feasibility Study Beach Erosion (Civil Works Budget Category--General 
        Investigations)
    The Port of Long Beach also supports C-MANC and the City of Long 
Beach on their request for federal funding to initiate a Corps of 
Engineers feasibility study on beach erosion. This beach erosion 
problem is directly related to the focusing affect the federal 
breakwater has on our large commercial harbor complex and surrounding 
beaches. In southeastern Long Beach, east of the Port's land and 
channels, and directly effected by openings in the federal breakwater, 
a beach and seawall protects approximately $200,000,000 worth of homes 
based on the 1990 U.S. census. We expect the current home value to be 
significantly higher. Steady erosion constantly reduces the beach from 
an optimum of 175 feet to as little as 50 feet when in late 1994 the 
City was forced to rebuild the beach. Winter storms continue to reduce 
the beach width.
    The City has also experienced erosion in the west beach area. 
Although homes are not endangered, public improvements, including 
lifeguard stations, public restrooms, a bicycle and pedestrian trail, 
and a parking lot, are at risk. The cause of the new problem is 
unclear, indicating the need for a thorough study of the beach erosion 
problem inside the federal breakwater.
    The primary method of protecting the homes has been annual 
rebuilding of sand berms during high tides or expected storms. The City 
has invested over $5,500,000 in capital improvement projects, annual 
beach rebuilding, and storm protection to control the beach erosion 
over the past 17 years. Despite this effort, in 1989 and 1993, storm 
waves eroded the beach and breached the protective seawall, causing 
damage to homes. The City is also defending itself against a lawsuit by 
one of the homeowners who is claiming that the City failed to halt 
erosion that narrowed the beaches in front of his home to less than the 
desired width adopted in the 1980 Local Coastal Plan.
    In fiscal year 1997, $252,000 was appropriated to complete the 
reconnaissance study of the beach erosion problem within the City of 
Long Beach. It is now requested that Congress appropriate $500,000 in 
fiscal year 2001 to initiate the follow-up feasibility study.
    Attached hereto is a Resolution that was adopted by the Board of 
Harbor Commissioners of the City of Long Beach on February 28, 2000, 
which contains data relating to the background of the Los Angeles and 
Long Beach Harbors Model Study, the Los Angeles River dredging, LA-3 
Site Designation Study, the Los Angeles Count Regional Dredge 
Management Plan, the beach erosion problem in Long Beach, and other 
related navigation and economic matters. The resolution stresses the 
need for federal assistance in developing economic, technical and 
environmental background information essential to the design and 
permitting of Port facilities vital to regional and national interests. 
The Port of Long Beach is the largest container port in the United 
States and is an integral part of an economic engine bringing $3.7 
billion annually in customs receipts into the Federal Treasury and has 
generated approximately 500,000 jobs locally, regionally and 
nationally. We are truly a port and harbor of national significance.
    We kindly ask that Congress continue its support of these projects 
in fiscal year 2001 by appropriating the requested funds.
    Thank you for permitting me the privilege of this testimony.

                         RESOLUTION NO. HD-2002

    A RESOLUTION OF THE BOARD OF HARBOR COMMISSIONERS OF THE CITY OF 
LONG BEACH, CALIFORNIA, REQUESTING THE CONGRESS OF THE UNITED STATES TO 
APPROPRIATE FUNDS TO THE UNITED STATES ARMY CORPS OF ENGINEERS IN ORDER 
TO CONTINUE THE LOS ANGELES AND LONG BEACH HARBORS MODEL STUDY RELATING 
TO IMPROVEMENTS IN SAN PEDRO BAY, TO CONDUCT MAINTENANCE DREDGING AT 
THE MOUTH OF THE LOS ANGELES RIVER, TO EXPAND THE LA-3 SITE DESIGNATION 
STUDY, TO CONDUCT FEASIBILITY STUDIES OF BEACH EROSION, AND TO CONTINUE 
THE LOS ANGELES COUNTY REGIONAL DREDGE MANAGEMENT PLAN
    WHEREAS, the Ports of Long Beach and Los Angeles in San Pedro Bay, 
California, are two of a limited number of sites on the West Coast of 
the United States which possess the potential for deep water port 
facilities as recommended in the West Coast Deep Water Port Facility 
Study conducted by the United States Army Corps of Engineers; and
    WHEREAS, the Ports of Long Beach and Los Angeles have a record of 
both physical and fiscal growth to the extent that together the two 
ports are presently handling over 200 million metric revenue tons 
including 8.2 million twenty-foot equivalent units of container cargo 
annually (calendar year 1999), and the international cargo handled is 
valued at over $160 billion annually (calendar year 1998); and
    WHEREAS, the growth and activity of the Ports of Long Beach and Los 
Angeles have a significant regional and national economic effect; and
    WHEREAS, in 1998 the Los Angeles Customs District remained the 
Nation's top entry and exit point for international cargo, valued at 
over $181 billion, generating approximately $3.7 billion in Federal 
revenues collected as United States Customs duties, approximately 85 
percent of which is generated by the Long Beach and Los Angeles Ports; 
and
    WHEREAS, both Ports are now, and are increasingly becoming, hard-
pressed to provide facilities to meet the needs of the shipping 
industry, and to that end are conducting extensive studies, in 
conjunction with federal studies, to determine navigational, 
transportation, and environmental requirements necessary to provide 
economic and adequate surge-free berthing and cargo handling 
facilities; and
    WHEREAS, all existing land in the Port of Long Beach which can be 
developed for shipping operations has been utilized or is in the 
process of being developed and, in order to meet the needs of the 
following decade, the design, permitting and construction of new lands 
must continue; and
    WHEREAS, continuation of the studies currently underway by the 
United States Army Corps of Engineers, consisting of the Los Angeles 
and Long Beach Harbors Model Study, including maintenance and operation 
of the San Pedro Bay Hydraulic Model at Vicksburg, Mississippi, as 
authorized by Section 123 of the Water Resources Development Act of 
1976, is needed for use in the design and permitting processes for 
future landfills for port development; and
    WHEREAS, the Los Angeles River is the largest of numerous flood-
control channels constructed and maintained jointly by the Los Angeles 
County Flood Control District and the United States Army Corps of 
Engineers, and silt deposit from storm runoff accumulating in the mouth 
of the Los Angeles River in the City of Long Beach constitutes a 
restriction and hazard to both commercial and recreational boating; and
    WHEREAS, the Southern California region has a significant volume of 
contaminated sediments from area runoff and other activities and the 
Los Angeles District of the U.S. Army Corps of Engineers is a key 
member of a Task Force charged with the investigation of major issues 
involved in formulating and implementing a Los Angeles County Regional 
Dredge Management Plan; and
    WHEREAS, at southeastern Long Beach in front of Alamitos Bay a 
beach and seawall protects $200 million worth of homes (1990 U.S. 
census data). The primary method of protecting the homes has been 
annual beach rebuilding and sand berms during storms. Steady erosion 
has reduced the beach from optimum width of 175 feet to as little as 50 
feet and continues to reduce beach width despite rebuilding efforts in 
1994. The City has invested over $5.5 million in capital improvement 
projects, annual beach rebuilding, and storm protection to control the 
beach erosion over the past 17 years. Despite this effort, in 1989 and 
1993, storm waves eroded the beach and breached the protective seawall 
causing damage to homes; and
    WHEREAS, the Board of Harbor Commissioners of the City of Long 
Beach, as a properly constituted and financially responsible local 
agency, by its Resolution No. HD-890, adopted August 3, 1965, expressed 
its intent to enter into such agreements as may be reasonably required 
to further federal projects for the development and improvement of Long 
Beach and Los Angeles Harbors.
    NOW, THEREFORE, the Board of Harbor Commissioners of the City of 
Long Beach resolves as follows:
    Section 1. That the Congress of the United States be, and is 
hereby, respectfully requested to appropriate simultaneously the funds 
necessary for the Chief of Engineers, United States Army Corps of 
Engineers, to maintain the San Pedro Bay Hydraulic Model at the 
Waterways Experiment Station at Vicksburg, Mississippi, as part of the 
Los Angeles and Long Beach Harbors Model Study.
    Sec. 2. That the Congress of the United States be, and is hereby, 
respectfully requested to appropriate simultaneously the funds 
necessary for the Chief of Engineers, United States Army Corps of 
Engineers, to continue the existing wave gauge (prototype) data 
acquisition and analysis program.
    Sec. 3. That the Congress of the United States be, and is hereby, 
respectfully requested to appropriate simultaneously the funds 
necessary for the Chief of Engineers, United States Army Corps of 
Engineers, in conjunction with the Los Angeles County Flood Control 
District, to engage in the necessary maintenance dredging at the mouth 
of the Los Angeles River to remove silt deposits which have accumulated 
at that location.
    Sec. 4. That the Congress of the United States be, and is hereby, 
respectfully requested to support the Chief of Engineers, United States 
Army Corps of Engineers, to reassess dredge Ocean Disposal Site LA-2 
when conducting LA-3 Site Designation Study.
    Sec. 5. That the Congress of the United States be, and is hereby, 
respectfully requested to appropriate simultaneously the funds 
necessary for the Chief of Engineers, United States Army Corps of 
Engineers, to complete feasibility studies to develop and implement a 
Los Angeles County Regional Dredge Management Plan for Southern 
California.
    Sec. 6. That the Congress of the United States be, and is hereby, 
respectfully requested to appropriate simultaneously the funds 
necessary for the Chief of Engineers, United States Army Corps of 
Engineers, to complete feasibility studies to develop protective 
measures to prevent beach erosion within the City of Long Beach.
    Sec. 7. That the Executive Director of the Long Beach Harbor 
Department be, and he is hereby, directed to send copies of this 
resolution to the United States Senators and to Members of the House of 
Representatives from California, with a letter requesting their 
assistance in presenting this resolution before the proper 
Congressional committees.
    Sec. 8. That the Executive Director of the Long Beach Harbor 
Department be, and he is hereby, further directed to send copies of 
this resolution to the President of the United States; the Director, 
Office of Management and Budget; the Secretary of the Army; the Chief 
of Engineers, the Director, Directorate of Civil Works, the Division 
Engineer-South Pacific Division and the District Engineer-Los Angeles, 
all of the United States Army Corps of Engineers; and to such other 
interested persons as he may deem appropriate.
    Sec. 9. The Secretary of the Board shall certify to the passage of 
this resolution by the Board of Harbor Commissioners of the City of 
Long Beach, shall cause the same to be posted in three (3) conspicuous 
places in the City of Long Beach, and shall cause a certified copy of 
this resolution to be filed forthwith with the City Clerk of the City 
of Long Beach and it shall thereupon take effect.
    I hereby certify that the foregoing resolution was adopted by the 
Board of Harbor Commissioners of the City of Long Beach at its meeting 
of February 28, 2000 by the following vote:
    Ayes: Commissioners--Calhoun, Hancock, Peres, Kashiwabara, Hearrean
    Noes: Commissioners--None
    Absent: Commissioners--None
    Not Voting: Commissioners--None
                                           Carmen O. Perez,
                                                         Secretary.
                                 ______
                                 

     Prepared Statement of the Sacramento Area Flood Control Agency

    Dear Mr. Chairman and Members of the Subcommittee: We appreciate 
the opportunity to provide testimony to this Subcommittee, and extend 
our sincere appreciation for your past support of this community's 
efforts to protect the citizens and properties in the Capital City of 
California. In our continuing efforts to protect the Sacramento 
Metropolitan Area, the Sacramento Area Flood Control Agency (SAFCA), 
and its member agencies, support the following Federal appropriations 
for fiscal year 2001:

                        [In millions of dollars]
------------------------------------------------------------------------
                                                        FY 2001  FY 2001
                        Project                          Admin.   SAFCA
                                                        Request  Request
------------------------------------------------------------------------
Folsom Modifications: Modifications to Folsom Dam to    \1\ 5.0  \1\ 12.
 provide greater efficiency in managing flood storage                  0
 in Folsom Reservoir. NEW START.......................
South Sacramento Streams: Prevention of flooding of     \2\ 0.2  \1\ 5.0
 portions of Sacramento from the south, where four
 creeks convey foothill runoff through urbanized areas
 into Beach Lake and the Delta. NEW START.............
American River Common Elements: 24 miles of levee       \1\ 10.  \1\ 13.
 improvements along the American River and 12 miles of        0        0
 improvements along the Sacramento River levees, flood
 gauges upstream of Folsom Dam, and improvements to
 the flood warning system along the lower American
 River. Request includes $1.0 million to begin work on
 levee parity, authorized in WRDA 1999................
Sacramento River Bank Protection: Will correct harmful  \1\ 3.3  \1\ 5.0
 erosion along the banks of the American River that
 threatens the integrity of the existing levees.......
American River Watershed (Natomas): Reimbursement to    .......  \1\ 5.0
 SAFCA for the Federal share of the flood control
 improvements undertaken by the local project sponsor.
American River Plan: Funds to continue previously       \2\ 3.2  \2\ 5.0
 authorized planning and design of Sacramento flood          85
 protection projects..................................
Lower Strong & Chicken Ranch Sloughs (DO5 Pump          \3\ 0.1  \3\ 0.5
 Station): a feasibility study to restore 100-year            5
 level of flood protection to Chicken Ranch Slough
 drainage to the American River. This area has flooded
 four times since 1986................................
Magpie Creek: Authorized under the Corps= Section 205   \4\ N/A  \1\ 2.5
 Program, this project will provide a high degree of             \3\ 0.5
 flood protection on Magpie Creek. McClellan AFB......
                                                       -----------------
      Total...........................................   21.935     48.5
------------------------------------------------------------------------
\1\ Construction.
\2\Preconstruction Engineering and Design.
\3\ Surveys.
\4\ The Corps has requested $25.0 million for the Section 205 Program,
  which funds these two projects. Individual projects are not itemized
  in this request.


    Sacramento continues to have the ignoble distinction of being the 
urban area with the lowest flood protection in the nation according to 
the U.S. Army Corps of Engineers (Corps). Addressing this problem is 
our region's most critical infrastructure issue as evidenced by the 
formation of a joint powers agency, the Sacramento Area Flood Control 
Agency (SAFCA) to solve the problem and the millions of dollars spent 
over the past ten years on improvements and countless engineering 
studies. A major flood on the American River would cause between $7 and 
$16 billion in damage and likely result in lives being lost. The 
floodplain is home to over 400,000 residents, 150,000 homes, 5,000 
businesses, the State Capitol, and 1,300 government facilities.
    As part of the 1999 water Resources Development Act (WRDA), 
Congress authorized the most significant set of flood control 
improvements since Folsom Dam was constructed in 1955. While these 
improvements do not meet SAFCA's long term goal of providing 200-year 
flood protection, they will raise the minimum level of protection from 
about 85-year to 140-year and provide a foundation for additional 
improvements that will reach our goal. All interests from engineers to 
environmentalists; small businesses to corporations; community 
activists to the local homeowner agree Sacramento needs to move forward 
with these improvements as rapidly as possible. The five largest floods 
on the American River this century have all occurred since 1950. The 
last two floods, 1986 and 1997 were the largest ever recorded. When a 
new record flood occurs, and there is about 1 chance in 3 it will occur 
in the next 30 years, it will likely produce the worst flood disaster 
in this nation's history unless these improvements are complete. We 
hope you can understand our desire for appropriation levels that will 
allow the projects to proceed forward in an aggressive time frame.
    Sacramento has not been sitting idly since our near disaster in 
1986. Over $90.0 million in local funds have been spent on flood 
control improvements, engineering studies, public education and other 
activities to further our region's flood control objectives. We have 
been a very proactive and innovative community. Accomplishments to date 
include strengthening levees along the Sacramento River; raising and 
constructing new levees in North Sacramento and Natomas; raising levees 
protecting the Regional Wastewater Treatment Plant; negotiating an 
agreement for more flood space at Folsom; restoring bank erosion sites 
along the Lower American River; and development of a flood management 
plan including evacuation plans and development guidelines. The flood 
control improvements to our system played an important role in avoiding 
the devastating flood damages experienced by our neighbors to the north 
and south during the past few years. In addition, we have worked 
closely and cooperatively with the Corps and the State of California in 
systematically re-evaluating the flood control system protecting this 
region and identifying the projects necessary to significantly reduce 
our chances of a catastrophic flood. That work led to the 1999 WRDA 
authorizations and to the specific appropriations request summarized 
earlier and described in more detail below.
    Folsom Dam Modifications.--Folsom Dam was originally designed in 
the 1950s to provide a very high level of flood protection (250 to 300-
year). However, five major floods since the project was completed have 
caused the Corps to conclude that the level of flood protection 
actually provided is less than 100-year. This is substantially less 
than other similarly situated major urban areas around the nation 
including St. Louis, Kansas City, Dallas, Omaha, Minneapolis, and 
Pittsburgh.
    Following unsuccessful efforts to obtain authorization of a new 
flood control structure at Auburn in 1992 and 1996, the Corps, the 
State and SAFCA have focused their attention on identifying 
improvements to Folsom Dam and other existing flood control features 
that will cost effectively increase flood protection. As a result of 
these efforts, Congress authorized flood control improvements in 1992, 
1996 and again in 1999.
    The most recent improvements are to the outlet works at Folsom Dam 
which represent the most important steps for improving public safety in 
Sacramento. We believe the extreme existing risk and the consequences 
of a flood clearly justify an aggressive schedule. The Administration 
has included a new start and $5.0 million in its proposed budget for 
this project. This amount is predicated on a very relaxed schedule that 
assumes the Corps will not begin to prepare a Project Cooperative 
Agreement (PCA) until they have completed a decision document setting 
forth their decision on design details. SAFCA is asking that Congress 
direct the Corps to prepare the PCA in the most expeditious manner 
possible, and believes that this direction will allow the Corps to 
begin construction of this project three months sooner. With the 
earlier start of construction, more funds are needed, and SAFCA is 
requesting that the appropriation for this project be increased to 
$12.0 million.
    South Sacramento Streams Group Project.--In 1995, homes in the 
South Sacramento area were threatened by rain swollen creeks which 
reached to within a foot, and in some areas less, of overtopping the 
levees and channels and flooding adjacent residential subdivisions. The 
Corps 1998 feasibility study concluded much of the urban area of South 
Sacramento has less than 50-year flood protection from these urban 
streams. There are over 100,000 people and 41,000 structures in the 
floodplain of Morrison, Unionhouse, Florin and Elder Creeks that make 
up the South Sacramento Streams Group Project. Congress authorized the 
NED plan recommended by the Corps as part of the 1999 WRDA. The 
Administration's budget however includes only $0.2 million for 
continuing preliminary engineering and design (PED) based on an 
erroneous assumption that considerably more preconstruction design work 
needs to be done. In fact, we will be ready to begin construction early 
in fiscal year 2001 and SAFCA respectfully requests that this project 
be designated for a new start, with an initial appropriation of $5.0 
million. This will allow the Corps to move to construction of this 
project on an optimum schedule, thereby providing the citizens of South 
Sacramento with improved flood protection at least a year sooner than 
the Administration's proposal.
    American River Common Elements Project.--As part of the 1996 WRDA, 
Congress authorized flood control features that were common to all the 
long-term alternatives being considered for Sacramento. These included 
26 miles of levee stabilization along the Lower American River, raising 
and strengthening 12 miles of the east levee of the Sacramento River. 
As the 1997 floods in Northern California demonstrated, we must 
continue to rehabilitate our existing system of levees to insure they 
can carry even their intended design flows. The levee modifications 
authorized under this project complement work done by the Corps in the 
early 1990s and will complete the job of stabilizing the existing 
levees protecting this community. The Corps will have three major 
contracts underway this year, and plans to add two more in 2001. We are 
requesting an appropriation of $13.0 million, the amount necessary to 
continue this project and to start on additional improvements added to 
this authorization in the 1999 WRDA.
    Sacramento Bank Protection Project (American River Levees).--SAFCA, 
the State of California and the Corps have found that bank protection 
improvements are needed to stop erosion, which threatens urban levees 
along the lower American River. Over the last four years SAFCA has led 
a collaborative process through which flood control, environmental and 
neighborhood interests have reached agreement on how to complete this 
work in a manner which protects the sensitive environmental and 
aesthetic values of the American River in addition to improving the 
reliability of the levee system. As a result, an American River Bank 
Protection Construction Program was implemented under the Sacramento 
River Bank Protection authorization. The President has included $3.3 
million in his budget to fund bank protection projects. SAFCA is 
requesting an appropriation of $5.0 million the amount necessary to 
complete the small increment of work remaining on the American River 
and important projects at other locations in the Central Valley.
    American River Watershed (Natomas Features).--In 1992, the 
recommended plan for the American River was construction of a flood 
detention dam at Auburn and levee improvements around Natomas and lower 
Dry and Arcade Creeks. Congress did not include the recommended project 
in the 1992 WRDA, but in subsequent legislation did authorize the levee 
improvements around the Natomas basin and North Sacramento. The 
authorizing legislation included provisions to reimburse the local 
agency for the Federal share of constructing levee improvements that 
were consistent with the Federal project. With over 75,000 residents at 
risk, subject to life threatening flood depths of 20 feet in some 
areas, SAFCA decided to initiate construction of the project using 
local funds with the potential for future Federal reimbursement. By 
borrowing heavily from other sources and debt financing through a 
capital assessment district, SAFCA proceeded to rapidly construct a 
$60.0 million project that was consistent with the 1992 authorization. 
However, the Corps 1992 report described levee improvements that were 
consistent with controlling flow in the American River with a dam at 
Auburn. SAFCA felt the construction of that project was uncertain and 
therefore decided to construct higher levees and make other 
improvements than those described in the Corps' report. These 
improvements were instrumental in preventing flooding in 1995 and 1997. 
However, the borrowing of funds, coupled with additional future flood 
control obligations, has severely strained SAFCA's financing 
capability. The Corps has agreed to reimburse SAFCA $21.0 million, 
their estimate of the costs of building the project described in their 
1992 report and Congress has appropriated funds consistent with that 
agreement. The Corps has also agreed to consider reimbursement for 
higher levees, and SAFCA is preparing the documentation necessary to 
support a Corps' review. We are asking for an additional appropriation 
of $5.0 million. One million is to finance the Corps' review and 
analysis of SAFCA's request, and the remaining $4.0 million would be a 
first payment on the second phase of reimbursement.
    American River Plan.--As noted above, the modifications to Folsom 
Dam provide a significant increment of additional flood protection to 
Sacramento, but do not allow us to reach our goal of at least 200-year 
flood protection. Congress recognized the need for additional flood 
protection in the 1999 WRDA, and directed the Corps to proceed with 
additional studies and report back in March 2000. The Corps has done 
their best to comply with Congressional direction and has prepared a 
report that is moving through headquarters on its way to Congress. 
Unfortunately, additional work may be needed to supplement the results 
of that study, including further environmental analysis consistent with 
the requirements of NEPA and CEQA. The Administration has included an 
allocation of $3.385 million to allow the Corps to complete a more 
detailed analysis on the matters identified by Congress. SAFCA supports 
an increase to $5 million to speed up this important study.
    Lower Strong and Chicken Ranch Sloughs.--SAFCA, in cooperation with 
Sacramento County, is seeking appropriations of $0.5 million to allow 
the Corps to complete it feasibility study for Lower Strong and Chicken 
Ranch Sloughs. Floodwaters from these urban streams are collected at 
the base of the American River levees and pumped into the river. In 
1986 and again twice in 1997, the limited channel and pumping capacity 
led to significant flood damages to a number of residential and 
commercial structures. Most of the flooding occurs when the American 
River is at a high stage due to releases from Folsom Dam. The original 
pump station was built by the Corps as part of the American River and 
Folsom project in the 1950s, but does not have sufficient capacity to 
prevent flooding from today's larger storms. The Corps has completed a 
reconnaissance evaluation and concluded that there is a Federal 
interest in completing a feasibility study. This appropriation would 
allow that study to move forward on an optimal schedule.
    Magpie Creek (Section 205 Continuing Authorities Program).--The 
Magpie Creek Diversion Project, constructed by the Corps in the 1950s 
as an extension of the Sacramento River Flood Control Project, is 
inadequate for even the 100-year flood event using new hydrologic data. 
The resulting floodplain encompasses residential and commercial 
developments downstream and would close Interstate 80, the major east-
west transportation route through Sacramento. The Corps has developed a 
Section 205 project for the off-bas portion of Magpie Creek. The 
Congress last year also included a separate Section 205 authorization 
for the on-base portion under WRDA 99. A Corps study of the off-base 
portion indicates these improvements have a benefit to cost ratio of 
2.5 to 1 and not only protect existing urban development and are 
essential to provide capacity for future improvements on McClellen Air 
Force Base to allow for orderly redevelopment activities as part of the 
base conversion process. Congress designated funds in last year's 
Energy and Water Appropriations bill to initiate work on the off-base 
project, but construction has been delayed. SAFCA supports the 
Administration's proposed fiscal year 2000 budget for the Section 205 
Program and requests the Corps be directed to initiate construction of 
the Magpie Creek Diversion Project within these available funds. In 
addition, we are seeking funding designation of $500,000 to begin work 
on the off-base portion of the project as authorized in WRDA 99.
                                 ______
                                 

               Prepared Statement of the City of Phoenix

    Mr. Chairman and Members of the Subcommittee: On behalf of the City 
Council and the residents of Phoenix, the sixth largest city in the 
country, I would like to submit the following testimony for the record. 
I am pleased to present this testimony in support of appropriations to 
help our city and region continue to foster a partnership with the 
Federal Government to achieve our shared objectives. We have been 
working with our delegation, this Committee, the Corps of Engineers, 
the Bureau of Reclamation, and other federal agencies to promote 
environmental restoration and flood control needs in the most effective 
and economical way. We sincerely appreciate the past support of this 
Committee and trust we will continue our partnership to see several 
critical projects through to a successful conclusion.
    There are several initiatives under way which this Committee has 
supported in the past and are included in the President's Budget. 
Continued support is essential to achieve the public benefits for which 
the projects are being designed.

                   RIO SALADO AND RIO SALADO PHASE II

    We have been working for nearly six years with the Corps of 
Engineers in a cost-shared partnership to study a project to restore 
riparian wetlands along the Salt River in downtown Phoenix and Tempe. 
The wetlands were lost over many years as a result of diversion of Salt 
River flows for irrigation of the surrounding region.
    In cooperation, the Corps, the City of Tempe, and we have developed 
a cost-effective plan called Rio Salado to restore about seven miles of 
the lost riparian wetlands. The plan has been approved by the Secretary 
of the Army and the Administration and was authorization in the 1999 
Water Resources Development Act (WRDA).
    The Rio Salado project is the centerpiece of our efforts to 
revitalize the environment and the economy of a part of our city that 
has not enjoyed the fruits of progress as have other parts of the city. 
The President's fiscal year 2001 Budget included a request for $1.5 
million for the Phoenix portion of the project. The Rio Salado project 
was one of only two Corps of Engineers environmental restoration 
projects to receive New Start Construction funding. While we are 
delighted at receiving the new start designation in the budget, we are 
seeking a substantially higher level of funding (a total of $20 
million) to allow the project to remain on schedule for completion. We 
are eager to keep the $81 million dollar Phoenix portion of the Rio 
Salado project on its planned course of the three-year construction 
period at a 35 percent local, and 65 percent federal cost.
    In addition, we are urgently seeking the approval of the Committee 
early this calendar year to negotiate an agreement with the Corps to 
provide a credit against the local share of project costs for advanced 
funding of key features of the project. The Report of the Chief of 
Engineers recommending the project authorization envisioned 
construction by the City of a low flow channel and development of 
plantings needed for the project in advance of Federal funding. Based 
on these commitments, the City has worked with Maricopa County to 
obtain $11 million in county funding and has also identified an 
additional $3 million in city funding to move forward with the City's 
commitment to this project. We are ready to proceed to construction and 
have begun preliminary work to obtain the needed plants for the 
project. However, we do not want to jeopardize our ability to receive 
credit for local work done. Mr. Chairman, we respectfully request your 
approval of the credit agreement this year and your support for the $20 
million in fiscal year 2001 to accelerate the project's schedule and 
begin construction.
    The Rio Salado Phase II portion (Rio Este and Rio Oeste) of this 
environmental restoration project was included in the Corps of 
Engineers Reconnaissance Study in 1996. The study led to a feasibility 
level report and authorization of the Rio Salado project, consisting of 
only a portion of the original reconnaissance level study area. We 
would like to move beyond the reconnaissance level for the rest of the 
original study area. This would essentially be a continuation of the 
Rio Salado project and would connect the project east (Rio Este) toward 
the Tempe portion or west (Rio Oeste) toward the Tres Rios project at 
our 91st Avenue Treatment Plant. We are seeking $675,000 for the Corps 
of Engineers Feasibility Study for Phase II, including the $175,000 in 
the President's budget for both the Rio Este and Rio Oeste portions and 
a $500,000 increase for Rio Oeste to allow us to accelerate that study. 
The Feasibility funding will be matched 50 percent by the local 
sponsor. We strongly urge your support for this appropriation.

                               TRES RIOS

    This is a truly unique project the outcome of which holds promise 
to benefit the entire nation as well as the Phoenix region in 
particular. The Bureau of Reclamation has constructed a demonstration 
project which uses wastewater from the regional wastewater treatment 
plant to create wetlands near the discharge location. The Bureau's 
project is authorized under their general research and demonstration 
authorities under their Title XVI Water and Wastewater Reclamation and 
Reuse Program. We are seeking the $550,000 included in the Bureau's 
budget to continue this research effort to be able to include in the 
pilot study measures to control mosquito vectors, an important public 
health issue.
    In addition, we embarked on a cost-shared feasibility study with 
the Corps of Engineers to expand the project to create approximately 
800 acres of high quality wetlands along a 7 mile stretch of the Salt 
and Gila Rivers. The feasibility study is nearing completion and 
Congress provided an initial $50,000 in fiscal year 2000 to initiate 
planning, engineering and design. This year's budget requests an 
additional $250,000 toward that effort. The City is seeking an increase 
of $250,000 to accelerate that effort.
    The City is also requesting funding from the Bureau of Reclamation 
in the amount of $300,000 to allow the Bureau to begin studies on the 
Agua Fria River groundwater recharge project under the authority of 
section 1608 of the Bureau's Title XVI Reclamation and Reuse Program. 
It is important to have that portion of the study completed in about 
the same time frame as the rest of the study and design work to avoid 
losing the water coming from the wetlands restoration project.

                  GILA RIVER, NORTHEAST DRAINAGE AREA.

    This is another innovative study designed to anticipate potential 
flood control problems from the rapidly expanding development on the 
alluvial plains in the Northeast section of the greater Phoenix area. 
The results of the study will allow local jurisdictions to plan and 
regulate development in a coordinated way throughout the region to 
avoid creating flooding problems as has happened in many other rapidly 
growing areas in the nation. We believe that spending a little time and 
planning effort now will reap large savings in flood control costs and 
flood damages in the future. The Corps budget contains $212,000 for 
this study which we believe is enough to keep it on schedule.

                                SUMMARY

    All of these projects, the Rio Salado and Phase II of the Rio 
Salado project (``Rio Este'' and ``Rio Oeste''), Tres Rios, and the 
Gila River, will act in synergy to restore lost environmental quality 
and provide for creative management, conservation, and reuse of scarce 
water quantities in the Phoenix Metropolitan Area. We sincerely 
appreciate the opportunity to present this request and thank you very 
much for your support in the past. We would be pleased to provide any 
additional information you may need.
                                 ______
                                 

       Prepared Statement of the City of San Leandro, California

    Mr. Chairman and Subcommittee Members, thank you for this 
opportunity to present testimony. I am Shelia Young, Mayor of San 
Leandro, California. It is my aim to provide the Subcommittee with a 
brief overview of the history and importance of performing maintenance 
dredging on the San Leandro Marina Channel, a project that was 
unfortunately omitted from the President's fiscal year 2001 budget.
    The San Leandro Marina Channel connects deeper waters in the San 
Francisco Bay to the San Leandro Marina and the San Leandro Shoreline 
Recreation Area. First dredged in 1962, it provides a host of benefits 
to the immediate San Leandro community and the entire San Francisco Bay 
Area. The Marina and Shoreline Recreation Area includes 455 boat 
berths, three restaurants, a small-boat sailing lagoon, two golf 
courses, extensive park facilities, the San Leandro Shoreline 
Marshlands, a trail system along most of the shoreline and a unique 
Dredged Material Management Site, or DMMS. Additionally, in the event 
of an aircraft crash at the Metropolitan Oakland International Airport, 
the Marina Channel provides water access for boats leaving San Leandro 
to provide search and rescue functions.
    Simply stated, without regular dredging, the Marina and Shoreline 
Recreation Area would be cut off from the rest of San Francisco Bay. To 
ensure that the Marina Channel remains open, San Leandro formed a 
partnership with the Federal government through the Army Corps of 
Engineers to perform dredging activities. Congress first authorized 
funds for maintenance dredging in 1971, and the City and the Corps have 
worked collaboratively ever since to proactively address dredging 
needs. Local and Corps analysis of Channel build-up has led to a 
quadrennial dredging cycle. Maintenance funds were included in 
President Bush's fiscal year 1993 budget and President Clinton's fiscal 
year 1997 budget. It then came as a great surprise that funds were not 
included in the President's fiscal year 2001 budget, especially 
considering that the Corps has already worked with the City to obtain 
permits for fiscal year 2001 dredging.
    There have been no significant changes in the rate of Channel 
build-up that would necessitate a change in the quadrennial dredging 
cycle. Changes in water depth are following the same pattern as those 
preceding the 1997 dredging. In fact, the current cycle spaces dredging 
activities as far apart as possible. Prior to 1997 dredging, 
controlling water depth in the Channel dropped to less than two feet. 
As I sit here today, navigation problems are already beginning to occur 
as we approach the end of this cycle.
    I want to stress San Leandro's commitment to the Marina Channel 
through the expenditure of local funds and overall environmental 
stewardship, most visibly through the creation and operation of a 
Dredged Materials Management Site. As in-bay aquatic disposal of 
dredged materials is environmentally undesirable, the Army Corps and 
the Environmental Protection Agency are developing a Long Term 
Management Strategy (LTMS) for Bay Area dredging and disposal 
activities. Recognizing the need to properly dispose of dredged 
materials, San Leandro has been a pioneer in developing an alternative 
to in-bay disposal. The DMMS not only effectively stores material, it 
functions as a shorebird habitat. The City has borne the full financial 
responsibility for the operation of the DMMS since its initial use in 
1973, and pays the full cost to dispose of dredged materials. Together, 
this requires an annual expenditure of over $2 million.
    As you can see, the Marina Channel is a vital economic and 
environmental link for San Leandro's entire shoreline. Failure to 
dredge will lead to immediate negative economic consequences. The San 
Leandro Marina, at the heart of our coastal community, will cease to 
exist. The millions of dollars the Marina generates for the local 
economy will be lost. Public recreation along the shoreline will 
diminish, and environmentally sensitive areas of shoreline restoration 
will be in jeopardy.
    Mr. Chairman and distinguished Subcommittee Members, I support and 
admire your efforts as you perform the difficult job of meeting 
America's energy and water needs. I firmly believe that San Leandro's 
request is reasonable and necessary, and I urge the Subcommittee's 
approval of $1.5 million for this project. Thank you again for your 
time.
                                 ______
                                 

        Prepared Statement of the City of Oceanside, California

  OCEANSIDE HARBOR OPERATIONS AND MAINTENANCE AND OCEANSIDE SHORELINE 
                            PROTECTION STUDY

    Mr. Chairman, thank you for this opportunity to submit testimony on 
behalf of the City of Oceanside, California. The City of Oceanside 
respectfully requests your favorable consideration of two Corps of 
Engineers projects that are critically important to our community.
    First, the City of Oceanside requests an appropriation of 
$2,035,000 under Corps of Engineers, Operation and Maintenance, for 
Oceanside Harbor, California. The majority of the funds requested 
($1,535,000) are included in the president's budget submission to pay 
for on-going maintenance dredging of Oceanside Harbor. The additional 
$500,000 above the budget request is needed for the one-time costs 
associated with removing a submerged jetty from the Harbor entrance.
    Removal of the jetty will eliminate a significant hazard to 
navigation and expand the width of the navigational channel, which was 
reduced when the entrance was modified in 1994.
    The Corps of Engineers modified the Oceanside Harbor entrance to 
reduce storm damage, provide surge protection to the harbor 
infrastructure and provide significant reduction of navigational 
hazards. Part of the project included a 180-foot stub groin off the 
south jetty. This groin protrudes significantly into the previous 
channel, reducing the width by approximately 50 percent. It is 
currently not possible to realign the channel to widen the entrance to 
the Harbor due to the submerged jetty that borders the north side of 
the Harbor entrance.
    The close proximity to the navigational channel is a hazard to 
navigation for vessels that stray from the channel limits. During heavy 
surf and storms, the entrance becomes very hazardous and was closed by 
the U.S. Coast Guard during the 1998 El Nino events. Breaking waves 
have come in as far as the submerged jetty light #5.
    The elimination or relocation of the submerged jetty is necessary 
to provide for the channel to be returned to its original width. The 
submerged jetty is an old structure that was in place prior to the 
outer jetty's construction. It may not be necessary to eliminate the 
submerged jetty. Relocating the rock material closer into shore would 
provide for a restored channel width, while continuing to provide a 
marine life habitat.
    Second, the City of Oceanside requests an appropriation of $500,000 
under Corps of Engineers, General Investigations, to continue a special 
study to develop plans to mitigate the impacts of the Camp Pendleton 
Harbor on Oceanside's shoreline.
    The Committee provided $100,000 in the fiscal year 2000 Energy and 
Water Development Appropriations bill to initiate a study to determine 
the extent of the erosion impact caused by Camp Pendleton Harbor. That 
study is now underway and will provide a summation of all historic and 
current documentation of the impacts of the federal construction on the 
Oceanside beach.
    Oceanside has a 57-year history of beach erosion resulting from the 
Camp Pendleton Harbor construction that began in 1942. The Federal 
Government acknowledged responsibility for Oceanside's beach erosion in 
1953. A later report to the U.S. Navy from the Army Corps of Engineers 
noted that the construction of the Camp Pendleton jetties had 
compartmentalized the littoral cell and resulted in the loss of 1.5 
million cubic yards of sand in Oceanside during 1950-1952. An 
additional U.S. Army Corps of Engineers report to Congress in 1956 
concluded that the restoration of the protected beach at Oceanside 
would protect the upland area and restore and maintain a satisfactory 
recreational beach. In 1958, the Navy extended the north jetty to 
reduce the entrance channel maintenance problems. This action further 
aggravated the erosion of the beaches.
    In 1967, Congress authorized a review study of beach erosion at 
Oceanside, resulting in the office of the Chief of Engineers confirming 
100 percent federal responsibility for shoreline damages. Despite 
numerous and significant efforts in placing sand on the beach, periodic 
nourishment of sand from maintenance dredging of the harbor and sand 
bypassing project, no permanent solution to the massive erosion problem 
has been achieved.
    Tourism is the San Diego region's second largest industry. The 
areas beaches, including Oceanside, represent a key attraction for our 
residents and our tourists. The San Diego Convention and Visitors 
Bureau notes that the majority of the region's visitor lodgings are 
located along the coastline. Total tourism dollars are identified as 
$4.7 billion annually. San Diego and Oceanside's beaches are clearly an 
economic contributor to the region's economic well-being.
    Significant portions of Oceanside's beaches are not able to provide 
full recreational and tourism revenue benefits due to the eroded beach 
conditions. Furthermore, the beaches are too narrow to provide full and 
adequate protection to public infrastructure, commercial facilities and 
residential structures. Addressing this problem will significantly 
decrease storm damage costs along the City's shoreline.
    Mr. Chairman, again, on behalf of the City of Oceanside, I request 
the Committee's support for these two critically important projects.
    Thank you for the opportunity to provide this testimony and for 
your consideration of the request.
                                 ______
                                 

    Prepared Statement of the Humboldt Bay Harbor, Recreation, and 
                         Conservation District

    Mr.Chairman and Members of the subcommittee, thank you once again 
for the opportunity for me, Roy Curless, as President, on behalf of the 
Board of Commissioners of the Humboldt Bay Harbor, Recreation, and 
Conservation District in Eureka, California to submit prepared remarks 
to you for the record in support of the fiscal year 2001 Energy and 
Water regular appropriations measure to fund the U.S. Army Corps of 
Engineers in the first full year of the new millennium. The Humboldt 
Bay Harbor District's Chief Executive Officer David Hull and I will 
represent the Commission and District in meetings with subcommittee 
staff and agency representatives and respond to any project-related 
questions that arise during those meetings and appearances.
    Today the citizens of the North Coast region--and the First 
Congressional District of California have reason to celebrate. We stand 
on the threshold of a new era in navigation safety and future economic 
development. Our traditional forest products industry continues to 
suffer from a precipitous decline, and our fisheries industry is facing 
a potential catastrophe with a moratorium on bottom fishing, and the 
listing of several species. However, sometime next month, construction 
of the Humboldt Harbor and Bay Navigation Project authorized in the 
Water Resources Development of 1996, is expected to be substantially 
completed. Given a ten day project delay triggered by a frivolous legal 
challenge, and our notorious winter weather conditions, the near 
completion of this project represents a magnificent accomplishment by 
the U.S. Army Corps of Engineers and the private contractors. We 
commend them for their efforts.
    The commission recognizes and expresses its debt of gratitude to 
our congressional delegation, including Chairman Packard and the 
members of this subcommittee, our Congressman Mike Thompson, and to 
Senators Boxer and Feinstein for their continuing efforts in funding 
the Humboldt Harbor and Bay Navigation Project. This project is of 
critical importance to the future development of Humboldt Bay and 
County, and the entire northcoast region of the State of California.
    We are likewise grateful to the subcommittee for including $4.189 
million in the operations and maintenance general account for fiscal 
year 2000. We support the President's budget request for an additional 
$4.710 in the operations and maintenance general account for fiscal 
year 2001 and request the subcommittee increase this amount to $6.210 
million.
    The increased budget request for fiscal year 2001 is necessary to 
perform additional work on the channel boundaries at Humboldt Bay's 
entrance in the paramount interests of navigation safety and 
environmental protection. In addition, expanded survey work to monitor 
the new hydrodynamics of the channel after completion of project 
construction is essential for safety and future maintenance planning. 
Our additional request above the President's budget is based upon a 
recent Corps survey south of the navigation channel. Sand accumulation 
in this area is impacting the main channel and requires additional 
maintenance dredging with the intended result of saving additional 
money, lives and the bay environment over the long term.
    Completion of the long sought new construction project will make us 
more of a year round safe harbor and help U.S. compete to restore our 
traditional forest products industry based upon sustainable yields, 
while at the same time diversify our maritime economy reeling from 
recent closures of our bottom fisheries.
    For those unfamiliar with the geography, Humboldt Bay is the only 
deep-draft natural harbor strategically situated along five hundred 
miles of Pacific coastline between San Francisco and Coos Bay, Oregon. 
Prevailing winter wave conditions at the Humboldt Bar and entrance have 
posed extreme navigation safety hazards, resulting in loss of life and 
significant property damage over the years.
    To us, periodic maintenance can be a life and death, as well as 
economic, survival matter. We are extremely grateful for the 
commendable efforts by the San Francisco District of the U.S. Army 
Corps of Engineers to combine maintenance and construction dredging 
last year to alleviate severe shoaling conditions at our bar and 
entrance which posed additional safety risks of grounding over and 
beyond those inherently unsafe seasonal conditions now largely remedied 
by the channel improvement project itself.
    Project completion will provide unique economic development 
opportunities for the North Coast Region. These capitalize upon our 
natural resources base enabling us to ship our commodities to world 
markets at competitive freight rates, and ship more of our imports and 
exports by water rather than transship them long distances by road or 
rail to market. At the same time it will permit us to diversify our 
economic base by improving our transportation infrastructure and 
attracting new industrial activity to an area largely dependent upon 
the economic well-being of the Forest Products Industry. We are 
currently suffering from closure of major facilities and continuing 
uncertainty surrounding the industry's future as a major contributor to 
our long term economic base.
    With the support of then Congressman Riggs, Congress authorized the 
Humboldt Harbor and Bay 38 foot deep draft navigation project in 
section 101 of the Water Resources Development Act of 1996 (WRDA 1996) 
(Public Law 104-303) at an estimated total construction cost of 
$15,178,000 with a required local contribution of $5,180,000, and a 
first federal cost of $10,000,000. The project has a 1.9 to 1 favorable 
benefit cost ratio. It enjoys the consensus support of federal, state, 
regional, and local agencies.
    In June 1998, with the support of the California Maritime 
Infrastructure Authority in the first of its kind issuance of revenue 
bonds to finance a federal navigation project, we were able to raise 
$3.9 million matched by an additional $1.0 million in local 
redevelopment agency funds from the City of Eureka to meet our required 
local contribution to project construction cost.
    In order to provide an additional revenue stream from which to 
service the debt incurred in meeting its financial obligations, the 
district has implemented the first of its kind harbor user fee (harbor 
improvement surcharge) under section 208 of WRDA 1986 so that vessels 
and cargo benefitting from the navigation improvements will share in 
the cost of providing them.
    This time last year thanks to an accelerated final review by 
Secretary Westphal's staff, we were able to sign our project 
cooperation agreement here in Washington paving the way for 
advertisement and contract award and now anticipated completion of 
construction this year.
    On behalf of the members of the commission and district, we 
appreciate those prior occasions in which we have had the opportunity 
to appear before the subcommittee. We look forward to appearing before 
this subcommittee on future occasions to provide updated reports on the 
economic benefits and progress we expect will follow the successful 
completion of this project. We are prepared to supplement our prepared 
remarks for the record in response to any questions that the Chair, 
subcommittee members, or staff may wish to have us answer.
    Thank you Mr. Chairman and members of the subcommittee. This 
concludes my prepared remarks.
                                 ______
                                 

              Prepared Statement of the City of Sacramento

    On behalf of the City of Sacramento, I would like to thank you for 
the opportunity to provide testimony to the Senate Appropriations 
Subcommittee on Energy and Water Development in support of fiscal year 
2001 funding for flood protection projects in Sacramento. First, I 
would like to express my appreciation to the Subcommittee for its 
efforts in past years to fund flood control measures for the City. 
Sacramento, California, continues to face the highest flood risk in the 
nation. During the past several years, the Subcommittee has recognized 
the dire need for flood protection in and around the Sacramento area 
and has provided funds for a variety of previously authorized projects. 
In order to continue our efforts, we must once again request your 
support for funding vital Sacramento area flood control projects in 
fiscal year 2001.
    This year, the City of Sacramento is seeking $48.5 million in 
federal funding in order to finance both ongoing and newly authorized 
projects, which are described in the enclosed chart. These figures 
represent the most recent estimates developed by the Sacramento Area 
Flood Control Agency and are derived from their discussions with the 
U.S. Army Corps of Engineers (Corps). Most importantly, the City is 
seeking funding for two ``new starts'' that were authorized by the 
Water Resources Development Act of 1999 (WRDA 99): modifications to 
Folsom Dam and construction of the South Sacramento Streams Group. 
These two projects will form the backbone of a system of improvements 
that may someday once and for all remove the threat of catastrophic 
flooding from the streets of downtown Sacramento, site of our State 
Capitol and home to 400,000 residents. We have worked closely with the 
Corps in planning these projects and have determined that they are in 
line with the Corps ability to spend for their fiscal year 2001 budget. 
Obtaining new start funding for these important projects is a task that 
will greatly benefit from your leadership.
    The overall Corps of Engineers' budget request for all of 
Sacramento's flood control projects is $21.9 million, meaning that 
Congress must double the Administration's request in order to meet the 
City's flood control needs. The Administration's budget request is 
nearly $12 million below its request last year and over $13 million 
below the amount Congress appropriated in fiscal year 2000. The City 
urgently needs the Subcommittee's leadership and support to obtain our 
full funding request in order to move forward with these previously 
authorized projects.
    The City is pleased that the Administration has proposed ``new 
start'' construction funding for modifications to Folsom Dam, which 
will enable the dam to release flows from Folsom Lake more quickly in 
order to better protect the City from flooding during large storms. 
However, the Administration's proposed funding of $5.0 million for the 
Folsom modifications project falls far short of the full amount needed 
next year. We urge the Subcommittee to support our full request of 
$12.0 million to begin this urgently needed construction on Folsom Dam.
    Due to the significant flood risk along creeks in the South 
Sacramento area, the U.S. Army Corps of Engineers was authorized in 
WRDA 99 to begin construction on the South Sacramento Streams Group, 
which would protect areas in south Sacramento from catastrophic 
flooding in the four creeks that convey foothill runoff through this 
urbanized area. The Administration has requested $200,000 for 
preconstruction engineering and design (PED). This amount is far below 
our request. We urge the Subcommittee to fund $5.0 million to begin 
both PED and construction for this project.
    The U.S. Army Corps of Engineers proposed budget provides $10.0 
million for continuation of construction of the Common Elements, which 
comprise levee improvements and other measures authorized by WRDA 96. 
This level of funding is below the amount necessary to keep the project 
moving forward, and we ask that the Subcommittee instead support our 
request $13.0 million, which includes $1.0 million to begin work in 
levee parity which was authorized in WRDA 99. The Common Elements 
Project is a vital first step in our flood control efforts, and full 
funding to keep this project on track is essential.
    The City of Sacramento has been working in cooperation with the 
Sacramento Area Flood Control Agency (SAFCA) on the construction of 
bank protection improvements which are vital to correct harmful erosion 
along the banks of the American River which threatens the integrity of 
our existing levees. Additional improvements will be needed over the 
next several years to prevent erosion at other American River sites. 
This work is already authorized under the Sacramento River Bank 
Protection Project, which is used to fund erosion control projects 
throughout the Sacramento River System. The President's budget proposes 
$3.3 million for the Sacramento River Bank Protection Project, which is 
below the amount requested. We request that Subcommittee support our 
request for $5.0 million.
    For the American River Watershed (Natomas) improvements which were 
authorized by Congress in 1992, we are seeking continued construction 
appropriations in the amount of $5.0 million for reimbursement to SAFCA 
for the Federal share of the flood control improvements.
    The President's Budget for fiscal year 2001 provides for $3.285 
million in PED funds for the American River Watershed plan, which will 
continue previously authorized planning and design of Sacramento flood 
control projects. We urge the Subcommittee to instead support our 
request for $5.0 million in PED funds for the American River Watershed 
plan.
    This is the second year that the City is seeking funds for the 
Lower Strong & Chicken Ranch Sloughs (DO5 Pump Station) project. This 
is a feasibility study to restore 100-year level of flood protection to 
Chicken Ranch Slough drainage to the American River. The President has 
requested $150,000 for this project. We urge the Subcommittee to fund 
our full requested amount of $500,000.
    Under the Corps' Section 205 program, a feasibility study and 
environmental documentation have been completed for a project that 
would provide a high degree of flood protection on Magpie Creek. This 
year, the President has requested $25.0 million for all Section 205 
flood control projects. We urge the Subcommittee to support Section 205 
funding in the fiscal year 2001 budget and recommend that the Corps of 
Engineers be directed to provide $2.5 million for completion of the 
Magpie Creek project and $500,000 for McLellan Air Force Base in its 
distribution of Section 205 funds.
    Once again, thank you for the opportunity to submit this statement 
and for your consideration of the funding that the City of Sacramento 
needs to protect its residents. As the Mayor of the most flood prone of 
American cities, adequate flood protection is the number-one priority 
for my administration. I thank you again for your commitment in 
previous years to providing this vital protection and ask for your 
renewed support in assuring its continuation.

          FISCAL YEAR 2000-2001--SACRAMENTO AREA FLOOD CONTROL
                        [In millions of dollars]
------------------------------------------------------------------------
                                                  FY 2001      FY 2001
                    Project                        Admin.     SAFCA/City
                                                  Request      Request
------------------------------------------------------------------------
Folsom Modifications: Modifications to Folsom           5.0         12.0
 Dam to provide greater efficiency in managing
 flood storage in Folsom Reservoir. NEW START.
South Sacramento Streams: Prevention of                 0.2          5.0
 flooding of portions of Sacramento from the
 south, where four creeks convey foothill
 runoff through urbanized areas into Beach
 Lake and the Delta. NEW START................
American River Common Elements: 24 miles of            10.0         13.0
 levee improvements along the American River
 and 12 miles of improvements along the
 Sacramento River levees, flood gauges
 upstream of Folsom Dam, and improvements to
 the flood warning system along the lower
 American River. Request includes $1.0 million
 to begin work on levee parity, authorized in
 WRDA 1999....................................
Sacramento River Bank Protection: Will correct          3.3          5.0
 harmful erosion along the banks of the
 American River which threatens the integrity
 of the existing levees.......................
American River Watershed (Natomas):             ...........          5.0
 Reimbursement to SAFCA for the Federal share
 of the flood control improvements undertaken
 by the local project sponsor.................
American River Plan: Funds to continue                3.285          5.0
 previously authorized planning and design of
 Sacramento flood protection projects.........
Lower Strong & Chicken Ranch Sloughs (DO5 Pump         0.15          0.5
 Station): a feasibility study to restore 100-
 year level of flood protection to Chicken
 Ranch Slough drainage to the American River..
Magpie Creek: Authorized under the Corps'           \1\ N/A          2.5
 Section 205 program, this project will
 provide a high degree of flood protection on
 Magpie Creek.................................
McClellan AFB.................................  ...........          0.5
                                               -------------------------
      Total...................................       21.935         48.5
------------------------------------------------------------------------
\1\ The Corps has requested $25.0 million for the Section 205 program,
  which funds these two projects. Individual projects are not itemized
  in this request.

        Prepared Statement of the Colusa Basin Drainage District

    Mr. Chairman and Members of the Committee: The Colusa Basin 
Drainage District requests the Committee's support for $1 million for 
fiscal year 2001, under Bureau of Reclamation, Central Valley Project, 
Sacramento River Division, for the Colusa Basin Drainage District 
Integrated Resources Management Plan.
    The 650,000-acre Colusa Basin Drainage District, located on the 
west side of the Sacramento River, serves a watershed exceeding one 
million acres. It covers three counties: Glenn, Colusa and northern 
Yolo Counties. It is not only a rich agricultural area, but a rich 
wildlife area as well, including three national wildlife refuges.
    Over the decades, devastating floods have repeatedly struck the 
Colusa Basin resulting in costly damage to public and private property, 
and loss of life. In 1995, and again in 1998, these three counties 
suffered an estimated $100 million in losses and one death due to 
floods. In November 1995, a majority of landowners voted to implement 
the District's Integrated Management Plan to address flood dangers 
while achieving other benefits: increasing groundwater supplies and 
surface water storage, and improving environmental and wildlife uses in 
the watershed.
    Through a stakeholder/local, state and federal agency collaborative 
process, four projects have been selected to serve as a demonstration 
of the region's integrated resources management. Under the program, 
hydraulic studies were completed in 1998, basin-wide programmatic 
environmental documentation commenced during 1998 and is scheduled for 
completion later this year. Project specific environmental 
documentation will commence and be completed during fiscal year 2001.
    The Colusa Basin Drainage District, working collaboratively with 
the Bureau of Reclamation and a variety of local and agency 
stakeholders, has developed an Integrated Resources Management Plan for 
water management that addresses flooding and will provide opportunities 
for future conjunctive use of water resources to meet the diverse needs 
of agricultural, urban and wildlife interests in the Colusa Basin. The 
District's Plan consists of three components: structural facilities, 
nonstructural flood control measures, and environmental restoration/
enhancement measures, including the restoration and protection of 3,000 
acres of wetlands. All new water supply developed as a result of flood 
control improvements will be dedicated to the environment.
    The Colusa Basin Drainage District appreciates your past support 
for our integrated resources management plan for water management that 
addresses flooding and provides opportunities for future conjunctive 
use of water resources.
    Thank you for your continued support.
                                 ______
                                 

   Prepared Statement of the Kaweah Delta Water Conservation District

    Mr. Chairman and Members of the Subcommittee: My name is Bruce 
George, and I am the Manager of the Kaweah Delta Water Conservation 
District in the eastern San Joaquin Valley of California. Thank you for 
the opportunity to present testimony regarding the fiscal year 2001 
budget for the U.S. Army Corps of Engineers.
    The President's fiscal year 2001 budget request for the Corps of 
Engineers includes $500,000 to continue construction of a project to 
increase the water storage capacity of Terminus Dam at Lake Kaweah in 
California's San Joaquin Valley. The project would add approximately 
43,000 acre-feet of flood control and conservation storage space to 
Lake Kaweah by raising the Terminus Dam spillway by 21 feet. The 
estimated total first cost of the project is $35 million.
    Unfortunately, the level of funding in the President's budget will 
not allow the project to proceed on an optimum timetable. As a result, 
total costs to the federal government, the State of California and the 
local sponsors will be increased.
    We respectfully request that the Subcommittee support an 
appropriation of $3 million for construction in fiscal year 2001. This 
will allow work to go forward at an efficient pace that is within the 
Corps' capabilities.
    The Corps of Engineers studied and planned this modest project for 
more than 10 years. Last year, Congress appropriated $2.5 million to 
initiate construction in fiscal year 2000. The State of California is 
the lead non-federal sponsor of the project and has appropriated the 
necessary funds for construction. In addition to the Kaweah Delta Water 
Conservation District, the other local sponsors are the counties of 
Kings and Tulare, the City of Visalia and the Tulare Lake Basin Water 
Storage District.
    The California Water Commission supports a $3 million General 
Construction appropriation for the Terminus Project in addition to the 
amount requested in the President's fiscal year 2001 budget for 
operation and maintenance.

                               BACKGROUND

    The Kaweah Delta Water Conservation District was formed in 1927 to 
conserve and protect the surface and groundwater of the Kaweah delta. 
The District serves 337,000 acres, which include the cities of Visalia 
and Tulare and several other incorporated and unincorporated areas in 
Kings and Tulare counties. Those two counties consistently rank among 
the most productive agricultural counties in the nation.
    Terminus Dam and Lake Kaweah, located on the Kaweah River three and 
one-half miles east of the District, was completed in 1962 by the U.S. 
Army Corps of Engineers. The purpose of the project is to provide 
storage space for flood protection and irrigation on the Kaweah River. 
The Conservation District manages the irrigation and flood control 
releases for Lake Kaweah, as well as assisting in the conjunctive use 
of the surface and groundwater of the Kaweah delta.
    Flooding downstream from the dam occurs when flows from individual 
creeks blend together and form a sheet flow through urban and 
agricultural areas. Included in the flooded areas are the communities 
of Visalia, Farmerville, Tulare, Ivanhoe and Goshen. Since construction 
of Terminus Dam, 10 damaging floods have occurred, the most recent in 
1997 and 1998.
    Inadequate flood protection and a long-term groundwater overdraft 
in the region have created a need for greater reservoir storage space 
for flood control and irrigation storage. With a maximum capacity of 
143,000 acre-feet, Lake Kaweah currently provides a less than 50-year 
level of flood protection for communities downstream. Raising the 
spillway at Terminus Dam (by the installation of fuse gates) would 
increase the reservoir storage capacity by 30 percent, thus providing a 
much higher level of flood protection for the region.
    California's growing population will place ever-increasing demands 
on its water supply and flood control infrastructure. Improving 
existing facilities such as Terminus Dam is one of the most economical 
and environmentally sensitive ways to meet those new demands. It is 
important for Congress to encourage such projects.
    We are grateful for the Subcommittee's continued support of the 
Terminus project.
                                 ______
                                 

         Prepared Statement of the Natomas Mutual Water Company

    Mr. Chairman, Members of the Committee: On behalf of the Natomas 
Mutual Water Company, I request the Committee's support for an 
allocation of $3,000,000 in the fiscal year 2001 Energy and Water 
Development Appropriations bill, under Bureau of Reclamation, Central 
Valley Project, Miscellaneous Project Programs, Anadromous Fish 
Screening Program, for the American Basin Fish Screen and Habitat 
Improvement Project. The requested funding will be used to complete the 
environmental review, design and engineering phases of the project as 
well as initiate construction on a new flat plate screen and diversion 
point just north of the City of Sacramento.
    Currently, five river diversions from the Sacramento River of 
Natomas Mutual Water Company, located within a 20-mile stretch, need 
upgrading to prevent capture of endangered species. Individually re-
designing those diversions and installing positive fish barriers on 
each would be prohibitively expensive. Two of the diversions take water 
from a body of water called the Natomas Cross Canal at the northern-
most point of the service area. That channel receives flows from both 
the Sacramento River and the Auburn Ravine foothill runoff. During dry 
years, the Canal is artificially filled with water from the Sacramento 
River, in order to feed the pumps. Any alternative which could remove 
the need for those pumps, especially in dry years, would enhance the 
Cross Canal's potential as a special habitat preserve.
    The project will provide fish protection to one of the largest 
remaining unscreened diversions on the Sacramento River as well as 
provide important benefits for fish habitat. In addition, the project 
could provide benefits to other regional water users, including the 
City of Sacramento, Sacramento County and Placer County Water Agency, 
all of which are exploring diversion options on the Sacramento River.
    The Natomas Water Company would greatly appreciate the Committee's 
support for this project. Thank you again for your attention to this 
important project.
                                 ______
                                 

         Prepared Statement of the Hoopa Valley Tribal Council

    On behalf of the Hoopa Valley Tribe of California, I express our 
appreciation for the opportunity to submit testimony regarding the 
fiscal year 2001 Bureau of Reclamation (BOR) budget. A summary of our 
fiscal year 2001 funding request follows:
  --Support Administration's position that existing laws provide 
        authority to support Trinity River Division fish and wildlife 
        management and restoration activities. Further, the Hoopa 
        Valley Tribe supports the Administration's position that 
        Central Valley Project Improvement Act (CVPIA) funds are 
        authorized for expenditure in the Trinity River Basin.
  --Request that $11,500,000 be provided for Trinity River fishery 
        management requirements within the Trinity River Division of 
        the Central Valley Project for continuing fish and wildlife 
        management programs of tribal, state, federal and local 
        entities and continuation of the Comprehensive Co-Management 
        Agreement between Hoopa Valley Tribe and BOR at a funding level 
        of $2,500,000.
  --Request $150,000 from the General Activities Planning budget for a 
        feasibility study for upgrading the Lewiston generator, and for 
        Trinity River green sturgeon and Pacific Lamprey population 
        studies.
  --Support the Native American Affairs proposed budget and request an 
        increase of $1,000,000 for additional assistance to Indian 
        tribes.

                               BACKGROUND

    The Trinity River in northern California is the largest tributary 
to the Klamath River, the second largest river system in California. 
Since time immemorial, the Klamath Basin provided sustenance to Native 
Americans of the region. The Klamath River Basin is the aboriginal 
territory of Hoopa Valley, Karuk, Klamath, and Yurok Tribes. Moreover, 
utilization of fishery resources of the Klamath River has been 
fundamental to the economic health of northern California providing 
viable recreational and commercial salmon fisheries.
    In 1963, BOR completed construction of the Trinity River Division 
of the Central Valley Project (CVP). The Trinity River Division 
currently provides an estimated fourteen-percent of the total water 
yielded by the CVP.
    Shortly after completion of the Trinity Dam, and subsequent 
diversion of up to 90 percent of the stream flows at the diversion 
point (near Lewiston, California) from the Trinity River, the fishery 
began to decline. Through the 1980s, corresponding declines of up to 80 
percent of the salmon and steelhead populations occurred. In response 
to declines in Trinity fish stocks, the Secretary of Interior approved 
development of a flow evaluation study in 1981 to determine stream flow 
needs for fish restoration. Further, Congress recognized the 
seriousness of the problem, and enacted the Trinity River Restoration 
Act (Public Law 98-541, 1984) which, with subsequent amendments, 
authorized approximately $70,000,000 in an attempt to reverse the 
decline of the fishery resources within the Trinity River Basin. 
However, the downward trend in Trinity fish populations has continued 
as reflected by listing of coho salmon under the Endangered Species Act 
(ESA) (May 6, 1997). Steelhead were recently declined for listing under 
the ESA. Klamath/Trinity Basin chinook stocks were included in a West 
Coast review of all chinook stocks. The NMFS concluding that Klamath/
Trinity chinook did not presently warrant listing under ESA.
    While much work has been accomplished to date, it is recognized 
that continued monitoring and research will be necessary to provide 
insight on status of resources, evaluation of restorative measures, and 
effective management recommendations for further restoration. Primary 
among the scientific achievements to date has been the development of 
in-stream flow criteria that quantify the benefits to salmonids of 
retained flows in the Trinity Basin. These criteria, developed over the 
entire course of the Restoration Program, provide a basis for the 
Secretary's flow decision, due in fiscal year 2000. The Secretary's 
Trinity River Flow Evaluation Study Report was published in June 1999, 
and the Environmental Impact Statement (EIS) is scheduled for 
completion by July 2000.
    In spite of many years of research into Trinity River ecosystem 
processes, considerable uncertainty persists in regard to downstream 
impacts of water releases from Lewiston Dam. These uncertainties are to 
be addressed via an Adaptive Management Plan (AMP) under the direction 
of the Interior Secretary. Long-term monitoring and research are 
essential to the AMP: hypotheses underlying the Trinity River Flow 
Evaluation Study recommendations will be tested through research; and 
monitoring data will be used to measure how well river ecosystem health 
objectives are met.

              NARRATIVE JUSTIFICATION AND FUNDING REQUESTS

  --The Tribe is in agreement with the Administration's legal 
        conclusions contained in the fiscal year 2001 Budget 
        Justification and Annual Performance Plan--Trinity River 
        Division--that existing authorities provide ample justification 
        for expenditures on fish and wildlife restoration within the 
        Trinity River. The 1955 Act creating the Trinity River 
        Division, Trinity River Fish and Wildlife Restoration Act as 
        amended, and the Central Valley Project Improvement Act (CVPIA) 
        mandate that the Department of the Interior restore and 
        maintain fish and wildlife populations with CVP funds. 
        Furthermore, Congress acknowledged the reserved fishing rights 
        of the Hoopa Valley Tribe in the CVPIA.
  --Funding Request for Fish and Wildlife Management--In August 1999, 
        agencies responsible for managing the Trinity River fishery 
        resources determined that $11,500,000 was needed annually to 
        fund comprehensive management within the Trinity River Basin in 
        order to restore the fishery resources to pre-dam levels. The 
        Hoopa Valley Tribe participated in the development of this 
        management plan. Specifically, the Hoopa Valley Tribe requests 
        that an additional $5,000,000 in funds be provided for 
        restoration of Trinity Basin fish and wildlife resources. 
        Presently, the Administration has proposed a fiscal year 2001 
        budget of $5,600,000
    Therefore, the Tribe requests that the Committee provide 
$11,500,000 for Fish and Wildlife Management and Development within the 
Trinity River Division budget and that $2,500,000 of this amount be 
allocated specifically for the maintenance of the Comprehensive Co-
Management Agreement between the Tribe and BOR. The requested funding 
would ensure the Tribe's involvement in water project operations 
planning, environmental impact analysis, hatchery investigations, 
fisheries management, and would accelerate resource restoration through 
unified, inter-governmental management actions. Most of these 
activities will be addressed via the Adaptive Environmental Assessment 
and Management process (AMP) as described in the Trinity River Flow 
Evaluation Final Report.
    In its seventh year, the Co-Management Agreement between Hoopa and 
BOR has contributed not only to the fulfillment of the Federal trust 
responsibilities to Native Americans, but has also served to bring 
Federal, State, Tribal and local management agencies together into a 
constructive and cooperative forum for managing fishery and water 
resources within the Trinity River Basin.
  --Request $150,000 from the General Activities Planning budget for a 
        feasibility study for upgrading the Lewiston Hydro-power 
        generator, green sturgeon and Pacific Lamprey studies. It is 
        expected that the Interior Secretary's Trinity River permanent 
        fishery flow decision will result in reduced diversions of 
        Trinity River flows into California's Central Valley. While 
        being greatly beneficial to Trinity River fishery resources and 
        upholding the federal trust obligations to Indian tribes, the 
        decision will likely reduce the amount of electricity generated 
        from diverted flows. To compensate for this situation, the 
        Tribe requests that $100,000 be provided from Reclamation's 
        General Activities Planning budget for determining the 
        feasibility of increasing the capacity of the Lewiston 
        Powerhouse generators in anticipation of the increased releases 
        to the Trinity River. An expected benefit of increased 
        generation of electricity from the Lewiston powerhouse is the 
        possibility of using its revenues to pay for future fish and 
        wildlife restoration activities within the Trinity River Basin, 
        thereby reducing long-term costs to the Federal Government.
    In addition, the Tribe requests that $50,000 be provided for 
conducting population and fish health studies for Trinity River green 
sturgeon and Pacific Lamprey, both of which are important species to 
the Klamath and Trinity River Indian tribes and have been negatively 
impacted by the construction and management of the Trinity River 
Division.
  --Support the Native American Affairs proposed budget request and an 
        increase of $1,000,000 for additional assistance to Indian 
        tribes. The Reclamation Native American Affairs program has 
        proven to be very beneficial to both the Federal Government and 
        Indian tribes while trying to resolve inter-governmental water 
        and fishery management issues. Without a doubt, the Native 
        American Affairs Program has been instrumental in reducing the 
        possibility of costly litigation and disputes between 
        Reclamation and Indian tribes.

                          RESULTS ANTICIPATED

    Trinity Restoration Program: Effective restoration of fisheries, 
critical to the Hoopa Valley and Yurok tribes and the economic 
stability of the fishery dependent communities of northern California 
and southern Oregon, would be promoted through collective actions of 
the Trinity Restoration Program. Identification and implementation of 
specific remedies and monitoring of fishery trends are expected results 
of Restoration Program.
    While many on-the-ground achievements have already been realized, 
many critical elements have yet to be completed. Among the expected 
outcomes of the Program for 2000 is the completion of the Environmental 
Impact Statement to assist the Secretary with implementation of in-
river flows required for full restoration of salmonid populations in 
the Trinity River as mandated under Public Law 102-575. The Secretary's 
fishery flow allocation decision, originally mandated for fiscal year 
1997, was delayed due to incomplete environmental documentation. It is 
now anticipated that completed environmental documentation shall be 
available to support the Secretary's Decision expected in fiscal year 
2000.
    Tribal/Reclamation Co-Management Agreements and Native American 
Affairs Program.--The Co-Management Agreements will continue to assist 
in the coordination of Federal, State, Tribal and local activities 
(management and research) impacting salmon fisheries and salmon 
habitats of the Klamath and Trinity rivers. Accomplishments under this 
agreement in fiscal year 1997 included maintenance of data collection 
and analysis programs critical to the integrated management of the 
Klamath and Trinity fishery resources. Both Reclamation and the Tribe 
agree that a wise investment has been made in developing a 
comprehensive foundation for fishery restoration.
    This foundation includes on-the-ground restoration work, assembly 
of scientific data on fisheries and habitat, and the coordination 
across multiple jurisdictions affecting salmon survival. It is now 
important to insure that this investment provides the desired results 
of a fully restored Trinity River Basin.
    The General Activities Planning budget request will assist the 
Tribes, agencies and private interests to develop opportunities for 
compensating for the loss of electricity caused by increased Trinity 
River flows. The Green Sturgeon and Pacific Lamprey population and 
survival studies will provide basic information for development of 
long-term management programs for these species. While green sturgeon 
and Pacific Lamprey are important species to Indian tribes, and their 
maintenance is part of the Federal Government's trust obligations, lack 
of funding has prevented the development of management programs for 
these species.

                               CONCLUSION

    The Hoopa Valley Tribe's relationship with BOR has improved 
significantly in recent years; however, it is clear that the fishery 
management problems associated with the Central Valley Project and 
Klamath Project operations still persist. Resolution of these issues 
may only be assured through the continued commitment by the Tribe and 
BOR to ongoing co-management of these important resources.
    Again, I appreciate the opportunity to submit testimony regarding 
BOR's fiscal year 2001 budget. I am available to discuss these matters 
with you in more detail at your convenience.
    Thank you.
                                 ______
                                 

      Prepared Statement of the Colorado River Board of California

    Your support and leadership are needed in securing adequate fiscal 
year 2001 funding for the Department of the Interior with respect to 
the federal/state Colorado River Basin Salinity Control Program. 
Congress has designated the Department of the Interior, Bureau of 
Reclamation to be the lead agency for salinity control in the Colorado 
River Basin. This successful and cost effective program is carried out 
pursuant to the Colorado River Basin Salinity Control Act and the Clean 
Water Act. California's Colorado River water users are presently 
suffering economic damages estimated at about $750 million per year due 
to the river's salinity. The potential impact of failing to move 
forward with the Plan of Implementation for salinity control would be 
to permit these damages in the Lower Basin to reach an estimated $1.25 
billion annually by the year 2015.
    The Colorado River Board of California (Colorado River Board) is 
the state agency charged with protecting California's interests and 
rights in the water and power resources of the Colorado River System. 
In this capacity, California along with the other six Basin States 
through the Colorado River Basin Salinity Control Forum (Forum), the 
interstate organization responsible for coordinating the Basin States' 
salinity control efforts, established numeric criteria, in June 1975, 
for salinity concentrations in the River. These criteria were 
established to lessen the future damages in the Lower Basin States as 
well as assist the United States in delivering water of adequate 
quality to Mexico in accordance with Minute 242 of the International 
Boundary and Water Commission. The goal of the Colorado River Basin 
salinity control program is to offset the effects of water resource 
development in the Colorado River Basin after 1972 rather than to 
reduce the salinity of the River below levels that were caused by 
natural variations in river flows or human activities prior to 1972. To 
maintain these levels, the salinity control program must remove 
1,480,000 tons of salt loading from the River by 2015. To date, only 
721,000 tons of salt load reduction have been achieved. In the Forum's 
last report entitled 1999 Review, Water Quality Standards for Salinity, 
Colorado River System released in June 1999, the Forum found that 
additional salinity control measures were necessary to meet the 
implementation plan that had been adopted by the seven Colorado River 
Basin States and approved by the Environmental Protection Agency. The 
Forum identified a ``backlog'' of salinity control measures which 
stands at 384,000 tons. This is in addition to future controls designed 
to lower the River's salt loading by 372,000 tons by 2015 in order to 
meet the established salinity standards. The Forum has presented 
testimony to Congress recommending that the salinity control efforts 
through Reclamation's Basinwide Salinity Control Program be accelerated 
to continue to meet the salinity standards through 2015. It has 
developed a plan that recommends the removal of at least 87,000 tons 
per year of salt loading through 2005.
    The President's proposed budget for fiscal year 2001 contains only 
$10,850,000 for the Bureau of Reclamation's Basinwide Salinity Control 
Program. The Colorado River Board is pleased with the Administration's 
efforts, however, implementation of salinity control measures has 
fallen behind the needed pace to prevent salinity concentration levels 
from exceeding the numeric criteria adopted by the Forum and approved 
by the EPA. The seven Colorado River Basin states, which cost-share 
with the Federal Government up to 30 percent of the construction costs 
of Reclamation's salinity control measures, have carefully evaluated 
the federal funding needs of the program and have concluded that an 
adequate budget is needed for the plan of implementation to maintain 
the river salinity standards. The Forum, at its meeting in San 
Francisco, California, in October 1999, recommended a funding level of 
$17,500,000 for Reclamation's Basinwide Program to reduce the 
``backlog'' of projects.
    In addition, the Colorado River Board recognizes that the Federal 
Government has made significant commitments to the Republic of Mexico 
and to the seven Colorado River Basin states with regard to the 
delivery of quality water to Mexico. In order for those commitments to 
be honored, it is essential that in fiscal year 2001 and in future 
fiscal years, that Congress provide funds to the Bureau of Reclamation 
for the continued operation of completed projects through Operation and 
Maintenance funds.
    The Colorado River is, and will continue to be, a major and vital 
water resource to the 17 million residents of southern California. 
Preservation of its quality through an effective salinity control 
program will avoid the additional economic damages to users in 
California.
    The Colorado River Board greatly appreciates your support of the 
federal/state Colorado River Basin Salinity Control Program and again 
asks for your assistance and leadership in securing adequate funding 
for this program.
                                 ______
                                 

  Prepared Statement of the Monterey Regional Water Pollution Control 
                                 Agency

    Mr. Chairman, thank you for the opportunity today to provide this 
testimony for inclusion in the hearing record on the fiscal year 2001 
Energy and Water Development appropriations bill. But most importantly, 
let me express my sincere appreciation for your continued support for 
the Small Reclamation Projects Loan Program, and specifically, the 
funding for the Salinas Valley Reclamation Project. During the past six 
years, this subcommittee provided $8.2 million for our project. I am 
pleased to report that the funds appropriated thus far have been well 
spent on our project, which began construction in August 1995. The new 
facility was dedicated in October 1997 with full operation beginning in 
April 1998. In calendar year 1999, the plant produced over 10,000 acre-
feet (AF) of recycled water.
    The project will ultimately provide 19,500 acre-feet of recycled 
water per year to land south and west of Castroville where abandonment 
of wells threatens agricultural production and the loss of a portion of 
rural America. It will also reduce discharge of secondary treated 
wastewater to the recently created Monterey Bay National Marine 
Sanctuary. In addition, the California State Water Resources Control 
Board specifically indicated its strong support for the Salinas Valley 
Reclamation Project in a prior letter to the U.S. Bureau of 
Reclamation.
    The Monterey Regional Water Pollution Control Agency (MRWPCA), a 
joint-powers entity formed under the laws of the State of California, 
was created in 1971 to implement a plan that called for consolidation 
of the Monterey Peninsula and northern Salinas Valley wastewater flows 
through a regional treatment plant and an outfall to central Monterey 
Bay. The plan also required studies to determine the technical 
feasibility of using recycled water for irrigation of fresh vegetable 
food crops (artichokes, celery, broccoli, lettuce, and cauliflower) in 
the Castroville area. These studies were initiated in 1976 and included 
a five-year full-scale demonstration of using recycled wastewater for 
food crop irrigation. California and Monterey County health departments 
concluded in 1988 that the water was safe for food crops that would be 
consumed without cooking. Subsequently, the Salinas Valley Seawater 
Intrusion Committee voted to include recycled water in their plan to 
slow seawater intrusion in the Castroville area.
    In addition, a supplemental water-testing program (October 1997 
through March 1998) was initiated to confirm the new plant's removal of 
what are termed ``emerging pathogens.'' These organisms, which include 
Cryptosporidium, Giardia, Cyclospora, and E. Coli, were not evaluated 
in the original five-year field study. The results of the follow-up 
testing program again verified that the water is safe for irrigation of 
food crops.
    As in the past, we have been in close consultation with the Bureau 
of Reclamation and the other Small Reclamation Projects Loan Program 
participants in an attempt to provide the Committee with a consensus 
budget request that has the support of the Administration and the Loan 
Program participants. Based on these discussions, the Administration 
requested, with our support and endorsement, sufficient funding for the 
Salinas Valley Reclamation Project as part of the Bureau of 
Reclamation's Public Law 84-984 Small Reclamation Projects Loan Program 
for continuation of loan obligations. This appropriation amount, $0.8 
million, when combined with other federal funding which is available 
from the U.S. Treasury pursuant to the Federal Credit Reform Act of 
1990, will yield a total loan amount that we believe will meet the 
Federal Government's commitment for fiscal year 2001. The amount 
requested, when combined with the additional Treasury portion, is 
intended to fulfill the Bureau's eight-year loan commitment for 
assistance to construct the project.
    As I indicated, the funding request is the result of a lengthy and 
complex financial agreement worked out with the other Loan Program 
participants and the Bureau. The agreement represents the absolute 
minimum annual amount necessary to continue with the project. The 
MRWPCA worked under the premise of accommodating the Bureau of 
Reclamation's budgetary constraints and is expending considerable local 
funds to bridge the Federal Government's budgetary shortfall. Any 
additional cuts in federal funding will jeopardize the complex 
financing plan for the project.
    The MRWPCA has received Federal Grant and Loan Funds in Federal 
fiscal year 1995, fiscal year 1996, fiscal year 1997, fiscal year 1998, 
fiscal year 1999, and fiscal year 2000 through February 9, 2000, as 
follows:

Federal Appropriations \1\

                        [In millions of dollars]

                                                                    SVRP
Received:
    1995................................................................
    1996..........................................................   2.0
    1997..........................................................   1.5
    1998..........................................................   1.3
    1999..........................................................   1.7
    2000..........................................................   1.7
Requested 2001....................................................   0.8
                                                                  ______
      Total.......................................................   9.0

\1\ Does not include Treasury portion of $9.155 million for SVRP.

    Even though the additional private debt service and bridge 
financing will increase the project costs, the critical problem of 
seawater intrusion demands that the project be continued. The Bureau of 
Reclamation loan is a crucial link in project funding, and it is 
imperative that annual appropriations continue, even at the planned 
reduced rate over eight years. The federal funds requested under the 
Public Law 84-984 program will be repaid by landowners in the Salinas 
Valley with assessments that are currently in place. Local funds 
totaling $16.3 million have already been spent getting to this point.
    Mr. Chairman, we urge you and the members of the subcommittee to 
give your continued support to the Small Reclamation Projects Loan 
Program, and specifically, funding for the Salinas Valley Reclamation 
Project. Your support and continued assistance for this critical 
project is greatly appreciated.
                                 ______
                                 

    Prepared Statement of the Monterey County Water Resources Agency

    Mr. Chairman, thank you for the opportunity to provide testimony 
for inclusion in the hearing record of the fiscal year 2001 Energy and 
Water Development Appropriations bill. The people of the Salinas Valley 
in California's 17th Congressional District appreciate your willingness 
to accept our statements in support of the Castroville Seawater 
Intrusion Project. I would further like to express our deep 
appreciation for this Subcommittee's efforts on past Energy and Water 
Development Appropriations bills. I am pleased to report that the 
project is complete and operational and provided over 10,000 acre-feet 
of recycled water in calendar year 1999.
    As with the past six years the Monterey County Water Resources 
Agency has worked diligently to present the Subcommittee with an fiscal 
year 2001 funding request that is supported by the Administration as 
well as all the other Small Reclamation Loan Program participants. 
Through close consultation with the Bureau of Reclamation and other 
Program participants, we have developed the funding plans that were 
included in the President's fiscal year 2001 budget for the Public Law 
84-984 Small Reclamation Loan Program. I therefore respectively request 
that the Subcommittee provide the full Administration request for the 
project of $1.3 million.
    This is the seventh year of an eight-year fiscal strategy designed 
to meet the requirements of all the projects in the Program while 
recognizing the fiscal constraints facing all levels of government. 
Originally, the Program was to provide all appropriations ($16,500,000) 
over a three-year period. During the past six years this Subcommittee 
provided $11.864 million for our project. The current appropriation 
amount of $1.3 million, when combined with other federal funding which 
is available from the U.S. Treasury in the amount of 
approximately$2.275 million pursuant to the Federal Credit Reform Act 
of 1990, should yield a total loan amount of $3.575 million for fiscal 
year 2001 that will allow the project to proceed on schedule.
    The Monterey County Water Resources Agency (MCWRA) is a local 
government entity formed under the Monterey County Water Resources 
Agency Act. It is an agency with limited jurisdiction involving matters 
related primarily to flood control and water resources conservation, 
management, and development. The Salinas Valley is a productive 
agricultural area that depends primarily on ground water as a water 
supply. The combination of the Valley's rich soils, mild climate, and 
high quality ground water makes this Valley unique among California's 
most fertile agricultural lands and has earned the Valley the 
distinction as the ``Nation's Salad Bowl''. As agricultural activity 
and urban development have increased in the past forty years, ground 
water levels have dropped allowing seawater to intrude the coastal 
ground water aquifers. Seawater intrusion is extensive adjacent to the 
coast near the town of Castroville. The Castroville Seawater Intrusion 
Project will provide 19,500 acre-feet of recycled water annually for 
agricultural irrigation to over 12,000 acres and help solve the 
seawater intrusion problem by greatly reducing groundwater pumping in 
the project area. The Castroville Seawater Intrusion Project is an 
essential component in the MCWRA's plan to deal with basin-wide ground 
water overdraft and seawater intrusion.
    The amount requested in fiscal year 2001 when combined with the 
additional Treasury portion is intended to fulfill the Bureau's seventh 
year of an eight-year loan commitment for assistance to construct the 
project. As stated above, the funding request that we anticipate is the 
result of a lengthy and complex financial agreement worked out with the 
other Loan Program participants and the Bureau. The agreement 
recognized the tight federal budgetary constraints and represents the 
absolute minimal annual amount necessary to proceed with the project. 
The MCWRA has been extremely accommodating of the Bureau's budgetary 
constraints and has agreed to expend considerable local funds to bridge 
the Federal Government's budgetary shortfall. Any additional cuts in 
federal funding will jeopardize the complex financing plan for the 
project.
    In August 1992, the original loan request was submitted to the 
Bureau. Subsequent approval was received from the Secretary of the 
Interior in May 1994. Through extensive discussion and negotiations 
between the MCWRA and the Bureau, a project-financing plan was created. 
The Bureau made it quite clear that the original provisions in the loan 
application of full disbursement during the three years of construction 
could not be met due to federal budget shortfalls. As defined in the 
repayment contract, the Bureau will disburse funds to the MCWRA over an 
eight-year period. This means that the MCWRA will receive these funds 
for five years after the project is operational. The fiscal year 2000 
funding provided monies for the third year after completion of the 
project. The MCWRA had to acquire ``bridge financing'' to meet the 
needs of the Castroville Seawater Intrusion Project construction costs. 
Even though the additional private debt service has increased the 
project costs, the critical problem of seawater intrusion demanded that 
the project proceed. The Bureau loan is a crucial link in project 
funding, and it is imperative that the annual appropriations, even at 
the planned reduced rate over eight years, continue. Federal 
appropriations have been received in fiscal years 1995, 1996, 1997, 
1998, 1999, and 2000 as shown in the table below and must continue in 
subsequent years in accordance with the negotiated agreement in order 
for the projects to be successful. The federal funds requested under 
the Public Law 84-984 program will be repaid by landowners in the 
Salinas Valley with assessments that are currently in place. The MCWRA 
has spent approximately $36.0 million of its own funds getting to this 
point.

Federal Appropriations \1\

                        [In millions of dollars]

                                                                    CSIP
Received:
    1995.......................................................... 1.064
    1996..........................................................   1.5
    1997..........................................................   2.0
    1998..........................................................   2.1
    1999..........................................................   2.6
    2000..........................................................   2.6
Requested 2001....................................................   1.3
                                                                  ______
      Total.......................................................13.164

\1\ Does not include Treasury portion of $13.642 million for CSIP.

    Mr. Chairman, we urge you and the members of the Subcommittee to 
give your continued support to the Small Reclamation Program and we 
urge the inclusion of funds for the Castroville Seawater Intrusion 
Project. Without your continued support, we will not be able to realize 
the benefit of the work completed over the past several years and the 
Salinas ground water basin will continue to deteriorate, creating a 
significant threat to the local and state economies as well as to the 
health and welfare of our citizens.
    Again, thank you for your support and continued assistance.
                                 ______
                                 

         Prepared Statement of the Moss Landing Harbor District

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity for me, James Stilwell, as general manager of the Moss 
Landing Harbor District in California to submit prepared remarks to you 
for the record in support of the fiscal year 2001 Energy and Water 
regular appropriations measure.
    With the help of fiscal year 1998 emergency, and fiscal year 1999 
regular, appropriations (and assistance from the Federal Emergency 
Management Agency) we have just completed the first operations and 
maintenance cycle of both the federal channel and non-federal berthing 
areas maintained by the district since 1993 despite three intervening 
declared natural disasters which left hundreds of thousands of cubic 
yards of additional material to be dredged and disposed of.
    On the heels of this achievement, we now turn our sights on the 
future. No harbor district in the country has had to go though more 
hoops to get its harbor dredged to authorized depth. No harbor in the 
country should have to go through what we have gone through ever again!
    Over the past year under the auspices of the San Francisco district 
of the Corps of Engineers, we have convened an ecological risk 
assessment working group to develop a consensus decisionmaking approach 
to reviewing options for dredged material disposal for the next 
scheduled operations and maintenance cycle focusing on the continued 
use of the nearshore SF-12 disposal site.
    This working group is comprised of every state, federal and local 
agency with responsibility for the conduct and statutory oversight of 
dredging activities. The site is located within the boundaries of the 
Monterey Bay National Marine Sanctuary (MBNMS), including the 
Sanctuary, U.S. Army Corps of Engineers, San Francisco District 
(USACESFD), USEPA Region IX, U.S. Fish and Wildlife Service (USFWS), 
California Coastal Commission, California Department of Fish and Game, 
the Central Coast Regional Water Quality Control Board, along with 
representatives of related local agencies, the commercial fishing 
industry, public interest groups and marine research community based in 
the Harbor District.
    The members of this working group unanimously support the request 
of the Harbor District for $700,000 in additional appropriations from 
the fiscal year 2001 operations and maintenance general account of the 
Corps of Engineers to complete a long term dredged material management 
plan and ecological risk assessment under both Corps and EPA guidance. 
This assessment will identify and establish a management plan for the 
disposal of dredged material from both the federal channel and locally 
maintained berthing areas for the next twenty years to avoid a repeat 
of the nightmare we have experienced since 1993.
    Having previously determined the eligibility of using O&M general 
account funds for this purpose, a preliminary analysis is already 
underway that will establish the scope of work for the dredged material 
management plan and the ecological risk assessment. Part of that effort 
is putting the economic issue of continued federal interest in 
maintaining our federal channel out there for reevaluation. As the 
harbor is home to the largest commercial fishing fleet on the central 
coast of California and the largest concentration of federal, state and 
private marine research and millions of dollars in capital investment 
in vessels and facilities on the west coast, I am confident of the 
results of that analysis.
    Anticipating the committee's fiscal concerns, we have already put 
our local money where our mouth is before we would request additional 
federal funds for this purpose! As part of voluntary local cost sharing 
contribution, the local sponsor has expended over $120,000 to date for 
sedimentary transport studies of both mud and sand and associated 
contaminants from various sources in the SF 12 area including the 
unique Monterey Bay Marine Canyon, $16,000 for the collection of 
sediment samples (some of which need critical testing and evaluation 
before their expiration), $12,000 for an extensive literature search, 
and $25,000 in coordinating with, and sponsoring meetings of the 
working group. USEPA Region IX has also contributed financially to this 
important endeavor providing funds for the peer review process.
    We are concurrently seeking the reprogramming of in excess of 
$150,000 in fiscal year 2000 funds from the operations and maintenance 
general account of the district and Southern Pacific Division to get 
the management plan under way this year. The additional amounts are 
requested on a one-time basis to complete the plan this next fiscal 
year. Some of the work we expect will be done in house by the U.S. Army 
Corps of Engineers waterway experiment station in Vicksurg, 
Mississippi. All of the work will be useful to other cities, states, 
and port authorities across the United States as a model for 
collaborative effort in dredged material disposal consensus 
decisionmaking in unique situations such as ours. If we can resolve the 
thorny issues of dredged material disposal in the ecologically unique, 
only Submarine CANYON and largest marine sanctuary in the United 
States, we can solve these problems anywhere!
    This effort is intended to save current and future expenditures by 
providing a proven analytical and scientific framework with which to 
balance the costs and risks of upland and unconfined aquatic disposal 
of dredged material, a problem affecting ports and harbors across the 
nation and threatening to have an adverse impact on future Corps 
maintenance budgets.
    In this regard, the commission recognizes and expresses its 
gratitude to our distinguished senator from California, the Honorable 
Dianne Feinstein, a member of this committee for her continuing efforts 
on behalf of California's ports in the Congress of the United States, 
and especially for her efforts in the fiscal year 1998 emergency and 
regular 1999 regular appropriations, in funding deferred operations and 
maintenance of the Moss Landing Navigation Project of critical economic 
importance to the commercial fishing industry, University and Private 
Oceanographic Research Fleet, and Monterey County in the central coast 
region of the State of California. We are the working port of the 
central coast of California!
    At this time last year, we were in the throes of a dire emergency. 
The last complete maintenance cycle of our authorized fifteen foot 
channel was in 1993. Since then three declared natural disasters, the 
most recently being the 1998 El Nino event, left hundreds of thousands 
of cubic yards of silt material in our channel and berthing areas, in 
many instances reducing channel depth to six feet in places, and 
threatening navigation closure with untold economic loss to the region.
    Today, with the committee's assistance, the Corps of Engineers has 
dredged the main channel to authorized depths. Under Corps permit we 
have likewise dredged our berth areas. As a result of those 
unprecedented three flooding events, as the innocent victim of upstream 
runoff of agricultural pesticide laden material, we became a downstream 
repository for material that initially failed testing for suitability 
for unconfined aquatic disposal at an historic site five hundred yards 
offshore. The difference between upland and aquatic disposal is between 
less than five dollars per cubic yard and over thirty dollars per cubic 
yard for either channel or berth material, prohibitively expensive to a 
small harbor district like ourselves.
    More recent testing results have borne out that much, if not all, 
of our material is indeed safe for aquatic disposal within existing 
guidelines. We feel sufficiently certain of this, that we are willing 
to contribute our own limited resources to a cooperative effort in the 
form of a dredged material management plan. This plan calls for the 
Corps of Engineers to marshall the necessary scientific evidence and 
documentation to support a first-of-its-kind in the Nation Ecological 
Risk Assessment with the participation of the Corps waterway experiment 
station and Environmental Protection Agency scientists in this effort. 
We hope that the eventual report will help bring about a consensus on 
this issue in our local region, and serve as a model for other ports 
and harbors across the nation. We fully expect that the expenditure of 
funds for this purpose will save countless federal and local sponsor 
dollars in navigation and other projects nationwide.
    The Corps will lead in this effort with expenditures from their 
operations and management, general appropriations account with the 
initial planning effort commencing in the current fiscal year. Most of 
the necessary scientific field work (sampling, testing, and evaluation) 
will occur in fiscal year 2000.
    Concurrently, the Ecological Risk Assessment (``ERA'') to be 
undertaken will consist of three main phases: (1) problem formulation; 
(2) analysis; and (3) risk characterization.
    The first phase will consist of a screening ERA to identify those 
chemicals, ecological receptors, and exposure pathways requiring 
further evaluation in subsequent phases and to identify additional data 
needs. This phase will address elements of problem formulation, and 
utilizes mostly existing data.
    The problem formulation phase includes the following components:
  --Data evaluation and chemical of potential concern selection.--An 
        evaluation of dredged material characteristics to select 
        chemicals of potential concern for further evaluation;
  --Ecosystem characterization.--Identification of the habitats and 
        aquatic, wildlife, and human receptors of potential concern;
  --Conceptual ecological model development.--An evaluation of complete 
        and potentially complete exposure pathways (disposal 
        characteristics), selection of indicator species (sensitive 
        species representative of different levels of the food chain), 
        and identification of assessment and measurement endpoints; and
  --Data gap analysis.--Identification of data needs and studies 
        required to complete the assessment.
    Because of the nature of the Moss Landing dredged material disposal 
(hydraulic dredging to a highly dispersive site) and the similarities 
of the disposal process to the ongoing sediment deposition to Monterey 
Bay from the local watershed, the initial evaluation will focus on 
these ongoing processes. The ongoing sediment deposition and its 
effects on the Monterey Bay ecosystem can provide a real-time 
indication of the stressor-response relationship. Existing data will be 
reviewed and additional data collected as deemed necessary in the data 
gap analysis described above.
    The second phase analysis will include the following elements:
  --Watershed characterization.--An evaluation of the sediment and 
        chemical loading to Monterey Bay from the surrounding watershed
  --Hydrodynamic evaluation.--An evaluation of the dispersional/
        depositional patterns/zones
  --Sediment characterization.--An evaluation of sediment chemical 
        concentrations in depositional zone(s)
  --Biota characterization.--An evaluation of resulting biota 
        concentrations (benthos and fish); some benthic community 
        analysis may be conducted as well
  --Toxicity Identification Evaluation (TIE).--An evaluation of toxic 
        effects and identification of toxicants
  --Exposure and effects assessments.--An evaluation of food chain 
        effects and an evaluation of human health effects
  --Risk characterization.--Integration of the above elements to 
        estimate risks.
  --Uncertainty analysis.
    The first phase of this evaluation will include a screening level 
assessment using conservative assumptions. As necessary, additional 
data will be collected to refine these assumptions and provide more 
realistic estimates of exposure and effects.
    The third phase of risk evaluation will determine if no significant 
risks are predicted in the above evaluation. Subsequent phases of the 
ERA will estimate the level of additional deposition (i.e., dredged 
material disposal) that could occur before resulting in unacceptable 
risks. If significant risks are predicted in the ambient level 
assessment, the subsequent phases will include predicting the 
incremental risk from disposal of dredged material. Project 
deliverables will include:
  --A work plan, sampling and analysis plan, and quality assurance 
        program plan;
  --Draft, draft final, and final reports; and
  --A monitoring plan.
    The draft report is anticipated to be released by the end of 
Federal fiscal year 2001. The combined field work and phase I 
ecological risk assessment is anticipated to cost approximately 
$700,000.
    In the final analysis we are just a small harbor with a big problem 
not of our creation in search of a comprehensive solution. This 
subcommittee and committee took first step in funding the long overdue 
maintenance of our channel last year. We seem to return the favor by 
serving as a working laboratory for all interested parties in the 
future of dredging and dredged material disposal. Our location adjacent 
to the Monterey Bay National Marine Sanctuary, and serving as homeport 
to a large scientific population lends itself to this effort.
    On behalf of the Harbor Commission and the commercial fishing fleet 
we serve, we appreciate the silent support we have had in the past 
reflected in your insistence in funding the operations and maintenance 
budget of the Corps of Engineers at a level adequate to maintain small 
ports like ours recognizing our unique contribution to the national 
economy. We look forward to appearing before this subcommittee on 
future occasions to provide progress reports on our Ecological Risk 
Assessment, and efforts to both preserve navigation and improve the 
environment in Moss Landing Harbor, California.
    Lastly and especially we wish to recognize the efforts of departing 
San Francisco District Engineer, Colonel Peter Grass, for his vision, 
leadership and commitment, and without whose encouragement and personal 
involvement this historic undertaking would never have evolved. We wish 
him Godspeed in his next career assignment and we eagerly look forward 
to working with his successor to successfully complete this process.
    I am prepared to supplement my prepared remarks for the record in 
response to any questions that the chair, subcommittee members, or 
staff may wish to have me answer.
    Thank you Mr. Chairman and members of the subcommittee. This 
concludes my prepared remarks.
                                 ______
                                 

        Prepared Statement of the City of Morro Bay, California

    During World War II the Army Corps of Engineers (ACOE) designed and 
constructed a new harbor entrance at Morro Bay with two rock 
breakwaters. Since the initial construction, over 50 years ago, the 
Federal government has maintained the harbor entrance, breakwaters and 
navigational channels.
    In fiscal year 1995 the ACOE completed the Morro Bay Harbor 
entrance improvement project to improve safety for commercial fishing 
and navigation. The City of Morro Bay was the local sponsor and 
contributed over $900,000 in cash and in-kind services. Morro Bay is a 
small city of 10,000 with very limited resources but made this project 
one of its highest priorities for almost 10 years because of the 
regional importance of the harbor. Without continued Federal 
maintenance, all of the past local and federal investment will be lost.
    Morro Bay Harbor is the only all-weather harbor of refuge between 
Santa Barbara and Monterey on the West Coast. Our Harbor directly 
supports almost 250 home-ported fishing vessels and marine dependent 
businesses. We provide irreplaceable maritime facilities for both 
recreational and commercial interests. Businesses that depend on the 
harbor generate $53,500,000 annually and employ over 700 people. The 
United States Coast Guard (USCG) maintains a 15 person search and 
rescue station at Morro Bay Harbor to provide the Coast Guard services 
for the entire Central California Coast. Legislation has been 
introduced in the California legislature to designate Morro Bay and 
several other small ports along the California coast as ``Harbors of 
Safe Refuge''. This legislation recognizes the critical role many small 
harbors play in affording a safety zone for commercial and recreational 
vessels transiting the California coast.
    Exposure to the open ocean and strong winter currents carrying 
sediment into the harbor create the need for a routine maintenance 
schedule to insure that the harbor entrance and federally designated 
navigation channels remain safe and navigable. It is imperative that 
the federally constructed navigation channels and protective jetties be 
maintained to insure safe commerce and navigation on a 300 mile stretch 
of the California Coast.
    The President recommends $170,000 for dredging project engineering 
and design in the fiscal year 2001 budget. For the first time in four 
years there are no funds in the fiscal year 2001 budget recommended for 
the operation of the ACOE dredge Yaquina. The Yaquina dredging assures 
a minimum level of safety depth in the entrance of Morro Bay Harbor and 
we respectfully request that your distinguished subcommittee add $1.2 
million in dredging funds for Morro Bay Harbor to keep our harbor open 
and safe in all conditions.
    In addition to being home port to over 250 commercial fishing 
vessels, Morro Bay Harbor is part of the federally designated National 
Estuary Program. The Morro Bay Estuary was the subject of an ACOE 
reconnaissance study (funded by Congress in 1998) of potential projects 
to and restore sensitive habitat through improving tidal circulation. 
The Bay Foundation, a local non-profit conservation group, has put 
together a coalition to act as local sponsor for the Feasibility Phase 
of the Ecosystem Rehabilitation Project. We fully support the 
President's recommendation for $250,000 to initiate a feasibility study 
for this project in fiscal year 2001.
    Our thanks again for your actions and continued support. I am 
grateful for the opportunity to present these requests to your 
subcommittee on behalf of the citizens of the City of Morro Bay.
                                 ______
                                 

 Prepared Statement of the California Industry and Government Central 
                    California Ozone Study Coalition

    Mr. Chairman and Members of the Subcommittee: On behalf of the 
California Industry and Government Central California Ozone Study 
(CCOS) Coalition, we are pleased to submit this statement for the 
record in support of our fiscal year 2001 funding request of $1 million 
from the Department of Energy (DOE) for CCOS as part of a Federal match 
for the $8.6 million already contributed by California State and local 
agencies and the private sector.
    Ozone and particulate matter standards in most of central 
California are frequently exceeded. In 2003, the U.S. Environmental 
Protection Agency (U.S. EPA) will require that California submit SIPs 
to for the recently promulgated, national, 8-hour ozone standard. It is 
expected that such SIPs will be required for the San Francisco Bay 
Area, the Sacramento Valley, the San Joaquin Valley, and the Mountain 
Counties Air Basins. Photochemical air quality modeling will be 
necessary to prepare SIPs that are acceptable to the U.S. EPA.
    Central California Ozone Study (CCOS) is designed to enable central 
California to meet Clean Air Act requirements for ozone State 
Implementation Plans (SIPs) as well as advance fundamental science for 
use nationwide. The CCOS field measurement program will be conducted in 
the summer of 2000 in conjunction with the California Regional PM10/
PM2.5 Air Quality Study (CRPAQS), a major study of the origin, nature, 
and extent of excessive levels of fine particles in central California. 
CCOS includes an ozone field study, a deposition study, data analysis, 
modeling performance evaluations, and a retrospective look at previous 
SIP modeling. The CCOS study area extends over central and most of 
northern California. The goal of the CCOS is to better understand the 
nature of the ozone problem across the region, providing a strong 
scientific foundation for preparing the next round of State and Federal 
attainment plans. The study includes six main components:
  --Developing the design of the field study (task already underway)
  --Conducting an intensive field monitoring study, scheduled for June 
        1 to September 30, 2000
  --Developing an emission inventory to support modeling
  --Developing and evaluating a photochemical model for the region
  --Designing and conducting a deposition field study
  --Evaluating emission control strategies for the next ozone 
        attainment plans
    CCOS is directed by Policy and Technical Committees consisting of 
representatives from Federal, State and local governments, as well as 
private industry. These committees, which managed the San Joaquin 
Valley Ozone Study and are currently managing the California Regional 
Particulate Air Quality Study, are landmark examples of collaborative 
environmental management. The proven methods and established teamwork 
provide a solid foundation for CCOS. The sponsors of CCOS, representing 
state, local government and industry, have contributed approximately 
$8.6 million for the field study. In addition, CCOS sponsors will 
provide $4 million of in-kind support. The Policy Committee is 
continuing to seek additional funding ($9.0 million) for a future 
deposition study, data analysis, and modeling. California is an ideal 
natural laboratory for studies that address these issues, given the 
scale and diversity of the various ground surfaces in the region 
(crops, woodlands, forests, urban and suburban areas).
    There is a national need to address national data gaps and 
California should not bear the entire cost of the addressing these 
gaps. National data gaps include issues relating to the integration of 
particulate matter and ozone control strategies. The CCOS field study 
will take place concurrently with the California Regional Particulate 
Matter Study--previously jointly funded through Federal, State, local 
and private sector funds. Thus, CCOS is timed to enable leveraging of 
the efforts for the particulate matter study. Some equipment and 
personnel can serve dual functions so that CCOS is very cost-effective. 
From a technical standpoint, carrying out both studies concurrently is 
a unique opportunity to address the integration of particulate matter 
and ozone control efforts. CCOS will also be cost-effective since it 
builds on other successful efforts including the 1990 San Joaquin 
Valley Ozone Study. To effectively address these issues requires 
federal assistance and CCOS provides a mechanism by which California 
pays half the cost of work that the Federal Government should pursue.
    For fiscal year 2001, our Coalition is seeking funding of $1 
million in fiscal year 2001 from Department of Energy (DOE).--Energy 
Commission is a key participant, having contributed $3 million. 
Consistent with the recently signed memorandum of understanding between 
the California Energy Commission and the DOE, joint participation in 
the CCOS will result in: (1) enhanced public interest energy research, 
development, and demonstration programs; (2) increased competitiveness 
and economic prosperity in the United States; and (3) further 
protection of the environment through the efficient production, 
distribution and use of energy.
    Particularly in light of the latter goal, the oil and agricultural 
sectors in California have been working jointly for several years to 
identify innovative partnerships and programs that address how changes 
in those sectors can cost-effectively reduce particulate matter and 
ozone-related emissions. The Department of Energy has also been a 
participant in many of those programs. In addition, the oil and 
agricultural sectors in California have been aggressively pursuing 
demand-side services in order to lower energy consumption, which in 
turn further reduces the cost of electricity, typically the most 
significant cost associated with production in California. The demand-
side actions will also have the impact of reducing air quality 
emissions.
    The CCOS program in California has reached a crossroad where the 
next level of studies and research will help identify the most cost-
effective means of controlling or reducing emissions. Energy efficiency 
options such as improving oil field equipment and water pumping 
efficiency, as well as agricultural energy management, can play a major 
role in this approach. Not only will these be critical options to 
reduce emissions, while producing economic benefits and helping 
stabilize local economies, they will also be effective in other parts 
of the nation.
    By becoming a partner in this program DOE will be furthering its 
own goals, as addressed in their ``Initiatives for Energy Security'', 
of aiding domestic oil producers to enhance their environmental 
compliance while reducing their costs. The program will further DOE's 
goals of identifying cost-effective energy efficiency and management 
practices. The work in California also can pave the way for furthering 
the pilot program of the National Association for State Energy 
Officials in addressing oil producer energy efficiency.
    Thank you very much for your consideration of our request.
                                 ______
                                 

   Prepared Statement of the Metropolitan Water District of Southern 
                               California

    Chairman Domenici: the Metropolitan Water District of Southern 
California (MWD) is pleased to submit the enclosed testimony for the 
record, regarding programs contained in the U.S. Bureau of 
Reclamation's and the Army Corps of Engineers' Fiscal-Year 2000 budget 
for your Subcommittee's hearing record.
    MWD strongly recommends your approval of a Reclamation fiscal year 
2001 budget that includes funding for San Francisco Bay-Sacramento/San 
Joaquin Delta Estuary restoration activities, as requested in the 
President's budget. We also recommend your approval of the full budget 
request for Corps participation in these Delta restoration activities. 
MWD urges your support for additional federal funding for Reclamation's 
Colorado River Basin Salinity Control Program. MWD requests that 
Congress appropriate $17.5 million, $6.65 million over the President's 
budget, for implementation of the basinwide program that will ensure 
protection of water quality for this important source of water supply. 
MWD also urges your support for Reclamation's Endangered Species 
Conservation/Recovery projects that will provide for conservation of 
endangered and threatened species and habitat along the lower Colorado 
River, and provide mitigation for impacts associated with Reclamation's 
projects. MWD requests an additional $1 million for the Lower Colorado 
River Ops program. MWD urges your full support for Reclamation programs 
that will help stretch existing water resources, such as water 
reclamation and groundwater recovery projects for Southern California 
agencies. Finally, MWD urges your support of funding necessary to begin 
the environmental work required to remove the radioactive tailings in 
Moab, Utah. These programs are essential for regional water supply 
reliability We look forward to working with you and your Subcommittee. 
Please contact Brad Hiltscher, MWD's Legislative Representative in 
Washington, D.C. at (202) 296-3551, if we can answer any questions or 
provide additional information.
    Chairman Domenici and members of the subcommittee: The Metropolitan 
Water District of Southern California (MWD) appreciates the opportunity 
to submit testimony regarding the U.S. Bureau of Reclamation's 
(Reclamation) and the Army Corps of Engineers' (Corps) fiscal year 2001 
budget, for the Hearing on Energy and Water Appropriations. MWD is a 
public agency created in 1928 to meet the supplemental water demands of 
those people living in what is now portions of a six-county region of 
Southern California. Today, the region served by MWD includes 16 
million people living on the coastal plain between Ventura and the 
international boundary with Mexico. It is an area larger than the State 
of Connecticut and, if it were a separate nation, would rank in the top 
ten economies of the world. Included in our region are more than 225 
cities and unincorporated areas in the counties of Los Angeles, Orange, 
San Diego, Riverside, San Bernardino, and Ventura. We provide more than 
half the water consumed in our 5,200-square-mile service area. MWD's 
water supplies come from the Colorado River via the district's Colorado 
River Aqueduct and from northern California via the State Water 
Project's California Aqueduct.

                              INTRODUCTION

    Our testimony focuses on Reclamation's water resources management 
and ecosystem restoration programs that are of major importance to MWD 
and other Southern California water supply agencies. Specifically, MWD 
strongly recommends your approval of a Reclamation fiscal year 2001 
budget that includes funding for San Francisco Bay-Sacramento/San 
Joaquin Delta Estuary restoration activities. We also recommend your 
approval of the full budget request for Corps participation in these 
Delta restoration activities. MWD urges your support for adequate 
federal funding for Reclamation's Colorado River Basin Salinity Control 
Program that will ensure protection of water quality for this important 
source of water supply. MWD also urges your support for Reclamation's 
Endangered Species Recovery Implementation projects that will provide 
for conservation of endangered and threatened species and habitat along 
the lower Colorado River. MWD also strongly urges your full support for 
Reclamation's Lower Colorado River Operations Program that will greatly 
advance completion of environmental documentation for several new 
initiatives needed by Arizona, California, and Nevada. MWD urges your 
full support for Reclamation programs that will help stretch existing 
water resources, such as water reclamation and groundwater recovery 
projects for Southern California agencies. We urge your support for 
funding desalination and water recycling research. Finally, MWD urges 
your support of funding necessary to begin the environmental work 
required to remove the radioactive tailings in Moab, Utah. These 
programs are essential for regional water supply reliability.

                   U.S. BUREAU OF RECLAMATION BUDGET

California Bay-Delta Ecosystem Restoration and Water Security
    The San Francisco Bay-Delta Estuary serves as the hub of 
California's water system, fueling the State's $750 billion economy, 
supplying more than two-thirds of the State's 33 million residents with 
a portion of their drinking water and irrigating 45 percent of the 
nation's produce. Federal money for the Bay-Delta funds an array of 
critical improvements, including habitat restoration, watershed 
protection, fishery enhancement, water supply reliability and water 
quality improvement. Recognizing the importance of the Bay-Delta to 
California's economic and environmental health, the California voters 
approved a $1 billion general obligation water bond in November 1996 
and a $2 billion bond in March 2000. These bonds contain monies for 
ecosystem restoration, watershed protection, water supply and water 
quality improvement, flood control, and conservation and recycling.
    In 1996, Congress passed the California Bay-Delta Environmental 
Enhancement and Water Security Act, which authorized $430 million over 
three years for ecosystem restoration and water management improvements 
in the Bay-Delta Estuary. Since 1996 Congress has appropriated $220 
million, or approximately 50 percent of the original authorization. In 
fiscal year 2000, $60 million was appropriated for the Bay-Delta 
Estuary ($30 million for ecosystem and $30 million for non-ecosystem 
activities). For fiscal year 2001, the Administration requested $60 
million ($36 million for ecosystem and $24 million for non-ecosystem 
activities). Metropolitan strongly urges you continue the balanced 50/
50 split between ecosystem and non-ecosystem activities and support the 
$60 million in total funding requested by the Administration.

Colorado River Basin Salinity Control
    The Colorado River is a large component of the regional water 
supply and its relatively high salinity causes significant economic 
impacts on water customers in MWD's service area, as well as throughout 
the Lower Colorado River Basin. MWD and the Bureau of Reclamation 
completed a Salinity Management Study for Southern California in 1999. 
The study concluded that the high salinity from the Colorado River 
causes significant impacts to residential, industrial and agricultural 
water users. Furthermore, high salinity adversely affects the region's 
progressive water recycling programs, and is contributing to an adverse 
salt buildup through infiltration into Southern California's 
irreplaceable groundwater basins. In 1999, Metropolitan's Board of 
Directors authorized implementation of a comprehensive Action Plan to 
carry out Metropolitan's policy for management of salinity. The Action 
Plan focuses on reducing salinity concentrations in Southern 
California's water supplies through collaborative actions with 
pertinent agencies, recognizing that an effective solution requires a 
regional commitment. Based on a 1988 study, Reclamation estimated that 
water users in the Lower Basin were experiencing in excess of $750 
million in annual impacts from salinity levels in the river in 1995, 
and that impacts would progressively increase with continued 
agricultural and urban development upstream of California's points of 
diversion. As part of the Salinity Management Study, the economic 
impacts have been refined for MWD's service area and have been 
submitted to Reclamation for its use in updating its Lower Basin 
estimate. Droughts will cause spikes in salinity levels that will be 
highly disruptive to Southern California water management and commerce. 
The Salinity Control Program has proven to be a very cost-effective 
approach to help to mitigate the impacts of higher salinity. Continued 
federal funding of the program is essential.
    The Colorado River Basin Salinity Control Forum (Forum), the 
interstate organization responsible for coordinating the Basin states' 
salinity control efforts, issued its 1999 Review, Water Quality 
Standards for Salinity, Colorado River System (1999 Review) in June 
1999. The 1999 Review found that additional salinity control was 
necessary beginning in 1994 to meet the numeric criteria in the water 
quality standards adopted by the seven Colorado River Basin states and 
approved by the U.S. Environmental Protection Agency, with normal water 
supply conditions. For the last five years, federal appropriations for 
Reclamation have not equaled the Forum-identified funding need for the 
portion of the program the Federal Government has the responsibility to 
implement. It is essential that implementation of Reclamation's 
basinwide salinity control program be accelerated to permit the numeric 
criteria to be met again under average annual long-term water supply 
conditions, making up the shortfall. To assist in eliminating the 
shortfall, the Forum once again recommends that Reclamation utilize 
upfront cost sharing from the Basin states to supplement federal 
appropriations. This concept has been embraced by Reclamation and is 
reflected in the President's proposed budget.
    The President's proposed fiscal year 2001 budget contains funding 
of $10.85 million for implementation of the basinwide program. MWD 
requests that Congress appropriate $17.5 million for implementation of 
the basinwide program. This level of funding is necessary to meet the 
salinity control activities schedule in order to maintain the state 
adopted and federally approved water quality standards. The Forum 
supports this level of funding. MWD as well as the Forum supports the 
level of funding proposed by the President for operation and 
maintenance of the salinity control units already constructed, and 
investigations.

Endangered Species Recovery Implementation and Lower Colorado River 
        Operations Program
    MWD is presently engaged in an innovative partnership with 
Reclamation and other Department of the Interior agencies, as well as 
other water, power, and wildlife agencies, and Indian Tribes in the 
states of Arizona, California, and Nevada, to develop a multi-species 
conservation program for the Lower Colorado River. The program will 
address the conservation, enhancement, and recovery needs of a broad 
suite of more than 70 listed and sensitive species and their associated 
aquatic, wetland, and riparian habitats in the three states, while 
providing long-term regulatory certainty for all parties. An effort of 
this nature can only succeed through the development of innovative 
voluntary public-private partnerships.
    The President's budget requests $12.179 million for fiscal year 
2001 to fund programs under the ``Endangered Species Recovery 
Implementation'' activity and $13.729 million to fund programs under 
the ``Lower Colorado River Ops Program'' (LCROP) activity. Included in 
the former amount are funds to support preservation, conservation, and 
recovery of native and endangered, threatened, proposed, and candidate 
species in the Lower Colorado River region. Included in the latter 
amount are funds to implement measures required by the interim 
biological opinion on Reclamation's lower Colorado River operations, 
and develop the multi-species conservation program. MWD strongly 
supports funding at the requested level for both programs, and requests 
your support for an additional $1 million under the LCROP (for a total 
of $14.72 million) to accelerate the preparation of environmental 
documentation for Reclamation/State initiatives of critical importance 
to Arizona, California, and Nevada.

National Fish and Wildlife Foundation
    The National Fish and Wildlife Foundation (Foundation) facilitates 
implementation of fish and wildlife mitigation and enhancement programs 
associated with Reclamation's projects through cost-sharing 
partnerships with local, state, tribal, and/or nongovernmental 
organizations. The Foundation is able to leverage federal dollars on at 
least a 1:1 matching basis. The Foundation's support for programs like 
the Lower Colorado River Multi-Species Conservation Program is 
extremely important to the development of comprehensive solutions to 
these complex endangered species issues. An effort of this nature can 
only succeed through the development of innovative voluntary public-
private partnerships. The President's budget requests $1.3 million for 
fiscal year 2001, which anticipates a two dollar nonfederal match for 
each federal dollar. MWD strongly supports the President's requested 
level of funding.

Water Recycling, Groundwater Recovery and Water Conservation
    Projects funded under Title XVI of the Reclamation Projects 
Authorization and Adjustment Act of 1992 (Public Law 102-575) and the 
Reclamation Recycling and Water Conservation Act of 1996 (Public Law 
104-266) as well as the Bureau's Loan Program will greatly improve 
Southern California's water supply reliability and the environment 
through effective water recycling and recovery of contaminated 
groundwater. MWD expects to contribute about $17.4 million in fiscal 
year 2001 to recycled water and groundwater recovery projects in the 
region, and the State is assisting with low-interest loans. Funding in 
the fiscal year 2001 budget for previously unfunded projects as well as 
the continued support for previously-funded projects is a positive step 
toward realizing regional water supply reliability. The Bureau of 
Reclamation's budget request for research into the technologies and 
science of water recycling is another vital step toward making water 
reuse a viable alternative for communities faced with limited water 
supplies. MWD urges your full support for the $22 million for Title XVI 
and $9.4 for the Loan Program in the President's fiscal year 2001 
budget, as well as future funding for all Southern California projects 
that might move forward under the jointly-funded Southern California 
Comprehensive Water Reclamation and Reuse Study. Finally, MWD supports 
the President's request for $3.169 million in funding for the Bureau's 
Efficiency Incentives Program. Federal cost sharing and other 
assistance for innovative water efficiency improvements by urban and 
agricultural water districts is appropriate.

Brackish Water Desalination
    Metropolitan requests federal funding for desalination activities 
aimed at developing new and innovative technologies. Technologies to be 
investigated include innovative pretreatment options such as 
nanofiltration, ultra low pressure reverse osmosis membranes and ultra 
violet (UV) light technology for disinfection and oxidation. Brackish 
water desalination represents a potentially viable alternative water 
source to reduce reliance on imported water supplies and minimize the 
economic impact associated with high salinity water. Current salinity 
removal technologies are energy-intensive and expensive. Treating 
Colorado River water to the secondary total dissolved solids (TDS) 
standard of 500 milligrams/liter, using conventional membrane 
technology, can cost $300 or more per acre-foot. These high costs have 
precluded the widespread implementation of brackish water desalination 
technologies, especially for large scale applications. Breakthroughs in 
desalination technology will offer potential benefits to water 
utilities with sources impaired by high salinity levels. It is 
estimated that $3 million will be required to continue this research 
being sponsored by Metropolitan and its member agencies.

                          DEPARTMENT OF ENERGY

REMOVAL OF RADIOACTIVE TAILINGS IN MOAB, UTAH
    For 28 years the Atlas Corporation processed uranium ore for the 
military and other government uses from its privately owned mill in 
Moab, Utah. When it closed in 1984, the company left a 10.5 million ton 
pile of radioactive tailings which is now 110 feet high and covers 130 
acres. It is estimated that the mountain is leaking 28,000 gallons of 
radioactive fluid into the Colorado River each day. While not a serious 
problem yet, this situation could pose a serious threat to California's 
drinking supply as uranium is a proven human carcinogen. The Department 
of Energy has requested $10 million for the environmental work 
necessary to implement the Memorandum of Understanding between the 
Department of Energy, Department of the Interior and the Ute Indian 
tribe on remediating the Moab issue. Metropolitan urges Congress to 
appropriate such amount as it determines necessary in fiscal year 2001.

                        ARMY CORPS OF ENGINEERS

    The Army Corps of Engineers' (Corps) comprehensive civil works 
program has the capability to contribute to the social, economic, and 
environmental well-being of California. MWD is primarily interested in 
the Corps' environmental restoration studies and projects that address 
the needs of the Bay-Delta Estuary. The President's proposed fiscal 
year 2001 budget includes numerous programs in the Corps' South Pacific 
Division, which includes California. Several ecosystem restoration 
studies and projects specifically address significant habitat issues at 
various locations in the Bay-Delta watershed. Corps programs that will 
contribute to the long-term Bay-Delta solution include environmental 
restoration studies in the Sacramento and San Joaquin River watersheds, 
habitat conservation and mitigation elements of flood damage prevention 
projects, and ecosystem restoration programs. MWD urges Congress to 
fully support these Corps programs as the fiscal year 2001 federal 
appropriations process moves forward.
    Thank you for your consideration of our testimony. We believe our 
comments emphasize the importance of continued funding for Reclamation 
and Corps' water resources management and ecosystem restoration 
programs that are critical for water supply reliability in Southern 
California.
                                 ______
                                 

         Prepared Statement of Contra Costa County, California

    SAN FRANCISCO TO STOCKTON, CALIFORNIA SOUTHAMPTON SHOAL CHANNEL 
                           DEEPENING PROJECT

    The Southampton Shoal Channel with the San Francisco Bar Channel, 
form the entrance into the San Francisco Bay and Delta, providing 
foreign and domestic deep draft merchant, military, commercial fishing 
and other vessel access to ports within the region. Changing deep draft 
vessel operations and design requires deepening the -45 foot 
Southampton Shoal channel to -50 feet. Deepening the Southampton Shoal 
Channel will provide safer and more efficient navigation of oil tankers 
entering the bay by allowing vessels to be loaded more fully, which 
will require fewer vessel trips to deliver the same amount of cargo. In 
addition, deepening of the Southampton Shoal Channel to -50 feet will 
allow heavily laden vessels to proceed directly to off-loading 
facilities, rather than lightering (off loading) onto smaller ships at 
open water anchorages in south San Francisco Bay.

                            FUNDING REQUEST

    Contra Costa County requests that funding of $100,000 be added to 
the Federal fiscal year 1999 budget to allow the Army Corps of 
Engineers to revise early work on project studies to reflect changes in 
scope and design of the Southampton Project which accommodate recent 
changes in operations and other regulatory requirements of industry 
located within Contra Costa County, the Project's Local Sponsor. 
Therefore the County, as Local Sponsor, is requesting an fiscal year 
2001 Budget allocation of $100,000 to complete work prior to entering 
the Feasibility phase of the Project.

                           PURPOSE OF FUNDING

    Funding will be utilized to allow revision of project scope and 
content, prior to moving ahead into the Feasibility phase of the 
project. Significant changes have occurred with industry operating 
within the County, in turn affecting ship channel traffic, vessel size, 
and scope and content of the Southampton Project. The Southampton 
Project will be redesigned to reflect these changes, and a revised 
cost/benefit prepared for the project by the Army Corps of Engineers. 
Redefining the Project is necessary prior to entering into the 
Feasibility Phase, which is expected to occur upon completion of the 
above-mentioned revisions to the Project.
                                 ______
                                 

     Prepared Statement of Los Angeles County Board of Supervisors

    Chairman Domenici, Los Angeles County respectfully requests that 
the Congress of the United States include funds in the fiscal year 2001 
Energy and Water appropriations bill for the following U.S. Army Corps 
of Engineers studies and Marina del Rey dredging.

Coast of California Storm and Tidal Wave Study--Los Angeles County 
        ($500,000).
    Los Angeles County has over 30 miles of public beaches, serving 
over 50 million visitors annually. The 1998 impact of California's 
beaches on the national economy has been estimated by San Francisco 
State University, at $73 billion. Direct Federal taxes are estimated at 
$2.6 billion, with total tax revenues reaching $14 billion. 
California's beaches create 883,000 jobs nationwide. Yet, California 
receives only $12,000 Federal dollars per mile of coastline, compared 
to $800,000 per a mile in New York and New Jersey.
    Los Angeles County's beaches contribute a disproportionate share to 
the economic benefits described above. Its beaches are not naturally 
sandy, however, having 35 million cubic yards of sand placed on them 
since the 1930s. The County's beaches provide recreational 
opportunities for many more millions than visit our National Parks. 
They also provide protection from ocean storms for major highways, 
utilities, public improvements and private property.
    Los Angeles County formed a multi-agency Beach Replenishment Task 
Force in 1998. Its goal is to establish a long-term management plan for 
the beaches. The U.S. Army Corps of Engineers' Coast of California 
Study is critical to the achievement of this goal, as it is designed to 
assess long-term shoreline changes along the Los Angeles County 
coastline based on actual field data and predictive numerical models. 
It will also provide critical coastal processes information to plan and 
design future shore protection and beach nourishment projects.
    In response to last year's request from Los Angeles County, 
Congress added $100,000 to the fiscal year 2000 budget to fund the 
reconnaissance phase of this study. The timing of this study precluded 
the Corps from requesting its funding in the President's fiscal year 
2001 budget. Therefore, your support for an additional appropriation, 
of $500,000, in fiscal year 2001 is requested for continuation of this 
very important study.

Marina del Rey and Ballon Creek Feasibility Study ($500,000)
    For the past five years Congress has funded the federal share of 
this study and the County has provided the required local sponsor's 
share. The study was scheduled to be completed in fiscal year 2000. Its 
goal was to develop a dredged material management plan for Marina del 
Rey's contaminated sediments, as well as a sediment control plan within 
the Ballon Creek watershed. To meet the objectives of this study, it is 
now necessary to extend the study for two years for development of a 
trash and debris management plan.
    Trash and debris in Ballona Creek and Marina del Rey have the 
potential to impede sediment removal and control; therefore, the 
removal and management of trash and debris must be addressed. Without 
this study, and its resultant plan, other mitigation measures and 
improvements will not be effective. Completion of this study, and 
implementation of the plan, will not only facilitate optimum sediment 
removal and control, it will also improve water quality in the Santa 
Monica Bay. Unfortunately, the scope of work for this study was not 
developed in time for its funding to be included in the President's 
fiscal year 2001 budget. We, therefore, request your support for the 
addition of $500,000 to the fiscal year 2001 budget for this critical 
work.

Los Angeles County--Regional Dredged Material Management Plan 
        ($400,000)
    It is estimated that approximately 2.5 million cubic yards of 
contaminated marine sediments will need to be dredged from the harbor 
waters of Los Angeles County over the next five years. Unfortunately, 
permanent sites for the disposal of these sediments are not available. 
As a result, routine maintenance dredging and port expansion activities 
have been critically hampered, impeding both navigational safety and 
the livelihood of the area's economy. In addition, the continuous 
buildup of contaminated sediments within the Los Angeles Region's 
coastal waterways raises concerns with respect to potential impact to 
the public health and the health of the marine environment.
    A multi-agency task force, funded largely by the State of 
California, the Ports of Los Angeles and Long Beach, and the County of 
Los Angeles, was established in 1997 to develop a long-term management 
strategy for dredging and disposal of the region's contaminated 
sediments. The U.S. Army Corps of Engineers is a critical participant 
in this process and this study will enable the task force to achieve 
its goal. Without the completion of this study, the region's 
contaminated sediment problems will not be solved. Safe navigation in 
small craft harbors will be jeopardized by shoaling that cannot be 
removed and disposed of safely and economically, and the nation's 
largest port complex will not be able to grow to meet increased demand.
    Responding to request from Los Angeles County last year, Congress 
added $100,000 to the fiscal year 2000 budget for the reconnaissance 
phase of this study. While the President's budget for fiscal year 2001 
does contain $225,000 for continuation of this study, the 
reconnaissance phase has developed an aggressive study plan that will 
require $400,000 in Federal funding for fiscal year 2001. Therefore, 
your support for an additional $175,000 in fiscal year 2001 is 
respectfully requested.

Marina del Rey Dredging ($5,335,000)
    With nearly 6,000 slips, Marina del Rey is the largest, man-made 
small craft harbor in the nation. The Marina is also the homeport for 
the Coast Guard cutter, Point Bridge, and other rescue agencies that 
respond to air-sea disasters off of LAX. The safe navigation of the 
harbor's entrances is needed to provide for the safety of thousands of 
boaters who use the Marina annually and to enable prompt emergency 
response to a variety of life-threatening ocean emergencies.
    In the last two years, Congress has appropriated a total of $5 
million, which has been combined with nearly $4 million in County 
funds, to take advantage of an extraordinary opportunity to remove 
300,000 cubic meters of contaminated sediment. The contaminated 
material has been permanently and safely disposed of in a landfill 
project in the Port of Long Beach. In addition, approximately 200,000 
cubic meters of clean sand have been taken from the Marina to replenish 
a badly eroded, but very heavily used, public beach.
    The President's budget for fiscal year 2001 includes $5,335,000 for 
dredging in Marina del Rey. The County and Corps are planning on using 
these funds to further improve navigational safety, test methods for 
remediating contaminated sediment for beneficial reuse, and 
constructing measures that will reduce shoaling and future dredging 
costs. We, therefore, ask your support of the President's budget 
request of $5,335,000 for fiscal year 2001.
    The U.S. Army Corps of Engineers' excellent execution of its 
Congressionally mandated missions--creating and maintaining safe 
navigation channels, flood control, and shoreline protection--make it 
an invaluable partner in Los Angeles County. Your continued support of 
appropriations for these missions is critical and very much appreciated 
by Los Angeles County.
                                 ______
                                 

            Prepared Statement of the Ventura Port District

    The Ventura Port District respectfully requests that the Congress:
  --Include $2,240,000 in the fiscal year 2001 Energy and Water 
        Development Appropriations Bill as requested by the 
        Administration for the U.S. Army Corps of Engineers maintenance 
        dredging of the Ventura Harbor federal channel and sand traps.
  --Add $1,500,000 to the fiscal year 2001 Energy and Water Development 
        Appropriations Bill for the U.S. Army Corps of Engineers to 
        repair the serious structural damage to the north head of the 
        Federal Breakwater at Ventura Harbor.
  --Include $400,000 in the fiscal year 2001 Energy and Water 
        Development Appropriations Bill as requested by the 
        Administration to continue a cost shared Feasibility Study to 
        determine the advisability of modifying the existing Federal 
        navigation project at Ventura Harbor to include a sand bypass 
        system.

                               BACKGROUND

    Ventura Harbor, homeport to 1500 vessels, is located along the 
Southern California coastline in the City of San Buenaventura, 
approximately 60 miles northwest of the City of Los Angeles. The harbor 
opened in 1963. Annual dredging of the harbor entrance area is usually 
necessary in order to assure a navigationally adequate channel. In 
1968, the 90th Congress made the harbor a Federal project and committed 
the U. S. Army Corps of Engineers to provide for the maintenance of the 
entrance structures and the dredging of the entrance channel and sand 
traps.
    The harbor presently generates more than $40 million in gross 
receipts annually. That, of course, translates into thousands of both 
direct and indirect jobs. A significant portion of those jobs are 
associated with the commercial fishing industry (over 25 million pounds 
of fish products were landed in 1999), and with vessels serving the 
offshore oil industry. Additionally, the headquarters for the Channel 
Islands National Park is located within the harbor, and the commercial 
vessels transporting the nearly 100,000 visitors per year to and from 
the Park islands offshore, operate out of the harbor. All of the 
operations of the harbor, particularly those related to commercial 
fishing, the support boats for the oil industry, and the visitor 
transport vessels for the Channel Islands National Park are highly 
dependent upon a navigationally adequate entrance to the harbor.

                     OPERATIONS & MAINTENANCE NEEDS

Dredging
    The Corps of Engineers has determined that $2,240,000 will be 
required to perform routine maintenance dredging of the harbor's 
entrance channel and sand traps during fiscal year 2001. This dredging 
work is absolutely essential to the continued operation of the harbor.
Breakwater Repairs
    It is estimated that $1,500,000 will be required during fiscal year 
2001 for the Corps of Engineers to repair extensive storm damage to the 
north head of the Federal Breakwater. This structure is a critical 
component of the harbor's entrance system and its repair must be 
accomplished expeditiously in order to assure that the integrity of the 
balance of the 1800-foot structure is not compromised. Delaying the 
necessary repairs will not only rapidly escalate the repair cost for 
the breakwater itself but will also result in increased maintenance 
dredging costs in subsequent years.

                              STUDY NEEDS

    The Corps of Engineers has determined that $400,000 will be 
required during fiscal year 2001 to continue a cost shared Feasibility 
Study to determine the advisability of modifying the existing Federal 
navigation project at Ventura Harbor to include a sand bypass system. 
Given the continuing need for maintenance dredging, it is appropriate 
to determine if a sand bypass system or other measures can accomplish 
the maintenance of the harbor in a manner that is more efficient and 
cost effective than the current contract dredging approach.
                                 ______
                                 

   Prepared Statement of the City of Rancho Palos Verdes, California

    As your distinguished Subcommittee writes the fiscal year 2001 
Energy and Water Resources Appropriations bill, I would like to bring a 
very important environmental restoration project to your attention.
    The Corps of Engineers and the City of Rancho Palos Verdes have 
been working on a cost-sharing feasibility study to investigate Federal 
improvements to restore pristine environmental areas along the Pacific 
coastline since 1995. The Presidents fiscal year 2001 Budget Request 
does not contain enough money to perform both pre-construction design 
and modeling tasks.
    I would like to take this opportunity to request that your 
distinguished Subcommittee include $325,000 in the fiscal year 2001 
Budget Request for the continuation of the pre-construction engineering 
and design. The addition of $125,000 to the proposed budget will allow 
the modeling to take place in conjunction with preliminary engineering. 
The City of Rancho Palos Verdes is prepared to commit their portion of 
the cost-share to complete the study next year.
    The area along the Rancho Palos Verdes coastline that is being 
studied has been severely degraded as a result of landslide movement of 
material and coastal erosion causing sediment and continuous turbidity 
that has buried sensitive habitat. The Study involves investigations to 
define landslide and erosion relationships, impacts on the environment 
and potential restoration benefits. This project should be considered 
as essential mitigation for large local port projects.
    Thank you for the opportunity to submit this request.
                                 ______
                                 

              Prepared Statement of the Santa Cruz Harbor

    Santa Cruz Harbor is an active small craft harbor at the north 
section of Monterey Bay, California. It was authorized as a federal 
navigation project in 1958, constructed in 1964, and expanded in 1972. 
A 1986 joint-venture between the U.S. Army Corps of Engineers and the 
Santa Cruz Port District provided for a permanent sand bypass system to 
solve the ocean-driven shoaling problem at its entrance. The Port 
District has successfully operated that system for the past fourteen 
winters. However, the Port District has been unable to solve the 
siltation problem emanating from the three-square mile watershed which 
terminates at the north end of Santa Cruz Harbor.
    Silt from Arana Gulch fills berths, fairways, and channels in the 
harbor, making them hazardous and unusable. At this time, the siltation 
is not solvable by the existing sand bypass system. The soil 
characteristics of the watershed make beach disposal impractical at 
this time. Arana Gulch sediment must either be taken upland or 
delivered by barge offshore--both of these disposal options are quite 
wasteful. They are also extremely expensive and cost the Port District 
hundreds of thousands of dollars each year. Additionally, the 1998 El 
Nino storms brought 15,000 cubic yards of material into the north 
harbor alone from Arana Gulch. The event was declared a federal 
disaster, and FEMA and the State of California are spending in excess 
of $500,000 to return the harbor to charted depths.
    On June 25, 1998, the House Committee on Transportation and 
Infrastructure passed Resolution Docket 2565 authorizing the Secretary 
of the Army to review the Arana Gulch watershed siltation problem.
    The Port District respectfully requests that $100,000 be 
appropriated for the Arana Gulch reconnaissance study for fiscal year 
2001.
                                 ______
                                 

            Prepared Statement of the City of San Rafael, CA

    Chairman Domenici: Periodic maintenance dredging of San Rafael 
Canal is necessary because it is an important and valuable element of 
our community's infrastructure.
    It serves as a flood control channel for central San Rafael, 
draining approximately five square miles where 25,000 residents and 
businesses reside.
    The San Rafael Canal is important to the boating interests. There 
are five yacht harbors that provide berthing for over 750 vessels. 
While these facilities are primarily recreational, there are commercial 
benefits in the form of sales tax revenue generated from purchases made 
in ships' chandleries, vessel repair yards, fueling facilities, 
supermarkets and employee compensation.
    Over $10 million in revenue is generated by the 25 marine related 
commercial interests that rely on the San Rafael Canal for their 
livelihood. These commercial enterprises generate fees, sales taxes, 
and employment to 65 individuals. These enterprises are divided into 
the following categories: yacht harbors (5), vessel inspection, 
maintenance and repair (14), storage (3), vessel sales (3), commercial 
fishing (4), and commercial freight hauling (1). The continued 
viability and operation of these businesses requires that the San 
Rafael Canal receive the necessary appropriations to allow the U.S. 
Army Corps of Engineers to perform the overdue maintenance dredging.
    Lastly, the City of San Rafael maintains and operates a fire and 
search and rescue vessel in the San Rafael Canal and in the lower 
portion of San Pablo Bay. This operation became vital when the Coast 
Guard no longer provided these services over 10 years ago. This vessel 
is berthed in the Canal and must be able to respond to emergencies 
without having to wait for high tide. In the past year, this vessel has 
responded to 100 calls for emergency response, has rescued 215 people 
who required assistance, and has prevented approximately $6 million in 
damage to vessels in need of emergency response.
    The San Rafael Canal is much more than a recreational amenity. It 
supports a healthy and thriving marine oriented business community. It 
supports the employment of individuals and generates revenue to the 
City of San Rafael. It provides for public safety on the water.
    We understand that the appropriation to fund the maintenance 
dredging is not in the President's budget. We understand that the Corps 
of Engineers has estimated that it needs $1.8 million to perform the 
maintenance dredging. The San Rafael City Council, as well as the 
business enterprises who rely on the San Rafael Canal for their 
livelihood, urgently request your consideration to appropriate these 
funds to the Corps of Engineers to perform the much needed maintenance 
dredging of San Rafael Canal.
                                 ______
                                 

 Prepared Statement of the Clark County Regional Flood Control District

    Presented herewith is testimony in support of $28,000,000 for the 
construction appropriation necessary for the U.S. Army Corps of 
Engineers to continue the Tropicana and Flamingo Washes flood control 
project and testimony in support of $1,584,000 appropriation to 
reimburse the non-federal sponsors, Clark County and the Clark County 
Regional Flood Control District, for work performed in advance of the 
federal project pursuant to Section 211 of the Water Resources 
Development Act (WRDA) of 1996. This project is located in the rapidly 
growing Las Vegas Valley in Southern Nevada.
    The Las Vegas Valley continues to experience unprecedented growth. 
This growth has occurred over the past twenty plus years. People have 
moved into the area from all parts of the nation to seek employment, 
provide necessary services, retire in the Sunbelt, and become part of 
this dynamic community. It is estimated that 5,000 people relocate to 
the Las Vegas Valley every month of the year. Currently the population 
is over 1.3 million. The latest statistics show that more than 30,000 
residential units are built annually. Once all of these factors are 
combined, the result is that the Las Vegas Valley continues to be one 
of the fastest growing areas in the nation.
    The Federal project being constructed by the Corps of Engineers 
(Corps) is designed to collect flood flows from a 160 square mile 
contributing drainage area. The Corps project includes four debris 
basins, four detention basins, 28 miles of primary channels, and a 
network of lateral collector channels. The debris basins are designed 
to collect flood flows from undeveloped areas at the headwaters of the 
alluvial fans and trap large bedload debris before it enters the 
channels and causes erosion damage. The detention basins will function 
to greatly reduce the magnitude of the flood flows so that the flows 
can be safely released and conveyed through the developed urbanized 
area at non-damaging rates. The outflow from the debris basins and the 
reduced flows from the detention basins will be contained in the 
primary channel system that will also serve as outfalls for the lateral 
collector channels. While this latter element (lateral collector 
channels) is considered to be a non-federal element of the entire plan, 
it is a necessary element for the plan to function properly and afford 
flood protection for the community. Since flood flow over the alluvial 
fans, which ring the Las Vegas Valley, is so unpredictable in terms of 
the direction it will take during any given flood all of the components 
of the Corps' plan are critical.
    Torrential rains deluged the Las Vegas Valley the morning of July 
8, 1999, causing widespread drainage problems and major damages to 
public and private properties. Some of the largest rainfall depths 
occurred over the southwest portions of the Las Vegas Valley resulting 
in significant flows in the Tropicana and Flamingo Washes. The runoff 
that resulted from this intense rainfall caused widespread street 
flooding and record high flows in normally dry washes and flood control 
facilities. The news media reported two deaths resulting from this 
flood event, one of which was a drowning in the Flamingo Wash. Damages 
to public property resulting from this storm are estimated at 
$20,500,000. President Clinton declared Clark County a federal disaster 
area on July 19, 1999, recognizing the severity of damages to public 
and private properties. Significant damages could have been avoided if 
the Corps' Tropicana and Flamingo Washes Project had been fully 
implemented. However, those features of the Corps' project that were 
completed worked to mitigate damages. The storm of July 8, 1999, 
further reemphasizes the need to expeditiously implement all flood 
control projects in the Las Vegas Valley.
    The Feasibility Report for this project was completed in October 
1991, and Congressional authorization was included in the WRDA of 1992. 
The first federal appropriation to initiate construction of the project 
became available through the Energy and Water Resources Development 
Appropriations Bill signed into law by the President in October 1993. 
The Project Cooperation Agreement (PCA) was fully executed in February 
1995. Federal appropriations to date have totaled $87,700,000, allowing 
the project to continue to be implemented. The total cost of the 
project is currently estimated at $271,000,000, primarily due to the 
delay in anticipated federal appropriations.
    The local community has already constructed certain elements of the 
Corps' plan. These project elements require modifications in order to 
fit into the Corps' plan and fulfill the need for a ``total fan 
approach'' to the flooding problems of the Las Vegas Valley. The Red 
Rock Detention Basin was constructed by Clark County in 1985 and 
modifications by the Corps were completed in December 1996. The flood 
flow released from the basin has been reduced, and the basin's capacity 
to hold floodwaters was enhanced, thereby increasing the level of 
downstream protection provided by this feature. Although the Red Rock 
Detention Basin expansion was the first feature completed, the 
immediate benefit realized by the community was the removal of 
approximately five square miles and 4,754 parcels from the alluvial fan 
flood zones.
    The non-federal sponsors also constructed the Flamingo Detention 
Basin. This facility was completed in February 1992, and is one of the 
main components of the Federal project. Under the Corps' plan, the 
flood flows released from this feature will be reduced and the storage 
capacity increased. The non-federal sponsors have been working with the 
development community in order to remove the excess sand and gravel 
from the impoundment area of this facility. Our goal is to have local 
contractors remove surplus material from the basin for their own use at 
no cost to either the federal or local governments, thus providing a 
significant cost savings on this project. The work performed by the 
non-federal sponsors, construction of Red Rock Detention Basin and 
Flamingo Detention Basin, prior to the Project Cooperation Agreement 
being executed have been accounted for in Section 104 credits and total 
$9,906,000.
    As non-federal sponsors for this important flood control project, 
both the Clark County Regional Flood Control District and Clark County 
are looking forward to the construction start of each feature of this 
project and the project's ultimate completion.
    Details of the Administration's fiscal year 2001 Civil Works Budget 
Request indicate that $20,000,000 is proposed for the continued 
construction of this project. The Los Angeles District of the Corps 
informs us that their capability for fiscal year 2001 is $28,000,000. 
Funding at the Corps' capability level will allow:
    Complete construction of the following:
  --Lower Red Rock Complex
  --Red Rock Channel (Segment 10A)
  --Blue Diamond Detention Basin
  --Red Rock Outlet and Scour Protection
  --R-4 Debris Basin and Channel
    Start construction of the following:
  --Lower Flamingo Diversion Channel
  --F-1 Debris Basin and Channel
  --F-2 Debris Basin and Channel
    The non-federal sponsors are anxious to see all of the above flood 
control facilities constructed. Further delays in funding the project 
place portions of the federal project and non-federal projects at risk.
    In 1996, the local sponsors were notified that federal funding 
would be reduced for the Corps' flood control project in Las Vegas due 
to reductions in the Corps' overall federal budget. Our community has 
already suffered a five-year delay in project completion due to past 
reductions in federal funding. Any further delays in federal funding, 
in the fastest growing community in the nation, will mean increased 
project costs due to lost opportunities compounded by inflation. It 
might also mean further loss of life.
    In order to provide the required flood protection in a timely 
fashion, the non-federal sponsors are implementing certain features in 
advance of the federal government pursuant to Section 211 of WRDA 1996. 
An amendment to the PCA was fully executed on December 17, 1999, that 
formalizes the provisions of Section 211 of WRDA 1996. Section 211(f) 
of WRDA 1996 identifies the Tropicana and Flamingo Washes Project as 
one of eight projects in the nation to demonstrate the potential 
advantages and effectiveness of non-federal implementation of federal 
flood control projects. The work funded by the non-federal sponsors and 
completed to date pursuant to Section 211 of WRDA 1996 totals 
approximately $2,111,711 and is summarized in the following table:

------------------------------------------------------------------------
                                                               Sponsors
          Project Element                Nature of Work         Costs
------------------------------------------------------------------------
Tropicana Detention Basin Outfall--  Design, Construction &      $88,298
 Russell Road Box Culvert.            Construction
                                      Management.
Tropicana Detention Basin Outfall--  Design, Construction &      174,240
 Valley View Boulevard Box Culvert.   Construction
                                      Management.
Blue Diamond Channel--Las Vegas      Design (Project             430,210
 Beltway (Segment 7A).                element constructed
                                      by Corps).
Blue Diamond Channel--Las Vegas      Design (Project             588,355
 Beltway (Segment 7B).                element being
                                      constructed by
                                      sponsor).
Red Rock Channel--Las Vegas Beltway  Design (Project             278,451
 (Segment 8).                         element being
                                      constructed by
                                      sponsor).
Red Rock Channel--Las Vegas Beltway  Design (Project             193,000
 (Segment 9).                         element being
                                      constructed by
                                      sponsor).
Red Rock Channel--Las Vegas Beltway  Design (Project             359,157
 (Segment 10A).                       element being
                                      constructed by Corps).
                                                            ------------
      Total Sponsors' Costs........  ......................    2,111,711
                                                            ============
      Estimated Federal Share......  ......................    1,584,000
------------------------------------------------------------------------

    The non-federal sponsors are asking the committee to appropriate 
funding of $1,584,000 to reimburse the non-federal sponsors the federal 
proportionate share (75 percent) of the completed work pursuant to 
Section 211 of WRDA of 1996 and the PCA amendment. The non-federal 
sponsors are continuing to pursue the design and construction of 
additional features with the primary purpose of providing flood 
protection as quickly as possible. The total cost of all Section 211 
work to be performed by the non-federal sponsors is estimated at 
$24,604,855.
    In summary, the Tropicana and Flamingo Washes project is an 
important public safety project designed to provide flood protection 
for one of the fastest growing urban areas in the nation. We ask that 
the committee provide the Secretary of the Army with $28,000,000, the 
Corps of Engineers' capability in fiscal year 2001, in order to 
facilitate continued design and construction of additional phases of 
this critical flood control project. We are also asking that the 
committee provide the Secretary of the Army with $1,584,000 to 
reimburse the non-federal sponsors the federal proportionate share of 
the work completed by the sponsors in advance of the federal 
government.
    The committee is aware that flood control measures are a necessary 
investment required to prevent loss of life and damages to people's 
homes and businesses. Flood control is a wise investment that will pay 
for itself by preserving life and property and reducing the probability 
of repeatedly asking the federal government for disaster assistance. 
Therefore, when balancing the federal budget, a thorough analysis would 
prove that there is substantial future federal savings in disaster 
assistance that supports sufficient appropriations through the Civil 
Works Budget.
                                 ______
                                 

             CALIFORNIA WATER RESOURCE DEVELOPMENT PROJECTS

         Prepared Statement of the California Water Commission

    The California Water Commission is an official agency of the State 
of California. It is composed of nine representative citizens from 
throughout the State. The Commission is charged by statute with 
representing State of California and local interests before your 
Committee. The Commission is coordinating the filing of the statements 
of a number of State and local agencies. On behalf of the California 
Water Commission, I would like to express our sincere appreciation for 
the support this Committee has given California water, fishery and 
flood control appropriations over the years. I am privileged to submit 
to you the official recommendations of the State of California for 
fiscal year 2001 appropriations and request it be included in the 
formal hearing record along with the testimonies listed on the attached 
Statement List.
    The Commission would like you to know that it supports projects as 
shown on the attached document entitled, California Water Commission--
Final Recommendations for fiscal year 2001 Federal Appropriations for 
California Water, Fishery and Flood Control Projects, March 3, 2000. 
That document contains recommendations adopted by the Commission at its 
March 3, 2000 meeting in Sacramento, California, where individuals from 
throughout the State testified on individual projects.
    This year the recommended add-ons to the President's budget for the 
Corps of Engineers are not as extreme as in past years. However, the 
proposed amounts in some of the large ongoing flood control 
construction projects are inadequate to maintain the construction 
schedule. Stopping and starting construction projects can significantly 
increase the cost, as well as putting the respective project areas in 
jeopardy of severe damage from flooding of a partially completed 
project. The Commission has supported projects over the years that are 
funded under ``Continuing Authorities'', such as Sections 205, 206, 503 
and 1135. These projects compete for very limited funds. Last year the 
Commission voted to request Congress consider increasing the funding in 
these Authorities, so more of the needed projects in these categories 
can be funded. The Commission is still supportive of additional funds.
    The California Water Commission has long recognized water recycling 
as an important element in the management of California's water 
resources. It is the Commission's view that water recycling projects 
should be supported in concert, within the limitations of available 
federal funds, giving due consideration to other potential sources of 
funds that could be available to effect their implementation. The 
Commission agreed to work with USBR on language which will give the 
local sponsor greater assurance of future year support. This will also 
encourage sponsors to go ahead with expanded facilities with greater 
expectation of out-year funding.
    On March 3, 2000 the Commission also supported a similar program 
within the Corps of Engineers new authority (WRDA-99, Section 502); 
however, they added the condition ``if additional funding can be 
secured''.
    Special recommendations for funds.--The Commission recommends that 
special consideration be given for appropriation of funds for projects 
of the U.S. Army Corps of Engineers and U.S. Bureau of Reclamation as 
shown in the following table. The Commission believes that these 
projects merit special consideration for the reasons set forth in the 
information shown on the tables on the following page.
    CWC 90--Bay-Delta Ecosystem Restoration (CALFED).--The CALFED Bay-
Delta Program is an open collaborative, state-federal-stakeholder 
effort seeking to develop a comprehensive long-term plan to restore 
ecosystem health and improve water management for beneficial uses of 
the Bay-Delta system. The U.S. Army Corps of Engineers is an official 
part of the ongoing effort and needs to be adequately funded to allow 
the Corps' experts to officially participate in CALFED activities. A 
comprehensive package must:
  --Improve and increase aquatic and terrestrial habitats and improve 
        ecological functions in the Bay-Delta to support sustainable 
        populations of diverse and valuable plant and animal species.
  --Provide good water quality for all beneficial uses.
  --Reduce the mismatch between Bay-Delta water supplies and current 
        and projected beneficial uses dependent on the Bay-Delta 
        system.
  --Reduce the risk to land use and associated economic activities, 
        water supply infrastructure, and the ecosystem from 
        catastrophic breaching of Delta levees.
    The Corps of Engineers is an official part of the ongoing effort 
and needs to be adequately funded to allow the Corps' experts to 
officially participate in CALFED activities.
    CWC 110--Sacramento and San Joaquin Rivers Comprehensive Study.--In 
January of 1997, the Central Valley of California was confronted with 
the largest and most extensive flood disaster in the State's history. 
The Sacramento River and its tributaries sustained two major levee 
breaks. In the San Joaquin River Basin, extensive damages resulted from 
over two dozen levee breaks, sedimentation, and deposition of sand and 
silt in the fields where flood water poured through the levee breaks. 
As a result, Congress appropriated $3 million in fiscal year 1998 and 
$3.5 million in fiscal year 1999 to initiate a comprehensive flood 
damage reduction and environmental restoration assessment for the 
Sacramento and San Joaquin River Basins.
    The State of California and the Army Corps of Engineers have 
initiated a four year Comprehensive Study. The Comprehensive Study will 
build on existing data outlined in investigations such as the 
Sacramento River Watershed Management Plan, the State's San Joaquin 
River Management Program, the Central Valley Project Improvement Act 
(CVPIA), and integrated with these and other existing programs. The 
first phase of the Comprehensive Study was 18 months long. This interim 
report was sent to Congress in April of 1999.
    Phase II will result in full development and calibration of basin-
wide hydrologic and hydraulic models. Phase II report will include a 
programmatic EIS/EIR which describes a broad range of potential flood 
damage reduction measures and integrated ecosystem restoration 
measures. Some ``early implementation projects'' will be identified, 
developed, and to the extent possible recommended for authorization and 
implementation. Early implementation projects must (1) address 
identifiable flooding problems, (2) be consistent with the strategy, 
(3) be singularly effective in achieving program goals, (4) demonstrate 
broad acceptability, and (5) be readily able to be implemented.
    CWC 162--Lopez Dam.--Lopez Reservoir serves as the primary drinking 
water supply for several South San Luis Obispo communities of Arroyo 
Grande, Grover Beach, Pismo Beach and Oceano. In addition, the 
reservoir attracts recreational users from Central and Southern 
California that are critical to the economic viability of the South 
County area.
    Recent studies have found that the dam could fail during a large 
magnitude earthquake on the San Andreas Fault. Because of this 
potential failure, the California Division of Safety of Dams has 
mandated that the dam be seismically re-mediated to withstand a large 
magnitude earthquake, or that the operating level of the dam be reduced 
by 80 percent.
    The current cost estimate for the re-mediation of the dam is $26 
million. Construction is scheduled to begin in the fall of 2000, and is 
scheduled to be completed by June 2002.
    San Luis Obispo County is seeking a cost sharing partner to help 
offset the significant financial impact to the communities effected by 
the needed restoration of this structure. The California Water 
Commission's Appropriation Committee agreed to do all it could to help 
secure federal funds.
    CWC 238--Arroyo Pasajero.--The Draft Feasibility Investigation 
Report and draft EIS/EIR, which identifies two candidate alternatives 
that show a federal interest in a Corps flood control project were 
released in March 1999. The two projects, the enlarged Westside 
Detention Basin and the Pasajero Gap Detention Dam, are estimated to 
cost approximately $238 and $225 million with benefit cost ratios of 
roughly 1.7:1 and 1.1:2, respectively. During the public review 
process, both candidate alternatives were challenged. The U.S. Fish and 
Wildlife Service and the California Department of Fish and Game issued 
a joint letter conveying their position that endangered species impacts 
of the project could not be mitigated. This position was maintained 
during follow-up meetings with staff and management of these agencies. 
Consequently, the Gap Dam was dropped as a viable alternative.
    Interests east of the Aqueduct challenged the Westside Detention 
Basin, as presented in the Report, because an over chute would 
discharge flood water across the Aqueduct and on to nearly a hundred 
thousand acres of rich farmland in a manner inconsistent with recent 
historical flooding patterns that occurred prior to construction of the 
Aqueduct. Consequently, the investigation was redirected to eliminate 
the over chute and focus on a larger Westside Detention Basin that 
stores more flood water. Due to other developments following a review 
of the draft, the investigation in being redirected further to include 
another alternative that takes a large amount of flood water into the 
Aqueduct, conveys it several miles to the south and releases it to 
storage on less productive farm land east of the Aqueduct. As a result 
of these changes in scope, the Draft Feasibility Investigation Report/
EIS/EIR is expected to be re-released during the summer of 2001 and the 
Final Report submitted to the Corps South Pacific Division and 
Washington Headquarters Offices in early 2002.
    CWC 317--American River Watershed (Folsom Dam Modifications).--
Located at the confluence of two major rivers, a large portion of the 
Sacramento area is threatened by flooding from the American River and 
the Sacramento River. The area of risk covers over 100,000 acres and 
consists of over 160,000 homes and structures, 400,000 residents and 
over $37 billion in developed property.
    In 1997, the January flood resulted in the largest recorded peak 
inflow to Folsom Dam, but because of the re-operation of Folsom 
Reservoir (more flood space in the winter), the releases were kept 
within the 115,00 cfs safe channel capacity of the lower American River 
levee system. In response to the January 1997 floods, the Corps re-
evaluated the rain flood flow versus recurrence frequency for the 
American River at the Fair Oaks gage. This new evaluation, which was 
verified by the Corps' Hydrologic Engineering Center, indicates that 
the Sacramento area has a higher risk of flooding than previously 
believed. The evaluation shows that the existing flood control system, 
after completion of the Common Features Project, provides the area with 
a level of protection equal to about 1 in 90 in any year. Therefore, 
over a 30-year period, the risk of a storm that would overwhelm the 
existing levee system is about 28 percent.
    The Reclamation Board supported a minimum Congressional 
Authorization of Folsom Dam modifications as part of the Water 
Resources Development Act of 1999. This would increase the level of 
protection from 1 in 63 to about 1 in 140. Therefore, over a 30-year 
period, the risk of a storm that would overwhelm the existing levee 
system in about 19 percent. The Folsom modifications are common to all 
plans currently under consideration by Congress. The Water Resources 
Development Act of 1999 was passed with this element. The eight 
existing river outlets in Folsom Dam would be enlarged from 5 feet wide 
by 9 feet high to about 9 feet wide by 16 feet high. This would 
increase the dam's controlled flood releases capacity from the 
reservoir while the water surface is still well below the spillway 
crest.
    CWC 333--Kaweah River.--Terminus Dam was authorized by the 1944 
Flood Control Act and was constructed by the U.S. Army Corps of 
Engineers in 1962. Since construction of Terminus Dam, damaging floods 
have occurred in many years. Downstream communities and areas adjacent 
to the flood plain are at risk of future flooding.
    Initially, various alternatives were evaluated, including 
alternative storage sites, detention basins, construction alternatives, 
and nonstructural measures. Based on technical, economical, and 
environmental criteria, the only feasible alternative is to raise and 
widen the spillway at Terminus Dam. The Corps' Authorized Plan includes 
raising the elevation of the existing Terminus Dam spillway. Reservoir 
storage capacity would be increased by 42,600 acre-feet (about 30 
percent). This feature will save an estimated seven million dollars of 
the approximate 40 million dollar Project cost.
    The State of California sponsor is The Reclamation Board and the 
local sponsors of the Project are the Kaweah Delta Water Conservation 
District (lead agency), City of Visalia, Tulare Lake Basin Water 
Storage District, Tulare County, and Kings County.
    CWC 353--Guadalupe River.--The Guadalupe River Flood Protection 
Project will provide flood protection to downtown San Jose's high-tech 
and commercial industries and established residential neighborhoods, 
with potential damages from a 1 percent flood exceeding $526 million 
(1993 value) avoiding impacts to the environment, protecting fish and 
wildlife, complying with the Endangered Species Act, protecting water 
quality, and preserving the beneficial use of water.
    The Guadalupe River, which flows through the Silicon Valley, is the 
second largest watershed in Santa Clara County, draining 170 square 
miles. The project will extend through downtown San Jose from 
Interstate 880 to Interstate 280. Flood protection works include 
channel widening, bridge replacement, and underground bypass box 
culvert, streambed erosion protection features, and terraces. On-site 
and off-site environmental mitigation work would enhance steelhead 
trout and Chinook salmon runs. This project is an integral component of 
San Jose's downtown revitalization efforts.
    An appropriation add-on of $10.5 million is requested, in addition 
to the $3.5 million included in the fiscal year 2001 for a total of $14 
million to fund a bypass box culvert, additional right-of-way 
acquisition for the bypass box culvert, and continuance of mitigation 
work.
    CWC 382--Santa Ana River Mainstem (includes San Timoteo).--The 
project is located along a 75-mile reach of the Santa Ana River in 
Orange, Riverside, and San Bernardino counties southeast of and 
adjacent to metropolitan Los Angeles, California. Construction of this 
project will primarily provide protection to lands and improvements 
within Orange County downstream of Prado Reservoir. A severe flood 
threat exists in this area, which could cause damages in excess of $15 
billion and could endanger and disrupt the lives of over three million 
people living or working in the floodplain.
    The $18 million request includes funds for San Timoteo and Prado 
Dam. This feature of the SAR Project is the key link in providing the 
level of flood protection envisioned by Congress when it authorized the 
SAR Project in 1986.
    CWC 400--Flood Control Act of 1948, Section 205, Flood Damage 
Prevention.--The California Water Commission's Appropriations Committee 
heard testimony on March 3, 2000 requesting support on individual 
projects. Each of these projects have merit and are needed to prevent 
recurring flood damages in the local areas. The Commission supports 
these projects for funding from this Continuing Authority for small 
projects.
    The Commission has witnessed many successful projects in California 
over the years that have been funded from this Authority. However, the 
list of project requests are exceeding the funding level. The 
Commission voted in March, 1999 to support a request to Congress to 
increase the nationwide funding level from the present $26,000,000 to 
$50,000,000.
    CWC 420--Water Resources Development Act, 1996, Section 206, 
Aquatic Ecosystem Restoration.--The California Water Commission's 
Appropriations Committee heard testimony on March 3, 2000 requesting 
support on individual projects. The Commission supports these projects 
to improve the quality of the environment. Section 206 directs the 
Secretary of the Army to carry out such projects if the Secretary 
determines that the project will improve the quality of the environment 
and is in the public interest; and is cost-effective. The cost-sharing 
provisions state that the nonFederal interests shall provide 35 percent 
of the cost of the construction of any project carried out under this 
section, including provision of all lands, easements, rights-of-way, 
and necessary relocation.
    The Commission voted in March of 1999 to support a request to 
Congress to increase the nationwide funding level.
    CWC 435--Water Resources Development Act, 1999, Section 212, Flood 
Mitigation and Riverine Restoration Program (Challenge 21 Program).--
This is a new program that endeavors to fund projects that have joint 
flood control/riverine ecosystem restoration goals. The section lists 
23 priority areas nationwide. The Coachella Valley, Riverside County, 
California project is listed as the No. 2 priority area. This project 
will be undertaken at the delta area where the Whitewater River feeds 
into the Salton Sea. The area is at risk of flooding but with the 
proper project, could develop into a prime riverine habitat. In 
addition to improving habitat along the Pacific flyway, it could 
utilize wetland plants as a natural nutrient removal system for the 
Salton Sea.
    CWC 440--Water Resources Development Act, 1999, Section 502, 
Environmental Infrastructure (F) Additional Assistance--CWC 441--
Harbor/South Bay Water Recycling.--The Harbor/South Bay Water Recycling 
Project will annually develop up to 48,000 acre-feet of recycled water 
for municipal, industrial, and environmental purposes in the Los 
Angeles area. Customers for the recycled water developed by the project 
have already been identified. They include the ARCO, Chevron and Mobil 
refineries in Los Angeles County, as well as the Wilmington/Los Angeles 
Harbor industrial area, the Palos Verdes Peninsula, and the Los Angeles 
International Airport/Westside area. The cities of Gardena, Carson, 
Culver City, Torrance and Lomita will also be served by the project.
    The House and Senate recently passed the Conference Report to H.R. 
1480, the Water Resources Development Act of 1999, which includes a 
provision authorizing the U.S. Army Corps of Engineers to provide 
assistance to the West Basin Municipal Water District for the 
construction of the Harbor/South Bay Water Recycling Project. The Corps 
is authorized to provide up to $15 million for this project. The 
legislation limits the federal share to 25 percent of the total cost of 
the project. The West Basin District expects to spend more than $60 
million on the Harbor/South Bay project through fiscal year 2001.
    The California Water Commission's Appropriation Committee reviewed 
this project on September 3, 1999 and on March 3, 2000 reviewed a 
similar project (San Ramon Valley Recycling Water Project) and had some 
reservations concerning splintering of federal funding support for 
recycling projects between the activities of the U.S. Corps of 
Engineers and recycling projects requesting funding through the U.S. 
Bureau of Reclamation. On March 3, 2000 the Committee supported funding 
of projects under this authority if additional funding can be secured.
    CWC 450--Water Resources Development Act, 1996, Section 503, 
Watershed Mgt. Restoration & Development.--The California Water 
Commission's Appropriations Committee heard testimony on March 3, 2000 
requesting support on individual projects. The Commission supports 
fiscal year 2001 appropriations for the projects. This provision gives 
the Secretary of the Army the authority to have the Corps provide 
technical, planning and design assistance to nonFederal interests for 
carrying out watershed management, restoration and development projects 
at locations listed in Section 503, Water Resources Development Act, 
1996. Last March, the Commission supported a request to Congress to 
increase the nationwide funding level from the present $15,000,000 to 
$30,000,000.
    CWC 460--Water Resources Development Act, 1986, Section 1135, 
Project Modification for Improvement of the Environment Program.--The 
California Water Commission's Appropriations Committee heard testimony 
on March 3, 2000 requesting support on individual projects. The 
Commission supports fiscal year 2001 appropriations for each of these 
projects. Water Resources Development Act of 1986, Section 1135, 
directs the Secretary of the Army to review the operation of water 
resources projects constructed before the date of the Act to determine 
the need for modifications in the structures and operations of such 
projects for the purpose of improving the quality of the environment in 
the public interest. Last March, the Commission supported a request to 
Congress to increase the nationwide funding level from the present 
$8,500,000 to $20,000,000. Additional funds are needed as this list of 
important projects increases.
    CWC 500--Bay-Delta Program Ecosystem Restoration (CALFED).--At the 
confluence of California's two largest rivers, the Sacramento and San 
Joaquin, the San Francisco Bay and adjoining Sacramento-San Joaquin 
Delta (Bay-Delta) together form the largest estuary in the western 
United States. The Bay-Delta is a haven for plants and wildlife, 
supporting over 750 plant and animal species. The Bay-Delta supplies 
drinking water for two-thirds of California's citizens and irrigation 
water for over 7 million acres of the most highly productive 
agricultural land in the world.
    The CALFED Bay-Delta Program is an open collaborative, state-
federal-stakeholder effort seeking to develop a comprehensive long-term 
plan to restore ecosystem health and improve water management for 
beneficial uses of the Bay-Delta system. The Program is fundamentally 
different from previous efforts because it seeks to address ecosystem 
restoration, water quality, water supply reliability, and levee and 
channel integrity as co-equal program purposes.
    On December 18, 1998, CALFED released the Revised Phase II Report 
which outlined the draft preferred alternative for solving the problems 
in the Bay-Delta system. The CALFED Program released a Revised Draft 
EIS/EIR on June 25, 1999. This release will be followed by a public 
comment period and further refinement of the proposed plan which will 
conclude on September 23, 1999. The goal is to have a final EIS/EIR in 
April 2000, with implementation to begin in June 2000.
    CWC 600--Trinity River Restoration Program.--On June 21, 1999, the 
U.S. Fish and Wildlife Service announced the completion of a 15-year 
comprehensive study of the Trinity River in California which recommends 
habitat restoration projects and increasing instream fishery flows from 
340,000 acre-feet to an average of 595,000 acre-feet to restore salmon 
and steelhead runs. Significant declines in salmon and steelhead 
populations and associated habitats occurred after the completion of 
the Trinity River Diversion (TRD) of the Central Valley Project in 
1964. Coho salmon were listed as threatened in 1997 under the 
Endangered Species Act.
    This restoration requires removal of riparian berms at selected 
sites to promote the creation of alternate bar sequences similar to 
those which existed prior to the construction of the TRD. The 
restoration will be accomplished by mechanical removal of berms at 
selected sites. The project also will increase annual instream 
allocations above the current 340 TAF allocation, ranging from 369 to 
815 TAF, with an average of 595 TAF. A program to balance the coarse 
and fine sediment budget of the upper river that has been disrupted by 
the construction and operation of the TRD will be conducted. The 
project will also establish an Adaptive Management Program.
    CWC 612--Coleman National Fish Hatchery.--The Coleman National Fish 
Hatchery was built by the U.S. Bureau of Reclamation (USBR) on Battle 
Creek in 1942 to mitigate damages to salmon spawning areas in the 
Sacramento River system caused by the construction of Shasta and 
Keswick Dams. Federal custody and operation were transferred to the 
U.S. Fish and Wildlife Service (USFWS) in 1948. Title 34 of Public Law 
102-575 (Central Valley Project Improvement Act) specifies that USBR 
provide funding for completion of the rehabilitation of the Coleman 
National Fish Hatchery: 50 percent will be reimbursable from water and 
power users and 50 percent non-reimbursable.
    Remaining rehabilitation facilities are additional water treatment 
facilities which include one sand filter, an air compressor, and one 
ozone contact/stripper capable of treating 15,000 gallons per minute 
and installation of various ozone equipment. Also, installation of a 
54-inch pipeline from the ozone treatment plant to the large raceways. 
The replacement of facilities for administration, the fish health 
laboratory and public contact area will be the final items to complete 
the modifications at Coleman NFH.
    With the new fish restoraton program that is being developed on 
Battle Creek, fish will again spawn and rear above Coleman NFH. 
Therefore, in the future, water diversions from Battle Creek to the 
hatchery will need to be screened. This is estimated to cost about $5.5 
million. Discussions are underway to determine the best source of 
funding for this part of the project.
    CWC 621--Winter-Run Chinook Salmon Captive Broodstock Program.--The 
captive broodstock program arose from shared concerns for the fate of 
the Sacramento River winter-run chinook salmon. Active participants 
have included representatives of U.S. Fish and Wildlife Service, 
National Marine Fisheries Service, U.S. Bureau of Reclamation, Bodega 
Marine Laboratory of the University of California, Steinhart Aquarium 
of the California Academy of Sciences, California Department of Fish 
and Game, California Department of Water Resources, Pacific Coast 
Federation of Fishermen's Associations, Tyee Club and California Water 
Commission.
    The program has promoted the genetic conservation of winter-run 
chinook salmon. Analyses of the effective size of the winter-run stock 
showed that a properly managed artificial propagation program to which 
the captive broodstock program contributes gametes is not likely to 
have a negative effect and may, instead, be helping to maintain or 
slightly increase the genetic diversity of the stock.
    The captive broodstock program was initiated as a rapid response to 
the endangerment of the Sacramento River winter-run chinook salmon. To 
date, the program has realized many of its objectives. Gametes from 
captively reared broodstock have contributed to artificial propagation 
of the winter-run population. In each year since its inception, the 
program has provided progressively better spawners, gamete quality, 
fertilization and production of juvenile fish. The artificial 
propagation program now works in concert with BML researchers to 
confirm run identification of wild-trapped adult winter and spring run 
salmon destined for spawning at the Coleman and Livingston Stone 
National Fish hatcheries to avoid hybridization. Since the completion 
of the Livingston Stone National Fish Hatchery below Shasta Dam, one 
year class of winter-run chinook salmon has been reared successfully in 
that facility. Rearing at that facility allows the growing fry to 
imprint on Sacramento River water thus helping ensure that, when 
adults, they return to spawn in their natal stream.
    These and other developments will lead to significant changes in 
conventional salmon hatchery practices and reduce impacts of hatchery 
releases on wild Central Valley chinook salmon. Although much good work 
has been completed, some critical questions remain to be answered 
through additional research. These questions include: Are progeny from 
captive parents as fit as those from wild parents? How do we 
synchronize growth and sexual maturation of captive salmon so that both 
sexes are ready to spawn at the same time? If we can't achieve 
synchrony in sexual maturity, how can the potency of frozen sperm be 
increased? Answering these questions can help balance the need and 
effectiveness of hatchery supplementation for listed runs while helping 
identify management actions to move towards ecosystem based salmon 
restoration.
    CWC 660--Arroyo Pasajero Studies--CWC 661--Arroyo Pasajero 
Implementations--CWC 662--Arroyo Pasajero (Flood Easements).--The Draft 
Feasibility Investigation Report and draft EIS/EIR, which identifies 
two candidate alternatives that show a federal interest in a Corps 
flood control project were released in March 1999. The two projects, 
the enlarged Westside Detention Basin and the Pasajero Gap Detention 
Dam, are estimated to cost approximately $238 and $225 million with 
benefit cost ratios of roughly 1.7:1 and 1.1:2, respectively. During 
the public review process, both candidate alternatives were challenged. 
The U.S. Fish and Wildlife Service and the California Department of 
Fish and Game issued a joint letter conveying their position that 
endangered species impacts of the project could not be mitigated. This 
position was maintained during follow-up meetings with staff and 
management of these agencies. Consequently, the Gap Dam was dropped as 
a viable alternative.
    Interests east of the Aqueduct challenged the Westside Detention 
Basin, as presented in the Report, because an over chute would 
discharge flood water across the Aqueduct and on to nearly a hundred 
thousand acres of rich farmland in a manner inconsistent with recent 
historical flooding patterns that occurred prior to construction of the 
Aqueduct. Consequently, the investigation was redirected to eliminate 
the over chute and focus on a larger Westside Detention Basin that 
stores more flood water. Due to other developments following a review 
of the draft, the investigation in being redirected further to include 
another alternative that takes a large amount of flood water into the 
Aqueduct, conveys it several miles to the south and releases it to 
storage on less productive farm land east of the Aqueduct. As a result 
of these changes in scope, the Draft Feasibility Investigation Report/
EIS/EIR is expected to be re-released during the summer of 2001 and the 
Final Report submitted to the Corps South Pacific Division and 
Washington Headquarters Offices in early 2002.
    CWC 663--Cantua Creek Strm Group-EIS.--The Cantua Creek Stream 
Group consists of seven western San Joaquin Valley ephemeral streams, 
as well as several smaller unnamed drainages located west of the San 
Luis Canal segment of the California Aqueduct extending between 20 and 
50 miles north of the Arroyo Pasajero.
    Flood water overtopped the western embankment of the Canal in 1969 
and 1995, causing extensive damage to the concrete lining. Since the 
1960s, over 40,000 acre-feet of Cantua Creek Stream Group flood water 
and an estimated 2.5 million cubic yards of sediment have entered the 
Canal from overtopping or through the drain inlets. These streams have 
also deposited as much as 2.9 million cubic yards of sediment upslope 
of the Canal, eliminating 1,600 acre-feet (about 50 percent) of the 
original impounding capacity. The Cantua Creek Stream Group poses a 
flood risk with a potential to breach the Canal and disrupt water 
service to millions of people in southern California and the southern 
San Joaquin Valley. In addition, the cost associated with the 
degradation to water quality from uncontrolled flood inflow is a 
substantial expense to both the Canal operators and water customers. 
The situation is continually worsening as additional sediment is 
deposited along the west side of the Aqueduct.
    The Department of Water Resources, with cost sharing by USBR, is 
completing a reconnaissance study of these drainage and sedimentation 
problems and will be performing feasibility level investigations during 
fiscal year 2000 to seek solutions. In addition, interim improvements 
to restore diminished impounding capacity and improve sediment 
decanting capabilities for smaller flood flows will extend into fiscal 
year 2000. Under the San Luis Unit Joint-Use Facilities Agreement, USBR 
is responsible for 45 percent of the cost of this work.
    CWC 900--Public Law 102-575, Title XVI and Amended by Public Law 
104-266 (Mid-Pacific Region)--CWC 1000--Public Law 102-575, Title XVI 
and Amended by Public Law 104-266 (Lower Colorado Region).--The 
California Water Commission has long recognized water recycling as an 
important element in the management of California's water resources, 
both for cleanup of municipal, industrial and agricultural discharges 
and to improve the quantity and quality of water supplies. The 
Department of Water Resources' Bulletin 160-98, California Water Plan 
Update, January 1998, identifies up to 800,000 acre-feet of total 
potential additional water recycling in California by the year 2020.
    It is the Commission's view that both water recycling programs and 
the other ongoing USBR programs are highly important and that they 
should be supported in concert, within the limitations of available 
federal funds, giving due consideration to other potential sources of 
funds that could be available to effect their implementation. The 
Commission agreed to work with USBR on language which will give the 
local sponsor greater assurance of future year support. This will also 
encourage sponsors to go ahead with expanded facilities with greater 
expectation of out-year funding.
    CWC 1001--Water Recycling Research and Development Program.--In 
July 1999, a partnership of 18 water and wastewater agencies, the State 
Department of Water Resources and the U.S. Bureau of Reclamation 
released a draft regional water recycling plan. This plan would connect 
recycling systems in Santa Clara, San Mateo, Alameda, Contra Costa and 
San Francisco counties. The regional recycled water system could 
generate an additional 125,000 acre-feet a year of recycled water by 
2010, and 240,000 acre-feet by 2020, according to the draft plan.
    Recognizing the very real need for substantial quantities of 
recycled and the reluctance of a few users to accept recycled water 
because of cost or water quality considerations, the Commission 
encourages the Bureau to ensure that adequate funding will be available 
in the near-term to conduct the necessary research and development 
studies to support the next generation of water recycling projects. The 
proponents of water recycling projects have demonstrated that there is 
a present need for further research and development of the capabilities 
of emerging treatment technology to improve the cost-effectiveness of 
water recycling and address potential threats to public health.
    Federal participation in a comprehensive water recycling research 
and development program would support the identification of more cost-
effective, feasible water recycling projects and encourage project 
implementation at the local level.
    CWC 1108--Salton Sea Research Project.--Over the last several 
decades there has been concern over the increasing salinity of the 
Salton Sea and the impacts it has had on the Sea's ecology. Increasing 
salinity and other water quality issues are threatening biological 
values and recreational uses of the Sea. An additional concern is the 
rising water surface elevation. The raising water surface has flooded 
much of the developed area and the shoreline wildlife habitat used by a 
number of different bird species. The rising sea also has inundated 
much of the Salton Sea National Wildlife Refuge at the south end of the 
sea. The full impacts of increasing salinity, the decline in other 
water quality attributes, and water surface elevation on endangered 
species that inhabit the sea are unknown, but studies are presently 
ongoing. In order to identify and evaluate possibilities for improving 
the condition of the sea, a program of additional planning, research, 
and environmental impact analysis are needed.
    The objectives of this program are to identify and evaluate 
alternatives to: improve water quality conditions; maintain quality 
habitat for migratory birds and endangered species; enhance the 
fishery; and protect human recreation values in and around the Salton 
Sea. Environmental scoping and scientific research of remediation 
alternatives currently is underway.
    CWC 1304--Colorado River Salinity Control Program-Basinwide.--The 
California Water Commission's Appropriation Committee recognizes the 
need to support federal funding levels that are required to meet the 
numeric criteria and standards that have been established for salinity 
on the Colorado River.
    The Commission supports fiscal year 2001 appropriations for Title I 
of the Colorado River Basin Salinity Control Act, which covers delivery 
of water to Mexico, pursuant to the 1944 Mexican Water Treaty and 
Minute 242 of the International Boundary and Water Commission.
    CWC 1500 Bay-Delta Ecosystem Restoration (CALFED).--The CALFED Bay-
Delta Program is an open collaborative, state-federal-stakeholder 
effort seeking to develop a comprehensive long-term plan to restore 
ecosystem health and improve water management for beneficial uses of 
the Bay-Delta system. A comprehensive package must:
  --Improve and increase aquatic and terrestrial habitats and improve 
        ecological functions in the Bay-Delta to support sustainable 
        populations of diverse and valuable plant and animal species.
  --Provide good water quality for all beneficial uses.
  --Reduce the mismatch between Bay-Delta water supplies and current 
        and projected beneficial uses dependent on the Bay-Delta 
        system.
  --Reduce the risk to land use and associated economic activities, 
        water supply infrastructure, and the ecosystem from 
        catastrophic breaching of Delta levees.
    The U.S. Fish and Wildlife Service is an official part of the 
ongoing effort and needs to be adequately funded to allow the Service's 
experts to officially participate in the CALFED activities.
    CWC 1600--Ballast Water Control Programs (Invasive Species).--The 
National Invasive Species Act (NISA) of 1996 re-authorized and amended 
the Non indigenous Aquatic Nuisance and Prevention and Control Act of 
1990. The purpose of the legislation was to provide tools for the 
management and control of the spread of aquatic nuisance species, such 
as zebra mussels. Ballast water carried by ships is one of the major 
factors for the introduction of non indigenous species to North 
American waters. NISA re-authorized a mandatory ballast management 
program for the Great Lakes, an area already heavily infested with 
zebra mussels, and created an enforceable national ballast management 
program for all U.S. coastal regions. The U.S. Coast Guard is mandated 
under the Act to:
  --Develop and issue ballast water guidelines for all vessels entering 
        U.S. waters.
  --Establish reporting and sampling procedures to monitor compliance.
  --Develop a mariner education and technical assistance program.
  --Conduct ecological and ballast water surveys of the Columbia River 
        system.
  --Report to Congress by 1999 on progress on ballast water programs 
        and on any intent to make regulations mandatory in any region.
    California has established a state policy aimed at preventing the 
introduction of aquatic nuisance species and pathogens via ballast 
water. In 1998, the Western Governors' Association adopted a resolution 
supporting actions to prevent the spread and introduction of 
undesirable aquatic and terrestrial species, and in 1999 established a 
State work group to collaborate with the Western Regional panel created 
by NISA. The California Water Commission supports full funding to 
implement the U.S. Coast Guard's ballast water regulations program.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 

Prepared Statement of the California Resources Agency Reclamation Board

                        [In thousands of dollars]
------------------------------------------------------------------------
                                                 President's     Board
          Corps of Engineers' Projects              budget    recommends
------------------------------------------------------------------------
GENERAL INVESTIGATIONS--SURVEYS:
    Sacramento and San Joaquin River Basins           $1,500      $3,200
     Comprehensive Study.......................
    Lower Cache Creek, Yolo/Woodland and                 300         500
     Vicinity..................................
    San Joaquin River Basin:
      Corral Hollow Creek......................           65         140
      Frazier Creek............................           65         140
    Poso Creek (Kern)..........................          150         400
PRECONSTRUCTION ENGINEERING AND DESIGN:
    American River Watershed...................        3,285       3,285
    Yuba River.................................          400         500
    South Sacramento County Streams............          200       3,000
    San Joaquin River Basin--Tule River........          400         400
CONSTRUCTION--GENERAL:
    Sacramento River Bank Protection...........        3,300       5,000
    Mid-Valley Area Levee Reconstruction.......        2,000       2,000
    Marysville/Yuba City Levee Reconstruction..          760         760
    West Sacramento Project....................        1,775       1,775
    American River Watershed (Levee                   10,000      13,000
     Improvements).............................
    American River Watershed (Folsom Dam               5,000      12,000
     Modifications)............................
    Kaweah River (Tulare)......................          500       3,000
    Lower Sacramento Area Levee Reconstruction.        1,485       1,485
    Upper Sacramento Area Levee Reconstruction.        1,665       1,665
    Merced County Streams......................          500  ..........
    San Joaquin Basin--Stockton Metropolitan     ...........      10,000
     (Section 211).............................
------------------------------------------------------------------------


                THE RECLAMATION BOARD'S RECOMMENDATIONS

    The Reclamation Board, as the state agency which furnishes required 
local assurances for a majority of the federal flood control projects 
in California's Central Valley, respectfully submits this statement of 
support for U.S. Army Corps of Engineers flood control projects.
    The Board in general supports the President's budget for federal 
flood control projects in the California Central Valley. The projects 
described below are of particular importance to the health, safety, and 
well-being of Central Valley residents and are especially important to 
the Board that they are started and/or kept on schedule.

                    GENERAL INVESTIGATIONS--SURVEYS

Sacramento and San Joaquin River Basins Comprehensive Study
    The study area includes the entire Sacramento River Basin and San 
Joaquin River Basin in Northern and Central California, respectively. 
Local, state and federal water resources agencies support a coordinated 
multiobjective investigation to balance flood damage reduction, 
environmental restoration, and other water resources proposed along the 
Rivers. The Feasibility Cost-Sharing Agreement was executed in February 
1998. An interim status report was released in April 1999. The Study is 
scheduled to be complete in September 2002. The Board recommends 
funding to continue this Study.

Lower Cache Creek, Yolo/Woodland and Vicinity
    A feasibility study is evaluating increased levels of flood 
protection for the City of Woodland and the town of Yolo. Completion is 
scheduled for June 2004. The Board supports funding to continue the 
feasibility study.

San Joaquin River Basin
    This survey, authorized in 1964, is a study of the San Joaquin 
River and its tributaries in regard to flood control measures. The 
following are interim study proposals.

Corral Hollow Creek
    A reconnaissance study is being conducted to evaluate increased 
flood protection for the City of Tracy and major water conveyance and 
transportation facilities in San Joaquin County. The Board recommends 
funding to initiate the feasibility study.

Frazier Creek
    A reconnaissance study has been initiated to evaluate flood control 
alternatives for the town of Strathmore in Tulare County. The Board 
recommends funding to initiate the feasibility study.

Poso Creek (Kern)
    A reconnaissance study was conducted to evaluate increased flood 
protection for the town of McFarland in Kern County. A feasibility 
study will be initiated in July 2000. The Board recommends funding to 
continue the feasibility study.

                 PRECONSTRUCTION ENGINEERING AND DESIGN

American River Watershed
    The Sacramento urban area has only a 77-year level of protection 
from flooding by the American River. Although incremental actions have 
occurred, a long-term plan for high levels of protection must be 
developed and implemented. The Board recommends funding to continue 
long-term planning.

Yuba River
    The Marysville and Yuba City areas have experienced seven major 
floods. A feasibility study was completed in April 1998. The Board 
recommends funding to continue preconstruction engineering and design.

South Sacramento County Streams
    The completed feasibility report recommends levee and channel 
improvements to protect the urbanized area of south Sacramento. The 
Board recommends funding for continued PED.

San Joaquin River Basin--Tule River
    The proposed enlargement of Success Dam on the Tule River will 
improve flood protection for the City of Porterville and surrounding 
community. The Board recommends funding to continue PED.

                         CONSTRUCTION--GENERAL

Sacramento River Bank Protection
    The project, authorized in 1960, is a long-range federal/state 
effort to preserve the existing project levee system along 192 miles of 
the Sacramento River. The Sacramento River Bank Protection Project work 
consists of providing some form of bank stabilization at those points 
which are identified each year as the most critical. The Board 
recommends funding to continue construction.

Mid-Valley Area Levee Reconstruction
    An evaluation of about 240 miles of the Sacramento River Flood 
Control Project levees in the Sacramento Mid-Valley area identified 
about 20 miles of levees that are structurally deficient and require 
reconstruction. The Board recommends funding to continue construction.

Marysville/Yuba City Levee Reconstruction
    This program will reconstruct 44 miles of the 134 miles of 
federally authorized levees that protect the Marysville/Yuba City area. 
The first of three construction contracts was awarded in July 1995. 
Flooding in 1997 demonstrated the need to extend the work sites, modify 
the design, and investigate new sites in the project area. The Board 
recommends funding to continue construction.

West Sacramento Project
    The Board is the nonfederal sponsor for the West Sacramento Flood 
Control Project that was authorized for construction by WRDA 1992. The 
Board supports funding to complete construction.
American River Watershed (Levee Improvements)
    The 5 miles of levee improvements were authorized in WRDA 1996 as 
part of the Common Elements Project. This Project consists of levee 
raising and strengthening that would be common to any long-term project 
selected for the American River. The Board recommends funding to 
complete construction.

American River Watershed (Folsom Dam Modifications)
    Modifications to the existing outlets of Folsom Dam to provide for 
earlier and higher flood releases were authorized in WRDA 1996. The 
Board recommends funding to initiate construction.

Kaweah River
    This project would provide flood protection to the communities of 
Visalia, Farmersville, Tulare, Ivanhoe, and Goshen. The Board 
recommends funding to continue construction.

Lower Sacramento Area Levee Reconstruction
    An evaluation of about 295 miles of the Sacramento River Flood 
Control Project levees in the lower Sacramento Valley area identified 
about 47 miles of levees that are structurally deficient. The project 
includes reconstructing about 2 miles of these levees. The Board 
recommends funding to complete construction.

Upper Sacramento Area Levee Reconstruction
    Federally authorized flood control levees in the upper Sacramento 
Area were evaluated and 12 miles were determined to be deficient and 
requiring reconstruction. The Board recommends funding to complete 
construction.

Merced County Streams
    This project provides increased levels of flood protection to the 
Cities of Merced and Atwater and associated urban areas. The first 
phase of construction has been completed. The Board recommends funding 
to complete the General Evaluation Report.

San Joaquin Basin-Stockton Metropolitan (Section 211)
    Construction of the flood control project has been completed by the 
local sponsors. The Board recommends funding to reimburse the federal 
cost-share portion.
                                 ______
                                 

             Prepared Statement of the County of Santa Cruz

    Mr. Chairman and Members of the Committee, on behalf of the County 
of Santa Cruz, California, we are requesting $1.9 million from your 
committee in fiscal year 2001 for the Pajaro River at Watsonville Flood 
Control Project to be conducted by the U.S. Army Corps of Engineers. 
While the President's budget request does not reflect this funding 
level, the Corps San Francisco District has recently indicated, based 
on recent changes to project, that $1.9 million for Preliminary 
Engineering and Design (PED) is its capability for this project in 
fiscal year 2001.
    The substantial difference in the Administration budget request of 
$600,000 and the present capability of the Corps of $1.9 million is due 
in large part to the recent agreement with the Corps to merge the flood 
control design measures along the Salsipuedes and Corralitos Creek 
tributaries with the Pajaro River mainstem project. This decision, 
which both the Corps and project sponsors agree has great merit, 
increases the size of the project by providing greater protection to 
those in the Pajaro River Basin.
    By way of background, areas of Santa Cruz and Monterey Counties 
along the Pajaro River have been ravaged by flood events for decades. A 
1963 report by the Corps concluded that the Pajaro River levee system 
constructed in 1949 was ``inadequate,'' providing only 25-year 
protection along the Pajaro River and 7-year protection along two 
Pajaro tributaries, the Salsipuedes and Corralitos Creeks, instead of 
the 100-year protection that was intended. As a result, the Flood 
Control Act of 1966 authorized the Pajaro River Flood Control Project, 
as did the Water Resources Development Act of 1986. However, to date, 
no work on the project has been conducted pursuant to those 
authorizations.
    Over the years, the Corps of Engineers, FEMA, and other federal, 
state, and local agencies have spent vast sums to provide emergency 
assistance, disaster relief, and recovery services to the Santa Cruz 
and Monterey County areas in the wake of these damaging floods. The 
Corps alone, for example, has spent $18 million on flood response 
efforts between 1995 and 1998. Even more recently, storm events of the 
past several weeks have also resulted in flooding along the Salsipuedes 
and Corralitos. In addition, the numerous lawsuits that are filed in 
the wake of these floods--$50 million in the case of a 1995 flood--
threaten to cripple local flood control agencies.
    It is for these reasons that we believe that work on the Pajaro 
River Flood Control project should begin as soon as possible. Residents 
of Santa Cruz and Monterey Counties continue to live in fear that 
lives, businesses, and valuable agricultural land will be lost in a 
100-year flood from which they were to be protected from over 30 years 
ago. In addition to Santa Cruz County, area supporters of this project 
include: Monterey, San Benito, and Santa Clara Counties; the cities of 
Watsonville, Gilroy, Morgan Hill, and Hollister; and the Santa Cruz 
County Flood Control and Water Conservation District, Santa Clara 
Valley Water District, and San Benito Water District.
    Both the Corps and project sponsors believe that $1.9 million is 
necessary to proceed expeditiously with the project. We thank you for 
your consideration of this vital request and urge you and your 
colleagues to support the full amount when crafting your fiscal year 
2001 Energy and Water Development appropriations bill.
                                 ______
                                 

            Prepared Statement of the Whitewater River Basin

    This project is the result of the Whitewater River Basin, 
California, Reconnaissance Report (USACE 1992). The project feasibility 
study is now being completed and the U.S. Army Corps of Engineers 
(Corps) has identified an alternative with a high benefit/cost ratio. 
The U.S. Fish and Wildlife Service has reviewed the alternative and in 
a letter to the Corps, Los Angeles District, indicated ``that the 
future with project conditions will likely be better than the future 
without project conditions for the biological resources in the area.''
    The project will provide flood protection for the majority of the 
Thousand Palms unincorporated area in northern Coachella Valley.
    Flood protection below the Indio Hills in this alternative consists 
of three levees described below:
  --Transmission Corridor Levee: This levee would run in an east-
        southeasterly direction, starting just south of the mouth of 
        Westwide Canyon and then following the transmission corridor to 
        the western Coachella Valley Fringe-Toed Lizard Preserve 
        boundary.
  --Wind Corridor Levee: This levee would run along the western and 
        southwestern boundary of the Preserve (on the south side of the 
        wind corridor).
  --Cook Street Levee: This levee would run along the north side of 
        Interstate 10 and across the southern boundary of the Preserve 
        (the same as with the other alternatives).
    In addition to the right-of-way acreage, this project would require 
purchase of an additional 700 acres of floodway. This land (running 
along the upslope side of the levees) would be purchased by the Corps 
in order to prevent flow along the levees from damaging private 
property.
    In order to continue this project, we need two congressional 
actions this session. First, in the Water Resources Development Act of 
2000, language similar to the following needs to be added:
  --Whitewater River Basin (Thousand Palms), California
  --The project for flood control and incidental endangered species 
        preservation, Whitewater River Basin (Thousand Palms), 
        California, is authorized for construction, subject to a Chief 
        of Engineers Report completed no later than December 31, 2000, 
        at an estimated Federal cost of $16,900,000 and an estimated 
        total cost of $26,000,000. The feasibility analysis will 
        include high priority flood damage reduction and reduced future 
        flood proofing costs for economic justification.
    Secondly, in the Energy and Water Appropriations Act, language 
similar to the following needs to be added:
  --Whitewater River Basin (Thousand Palms), California
  --The Secretary of the Army, acting through the Chief of Engineers, 
        is directed to initiate Preconstruction Engineering and Design 
        for the Whitewater River Basin (Thousand Palms), California 
        Project. Funds of $500,000 are provided for this purpose.
    This project has full local support and your assistance in getting 
the project to the preliminary engineering and design phase is greatly 
appreciated.
                                 ______
                                 

       Prepared Statement of the Coachella Valley Water District

    The Coachella Valley Water District, located in Riverside County, 
California, is the local sponsor of a federal project authorized in the 
Water Resources Development Act of 1999 under Section 212, Flood 
Mitigation and Riverine Restoration Pilot Program. Section 212 lists 
priority projects for the new program and the Coachella Valley, 
Riverside County, California Project is shown as Priority No. 2.
    The project as proposed would consist of developing a wetlands 
habitat area at the delta where the Coachella Valley Stormwater Channel 
(Whitewater River) feeds into the Salton Sea. It is anticipated that 
the project will widen the levees of the stormwater channel allowing a 
natural delta area to form. This would allow the hydraulic grade line 
to be lowered thereby alleviating sediment deposition in the area. This 
would lessen flood risk in the area as well as upstream.
    The habitat created by the project would provide a nesting area for 
several endangered species of migratory birds. The Salton Sea is a key 
stopover on the Pacific Flyway and this project would enhance the 
nesting habitat.
    Funds to conduct the studies required to implement this project 
have not yet been appropriated. The district is requesting that 
language be added to the Energy and Water Appropriations Bill of 2000 
that will allow the U.S. Army Corps of Engineers to begin work in 
October 2000.
    Draft language for the bill would be as follows:
  --Coachella Valley, Riverside County, California
  --The Secretary of the Army, acting through the Chief of Engineers, 
        is directed to complete a reconnaissance study for Flood 
        Mitigation and Riverine Restoration, Coachella Valley, 
        Riverside County, California, as authorized in section 212 of 
        the Water Resources Development Act of 1999. Funds of $100,000 
        are provided for this purpose.
    Thank you in advance for your support on this important project.
                                 ______
                                 

      Prepared Statement of the Santa Clara Valley Water District

                        CALFED BAY-DELTA PROGRAM

    Background.--In an average year, half of Santa Clara County's water 
supply is imported from the San Francisco Bay/Sacramento-San Joaquin 
Delta estuary (Bay-Delta) watersheds through three water projects: The 
State Water Project, the federal Central Valley Project, and San 
Francisco's Hetch Hetchy Project. In conjunction with locally-developed 
water, this water supply supports 1.7 million residents in Santa Clara 
County and the most important high-tech center in the world. In average 
to wet years, there is enough water to meet the county's long-term 
needs. In dry years, however, the county could face a water supply 
shortage of as much as 100,000 acre-feet per year, or roughly 20 
percent of the expected demand. In addition to shortages due to 
hydrologic variations, the county's imported supplies have been reduced 
due to regulatory restrictions placed on the operation of the state and 
federal water projects.
    There are also water quality problems associated with using Bay-
Delta water as a drinking water supply. Organic materials and 
pollutants discharged into the Delta, together with salt water mixing 
in from San Francisco Bay, have the potential to create disinfection-
by-products that are carcinogenic and pose reproductive health 
concerns.
    Santa Clara County's imported supplies are also vulnerable to 
extended outages due to catastrophic failures such as major earthquakes 
and flooding. As demonstrated by the 1997 flooding in Central Valley, 
the levee systems can fail and the water quality at the water project 
intakes in the Delta can be degraded to such an extent that the 
projects cannot pump from the Delta.
    Project Synopsis.--The CALFED Bay-Delta Program is an 
unprecedented, cooperative effort among federal, state, and local 
agencies to restore the Bay-Delta. With input from urban, agricultural, 
environmental, fishing, and business interests, and the general public, 
CALFED is developing a comprehensive, long-term plan to address 
ecosystem and water management issues in the Bay-Delta.
    Restoring the Bay-Delta ecosystem is important not only because of 
its significance as an environmental resource, but also because failing 
to do so will stall efforts to improve water supply reliability and 
water quality for millions of Californians and the state's $700 billion 
economy and job base.
    Although the CALFED Bay-Delta Program is a long-range planning 
process, ecosystem restoration is an immediate priority because of the 
substantial lead time needed to produce ecological benefits. Species in 
the Bay-Delta continue to be proposed for listing under the Endangered 
Species Act. Recovery efforts cannot begin until adequate funding 
becomes available to implement the array of critical ecosystem 
restoration and water quality projects.
    Fiscal year 2000 Funding.--$60 million was authorized in fiscal 
year 2000 for CALFED Bay-Delta ecosystem restoration and non-ecosystem 
improvements.
    Fiscal year 2001 Funding Recommendation.--It is requested that the 
Congressional Committee support the $60 million included in the 
Administration's fiscal year 2001 budget to finance Stage 1 
implementation, including ecosystem restoration in the Bay-Delta, 
critical improvements in water supply and water quality, and levee 
stability.

                        GUADALUPE RIVER PROJECT

    Background.--The Guadalupe River is a major waterway flowing 
through a highly developed area of San Jose, California. A major flood 
would damage homes and businesses in the heart of Silicon Valley. 
Historically, the river has flooded downtown San Jose and Alviso 
community. According to the 1991 General Design Memorandum, estimated 
damages from a 1 percent flood in the urban center of San Jose are over 
$526 million. The Guadalupe River overflowed in February 1986, January 
1995, and March 1995, damaging homes and businesses in the St. John and 
Pleasant Street areas of downtown San Jose. In March 1995, heavy rains 
resulted in breakouts along the river that flooded approximately 300 
homes and business.
    Project Synopsis.--In 1971, the local community requested that the 
U.S. Army Corps of Engineers (Corps) reactivate its earlier study. 
Since 1972, substantial technical and financial assistance have been 
provided by the local community through the Santa Clara Valley Water 
District in an effort to accelerate the project's completion. To date, 
more than $85.8 million in local funds have been spent on planning, 
design, land purchases, and construction in the Corps' project reach.
    The Guadalupe River Project received authorization for construction 
under the Water Resources Development Act of 1986; the General Design 
Memorandum was completed in 1992, the local cooperative agreement was 
executed in March 1992, the General Design Memorandum was revised in 
1993, construction of the first phase of the project was completed in 
August 1994, construction of the second phase was completed in August 
1996. Project construction was temporarily halted due to environmental 
concerns.
    To achieve a successful, long-term resolution to the issues of 
flood protection, environmental mitigation, avoidance of environmental 
impacts, and project maintenance costs, a multi-agency ``Guadalupe 
Flood Control Project Collaborative'' was created in 1997. A key 
outcome of the collaborative process was the signing of the Dispute 
Resolution Memorandum in 1998, which resolved major mitigation issues 
and allowed the project to proceed. Completion of the last phase of 
flood protection construction is estimated in 2002 and is dependant on 
timely federal funding and continuing successful mitigation issue 
resolution.
    Fiscal year 2000 Funding.--$5 million was authorized in fiscal year 
2000 to continue Guadalupe River Project construction.
    Fiscal year 2001 Funding Recommendation.--Based upon the need to 
continue construction to provide critical flood protection for downtown 
San Jose and the community of Alviso, it is requested that the 
Congressional Committee support an appropriation add-on of $10.5 
million, in addition to the $3.5 million in the Administration's fiscal 
year 2001 budget for a total of $14 million to continue the 
construction and mitigation work on the Guadalupe River Flood 
Protection Project.

                     UPPER GUADALUPE RIVER PROJECT

    Background.--The Guadalupe River is one of two major waterways 
flowing through a highly urbanized area of Santa Clara County, 
California, the heart of Silicon Valley. Historically, the river has 
flooded the central district and southern areas of San Jose. According 
to U.S. Army Corps of Engineers (Corps) 1998 feasibility study, severe 
flooding in the upper Guadalupe River's densely populated residential 
floodplain south of Interstate 280 would result from a 100-year 
flooding event and potentially cause $280 million in damages.
    The probability of a large flood occurring before implementation of 
flood prevention measures is high. The upper Guadalupe River overflowed 
in March 1982, January 1983, February 1986, January 1995, March 1995, 
and February 1998, causing damage to several residences and businesses 
in the Alma Avenue and Willow Street areas. The 1995 floods in January 
and March, as well as in February 1998, closed Highway 87 and the 
parallel light-rail line, a major commute artery.
    Project Synopsis.--In 1971, the Santa Clara Valley Water District 
(District) requested the Corps to reactivate its earlier study. From 
1971 to 1980, the Corps established the economic feasibility and 
federal interest in the Guadalupe River only between Interstate 880 and 
Interstate 280. Following the 1982 and 1983 floods, the District 
requested that the Corps reopen its study of the upper Guadalupe River 
upstream of Interstate 280. The Corps completed a reconnaissance study 
in November 1989, which established an economically justifiable 
solution for flood protection in this reach. The report recommended 
proceeding to the feasibility study phase, which began in 1990. In 
January 1997, the Corps determined that the National Economic 
Development Plan would be a 2 percent or 50-year level of flood 
protection rather than the 1 percent or 100-year level. The District 
strongly emphasized overriding the National Economic Development Plan 
determination, providing compelling reasons for using the higher 1 
percent or 100-year level of protection. In 1998, the Acting Secretary 
of the Army did not concur to change the basis of cost sharing from the 
National Economic Development Plan 50-year plan to the locally 
preferred 100-year plan, resulting in a project that will provide less 
flood protection, and therefore, be unable to reduce flood insurance 
requirements and reimbursements, as well as eliminate recreational 
benefits and increase environmental impacts. Based on Congressional 
delegation requests, the Assistant Secretary of the Army has directed 
the Corps to revise the Chief's Report to reflect more significant 
federal responsibility. The Corps feasibility study determined the cost 
of the locally preferred 100-year plan is $153 million and the Corps 
National Economic Development Plan 50-year plan is $98 million. The 
District has requested that the costs of providing 50-year and 100-year 
flood protection be analyzed again during the preconstruction 
engineering design phase for the determination of the National Economic 
Development Plan. The federal cost share has yet to be determined. 
Project cost sharing will be reconsidered for further federal 
responsibility in the Water Resources Development Act of 2000. The 
project was approved for construction by the Water Resources 
Development Act of 1999 (Section 101).
    Fiscal year 2000 Funding.--$300,000 was authorized in fiscal year 
2000 for the Upper Guadalupe River Project to proceed with 
preconstruction engineering and design.
    Fiscal year 2001 Funding Recommendation.--Based upon the high risk 
of flood damage from the upper Guadalupe River and the need to continue 
preconstruction engineering and design, it is requested that the 
Congressional Committee support the $500,000 in the Administration's 
fiscal year 2001 budget for the Upper Guadalupe River Flood Protection 
Project.

                     UPPER PENITENCIA CREEK PROJECT

    Background.--The Upper Penitencia Creek Watershed is located in 
northeast Santa Clara County, California, near the southern end of the 
San Francisco Bay. In the last two decades, the creek has flooded in 
1980, 1982, 1983, 1986, 1995, and 1998. The January 1995 flood damaged 
a commercial nursery, a condominium complex, and a business park. The 
February 1998 flood also damaged many homes, businesses, and surface 
streets.
    The proposed project on Upper Penitencia Creek, from the Coyote 
Creek confluence to Dorel Drive, will protect portions of the cities of 
San Jose and Milpitas. The floodplain is completely urbanized; 
undeveloped land is limited to a few scattered agricultural parcels and 
a corridor along Upper Penitencia Creek. Based on the U.S. Army Corps 
of Engineers' (Corps) 1995 reconnaissance report, 4,300 buildings in 
the cities of San Jose and Milpitas are located in the flood prone 
area, 1,900 of which will have water entering the first floor. The 
estimated damages from a 1 percent or 100-year flood exceed $121 
million.
    Study Synopsis.--Under authority of the Watershed Protection and 
Flood Prevention Act (PL 83-566), the Natural Resources Conservation 
Service completed an economic feasibility study (watershed plan) for 
constructing flood damage reduction facilities on Upper Penitencia 
Creek. Following the 1990 U.S. Department of Agriculture Farm Bill, the 
Natural Resources Conservation Service watershed plan stalled due to 
the very high ratio of potential urban development flood damage 
compared to agricultural damage in the project area.
    In January 1993 the Santa Clara Valley Water District (District) 
requested the Corps proceed with a reconnaissance study in the 1994 
fiscal year while the Natural Resources Conservation Service plan was 
on hold. Funds were appropriated by Congress for fiscal year 1995 and 
the Corps started the reconnaissance study in October 1994. The 
reconnaissance report was completed in July 1995, with the 
recommendation to proceed with the feasibility study phase. The 
feasibility study, initiated in February 1998, is scheduled for 
completion in 2002.
    Advance Construction.--To accelerate project implementation, the 
District is intending to submit a Section 104 application to the Corps 
for advance approval to construct a portion of the project. The advance 
construction would be for a 2,500 -foot long section of bypass channel 
between Coyote Creek and King Road. If approved, the District would 
commence construction on this portion of the project in 2001.
    Fiscal year 2000 Funding.--$250,000 was authorized in fiscal year 
2000 for the Upper Penitencia Creek Flood Protection Project for 
project investigation.
    Fiscal year 2001 Funding Recommendation.--Based upon the high risk 
of flood damage from the Upper Penitencia Creek and the need to proceed 
with the feasibility study, it is requested that the Congressional 
Committee support $300,000 in the Administration's fiscal year 2001 
Budget for the Upper Penitencia Creek Flood Protection Project.

                          LLAGAS CREEK PROJECT

    Background.--The Llagas Creek Watershed is located in southern 
Santa Clara County, California, serving the communities of Gilroy, 
Morgan Hill and San Martin. Historically, Llagas Creek has flooded in 
1937, 1955, 1958, 1962, 1963, 1969, 1982, 1986, 1996, 1997, and 1998. 
The 1997 and 1998 floods damaged many homes, businesses, and a 
recreational vehicle park located in areas of Morgan Hill and San 
Martin. These are areas where flood protection is proposed. Overall, 
the proposed project will protect the floodplain from a 1 percent flood 
affecting more than 1,100 residential buildings, 500 commercial 
buildings, and 1,300 acres of agricultural land.
    Project Synopsis.--Under authority of the Watershed Protection and 
Flood Prevention Act (PL-566), the Natural Resources Conservation 
Service completed an economic feasibility study in 1982 for 
constructing flood damage reduction facilities on Llagas Creek. The 
Natural Resources Conservation Service completed construction of the 
last segment of the channel for Lower Llagas Creek in 1994, providing 
protection to the project area in Gilroy. The Santa Clara Valley Water 
District (District) is currently updating the 1982 environmental 
assessment work and the engineering design for the project areas in 
Morgan Hill and San Martin. The engineering design is being updated to 
protect and improve creek water quality and to preserve and enhance the 
creek's habitat, fish, and wildlife while satisfying current 
environmental and regulatory requirement. Significant issues include 
the presence of additional endangered species including the red-legged 
frog and steelhead, listing of the area as probable critical habitat 
for steelhead, and more extensive riparian habitat than were considered 
in 1982.
    Until recently, the Llagas Creek Project was funded through the 
traditional PL-566 federal project funding agreement with the Natural 
Resources Conservation Service paying for channel improvements and the 
District paying local costs including utility relocation, bridge 
construction, and right of way acquisition. Due to a steady decrease 
since 1985 of annual PL-566 appropriations, the Llagas Creek Project 
has not received adequate funding from U.S. Department of Agriculture 
to complete the PL-566 project. To remedy this situation, the District 
worked with congressional representatives to transfer the construction 
authority from the Department of Agriculture to the U.S. Army Corps of 
Engineers (Corps) under the Water Resources Development Act of 1999 
(Section 501). An initial budget of $250,000 was appropriated for the 
Corps planning and design.
    Fiscal year 2000 Funding.--An initial $250,000 was appropriated in 
fiscal year 2000.
    Fiscal year 2001 Funding Recommendation.--Based upon the high risk 
of flood damage from Llagas Creek, it is requested that the 
Congressional Committee support the addition of $760,000 to the 
$240,000 included in the Administration's fiscal year 2001 budget, for 
a total of $1 million for planning and design for the Llagas Creek 
Project.

           SANTA CLARA BASIN WATERSHED MANAGEMENT INITIATIVE

    Background.--The Santa Clara Basin Watershed Management Initiative 
(Initiative) was spearheaded in 1996 by the U.S. Environmental 
Protection Agency, the State Water Resources Control Board, and the San 
Francisco Bay Regional Water Quality Control Board for the purpose of 
establishing a practical management process to oversee the effort to 
balance natural systems with urban development in the Santa Clara 
Basin. Recognizing the importance of quality of life and diversity, the 
Initiative's goal is to establish an on-going process of managing 
activities and natural processes to maximize benefits and minimize 
adverse environmental impacts for the benefit of the community as a 
whole. The Santa Clara Basin watershed includes areas in northern Santa 
Clara County which drain into San Francisco Bay, and portions of 
Alameda and San Mateo counties.
    The Initiative addresses the integration of activities within the 
watershed while focusing on water quality protection. Some of the 
specific issues being addressed include land use and development, water 
supply, flood management, environmental restoration, and the regulatory 
process.
    The Santa Clara Valley Water District is one of many stakeholders 
who continue to demonstrate commitment to this multi-year effort by 
providing funds and actively participating with the Initiative Core and 
Working Groups. Providing direction, the Core Group includes 
representatives of the business community, local government, 
environmental groups, agriculture, resource and regulatory agencies, 
and other interested stakeholders.
    The 4-year planning phase began in 1998 and will result in the 
development of four major reports focused on the effective management 
of resources to improve and protect water quality and the aquatic 
habitat of the Santa Clara Basin. The first of the four reports will be 
the Watershed Characteristics Report which will provide a description 
of the physical and political characteristics of the Santa Clara Basin. 
This report will be followed by the Watershed Assessment Report, a 
preliminary assessment of the watershed's condition based on available 
data. The Watershed Characteristics and Assessment Reports, are 
scheduled for public review in April and December 2000 respectively, 
will provide a basis for the development of the Alternatives Watershed 
Management Report which will present alternatives to managing the 
watershed. The target date for public review of the Alternatives 
Watershed Management Report is in June 2001. The final product of the 
planning phase will be a comprehensive Watershed Action Plan, 
incorporating stakeholder input and extensive public outreach, intended 
to guide watershed activities as the Initiative moves into its 
implementation phase.
    Section 503 of the 1996 Water Resources Development Act, authorizes 
the U.S. Army Corps of Engineers (Corps) to provide technical and 
planning assistance in the development of a watershed plan for the 
Santa Clara Valley. The Initiative has progressed to the point where 
the Corps' participation is now necessary for continuing the watershed 
assessment and addressing pressing regulatory issues. Due to inadequate 
funding of the Section 503 program in recent years, the District has 
requested the Corps to be included in the Section 206 Aquatic Ecosystem 
Restoration Program.
    Fiscal year 2000 Funding.--No federal appropriation was authorized 
in fiscal year 2000 for the Initiative.
    Fiscal year 2001 Funding Recommendation.--In order to continue the 
Initiative's progress to date, it is requested that the Congressional 
Committee support $300,000 in funding from the Section 206 Aquatic 
Ecosystem Restoration Program to cost-share Initiative work, including 
the preparation of the Alternatives Watershed Management Report, the 
Watershed Action Plan, and the conduct of stakeholder meetings.

    COYOTE/BERRYESSA CREEK PROJECT, BERRYESSA CREEK PROJECT ELEMENT

    Background.--The Berryessa Creek Watershed is located in northeast 
Santa Clara County, California, near the southern end of the San 
Francisco Bay. A major tributary of Coyote Creek, Berryessa Creek 
drains a large area in the City of Milpitas and a portion of San Jose. 
At 320 square miles, the Coyote Creek Watershed is the largest 
watershed in Santa Clara County, encompassing all of Milpitas and 
portions of San Jose and Morgan Hill.
    On average, Berryessa Creek floods once every four years. The most 
recent flood in 1998 resulted in significant damage to homes and 
automobiles. The proposed project on Berryessa Creek, from Calaveras 
Boulevard to Old Piedmont Road, will protect portions of the Cities of 
San Jose and Milpitas. The flood plain is largely urbanized with a mix 
of residential and commercial development. Based on the Army Corps of 
Engineers 1993 draft General design Memorandum, a 1 percent or 100-year 
flood could potentially result in damages of $52 million with depths of 
up to three feet.
    Study Synopsis.--In January 1981, the Santa Clara Valley Water 
District (District) applied for federal assistance for flood protection 
projects under Section 205 of the 1948 Flood Control Act. The Water 
Resources Development Act of 1990 authorized construction on the 
Berryessa Creek Flood Protection Project as part of a combined Coyote 
Creek /Berryessa Creek Project to protect portions of the Cities of 
Milpitas and San Jose.
    The Coyote Creek element of the project was completed in 1996. The 
Berryessa Creek Project element proposed in the Corps' 1987 feasibility 
report consisted primarily of a trapezoidal concrete lining. The Corps 
and the District are preparing a General Reevaluation Report which 
involves reformulating a project which is more acceptable to the local 
community and more environmentally sensitive. Project features will 
include setback levees and floodwalls to preserve sensitive areas 
(minimizing the use of concrete), revegetation mitigation to protect 
the riparian environment, and sediment control structures to limit 
turbidity and protect water quality. The project will also accommodate 
the City of Milpitas' adopted trail master plan. Estimated total costs 
of the General Reevaluation Report work are $3.5 million to be 
completed in fiscal year 2002.
    Fiscal year 2000 Funding.--No federal appropriation received in 
fiscal year 2000.
    Fiscal year 2001 Funding Recommendation.--Based on the continuing 
threat of significant flood damage from Berryessa Creek and the need to 
continue with the General Reevaluation Report, it is requested that the 
Congressional Committee support an appropriation add-on of $2.3 million 
for the Berryessa Creek Flood Protection Project element of the Coyote/
Berryessa Creek Project.

                 COYOTE CREEK NEAR ROCK SPRINGS PROJECT

    Background.--Coyote Creek flows through the cities of Milpitas and 
San Jose. The Rock Springs neighborhood is upstream of the recently 
completed, federally-supported flood protection works on Coyote Creek. 
The neighborhood suffered severe damages to approximately 25 apartment 
buildings in January 1997 when Coyote Creek flooded in the vicinity of 
the Rock Springs neighborhood. This event was estimated to be a 15-year 
event.
    Status.--In February 1999, the Santa Clara Valley Water District 
(District) initiated discussions with U.S. Army Corps of Engineers 
(Corps) for a Section 205 study to reduce flood damage in Rock Springs 
neighborhood. A cost-sharing agreement for the Section 205 Small 
Projects Program $1.16 million three-year feasibility study was signed 
by the Corps and the District on January 4, 2000. Funding is a 50/50 
cost share.
Project Timeline
  --District requested federal assistance from Corps under Section 
        205--Feb. 1999
  --Feasibility cost sharing agreement signed--Jan. 2000
  --Public Workshop--Jun. 2000
  --Draft Feasibility Report/Environmental Impact Statement (EIS)--Mar. 
        2002
  --Final Detailed Project Report/EIS--July 2002
    Fiscal year 2000 Funding.--No federal appropriation was requested 
in fiscal year 2000.
    Fiscal year 2001 Funding Recommendation.--In order to continue the 
Coyote Creek near Rock Springs Project Feasibility Study, it is 
requested that the Congressional Committee support an earmark of 
$200,000 within the Section 205 Small Flood Control Projects Program 
for fiscal year 2001. This will provide the U.S. Army Corps of 
Engineers fiscal year 2001 share of the Feasibility Study costs.

                         PAJARO RIVER WATERSHED

    Background.--Pajaro River flows into the Pacific Ocean at Monterey 
Bay, about 75 miles south of San Francisco. The drainage area 
encompasses 1,300 square miles in Santa Clara, San Benito, Monterey, 
and Santa Cruz counties. Potential flood damage reduction solutions 
will require cooperation between four counties and four water/flood 
management districts. There is critical habitat for endangered wildlife 
and fisheries throughout the basin. Six separate flood events have 
occurred on the Pajaro River in the past half century. Severe property 
damage in Monterey and Santa Cruz counties resulted from floods in 
1995, 1997, and 1998. Recent flood events have resulted in litigation 
claims for damages approaching $50 million. $20 Million in U.S. Army 
Corps of Engineers (Corps) flood fight funds have been expended in 
recent years.
    Status.--Two separate Corps activities are taking place in the 
watershed. The first activity is a Corps reconnaissance study 
authorized by a House Resolution in May 1996 to address the need for 
flood protection and water quality improvements, ecosystem restoration, 
and other related issues. The second activity is a General Revaluation 
Report initiated in response to claims by Santa Cruz and Monterey 
Counties that the 13 mile levee project constructed in 1949 through 
agricultural areas and the city of Watsonville is deficient. The 
reconnaissance study on the entire watershed has not been initiated due 
to priorities at the San Francisco District of the Corps. Watershed 
Stakeholders have pledged to work cooperatively to support the Corps' 
reconnaissance study, which will provide information to help reach an 
understanding and agreement about the background and facts of the 
watershed situation. Legislation passed by the State of California 
(Assembly Bill 807) titled ``The Pajaro River Watershed Flood 
Prevention Authority Act'' mandates that a Joint Powers Authority be 
formed by June 30, 2000. The purpose of the Joint Powers Authority is 
``to provide the leadership necessary to . . . ensure the human, 
economic, and environmental resources of the watershed are preserved, 
protected, and enhanced in terms of watershed management and flood 
protection. The Joint Powers Authority will consist of representatives 
from the Counties of Monterey, San Benito, Santa Clara, and Santa Cruz, 
Zone 7 Flood Control District, Monterey County Water Resources Agency, 
San Benito County Water District, and the Santa Clara Valley Water 
District.
    Funding Issues.--Although the Corps received fiscal year 2000 
federal appropriation of $100,000 for initiation of Reconnaissance 
Study, the appropriation was held while Corps staff worked on the 
Pajaro River General Revaluation Report.
    Fiscal year 2000 Funding.--$100,000 was authorized in fiscal year 
2000 for the Pajaro Watershed Reconnaissance Study.
    Fiscal year 2001 Funding Recommendation.--It is requested that the 
Congressional Committee support the Administration's fiscal year 2001 
budget $600,000 for continuation of the General Revaluation Report. It 
is also requested that the committee support $50,000 for the 
Reconnaissance Study of the Pajaro River Watershed.

  CENTRAL VALLEY PROJECT: OPERATIONS AND MAINTENANCE OF SAN LUIS UNIT 
                          JOINT USE FACILITIES

    Background.--The San Luis Unit of the Central Valley Project is 
located by the city of Los Banos on the west side of the San Joaquin 
Valley. This unit originates from San Luis Reservoir and extends 102 
miles south, spanning Fresno, Kings, and Merced counties. The San Luis 
Unit is an integral part of the Central Valley Project, delivering 
water and power supplies from the American, Shasta and Trinity rivers 
to users located in the service area.
    Specific facilities of the San Luis Unit are owned, operated, and 
maintained jointly with the state of California. These Joint Use 
Facilities consist of O'Neill Dam and Forebay, San Luis Dam and 
Reservoir, San Luis Pumping-Generating Plant, Dos Amigos Pumping Plant, 
Los Banos and Little Panoche reservoirs, and the San Luis Canal. These 
facilities are essential to the State Water Project's ability to serve 
numerous agricultural, municipal, and industrial water users in the San 
Joaquin Valley and Southern California. Funding for the Joint Use 
Facilities are divided to 55 percent state and 45 percent federal, 
under provisions of Federal-State Contract No. 14-06-200-9755, December 
31, 1961.
    Within the Central Valley Project, the Joint Use Facilities of the 
San Luis Unit are an important link to the San Felipe Division, which 
serves as the largest source of water imported into the Santa Clara 
Valley Water District (District) and the San Benito County Water 
District. All of the Central Valley Project water delivered through the 
San Felipe Division must be pumped through O'Neill Dam and Forebay and 
San Luis Dam and Reservoir.
    Project Synopsis.--Annual invoices from the state of California for 
the federal share of operation and maintenance costs average 
approximately $10 million. For several years, federal funding was 
inadequate to cover the pro-rated federal share of Joint Use Facility 
costs. The District intervened by using the contributed Funds Act to 
direct a $20 million advance payment of its Central Valley Project 
capital costs toward an operations and maintenance payment.
    As a contractor of both the Central Valley Project and the State 
Water Project, the District hopes to expediently resolve the issue of 
unreimbursed operations and maintenance expenses. These expenses are 
carried by the state without interest, seriously impairing the cash 
flow and financial management of the State Water Project.
    In fiscal year 1998, an agreement was reached between the U.S. 
Bureau of Reclamation and project contractors to provide direct funding 
for project conveyance and pumping facilities, reducing annual 
appropriations from approximately $10 million to $3.5 million.
    Fiscal year 2000 Funding.--$4.525 million was authorized in fiscal 
year 2000 for operations and maintenance of the San Luis Joint Use 
Facilities.
    Fiscal year 2001 Funding Recommendation.--Based upon past 
expenditures, it is requested that the Congressional Committee support 
$4.551 million in the Administration's fiscal year 2001 budget to 
continue operations and maintenance of the San Luis Unit Joint Use 
Facilities.

  SAN JOSE AREA WATER RECLAMATION AND REUSE PROGRAM (SOUTH BAY WATER 
                           RECYCLING PROGRAM)

    Background.--The San Jose Area Water Reclamation and Reuse Program, 
also known as the South Bay Water Recycling Program, will allow the 
city of San Jose and its tributary agencies of the San Jose /Santa 
Clara Water Pollution Control Plant to protect endangered species 
habitat, meet receiving water quality standards, supplement Santa Clara 
County water supplies, and comply with a mandate from the U.S. 
Environmental Protection Agency and the California Water Resources 
Control Board to reduce wastewater discharges into San Francisco Bay.
    The Santa Clara Valley Water District (District) is participating 
with the city of San Jose in the development of the reclamation and 
reuse program. Toward this end, the District is assisting the city of 
San Jose by providing financial support and technical assistance, and 
acting as a liaison for water retailers. The design, construction, 
construction administration, and inspection of the program's 
transmission pipeline and Milpitas 1A Pipeline was performed by the 
District under contract to the city of San Jose.
    The city of San Jose is the program sponsor for Phase 1, consisting 
of almost 60 miles of transmission and distribution pipelines, pump 
stations, and reservoirs. Completed at a cost of $140 million, Phase 1 
peak operation occurred in October 1999 with actual deliveries of 10 
million gallons per day of recycled, nonpotable water.
    Phase 2 planning is now underway. A study, to be completed in 2000 
at a cost of approximately $3.5 million, will provide a master plan for 
the years 2010 and 2020. Phase 2's near-term objective is to increase 
deliveries by the year 2010 to 15,000 acre-feet per year.
    In 1992, PL 102-575 authorized the Bureau of Reclamation to work 
with the city of San Jose and the District to plan, design, and build 
demonstration and permanent facilities for reclaiming and reusing water 
in the San Jose metropolitan service area. The city of San Jose reached 
an agreement with the Bureau of Reclamation to cover 25 percent of 
Phase 1's costs, or approximately $35 million; however, federal 
appropriations have not reached the authorized amount. To date, the 
program has received $14.6 million of the $35 million authorization.
    Fiscal year 2000 Funding.--$3 million was authorized in fiscal year 
2000 for project construction.
    Fiscal year 2001 Funding Recommendation.--It is requested that the 
Congressional Committee support an appropriation add-on of $6.5 
million, in addition to the $3.5 million included in the 
Administration's fiscal year 2001 budget, for a total of $10 million to 
fund the Phase 2 study and continue Phase 1 work.

  SAN FRANCISCO AREA WATER RECLAMATION STUDY (BAY AREA REGIONAL WATER 
                           RECYCLING PROGRAM)

    Background.--The Santa Clara Valley Water District (District) is 
participating with 16 Bay Area water and wastewater agencies, 
California Department of Water Resources, and U.S. Bureau of 
Reclamation to develop master plan for regional water recycling 
program. Study identifies regional markets and tools for maximizing Bay 
Area water recycling. 125,000 acre-feet per year of potable water 
potentially available for other uses by 2010, and 210,000 acre-feet per 
year potentially available by 2040.
    Regional effort between water and wastewater agencies in five 
counties surrounding San Francisco Bay, including the cities of San 
Jose, San Francisco, and Oakland.
    Status.--Step 1, completed in 1996, studied feasibility of 
transferring recycled water from San Francisco Bay Area to three nearby 
agricultural regions. Step 2, completed in September 1999, consisted of 
a regional water recycling master plan to maximize local recycling 
programs with an estimated cost of $3 million to $5 million. Funding 
for the master plan is available from the U.S. Bureau of Reclamation 
and local agencies, including in-kind services.
    Fiscal year 2000 Funding.--No federal appropriation was authorized 
in fiscal year 2000.
    Fiscal year 2001 Funding Recommendation.--It is requested that the 
Congressional Committee support an appropriation add-on of $1 million 
to the Administration's fiscal year 2001 budget to follow up on actions 
identified in the master plan, and to begin Environmental Impact 
Report/Environmental Impact Statement preparation for Project Set 1 as 
identified in the master plan (includes South Bay Water Recycling, 
South County Regional Wastewater Authority, and Sunnyvale).
                                 ______
                                 

        Prepared Statement of the City of Oceanside, California

    Dear Chairman Domenici and Members of the Subcommittee: the City of 
Oceanside respectfully requests an appropriation of $502,325 for the 
City's Mission Basin Brackish Groundwater Desalting Research and 
Development Project. We would greatly appreciate your assistance in 
funding this important facility.
    The existing Mission Basin Groundwater Desalting Facility has been 
an unqualified success. Since its completion in 1994, the facility has 
produced 2 million gallons per day of superior-quality water from 
previously unusable brackish groundwater. This represents seven percent 
of the City's daily water supply needs--enough water to serve 4,000 
Oceanside households. As our only water source that does not cross 
major earthquake fault lines, it is also a critically-needed emergency 
water supply.
    The Mission Basin Brackish Groundwater Desalting Research and 
Development Project will be of genuine local, regional and state-wide 
benefit. It will expand the capacity of the facility to 6.2 million 
gallons per day, serving twenty-two percent of Oceanside residents. By 
reducing our dependence on imported water from the Colorado River and 
the Sacramento-San Joaquin River Delta, Oceanside will be part of the 
solution to California's water supply dilemma. Closer to home, the 
project will significantly increase the reliability of our water 
supply--an essential ingredient in the long-term health of our regional 
economy. When the facility expansion becomes a demonstrable success, 
the City will explore the use of reclaimed water injected into the 
groundwater basin to increase its capacity to 20 million gallons per 
day.
    The cost of the expansion is estimated at $11,600,000. The 
authorization for this project included funding for twenty-five percent 
of 3 million gallons per day of the 4.3 million gallons per day 
expansion. It is estimated that the 3 million gallons per day expansion 
will cost $8.1 million. Oceanside has received $1.5 million to date for 
this project and is requesting the residual federal cost share under 
the provisions of the authorization. This remaining funding increment 
of $502,325 from the Bureau of Reclamation will enable the City to 
complete the project while reducing the financial impact on rate 
payers, and will advance the City towards our ultimate goal of 
producing 20 million gallons per day. The funding will create a ripple 
effect in Southern California and beyond by demonstrating the efficient 
use of groundwater desalting technology and stimulating other agencies 
to develop their own projects. Ultimately, appropriating funds to the 
City of Oceanside will provide some much-needed relief to the water 
supply crisis affecting the entire Southwestern United States. 
Construction is due to begin in mid-2000, and to be complete in 2002.
    The City of Oceanside respectfully requests the residual federal 
cost share of $502,325 in the fiscal year 2001 Energy and Water 
Development Appropriation bill for this project. Thank you for your 
consideration of this request.

                      APPROPRIATION REQUEST--2001

    The City of Oceanside is requesting an appropriation of $502,325 in 
the Fiscal Year 2001 budget for the Mission Basin Brackish Groundwater 
Desalting Research and Development Project. This amount is the 
remaining funding increment that has already been authorized.
    Construction cost estimate is $11,600,000.
    Benefits to the City of Oceanside and the Southern California 
Region include the following:
  --Provides an emergency water supply for the City and the Camp 
        Pendleton Marine Corps Base.
  --Creates a highly reliable water supply, which is critical to the 
        region's long-term economic health and its ability to attract 
        and retain businesses.
  --Provides benefits to California and the rest of the nation by 
        reducing the region's demand for imported water from the 
        Colorado River and the environmentally sensitive Sacramento-San 
        Joaquin River Delta.

                               BACKGROUND

    The City of Oceanside owns and operates a 2 million-gallon-per-day 
facility that recovers and desalts brackish groundwater from the San 
Luis Rey Mission Groundwater Basin. Oceanside proposes to expand this 
facility to 6.3 million gallons per day.
    Water from the Mission Basin was previously considered unusable as 
a municipal water source due to its high salinity and mineral content.
    The current desalting facility produces 2,200 acre-feet of potable 
water annually--enough water to meet the annual needs of 4,000 
households.
    Oceanside's local water supply development has received support 
from many agencies including the State of California, which loaned the 
City $5 million to build the initial small-scale demonstration project.
    proposed brackish groundwater desalting and development project
    The project will increase production capacity of the existing 
desalting facility to 6.3 million gallons per day, or 6,400 acre-feet 
per year. This new water supply will be sufficient to meet 22 percent 
of the City's average annual water supply needs.
    The project will benefit Oceanside and the larger San Diego region 
by creating a local, highly reliable water supply. Unlike imported 
water, this local water supply does not cross major earthquake fault 
lines to reach consumers. A reliable water supply is critical to the 
region's long-term economic health, and its ability to attract and 
retain businesses.
    The project will also serve as a model for other groundwater 
desalting projects in San Diego County and elsewhere in Southern 
California. The proposed expansion involves the use of Energy Saving 
Polyamide (ESPA) reverse osmosis membrane elements. The membranes offer 
significant savings in both investment and operation expenses that 
exceed other membrane elements currently on the market.
    The Mission Basin Brackish Groundwater Desalting Research and 
Development Project will use reverse osmosis technology to produce 
potable water of higher quality than the City's imported water supply.
    The reverse osmosis process involves pumping water at high pressure 
through semi-permeable membranes. Membrane pores are large enough to 
let water molecules through, but small enough to remove salts, metals, 
and other dissolved impurities.
    Groundwater pumped from the basin is treated first with chemicals 
to optimize membrane operations, then filtered.
    The pretreated water then is pumped through the reverse osmosis 
membranes to remove all but the smallest molecular compounds. Dissolved 
minerals and other impurities removed by the reverse osmosis membranes 
are discharged to the City's ocean outfall for disposal.
    The water receives additional chemical treatment to meet drinking 
water standards before it is added to the City's potable water system.
                                 ______
                                 

  Prepared Statement of the Riverside County Flood Control and Water 
                         Conservation District

  RESOLUTION NO. F2000-9 SUPPORTING FEDERAL APPROPRIATIONS FOR FLOOD 
                 CONTROL PROJECTS FOR FISCAL YEAR 2001

    WHEREAS, the United States House of Representatives Committee on 
Appropriations, Subcommittee on Energy and Water Development, and the 
United States Senate Committee on Appropriations, Subcommittee on 
Energy and Water Development are holding hearings to consider 
appropriations for Flood Control and Reclamation Projects for fiscal 
year 2001 and have requested written testimony to be submitted to the 
committees prior to March 31, 2000; and
    WHEREAS, the Riverside County Flood Control and Water Conservation 
District supports the completion of construction for the project to 
reduce flooding and bank destruction along the Santa Ana River at Norco 
Bluffs, California; the initiation of design efforts for a flood 
control project on Murrieta Creek; the completion of construction 
activities on the Gunnerson Pond Environmental Restoration project; the 
initiation of a flood control feasibility study for the San Jacinto 
River; the continuation of construction activities on the Santa Ana 
River Mainstem project; and the continuation of construction activities 
at Prado Dam; now, therefore,
    BE IT RESOLVED by the Board of Supervisors of the Riverside County 
Flood Control and Water Conservation District in regular session 
assembled on March 7, 2000, that they support appropriations by 
Congress for fiscal year 2001 for the following projects:

U.S. Army Corps of Engineers
Santa Ana River at Norco Bluffs/Construction--General...      $4,000,000
Murrieta Creek/Preconstruction Engineering & Design.....       1,000,000
Lake Elsinore--Gunnerson Pond/Section 1135 Environmental 
    Restoration.........................................       1,400,000
San Jacinto River/Feasibility Study-Flood Control.......         225,000
Santa Ana River Mainstem/Construction--General..........       8,000,000
Prado Dam/Construction--General.........................      10,000,000
San Jacinto & Santa Margarita River Watersheds 
    (Riverside County) Special Area Management Plan 
    (SAMP)..............................................       2,000,000

    BE IT FURTHER RESOLVED that the General Manager-Chief Engineer is 
directed to distribute certified copies of this resolution to the 
Secretary of the Army, Members of the House of Representatives 
Committee on Appropriations and Subcommittee on Energy and Water 
Development, the Senate Committee on Appropriations and Subcommittee on 
Energy and Water Development, and the District's Congressional 
Delegation--Senators Dianne Feinstein and Barbara Boxer, Congressmen 
Ron Packard and Ken Calvert, and Congresswoman Mary Bono.

          MURRIETA CREEK--PRECONSTRUCTION ENGINEERING & DESIGN

    Murrieta Creek poses a severe flood threat to the cities of 
Murrieta and Temecula. Over $10 million in damages was experienced in 
the two cities as a result of Murrieta Creek flooding in 1993. The 1997 
Energy and Water Appropriations Act dedicated $100,000 to conducting a 
Reconnaissance Study of watershed management in the Santa Margarita 
Watershed ``including flood control, environmental restoration, 
stormwater retention, water conservation and supply, and related 
purposes''. The study effort was initiated in April 1997 and completed 
the following December. The Reconnaissance Study identified a Federal 
interest in flood control on the Murrieta sub-basin, and recommended 
moving forward with a detailed feasibility study for a flood control 
project on Murrieta Creek. Efforts on the Feasibility Study began in 
April 1998, and are on schedule for completion in August 2000.
    The District will be requesting a ``Conditional Authorization'' of 
the project through inclusion in the Water Resources Development Act 
Bill of 2000 (WRDA 2000). The project's authorization would be 
contingent upon the receipt of a favorable Chief's report by December 
31, 2000. The District is confident of the Corps completing the 
Murrieta Creek Feasibility Study in August 2000 and issuing a favorable 
Chief's Report by the end of the calendar year. The Corps will then be 
in a position to initiate the detailed engineering design necessary to 
develop construction plans and specifications for a Murrieta Creek 
Flood Control Project. The District respectfully requests that the 
Committee support an fiscal year 2001 appropriation of $1,000,000 for 
the Corps to initiate an expedited Preconstruction Engineering and 
Design phase for a Murrieta Creek Flood Control Project.

                    SANTA ANA RIVER AT NORCO BLUFFS

    The purpose of this project is to protect a susceptible 65 to 80-
foot high bluff in the City of Norco from further retreat into a 
residential neighborhood. Severe bank sloughing results when flood 
flows within the Santa Ana River attack the toe of the bluffs. The 
floods of January and February 1969 undermined the toe of the bluff, 
causing severe bank sloughing. Although 50 to 60 feet of the bluff 
retreated to the south, and no improvements were lost, the threat to 
improvements from future river actions became apparent. The floods of 
1978 and 1980 impinged further, causing another 30 to 40 feet of bluff 
retreat, and the loss of one single family residence.
    The Water Resources Development Act of 1996, at Section 101b (4), 
provided for the authorization of the project based on a Chief's Report 
dated December 23, 1996 that recommends the project for construction. 
Design of the project was completed by the Corps in early 1999, and the 
first of two phases of construction contracts began in May 1999. The 
``Phase 1'' contract is scheduled for completion in June 2000. Certain 
geotechnical/safety design considerations, coupled with extensive 
efforts required to adequately de-water the site for construction of 
the toe protection structure have resulted in an increased cost for the 
overall project. We, therefore, are now seeking the Committee's 
approval of supplemental funding in the amount of $4,000,000 in fiscal 
year 2001 for completion of construction of the Santa Ana River at 
Norco Bluffs Bank Stabilization Project. The Riverside County Flood 
Control and Water Conservation District is fully prepared to meet its 
cost-sharing obligation on this project.

            GUNNERSON POND ENVIRONMENTAL RESTORATION PROJECT

    Gunnerson Pond is a Section 1135 environmental restoration project 
that will restore approximately 60 acres of degraded riparian and 
woodland area adjacent to the Lake Elsinore Outlet Channel, a Section 
205 project in the City of Lake Elsinore, completed in 1994. The 
project would enable both floodwater from Lake Elsinore and discharge 
from a nearby wastewater treatment plant to flow into Gunnerson Pond, 
thereby creating a permanent wetland. Such a wetland would serve to 
enhance and develop waterfowl habitat, endangered species habitat, 
emergent wetlands vegetation, and riparian vegetation.
    The Reconnaissance phase of the project was completed with the 
approval, in July of 1996, of the Project Restoration Plan at the 
Washington level of the Corps. In fiscal year 1998 the project received 
a Federal appropriation in the amount of $2.1 million to fully fund the 
Feasibility Study, and to initiate engineering design for the project. 
The feasibility phase (Project Modification Report) of the project was 
completed in April of 1998. In fiscal year 1999 we sought a $1,500,000 
Federal appropriation for Gunnerson Pond from available Section 1135 
funds to provide the Federal funding necessary to complete final plans 
and specifications, to provide for an early Federal contribution toward 
land acquisition, and to partially fund construction. The design of the 
project is essentially complete. The Corps anticipates advertising for 
construction bids in May 2000, with a construction start in September 
2000. The District respectfully requests the Committee's support of an 
fiscal year 2001 appropriation of $1,400,000 to fully fund the Federal 
share (75 percent) of the overall project.

SAN JACINTO & SANTA MARGARITA RIVER WATERSHEDS SPECIAL AREA MANAGEMENT 
                                  PLAN

    The County of Riverside recognizes the interdependence between the 
region's future transportation, habitat, open space, and land-use/
housing needs. In 1999, work was initiated on Riverside County's 
Integrated Planning program (RCIP) to determine how best to balance 
these factors. The plan will create regional conservation and 
development plans that protect entire communities of native plants and 
animals while streamlining the process for compatible economic 
development in other areas. The major elements of the plan include 
water resource identification, multi-species planning, land use, and 
transportation.
    Water resources are the critical element of any regional planning 
effort. The County of Riverside has therefore requested that the Corps 
initiate work on what are termed Special Area Management Plans (SAMP) 
for both the San Jacinto and Santa Margarita watersheds to 
qualitatively identify existing and future water resources requirements 
in each area. The Corps effort will include facilitating meetings 
between all potential watershed partners, and the integration of the 
joint study effort with the planning efforts of the balance of the RCIP 
project. We, therefore, respectfully request that the Committee support 
a combined $2 million appropriation of Federal funding for fiscal year 
2001 for the Corps to initiate work on Special Area Management Plans 
for the San Jacinto & Santa Margarita River Watersheds.

                           SAN JACINTO RIVER

    The 730 square mile San Jacinto River watershed drains into Lake 
Elsinore in Western Riverside County. The San Jacinto River originates 
in the San Jacinto Mountains and passes through the cities of San 
Jacinto, Perris, Canyon Lake and Lake Elsinore. The only major flood 
control structures on the river are levees in the city of San Jacinto 
built by the Corps of Engineers in the early 1960's. In the 30-mile 
reach of the river between Lake Elsinore and the city of San Jacinto, 
only minor channelization exists as the river is characterized by 
expansive overflow areas including the Mystic Lake area.
    Flooding from the river has caused major damage to agricultural 
areas and rendered Interstate 215 and several local arterial 
transportation routes impassable. The river is, however, an important 
resource that provides water supply, wildlife habitat, drainage and 
recreation values to the region. The fiscal year 2000 Energy and Water 
Appropriations Act dedicated $100,000 to conducting a Reconnaissance 
Study of watershed management in the San Jacinto River Watershed 
``including flood control, environmental restoration, stormwater 
retention, water conservation and supply, and related purposes''. The 
study effort will be initiated in March 2000 and completed the 
following September. We anticipate that the Reconnaissance Study will 
identify a Federal interest in flood control on the San Jacinto River, 
and recommend moving forward with a detailed Feasibility Study for a 
flood control project. Other studies may also be recommended. The 
Administration's fiscal year 2001 budget proposes an appropriation of 
$225,000 to move into a Feasibility Study for the San Jacinto River. 
The District therefore respectfully requests the Committee's support of 
a $225,000 appropriation.

                       SANTA ANA RIVER--MAINSTEM

    The Water Resources Development Act of 1986 (Public Law 99-662) 
authorized the Santa Ana River--All River project which includes 
improvements and various mitigation features as set forth in the Chief 
of Engineers' Report to the Secretary of the Army. The Boards of 
Supervisors of Orange, Riverside, and San Bernardino Counties continue 
to support this critical project as stated in past resolutions to 
Congress.
    The Local Cooperation Agreement (LCA) was signed in December 1989 
by the three local sponsors and the Army. The first of five 
construction contracts started on the Seven Oaks Dam feature in the 
Spring of 1990 and the dam was officially completed on November 15, 
1999. A dedication ceremony was held on January 7, 2000. Significant 
construction has been completed on the lower Santa Ana River Channel 
and on the San Timoteo Creek Channel. Construction activities on Oak 
Street Drain and the Mill Creek Levee have been completed.
    For fiscal year 2001, an appropriation of $6 million is requested 
to complete funding necessary to construct ``Reach 9'' (immediately 
downstream of Prado Dam), a section of streambed to receive some 
floodwall and slope revetment work to protect existing development 
along its southerly bank. The removal of accumulated sediment within an 
already completed section of the Santa Ana River Channel near its 
outlet to the Pacific Ocean, will necessitate an fiscal year 2001 
appropriation of $2 million. This dredging work is necessary prior to 
project turnover to the Local Sponsors for operation and maintenance.
    The Prado Dam feature of the Santa Ana River Mainstem project 
continues to edge closer to a construction start. Engineering design 
for the dam embankment and outlet works is on schedule to be completed 
in June 2000. Design work is underway on several interior dikes 
included in the project.
    Additional design contracts are ready to be let for the balance of 
engineering work necessary prior to construction. An fiscal year 2001 
appropriation of $10 million would allow the Corps to complete all of 
its design efforts on the Prado Dam project, and to initiate 
construction on Prado Dam's outlet works and embankment. Additionally, 
$2 million of these funds would be earmarked for the completion of the 
State Highway 71 Dike construction project, which is scheduled to 
commence late this fiscal year.
    We, therefore, respectfully request that the Committee support an 
overall $18 million appropriation of Federal funding for fiscal year 
2001 for the Santa Ana River Mainstem project, which is the amount 
included in the Administration's budget.
                                 ______
                                 

               Prepared Statement of the County of Tulare

    Mr. Chairman and Members of the Committee: the County of Tulare 
request your consideration of an appropriation of $250,000 in the 
fiscal year 2001 Federal budget for the United States Army Corps of 
Engineers for the commencement of a feasibility study for the Frazier & 
Strathmore Creeks flood control project.
    The Corps of Engineers have started the reconnaissance level study 
of Frazier & Strathmore Creeks as your committee provided the funding 
therefore in the fiscal year 2000 budget for which we are most 
grateful.
    Frazier & Strathmore Creeks are uncontrolled streams that continue 
to devastate agricultural lands in Tulare County, flood the community 
of Strathmore and disrupt commerce on a major highway arterial, State 
Route 65.
    The Corps of Engineers typically expend $2-million for a 
feasibility study and require two years for preparation. Under the 50/
50 cost sharing agreement and the Corps capability in fiscal year 2001, 
the Federal government would need to budget $250,000 in fiscal year 
2001 with the remainder in fiscal year 2002 for the Frazier & 
Strathmore Creeks feasibility study.
    The local sponsors urge the subcommittee's appropriation of 
$250,000 in fiscal year 2001 for the Frazier & Strathmore Creeks 
feasibility study by the Corps.
                                 ______
                                 

            Prepared Statement of the Cawelo Water District

    Mr. Chairman and Members of the Committee: the Cawelo Water 
District, North Kern Water Storage District and Semitropic Water 
Storage District request your consideration of an appropriation of 
$500,000 in the fiscal year 2001 Federal budget for the United States 
Army Corps of Engineers for the continuation of a feasibility study for 
the Poso Creek flood control project.
    The Corps of Engineers completed a reconnaissance study of Poso 
Creek in fiscal year 1999, and found that there was a Federal interest 
in proceeding to a feasibility level study. Local sponsors have been 
identified for the 50/50 cost sharing of the feasibility study.
    Poso Creek, is an uncontrolled stream that continues to devastate 
agricultural lands in Kern County, flood the community of McFarland, 
and ravage the Kern National Wildlife Refuge. Major highway arterials, 
State Route 99 and SR 43, have been closed due to Poso Creek 
floodwaters, resulting in the disruption for several days of commerce 
by time delaying detours.
    The Corps of Engineers estimate the feasibility study will cost in 
excess of $2-million and require two years for preparation. The fiscal 
year 2000 federal budget included an appropriation of $250,000 for the 
Poso Creek flood control feasibility study. For an orderly continuation 
of the flood control investigation $500,000 is needed in fiscal year 
2001 with the remainder in fiscal year 2002.
    The local sponsors urge the subcommittee's appropriation of 
$500,000 in fiscal year 2001 for continuation of the Poso Creek 
feasibility study by the Corps.
                                 ______
                                 

Prepared Statement of the County of San Bernardino Board of Supervisors

                    SANTA ANA RIVER MAINSTEM PROJECT

Project Description
    The Santa Ana River Mainstem Project includes seven interdependent 
features: Mill Creek Levee, Oak Street Drain, San Timoteo Creek, Lower 
Santa Ana River, Seven Oaks Dam, Prado Dam and Santiago Creek. Seven 
Oaks Dam, Mill Creek Levee, Oak Street Drain, San Timoteo Creek Reaches 
1, 2 and 3A and the Lower Santa Ana River Reaches 1, 2, 3, 4, 5, 6, 7 
and 10 are complete. Completion of all of the features will provide (a) 
the necessary flood protection within Orange, Riverside and San 
Bernardino Counties; (b) enhancement and preservation of marshlands and 
wetlands for endangered waterfowl, fish and wildlife species; (c) 
recreation amenities; and (d) floodplain management of the 30 miles of 
Santa Ana River between Seven Oaks Dam and Prado Dam.

San Bernardino County Features Status
    Seven Oaks Dam.--The main embankment contract was completed in 
November 1999. Some minor modifications are underway and scheduled for 
completion in August 2000.
    San Timoteo Creek.--Reach 1 construction was completed in September 
1996. Construction on Reaches 2 & 3A was completed in June 1998. 
Overall, construction is approximately 60 percent complete. A proposed 
alternative is currently undergoing NEPA/CEQA review to complete the 
remainder of the project.

Funding Required
    The required funding amount matches the President's proposed in the 
amount of $18,000,000. A total of $10,000,000 is requested for Design 
and Construction start for Prado Dam and $8,000,000 is requested to 
continue construction of the Mainstem Project on schedule, in fiscal 
year 2000/2001. Federal funding in the amount of $18,000,000 would be 
as follows:
            Lower Santa Ana River:
  --Engineering Design, Construction, Landscaping, and Sediment 
        Removal.--$8,000,000.
            Prado Dam:
  --Design and Construction start.--$10,000,000.
    Project Authorized.--Public Law 94-587, Section 109, Approved 
October 22, 1976, Public Law 99-662, Water Resources Development Act of 
1986.
    Total Project Cost.--$1.4 billion--Includes $473 million local 
share.
    President's Budget.--$18,000,000.
    Requested Action.--Approval of $18,000,000 for Santa Ana River 
Mainstem.

                           SAN TIMOTEO CREEK


Project Description
    The San Timoteo Creek is a major tributary to the Santa Ana River 
in the east San Bernardino Valley. A large watershed of approximately 
126 square miles drains into the Creek which flows through the Cities 
of Redlands, Loma Linda and San Bernardino before discharging into the 
Santa Ana River. The existing Creek, in all three Cities, was an 
earthen bottom and partially improved embankments reinforced with rail 
and wire revetments.
    Major storm flows along the Creek in 1938, 1961, 1965, 1969 and 
1978 caused considerable damage to the Creek itself as well as 
overtopping the banks and causing loss of life and severe property 
damage.
    The Energy and Water Development Appropriations Act of 1988 
authorized improvement of San Timoteo Creek as part of the Santa Ana 
River Mainstem Project. The improvements include the construction of 
approximately 5.5 miles of concrete-lined channel from the Santa Ana 
River upstream through the Cities of San Bernardino, Loma Linda and 
Redlands plus the construction of debris retention facilities at the 
upstream end of the project in the form of in-channel sediment storage 
basins.

Project Status
    Overall project construction is 60 percent complete. An alternative 
design has been developed for Reach 3B, the upstream 40 percent of the 
project, that will include the construction of approximately 0.2 mile 
of improved channel and 18 in-channel sedimentation basins. Plans for 
the final phase will be developed during the remaining 1999/2000 fiscal 
year with completion of construction anticipated in October 2002.




Completed Phases:
    Reach 1.....................  0.7 mile of Channel.............  COMPLETED........  September 1996
                                  Waterman Avenue Bridge..........  COMPLETED........  September 1996
    Reach 2.....................  1.9 miles of Channel............  COMPLETED........  October 1997
                                  Redlands Boulevard Bridge.......  COMPLETED........  March 1998
    Reach 3A....................  0.8 mile of Channel.............  COMPLETED........  June 1998
Remaining Construction and
 Schedule:
    Reach 3B:...................  0.2 mile of channel and 18        .................  .........................
                                   sedimentation basins along 2.2
                                   miles of channel.
                                  Plans and Specifications........  .................  April 1999--July 2000
                                  Right-of-Way Acquisition........  .................  May 2000--August 2000
                                  Construction Start..............  .................  September 2000
                                  Construction Completion.........  .................  October 2002


Estimated Project Cost
    The total estimated project cost is approximately $67,000,000 with 
the federal participating cost at 75 percent or $50,250,000 and the 
local participating cost at 25 percent or $16,750,000. The cost of the 
remainder of the project is estimated to be $35,000,000, with the 
Federal share at $26,250,000 and the local share at $8,750,000.
    Requested Action.--Approval of continued funding for the San 
Timoteo Creek Project.
          upper santa ana river watershed reconnaissance study
    The area will focus on the watershed of the Santa Ana River and 
tributaries located above Prado Dam, primarily in San Bernardino 
County. The study is to describe all watershed characteristics and 
uses, to define problem areas under present and future conditions and 
assist the County and local interests in developing a long-term master 
plan for watershed management in the interest of improving specific 
water resource uses including environmental preservation and 
restoration, urbanization water supply and conservation and water-
related recreation activities.
    The San Bernardino County Flood Control District supports the 
reconnaissance study for management of the Upper Santa Ana River 
Watershed.
    Requested Action.--Approval of $100,000 for Upper Santa Ana River 
Watershed.

    ORANGE COUNTY, SANTA ANA RIVER BASIN FEASIBILITY STUDY--(CHINO 
                       AGRICULTURE PRESERVE AREA)

    The Chino Dairies are located in a 30 square-mile area immediately 
north of Prado Dam reservoir, in the unincorporated portion of San 
Bernardino County. The study provides information on the following 
elements: operations of Chino Dairies, water conservation in Chino 
Groundwater Basin, flood control facilities to relieve runoff from 
upstream development in the City of Ontario, water quality concerns of 
Orange County residents and the regulatory enforcement of the Chino 
Dairies. The Chino Dairies provide 25 percent of all the milk consumed 
in California and it is a one billion dollar industry.
    The San Bernardino County Flood Control District supports the 
feasibility study to help with flood control facilities, water 
conservation and keep the dairies maintain their viability.
    Requested Action.--Approval of $100,000 for Orange County, Santa 
Ana River Basin.

                MOJAVE RIVER FORKS DAM FEASIBILITY STUDY

    The Mojave River flows north out of the San Bernardino Mountains 
into the desert communities of Victorville and Barstow. The Mojave 
River Forks Dam (Dam) is an ungated facility designed and constructed 
by the U.S. Army Corps of Engineers to alleviate flooding. Since that 
time, environmental regulations such as the Endangered Species and 
Clean Water Acts and the recent water rights adjudication have changed 
the river's usage. The study will consider factors such as the current 
water rights adjudication while facilitating balance among the River's 
competing usage and diverse interest. Alternatives include modification 
of the Dam's operation and outlet works, construction of a release 
tower and operable gates and construction of one or more off-line 
detention basins.
    The San Bernardino County Flood Control District supports this 
feasibility phase study to evaluate viable water conservation 
alternatives while optimizing the balance between environmental, flood 
control and water supply needs.
    Requested Action.--Approval of $300,000 for Mojave River Forks Dam.

                SAN BERNARDINO COUNTY FEASIBILITY STUDY

    Wilson, Potato and Wildwood Creeks originate in the San Bernardino 
Mountains and flow in a south and southwesterly direction through the 
City of Yucaipa, San Bernardino County. The study would investigate 
methods to control erosion and reduce the impacts to the downstream 
open space areas, residences and commercial areas within the watershed. 
The runoff creates a large volume of debris and sediment within the 
City of Yucaipa. Flooding along these Creeks is threatening to damage 
residential and commercial development and infrastructure facilities.
    The San Bernardino County Flood Control District is requesting this 
feasibility study to evaluate the systems and determine appropriate 
methods of protection through new facilities and management of the 
existing floodplain.
    Requested Action.--Approval of $100,000 for San Bernardino County.

                 MISSION ZANJA CREEK FEASIBILITY STUDY

    The area is located in the City of Redlands, San Bernardino County. 
The Mission Zanja Creek (Creek) project begins at about 2,000 feet east 
of Interstate 10 to the Reservoir Canyon Drain, just west of 8th 
Street. Floods of 1965, 1976 and 1980 caused about $4.3 million (1988 
price level) in damages. Frequent flooding along the Creek is caused by 
inadequate capacity of the existing inlet to the covered channel near 
9th Street. The U.S. Army Corps of Engineers study indicates that 
expansion of inlet on the Creek will result in a small increase in the 
level of protection, but will increase flooding the areas surrounding 
Reservoir Canyon Drain. Even though, this project will cause flooding 
at the downstream area, but it will be much smaller.
    The San Bernardino County Flood Control District supports the 
feasibility study to improve the inlet of Mission Zanja Creek to reduce 
flooding area.
    Requested Action.--Support of Mission Zanja Creek, fiscal year 
2000/2001.

                    SAN SEVAINE CREEK WATER PROJECT

Project Description
    The San Sevaine Creek Water Project includes ten recharge 
facilities, two miles of levees; construction of seven miles of 
drainage ways to convey runoff to the recharge facilities; six miles of 
linear parkways; and the preservation of 137 acres of sensitive 
wildlife habitat. This project will provide water conservation and 
flood protection to a drainage area of approximately 51 square miles 
within the cities of Fontana, Rancho Cucamonga and Ontario as well as 
San Bernardino and Riverside Counties. There will be an average of 
approximately 25,000 acre-feet per year of groundwater recharge from 
the San Sevaine and Etiwanda Creeks' tributaries in the project area.

Project Status
    The Loan Application was signed by the Bureau of Reclamation 
Commissioner Eluid Martinez on April 11, 1996, approved by the 
Secretary of Interior Bruce Babbitt on May 9, 1996. As of July 15, 
1996, the San Sevaine Creek Water Project completed 60-day 
congressional approval process. On December 17, 1996, the project 
Repayment Agreement was approved by the Board of Supervisors of San 
Bernardino County and approved on January 8, 1997 by Robert Johnson, 
Regional Director of the Bureau of Reclamation. The Bureau has 
indicated an eight-year construction schedule with project completion 
by the Year 2006. The Bureau is attempting to complete the funding of 
this project by the Year 2002.
    Although considerable levee, channel and interim basin work has 
already been completed at various locations of this major water 
project, continued federal assistance from this Small Reclamation 
Project Act loan and grant are required to complete the project's 
construction. Without these funds it will be decades before local 
interests can accrue sufficient funds to construct this vital water 
project. To date, the Bureau of Reclamation has provided approximately 
$16.1 million towards construction of the project.
    The California Water Commission has consistently, since the late 
1980s, supported the construction of this project.


------------------------------------------------------------------------
                                                Public Law 84-984, as
             Federal Authority                     amended in 1956
------------------------------------------------------------------------
Bureau of Reclamation--Grant Contribution.  Approximately $27.4 million.
Bureau of Reclamation--Loan Contribution..  Approximately $19.2 million.
TOTAL B of R--Project--(Not Additive).....  Approximately $52.9 million.
Total Local Contribution..................  Approximately $33.7 million.
1997/1998 fiscal year Federal Budget--(New  $1.333 million.
 Project Start).
1998/1099 fiscal year Federal Budget......  $1.177 million.
1999/2000 fiscal year Federal Budget--      $10.18 million--($3.94
 (Approved).                                 million received to date).
President's Budget fiscal year--2000/2001.  $11.21 million.

------------------------------------------------------------------------

    The District and County have coordinated with the Bureau of 
Reclamation and the National Water Resources Agency in a cooperative 
effort to obtain the continued funding for this project. The District 
and County appreciate the continuing support provided by the Bureau of 
Reclamation towards this project.
    Requested Action.--Support President's proposed fiscal year 2000/
2001 budget in the amount of $11.21 million.
                                 ______
                                 

          Prepared Statement of the Merced Irrigation District

    Mr. Chairman and Members of the Committee: My name is Ross Rogers, 
General Manager of the Merced Irrigation District. I am respectfully 
submitting this statement on behalf of the County of Merced, the City 
of Merced, and the Merced Irrigation District, which jointly form an 
informal coalition commonly known as the Merced County Streams Group 
for the purpose of performing maintenance functions along portions of 
the Merced County Streams Project. The County of Merced, together with 
the State of California, is the sponsor of the Merced County Streams 
Project. The El Nido Irrigation District and the Le Grand Athlone Water 
District are also concerned in this matter.
    Federal authorization for the project construction was granted as 
part of the Supplemental Appropriations Act of 1985. Authorized 
facilities include constructing dry dams on Canal (Castle Dam) and 
Black Rascal Creeks (Haystack Mountain Dam), enlargement of the 
existing Bear Creek Dam, and modifications of levees and channels along 
more than 25 miles of Fahrens, Black Rascal, Cottonwood, and Bear 
Creeks. The completed project will provide flood protection worth more 
than $10,000,000 per year to 263,000 acres of urban and agricultural 
lands. Total project cost is currently estimated to be $133,000,000 of 
which $40,000,000 or roughly 31 percent will be paid during 
construction by the local beneficiaries.
    When completed, more than 240,000 residents occupying 55,000 
housing units within the greater metropolitan Merced area will live 
with assurance of 125-year flood protection, while the lower rural area 
will receive 25-year protection.
    The first component of the project, Castle Dam, was completed in 
1992. This component was constructed under budget, ahead of schedule, 
and without a lost-time accident. Without Castle Dam during the intense 
storms of January, February, March 1995, January 1997 and January, 
February, March, 1998, the city of Merced would have been partially 
inundated.
    As a result of a request by the County of Merced, the Corps of 
Engineers has reevaluated project components and will extend the 
boundaries of the levee and channel portion of the project to better 
match growth that has taken place in the city of Merced. This 
willingness to remain flexible throughout the lengthy planning and 
design process is also a credit to the Corps and its staff.
    The Merced County Streams Project is a modification and expansion 
of an earlier flood project constructed between 1948 and 1957. It has 
undergone considerable review and modification since first authorized 
as part of the Flood Control Act of 1970. Approximately $18,500,000 has 
been spent to date on the Merced County Streams Project. This has been 
matched with local contributions of approximately $3,000,000. As 
partners in the construction of this project, the local agency sponsors 
have worked closely with the Corps to establish an economic balance 
between costs and benefits. As a result of this combined effort, 
nonessential project components were first scaled back and eventually 
eliminated. This scaling to fit the economic reality resulted in 
substantial federal and local savings.
    On January 15, February 3 and March 25, 1998, due to El Nino-driven 
storms, Bear Creek overtopped its banks in several locations within and 
downstream of the city of Merced, flooding 33 homes, county, city and 
Merced Irrigation District infrastructure, and thousands of acres of 
prime agricultural land, with total damages in the millions of dollars. 
The U. S. Army Corps of Engineers, with input from the National Weather 
Service, estimates that the January 15th and March 25th events were 
both 1-in-100 year events, unprecedented for the area. The greatest 
storm intensity in both storms centered in northeastern Merced County 
in and around the watershed of Black Rascal Creek, tributary to Bear 
Creek, upstream of the Merced County Streams Project's proposed 
Haystack Mountain Dam site. According to Corps of Engineer's rating 
tables for the Black Rascal Creek Bypass gaging station, January flows 
reached 4,300 cubic feet per second (cfs) in a channel with a rated 
maximum capacity of 3,000 cfs, 143 percent of channel capacity. March 
flows exceeded 4,700 cfs, or 157 percent of channel capacity. Had the 
Merced County Streams Project's Haystack Mountain Dam been in place, no 
flooding would have occurred along Bear Creek during the January, 
February or March events.
    Due primarily to the New Years, 1997 devastating California flood, 
the U. S. Congress and the California legislature authorized a four 
year study, identified as: ``Sacramento and San Joaquin River Basins 
Comprehensive Study.'' The study was authorized under the Flood Control 
Act of 1962 (Sacramento River) and the 1964 Congressional Resolution 
(San Joaquin River). According to a brochure distributed by The 
Reclamation Board of the State of California and the U. S. Army Corps 
of Engineers, Sacramento District, the study:

          ``. . . will initially identify problems, opportunities, 
        planning objectives, constraints, and measures to address 
        flooding and ecosystem problems in the study area. It will 
        ultimately develop a strategy for flood damage reduction and 
        integrated ecosystem restoration along with identification of 
        projects for early implementation. Solutions will include 
        consideration of both structural and non-structural measures . 
        . .''

    According to the study timeline, in April, 1999, an interim report 
was presented to Congress. In 2001, a Draft Strategy for Flood 
Management and Related Environmental Restoration will be completed. By 
the Spring of 2002, the final Strategy and EIS/EIR, including an 
implementation plan will be completed.
    There is great concern on the part of the City of Merced, County of 
Merced and the Merced Irrigation District officials that the Merced 
County Streams Project will be ``swallowed up'' by the Comprehensive 
Study, becoming one of many new flood control projects that have not 
yet received Congressional authorization. The Merced County Streams 
Project has been authorized by Congress. This important and urgent 
Project must not lose its priority for Congressional funding or be 
further delayed while the Comprehensive Study is undertaken.
    The project has the support of state and local authorities and 
funding of the non-federal portion has been addressed.
    We request the Committee's support for the inclusion of $500,000 in 
the fiscal year 2001 budget, as recommended by the California Water 
Commission and the Corps of Engineers, for the orderly progress of the 
Merced County Streams Project, which is so vital to the community, 
state, and the nation.
                                 ______
                                 

            Prepared Statement of the Tule River Association

    Mr. Chairman and Members of the Committee: The Tule River 
Association, an association of all the water rights holders at and 
below Success Reservoir, request your consideration of an appropriation 
of $425,000 in the fiscal year 2001 Federal budget for the United 
States Army Corps of Engineers for completion of the preconstruction 
engineering and design (PED) for the Tule River Success Reservoir 
Enlargement Project. Initial funding for PED was authorized by the 
congress in fiscal year 2000.
    The Success Reservoir Enlargement Project would increase the 
reservoir storage capacity 28,000 a.f. by raising the spillway 10 feet 
and by widening the existing spillway 165 feet. The additional flood 
control storage space improves the protection for the City of 
Porterville and downstream highly developed agricultural lands from a 
return period flood event occurring once in 47 years to once in 100 
years.
    The Success Reservoir Enlargement Project was conditionally 
authorized by the Water Resources Development Act of 1999. The 
authorization was subject to the conditions recommended in a favorable 
final report by the Chief of the Army Corps of Engineers which occurred 
December 23, 1999, copy attached for reference.
    The design of the Success Reservoir Enlargement Project will 
commence upon the execution of a cost sharing agreement between the U. 
S. Army Corps of Engineers, the State of California and the Tule River 
Association. Construction of the Success Reservoir Enlargement Project 
is scheduled to commence in fiscal year 2002 with completion in fiscal 
year 2003 subject to appropriations by the Congress.
    The Tule River Association urges the continued support of your 
committee with an appropriation of $425,000 in fiscal year 2001 for 
completion of PED by the Corps for the Success Reservoir Enlargement 
Project.
    Thank you for your consideration.
                                 ______
                                 

             Prepared Statement of Butte County, California

          NUISANCE FLOODING AT THE 3B'S FLOOD RELIEF STRUCTURE

    The U.S. Army Corps of Engineers has determined the above 
referenced nuisance (low flow) flooding problem may qualify for a 
Reconnaissance Investigation Report under Section 205. This nuisance 
flooding severely impacts agriculture, infrastructure, interstate 
commerce and economics within the Butte Basin, consisting of three 
Counties in California. The economic and interstate commerce impacts 
adversely affect areas throughout the United States.
    The primary goal of the project is to provide a permanent overflow 
facility that will allow flood flows from the Sacramento River to be 
diverted to area where the least amount of damages will occur while 
providing protection to those same areas to prevent flows which are 
below flood stage from entering the Butte Basin.
    At this time we are asking The Honorable Members of the United 
States Senate to support Federal Funding for the U. S. Army Corps of 
Engineers to proceed with a Reconnaissance Investigation for this 
critical flood control project in fiscal year 2000/2001.

          CHEROKEE CANAL AQUATIC ECOSYSTEM RESTORATION PROJECT

    The U.S. Army Corps of Engineers has completed a Reconnaissance 
Investigation for aquatic ecosystem restoration on a flood control 
project previously constructed under their direction.
    The primary goal of the restoration is to create an aquatic 
ecosystem restoration project that can be operated and maintained, 
within the existing flood control project, in compliance with all 
environmental regulations. Besides aquatic ecosystem restoration, 
reduced sediment removal in the existing flood control project may be 
associated with the Section 1135 project. Reductions of sediment load 
in Cherokee Canal could substantially improve flood control operations 
and reduce maintenance costs.
    At this time we are asking the Honorable Members of the United 
States Senate to support Federal Funding for the U. S. Army Corps of 
Engineers to proceed with an Ecosystem Restoration Report, under 
Section 1135 for this critical project in fiscal year 2000/2001.

             ROCK CREEK-KEEFER SLOUGH FLOOD CONTROL PROJECT

    Butte County in cooperation with the California Reclamation Board 
and U.S. Army Corps of Engineers (Corps) is currently in the 
Feasibility Study Phase of the project review with several important 
milestones to occur in the near future. In March the Corps is expected 
to provide 5 project construction alternatives for review and 
discussion by the Working Group. When the components of the 
alternatives have been agreed upon they will be subject to an 
Environmental Review through the California Environmental Quality Act 
(CEQA) and National Environmental Policy Act (NEPA) processes.
    In May we expect development of the NED Plan (National Economic 
Development Plan) to start. M-CACES (Micro-Computer Aided Cost Estimate 
System) of this plan is planned for October with the establishment of 
projected project construction cost by November 1, 2000.
    Our goal is to have the project properly reviewed, designed and 
constructed in the shortest possible time. This does not mean we want 
to cut any corners or bend any rules. It means we do not want to miss 
any deadlines or waste any time waiting for something to start which 
should have already been completed, including project budgeting.
    At this time we are asking The Honorable Members of the United 
States Senate to support Federal Funding for the U.S. Army Corps of 
Engineers to proceed with the Preliminary Engineering Design (PED), in 
fiscal year 2000/2001 for construction of this critical Flood Control 
Project in their fiscal year 2000 recommended flood control projects.
                                 ______
                                 

               Prepared Statement of the City of Stockton

    Mr. Chairman and Members of the Committee: The City of Stockton 
supports the following Corps of Engineers and Bureau of Reclamation 
water, flood control and fishery projects:

Water Commission Recommendation

                           [Fiscal year 2001]

        Project                                           Recommendation
U.S. ARMY CORPS OF ENGINEERS:
    Sacramento and San Joaquin Rivers Comprehensive 
      Study.............................................      $1,500,000
    Sacramento San Joaquin Delta Investigation..........         300,000
    San Joaquin River Basin, Corral Hollow Creek........          65,000
    San Joaquin River Basin-Stockton Metropolitan Area 
      (Section 211).....................................         180,000
    San Joaquin River Basin-Farmington Groundwater 
      Recharge & Wetland Restoration Project............         150,000
    Port of Stockton and San Joaquin River Channel......         ( \1\ )
    San Joaquin River Basin-Consumnes and Mokelumne 
      Rivers............................................         150,000
    San Joaquin River Basin-Farmington Groundwater 
      Recharge & Wetland Restoration Project 
      (preconstruction and engineering studies).........       1,050,000
    Water Resources Dev. Act, 1986, Improvement of 
      Environment Program, Mormon Channel...............         300,000
BUREAU OF RECLAMATION:
    South Delta Barriers................................          92,000
    Water Acquisition-VAMP..............................       1,500,000
The following project is recommended with conditional 
    support:
    BUREAU OF RECLAMATION: Bay-Delta Ecosystem 
      Restoration (CALFED)..............................      60,000,000

\1\ New Corps project.
---------------------------------------------------------------------------

                        U.S. CORPS OF ENGINEERS

Sacramento & San Joaquin Rivers Comprehensive Study--$1,500,000
    The San Joaquin River Comprehensive Study is an ongoing $26.5 
million study of the water resources needs of the San Joaquin and 
Sacramento Rivers. Flood control and environmental needs will receive 
equal consideration. We expect setback levees and reoperation of 
existing reservoirs will receive a careful review in this Study. A 
status report to Congress was released this last year, outlining $16 to 
$20 million in studies to be performed. The President approved $3.58 
million for fiscal year 2000 and $1.5 million for fiscal year 2001. At 
this time, the exact allocation between each of the river basins is 
unclear, although 50-50 seems likely. The State is the cost-sharing 
partner in these studies.

Sacramento-San Joaquin Delta Investigation--$300,000
    This is a special study and a regional planning report which 
addresses multiple resource needs, including flood control, recreation, 
environmental restoration, navigation, water supply, etc. The 
California Department of Water Resources is the cost-sharing partner 
with the CALFED process. To date, field tests of levee-strengthening 
methods have been pursued and the study provides input to the CALFED 
process. The President's budget for this investigation for fiscal year 
2001 is $300,000.

San Joaquin River Basin, Corral Hollow Creek--$65,000
    This is a new project investigating flood control improvements to 
protect adjacent lands in the southern portion of the County and the 
nearby Deuel Vocational Institute correctional facility. The 
President's budget for this investigation for fiscal year 2001 is 
$65,000.

San Joaquin River Basin-Stockton Metropolitan Area, Section 211--
        $180,000
    Before federal dollars can be appropriated to reimburse the local 
agency (up to 75 percent reimbursement), a Section 211 Report must be 
completed and approved by the Secretary of the Army. The 211 Report was 
completed at the Sacramento office of the United States Army Corps of 
Engineers (Corps) in late 1999 justifying a reimbursement of as much as 
$38 million. This same report was forwarded to the Corps' office in 
Washington, D.C. for final review and approval. The President's 2001 
budget of $180,000 is adequate to compete the required 211 report and 
begin the feasibility report addressing rural flood control 
Improvements. However, the Corps and the Federal Committee on 
Appropriations should allocate $10 million for fiscal year 2001 as a 
start for new construction in anticipation that the reimbursement will 
be approved during the current fiscal year 2000. The California Water 
Commission will be requested to recommend an increase in funding in the 
amount of $10 million as a start for new construction.

San Joaquin River Basin-Farmington Groundwater Recharge & Wetland 
        Restoration Project--$150,000
    The study costs for this investigation will determine if a federal 
interest may exist for utilizing Farmington Dam for multiple purposes 
inclusive of flood control, groundwater recharge, and environmental 
enhancement. The President has included $100,000 in his fiscal year 
2001 budget for completing this feasibility study; all federal funds 
must be matched by local funds. The sponsor for this study is Stockton 
East Water District , the City of Stockton and other east side water 
purveyors of San Joaquin County. An additional $150,000 has been 
budgeted for fiscal year 2001 to start the preconstruction and 
engineering work.

San Joaquin Rivers--Cosumnes and Mokelumne Rivers--$150,000
    A reconnaissance study of ecological restoration and non-structural 
flood control improvements is being performed on the Mokelumne and 
Cosumnes Rivers. The current fiscal year 2000 funding is $50,000, and 
the President's fiscal year 2001 budget is $150,000. Separate studies 
and reports are continuing for the Cosumnes River (between the Delta 
and Michigan Bar) and the Mokelumne River (between the Delta and 
Camanche Reservoir). The East Bay Municipal Utility District and 
Woodbridge Irrigation District are the local sponsors working with the 
United States Army Corps of Engineers on the Mokelumne River 
investigations.

Port of Stockton and San Joaquin River Channel--New Corps Project
    This is a new feasibility study which is being performed for 
dredging and deepening the San Joaquin River channel, through the Delta 
to the Port of Stockton, to depths greater than 35 feet. Greater depths 
will enhance navigation through the Delta to and from the Port. No 
federal budget has been proposed; and as of February 9, 2000, this 
project was not included on the California Water Commission's project 
listing.

San Joaquin River Basin-Farmington Groundwater Recharge & Wetland 
        Restoration Project (Preconstruction and Engineering Studies)--
        $1,050,000
    These are the preconstruction and engineering studies to be 
performed during fiscal year 2001. These studies and preliminary plans 
for fiscal year 2001 have been budgeted for $150,000. It is anticipated 
that additional funds will be needed in future years if a project 
proves to be feasible. At this point, it is too early to define a 
project or anticipate needed funding.

Water Resources Development Act, 1986, Improvement of Environment 
        Program, Mormon Channel--$300,000
    This is a new project that is being investigated to turn water back 
into the lower reaches of Mormon Slough below the Stockton Diverting 
Canal. This project was not funded in fiscal year 2000, nor is any 
funding allocated for fiscal year 2001. The City of Stockton and the 
San Joaquin Area Flood Control Agency are the local sponsors working 
with the United States Army Corps of Engineers in overseeing the 
investigation and feasibility study on this project.

                         BUREAU OF RECLAMATION

South Delta Barriers--$92,000
    The project provides temporary barriers in the south Delta to 
improve water quality in the lower San Joaquin River. The fiscal year 
2000 budget included funding for $20,000 and the President's fiscal 
year 2001 budget includes funding for $92,000.

Water Acquisition-VAMP--$1,500,000
    This project provides funds for the purchase of water to meet water 
quality and flow goals in the Delta (April-May and October). VAMP flows 
could reduce San Joaquin river flows in summer months. In fiscal year 
1999, VAMP was funded at $2 million; in fiscal year 2000 it was not 
funded, but $1.5 million is recommended for fiscal year 2001.
    The City of Stockton conditionally supports the following project:

                         BUREAU OF RECLAMATION

Bay-Delta Ecosystem Restoration--CALFED--$60,000,000
    Current fiscal year 2000 funding is for $95 million and the 
President's fiscal year 2001 budget has included $60 million. Funds for 
this program have been used primarily for acquisition of lands and 
development of the habitat and improvements for fishery enhancement or 
protection. Although the City of Stockton appreciates CALFED's 
assistance with Woodbridge Irrigation District's efforts to enhance the 
Mokelumne River and with other potential conjunctive use projects such 
as the Farmington Recharge project, the City is concerned that the 
overall CALFED program is overlooking the need for surface water and 
groundwater supply requirements within the County of San Joaquin and 
the relationship these projects bear to Bay-Delta ecosystem 
restoration. The CALFED program does not recognize area of origin 
protections; and CALFED has not developed water quality improvement 
objectives for San Joaquin County water supplies. CALFED has not 
provided documentation or explanation of the benefits that will be 
derived from the expenditure of funds, particularly to displace 
agricultural lands. The City of Stockton cannot be fully supportive of 
the CALFED program until these discrepancies are corrected.

                         STOCKTON CITY COUNCIL

    WHEREAS, the California Water Commission has developed preliminary 
recommendations to Congress for funding of water, flood control, and 
fishery projects for fiscal year 2001; and
    WHEREAS, the Commission is scheduled to meet in Sacramento on March 
3, 2000, to adopt final funding recommendations; and
    WHEREAS, each year the Congressional committees consider funding 
for flood control and reclamation appropriation; and
    WHEREAS, the projects that staff suggest that Council support this 
year may affect flood control or represent potential surface water 
supplies for the Stockton area, or are projects which affect our 
environment; now, therefore
    BE IT RESOLVED BY THE COUNCIL OF THE CITY OF STOCKTON, AS FOLLOWS:
    1. That the City of Stockton supports the recommendations of the 
County Board of Supervisors to Congress for federal funding of water, 
flood control, and fishery projects for fiscal year 2001.
    2. That corresponding statements be forwarded to the City's federal 
legislators and to the Congressional Subcommittees on Energy and Water 
Development.
    PASSED, APPROVED, and ADOPTED FEB. 29, 2000.
                                           Gary A. Podesto,
                                     Mayor of the City of Stockton.
                                 ______
                                 

Prepared Statement of the Los Angeles County Department of Public Works

    We strongly support the California Water Commission's 
recommendation to the Committee for $9.821 million to fund the 
completion of the Los Angeles County Drainage Area (LACDA) project.
    Mr. Chairman and Members of the Committee: We appreciate your 
Committee's continued support of critical flood control and water 
conservation projects in Los Angeles County, California.

                               BACKGROUND

    Floods are a part of the history of the Los Angeles area. 
Widespread floods have periodically devastated vast areas of the region 
and were responsible for taking lives, damaging property and 
interrupting commerce and trade.
    The U.S. Army Corps of Engineers and County of Los Angeles, acting 
on behalf of the Los Angeles County Flood Control District, have built 
one of the most extensive flood control systems in the world. 
Construction of the major elements of the system began in the 1920s and 
consisted of 20 major dams, 470 miles of open channels, and many other 
appurtenant facilities. Fifteen of these major dams are owned and/or 
operated by the County while the remaining five dams (Hansen, Lopez, 
Santa Fe, Sepulveda and Whittier-Narrows), are owned and operated by 
the Corps. Since the major segments were completed, it is estimated 
that the system has prevented $3.6 billion in potential flood damage.
    Development which occurred after World War II exceeded the 
projections the Corps used in the 1930s and has increased runoff to the 
point where, even in a moderate storm, the runoff could exceed the 
design capacity of portions of the system. For example, the lower Los 
Angeles River in the City of Long Beach came close to overtopping in 
1980 from a 25-year flood. A storm of greater magnitude would have a 
tremendous impact, both personal and economic, on Los Angeles County, 
the nation's second largest metropolitan area.
    At the request of the County of Los Angeles, the Corps analyzed the 
adequacy of the existing major flood control facilities serving the Los 
Angeles basin in the LACDA Review study. In 1990, a project to upsize a 
portion of the LACDA system received Congressional approval subject to 
a favorable report by the Chief of Engineers (received in 1995), and 
signature of the Record of Decision by the Secretary of the Army, which 
was obtained in July 1995. The final report by the Corps identified 
100-year flood damages totaling $2.25 billion covering an 82-square-
mile area which houses over 500,000 people. These damages would occur 
in the heavily-urbanized Los Angeles basin, where adequate protection 
from a 100-year flood was previously provided.
    The LACDA project is a critical modification to existing 
facilities. Obtaining funds to do the modification is critical for two 
reasons:
    1. The threat of flooding to over one-half million people.
    2. The large economic impact FEMA's final Flood Insurance Rate Maps 
(FIRMs) have on the overflow area that became effective July 6, 1998.
    Until the project is completed, any delay in construction will 
cause great financial hardship on thousands of people, who thought the 
existing river provided adequate protection and now need to buy flood 
insurance (an impact of $33 million annually).
    This project, currently estimated to cost approximately $200 
million, is scheduled to be completed by December 2001, pending 
adequate funding. The following table shows the history of federal 
funding for the project:

                        [In millions of dollars]
------------------------------------------------------------------------
                                        Federal   Expenditure of federal
         Federal fiscal year            funding           funding
------------------------------------------------------------------------
1994-1995...........................         0.5  Initiation of first
                                                   construction contract
                                                   awarded in September
                                                   1995.
1995-1996...........................        11.3  Continuation of first
                                                   contract and
                                                   initiation of two
                                                   contracts awarded in
                                                   August and September
                                                   of 1996.
1996-1997...........................        14.4  Completion of first
                                                   three contracts.
1997-1998...........................        20.7  Initiation of four
                                                   contracts awarded in
                                                   February, May and
                                                   September 1998.
1998-1999...........................        50.0  Completion of contract
                                                   awarded in May 1998;
                                                   Continuation of
                                                   contracts awarded in
                                                   February and
                                                   September 1998; and
                                                   Initiation of three
                                                   contracts awarded in
                                                   December 1998 and
                                                   August 1999.
1999-2000...........................        50.0  Completion of
                                                   contracts awarded in
                                                   February, September
                                                   and December 1998,
                                                   and August 1999; and
                                                   Continuation of other
                                                   contracts awarded in
                                                   September 1998 and
                                                   August 1999.

------------------------------------------------------------------------

    The final seven construction contracts will be ready for 
advertising later this fiscal year allowing the entire project to be 
completed by the end of 2001.
    In light of the serious flood threat and the devastating financial 
impacts of the mandatory flood insurance premiums, it is critical to 
maintain the level of construction activity at $9.821 million this 
upcoming fiscal year. As a result, we strongly support the California 
Water Commission's recommendation for $9.821 million of Federal funds 
to complete the LACDA Project.
                                 ______
                                 

    Prepared Statement of the San Joaquin Area Flood Control Agency

    Mr. Chairman and Members of the Subcommittee: The San Joaquin Area 
Flood Control Agency (SJAFCA) completed construction of the Stockton 
Metropolitan Area, Phase I--Urban Portion of the Flood Protection 
Restoration Project (FPRP) in November 1998. The FPRP restored the 100-
year level flood protection the community enjoyed prior to a FEMA 
restudy and publication of draft Flood Insurance Rate Maps (FIRMs). The 
draft FIRMs indicated FEMA's intent to remap a vast new floodplain in 
both the City of Stockton and adjoining portions of San Joaquin County. 
New FIRMs reflecting the new 100-year flood plains after construction 
of Phase I--Urban Portion are expected from FEMA this year.
    The FPRP was split into two phases. Phase I--Urban Portion was 
planned, designed and constructed by SJAFCA. Phase II--Rural Portion 
has been preliminarily studied by SJAFCA in 1995 and studied as part of 
a Federal Corps of Engineers (COE) Reconnaissance study of the Stockton 
Metropolitan Area covering both the Urban and Rural Portions. The COE 
Reconnaissance Study was completed in 1997 and found that there was a 
Federal interest in both the Urban and Rural Portions. The COE is about 
to complete a Section 211 Study of the completed Phase I--Urban Portion 
to establish the eligible Federal reimbursement as specified in WRDA 
1996, Section 211. The SJAFCA project was one of eight specific 
demonstration projects named throughout the nation and will be the 
first such project to be completed from the beginning to end by a local 
entity. The COE is also currently beginning a Feasibility Study for the 
Phase II--Rural Portion of the SJAFCA project. However, there is no 
current budget for the Corps of Engineers to begin any Section 211 
reimbursements to SJAFCA for the Phase I completed project as specified 
in Section 211 of WRDA 1996 and 1999.
    SJAFCA has already received a $12,625,000 reimbursement from the 
State of California. This represents the estimated State's share of the 
local share of a normal Federal project for Phase I--Urban Portion of 
the FPRP. We are now requesting that money be added to the Federal 
budget in fiscal year 2001 to allow at least the start of the Federal 
reimbursement for the customary Federal share of the Phase I--Urban 
Portion of the project.
    Under the provisions of Section 211 of WRDA 1996 and 1999, SJAFCA 
and the COE are finalizing a Section 211 Report, which will document 
that the Phase I--Urban Project meets Federal standards and the amount 
of the project costs that will be eligible for reimbursement by the 
COE. We expect this report to be completed by the Sacramento District 
in March 2000 and forwarded to the Secretary of the Army for his 
approval. However, the ability to receive any Federal refund requires 
an appropriation in the Federal budget.
    We are endeavoring to include the necessary funds in the fiscal 
year 2001 COE budget in the anticipation of the Secretary of the Army's 
approval in early 2000 so we can realize the benefit of Federal 
reimbursement as quickly as possible. Accordingly, we understand it is 
necessary to obtain a line item for a ``New Project--Construction 
Start'' authority in the fiscal year 2001 construction portion of the 
budget for the COE. The total reimbursement, which is recommended for 
approval is $38 million. However, we understand that the Congress 
enacted legislation, which would limit the reimbursement to $10 million 
per year for each 211 project in the COE budgeting process. We also 
understand that there is an additional constraint to the total 
nationwide maximum amount of COE 211 reimbursements. Accordingly, we 
now anticipate that we would at best receive $10 million in fiscal year 
2001, 02 and 03 and the balance in fiscal year 2004.
    At this time, SJAFCA is requesting that funding of $10 million be 
provided under the COE Construction General account in the fiscal year 
2001 budget for the Stockton Metropolitan Area, Section 211 
reimbursement. The importance of obtaining the fiscal year 2001 
``construction start'' is crucial to reduce the bond interest charges 
that local property owners incur to repay bond debt and interest. The 
bond interest is approximately $2.5 million per year and the total debt 
repayment amount is about $4 million per year. It should be noted that 
Section 211 of WRDA 1996 and 1999 does not allow Federal reimbursement 
of interest costs.
    SJAFCA has been able to design and construct a $70 million project 
in just 3\1/2\ years. SJAFCA also believes those local jurisdictions 
that do accomplish local flood control projects which are shown to have 
a Federal interest should be rewarded promptly and receive a high 
priority in the Federal budgeting process.
                                 ______
                                 

  Prepared Statement of the County of San Joaquin and the San Joaquin 
          County Flood Control and Water Conservation District

    San Joaquin County, located in the heart of California's central 
valley, has both a vibrant agricultural economic base and a burgeoning 
metropolitan growth. Both of these vital elements are vulnerable to the 
forces of nature. The 1997 flood inundated thousands of acres and 
threatened our major urban areas. The actual economic loss to the 
County in 1997 was staggering ($100+ million) and the potential loss 
due to flooding construction continues to be enormous. The San Joaquin 
Area Flood Control Agency (SJAFCA) has been formed and has constructed 
a $70 million flood control project with local funds to restore the 
Stockton Metropolitan Area to a 100-year level of flood protection. We 
have aggressively moved ahead with this work to protect our people in 
anticipation that a credit for our work would be forthcoming against a 
Corps developed project. We are anxiously waiting for the Corps to 
obtain funds to pay for the federal interest in this project.
    At the other extreme of the weather spectrum, San Joaquin is very 
vulnerable to drought-induced water shortages. Due to the export of our 
water by East Bay Municipal Utility District to the Oakland area and by 
the Bureau of Reclamation to the CVP, San Joaquin County is deficient 
of an adequate water supply in quantity and quality. Our ground water 
levels dramatically drop during a less than average water year. During 
these drops, the threat of salt water intrusion in our groundwater 
basin from the Delta is a major concern. We need to have the Corps 
complete the feasability study of the Farmington Groundwater Recharge 
and Wetland Restoration Project in order to increase the yield of the 
severely limited Stanislaus River supply, and we need to have Delta 
water quality protected by implementation of the United States Corps of 
Engineers and the United States Bureau of Reclamation delta projects.
    As you can see, we are willing to invest in our future and we will 
continue to do so. The timely funding of these important studies is 
crucial to the economic well being of San Joaquin County. These 
projects represent studies that need to be conducted in order to 
resolve problems on flood control, water supply, water quality, 
groundwater and the environment in San Joaquin County. We need Federal 
help in several of these projects and we request Federal appropriations 
during fiscal year 2001 for the following Corps of Engineers and Bureau 
of Reclamation projects:

                      U.S. ARMY CORPS OF ENGINEERS

    Sacramento and San Joaquin Rivers Comprehensive Study--$1,500,000
    Sacramento and San Joaquin Delta Investigations--$300,000
    San Joaquin River Basin Corral Hollow Creek--$965,000
    San Joaquin River Basin Stockton Metropolitan Area (Section 211)--
$10,180,000
  --Reimbursement Study--($180,000)
  --First Year of $38 Million Reimbursement--($10,000,000)
    San Joaquin River Basin Farmington Groundwater Recharge and Wetland 
Restoration Project--$400,000
  --Feasibility Study--($100,000)
  --Pre-Construction Engineering and Design--($150,000)
  --Start of New Construction--Phase 1--($150,000)
    San Joaquin River Basin Cosumnes and Mokelumne Rivers--$150,000
                         bureau of reclamation
    South Delta Barriers--$92,000
    Bay-Delta Ecosystem Restoration--CALFED--$60,000,000
                           detailed comments

                      U.S. ARMY CORPS OF ENGINEERS

Sacramento and San Joaquin Rivers Comprehensive Study--$1,500,000
    The San Joaquin River Comprehensive Study is an ongoing $26.5 
million study of the water resources needs of the San Joaquin and 
Sacramento Rivers. Flood control and environmental needs will receive 
equal consideration. We expect setback levees and reoperation of 
existing reservoirs will receive careful review in this Study. The 
Phase 1 Comprehensive Study Interim Report to Congress was released 
this last spring, outlining $16 to $20 million in studies to be 
performed. The interim report developed the formulation of new master 
plans for flood control systems which incorporate ecosystem 
restoration. The report also provided a complete post flood assessment 
for the floods of 1983, 1986, 1995, and 1997. Hydrologic models and 
hydraulic UNET models will be developed during the current Phase 2 
studies. An EIR /EIS will be published in 2002. The President approved 
$3.58 million for fiscal year 2000 and $1.5 million is proposed for 
fiscal year 2001. At this time, the exact allocation between each of 
the river basins is unclear, although 50-50 seems likely. The State is 
the cost-sharing partner in these Studies.

Sacramento and San Joaquin Delta Investigations--$300,000
    This is a special study and a regional planning report which 
addresses multiple resource needs, including flood control, recreation, 
environmental restoration, navigation, water supply, etc. The 
California Department of Water Resources is the cost-sharing partner 
with the CALFED process. To date, field tests of levee-strengthening 
methods have been pursued and the study provides input to the CALFED 
process. The President's for this investigation is $300,000
San Joaquin River Basin Corral Hollow Creek--$65,000
    This is a new project investigating flood control improvements to 
protect adjacent lands in the southern portion of the County and the 
nearby Deuel Vocational correctional facility. The President's Budget 
for this investigation for fiscal year 2001 is $65,000.

San Joaquin River Basin Stockton Metropolitan Area (Section 211)--
        $10,180,000
    Before Federal dollars can be appropriated to reimburse the local 
agency (up to 75 percent reimbursement), a Section 211 Report must be 
completed and approved by the Secretary of the Army. The 211 Report was 
completed at the Sacramento office of the United States Army Corps of 
Engineers (Corps) in late 1999 justifying a reimbursement of as much as 
$38 million. This same report was forwarded to the Corps' office in 
Washington, D.C. for final review and approval. The President's 2001 
budget of $180,000 is adequate to complete the required 211 Report and 
begin the feasibility report addressing rural flood control 
improvements. However, the Corps and the Federal Committee of 
Appropriations should allocate $10 million of the $38 million for 
fiscal year 2001, as a start of new construction in anticipation that 
reimbursement will be approved during fiscal year 2001. Thus, a total 
funding of $10,180,000 is requested for fiscal year 2001.

San Joaquin River Basin Farmington Recharge and Wetland Restoration 
        Project--$400,000
    The Study costs for continued investigations will determine if a 
Federal interest may exist for utilizing Farmington Dam for multiple 
purposes inclusive of flood control, groundwater recharge, and 
environmental enhancement. The President has included $100,000 in his 
fiscal year 2001 budget for completing this feasibility study. All 
Federal funds will be matched by the local sponsor, Stockton East Water 
District and other eastside water purveyors of San Joaquin County. Pre-
construction Engineering and Design Plans for fiscal year 2001 have 
been budgeted for $150,000. It is anticipated that an additional 
$150,000 is also needed above the budgeted amount to continue with the 
studies and designs before commencing with an early pilot (Phase 1) 
portion of the anticipated project. The total project funds need to 
further all three phases of the project during fiscal year 2001 is 
$400,000.

San Joaquin River Basin Cosumnes and Mokelumne Rivers--$150,000
    A reconnaissance study of ecological restoration and non-structural 
flood control improvements is being performed on the Mokelumne and 
Cosumnes Rivers. The current fiscal year 2000 funding is $50,000 and 
the President's fiscal year 2001 budget is $150,000. Separate studies 
and reports are continuing for the Cosumnes River (between the Delta 
and Michigan Bar) and the Mokelumne River (between the Delta and 
Camanche Reservoir). The East Bay Municipal Utilities District and 
Woodbridge Irrigation District are the local sponsors working with the 
United States Corps of Engineers on the Mokelumne River investigations. 
The Nature Conservancy is the local sponsoring agency with interests on 
the Cosumnes River.

                         BUREAU OF RECLAMATION

South Delta Barriers--$92,000
    The project provides temporary barriers in the south Delta to 
improve water quality. The fiscal year 2000 budget included funding for 
$20,000, and the President's fiscal year 2001 Budget includes funding 
for $92,000.
    The following project is recommended with conditional support:

Bay-Delta Ecosystem Restoration--CALFED--$60,000,000
    Current fiscal year funding is for $95 million and the President's 
fiscal year 2001 Budget has included $60 million. Funds for this 
program have been used primarily for acquisition of lands, development 
of habitat, and fishery enhancement/protection improvements. Although 
the County supports CALFED's assistance with Woodbridge Irrigation 
District's efforts of enhancing the Mokelumne River and other potential 
conjunctive use projects such as the Farmington project, the County is 
concerned that the overall CALFED program is overlooking the need for 
surface water and groundwater supply requirements within the County of 
San Joaquin. The CALFED program does not recognize county area of 
origin protections; and there are no water quality improvement 
objectives to improve the water quality of San Joaquin County water 
supplies. There is no documentation of the benefits that will be 
derived from the expenditure of funds, particularly to displace 
agricultural lands.
                                 ______
                                 

              DEPARTMENT OF ENERGY PROGRAMS AND ACTIVITIES

              Prepared Statement of Ohio State University

    Mr. Chairman, members of the subcommittee: As Chair of Board on 
Agriculture Budget Committee of the National Association of State 
Universities and Land Grant Colleges (NASULGC), I appreciate the 
opportunity to discuss the importance of inter-agency partnerships 
research in energy, environmental and natural resource programs.
    The Board on Agriculture represents a national network of Land-
Grant University-based nonprofit State Agricultural Experiment Stations 
(SAES) and State Cooperative Extension Services (CES). The Land Grant 
University system (LGU) and the Cooperative State Research, Education, 
and Extension Service (CSREES) have had a thriving partnership of many 
years, providing the technology which has made American agriculture the 
most productive and efficient in the world. Our universities are 
committed to advancing scientifically based decision making at the 
local level by capitalizing on the Land-Grant University comparative 
assets in research, education, and extension. From the Land Grant 
University program base, the Fund for Future Agriculture and Food 
Systems has bio-based technologies as a key goal. This grant program 
provides a mechanism to generate competitively awarded research, 
extension and education (technology transfer). However, this is not 
enough. Partnerships with the Department of Energy and others need to 
be created for bio-energy research to thrive.
    President Clinton's recently announced bipartisan bio-energy and 
bio-products tax incentives proposal is a crucial step for the 
advancement of these technologies. As you know, the President's fiscal 
year 2001 budget includes $976 million in tax incentives over 5 years 
and $2.1 billion over ten years to accelerate the development and use 
of bio-based technologies, which convert crops, trees, and other ``bio-
mass'' into a vast array of fuels and products. These tax credits 
support the August 1999 Executive Order 13134 and Memorandum on 
Promoting Bio-based Products and Bio-energy, aimed at tripling U.S. use 
of bio-based products and bio-energy by 2010. This initiative will 
increase the viability of alternative energy sources, help meet 
environmental challenges like global warming, support farm incomes, and 
diversify and strengthen the rural economy.
    I wholeheartedly endorse these targeted tax credits for the 
advancement of biomass technology. As important as they are to this 
technology's advancement, tax credits alone won't get us there. I 
believe technology transfer models like those in place at our Land 
Grant Universities are crucial to our ultimate success. Specifically, 
university and federal joint venture partnerships could be formed to 
integrate intellectual assets and science infrastructures, and then 
move-out the products of these joint ventures quickly into practical 
applications to be used in the real world.
    It is important to note that one of the keys to advancing this 
``big'' technology may be found in small-scale capacity. In the area of 
small farms, extensive research expertise already exists among the Land 
Grant system, especially in our Historically Black Universities and 
Colleges (1890 institutions), about how agriculture is practiced on 
small-scale farms. I believe small farmers collectively could have a 
big contribution to make in the future development of biomass.
    As a key anchor in the real world of agriculture, the State 
Cooperative Extension Services would be the cornerstone of our proposed 
technology transfer and education delivery model to the ultimate end 
user--the American Farmer.
    SAES and CES's major focus in the energy and related environmental 
areas include:
  --Bio-mass/bio-fuels energy system technology development;
  --Global climate change or carbon sequestration/forming;
  --Environmental modeling and forecasting;
  --Renewable energy research and production;
  --Earth science applications and technologies; and;
  --Environmental education and outreach.
    Through a variety of means, a partnership between the Department of 
Energy and the Land Grant University system as well as NASA, NOAA, NSF 
and other agencies would increase:
  --The rate of technology transfer and development between the 
        partners;
  --the amount of LGU participation in agency peer review processes;
  --the quantity/quality of proposals submitted by the Land-Grant 
        Universities for government funded competitive grants in 
        related energy/agricultural areas;
  --the exchange of scientists between LGU institutions and the 
        government for collaborative projects.
    For example, the Department of Energy and USDA (through the Land 
Grant System) could jointly develop bio-mass technology, which could 
lead to increased use of ethanol as an alternative to gasoline. Recent 
prospective breakthroughs in genetic engineering and processing are 
radically changing the technical possibilities in favor of ethanol as a 
viable transportation fuel. New biocatalysts of genetically engineered 
yeast and bacteria are making it possible to use virtually any plant or 
plant product through cellulosic bio-mass to produce ethanol. This new 
technology may decisively reduce cost to the point where petroleum 
products would face competition. Genetically engineered micro-organisms 
and new processing techniques can similarly make it possible to utilize 
most plant matter for fuel.
    To expand the explanation provided earlier about this technology's 
environmental value, increased use of bio-mass fuels stands out as an 
excellent way to introduce an environmentally friendly energy 
technology that has a chance of having a decisive impact on the risk of 
climate change. Renewable fuels produced from plants are an outstanding 
way to substantially reduce greenhouse gases. Although ethanol 
consumption as a fuel releases carbon dioxide into the atmosphere, it 
is the same carbon dioxide that was fixed by photosynthesis when the 
plants were living. Of course, the CO<INF>2</INF> released from burning 
fossil fuels comes from sources deep underground which would never have 
been released unless removed by mankind.
    In addition, the issue of global climate provides an excellent 
partnering opportunity. By its very nature, it is an extremely complex 
issue involving a wide range of disciplines and one which crosses a 
considerable number of agencies. It is this type of issue which lends 
itself to the establishment of partnerships. The very nature of the 
problem is something that the agricultural community has in effect been 
attempting to accomplish from the time mankind began to cultivate 
crops, i.e., increase the growth of food and fiber, a process that 
depends upon the incorporation of CO<INF>2</INF>. In this regard, 
agriculture and the Land Grant University system has spent vast amounts 
of research and has a unique structure that could certainly contribute 
to a partnership concerned with CO<INF>2</INF> mitigation.
    Within the last two decades, agriculture has seen a change in 
farming known as ``no-till'' farming. It is the practice of returning 
organic (carbon containing materials) back to the land. In parts of the 
U.S.A. where soil organic matter falls below I percent, the re-
incorporation results in a more productive soil and there is an 
effective means of removing CO<INF>2</INF> from the atmosphere. Thus 
there are two winners, the grower who produces more food or fiber on 
the land with improved productivity and the environmentalist who 
witnesses a lower CO<INF>2</INF> level in the atmosphere. Such 
situations not only provide a win for each of the participants in the 
partnership, but because of a joint success, there is increased support 
from the supporters of the research.
    DOE and other agencies have existing and new initiatives to address 
many of the nation's energy and environmental problems. The Land Grant 
University system plans to encourage interagency communication and to 
broaden Land-Grant Universities federal participation in USDA at the 
local level. A well-planned initiative could unify representatives from 
the State Agricultural Experimentation Stations and the State 
Cooperative Extension Services, Natural Resource Conservation Service 
(NRCS), the Forest Service, and the Agricultural Research Service and 
extend this unified expertise to the energy and environmental missions 
of DOE. SAES and CES have identified existing resources in agencies for 
various programs which are targeted at addressing the scientific 
infrastructure between agriculture, the environment and the nation's 
need for energy.

------------------------------------------------------------------------
        Endorsed programs areas                 Department/Agency
------------------------------------------------------------------------
Bio-mass/biofuels energy systems:       DOE
 Alternative Fuels Development.
    Carbon Sequestration..............  DOE/EPA/USDA
        Global Climate................  DOE/NOAA
Socio-economic Dimensions.............  DOE/NOAA
    National Renewable Energy           DOE
     Laboratory.
    Precision Agriculture and Forestry  DOE/NASA/OES
Remote Sensing Applications...........  DOE/USDA/NASA
Geospatial Extension..................  DOE/NASA

------------------------------------------------------------------------

    SAES and CES would be pleased to provide an expanded ``on-the-
ground'' and ``in-the-field'' role for the LGU System on energy and 
environmental issues and research. I hope I have highlighted the 
science benefits and value of partnerships between the Land Grant 
system and DOE and other agencies to solve some of the nation's 
pressing energy and environmental problems. The Land-Grant University 
System stands ready to help.
                                 ______
                                 

      Prepared Statement of the American Museum of Natural History

              ABOUT THE AMERICAN MUSEUM OF NATURAL HISTORY

    Founded in 1869, the American Museum of Natural History [AMNH] is 
one of the nation's preeminent institutions for scientific research and 
public education. It is home to one of the world's largest natural 
history collections and premier research programs. Throughout its 
history, the Museum has pursued its joint missions of science and 
education, of examining critical scientific issues and educating the 
public about them. It is renowned for its exhibitions and collections, 
which serve as a field guide to the entire planet and present a 
panorama of the world's cultures. Its explorers and scientists have 
pioneered discoveries and offered us new ways of looking at nature and 
human civilization. The Museum's power to interpret wide-ranging 
scientific discoveries and convey them imaginatively has inspired 
generations of visitors to its grand exhibition halls and educated its 
three million annual visitors--500,000 of them schoolchildren--about 
the natural world and the vitality of human culture.
    The American Museum in many ways is similar to a research 
university, with its scientific faculty from diverse fields such as 
earth and planetary sciences, astrophysics, biology and genomics 
science, anthropology, and all branches of zoology. Today more than 200 
active Museum scientists with internationally recognized expertise, led 
by 47 curators, conduct laboratory and collections-based research 
programs as well as field work and training. Scientists in five 
divisions (Anthropology; Earth, Planetary, and Space Sciences; 
Invertebrate Zoology; Paleontology; and Vertebrate Zoology) are 
sequencing DNA and creating new computational tools to retrace the 
evolutionary tree, documenting changes in the environment, making new 
discoveries in the fossil record, and describing human culture in all 
its variety. The Museum also conducts graduate training programs in 
conjunction with a host of distinguished universities, supports 
doctoral and postdoctoral scientists with highly competitive research 
fellowships, and offers talented undergraduates an opportunity to work 
with Museum scientists.
    The AMNH collections of some 32 million natural specimens and 
cultural artifacts are a major scientific resource providing the 
foundation for the Museum's interrelated research, education, and 
exhibition missions. They often include endangered and extinct species 
as well as many of the only known ``type specimens,'' or examples of 
species by which all other finds are compared. Within the collections 
are many spectacular individual collections, including the world's most 
comprehensive collections of dinosaurs; fossil mammals; Northwest Coast 
and Siberian cultural artifacts; North American butterflies; spiders; 
Australian and Chinese amphibians; reptiles; fishes outside of their 
home countries; and one of the most important bird collections. 
Collections such as these are historical libraries of expertly 
identified examples of species and artifacts, associated with data 
about when and where they were collected, providing an irreplaceable 
record of life on earth. Such collections provide vital data for Museum 
scientists as well as more than 250 national and international visiting 
scientists each year.
    The Education Department builds on the Museum's unique research, 
collections, and exhibition resources to offer rich programming 
dedicated to increasing scientific literacy, to encouraging students to 
pursue science and museum careers, and to providing a forum for 
exploring the world's cultures. Each year hundreds of thousands of 
students, teachers, and schools participate in workshops, courses for 
college credit, and Museum visits; more than 500,000 students and 
teachers visit on school trips, prepared and supported by curriculum 
resources and workshops. The Museum is also reaching beyond its walls: 
through its National Center for Science Literacy, Education, and 
Technology, launched in 1997 in partnership with NASA, it is exploiting 
new technologies to bring learning and discovery, materials, and 
programs into homes, schools, museums, and community organizations 
around the nation.
    Exhibitions are among the Museum's most potent educational tools, 
translating AMNH scientific knowledge and discovery into three 
dimensions. The Museum is proud to continue its tradition of creating 
some of the world's greatest scientific exhibitions. In February 2000, 
in one of the most exciting chapters in the Museum's long and 
distinguished history of advancing science and education, it opened the 
spectacular new Rose Center for Earth and Space. The Rose Center 
includes a newly rebuilt and updated Hayden Planetarium that allows 
visitors to journey among the stars and planets in our own and in other 
galaxies; and the Lewis B. and Dorothy Cullman Hall of the Universe, 
where interactive technology and participatory displays elucidate 
important astronomy and astrophysics principles. The centerpiece of the 
Rose Center is an 87-foot-diameter sphere housed in a glass cube. Its 
top half contains the planetarium's state-of-the-art Space Theatre; its 
bottom half, the Big Bang, a dramatic multimedia recreation of the 
first moments of the universe.
    Adjoining the Rose Center is the Hall of Planet Earth, which opened 
in 1999 and explores the processes that determine how the Earth works--
how it has changed though time; why ocean basins, continents, and 
mountains exist; what causes climate change; and why the Earth is 
habitable. Its exhibits explore the question of natural resources: what 
are they; what resources are necessary to generate energy (oil, coal, 
geothermal); where are they located; and how are they formed. The Hall 
of Planet Earth in turn leads to the recently opened Hall of 
Biodiversity. Together, the new planetarium and halls provide visitors 
a seamless educational journey from the universe's beginnings to the 
Earth's formation and processes to the extraordinary diversity of life 
on our planet.

           SUPPORT FOR DEPARTMENT OF ENERGY MISSION AND GOALS

    The American Museum shares with DOE fundamental commitments to 
cutting-edge research, technology in support science and education, and 
science education and literacy. As the nation's third largest 
government sponsor of basic research and a major source of support for 
laboratory equipment and instrumentation, DOE is one of the world's 
preeminent science organizations. Its primary strategic goals also 
include promoting science literacy and educating the next generation of 
scientists. The Museum seeks a partnership with DOE to leverage our 
complementary resources and mutually strengthen our abilities to 
advance our shared goals.

Genomics Science
    DOE is a leader in genomics research, instrumentation, and advanced 
sequencing technologies. The American Museum, in turn, is home to a 
preeminent molecular research effort. Indeed, natural history and 
genomic science are intricately related. The AMNH molecular systematics 
program is at the forefront of the analysis of DNA sequences for 
evolutionary research. In its molecular laboratories, now in operation 
for nine years, more than 40 researchers in molecular systematics, 
conservation genetics, and developmental biology conduct genetic 
research on a variety of study organisms.
    The Museum is also expanding its collection techniques to include 
the preservation of biological tissues and molecular libraries in a 
super-cold storage facility for current and future genetic study. This 
collection is a unique and valuable resource for worldwide research in 
such fields as conservation genetics, systematics, and medicine. Such a 
tissue collection will preserve genetic material and gene products from 
rare and endangered organisms that may go extinct before science fully 
exploits their potential. With nearly 40,000 samples already collected, 
it will be the largest super-cold tissue collection in the world and 
will increase the possibilities for DNA research exponentially. We also 
plan an on-line geographically based collection database to ensure 
access to the public as well as to facilitate loans to scientists 
outside the Museum.

Parallel Cluster Computing
    Parallel computing is an essential enabling technology in 
phylogenetic analysis. A new, 256-processor cluster recently 
constructed in-house by Museum scientists is the fastest parallel 
computing cluster in an evolutionary biology laboratory and one of the 
fastest installed in a non-defense environment. It allows Museum 
scientists to examine the effectiveness and computational behavior for 
large real-world data sets, and will be central to all Museum projects 
in evolutionary and genomics research.

                   INSTITUTE OF COMPARATIVE GENOMICS

    The Museum proposes to establish, in partnership with DOE, an 
Institute of Comparative Genomics so as to contribute its unique 
resources and expertise to the nation's genomic research enterprise. A 
full understanding of the impact of the knowledge we have gained from 
genomics and molecular biology can come from placing genomic data in a 
natural history perspective; comparative work in genomics will enrich 
our knowledge not only of biodiversity, but also of humans, medicine, 
and life itself.
    With the advent of DNA sequencing, museum collections have become 
critical baseline resources for the assessment of the genetic diversity 
of natural populations, as well as for pursuit of research questions 
pertinent to DOE's interests. Genomes, especially those of the simplest 
organisms, provide a window into the fundamental mechanics of life. One 
of the goals of DOE's Human Genome Project is to learn about the 
relevance to humans of nonhuman organisms' DNA sequences. DOE also 
supports an area in which the AMNH is expanding its expertise--
microbial genomics, the study of organisms that have survived and 
thrived in extreme and inhospitable environments. This research can 
yield information that can be applied in solving challenges in health 
care, energy sources, and environmental cleanup. The AMNH comparative 
genomics program could provide vital tools in these endeavors and 
support DOE's biological and environmental research function (the BER 
account).
    Over the past year the Museum has established its parallel 
computing facility, enhanced the molecular labs with state-of-the-art 
DNA sequencers, and initiated the super cold storage facility. Thus 
initially equipped, the Institute will be one of the world's premier 
research facilities for mapping the genome across a comprehensive 
spectrum of life forms, drawing on comparative methods and biological 
collections.
    The Institute will focus on molecular and microbial systematics; 
expanding our understanding of the evolution of life on earth through 
analysis of the genomes of selected microbes and other non-human 
organisms; and constructing large genomic databases for conservation 
biology applications. Research programs may include the study of the 
utility of genomic information on organismal form and function; 
microbial systematics; the construction of large genomic databases for 
conservation biology applications; and the use of broad scale 
comparative genomic studies to understand the function of important 
biomolecules.
    The Institute's scope of activities will include: an expansion of 
the molecular laboratory program that now trains dozens of graduate 
students every year; the utilization of the latest sequencing 
technologies; employment of parallel computing applications that allow 
scientists to examine the effectiveness and computational behavior of 
large real world datasets; and operation of the frozen tissue 
collection as a worldwide scientific resource, with at least 500,000 
samples accessioned in the first phase alone, an active loan program, 
and ready public on-line access.
    In addition to research, the Institute for Comparative Genomics 
will include education and outreach activities, an international 
conference featuring leading scientists and policymakers, and a major 
public exhibition on genomics. In conjunction with the exhibition, the 
Museum may also publish an electronic bulletin on genomics to be 
located in the Hall of Human Biology. The bulletin would be modeled 
after the popular Earth, Bio, and AstroBulletins in the newest exhibit 
halls that display changing science news, linked to interactive kiosks 
and websites.
    In establishing the Institute, the Museum plans to expand its 
curatorial range in microbial work; add lab space to accommodate 
additional curators and students; grow the super-cold tissue 
collection; and draw on our exhibition and educational expertise to 
offer enhanced public education and outreach.
    We seek $10 million to partner with DOE in establishing the 
Institute for Comparative Genomics at the Museum.--In partnership, the 
Museum and DOE will be positioned to leverage their unparalleled 
resources to advance joint genomics research, education, and technology 
goals. As well, development of the super-cold tissue collection will 
increase exponentially the possibilities for DNA research and provide 
an invaluable resource to scientists worldwide. Our planned collection 
database available on the Internet will ensure public access to 
genomics information, furthering DOE's own goals for fostering public 
understanding of human genomics and the fundamental building blocks of 
life.
                                 ______
                                 

   Prepared Statement of the University Corporation for Atmospheric 
                                Research

    On behalf of the University Corporation for Atmospheric Research 
(UCAR) and the university community involved in weather and climate 
research and related education, training and support activities, I 
submit this written testimony for the record of the U.S. Senate 
Committee on Appropriations, Subcommittee on Energy and Water 
Development.
    This year UCAR, a university membership consortium composed of 63 
North American institutions that grant the Ph.D. in atmospheric, 
oceanic, and related sciences, celebrates its fortieth anniversary of 
scientific discovery and university partnerships. The UCAR mission is 
to support, enhance, and extend the capabilities of the university 
community, nationally and internationally; to understand the behavior 
of the atmosphere and related systems and the global environment; and 
to foster the transfer of knowledge and technology for the betterment 
of life on earth.
    UCAR is a non-profit, Colorado-based corporation that manages and 
operates the National Center for Atmospheric Research (NCAR) and the 
UCAR Office of Programs (UOP). It is supported by the National Science 
Foundation (NSF) and other federal agencies including the National 
Oceanic and Atmospheric Administration (NOAA), the National Aeronautics 
and Space Administration (NASA), the Department of Energy (DOE), the 
Environmental Protection Agency (EPA), the Department of Defense (DOD), 
and the Federal Aviation Administration (FAA). In addition to its 
member universities, UCAR has formal relationships with approximately 
100 additional undergraduate and graduate schools including several 
historically black and minority-serving institutions and 38 
international universities and laboratories.
    Within the Department of Energy, we would like to comment on the 
following programs:

              BIOLOGICAL AND ENVIRONMENTAL RESEARCH (BER)

    On behalf of this country's atmospheric sciences community, we urge 
the Committee to support the fiscal year 2001 request of $445.3 million 
for BER. This is a $12.4 million increase over the fiscal year 2000 
appropriated amount of $432.9 million. BER programs, particularly those 
involving support of peer-reviewed research at universities and 
national laboratories, are of great importance to the atmospheric 
sciences researchers focussing on climate change and climate change 
impacts. BER's Environmental Sciences Division is particularly critical 
as its programs improve our understanding of the Earth's radiative 
energy balance, improve predictions of climate change induced by 
greenhouse gases, quantify sources and sinks of greenhouse gases and 
aerosols, and improve our ability to assess the potential consequences 
of climate change.
    Division programs in which we have much interest include the 
following:

Atmospheric Radiation Measurement (ARM) Program
    Within the Environmental Processes Area of the BER proposed budget 
under Climate and Hydrology, we urge the Committee to support the 
fiscal year 2001 request of $14.1 million for ARM Program research.--
This is a 7.6 percent increase over the fiscal year 2000 amount of 
$13.1 million. ARM is a key component of DOE's research strategy to 
address global climate change and is an important component of the 
interagency U.S. Global Change Research Program (USGCRP). ARM data are 
critical to the improvement of General Circulation Models (GCMs), which 
simulate the entire global circulation of the atmosphere, and to our 
understanding of climate change responses to increasing greenhouse 
gases. Current ARM research foci include the significant role of clouds 
in climate, the radiation balance of the atmosphere, and the 
interactions of solar and infrared radiation with water vapor and 
aerosols. These atmospheric processes are critical to understanding and 
predicting changes in global and regional temperature and precipitation 
patterns that result from anthropogenic and natural influences. 
Approximately 50 principal investigators, most of them from the 
university community, will be supported in fiscal year 2001, and 
interactions and collaborative work with prominent climate modeling 
centers will be enhanced.
    ARM also performs a great service to the atmospheric sciences 
community by supporting several students involved in the UCAR-managed 
program, Significant Opportunities in Atmospheric Research and Science 
(SOARS). SOARS is a four-year graduate and undergraduate program for 
students pursuing careers in the atmospheric and related sciences. In 
its relatively short history, SOARS has already increased the number of 
under-represented students in this scientific area by a significant 
percentage. ARM is contributing to the SOARS effort to ensure that 
tomorrow's scientific workforce reflects the diversity of our citizenry 
and provides opportunity to all students.

Climate Modeling
    Also within Climate and Hydrology within the Environmental 
Processes area of BER, we urge the Committee to support the fiscal year 
2001 request of $27.9 million for the Climate Modeling effort.--This is 
a 17.2 percent increase over the fiscal year 2000 amount of $23.8 
million for this important contribution to the USGCRP and integrates 
the BER climate modeling programs, including the successful Computer 
Hardware, Advanced Mathematics, and Model Physics (CHAMMP) activity. 
This increase will support the development of the next generation 
circulation models and smaller scale climate model simulations for 
global and regional studies of environmental changes. Technologies and 
computational resources will be developed that will help the scientific 
research community work efficiently with large datasets of 
observational and modeling data. Teams involving national laboratories 
and the university community will be assembled to produce and apply the 
datasets to the study of both global and regional climate change and 
accompanying environmental impacts. This work is of great importance to 
our understanding of the manner in which climate change, natural or 
otherwise, affects specific areas of the country with ramifications to 
local environmental and economic systems.

                 ADVANCED SCIENTIFIC COMPUTING RESEARCH

    We urge the Committee to support the DOE initiative, Advanced 
Scientific Computing Research (ASCR), at the proposed fiscal year 2001 
level of $182.0 million.--This is a 42.2 percent increase over the 
fiscal year 2000 amount of $127.9 million for this important 
contribution to computational science. ASCR activities complement the 
work of and enable progress in the Climate Modeling initiative 
described above. ASCR's continued progress is of particular importance 
to atmospheric scientists involved with coupled general circulation 
model development, research that takes enormous amounts of computing 
power. If the United States is to continue to play a key role in 
determining the components that influence climate behavior and further 
developing scientific methods to successfully predict climate change, 
then the country's scientists must have access to enhanced computer 
simulation and modeling technology and software.
    Specifically, the fiscal year 2001 ASCR increase will support the 
development and deployment of new mathematical models, computational 
methods, and scientific codes to take full advantage of the 
capabilities of terascale computers to solve critical scientific 
problems in the atmospheric and oceanographic sciences. Software will 
be developed and deployed to accelerate the development of and protect 
long-term investments in scientific codes, to achieve maximum 
efficiency on high-end computers, and to enable a broad range of 
scientists to use simulation in their research. Research will also 
include network technologies and software research to link 
geographically separated researchers, to facilitate movement of large 
(petabyte) data sets, and to ensure that academic scientists can fully 
participate in terascale computing. Proposals from teams involving 
national laboratories and the university community will be peer 
reviewed and competitively selected to participate in the research.
    On behalf of UCAR, I want to thank the Committee for the important 
work you do for U.S. scientific research, education, and training. We 
appreciate your attention to the recommendations of our community 
concerning the fiscal year 2001 budget.
                                 ______
                                 

           Prepared Statement of the University of Rochester

                      SUMMARY AND REQUESTED ACTION

    The inertial confinement fusion (ICF) program is a key element in 
the Department of Energy's (DOE) Stockpile Stewardship Program (SSP). 
It was formally initiated by the fiscal year 1994 Defense Authorization 
(Public Law 103-160) to ``establish a stewardship program to ensure the 
preservation of the core intellectual and technical competencies of the 
United States in nuclear weapons.'' The ICF program provides access to 
high-energy-density physics data important in the design and 
understanding of nuclear weapons. In fiscal year 2001 the program will 
be focused on the use of available facilities. The principal facilities 
include the OMEGA laser at the University of Rochester's Laboratory for 
Laser Energetics (LLE) and the Z machine at Sandia National 
Laboratories (SNL). Smaller facilities--the Nike laser at the Naval 
Research Laboratory (NRL) and the Trident laser at the Los Alamos 
National Laboratory (LANL)--will also be used. The 1999 decommissioning 
of the Nova laser at Lawrence Livermore National Laboratory (LLNL) 
required many experiments conducted by the weapons laboratories to 
shift to the OMEGA facility at LLE. ICF experiments support the 
demonstration of thermonuclear ignition and gain on the National 
Ignition Facility (NIF) under construction at LLNL and provide 
important data in support of National SSP activities. Changes in the 
NIF schedule and capabilities make SSP much more reliant on existing 
facilities, such as OMEGA, located at the University of Rochester.
    LLE (since 1970) is the only ICF program that has been jointly 
supported by the Federal Government, State government, industry, 
utilities, and a university. LLE makes fundamental scientific 
contributions to the National program. The Laboratory transfers 
technology to the public and private sectors through the training of 
graduate students and interactions with industry and other Federal 
laboratories. The Laboratory serves as a National Laser Users' Facility 
benefiting scientists throughout the country. The OMEGA laser, the 
highest-power ultraviolet fusion laser in the world, is the principal 
laser facility for SSP activities for DOE in fiscal year 2001 and for 
many years to come.
    LLE's primary ICF mission is to validate the direct-drive option 
for ICF, including ignition and gain on the NIF. DOE proclaimed that 
OMEGA is also needed to meet mission-critical requirements for the 
indirect-drive ignition plan developed by DOE for the NIF, and to 
conduct experiments to support the SSP mission, including some that are 
classified, in collaboration with the National laboratories.
    OMEGA is the only operating facility that can demonstrate the 
scientific potential of direct drive to provide a modest- to high-gain 
energy option for the Nation. The Inertial Confinement Fusion Advisory 
Committee emphasized the priority of cryogenic experiments on OMEGA.\1\ 
The recent Secretary of Energy Advisory Board (SEAB) National Ignition 
Facility Laser System Task Force Interim Report \2\ noted the 
importance of continuing scientific contact with ``. . . the laser-
based research at the University of Rochester.'' Upon completion of the 
NIF, OMEGA will continue to be used when full NIF energy or capability 
is not required, particularly since the cost per shot on OMEGA is 
considerably less than that on the NIF. The repetition rate of OMEGA 
(one shot per hour) is also higher than that planned for NIF (several 
shots per day).
---------------------------------------------------------------------------
    \1\ Inertial Confinement Fusion Advisory Committee Report to 
Assistant Secretary Reis (February 21, 1996).
    \2\ ``Interim Report of the National Ignition Facility Laser System 
Task Force,'' Secretary of Energy Advisory Board, U.S. Department of 
Energy, Washington, D.C., January 10, 2000.
---------------------------------------------------------------------------
    To provide the support for program deliverables and the operation 
of OMEGA (for both ICF experiments and SSP experiments), and to 
maintain the training programs at Rochester, a total authorization and 
appropriation of $32,200,000 for the University of Rochester for fiscal 
year 2001 is required, as contained in the Administration's budget 
request for DOE.

                               BACKGROUND

    Thermonuclear fusion is the process by which nuclei of low atomic 
weights, such as hydrogen, combine to form higher atomic weight nuclei 
such as helium. In this process some of the mass of the original nuclei 
is lost and transformed to energy in the form of high-energy particles. 
Energy from fusion reactions is the most basic form of energy in the 
universe. Our sun and other stars produce energy by thermonuclear 
fusion reactions occurring in their interior. Fusion is also the 
process that provides the vast destructive power of thermonuclear 
weapons.
    To initiate fusion reactions, the fuel must be heated to tens of 
millions of degrees. In ICF the heating and compression of fusion fuel 
occur by the action of intense laser or particle beams. There are two 
approaches to ICF, direct and indirect drive. Indirect drive involves 
the conversion of beam energy to x-rays to compress a fuel capsule in 
an enclosure called a hohlraum. Direct drive involves the direct 
irradiation of a spherical fuel capsule by energy from a laser and is 
generally more efficient energetically than indirect drive. In either 
approach, if very extreme density and temperature conditions are 
produced, it is possible to produce many times more energy in these 
fusion reactions than the energy provided by the drivers.

               INERTIAL CONFINEMENT FUSION PROGRAM FOCUS

    As noted in the recent U.S. Department of Energy Stockpile 
Stewardship Program 30-day Review,\3\ ``The mission of the National 
Inertial Confinement Fusion program is to execute high energy density 
physics experiments for the Stockpile Stewardship program, an important 
part of which is the demonstration of controlled thermonuclear fusion 
in the laboratory. Technical capabilities provided by the ICF program 
also contribute to other DOE missions including nuclear weapons effects 
testing and the development of inertial fusion power.'' The NIF project 
completion date and schedule to achieve its full capabilities have 
changed since the project's inception. While NIF is under construction, 
OMEGA is the principal ICF facility used for nuclear weapons 
stewardship experiments by LLNL, SNL, and LANL, and for direct- and 
indirect-drive ICF experiments. Additionally, LLE will conduct 
experiments for the SSP in fiscal year 2001 under three categories: 
equation of state of D<INF>2</INF> and foam materials; properties of 
metals within high-pressure shocks; and the development of a testbed 
for hydrodynamic instability studies and advanced nonlinear 
diagnostics. OMEGA will also be used to support experiments in fiscal 
year 2001 that are part of a DOE bilateral agreement with the French 
Atomic Energy Commission.
---------------------------------------------------------------------------
    \3\ ``U.S. Department of Energy 30-Day Review Stockpile Stewardship 
Program,'' U.S. Department of Energy, Washington, D.C., November 23, 
1999.
---------------------------------------------------------------------------
    LLE is the primary focus in the U.S. for the direct-drive approach 
to ICF. Direct drive may ultimately prove to be the best approach to 
ICF and provide the most efficient path to a laboratory-scale 
thermonuclear capability for both energy research and defense 
technology needs. OMEGA is the only facility that can demonstrate the 
scientific potential of direct drive to provide modest to high gain on 
the NIF. LLE is a major participant in NIF design and construction. At 
present, LLE is fabricating the large polarizers and transport mirrors 
for the NIF, and LLNL has also recently decided to have LLE coat, 
assemble, and test the NIF deformable mirrors. This decision will 
result in substantial cost saving on these items for the NIF. LLE is 
the lead laboratory working with DOE and the other participants to 
formulate the plan for the direct-drive ignition campaign on the NIF. 
In collaboration with the other ICF laboratories, LLE is also 
developing several advanced diagnostics required for NIF experiments.
    An extensive collaborative program between LLNL, LANL, and LLE has 
provided data on basic physics, beam smoothing, and unstable 
hydrodynamics using available lasers. This collaboration on OMEGA 
includes both nuclear weapons physics experiments and ICF experiments. 
In fiscal year 2000, we expect 1,300 target shots on the OMEGA laser 
system that will be used for LLE's direct-drive program, National 
Laboratory ignition physics and stockpile stewardship programs, and the 
National Laser Users Facility (NLUF) program. During fiscal year 2001, 
the same number of laser shots are expected and funded in the 
Administration's request. This year LLE developed advanced diagnostics 
including a high-dynamic-range x-ray streak camera with high spatial 
resolution, hard x-ray diagnostics, and a neutron imaging system in 
collaboration with our colleagues at LANL, LLNL, and the French 
Commmissariat a L'Energie Atomique (CEA).
    Both LANL and LLNL will continue to use OMEGA for ICF and SSP 
experiments for the foreseeable future. Because of the high interest 
and utility of the OMEGA facility to the weapons laboratories, DOE's 
budget request includes funds for extended operations on OMEGA for SSP 
experiments. With its lower per-shot cost compared to the NIF (several 
thousand dollars vs. more than $100,000), as well as the higher shot-
repetition rate (one shot per hour vs. several shots per day), OMEGA 
will be a very important supporting facility for experiments and 
diagnostic development for the NIF after its completion.

                            THE LLE PROGRAM

    The goal of the LLE direct-drive target physics program is to 
evaluate the performance of fuel capsules near ignition conditions. 
OMEGA is the first facility to attempt the fielding of high-fill-
pressure cryogenic DT capsules, which forms the basis for the capsule 
design to be used in the NIF indirect-drive and direct-drive ignition 
demonstrations. In addition to providing data for the NIF, OMEGA 
experiments are required to validate the direct-drive configuration on 
the NIF that could result in two to three times higher fusion gains 
(gain > 50) than those available with the baseline (indirect-drive) NIF 
design.
    An important element of the direct-drive program on OMEGA is to 
demonstrate on-target irradiation uniformity of 98 percent to 99 
percent. The realization of this goal this year will fulfill one of 
LLE's principal objectives for fiscal year 2000: We are implementing 
uniformity enhancements on all 60 OMEGA beams, including beam 
smoothing, and will achieve an on-target uniformity of greater than 99 
percent rms. Planar target imprinting experiments are showing the 
expected reductions in the imprint of laser nonuniformities as a result 
of beam smoothing and plasma decoupling. Experiments to quantify the 
effect of internal target imperfections on target implosion physics 
have been completed, and good agreement between simulations and 
experiments was obtained. In fiscal year 2000 the improved pulse-
shaping system achieved a contrast ratio of 100:1 with high 
reproducibility; this is required for the fiscal year 2001 cryogenic 
experiments.
    As part of the theoretical and computational effort that is at the 
heart of understanding inertial fusion implosions, we have 
significantly extended our computational capability in the analysis of 
multidimensional effects. Initial three-dimensional simulations of 
hydrodynamic instabilities have been carried out and will be extended 
in fiscal year 2001. Multidimensional simulations will be conducted to 
determine the sensitivity of OMEGA and NIF target designs to 
irradiation nonuniformities and surface roughness during the coming 
year.
    Cryogenic fueling and target experiments are necessary to 
demonstrate the success of the direct-drive option on the NIF. The 
OMEGA cryogenic system serves as an engineering test-bed to support NIF 
cryogenic development. In fiscal year 2000, we will complete the 
cryogenic target handling system and perform cryogenic DD implosion 
experiments. We have also implemented infrared layering and completed 
the first full characterization of a spherical target for target shots. 
In fiscal year 2001 we will perform high-density cryogenic implosions 
addressing critical issues for ignition experiments. A cryogenic 
capability, diagnostics development, and beam smoothing are all 
required for the NIF. With respect to beam smoothing, in fiscal year 
2001 LLE will complete the conceptual design of the beam-smoothing 
system for the NIF. LLE is the principal National facility engaged in 
developing these technologies. LLE's design and testing of two-
dimensional beam-smoothing techniques and LLE's fabrication 
capabilities for the large polarizers, transport optics, and deformable 
mirrors for the NIF are essential to NIF's completion and success.
    LLE provides education and training in the field of ICF and related 
areas for personnel with expertise in areas of critical National need, 
especially high-energy-density physics and laser research and 
development. One hundred thirty-three University of Rochester students 
have earned Ph.D. degrees in related laser physics programs at LLE 
since its founding. Sixty-three graduate students and 20 post-doctoral 
positions from other universities have been funded by NLUF grants. A 
total of 42 graduate students and 14 faculty members of the University 
of Rochester are involved in the unique research environment provided 
at LLE and represent many departments within the University. Beyond 
this, more than 50 undergraduate students receive research experience 
annually at LLE. Additionally, a high-school summer science program 
exposes 12 talented students each year to the research environment and 
encourages them to consider careers in science and engineering. Many 
LLE graduates have made important scientific contributions in National 
laboratories, universities, and industrial research centers.
                            request summary
    The Administration (DOE) has requested $32,100,000 for the 
University of Rochester for SSP and ICF experiments on the OMEGA laser 
for fiscal year 2001. These monies will support operation of the OMEGA 
laser for the National laboratories, the LLE program, and continuation 
of the education and training programs at the Laboratory for Laser 
Energetics.
                                 ______
                                 

           Prepared Statement of the Nuclear Energy Institute

    On behalf of the Nuclear Energy Institute, I would like to commend 
you, Mr. Chairman and the members of this subcommittee for focusing 
your attention on the value of nuclear technology-related programs in 
the Energy Department and Nuclear Regulatory Commission budget 
proposals for fiscal year 2001.
    The Nuclear Energy Institute (NEI) coordinates public policy for 
the U.S. nuclear industry. We represent 270 members with a broad 
spectrum of interests, including every U.S. utility that operates a 
nuclear power plant. NEI's membership also includes nuclear fuel cycle 
companies, suppliers, engineering and consulting firms, national 
research laboratories, manufacturers of radiopharmaceuticals, 
universities, labor unions and law firms.
    Today, America's 103 nuclear power plants are the safest, most 
efficient and most reliable in the world. Nuclear energy is the largest 
source of emission-free electricity generation in the United States, 
and the industry last year reached unsurpassed levels for outstanding 
safety and performance.
    Your continued support of nuclear research and development programs 
is essential to continue advances in nuclear medicine and other nuclear 
technologies beneficial to society, to guard against the impact of 
foreign supply disruptions to our energy security and to encourage 
growth of America's largest source of emission-free electricity. To 
capitalize on the many benefits of nuclear technologies, research and 
development of these technologies must be a priority in fiscal year 
2001 appropriations legislation.

            FEDERAL STORAGE & DISPOSAL OF USED NUCLEAR FUEL

    The Federal Government's responsibility for deep geologic disposal 
of used nuclear fuel and the byproducts of defense-related activities 
are long established U.S. national policy. In 1982, the Nuclear Waste 
Policy Act established federal policy for developing such a facility. 
In 1987, Congress restricted the repository study to a site at Yucca 
Mountain, Nevada. DOE is committed to providing a decision on formal 
Yucca Mountain site recommendation to the President in the summer of 
2001.
    DOE's 1998 viability assessment and 1999 draft environmental impact 
statement (EIS) point to Yucca Mountain as a viable site for a 
permanent repository. The draft EIS says that the environmental impacts 
associated with the repository would be small, certainly less than 
keeping fuel at nuclear power plant sites that were not designed for 
long-term storage. It also predicts that peak radiation exposures over 
10,000 years, due to the repository, would be less than 1 percent of 
naturally occurring background radiation at that location, or less 
radiation than a transcontinental airplane trip.
    DOE failed to meet its contractual and statutory obligations to 
accept and remove used nuclear fuel from national laboratories, nuclear 
power plants and defense facilities in 152 communities in 41 states 
beginning in 1998. This failure is a violation of the Nuclear Waste 
Policy Act of 1982 and also a breach of contracts between the Energy 
Department and electric utility companies.
    Since 1982, American electricity consumers have committed $16.5 
billion to the Nuclear Waste Fund, specifically to finance the central 
federal management of used nuclear fuel. Federal taxpayers have paid an 
additional $1.2 billion for disposal of waste from defense-related 
nuclear programs. The Nuclear Waste Fund has a balance of about $10 
billion, which must be available for repository construction and 
operation. The director of DOE's Office of Civilian Radioactive Waste 
Management said recently that the budget for Yucca Mountain will 
increase during the repository construction phase to $1.3 billion in 
fiscal year 2005.
    The nuclear power industry strongly supports the Department of 
Energy's fiscal year 2001 request for $437.5 million for the Civilian 
Radioactive Waste Management program, which includes continued 
scientific study at Yucca Mountain. Electricity consumers this year 
will pay approximately $700 million into the Nuclear Waste Fund. With 
full funding from Congress, DOE can be held accountable to forward a 
recommendation to the President on whether to proceed with building a 
repository at Yucca Mountain in 2001.
    Further delay in opening a repository will result in increased 
costs to consumers for additional used fuel storage at nuclear power 
plants and could threaten our nation's ability to meet clean air goals.
    NEI urges this committee to instruct DOE to provide Congress with 
detailed five-year projections--with subsequent six-month updates--of 
the estimated program costs for construction and operation of the 
federal used nuclear fuel program. DOE also should report monthly on 
progress toward meeting major repository milestones.
    This committee has routinely examined the use of federal grants by 
Nevada state universities and counties to provide scientific oversight 
of the Yucca Mountain project. The industry supports funds for 
legitimate oversight purposes. However, the Nevada Nuclear Waste 
Project Office has been found to misspend funds. Until the state takes 
steps to reform this misspending, we believe grants should be 
restricted to universities and affected counties.
    NRC's proposed Yucca Mountain regulations are consistent with sound 
science by relying on an all-pathways radiation standard. The 
overwhelming majority of scientists and public health experts believe 
that this is the appropriate manner to protect the public and the 
environment. The NRC should be allowed to regulate Yucca Mountain by 
using the most up to date methodologies available. To do otherwise 
would cost electric consumers and taxpayers billions of dollars without 
any meaningful return on public safety or environmental protection.
    Although the repository program is the foundation of our national 
policy for used nuclear fuel disposal, the nuclear industry recognizes 
there can be value associated with potential future waste management 
technologies. Farsighted research and development programs allow our 
nation to continue to be the world leader in nuclear technologies. 
However, it is important to note those even technologies like 
transmutation--the conversion of used nuclear fuel into less toxic 
materials--still requires a geologic repository for disposal of the 
waste generated from the process.

                     NUCLEAR REGULATORY COMMISSION

    The Commission is making progress to remedy the problem of user 
fees supporting NRC activities unrelated to licensee activities. The 
NRC's budget for fiscal year 2001 proposes that the NRC collect 
approximately 98 percent of its budget from user fees levied on 
licensees, excluding funding from the federal Nuclear Waste Fund. The 
budget further proposes that each fiscal year from 2001 through 2005, 
the proportion of the NRC budget derived from user fees will decrease 
by two percent each year.
    The industry thanks the Committee for its continued oversight of 
the NRC and support for the NRC's new oversight process designed to 
make regulation of the industry more consistent and efficient. The 
recently completed pilot program for reactor regulation, which tested 
the new NRC safety-focused and results-oriented oversight process, was 
successful. The NRC is now preparing for full implementation this 
spring.
    The industry also applauds the Committee for its concern that the 
NRC's licensing process for extending nuclear power plant operating 
licenses be completed on schedule. The NRC has responded to the 
Committee's direction. The first two electric utility companies seeking 
20-year license extensions for nuclear plants are expecting to complete 
the NRC review process within about 24 months, shorter than the 
initially expected 36-month period. The industry expects future 
relicensing applications to be streamlined as the NRC applies lessons 
learned from the initial license renewal applications.
    As priorities change, sound public management and budgeting policy 
require that the NRC reassess its allocation of resources and make 
appropriate budget and staffing changes. In that regard, this Committee 
asked for a comprehensive five-year plan as part of the NRC's fiscal 
year 2001 budget request. NRC's budget request for fiscal year 2001 was 
to outline anticipated agency staff and organizational changes. 
Industry urges the Committee to request a detailed explanation of the 
NRC's proposed fiscal year 2001 budget in the context of the 
comprehensive plan.

                 NUCLEAR ENERGY RESEARCH & DEVELOPMENT

    Mr. Chairman, for the United States to remain the world leader in 
nuclear safety and technology, it is crucial that industry and 
government continue to invest in nuclear technology research and 
development.
    U.S. electricity demand is expected to increase from 50 percent to 
75 percent during the next decade, and we will need to maintain the 30 
percent of electricity production from emission-free electricity 
sources, such as nuclear energy, solar, hydro and wind power. Of these, 
nuclear energy is the only expandable, large-scale electricity source 
that protects our air quality and meets the energy demands of a 
growing, modern economy.
    The expansion of our domestic nuclear power program may ultimately 
prove to be one of our most strategic initiatives for mitigating the 
effects of air pollution and greenhouse gases. Without nuclear energy, 
it would be impossible for the United States to successfully reduce 
carbon dioxide and other emissions while expanding our economy. Today, 
improved efficiency and production at nuclear power plants is the 
single largest carbon reduction technology among industry participants 
in DOE's Voluntary Reporting Program. Nuclear energy accounts for 
almost half of the total carbon avoidance reported by all American 
industries combined.
    In comparison to other electricity generating sources, nuclear 
energy is unequivocally the most economical federal research and 
development investment. In 1997, the Federal Government spent five 
cents on nuclear energy R&D for every kilowatt-hour of electricity 
generated at nuclear power plants. By comparison, the cost of natural 
gas R&D per kilowatt-hour, was 41 cents; for solar photovoltaics, 
$17,006; and for wind energy $4,769.
    NEI urges the Committee to approve $45 million in fiscal year 2001 
for the Nuclear Energy Research Initiative (NERI). The NERI program 
funds research and development at universities, national laboratories 
and industry to advance nuclear power technology, pave the way for the 
expanded use of nuclear energy and maintain U.S. leadership in nuclear 
plant technology and safety. In fiscal year 1999, NERI's review board 
awarded grants to 46 of 308 proposals submitted.
    Although DOE requests $28 million for NERI in fiscal year 2001, 
mostly to continue ongoing projects, industry requests congressional 
approval of $45 million to complete existing projects as well as fund 
new projects in this highly promising program.
    The nuclear industry strongly supports the new nuclear R&D 
initiative recommended by the White House: the Clean Energy Initiative 
or the International Nuclear Energy Research Initiative (NERI/I). NEI 
supports DOE's request for an additional $7 million to launch this 
cooperative international R&D program. NERI International will promote 
bilateral and multilateral research focused on advanced technologies to 
improve safe and efficient nuclear power plant operation and waste 
management. This program, funded jointly by all participating nations, 
provides the United States an opportunity to further leverage its 
nuclear energy R&D dollars.
    The nuclear energy industry also encourages the Committee to 
authorize $10 million for the Nuclear Energy Plant Optimization (NEPO) 
program, which improves efficiency and reliability while maintaining 
outstanding safety at U.S. nuclear power plants. This public-private 
partnership is helping to facilitate America's economic growth and 
prosperity--and improving our nation's air quality
    DOE's University Support Program enhances research and educational 
programs in nuclear science at colleges and universities. There are a 
dwindling number of college programs in nuclear engineering and 
science. To maintain our nation's position as the international leader 
in the nuclear field, it is vital that this trend be reversed and that 
our nation's best and brightest technical minds be attracted to the 
nuclear technologies fields. DOE has requested $12 million for this 
program, but the industry believes that Congress should allocate $20 
million in fiscal year 2001 to fund student recruitment, teaching 
facilities, fuel, reactors and other equipment, and instructors to 
educate a new generation of American nuclear specialists.
    Nuclear Nonproliferation.--The industry strongly supports the 
Clinton Administration goal to reduce the threat of nuclear weapons 
arsenals around the world. NEI supports the disposal of excess weapons 
grade nuclear materials through the use of mixed-oxide fuel in reactors 
in the United States and Russia. An ongoing concern of industry is 
sufficient funding to ensure successful implementation of the program. 
NEI also urges the Committee to instruct DOE to provide Congress with 
detailed five-year projections of the expected program costs for 
construction and operation of plutonium disposition facilities.
    Low-Dose Radiation Research.--The nuclear industry strongly 
supports continued funding for the DOE's low-dose radiation research 
program. This program will produce an enhanced understanding of low-
dose radiation effects to assure that public and private resources are 
applied in a manner that protects public health and safety without 
imposing unacceptable risks or unreasonable costs on society.
    Nuclear Research Facilities.--The nuclear industry is concerned 
with the declining number of nuclear research facilities. We urge the 
Committee to request that DOE provide it with a long-term plan for 
using existing nuclear research facilities, such as the Fast Flux Test 
Facility, as well as for development of new research facilities.
    Uranium Facility Decontamination and Decommissioning.--The industry 
fully supports cleanup of the gaseous diffusion plants at Paducah, Ky., 
Portsmouth, Ohio; and Oak Ridge, Tenn. Each year, commercial nuclear 
power plants contribute more than $150 million to the government-
managed uranium enrichment plant Decontamination and Decommissioning 
Fund (D & D Fund). NEI urges the Committee to assure that these monies 
are spent on D&D activities at these facilities. Other important 
environmental, safety and/or health activities at these facilities 
should be paid for out of the general fund. An important factor adding 
unnecessary costs to site cleanup is the overlapping and conflicting 
authority between EPA and DOE that hinders development of consistent 
federal radiation protection standards. We urge the Committee to 
support the Energy Department in finalizing its proposed 
decommissioning standards, consistent with those of the NRC, for the 
agency's sites. This would ensure safe, and timely standards for the 
agency's extensive environmental restoration program.
    International Nuclear Safety Program & Nuclear Energy Agency.--NEI 
supports the funding requested for both DOE and NRC the international 
nuclear safety programs of both the DOE and NRC. They are programs 
aimed at the safe commercial use of nuclear energy.
    Medical Isotopes.--The nuclear industry supports the 
Administration's program for the production of medical and research 
isotopes. However, NEI is concerned about DOE's dismantling of the 
calutrons at the Oak Ridge National Laboratory without first 
identifying new cost effective technology to supply the vital stable 
isotopes produced at that facility. We support continued funding for 
the Advanced Nuclear Medicine Initiative to fill the gap where other 
funding sources, such as the National Institute of Health, have been 
either unable or unwilling to provide support for radioisotope 
production.
                                 ______
                                 

   Prepared Statement of The Business Council for Sustainable Energy

                              INTRODUCTION

    The Business Council For Sustainable Energy is pleased to offer 
testimony to the Energy and Water Subcommittee of the House 
Appropriations Committee on the role for Government in promoting energy 
research and development, as it relates to renewable energy programs at 
the Department of Energy (DOE).
    The Council was formed in 1992 and is comprised of businesses and 
industry trade associations that share a commitment to realize our 
nation's economic, environmental and national security goals through 
the rapid deployment of clean and efficient natural gas, energy 
efficiency, and renewable energy technologies. Our members range in 
size from Fortune 500 enterprises to small entrepreneurial companies, 
to national trade associations.
    As recent events have brought to us as a nation once again, few 
activities have greater impact on our nation's economy, environment, 
and security than the production and use of energy. Our economic well-
being depends on energy expenditures, which account for 7 to 8 percent 
of the nation's gross domestic product and a similar fraction of U.S. 
and world trade. Energy production and use also account for many 
environmental problems, such as smog, acid rain and the accumulation of 
greenhouse gases in the atmosphere. Our national security is 
increasingly linked to energy production and use, given our nation's 
increasing dependence on foreign oil sources, including those from the 
politically unstable Middle East. Expanded reliance on natural gas, 
energy efficiency and renewable energy are the three pillars of a more 
secure and sustainable energy strategy that will help strengthen the 
U.S. economy and clean up the environment.

         FEDERAL PROGRAMS TO PROMOTE RENEWABLE ENERGY RESOURCES

    The Council recognizes that suppliers and users of energy--not the 
Federal Government--ultimately will decide which energy sources meet 
our future needs. However, the Federal Government does play an 
important role in helping the private sector share the risk of 
investing in deployment of clean technologies that, while at or near 
economical viability, face obstacles to their wide market availability. 
The Council would like to describe the following programs which can 

STRENGTHEN THE NATION'S PORTFOLIO OF ENERGY GENERATION TECHNOLOGIES.
                                  WIND

    World markets for utility-scale wind energy are growing at an 
unprecedented rate. Global installed generating capacity is estimated 
to have increased by more than 25 percent annually since 1990, and at a 
rate of 40 percent annually over the last five years. In 1999, more 
than 3,600 MW of new wind energy generating capacity were installed 
worldwide, bringing total installed capacity to the 13,400 MW range. 
This is the largest-ever worldwide single-year addition to wind 
generating capacity.
    Domestically, from mid-1998 to mid-1999, some 925 megawatts (MW) of 
new generating capacity were installed in the U.S.--more than twice the 
amount added in 1985, the previous record year. In addition, nearly 200 
MW of existing capacity were ``repowered'' with new turbines replacing 
older, less efficient ones. These additions bring total U.S. wind 
capacity to about 2,500 MW.
    More Emphasis Is Needed on Small Wind Turbines: Homes consume more 
electricity than either businesses or industry: 35 percent of the 3.2 
trillion kWh consumed in 1998. Distributed generation with small 
customer-sited power plants has great potential for reducing customer 
energy costs, promoting competition in the marketplace, and 
strengthening the nation's electrical supply network. Renewable energy 
technology for homes and farms include solar photovoltaics, 
concentrated solar thermal, and small wind turbines (up to 50 kW). The 
Council, therefore, supports the $6 million fiscal year 2001 Small Wind 
Turbine Initiative proposed by the American Wind Energy Association, 
which would provide more customer choice.
    The Small Wind Turbine Initiative (SWTI) will reduce the costs of 
small wind systems for homes, farms, and small businesses by promoting 
deployment leading to higher production volumes, reducing market 
barriers, and improving the technology. SWTI aims to make small wind 
turbines cost effective for an estimated 6-10 million potential rural 
residential users in the 2010-2030 timeframe. Specific program goals 
for 2010 are:
  --Energy costs below $0.06/kWh for 5 kW systems and below $0.05/kWh 
        for 50 kW systems in Class 2 wind regimes
  --100,000 systems installed (approx. 1,000 MW)
  --At least 200 systems (2 MW) in all fifty states
    Specific recommended program elements are as follows:
    Partnerships for Technology Introduction (fiscal year 2001 $2 
million).--This activity is a follow-on to the successful $1 million 
fiscal year 1999 Small Wind Field Verification Program and aims to 
engage a wider body of participants including federal agencies.
    Advanced Home Turbine (fiscal year 2001 $1.5 million).--This new 
activity will initiate the cost-shared industry development of 2-3 
advanced 1-8 kW wind turbines suitable for use on residences with as 
little as \1/4\ acre of land. These turbines must use space very 
efficiently and have extremely low environmental (noise and visual) 
impacts.
    State and Local Policy Support (fiscal year 2001 $1 million).--This 
new activity will provide small wind technical and policy support for 
state utility restructuring initiatives and it will create a program to 
help address zoning issues.
    International Clean Energy Initiative (fiscal year 2001 $1.5 
million).--This new activity would try to accelerate the RD&D of small 
wind technology to developing countries and increase small wind's 
global energy contribution.
    Funding for Cooperative Research and Testing will provide support 
for industry testing at the National Wind Technology Center (NWTC) in 
Rocky Flats, Colorado. This will allow for continued development of a 
U.S.-based certification capability for wind energy technologies. 
Ultimately, streamlined certification criteria will make it easier for 
U.S. businesses to market and sell American-made wind turbine 
technologies in international markets.
    The main focus of the applied research program is development of 
models to better understand aerodynamics (through wind tunnel tests), 
fatigue damage prediction and structural reliability capabilities. 
Modeling and code design work is underway at both the National 
Renewable Energy Laboratory (located in Golden, Colorado) and the 
Sandia National Laboratory (New Mexico).
    The Council supports DOE's total request of $50.5 million for wind 
energy research and development in fiscal year 2001 to fund projects in 
turbine research ($14.5 million), cooperative research ($21 million) 
and applied research ($15 million). This level of funding is 
particularly important to continue developing next generation wind 
turbine technologies needed to keep the U.S. industry competitive in 
restructured domestic markets and in the fast growing, highly 
competitive international markets.

                              SOLAR ENERGY

    The United States leads the world in the diverse portfolio of solar 
technologies: photovoltaics (PV) for manufacturing; thin films and 
energy services; solar thermal power in advanced concentrations (solar 
power towers, parabolic troughs, and dish-engines); and solar buildings 
in integrated systems and energy services delivery. However, our 
international competitors are positioning themselves to take our market 
share from vast, multibillion dollar world markets, as a result of 
strong support provided by their respective governments--especially in 
Japan and Germany--through a variety of aggressive programs. 
Maintaining our lead requires determined U.S. Government action, not 
only to support international activities but also to secure a position 
in growing domestic markets.
    Solar technologies available today include PV, solar water and pool 
heating, solar process heating, and solar thermal power technologies. 
Faster integration of solar energy systems in both supply- and demand-
side applications in our domestic economy, combined with support for 
increased exports of U.S. solar technologies, will have the parallel 
benefits of creating thousands of new high-technology manufacturing 
jobs while improving our environment. The Council supports the trend 
toward market-driven, industry cost-shared programs designed to 
leverage federal dollars with private-sector participation to enhance 
private-sector understanding and use of these technologies.
    Improving conversion efficiency of solar panels and reducing 
manufacturing costs will play a key role in sustaining U.S. dominance 
in the area of PV. The Council supports DOE's photovoltaic system 
program. PV programs are among the best leveraged (the PV COMPACT 
program leverages $4 and $5 for every federal dollar expended) in DOE. 
Our two most formidable competitors, Japan and Germany, outspend DOE's 
investment in PV research and development and PV commercialization 
programs. While U.S. industry is exporting a significant amount of its 
products to these countries, most expect this demand to rapidly 
diminish as in-country manufacturing capabilities are increased. As an 
example, the Japanese Ministry of International Trade and Industry has 
a domestic deployment goal of 400 megawatts of PV in 2000 and its 
manufacturers are responding to the challenge.
    Japanese manufacturers are expected to expand their annual 
production capacity four-fold over the next three years. Not only will 
this expansion allow the Japanese industry to meet much of its domestic 
demand for PV; it will enable Japan to overtake the U.S. in terms of 
global market share. The Council continues to support the 
Administration's Million Solar Roofs (MSR) Initiative.
    The Council supports DOE cost-shared initiatives in R&D (thin-films 
and other advanced materials, manufacturing and other solar initiatives 
which address these issues). Equally important is the concept of 
building integrated PV programs where manufacturers, systems 
integrators and utilities work together to reduce the cost of PV 
generated electricity. The Council also supports the Department's PV 
COMPACT program. It is a collaborative effort involving more than 80 
electric utilities (representing over half the electricity produced in 
the U.S.) and other interested organizations to garner the economic, 
commercial, and environmental benefits of PV technologies.
    PV and other solar technologies offer the U.S. environmentally 
benign, cost-effective energy supply options in a variety of market 
applications. The Council is highly supportive of PV programs, and 
requests $102 million for DOE programs. The market viability of these 
technologies is demonstrated in growing private sector interest in 
developing new manufacturing facilities related to solar industries. In 
the area of PV production alone, the last four years have witnessed six 
U.S. companies announce plans to construct new PV plants. This activity 
is a unique example of DOE funding encouraging significant private-
sector investment that creates new jobs. The Council strongly urges 
Congress to continue supporting public/private partnerships that help 
ensure that U.S. companies can compete effectively in rapidly emerging 
world renewable energy markets.
    The Council also supports PV programs within DOE's Office of Energy 
Efficiency and Renewable Energy, specifically DOE's Solar Thermal 
Buildings program, a research and development program focusing on 
materials and components for solar water and space heating technologies 
for building applications. Based at the National Renewable Energy 
Laboratory and the Florida Solar Energy Center, the program also has a 
strong technology standard and certification component. Activities in 
fiscal year 2001 should include the completion of collaborative 
projects with utilities and builders to assess their impact on 
improving solar water heating technology and the completion of a 
cooperative research and development agreement with the Salt River 
Agricultural Improvement and Power District to develop a solar water 
heater that could provide hot water at a cost of 6 to 7 cents per 
kilowatt-hour.
    The Council supports the Solar Thermal Electric and Process Heat 
programs, an R&D program on materials and components with a heavily 
cost-shared technology validation component. Over the past six years, 
the primary program focus has been in collaboration with industry to 
develop advanced solar thermal electric technologies to the point of 
commercial readiness.
    The Council also supports concentrated solar power, and solar 
buildings programs, specifically seeking $20.5 million for federal 
concentrated solar power research programs, and $5.5 million for solar 
buildings.

                           DISTRIBUTED POWER

    Customers throughout the nation are seeking technologies that are 
scaled to a competitive market and that provide the quality and 
reliability assurances needed by an economy increasingly influenced by 
electronic commerce. Accordingly, power providers are developing state 
of the art technologies aimed at providing customers with the cleanest, 
most reliable, and cheapest power possible. This market cannot develop 
without the accumulation of real-world operating experience, but the 
uncertainties of the unfolding marketplace are inhibiting such 
deployment. Last year the Congress added funding for a $3 million pilot 
effort to demonstrate these technologies, and that program was greatly 
oversubscribed by industry. DOE has requested the continuation of this 
program, but BCSE strongly supports increasing it to $9 million. 
Further research is also needed in order to develop cost-effective 
interconnection technologies and standards which would enable smaller 
distributed generation products to connect and operate safely with the 
electric grid. DOE has requested $250,000, but BCSE strongly feels this 
should be increased to $2.5 million.

                 RENEWABLE ENERGY PRODUCTION INCENTIVE

    As part of the Energy Policy Act of 1992 (Sec. 1212), Congress 
passed the Renewable Energy Production Incentive (REPI) to encourage 
the development of renewable energy projects in tax-exempt municipal 
utilities. This program has been successful in helping municipal 
utilities such as the Sacramento Municipal Utility District develops 
wind and solar generating facilities. We believe the Administration's 
request is insufficient to meet the requirements of this program, and 
request the Committee increase to $8 million the funding for the REPI.

                           GEOTHERMAL ENERGY

    The Council supports federal programs directed towards taking 
advantage of geothermal resources. U.S. geothermal resources already 
displace 22 million tons of CO<INF>2</INF> annually. Internationally, 
nearly 20,000 megawatts of electrical and thermal energy are recovered, 
with the potential to quadruple that harvest over the next 20-30 years. 
The Council affirms a budget increase to $27 million in geothermal 
funding in fiscal year 2001.

                        INTERNATIONAL ACTIVITIES

    Finally, the Council would like to offer its support of federal 
programs designed to help open important international markets for 
renewable energy technologies. Competition in rapidly growing 
developing country markets is intense; U.S. renewables manufacturers 
face the dual obstacles of competition from conventional energy sources 
and foreign renewables manufacturers buoyed by government assistance.
    Our participation in international markets is more critical than 
ever. Growth in developing nations will take their energy use levels 
above that of the industrialized nations within two decades, and after 
their expenditure of $4 to $5 trillion. Traditionally, environmentally 
friendly and efficient technologies are not the first choice of 
decision-makers in these markets. With encouragement and bureaucratic 
streamlining, however, U.S. clean energy exports could double in less 
that five years, resulting in up to $5 billion in export revenues and 
100,000 new American jobs. Global benefits include reducing greenhouse 
gas and sulfur particulate emissions by bypassing reliance on 
traditional energy sources, and providing for the energy needs of those 
now without electricity.
    The Council is extremely supportive of the fiscal year 2001 funding 
for international energy programs like the International Clean Energy 
Initiative, and urges that funding for this and or similar programs not 
come at the expense of existing research, development and deployment 
programs. Beyond the benefit to U.S. exports, these technologies can 
help ensure international economic and political stability by meeting 
the profound infrastructure needs of these countries.

                               CONCLUSION

    Promoting research, development and validation of emerging 
renewable energy and distributed power technologies will result in the 
near-term creation of thousands of new American jobs, stronger 
economies here and abroad, enhanced export opportunities for domestic 
manufacturers, and a cleaner environment. DOE's budget request 
continues federal emphasis on developing low- and non-polluting energy 
technologies and services as a means of achieving these goals. It 
utilizes cost-shared collaboratives with industry to leverage limited 
federal funds in recognition that cooperation with industry is vital 
for addressing market imperfections impeding the widespread use of 
renewables.
    The Council strongly supports this approach, and urges Congress to 
continue its support of federal research, development and validation 
programs for renewable and distributed energy technologies and 
programs. By adopting a robust budget for development of these 
technologies, Congress can demonstrate its genuine commitment to the 
U.S. economy's over-reliance on limited energy options.
                                 ______
                                 

          Prepared Statement of the American Chemical Society

    The American Chemical Society (ACS) would like to thank Chairman 
Pete Domenici and Senator Harry Reid for the opportunity to submit 
testimony for the record on the Energy and Water Development 
Appropriations bill for fiscal year 2001.
    As you may know, ACS is a non-profit scientific and educational 
organization, chartered by Congress, representing 161,000 individual 
chemical scientists and engineers. The world's largest scientific 
society, ACS advances the chemical enterprise, increases public 
understanding of chemistry, and brings its expertise to bear on state 
and national matters. ACS firmly believes that no investment the 
government makes generates a higher rate of return for the economy than 
research and development (R&D). In fact, economic experts maintain that 
today's unprecedented economic growth would not have been realized but 
for the substantial research investments by the public and private 
sectors over the past few decades. Looking ahead, the American Chemical 
Society (ACS) is concerned that constant dollar declines in federal 
support for basic research over the past decade, particularly in the 
physical sciences, have weakened the roots of innovation in all fields 
and put future economic growth at risk. In order to sustain our 
technological leadership and living standards, increased funding for 
basic research should be a top priority for use of the non-Social 
Security budget surpluses. As a framework for increases in R&D, ACS 
supports doubling federal spending on research within a decade, as well 
as balanced funding among different areas of science.

            U.S. DEPARTMENT OF ENERGY BUDGET RECOMMENDATIONS

    ACS strongly supports the 12-percent increase requested for the 
Department of Energy's (DOE) Office of Science (SC). DOE is the 
nation's largest supporter of research in the physical sciences and the 
largest supporter of major scientific user facilities. Most of this 
support is provided through the Office of Science. SC plays a central 
federal role in supporting long-term, peer-reviewed basic research 
across all scientific disciplines, both in universities and national 
laboratories, which strengthens our knowledge base and the training of 
the next generation of scientists. The research supported by SC 
addresses, on a fundamental scientific level, one of the world's most 
pressing problems: how to meet growing demands for energy while 
protecting the environment and ensuring economic growth. Whether the 
challenge is cleaner and more efficient fossil fuels, advancing energy 
efficiency and renewable energy, or cleaner and affordable power, SC 
provides the scientific framework necessary for progress on DOE's 
energy and environmental objectives.
    Nanoscale Science and Engineering.--The Society strongly supports 
SC's important role in the interagency nanotechnology initiative. The 
Office of Science has been a leader in the development of nanoscience 
since the early 1980s. The ability to manipulate and move matter at the 
atomic and molecular level and understand and control the building 
blocks of all physical things can bring revolutionary improvements in 
medicine, electronics, and advanced materials for manufacturing, 
defense, and environmental applications. SC's substantial investment in 
university-based research and in major scientific user facilities will 
play a unique and important role in advancing the chemistry, materials, 
biology, and engineering expertise needed to invigorate this cutting-
edge research.

Basic Energy Sciences
    Within SC, ACS supports the budget request of $1 billion for the 
Basic Energy Sciences (BES) program, which would increase funding by 
$236 million in fiscal year 2001. The most diverse research program 
within DOE, BES funds an array of long-term basic research that 
advances the technology needed to improve energy production and use and 
environmental progress. Although much of the requested increase is 
slated for the Spallation Neutron Source, increases in core, peer-
reviewed research in chemistry, materials, and other areas are 
essential to further departmental missions and maintain progress in the 
physical sciences. BES research, for example, has fostered improvements 
in battery storage, superconducting materials, and the understanding of 
combustion at a fundamental level. Increased investments will also 
support much of DOE's role in the nanotechnology initiative and sustain 
the operation of many of the nation's most sophisticated research 
facilities, which offer researchers world-class capabilities to carry 
out complex experiments that could not be done in other laboratories.

Biological and Environmental Research
    ACS supports a 7-percent increase for the Biological and 
Environmental Research (BER) program in fiscal year 2001. The Society 
is concerned that the $445 million request for BER, an increase of less 
than 3 percent, is inadequate to meet the critical demands of this 
quality program. BER advances fundamental understanding in fields such 
as waste processing, bioremediation, and atmospheric chemistry to 
better understand potential long-term health and environmental effects 
of energy production and use. Progress in these fields is also needed 
to develop and advance new, effective, and efficient processes for the 
remediation and restoration of weapons production sites. The program 
advances understanding of the basic chemical, physical, and biological 
processes of the Earth's atmosphere, land, and oceans, and how these 
processes may be affected by energy production and use, primarily the 
emission of carbon dioxide from fossil fuel combustion. Such research 
includes critical efforts to capture, measure, and reduce carbon and 
other greenhouse gases and the consequences of global climate change. 
ACS also supports a strong role for BER in federal efforts to 
understand and address global climate change, including the Climate 
Change Technology Initiative and the U.S. Global Change Research 
Program.
    Strong funding for DOE's Office of Science is a priority for the 
Society. Investments in basic research within BES and BER should be 
increased in fiscal year 2001 because both programs fund quality, peer-
reviewed research projects that are investments in the true sense of 
the word.
    ACS also supports DOE's ``Industries of the Future'' program within 
the Office of Industrial Technologies (OIT). The program advances 
innovative technologies through cooperative R&D with the nation's most 
energy-intensive industries, including the chemical industry. OIT works 
with these industries to develop both a long-range vision of their 
future competitiveness and a technology roadmap to identify the R&D and 
other investments needed to achieve that vision.
    In the past 7 years, 10 scientists have won Nobel Prizes in 
Chemistry or Physics for their SC-supported research. ACS believes that 
SC research programs warrant increased investment to ensure they can 
continue to support cutting-edge fundamental research across 
disciplines, which provides the scientific foundation needed to support 
DOE's mission in energy, environment, and national defense.
                                 ______
                                 

     Prepared Statement of the Biomass Energy Research Association

    This testimony pertains to the fiscal year 2001 (fiscal year 2001) 
appropriation for mission-oriented, biomass research, development, and 
deployment (RD&D) supported by DOE's Office of Energy Efficiency and 
Renewable Energy (EERE). The Biomass Energy Research Association (BERA) 
is a non-profit association headquartered in Washington, DC. BERA was 
founded in 1982 by researchers and private organizations that are 
conducting biofuels research. Our objectives are to promote education 
and research on renewable biomass energy and waste-to-energy systems 
that can be economically utilized by the public, and to serve as a 
source of information on policies and programs. BERA does not accept 
federal funding for its efforts.
    I would like to thank you, Mr. Chairman, on behalf of BERA's 
members for the opportunity to present our position on the federal 
funding of mission-oriented biomass RD&D. Continued support is 
essential to provide the stimulus to develop environmentally clean, 
indigenous energy resources that can displace fossil fuels, stimulate 
regional and national economic development and employment, reduce our 
dependence on imported oil, improve our energy security, and help to 
eliminate adverse climate and environmental changes.
    I have examined the details of DOE's request for biomass funding in 
fiscal year 2001 for EERE, and would like to offer a few comments about 
our Board's concerns before presenting BERA's recommendations. DOE 
continues to emphasize scale-up projects, the budgets for which are 
large and which adversely impact the research budgets. DOE has 
therefore been required to terminate research in several microbial and 
thermochemical conversion areas. We feel that a balanced research 
program should be sustained and protected, so BERA continues to 
recommend both a diversified portfolio of research and an appropriate 
amount of funding for scale-up without diminishing either EERE's 
research or scale-up programs. Also, DOE's basic research on biomass 
energy outside of EERE by the Office of Science ($41.0 million 
requested for fiscal year 2001), which supports academic research, 
complements EERE's biomass RD&D. Other mission-oriented biomass RD&D 
programs are funded through EERE's Office of Industrial Technologies 
(OIT) under the Interior and Related Agencies Bill. All of these 
projects and programs should be internally coordinated and jointly 
managed at DOE Headquarters. BERA's recommendations for OIT's mission-
oriented biomass programs total $43.826 million and are presented in a 
separate BERA statement for the Interior and Related Agencies Bill.
    DOE's request for EERE's biomass funding under the Energy and Water 
Bill includes details that have usually not been presented in the past. 
We commend EERE for updating their biomass RD&D plan so that it is now 
reasonably clear which projects have been completed, terminated, or are 
new starts. Specifically, BERA recommends that $117 million be 
appropriated for biomass RD&D under the Energy and Water Bill in fiscal 
year 2001.
  --A total of $70.5 million for research and $46.5 million for 
        industry cost-shared scale-up.
  --$34 million for research and $22.5 million for industry cost-shared 
        scale-up projects for Power.
  --$30.5 million for research and $24 million for industry cost-shared 
        scale-up projects for Transportation.
  --$6 million for biomass-based hydrogen research.
    BERA also strongly recommends that the provisions of both the 
Bioenergy Initiative enacted by Congress for fiscal year 2000 and the 
Executive Order ``Developing and Promoting Biobased Products and 
Bioenergy'' be incorporated into the overall federal biomass research 
program. This will enhance the value of the federal expenditures on 
biomass RD&D to the country in many ways.

            ALLOCATION OF APPROPRIATION RECOMMENDED BY BERA

    BERA recommends that the appropriation for fiscal year 2001 be 
allocated as shown in the accompanying table. BERA's recommendations 
are generally listed in the same order as DOE's request for fiscal year 
2001, except we include several research areas that are either new or 
that BERA recommends be restored to sustain a balanced program of 
research and scale-up. Note that the recommended budget for each scale-
up category does not include industry cost-sharing, which is required 
to be a minimum of 50 percent of the total budget.

------------------------------------------------------------------------
                                                Recommended budget
     Office of Energy Efficiency and     -------------------------------
     Renewable Energy--program area        For research    For scale-up
------------------------------------------------------------------------
Power Systems:
    Thermochemical Conversion:
        Cofiring/Ash Deposition.........      $3,000,000  ..............
        Advanced Combustion.............       4,000,000  ..............
        Advanced Gasification...........       2,000,000  ..............
        Advanced Pyrolysis..............       3,000,000  ..............
        Advanced Stationary Fuel Cells..       2,000,000  ..............
        Advanced Process Fuels..........       3,000,000  ..............
        Improved Emissions Control......       4,000,000  ..............
        Wastewater Treatment............       2,000,000  ..............
        Hot Gas Clean-Up................       2,000,000  ..............
    Microbial Conversion: Advanced             2,000,000  ..............
     Anaerobic Digestion................
    Systems Development:
        Biomass/Coal Cofiring...........  ..............      $3,500,000
        Integrated Field Scale-Up.......  ..............       7,000,000
        Vermont Gasifier................  ..............       4,000,000
        Small Modular Systems...........       2,500,000       3,000,000
        Feedstock Production............       2,000,000       4,000,000
        Regional Biomass Energy Program        2,500,000       1,000,000
         \1\............................
                                         -------------------------------
          Subtotal......................      34,000,000      22,500,000
                                         ===============================
Transportation:
    Fermentation Ethanol:
        Advanced Organisms..............       2,000,000  ..............
        Advanced Cellulase..............       8,500,000  ..............
        Advanced Pretreatment...........       2,000,000  ..............
        NREL Pretreatment Pilot Reactor.  ..............       3,000,000
        NREL Fermentation Pilot Plant...  ..............       5,000,000
    Commercial Ethanol Plants by Company
     and Location:
        Arkenol, Rio Linda, CA \2\ \3\..  ..............  ..............
        BCI International, Jennings, LA   ..............  ..............
         \2\ \4\........................
        BCI International, Gridley, CA    ..............       4,000,000
         \5\............................
        Masada Resources, Orange County,  ..............  ..............
         NY \2\ \6\.....................
        Sealaska Corp., Southeast AK \7\  ..............       2,000,000
        Corn Stalk Feedstock \8\........  ..............       5,000,000
        1Advanced Mobile Fuel Cells.....       3,000,000  ..............
        Renewable Diesel................       1,000,000  ..............
        Feedstock Production............       2,000,000       4,000,000
    Thermochemical Conversion:
        Ethanol.........................       3,000,000  ..............
        Mixed Alcohols..................       3,000,000  ..............
        Other Oxygenates from Biomass...       3,000,000  ..............
        Regional Biomass Energy Program        3,000,000       1,000,000
         \1\............................
                                         -------------------------------
          Subtotal......................      30,500,000      24,000,000
                                         ===============================
Hydrogen Research: \9\
    Thermal Processes (Reforming).......       3,000,000  ..............
    Photolytic Processes (Algae)........       3,000,000  ..............
                                         -------------------------------
          Subtotal......................       6,000,000  ..............
                                         ===============================
          Total.........................      70,500,000      46,500,000
                                         ===============================
      Grand Total.......................            117,000,000
------------------------------------------------------------------------
\1\ BERA strongly recommends that for future funding requests, the
  Regional Biomass Energy Program be treated as a line item.
\2\ DOE contribution to plant costs completed.
\3\ Rice straw, concentrated acid.
\4\ Bagasse, dilute acid.
\5\ Rice straw, dilute acid.
\6\ Refuse-derived fuel, concentrated acid.
\7\ Waste softwoods.
\9\ For plant located in Midwest.
\9\ BERA's recommendations pertain only to the biomass-based portion of
  Hydrogen Research.

           PROGRAM INTEGRATION, COORDINATION, AND MANAGEMENT

    For several years, BERA has urged that all of the biomass-related 
research funded by DOE should be internally coordinated and jointly 
managed at DOE headquarters. The program managers at DOE Headquarters 
should be heavily involved in this activity. Multi-agency agreements to 
expand the coordination of biomass energy research programs between two 
or more federal agencies do not seem to have been too effective in the 
past. Implementation of the Bioenergy Initiative enacted by Congress 
for fiscal year 2000 to identify each federal agency that provides 
funding related to producing biomass energy, each agency's programs, 
and the expenditures by each agency, coupled with President Clinton's 
Executive Order 13134 issued on August 12, 1999, ``Developing and 
Promoting Biobased Products and Bioenergy,'' should make it possible to 
extend the coordination of all of these programs through a National 
Coordination Office to all federal agencies involved in biomass energy 
development, as proposed in the Executive Order.
    BERA strongly recommends that these initiatives be continued and 
incorporated into the overall federal biomass RD&D program. In fiscal 
year 2001, it is especially important that the biomass research of DOE 
and the U.S. Department of Agriculture be closely coordinated. If the 
initiatives are fully implemented, the value of the federal 
expenditures on biomass research to the country will be enhanced in 
many different ways.

   BERA RECOMMENDS $70.5 MILLION FOR RESEARCH AND $46.5 MILLION FOR 
      INDUSTRY COST-SHARED, SCALE-UP PROJECTS FOR FISCAL YEAR 2001

    BERA's recommendations consist of a balanced program of mission-
oriented RD&D on feedstock production and conversion research and 
technology transfer to the private sector. Advanced power generation 
technologies, alternative liquid transportation fuels, and innovative 
hydrogen-from-biomass processes are emphasized.
    In addition, BERA strongly urges that at least 50 percent of the 
federal funds for biomass research, excluding the funds for scale-up 
projects, are used to sustain a national biomass science and technology 
base via subcontractors outside DOE's national laboratories. While it 
is desirable for the national laboratories to coordinate this research, 
increased support for U.S. scientists and engineers in industry, 
academe, and research institutes that are unable to fund biomass 
research will encourage commercialization of emerging technologies and 
serious consideration of new ideas. It will also help to expand the 
professional development and expertise of diverse researchers committed 
to the advancement of biomass technologies.
    BERA's specific recommendations for research, the industry cost-
shared scale-up projects, and the dollar allocations are listed in the 
table (page 2). Additional commentary on each program area is presented 
below in the same order as listed in the table.

                             POWER SYSTEMS

    Thermochemical Conversion.--Currently, there is over 8,000 MW of 
electric power capacity fueled by biomass in the United States. 
Municipal solid wastes, forest and wood processing residues and pulping 
liquors are the primary fuels. Continued research to develop advanced 
biomass combustion, gasification, and pyrolysis methods could have 
environmental and economic benefits that can lead to significant growth 
in biomass power generation. Much of this research has been phased out 
by DOE. Research (not scale-up) should be initiated or re-stored with 
the goal of developing the next generation of thermochemical biomass 
conversion processes for power generation. Stationary, integrated 
biomass gasifier-fuel cell systems should be developed as potential, 
high-efficiency power generation systems. New fuel cells that can 
tolerate the sulfur levels found in certain biomass-derived fuel gases 
without sacrificing system affordability and the testing of integrated 
advanced fuel cell systems should be included in this work. Research is 
also recommended to develop advanced processed fuels and systems for 
handling these fuels. These fuels are, for example, pelletized wood 
wastes and densified solid waste biomass-coal fines that are easily 
handled and fed to existing combustion devices. In addition to these 
research programs, priority should also be given to the development of 
innovative enabling technologies consisting of advanced emission 
control systems, improved ash disposal methods and new ash uses, low-
cost, hot gas clean-up methods, and advanced materials that eliminate 
corrosion and erosion problems for thermochemical reactors and 
turbines. The status of these technologies is far from what is needed, 
yet they are essential for practical, low-cost thermochemical 
conversion of biomass.
    Microbial Conversion.--Microbiological gasification by anaerobic 
digestion is unique in that it produces methane directly, the major 
component in natural gas, as a primary product from a full range of 
virgin and waste biomass feedstocks. However, DOE has terminated most 
of the research needed to develop advanced systems that yield low-cost 
methane by reducing capital and operating costs. This research can lead 
to the alleviation of numerous environmental problems encountered 
during waste treatment and disposal, and should be restored.
    Systems Development.--The scale-up of biomass gasification for 
medium-Btu gas and power in Vermont continued in fiscal year 2000. This 
project should be funded in fiscal year 2001 to allow completion of the 
gasification test runs and the testing of an advanced turbine system 
for the generation of 8-12 MW from wood. The development of hot gas 
clean-up technology, which was terminated before completion at another 
gasification project site, should be restored. This work should be 
continued until the technology is perfected. The integrated biomass 
production-power generation projects chosen by DOE for scale-up in New 
York (willow-coal cofiring), and Iowa (switchgrass-coal cofiring) 
should be continued as well as DOE's initiative to expand biomass-coal 
cofiring at additional sites, such as the wood waste-coal project at 
NIPSCO. Plans should also be made to fund scale-up of the Whole Tree 
Energy system as part of this effort. Research on the development of 
advanced biomass-coal cofiring systems and small modular direct biomass 
combustion turbines should be sustained to develop advanced designs for 
small modular systems, and advanced combined cycle systems that can 
supply cogenerated power.
    Feedstock Production.--Land-based biomass grown as energy crops can 
supply large amounts of fossil fuel substitutes. Considerable progress 
has been made on the efficient production of short-rotation woody 
crops, and on the growth of herbaceous species. In addition, research 
on tissue culture techniques and the application of genetic engineering 
methods to low-cost energy crop production have shown promise. This 
research should be continued to develop advanced biomass production 
methods that can meet the anticipated feedstock demand. BERA also 
recommends that industry cost-shared, scale-up projects chosen by DOE 
of at least 1,000 acres in size be continued to develop large-scale, 
commercial energy plantations in which dedicated energy crops are grown 
and harvested for use as biomass resources. These projects should be 
strategically located and should utilize the advanced biomass 
production methods already developed in the research programs. 
Successful completion of this work will help biomass energy attain its 
potential by providing the data and information needed to design, 
construct, and operate new biomass production systems that can supply 
low-cost feedstock for conversion to electric power and transportation 
fuels. It is recommended that the appropriation for this activity be 
shared between EERE's Power Systems and Transportation Fuels programs.

    Regional Biomass Energy Program.--See Transportation.

                             TRANSPORTATION

    Fermentation Ethanol.--Research on the conversion of low-cost 
lignocellulosics to fermentation ethanol should be continued. The 
targets should include the development of genetically engineered 
organisms that can ferment all the C<INF>5</INF>/C<INF>6</INF> sugars 
in biomass at the same time, low-cost cellulase production for 
simultaneous saccharification-fermentation, and advanced pretreatment 
of low-cost biomass feedstocks. This research should focus on the 
development of accurate bases from which advanced technologies can be 
scaled-up for commercial use with confidence, and on advanced 
technologies that significantly reduce processing costs. NREL's 
fermentation pilot plant and counter-current pretreatment pilot plant 
reactor installed in fiscal year 2000 should be operated on a cost-
shared basis with DOE's industrial partners to support the commercial 
ethanol plant program
    Commercial Ethanol Plants.--DOE's contributions to the costs of 
three fermentation ethanol plants (Rio Linda, CA; Jennings, LA; Orange 
County, NY) have been completed, and further contributions to the costs 
of two other fermentation ethanol plants (Gridley, CA; Southeast AK) 
are planned in fiscal year 2001, as shown in the table on page 2. 
Another plant using corn stalk feedstocks is planned for the Midwest in 
fiscal year 2001. The processes used are conventional and advanced 
technologies. BERA recommends that the existing projects should be 
completed, the results analyzed, and the technologies confirmed before 
other scale-up projects are started.
    Advanced Mobile Fuel Cells.--Research should be initiated to design 
and perfect vehicular fuel cell systems equipped with on-board 
reforming units for biomass and biomass-based liquids. The goal should 
be the production of low-cost fuel gases suitable for direct use as 
motor fuels and as fuels for fuel cells.
    Renewable Diesel.--This research, formerly called Biodiesel, should 
be focused on methods of reducing production costs of renewable diesel 
fuels and biomass-based diesel fuel additives. DOE plans to evaluate 
waste grease streams as one approach to this objective. BERA recommends 
that most of this effort focus on increasing natural triglyceride 
yields, which are the main barrier to improved economics for biodiesel, 
and to the evaluation of other potential biomass feedstocks such as 
tall oils that can be directly transformed into high-quality, renewable 
diesel fuels having high cetane numbers by hydroconversion.
    Feedstock Production.--See Power Systems.
    Thermochemical Conversion.--Almost all of DOE's RD&D on liquid 
transportation fuels from biomass emphasizes fermentation ethanol. 
Thermochemical conversion research should be started that targets 
liquid motor fuel production at costs competitive with those of 
gasolines and diesel fuels in the near-to-mid term. Research on the 
thermochemical conversion of low-grade biomass for use as motor fuels 
shows great promise. Preliminary research on the non-microbial 
conversion of synthesis gas illustrates the potential of producing 
ethanol, mixed alcohols and oxygenates, ethers, and coproducts at costs 
that are less than the corresponding costs of liquids produced by 
microbial and fermentation processes. Some analysts project that fuel 
ethanol from low-grade biomass by thermochemical processes may be able 
to attain production costs in the same range as methanol from natural 
gas feedstocks. Each of these areas should be added to DOE's program.
    Regional Biomass Energy Program.--The Regional Biomass Energy 
Program (RBEP), established by Congress in 1983, is the information and 
outreach arm of DOE's biomass energy RD&D programs. The RBEP develops 
and disseminates information and provides technical and financial 
assistance to biomass energy developers and entrepreneurs. The RBEP 
also gathers information in the field to keep DOE informed of current 
situations and opportunities. Administratively housed in EERE's Office 
of Fuels Development, and partially funded by the EERE's Office of 
Biomass Power Systems, the RBEP consists of five regional 
administrations to account for the regional variations in biomass 
resource capabilities and energy needs. Within the national goals of 
DOE and regional constraints, the RBEP develops regional goals and 
strategies using stakeholder participants, and conducts cost-shared 
activities to develop state bioenergy programs and a strong biomass 
energy industry. These activities include assisting with technology 
demonstrations in the field, identifying and addressing institutional 
barriers, performing resource assessments, and removing or reducing 
market barriers. Historically, the RBEP has been effective in 
increasing national biomass energy consumption, reducing the country's 
dependence on fossil fuels, enhancing the environment, and creating 
jobs and other economic development, particularly in rural areas. Over 
its 17-year existence, the RBEP has developed working relationships 
with virtually all levels of government, academe, and the private 
sector. The RBEP's work is conducted in partnerships that provide from 
$2 to $4 in cost sharing for every $1 in RBEP funds. In fiscal year 
2001, the role of the RBEP will become even more important by providing 
information and outreach support to DOE's power, transportation fuels, 
and chemicals-from-biomass programs and the initiatives described in 
the previous section. BERA recommends that the appropriation for the 
RBEP be shared between EERE's Power Systems and Transportation Fuels 
programs. For future funding requests, BERA strongly recommends that 
the RBEP be treated as a line item.

                           HYDROGEN RESEARCH

    Research on the thermal reforming of biomass in a supercritical 
fluid reactor and in an advanced-design plasma reformer, and on water 
splitting with algae, which is the equivalent of photolysis, should be 
continued. Detailed study of each of these conversion techniques may 
lead to practical processes for the low-cost production of hydrogen.
                                 ______
                                 

      Prepared Statement of the American Public Power Association

    The American Public Power Association (APPA) is the national 
service organization representing the interests of over 2,000 municipal 
and other state and locally owned utilities throughout the United 
States. Collectively, public power utilities deliver electric energy to 
one of every seven U.S. electric consumers (about 45 million people), 
serving some of the nation's largest cities. The majority of APPA's 
member systems are located in small and medium-sized communities in 
every state except Hawaii.
    We appreciate the opportunity to submit this testimony outlining 
our fiscal year 2001 appropriations priorities within your 
Subcommittee's jurisdiction.

                       RENEWABLE ENERGY PROGRAMS

    APPA believes it is important to continue development and 
commercialization of clean, renewable energy resources as we face the 
prospect of increased competition in the electricity marketplace. Two 
of the most significant barriers to greater renewable energy use are 
cost and lack of demonstrated experience. Because of the requirement to 
supply electricity to customers on demand, with high reliability at a 
reasonable cost, electric utilities often are conservative when 
evaluating new technologies. Evolving deregulation, coupled with 
unstable fuel prices, now adds a further challenge to greater adoption 
of relatively unproved renewable technologies.
    We applaud the Administration's emphasis on DOE energy efficiency 
and renewable programs and ask that this Subcommittee work to ensure 
that renewable energy remains part of the full range of resource 
options available to our nation's electric utilities. APPA supports a 
minimum of $409 million for Solar and Renewable Resources Technologies 
in fiscal year 2001. This funding level will go a long way in 
furthering the call for significant expansion of renewable energy R&D 
programs in order to meet the energy challenges and opportunities of 
the 21st century.
          RENEWABLE ENERGY PRODUCTION INCENTIVE PROGRAM (REPI)

    APPA urges this subcommittee's continued support for the Renewable 
Energy Production Incentive Program (REPI), the renewable energy 
incentive program authorized by the Energy Policy Act of 1992, at a 
level sufficient to make full incentive payments to all eligible 
facilities. In recognition of budget constraints, however, we support 
and urge the Committee to support the Administration request of $4 
million for fiscal year 2001.
    The REPI program increases in importance as new air quality 
regulations are imposed and renewable energy mandates considered. 
Public power systems will be at a disadvantage under the currently 
structured REPI if renewable portfolio standards are included in 
electricity restructuring proposals. Unlike the certainty of the tax 
credits and incentives available to private entities, REPI funding is 
erratic and insufficient to offset the higher costs of using 
alternative energy resources. REPI permits DOE to make direct payments 
to publicly owned electric utilities at the rate of up to 1.5 cents/kWh 
of electricity generated from solar, wind, certain geothermal and 
biomass electric projects. Because projects of this nature often 
require a long lead-time for planning and construction, it is 
imperative that stable and predictable funding be provided. APPA urges 
this subcommittee's support of REPI at $4 million.

                  STORAGE FOR HIGH-LEVEL NUCLEAR WASTE

    We support the Administration's budget request of $437.5 million 
for storage of high-level nuclear waster an increase of $85 million 
over fiscal year 2000 funding. These funds will enable DOE to continue 
preparations to accept spent fuel as well as to continue scientific 
studies at Yucca Mountain assessing the viability of the site.

                  ADVANCED HYDROPOWER TURBINE PROGRAM

    The Advanced Hydropower Turbine Program is a joint industry/
government cost-share effort to develop a new, improved hydroelectric 
turbine superior in its ability to protect fish and aquatic habitat and 
operate efficiently over a wide range of flow levels. We support 
funding this program at $5 million in fiscal year 2001
    During the next 15 years, 220 hydroelectric projects will seek new 
licenses from the Federal Energy Regulatory Commission (FERC). Publicly 
owned projects constitute 50 percent of the total capacity that will be 
up for renewal. Many of these projects were originally licensed over 50 
years ago. Newly imposed licensing conditions can cost hydro project 
owners 10 to 15 percent of power generation. A new, improved turbine 
could help assure any environmental conditions imposed at relicensing 
in the form of new conditioning, fish passages or reduced flows are not 
accomplished at the expense of energy production. This is particularly 
important due to the increasingly competitive electric market in which 
utilities operate today. Flow levels will affect the economics of each 
of these projects and many will be unable to compete if the current 
trend toward flow reductions continues.

             FEDERAL POWER MARKETING ADMINISTRATIONS (PMAS)
 
   APPA urges the Committee to support funding of $89 million for 
purchase power and wheeling (PPW). APPA has consistently supported 
increased efficiency in PMA operations. However, Congress must 
recognize that federal power sales revenues cover all PMA operating 
expenses plus all Corps of Engineers and Bureau of Reclamation 
operations, maintenance, replacement and rehabilitation expenses for 
hydropower and repayment of the federal investment in the construction 
of the projects plus interest. Power sales also support many nonpower-
related expenses associated with these projects.
    The Administration's budget request includes language that resolves 
a needed scoring change on the use of appropriations for purchase power 
and wheeling and sends customer payments for PPW services directly to 
DOE rather than the Treasury.
    However, APPA is concerned that the Administration does not request 
adequate funding for fiscal year 2001 for PPW. The Administration 
request of $70 million is inadequate to meet PPW services. APPA 
believes the Administration's proposal which sunsets appropriations and 
puts spending caps on PPW activities of the Western Area Power 
Administration, Southwestern Power Administration and Southeastern 
Power Administration in the next four years is unnecessary since 
customers payments for PPW services match DOE outlays on a dollar for 
dollar basis.
    APPA urges the Committee to increase PPW funding levels for the 
three PMAs to $89 million and strike language that establishes spending 
caps and sunsets the use of appropriations after fiscal year 2004.

              FEDERAL ENERGY REGULATORY COMMISSION (FERC)

    APPA supports the Administration's budget request of $175 million 
in fiscal year 2001 for the Federal Energy Regulatory Commission 
(FERC). Adequate funding for the agency is particularly necessary at 
this time in order to provide the resources needed to continue 
implementation of electric utility industry restructuring and to 
address major issues such as development of regional transmission 
groups.
    The FERC is charged with regulating certain interstate aspects of 
the natural gas, oil pipeline, hydropower, and electric industries. 
Such regulation includes issuing licenses and certificates for 
construction of facilities, approving rates, inspecting dams, 
implementing compliance and enforcement activities, and providing other 
services to regulated businesses. These businesses will pay fees and 
charges sufficient to recover the Government's full cost of operations.

                        CLIMATE CHANGE PROGRAMS

    APPA generally supports the fiscal year 2001 Budget Request of $1.1 
billion to fund the Climate Change Technology Initiative. The 
initiative consists of a package of tax incentives and investments in 
research and development to stimulate increased energy efficiency and 
to encourage greater use of renewable energy sources. APPA is an 
aggressive advocate of federal support for energy research and 
development. While these programs do not directly provide benefits or 
incentives to public power systems, APPA supports them nevertheless 
because they will result in substantial improvements to the 
environment.
    U.S. DOE programs under the Climate Change Initiative include a mix 
of tax credits and federal-spending programs designed to increase 
efficiency and greater use of renewable energy resources. Important 
elements of the initiative include support for the deployment of clean 
technologies for buildings, transportation industry and electricity.
                                 ______
                                 

            NEW YORK AND NEW JERSEY WATER RESOURCE PROJECTS

     Prepared Statement of the Green Brook Flood Control Commission

    Mr. Chairman and Members of the Subcommittee: My name is Vernon A. 
Noble, and I am the Chairman of the Green Brook Flood Control 
Commission. I submit this testimony in support of the Raritan River 
Basin--Green Brook Sub-Basin project, which we request be budgeted in 
fiscal year 2001 for $4,000,000 in Construction General funds.
    Extremely heavy rains began on Thursday, September 16, 1999, 
extending over the Green Brook Sub Basin of the Raritan River Basin. 
These rains were heavily concentrated in the upper part of the Raritan 
River Basin.
    By night fall on that day, the river systems were greatly swollen, 
particularly the Raritan River. The flood levels in the Raritan River 
have a direct effect on the Bound Brook Borough and Middlesex Borough 
portion of the Green Brook Sub Basin.
    Bound Brook has streams on three sides: the Green Brook, which 
empties into the Raritan River on the east end of Bound Brook Borough; 
the Middle Brook, which borders Bound Brook Borough on the west, and 
likewise empties into the Raritan River; and the Raritan River itself, 
which forms the southern boundary of the Borough of Bound Brook.
    All three of these streams rose to flood levels during Thursday 
night, September 16th, and the early hours of Friday, September 17, 
1999.
    By early morning on Friday, September 17, 1999 water levels around 
Bound Brook had reached unprecedented levels.
    The water surface elevations around three sides of Bound Brook 
Borough slightly exceeded even the calculations made by the Corps of 
Engineers in their final General Reevaluation Report of May 1997.
    There were tremendous monetary damages, and although the final 
figures are not yet known, it now seems clear that the damages exceeded 
the figure predicted by the Corps of Engineers for a 150 year flood 
($106,500,000) for Bound Brook Borough alone.
    Beyond the monetary damages, there was vast human suffering. The 
tragic plight of the people of Bound Brook touched the hearts of people 
throughout New Jersey, and volunteers and food and clothing and rolled-
up-sleeves volunteers poured into Bound Brook from all over New Jersey.
    All of this raises a very fundamental question: If the Green Brook 
Flood Control Project, as authorized by Congress, had been completely 
constructed, would this tragedy have happened?
    That's a question which the Green Brook Flood Control Commission 
has intensely examined. We are greatly relieved to report to you that, 
although there would have been minor flooding in low spots in Bound 
Brook, as there always is in every heavy rain storm, the massive 
flooding and tragic aftermath would not have happened.
    A thorough study of the water levels throughout the area, done by 
the New York District of the Corps of Engineers since the terrible 
flood of September 1999, has shown that, although the water reached 
record levels, it would have been contained by the extra margin of 
safety, the ``free board'', which the Corps of Engineers has 
incorporated in the design of this Project.
    The flooding of September 1999 is not the first bad flood to have 
struck this area. Records show that major floods have occurred here as 
far back as 1903.
    Disastrous flooding took place in the Green Brook Basin in the late 
summer of 1971. That flood caused $304,000,000 in damages (April 1996 
price level) and disrupted the lives of thousands of persons.
    In the late summer of 1973, another very severe storm struck the 
area, and again, thousands of persons were displaced from their homes. 
$482,000,000 damage was done (April 1996 price level) and six persons 
lost their lives.
    The Green Brook Flood Control Commission was established in 1971, 
pursuant to an Act of the New Jersey Legislature shortly after the very 
bad flood of 1971.
    The Green Brook Flood Control Commission is made up of appointed 
representatives from Middlesex, Somerset and Union Counties in New 
Jersey, and from the 13 municipalities within the Basin. This 
represents a combined population of almost one-quarter of a million 
(248,084) people.
    The Members of the Commission are all volunteers, and for 29 years 
have served, without pay, to advance the cause of flood protection for 
the Basin. Throughout this time, the Corps of Engineers, New York 
District, has kept us informed of the progress of the project, and a 
representative from the Corps has been a regular part of our monthly 
meetings.
    During 1998, the Congress, with the agreement of the President, 
provided money to initiate construction of the Project. Final 
preparations are now underway, and it is expected that actual 
construction will begin in Bound Brook Borough and in western Middlesex 
Borough this year.
    We believe that it is clearly essential that the Green Brook Flood 
Control Project be carried forward, and pursued vigorously to achieve 
protection at the earliest possible date. This Project is needed to 
prevent loss of life and property, as well as the trauma caused every 
time there is a heavy rain.
    New Jersey has programmed budget money for it's share of the 
Project in 2001.
    We urgently request an appropriation for the Project in fiscal year 
2001 of $4,000,000 as proposed by the Administration.
    The Green Brook Flood Control Commission is dedicated to the 
proposition that Bound Brook Borough, and the other municipalities, and 
their thousands of residents, who will otherwise suffer in the next 
major flood, must be protected. We move forward with renewed 
determination to achieve the protection which the people of the flood 
area need and deserve.
    With your continued support, we are determined to see this Project 
through to completion.
    Thank you, Mr. Chairman, and Members of the Subcommittee, for your 
vitally important past support for the Green Brook Flood Control 
Project; and we thank you for the opportunity to submit this testimony.
                                 ______
                                 

          Prepared Statement of the City of Newark, New Jersey

    Mr. Chairman and members of the Subcommittee, thank you for giving 
me the opportunity to submit testimony about a project under your 
jurisdiction which is very important to the people of Newark, New 
Jersey and the surrounding region. The Passaic River Streambank 
Restoration Project, known as the Joseph G. Minish Passaic River 
Waterfront Park and Historic Area, is an important part of the overall 
economic, land use and transportation development plan of the City of 
Newark.
    The Joseph G. Minish Park/Passaic Riverfront Historic Area project 
addresses the restoration and rehabilitation of approximately 9,000 
linear feet of Passaic River shoreline from Bridge Street to Brill 
Street in the City of Newark. The project is divided into three phases. 
Phase I consists of bulkhead replacement (Bridge Street to Jackson 
Street) and wetlands restoration (Jackson Street to Brill Street). 
Phase II consists of the construction of a 40, wide promenade along the 
river's edge, on top of the completed bulkhead work. Phase III includes 
the construction of parkland on the inland side of the promenade, 
between the river and Newark's downtown.
    An appropriation of $25 million for the continuation of 
construction on the Newark Riverfront Development project is requested, 
so that this integral element in Newark's revitalization can move 
forward as planned, and can be utilized by the Army Corps of Engineers, 
in fiscal year 2001. The fiscal year 2000 appropriation has been used 
for the initial section of bulkhead construction, which is now 
underway. The fiscal year 2001 allocation will allow continued 
construction of the bulkhead down to Penn Station, fund design of the 
walkway and park area, and allow walkway construction to begin. This 
restoration will allow neighborhood residents direct access to the 
riverfront as part of a much-needed recreation complex.
    The project was authorized at a level of $75 million in the 1996 
Water Resource Development Act, and has been fully planned by the Army 
Corps of Engineers. The streambank restoration and bulkhead 
replacement, which is the first phase of the overall project, began in 
the fall of 1999 utilizing the fiscal year 1999 and 2000 
appropriations. Prior appropriated funds have been utilized to fully 
design the bulkhead, a segment of naturalized streambank, and a system 
of walkways and public open spaces. Adjacent, currently dormant, sites 
have become desirable locations for development of commercial 
properties, due to the projected walkway, park and open space 
facilities. However, the current funding will only take us through the 
construction of bulkhead and some of the mud flats restoration, not to 
a usable facility.
    A supplemental appropriation of $25 million is requested so that 
this integral element in Newark's revitalization can move from partial 
construction to the beginning of full project build-out. This 
investment in Newark's future will help us to improve the economic 
status of our nation's third oldest major city. The development of the 
riverfront now is a critical element in the overall plan for Newark's 
downtown revitalization. This linear park will serve as a visual and 
physical linkage among several key and exciting development projects. 
It is adjacent to one of the oldest highways in the nation, Route 21, 
which is undergoing a multi-million dollar realignment and enhancement. 
A light rail system, the Newark-Elizabeth Rail Link, which will connect 
Newark's two train stations, and ultimately, Newark International 
Airport and the neighboring City of Elizabeth, will provide users with 
access to mass transportation. Conversely, the riverfront will become a 
destination served by that system, providing an important open space 
and waterfront opportunity for residents of one of the most densely 
populated cities in the nation.
    The environmental benefits of the project include flood control, 
riverbank and wetlands restoration, creation of urban green space, and 
enhancement of water quality in the Passaic River. These improvements 
will allow the Passaic River to be converted from one of the nation's 
most troubled waterways to a cultural and recreational asset. Ongoing 
and planned greenway projects will provide pedestrian and bicycle 
access to the waterfront from Newark's residential neighborhoods as 
well as the City's five major institutions of higher learning.
    The riverfront development will complement and provide a visual and 
physical connection with the new, $170 million New Jersey Performing 
Arts Center, which opened in the Fall of 1997 and has been incredibly 
successful. Further north along the riverfront, also accessible from 
the riverfront walkway when it is fully built, the City of Newark and 
Essex County have opened Riverfront Stadium, home to a minor league 
baseball team as well as community sporting events such as the Project 
Pride Bowl. Also in close pedestrian proximity is the site for the new 
Newark Sports and Entertainment Arena, which is expected to bring two 
million visitors a year into the area. In addition, NJ Transit is just 
completing construction of a new concourse, which is directly adjacent 
to the riverfront. Once the park and walkway are completed, rail and 
bus passengers will be able to exit the Penn Station north concourse 
directly onto the riverfront area. On the eastern portion of Minish 
Park, residents of a crowded community, Newark's Ironbound, will have 
direct access to the river and its streambank for active and passive 
recreation for the first time. The riverfront will be the nexus of 
these activities, creating a vibrant downtown center that will provide 
economic development opportunities for the citizens of Newark and our 
region. Visitors from throughout the nation are expected to come to 
visit our revitalized city, and participate in the exciting growth and 
development taking place. There is tremendous potential for Newark's 
riverfront to mirror the success of other riverfront developments 
throughout the country, and Newark stands ready to accept the 
challenges such developments present.
    The City of Newark has just completed conducting a master plan 
study for the entire riverfront area, which will guide us in tying 
together these incredibly exciting, and challenging, projects. We have 
a once in a lifetime opportunity to coordinate several major 
development activities into a virtually seamless development plan. The 
appropriation of $25 million which I am requesting will serve to 
incorporate the Army Corps of Engineers' construction into our overall 
economic development plan to reinvigorate Newark. I urge you to support 
this appropriation request.
    In closing, I would like to extend my thanks to the entire New 
Jersey delegation for its ongoing support, especially to subcommittee 
member Rodney Frelinghuysen for his advocacy of this critical project. 
The time and attention of this subcommittee are deeply appreciated.
                                 ______
                                 

               Prepared Statement of New York University

    On behalf of New York University (NYU), I appreciate the 
opportunity to discuss a project of scientific research which we 
believe will advance national interests through enhanced understanding 
of the human genome, and which is an important priority for NYU.
    This project addresses the programmatic interests of the 
subcommittee in enlisting fundamental, university-based scientific 
research to serve the national welfare. We thank the Subcommittee and 
for taking the time to consider and give its support to important basic 
research in biomedical genomics, an area in which New York University 
is well positioned to make major contributions. We at NYU firmly 
believe that in the coming decades, a federal investment in fundamental 
scientific research will repay itself many times over.
    The genome is the recipe or blueprint for life. During the last 
decade, the unraveling of the genetic code has opened up a vast range 
of new opportunities for evolutionary and developmental biologists, 
neurobiologists and chemists to understand what genes are, what they 
do, and how they do it. The field of biomedical genomics is 
revolutionizing biology and is dramatically changing the way we 
characterize and address biological questions. As a field which 
straddles biology, chemistry, and mathematics, genomics is growing 
extraordinarily rapidly and transforming these disciplines, as well as 
the social and behavioral sciences.
    In its first stage, the revolution in genomics was characterized by 
a period of intensive development of techniques to analyze DNA, first 
in simple models, like yeast, bacteria, the worm, and the fruitfly, 
then in the mouse, and now in humans. The structure and function of 
genes are quite similar in these models, making comparisons useful. The 
second phase was characterized by the use of these tools to address 
whatever biological question was most easily approached, given the 
state of technique development. It may be described as structural 
genomics--which comprises the mapping and sequencing of genomes and is 
mainly driven by technology. The scientific community is now poised to 
enter the third phase of the genomics revolution, in which 
investigators already established in other fields (immunology, 
genetics, neurobiology, etc.) pursue investigations that are driven by 
hypothesis rather than technique. The third phase is generally termed 
functional genomics and uses the map and sequence information already 
collected or to be collected to infer the function of genes. Functional 
genomics actively integrates basic and clinical science, with the 
ultimate goal of exploiting genomics approaches to address the 
relationship between the genes identified in model organisms and those 
responsible for human disease states.
    While many universities are conducting genomics research, New York 
University is especially well positioned to make a distinctive 
contribution to the field of comparative functional genomics. This 
comparative approach looks for the occurrence of the same genes in 
different species that share certain structures or functions, and 
provides a powerful method for understanding the function of particular 
genes. Comparative functional genomics uses two primary modes of 
analysis: (1) identifying what has been conserved over long 
evolutionary distances, and (2) determining crucial differences that 
distinguish two closely related species. This focus has particular 
relevance to molecular medicine as it provides the key to understanding 
the genetic basis of disease states that are dependent on numerous 
genes, and unraveling the complex regulatory networks for crucial 
biological functions.
    Studies in comparative functional genomics necessarily synergize 
medically related research programs, such as those at the NYU School of 
Medicine and its affiliated Mount Sinai School of Medicine; with basic 
science research programs such as those at NYU's Faculty of Arts and 
Science; and with computational investigators, such as those at NYU's 
Courant Institute of Mathematical Sciences who are actively engaged in 
bioinformatics research.
    In the basic sciences, NYU has substantial strengths in areas 
important to genomics, including evolutionary biology, developmental 
biology, and neurobiology, and extends this expertise through active 
collaboration with premier metropolitan area institutions, including 
the New York Botanical Garden and the American Museum of Natural 
History. NYU Medical School has outstanding programs in Developmental 
Genetics, Molecular Neurobiology, Pathogenesis and Structural Biology. 
And Mount Sinai Medical School has an internationally acclaimed program 
in Human Genetics and has begun to use genomics approaches to identify 
the origins of human genetic disorders.
    New York University is thus poised to make a distinctive 
contribution to the next phase of genomics research. There are 
established frameworks for interdisciplinary and interschool 
collaboration, strengths in biological, neurobiological, and 
computational sciences, and standing in the international scientific 
community. The nation's largest private university, with 13 schools and 
over 49,000 students, NYU is a leading center of scholarship, teaching 
and research. It is one of 29 private institutions constituting the 
distinguished Association of American Universities, and is consistently 
among the top U.S. universities in funds received from foundations and 
federal sources.
    NYU encompasses a pre-eminent faculty and generates substantial 
external funding from federal and state agencies as well as the private 
sector. These investigations have attracted millions of federal dollars 
from the NIH, NSF, ONR, and EPA. In addition, NYU has received major 
funding from the most prestigious private foundations supporting the 
sciences, including the Howard Hughes Medical Institute, the W. M. Keck 
Foundation, the Alfred M. Sloan Foundation, and the Beatrice and Samuel 
A. Seaver Foundation. Faculty have, as individuals, won prestigious 
awards, including HHMI Investigator, NSF Presidential Faculty Fellow, 
NIH Merit Awardee, McKnight Foundation Scholar in Neuroscience, and 
MacArthur ``Genius'' Fellow.

              RESEARCH APPLICATIONS AND NATIONAL BENEFITS

    Concentrated studies in comparative functional genomics can be a 
major resource for the research and development activities of academic 
organizations and commercial firms; can provide a strong framework for 
direct and indirect economic development in vital, high-tech 
industries; and can offer benefits to our citizens from improved health 
care, and technology development.
Economic Development
    Commercial applications that strengthen existing industries and 
attract new ones.--In a familiar dynamic of university-centered 
economic growth, industry draws on the faculty's entrepreneurial 
energies, their expertise in training the personnel needed to staff 
high-technology firms, and the fundamental scientific research that can 
translate into practical applications. High-tech firms spring up near a 
research university and, in turn, attract or spin off additional high-
tech firms in the same or related fields. The interaction of scientists 
across firms makes the spread of information quicker and the 
development of projects more rapid. Initial firms and newer firms share 
a growing pool of highly trained personnel. The expansion of the 
skilled labor pool makes hiring easier; the existence of the pool 
attracts still more firms. Once a core of high-tech industries locates 
in an area, venture capitalists identify that area as promising. The 
flow of capital--a key ingredient for high-technology growth--
increases. Once the process of agglomeration begins, it can be expected 
to grow on itself and become self-reinforcing.
    R & D investment in genomics is already energizing bio-technology, 
pharmaceutical, biomedicine, agbiotech, computer software, and 
engineering enterprises. We expect that as the research base expands, 
we will see a generation of new commercializable technologies, some of 
which may lead to genome and pharmacological genome companies.
    Job growth as a spin-off from research and development funding for 
genomics.--Academic R&D, although itself not directed towards specific 
commercial application, does provide the focus for attracting industry 
and serving as a base for commercial spin-offs, as has been so 
successfully demonstrated in the San Francisco Bay and Boston areas. A 
conservative approximation that uses state employment multipliers 
maintained by the U. S. Commerce Department's Bureau of Economic 
Analysis points to immediate employment impacts of academic R&D. The 
BEA calculates that each $1 million in R&D grants supports roughly 34.5 
full and part time jobs \1\ directly within the university and 
indirectly outside the university as the university's expenditures 
ripple through the local and state economy.
---------------------------------------------------------------------------
    \1\ The multiplier is for 1995 and is based on 1987 benchmark 
input-output accounts for the U.S. economy and 1994 regional data, 
adjusted for 1995 inflation. See the latest (March 1997) edition of the 
BEA publication Regional Multipliers: A User Handbook for the Regional 
Input-Output Modeling System (RIMS II). These multipliers are 
frequently used in studies of the economic impacts of individual 
universities and colleges.
---------------------------------------------------------------------------

Biomedical Applications for National Health Needs
    An investment in genomics research will have a heavy payoff in the 
nation's well-being--economic and otherwise--by advancing the frontiers 
of knowledge, finding new cures and treatments for diseases, and 
helping to develop new diagnostic technologies. Clinical applications 
hold enormous promise to revolutionize medicine and our understanding 
of both normal development and disease. Genomics research may lead to 
lifesaving instruments or procedures for diagnosis, prevention, and 
cure of diseases and disorders such as diabetes, heart disease, cancer 
and infectious disease. In particular, genomics science has the 
potential to revolutionize the development of mass screening tests for 
genetic disorders, ultimately making it possible to identify the 
hereditary contribution to common diseases, predict individual 
responses to drug intervention, and design drugs that are customized 
for individual use.

Applications for Environment Issues
    Improved understanding of the human genome is a basic link in the 
chain leading from scientific discovery to a better understanding of 
human health to effective regulatory and management actions in the 
realm of environmental protection. Research into genetic development 
and function can help to explain how environmental factors alter or 
influence these processes.

Advances in Biomedical and Other Research Fields
    Genomics is a field which is particularly fertile in that the 
understanding of the detailed structure of the human genome is central 
to a variety of applications: cell biology, embryology, developmental 
biology, study of cancers and many other heritable diseases, 
immunology, endocrinology, neurology, and population genetics. Further, 
genomics techniques can address many research problems that overlap 
with computer vision, robotics, and combinatorial problems; genomics 
propels cross-disciplinary approaches for merging the biological 
sciences with new technologies in informatics. In addition, it is 
enabling researchers in developmental biology and molecular genetics to 
investigate genetic diversity, evolution, and development. Indeed, 
genomics brings together laboratory scientists with formerly unrelated 
disciplines, and can stimulate expansion in key directions in 
informatics, genetics, physical chemistry, evolutionary studies, 
diagnostic tools, and machine vision. Investment in facilities where 
computer scientists, physical chemists, and geneticists can readily 
interact with each other is essential for the development of this 
field.
    Investment in genomic science is a strategic and efficient vehicle 
for advancing fundamental studies in a wide variety of scientific 
fields; facilitating biomedical applications that can greatly enhance 
the public welfare; and energizing existing and new industry. The 
commitment of this committee to support genomics studies is greatly 
appreciated.
                                 ______
                                 

 Prepared Statement of the University of Medicine and Dentistry of New 
                                 Jersey

    The following is the testimony of the University of Medicine and 
Dentistry of New Jersey (UMDNJ), the largest public health sciences 
university in the nation. Our statewide system is located on five 
academic campuses and consists of 3 medical schools and schools of 
dentistry, nursing, health related professions, public health and 
graduate biomedical sciences. UMDNJ also comprises a University-owned 
acute care hospital, three core teaching hospitals, an integrated 
behavioral health care delivery system, a statewide system for managed 
care and affiliations with more than 200 health care and educational 
institutions statewide. No other institution in the nation possesses 
the resources which match our scope in higher education, health care 
delivery, research and community service initiatives with federal, 
state and local entities.
    We appreciate the opportunity to bring to your attention our 
priority projects that are consistent with the biomedical research 
mission of the Department of Energy & Water. These projects are 
statewide in scope and include collaborations both within the 
University system and with our affiliates. Our research projects also 
underscore UMDNJ's commitment to eliminating racial disparities in 
health care delivery. New Jersey, with its small geographic size and 
its large diverse population, is an idea site in which to conduct 
research and develop activities that will address this important issue.
    Our first priority is the development of the Child Health Institute 
of New Jersey at the UMDNJ-Robert Wood Johnson Medical School (RWJMS) 
in New Brunswick. As part of the state's public higher education 
system, the medical school's 2500 full-time and volunteer faculty train 
about 1,500 students in medicine, public health and graduate programs 
and ranks in the top one-third of the country with regard to the 
percentage of its students who practice in primary care specialties 
after completing their residency training. The medical school ranks in 
the top one-third in the nation in terms of grant support per faculty 
member. RWJMS is home to The Cancer Institute of New Jersey, the only 
NCI-designated clinical cancer center in New Jersey; The Center for 
Advanced Biotechnology and Medicine; the Environmental and Occupational 
Health Sciences Institute, the largest environmental institute in the 
world; and the Child Health Institute.
    The mission of the Child Health Institute is to build a 
comprehensive biomedical research center that is focused on molecular 
genetics and development of children, and to forge scientific and 
hospital-based programs into an international academic children's 
center that will prevent and treat childhood diseases by delivering new 
knowledge through integrated education, research and treatment. The CHI 
will partner with academic, biotechnology, pharmaceutical and 
informatics industries in New Jersey to further its mission.
    The Child Health Institute will enable the medical school to expand 
and strengthen basic research efforts with clinical departments at the 
Robert Wood Johnson University Hospital and with the new Children's 
Hospital in the areas of Obstetrics, Pediatrics, Neurology, Surgery and 
Psychiatry The Child Health Institute will fill a critical gap in 
services through the recruitment of an intellectual base upon which 
molecular programs in child development will build.
    At the Child Health Institute, research will serve as the basis for 
new treatments, therapies and cures for such devastating and 
debilitating childhood syndromes as asthma, autism, cancer, diabetes, 
heart and lung defects. One-third of our scientists will focus on human 
genome research (birth defects, cystic fibrosis, etc.); one-third will 
focus on developmental neuro-biology (autism, attention-deficit 
disorders, etc.) and one third will focus on developmental biology 
(diabetes, asthma, etc.). Our biomedical researchers will direct their 
efforts toward the environmental, genetic and cellular causes of these 
diseases in infants and children through basic scientific investigation 
in a quest to prevent, treat and cure these diseases.
    Normal child development is a water dependent process, reflecting 
water quality, quantity and its ``management'' by cells and tissues. 
Access to uncontaminated water is at the base of the tree of life. 
Pollution of aquatic ecosystems poses a serious threat to the entire 
ecosystem and studying how a toxin affects embryonic development is 
central to understanding the risks pollutants represent, whether 
derived from pesticides, industrial run-off, acid rain or landfills. In 
multiple ways, the embryo is a sentinel for environmental toxins. 
Research at the Child Health Institute will focus on molecular 
mechanisms of early embryonic development, a natural, but vulnerable 
water-based environment. Sixty percent of the weight of the average 
human is contributed by water. The average 150 lb man contains about 40 
to 45 quarts of waters, approximately 6 quarts of which is circulating 
in the blood, and 39 quarts are within and between the cells of each 
and every organ. The embryo is even more highly hydrated than the 
adult. During development the embryo undergoes rapid changes in size 
and shape requiring rapid changes in the structures and cells present 
in any one tissue. In order to accommodate these rapid and essential 
changes, the embryo is rich in molecules which have a very high water 
binding capacity. After birth, the water in tissues allows cells to 
continue to move about within the embryo with ease and also promote 
fluid movement in blood vessels, the gastrointestinal tract and the 
airways. For example, cystic fibrosis (CF) is an inherited disorder 
which afflicts millions of children world-wide. The genetic defect in 
CF has been identified and involves a pump which, in effect, moves salt 
and water into and out of cells. Children with CF insufficiently pump 
water into the secretions of their pancreas and lungs and the dryness 
of these secretions leads to obstruction of those organs and subsequent 
infection and/or obstruction.
    The CHI will act as a magnet for additional growth in research and 
health care program development in New Jersey. The Institute will 
encompass 83,000 gross square feet and will house more than 40 research 
laboratories and associated support facilities. Fourteen senior faculty 
will direct teams of M.D. and Ph.D. researchers, visiting scientists, 
postdoctoral fellows, graduate students and technicians for a full 
complement of some 130 employees. At maturity, the Institute is 
expected to attract $7 to $9 million dollars of new research funding 
annually. The Institute's total annual operating budget is projected to 
be $10 to $12 million: applying a standard economic multiplier of 5, 
the total impact on the New Brunswick area is estimated to be $50 to 
$60 million per year. Construction costs for the Institute are 
estimated at $27 million, with approximately half of that figure 
associated with local employment.
    We respectfully seek $5 million from the Department of Energy and 
Water to complement $3 million already received in federal 
participation to further advance the construction and development of 
the Child Health Institute of New Jersey.
    Our second priority is the Dean and Betty Gallo Prostate Cancer 
Center, established at the Cancer Institute of New Jersey (CINJ) with 
the goal of eradicating prostate cancer and improving the lives of men 
at risk for the disease through research, treatment, education and 
prevention. GPCC was founded in memory of Rep. Dean Gallo, a New Jersey 
Congressman who died of prostate cancer diagnosed at an advanced stage. 
The purpose of the GPCC is to establish a multi-disciplinary center to 
study all aspects of prostate cancer and its prevention. The Cancer 
Institute of New Jersey is a partnership of UMDNJ-Robert Wood Johnson 
Medical School and hospital affiliates.
    GPCC unites a team of outstanding researchers and clinicians who 
are committed to high quality basic research, translation of innovative 
research to the clinic, exceptional patient care, and improving public 
education and awareness of prostate cancer. GPCC is a center of 
excellence of the Cancer Institute of New Jersey, which is the only 
NCI-designated cancer center in the state. GPCC efforts will be focused 
in four major areas: (1) Basic, Clinical and Translational Research; 
(2) Comprehensive Patient Care; (3) Epidemiology and Cancer Control; 
and (4) Education and Outreach.
    Basic, Clinical and Translational Research.--GPCC scientists will 
investigate the molecular, genetic and environmental factors that are 
responsible for prostate cancer initiation and progression. Our 
researchers will develop appropriate model systems that will facilitate 
the design and implementation of novel strategies for prevention and 
treatment. GPCC will foster multi-disciplinary efforts that will lead 
to the effective translation of basic research to improved patient care 
and novel clinical trials.
    Comprehensive Patient Care.--It is the goal of the GPCC to provide 
exceptional patient care through a multi-disciplinary patient care team 
in the areas of urological oncology, radiation oncology and medical 
oncology for each patient during all stages of the disease. The patient 
care team will develop novel clinical approaches for treating all 
stages of prostate cancer.
    Epidemiology and Cancer Control.--Another goal of the GPCC is to 
understand the etiology of prostate cancer susceptibility and to find 
effective modalities for prevention of prostate cancer.
    Education and Outreach.--GPCC will continue its efforts to 
education the public throughout the State of New Jersey about the 
importance of early detection of prostate cancer, particularly in 
underserved communities where there is a population at high risk for 
the disease.
    The Cancer Institute of New Jersey has received $5 million in 
federal funding over the last two years (including $2 million from this 
committee) for the Dean and Betty Gallo Prostate Cancer Center. This 
important funding has enabled us to establish a world-class program in 
prostate cancer research that includes publications in prestigious 
journals such as the New England Journal of Medicine and Genes and 
Development. CINJ has used its findings to leverage additional research 
dollars for individual investigators from such agencies as CapCure, the 
Department of Defense and several private foundations. Top 
investigators have been recruited to initiate programs in prostate 
cancer research through our education and pilot grant programs. We have 
also established education and outreach programs that will enhance the 
visibility of our clinical programs, including a partnership with the 
100 Black Men organization.
    Additional funding is being sought this year to build on our basic 
research in prostate cancer and to support the development of 
technological approaches including: the use of microarray technology to 
survey gene expression patterns in prostate tumors; the use of mouse 
models for prostate cancer that can be used to test new methods of 
prevention and treatment; and the development of monoclonal antibodies 
that may be used for prognosis and diagnosis.
    We will also bring basic research directly to the clinic by 
fostering interactions among basic and clinical researchers through our 
education programs supported by this funding. Additional funding will 
allow us to enhance our treatment of patients with prostate cancer 
through several new clinical trials for patients at all stages of the 
disease. To increase the number of additional clinical trials, we will 
utilize funding to develop a support team that will assist our 
physicians to design and implement new clinical trials.
    We seek $2 million in federal funding to enhance the research, 
education and cancer care programs of the Dean and Betty Gallo Prostate 
Cancer Center at our New Brunswick facility, and to expand these 
programs statewide.
    We thank this committee for its strong support of biomedical 
research and for our programs.
                                 ______
                                 

 Prepared Statement of the State of New York, Empire State Development 
Corporation; State of New Jersey, Department of Transporation; and the 
               Port Authority of New York and New Jersey

    On behalf of the Port of New York and New Jersey, we wish to thank 
you for the support this Subcommittee has shown for navigation programs 
in recent years. Only with the support of this Subcommittee and 
Congress can the nation's commercial and defense shipping needs be 
accommodated through the Army's civil works program. We are especially 
appreciative of the funding that projects in our port have received to 
enable it to continue to serve our country's economic and international 
commerce objectives on the Atlantic.
    We offer our comments on the U.S. Army Corps of Engineers' fiscal 
year 2001 budget request. We welcome the Administration's budget 
request to continue the construction of the Kill van Kull-Newark Bay 
Channels to 45 feet as well as the construction funding for the Arthur 
Kill Channel to 41 feet and the Port Jersey Channel to 41 feet. In 
order for the benefits of these and other projects to be realized and 
to avoid unnecessary project cost increases from project delays, we 
respectfully request that the Subcommittee appropriate funds at the 
levels outlined below in this statement. These funds will ensure that 
essential navigation infrastructure will be in place to accommodate 
post-Panamax ships currently deployed in international commerce. That 
is especially true of the New York & New Jersey Harbor Navigation 
project that represents a significant investment strategy, only a small 
portion of which would be in Federal funding, for waterside and 
landside improvements that will serve our customers and the national 
interest well into this new century. We are especially aware of the 
clear trends in steamship design and construction that will result in 
an increasing fleet of very large container ships whose efficiencies 
will be realized fully once the navigation channels at major U.S. 
gateways are of a corresponding depth. The Port of New York and New 
Jersey directly serves states of the Northeast and Midwest and with 
these improvements can continue to provide greater transportation 
efficiencies to those markets.
    In general, we support the Administration's budget request for 
projects in the Port of New York and New Jersey. Listed below are 
select projects, discussed later in this statement, and appropriation 
amounts that we seek for fiscal year 2001. Those projects displayed in 
bold are our requests beyond the fiscal year 2001 budget levels.


------------------------------------------------------------------------
                                              Budget       Port request
------------------------------------------------------------------------
Construction:
    Kill van Kull--Newark Bay Channels,      $53,000,000     $53,000,000
     NY & NJ............................
    NY & NJ Channels: Arthur Kill, NY &        5,000,000      15,000,000
     NJ.................................
    NY & NJ Channels: Port Jersey, NJ...       5,469,000      15,000,000
    Ambrose Shoals......................  ..............       2,200,000
Studies:
    NY & NJ Harbor Navigation Study--PED       2,528,000       7,500,000
    NY & NJ Estuary Restoration Study...         800,000       5,000,000
    NY & NJ Channels: Arthur Kill                347,000         347,000
     Channel, NY & NJ...................
Operation and Maintenance...............      28,284,000      28,284,000

------------------------------------------------------------------------

    A brief description of each of these activities follows.

                              CONSTRUCTION

    Kill van Kull--Newark Bay Channels, NY & NJ (Phase II).--The 
deepening of the Kill Van Kull and Newark Bay Federal channels to 45 
feet was authorized for construction in the fiscal year 1985 
Supplemental Appropriations Act. These channels serve Port Newark and 
the Elizabeth Port Authority Marine Terminal, the busiest and largest 
container facilities on the East Coast. The Port of New York and New 
Jersey achieved a major milestone in this project by witnessing the 
beginning of the final phase of construction in 1999. Since that time, 
the project is fully underway with progress to report and three 
contracts awarded, two of them well under project estimates. The Port 
Authority of New York & New Jersey as local sponsor for this project 
has approved the local share of funding and is committed to completing 
construction with the Corps of Engineers by the end of 2004. It is a 
goal mandated by the users of the Port who have waited a long time for 
the 45-foot depth. We appreciate and support the President's budget of 
$53 million.
    NY & NJ Channels: Arthur Kill Channel, NY & NJ.--The Arthur Kill 
Channel, NY & NJ, Howland Hook Marine Terminal (HHMT) project 
authorization can be found in the 1986, 1992, 1996 and 1999 WRDAs. The 
project's controlling depth is currently 35 feet. The planned channel 
improvements include: (1) deepening the existing 35-foot channel to 41 
feet below MLW from its confluence with the Kill van Kull Channel to 
the Howland Hook Marine Terminal; (2) deepening to 40 feet below MLW 
from the HHMT to the Petroport and Tosco facilities in New Jersey; and 
(3) selective widening and realignment of the channel to ensure safe 
navigation. The Port Authority has invested $35 million to date to 
modernize the HHMT and spent, along with the City of New York, 
approximately $18 million for the berth dredging required to return 
this terminal into active service. The Port Authority has approved an 
amount representing the full local share of the Federal project. The 
HHMT currently employs 600 people on peak days and is expected to 
increase to a range of 800 to 1000 employees in 2000. These figures, as 
compared to our statement of last year, reveal a significant increase 
in business at the terminal in the past year, which itself demonstrates 
the trade growth demands on the infrastructure on the Arthur Kill. The 
City of New York, the State of New Jersey and the Port Authority are 
working to improve operational efficiency and reduce truck traffic by 
re-establishing rail service to the terminal. It is worth noting that 
HHMT is the Defense Department's Northeast Strategic Port of 
Embarkation in the event of a national emergency, which gives it a 
special role to play in the national defense strategy. In addition to 
the benefits that will accrue to the HHMT and the petroleum facilities 
along the Arthur Kill, implementation of this deepening project is 
vital to the Port's future capacity to grow. We, therefore, 
respectfully request that the fiscal year 2001 appropriations include 
$15,000,000 to initiate channel improvements in the Arthur Kill Channel 
and maximize the work that can be accomplished during the first year of 
construction.
    New York Harbor and Adjacent Channels: Port Jersey, NJ.--The 1986 
WRDA authorized construction of the Port Jersey Channel to 41 feet. The 
Port Jersey Channel, located in Bayonne, NJ, presently serves 
approximately one-half dozen shipping lines calling at Global Marine 
Terminal. In addition, the channel provides access to the Port 
Authority Auto Marine Terminal and will serve a portion of the former 
Military Ocean Terminal at Bayonne that will be developed into another 
deepwater marine terminal facility. As the only privately owned 
terminal in the port, Global pays approximately $10,000,000 in Federal, 
state, and local taxes annually. More than 300 vessels, carrying 
approximately 280,000 twenty-foot equivalent units, call annually upon 
the terminal. Well over 600 terminal employees, with an annual payroll 
of $25 million, and 3,000 indirect jobs depend on this facility for 
their livelihood. Recognizing the demand of ocean carriers and 
responding to a critical need to provide deeper water on an emergency 
basis, the State of New Jersey in 1997 constructed a 38-foot channel 
leading to Global at a cost of $14,000,000. We appreciate the 
Administration's request of $5,000,000 for fiscal year 2001 and 
respectfully request that the budget for this project be augmented to 
$15,000,000 to initiate construction plans and specifications necessary 
to improve the Port Jersey Channel.
    Ambrose Shoals.--This project is not anticipated in the fiscal year 
2001 budget prepared by the Administration but is an important one for 
the safe navigation of vessels entering the Port of New York and New 
Jersey. The shoal is located in the sea one mile before ships enter the 
Ambrose channel, the port's entrance channel. In contrast to the 
Ambrose Channel project depth of 45 feet, a recent survey identifies a 
current controlling depth of 41 feet. The removal of this hazard to 
navigation would entail moving 125,000 cubic yards of dredged material. 
This project is contemplated under the New York & New Jersey Harbor 
project described in the studies portion of this statement but the New 
York and New Jersey Sandy Hook Pilots and concerned agencies in the 
region request that construction funding be provided in fiscal year 
2001 in order to get a start on a removal project before an accident 
might occur. We request that $2, 200,000 be appropriated, which is the 
current Corps of Engineers' estimated cost of construction.

                       OPERATION AND MAINTENANCE

    Operation and maintenance projects are critical to the Port of New 
York and New Jersey's operations. If channels are not maintained to the 
depth recorded on nautical charts they become inaccurate and increase 
the risk of groundings to vessels. We, therefore appreciate the 
Administration's request $28.28 million in operation and maintenance 
funding and encourage the Subcommittee's consideration of that request.

                                STUDIES

    NY & NJ Harbor Navigation Study.--In the feasibility study, 
authorized by the 1996 WRDA, the Corps of Engineers has determined 
there is a clear Federal interest in deepening several major NY & NJ 
Harbor channels to 50 feet below MLW, or greater. The States of New 
York and New Jersey and the Port Authority are the local sponsors of 
the study, which is being put in final form now and on the basis of 
which we are prepared to ask Congress to enact new project depth 
authorizations. The Corps' recommendations, if implemented, would 
enable the Port to continue to serve the nation's marine transportation 
needs as U.S. international trade doubles in just the next ten years 
and quadruples by 2040. The ocean carrier industry has made it clear 
that their future container vessels will require navigation channels 
dredged to depths that exceed current depths. For these reasons, the 
States of New York and New Jersey and the Port Authority are in 
agreement that work to deliver the deeper channels should be completed 
as soon as possible. We therefore respectfully request that the fiscal 
year 2001 budget be augmented to $7.5 million in order to meet 
timeframes which local sponsors and the Corps of Engineers will agree 
are prudent and possible.
    NY & NJ Channels: Arthur Kill Channel, NY & NJ.--As we noted 
earlier, the controlling depth for the Arthur Kill is 35 feet. Even as 
construction will commence in fiscal year 2001 for the 41-foot project, 
the Subcommittee willing, planning for an ultimate depth of 45 feet 
should continue. The 1996 WRDA authorized the project depth to as much 
as 45 feet. Although new congressional authorization is needed to 
increase the Section 902 funding cap, a pre-construction, engineering 
and design effort will be needed for construction of the 45-foot 
channel. The Corps has estimated the cost of this study to be $2 
million, with the local share provided by the State of New Jersey and 
Port Authority of New York and New Jersey. We support the 
Administration's request for $347,000 for Pre-construction Engineering 
and Design work in fiscal year 2001.
    NY & NJ Estuary Restoration Project.--Proposed New York and New 
Jersey harbor improvements are likely to include activities beyond 
construction of traditional navigation infrastructure. The 
implementation of a restoration and remediation plan for the Hudson-
Raritan Estuary is also a significant part of any future improvement 
strategy for the harbor. The Corps of Engineers' feasibility study on 
harbor restoration is an important first step to determining potential 
Federal and non-Federal projects. The Port Authority supports this 
initiative and is willing to be an active participant/sponsor of the 
study. To that end, we respectfully request that funds in the amount of 
$5,000,000 be appropriated for the Corps of Engineers to conduct the 
necessary feasibility study.

                               CONCLUSION

    For the second year the Executive Branch sent Congress a budget 
that does a reasonable job of addressing the nation's navigational 
channel needs, at least in comparison to the prior year budgets that 
woefully underfunded the water resource program. It by no means 
addresses all needs, whether on the inland and coastal navigation 
system, along the American shores or in the flood plains of the nation. 
However, we believe that Congress has made tremendous progress in 
highlighting the importance of not neglecting our water-based 
infrastructure, notwithstanding criticism being leveled by certain 
organizations against Congress and the Army Corps of Engineers. Lastly, 
we would urge the Subcommittee to resist placing limitations on funding 
advances that might be made by non-Federal agencies in the interest of 
speeding project construction and the delivery of important benefits to 
the public. Thank you once more for your attention to the needs of our 
port and region.
                                 ______
                                 

                       NATIONWIDE WATER PROJECTS

  Prepared Statement of the Association of State Floodplain Managers, 
                                  Inc.

    The Association of State Floodplain Managers appreciates the 
opportunity to express support for fully funding several programs of 
the Army Corps of Engineers which can significantly expand the Corps' 
ability to reduce losses due to flooding. We have found that Planning 
Assistance to States (Section 22) and Flood Plain Management Services 
provide for important elements of effective floodplain management. The 
Riverine Ecosystem Restoration and Flood Hazard Mitigation Initiative 
offers new opportunities for use of non-structural options to achieve 
flood loss reduction. The National Shoreline Study requested by 
Congress in WRDA 99 has some initial funding proposed in the budget. 
These are all elements of the Corps' activities that are especially 
helpful to communities and states around the country in reducing flood 
losses.
    The Association of State Floodplain Managers is an association of 
over 3,500 state and local officials and other professionals engaged in 
floodplain management, flood hazard mitigation, flood preparedness, 
warning and recovery and in working with numerous federal agencies, 
including the Corps of Engineers. Our members have expertise in the 
fields of engineering, planning, community development, hydrologic 
forecasting, emergency response, and water resources.
    Three of the programs we are discussing, PAS, FPMS and Ecosystem 
restoration & mitigation, are all programs which directly support major 
themes the Corps is pursuing to formulate and implement Civil Works 
policy. They are based on building strong partnerships with states and 
local communities as well as other federal agencies. Additionally, that 
Civil Works policy should help economic growth and prosperity by 
``combining sound infrastructure management and development with 
environmental protection and ecosystem restoration''. We full support 
these strategies for the Corps.
    Under General Investigations, ``Coordination Studies With Other 
Agencies'' includes $6.5 million for Planning Assistance to States in 
the budget request for fiscal year 2001, the same as last years 
request. The Congress, in fiscal year 1999 provided 1 million over the 
budget request, to help reduce the work backlog and meet the growing 
need of localities and local and regional governmental entitles for 
technical assistance from the Corps. The Senate provided $7.5 million 
in recognition of the backlog and $6.3 was agreed to in Conference. The 
situation has, of course, been helped by the Congressional effort this 
fiscal year, but a significant backlog remains. Further, increasing 
federal efforts to encourage cooperation and capability building among 
federal agencies and state and local governments have produced more 
demand for the Corps' guidance and assistance. We hope that the 
Committee will approve funding at least at the budget request and, 
hopefully, once again at a measure above the budget request.
    Also under General Investigations, Flood Plain Management Services, 
$9 million is requested for fiscal year 2001. The funding level for 
fiscal year 2000 was $8.5 Million. The Floodplain Management Services 
Program funds specific technical assistance requests from states, local 
governments and tribes. Generally, these address needs for 
identification of flood hazards in communities under growth pressure, 
assessing and taking steps to assure the safety of dams and providing 
the technical information to identify appropriate flood mitigation 
options, floodproofing, flood warning and hurricane evacuation studies. 
Without the technical assistance the Corps provides, structures may be 
built at risk, exposing citizens and the nation's taxpayers to future 
costs. Clearly, projects funded under FPMS work tangibly to reduce 
flood losses and costs to the Federal Government and support the 
partnership and economic growth/infrastructure management strategies 
above.
    The Corps is requesting $20 million for its Ecosystem Restoration 
and Flood Mitigation initiative. This program would provide the Corps 
with a full-range toolbox to help communities and states. It offers 
essential flexibility such as the ability to accommodate smaller 
projects for communities where a traditional structural project might 
not be justified or the ability to mix structural and non-structural 
elements to better design an overall project. The continuing 
authorities nature of the proposed program is important because 
confidence in a sustained federal commitment is important to 
communities for development and implementation of these smaller 
projects. From our knowledge, hundreds of communities in the nation 
have the potential to benefit substantially from this innovative 
initiative. We hope that the Committee will provide the nation's 
communities with the valuable tools of this program.
    Congress Authorized the National Shoreline Study in WRDA 99 in 
order to help the nation describe the extent of economic and 
environmental effects of erosion and accretion of our shorelines. The 
study is also to help identify appropriate benefits and costs to 
various levels of federal and non-federal participants in shore 
protection projects. We support proceeding with such a study so the 
nation will be better prepared to address and manage our shorelines to 
benefit everyone. The proposed budget provides $300,000 for starting 
this study under ``General Investigations-Studies not under states''. 
We urge the Committee to provide at least the budget request. In order 
to complete the study in the time Congress requested, funding of $500-
750,000 would be appropriate.
    It is a pleasure to share our views on the effectiveness and 
usefulness of these programs in the achievement of flood loss 
reduction. Thank you for the opportunity to present testimony. We are 
always ready to respond to your questions. Please contact ASFPM 
Executive Director, Larry Larson, at (608) 274-0123 if further 
information is needed.
                                 ______
                                 

      Prepared Statement of the National Urban Agriculture Council

    Dear Chairman Domenici and Members of the Subcommittee: Mr. 
Chairman, Members of the Subcommittee, I am Roger Waters, President of 
the National Urban Agriculture Council (NUAC). NUAC is a national 
nonprofit organization established as a center for the promotion and 
implementation of effective water management in the urban landscape.
    I would like to offer testimony on six Bureau of Reclamation 
programs: Drought Emergency Assistance; Efficiency Incentives, Water 
Management and Conservation, Technical Assistance to States, Soil and 
Moisture Conservation, and the Title XVI-Water Reclamation and Reuse.

                      DROUGHT EMERGENCY ASSISTANCE

    NUAC has been an active participant in the efforts of the National 
Drought Policy Commission's efforts to produce a report on 
recommendations for a national drought policy for the country. Part of 
the core mission of NUAC is to act as a center for the acceptance, 
promotion, and implementation of practical, science-based water 
resource management and conservation practices. An important element of 
that mission is making sure water users are prepared for the 
eventuality of drought. We have been supportive of the efforts of the 
Commission to produce such a vision as part of their recommendations in 
the final report.
    The Bureau of Reclamation requested $500,000 for fiscal year 2001. 
NUAC believes and would ask that Congress consider that given the 
drought problems in this country, that an additional $3 million be 
included in this program for fiscal year 2001. The Bureau of 
Reclamation and the Department of Agriculture appear to be the best 
agencies suited to working with state and local governments, tribes and 
local water users by undertaking activities that can result in down-
the-road savings by the Federal Government not having to provide 
emergency bailouts to the degree they would if such preparedness does 
not take place.

                     EFFICIENCY INCENTIVES PROGRAM

    NUAC is supportive of this program that provides a partnership 
among the Bureau of Reclamation, water users, and states to implement 
water use efficiency and conservation solutions that are tailored to 
local conditions. The Bureau of Reclamation requested $3,169,000 for 
the program for fiscal year 2001. We would like to see the program 
increased up to $5,000,000 so a greater amount of work can take place 
with water districts for planning assistance and training on the 
development of water conservation plans and water efficient landscapes. 
The need for this type of training was one of the reasons NUAC was 
founded. Water Resource managers and policy makers are increasingly 
challenged by management issues. Paramount to making good management 
decisions is the availability of sound scientifically information. This 
information is an aid in the development of practical and 
environmentally sound programs which are both cost effective and 
socially responsible.

               WATER MANAGEMENT AND CONSERVATION PROGRAM

    On the surface this program appear to be a duplication of other 
Bureau of Reclamation assistance programs. The Bureau of Reclamation 
requested $7.6 million for this program for fiscal year 2001. One of 
the questions that has arisen in this program is whether the Bureau of 
Reclamation has construction authority for funds provided to districts 
under the program. This is an issue we would like the Committee to 
clear up so projects could go forward. We believe the funding requested 
is adequate, but if construction is going to occur under this program 
we would suggest a cap on the size of the project receiving such 
funding so it does not become a program for the few and not the many.

                   TECHNICAL ASSISTANCE TO THE STATES

    NUAC is concerned with how this program has been cut by Congress 
over the past several years. We believe the data collection and 
analyses for management of water and related land resources that occurs 
with this funding is important in the absence of this country having a 
national water policy. We would ask that the request of $1.8 million 
not be cut, and if possible, the funding be increased to $3 million to 
help make up the shortfall that has occurred from previous cuts.

                     SOIL MOISTURE AND CONSERVATION

    The modest amount of the Bureau of Reclamation's request of 
$263,000 makes this program appear unimportant. NUAC would like to see 
this increased by a modest amount to $500,000 but have that increase 
tied to assisting in the efforts from the recommendations of the final 
National Drought Policy Commission Report. We also believe this program 
should be examined to see if it couldn't assist in proper site 
management of Federally funded structures that are going to need water 
for their urban landscapes.

                 TITLE XVI--WATER RECLAMATION AND REUSE

    NUAC is supportive of the funding that has been provided in the 
fiscal year 2001 request for the projects that are underway under the 
Title XVI program. The $22 million requested is substantially below the 
$33 million provided by Congress for fiscal year 2000 and we would 
request that you consider increasing the funding up to that level this 
year. The $1.4 million provide for research, new starts, and 
feasibility studies needs to be examined from the standpoint of how 
long it is going to take to fund the existing projects, instead of 
looking to increase the number of projects. We believe there is a need 
for a serious discussion among water policy leaders on how to fund the 
future of this program in a timely manner. With regard to research, we 
see this as an area for the private and public sector to move forward 
on their own without having Reclamation involved in the agenda. We 
believe Reclamation's money would be better spent in getting the 
existing projects built.
    Thank you for the opportunity to provide testimony for the record 
on these programs.
                                 ______
                                 

            MIDWEST U.S. WATER RESOURCE DEVELOPMENT PROJECTS

  Prepared Statement of the Metropolitan Water Reclamation District of 
                            Greater Chicago

    On behalf of the Metropolitan Water Reclamation District of Greater 
Chicago (District), I want to thank the Subcommittee for this 
opportunity to present our priorities for fiscal year 2001 and, at the 
same time, express our appreciation for your support of the District's 
projects in the years past. The District is the local sponsor for three 
Corps of Engineers priority projects of the Chicagoland Underflow Plan: 
the O'Hare, McCook and Thornton Reservoirs. We are requesting the 
Subcommittee's full support for McCook and Thornton Reservoirs, as the 
O'Hare Reservoir has been completed. Specifically, we request the 
Subcommittee to include a total of $19,000,000 in construction funding 
for the McCook and Thornton Reservoir projects in the bill. The 
following text outlines these projects and the need for the requested 
funding. Also, attached is a booklet indicating the benefits of the 
project, the municipalities in our area which benefit from these 
projects, and the need for the requested funding. The booklet reviews 
the history of the issues involved, including newspaper articles and 
pertinent data from the U.S. Army Corps of Engineers (Corps) and the 
Illinois State Water Survey.
                     the chicagoland underflow plan
    The Chicagoland Underflow Plan (CUP) consists of three reservoirs: 
the O'Hare, McCook and Thornton Reservoirs. The O'Hare Reservoir 
Project was fully authorized for construction in the Water Resources 
Development Act of 1986 (Public Law 99-662) and completed by the Corps 
in fiscal year 1999. This reservoir is connected to the existing O'Hare 
segment of the District's Tunnel and Reservoir Plan (TARP). Adopted in 
1972, TARP was the result of a multi-agency effort, which included 
officials of the State of Illinois, County of Cook, City of Chicago, 
and the District.
    TARP was designed to address the overwhelming water pollution and 
flooding problems of the Chicagoland combined sewer areas. These 
problems stem from the fact that the capacity of the area's waterways 
has been overburdened over the years and has become woefully inadequate 
in both hydraulic and assimilative capacities. These waterways are no 
longer able to carry away the combined sewer overflow discharges nor 
are they able to assimilate the pollution associated with these 
discharges. Severe basement flooding and polluted waterways (including 
Lake Michigan, which is the source of drinking water for millions of 
people) is the inevitable result. We point with pride to the fact that 
TARP was found to be the most cost-effective and socially and 
environmentally acceptable way for reducing these flooding and water 
pollution problems. Experience to date has reinforced such findings 
with respect to economics and efficiency.
    The TARP plan calls for the construction of the new ``underground 
rivers'' beneath the area's waterways. The ``underground rivers'' would 
be tunnels up to 35 feet in diameter and 350 feet below the surface. To 
provide an outlet for these tunnels, reservoirs will be constructed at 
the end of the tunnel system. Approximately 93.4 miles of tunnels have 
been constructed or are under construction at a total cost of $2.1 
billion and are operational. The tunnels capture the majority of the 
pollution load by capturing all of the small storms and the first flush 
of the large storms. Another 15.8 miles of tunnels costing $399 million 
need to be completed. The tunnels connected to the O'Hare Reservoir now 
discharge when they fill up during large rainstorms into the Reservoir 
and this system is working well and providing benefits. Thornton and 
McCook Reservoirs have not been built yet, so significant areas remain 
unprotected. Without these outlets, the local drainage has nowhere to 
go when large storms hit the area. Therefore, the combined stormwater 
and sewage backs up into over 470,000 homes. This is a reduction from 
the 550,000 homes impacted before the tunnels were put on line.
    Since its inception, TARP has not only abated flooding and 
pollution in the Chicagoland area, but has helped to preserve the 
integrity of Lake Michigan. In the years prior to TARP, a major storm 
in the area would cause local sewers and interceptors to surcharge 
resulting in CSO spills into the Chicagoland waterways. Since these 
waterways have a limited capacity, major storms have caused them to 
reach dangerously high levels resulting in massive sewer backups into 
basements and causing multi-million dollar damage to property. To 
relieve the high levels in the waterways during major storms, the gates 
at Wilmette, O'Brien, and the Chicago River would be opened and the 
CSOs would be allowed to backflow into Lake Michigan. Since the 
implementation of TARP, some backflows to Lake Michigan have been 
eliminated.
    In particular, since implementation of TARP, 358 billion gallons of 
CSOs have been captured by TARP, that otherwise would have reached 
waterways. After the completion of both phases of TARP, 99 percent of 
the CSO pollution will be eliminated. The elimination of CSOs will 
result in less water needed for flushing of Chicago's waterway system, 
making it available as drinking water to communities in Cook, DuPage, 
Lake, and Will counties, which have been on a waiting list. 
Specifically, since 1977, these counties received an increase of 162 
mgd, partially as a result of the reduction in the District's 
discretionary diversion in 1980. Additional allotments of Lake Michigan 
water, beyond 1991, will be made to these communities, as more water 
becomes available from sources like direct diversion.
    With new allocations of lake water, communities that previously did 
not get to share lake water are in the process of building, or have 
already built, water mains to accommodate their new source of drinking 
water. The new source of drinking water will be a substitute for the 
poorer quality well water previously used by these communities. Partly 
due to TARP, it is estimated by IDOT that between 1981 and 2020, 283 
mgd (439 cfs) of Lake Michigan water would be added to domestic 
consumption. This translates into approximately 2 million people that 
previously did not receive lake water, would be able to enjoy it. This 
new source of water supply will not only benefit its immediate 
receivers but will also result in an economic stimulus to the entire 
Chicagoland area, by providing a reliable source of good quality water 
supply.

     THE MCCOOK AND THORNTON RESERVOIRS--CHICAGOLAND UNDERFLOW PLAN

    The McCook and Thornton Reservoirs of the Chicagoland Underflow 
Plan (CUP) were fully authorized for construction in the Water 
Resources Development Act of 1988 (Public Law 100-676). The CUP, as 
previously discussed, is a flood protection plan that is designed to 
reduce basement and street flooding due to combined sewer back-ups and 
inadequate hydraulic capacity of the urban waterways. These projects 
are the second and third components of CUP, they consist of reservoirs 
to be constructed in west suburban Chicago and Thornton in south 
suburban Chicago.
    These reservoirs will provide a storage capacity of 15.3 billion 
gallons and will produce annual benefits of $104 million. The total 
potential annual benefits of these projects are approximately twice as 
much as their total annual cost. The District, as the local sponsor, is 
acquiring the land necessary for these projects, and is to meeting its 
cost sharing obligations under Public Law 99-662.
    These projects are a very sound investment with a high rate of 
return. They will enhance the quality of life, safety and the peace of 
mind of the residents of this region. The State of Illinois has 
endorsed these projects and has urged their implementation. In 
professional circles, these projects are hailed for their 
farsightedness, innovation, and benefits.
    Based on two successive Presidentially-declared flood disasters in 
our area in 1986 and again in 1987 and dramatic flooding in the last 
several years, we believe the probability of this type of flood 
emergency occurring before implementation of the critical flood 
prevention measure is quite high. As the public agency for the greater 
Chicagoland area responsible for water pollution control, and as the 
regional sponsor for flood control, we have an obligation to protect 
the health and safety of our citizens. We are asking your support in 
helping us achieve this necessary and important goal of construction 
completion.
    We have been very pleased that over the years the Subcommittee has 
seen fit to include critical levels of funds for these important 
projects. We were delighted to see the $4,500,000 in construction funds 
included in the Energy and Water Development Appropriations bill for 
fiscal year 2000. However, it is important that we receive a total of 
$19,000,000 in construction funds in fiscal year 2001 to maintain the 
commitment and accelerate these projects. This funding is critical to 
continue the construction of the McCook Reservoir on schedule, in 
particular, to complete construction of the slurry wall and to 
accelerate the design of the Thornton Reservoir. The community has 
waited long enough for protection and we need these funds now to move 
the project in construction. We respectfully request your consideration 
of our request.

                                SUMMARY

    Our most significant recent flooding occurred on February 20, 1997, 
when almost four inches of rain fell on the greater Chicagoland area. 
Due to the frozen ground, almost all of the rainfall entered our 
combined sewers, causing sewerage back-ups throughout the area. When 
the existing TARP tunnels filled with approximately 1.2 billion gallons 
of sewage and runoff, the only remaining outlets for the sewers were 
our waterways. Between 9:00 p.m. and 3:00 a.m., the Chicago and Calumet 
Rivers rose six feet. For the first time since 1981 we had to open the 
locks at all three of the waterway control points; these include 
Wilmette, downtown Chicago, and Calumet. Approximately 4.2 billion 
gallons of combined sewage and stormwater had to be released directly 
into Lake Michigan.
    Given our large regional jurisdiction and the severity of flooding 
in our area, the Corps was compelled to develop a plan that would 
complete the uniqueness of TARP and be large enough to accommodate the 
area we serve. With a combined sewer area of 375 square miles, 
consisting of the city of Chicago and 51 contiguous suburbs, there are 
550,000 homes within our jurisdiction, which are subject to flooding at 
any time. The annual damages sustained exceed $150 million. If these 
projects were in place, these damages could be eliminated. We must 
consider the safety and peace of mind of the two million people who are 
affected as well as the disaster relief funds that will be saved when 
these projects are in place. As the public agency in the greater 
Chicagoland area responsible for water pollution control, and as the 
regional sponsor for flood control, we have an obligation to protect 
the health and safety of our citizens. We are asking your support in 
helping us achieve this necessary and important goal. It is absolutely 
critical that the Corps' work, which has been proceeding for a number 
of years, now proceed on schedule through construction.
    Therefore, we urgently request that a total of $19,000,000 in 
construction funds be made available in the fiscal year 2001 Energy and 
Water Development Appropriations Act to continue construction of the 
McCook and Thornton Reservoir Project.
    Again, we thank the Subcommittee for its support of our project 
over the years and we thank you in advance for your consideration of 
our request this year.
                                 ______
                                 

  Prepared Statement of The Missouri-Arkansas River Basins Association

    Following is the list of projects with the money requested for the 
2001 budget. They are endorsed by the Board of the Missouri-Arkansas 
Association. We ask your serious consideration in budget approval for 
the Federal fiscal year 2001.

                                Requested fiscal year 2001 appropriation
Blue River Channel, Kansas City, Missouri. Continue 
    Construction Stage 3. Complete Construction by 2003. 
    This Project affects 10,000 workers in the Blue 
    River Valley........................................     $20,000,000
Turkey Creek, Kansas City, Kansas and Missouri. Complete 
    Design for a Construction start in fiscal year 2002. 
    Project authorized in 1998 WRDA Bill................         500,000
Missouri River Levee System Restudy seven levees. 
    Continue feasibility study..........................         350,000
Dodson Industrial District--Blue River Basin. Need new 
    construction start authorization in fiscal year 
    2001. (KC, MO's cost is about $5 Million)...........         150,000
Swope Park Industrial Area, Kansas City, Missouri. Start 
    PED.................................................         200,000
Unit L-385. Continue Construction. Local sponsor now 
    acquiring ROW.......................................       5,000,000
Unit L-142:
    Complete Design for Left Bank.......................         500,000
    Study start for right bank-Wears Creek..............         100,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................      26,800,000

    The list has been prepared in order of priority, as supported by 
our Board. MO-ARK has a unique history of supporting only cost 
beneficial projects. Also, MO-ARK supports flood protection studies now 
under way for St. Joseph, MO; Topeka, KS; and the Upper Mississippi 
River Flow Frequency Study. We also support the Missouri River Fish and 
Wildlife Mitigation Project. Please place this testimony in the formal 
hearing record.
                                 ______
                                 

                 Prepared Statement of American Rivers

    Mr. Chairman and Members of the Appropriations Subcommittee on 
Energy and Water Development, on behalf of more than 450 conservation 
and recreation organizations, community groups, religious affiliations, 
companies, and other groups across the country, American Rivers would 
like to thank you for the opportunity to testify.
    We urge you to increase funding for habitat restoration efforts by 
the U.S. Army Corps of Engineers, including Columbia River Fish 
Mitigation, the Environmental Management Program, the Section 1135 and 
Section 206 programs, the Challenge 21 Initiative, and the Missouri 
River Fish and Wildlife Mitigation Program.
    No federal agency possesses as much restoration expertise as the 
Army Corps of Engineers. Across the nation, communities are working 
with the Corps to restore degraded rivers and streams to provide new 
opportunities for recreation and tourism, improve water quality, create 
habitat for river wildlife, and improve quality of life. The Corps is 
playing the lead role in hundreds of communities, ranging from the 
restoration of the Missouri River to the Anacostia River.
    In particular, we urge you to support the following programs:
    Columbia River Fish Mitigation.--We urge you to appropriate $95 
million for the Columbia River Fish Mitigation program and specify that 
the money must be used for projects designed to recreate or mimic the 
natural river conditions salmon need to survive and leave fish in the 
river to benefit from these changes. The program is essential to 
restoring runs of Snake River salmon and steelhead. Largely due to 
federal dams on the Columbia and Snake Rivers, every species of Snake 
River salmon and nearly every species of Columbia River salmon are 
listed under the Endangered Species Act. Restoring the salmon 
populations in the Snake River would be a significant boon to the local 
and regional economies. Congress should also eliminate funding for the 
Corps' failed collecting and barging activities and deny new Columbia 
River Fish Mitigation appropriations for additional screens, barges, 
and other related projects.
    Section 1135 and Section 206.--We urge you to appropriate $25 
million for the Section 1135 Program, which permits the Corps to modify 
projects to restore habitat. More than 30 projects have been completed 
since the program was authorized in 1986, including the restoration of 
wetlands, construction of islands, and reforestation of floodplains. We 
also urge you to appropriate $25 million for the Section 206 Program, 
which authorizes the Corps to restore degraded habitat regardless of 
past activities by the Corps.
    Challenge 21 Initiative.--We urge you appropriate $40 million for 
the Challenge 21 Initiative, which will permit the Corps to relocate 
frequently flooded homes and businesses. Since the Great Flood of 1993, 
nearly 20,000 flooded homes and businesses have been relocated from 
harm's way. Challenge 21 will permit the Corps to relocate vulnerable 
structures before disaster strikes, reducing long-term flood losses.
    Upper Mississippi River.--We urge you to appropriate $25 million 
for the Environmental Management Program, the primary habitat 
restoration program for the Upper Mississippi River. Unless habitat 
restoration efforts are accelerated, side channels and sloughs will 
continue to fill with sediment faster than they can be replaced, 
endangering the health of the nation's most biologically diverse river.
    Missouri River.--We urge you to appropriate $15 million for the 
Missouri River Fish and Wildlife Mitigation Project, the primary 
habitat restoration program for the Lower Missouri River. Restoring a 
string of natural places from Sioux City and Saint Louis will aid river 
wildlife, attract recreation and tourism, and reduce flood losses.
    Thank you for your consideration of our requests. We strongly 
believe that these funding levels will be excellent investments in the 
long-term health of the rivers, the communities they serve and the 
economies they sustain.
                                 ______
                                 

Prepared Statement of the Integrated Petroleum Environmental Consortium

    The Integrated Petroleum Environmental Consortium (IPEC) is an 
environmental consortium of The University of Oklahoma, Oklahoma State 
University, The University of Tulsa, and The University of Arkansas at 
Fayetteville. Funded as an EPA Research Center, the mission of IPEC is 
to increase the competitiveness of the domestic petroleum industry 
through a reduction in the cost of compliance with U.S. environmental 
regulations. This mission is accomplished through a vigorous research 
and technology transfer program.
    IPEC is industry driven to ensure that the consortium is meeting 
the needs of the industry and fulfilling its mission. IPEC is advised 
by an Industrial Advisory Board (IAB) composed of environmental 
professionals, state regulators, and independent operators who review 
all research proposals for relevancy to IPEC's mission. Representatives 
of regulatory bodies include the Oklahoma Corporation Commission, the 
Arkansas Oil and Gas Commission, the Arkansas Department of Pollution 
Control and Ecology, and the Pawhuska, OK office of the U.S. 
Environmental Protection Agency. The independent oil companies 
(producers and refiners) are the majority group represented on the IAB. 
This Board is dominated by the upstream independent sector of the 
industry. The responsibilities of the IAB are two-fold. First, the IAB 
advises the IPEC Executive Committee on environmental research needs in 
the domestic petroleum industry. Secondly, the IAB reviews research 
proposals at a pre-proposal stage for relevancy to the mission of IPEC. 
Research proposals must meet this test of relevancy to be considered 
further for funding. IPEC is also advised by a Science Advisory 
Committee (SAC), composed of leading environmental experts from 
academia and government laboratories, that reviews all research 
proposals for scientific quality.
    IPEC's research program focuses on the development of cost-
effective technologies to address environmental problems having the 
greatest economic impact on the domestic industry. Current research 
projects include the following: the use of plants to clean contaminated 
soils; the natural biodegradation of gasoline by microorganisms in the 
absence of oxygen; the beneficial use of petroleum wastes as road 
materials; the control of the formation of toxic hydrogen sulfide in 
oil wells; the development of simple sampling devices to replace 
expensive live organisms to assess toxicity in contaminated soils; the 
treatment and disposal of naturally occurring radioactive material 
(NORM) in oil production equipment; the remediation of brine-impacted 
soils; development of a sound scientific basis for ecological risk 
assemement of petroleum production sites; and enhancing the remediation 
of oil contaminated soils. These projects were first reviewed and 
approved by our IAB as relevant to our mission of increasing the 
competitiveness of the domestic petroleum industry and finally reviewed 
and approved by our SAC on the basis of scientific quality.
    Since September, 1998 IPEC has provided $1,080,264 in funding for 
these projects. However, another $977,765 in funding for these projects 
has been secured by the investigators as matching funds from industry 
and industry organizations such as the Gas Research Institute, the 
American Petroleum Institute and the Petroleum Environmental Research 
Forum. This is over and above matching funds (over $900,000) provided 
by the Oklahoma State Reagents for Higher Education. IPEC is a true 
public/private partnership.
    IPEC's technology transfer program is directed toward providing 
useful tools for environmental compliance and cost reduction to 
independent producers. The first year work plan, as developed jointly 
by the IPEC IAB and SAC, has two principal objectives. The first 
objective is to raise the level of technical training of the field 
inspectors of the oil and gas regulatory bodies of Oklahoma and 
Arkansas including the Oklahoma Corporation Commission, The Arkansas 
Oil and Gas Commission, and the Osage Agency of the Bureau of Indian 
Affairs with regard to first response to spills, pollution prevention, 
and remediation of oil and brine spills. The second objective of this 
program is the development of checklists for independent producers to 
assist them in environmental audits (``staying out of trouble 
checklists''), remediation of oil and brine spills, and first response 
to spills. Oklahoma and Arkansas regulatory field agents will be used 
to deliver these tools to the independent producers.
    IPEC's technology transfer flagship is the International Petroleum 
Environmental Conference. In November, 1999 IPEC held the 6th 
International Petroleum Environmental Conference in Houston, TX. There 
were over 370 in attendance from all facets of the oil and gas industry 
including independent and major producers, service industry 
representatives, and state and federal regulators. The program for the 
6th conference featured several plenary lectures, over 150 technical 
presentations, exhibits, a poster session and a special symposium on 
the promise of new technology in the oilfield. Co-sponsors of the 
conference included the Interstate Oil and Gas Compact Commission, the 
Railroad Commission of Texas, the Texas Independent Producers and 
Royalty Owners Association, the Gas Research Institute, the Oklahoma 
Independent Petroleum Association, the Oklahoma Energy Resources Board, 
the EPA Office of Research & Development, and the National Petroleum 
Technology Office of the U.S. Dept. of Energy. IPEC sponsors the 
participation of ten state regulators from Oklahoma and Arkansas each 
year at the conference. The 7th International Petroleum Environmental 
Conference will be held November 7-10, 2000, in Albuquerque, NM.

             THE CRISIS IN THE DOMESTIC PETROLEUM INDUSTRY

    Much attention has been paid recently to the high costs to 
consumers of gasoline and home-heating oil. The price of crude oil is 
the dominant influence on the costs of all petroleum products and the 
cost of crude oil has been increasing for the last 13 months. Energy 
experts agree that the price increases currently being experienced were 
brought on by short-term shocks that resulted from sudden changes in 
supply and demand. On the demand side there has been increasing demand 
for petroleum worldwide, especially in the Far East. On the supply 
side, OPEC and several non-OPEC countries have removed significant 
amounts of crude oil from production. Once again America has been held 
hostage to the marketing whims of foreign producers and we are in no 
position to respond. Since 1990 there has been a 27 percent decline in 
the number of jobs in the U.S. exploring and producing oil and gas. Ten 
years ago there were 657 working oil rigs in the U.S., now there are 
less than 175. Thirty-six refineries have closed since 1992 and no new 
refineries have been built since 1976.
    In order to regain energy security the U.S. must have a coherent 
domestic energy strategy. Some may be willing to entrust the health of 
the U.S. economy to windmills and solar-powered cars, but it will be a 
stable and profitable domestic oil and gas industry that is the 
nation's best defense against OPEC market manipulations. The current 
upswing in crude oil prices may eventually stimulate the industry. 
However, the record low prices that preceded the current increases have 
left many companies in financial positions that make it impossible to 
launch new exploration activities. Additionally, many in the industry 
are simply uneasy with the volatility that has come to characterize the 
industry. Much of U.S. domestic oil production is carried out by 
independent producers who are producing from mature fields left behind 
by the majors. Although there is a significant resource base in these 
fields, this is the most difficult and the most costly oil to produce. 
The independent producer has only one source of revenue--the sale of 
oil and gas. There is no vertical depth to his business.
    A major factor in the high cost of production in the domestic 
petroleum industry is the cost of environmental compliance. IPEC is 
working to strengthen the domestic petroleum industry and reduce the 
impact of market volatility by providing cost-effective environmental 
technologies to solve those problems that are having the greatest 
impact on production costs. A strong and stable domestic petroleum 
industry is our best hedge against foreign market manipulation.

               IPEC'S RESPONSE TO CRITICAL INDUSTRY NEEDS

    IPEC is continually probing our Industrial Advisory Board for new 
ways to assist the domestic petroleum industry and continually seeking 
out cost-effective technical solutions to these problems through an 
aggressive proposal solicitation and review process. The IPEC IAB also 
advises the Consortium on technology transfer needs in the industry. An 
exciting idea that has been put forward by the IPEC IAB is the concept 
of the petroleum extension agent (PEA). The current appropriations 
request will fund a pilot PEA program in Oklahoma and Arkansas that can 
be expanded to include every oil and gas producing state or region.
    There are over 3500 independent oil producers in Oklahoma and 
Arkansas. Most of these are very small companies, the ``mom and pop'' 
operations whose business is run from the pickup truck and the kitchen 
table. These small producers are especially vulnerable to industry 
volatility. The current crises in the domestic petroleum industry 
requires a multi-level response with a specific outreach effort to the 
smallest of the independents, those without in-house experts, to advise 
them on the latest production techniques to minimize costs; how to 
prevent spills and the accompanying clean-up costs; and how to comply 
with state and federal regulations to avoid fines and costly loss of 
production. This type of assistance is not currently provided by the 
private sector engineering and service companies because the small 
producers cannot afford private sector services of this kind.
    IPEC proposes to provide these services to small independent 
producers through a system of petroleum extension agents (PEAs). Up to 
ten (10) full-time equivalent petroleum professionals will be hired to 
call on small independent producers throughout Oklahoma and Arkansas to 
provide direct assistance in every aspect of operating a profitable and 
environmentally friendly business as an oil producer. These PEAs will 
be seasoned veterans of oil and gas production in the state in which 
they will operate. PEAs will possess demonstrated technical competence 
and have a minimum of 20 years of experience in the industry. PEAs will 
operate from the major oil producing areas of the states.
    PEA services will be made known to producers through advertisements 
and through field agents of the Oklahoma Corporation Commission and the 
Arkansas Oil and Gas Commission. PEAs will also seek out and call on 
small producers in the same way that county agricultural extension 
agents call on small farmers. PEAs will be required to serve at least 
24 clients per year, spending an average of two weeks working with each 
small producer. This amount of time is needed to earn a producer's 
confidence, get to know their business, and demonstrate cost-saving 
ideas. In difficult situations PEAs will be able to draw on the 
significant resources of the IPEC institutions and the IPEC Industrial 
Advisory Board. The IPEC institutions contain many business and 
environmental resources, two departments of petroleum engineering, and 
many chemical and mechanical engineers engaged in oil and gas research. 
The IAB members also represent decades of experience in the oil and gas 
industry in Oklahoma and Arkansas. Representatives of the Oklahoma 
Corporation Commission and Arkansas Oil and Gas Commission are members 
of the IAB; therefore, in cases of conflict between small producers and 
one of these regulatory bodies, IPEC can also potentially serve to help 
resolve problems.
    The results expected from this program are:
  --a reduction in the costs of production and increased profitability 
        among small independent producers,
  --lesser numbers of small producers going out of business,
  --less abandoned resources,
  --greater state tax revenues and
  --increased compliance with environmental regulations and greater 
        protection of natural resources.
    It is anticipated that 240 small producers will be directly 
assisted in the first year of this program. However, the knowledge 
gained by these producers will be passed on to other small producers 
and family members by word-of-mouth greatly expanding the reach of this 
direct mechanism of technology transfer to the industry.

            FUNDING OF THE PETROLEUM EXTENSION AGENT PROGRAM

    IPEC is seeking an appropriation of $1.5 million for fiscal year 
2001 through the Department of Energy to fund a pilot petroleum 
extension agent program in Oklahoma and Arkansas. The Consortium will 
be subject to peer review to ensure the effective utilization of public 
funds in meeting the stated goals of the PEA program.
                                 ______
                                 

   Prepared Statement of the Garrison Diversion Conservancy District

    Chairman Domenici and members of the Subcommittee: Over the years, 
Garrison Diversion Unit appropriations have been used to provide a 
reliable, high quality water supply to rural communities in need 
throughout North Dakota and to maintain the 120 miles of canals and 
pumping plants already in place.
    The Garrison Diversion Project continues to be the backbone of all 
water projects in North Dakota. Completing Garrison Diversion will 
assure our citizens affordable access to an adequate quantity and 
quality water supply for municipal, rural and industrial systems. 
Garrison Diversion is the key for future economic development, 
recreation, tourism and wildlife enhancement in our state.
    The President's budget request includes $21,291,000 for the 
Garrison Diversion Unit. An additional $4,200,000 is needed to continue 
the important work of the MR&I program and for needed modifications and 
repairs to the existing facilities. Additional appropriations will 
continue development of rural water supply systems across the state, 
providing a dependable water supply to North Dakota residents. This 
funding impacts the lives of families and business owners statewide who 
are working toward finding solutions to meet their water needs.
    Meeting the Indian MR&I needs also concerns North Dakotans. The 
four Indian reservations in the state face some of the most severe 
water problems in North Dakota. Existing ceilings are exhausted and the 
unmet needs on the reservations are growing. Additional appropriations 
and an appropriate ceiling increase will allow tribal leaders to 
continue working on their most critical water needs. We understand that 
at least $3,000,000 in additional funding is desperately needed to 
continue this important program. We concur that this need is of the 
highest priority.
    A greater concern is the overall Bureau of Reclamation budget. 
Current trends show this budget number shrinking on an annual basis. 
Additional funding and a redirection of the funding allowed for ``water 
supply programs'' is definitely needed. Although water conservation, 
water reuse and restoring fish and wildlife resources are important, 
the Bureau's budget needs to be refocused and increased to place more 
emphasis on completing the authorized projects already on the books.
    We are hopeful that a mutual agreement concerning the Dakota Water 
Resources Act can be reached this year that is beneficial to all areas 
of interest. Since the bill reduces the cost of the currently 
authorized project, it will actually save the Federal Government money 
and, at the same time, meet the highest priority needs of the state.
    Mr. Chairman, we fully support and appreciate the committee's 
current and past efforts in regard to funding for the Garrison 
Diversion Unit. Because water is a valuable resource in North Dakota, 
we are committed to finding solutions to our state's water needs.
                                 ______
                                 

              Prepared Statement of the Mni Wiconi Project

              FISCAL YEAR 2001 CONSTRUCTION BUDGET REQUEST

    The Mni Wiconi Project beneficiaries (as listed below) respectfully 
request appropriations for construction in fiscal year 2001 for the 
project in the amount of $53,341,000 as follows:

Oglala Sioux Rural Water Supply System:
    Core Facilities (Treatment Plant, Pipelines)........     $23,834,000
    Distribution System on Pine Ridge...................       4,820,000
West River/Lyman-Jones Rural Water Systems..............       9,608,000
Rosebud Sioux Rural Water System........................      13,182,000
Lower Brule Sioux Rural Water System....................       1,897,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total Mni Wiconi Project..........................      53,341,000

  NEED FOR OSRWSS TO REACH MURDO IN FISCAL YEAR 2001--MAJOR MILESTONE

    The Oglala, Lower Brule and Rosebud Sioux Tribes were consulted as 
required by the Indian Self-Determination Act (Public Law 93-638, as 
amended) when the Administration arrived at its fiscal year 2001 
construction budget of $23.57 million for the Mni Wiconi Project. This 
budget, however, does not address the needs of the project in fiscal 
year 2001, a major target year, nor does it include the $15 million 
``Indian initiative'' proposed by the Administration for the fiscal 
year 2001 budget but not included in it.
    The principle element in the budget for fiscal year 2001 is $11.895 
million for the Oglala Sioux Rural Water Supply System (OSRWSS) core. 
The OSRWSS core system funds are needed to complete the project to 
Murdo by November 2001, where water can be delivered to the largest 
areas of demand in the West River/Lyman-Jones service area and all of 
the Rosebud service area. By completing the project to Murdo, all of 
the interconnection points for the Lower Brule Sioux Tribe will also be 
provided. Only the Pine Ridge Indian Reservation and parts of West 
River/Lyman-Jones will be without points of interconnection to the 
OSRWSS core. This landmark in progress on the project in fiscal year 
2001 is the most significant event in the project to date. The 
requested funding level is needed to achieve the objective.
    Important to note is the fact that the intake and treatment plant 
on the Missouri River will be fully operational by February 2001 and 
will deliver water to Vivian where the Lower Brule Sioux Tribe is 
building a core facility that will permit interconnection by West 
River/Lyman-Jones.
    Completion of the OSRWSS core pipeline system to Murdo is needed to 
take greater advantage of the completed intake and treatment plant. The 
funding request for fiscal year 2001 will permit us to conclude the 
necessary construction to Murdo, thereby providing interconnection to a 
population of 26,000, 50 percent of the project population. Absent 
sufficient funds in fiscal year 2001, only 8,000 persons will be 
provided with interconnection to the OSRWSS core to receive water from 
the Missouri River. Emphasis is placed on the importance of serving an 
additional 14,000 residents of the project in fiscal year 2001.
    All proposed sponsor construction activity will build pipelines 
that will provide project water immediately to beneficiaries. In many 
cases, construction is ongoing, and fiscal year 2001 funds are required 
to complete those projects. In the absence of fiscal year 2001 funds 
requested for the distribution systems, it will be necessary to 
discontinue some on-going construction contracts and reinitiate them at 
a later time. This will raise project costs. It will also lower faith 
of contractors in the project, which will affect future bid prices.
    Funding for OSRWSS core and distribution facilities are necessary 
to bring the benefits of the Empowerment Zone designation to the Pine 
Ridge Indian Reservation, one of five rural designations across the 
Nation. There is great anticipation on the Pine Ridge Indian 
Reservation. The federal projection that as much as $.5 to $1.0 billion 
in economic activity can be generated, however, is largely dependent on 
the timely completion of a water system, which depends on 
appropriations for this project.
    Finally, all sponsors underscore the importance of the ``Indian 
Initiative'' proposed by the Administration for the fiscal year 2001 
budget. The Indian initiative was the product of correspondence by the 
Indian sponsors with the Administration requesting an increase in the 
level of funding for the Mni Wiconi Project of $25 to $50 million. The 
Commissioner of Reclamation responded and proposed a $10 to $15 million 
Indian initiative during the fall of last year. The Office of 
Management and Budget corresponded on behalf of the President in 
November 1999 stating that serious consideration would be given to the 
initiative. The Indian sponsors listed a total of $42 million in 
projects on the Indian Reservations where planning is well advanced and 
the Indian sponsors have the capability to use the additional funds. 
The correspondence referenced here and the map showing the locations of 
proposed construction activities in the Indian initiative are included 
for review by the Subcommittee. The Indian initiative was supported by 
the South Dakota delegation and West River/Lyman-Jones but was not 
included in the Administration's budget. The initiative is needed by 
the Indian sponsors to complete distribution systems that will take 
advantage on the progress on the OSRWSS core and secondary core systems 
within each of the Indian Reservations.

                      UNIQUE NEEDS OF THIS PROJECT

    Your consideration in this most important project, a project that 
brings hope, dignity and a spirit of cooperation between Indian and 
non-Indians, will be greatly appreciated. This subcommittee has 
provided us with considerable support for which we are grateful. This 
year the Administration has provided an inadequate budget. It is 
necesssary for the project to petition the subcommittee for the 
appropriate level of funding to build the OSRWSS core to Murdo by year 
2001, a major accomplishment that will provide interconnections from 
the core system to nearly 50 percent of the project population or about 
26,000 persons. It is also necessary to fund the Indian initiative.
    In June of the past year, President Clinton visited the Pine Ridge 
Indian Reservation to underscore the severity of economic conditions 
and to promote the Administration's ``New Market Initiative.'' Each 
year our testimony addresses the fact that the project beneficiaries, 
particularly the three Indian Reservations, have the lowest income 
levels in the Nation. The health risks to our people drinking unsafe 
water are compounded by reductions in health programs. We respectfully 
submit that our project is unique and that no other project in the 
Nation has greater human needs. Poverty in our service areas is 
consistently deeper than elsewhere in the Nation. Health effects of 
water borne diseases are consistently more prevalent than elsewhere in 
the Nation, due in part to (1) lack of adequate water in the home and 
(2) poor water quality where water is available. Higher incidences of 
impetigo, gastroenteritis, shigellosis, scabies and hepatitis-A are 
well documented on the Indian reservations of the Mni Wiconi Project 
area. At the beginning of the third millennium one cannot find a region 
in which social and economic conditions are as deplorable. These 
circumstances are summarized in Table 1. Mni Wiconi builds the dignity 
of many, not only though improvement of drinking water, but through 
employment and increased earnings during planning, construction, 
operation and maintenance. We urge the subcommittee to address the 
Administration's concepts for creating jobs and improving the quality 
of life on the Pine Ridge and other Indian reservations of the project 
area.

           TABLE 1.--1990 BUREAU OF CENSUS ECONOMIC STATISTICS
------------------------------------------------------------------------
                                      Per capital families below
                             -------------------------------------------
  Indian reservation/state                     Poverty
                                 Income         level      Unemployment
                                (dollars)     (percent)      (percent)
------------------------------------------------------------------------
Pine Ridge (Shannon County).        $3,029          59.6            32.7
Rosebud (Todd County).......         4,005          54.4            27.3
Lower Brule (Lyman County)..         4,679          45.0            15.7
State of South Dakota.......        10,661          11.6             4.2
National....................        14,420          10.0             6.3
------------------------------------------------------------------------

    Financial support for the Indian membership has already been 
subjected to drastic cuts in funding programs through the Bureau of 
Indian Affairs and through Welfare Reform. This project, progressing 
through the budget fighting efforts at the National level, was a source 
of strong hope that would off-set the loss of employment and income in 
other programs and provide for a healthier environment. Tribal leaders 
anticipate that Welfare Reform legislation and other budget cuts 
nation-wide will create a crisis for tribal government when tribal 
members move back to the reservations in order to survive. This 
movement has already started. Recent Census Bureau data indicate that 
the population of Shannon County (Pine Ridge Indian Reservation) 
increased over 21 percent between 1990 and 1997. The population of Todd 
County (Rosebud Indian Reservation) has increased over 11 percent in 
the same time period. Those population increases are greater than 
anticipated and will create water needs that will more than utilize the 
benefits of the Mni Wiconi Project Act. Public policy has resulted in 
accelerated population growth on the reservations. The Act mandates 
that:

          ``. . . the United States has a trust responsibility to 
        ensure that adequate and safe water supplies are available to 
        meet the economic, environmental, water supply and public 
        health needs of the Pine Ridge, Rosebud and Lower Brule Indian 
        Reservations . . .''

    Indian support for this project has not come easily because of the 
historical experience of broken commitments to the Indian people by the 
Federal Government. The argument was that there is no hope and the 
Sioux Tribes would be used to build the non-Indian segments of the 
project and the Indian segments would linger to completion. These 
arguments have been overcome by better planning, an amended 
authorization and hard fought agreements among the parties. The 
Subcommittee is respectfully requested to take the steps necessary the 
complete the critical elements of the project proposed for fiscal year 
2001.
    The following sections describe the construction activity in each 
of the rural water systems.

          OGLALA SIOUX RURAL WATER SUPPLY SYSTEM--DISTRIBUTION

    Pine Ridge and parts of West River will be the last project 
sponsors to interconnect with the OSRWSS core to receive Missouri River 
water. With projects now designed and proceeding under construction 
award there are 932 services and 450 miles of distribution and service 
pipelines, down from earlier projections due to the pace of funding. We 
continue to extend the start of new projects. No new projects were bid 
in 1999, and 2001 funds are necessary to advance construction. The 
Manderson Loop has been under construction since fiscal year 1996, and 
the fifth of five phases will be scheduled for completion with fiscal 
year 2001 funds. The Red Shirt Project in the northwest corner of the 
Reservation is underway and is scheduled for completion in fiscal year 
2001.
    Of particular importance to the Oglala Sioux Tribe is the start of 
the main transmission system from the northeast corner of the 
Reservation to Kyle in the central part of the Reservation. We had 
proposed the ``Indian initiative'' as a means of advancing this project 
segment. The transmission line is needed to interconnect the OSRWSS 
core system with the distribution system within the Reservation in 
order to deliver Missouri River water to the populous portions of the 
Reservation. If adequate funds are available, this segment of the 
project cannot be initiated in fiscal year 2001. This critical 
component of the Oglala system has been deferred for the last three 
years due to inadequate funding although the design and easements have 
been completed on large portions of the project.

        WEST RIVER/LYMAN-JONES RURAL WATER SYSTEM--DISTRIBUTION

    Joint Mni Wiconi Sponsor focus on the core delivery systems has 
advanced the project to where WR/LJ is now able to provide significant 
development of quality water service to it's membership. All of the WR/
LJ distribution system development to date has been dependent on 
temporary water supplies to meet critical water needs. Project water 
will be available when the intake and water treatment plant are fully 
operational in February 2001.
    All of the WR/LJ construction activity is focused on construction 
of distribution facilities that will be served when the OSRWSS reaches 
Murdo in fiscal year 2001. The City of Murdo will no longer be infamous 
for it's poor quality water. The requested funding will provide quality 
water of all of our membership in Lyman County and the Eastern half of 
Jones County. It will provide fulfillment of the dream of founders of 
the original ``Lyman-Jones'' system over 35 years ago.
    WR/LJ construction in Eastern Mellette County, in conjunction with 
RST core pipeline construction to meet the OSRWSS at Murdo, will make 
quality water service available to all rural residents, tribal and non-
tribal, of Mellette County. This is another successful demonstration of 
the unique working relationship of the Mni Wiconi sponsors.
    Delivery of water service in the rural area around Ft. Pierre will 
provide long awaited economic stimulus to that segment of the Mni 
Wiconi project. Ranch and residential improvements and new construction 
have been long delayed due to lack of potable water systems. Those 
members living closest to the water source may now realize benefits 
from the project.

                       ROSEBUD RURAL WATER SYSTEM

    The Rosebud Sioux Tribe and their non-Indian neighbors in Mellette 
County have waited many years for a reliable source of high quality 
water. The planned arrival of the OSRWSS Core pipeline at Murdo means 
the wait is nearly over. The focus of the Rosebud Sioux Tribe's fiscal 
year 2001 work plan is to connect to the OSRWSS and bring Missouri 
River water from Murdo to the town of White River. The new work planned 
for fiscal year 2001 become the backbone for the Rosebud design 
population of 17,000 and will provide water immediately to 300 
connections and 1,500 people on the Sicangu Mni Wiconi and 55 
additional connections and 150 people served by West River/Lyman Jones.
    If it were possible to identify one component of the Sicangu Mni 
Wiconi as being the most important, it would be the Murdo to White 
River Pipeline. This pipeline will provide close to 3,000 gallons per 
minute of high quality water to the Indian and non-Indian people of 
Mellette County. In addition to providing high quality water to the 
people of eastern and northwestern Mellette County, the construction of 
the Murdo to White River Pipeline will also eliminate the need to 
supply portions of western Mellette County from the interim groundwater 
supplies. The new supply means that the groundwater supplies will be 
available to reduce the chronic water shortages experienced in the 
Antelope and Mission areas.
    In addition to the Murdo to White River Pipeline, other projects 
prioritized for construction in fiscal year 2001 include completion of 
the St. Francis rural distribution system, and initiation of the Spring 
Creek and Black Pipe/Corn Creek Projects. The Spring Creek Project will 
provide storage for the community of Spring Creek and distribute water 
to nearby rural areas. The Black Pipe/Corn Creek Project will use 
project facilities completed in fiscal years 1999 and 2000 to 
distribute Missouri River water to the northwestern portion of Mellette 
County. This area is one of the driest in the state and where and when 
water is available, water quality is so poor it frequently isn't 
suitable for human consumption.
    If the promise of bringing high quality water to all of Mellette 
County can be accomplished in 2001, people's dreams of the past thirty 
or more years will become reality. The Rosebud Sioux Tribe hopes 
Congress will turn this dream into reality and immeasurably improve the 
quality of life for Indians and non-Indians alike.

              LOWER BRULE RURAL WATER SYSTEM--DISTRIBUTION

    The Lower Brule new microfiltration water treatment plant is now in 
operation and water is being delivered to the communities of Lower 
Brule and West Brule, some scattered to Reservation housing sites and 
some to West River/Lyman-Jones (WR/LJ) system serving the town of 
Reliance and rural users in the Reliance area. The treatment plant is 
producing and delivering a safe, high quality water with a nominal 
capacity of 700 gallons per minute. While the final cost of this 
facility approaches $1,800,000 only $250,000 came from Mni Wiconi 
program funds. The Lower Brule Sioux Tribe contributed $300,000 in 
tribal funds and the balance came from various grant programs.
    The West Brule to Reliance core system is complete, including the 
Medicine Butte 456,000 gallon ground storage reservoir. The Fort George 
Butte--County Road pipeline has been installed and is awaiting testing. 
This pipeline will be placed into service as soon as water can be 
obtained from the Oglala Sioux Rural Water Supply System (OSRWSS) core 
pipeline and will initially serve only West River/Lyman-Jones users 
until the on-Reservation distribution system can be constructed. The 
Vivian to Presho core line is scheduled for completion in fiscal year 
2000 and can begin serving the City of Presho and rural water users of 
West River/Lyman-Jones as soon as water is available from the OSRWSS 
core pipeline at Vivian.
    Lower Brule Rural Water System (LBRWS) has programmed the fiscal 
year 2001 funding for completion of the Presho to Kennebec core 
pipeline. This would serve the town of Kennebec and West River/Lyman-
Jones area rural users. In the event adequate funds are available in 
fiscal year 2001, the core pipeline from Kennebec north to the 
Reservation boundary will be constructed. This line will initially 
serve only WR/LJ users until funds can be obtained to construct the on-
Reservation distribution system.
    In order to accomplish the above stated goals, LBRWS is requesting 
$1,846,000 in fiscal year 2001 funds. This amount would provide 
adequate funds to construct the Presho to Kennebec and the Kennebec 
north core lines. If funds are not adequate for both of these core 
lines, the Presho to Kennebec line will take priority, with a required 
funding level of $1,235,000.
    LBRWS is continuing to commit its available funds to construction 
of off-Reservation core pipelines. As noted above, this will allow 
service to WR/LJ cities and rural users. LBRWS will use funds made 
available in subsequent years to fund construction of its on-
Reservation distribution system to serve our users if its authorized 
cost ceiling is raised.
                                 ______
                                 

        Prepared Statement of the Mid-Dakota Rural Water Project

                    FISCAL YEAR 2001 FUNDING REQUEST

    First let me thank the Subcommittee for the opportunity to testify 
in support of the fiscal year 2001 appropriations for the Mid-Dakota 
Rural Water Project and for the Subcommittee's support. The Mid-Dakota 
Project is requesting $24 million in federal appropriations for fiscal 
year 2001. As with our past submissions to this subcommittee, Mid-
Dakota's fiscal year 2001 request is based on a detailed analysis of 
our ability to proceed with construction during the fiscal year. In all 
previous years, Mid-Dakota has fully obligated its appropriated funds, 
including federal, state, and local, and could have obligated 
significantly more were they available.
    This year (fiscal year 2001) the project is seeking additional 
funds above the President's budget recommendation in the amount of 
$17.96 million ($24.0 million-$6.04 million). Mid-Dakota understands 
and appreciates pressures on Congress to pass and maintain a balanced 
and seemingly an austere budget and in that respect we understand the 
difficulties before congressional appropriators to find additional 
funds to supplement the President's budget request. However, we request 
and strongly urge Congress to appropriate the full amount of Mid-
Dakota's request.

                      HISTORY OF PROJECT FUNDING:

    The Project was authorized by Congress and signed into law by 
President George Bush in October 1992. The federal authorization for 
the project totaled $100 million (in 1989 dollars) in a combination of 
federal grant and loan funds (grant funds may not exceed 85 percent of 
federal contribution). The State authorization was for $8.4 million (in 
1989 dollars). The total authorized indexed cost of the project now 
stands at approximately $144 million. All federal funding considered, 
the Government has provided 53.4 percent of its commitment ($71.4 
million of $134 million) to provide construction funding for the 
Project. When considering the federal and state combined awards, the 
project is approximately 56.3 percent complete, in terms of financial 
commitments.
    Mid-Dakota wishes to thank this committee for its support over the 
past seven years. Within the limited monetary parameters of current 
federal awards and funds appropriated by the State of South Dakota, we 
have been able to put those scarce resources to good work, making 
exceptional progress on project construction, albeit not nearly as fast 
as is needed or as we had initially envisioned.

                                        SUMMARIZATION OF FEDERAL FUNDING
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                                          Total
                                    Mid-     Pres.                        Conf.    Bureau   Additional    fed.
        Fed. fiscal year           Dakota    budget   House    Senate    enacted    award      funds      funds
                                   request                               levels    levels               provided
----------------------------------------------------------------------------------------------------------------
1994............................     7.991  .......  .......     2.000     2.000     1.500  ..........     1.500
1995............................    22.367  .......  .......     8.000     4.000     3.600  ..........     3.600
1996............................    23.394    2.500   12.500    10.500    11.500    10.902      2.323     13.225
1997............................    29.686    2.500   11.500    12.500    10.000     9.400      1.500     10.900
1998............................    29.836   10.000   12.000    13.000    13.000    12.221      1.000     13.221
1999............................    32.150   10.000   10.000    20.000    15.000    14.100      2.000     16.100
1900............................    28.800    5.000   15.000     7.000    14.000    12.859  ..........    12.859
2001............................    28.800    6.040  .......  ........  ........  ........  ..........
                                 -------------------------------------------------------------------------------
      Totals....................  ........   36.040   61.000    73.000    69.500    64.582      6.823      71.40
----------------------------------------------------------------------------------------------------------------

    Additionally, the State of South Dakota has contributed $9.67 
million in grants to the Mid-Dakota Project, in previous years. The 
State of South Dakota completed its initial authorized financial 
obligation to the Mid-Dakota Project in the 1998 Legislative Session.
    The $14 million funding provided by the Subcommittee in fiscal year 
2000 provided Mid-Dakota with the opportunity to achieve very 
significant and exciting accomplishments for the fiscal year. These are 
later summarized in the section titled ``Construction in Progress.'' 
Mid-Dakota will continue to deliver quality drinking water to nine 
community systems and approximately 800 rural customers (farms and 
Ranches). Mid-Dakota estimates that an additional 1,000 rural farm and 
ranch accounts along with five more community systems will be receiving 
project water at the close of contracts awarded in fiscal year 1999/
2000. The subcommittee's generosity has already had a deep and 
favorable effect on over 10,000 South Dakotans.

              PRESIDENT'S FISCAL YEAR 2001 BUDGET REQUEST

    In February the President's Budget recommendations to Congress were 
released. Mid-Dakota Rural Water was included in the proposed budget at 
a level of $6.040 million for fiscal year 2001. This represents a 57 
percent decrease from what Congress appropriated in fiscal year 2000. 
The Mid-Dakota Project will not be able to make any significant 
progress in fiscal year 2001 at this level of funding. In fact, it 
would not be an overstatement to say that Mid-Dakota may have to 
suspend significant construction activities for fiscal year 2001, if 
the $6.040 million is not significantly increased.
    As in previous years, Mid-Dakota is in ``catch-up'' mode, due to 
lower than expected appropriations in prior years. The $24 million 
request for fiscal year 2001 will help the project maintain an 
acceptable construction schedule. The $6.040 million budget request by 
President Clinton would have profound and devastating effects, pushing 
the completion of the Project to the year 2013. Under the Clinton 
Administration's proposal, thousands of South Dakota citizens will be 
forced to wait an estimated 12 years until they can be connected to the 
Mid-Dakota Project. The President's budget, if ultimately implemented 
will provide an extended delay of Project benefits.
    By its actions the Administration raises the potential of 
increasing the total cost of the Mid-Dakota Project by approximately $8 
million. The Federal Government would not be alone in absorbing 
negative impacts of funding shortfalls. In addition to making the Mid-
Dakota Project more expensive to the Federal Government, the resulting 
delays would also have a direct and proportional effect on the rate of 
debt service to be paid by the Project and ultimately the water users. 
The repayment agreement entered into by Mid-Dakota and the Federal 
Government (the Bureau of Reclamation acting on the Government's 
behalf), demands that Mid-Dakota's ``minimum bill'' increase 
proportionally with the indexing applied to the Project. This is done 
by establishing the ratio of the federal authorization at the time Mid-
Dakota submitted its Final Engineering Report (FER) in 1994, compared 
to the authorized ceiling today with indexing applied. This same ratio 
is then applied to Mid-Dakota's ``minimum bill'' as was identified at 
the time of execution of the repayment agreement.
    By the Bureau of Reclamation's own design, slowing down the 
development of the Mid-Dakota Project will ultimately make the Project 
more expensive, in terms of; rates paid by water users construction 
costs, total debt of the Project and Reclamation's oversight costs.

                            IMPACTS OF AWARD

    The most obvious impact of any significant reduction from Mid-
Dakota's request will be the delay of construction of one or more 
Project components. The $24 million dollar request will allow the 
Project to proceed with construction of multiple contracts summarized 
later in this testimony. An award of less than our request will result 
in the deletion or reconfiguration of one or more of these contracts 
from the fiscal year 2001 construction schedule. Further, reduced 
appropriations have the effect of adding more cost to the amount needed 
for completion of the Project.
    Mid-Dakota has consistently informed members of Congress and 
appropriate federal agencies, about the detrimental effects 
insufficient funding has on the Project and ultimately the people who 
are to receive the water. In previous years Mid-Dakota and the public, 
which we will serve, have been able to make the most of the resources 
provided the Project. However, failure to provide full funding has had 
profound consequences.

                        CONSTRUCTION IN PROGRESS

    Mid-Dakota began construction in September of 1994, with the 
construction of its Water Intake and Pump Station. Since that eventful 
day of first construction start, we have bid, awarded, and completed 14 
project components and are into construction on six other major Project 
components. The following table provides a synopsis of each major 
construction contract:

----------------------------------------------------------------------------------------------------------------
                                                                                                         Percent
                                                                   Cont.     Cont.    Final     Over      over
              Cont. no.                      Description        budget \1\    bid     cont.    (under)   (under)
                                                                             award    price    budget    budget
----------------------------------------------------------------------------------------------------------------
1-1..................................  Oahe Water Intake and        4.662     3.959    3.945   (0.717)      (15)
                                        Pump Station.
2-1..................................  Oahe Water Treatment        13.361     9.920   10.278   (3.083)      (23)
                                        Plant.
3-1A.................................  Raw Water Pipeline.....      1.352     1.738    1.719    0.367        27
3-1B.................................  Main Pipeline to Blunt,      7.823     6.916    7.024   (0.799)      (10)
                                        SD.
3-1C.................................  Main Pipeline to             5.439     4.791    4.798   (0.641)      (12)
                                        Highmore, SD.
3-2A.................................  Main Pipeline to Ree         3.261     3.155    3.149   (0.112)       (3)
                                        Hights, SD.
3-2B.................................  Main Pipeline to St.         3.691     3.349    3.352   (0.339)       (9)
                                        Lawrence, SD.
4-1A/B (1-5).........................  Rural Service Area           9.345     9.983   10.731  \2\ 1.38       15
                                        Contract.                                                   6
4-1A/B (6)...........................  Rural Service Area           8.333     8.329    8.573  \2\ 0.24        3
                                        Contract.                                                   0
5-1..................................  Highmore Water Storage       1.545     1.434    1.433   (0.108)       (7)
                                        Tank.
5-1A (1).............................  Onida Water Storage          0.471     0.395    0.400   (0.075)      (16)
                                        Tank.
5-1A (2).............................  Okobojo Water Storage        0.381     0.338    0.338   (0.043)      (11)
                                        Tank.
5-1A (3).............................  Agar Water Storage Tank      0.422     0.391    0.393   (0.029)       (7)
5-1A (4).............................  Gettysburg Water             0.952     0.814    0.815   (0.137)      (14)
                                        Storage Tank.
                                                               -------------------------------------------------
      Totals..................................................     61.038    55.512   56.948   (4.090)       (7)
----------------------------------------------------------------------------------------------------------------
\1\ Contract budget is determined by Mid-Dakota's estimate for the contract at the time of bidding.
\2\ A significant portion of the cost increases are attributable to the placement of additional users as construction proceeds.


    As is evident by the foregoing table, Mid-Dakota has been very 
successful in containing Project costs. Currently the construction of 
major Project components are approximately 7 percent under budget, 
providing an estimated saving of over $4 million. The savings are an 
example of sound engineering, good management and advantageous bid 
lettings. While we can't guarantee future contract bid lettings will 
continue to provide the level of savings currently experienced, we do 
think it speaks well of the Mid-Dakota Project and how we've managed 
Project funding to date.
    Mid-Dakota also provided the solution to a number of emergency 
situations in the past. The ``rescue'' effort to the City of 
Gettysburg, SD provided the town with a dependable, quality water 
supply (Mid-Dakota) just as they were about to lose their existing 
water intake, due to sluffing of the hillside at that location. The 
town of Virgil, SD will have a new distribution system for the town, 
replacing the old one that was in disrepair and draining the town 
coffers to keep it running and supply drinking water to Virgil 
residents. Mid-Dakota has agreed to take-over the operations of the 
Southern Spink and Northern Beadle Rural Water System (SSNB). SSNB is a 
small community water supply system that lacks the necessary capacity 
to properly operate a potable water supply system. Mid-Dakota replaced 
approximately eight miles of pipeline along U.S. Highway 212. An 
existing water pipeline located in the Highway right-of-way would have 
to be relocated increasing the cost of the Highway improvement. Mid-
Dakota instead placed its pipeline (that would have been constructed in 
the future) out of the way of the Highway improvement. This lessened 
the cost of the Highway project and provided for an uninterrupted 
supply of water along the pipeline route.
    Additionally, Mid-Dakota is keeping in close contact with the City 
of Huron, SD (population 12,400) regarding potentially serious EPA 
water quality violations anticipated with the implementation of the 
Safe Drinking Water Act (SDWA) enhanced surface water rules due in 
2003. Engineers who have analyzed the current drinking water source for 
Huron (James River) have concluded that the City will not be able to 
treat the current James River source without very significant and 
costly upgrades to their existing treatment facilities. Further the 
engineers have concluded that without these upgrades or switching to a 
new source i.e., Mid-Dakota, the City will be out of compliance with 
the Disinfection and Disinfection by-products rule D/DBP to be 
implemented in 2003. Huron is located at the East end of the Mid-Dakota 
Project (Mid-Dakota is being built in a general West to East manner) 
and is currently Mid-Dakota's largest contracted user. It is 
anticipated that with sufficient funding beginning with fiscal year 
2001 and continuing thereon, Mid-Dakota can be in a position to connect 
to Huron in time to remedy potential EPA non-compliance faced by Huron.

          TENTATIVE FISCAL YEAR 2001 CONSTRUCTION SCHEDULE \1\

    Mid-Dakota has developed an aggressive construction schedule for 
fiscal year 2001, with plans to install nearly 900 miles of pipeline to 
serve an estimated 3,000 more people than are currently receiving or 
scheduled to receive Project drinking water. Our construction schedule 
will also provide the necessary main pipeline infrastructure to move 
forward with many more rural and community connections in the future. 
Federal funding allocated in any given fiscal year is always the 
limiting factor that drives Mid-Dakota's construction schedule.
---------------------------------------------------------------------------
    \1\ Project features listed in table are subject to rescheduling 
based upon funding provided and readiness to proceed and other factors. 
Actual construction activities, therefore, may not coincide exactly 
with schedule presented here.

                                     CONSTRUCTION SCHEDULE--FISCAL YEAR 2001
----------------------------------------------------------------------------------------------------------------
                                                                                     9 percent
                                                   Construction      4 percent     Construction    Total project
                                                     estimate      Inspection &      contract        estimate
                                                                   ROW estimate     management
----------------------------------------------------------------------------------------------------------------
Rezac Lake Service Area.........................      $3,033,000        $121,320        $272,970      $3,427,290
Collin's Slough Service Area....................       2,195,000          87,800         197,550       2,480,350
Ames Service Area...............................       3,515,000         140,600         316,350       3,971,950
Cottonwood Lake Service Area....................       3,698,000         147,920         332,820       4,178,740
Wessington Springs Service Area.................       2,667,000         106,680         240,030       3,013,710
Redfield Service Area...........................         488,000          19,520          43,920         551,440
                                                 ---------------------------------------------------------------
      Subtotal Service Areas....................      15,596,000         623,840       1,403,640      17,623,480
                                                 ===============================================================
Ames Water Storage Tank.........................         474,000          18,960          56,880         549,840
Cottonwood Lake Storage Tank....................         495,000          19,800          59,400         574,200
Wessington Springs Storage Tank.................         499,000          19,960          59,880          78,840
Redfield Storage Tank...........................         187,000           7,480          22,440         216,920
                                                 ---------------------------------------------------------------
      Subtotal Storage Tanks....................       1,655,000          66,200         198,600       1,919,800
                                                 ===============================================================
Engineering, Design & Consultants...............  ..............  ..............  ..............       1,000,000
Administration & General (Approx 3.5 percent of   ..............  ..............  ..............         675,000
 Const.)........................................
Contingencies and Other (Approx. 15 percent of    ..............  ..............  ..............       2,825,000
 Const.)........................................
                                                 -----------------
      Total fiscal year 2001....................  ..............  ..............  ..............      24,043,280
                                                 =================
      Total fiscal year 2001 request............  ..............  ..............  ..............      24,000,000
----------------------------------------------------------------------------------------------------------------
Note: 1. Completion of a ``Service Area'' must include the accompanying Water Storage Tank in order to place the
  area in service.
2. Construction Projects outlined above are not necessarily in an order of priority.
3. Contingencies include 5 percent (bidding) 5 percent (Change Orders) & 5 percent (Add-on users).

                                CLOSING

    Mid-Dakota is intensely aware of the difficult funding decisions 
that face the Energy and Water Appropriations Subcommittee and we do 
not envy the difficult job that lies ahead. We strongly urge, the 
Subcommittee to look closely at the Mid-Dakota Project and recognize 
the dire need that exists. Consider the exceptionally high level of 
local and state support. And lastly our readiness, our credibility and 
our ability, to proceed.
    Again, we thank the Subcommittee for its strong support in the 
past.
                                 ______
                                 

Prepared Statement of the Missouri River Bank Stabilization Association

    The Missouri River Bank Stabilization Association, its members and 
its officers thank you for the opportunity to present this statement, 
including a budget request, relating to the budget for fiscal year 
2001.
    This statement relates to the Missouri National Recreational River 
project which was authorized by the Congress in 1978 per Section 707 of 
Public Law 95-625. The Association's budget request for fiscal year 
2001 is $275,000.00, an amount to be used for these purposes.
  --The operation, maintenance and repair of structures constructed 
        prior to 1978 under the authority of Section 32 of the 
        Streambank Erosion Control and Demonstration Act;
  --To provide for the repair or replacement of flood-damaged 
        facilities which permitted access to the river in the lower 
        reaches of the project, especially on the South Dakota shore;
  --For the acquisition of shoreline easements to protect extant 
        wildlife habitat and to increase such habitat where it is 
        lacking;
  --To provide streambank protection where needed, as needed, for the 
        river's ``high banks'', ie., for the meander line's 
        streambanks.
  --For such other needs as may be required to achieve the 
        Congressional purposes with respect to this project.

    This project pertains to the some fifty-eight mile reach of the 
Missouri River extending downward from near Yankton, South Dakota, 
circa mile 811, to the Ponca, Nebraska, State Park, circa mile 752. 
This reach of the Missouri is the only relatively wild portion lying 
downstream of the ``main stem'' dams. Here, the Missouri is neither 
channelized nor stabilized. While limited and isolated stabilization 
structures do exist, for the most part the river retains its natural 
characteristics. These characteristics include eroding shorelines, 
islands, ephemeral sandbars, trees overhanging the water, frequent 
changes in the channel, marked differences in depth, forested bluffs, 
caving cornfields and somewhat limited access. Wildlife, too, 
characterizes this reach of river. Deer, coyotes, raccoons and beaver 
abound, as do a wide variety of birds. Spring and fall see a massive 
influx of ducks, geese and many other migratory birds.
    The business of the Missouri River is to move the Rocky Mountains 
to the Gulf of Mexico. Erosion is a major tool employed by the Missouri 
to perform its role as a 2,300 plus mile conveyor belt. Thus, its 
shorelines are under endless attack, including even those areas where 
some stabilization measures have been undertaken. The erosion problem 
was exacerbated by the record high flows in 1997; some of the damage 
done then has yet to be repaired. Further aggravating the problem is 
the river's increased capacity to carry sediment because the water 
released through the Gavins Point Dam is almost sediment free. Thus, 
the river can and does cut with a vengeance.
    While intensive erosion has long been one of the Missouri's salient 
characteristics, the problem here is that the construction of the 
``main stem'' dams ended the annual overbank flooding. Such flooding 
naturally created new land along the river, balancing the erosion. The 
flood plain along the river was so created. Today, no flooding occurs 
along this reach of river, and landowners suffer doubly: erosion has 
increased because of the increased carrying capacity of the clean water 
and such erosion is not offset by floodcreated floodplains. Whereas 
riparian landowners once had a ``fifty-fifty'' chance of regaining lost 
land, today they have no chance of such restorations. Instead, they 
have a one hundred percent chance of losing their land.
    Congress authorized $21,000,000.00 for this project. To date only 
some $2 million has been spent. A new management plan for this reach of 
river was recently approved. The National Park Service and the U.S. 
Army Corps of Engineers, aided by a ``citizens advisory group'' 
developed the new plan. The new plan is more detailed than the 
original; it contains an array of proposals designed to increase public 
enjoyment of this delightful reach of the ``old'' Missouri. This plan 
also seeks to preserve and protect those characteristics which make 
this reach of the Missouri worthy of the status the Congress bestowed 
upon it.
    During the very lengthy process of developing the new plan, it was 
time and again noted that bank stabilization was a truly essential 
component of the plan and one authorized by the enabling legislation. 
Indeed, if there be no stabilization to protect existing (and 
endangered) features of the river and its landscape, they will simply 
disappear. For example, extant tracts of superb cottonwood forests are 
being eroded away as this is written. Such losses are irretrievable. 
Disturbingly, the new plan is vague and all but silent as to 
stabilization; indeed the press release heralding adoption of the new 
plan did not even mention it. At the public meetings held to seek 
public input to help develop the new plan, the need for stabilization 
was overwhelmingly the principal need articulated.
    Underscoring this request for needed funding for this reach of the 
``old Missouri'' is the accelerating interest in the nearing 
bicentennial of the Lewis and Clark Expedition. As this reach of the 
Missouri is one of but a handful of surviving natural reaches, it is 
certain to be among the most attractive to the multitude of people who 
will follow the Lewis and Clark Trail. Public access needs to be 
improved; more and better signage is imperative; some increase in 
overlooks, or other viewing points, is certainly desirable. Such public 
access will be of little interest to a visitor unless the islands, 
forested shorelines, wildlife habitats and sandbars are preserved and 
protected.
    The Association is most appreciative of the continued interest and 
support the Congress has shown, and extends its thanks accordingly. So, 
too, do a host of hunters, environmentalists, fishermen, boatsmen and a 
variety of others who support our cause and enjoy the Grand Old Stream 
we seek to protect and preserve.
                                 ______
                                 

        Prepared Statement of The Little River Drainage District

    My name is Dr. Sam Hunter, DVM of Sikeston, Missouri. I am a 
veterinarian, landowner, farmer and resident of Southeast Missouri.
    I am the President of the Little River Drainage District, the 
largest such entity in the nation. Our District serves as an outlet 
drainage and flood control District to parts of seven counties in 
Southeast Missouri. We provide flood control protection to a sizable 
area of Northeast Arkansas as well. Our District is solely tax 
supported by more than 3500 private landowners in Southeast Missouri.
    Our District as well as other Drainage and Levee Districts in 
Missouri and Arkansas is located within the St. Francis River Basin. 
This is a project item of the Mississippi River and Tributaries 
Project.
    The St. Francis Basin Project was authorized by Congress in 1928 
for improvements by the U. S. Army Corps of Engineers. The initial 
authorization was justified by a projected benefit cost ratio of 2.4: 
1. Today this ratio is 3.6: 1 and the project is still not completed. 
As you can see this has been a wise investment of our federal tax 
dollars. Few projects or ventures with funding levels provided by the 
Federal Government return more than they cost. This one does and we 
need to complete it in a timely fashion.
    Local interests have done their part in providing rights of way, 
roads, utilities and the like. Our government now needs to fulfill 
their part of the project and bring it to completion as quickly as 
possible.
    The St. Francis Basin project has had a base funding level of 
approximately $10,000,000 over the past several years. Our last five 
year average has been $9.9 million. That baseline funding level does 
not need to be diminished. The President's budget request of $6,775,000 
is not acceptable. The amount requested by OMB will not provide 
sufficient funding levels for the Corps to maintain what they have 
built and/or improved. We hereby respectively request funds for fiscal 
year 2001 for this project of $12,775,000. This amount is compatible 
with the Corps of Engineers capability.
    Since the initiation of the project for improvements we have seen 
many positive changes occur such as:
  --Many miles of all weather roads have been constructed and are 
        usable almost daily each year.
  --Better flood control and drainage.
  --Development of one of the most fertile and diversified valleys in 
        the world.
  --Growth of towns, schools, churches, industry, commerce, and etc.
  --Improvement of our environment: malaria, typhoid and other such 
        diseases are no longer the norm but seldom occur.
  --A future for our young people to have a desire to remain in the 
        area.
  --Production of a variety of food and fiber products.
    As you can see many changes have occurred and we who live there 
welcome them fully. We, local interests, in Southeast Missouri and 
Northeast Arkansas want this project brought to completion and 
adequately maintained. We have waited over seventy years and we believe 
it is now time to complete a wise investment for our nation.
    Our request to you today is to approve funding for the St. Francis 
Basin at $12,775,000 for fiscal year 2001 and succeeding years to 
assure completion of the project and to make certain the completed 
project is properly maintained.
    Further, we are here as a member of the Mississippi Valley Flood 
Control Association, which represents similar interests as our 
District, from the Gulf of Mexico upstream to the headwaters of the 
Mississippi River.
    The MR&T Project has only $309,000,000 in the President's budget. 
The Corps of Engineers has the capability of $370,000,000. We ask you 
to give consideration to provide funding levels at $370,000,000 for 
this project for fiscal year 2001. This will provide some new 
construction but it will also provide the necessary maintenance monies 
needed each year.
    Our great Mississippi River and Tributaries are most valuable 
assets to our great nation. The barge industry is the safest, most 
efficient and more environmentally acceptable than our other modes of 
moving our commodities to be exported. We need to upgrade our 
infrastructure now in order to compete with foreign markets. The 
$370,000,000 will provide funding for some new construction and 
maintenance funds for existing features. We have numerous locks and 
dams which need to be improved to accommodate our twenty first century 
needs. Some locks and dams are more than fifty years old.
    Thank you very much for your kind attention. We would be very 
appreciative of anything this Committee can do to help us meet our 
needs.
                                 ______
                                 

  Prepared Statement of the Arkansas River Basin Interstate Committee

    Mr. Chairman and members of this distinguished Committee, my name 
is Wallace Gieringer. I am retired as Executive Director of the Pine 
Bluff-Jefferson County (Arkansas) Port Authority. It is my honor to 
serve as Chairman of the Arkansas River Basin Interstate Committee, 
members of which are appointed by the governors of the great States of 
Arkansas, Colorado, Kansas, Missouri, and Oklahoma.
    As Chairman, I present this summary testimony as a compilation of 
the most important projects from each of the member states. Each of the 
states unanimously supports these projects without reservation. I 
request that the copies of each state's individual statement be made a 
part of the record, along with this testimony.
    Mr. Chairman, the members of the Interstate Committee continue to 
identify as our top priority a project vital to the five-state area and 
beyond--the urgently needed Montgomery Point Lock and Dam at the 
confluence of the McClellan-Kerr Arkansas River Navigation System and 
the Mississippi River.
    Continuing problems caused by lowering of the Mississippi River 
plague McClellan-Kerr entrance channel users. As recently as last month 
shippers on the McClellan-Kerr were threatened with the lowest water 
levels on the Mississippi River in recorded history.
    Construction of Montgomery Point needs to continue as rapidly as 
possible before limited dredge disposal areas become inadequate. During 
times of low water on the Mississippi River the entrance channel is 
drained of navigable water depth. As the Mississippi River bottom 
continues to lower, the McClellan-Kerr moves toward total shutdown.
    Thus, the entire Arkansas River Navigation System is at risk, and 
its long term-viability is threatened without Montgomery Point. Some $5 
billion in federal and private investments, thousands of jobs, growing 
exports in world trade and future economic development are endangered.
    The good news is that you, your associates, the Congress and the 
Administration have all recognized the urgency of constructing 
Montgomery Point!
    The Corps of Engineers awarded a $186 million construction contract 
on July 19, 1977. Last year Congress appropriated $45 million to 
continue construction of the lock and dam. The cofferdam and diversion 
channel have been completed, and work is progressing well.
    Mr. Chairman and Members of the Committee, continuing Congressional 
support is essential at this crucial time in the history of the 
project. An appropriation of $45 million for fiscal year 2001 will 
insure that Montgomery Point is in operation as soon as possible at the 
lowest possible cost.
    The Interstate Committee also respectfully recommends the following 
as important priorities:
    Providing $1.4 million for the Arkansas River Navigation Study, AR 
& OK. While navigation is the primary purpose of the McClellan-Kerr 
Arkansas River Navigation System, navigation needs and flood control 
are closely related. Sustained high flows result in difficult 
navigation conditions and continued flooding in the vicinity of Fort 
Smith, Arkansas.
    As the operation of the flood control features of the Navigation 
System in that area are based on the Van Buren, Arkansas gage, the 
flooding concerns and navigation problems are interrelated. 
Accordingly, this study would address the navigation System Operating 
Plan to improve navigation conditions on the river, as well as the 
performance of flood control measures, especially in the Fort Smith 
reach.
    We strongly urge the Committee to provide funding in the amount of 
$2.5 million to initiate the installation of tow haulage equipment on 
the 3 locks on the Arkansas River portion of the McClellan-Kerr 
Arkansas River Navigation System in Oklahoma.
    Equus Beds Groundwater Recharge Project--this is the continuation 
of a Bureau of Reclamation project jointly endorsed by the City of 
Wichita, Groundwater Management District No. 2 and the State of Kansas. 
This model technology has proven the feasibility of providing needed 
environmental protection and recharging a major groundwater aquifer 
supplying water to nearly 600,000 irrigation, municipal and industrial 
users. Governor Graves supports this much needed project in order to 
secure the quality of life and economic future for more than 20 percent 
of the state's population.
    Demonstration project data confirms earlier engineering models that 
the full scale project is feasible and also capable of meeting the 
increasing water resource needs of the area to the mid 21st century. 
Through the recharge project, a greater reliance on the aquifer is 
planned for the future and essential environmental protection 
strategies must be implemented.
    The full scale design concept calls for a multi-year construction 
project. Phase One of the project is estimated to cost $14.6 million 
with construction beginning in mid-2001. The total project involving 
the capture and recharge of more than 100 million gallons of water per 
day is estimated to cost $142 million over 10 years. We are grateful 
for your consistent, previous cost share funding support since fiscal 
year 1995 as a compliment to funds provided by the City of Wichita. We 
request continued cost share funding for Phase One of the full-scale 
project in the amount of $5.84 million for fiscal year 2001.
    We also request funds for the Bureau of Reclamation in the amount 
of $6.861 million for the Upper Colorado River Endangered Fish Recovery 
and San Juan River Basin Recovery Implementation Programs.
    Mr. Chairman, Members of this Committee, we respectfully request 
that you and members of your staff review and respond in a positive way 
to the attached individual statements from each of our states which set 
forth specific requests pertaining to those states.
    We sincerely appreciate your consideration and assistance. Thank 
you very much for the foresight, wisdom and resourcefulness you and 
your colleagues demonstrate each and every year in providing solutions 
to our nation's water resource problems.

                           SUMMARY STATEMENT

    Mr. Chairman and members of the Committee, we are grateful that 
you, your associates, the Congress and the Administration have all 
recognized the urgency of Constructing Montgomery Point Lock and Dam on 
the McClellan-Kerr Arkansas River Navigation System. Continuing 
Congressional support is essential. We respectfully urge the Congress 
to appropriate $45 million for use in fiscal year 2001 to continue 
construction and insure that the urgently needed facility is in 
operation as soon as possible at the lowest possible cost.
    Other projects are also vital to the environment, social and 
economic well-being of our region and our nation. We request your 
support for the following:
  --Provide $1,300,000 for the Arkansas River Navigation Study, AR & 
        OK. This study would address the Navigation System Operating 
        Plan to improve navigation conditions during high flows on the 
        river, as well as the performance of flood control measures, 
        especially in the Fort Smith reach.
  --Support continued funding for the construction, and Operation and 
        Maintenance of the McClellan-Kerr Arkansas River Navigation 
        System.
  --Continue construction authority for the McClellan-Kerr Arkansas 
        River Navigation Project until remaining channel stabilization 
        problems identified by the Little Rock District Corps of 
        Engineers have been resolved.
  --Provide funding and direct the Corps to complete installation of 
        tow-haulage equipment for all the locks and dams on the 
        McClellan-Kerr Arkansas River Navigation System.
  --Provide funds and direct the Corps of Engineers to begin 
        construction of the Arkansas River Levees Project as authorized 
        by Section 110 of the Water Resource Development Act of 1990.
  --$1.3 million needs be specifically provided and the Corps directed 
        to begin rehabilitation construction on the Plum Bayou Levee 
        (including the Old River and Baucum Levees).
  --Funds for repair and rehabilitation of the power units at the 
        Ozark-Jetta Taylor Lock and Dam Powerhouse which first went 
        into operation in 1970.
  --Provide funding in the amount of $500,000 to continue pre-
        construction engineering and design on the North Little Rock, 
        (Dark Hollow), AR, project.
  --Provide funding in the amount of $1,845,000 to complete Fourche 
        Bayou Basin, Little Rock, AR, project.
    Please help prevent a crisis for the Arkansas River Navigation 
System and the multi-state region it serves by appropriating $45 
million for use in fiscal year 2001 for Montgomery Point Lock and Dam.
    We fully endorse the statement presented to you today by the 
Chairman of the Arkansas River Basin Interstate Committee.

               ARKANSAS RIVER BASIN FOR FISCAL YEAR 2001

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to present testimony to this most important committee. I am 
retired as Executive Director of the Pine Bluff-Jefferson County Port 
Authority and serve as Arkansas Chairman for the Interstate Committee. 
Other committee members representing Arkansas, in whose behalf this 
statement is made, are Messrs. Wayne Bennett, soybean and rice farmer 
from Lonoke; Colonel Charles D. Maynard, U.S. Army, retired, from 
Little Rock; Barry McKuin, a Director of the Morrilton Port Authority 
at Morrilton; and N. M. ``Buck'' Shell, transportation specialist of 
Fort Smith and Van Buren, Arkansas.
    1999 was a memorable year in the history of the McClellan-Kerr 
Arkansas River Navigation System--and you helped make it so! Last year 
Congress continued to recognize the urgent need for Montgomery Point 
Lock and Dam by appropriating $45 million. This much needed facility is 
under construction near the confluence of the McClellan-Kerr System and 
the Mississippi River. To each of you, your staff and the Congress--our 
most heartfelt thanks!
    The Corps of Engineers awarded a $186 million contract for 
construction of the lock and dam proper on July 19, 1997. The cofferdam 
and the diversion channel have been completed, and work is progressing 
well. When completed, Montgomery Point will protect over $5 billion in 
public and private investments, thousands of jobs and world trade 
created as a result of the McClellan-Kerr Arkansas River Navigation 
System. Without Montgomery Point Lock and Dam the future of our 
wonderful navigation system remains threatened. Time is of the essence.
    As recently as last month shippers on the McClellan-Kerr were 
threatened with the lowest water levels on the Mississippi River in 
recorded history. As the Mississippi experiences low water levels, and 
its bottom continues to lower, the McClellan-Kerr moves toward total 
shutdown. Existing dredge disposal areas are virtually full. Ongoing 
dredging and disposal of material can mean environmental damage. 
Construction must continue as rapidly as possible if the project is to 
be in place before disposal areas become inadequate.
    Use of the temporary by-pass channel increases navigation hazards 
making it imperative that work on the lock and dam be completed as 
quickly and as safely as possible. The absence of Montgomery Point Lock 
and Dam continues to deter economic growth along the entire McClellan-
Kerr and the project is certainly time sensitive!
    We are very grateful that you, your associates, the Congress, and 
the Administration have all recognized the urgency of constructing 
Montgomery Point. Appropriations of $138.3 million have been made to 
date for engineering, site acquisition and construction for this 
project which should be completed in 2003 according to the Corps' 
optimum construction schedule.
    Mr. Chairman and Members of the Committee, continuing Congressional 
support is essential at this crucial time in the history of the 
project. We respectfully request and urge the Congress to appropriate 
$45 million for use in fiscal year 2001 to continue construction. 
Adequate funding will insure that the urgently needed facility is in 
operation as soon as possible at the lowest possible cost.
    We wish to express thanks Mr. Chairman, for the Committee's support 
of funding for the Morgan Bendway Environmental Restoration Project. 
The State of Arkansas provided one-fourth of the cost for this $3.3 
million project which includes a 1000 acre lake and wetland restoration 
measures. This project adds to the many widespread public benefits 
associated with the McClellan-Kerr Arkansas River Navigation System.
    We are also grateful for your support by funding completion of the 
repair and rehabilitation of the power units at the Dardanelle Lock and 
Dam which first went into operation in 1965. After this work is 
completed, power output will be increased by 13 percent and thus 
increase income to the Federal Treasury.
    Other projects are vital to the environment, social and economic 
well-being of our region and our nation. We recognize the importance of 
continued construction of needed features to the McClellan-Kerr 
Arkansas River Navigation System and strongly recommend that you 
favorably consider the following in your deliberations:
  --Provide $1,300,000 for the Arkansas River Navigation Study, AR & 
        OK. While navigation is the primary purpose of the McClellan-
        Kerr Arkansas River Navigation System, navigation needs and 
        flood control are closely related. Sustained high flows result 
        in difficult navigation conditions and continued flooding in 
        the vicinity of Fort Smith, Arkansas. As the operation of the 
        flood control features of the Navigation System in that area 
        are based on the Van Buren, Arkansas gage, the flooding 
        concerns and navigation problems are interrelated. Accordingly, 
        this study would address the navigation System Operating Plan 
        to improve navigation conditions on the river, as well as the 
        performance of flood control measures, especially in the Fort 
        Smith reach.
  --Support continued funding for the construction, and Operation and 
        Maintenance of the McClellan-Kerr Arkansas River Navigation 
        System.
  --Continue construction authority for the McClellan-Kerr Arkansas 
        River Navigation Project until remaining channel stabilization 
        problems identified by the Little Rock District Corps of 
        Engineers have been resolved. It is vitally important that the 
        Corps continue engineering studies to develop a permanent 
        solution to the threat of cutoffs developing in the lower 
        reaches of the navigation system; and for the Corps to 
        construct these measures under the existing construction 
        authority.
  --Provide funding and direct the Corps to complete installation of 
        tow haulage equipment for all the locks and dams on the 
        McClellan-Kerr Arkansas River Navigation System. This 
        efficiency feature will reduce lockage time by as much as 50 
        percent while permitting tonnage to double in each tow with 
        only a minor increase in operating cost.
  --Provide funds and direct the Corps of Engineers to begin 
        construction of the Arkansas River Levees Project as authorized 
        by Section 110 of the Water Resource Development Act of 1990. 
        $400,000 is needed to continue planning, engineering and design 
        for these levees which have been previously studied in the 
        cost-shared Arkansas River, Arkansas and Oklahoma Feasibility 
        Study.
  --$1.3 million needs be specifically provided and the Corps directed 
        to begin rehabilitation construction on the Plum Bayou Levee 
        (includes the Old River and Baucum Levees).
    Funds for repair and rehabilitation of the power units at the 
Ozark-Jetta Taylor Lock and Dam Powerhouse which first went into 
operation in 1970. This project is vitally needed to correct problems 
which have plagued the slant axis turbines since they were first put in 
operation and to continue the reliable production of power from this 
facility.
  --Provide funding in the amount of $500,000 to continue pre-
        construction engineering and design on the North LittleRock, 
        (Dark Hollow), AR Project.
  --Provide funding in the amount of $1,845,000 to complete Fourche 
        Bayou Basin, Little Rock, AR, project. This will allow the U.S. 
        Army Corps of Engineers to cost-share with the City of Little 
        Rock on purchase of 1,750 acres of bottomland hardwood for 
        environmental preservation and establishment of nature 
        appreciation facilities.
    We also urge the Congress to continue to encourage the Military 
Traffic Management Command to identify opportunities to accelerate use 
of the nation's navigable waterways to move military cargoes thereby 
helping contain the nation's defense costs.
    In conclusion, Mr. Chairman, please help prevent a crisis for the 
Arkansas River Navigation System and the multi-state region it serves 
by appropriating $45 million for use in fiscal year 2001 for Montgomery 
Point Lock and Dam.
    The entire Arkansas River Navigation System is at risk, and its 
long-term viability is threatened. The system remains at risk until 
Montgomery Point is constructed. Some $5 billion in federal and private 
investments and thousands of jobs and growing exports are endangered.
    We fully endorse the statement presented to you today by the 
Chairman of the Arkansas River Basin Interstate Committee. We 
appreciate the opportunity to provide testimony to your most important 
subcommittee and urge you to favorably consider our request for needed 
infrastructure investments in the natural and transportation resources 
of our nation.
                                 ______
                                 

   Prepared Statement of the Southeastern Colorado Water Conservancy 
                                District

                           SUMMARY STATEMENT

    Mr. Chairman and Members of the Appropriations Subcommittee on 
Energy and Water Development, thank you for the opportunity to present 
this summary of the funding requests that are important to the State of 
Colorado and the membership of the Arkansas River Basin Interstate 
Committee. This committee comes together each year to support the water 
resource projects that are important to each of the 5 member states 
individually and collectively.
    The State of Colorado joins the other members of the Committee in 
supporting as the number 1 priority project this year, Montgomery Point 
Lock and Dam at Montgomery Point, Arkansas. This vital navigation 
project is important to the many customers of Colorado that take 
advantage of the low cost water transportation of their goods. We urge 
you to fund this project at the requested $45 million. This will allow 
the project to remain on its current construction schedule for 
completion at the lowest possible cost.
    The following requests for funding are in support of projects that 
are vital to the State of Colorado and we respectfully urge you fund 
them in the requested amounts.
    Upper Colorado River Endangered Fish Recovery Program:
  --Support Fish and Wildlife Service funding for the Recovery 
        Program--$635,800.
  --Support Fish and Wildlife Service funds for operation of the Ouray 
        National Fish Hatchery--$305,800.
    San Juan River Basin Recovery Implementation Program:
  --Support Fish and Wildlife Service funding for the Recovery 
        Program--$126,500.
    Bureau of Reclamation funds for the Upper Colorado River Endangered 
Fish Recovery and San Juan River Basin Recovery Implementation 
Programs--$6.861 million.
    Mr. Chairman, Members of this Committee, we thank you for your kind 
attention in the matters listed here and in the combined testimony's of 
the member states of the Arkansas River Basin Interstate Committee. We 
certainly look forward to your favorable response to these requests.

                               STATEMENT

    Mr. Chairman and Members of the Appropriations Subcommittee on 
Energy and Water Development, thank you for the opportunity to present 
these comments and requests on behalf of Colorado as a participant in 
the Arkansas River Basin Interstate Committee.
    First let me voice my support for the Interstate Committee's 
priority funding request for the fiscal year 2001 budget cycle. The 
Committee has once again identified the Montgomery Point Lock and Dam 
project as the number one funding request. Since there are many 
identifiable customers of the navigation system located in Colorado, we 
urge you to appropriate the requested $45 million to keep this project 
on its current construction schedule. This will allow the system to 
return to a reliable, year-round transportation system at the lowest 
possible cost.
    Upper Colorado River Endangered Fish Recovery Program/San Juan 
River Basin Recovery Implementation Program--fiscal year 2001 
Requests.--Mr. Chairman, Members of the Committee, we respectfully 
request funding for the following:

Fish and Wildlife Service Budget
            Upper Colorado River Endangered Fish Recovery Program
  --Support Fish and Wildlife Service funding for the Recovery 
        Program.--$635,800 requested in ``Recovery funds.'' Projects to 
        be funded are:
    Fish and Wildlife Service program management.--Funding to cover 
salaries and expenses of Program Director and staff.
    Interagency standardized monitoring program.--This activity 
supports Service participation in monitoring fish populations 
(including stocked fish) and their responses to recovery actions.
    Data management.--The Service maintains all fish data collected in 
the Recovery Program in computerized form to facilitate analyses. This 
includes maintaining the overall database, summarizing data, and 
providing an annual listing of all tagged fish.
  --Support Fish and Wildlife Service funds for operation of the Ouray 
        National Fish Hatchery.--$305,800 is requested for ``Fish 
        Hatchery Operation.''
    The Upper Colorado River Endangered Fish Recovery Program requests 
Congressional support to operate the Service's National Fish Hatchery 
in Ouray, Utah. Funding will enable the hatchery to continue to raise 
and hold endangered fish for stocking, research, and refugia (adult 
fish for spawning and maintaining gene pool.)

San Juan River Basin Recovery Implementation Program
  --Support Fish and Wildlife Service funding for the Recovery 
        Program.--$126,500 requested in ``Recovery funds.'' Projects to 
        be funded are:
    Fish and Wildlife Service program management.--Funding supports 
partial salary for the coordinator and, funding permitting, dollars for 
research and monitoring. Bureau of Reclamation Budget
    Support Bureau of Reclamation funds for the Upper Colorado River 
Endangered Fish Recovery and San Juan River Basin Recovery 
Implementation Programs.
    Upper Colorado River and San Juan River Basin Recovery Program 
participants request Congressional support for $6.861 million for 
fiscal year 2001 in ``Endangered Species Recovery Programs and 
Activities for the Upper Colorado Region.'' This amount is included in 
the Administration's proposed fiscal year 2001 budget for Reclamation. 
It would provide the Upper Colorado River Endangered Fish Recovery 
Program (Recovery Program) with $4.887 million, the San Juan River 
Basin Recovery Program with $1.394 million and Activities to Avoid 
Jeopardy with $535,000. It also includes a request of $45.000 to fund 
research associated with the habitat needs of the Kanab Amber Snail. 
The $4.887 million would be used for water acquisition and capital 
construction projects including:

Upper Colorado River Endangered Fish Recovery Program Activities
    Fish passage.--Reclamation funds will be used to construct a fish 
ladder on the Colorado River at the Grand Valley Project. This activity 
will benefit razorback sucker and Colorado pike minnow by giving them 
access to more of their historic habitat.
    Water acquisition.--Reclamation initiatives include:
    Modification and automation of canals to more efficiently operate 
irrigation projects near Grand Junction, Colorado, and dedicating the 
``saved'' water to endangered fish.
    Using water stored in several smaller Reclamation reservoirs to 
enhance late-summer flows in the Colorado River.
    Coordinating Federal and private reservoir operations in the 
Colorado River headwaters to enhance spring peak flows downstream.
    Floodplain restoration.--Funding is needed in fiscal year 2001 to 
continue land acquisition, levee removal, and other floodplain 
restoration activities at high priority sites. Restoring these 
floodplains is thought to be especially important for endangered 
razorback suckers and will benefit a variety of wetland-dependent 
wildlife.
    Endangered fish growout ponds.--Existing hatcheries and native fish 
production facilities fall short of meeting stocking needs. Funding is 
needed in fiscal year 2001 to excavate or locate at least 100 acres of 
growout ponds to raise razorback suckers and other endangered fish for 
further stocking in the Green, Colorado, and Gunnison Rivers.
    Diversion canal screening.--Funding is needed in fiscal year 2001 
to construct a screen at the Grand Valley Irrigation Company Diversion 
Canal to prevent endangered fish from being drawn out of the river and 
into the canals. (The habitat above the diversion is used by adult 
endangered fish.) Funding in the amount of $2,110,000 is also needed to 
construct a screen at the Tusher Wash Diversion Canal to prevent fish 
from being entrained into irrigation canals and the power plant.
San Juan River Basin Recovery Implementation Program Activities
    The Biology Committee is developing a long-term capital facilities 
plan. The most likely capital expenditures for fiscal year 2001 will be 
to provide fish passage at Hogback and Cudei diversion dams in New 
Mexico and planning and design of passage structures at other locations 
on the San Juan River. Current maintenance of the Hogback Diversion 
structure requires extensive annual use of heavy equipment in the 
stream channel to rebuild the structure after spring flood events. 
Funding will be used to reconstruct a fortified diversion structure 
that incorporates a fish passage channel into the design. The Cudei 
diversion is a rock and earthen structure that impedes the ability of 
fish to move upstream and will be removed and replaced with a siphon 
that does not block the stream channel.
    Upper Colorado River Endangered Fish Recovery Program-Authorizing 
Legislation.--The House and Senate will soon deliberate on legislation 
that will formalize the ``recovery program'' for the endangered fish in 
the upper Colorado River. The Upper Colorado River Endangered Fish 
Recovery Program (the Program) has been operating for several years 
with the support of the State of Colorado and the other Upper Basin 
States, as well as water users in these states. The Program is directed 
at recovering four native fish species while allowing water development 
activities to continue. To date the Program has served as the 
reasonable and prudent alternative (RPA) for several small water 
development projects throughout the Upper Basin States. In December of 
1999 the U.S. Fish and Wildlife Service issued a final Programmatic 
Biological Opinion (PBO) that clearly establishes the intent of the 
Program to provide the RPA for all existing water projects and a 
reasonable measure of future water projects, while affirming commitment 
for a set of recovery action items that are intended to recover the 
fish.
    It is important that the Upper Colorado River Endangered Fish 
Recovery Program be authorized so that the Program's objectives can be 
met. The House of Representatives has introduced H.R. 2348 and the 
Senate will soon follow with legislation that will provide 
authorization for the Program.
    As a Colorado member of the Interstate Committee, I respectfully 
request that the individual members on this Subcommittee support the 
authorizing legislation for the Upper Colorado River Endangered Fish 
Recovery Program.
    Thank you for your consideration of these requests.
                                 ______
                                 

   Prepared Statement of the Kansas Arkansas River Basin Interstate 
                               Committee

                           SUMMARY STATEMENT

    The critical water resource projects in the Kansas portion of the 
Arkansas River Basin are summarized below. The projects are safety, 
environmental and conservation oriented. In addition, we state our 
unanimous support for the fiscal year 2001 request of $45 million for 
continued construction of the authorized Montgomery Point Lock and Dam 
Project to maintain viable navigation for commerce on the McClellan-
Kerr Navigation System.
    We request your continued support for these important Bureau of 
Reclamation projects:
  --Equus Beds Groundwater Recharge Project.--Continuation of a City of 
        Wichita, Groundwater Management District No. 2 and State of 
        Kansas project to construct recharge facilities for a major 
        groundwater resource supplying water to more than 20 percent of 
        Kansas municipal, industrial and irrigation users. The total 
        project will capture and recharge in excess of 100 million 
        gallons per day and will also reduce on-going degradation of 
        the existing groundwater quality by minimizing migration of 
        saline water. Continued federal funding is requested in the 
        amount of $5.84 million for fiscal year 2001.
  --Cheney Reservoir.--On the North Fork of the Ninnescah River 
        providing natural treatment of inflows in the upper reaches of 
        Cheney Reservoir to control poor water quality due to non-point 
        source pollution from agricultural runoff. Continued funding in 
        the amount of $125,000 is requested for fiscal year 2001.
    We request your support of these equally important Corps of 
Engineers projects:
  --Arkansas City, Kansas Flood Protection.--To protect homes and 
        businesses from catastrophic damages resulting from either 
        Walnut River or Arkansas River flooding. Previous funding is 
        appreciated and continued federal funding is requested in the 
        amount of $5.1 million for fiscal year 2001, the level needed 
        by the Corps of Engineers.
  --John Redmond Reservoir Reallocation Study.--To ascertain the 
        equitable distribution of sediment storage between conservation 
        and flood control storage and evaluate the environmental impact 
        of the reallocation. Funding is requested in the amount of 
        $345,000.
  --Upper Arkansas River Watershed, Kansas, Reconnaissance Study.--
        $100,000 study to evaluate high flow carrying capacity, flood 
        control and ecosystem restoration in western Kansas.
  --Grand Lake Feasibility Study.--Corps study completed in September 
        1998, which evaluated the adequacy of federal flood control 
        easements around Grand Lake. Feasibility study now requested in 
        the amount of $3 million.
  --Grand (Neosho) Basin Watershed Reconnaissance Study.--To evaluate 
        non-structural measures to reduce flood damages in southeastern 
        Kansas and northeastern Oklahoma. Funding request is for 
        $100,000.
  --Continuing Authorities Program.--Several smaller Kansas communities 
        have previously requested funding from the Small Flood Control 
        Projects Program and the Emergency Streambank Stabilization 
        Program. We request funding to be authorized at the full 
        programmatic limits.
    Finally, we are very grateful that both the Corps of Engineers and 
Bureau of Reclamation have the expertise needed for the development and 
protection of water resources infrastructure. It is essential to have 
the integrity and continuity these agencies provide on major public 
projects. Your continued support of these vital agencies, including 
funding, will be appreciated.

                               STATEMENT

    Mr. Chairman and members of the committee, I am Gerald H. Holman, 
Senior Vice President of the Wichita Area Chamber of Commerce, Wichita, 
Kansas and Chairman of the Kansas Interstate Committee for the Arkansas 
Basin Development Association (ABDA). I also serve as Chairman of ABDA. 
This statement is submitted on behalf of the entire Kansas Delegation.
    We are honored to join with our colleagues from the States of 
Oklahoma, Arkansas, Colorado, and Missouri to form the five state 
Arkansas River Basin Interstate Committee. We are unified as a region 
and fully endorse the statement of the Arkansas River Basin Interstate 
Committee.
    In addition to the important projects listed below, we state our 
unanimous support for the continued construction of the authorized 
Montgomery Point Lock and Dam Project to maintain viable navigation for 
commerce on the McClellan-Kerr Navigation System. This inland waterway 
is vital to the economic health of our area. Likewise, your support is 
vital to maintain its future viability. Construction is well underway 
and continued funding authorization is needed. We state our unanimous 
support for the $45 million needed by the Corps of Engineers for fiscal 
year 2001 to maintain the most economical and cost efficient 
construction schedule.
    The critical water resources projects in the Kansas portion of the 
Arkansas River Basin have been reviewed by the Kansas delegation. The 
projects are safety, environmental and conservation oriented and all 
have regional and/or multi-state impact. We are grateful for your past 
commitment and respectfully request your continued commitment.
    We ask for your continued support for these important Bureau of 
Reclamation projects on behalf of the Wichita/South Central Kansas 
area:
    Equus Beds Groundwater Recharge Project.--This is the continuation 
of a Bureau of Reclamation project jointly endorsed by the City of 
Wichita, Groundwater Management District No. 2 and the State of Kansas. 
This model technology has proven the feasibility of recharging a major 
groundwater aquifer supplying water to nearly 600,000 irrigation, 
municipal and industrial users. The demonstration project remains fully 
operational, capturing flood flows from the Little Arkansas River 
providing water for use during times of low rainfall or dry conditions 
and also reducing on-going degradation of the existing groundwater 
quality by minimizing migration of saline water.
    Demonstration project data confirms earlier engineering models that 
the full scale project is feasible and also capable of meeting the 
increasing water resource needs of the area to the mid 21st century. 
Presently, the Equus Beds provides approximately half of the Wichita 
regional municipal water supply and is vital to the surrounding 
agricultural economy. Through the recharge project, a greater reliance 
on the aquifer is planned for the future and essential environmental 
protection strategies must be implemented.
    Governor Graves supports this much needed project in order to 
secure the quality of life and economic future for more than 20 percent 
of the state's population.
    The full scale design concept calls for a multi-year construction 
project. Phase One of the project is estimated to cost $14.6 million. 
Construction is planned to begin in mid-2001. The total project 
involving the capture and recharge of more than 100 million gallons of 
water per day is estimated to cost $142 million over 10 years. All 
interested parties fully support this project as the needed cornerstone 
for the area agricultural economy and for the economy of the Wichita 
metropolitan area.
    We are grateful for your consistent, previous cost share funding 
support since fiscal year 1995 as a compliment to funds provided by the 
City of Wichita. We request continued cost share funding for Phase One 
of the full-scale project in the amount of $5,840,000 for fiscal year 
2001.
    Cheney Reservoir.--The reservoir provides approximately 50 percent 
of Wichita's regional water supply. Two environmental problems threaten 
the water quality and longevity of the reservoir. One is sedimentation 
from soil erosion and the other is non-point source pollution, 
particularly the amount of phosphates entering the reservoir resulting 
in offensive taste and odor problems. A partnership between farmers, 
ranchers and the City of Wichita has proven beneficial in implementing 
soil conservation practices and to better manage and therefore reduce 
and/or eliminate non-point source pollution. To date, over 1,700 
environmental projects have been completed within the 543,000 acre 
watershed. This partnership must continue indefinitely to protect the 
reservoir and the Wichita regional water supply and therefore, on-going 
funding will also be necessary. The City of Wichita is providing 
funding for this critical, nationally acclaimed model project. We 
request continued federal funding in the amount of $125,000 for fiscal 
year 2001. As the funding from Section 319 of the Clean Water Act is 
phased out, we request another funding source in the amount of $125,000 
to continue this vital program.
    Many of our agricultural communities have historically experienced 
major flood disasters, some of which have resulted in multi-state 
hardships involving portions of the State of Oklahoma. The flood of 
1998 emphasized again the need to rapidly move needed projects to 
completion. Our small communities do not have the necessary funds or 
engineering expertise. Federal support is needed. Projects in addition 
to local protection are also important. This Committee has given its 
previous support to Kansas Corps of Engineers projects. We request your 
continued support for the projects listed below:
  --Arkansas City, Kansas Flood Protection.--Unfortunately, this 
        project was not completed prior to the flood of 1998. The flood 
        demonstrated again the critical need to protect the 
        environment, homes and businesses from catastrophic damages 
        from either Walnut River or Arkansas River flooding. When the 
        project is complete, damage in a multi-county area will be 
        eliminated and benefits to the State of Oklahoma just a few 
        miles south will also result. The Secretary of the Army was 
        authorized to construct the project in fiscal year 1997. We 
        request your continued federal support in the amount of $5.1 
        million for fiscal year 2001, the level needed by the Corps of 
        Engineers.
  --John Redmond Reservoir Reallocation Study.--John Redmond Reservoir 
        remains a primary source of water supply for many small 
        communities in Kansas. It is suffering loss of capacity ahead 
        of its design rate because of excessive deposits within the 
        conservation pool. The flood pool remains above its design 
        capacity. A study would ascertain the equitable distribution of 
        sediment storage between conservation and flood control 
        storages and also evaluate the environmental impact of the 
        appropriate reallocation. Funding requirements for the Corps of 
        Engineers study is $345,000. We request your support.
  --Upper Arkansas River Watershed, Kansas, Reconnaissance Study--A 
        reconnaissance study of the water resources problems from the 
        Colorado-Kansas border to the vicinity of Great Bend, Kansas. 
        The Federal construction of John Martin Dam, CO, combined with 
        years of over-pumping of groundwater and over-use of surface 
        water by agricultural interests in the upper reaches of the 
        basin have changed the upper Arkansas River Basin flow regime. 
        The changes resulted in minimal and non-existent flows in the 
        upper Arkansas River in Kansas, which allowed vegetative and 
        other encroachments into the river channel to occur largely 
        unnoticed. Due to an agreement between Kansas and Colorado, 
        there are now periods of increased flows in the Arkansas River 
        in Kansas. State of Kansas officials are now concerned that the 
        Arkansas River channel capacity has been so modified as to 
        cause flooding in areas which have not previously experienced 
        flooding problems. The study will evaluate the watershed 
        changes to determine if flood damage prevention, watershed and 
        ecosystem restoration or other solutions to water resource 
        problems in the basin is warranted. We request funding to 
        initiate reconnaissance studies in the amount of $100,000 for 
        fiscal year 2001.
  --Grand Lake Feasibility Study.A need exists to evaluate water 
        resource problems in the Grand-Neosho River basin in Kansas and 
        Oklahoma to evaluate solutions to upstream flooding problems 
        associated with the adequacy of existing real estate easements 
        necessary for flood control operations of Grand Lake, Oklahoma. 
        A study authorized by the Water Resources Development Act of 
        1996 was completed in September of 1998 and determined that if 
        the project were constructed based on current criteria, 
        additional easements would be required. A Feasibility study is 
        necessary to determine the most cost-effective solution to the 
        real estate inadequacies. Changes in the operations of the 
        project or other upstream changes could have a significant 
        impact on flood control, hydropower, and navigation operations 
        in the Grand (Neosho) River system and on the Arkansas River 
        basin system, as well. We request funding in the amount of $3 
        million in fiscal year 2001 to fully fund Feasibility studies 
        evaluating solutions to upstream flooding associated with 
        existing easements necessary for flood control operations of 
        Grand Lake.
    Grand (Neosho) Basin Watershed Reconnaissance Study.--A need exists 
for a basin-wide water resource planning effort in the Grand-Neosho 
River basin, apart from the issues associated with Grand Lake, 
Oklahoma. The reconnaissance study would focus on the evaluation of 
institutional measures which could assist communities, landowners, and 
other interests in southeastern Kansas and northeastern Oklahoma in the 
development of non-structural measures to reduce flood damages. We 
request funding in the amount of $100,000 in fiscal year 2001 to 
conduct the study.
    Continuing Authorities Program.--We support funding of needed 
programs including the Small Flood Control Projects Program (Section 
205 of the 1948 Flood Control Act, as amended) as well as the Emergency 
Streambank Stabilization Program (Section 14 of the 1946 Flood Control 
Act, as amended). Smaller communities in Kansas (Iola, Liberal, 
Medicine Lodge, Iola, McPherson, Augusta, Parsons, Altoona and 
Coffeyville) have previously requested assistance from the Corps of 
Engineers under these programs. We urge you to support these programs 
to the $40 million programmatic limit for the Small Flood Control 
Projects Program and $15 million for the Emergency Streambank 
Stabilization Program.
    Also, Ecosystem Restoration Programs are relatively new programs 
which offer the Corps of Engineers a unique opportunity to work to 
restore valuable habitat, wetlands, and other important environmental 
features which previously could not be considered. We urge you to 
support section 1135 of the Water Resources Development Act of 1986 and 
Section 206 of the Water Resources Development Act of 1996 at their $25 
million programmatic limits.
    Likewise, the Challenge 21 Program has the possibility of providing 
great assistance to communities which have experienced disastrous flood 
events like took place in Kansas with the flood of 1998. The Challenge 
21 program will focus on opportunities to move homes and businesses 
from harms way through structural and non-structural measures and 
through comprehensive watershed planning efforts. We support funding of 
this important initiative.
    Finally, we are very grateful that both the Corps of Engineers and 
Bureau of Reclamation have the expertise needed for the development and 
protection of water resources infrastructure. It is essential to have 
the integrity and continuity these agencies provide on major public 
projects. Your continued support of these vital agencies, including 
funding, will be appreciated. Our infrastructure must be maintained and 
where needed, enhanced for the future.
    Mr. Chairman and Members of this Committee, we thank you for the 
dedicated manner in which you and your colleagues have dealt with the 
Water Resources Programs and for allowing us to present our needs and 
funding requests.
    Thank you very much.
                                 ______
                                 

  Prepared Statement of the Oklahoma Arkansas River Basin Interstate 
                               Committee

                           SUMMARY STATEMENT

    The water resource needs for the State of Oklahoma have been 
carefully reviewed and the following accurately represents the needs of 
the citizens of our region.
    We continue to hold as our number on priority the continued 
construction of Montgomery Point Lock and Dam in Arkansas. The 
completion of this project is critical to the continued use of the 
navigation system and the continued growth of the entire region. We 
request an appropriation of $45 million for fiscal year 2001.
    We strongly urge the Committee to provide funding in the amount of 
$2.5 million to initiate the installation of tow haulage equipment on 
the 3 locks and dams on the Arkansas River portion of the McClellan-
Kerr Arkansas River Navigation System in Oklahoma.
    The Arkansas River System Operations Feasibility Study, Arkansas 
and Oklahoma. This study would optimize the reservoirs in Oklahoma and 
Arkansas that provide flows into the river with a view toward improving 
the number of days per year that the navigation system will accommodate 
tows. We request funding in the amount of $1.4 million, to continue the 
study in fiscal year 2001.
    We request the Committee to provide funding for the following 
studies:
  --Illinois River Watershed Reconnaissance Study, $100,000.
  --Grand (Neosho) Basin Reconnaissance Study, $100,000.
  --Grand Lake Feasibility Study, $3 million.
  --Lake Tenkiller Reallocation Study, $500,000.
  --Wister Lake Reallocation Study, $450,000.
  --Oologah Lake Water Quality Study, $515,000.
    We also urge the Committee to provide adequate funding for the 
following Programs:
  --Section 205, Small Flood Control Projects Program, $40 million, 
        program limit.
  --Section 14, Emergency Streambank Stabilization Program, $15 
        million, program limit.
  --Sections 1135 and 206, Ecosystem Restoration Programs and Flood 
        Plain Management Services Program, $25 million each, program 
        limits.
    On a related matter, we have deep concerns about the attempt to re-
authorize the Endangered Species Act without significant beneficial 
reforms. We strongly urge you to take a hard look at any bill 
concerning this re-authorization and insure that it contains reasonable 
and meaningful reforms.
                                 ______
                                 
                               STATEMENT

    Mr. Chairman and members of the committee, I am James M. Hewgley, 
Jr., Oklahoma Chairman of the Arkansas River Basin Interstate 
Committee, from Tulsa, Oklahoma.
    It is my privilege to present this statement on behalf of the 
Oklahoma Members of our committee in support of adequate funding for 
water resource development projects in our area of the Arkansas River 
Basin. Other members of the Committee are: Mr. Ted Coombes, Tulsa; Mr. 
Edwin L. Gage, Muskogee; Mr. Terry McDonald, Tulsa; and Mr. Lew 
Meibergen, Enid.
    Together with representatives of the other Arkansas River Basin 
states, we fully endorse the statement presented to you by the Chairman 
of the Arkansas River Basin Interstate Committee. We appreciated the 
opportunity to present our views of the special needs of our States 
concerning several studies and projects.
    Montgomery Point Lock and Dam--Montgomery Point Arkansas.--As we 
have testified for the past several years, we are once again requesting 
adequate appropriations to continue construction of this most important 
and much needed project. The shippers and users of the McClellan-Kerr 
Arkansas River Navigation System were seriously threatened in February 
of this year with the lowest flows in recorded history, at Memphis, on 
the Mississippi River. This again demonstrates the absolute need for 
completion of this critical project as such an event will drain the 
navigation water from the 10 mile White River Entrance Channel to the 
McClellan-Kerr System.
    We respectfully request the Congress to appropriate $45 million in 
the fiscal year 2001 budget cycle to continue construction on the 
current project schedule. This will help insure the project is 
completed and in operation in a timely manner at the lowest possible 
cost.
    Mr. Chairman, it is my pleasure to point out to this distinguished 
Committee that this navigation system has brought low cost water 
transportation to Oklahoma, Arkansas and the surrounding states. There 
has been over $5 billion invested in the construction and development 
of the McClellan-Kerr Arkansas River Navigation system by the Federal 
Government and the public and private sector, resulting in the creation 
of over 50,000 jobs in this partnered project.
    Tow Haulage Equipment--Oklahoma.--We also request funding of $2.5 
million to initiate the installation of tow haulage equipment on the 
locks located along the Arkansas River Portion of the McClellan-Kerr 
Arkansas River Navigation System. Total cost for these three locks is 
$4.5 million. This project will involve installation of tow haulage 
equipment on W.D. Mayo Lock and Dam #14, Robert S. Kerr Lock and Dam 
#15, and Webbers Falls Lock and Dam #16, on the Oklahoma portion of the 
waterway. The tow haulage equipment is needed to make transportation of 
barges more efficient and economical by allowing less time for tows to 
pass through the various lock and dams.
    We are pleased that the President's budget includes funds to 
advance work for Flood Control and other water resource needs in 
Oklahoma. Of special interest to our committee is funding for the 
Skiatook and Tenkiller Ferry Lakes Dam Safety Assurance Projects in 
Oklahoma and that construction funding has been provided for those 
important projects. We are also pleased that funding is included to 
continue reconnaissance studies and initiate feasibility studies in the 
North Canadian River Basin for Warr Acres, Oklahoma, for the Cimarron 
River basin in Kansas and Oklahoma.
    Arkansas River System Operations Feasibility Study, Arkansas and 
Oklahoma.--We are especially pleased that the budget includes funds to 
continue the Arkansas River Navigation Study, a feasibility study which 
is examining opportunities to optimize the Arkansas River system. The 
system of multipurpose lakes in Arkansas and Oklahoma on the Arkansas 
River and its tributaries supports the McClellan-Kerr Navigation 
System, which was opened for navigation to the Port of Catoosa near 
Tulsa, Oklahoma, in 1970. The navigation system consists of 445 miles 
of waterway that winds through the States of Oklahoma and Arkansas. 
This study would optimize the reservoirs in Oklahoma and Arkansas that 
provide flows into the river with a view toward improving the number of 
days per year that the navigation system would accommodate tows. This 
study could have significant impact on the economic development 
opportunities in the States of Oklahoma, Arkansas, and the surrounding 
states. Due to the critical need for this study, however, we request 
funding of $1.4 million, which is greater than shown in the budget, to 
continue feasibility studies in fiscal year 2001.
    Illinois River Watershed Reconnaissance Study.--We request funding 
in the amount of $100,000 to conduct a reconnaissance study of the 
water resource problems of the Illinois River Basin. The Illinois River 
watershed is experiencing continued water resource development needs 
and is the focus of ongoing Corps and other agency investigations. 
However, additional flows are sought downstream of the Lake Tenkiller 
Dam and there are increasing watershed influences upstream of Lake 
Tenkiller which impact on the quality of water available for fish and 
wildlife, municipal and industrial water supply users, and recreation 
users of the Lake Tenkiller and Illinois River waters.
    Grand (Neosho) Basin Reconnaissance Study.--We request funding in 
the amount of $100,000 to conduct a reconnaissance study of the water 
resource problems in the Grand (Neosho) Basin in Oklahoma and Kansas. 
There is a need for a basin-wide water resource planning effort in the 
Grand-Neosho River basin, apart from the issues associated with Grand 
Lake, Oklahoma. The reconnaissance study would focus on the evaluation 
of institutional measures which could assist communities, landowners, 
and other interests in northeastern Oklahoma and southeastern Kansas in 
the development of non-structural measures to reduce flood damages in 
the basin.
    Grand Lake Feasibility Study.--We also support the effort to 
evaluate water resource problems in the Grand-Neosho River basin in 
Kansas and Oklahoma and request funding to initiate a comprehensive 
Feasibility study to evaluate solutions to upstream flooding problems 
associated with the adequacy of existing real estate easements 
necessary for flood control operations of Grand Lake, Oklahoma. A 
study, authorized by the Water Resources Development Act of 1996 was 
completed in September of 1998 and determined that if the project were 
constructed based on current criteria, additional easements would be 
acquired. A Feasibility study is now required to determine the most 
cost effective solution to the real estate inadequacies. Changes in the 
operations of the project or other upstream changes could have a 
significant impact on flood control, hydropower, and navigation 
operations in the Grand (Neosho) River system and on the Arkansas River 
basin system, as well; we urge you to provide $3 million to fully fund 
Feasibility studies for this important project in fiscal year 2001 and 
to direct the Corps of Engineers to execute the study at full Federal 
expense.
    Lake Tenkiller Reallocation Study.--We request funding of $500,000 
to conduct a reallocation study of the water storage of Tenkiller Ferry 
Lake, Oklahoma. Tenkiller Ferry Lake is located on the Illinois River 
approximately 7 miles northeast of Gore, Oklahoma, and 22 miles 
southeast of Muskogee, Oklahoma. Construction of the existing project 
began in June 1947 and the dam was completed in May 1952. The proposed 
study would involve reallocation of the authorized project purposes 
among competing users of the project's flood control, hydropower and 
water supply resources.
    Wister Lake Reallocation Study.--We request funding of $450,000 to 
conduct a reallocation study of the water storage of Wister Lake, 
Oklahoma. Wister Lake is located on the Poteau River near Wister, 
Oklahoma. The lake was completed in 1949 for flood control, water 
supply, water conservation and sediment control. Wister Lake is the 
primary water resource development project in the Poteau River Basin. 
It provides substantial flood control, municipal and industrial water 
supply, and recreation benefits for residents of LeFlore County, 
Oklahoma, and the southeastern Oklahoma region. Originally constructed 
for flood control and water conservation, seasonal pool manipulation 
was initiated in 1974 to improve the project's water supply and 
recreation resources. The conservation pool level was permanently 
raised in the Water Resources Development Act of 1996. A reallocation 
study, which would include National Environmental Policy Act (NEPA) 
coordination, is required. NEPA and other resource evaluation and 
coordination would include the assessment of cultural and fish and 
wildlife impacts, potential mitigation measures, and reallocation 
studies.
    Oologah Lake Water Quality Study.--We request funding of $515,000 
for ongoing water quality studies at Oologah Lake and in the upstream 
watershed. The lake is an important water supply source for the city of 
Tulsa and protection of the lake and maintaining and enhancing the 
quality of the water is important for the economic development of the 
city. The Corps of Engineers is working closely with the city and with 
the Oklahoma Water Resources Board to insure a unified approach to 
analysis and preservation of the lake water quality. We request the 
study be funded and that the Corps of Engineers be directed to conduct 
the studies at full Federal expense. We also support funding for the 
Continuing Authorities Program, including the Small Flood Control 
Projects Program, (Section 205 of the 1948 Flood Control Act, as 
amended) and the Emergency Streambank Stabilization Program, (Section 
14 of the 1946 Flood Control Act, as Amended). We want to express our 
appreciation for your continued support of those programs.
    Section 205.--Although the Small Flood Control Projects Program 
addresses flood problems which generally impact smaller communities and 
rural areas and would appear to benefit only those communities, the 
impact of those projects on economic development crosses county, 
regional, and sometimes state boundaries. The communities served by the 
program frequently do not have the funds or engineering expertise 
necessary to provide adequate flood damage reduction measures for their 
citizens. Continued flooding can have a devastating impact on community 
development and regional economic stability. The program is extremely 
beneficial and has been recognized nation-wide as a vital part of 
community development, so much so, in fact, that there is currently a 
backlog of requests from communities who have requested assistance 
under this program. There is limited funding available for these 
projects and we urge this program be fully funded to the programmatic 
limit of $40 million.
    Section 14.--Likewise, the Emergency Streambank Stabilization 
Program provides quick response engineering design and construction to 
protect important local utilities, roads, and other public facilities 
in smaller urban and rural settings from damage due to streambank 
erosion. The protection afforded by this program helps insure that 
important roads, bridges, utilities, and other public structures remain 
safe and useful. By providing small, affordable, and relatively quickly 
constructed projects, these two programs enhance the lives of many by 
providing safe and stable living environments. There is also a backlog 
of requests under this program. Funding is also limited for these 
projects and we urge this program be fully funded to the programmatic 
limit of $15 million.
    Sections 1135 and 206.--We also request your continued support of 
and funding for the Ecosystem Restoration Programs (Section 1135 of the 
Water Resources Development Act of 1986 and Section 206 of the Water 
Resources Development Act of 1996). The Ecosystem Restoration Programs 
are relatively new programs which offer the Corps of Engineers a unique 
opportunity to work to restore valuable habitat, wetlands, and other 
important environmental features which previously could not be 
considered. The Section 1135 Program is already providing significant 
benefits to the States of Kansas and Oklahoma. We urge that these 
programs be fully funded to the programmatic limit of $25 million each.
    We also request your continued support of the Flood Plain 
Management Services Program (Section 206 of the 1960 Flood Control Act) 
which authorizes the Corps of Engineers to use its technical expertise 
to provide guidance in flood plain management matters to all private, 
local, state, and Federal entities. The objective of the program is to 
support comprehensive flood plain management planning. The program is 
one of the most beneficial programs available for reducing flood losses 
and provides assistance to officials from cities, counties, states, and 
Indian Tribes to ensure that new facilities are not built in areas 
prone to floods. Assistance includes flood warning, flood proofing, and 
other flood damage reduction measures, and critical flood plain 
information is provided on a cost reimbursable basis to home owners, 
mortgage companies, Realtors and others for use in flood plain 
awareness and flood insurance requirements.
    We also request your support of the Planning Assistance to States 
Program (Section 22 of the 1974 Water Resources Development Act) which 
authorizes the Corps of Engineers to use its technical expertise in 
water and related land resource management to help States and Indian 
Tribes solve their water resource problems. The program is used by many 
states to support their State Water Plans. As natural resources 
diminish, the need to manage those resources becomes more urgent. We 
urge your continued support of this program as it supports States and 
Native American Tribes in developing resource management plans which 
will benefit citizens for years to come. The program is very valuable 
and effective, matching Federal and non-Federal funds to provide cost 
effective engineering expertise and support to assist communities, 
states and tribes in the development of plans for the management, 
optimization, and preservation of basin, watershed, and ecosystem 
resources. The Water Resources Development Act of 1996 increased the 
annual program limit from $6 million to $10 million and we urge this 
program be fully funded to the programmatic limit of $10 million.
    We also request your support and funding for the Challenge 21 
Program. The Challenge 21 Program is in support of the Clean Water 
Action Plan and would provide opportunity for the Corps of Engineers to 
work closely with other Federal, State, and Local land and water 
resource agencies to develop comprehensive solutions to reduce flood 
damages and improve quality of life. The program would focus on 
watershed-based solutions that could also include the restoration of 
riparian and wetland ecosystems. Although the construction of dams and 
levees has prevented billions of dollars in flood damages, many 
communities still experience disastrous flood events. Some of that 
flooding can be attributed to over development in and around the flood 
plain. The Challenge 21 program will focus on opportunities to move 
homes and businesses from harms way through structural and non-
structural measures and through comprehensive watershed planning 
efforts. We support funding of this important initiative.
    On a related matter, we would share with you our concern that the 
Administration has not requested sufficient funds to meet the 
increasing infrastructure needs of the inland waterways of our nation. 
The Administration's request will not keep projects moving at the 
optimum level to complete them on a cost effective basis. Moving the 
completion dates out is an unacceptable exercise since 50 percent of 
the funds come from the Waterways Trust Fund. This will not only waste 
federal funds but, those from the trust fund as well.
    We strongly urge the Appropriations Committee to raise the Corps of 
Engineers budget to $4.9 billion to help get delayed construction 
projects back on schedule and to reduce the deferred maintenance 
backlog which is out of control. This will help the Corps of Engineers 
meet the obligations of the Federal Government to people of this great 
country.
    Concerning another related matter, we have deep concerns about the 
attempt to re-authorize the Endangered Species Act without significant 
beneficial reforms. If a bill is passed through without reforms, it 
will be devastating to industry and the country as a whole. We strongly 
urge you to take a hard look at any bill concerning this re-
authorization and insure that it contains reasonable and meaningful 
reforms.
    Mr. Chairman, we appreciate this opportunity to present our view on 
these subjects.
                                 ______
                                 

           SOUTHWEST U.S. WATER RESOURCE DEVELOPMENT PROJECTS

 Prepared Statement of the Colorado River Basin Salinity Control Forum

    This testimony is in support of funding for the Colorado River 
Basin salinity control program. Congress has designated the Department 
of the Interior, Bureau of Reclamation (Reclamation), to be the lead 
agency for salinity control in the Colorado River Basin. This role and 
the authorized program were refined and confirmed by the Congress when 
Public Law 104-20 was enacted. A total of $17,500,000 is requested for 
fiscal year 2000 to implement the needed and authorized program. 
Failure to appropriate these funds will result in significant economic 
damage in the United States and Mexico and threaten compliance with 
adopted basin-wide water quality standards in the future. The 
President's request of $10.85 million is a reduced funding level and 
the Forum feels this level of funding is inadequate. Studies have shown 
that implementation of the program has fallen behind the needed pace to 
prevent salinity concentrations from exceeding numeric criteria 
adopted. These water quality standards for the River Basin must be 
honored while the Basin states continue to develop their Compact 
apportioned waters of the Colorado River. Concentrations of salts in 
the water above the criteria would cause hundreds of millions of 
dollars in damage in the United States and result in poorer quality 
water being delivered by the United States to Mexico. For every 30 mg/l 
increase in salinity concentrations, there is $100 million in 
additional damages in the United States. The Forum, therefore, believes 
a rate of implementation of the program beyond that requested by the 
President is necessary.
    The program authorized by the Congress in 1995 has proven to be 
very successful and very cost effective. Proposals from the public and 
private sector to implement salinity control strategies have far 
exceeded the available funding. Hence, Reclamation has a backlog of 
proposals and is able to select the best and most cost-effective 
proposals. Funds are available for the Colorado River Basin states' 
cost sharing for the level of federal funding requested by the Forum. 
Water quality improvements accomplished under Title II of the Colorado 
River Basin Salinity Control Act also benefit the quality of water 
delivered to Mexico. Although the United States has always met the 
commitments of the International Boundary & Water Commission's 
(Commission) Minute 242 to Mexico with respect to water quality, the 
United States Section of the Commission is currently addressing 
Mexico's request for better water quality at the Southerly 
International Boundary. Consideration of all of this argues for a 
higher level of funding than requested by the President.

                                OVERVIEW

    The Colorado River Basin Salinity Control Program was authorized by 
Congress in 1974. The Title I portion of the Colorado River Basin 
Salinity Control Act responded to commitments that the United States 
made, through Minute 242, to Mexico concerning the quality of water 
being delivered to Mexico below Imperial Dam. Title II of the Act 
established a program to respond to salinity control needs of Colorado 
River water users in the United States and to comply with the mandates 
of the then newly legislated Clean Water Act. Initially, the Secretary 
of the Interior and the Bureau of Reclamation were given the lead 
federal role by the Congress. This testimony is in support of adequate 
funding for the Title II program.
    After a decade of investigative and implementation efforts, the 
Basin states concluded that the Salinity Control Act needed to be 
amended. Congress revised the Act in 1984. That revision, while keeping 
the Secretary of the Interior as lead coordinator for Colorado River 
Basin salinity control efforts, also gave new salinity control 
responsibilities to the Department of Agriculture, and to a sister 
agency of the Bureau of Reclamation--the Bureau of Land Management. 
Congress has charged the Administration with implementing the most 
cost-effective program practicable (measured in dollars per ton of salt 
removed). The Basin states are strongly supportive of that concept as 
the Basin states consider cost sharing 30 percent of federal 
expenditures up-front for the salinity control program, in addition to 
proceeding to implement their own salinity control efforts in the 
Colorado River Basin.
    The Colorado River Basin Salinity Control Forum (Forum) is composed 
of gubernatorial appointees from Arizona, California, Colorado, Nevada, 
New Mexico, Utah and Wyoming. The Forum has become the seven-state 
coordinating body for interfacing with federal agencies and Congress to 
support the implementation of the program necessary to control the 
salinity of the river system. In close cooperation with the 
Environmental Protection Agency (EPA) and under requirements of the 
Clean Water Act, every three years the Forum prepares a formal report 
analyzing the salinity of the Colorado River, anticipated future 
salinity, and the program necessary to keep the salinities at or below 
the levels measured in the river system in 1972.
    In setting water quality standards for the Colorado River system, 
the salinity levels measured at Imperial, and below Parker, and Hoover 
Dams in 1972 have been identified as the numeric criteria. The plan 
necessary for controlling salinity has been captioned the ``plan of 
implementation.'' The 1999 Review of water quality standards includes 
an updated plan of implementation. The level of appropriation requested 
in this testimony is in keeping with the agreed upon plan. If adequate 
funds are not appropriated, state and federal agencies involved are in 
agreement that the numeric criteria will be exceeded and damage from 
the high salt levels in the water will be widespread in the United 
States as well as Mexico and will be very significant.

                             JUSTIFICATION

    The $17,500,000 requested by the Forum on behalf of the seven 
Colorado River Basin states is the level of funding necessary to 
proceed with Reclamation's portion of the plan of implementation. This 
funding level is appropriate if salinity in the Colorado River is to be 
controlled so as not to exceed the established numeric criteria and 
threaten the associated water quality standards. In July of 1995, 
Congress amended the Colorado River Basin Salinity Control Act. The 
amended Act gives Reclamation new latitude and flexibility in seeking 
the most cost-effective salinity control opportunities, and it provides 
for proposals and more involvement from the private as well as the 
public sector. Early results are indicating that salt loading is being 
prevented at costs often less than half the cost under the previous 
program. The Bureau of Reclamation's recent review of the program and 
the amendments Congress authorized have made the program more effective 
in removing salt from the Colorado River in a most cost-effective 
manner.
    The Senate this last year passed legislation that gives additional 
spending authority to Reclamation for this program. Similar legislation 
is being considered by the House. It has received a favorable hearing 
with support from the Forum and the Administration, and mark-up and 
passage is expected soon.
    The Basin states have agreed to cost sharing on an annual basis, 
which adds 43 cents for every federal dollar appropriated. The Colorado 
River Basin Salinity Control Forum, working with EPA, has agreed upon a 
plan of implementation for salinity control, and that plan justifies 
the level of funding herein supported by the Forum to maintain the 
water quality standards for salinity adopted by the Basin states. The 
federally chartered Colorado River Basin Salinity Control Advisory 
Council, created by the Congress in the Salinity Control Act, has met 
and formally supports the requested level of funding. The Basin states 
urge the Subcommittee to support the funding as set forth in this 
testimony.

                     ADDITIONAL SUPPORT OF FUNDING

    In addition to the dollars identified above for the implementation 
of the newly authorized program, the Salinity Control Forum urges the 
Congress to appropriate necessary funds, as identified in the 
President's budget, to continue to maintain and operate salinity 
control facilities as they are completed and placed into long-term 
operation. Reclamation has completed the Paradox Valley unit which 
involves the collection of brines in the Paradox Valley of Colorado and 
the injection of those brines into a deep aquifer through an injection 
well. The continued operation of the project and other completed 
projects will be funded through Operation and Maintenance funds.
    In addition, the Forum supports necessary funding to allow for 
continued general investigation of the salinity control program. It is 
important that Reclamation have planning staff in place, properly 
funded, so that the progress of the program can be analyzed, 
coordination between various federal and state agencies can be 
accomplished, and future projects and opportunities to control salinity 
can be properly planned to maintain the water quality standards for 
salinity so that the Basin states can continue to develop the Compact 
apportioned waters of the Colorado River.
                                 ______
                                 

   Prepared Statement of the New Mexico Interstate Stream Commission


                                SUMMARY

    This Statement is submitted in support of appropriations for the 
Colorado River Basin salinity control program of the Department of the 
Interior's Bureau of Reclamation. Congress designated the Bureau of 
Reclamation to be the lead agency for salinity control in the Colorado 
River Basin by the Colorado River Basin Salinity Control Act of 1974. 
The Bureau of Reclamation's role was reconfirmed by Public Law 104-20. 
A total of $17.5 million is requested for fiscal year 2001 to implement 
the authorized salinity control program of the Bureau of Reclamation. 
The President's request of $10.85 million is inadequate to protect 
water quality standards for salinity and prevent unnecessary levels of 
economic damage from increased salinity levels in water delivered to 
the Lower Basin States and Mexico.

                               STATEMENT

    The Water quality standards for salinity of the Colorado River must 
be protected while the Basin States continue to develop their compact 
apportioned waters of the river. Studies have shown that the 
implementation of the salinity control program has fallen below the 
threshold necessary to prevent future exceedence of the numeric 
criteria of the water quality standards for salinity in the Lower Basin 
of the Colorado River. The water quality standards for salinity of the 
Colorado River have been adopted by the seven Basin States and approved 
by EPA. While currently the standards have not been exceeded, salinity 
control projects must be brought on-line in a timely and cost-effective 
manner to prevent future effects that would cause the numeric criteria 
to be exceeded.
    The Colorado River Basin Salinity Control Act was authorized by 
Congress and signed into law in 1974. The seven Colorado River Basin 
States, in response to the Clean Water Act of 1972, had formed the 
Colorado River Basin Salinity Control Forum, a body comprised of 
gubernatorial representatives from the seven Basin States. The Forum 
was created to provide for interstate cooperation in response to the 
Clean Water Act, and to provide the states with information necessary 
to comply with Sections 303 (a) and (b) of the Act. The Forum has 
become the primary means for the seven Basin States to coordinate with 
federal agencies and Congress to support the implementation of the 
salinity control program for the Colorado River Basin.
    The Bureau of Reclamation is currently completing studies on the 
economic impacts of the salinity of the Colorado River in the United 
States. Reclamation's study indicates that damages in the United States 
may soon be approaching $1 billion per year. It is essential that 
appropriations for the funding of the salinity control program be 
timely in order to comply with the water quality standards for salinity 
to prevent unnecessary economic damages in the United States and Mexico 
from waters of the Colorado River. The President's request of $10.85 
million for fiscal year 2001 is inadequate to protect the water quality 
standards adopted by each of the seven Basin States and approved by 
EPA, and threatens the quality of water delivered to Mexico that is 
protected under Minute No. 242 of the International Boundary and Water 
Commission, United States and Mexico.
    Congress amended the Colorado River Basin Salinity Control Act in 
July, 1995. The salinity control program authorized by Congress by the 
amendment in 1995 has proven to be very cost-effective, and the Basin 
States are standing ready with up-front cost sharing. Proposals from 
public and private sector entities in response to the Bureau of 
Reclamation's advertisement have far exceeded available funding. Basin 
States cost-sharing funds are available for the $17.5 million 
appropriation request for fiscal year 2001. The Basin States cost-
sharing adds 43 cents for each federal dollar appropriated.
    The Senate passed legislation last year which gives the Bureau of 
Reclamation additional spending authority for the salinity control 
program. Similar legislation is being considered by the House, and has 
been given favorable hearing with strong support from the Forum, the 
Basin States and the Administration. Mark-up and passage is expected in 
the near future. With the additional authority in place and significant 
cost sharing by the Basin States, it is essential that the salinity 
control program be funded at the level requested by the Forum and Basin 
States to protect the water quality of the Colorado River and prevent 
unnecessary economic damages from salinity in the United States and 
Mexico.
    I urge the Congress to appropriate $17.5 million to the Bureau of 
Reclamation for the Colorado River Basin salinity control program. 
Also, I fully support testimony supplied by the Forum's Executive 
Director, Jack Barnett, in request for this appropriation.
                                 ______
                                 

       Prepared Statement of the Western Coaliton of Arid States

    Chairman Domenici and members of the subcommittee: The Western 
Coalition of Arid States (WESTCAS) is pleased to submit comments for 
the record, regarding programs contained in the U.S. Bureau of 
Reclamation's (Reclamation) fiscal year 2001 budget, for the Hearing on 
Energy and Water Appropriations. WESTCAS is an organization of cities, 
towns, water and wastewater districts and associate agencies from the 
States of Arizona, California, Colorado, Idaho, Nevada, New Mexico, 
Oregon, Texas and Utah who are dedicated to environmentally 
conscientious planning of water resources and development of water 
quality standards for the unique ecosystems of the arid West. Of 
particular interest to WESTCAS and its member agencies are the federal 
programs that can further our goals through partnerships and 
scientifically sound regulation and guidance concerning our most 
precious resource--water. WESTCAS would like the Subcommittee to 
consider the following funding recommendations.

             COLORADO RIVER BASIN SALINITY CONTROL PROGRAM

    Since 1974, federal agencies and the seven basin states have been 
working together to maintain the Colorado River's salinity levels 
within a range which does not limit the economic, recreational, and 
environmental uses of the river. The Colorado River is a major source 
of water supply for the urban and agricultural regions of Utah, Nevada, 
Arizona, and Southern California. It is important that Congress 
continue to fund the federal portions of this successful program. With 
continued development of water sources in the Upper Colorado Basin and 
continued shortfalls in salinity control funding, the salinity levels 
will continue to increase in the Lower Colorado River Basin. The 
increased salinity in the Lower Colorado River Basin will have a long-
term detrimental financial impact on agricultural and urban activities 
in the areas dependent on the Lower Colorado River water.
    The Colorado River Basin Salinity Control Forum (Forum), the 
interstate organization responsible for coordinating the Basin states' 
salinity control efforts, issued its 1999 Review, Water Quality 
Standards for Salinity, Colorado River System (1999 Review) in June 
1999. The 1999 Review found that additional salinity control was 
necessary beginning in 1994 to meet the numeric criteria in the water 
quality standards adopted by the seven Colorado River Basin states and 
approved by the U.S. Environmental Protection Agency, with normal water 
supply conditions. For the last five years, federal appropriations for 
Reclamation have not equaled the Forum-identified funding need for the 
portion of the program the Federal Government has the responsibility to 
implement. It is essential that implementation of Reclamation's 
basinwide salinity control program be accelerated to permit the numeric 
criteria to be met again under average annual long-term water supply 
conditions, making up the shortfall. To assist in eliminating the 
shortfall, the Forum once again recommends that Reclamation utilize up 
front cost sharing from the Basin states to supplement federal 
appropriations. This concept has been embraced by Reclamation and is 
reflected in the President's proposed budget.
    The President's proposed fiscal year 2001 budget contains funding 
of $10.85 million for implementation of the basin-wide program. WESTCAS 
requests that Congress appropriate $17.5 million for implementation of 
the basin-wide program, an increase of $6.65 million from that proposed 
by the President. This level of funding is necessary to meet the 
salinity control activities schedule in order to maintain the state 
adopted and federally approved water quality standards.

                WATER RECYCLING AND GROUNDWATER RECOVERY

    Projects funded under Title XVI of the Reclamation Projects 
Authorization and Adjustment Act of 1992 (Public Law 102-575) will 
greatly improve water supply reliability and the environment. Title XVI 
projects authorized by the Reclamation Recycling and Water Conservation 
Act of 1996 (Public Law 104-266), but not included in the President's 
proposed fiscal year 2001 budget for the U.S. Bureau of Reclamation, 
are considered to be equally important. Implementation of such projects 
is difficult without combined federal, state and regional assistance. 
These authorized projects will greatly improve water supply reliability 
and the environment through effective water recycling and recovery of 
contaminated groundwater in the arid west. WESTCAS strongly requests 
that Congress increase the appropriation level for Reclamation's Title 
XVI program from $22 million requested for fiscal year 2001 to $100 
million in order to properly fund all of these authorized projects.

                     SMALL RECLAMATION LOAN PROGRAM

    The Small Reclamation Loan Program provides funds for reclamation, 
in partnership with local districts to finance projects to conserve 
water by upgrading less efficient facilities, improve water quality, 
enhance fish and wildlife, and support Indian self-sufficiency through 
loans to Native American projects.

                      DROUGHT EMERGENCY ASSISTANCE

    WESTCAS has been actively involved in the National Drought Policy 
Commission efforts to recommend a national drought policy for the 
country. As part of the larger effort on drought, the Bureau of 
Reclamation has in place a Drought Emergency Assistance program. We are 
concerned that the Bureau of Reclamation has only requested $500,000 
for fiscal year 2001. WESTCAS would like to see the program funded at 
the $3 million level that Congress provided in fiscal year 2000

                     EFFICIENCY INCENTIVES PROGRAM

    Reclamation is encouraging innovation in water resources management 
to help meet the water conservation objectives of the Reclamation 
Reform Act of 1982. The program provides partnership capability for 
Reclamation and its customers, in cooperation with States and other 
entities, in seeking solutions to water use efficiency and 
conservation. The program supports technical assistance to districts in 
planning, evaluating, and implementing efficiency measures. Activities 
are located within all Federal water projects in the 17 Western States. 
WESTCAS supports the $3.1 million request.

               ENDANGERED SPECIES RECOVERY IMPLEMENTATION

    Reclamation is designated as a cooperative participant in recovery 
measures to minimize the potential effects of Reclamation actions upon 
listed or candidate species and reduce the potential for more stringent 
requirements being imposed upon Reclamation projects as a result of 
formal consultation pursuant to Section 7(a)(2) of the Endangered 
Species Act. Activities are located throughout the region including the 
Upper and Lower Colorado River basins. WESTCAS supports the 
approximately $15 million provided in the fiscal year 2001 Budget for 
work in these two basins.

                 NATIONAL FISH AND WILDLIFE FOUNDATION

    This program operates under a delegated grant of authority for fish 
and wildlife assistance programs from the Secretary to the Commissioner 
of the Bureau of Reclamation. Reclamation's funds are used for fish and 
wildlife restoration projects in partnership with local, state, tribal, 
and/or non-governmental organizations. Funding for the Foundation, and 
the Foundation's support for programs like the Lower Colorado River 
Multi-Species Conservation Program, are extremely important to the 
development of comprehensive solutions to the complex endangered 
species issues. WESTCAS supports the $4.3 million in fiscal year 2001 
Budget for the Foundation.

               DESALINATION RESEARCH DEVELOPMENT PROGRAM

    This program addressees problems and technology needs for water 
supply augmentation, water quality improvement and protection. Studies 
are directed at reducing costs and minimizing environmental impacts 
from salt removal, developing commercially attractive technologies, 
improving surface and groundwater quality, and facilitating cost-
effective conversion of previously unusable water resources to usable 
water supplies. WESTCAS supports the $600,000 in the fiscal year 2001 
and would suggest that the Bureau of Reclamation work with 
organizations like WESTCAS on the research agenda.

                 WATER MANAGEMENT CONSERVATION PROGRAM

    This program provides for a water quality monitoring program in 
cooperation with state and local entities. Funding requests provide for 
the coordination of water management and conservation efforts with the 
water users and other non-Federal entities. It also provides for water 
conservation centers and training, improvements in water measurement 
and accounting. We support the $7.6 million request for this program.

                      WETLANDS DEVELOPMENT PROGRAM

    The Wetlands Development Program allows for the development of 
design criteria, strategies, and implementation of wetland enhancement 
projects which provide for water quality, wildlife habitat, and 
aesthetic purposes. Projects are located throughout the 17 Western 
States and include demonstration projects using reclaimed wastewater 
from existing treatment facilities in Arizona and wetlands and wildlife 
habitat in Nevada. WESTCAS supports the overall $5 million request for 
this program for fiscal year 2001.
    Thank you for your consideration of our testimony. We believe our 
comments emphasize the importance of continued funding for Reclamation 
water resources management and ecosystem restoration programs that are 
critical for water supply reliability in the arid West.
                                 ______
                                 

               Prepared Statement of the State of Wyoming

    This testimony is submitted in support of a fiscal year 2001 
appropriation of $17,500,000 for the Bureau of Reclamation's Colorado 
River Salinity Control Program. Testimony was recently submitted to 
this Subcommittee by the Colorado River Basin Salinity Control Forum 
(Forum), a seven-state organization created by the Governors of the 
Colorado River Basin States, by the Forum's Executive Director, Jack 
Barnett. The State of Wyoming, a member state of the Forum, concurs in 
the Forum's testimony. While the President's recommended budget line-
item for the basin-wide Colorado River Basin Salinity Control Program 
is $10,850,000, the State of Wyoming and the Forum urge the Congress to 
increase the appropriation for this Program to $17,500,000. While we 
appreciate the Administration's support of this Program, it is clear 
that implementation of the Program has fallen behind the needed pace to 
prevent salinity concentration levels from exceeding specified numeric 
criteria in the water quality standards for the Colorado River. In 
addition to considerations of complying with this basin-wide water 
quality standard, the United States has committed to the Republic of 
Mexico, pursuant to Minute 242 of the 1944 ``Treaty Between the United 
States and Mexico, Relating to Waters of the Colorado and Tijuana River 
and of the Rio Grande,'' to managing the salinity concentrations of 
water deliveries to Mexico.
    The State of Wyoming is one of the seven member states represented 
on the Forum and the Colorado River Basin Salinity Control Advisory 
Council (Council). The Council was created by Section 204 of the 1974 
Colorado River Basin Salinity Control Act (Public Law 93-320). Like the 
Forum, the Council is composed of gubernatorial representatives of the 
seven Colorado River Basin states. Both the Council and Forum serve 
important liaison roles among the seven states, the Secretaries of the 
Interior and Agriculture and the Administrator of the Environmental 
Protection Agency (EPA). The Council is directed by statute to advise 
these federal officials on the progress of the federal/state cost-
shared, basin-wide salinity control programs, and annually recommends 
to the Federal agencies what level of funding it believes is required 
to meet the objective of assuring continuing compliance with the basin-
wide water quality standards for salinity concentrations in the 
Colorado River.
    The Council met in October 1999 and developed funding 
recommendations for fiscal years 2001 and 2002 based on the progress 
the Bureau of Reclamation, the U.S. Department of Agriculture, the 
Bureau of Land Management and the seven states are making in 
implementing their programs for managing and reducing the salt loading 
into the Colorado River System. The Council's funding recommendations 
further heeded analyses made by the Bureau of Reclamation and the 
Forum. Each three years the Forum updates the plan of implementation 
for maintaining the Colorado River water quality standards for salinity 
in accordance with Section 303 of the Clean Water Act. The 1999 
triennial review of the standards identified the need for the Bureau of 
Reclamation to expend $17,500,000 per year in order to carry out its 
portion of the plan of implementation. The plan is devised to assure 
that the salinity concentrations of Colorado River water do not exceed 
the numeric criteria set forth in the standards. Based on its own 
review of the facts, the Council recommended that a minimum of 
$17,500,000 needs to be expended by the Bureau of Reclamation during 
fiscal year 2000 to accomplish needed salinity control activities.
    This funding level is appropriate if the salinity of Colorado River 
waters is to be controlled so as not to exceed the numeric salinity 
concentration criteria contained within the water quality standards for 
the Colorado River. Without the necessary levels of funding, there is 
an increased probability that the numeric criteria will be exceeded 
resulting in violations of the basin-wide water quality standards. 
Further, there is an increased probability that the numeric criteria 
will be exceeded resulting in violations of the basin-wide water 
quality standards. Failure to maintain the standards' numeric criteria 
could result in the imposition of state-line water quality standards 
(as opposed to the successful basin-wide approach that has been in 
place since 1975) and impair Wyoming's ability to develop our Compact-
apportioned water supplies. Failure to maintain the standards' numeric 
criteria could result in the imposition of state-line water quality 
standards (as opposed to the successful basin-wide approach that has 
been in place since 1975) and impair the Colorado River Basin States' 
ability to develop their Compact-apportioned water supplies. Delaying 
or deferring adequate funding will create the need for a much more 
expensive salinity control effort in the future to assure that the 
Colorado River Basin states are able to comply with the water quality 
standards. ``Catch-up'' funding in the future will require the 
expenditure of greater sums of money, increase the likelihood that the 
numeric criteria for Colorado River water quality are exceeded, and 
create undue burdens and difficulties for one of the most successful 
Federal/State cooperative non-point source pollution control programs 
in the United States.
    In July, 1995, Congress amended the Colorado River Basin Salinity 
Control Act. The amended Act provided Reclamation with additional 
authorities that have improved upon the cost-effectiveness of 
Reclamation's salinity control program, in large part because it 
provided for proposals and greater involvement from the private sector. 
Submitted proposals have far exceeded the available funding, while at 
the same time overall progress in accomplishing the rate of salinity 
control determined to be needed and as set forth in the Plan of 
Implementation continues to fall behind the scheduled rate.
    We urge this Subcommittee to increase the funding level for the 
Colorado River Basin Salinity Control Program line-item in 
Reclamation's budget, beyond the funds requested by the President's 
budget, to $17,500,000. In addition to the funding needs identified for 
the basin-wide Colorado River Basin Salinity Control Program, the State 
of Wyoming supports the appropriation of Operation and Maintenance 
funds for completed Reclamation salinity control projects, including 
the Paradox Valley Unit. The State of Wyoming understands that a 
portion of the General Investigation Funds included in the President's 
budget are intended for salinity control activities. Wyoming supports 
the appropriation of funds to accomplish these necessary planning and 
investigation activities.
    Thank you for the opportunity to submit this testimony. I request, 
in addition to your consideration of its contents, that you make it a 
part of the formal hearing record concerning fiscal year 2001 
appropriations for the Bureau of Reclamation.
                                 ______
                                 

               Prepared Statement of the State of Arizona

    On behalf of the people of Arizona, I would like to thank you for 
the opportunity to enter testimony into the record concerning our 
support of continued appropriations for the Central Arizona Project 
(CAP). I also would like to thank the Committee, the Senate and the 
Congress for its continuing support for the CAP, which is an essential 
lifeline in the arid Southwest.
    As you know, the CAP was authorized by the 90th Congress of the 
United States under the Colorado River Basin Project Act of 1968. The 
CAP is a multi-purpose water resource development project consisting of 
a series of concrete-lined canals, tunnels, dams and pumping plants 
which lift water nearly 3,000 feet over a distance of 336 miles from 
Lake Havasu on the Colorado River to the Tucson area.
    The project was designed to deliver the remainder of Arizona's 
entitlement of Colorado River water into the central and southern 
portions of the state for municipal and industrial, agricultural and 
Indian uses, where about 80 percent of our state's population resides.
    Because of a growing population and some innovative storage and 
recharge programs, Arizona is close to taking its full CAP allocation 
of 1.5 million acre-feet (maf) of Colorado River water. This year, we 
project more than 1.4 maf will be delivered through the CAP.
    Repayment of the costs of the CAP to the Bureau of Reclamation 
(Reclamation) has been a contentious issue for most of the past decade. 
Happily, it appears the CAP governing board, the Central Arizona Water 
Conservation District (CAWCD) and Reclamation have reached an agreement 
on repayment.
    The CAWCD board voted in March to approve the negotiated agreement. 
This settlement is vastly preferable to the continuation of litigation 
in U.S. District Court. But we must add a note of caution. Conclusion 
of the agreement between CAWCD and Reclamation still is contingent upon 
a number of events.
    Chief among these is agreement on allocation of a large block of 
CAP water, a step that requires us to proceed carefully. Also, Arizona 
and the Federal Government must reach an understanding that water from 
the CAP will forever be available to both parties under prescribed 
terms and conditions.
    In addition, we need to agree that Arizona will determine how best 
to use its CAP water, free from unwarranted oversight from the 
Department of Interior. And it is vital that all parties agree that 
water from the CAP will remain within the boundaries of the state, to 
supply the needs of the people of Arizona.
    As Governor of Arizona, I am pleased to be able to support the 
Reclamation budget request for fiscal year 2001 of $33,667,000.

                      INDIAN DISTRIBUTION SYSTEMS

    It is most appropriate that more than $25.8 million is earmarked 
for construction of distribution systems on Indian lands. Through the 
Arizona Department of Water Resources and the invaluable assistance of 
U.S. Sen. Jon Kyl, R-AZ, we are substantially closer to reaching 
negotiated settlements on the major Indian water rights claims in 
Arizona than we have been at any other time.
    Indeed, we anticipate that our message to the Committee next year 
will reflect the reality that significant Indian water rights claims 
have been settled and that remaining claims will be settled in the near 
future. It has been a long and sometimes difficult journey, but we 
believe we now can see the end of the road.
    We are indeed encouraged that Reclamation saw fit to increase its 
budget request for Indian distribution systems by 131 percent over the 
fiscal year 2000 request, from $11.1 million to $25.8 million.

                            FISH & WILDLIFE

    In the Reclamation budget request, $1.06 million is targeted to 
implement activities in the Gila River Basin and on the Santa Cruz 
River stemming from a 1994 opinion by the U.S. Fish and Wildlife 
Service. I add my support to the position of CAWCD, which historically 
has objected to Reclamation expenditures on these activities. 
Litigation on this issue still is pending, and the sensible course 
would be to await its outcome before proceeding in this area.

                      TUCSON RELIABILITY DIVISION

    We are pleased to support continuation of funding for the Tucson 
Reliability Division. The Tucson area's CAP picture, clouded in the 
past, is much clearer in the wake of an election that ratified the 
course of action local leaders are pursuing with regard to Tucson's CAP 
allocation. The amount requested, $46,000, will assist in providing the 
Tucson area with more stability and certainty about its water supplies.

             WEST SALT RIVER VALLEY WATER MANAGEMENT STUDY

    As I did last year, I would like to take this opportunity to 
advocate an increased level of funding for water planning in the 
rapidly growing West Valley portion of the Phoenix metropolitan area. 
While Reclamation has requested $200,000, I agree with CAWCD that an 
increase in this appropriation to $400,000 is justified.

                               RIO SALADO

    We also support increased appropriations for the Tempe/Phoenix Rio 
Salado Environmental Restoration Program from $1.5 million to $20 
million. This partnership with the U.S. Army Corps of Engineers will 
restore lost riparian wetlands along the Salt River through the center 
of the Phoenix metropolitan area. Rio Salado was authorized for $86 
million in WRDA 99. Fiscal year 2001 appropriations of $20 million will 
keep the project on schedule for completion in 2003.
    I look forward to favorable subcommittee action on the Reclamation 
budget request. We would be happy to offer any additional information 
that you require.
                                 ______
                                 

 Prepared Statement of the Central Arizona Water Conservation District

    Mr. Chairman: The Central Arizona Water Conservation District 
(CAWCD) is pleased to offer the following testimony regarding the 
fiscal year 2001 Energy and Water Development Appropriations Bill.
    The Central Arizona Project or ``CAP'' was authorized by the 90th 
Congress of the United States under the Colorado River Basin Project 
Act of 1968. We thank the Committee for its continuing support of the 
CAP. The CAP is a multi-purpose water resource development project 
consisting of a series of canals, tunnels, dams, and pumping plants 
which lift water nearly 3,000 feet over a distance of 336 miles from 
Lake Havasu on the Colorado River to the Tucson area. The project was 
designed to deliver the remainder of Arizona's entitlement of Colorado 
River water into the central and southern portions of the state for 
municipal and industrial, agricultural, and Indian uses. The Bureau of 
Reclamation (Reclamation) initiated project construction in 1973, and 
the first water was delivered into the Phoenix metropolitan area in 
1985. The CAP delivered about 1.3 million acre-feet of water to project 
water users in 1999 and anticipates delivering 1.4 million acre-feet in 
2000.
    CAWCD was created in 1971 for the specific purpose of contracting 
with the United States to repay the reimbursable construction costs of 
the CAP that are properly allocable to CAWCD, primarily water supply 
and power costs. In 1983, CAWCD was also given authority to operate and 
maintain completed project features. Its service area is comprised of 
Maricopa, Pima, and Pinal counties. CAWCD is a tax-levying public 
improvement district, a political subdivision, and a municipal 
corporation, and represents roughly 80 percent of the water users and 
taxpayers of the State of Arizona. CAWCD is governed by a 15 member 
Board of Directors elected from the three counties it serves. CAWCD's 
Board members are public officers who serve without pay.
    Project repayment is provided for through a 1988 Master Repayment 
Contract between CAWCD and the United States. Reclamation declared the 
CAP water supply system (Stage 1) substantially complete in 1993, and 
declared the regulatory storage stage, or Plan 6 (Stage 2), complete in 
1996. No other stages are currently under construction. Project 
repayment began in 1994 for Stage 1 and in 1997 for Stage 2. To date, 
CAWCD has repaid $548 million of CAP construction costs to the United 
States.
    Recently, CAWCD and Reclamation successfully negotiated a 
settlement of the dispute regarding the amount of CAWCD's repayment 
obligation for CAP construction costs. This dispute has been the 
subject of ongoing litigation in United States District Court in 
Arizona since 1995. The CAWCD Board of Directors formally approved a 
settlement stipulation on March 2, 2000. Approval by the United States 
is currently pending while the settlement stipulation is being reviewed 
by several Federal agencies including the Department of the Interior, 
Department of Justice, and the Office of Management and Budget.
    In its fiscal year 2001 budget request, Reclamation seeks 
$33,667,000 for the CAP. Of this amount, $25,829,000 is requested for 
the construction of Indian distribution systems. The balance, 
$7,838,000, is sought for other CAP activities, most of which would be 
at least partially reimbursable. Under the settlement stipulation, 
these costs would not affect CAWCD's repayment obligation.
    Reclamation's Project Repayment Appendix to the fiscal year 2001 
budget justification documents indicates that a ``residual'' amount of 
$357,437,702 is currently not covered under the repayment contract as 
ruled by the court in Phase One of the CAP repayment litigation and may 
not be repaid to the Federal Treasury. It further indicates that the 
remaining repayment obligation could be resolved in litigation, through 
settlement of the litigation, or through voluntary contract ceiling 
negotiation. Historically, CAWCD has challenged the adequacy of 
Reclamation's cost allocation procedure from which this residual amount 
was derived. CAWCD has also questioned Reclamation's authority to spend 
CAP appropriations in the absence of an amendatory contract to cover 
repayment of the reimbursable portion. CAWCD's testimony regarding 
Reclamation's fiscal year 2001 budget request for CAP assumes that 
final approval of the settlement stipulation by the United States is 
forthcoming and that the United States District Court approves the 
settlement.
    Of the total $33,667,000 requested, $1,060,000 is earmarked to fund 
activities associated with implementation of a 1994 biological opinion 
of the U.S. Fish and Wildlife Service (FWS) pertaining to delivery of 
CAP water to the Gila River Basin, and $580,000 is for native fish 
activities on the Santa Cruz River. These funds are requested for 
construction of fish barriers ($1,080,000) and payments to FWS for non-
native fish eradication and native fish conservation ($560,000). In 
addition, Reclamation is seeking $70,000 to cover its non-contract 
costs. Historically, CAWCD has objected to Reclamation's continued 
spending in these areas. Both environmentalists and CAWCD have 
challenged the 1984 biological opinion in court, and that litigation is 
still pending. Although the settlement stipulation addresses many of 
CAWCD's financial concerns about the biological opinion, CAWCD still 
believes that the FWS opinion is unfounded and improper.
    CAWCD continues to support appropriations necessary to ensure 
timely completion of all CAP Indian distribution systems. We are 
encouraged to note that Reclamation's fiscal year 2001 budget request 
of $25,829,000 for CAP Indian distribution systems is $14,676,000 
higher than the fiscal year 2000 budget request for this item.
    CAWCD also supports the continuation of funding for the Tucson 
Reliability Division. The requested $46,000 will allow planning work to 
continue and will assist Tucson in developing and implementing a plan 
to ensure adequate reliability for its CAP water allocation.
    Finally, CAWCD again supports increased funding for Reclamation's 
West Salt River Valley Water Management Study. Reclamation's South/
Central Arizona Investigations Program includes a $200,000 line item to 
support a continuing planning effort to study the integration and 
management of water resources in the West Salt River Valley, including 
the use of CAP water. CAWCD supports increasing this line item to 
$400,000 for fiscal year 2001.
    CAWCD welcomes this opportunity to share its views with the 
Committee, and would be pleased to respond to any questions or 
observations occasioned by this written testimony.
                                 ______
                                 

          Prepared Statement of the Port of Houston Authority

    On behalf of the Port of Houston Authority (PHA) and the nearly 
205,000 Americans whose jobs depend upon activity at the Port of 
Houston, we extend gratitude to Chairman Domenici, and members of the 
subcommittee for the opportunity to submit testimony in support of 
several important navigation projects included in the U.S. Army Corps 
of Engineers Civil Works budget for fiscal year 2001.
    For many years, the Port of Houston Authority has provided 
testimony to this subcommittee expressing appreciation for providing 
the funds necessary for the Houston Ship Channel (HSC) to remain fully 
functional by maintaining proper dredge depths and dewatering of dredge 
disposal sites. Most important, we are grateful for this subcommittee's 
support through the funding request for the required studies prior to 
the authorization of the improvement project to deepen and widen the 
Houston Ship Channel. We are deeply grateful for this support and are 
particularly excited about the partnership of this subcommittee, the 
Army Corps of Engineers and the Port Authority in marching forward with 
an insightful view of the future of one of our Nation's busiest port in 
foreign commerce.
    We express full support of the fiscal year 2001 Corps of Engineers' 
budget request in the following amounts:

Houston Ship Channel (O&M)..............................     $11,066,000
Houston-Galveston Navigation Channels (Construction)....      53,500,000

    Each of these funding requests is important to ensure the 
continuous flow of commerce through this very busy waterway.

         THE PORT OF HOUSTON--ONE OF THE NATION'S BUSIEST PORTS

    Port of Houston commerce generates more than $7.7 billion annually 
to the Nation's economy. An estimated 75,487 people work in jobs that 
directly relate to the Port of Houston activity and another 129,033 
jobs are indirectly related to the port's activity. Moreover, the port 
generates nearly $482 million in customs receipts and more than $525 
million annually in state and local taxes.
    It is no exaggeration to say that the Houston Ship Channel is one 
of the most important economic lifelines between our Nation and the 
world. Houston's favorable geographic location provides easy access to 
the entire world business community through key ocean, land, and air 
routes. More than 100 shipping lines connect Houston with more than 700 
world ports and 200 countries. Three major railroads provide cargo 
distribution throughout the United States with the intermodal link of 
more than 160 trucking lines. The Port of Houston forms the core of the 
Houston international community which includes more than 350 U.S. 
companies with global operations and Houston offices for more than 45 
of the world's largest non-U.S. companies. In addition, Houston is the 
home of one of the largest consular corps in the Nation, with more than 
72 foreign governments represented. These factors have made the Port of 
Houston a preferred gathering and distribution point for shippers 
transporting goods to and from the Midwestern and Western United 
States.

               THE PORT OF HOUSTON--PROTECTING OUR NATION

    During the Desert Shield/Desert Storm operation, the U.S. 
Government deployed 106 vessels carrying 458,342 tons of government 
cargo and military supplies from Fentress Bracewell Barbours Cut 
Terminal at the Port of Houston. In fact, between August of 1990 and 
October 1991 the Port of Houston was the second busiest port in the 
Nation in support of our troops. We are proud that the strategic 
location of the Port of Houston allows us to play such an important 
role in the defense of our National and the world.

        MODERNIZATION & THE ENVIRONMENT--SUCCESSFUL PARTNERSHIP

    The Houston Ship Channel, which opened in 1914, is believed to be 
the result of the first-ever federal/local cost-sharing agreement. At 
that time, the channel was 18\1/2\ feet deep. It was subsequently 
deepened to its current depth of 40 feet with a width of 400 feet. This 
last improvement was completed in 1966. While Houston is one of our 
Nation's busiest ports, it is also one of the narrowest deep draft 
channels. As you can imagine, ships and shipping patterns have 
dramatically changed to meet the demands of world trade over the last 
30 years. Yet, this busy waterway has not been widened or deepened to 
accommodate these changes. As the local sponsor for the Houston Ship 
Channel, the Port Authority began its quest to improve the channel in 
1967. For reasons of safety, environment, and economics, the Houston 
Ship Channel is long overdue to be improved. The Port of Houston, and 
its partner in maintaining this federal waterway--the Corps of 
Engineers--are leading the way to a unique approach to addressing the 
environmental interests in the improvement of the Houston Ship Channel. 
In the late 1980s, the Port Authority and the Corps of Engineers joined 
with federal and state agencies to form and Interagency Coordination 
Team (ICT) in a cooperative effort to address environmental concerns 
with the project--a process advocated by environmental groups and 
various resource agencies. The ICT included: the U.S. Army Corps of 
Engineers (USACE), the U.S. Fish and Wildlife Service (USFWS), the U.S. 
Natural Resources Conservation Service (USNRC), the U.S. Environmental 
Protection Agency (EPA), the Texas General Land Office (GLO), Texas 
Parks and Wildlife (TPWD), the Texas Natural Resources Conservation 
Committee (TNRCC), the Texas Water Development Board (TWDB), the 
Galveston Bay National Estuary Program (GBNEP), National Marine 
Fisheries Service (NMFS), the Port of Galveston, and the Port of 
Houston Authority. Several committees were established by the ICT. One 
of the most important committees established was the Beneficial Uses 
Group (BUG). They charged the BUG, chaired by the Port, with developing 
a disposal plan to utilize dredged material in an environmentally sound 
and economically acceptable manner that also incorporated other public 
benefits into its design. Most important was the Port Authority's 
committed objective that the final plan would have a net positive 
environmental effect over the life of the project.
    We are pleased to report that the ICT unanimously approved the 
beneficial use plan for disposal of dredged material from the HSC 
project as one that will have a net positive environmental effect on 
Galveston Bay, while significantly increasing the net economic benefits 
to the region and our Nation. Three basic principles guided the BUG in 
their efforts: dredged material should be considered a potentially 
valuable resource; development of an environmentally acceptable 
disposal plan is intrinsic to the approval of the project; and, the 
adopted disposal plan must have long term environmental benefits for 
the Galveston Bay system. The approach utilized by the BUG for 
Galveston Bay made this effort unique and precedent setting. What they 
attempted had never been done before. The BUG developed a preferred 
disposal plan rather than reviewing a proposal in a regulatory setting. 
The BUG also addressed one of the largest navigation projects in recent 
years (approximately 62 Million Cubic Yards (MCY) of new work material 
and an estimated 200 MCY of maintenance material over the next 50 
years. Most important, the BUG actively solicited beneficial use 
suggestions from environmental interests and bay user groups whose 
collective ideas were given full consideration during the development 
of the recommendation plan. In fact, the community identified more 
beneficial uses than the material available from the project plus 50 
years of maintenance dredging. The result was the identification of 
beneficial uses for the material to be dredged from the improvement 
project. The final plan includes the creation of 4,250 acres of marsh--
a bird island, boater destination, restorations of two islands lost 
over the years due to erosion and subsidence. In addition, an 
underwater berm will be constructed to provide storm--surge protection 
and habitat.

               PORT OF HOUSTON--LOOKING TOWARD THE FUTURE

    The voters of Harris County in 1989 committed significant local 
funding to support these improvements. By a 2 to 1 vote, citizens 
approved a measure that will provide the local funding ($130,000,000) 
to deepen the channel to 45 feet and widen it to 530 feet. The Corps of 
Engineers and resource agencies involved in the ICT and BUG process 
have worked diligently to address all concerns and to develop a truly 
unique approach. The Port Authority heartily commends the cooperation 
and hard work of the Corps of Engineers and the state and federal 
agencies who have participated in the process that has this project 
being applauded across maritime and environmental communities. This 
project is the first in history to have netted no negative comments, 
during the public review phase of the Supplemental Impact Statement 
(SEIS).

         HOUSTON--GALVESTON NAVIGATION CHANNELS (CONSTRUCTION)

    From fiscal year 1990 through fiscal year 1997, Congress has 
appropriated nearly $150,000,000 toward the project to deepen and widen 
the Houston Ship Channel. The Port Authority has contributed thus far 
over $54,835,776 to support this effort.
    The fiscal year 1998 Administration request of $15 million was 
compatible with a seven to ten year construction schedule. It did not, 
however, accommodate the most economical and realistic schedule. Based 
on our cooperative and productive discussions with the Corps of 
Engineers, we are convinced that the optimal time line for completing 
the navigation portion of this project is four years. A four year 
schedule will accelerate the benefits of the project and reduce its 
costs. Each year in reduction construction time adds more than $81 
million in benefits, reduces escalation costs by $4.562 million and 
drives down investment costs by more than $17 million. This 
subcommittee agreed that this fiscally sound reasoning was good public 
policy and accordingly provided $20 million to begin the construction 
on the optimum schedule.
    In fiscal year 1999, the Administration slashed the Corps of 
Engineer's construction budget from the $1.4 billion level in fiscal 
year 1998 to $784 million in fiscal year 1999, representing a $700 
million cut. This egregious cut in the funds available to the Corps 
resulted in a dramatic reduction in the Corps' original request to OMB 
of $60 million for construction in fiscal year 1999 on the Houston Ship 
Channel improvement project. The Administration's budget of $5.2 
million would have crippled the Corps' ability to maintain the optimal 
four-year construction schedule which Congress effectively set in 
fiscal year 1998. This subcommittee agreed that the project should be 
completed at the optimum schedule and accordingly appropriated the 
$49,000,000 the Corps needed to remain on the schedule. In fiscal year 
2000, the Administration and this subcommittee were in agreement on the 
$60,000,000 request from the Corps and the full $60,000,000 remained in 
conference.
    This project is critical to the future of our Nation's busiest port 
in foreign tonnage. In a recent study conducted by the Texas 
Transportation Institute, the Port of Houston was evaluated as a 
prototypical next generation megaport. The port identified channel and 
berth depths as a major impediment to accommodating ships of the 
future. Further, in this era of environmental sensitivity, the Houston 
Ship Channel improvement project is a beacon of light. The improvements 
to the environment that will be reaped from this project cannot be 
ignored. The Port of Houston Authority's Demonstration Marsh, utilizing 
dredged material for beneficial uses, has been included in the Audubon 
Society's Christmas Bird Count. Over 155 species of birds have been 
identified on this marsh built entirely with material dredged from the 
Houston Ship Channel.
    The Port Authority has a responsibility to the citizens of Harris 
County to operate the port in a cost-effective and efficient manner. We 
would not be fiscally responsible if we did not strive to realize the 
benefits of the project as soon as humanly feasible and at a most-
efficient cost to the partners involved. We urge the members of this 
subcommittee to reject the recommended cuts in the Corps of Engineers' 
construction budget. In doing so and in reaffirming the subcommittee's 
commitment to our Nation's port system, we urge the subcommittee to 
include the $53,500,000 necessary to keep the Houston Ship Channel 
project on its current optimal, cost-effective schedule. We look 
forward to your leadership on this vitally important matter.

             HOUSTON SHIP CHANNEL--OPERATIONS & MAINTENANCE

    The Corps fiscal year 2001 request for operations and maintenance 
funding includes $11,066,000 for maintenance dredging of key stretches 
of the channel, mosquito spraying and protection of various disposal 
areas, and the maintenance of mooring buoys. These include dredging of 
the Fentress Bracewell Barbours Cut Container Terminal, the busiest 
container terminal in the Gulf; dredging of the entrance channel and 
flare of Bayport; dredging of Cedar Bayou; and, dredging of stretches 
of the main channel. The Port of Houston Authority, the users, and 
Houston Pilots recognize the need for the continued maintenance of the 
channel, as a critical safety component.

                               CONCLUSION

    We greatly appreciate your past support and urge you to include the 
funds requested to fully support these projects in this busy federal 
waterway. These maintenance projects, and particularly the funds 
necessary to construct the HSC improvement project at an optimal 
schedule are vital, not only to the Port of Houston's continued ability 
to move the Nation's commerce in a safe, efficient, and economical 
manner, but also, to ensure the competitiveness of the waterway in the 
world marketplace--an absolute necessity in this global economy.
                                 ______
                                 

               PACIFIC NORTHWEST WATER RESOURCE PROJECTS

   Prepared Statement of the Pacific Northwest Waterways Association

    Mr. Chairman and members of the Subcommittee: My name is Glenn 
Vanselow. I am Executive Director of the Pacific Northwest Waterways 
Association. We appreciate the opportunity to present our views on 
appropriations issues to the Committee. The PNWA membership includes 
nearly 120 organizations and individuals in Washington, Oregon and 
Idaho. PNWA represents public port authorities on the Pacific Coast, 
Puget Sound, and Columbia/Snake River System; public utility districts, 
investor-owned utilities, electric cooperatives and direct service 
industries; irrigation districts, grain growers and upriver and export 
elevator companies; major manufacturers in the Pacific Northwest; 
forest products industry manufacturers and shippers; and tug and barge 
operators, steamship operators, consulting engineers, and others 
involved in economic development throughout the Pacific Northwest.
    PNWA has a long history of working with the Committee and the U.S. 
Army Corps of Engineers (Corps) on projects of regional and national 
importance, sharing the challenge to maintain and develop our 
transportation infrastructure. Our members wish to thank the Committee 
for its support of Pacific Northwest transportation, hydropower and 
salmon enhancement programs and projects.

                         APPROPRIATIONS REQUEST

    Fiscal year 2001 Civil Works Budget. The maintenance of channels 
and harbors serving all currently authorized Pacific Northwest deep 
draft and coastal ports is a top priority for PNWA. We believe that a 
level of funding closer to $4.960 billion is needed to maintain the 
integrity of the civil works program. We urge Congress to provide 
sufficient funding to meet national needs for both operations and 
maintenance (O & M) and new construction. The Administration's fiscal 
year 2001 budget request for navigation O & M and construction in 
Idaho, Oregon and Washington appears to be adequate. However, we 
believe that $4 million is needed to begin construction of the Columbia 
River Channel Deepening Project. This would fund federal share of (1) 
ecosystem restoration at Shillapoo Lake, Washington and elsewhere on 
Columbia River, and (2) engineering work during the construction phase.
    Regional Navigation Operations and Maintenance.--We would like to 
thank the Committee for its previous support of navigation O & M 
(operations and maintenance) in the region's shallow, deep draft and 
inland navigation system.
    Navigation is the least cost, most fuel efficient and least 
polluting mode of transportation. Navigation is the critical link that 
keeps the Northwest and the nation competitive in domestic and 
international trade and supports the commercial and recreational 
fishing industry. It provides significant numbers of jobs and other 
economic benefits both within the region and nationally. We support 
maintaining a strong federal role in planning, construction, operation, 
maintenance and funding of navigation on the inland waterways, deep 
draft ports and shallow draft ports. We ask the Committee for full 
funding for ongoing operations and maintenance (O & M) of the federally 
authorized navigation channels in the Columbia/Snake river system, the 
Oregon and Washington coastal ports and Puget Sound. Maximizing O & M 
is a cost-efficient means of fully utilizing the Federal Government's 
investment in channel operations.
    Some 20 percent of the employment in the Northwest states is 
directly related to international trade. Navigation projects are among 
the few federal programs that are analyzed to ensure that economic 
benefits exceed the costs. Eliminating these programs would not be 
cost-effective.
    Lower Columbia River Ecosystem Restoration.--PNWA encourages the 
Committee to appropriate $100,000 to beting a study that would focus on 
ecosystem restoration opportunities within the Lower Columbia River. A 
comprehensive ecosystem restoration study could serve as a catalyst to 
bring together and implement current efforts by a number of 
governmental and private organizations including the National Estuary 
Program, six state agencies from Oregon and Washington, four Federal 
agencies, recreation, ports, industry, agriculture, labor and 
commercial fishing, environmental interests and citizens.
    Minimum Dredge Fleet.--We encourage the Committee to maintain the 
currently active hopper dredges operated by the U.S. Army Corps of 
Engineers and to reject any additional future set-aside for private 
dredges. We oppose placing the Corps hopper dredges in reserve, or 
placing artificial limits on the federal hopper dredges by directing 
increasing amounts of maintenance dredging to private dredges. Federal 
hopper dredge costs are artificially higher than necessary because of 
that set aside. We believe that Congress should reduce or eliminate the 
set aside to increase the efficiency of the Corps hopper dredges. We 
also encourage the Committee to find ways to make the Corps dredges 
less expensive to operate by examining recent increases in depreciation 
and plant increment payments.
    We believe that the presence of the federal dredges keeps bids for 
dredging work competitive and lower in cost. We are concerned that the 
low number of private industry bids for work in our region could force 
dredging costs higher were it not for the availability of the federal 
dredges.
    Salmon Recovery Decision Authority and Funding.--First, we support 
efforts to establish priorities for funding and implementation of fish 
and wildlife recovery projects in the Columbia River Basin Fish and 
Wildlife Program. Second, we support selected salmon recovery actions 
such as improved and enhanced smolt transportation, surface collection 
and other smolt by-pass facilities, fish-friendly turbine programs and 
habitat restoration and protection. These programs have been 
successful. These programs and others are included in the 
Administration's budget request for Columbia River Fish Mitigation 
which we support. Third, we oppose funding to carry out Phase II of the 
John Day drawdown study, and we do not support funding to study 
drawdown of McNary. Recently the Corps of Engineers recommended against 
continuing to study a drawdow of John Day because of the lack of 
benefit to salmon, and the economic cost. We support this decision. We 
encourage the Committee to direct funding toward fish recovery programs 
for which there is broad regional support.
    We support Senator Slade Gorton's 1996 amendment to the Northwest 
Power Act, approved during consideration of the fiscal year 1997 Energy 
and Water Appropriations bill, which establishes a panel of scientists 
to establish priorities for funding and implementation of fish and 
wildlife recovery projects in the Columbia River Basin Fish and 
Wildlife Program. We hope that this, with the Independent Economic 
Analysis Board, will result in programs that will provide maximum 
biological benefits to listed salmon stocks and are more cost-
effective.
    Regional Governance.--The discussion about regional cooperation in 
developing salmon recovery objectives and programs in the Columbia 
Basin has been expanded significantly through the establishment of the 
Columbia Basin Forum, formerly known as the Three Sovereigns Forum. A 
memorandum of agreement establishing this new body was recently signed 
by the federal agencies, tribes and states. This process was created 
without consulting affected stakeholders, and the participants do not 
intend to include stakeholders in the consensus process. PNWA believes 
that effective fish and wildlife programs can be implemented without a 
new governance body. If a new management structure is necessary for 
addressing the Endangered Species Act, the Northwest Power Planning 
Council offers an appropriate model. Federal, state and tribal agencies 
and regional stakeholders should work cooperatively to develop 
solutions that maintain Congressional authority over navigation and the 
other authorized purposes of the federal projects and state authority 
over water and land use. If PNWA urges the Committee to support 
collaboration in the Columbia Basin within the existing authorities of 
the federal agencies, states and tribes, and, in the strongest terms 
possible, we urge Congress to retain exclusive authority over the 
authorized purposes of the federal projects within the Columbia Basin.
    Hanford Cleanup.--We ask the Committee to continue to adequately 
fund the Department of Energy cleanup of 45 years of accumulated 
defense waste currently stored at the Hanford site. We recognize that 
defense waste cleanup is a long-term project that will be most cost 
effective and most rigorously pursued if Hanford is a viable, operating 
site. Therefore, we strongly urge the Committee to support a complete, 
ongoing Hanford scientifically and technologically based research and 
operations program in order to ensure long-term funding for waste 
cleanup. PNWA also supports a complete and ongoing scientifically and 
technologically based research and operations program, including the 
restart of the Fast Flux Test Facility for the joint missions of 
national defense and medical research and isotope production to meet 
the demands for more effective cancer treatments.
    Conclusion.--On behalf of nearly 120 members from throughout the 
Pacific Northwest, we thank the Committee for giving us this 
opportunity to review a number of issues important to the environmental 
and economic prosperity of our region.
                                 ______
                                 

       Prepared Statement of the Northwest Power Planning Council

    The Northwest Power Planning Council appreciates the opportunity to 
submit written testimony in support of the Clinton Administration's 
fiscal year 2001 budget request for programs under the jurisdiction of 
the Energy and Water Development Subcommittee.
    The Council was established by Congress in 1980, and created as an 
interstate compact by the States of Idaho, Montana, Oregon and 
Washington. Its purpose is to develop a 20-year regional electric power 
plan to assure for the Pacific Northwest an adequate supply of power at 
the lowest possible cost, and to develop a major program to protect and 
rebuild fish and wildlife resources harmed by hydroelectric development 
in the Columbia River Basin. The Council carries out its 
responsibilities under the Pacific Northwest Electric Power Planning 
and Conservation Act of 1980 (Northwest Power Act), Public Law 96-501.
    Three federal agencies under the jurisdiction of the Subcommittee, 
the U.S. Army Corps of Engineers, Bureau of Reclamation, and the 
Bonneville Power Administration, administer programs critical to the 
Columbia River Basin. The Council works closely with all three agencies 
in fulfilling its statutory responsibilities.

                      U.S. ARMY CORPS OF ENGINEERS

Columbia River Fish Mitigation Program
    The Council continues to support the Corps' Columbia River Fish 
Mitigation (CRFM) Program. The focus of the program is to reduce 
mortality of both juvenile and adult salmon and steelhead during their 
migration through the Corps' eight projects and reservoirs on the 
mainstem Columbia and Snake rivers. The Corps' fiscal year 2001 budget 
proposal for the program is $91 million, and includes funding for 
several critical studies and activities that are important to 
recovering, rebuilding and maintaining the anadromous fish runs in the 
Columbia River Basin. The Council supports the Corps' full $91 million 
budget request.
    We support the full budget request even without knowing the final 
outcome of the Corps' Lower Snake River Juvenile Salmon Migration 
Feasibility Study, Draft Feasibility Report and Environmental Impact 
Statement, and Record of Decision that will be signed later this year. 
The Corps' draft feasibility study and EIS, which was released recently 
for public comment, examines three possibilities for the lower Snake 
River: (1) breaching all four of the Corps' lower Snake River dams, (2) 
leaving the dams in place and maximizing opportunities to transport 
juvenile salmon and steelhead around the dams, and (3) maintaining 
status quo operations at the projects.
    Although the Corps' final recommendation is not known at this time, 
it is clear that regardless of what decision is made--to breach dams or 
not to breach--significant amounts of federal appropriations will be 
required to improve fish survival in the lower Snake River. If the 
Corps recommends breaching, significant sums will be required for 
planning, engineering, design and construction activities, as well as 
ongoing fish passage-related activities at the Corps' four dams on the 
lower Columbia River. On the other hand, if the Corps recommends not 
breaching the dams, efforts to increase juvenile and adult survival 
around all of those projects will continue. In either case, the Corps' 
program must be maintained at a high level to accomplish the objective 
of rebuilding and mitigating for salmon and steelhead runs in the 
Columbia and Snake river basins.
    Last year the Council, with the assistance of the Independent 
Scientific Advisory Board (ISAB), completed its Review of the U.S. Army 
Corps of Engineers' Capital Construction Program, which the Energy and 
Water Development Subcommittees requested in their fiscal year 1998 
Conference Report. The Council's final report addressed several aspects 
of the CRFM Program, including surface bypass systems, adult passage 
improvements, gas abatement measures, and other issues. In examining 
the Corps' initial priorities for the CRFM Program in fiscal year 2001, 
it appears that the funding proposals are generally consistent with the 
recommendations in the Council's report.
    For example, the Corps currently expects to spend approximately $16 
million for surface bypass-related work during fiscal year 2001. These 
activities would occur at several of the projects including Lower 
Granite Dam ($9.5 million), The Dalles Dam ($3.6 million), and 
Bonneville Darm ($2.5 million). In last year's report, the Council 
emphasized the need to continue efforts to develop effective surface 
bypass facilities that achieve the 80-percent fish passage efficiency 
standard for all species and stocks. While more than 20 years of work 
to improve turbine intake screen technology has not resulted in that 
level of efficiency, the Council's review urged that other 
technologies, including surface bypass facilities, be pursued 
aggressively.
    Surface collection and bypass continue to show promise; however, 
uncertainties remain regarding the level and changes in survival of 
juvenile salmon that can be provided by surface bypass facilities. 
Given the uncertainty, all juvenile passage alternatives should be 
evaluated against the baseline of spill, since spill more closely 
mimics natural processes than any other bypass alternative. Spill 
should be considered the alternative when improvements anticipated from 
other bypass technologies do not meet passage goals.
    Another area emphasized by the Council and the ISAB in last year's 
review of the CRFM Program was adult salmon and steelhead passage. The 
report concluded that the subject of adult passage at Columbia and 
Snake river dams has not been dealt with adequately, that returning 
adults to spawning grounds may be more important than juvenile 
survival, and that the Corps' planned site-specific measures may be 
supportable but probably are not sufficient to ensure that adult 
spawning migrations are unimpeded. Accordingly, the Council is pleased 
to see that for fiscal year 200 1, the Corps is intending to spend over 
$23 million on adult passage improvements, approximately double the 
amount being spent currently. These improvements are primarily in the 
form of improvements for auxiliary water supply systems, adult ladder 
improvements, and adult channel dewatering projects at several 
projects, including Lower Monumental Dam ($5 million), Ice Harbor Dam 
($4.4 million), The Dalles Dam ($5.5 million), Bonneville Dam ($1 
million), and other systemwide improvements ($3 million).
    The Council also supports aggressive efforts to reduce dissolved 
gas levels in the Columbia and Snake rivers. In last year's report, the 
Council recommended that the Corps' program is important for rectifying 
supersaturation in the river system, and that it should continue with 
high priority. Attainment of the Clean Water Act total dissolved gas 
standard of 110 percent throughout the hydropower system will be 
difficult under involuntary spill conditions with the majority of dams 
in place. Therefore, the Corps' current program of pursuing structural 
modifications to nearly all the dams to reduce gas supersaturation 
should have benefits to salmon and other components of the ecosystem. 
In fiscal year 2001, the Corps proposes to spend nearly $6 million on 
gas abatement efforts, about the same as the current year.
    Developing fish passage systems is not an exact science, but one 
that is continually evolving. As we increase our knowledge of the 
behavior patterns of anadromous, fish, and river processes, and improve 
our understanding of the need to protect biodiversity, we will develop 
more effective fish passage alternatives. These alternatives likely 
will be implemented to benefit the range of species and stocks in the 
river, and may result in providing multiple passage solutions at 
individual projects. They also will reflect that the best passage 
solutions are those that take into account and work with the behavior 
and ecology of the species using the river system.
    The Council realizes that the Columbia River Fish Mitigation 
Program has enjoyed significant support from the Subcommittee for 
several years. Continuation of the program at its full capability is 
necessary to ensure that critical improvements to the system are 
implemented, and important studies and tests completed so that fish 
survival can improve.

Willamette River Temperature Control, Oregon
    The Willamette River Basin is located in northwestern Oregon. 
During the last 40 years, 13 Corps of Engineers reservoirs have been 
constructed in the basin to control floods, generate electricity and 
provide water for navigation, irrigation, improved water quality, 
recreation, and fish and wildlife. Studies over the last 16 years have 
demonstrated that the temperature at which water is released from these 
reservoirs is a key limiting factor for survival of anadromous and 
resident fish in the Willamette basin.
    Local, state and federal agencies, including the Council, have been 
seeking modification of water temperature in the McKenzie River 
downstream from Blue River and Cougar reservoirs to achieve more 
beneficial temperatures for wild spring chinook salmon, bull trout and 
rainbow trout. The Corps' feasibility study for the project was 
completed in 1995. An Environmental Impact Statement was completed, and 
the Division Commander signed a Finding of No Significant Impact on 
April 24, 1996. Over a year ago, Willamette spring chinook and winter 
steelhead were listed as threatened by the National Marine Fisheries 
Service under the Endangered Species Act; the last significant wild 
stock of spring chinook in the Willamette is in the McKenzie River. The 
current estimated cost to install multi-level intake towers at the two 
projects is more than $70 million.
    Due to cost limitations associated with the project's 
authorization, the Corps' current focus is on the Cougar Lake reservoir 
intake tower, which.has a total estimated cost of more than $50 
million. Last year, Congress appropriated the initial funds to begin 
construction of the project. In its fiscal year 2001 budget request, 
the Corps is seeking $8.2 million to continue construction activities. 
The Council supports this project and the requested funding level, and 
urges the Subcommittee to include it in its fiscal year 2001 funding 
recommendations.

                         BUREAU OF RECLAMATION

Yakima River Basin Water Enhancement Project
    The Council supports the Administration's fiscal year 2001 request 
of $11.056 million for the Yakima River Basin Enhancement Project. The 
funds would be used for water acquisition ($4.3 million), 
implementation grants ($4.448 million) and for feasibility studies 
relating to grants ($1.0 million).
    The Project was authorized by Congress in 1994 and encourages 
activities to reduce water diversions by improving conveyance and 
distribution systems, and by changing water operations and management 
on farm irrigation facilities. Conserved water is used to increase 
instream flows and supplement drought-year irrigation needs. In 
addition, Yakama Nation water supply facilities will be improved and 
tribal economic development, fish and wildlife, and cultural programs 
will be enhanced.
    Just last month, seven irrigation districts identified water 
conservation measures totaling $200 million that could be funded under 
the project's authorization. If all the plans were implemented, water 
savings could add up to as much as 300,000 acre-feet. As a requirement 
of participation, two-thirds of the savings would be left in the river 
for fish and wildlife. The remaining one-third could be used for 
irrigation purposes, so long as the number of irrigated acres in the 
basin is not increased.
    Water managers estimate the successful implementation of the 
conservation program will reduce out-of-stream diversions by as much as 
165,000 acre-feet and increase target flows for instream purposes. 
Conservation measures also will improve the reliability of irrigation 
water supply, particularly for irrigation districts that receive less 
than their full water supply during poor water years.

Columbia-Snake River Salmon Recovery Project
    The Administration has requested $4.622 million in fiscal year 2001 
for its Columbia-Snake River Salmon Recovery Project. This represents a 
reduction of $4.878 million from the current year funding level of $9.5 
million. The Council considers the Administration's request to be the 
minimum acceptable level for the program, and would support maintaining 
the current year's appropriation of $9.5 million. The proposed funds 
for fiscal year 2001 will be used for water acquisition ($3 million), 
Endangered Species Act compliance ($1.132 million) and fish passage 
facilities at the Burbank #2 and #3 pumping plants.
    The Council believes the Bureau should have sufficient funds to 
implement all measures required under the new Biological Opinion that 
the National Marine Fisheries Service will put in place next year. It 
is questionable that the requested level of $4.622 million will be 
adequate to ensure implementation, especially in the event that 
expensive measures, such as water acquisition, are included in the 
Biological Opinion. In addition, the requested funding level provides 
the Bureau with insufficient flexibility to react quickly to any 
unforeseen opportunities that may arise during the course of the year 
to purchase or lease water from willing sellers, in accordance with 
state water law. Such opportunities, if lost, may not present 
themselves again soon.

                    BONNEVILLE POWER ADMINISTRATION

    The Bonneville Power Administration is the primary implementer of 
the Council's Columbia River Basin Fish and Wildlife Program. In the 
fall of 1995, the Administration and Congress agreed on a fixed budget 
for Bonneville's fish and wildlife recovery efforts in the Columbia 
River Basin. Under the terms of that agreement, which was further 
defined and formalized in September 1996 in a memorandum of agreement 
(MOA) signed by the secretaries of the Army, Interior, Commerce and 
Energy, Bonneville will incur costs, on average, of $435 million per 
year ($252 million in actual dollar expenditures and $183 million in 
lost hydropower revenues and power purchases) for six years for fish 
and wildlife activities. These funds fall under a number of categories, 
including direct expenditures on fish and wildlife projects, power 
purchases, reimbursements of appropriated funds to the Corps of 
Engineers and Bureau of Reclamation, capital repayment and foregone 
revenues.
    For fiscal year 2001, Bonneville estimates its total fish and 
wildlife budget will be $421.8 million, with $105 million for its 
direct fish and wildlife project expenditures, $49.2 million to 
reimburse other federal agencies for appropriated expenses, $102.8 
million to repay the Federal Treasury for appropriated capital 
investments, and $164.8 million for foregone revenues and power 
purchases.
    For several reasons, including above-average precipitation and 
lower-than expected annual appropriations for the Corps of Engineers' 
Columbia River Fish Mitigation Program, Bonneville's annual fish and 
wildlife expenditures have averaged less than the originally 
anticipated $435 million. As a result of lower Corps appropriations 
alone, Bonneville has underspent its capital repayment category by 
nearly $200 million. The Council believes that funds not spent during 
the MOA period should remain reserved for fish and wildlife purposes in 
the next period. The Council intends to work with Bonneville, the 
tribes and others in the region to arrive at an acceptable science-
based plan for effectively utilizing these funds.
    Thank you for the opportunity to share our views with you. We 
sincerely appreciate the thorough consideration that this Subcommittee 
has given to the needs of the Pacific Northwest and the Columbia River 
Basin over the years.
                                 ______
                                 

        Prepared Statement of the Deschutes Basin Working Group

                                SUMMARY

    The Deschutes Basin Working Group, dba the Deschutes Basin 
Resources Conservancy (DRC), is a non-profit, private corporation 
established in Oregon in 1996. In September 1996, Congress enacted and 
the President signed Public Law 104-208, which included S. 1662, the 
Oregon Resources Conservation Act. Section 301(h) (Division B, Title 
III) of Public Law 104-208 authorizes $1.0 million per year through 
2001. The DRC is limited to spending 5 percent of any appropriation on 
administration.
    In fiscal year 1999 and fiscal year 2000, Congress appropriated 
$500,000 to the Bureau of Reclamation to support the DRC. The DRC is 
using these funds to implement projects to improve water quality and 
quantity in the Deschutes Basin. Water projects are crucial in the 
Deschutes Basin where steelhead and bull trout are listed as threatened 
and Fall Chinook are proposed for listing under the Federal Endangered 
Species Act. We are requesting that $1,000,000 be provided in the 
fiscal year 2001 Budget for the Bureau of Reclamation to continue to 
carry out our program.
    From January 1999 to March 2000 the DRC supported 17 projects in 
the Basin that leveraged $843,757 of its funds to complete $3,344,535 
in on-the-ground restoration projects. These projects include: piping 
irrigation district delivery systems to prevent water losses; securing 
instream water rights to restore flows to Squaw Creek; providing 
riparian fences to protect riverbanks; working with private timberland 
owners to restore riparian and wetland areas; and seeking donated water 
rights to enhance instream flows in the Deschutes Basin.
    The DRC is governed by a diverse group of directors from private 
and public interests from the region. It is a community-based, 
cooperative endeavor that believes economic progress and natural 
resource conservation need to work together to achieve success.
    The DRC seeks voluntary actions based upon contracts and 
compensation for property and services. The DRC does not seek, nor is 
it authorized, to impose regulatory mandates through legal or political 
action.

                             1999 PROJECTS

No-Till Demonstration Project--$50,000
    A small-grain farmer from the Juniper Flats region of Wasco County 
has agreed to use his farm as a no-till demonstration site for at least 
five years. Initially, the farmer will convert 900 acres of traditional 
tillage cropland to no-till methods. Wasco County SWCD proposes to 
cost-share with the farmer for three years to help with startup 
expenses and risk management. In return, the farmer will allow the SWCD 
to conduct educational and outreach activities on his farm. The SWCD 
will conduct field days, tours and neighborhood presentations to 
increase awareness of no-till methods and share results with other 
farmers in the region. During a series of neighborhood meetings, 
volunteers will be sought for a watershed council to cover the White 
River and Juniper Flat regions. The DRC is also exploring the 
opportunities for developing tradable carbon credits from this project.

Tumalo Irrigation District/Bend Feed Canal--$100,000
    This project eliminates the existing Flume No. 4 and unlined open 
channel section between Pipeline No. 2 and No. 3 of the Bend Feed 
Canal, saving an estimated 3 to 4 cfs in water loss. The flume and 
channel sections will be replaced with an estimated 78-inch diameter 
water tight pipe. The complete 4 year, 13, 750-foot project plan will 
save at least 20 cfs. A prorated share of 5 cfs minimum has been agreed 
to by the U.S. Bureau of Reclamation for return to the Tumalo Creek 
which currently has no instream water right. The total project will 
increase fish habitat, significantly reduce water loss and increase 
public safety.

Pringle Falls--$20,000
    The project places 225 large trees in the main channel of the 
Deschutes River within a 3.3-mile reach below Pringle Falls, improving 
fish habitat and decreasing the potential for stream bank erosion. 
Traditionally, large woody debris protected the riverbanks from the 
swiftly moving water. In its absence, erosion was occurring at an 
accelerated rate. The placement of trees and riparian plantings should 
improve water quality by reducing sedimentation and turbidity of the 
river.

Central Oregon Irrigation District Alfalfa Piping--$58,924
    The Alfalfa area of the Central Oregon Irrigation District consists 
of large irrigated parcels and transmission losses are high due to pea-
sized gravel beneath the shallow topsoil. This project replaced 
approximately 15,860 feet of open ditch with pipe. The project saves 
3.09 cubic feet per second or 6.13 acre feet of water per day. The 
project has been completed and funds have been allocated.

Annual Water Leasing Program--demonstration only
    The DRC is working with water users in targeted areas for water 
rights donations or sales to improve instream flows. The program began 
November 1998 by meeting with each irrigation district manager to 
introduce the leasing program and the process for transfers. In early 
1999 water rights holders were contacted requesting the user's water 
donation. This program enables water right holders to protect their 
water right by leasing and it improves Deschutes flows. About 54 acres 
of irrigation water were leased in 1999. The program will continue in 
2000.

Camp Polk Meadow--$50,000
    The DRC and the Deschutes Basin Land Trust are teaming up to 
restore and conserve a rare wetland/wet meadow habitat. Portland 
General Electric purchased Camp Polk Meadow and donated it to the land 
trust. The property has about 385 acres, roughly 150 are bottom land. 
The project contains between 1.25 and 1.5 miles of Squaw Creek, at 
least six springs and one natural bog.

Central Oregon Irrigation District F1 Lateral Piping--$30,000
    For the most part the irrigation canals in the Upper Deschutes 
Basin are unlined and have been dug in porous, volcanic soils, so water 
losses through percolation can be quite high over the long distances 
that irrigation water must travel from the point of diversion to the 
farms. The DRC and Central Oregon Irrigation District propose to 
install roughly 3,960 feet of pipe, an inlet structure, an outlet 
structure, four clean-outs and four diversion structures. COID figures 
to conserve .29 cfs or .57 an ac/ft. Projected over a 180 day period, 
this calculates to 102.6 ac/ft water conserved. One half of the 
conserved water from this project will be returned to instream flows in 
the Deschutes River. This project is an important demonstration of how 
water can be conserved to benefit both the irrigation district and its 
water users and the Deschutes ecosystem. This project is underway.

Confederated Tribes of Warm Springs Riparian Fencing--$76,500
    The DRC and the Confederated Tribes of the Warm Springs Indian 
Reservation of Oregon are partners on a project to protect riparian 
areas in the Deschutes Basin's Eagle Creek, Skookum Creek and the 
mainstem river. The project constructs fence for livestock exclosures, 
places cattle guards at road crossings and installs solar pumps to 
provide animals water away from the riverbank. One of the DRC's primary 
goals is to improve water quality. Healthy, functioning riparian areas 
are critical to improving water quality in the basin. Riparian 
vegetation provides fish and aquatic habitat, stream shading to reduce 
water temperatures, bank stability and a filter for nutrients and 
sediments entering the water. This project is especially important for 
the habitat of Bull Trout and steelhead that are listed as threatened 
and Fall Chinook that are pending listing under the Federal Endangered 
Species Act. This project involves voluntary cooperation by the tribal 
grazing group allottees. The Warm Springs Tribes are involved in 
various other projects to improve stream conditions both on and off the 
reservation. This project is a part of a larger effort to improve flows 
and water quality for fish and wildlife. Funds have been allocated and 
two of the four sections of fence have been constructed. The remaining 
fence will be constructed Spring of 2000. NEPA has been completed and 
the DRC is waiting for a monitoring plan.

Swalley Irrigation District Tailend--$10,000
    This Swalley Tailend Project links the end of Swalley's lateral 
with COID's A-21 lateral of the Pilot Butte Canal. The project will 
direct water in excess of the Swalley system's demand to COID's 
lateral. The system will be designed to handle an average of 3 cubic 
feet per second (cfs) with the ability to accommodate flows up to 6 
cfs. This project directly addresses the DRC's goal to improve water 
quality and quantity. It will stop potentially polluted, warm water 
from directly entering the Deschutes and it will allow this water to be 
used by COID, which is credited for this water. NEPA has been completed 
and funds will be allocated upon billing.

Thompson Ditch Conservation Project--$50,000
    The DRC is working with the Squaw Creek Irrigation District and 
landowners to relocate a diversion for permanent increased instream 
flow and riparian restoration. The project eliminates the existing 
Thompson Ditch. Subsequently returning 1 cfs of 1885 senior water right 
and 1 cfs junior 1900 water right to the stretch of Squaw Creek between 
SCID's diversion and the proposed diversion point on the Deggendorfer 
property. This change will also eliminate water losses in the existing 
ditch. The flood irrigation system now in use will be changed to a 
sprinkler system. One-half of the conserved water will be permanently 
returned to instream flows. Project construction is underway and 
scheduled for completion in the Spring of 2000.

Mack's Canyon--$15,460
    This project focuses on the entire watershed from ridge top to 
ridge top, starting at the top and working down. Several treatment will 
be used including; Terraces, Water and Sediment Control, Basins 
(WASCOB), Sediment Basins, and Spring Developments. NRCS is completing 
NEPA. Initial phases may start this fall while the main portion of the 
project will be completed in the Spring.

                              2000 PROJECT

Summaries 2000 Projects Camp Polk Water Purchase--$50,000
    Oregon Water Trust (OWT) and the DRC will acquire .99 cfs of 
irrigation rights on Squaw Creek for a permanent transfer to instream 
flows. The water rights will complement the earlier purchase of 1.81 
cfs of Squaw Creek water in 1998 and 1999. Squaw Creek currently 
supports populations of redband trout, bull trout and spawning kokanee 
from Lake Billy Chinook. Prior to the construction of the dams, Squaw 
Creek was one of the major salmonid producing tributaries in the 
Deschutes basin. The various proposed relicensing options for the 
Pelton-Round Butte dams in 2001 include provisions for the passage of 
anadramous fish, which will reopen Squaw Creek to populations of wild 
Chinook and steelhead, making the restoration of stream flows 
critically important.

Crooked River National Grasslands Water Quality Project--$20,000
    The Grasslands project is aimed at decreasing the turbidity and 
sedimentation of lower Squaw Creek. Funded activities include the 
hydrological closure of 1.75 miles of the lower end of Forest Service 
road 6370, the closure by gating of the upper 2.5 miles of road 6370 
and the closure and rehabilitation of five off-road hill climbs in the 
vicinity. Other components of the project involve relocating the Alder 
Springs Trail Head approximately 0.8 miles north of the intersection of 
Forest Service road 6360 and 6370 to the ridge just west of `Three 
Pines'. A new trail approximately 0.75 miles long will be constructed 
along the rim with views of Squaw Creek and the Cascades. The new trail 
segment will join the existing trail above Dry Falls. A new spur trail 
approximately 0.25 miles will be constructed from Three Pines to the 
Old Bridge site on Squaw Creek. The existing trail in the drainage 
bottom will be waterbarred. Each of these applications will help 
protect and enhance a sensitive reach of creek that supports numerous 
aquatic species including the ESA listed bull trout.

Crooked River Riparian Fencing--$34,100
    With funding from the DRC, the Crooked River watershed council's 
riparian enhancement project will improve livestock management, protect 
riparian and stream channel areas and enhance native vegetation on over 
25 miles of stream within the sub-basin. Nine landowners have agreed to 
participate in the program, implementing riparian exclosures on 15 
miles of stream and conducting plantings in 18 miles of protected 
riparian areas. Exclusion of livestock from riparian areas is one of 
the most effective and practical means of protecting riparian areas. 
The enhancement of riparian vegetation communities in degraded areas 
provides a major step towards improving overall riparian and stream 
channel function.

Squaw Creek Irrigation District (SCID) Cloverdale Piping Project--
        $260,000
    The project will replace approximately 15,840' of open ditch with 
pipe. The estimated water savings amounts to 4 to 5 cfs or 8 to 10 
acre-feet per day. Three cfs or one-half of the conserved water, 
whichever is greater, will be transferred back instream after project 
completion. This project represents one of several DRC partnerships 
aimed at increasing instream flows in Squaw Creek. The DRC and other 
local organizations place great importance on Squaw Creek due to its 
once abundant steelhead spawning habitat.

Tenmile Riparian Fencing--$7,013
    With the help of the DRC and the Trout Creek watershed council, a 
private landowner will construct 4.5 miles of riparian fencing around a 
high mesa pasture that will exclude livestock from grazing in 
approximately 3 miles of Tenmile Creek, 2 miles of Trout Creek, and 3 
miles of the Deschutes River. The construction of new riparian fencing 
and the elimination of a previously used watering gap complements the 
Bureau of Land Management and Oregon Department of Fish and Wildlife's 
efforts to manage grazing along Tenmile Creek in a manner that is 
conducive to fish and wildlife values. Additionally, the Trout Creek 
watershed council will be seeking funds from the Oregon Watershed 
Enhancement Board to construct offsite watering for livestock at this 
site. This project serves to build understanding and educate the 
community by providing a valuable example of environmental protection 
of private lands by non-regulatory means.

Mack's Canyon Year II--$15,460
    This project focuses on the entire watershed from ridge top to 
ridge top, starting at the top and working down. Several treatments 
will be used including; terraces, water and sediment control basins 
(WASCOB), sediment basins, and spring developments. NRCS is completing 
NEPA. Initial phases may start this fall while the main portion of the 
project will be completed in the spring.

                               BACKGROUND

    In 1989, the Environmental Defense Fund (EDF) and the Confederated 
Tribes of the Warm Springs Reservation began a cooperative project to 
reconcile on-reservation ecological and economic conflicts. In late 
1992, the Tribes and EDF expanded the scope of the project to include 
the entire Deschutes Basin. It was agreed that the initial focus would 
be on river flows and water pollution. Flow-deficient stream reaches 
and excessive water pollutant loads could only be mitigated by 
identifying and reducing existing water diversions and pollution 
discharges. At the same time, a high value was placed on being ``good 
neighbors'' to other landowners and resources users within the Basin. 
Positive incentives for changes in resource uses were emphasized 
instead of costly and divisive political and legal conflicts. Solutions 
employing economic incentives, such as water rights and pollution 
allowance marketing, were introduced and experiences elsewhere in the 
West were reviewed.
    A key forum for this community dialogue, the ``Ad Hoc Deschutes 
Group'', was formed. The 14-member Ad Hoc Group had representatives of 
all economic sectors in the Basin. The irrigation community holds the 
most water rights and reservoir storage and therefore has the greatest 
impact among resource users on the pattern and amount of river flows. 
At the same time, water quality degradation stems from a diverse set of 
land uses driving non-point water pollution. An important part of the 
project was to assure that the federal interests in the Basin were 
addressed along with those of the tribes, resource users, and local and 
state governments.
    The Ad Hoc Group recognized the need for a private organization 
with ecosystem-determined goals and methods based on positive 
incentives, consensus, and local governance. Since approximately half 
of the Basin's land area is managed by federal agencies it was clear 
that such a private organization would need the capacity to partner on 
projects with the federal agencies to be truly ecosystem and basinwide 
in scope. In March, 1996, Senator Hatfield introduced S. 1662 
authorizing federal agencies to work with this private organization, 
known as the Deschutes Basin Working Group. Title III of the Oregon 
Resource Conservation Act of 1996, signed by the President in 
September, 1996, authorizes the following:
  --Federal agencies to work with the private Deschutes Basin Working 
        Group, dba Deschutes Basin Resources Conservancy (DRC)
  --Secretaries of Interior & Agriculture to appoint DRC board members 
        for 3 year terms
  --Federal participation with DRC in ecological restoration projects 
        on federal and non-federal land and water with 50-50 cost share
  --Five year startup authorization of $1.0 Million a year federal 
        fund; 50/50 cost share with DRC
  --Emphasize voluntary market-based economic incentives
    The Deschutes Basin Working Group, later to adopt an operating name 
of the Deschutes Basin Resources Conservancy (DRC), has the goal of 
implementing on-the-ground projects that enhance the quality of the 
region's natural resources and add value to its economy.
    Its board consists of nine members from the Basin's private sector; 
hydropower, livestock grazing, recreation/tourism, timber, land 
development, irrigation (2), environmental (2), and two members from 
the Confederated Tribes of the Warm Springs Reservation. In addition to 
the private board members there are two board members appointed from 
the Departments of Interior and Agriculture, two board members 
representing the State of Oregon, and four members representing local 
governments within the Deschutes Basin.
    The DRC will receive funds through tax-exempt donations from 
individuals, businesses, and corporations, including philanthropic 
foundations, and from government agencies seeking project development 
assistance or collaboration. It will seek to develop income from direct 
sources such as fee-for-service.
                                 ______
                                 

       Prepared Statement of the Oregon Water Resources Congress

    Dear Chairman Domenici and Members of the Subcommittee: Mr. 
Chairman, Members of the Subcommittee, I am Jan Lee, executive director 
of the Oregon Water Resources Congress (OWRC). The OWRC represents 
irrigation, water control, drainage and water improvement districts, 
private ditch and irrigation corporations, cities and counties, 
individual farmers and ranchers statewide as well as having 
agribusiness associates as members.
    I am writing to urge your support for the attached list of projects 
in the Bureau of Reclamation's fiscal year 2001 Budget Request. The 
funding for these projects represents a valuable commitment to meeting 
the needs of our member organizations at a time when many are 
confronted with the problem of how to meet water delivery needs for 
their district populations while at the same time addressing 
environmental and Native American requirements. There are particular 
projects like the Deschutes Ecosystem Restoration project and the 
Klamath project in Southern Oregon that typify this balance.
    I would also like to request that you provide the write-in funding 
for the Tumalo Irrigation District, Bend Feed Canal, the two Umatilla 
Boundary Change Environmental Assessment projects and the Willow Lake 
Natural Treatment system project that appear on our list.
    OWRC continues to be concerned about the inadequate funding for the 
Oregon Water Management and Technical Assistance program, the 
Efficiency Incentives program and the Water Management Conservation 
Program. These are valuable programs for water users to address the 
combination of water/environmental/Native American/growth related 
issues in the State.
    OWRC has also been following the work of the National Drought 
Policy Commission. OWRC would like the Subcommittee to consider 
increasing the funding for the Bureau of Reclamation drought assistance 
program up to $5 million so our water users are in the position to 
benefit from the recommendations of the Commissions report.
    Thank you for considering our requests and we look forward to 
favorable action by the Subcommittee.

Projects and Programs in fiscal year 2001 Bureau of 
    Reclamation Budget that OWRC Supports;
    Crooked River Project...............................        $691,000
    Deschutes Ecosystem Restoraton Project..............         500,000
    Deschutes Project...................................         431,000
    Grand Ronde Water Optimization Study................          50,000
    Klamath Project.....................................      11,185,000
    Oregon Investigations Program.......................         601,000
    Rogue River Basin Project, Talent Division..........         883,000
    Tualatin Project....................................         320,000
    Eastern Oregon Projects.............................         451,000
    Tualatin Valley Water Supply Feasibility Study......         100,000
    Umatilla Basin Project (Phase III)..................         100,000
    Umatilla Project....................................       2,294,000
Broader Programs:
    Columbia and Snake River Salmon Recovery Project....       4,622,000
    Endangered Species Recovery Implementation..........       1,354,000
Requests for New Money:
    Tumalo Irrigation District, Bend Feed Canal.........       2,000,000
    Umatilla Boundary Change Environmental Assessment 
      (Hermiston).......................................         100,000
    Umatilla Boundary Change Environmental Assessment 
      (West Extension)..................................          50,000
    Willow Lake Natural Treatment System Project........       1,000,000
                                 ______
                                 

        Prepared Statement of the Hermiston Irrigation District

    Mr. Chairman, Members of the Subcommittee, I am Chuck Wilcox, 
Manager of the Hermiston Irrigation District, in Hermiston, Oregon. The 
District is writing to request that $100,000 be provided on a non-
reimbursable basis in the fiscal year 2001 Budget for the Bureau of 
Reclamation so the Hermiston Irrigation District can complete the 
Environmental Assessment process for a proposed boundary change as a 
part of the Umatilla basin plan
    For the past several years, our district, as well as other 
irrigation districts in the Umatilla basin have asked the Bureau of 
Reclamation to approve new boundaries to include acres that receive 
Federal water. The Bureau has consistently failed us in moving forward 
towards resolving this need. Completion of this process would solve the 
problem of having to use interim water service contracts from the 
Bureau of Reclamation and allow farmers in the area to make more timely 
and cost effective decisions regarding crop decisions for the planting 
and irrigation season.
    If language could be included in the report for the Energy and 
Water Appropriations bill indicating that within the Water and Related 
Resources Program, the Bureau was to provide the $100,000 for this work 
on a non-reimbursable basis, the District would be very appreciative.
    Thank you for considering our request and we look forward to 
favorable action by the Subcommittee.
                                 ______
                                 

          Prepared Statement of the Tumalo Irrigation District

    Mr. Chairman, Members of the Subcommittee, I am Elmer McDaniels, 
Manager of the Tumalo Irrigation District in Bend, Oregon. The Tumalo 
Irrigation District was founded in 1914 and currently serves about 28 
square miles with 8,100 irrigated acres between Bend and Sisters, 
Oregon, on the east slope of the Cascade Mountains.
    The District appreciates the $200,000 that was provided for design 
work in the fiscal year 2000 Energy and Water appropriations bill for 
our Bend Feed Canal Project. The total cost of this project is 
$4,000,000 with half of the money coming from the District and the 
other half from the Bureau of Reclamation. We are ready to move forward 
with construction work this year on the project and would like to 
request that your subcommittee provide $2,000,000 in the Bureau of 
Reclamation's budget for their share of construction funds for fiscal 
year 2001.
    Completion of this project will bring about an increased system 
reliability for the District, a substantial safety increase for the 
citizens in the area as a result of our putting an existing open canal 
into pipe and an increased water conservation benefit for the 
environment in the Deschutes Basin as a result of the piping of the 
canal.
    Thank you for considering our request and we look forward to 
favorable action by the Subcommittee.
                                 ______
                                 

    Prepared Statement of the Fort Peck Assiniboine and Sioux Tribes

                FISCAL YEAR 2001 APPROPRIATIONS REQUEST

    The Fort Peck Assiniboine and Sioux Tribes respectfully request 
funds to continue planning and begin construction of the Fort Peck 
Reservation RWS, Montana, in the amount of $435,000 as set out below:

Fiscal Year 2001 Appropriation Request--Fort Peck Assiniboine and Sioux 
MRI System Dry Prairie RWS

        Item                                                      Budget
Planning Activities:
    Tribal Administration.....................................  $115,160
    Tribal Technology.........................................     7,100
    Dry Prairie Administration................................    61,020
    Environmental Assessment..................................   136,440
    Conceptual Value Engineering/FER..........................   115,590
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................   435,310

    The Tribes are appreciative of the work by this Subcommittee on the 
project previously. In fiscal year 1993 and fiscal year 1994, $350,000 
were appropriated, and in fiscal year 1997 through fiscal year 1999, 
$810,000 were appropriated for planning purposes.

                          PROPOSED ACTIVITIES

    This project, which includes all of the Fort Peck Indian 
Reservation in Montana and the Dry Prairie portion of the project 
outside the Reservation (see map), was authorized by the full Senate in 
the closing days of the last session. Authorization by the full House 
is anticipated in this session.
    The budget request provides $435,000 for planning activities. It 
provides for continued work to amend and complete the Final Engineering 
Report to address both federal and state requirements for the report. 
Value engineering will be performed on the Final Engineering Report in 
an effort to lower costs of the project without diminishing function. 
The budget request provides for completion of the NEPA requirements 
through the preparation of an environmental assessment. No significant 
environmental impacts are expected, and an environmental impact 
statement is not contemplated. This judgment is based upon prior work 
with state and federal agencies in advance of the preparation of the 
environmental assessment.

                       STATUS OF PROJECT PLANNING

    The work products completed to date by the Bureau of Reclamation 
include a Needs Assessment and Feasibility Report within the boundaries 
of the Fort Peck Indian Reservation. The Fort Peck Tribes are 
continuing to work with the Bureau of Reclamation to modify and 
complete the Final Engineering Report, incorporating the costs of 
facilities to serve both the Reservation and the Dry Prairie Water 
System outside the Fort Peck Indian Reservation. Environmental baseline 
investigations have been concluded within the Reservation and the Dry 
Prairie areas of the project. The latter investigations are a 
foundation for the environmental assessment
    The Final Engineering Report shows that construction costs of the 
project total $192 million, October 1998. (Previous testimony has 
presented $179 million, October 1995, as the project cost, which is 
equivalent, after indexing, to the amount given here. The current cost 
estimate, however, is based on revisions of costs in fiscal year 1999 
and reconfiguration of the system.) Costs on the Fort Peck Indian 
Reservation will be $124 million with 100 percent federal cost share. 
Construction costs off Reservation in the Dry Prairie area will be $68 
million. The federal cost share in the Dry Prairie area will be $51 
million (76 percent), the State share will be $8.5 million (12 percent 
with an approved mechanism for funding by the Montana legislature) and 
the local share will be $8.5 million (12 percent). The total Federal 
costs will be $175 million (October 1998), less or comparable to 
similar projects in the Northern Great Plains.

                         LOCAL PROJECT SUPPORT

    The State of Montana, by action of its legislature, appropriated 
$62,000 in fiscal year 1997 to provide for a Needs Assessment and cost 
estimate of facilities outside the Reservation in the Dry Prairie part 
of the project. The 1999 Montana Legislature approved an additional 
$182,000 in planning funds for use by Dry Prairie in fiscal year 1999 
and 2000. The needs and facility costs determined for the Dry Prairie 
Water System were incorporated into the Final Engineering Report. In 
addition, the 1999 Montana Legislature approved a funding mechanism 
from its Treasure State Endowment Program to finance the non-federal 
share of project planning and construction. Demonstrating support of 
Montana for the project, there were only three votes against the 
statutory funding mechanism in both the full House and Senate.
    The Fort Peck Tribes have supported the project since 1992 when 
they conceived it and sought means of improving the quality of life in 
the region. The planning was logical step after successful completion 
of an historic water rights compact with the State of Montana. This 
compact was the national ``ice breaker'' that increased the level of 
confidence by other Tribes in Indian water right settlement 
initiatives.
    Dry Prairie support is demonstrated by a financial commitment of 
all 24 communities within the service area to participate in the 
project. Rural support is strong, with about 85 percent of area farms 
and ranches intending to participate as evidenced by their intent fees 
of $100 per household.
enterprise community designation and need for water quality improvement
    The Clinton Administration designated the Fort Peck Indian 
Reservation as an Enterprise Community, underscoring the level of 
poverty and need for economic development in the region. The success of 
the Enterprise Community designation within the Reservation will be 
questionable without the availability of safe and adequate municipal, 
rural and industrial water supplies that this regional project will 
bring to the Reservation. Outside the Fort Peck Indian Reservation, the 
Dry Prairie area has income levels that are higher than within the 
Reservation but significantly lower than the State average.
    The geologic setting of the Fort Peck Indian Reservation and the 
counties outside the Reservation is comparable to the rest of eastern 
Montana, North Dakota and South Dakota. With the exception of the 
Missouri River, which is a high quality water source, the groundwater 
supplies of the region are of poor quality with more than 80 percent of 
rural households, that rely on near surface aquifers, exceeding nitrate 
contaminant levels for drinking water. Some of the worst water on the 
North American Continent lies below the Fort Peck Indian Reservation in 
the Madison Formation. This water is not used for human or livestock 
consumption. It is a brine several times more concentrated than sea 
water. Above this unsuitable aquifer are lesser aquifers that have been 
subjected to oil and gas development and have been contaminated, in 
part, by those activities.
    The Poplar River, which flows through the central portions of the 
Fort Peck Indian Reservation and the region is the subject of an 
Apportionment Agreement between Canada and the United States. Half of 
the water supply is available for Canada as measured at the 
International Boundary, and the balance is available for use in the 
United States. Depletion of this resource by agricultural and coal-
fired power generation on the Canadian side increases the 
concentrations of chemicals and contaminants in the supply for the 
United States. The Poplar River and its principle tributaries are 
neither dependable supplies of water nor are they of suitable quality 
for this project. Thus, the Fort Peck Tribes and Dry Prairie are 
seeking a regional water project, comparable to Garrison, WEB, Mni 
Wiconi and Mid-Dakota that rely on the high quality waters of the 
Mainstem Missouri River.
    The feature of this project that makes it more cost effective than 
similar projects is its proximity to the Missouri River. The southern 
boundary of the Fort Peck Indian Reservation is formed by the Missouri 
River for a distance of more than 60 miles. Many of the towns in this 
regional project are located two to three miles from the river, 
including Nashua, Frazer, Oswego, Wolf Point, Poplar, Brockton, 
Culbertson, and Bainville. As shown on the enclosed project map, a 
looping transmission system outside the Fort Peck Indian Reservation 
will deliver water 30 to 40 miles north of the Missouri River. 
Therefore, the distances from the Missouri River to all points in the 
main transmission system are shorter than in other projects of this 
nature in the Northern Great Plains.
    For comparison of water quality of this project with other regional 
projects, please refer to Tables 1 and 2.

   TABLE 1.--COMPARISON OF FORT PECK TOTAL DISSOLVED SOLID LEVELS WITH
                           COMPARABLE PROJECTS
------------------------------------------------------------------------
                                                                Total
                                                              Dissolved
              Project                       Community           Solids
                                                                (mgl)
------------------------------------------------------------------------
Fort Peck..........................  Fort Kipp.............        2,730
Lewis and Clark....................  Upper Limit...........        2,600
Mni Wiconi.........................  Red Shirt.............        2,332
Mni Wiconi.........................  Reliance..............        2,056
Mni Wiconi.........................  Murdo.................        1,761
Mni Wiconi.........................  Kennebec..............        1,740
Mni Wiconi.........................  Presho................        1,398
Fort Peck..........................  Poplar................        1,380
Fort Peck..........................  Frazer................        1,180
Lewis and Clark....................  Lower Limit...........        1,179
Mni Wiconi.........................  Wakpamni Lake.........        1,125
Mni Wiconi.........................  Horse Creek...........          869
Fort Peck..........................  Brockton..............          748
Mni Wiconi.........................  Pine Ridge Village....          416
------------------------------------------------------------------------


    TABLE 2.--COMPARISON OF FORT PECK SULFATE LEVELS WITH COMPARABLE
                                PROJECTS
------------------------------------------------------------------------
                                                               Sulfate
              Project                       Community           (mgl)
------------------------------------------------------------------------
Lewis and Clark....................  Upper Limit...........        1,500
Mni Wiconi.........................  Reliance..............        1,139
Fort Peck..........................  Fort Kipp.............        1,120
Mni Wiconi.........................  Red Shirt.............        1,080
Mni Wiconi.........................  Murdo.................        1,042
Mni Wiconi.........................  Kennebec..............          984
Mni Wiconi.........................  Presho................          644
Lewis and Clark....................  Lower Limit...........          538
Fort Peck..........................  Frazer................          498
Mni Wiconi.........................  Horse Creek...........          410
Mni Wiconi.........................  Wakpamni Lake.........          398
Fort Peck..........................  Brockton..............          212
Fort Peck..........................  Poplar................          103
Mni Wiconi.........................  Pine Ridge Village....           70
------------------------------------------------------------------------

                                                             <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                             
                         Figure 1.--Project Map

                   FISCAL YEAR APPROPRIATIONS REQUEST

    The Fort Peck Assiniboine and Sioux Tribes respectfully request 
funds to begin construction of the Fort Peck Reservation RWS, Montana, 
in the amount of $3,025,000 as set out below:

Fiscal Year 2001 Appropriation Request Fort Peck Assiniboine and Sioux 
MRI System Dry Prairie RWS

Design and Construction Activities:                               Budget
    Intake Design.............................................  $232,580
    Intake Investigation and Value Engin......................    42,960
    WTP Investigation and Value Engineer......................    83,820
    WTP Design................................................ 1,226,205
    Intake Construction (50 percent).......................... 1,440,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total................................................... 3,025,565

    The Tribes are appreciative of the work by this Subcommittee on the 
project previously. In fiscal year 1993 and fiscal year 1994, $350,000 
were appropriated, and in fiscal year 1997 through fiscal year 1999, 
$810,000 were appropriated for planning purposes. A request for 
planning funds has been made separately for fiscal year 2001.

                          PROPOSED ACTIVITIES

    This project, which includes all of the Fort Peck Indian 
Reservation in Montana and the Dry Prairie portion of the project 
outside the Reservation (see map), was authorized by the full Senate in 
the closing days of the last session. Authorization by the full House 
is anticipated in this session. The request for construction funds is 
made in contemplation of full authorization of the project in this 
session.
    The budget request provides for final design of the intake and 
treatment plant for this regional drinking water project. Alternative 
analyses will be conducted to ensure that the most cost-effective 
options are adopted.
    The budget request provides for 50 percent of the construction 
costs of the intake on the Missouri River which will deliver raw water 
to the treatment plant. The budget request is consistent with the 
construction schedule furnished last year to the Congressional Budget 
Office as part of its investigation of the Senate bill authorizing the 
project (S. 624). (See Table 3 for the construction schedule).
    The budget includes $272,000 for Reclamation oversight in the 
planning, design and construction activities.

                       STATUS OF PROJECT PLANNING

    The work products completed to date by the Bureau of Reclamation 
include a Needs Assessment and Feasibility Report within the boundaries 
of the Fort Peck Indian Reservation. The Fort Peck Tribes are 
continuing to work with the Bureau of Reclamation to modify and 
complete the Final Engineering Report, incorporating the costs of 
facilities to serve both the Reservation and the Dry Prairie Water 
System outside the Fort Peck Indian Reservation. Environmental baseline 
investigations have been concluded within the Reservation and the Dry 
Prairie areas of the project. The latter investigations are a 
foundation for the environmental assessment
    The Final Engineering Report shows that construction costs of the 
project total $192 million, October 1998. (Previous testimony has 
presented $179 million, October 1995, as the project cost, which is 
equivalent, after indexing, to the amount given here. The current cost 
estimate, however, is based on revisions of costs in fiscal year 1999 
and reconfiguration of the system.) Costs on the Fort Peck Indian 
Reservation will be $124 million with 100 percent federal cost share. 
Construction costs off Reservation in the Dry Prairie area will be $68 
million. The federal cost share in the Dry Prairie area will be $51 
million (76 percent), the State share will be $8.5 million (12 percent 
with an approved mechanism for funding by the Montana legislature) and 
the local share will be $8.5 million (12 percent). The total Federal 
costs will be $175 million (October 1998), less or comparable to 
similar projects in the Northern Great Plains.

                         LOCAL PROJECT SUPPORT

    The State of Montana, by action of its legislature, appropriated 
$62,000 in fiscal year 1997 to provide for a Needs Assessment and cost 
estimate of facilities outside the Reservation in the Dry Prairie part 
of the project. The 1999 Montana Legislature approved an additional 
$182,000 in planning funds for use by Dry Prairie in fiscal year 1999 
and 2000. The needs and facility costs determined for the Dry Prairie 
Water System were incorporated into the Final Engineering Report. In 
addition, the 1999 Montana Legislature approved a funding mechanism 
from its Treasure State Endowment Program to finance the non-federal 
share of project planning and construction. Demonstrating support of 
Montana for the project, there were only three votes against the 
statutory funding mechanism in both the full House and Senate.
    The Fort Peck Tribes have supported the project since 1992 when 
they conceived it and sought means of improving the quality of life in 
the region. The planning was logical step after successful completion 
of an historic water rights compact with the State of Montana. This 
compact was the national ``ice breaker'' that increased the level of 
confidence by other Tribes in Indian water right settlement 
initiatives.
    Dry Prairie support is demonstrated by a financial commitment of 
all 24 communities within the service area to participate in the 
project. Rural support is strong, with about 85 percent of area farms 
and ranches intending to participate as evidenced by their intent fees 
of $100 per household.
enterprise community designation and need for water quality improvement
    The Clinton Administration designated the Fort Peck Indian 
Reservation as an Enterprise Community, underscoring the level of 
poverty and need for economic development in the region. The success of 
the Enterprise Community designation within the Reservation will be 
questionable without the availability of safe and adequate municipal, 
rural and industrial water supplies that this regional project will 
bring to the Reservation. Outside the Fort Peck Indian Reservation, the 
Dry Prairie area has income levels that are higher than within the 
Reservation but significantly lower than the State average.
    The geologic setting of the Fort Peck Indian Reservation and the 
counties outside the Reservation is comparable to the rest of eastern 
Montana, North Dakota and South Dakota. With the exception of the 
Missouri River, which is a high quality water source, the groundwater 
supplies of the region are of poor quality with more than 80 percent of 
rural households, that rely on near surface aquifers, exceeding nitrate 
contaminant levels for drinking water. Some of the worst water on the 
North American Continent lies below the Fort Peck Indian Reservation in 
the Madison Formation. This water is not used for human or livestock 
consumption. It is a brine several times more concentrated than sea 
water. Above this unsuitable aquifer are lesser aquifers that have been 
subjected to oil and gas development and have been contaminated, in 
part, by those activities.
    The Poplar River, which flows through the central portions of the 
Fort Peck Indian Reservation and the region is the subject of an 
Apportionment Agreement between Canada and the United States. Half of 
the water supply is available for Canada as measured at the 
International Boundary, and the balance is available for use in the 
United States. Depletion of this resource by agricultural and coal-
fired power generation on the Canadian side increases the 
concentrations of chemicals and contaminants in the supply for the 
United States. The Poplar River and its principle tributaries are 
neither dependable supplies of water nor are they of suitable quality 
for this project. Thus, the Fort Peck Tribes and Dry Prairie are 
seeking a regional water project, comparable to Garrison, WEB, Mni 
Wiconi and Mid-Dakota that rely on the high quality waters of the 
Mainstem Missouri River.
    The feature of this project that makes it more cost effective than 
similar projects is its proximity to the Missouri River. The southern 
boundary of the Fort Peck Indian Reservation is formed by the Missouri 
River for a distance of more than 60 miles. Many of the towns in this 
regional project are located two to three miles from the river, 
including Nashua, Frazer, Oswego, Wolf Point, Poplar, Brockton, 
Culbertson, and Bainville. As shown on the enclosed project map, a 
looping transmission system outside the Fort Peck Indian Reservation 
will deliver water 30 to 40 miles north of the Missouri River. 
Therefore, the distances from the Missouri River to all points in the 
main transmission system are shorter than in other projects of this 
nature in the Northern Great Plains.
    For comparison of water quality of this project with other regional 
projects, please refer to Tables 1 and 2.

   TABLE 1.--COMPARISON OF FORT PECK TOTAL DISSOLVED SOLID LEVELS WITH
                           COMPARABLE PROJECTS
------------------------------------------------------------------------
                                                                Total
                                                              Dissolved
              Project                       Community           Solids
                                                                (mgl)
------------------------------------------------------------------------
Fort Peck..........................  Fort Kipp.............        2,730
Lewis and Clark....................  Upper Limit...........        2,600
Mni Wiconi.........................  Red Shirt.............        2,332
Mni Wiconi.........................  Reliance..............        2,056
Mni Wiconi.........................  Murdo.................        1,761
Mni Wiconi.........................  Kennebec..............        1,740
Mni Wiconi.........................  Presho................        1,398
Fort Peck..........................  Poplar................        1,380
Fort Peck..........................  Frazer................        1,180
Lewis and Clark....................  Lower Limit...........        1,179
Mni Wiconi.........................  Wakpamni Lake.........        1,125
Mni Wiconi.........................  Horse Creek...........          869
Fort Peck..........................  Brockton..............          748
Mni Wiconi.........................  Pine Ridge Village....          416
------------------------------------------------------------------------


    TABLE 2.--COMPARISON OF FORT PECK SULFATE LEVELS WITH COMPARABLE
                                PROJECTS
------------------------------------------------------------------------
                                                               Sulfate
              Project                       Community           (mgl)
------------------------------------------------------------------------
Lewis and Clark....................  Upper Limit...........        1,500
Mni Wiconi.........................  Reliance..............        1,139
Fort Peck..........................  Fort Kipp.............        1,120
Mni Wiconi.........................  Red Shirt.............        1,080
Mni Wiconi.........................  Murdo.................        1,042
Mni Wiconi.........................  Kennebec..............          984
Mni Wiconi.........................  Presho................          644
Lewis and Clark....................  Lower Limit...........          538
Fort Peck..........................  Frazer................          498
Mni Wiconi.........................  Horse Creek...........          410
Mni Wiconi.........................  Wakpamni Lake.........          398
Fort Peck..........................  Brockton..............          212
Fort Peck..........................  Poplar................          103
Mni Wiconi.........................  Pine Ridge Village....           70
------------------------------------------------------------------------

                         APPROPRIATIONS REQUEST

    The Fort Peck Assiniboine and Sioux Tribes respectfully request 
funds to continue planning and begin construction of the Fort Peck 
Reservation RWS, Montana, in the amount of $3,461,000 as set out below:

Fiscal Year 2001 Appropriation Request Fort Peck Assiniboine and Sioux 
MRI System Dry Prairie RWS

Planning and Design Activities:                                   Budget
    Tribal Administration.....................................  $115,160
    Tribal Technology.........................................     7,100
    Dry Prairie Administration................................    61,020
    Environmental Assessment..................................   136,440
    Conceptual Value Engineering/FER..........................   115,590
    Intake Investigation and Value Engin......................    42,960
    WTP Investigation and Value Engineer......................    83,820
    Intake Design.............................................   232,580
    WTP Design................................................ 1,226,205
                    --------------------------------------------------------------
                    ____________________________________________________

      Subtotal................................................ 2,020,875
                    ==============================================================
                    ____________________________________________________
Construction Activities: Intake Construction (50 percent)..... 1,440,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total................................................... 3,460,875

    The Tribes are appreciative of the work by this Subcommittee on the 
project previously. In fiscal year 1993 and fiscal year 1994, $350,000 
were appropriated, and in fiscal year 1997 through fiscal year 1999, 
$810,000 were appropriated for planning purposes.

                          PROPOSED ACTIVITIES

    This project, which includes all of the Fort Peck Indian 
Reservation in Montana and the Dry Prairie portion of the project 
outside the Reservation (see map), was authorized by the full Senate in 
the closing days of the last session. Authorization by the full House 
is anticipated in this session.

Planning and Design Activities--$2,020,875
    The budget request provides $562,090 for planning activities. It 
provides for continued work to amend and complete the Final Engineering 
Report to address both federal and state requirements for the report. 
Value engineering will be performed on the Final Engineering Report in 
an effort to lower costs of the project without diminishing function. 
The budget request provides for completion of the NEPA requirements 
through the preparation of an environmental assessment. No significant 
environmental impacts are expected, and an environmental impact 
statement is not contemplated. This judgment is based upon prior work 
with state and federal agencies in advance of the preparation of the 
environmental assessment.
    The budget request provides $1,458,785 for final design: for final 
design of the intake and treatment plant for this regional drinking 
water project. Alternative analyses will be conducted to ensure that 
the most cost-effective options are adopted.

Construction Activities--$1,440,000
    Finally, the budget request provides $1,440,000 for 50 percent of 
the construction costs of the intake on the Missouri River which will 
deliver raw water to the treatment plant. The budget request is 
consistent with the construction schedule furnished last year to the 
Congressional Budget Office as part of its investigation of the Senate 
bill authorizing the project (S. 624). (See Table 3 for the 
construction schedule).
    The budget includes $272,000 for Reclamation oversight in the 
planning, design and construction activities.

                       STATUS OF PROJECT PLANNING

    The work products completed to date by the Bureau of Reclamation 
include a Needs Assessment and Feasibility Report within the boundaries 
of the Fort Peck Indian Reservation. The Fort Peck Tribes are 
continuing to work with the Bureau of Reclamation to modify and 
complete the Final Engineering Report, incorporating the costs of 
facilities to serve both the Reservation and the Dry Prairie Water 
System outside the Fort Peck Indian Reservation. Environmental baseline 
investigations have been concluded within the Reservation and the Dry 
Prairie areas of the project. The latter investigations are a 
foundation for the environmental assessment
    The Final Engineering Report shows that construction costs of the 
project total $192 million, October 1998. (Previous testimony has 
presented $179 million, October 1995, as the project cost, which is 
equivalent, after indexing, to the amount given here. The current cost 
estimate, however, is based on revisions of costs in fiscal year 1999 
and reconfiguration of the system.) Costs on the Fort Peck Indian 
Reservation will be $124 million with 100 percent federal cost share. 
Construction costs off Reservation in the Dry Prairie area will be $68 
million. The federal cost share in the Dry Prairie area will be $51 
million (76 percent), the State share will be $8.5 million (12 percent 
with an approved mechanism for funding by the Montana legislature) and 
the local share will be $8.5 million (12 percent). The total Federal 
costs will be $175 million (October 1998), less or comparable to 
similar projects in the Northern Great Plains.

                         LOCAL PROJECT SUPPORT

    The State of Montana, by action of its legislature, appropriated 
$62,000 in fiscal year 1997 to provide for a Needs Assessment and cost 
estimate of facilities outside the Reservation in the Dry Prairie part 
of the project. The 1999 Montana Legislature approved an additional 
$182,000 in planning funds for use by Dry Prairie in fiscal year 1999 
and 2000. The needs and facility costs determined for the Dry Prairie 
Water System were incorporated into the Final Engineering Report. In 
addition, the 1999 Montana Legislature approved a funding mechanism 
from its Treasure State Endowment Program to finance the non-federal 
share of project planning and construction. Demonstrating support of 
Montana for the project, there were only three votes against the 
statutory funding mechanism in both the full House and Senate.
    The Fort Peck Tribes have supported the project since 1992 when 
they conceived it and sought means of improving the quality of life in 
the region. The planning was logical step after successful completion 
of an historic water rights compact with the State of Montana. This 
compact was the national ``ice breaker'' that increased the level of 
confidence by other Tribes in Indian water right settlement 
initiatives.
    Dry Prairie support is demonstrated by a financial commitment of 
all 24 communities within the service area to participate in the 
project. Rural support is strong, with about 85 percent of area farms 
and ranches intending to participate as evidenced by their intent fees 
of $100 per household.

ENTERPRISE COMMUNITY DESIGNATION AND NEED FOR WATER QUALITY IMPROVEMENT

    The Clinton Administration designated the Fort Peck Indian 
Reservation as an Enterprise Community, underscoring the level of 
poverty and need for economic development in the region. The success of 
the Enterprise Community designation within the Reservation will be 
questionable without the availability of safe and adequate municipal, 
rural and industrial water supplies that this regional project will 
bring to the Reservation. Outside the Fort Peck Indian Reservation, the 
Dry Prairie area has income levels that are higher than within the 
Reservation but significantly lower than the State average.
    The geologic setting of the Fort Peck Indian Reservation and the 
counties outside the Reservation is comparable to the rest of eastern 
Montana, North Dakota and South Dakota. With the exception of the 
Missouri River, which is a high quality water source, the groundwater 
supplies of the region are of poor quality with more than 80 percent of 
rural households, that rely on near surface aquifers, exceeding nitrate 
contaminant levels for drinking water. Some of the worst water on the 
North American Continent lies below the Fort Peck Indian Reservation in 
the Madison Formation. This water is not used for human or livestock 
consumption. It is a brine several times more concentrated than sea 
water. Above this unsuitable aquifer are lesser aquifers that have been 
subjected to oil and gas development and have been contaminated, in 
part, by those activities.
    The Poplar River, which flows through the central portions of the 
Fort Peck Indian Reservation and the region is the subject of an 
Apportionment Agreement between Canada and the United States. Half of 
the water supply is available for Canada as measured at the 
International Boundary, and the balance is available for use in the 
United States. Depletion of this resource by agricultural and coal-
fired power generation on the Canadian side increases the 
concentrations of chemicals and contaminants in the supply for the 
United States. The Poplar River and its principle tributaries are 
neither dependable supplies of water nor are they of suitable quality 
for this project. Thus, the Fort Peck Tribes and Dry Prairie are 
seeking a regional water project, comparable to Garrison, WEB, Mni 
Wiconi and Mid-Dakota that rely on the high quality waters of the 
Mainstem Missouri River.
    The feature of this project that makes it more cost effective than 
similar projects is its proximity to the Missouri River. The southern 
boundary of the Fort Peck Indian Reservation is formed by the Missouri 
River for a distance of more than 60 miles. Many of the towns in this 
regional project are located two to three miles from the river, 
including Nashua, Frazer, Oswego, Wolf Point, Poplar, Brockton, 
Culbertson, and Bainville. As shown on the enclosed project map, a 
looping transmission system outside the Fort Peck Indian Reservation 
will deliver water 30 to 40 miles north of the Missouri River. 
Therefore, the distances from the Missouri River to all points in the 
main transmission system are shorter than in other projects of this 
nature in the Northern Great Plains.
    For comparison of water quality of this project with other regional 
projects, please refer to Tables 1 and 2.

   TABLE 1.--COMPARISON OF FORT PECK TOTAL DISSOLVED SOLID LEVELS WITH
                           COMPARABLE PROJECTS
------------------------------------------------------------------------
                                                                Total
                                                              Dissolved
              Project                       Community           Solids
                                                                (mgl)
------------------------------------------------------------------------
Fort Peck..........................  Fort Kipp.............        2,730
Lewis and Clark....................  Upper Limit...........        2,600
Mni Wiconi.........................  Red Shirt.............        2,332
Mni Wiconi.........................  Reliance..............        2,056
Mni Wiconi.........................  Murdo.................        1,761
Mni Wiconi.........................  Kennebec..............        1,740
Mni Wiconi.........................  Presho................        1,398
Fort Peck..........................  Poplar................        1,380
Fort Peck..........................  Frazer................        1,180
Lewis and Clark....................  Lower Limit...........        1,179
Mni Wiconi.........................  Wakpamni Lake.........        1,125
Mni Wiconi.........................  Horse Creek...........          869
Fort Peck..........................  Brockton..............          748
Mni Wiconi.........................  Pine Ridge Village....          416
------------------------------------------------------------------------


    TABLE 2.--COMPARISON OF FORT PECK SULFATE LEVELS WITH COMPARABLE
                                PROJECTS
------------------------------------------------------------------------
                                                               Sulfate
              Project                       Community           (mgl)
------------------------------------------------------------------------
Lewis and Clark....................  Upper Limit...........        1,500
Mni Wiconi.........................  Reliance..............        1,139
Fort Peck..........................  Fort Kipp.............        1,120
Mni Wiconi.........................  Red Shirt.............        1,080
Mni Wiconi.........................  Murdo.................        1,042
Mni Wiconi.........................  Kennebec..............          984
Mni Wiconi.........................  Presho................          644
Lewis and Clark....................  Lower Limit...........          538
Fort Peck..........................  Frazer................          498
Mni Wiconi.........................  Horse Creek...........          410
Mni Wiconi.........................  Wakpamni Lake.........          398
Fort Peck..........................  Brockton..............          212
Fort Peck..........................  Poplar................          103
Mni Wiconi.........................  Pine Ridge Village....           70
------------------------------------------------------------------------

                         APPROPRIATIONS REQUEST

    The Fort Peck Assiniboine and Sioux Tribes respectfully request 
funds to begin construction of the Fort Peck Reservation RWS, Montana, 
in the amount of $3,025,000 as set out below:

Fiscal Year 2001 Appropriation Request Fort Peck Assiniboine and Sioux 
MRI System Dry Prairie RWS

Design and Construction Activities:                               Budget
    Intake Design.............................................   232,580
    Intake Investigation and Value Engin......................    42,960
    WTP Investigation and Value Engineer......................    83,820
    WTP Design................................................ 1,226,205
    Intake Construction (50 percent).......................... 1,440,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total................................................... 3,025,565

    The Tribes are appreciative of the work by this Subcommittee on the 
project previously. In fiscal year 1993 and fiscal year 1994, $350,000 
were appropriated, and in fiscal year 1997 through fiscal year 1999, 
$810,000 were appropriated for planning purposes. A request for 
planning funds has been made separately for fiscal year 2001.

                          PROPOSED ACTIVITIES

    This project, which includes all of the Fort Peck Indian 
Reservation in Montana and the Dry Prairie portion of the project 
outside the Reservation (see map), was authorized by the full Senate in 
the closing days of the last session. Authorization by the full House 
is anticipated in this session. The request for construction funds is 
made in contemplation of full authorization of the project in this 
session.
    The budget request provides for final design of the intake and 
treatment plant for this regional drinking water project. Alternative 
analyses will be conducted to ensure that the most cost-effective 
options are adopted.
    The budget request provides for 50 percent of the construction 
costs of the intake on the Missouri River which will deliver raw water 
to the treatment plant. The budget request is consistent with the 
construction schedule furnished last year to the Congressional Budget 
Office as part of its investigation of the Senate bill authorizing the 
project (S. 624). (See Table 3 for the construction schedule).
    The budget includes $272,000 for Reclamation oversight in the 
planning, design and construction activities.

                       STATUS OF PROJECT PLANNING

    The work products completed to date by the Bureau of Reclamation 
include a Needs Assessment and Feasibility Report within the boundaries 
of the Fort Peck Indian Reservation. The Fort Peck Tribes are 
continuing to work with the Bureau of Reclamation to modify and 
complete the Final Engineering Report, incorporating the costs of 
facilities to serve both the Reservation and the Dry Prairie Water 
System outside the Fort Peck Indian Reservation. Environmental baseline 
investigations have been concluded within the Reservation and the Dry 
Prairie areas of the project. The latter investigations are a 
foundation for the environmental assessment
    The Final Engineering Report shows that construction costs of the 
project total $192 million, October 1998. (Previous testimony has 
presented $179 million, October 1995, as the project cost, which is 
equivalent, after indexing, to the amount given here. The current cost 
estimate, however, is based on revisions of costs in fiscal year 1999 
and reconfiguration of the system.) Costs on the Fort Peck Indian 
Reservation will be $124 million with 100 percent federal cost share. 
Construction costs off Reservation in the Dry Prairie area will be $68 
million. The federal cost share in the Dry Prairie area will be $51 
million (76 percent), the State share will be $8.5 million (12 percent 
with an approved mechanism for funding by the Montana legislature) and 
the local share will be $8.5 million (12 percent). The total Federal 
costs will be $175 million (October 1998), less or comparable to 
similar projects in the Northern Great Plains.

                         LOCAL PROJECT SUPPORT

    The State of Montana, by action of its legislature, appropriated 
$62,000 in fiscal year 1997 to provide for a Needs Assessment and cost 
estimate of facilities outside the Reservation in the Dry Prairie part 
of the project. The 1999 Montana Legislature approved an additional 
$182,000 in planning funds for use by Dry Prairie in fiscal year 1999 
and 2000. The needs and facility costs determined for the Dry Prairie 
Water System were incorporated into the Final Engineering Report. In 
addition, the 1999 Montana Legislature approved a funding mechanism 
from its Treasure State Endowment Program to finance the non-federal 
share of project planning and construction. Demonstrating support of 
Montana for the project, there were only three votes against the 
statutory funding mechanism in both the full House and Senate.
    The Fort Peck Tribes have supported the project since 1992 when 
they conceived it and sought means of improving the quality of life in 
the region. The planning was logical step after successful completion 
of an historic water rights compact with the State of Montana. This 
compact was the national ``ice breaker'' that increased the level of 
confidence by other Tribes in Indian water right settlement 
initiatives.
    Dry Prairie support is demonstrated by a financial commitment of 
all 24 communities within the service area to participate in the 
project. Rural support is strong, with about 85 percent of area farms 
and ranches intending to participate as evidenced by their intent fees 
of $100 per household.
enterprise community designation and need for water quality improvement
    The Clinton Administration designated the Fort Peck Indian 
Reservation as an Enterprise Community, underscoring the level of 
poverty and need for economic development in the region. The success of 
the Enterprise Community designation within the Reservation will be 
questionable without the availability of safe and adequate municipal, 
rural and industrial water supplies that this regional project will 
bring to the Reservation. Outside the Fort Peck Indian Reservation, the 
Dry Prairie area has income levels that are higher than within the 
Reservation but significantly lower than the State average.
    The geologic setting of the Fort Peck Indian Reservation and the 
counties outside the Reservation is comparable to the rest of eastern 
Montana, North Dakota and South Dakota. With the exception of the 
Missouri River, which is a high quality water source, the groundwater 
supplies of the region are of poor quality with more than 80 percent of 
rural households, that rely on near surface aquifers, exceeding nitrate 
contaminant levels for drinking water. Some of the worst water on the 
North American Continent lies below the Fort Peck Indian Reservation in 
the Madison Formation. This water is not used for human or livestock 
consumption. It is a brine several times more concentrated than sea 
water. Above this unsuitable aquifer are lesser aquifers that have been 
subjected to oil and gas development and have been contaminated, in 
part, by those activities.
    The Poplar River, which flows through the central portions of the 
Fort Peck Indian Reservation and the region is the subject of an 
Apportionment Agreement between Canada and the United States. Half of 
the water supply is available for Canada as measured at the 
International Boundary, and the balance is available for use in the 
United States. Depletion of this resource by agricultural and coal-
fired power generation on the Canadian side increases the 
concentrations of chemicals and contaminants in the supply for the 
United States. The Poplar River and its principle tributaries are 
neither dependable supplies of water nor are they of suitable quality 
for this project. Thus, the Fort Peck Tribes and Dry Prairie are 
seeking a regional water project, comparable to Garrison, WEB, Mni 
Wiconi and Mid-Dakota that rely on the high quality waters of the 
Mainstem Missouri River.
    The feature of this project that makes it more cost effective than 
similar projects is its proximity to the Missouri River. The southern 
boundary of the Fort Peck Indian Reservation is formed by the Missouri 
River for a distance of more than 60 miles. Many of the towns in this 
regional project are located two to three miles from the river, 
including Nashua, Frazer, Oswego, Wolf Point, Poplar, Brockton, 
Culbertson, and Bainville. As shown on the enclosed project map, a 
looping transmission system outside the Fort Peck Indian Reservation 
will deliver water 30 to 40 miles north of the Missouri River. 
Therefore, the distances from the Missouri River to all points in the 
main transmission system are shorter than in other projects of this 
nature in the Northern Great Plains.
    For comparison of water quality of this project with other regional 
projects, please refer to Tables 1 and 2.

   TABLE 1.--COMPARISON OF FORT PECK TOTAL DISSOLVED SOLID LEVELS WITH
                           COMPARABLE PROJECTS
------------------------------------------------------------------------
                                                                Total
                                                              Dissolved
              Project                       Community           Solids
                                                                (mgl)
------------------------------------------------------------------------
Fort Peck..........................  Fort Kipp.............        2,730
Lewis and Clark....................  Upper Limit...........        2,600
Mni Wiconi.........................  Red Shirt.............        2,332
Mni Wiconi.........................  Reliance..............        2,056
Mni Wiconi.........................  Murdo.................        1,761
Mni Wiconi.........................  Kennebec..............        1,740
Mni Wiconi.........................  Presho................        1,398
Fort Peck..........................  Poplar................        1,380
Fort Peck..........................  Frazer................        1,180
Lewis and Clark....................  Lower Limit...........        1,179
Mni Wiconi.........................  Wakpamni Lake.........        1,125
Mni Wiconi.........................  Horse Creek...........          869
Fort Peck..........................  Brockton..............          748
Mni Wiconi.........................  Pine Ridge Village....          416
------------------------------------------------------------------------


    TABLE 2.--COMPARISON OF FORT PECK SULFATE LEVELS WITH COMPARABLE
                                PROJECTS
------------------------------------------------------------------------
                                                               Sulfate
              Project                       Community           (mgl)
------------------------------------------------------------------------
Lewis and Clark....................  Upper Limit...........        1,500
Mni Wiconi.........................  Reliance..............        1,139
Fort Peck..........................  Fort Kipp.............        1,120
Mni Wiconi.........................  Red Shirt.............        1,080
Mni Wiconi.........................  Murdo.................        1,042
Mni Wiconi.........................  Kennebec..............          984
Mni Wiconi.........................  Presho................          644
Lewis and Clark....................  Lower Limit...........          538
Fort Peck..........................  Frazer................          498
Mni Wiconi.........................  Horse Creek...........          410
Mni Wiconi.........................  Wakpamni Lake.........          398
Fort Peck..........................  Brockton..............          212
Fort Peck..........................  Poplar................          103
Mni Wiconi.........................  Pine Ridge Village....           70
------------------------------------------------------------------------

                                 ______
                                 

         Prepared Statement of the City of Marshall, Minnesota

    Chairman Domenici and Members of the Appropriations Subcommittee, I 
appreciate the opportunity to submit this testimony on behalf of the 
City Council and the citizens of Marshall, Minnesota. We are requesting 
$1.312 million in Federal funds for the construction of the final Stage 
of the flood control project authorized in the Water Resources 
Development Act of 1986. This is the funding level that the U.S. Army 
Corps of Engineers has determined is necessary to complete the work on 
the Marshall, Minnesota Flood Control Project in fiscal year 2001. The 
Assistant Secretary of the Army (Civil Works) has ask Congress to 
provide the $1.312 million for the Marshall project in his Budget 
Request for the U.S. Army Corps of Engineers for fiscal year 2001.
    The Conference Committee designated $2.275 million for the Marshall 
project in the fiscal year 2000 Appropriations Bill. The City of 
Marshall has allocated cash funds of $1 million to the project, 
financed the dredging and reconstruction work required on the diversion 
channel at a cost of $350,000, and purchased property and easements at 
a cost of about $1 million. The Minnesota State Legislature has 
appropriated funds totaling $1.5 million toward the completion of the 
flood control project at Marshall.
    This funding enabled 80 percent of the project construction to be 
completed. The physical structures are in place, levees have been 
constructed, the river bank protection and erosion control work is 
done, and the channel work completed. All the necessary property and 
easements have been purchased by the City. The diversion channels were 
dredged at the City's costs to assure free flowing during overflow 
conditions. The diversion channels have been enlarged and the gates 
either repaired or replaced. The Ditch 62 project has been completed 
which provides for the storm water collection system for about 60 
percent of the City. Bids for the remainder of the project have been 
advertised and were awarded in April, 1999.

     WORK TO BE COMPLETED IN FISCAL YEAR 2000 AND FISCAL YEAR 2001

    The remaining work to be completed with fiscal year 2001 funding is 
extremely important to the citizens of Marshall and to the agriculture 
enterprises in both the Cottonwood and the Redwood River Basin 
Watershed Districts. This construction work deals with the structures, 
including three large box culverts and a overflow wier, that simulates 
the natural current flows over Highway 23 during flood conditions.
    The current project is designed to maintain current intra-basin 
flood flow conditions to assure that there will be no adverse impacts 
downstream in either the Redwood or Cottonwood Basins as a result of 
the flood control project. A flow distribution study was conducted in 
1987 to analyze the intra-basin flows. This study was followed by UNET 
modeling in 1997, which supported the position that there would be no 
significant downstream impacts from the flood control project when the 
project is completed.
    Other work remaining to be completed includes landscaping, some 
interior drainage, and multi-use trails and recreational paths along 
the diversion channels.

                         FLOW AGREEMENT SIGNED

    A major issue was resolved in the Marshall Flood Control Project 
regarding the flow rate of the Redwood River during major flood 
conditions. A portion of the Redwood River basin waters are diverted 
into the Cottonwood River basin. The project requires that historic 
overflows are maintained between the two watershed districts. After 
numerous public meetings, a flow distribution agreement was executed on 
February 22, 1998, by the City of Marshall, Lyon County, the State of 
Minnesota, and the Corps of Engineers.

                    PROJECT LOCATION AND DESCRIPTION

    The project is located in Lyon County in the Southwest corner of 
the State of Minnesota, about 145 miles southwest of St. Paul. It is 
near the center of the Redwood River basin. Southwest State University, 
the business district, and most of the homes of the nearly 13,000 
citizens are located in the floodplain of the Redwood River. Marshall 
serves as the county seat of Lyon County, and is the commercial and 
agricultural center for the region.
    The Redwood River, a tributary of the Mississippi, enters the 
southwest corner of the City, winds its way through the City, exiting 
at the northeast boundary near the University campus. The Redwood River 
basin serves an elongated drainage area of approximately 743 miles.
    The river's elevation drops at the significant rate of 19 feet per 
mile until it reaches the City. There the river slope flattens out to 
an average of about 4 feet per mile. The lack of a confining valley, 
and the reduction in grade on the plain, contributes significantly to 
overland flooding in the Marshall area. The geological decline in the 
elevation in the 50 miles from the watershed area to the City of 
Marshall is greater than the Mississippi River elevation decline from 
Minneapolis to New Orleans (See Attachment.)
    A federally constructed flood control project was completed in 
1963. While it is successful in protecting much of the City during 
frequent, smaller floods, the upstream and downstream channels were not 
effective during major flood events. At those times, the Redwood River 
overflows a county highway, bypasses the diversion control structure, 
and floods the inter city area.
    The project is designed to protect the City of Marshall from major 
flood events. Briefly, the authorized plan calls for channel 
improvements, drainage facilities, the construction of 4.7 miles of 
additional levees, 3.8 miles of bank protection, 0.3 miles of new high-
flow diversion channel, an inter basin overflow structure, 
modifications to the existing diversion channel and drop structures, 
and limited recreation trails, picnic and rest area facilities.

                 PROJECT AUTHORITY, FUNDING, AND STATUS

    The Marshall Flood Control Project was authorized in the Water 
Resources Development Act of 1986, and reauthorized in the Water 
Resources Act of 1988. Funds were allocated in fiscal year 1984 to 
initiate preconstruction engineering and design work. The total project 
is estimated to cost $10.9 million of which Federal costs are estimated 
to be $8.01 million, and non-Federal costs of $2.89 million.
    The non-Federal costs have been provided through the State flood 
mitigation grant program, and by bonding by the City of Marshall. The 
Design Memorandum and Environmental Assessment were completed and 
approved in 1987.

Summarized Federal Financial Data

Estimated Federal Cost........................................$8,010,000
Estimated non-Federal Cost.................................... 2,890,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total Project Cost......................................10,900,000
                    ==============================================================
                    ____________________________________________________
Federal Allocations to Date................................... 6,698,000
Balance of Federal funds to Complete Project.................. 1,312,000
                    ==============================================================
                    ____________________________________________________
Benefit-cost Ratio (8 percent)................................      1.10

                           PROJECT BACKGROUND

    Water and land related problems in the Minnesota River basin were 
first investigated by the St. Paul District Engineer in 1934, but his 
study did not address the flooding and related problems in Marshall. In 
1960, after the severe floods of 1957, improvements were recommended by 
the Corps which included the construction of levees and a floodwater 
diversion channel.
    This flood control project was completed in 1963, by the U.S. Army 
Corps of Engineers to, ``provide protection for the people and property 
of Marshall from the frequent flood risks.'' The major feature of the 
project was a 2.4 mile diversion channel around the west and north 
sides of the City, a 1,840 foot levee at the upstream end of the 
project, and other features. The channel was designed to handle a 6,500 
CFS flow. The overflow, then, would move naturally into the Cottonwood 
River Watershed south of Marshall.
    In 1969, a flood of 8,090 CFS was experienced in Marshall. The 
river channel both upstream and downstream from Marshall was inadequate 
to convey the 1963 design flows either to or from the diversion 
channel. At flows greater than 3,500 CFS, floodwaters bypass the 
diversion channel and flood the inner City of Marshall.
    As a result of the failure of the 1963 flood control project to 
protect the City, other studies were conducted by a private engineering 
firm under the direction of the Corps in 1974. The Corps completed a 
flood control report in 1976, and a feasibility study in 1979. This 
report was updated by a reevaluation of the problems in 1984. The 
current project was then authorized in the 1986 Water Resources 
Development Act. It is important to note that the project as 
constructed in 1963, has worsened the potential of flooding for the 
City. The rate of flow is not adequate to move the flood waters through 
the diversion channel, and other problems.
    The three ``Holiday Floods of 1993'' (Mother's Day, Father's Day 
and Independence Day) occurred at both ends of the diversion channel, 
causing hundreds of thousands of dollars in damages to homes, 
businesses, and the City's infrastructure. As the water levels remained 
at flood stage throughout the summer, it created an atmosphere of fear 
and unrest among the citizens of Marshall.
    In 1995, the Redwood River was again flowing at capacity, and the 
City of Marshall narrowly avoided a disaster worse than the floods of 
either 1969 or 1993. From 9 to 15 inches of rain fell near Montevideo, 
Minnesota, less than 40 miles from the Redwood Watershed District.
    If the storm had moved only a few miles to the southwest, the flood 
waters would have engulfed the City at a rate of 8,000 to 12,000 cubic 
feet of water per second. This is a much greater water overflow than 
that which occurred in the disastrous flooding of 1969, and as much as 
three times greater than the 1993 floods.
    The District Office of the Corps of Engineers provided estimates 
stating that the City would have incurred millions in property damage, 
and that flash flooding of this nature could well have resulted in the 
loss of lives. Corps officials stated that flash flooding of this 
magnitude would have made most emergency measures futile. As a result 
of the flat terrain in and around the City, and much of the Marshall 
community would have been under water.

            CORPS SCHEDULE FOR MARSHALL FLOOD CONTROL PROJECT
------------------------------------------------------------------------
                                                   Beginning  Completion
                     Activity                         date       date
------------------------------------------------------------------------
Plans & Specs Initiated..........................    2/28/96   Complete.
Plans and Specs Submitted........................    2/28/98   Complete.
Plans & Specs Approved...........................    3/31/98   Complete.
Real Estate Acquisition..........................   12/31/98   Complete.
Certification of Real Estate.....................    1/15/99   Complete.
Construction Contract Advertised.................    2/24/99   Complete.
Construction Contract Awarded....................    3/24/99    3/24/99.
Construction Contract Completion.................    3/24/99     4/6/99.
Construction Stage 2 Completion..................    4/25/99   11/30/01.
------------------------------------------------------------------------

                  COUNTY DITCH NO. 62 DRAINAGE SYSTEM

    In addition to the Marshall Flood Control Project, the overall 
protection of the City required the reconstruction and modification of 
the storm sewer drainage system. The examination of the drainage 
problems was acknowledged in the General Design Memorandum developed by 
the Corps for Marshall, but is not included, nor is it a part of the 
funding of this project.
    County Ditch No. 62 serves as the storm sewer drainage system for 
about 60 percent of the City's corporate limits. The Ditch extends 
along the northeast part of the City, in close proximity to the levee 
construction required for the Corps flood control project, and feeds 
into the Redwood River. With the growth of the community, and the 
development of property and the University campus, since the 
construction of the Ditch in 1958-1959, the flooding problems in the 
City have been exacerbated by the lack of drainage and poor water 
movement in a system that is no longer adequate for the community. 
Construction was completed in 1998.
    The City of Marshall, in cooperation with Lyon County and the State 
of Minnesota, a comprehensive storm water system was planned, designed, 
and jointly funded by FEMA, the State of Minnesota, Lyon County and the 
City governments at a total cost of slightly more than $3 million. 
There are elements of the Storm Sewer/Ditch Project that are closely 
associated with the Flood Control Project.

                  FINAL CONSTRUCTION AND FUNDING NEEDS

    The Corps of Engineers has awarded a bid for construction work that 
includes fiscal year 1999, fiscal year 2000, and fiscal year 2001. 
Funds appropriated by this Committee in fiscal year 1999 and fiscal 
year 2000, and non-Federal funds have allowed the Corps to move ahead 
aggressively with plans to complete the project in December, 2000. An 
appropriation of the $1.312 requested by both the Army Corps of 
Engineers and City is necessary for this schedule to be maintained.
    It has been noted by City officials that as soon as construction 
work begins, some citizens are lulled into a sense of false security. A 
number of homeowners have called the City asking to drop their costly 
flood insurance, assuming their homes are protected by the unfinished 
flood control project. Delays in the completion of the project results 
in a lack of preparation and a state of readiness by some citizens. 
These are the precautions and preparations that have prevented major 
disasters during past flood events.
    For these reasons, we respectfully request this Subcommittee to 
appropriate $1.312 million of Federal funds in the fiscal year 2001 
Appropriations Act to complete the work on the Marshall Flood Control 
Project. The Committee's favorable response to this request will 
prevent any delays affecting the completion of the project, and avoid 
any cost overruns over that inevitably occur when construction is 
delayed as a project is nearing completion.
    Thank you for the opportunity to bring this important matter to 
your attention through this statement. I will be delighted to respond 
to any questions you may have about the project.
                                 ______
                                 

         SOUTHEASTERN U.S. WATER RESOURCE DEVELOPMENT PROJECTS

Prepared Statement of the Coosa-Alabama River Improvement Association, 
                                  Inc.

    Mr. Chairman & distinguished Committee members: This statement 
includes the following:
  --A plea to recognize and maintain our Nation's inland waterways 
        system as a vital part of the national transportation 
        infrastructure;
  --A request for support in the following areas:
    --O&M funding for federal projects in the Coosa-Alabama Basin and 
            Mobile Harbor;
    --Funding for update of economic benefits for the Coosa River 
            Navigation Project;
    --Funding to rehabilitate Mayo's Bar Lock and Dam on Coosa River;
    --Funding to maintain recreational facilities and hydropower 
            operations at Allatoona Lake;
    --Supporting the Alabama Sturgeon Candidate Conservation Agreement 
            developed by a coalition of government and industry in 
            Alabama.

                           EXPANDED STATEMENT

    Thank you for the opportunity to present my perspective on several 
topics relating to our Nation's waterways system in general, and to the 
Coosa-Alabama River Basin in particular. As President of the Coosa-
Alabama River Improvement Association, I speak for a large and diverse 
group of private citizens and political and industrial organizations 
that sees the continued development of the Coosa-Alabama Waterway as an 
opportunity for economic growth in our region as well as the Nation.
    Our membership reflects a broad range of callings and professions, 
including shippers and tow operators, businessmen, bankers and private 
individuals who have a stake in future economic development for their 
firms and successors to enjoy. Then there is a larger group of elected 
officials and their constituents typical of the twenty-three 
municipalities and nineteen counties along the waterway who are members 
of this association. Spurred by a desire to promote economic growth 
through enhanced waterway transportation, these members work diligently 
to develop our waterways into a productive part of the river 
infrastructure of the State and Nation.
    We are concerned about the deteriorating waterway infrastructure 
throughout the nation. Our inland waterways are vital to this Nation's 
welfare. America's ports, navigable waterways, flood protection, water 
supply, environmental restoration, hydroelectric, and other water 
resource programs enhance economic development, national security, and 
general well being. These programs serve the national interest in 
countless ways, returning far more in public benefits than they cost. A 
top-notch navigation system, able to meet the demands of both domestic 
and international commerce, is a driving force behind the national 
economy, transporting annually almost 15 percent of the nation's 
commodities, one out of every eight tons. The waterways are vital to 
our export and import capability, linking our producers with consumers 
around the world. It is incumbent upon the Federal Government to 
maintain and improve this valuable national asset. Therefore, we ask 
Congress to appropriate enough funds for required maintenance and 
construction to keep the waterways the economic multiplier it is. The 
Civil Works budget in fiscal year 2001 must be approximately $5 billion 
to maintain the system and allow for modest growth. The Federal 
government must commit to improve the waterways infrastructure or risk 
serious economic consequences and jeopardizing large public benefits.
    Some think tanks advocate turning the Corps of Engineers' Civil 
Works Program over to state or private managers. We disagree with that 
idea. Having one agency responsible for maintaining water projects on 
the Alabama River, for example, provides benefits that can't be 
measured in dollars and cents. Security, responsiveness and historical 
knowledge are incalculable to users of the river. The Corps' experience 
is a public investment. The O&M funding appropriated annually is a 
public investment. Slashing that investment does not automatically 
translate into private prosperity.
    We are concerned that any budget strategy that reduces funding for 
the operations and maintenance of inland and intracoastal waterways 
will have a detrimental effect on the economic growth and development 
of the river system. We cannot allow that to happen. In the Alabama-
Coosa River Basin, we must be able to maintain the existing river 
projects and facilities that support the commercial navigation, 
hydropower and recreational activities so critical to our region's 
economy. The first priority then must be the O&M funding appropriated 
to the Corps of Engineers to maintain those projects. Budget requests 
for the individual projects follow:


------------------------------------------------------------------------
                                            President's    Association's
                 Project                      budget      budget request
------------------------------------------------------------------------
Alabama-Coosa River, AL \1\ (AL River         $5,355,000      $5,355,000
 incl Claiborne L&D)....................
Miller's Ferry L&D......................       4,999,000       4,499,000
Robert F. Henry L&D.....................       4,962,000       4,962,000
Lake Allatoona, GA......................       4,520,000       6,000,000
Carters Lake, GA........................       7,489,000       7,489,000
Lower Alabama River Study (South of              200,000         200,000
 Claiborne) feasibility study...........
Coosa River Navigation Project..........  ..............         150,000
Mayo's Bar..............................  ..............         500,000
                                         -------------------------------
      Totals............................      27,525,000      29,155,000
------------------------------------------------------------------------
\1\ Includes dredging from the mouth of the Alabama River through
  Claiborne L&D to Miller's Ferry. Coosa River not included.


    We also support funding O&M for Mobile Harbor at $18,665,000. We 
cannot allow Mobile Harbor infrastructure to deteriorate because not 
enough funds were appropriated.
    To attract new business into the Alabama River Basin, we must 
improve the infrastructure of the river itself, specifically the 
navigational reliability below Claiborne Dam. Increased reliability is 
the only way prospective investors will entertain establishing an 
industry that uses river transportation. The Corps of Engineers 
currently maintains 65-70 percent reliability through training dikes, 
reservoir management, and dredging. Of these measures, dredging is the 
most effective, but we can do more.
    The most affordable and most environmentally friendly solution to 
increasing navigation reliability on the Lower Alabama River is to 
improve the training dikes. Mobile District is in the middle of a 
feasibility study to determine the interest of the Federal Government 
in such a project. Without an improvement in the navigation reliability 
on the Lower Alabama River, we cannot hope to attract new river-related 
industry into the Basin. We ask Congress to appropriate $200,000, as 
requested in the President's Budget, to continue the feasibility study 
already underway.
    A major objective of our association is to complete a navigable 
waterway from Mobile to Rome, Georgia, which reflects our emphasis on 
infrastructure investment and the creation of jobs and economic 
opportunity throughout our region. The Pre-design Engineering Surveys 
of the Coosa River Navigation Project are complete, so one of the most 
time-consuming requirements of the project is done. We are well aware 
of the restrictive funding for such an undertaking in the current 
environment, but ask the Committee to recognize that a Coosa-Alabama 
waterway would be one of the largest and most rapid generators of jobs 
currently available. We owe it to the people of the Coosa-Alabama River 
Basin, the states of Alabama and Georgia, and the entire region to 
maintain the vision of completing this waterway, particularly because 
of its recreational potential. We need, however, to update some of the 
economic database supporting the proposal. We ask that $150,000 be 
appropriated to allow the Mobile District of the U.S. Army Corps of 
Engineers to update the economic evaluation of the Coosa River 
Navigation Project.
    Recreation has become a major economic factor on our waterways. 
Boating, fishing, swimming, and camping have become an indispensable 
economic tool for many of our lake and river communities. Two projects, 
one private and one federal, in the Upper Coosa River Basin need 
federal funding to enhance the ability of communities in those areas to 
take advantage of the recreational benefit: Mayo's Bar near Rome and 
Lake Allatoona.
    Mayo's Bar Lock and Dam, eight miles downstream of Rome, Georgia, 
on the Coosa River, is an old federal project constructed in 1913 as 
part of an overall plan to provide navigation from Wetumpka, Alabama, 
to Rome. The project was abandoned in 1931. The site of the facility is 
currently operated as a recreational facility. The lock, however, is 
unusable as no maintenance has been performed on it since the 1930's. 
Floyd County, Georgia officials plan to restore and operate the lock to 
facilitate recreational boat traffic from Rome to Cedar Bluff and 
Centre, Alabama through Lake Weiss, 57 miles downstream. A 1988 study 
by the Corps of Engineers found the cost of rehabilitating the lock to 
be feasible. Cost of the project today is estimated at $3 million. 
Section 528 of the Water Resources Development Act of 1999 authorized 
the Corps of Engineers to ``provide technical assistance (including 
planning, engineering, and design assistance)'' for reconstruction of 
Mayo's Bar Lock and Dam. Floyd County is prepared to share the costs of 
the rehabilitation on a 50/50 basis. Of the $1.5 million estimated 
total Federal cost of the project, $500,000 is needed in fiscal year 
2001 for engineering and design. We strongly urge the Committee provide 
funding to get this valuable economic asset underway to the benefit of 
the northwest Georgia and northeast Alabama.
    At Lake Allatoona, funding for the Corps of Engineers to maintain 
recreational facilities has been cut well below the level needed to 
keep the project fully functional. The President's Budget for 2001 
proposes $837,000 for Lake Allatoona recreation, a reduction of $2.276 
million from the fiscal year 2000 allocation. That money needs to be 
reinstated. Otherwise, Mobile District will have to close some camping 
facilities, shorten the time other facilities are open by two months, 
delay necessary maintenance tasks, and perhaps even reduce payroll, 
resulting in an economic loss of over $27 million in 2001. Lake 
Allatoona is the second most-visited lake in the United States. We 
would be remiss to allow that kind of economic downturn because not 
enough money has been appropriated to ensure facilities are maintained. 
We ask that Corps funding for Allatoona Lake recreation be increased 
from $837,000 in the President's Budget to $2.22 million, resulting in 
a total project allocation of $6,000,000.
    In addition to helping resolve the funding shortfall for 
recreation, reinstating Allatoona funding to its historic levels of $6 
million in fiscal year 2001 will enable the Mobile District to begin 
the process to replace an outdated, over-30-years old microwave system 
at the generating plant. The microwave system allows the Corps to 
control the Allatoona plant remotely from Carters Lake. The Corps can 
no longer procure spare parts for the system and is operating on a 
breakdown maintenance concept only, which means that the only time 
maintenance can be performed is when the generator is down. That 
translates into higher costs for consumers as Southeastern Power 
Administration must then purchase power at a higher cost from other 
sources.
    The last issue I wish to address is a plea based on our experiences 
over the past several years with attempts by the Fish and Wildlife 
Service to list the Alabama Sturgeon as endangered under the Endangered 
Species Act of 1973. In December of 1994, the Secretary of Interior, 
Mr. Bruce Babbitt, decided not to list the Alabama Sturgeon, citing a 
lack of scientific evidence that the fish was a separate and distinct 
species or even currently existed in the habitat scrutinized. Now, the 
Fish and Wildlife Service sees fit to again propose listing the fish, 
despite a clear alternative to saving the fish that has been underway 
for several years now, an alternative outside the confining 
restrictions of the Endangered Species Act.
    A coalition of government and industry has developed a Candidate 
Conservation Agreement (CCA), a legal agreement allowed under the 
Endangered Species Act, that has strong potential to propagate the 
Sturgeon population in the Mobile River Basin. The State of Alabama, 
charged with the execution of a previously developed voluntary Sturgeon 
Conservation Plan, currently has two sturgeons in a hatchery in Marion, 
Alabama. Congress has appropriated over one million dollars to this 
effort so far. The CCA is the only plan conceived that has even a 
remote chance of successfully propagating young sturgeon. Listing the 
fish as an endangered species under the ESA means the sturgeon would 
have to compete with other listed species for money to complete a 
recovery plan, jeopardizing funding already available as well as the 
work done on the Conservation Plan to this point. We strongly support 
the Candidate Conservation Agreement as an example of the compromise 
required in the environment-economic debate. We ask the Congress to 
fully fund and support the Candidate Conservation Agreement as the best 
way to save sturgeon in the Mobile River Basin.
    In summary, we request your support in the following areas:
  --Sufficient O&M funding of the U.S. Army Corps of Engineers Civil 
        Works budget to maintain and enhance the U.S. inland waterways 
        system, including the Coosa-Alabama River Basins and Mobile 
        Harbor;
  --Funding for investigating the feasibility of improving the 
        reliability of the navigation channel below Claiborne Dam on 
        the Lower Alabama River;
  --Funding an updated economic analysis of the Coosa Navigation 
        Project;
  --Funding federal share for planning and design of the rehabilitating 
        Mayo's Bar Lock and Dam on the Coosa River near Rome, Georgia;
  --Increasing the appropriation to support recreational upkeep and 
        hydropower maintenance on Lake Allatoona;
  --Supporting the Candidate Conservation Agreement for the Alabama 
        sturgeon as developed through the cooperative efforts of 
        government and industry in Alabama.
    Thank you for allowing us to submit this testimony and for your 
strong support of the Nation's waterways.
                                 ______
                                 

                   Letter From Phillip A. Sanguineeti

                                         The Anniston Star,
                                       Anniston, AL, March 8, 2000.
Hon. Pete V. Domenici,
Senate Subcommittee on Appropriations for Energy and Water Development,
U.S. Senate Washington, D.C.
    Dear Pete: I am writing to seek your support of the Coosa-Alabama 
River Improvement Association's request for an appropriation from the 
State General Fund in fiscal year 2001.
    As a member of the Board of Directors for the Association, I 
strongly endorse its mission of promoting the development of the Coosa 
and Alabama Rivers for the benefit of the state. CARIA is the only 
organization in our State that annually works for funding of federal 
projects on those rivers.
    In the water allocation negotiations between Alabama and Georgia, 
CARIA has been the primary advisor to Alabama's negotiators on 
navigation issues in the Alabama-Coosa-Tallapoosa basin.
    I support the Association's request for $150,000 to continue 
authorization for planning, engineering and design for the Coosa River 
Navigation Project. I also support the Association's request for an 
add-on of $500,000 for Corps of Engineers planning and design at Mayo's 
Bar near Rome, Ga.
    I also support the efforts of Alabama and Georgia to agree on a 
water allocation formula between the two states, but I do not support a 
formula that negatively affects the ability of Mobile District Corps of 
Engineers to maintain a nine-foot navigation on the Alabama River, or 
that seriously impedes the State of Alabama in developing its economic 
potential.
            Very truly yours,
                                   Phillips A. Sanguineeti,
                                                         President.
                                 ______
                                 

           Prepared Statement of the Monroe County Commission

    The Monroe County Commission, Monroe County, Alabama, respectfully 
request your support of the U.S. Army Corps of Engineers' fiscal year 
2001 budget for funding to operate and maintain Water Projects in the 
Alabama-Coosa River Basin. The amount that we are asking you to approve 
is $28.175 million, in addition to the President's Budget for fiscal 
year 2001 in the amount of $18.665 million for Mobile Bay.
    Projects to be funded in this request include the improvement and 
extension of the Coosa-Alabama Waterway Systems. Navigational 
reliability below the Claiborne Lock & Dam is essential to accommodate 
Navigation to Mobile; this entails maintaining, improving and dredging 
of the River. Also included in this request is $150,000.00 to continue 
authorization for planning, engineering and design for the Coosa-
Alabama Project, so, that eventually, commercial navigation will be 
possible from Rome, Georgia to the Port of Mobile. Also included in 
this request is $500,000.00 for the Corps of Engineers, planning and 
design at Mayo's Bar near Rome, Georgia.
    The Monroe County Commission further supports the efforts of the 
State of Alabama and Georgia to agree on a water allocation formula 
between the two states that will not adversely affect industrial 
development along the Coosa-Alabama River Systems in Alabama nor 
negatively affect the operations of existing industry, commerce and 
development along this River System. We do not support a water 
allocation that will negatively affect the ability of Mobile District 
Corp of Engineers to maintain a nine foot navigational Channel on the 
Alabama River.
    Your favorable consideration of the fiscal year 2001 budget request 
is essential to the Economic Development of the Southeastern part of 
the United States.
                                 ______
                                 

             Prepared Statement of the City of Metumpka, AL

    We support the Coosa-Alabama River Improvement Association's 
funding request for fiscal year 2001, especially the $150,000 to 
continue the authorization for planning, engineering, and design for 
the Coosa River Navigation Project (CRNP). An updated analysis can 
verify that the advantages established in 1945 remain viable some 55 
years later.
    Environmental friendly transportation and improved recreational 
facilities are important for today's society. The waters of the Coosa 
River, which flow through the middle of Wetumpka, provide an asset that 
can continue to enhance the entire area.
    There are many benefits for the CRNP project. Locks around Bouldin, 
Mitchell, Lay, Logan, and Neely Henry dams would provide a major 
economic boost for the surrounding territory and southward to Mobile. A 
navigable channel from Gadsden to Wetumpka and Montgomery and on to 
Mobile would open vast waterway potentials.
    We support and endorse all regional efforts to improve and extend 
the Coosa-Alabama Waterway and the priorities of the Coosa-Alabama 
River Improvement Association.
                                 ______
                                 

           Prepared Statement of the City of Rainbow City, AL

    I am writing to you as a member of the Board of Directors of Coosa-
Alabama River Improvement Association. I have been active with this 
Association for many years and believe it is vital to this area to keep 
these projects alive. I am asking for your support on the following 
items:
  --You support the Association's funding request for fiscal year 2001.
  --You support the regional effort to improve and extend the Coosa-
        Alabama Waterway.
    --Need to improve the navigational reliability below Claiborne Dam
    --Need to maintain and improve training works and dredging
      --LDevelopment of commercial river transportation between Mobile 
            and Montgomery depends on these improvements
    --You support the Association's request for $150,000 to continue 
            authorization for planning, engineering, and design for the 
            Coosa River Navigation Project (see encl)
  --You support the Association's request for an add-on of $500,000 for 
        Corps of Engineers planning and design at Mayo's Bar near Rome 
        (see encl)
  --You support the efforts of Alabama and Georgia to agree on a water 
        allocation formula between the two states, but could not 
        support a formula that negatively affects the ability of Mobile 
        District Corps of Engineers to maintain a nine-foot navigation 
        channel on the Alabama River or that seriously impedes the 
        State of Alabama in developing its economic potential.
    In addition, we support funding in the President's Budget of 
$18,665 million for Mobile Bay.
    I strongly urge your consideration in this matter.
                                 ______
                                 

              Prepared Statement of the City of Selma, AL

    All of the various organizations in Selma and Dallas County 
involved in industry seeking, as well as the Mayor, City Council, 
County Probate Judge, and the County Commission wish to convey our 
support of the Coosa-Alabama River Association's funding request for 
fiscal year 2001. Our area is not served by an interstate highway; if 
fact we don't even have a four-lane highway to the south. We strongly 
recommend the need to improve and extend the Coosa-Alabama Waterway in 
order to develop and maintain commercial river transportation between 
Mobile and Montgomery.
    We must maintain the navigational reliability below the Claiborne 
Dam and the dredging and training works are a vital part of this 
effort.
    We also have discussed and support the request for an add-on of 
$500,00 for the planning and design at Mayo's Bar near Rome, GA and 
strongly urge the Association's request for $150,000 to continue 
authorization for the Coosa River Navigation Project which would link 
Montgomery and Gadsden. These additional monies would allow the 
planning, design, and engineering only for this project, which, on 
completion, would be a great incentive to new industry and help 
maintain competitive rates from both rail and truck companies. We must 
have federal funding now to maintain the authorization of the project.
    With the improvements at the Port of Mobile, water transportation 
on this river system to the world wide export markets that have been 
and are being developed will have a tremendous affect on freight rates 
and eventually inflation.
    We need this legislation and funding to help our area survive in 
this changing world economy.
    Thank you for your help and consideration.
                                 ______
                                 

                      Letter From James T. Jordan

                                  J.T. Jordan Cotton, Inc.,
                                         Centre, AL, March 8, 2000.
Hon. Pete V. Domenici,
Senate Subcommittee on Appropriations for Energy and Water Development,
Washington, DC.
    Dear Senator Domenici: This letter is to let you know that I 
wholeheartedly support the need to improve the navigational reliability 
below Claiborne Dam. I also support the need to maintain and improve 
training works and dredging. The development of commercial river 
transportation between Mobile and Montgomery depends on these 
improvements. I ask that you give serious consideration to putting 
funds for this in the fiscal year 2001 budget.
    I would also like to see Congress support additional funding for 
two river projects in the Alabama-Coosa River Basin. We ask that 
congress appropriate $150,000 for continuing the authorization for the 
Coosa River Navigation Project. Another request is that an add-on of 
$500,000 for the Corps of Engineers planning and design of Mayp-s Bar 
near Rome. Mayo's Bar would be a strong tourist attraction to our area 
because we can attract many to this area because of the fishing and 
boating we have to offer.
    One last point is that we need lowered freight rates. This provides 
a better export market and would help the trade business tremendously.
    Please give serious thought and consideration to funding these 
projects.
            Sincerely,
                                           James T. Jordan,
                                                          Director.
                                 ______
                                 

       Prepared Statement of the Alabama River Pulp Company, Inc.

    Alabama River Pulp Company respectfully requests your support of 
the U.S. Army Corps of Engineers' fiscal year 2001 budget for funding 
to operate and maintain Water Projects in the Alabama-Coosa River 
Basin. The amount that we are asking you to approve is $28.175 million, 
in addition to the president' Budget for fiscal year 2001 in the amount 
of $18.665 million for Mobile Bay.
    Projects to be funded in this request include the improvement and 
extension of the Coosa-Alabama Waterway Systems. Navigational 
reliability below the Claiborne Lock & Dam is essential to accommodate 
Navigation to Mobile; this entails maintaining, improving and dredging 
of the River. Also included in this request is $150,000.00 to continue 
authorization for planning, engineering and design for the Coosa-
Alabama Projects, so, that eventually, commercial navigation will be 
possible from Rome, Georgia to the Port of Mobile. Also included in 
this request is $500,000.00 for the Corps of Engineers' planning and 
design at Mayo's Bar near Rome, Georgia.
    Alabama River Pulp Company further supports the efforts of the 
State of Alabama and Georgia to agree on a water allocation formula 
between the two states that will not adversely affect industrial 
development along the Coosa-Alabama River Systems in Alabama nor 
negatively affect the operations of existing industry, commerce and 
development along this river system. We do not support a water 
allocation that will negatively affect the ability of Mobile District 
Corp of Engineers to maintain a nine foot navigational Channel on the 
Alabama River.
    Your favorable consideration of the fiscal year 2001 budget request 
is essential to the Economic Development of the Southeastern part of 
the United States.
                                 ______
                                 

            Prepared Statement of the City of Rome, Georgia

    The City of Rome has been a strong supporter of the Coosa-Alabama 
River development projects. We strongly support navigational use of the 
river basin as well as recreation and environmental purposes.
    We strongly support the $500,000 request for the Corps of Engineer 
for planning and design at Mayo's Bar near Rome. For many years, we 
have worked to reactivate the lock and make the river system in Rome a 
part of Lake Weiss for recreational purposes. The historic and 
recreational value for this project is very much supported by our 
community. Significant local funds are being contributed to this 
project and the $500,000 is needed to make the project a reality.
    Your attention to the request for our river basin is appreciated. 
If we can provide any additional information, please contact us.
                                 ______
                                 

           Prepared Statement of the National Audubon Society

    On behalf of the 520 chapters and one million members and 
supporters of the National Audubon Society, I would like to take this 
opportunity to submit our views on the fiscal year 2001 budget of the 
U.S. Corps of Engineers. Our mission to protect birds, other wildlife, 
and their habitat, is the focal point of our statement on the Corps' 
fiscal year 2001 budget.

                  SOUTH FLORIDA ECOSYSTEM RESTORATION

    Thank you for your past support for the restoration of the Florida 
Everglades. The Administration's fiscal year 2001 budget request 
includes $158 million for its Everglades restoration program. This 
request, which is almost $50 million above last year's appropriation, 
represents recognition of the needs of previously authorized programs 
whose performance assumptions have been included in Comprehensive 
Everglades Restoration Plan prepared by the Corps.
    In particular, we urge the Subcommittee to fully fund the following 
programs:
  --Central and Southern Florida Restoration projects--$90 million;
  --Everglades and South Florida Ecosystem Restoration (WRDA 1996 
        ``critical projects'')--$20.5 million;
  --Kissimmee River Restoration--$20 million; and,
  --WRDA 1999 pilot projects--$4.5 million.

     UPPER MISSISSIPPI RIVER ENVIRONMENTAL MANAGEMENT PROGRAM (EMP)

    The Water Resources Development Act of 1999 increased the 
authorization for the EMP to $33 million a year, but fiscal year 2001 
budget requested $18 million--the enacted level in fiscal year 2000. We 
believe that this request is inadequate and fully support increasing 
the EMP's budget. We understand that the Corps presently lacks the 
capability to warrant a $33 million appropriation for the EMP; however, 
we urge the Subcommittee to increase funding to a level that the Corps 
can effectively expend. Therefore, we urge the Subcommittee to provide 
$25 million for the EMP so that the Corps and its federal and state 
partners can continue to develop needed baseline data and implement 
habitat restoration projects to better manage the Upper Mississippi 
River.

               ARMY CORPS OF ENGINEERS REGULATORY BUDGET

    While the Administration's request for this year's regulatory 
budget calls for an $8 million increase (from $117 million to $125 
million), we support a $12 million increase in funding for this 
chronically under-funded program area. This increase is necessary in 
order for the Corps to cover pay raises and fully implement the 
Congressionally-mandated jurisdictional appeals program while at the 
same time fulfilling their statutory duties under the Clean Water Act 
to protect waters of the United States.
    Major advances in the quality of our nation's waters cannot be 
achieved without a strong Corps regulatory program. Funding levels over 
the past several years have made it increasingly difficult for the 
Corps to process applications for dredge and fill activities in a 
timely manner, compile data regarding impacts, monitor adherence to 
permit conditions, enforce against violators, and ensure adequate 
environmental review of permit applications. To this end, Audubon 
strongly supports a re-direction of funding for environmentally and 
economically unjustified water resource projects to further supplement 
the regulatory budget. We also support modifications to the regulatory 
permit fee structure that would recapture a larger portion of the costs 
of processing permits.

                              CHALLENGE 21

    We support full funding for the ``Challenge 21'' non-structural 
floodplain program. The Administration's request for fiscal year 2001 
would provide $20 million to initiate this important initiative. We 
consider this amount inadequate to meet the demand for this program and 
encourage Congress to expand the authorization for this program in the 
future.

         ATCHAFALAYA BASIN FLOODWAY SYSTEM PROJECT, MISSISSIPPI

    We strongly support the Administration's request for $10 million 
for the Atchafalaya Basin Floodway System Project (part of the 
Mississippi River and Tributaries budget). Through the Atchafalaya 
project, easements and fee title acquisition are being utilized to 
protect and restore ecologically valuable land for low-cost natural 
floodwater storage. Audubon fully supports this project and would like 
to see such floodplain restoration programs used as a model for flood 
control projects across the nation. In addition to providing for 
floodwater storage, the Atchafalaya Basin Floodway System Project will 
preserve, in perpetuity, some of the most valuable wetland habitat in 
the nation.

                  WHITE RIVER WATER PROJECTS, ARKANSAS

    National Audubon Society strongly supports an appropriation of 
$500,000, included in the President's budget, that would allow the Army 
Corps of Engineers and the Fish and Wildlife Service to begin a 
comprehensive, basin-wide study of the environmental impacts of several 
major irrigation and navigation projects planned on the White River. A 
proposed $270 million irrigation project would pump water at an 
alarming rate. A $186 million lock and dam project would dramatically 
alter the water flow in the White River, and a $40 million dredging 
project would double the width and depth of the current navigation 
channel along a full 150 miles of the river. Clearly, these projects 
are major changes that will have a large cumulative effect on the 
ecological health of the White River. It is responsible and prudent to 
consider these cumulative impacts before proceeding with the projects.
    However, it would be neither responsible not prudent to begin 
appropriating funds for these massive and potentially destructive 
projects before the study of environmental impacts has been completed. 
Unfortunately, the President's budget prematurely includes $21.9 
million for the massive Grand Prairie Irrigation Project that would 
dramatically reduce river flow, lead to major wetland loss, and pollute 
the White River National Wildlife Refuge, a Wetland of International 
Importance. In a joint study, the National Wildlife Federation and 
Taxpayers for Common Sense highlighted the Grand Prairie Project as the 
single most environmentally-destructive and fiscally-irresponsible 
water project that has been proposed in the country. We strongly 
recommend striking the line-item for ``East Arkansas Irrigation'' so 
that tax dollars will not be wasted and prudent review of environmental 
impacts may be completed.

                         DE-FUNDING PRIORITIES

    We believe some projects recommended for funding in fiscal year 
2001 would have harmful and lasting environmental impacts. Audubon 
supports de-funding of these environmentally-damaging and economically 
unsupportable projects such as the Savannah Harbor Dredging, Sunflower 
Dredging/Yazoo Pump, St. Johns/New Madrid Floodway Project, Devils Lake 
Outlet, and the White River Navigation and Irrigation project 
(mentioned above). Funds for these projects should be re-directed to 
environmentally-sound local development projects, environmentally 
beneficial floodway projects and the Corps regulatory budget.

          UPPER MISSISSIPPI RIVER NAVIGATION STUDY (NAV STUDY)

    The Subcommittee should serious review the allegations recently 
made public in an affidavit filed by a whistleblower regarding faulty 
economic projections used to justify the expansion of the Upper 
Mississippi River Navigation Study. These allegations have severely 
undermined the public's confidence that the Corps' can make an honest 
set of recommendations on the Upper Mississippi River that benefits all 
taxpayers.
    Given the numerous investigations presently underway, Congress must 
very carefully consider funding for this line item. We recognize the 
need to provide some level of funding for the Upper Mississippi River 
Navigation Study in order to preserve staffing levels while the 
allegations are investigated. However, we strongly oppose funding to 
continue work on the specific proposals for 1,200 foot lock and dam 
extensions on the Upper Mississippi River and Illinois River until all 
of the independent reviews on such proposals are completed.

                   SAVANNAH HARBOR EXPANSION, GEORGIA

    Authorized in the Water Resources Development Act of 1999, the $230 
million harbor expansion project on the Lower Savannah River along the 
border between Georgia and South Carolina poses a serious threat to the 
ecological health of the Savannah National Wildlife Refuge. Dredging 
will destroy many of the freshwater tidal wetlands in the wildlife 
refuge to accommodate the Georgia Port Authority's belief that new 
shipping business must be brought to Savannah. A preliminary economic 
study has shown that the costs of the harbor expansion far outweigh the 
potential benefits, even before necessary environmental mitigation 
costs are included in the analysis. The Army Corps of Engineers has 
failed to conduct studies to address many of the environmental impacts, 
while numerous state and federal environmental agencies have stated 
repeatedly that the decision to deepen the harbor is premature.
    We oppose the $100,000 appropriation included in the President's 
budget for the Savannah Harbor Expansion, and urges re-direction of 
these funds into further study of the environmental consequences of 
this potentially destructive project.

       BIG SUNFLOWER DREDGING AND YAZOO PUMP PROJECT, MISSISSIPPI

    The Big Sunflower River ``Maintenance'' project and Yazoo Backwater 
Pumping Station are part of an environmentally-destructive Corps plan 
to re-plumb the Mississippi River Delta through a series of water 
diversions and channels. The Big Sunflower project involves dredging of 
the entire width of the Mississippi River for 104 miles--to reduce 
seasonal flooding by only a few inches. The Yazoo Backwater Pump 
Project would create the world's largest pump system to move water from 
south Delta wetlands into the Mississippi River, disrupting natural 
water cycles in some of the last intact bottomland hardwood forests and 
forested wetlands in the Mississippi Delta.
    We oppose the Administration's request for $500,000 to fund the 
Yazoo pump and $3.9 million for dredging. We support re-directing these 
funds to reforestation, as a non-structural alternative to flood 
control and other environmentally-sound projects to benefit the area. 
While the pump project alone is estimated to cost at least $150 million 
to complete, cost estimates performed by EPA for reforestation and 
easement purchases would only be around $75 million.

                ST. JOHNS/NEW MADRID FLOODWAY, MISSOURI

    Audubon strongly opposed this economically and environmentally-
indefensible project which would destroy 36,000 acres of wetlands and 
75,000 acres of valuable backwater habitat to create new farmland. It 
is being advanced despite the fact that the Federal Government is 
currently producing large grain surpluses and most farmers are 
suffering from the resulting low prices. While being promoted as flood 
control, the project would have little effect on flooding of nearby 
communities and the farmland itself would be subject to frequent 
flooding. Audubon supports redirection of the Administration-requested 
$7.8 million to economically-beneficial, yet environmentally sound 
development projects in the area.

               DEVILS LAKE EMERGENCY OUTLET, NORTH DAKOTA

    Audubon supports de-funding of this environmentally-damaging 
project to create an outlet from Devils Lake to the Sheyenne River. The 
outlet would reduce surface elevations of Devils Lake by only inches, 
yet would contribute to increased flooding and reduced water quality 
downstream and potentially violate an international treaty with Canada. 
None of the Administration-requested $10 million should be appropriated 
for this project.
    This Subcommittee has done an excellent job of opposing this 
project in the past, and we commend you for your valiant efforts. We 
urge you to continue your opposition to the project, and we will 
continue to support you in your efforts.
    Thank you for providing us with this opportunity to testify on the 
Corps budget request.
                                 ______
                                 

             Prepared Statement of the University of Miami

    Mr. Chairman and Members of the Subcommittee: I am privileged to 
have the opportunity to submit this statement on behalf of Rosenstiel 
School of Marine and Atmospheric Science at the University of Miami in 
Coral Gables, Florida.
    Respectfully, the University, joined by the City of Miami Beach, 
Florida seeks your support for the establishment of a demonstration 
project in Miami Beach which could arrest the continuing problem of 
coastal erosion, particularly in the cities of Miami Beach, Surfside, 
and Bal Harbour, Florida. This demonstration project would focus on the 
12 miles of sandy beaches between Bakers Haulover Inlet and Government 
Cut.
    By the mid-seventies, this beach segment had severely eroded, 
leaving only a small area of dry beach during low water. To prevent 
loss of land and to prevent damage to existing structures from storm 
surge, many of the adjacent properties had to be protected by sea walls 
and revetments. Because of the lack of sufficient dry beach, tourism 
declined, which has adverse effects on the economy of the region.
    To remedy some of these problems, in 1975, the U.S. Army Corps of 
Engineers (ACOE), in partnership with Miami-Dade County, initiated the 
Miami-Dade County Beach Erosion Control and Hurricane Surge Project. At 
that time, Miami-Dade County and the ACOE entered into a 50-year 
contract for the joint management of Miami-Dade's sandy beaches. During 
the period 1979-1982, the ACOE constructed a hurricane dune and 
nourished the beaches between Bakers Haulover Inlet and Government Cut. 
A total of 60 million cubic yards of sand was placed on the beach 
thereby increasing its width to 300 feet. The implementation of the 
beach nourishment has had a tremendously positive effect on the economy 
of the region.
    In judging the performance of the project, it should be realized 
that beach nourishment is a repeat process and, based on experience 
with other beaches, should be carried on the average of every 5 years. 
The Miami Beach Nourishment, has a considerable better track record. 
Only after some 15 years were there areas that needed to be 
renourished. However at this time, 20 years after the start of the 
original nourishment, the beach as a whole has eroded to an extent that 
a large scale renourishment seems unavoidable unless a return to the 
situation in the mid 1970s is accepted. The major problem is where to 
find sand in sufficient quantities to re-supply the beaches, as the 
near-shore deposits of sand which have been the source for the 
nourishment project have been exhausted.
    The erosion along the beaches between Bakers Haulover Inlet and 
Government Cut is not uniform. Since the implementation of the 
nourishment during the period 1979-1982, the northern two-third has 
steadily eroded whereas the southern one-third has accreted. 
Furthermore, in the erosional part there are ``hot spots'' where the 
erosion is much more severe than in others. The reason for this 
situation is not directly obvious and has to do with the local off-
shore bathymetry, wave climate, and sediment characteristics. In 
addition, Bakers Haulover Inlet plays an important role in the erosion 
along the beaches of Bal Harbor and Surfside. The present shoreline is 
irregular in plain view--rather than a smooth curve between the two 
inlets--and is characterized by indentations and protrusions.
    Although there is some transfer of sand across the inlets, to a 
first approximation the area between the two inlets can be considered a 
self-contained littoral cell. The seaward boundary of that cell is not 
known and the big question is how much sand is lost to the offshore. 
The remaining sand is redistributed in the cell by waves. From a recent 
study, it is known that sand eroded from the northern two thirds of 
beach can be traced to the southern one-third of the beach. Also, 
bathymetric surveys show that the beach does not conform to the 
straight design slope of 1:40. The actual beach slope is gentler and 
the underwater beach shows a bar. This leads to a loss of dry beach.
    As suggested earlier, the causes of the irregular appearance of the 
shoreline, the presence of erosional ``hot spots'' and the shape of the 
beach profile are related to offshore bathymetry, wave climate, and the 
characteristics of the beach sand. Therefore, to identify the cause(s) 
of erosion, to explain the presence of the erosional ``hot spots'' and 
to predict the anticipated beach profile, information is needed on 
bathymetry, wave climate, and sediment characteristics.
    None of this information is in sufficient detail and will require 
measurements, the results of which would be interpreted using computer 
models. Deep-water waves will be carried inshore to calculate the wave 
characteristics at breaking. From this information, long-shore 
currents, sediment transport and changes in bathymetry, including the 
position of the shoreline will be calculated. The measurements will 
allow construction of an improved sediment budget. For this effort, the 
beach would be divided into compartments, both in the long-shore and 
cross-shore direction. The principle of conservation of sand would be 
applied to each compartment, i.e., the rate of change of the sediment 
volume in each compartment would equal the volume of sediment in minus 
the volume of sediment leaving the compartment. Comparison with 
observed changes in bathymetry, including changes in beach profile, 
should identify the causes of erosion and erosional ``hot spots'' as 
well as the shape of the beach profile.
    The City of Miami Beach remains committed to identifying outside 
sources of sand and expediting the evaluation of the environmental, 
physical and economic viability of the potential sources, to ensure 
that sufficient quantities of beach-quality sand are available to 
fulfill future needs. However it is realized that continuing to pump 
sand to the beaches without addressing the underlying causes of 
erosion, will lead to an endless cycle of needing more, increasingly 
expensive sand.
    Another possible solution is to transfer sand from the southern 
accretional part to the northern erosional part of the beach. Recycling 
will reduce the dependence on outside sources of sand.
    Although presently beach nourishment is the accepted way to combat 
erosion, the lack of sand sources requires us to rethink the process. 
It could well be that for Miami Beach a combination of beach 
nourishment and hard structures (e.g., off-shore breakwaters) is a more 
desirable solution. The hard structures would reduce the sand losses 
and more importantly when located properly, would concentrate the sand 
that has eroded from the beaches in places where it can be retrieved by 
dredges.
    The measurements and subsequent analysis referred to in the 
previous section should help to optimize the use of outside sand 
sources and the recycling technique and provide the necessary knowledge 
to properly design combined measures of nourishment and hard 
structures.
    To arrive at a solution to the erosion problem, the City of Miami 
Beach in cooperation with the University of Miami is suggesting a two-
prong approach consisting of the development of a long-term beach 
management plan and the implementation of two demonstration projects.
    Combating beach erosion takes a regional (the beach area between 
the two inlets) rather than a local (``hot spots'') approach. The first 
order of business in establishing a beach management plan is to 
identify the causes of the beach erosion and to determine whether there 
exists an equilibrium shoreline position and equilibrium beach profile. 
After that the questions of how, where and when to combat erosion can 
be addressed. This includes the question whether hard structures should 
be included. An important item in arriving at answers to these 
questions is the development of an improved sediment budget. In view of 
the necessary field measurements, the development of the beach 
management plan is expected to take 5 years.
    Mr. Chairman, the University of Miami is pleased to be an active 
partner of the City of Miami Beach, Florida in an effort to provide an 
efficient, cost-effective remedy for the continuing coastal erosion 
problems along the southeast Atlantic Coast. We are convinced that the 
results of this proposed demonstration project will make an important 
contribution to gaining a permanent solution to the problem.
    To accomplish this important program the University of Miami, in 
partnership with the City of Miami Beach, seeks $8 million from the 
Energy and Water Development Appropriations Subcommittee through the 
U.S. Army Corps of Engineers. Your support would be appreciated, Mr. 
Chairman. My colleagues and I at the University of Miami thank you for 
the opportunity to present these views for your consideration.
                                 ______
                                 

         Prepared Statement of the City of Miami Beach, Florida

    The City of Miami Beach appreciates the opportunity to submit for 
the record (1) testimony on an innovative new beach erosion control 
initiative, and (2) testimony in support of the request by Miami-Dade 
County for beach renourishment funds.

     INNOVATIVE BEACH EROSION PREVENTION AND SAND RECYCLING SYSTEM 
                         DEMONSTRATION PROJECT

    Dade County, Florida has approximately 15 miles of sandy beaches. 
The Miami Beach Segment makes up 10.5 miles or 70 percent of that beach 
front area. The Miami Beach Segment is bounded to the north by Baker's 
Haulover inlet and to the south by Government Cut Inlet. The 
construction of these inlets, just after the turn of the century, left 
the Miami Beach Segment isolated between two complete barriers to 
along-shore sand migration. As a result, the Miami Beach Segment 
continuously loses sand through natural processes but can only regain 
sand through artificial means.
    In the years that followed the construction of the inlets, the 
Miami Beach shoreline steadily receded. By the mid-1970's the shoreline 
had receded more than 500 feet and most of the sandy beaches had been 
lost. Property owners were forced to build seawalls, bulkheads and 
other hardened structures to prevent the coastal infrastructure from 
being undercut by the encroaching tides.
    In 1975, the U.S. Army Corps of Engineers (ACOE), in partnership 
with Dade County, initiated the Dade County Beach Erosion Control and 
Hurricane Surge Protection Project. At that time, Dade County and the 
ACOE entered into a 50 year contract for the joint management of Dade's 
sandy beaches. In 1979, the ACOE constructed a flood control dike (sand 
dune) and an ``engineered'' beach along the entire length of Miami 
Beach. The project added more than 300 feet to the width of the 
severely eroded beaches. The new beach was a tremendous success and has 
been credited for contributing significantly to the resurgence of our 
local economy.
    The sand used to nourish the beaches was hydraulically dredged from 
deposits of sand about a mile off our coast. More than 16 million cubic 
yards of sand were used during the initial beach construction and an 
additional 5 million cubic yards have been used in the periodic 
renourishment of segments of the project. However, the near shore 
deposits of sand which have been the source for the renourishment 
projects have been exhausted. There is not enough sand remaining to 
meet the immediate needs of the critically eroded shoreline areas nor 
are there any strategic reserves to be used in the event that our 
shorelines are ravaged by a hurricane or other natural disaster.
    Engineers have determined that Miami Beach loses sand to erosion at 
an average rate of 250,000 cubic yards per year, with that rate 
increasing ten-fold during years of heavy storm activity. Faced with a 
continuing need for a quarter million tons of sand per year for the 
maintenance of our beaches and an exhausted supply of local sand, the 
City of Miami Beach realized that immediate action was needed to avert 
a crisis. Our initial reaction was to try to locate alternate sources 
of beach-quality sand. The City advertised its interest in locating 
sand sources, traveled across Florida & the Caribbean to visit 
potential sources, compiled a database of source location & quality 
information, and secured an invitation for the Army Corps of Engineers 
to conduct testing of several potential sources of high-quality 
carbonate sands in the Turks & Caicos Islands.
    The City remains committed to identifying alternate sources of sand 
and expediting the evaluation of the environmental, physical and 
economic viability of the potential sources, to ensure that sufficient 
quantities of beach-quality sand are available to fulfill our future 
needs. However, we have realized that continuing to pump sand on to our 
beaches without addressing the underlying causes of the erosion, will 
leave us in an endless cycle of needing more, increasingly expensive 
sand.
    If the erosion cycle can be successfully slowed, it would reduce 
the demand for additional sand and save millions of dollars in 
renourishment costs; not to mention the elimination of the 
environmental, public and legal challenges to renourishment projects. 
To achieve this goal, the City embarked upon a program to develop 
innovative technologies which will help prevent beach erosion 
processes.
    Analysis of our coastal system revealed the presence of several 
``hot spot'' areas along our shoreline which accounted for the majority 
of the sand losses. Analysis of the data also revealed the presence of 
an area of substantial sand accretion (accumulation) in a near shore 
area near the southern end of Miami Beach.
    The causative factors behind these hot spots have been linked to 
changes in the shape (compass orientation) of the coastline and benthic 
topographical anomalies in the nearshore area. The worst of these hot 
spots exist within two half-mile long areas along our shoreline. These 
two hot spots have been shown to be responsible for the loss of almost 
200,000 cubic yards of sand each year. The hot spots also accelerate 
the erosion of the adjacent beaches for as much as a mile to the north, 
as the sand from the adjacent beaches slough down to fill the voids 
within the hot spots. With beach renourishment costs of about $14/cubic 
yard of sand, these hot spots are responsible for the loss of more than 
2.5 million dollars annually.
    After detailed examination of the available data and careful 
consideration of the possible alternatives, our coastal engineers have 
designed a series of detached breakwater structures which will 
significantly reduce the rate of erosion within these hot spot areas 
and help to stabilize large sections of our beach. The size and 
configuration of these structures have been carefully ``tuned'' to the 
specific conditions at each of the hot spot areas. Our coastal 
engineers estimate that the elimination of each hot spot will widen and 
stabilize approximately one mile of beach. It is believed that these 
benefits can be gained without significant negative impacts to the down 
drift beach areas or offshore reefs. Sea turtle nesting in the area 
will also be enhanced by the widening and stabilization of more than 
two miles of beach.
    The City of Miami Beach and Dade County have jointly initiated an 
emergency effort to develop and construct breakwater reef structures in 
the location of the two worst hot spots. Preliminary estimates indicate 
the breakwater structures will cost approximately $700,000 each. The 
required funding for the first of set of these structures has already 
been appropriated and construction is scheduled to begin in mid-2000.
    The City's master plan is to develop a series of erosion control 
breakwaters, positioned in key areas along the shoreline, to widen the 
beaches and slow the erosion process. Concurrent with the efforts to 
slow the beach erosion process, we plan to initiate a feasibility 
study/demonstration project to pursue an innovative and promising 
potential solution to our sand shortage problem. Our coastal engineers 
have identified the presence of a highly accretional near-shore area at 
the southern end of Miami Beach. The area is accreting sand at a rate 
of more than 200,000 cubic yards per year. Sand is accreting in the 
area because of the navigational Jetty that juts 1500 yards out to sea, 
along the north side of the Government Cut Inlet, at the southern tip 
of Miami Beach. The jetty structure acts as a barrier, blocking the 
natural, southerly migration of the near shore sand lens, which causes 
the migrating sand to pile-up on the north side of the structure. As 
more and more sand piles-up, the sand lens builds and creeps offshore 
toward the end of the jetty. Because the seaward end of the jetty 
extends out to the first line of coral reefs which parallel our 
shoreline, the jetty and the reef line together form a `trap' which 
prevents most of the sand from being able to move further south. This 
near-shore sand lens is continuing to build and will eventually ``over-
top'' the reef and smother living corals. If authorized, the City will 
seek to have the overfill accumulating at the southern end of the 
segment ``back passed'' or pumped back up to the eroded beaches at the 
northern end of our beach segment.
    The ultimate goal is to utilize the breakwater structures to slow 
the erosion process, stabilize the beaches and cut the demand for new 
sand. Then, periodically, the excess fill that accumulates will be 
recycled back to the beaches at the north end of the system and the 
cycle will start over. This Sand Recycling System, if successful, will 
allow for the continued, effective maintenance of our beaches, while 
offering substantial financial and environmental benefits.
    Local government has already made a substantial investment in the 
development of this process. If approved, this $2.3 million 
appropriation request will allow the City to complete a thorough 
engineering analysis of the entire system, obtain the necessary Federal 
and State permits, and contract for the renourishment of a mile long 
section of beach utilizing back-passed sand. This project will serve as 
a demonstration of the effectiveness of the Sand Recycling System and 
the importance of regional sediment management.

              SUPPORT FOR MIAMI-DADE CONSTRUCTION REQUEST

    The City of Miami Beach would first like to thank the members of 
the subcommittee for all their efforts in the past to provide support 
for the State of Florida's beaches and in particular, those of Miami 
Beach.
    Beaches are Florida's number one tourist ``attraction.'' Last year, 
beach tourism generated more than $16 billion dollars for Florida's 
economy and more tourists visited Miami Beach than visited the three 
largest national parks combined.
    In addition to their vital economic importance, beaches are the 
front line defense for multi-billion dollar coastal infrastructure 
during hurricanes and storms. When beaches are allowed to erode away, 
the likelihood that the Federal government will be stuck with 
astronomical storm recovery costs is significantly increased. The Army 
Corps of Engineers estimated that more than 70 percent of the damage 
caused to upland properties in Panama City Beach by Hurricane Opal 
could have been prevented if their pending beach renourishment project 
had been completed before the storm.
    The Florida Department of Environmental Protection estimates that 
at least 276 miles (35 percent) of Florida's 787 miles of sandy beaches 
are currently at a critical state of erosion. This includes the entire 
six miles of Miami Beach. As a result of the continuing erosion process 
and more dramatically, recent intense storms which have caused 
tremendous damage to almost all of the dry beach and sand dune 
throughout the middle segment of Miami Beach. Two years ago, most of 
the Middle Beach dune cross-overs were declared safety hazards and 
closed, as the footings of the boardwalk itself were in immediate 
jeopardy of being undercut by the encroaching tides. If emergency 
measures, costing approximately $400,000 had not been taken by the 
City, there would have been considerable risk of coastal flooding west 
of the dune line in residential sections of Miami Beach. As you can 
see, this example points to the commitment we as a beach community have 
to our beaches, but federal assistance remains crucial. While we are 
thankful of the substantial commitment made by the subcommittee in the 
fiscal year 1999 Energy and Water Conference Report, there is still 
much work to be done. Our beaches must be maintained not only to ensure 
that our residents and coastal properties are afforded the best storm 
protection possible, but also to ensure that beach tourism, our number 
one industry, is protected and nurtured.
    In 1987, the Army Corps of Engineers and Metropolitan Dade County 
entered into a fifty year agreement to jointly manage restore and 
maintain Dade County's sandy beaches. Since then, Metropolitan Dade 
County has been responsible for coordinating and funding the local 
share of the cost for the periodic renourishment of our beaches.
    In order to ensure that adequate funding will continue to be 
available, the City of Miami Beach supports and endorses the 
legislative priorities and appropriation requests of Metropolitan Dade 
County, as they relate to the restoration and maintenance of Dade 
County's sandy beaches. Specifically, the City respectfully adds their 
strong support for the efforts of Miami-Dade County and wholeheartedly 
supports their fiscal year 2001 request for $8 million in beach 
renourishment funds.
    Your support would be appreciated, Mr. Chairman. The City of Miami 
Beach thanks you for the opportunity to present these views for your 
consideration.
                                 ______
                                 

            Prepared Statement of the University of Michigan

    The U.S. Department of Energy (DOE) has provided support to the DOE 
University Research Program in Robotics to pursue long range research 
leading to the: ``development and deployment of advanced robotic 
systems capable of reducing human exposure to hazardous environments, 
and of performing a broad spectrum of tasks more efficiently and 
effectively than utilizing humans.''
    The DOE University Research Program in Robotics (URPR) has proven 
highly effective in technology innovation, education, and DOE mission 
support. The URPR incorporates mission-oriented university research 
into DOE EM's Office of Science and Technology (OST) and, through close 
collaboration with the DOE national laboratories, provides an avenue 
for applying innovative solutions to problems of vital importance to 
DOE.
    The URPR would like to thank the Committee members for their 
historically strong support of this highly innovative and successful 
program. Although the DOE EM-50 Budget Request for fiscal year 2001 
fails to include explicit funding numbers for any university program, 
the URPR expects to be funded at $4.0 million from the larger Focus 
Area budgets. The URPR is requesting the Committee: (1) explicitly 
direct research funding of the URPR, and (2) consider augmenting this 
amount to $4.35 million to compensate for DOE's expansion of the 
Consortium to include the University of New Mexico.
Request for the Committee
    We request the Committee include explicit language directing $4.35 
million of EM-50 research funds to the University Research Program in 
Robotics (URPR) for development of safer, less expensive, and more 
effective robotic technology for environmental restoration and waste 
management solutions.

          DEVELOPING ADVANCED ROBOTICS FOR DOE AND THE NATION

Develop robotic solutions for work in hazardous environments and 
        facilitate cleanup operations
    The goal of this program is to advance and utilize state-of-the-art 
robotic technology in order to remove humans from potentially hazardous 
environments and expedite remediation efforts now considered essential. 
This is increasingly necessary because human radiation exposure limits 
have been further reduced during the last two years. Established by DOE 
in fiscal year 1987 to support advanced nuclear reactor concepts, the 
project was relocated to EM to support higher priority needs in 
environmental restoration. The project has produced an impressive array 
of technological innovations which have been incorporated into robotic 
solutions being employed across federal and commercial sectors. This 
successful program demonstrates efficient technology innovation while 
educating tomorrow's technologists, inventing our country's intelligent 
machine systems technology of the next century, and meeting today's 
technology needs for DOE.

Robotics: A Strategic National Technology
    R&D funding is the most effective use of federal funds to promote 
the nation's well-being according to a 1997 published poll of respected 
academic economists. And, as documented in previous testimonies, key 
national studies (by the Council on Competitiveness, DOD, and former 
OTA technology assessment reports) consistently list robotics and 
advanced manufacturing among the five most vital strategic technologies 
for government support. During the past year, reports from NSF, the 
OSTP report on critical technologies, and the report from the 
President's Advisory Committee on Information Technology suggests that 
the areas of greatest concern to the nation are: the economy, 
education, health care, and the environment. The URPR is making 
technology contributions affecting each of these key areas. 
Furthermore, the reports note key technology areas include information 
technology and nanotechnology, and key enabling technologies include 
manufacturing and materials. The URPR actively participates in 
advancing these fields. The national need for an investment in the 
development of intelligent machines which can interact with their 
environment has been universally recognized for over a decade.

Intelligent Machines: Grand Challenge for the New Millennium
    Significant advances in computing power, sensor development and 
platform architectures (e.g., unamanned airborne vehicles) have opened 
new opportunities in intelligent machine technology. The long-range 
implications of intelligent mobile and dextrous machines which can 
assist humans to perform daily life tasks are clearly significant and 
represent one of technology's Grand Challenges for the new millennium. 
We can expect to see intelligent prosthetic devices, smart transport 
vehicles, and mobile devices capable of assisting or replacing the 
human, not only in potentially hazardous situations, but in daily life. 
Just during the past year, small mobile vehicles have become available 
to the everyday consumer, including the RoboMow lawn mower, and the 
hovering DragonFly--both available for less than $1,000. Furthermore, 
the integration of intelligent mobile machines onto or into the human 
body is within reach.

          URPR: INNOVATION, EDUCATION, AND DOE MISSION SUPPORT

URPR: Refining the Right Paradigm
    The URPR instantiates the new paradigm recommended for Federal 
investment in national S&T by the National Science Board (3/6/98) that 
emphasizes the integration of long-range research and education. The 
URPR's strategic mission is to make significant advances in our 
nation's intelligent machine and manufacturing technology base while 
emphasizing: education, technology innovation through basic R&D, and 
DOE mission support. Furthermore, the Consortium of Universities 
(Universities of Florida, Michigan, Tennessee, Texas, and New Mexico) 
are united as a powerful technology team, governed by a national Board 
of Directors, advised by a Technical Advisory Committee, and managed by 
a group of DOE and national laboatory officials.
    The URPR has demonstrated in earlier years that the advantages of 
operating as a consortium are significant. The institutions of the URPR 
partitioned technology development into manageable sections which 
allowed each to concentrate within their area of expertise (efficiently 
maintaining world-class levels of excellence) while relying on their 
partners to supply supporting concentrations. With full cooperation of 
the host universities, this effort naturally generated the in-depth 
human and equipment capital required by the EM community. Practically, 
the long-term distributed interaction and planning among these 
universities in concert with the DOE labs and associated industry 
allows for effective technology development (with software and 
equipment compatibility and portability), for a vigorous and full 
response to application requirements (component technologies, system 
technologies, deployment issues, etc.), and for the supported 
application of the technology. Considering the remarkable achievements 
of URPR over its history and the enlightened commitment of EM-50 to 
this technology development, the URPR is now poised to enhance its 
prominent role in education, technology innovation, and DOE mission 
support.

Educating the New Millenium's Technologists
    The URPR has already educated about 500 advanced degree students in 
the critical engineering fields, including many with earned doctoral 
degrees. These students have entered the work force, and are leading 
the industrial resurgence based on intelligent machines, advanced 
manufacturing technology, and high-technology related fields. Graduates 
from this project have built successful startup companies and made 
industrial technology transfers in computer and robotic technology (MI, 
TN, TX) and medical imaging (MI), video databases (CA), and intelligent 
manufacturing (MI, FL, TX). We have been unable to meet the strong 
demand for graduates educated through this project.

DOE Mission Contribution--Environmental Cleanup
    Since its inception, EM has recognized robotics as an essential 
technology to accomplish its mission. The motives for undertaking a 
comprehensive R&D effort in the application of advanced robotics to EM 
tasks in hazardous environments reflect both economic considerations, 
efficiency, effectiveness, and health and safety concerns. The RBX is a 
national laboratory program which primarily applies commercially 
available technology to current problems. In contrast, the URPR 
supports needs-driven applied research to develop innovative and 
synergistic technologies in support of EM focus areas. A major 
accomplishment during fiscal year 2000 was the identification and 
establishment of a process by which URPR innovations could be 
transferred to field applications. Both the Secretary of Energy's 
Robotics and Intelligent Machines (RIM) Initiative and the RBX's fiscal 
year 2001 proposals recognize the URPR as providing the core research 
effort.
    URPR progress is evaluated annually by a thorough review of its 
technical accomplishments, and DOE validated technology needs 
(generated by the DOE EM Focus Area representatives and Site Technology 
Coordination Groups) are used to set the program's directions. The URPR 
has consistently received high rankings for providing both outstanding 
technical contributions and value. Future success of this program is 
expected to continue based upon the Consortium's productive history.
    Over the past few years, the URPR projects successfully supported 
the following EM projects:
  --deployment and testing of SWAMI, an autonomous inspection robot for 
        Fernald stored waste drums,
  --design, construction and demonstration of a robot to precisely map 
        large DOE facilities, such as K-25 and K-27 in Oak Ridge, in 
        preparation for decontamination and decommissioning (D&D),
  --delivery of a robotic handling system for an automated chemical and 
        radiological analysis system to Los Alamos,
  --remote radiation mapping of the MSRE facility at ORNL during D&D 
        operations.
  --design and implementation of a real-time controller for use at 
        Hanford in support of the tank waste retrieval project
  --design and fabrication of a prototype Soil Sample Preparation 
        Module in support of the Contaminant Analysis Automation 
        project at LANL.
    Recent URPR technology achievements have included:
  --Discover Magazine Award for Technological Innovation: Robotics, 
        presented by the Secretary of Energy.
  --Invention of the room-temperature semiconductor radiation sensor 
        that holds the world's record for energy resolution.
  --Development of a mutisensor visualization platform to aid operators 
        during D&D operations.
  --Development of a system to reduce the time between a site-defined 
        need and a site-delivered implementation of the robotic and/or 
        automation hardware using simulation of components.
  --Codified algorithms for assembly of standardized modules to produce 
        the complex manipulators needed for a wide range of hazardous 
        tasks.
  --Development of a system to reduce the time between a site-defined 
        need and a site-delivered implementation of the robotic and/or 
        automation hardware using simulation of components.
    As shown above, URPR efforts are linked both directly and 
indirectly to cleanup operations in the DOE complex. During fiscal year 
2001, the URPR plans to continue its focussed efforts on DOE field 
cleanup applications, while maintaining our commitment to research and 
education.

Innovation--the seed of future technology
    The URPR has produced prodigious levels of innovation in research 
and development. While recent demonstrations reveal next-generation 
technologies, even more advanced capabilities are emerging from the 
laboratories. These include new types of locomotion, navigation 
techniques, sensing modalities (radiation cameras and flash-fast 
imaging devices), environmentally hardened components, and dextrous 
open architecture manipulators. These devices will evolve and inspire 
the intelligent machines of the future, including smart automobiles, 
obstacle avoidance aids for the disabled, and agile manufacturing cells 
capable of being rapidly reconfigured.
    This level of innovation can also be seen in the following 
statistics:
  --Approximately 16 patents awarded or pending.
  --Over 750 technical papers published in technical journals and 
        conferences.
  --The standard technical books for vision, radiation detection and 
        imaging, and robotics are authored by researchers working with 
        this project. Faculty and senior scientists dedicated to this 
        project are the internationally renowned technologists of their 
        fields.
  --A suite of world-class robots (including CARMEL, winner of the AAAI 
        Mobile Robot Competition) serve as the research testbeds for 
        this project.

                            PROGRAM REQUEST

    During fiscal year 2000, the URPR provided vital contributions to 
education and research while meeting DOE technology needs. The 
motivation for this project remains steadfast--removing humans from 
hazardous environments while enhancing safety, reducing costs, and 
increasing cleanup task productivity. EM-50 has recognized the URPR's 
role and mission and has purportedly included $4 million in the larger 
Focus Area requests for the URPR in fiscal year 2001.
                       request for the committee
    We request that the Committee (1) explicitly direct research 
funding of the URPR, and (2) consider augmenting this amount from $4 
million to $4.35 million to compensate for DOE's expansion of the 
Consortium. The following language is suggested for the fiscal year 
2001 Energy and Water Appropriations Bill:
    Funding of $4.35 million is provided for the University Research 
Program in Robotics (URPR) to develop and deploy innovative technology 
in support of EM site needs.
                                 ______
                                 

          Prepared Statement of the County of Volusia, Florida

    On behalf of our citizens and fishermen, Volusia County, Florida, 
is requesting that the Subcommittee appropriate $1,000,000 in fiscal 
year 2001 from the U.S. Army Corps of Engineers (COE) Construction 
account to fund an 1000 foot oceanward extension of the South Jetty of 
the Ponce DeLeon Inlet. This funding is essential to protect the Inlet, 
along with the existing North Jetty and its landward extension funded 
by this committee in fiscal year 1999. In addition, Volusia County 
requests that the committee appropriate $100,000 in fiscal year 2001 
from the COE's General Investigations account to fund the 
reconnaissance study authorized by a resolution adopted by the 
Transportation and Infrastructure Committee on February 16, 2000. A 
more detailed case history and description of the situation and 
projects follow below.
    The Ponce DeLeon Inlet is located on the east coast of Florida, 
about 10 miles south of the City of Daytona Beach in Volusia County. 
The Inlet is a natural harbor connecting the Atlantic Ocean with the 
Halifax River and the Indian River North. The Ponce DeLeon Inlet 
provides the sole ocean access to all of Volusia County. Fishing 
parties and shrimp and commercial fisherman bound for New Smyrna Beach 
or Daytona Beach use the Inlet, as well as others entering for 
anchorage. Nearby fisheries enhanced by the County's artificial reef 
program attract both commercial and sport fisherman. Head boat 
operators also provide trips to view marine life and space shuttle 
launches from Cape Canaveral. In addition, there is a U.S. Coast Guard 
Lifeboat Station on the east shore of the Indian River less than a mile 
south of the Inlet.
    Unfortunately, the Inlet is highly unstable and, despite numerous 
navigation projects, continues to threaten safe passage for the charter 
boat operators and commercial fisherman who rely on the access it 
provides for their livelihood. Recreational boaters and Coast Guard 
operations are also at risk passing through this unstable inlet. The 
shoaling of the channels in the Inlet so restricts dependable 
navigation that the Coast Guard no longer marks the north channel in 
order to discourage its use. The Coast Guard continues to move the 
south and entrance channel markers and provides warnings that local 
knowledge and extreme caution must be used in navigating the inlet. 
More seriously, the Coast Guard search and rescue data for fiscal years 
1981-1995 show that 20 deaths have resulted from vessels capsizing in 
the Inlet, the direct result of the Inlet's instability. 147 vessels 
capsized and 496 vessels ran aground in the Inlet during the same 
period.
    The Federal interest in navigation through the Ponce DeLeon Inlet 
dates back to 1884 and continues to the present. The existing 
navigation project was authorized by the Rivers and Harbors Act of 
1965. The construction authorized by that Act, including ocean jetties 
on the north and south sides of the Inlet, was completed in July 1972. 
It became evident soon after completion of the authorized project that 
the project did not bring stability to the Inlet. A strong northeaster 
in February 1973 created a breach between the western end of the North 
Jetty and the sand spit the Jetty was connected to inside the Inlet. 
The breach allowed schoaling to occur that was serious enough to close 
boat yards and require almost $2 million worth of repairs, including 
extending the western end of the North Jetty.
    Under the existing maintenance agreement entered into upon 
completion of the construction, the COE periodically performs 
maintenance on the Inlet. Maintenance projects have included several 
dredging efforts, adding stone sections to the south side of the north 
jetty, extending the westward end of the North Jetty for the second 
time, and closing the North Jetty weir. Prior to the North Jetty 
project discussed below, the COE's last maintenance was dredging, 
completed on the entrance channel in January 1990.
    In fiscal year 1998, the COE received a $3,500,000 appropriation 
for emergency maintenance on the North Jetty. Migration of the entrance 
channel undermined the North Jetty, seriously threatening its 
structural integrity. The fiscal year 1998 funds were used to construct 
a granite rock scour apron for the 500 to 600 feet of where the Jetty 
is undermined.
    In fiscal year 1999, the COE received $4,034,000 from the 
Operations and Maintenance account to extend the North Jetty of the 
Inlet landward by 800 feet. This maintenance project is underway and 
intended to be completed as soon as possible to prevent erosion that 
will cause outflanking of the North Jetty. Continued outflanking of the 
west end of the North Jetty could create a new inlet for the Halifax 
and Indian Rivers resulting in major changes to the Ponce DeLeon Inlet. 
The resultant shoaling of both the north and south channels, as well as 
changes to the entrance channel, would make passage through the inlet 
extremely dangerous and unpredictable.
    In the current fiscal year, the COE received $7,696,000 in their 
Operations and Maintenance account for use in the Ponce DeLeon Inlet. 
These funds will provide the balance of the funding to complete the 
North Jetty project, funding for surveys designed to determine the 
scope of a new maintenance contract for the Ponce De Leon Inlet, and 
funding for a dredging project to address a minor maintenance issue 
under the existing maintenance contract.
    For the next fiscal year, Volusia County requests that the COE 
receive $1 million of the $2.988 million federal share of the 
construction funds for the South Jetty oceanward extension. The COE 
anticipates that the construction of the jetty extensions will help 
stabilize the Inlet and reduce future maintenance costs.
    The Ponce DeLeon Inlet presents a serious engineering challenge; 
the success of which is measured in terms of human life and vessel 
damage. The existing project has failed to stabilize the Inlet. 
Extending the North Jetty was the first step toward correcting the 
failure and meeting the challenge. Funding the beginning phase of the 
1000 foot oceanward extension of the South Jetty in fiscal year 2001 is 
the next critical step toward providing safe passage for the commercial 
and recreational boaters in Volusia County. In addition, providing 
these funds at this time is likely to prevent the need to a much more 
substantial maintenance project in the near future.
    In addition to the jetty projects to protect the Ponce DeLeon 
Inlet, the County also requests funding for the COE to complete in 
fiscal year 2001, a reconnaissance study to address the critical 
erosion along the County's 49.5 miles of ocean shoreline. In August 
1991, the COE completed a favorable reconnaissance report for the shore 
protection study authorized by the House Transportation and 
Infrastructure Committee in September 1988. The County declined to act 
as the non-federal sponsor for the feasibility study at that time. As a 
result of heavy damage to the County's shoreline sustained during the 
1999 hurricane season, the County recognizes the critical need to 
address the growing impact of the storm-induced erosion. The COE 
advises the County that the shore protection reconnaissance study can 
be completed in fiscal year 2001 for $100,000.
    Thank you for your consideration of this request.
                                 ______
                                 

          Prepared Statement of the Seminole Tribe of Florida

    The Seminole Tribe of Florida is pleased to submit this statement 
regarding the fiscal year 2001 budget for the Army Corps of Engineers 
(COE). The Tribe asks that Congress provide $20.525 million in the 
COE's construction budget for critical projects in the South Florida 
Ecosystem, as authorized in section 208 of the Water Resources 
Development Act (WRDA) of 1999. On January 7, 2000, the Tribe and the 
COE signed a Project Coordination Agreement for the Big Cypress 
Reservation's critical project. The Tribe's critical project includes a 
complex water conservation plan and a canal that transverses the 
Reservation. In signing this Agreement, the Tribe, as the local 
sponsor, committed to funding half of the cost of this approximately 
$50 million project.
    The Tribe's critical project is a part of the Tribe's Everglades 
Restoration Initiative, which includes the design and construction of a 
comprehensive water conservation system. This project is designed to 
improve the water quality and natural hydropatterns in the Big Cypress 
Basin. This project will contribute to the overall success of both the 
Federal and the state Governments' multi-agency effort to preserve and 
restore the delicate ecosystem of the Florida Everglades. In 
recognition of this contribution, the Seminole Tribe's Restoration 
Initiative has been endorsed by the South Florida Ecosystem Restoration 
Task Force and has been found to be consistent with the recommendations 
of the Governor's Commission for a Sustainable South Florida.

                     THE SEMINOLE TRIBE OF FLORIDA

    The Seminole Tribe lives in the Florida Everglades. The Big Cypress 
Reservation is located in the western basins, directly north of the Big 
Cypress National Preserve. The Everglades provide many Seminole Tribal 
members with their livelihood. Our traditional Seminole cultural, 
religious, and recreational activities, as well as commercial 
endeavors, are dependent on a healthy Everglades ecosystem. In fact, 
the Tribe's identity is so closely linked to the land that Tribal 
members believe that if the land dies, so will the Tribe.
    During the Seminole Wars of the 19th Century, our Tribe found 
protection in the hostile Everglades. But for this harsh environment 
filled with sawgrass and alligators, the Seminole Tribe of Florida 
would not exist today. Once in the Everglades, we learned how to use 
the natural system for support without harm to the environment that 
sustained us. For example, our native dwelling, the chickee, is made of 
cypress logs and palmetto fronds and protects its inhabitants from the 
sun and rain, while allowing maximum circulation for cooling. When a 
chickee has outlived its useful life, the cypress and palmetto return 
to the earth to nourish the soil.
    In response to social challenges within the Tribe, we looked to our 
Tribal elders for guidance. Our elders taught us to look to the land, 
for when the land was ill, the Tribe would soon be ill as well. When we 
looked at the land, we saw the Everglades in decline and recognized 
that we had to help mitigate the impacts of man on this natural system. 
At the same time, we acknowledged that this land must sustain our 
people, and thereby our culture. The clear message we heard from our 
elders and the land was that we must design a way of life to preserve 
the land and the Tribe. Tribal members must be able to work and sustain 
themselves. We need to protect the land and the animals, but we must 
also protect our Tribal farmers and ranchers.
    Recognizing the needs of our land and our people, the Tribe, along 
with our consultants, designed a plan to mitigate the harm to the land 
and water systems within the Reservation while ensuring a sustainable 
future for the Seminole Tribe of Florida. The restoration plan will 
allow Tribal members to continue their farming and ranching activities 
while improving water quality and restoring natural hydroperiod to 
large portions of the native lands on the Reservation and ultimately, 
positively effecting the Big Cypress National Preserve and Everglades 
National Park.
    The Seminole Tribe's project addresses the environmental 
degradation wrought by decades of federal flood control construction 
and polluted urban and agricultural runoff. The interrupted sheet flow 
and hydroperiod have stressed native species and encouraged the spread 
of exotic species. Nutrient-laden runoff has supported the rapid spread 
of cattails, which choke out the periphyton algae mat and sawgrass 
necessary for the success of the wet/dry cycle that supports the 
wildlife of the Everglades.
    The Seminole Tribe designed an Everglades Restoration project to 
allow the Tribe to sustain ourselves while reducing impacts on the 
Everglades. The Seminole Tribe is committed to improving the water 
quality and flows on the Big Cypress Reservation. We have already 
committed significant resources to the design of this project and to 
our water quality data collection and monitoring system. We are willing 
to continue our efforts and to commit more resources, for our cultural 
survival is at stake.

             SEMINOLE TRIBE'S BIG CYPRESS CRITICAL PROJECT

    The Tribe has developed a conceptual water conservation plan that 
will enable us to meet new water quality standards essential to the 
cleanup of our part of the Everglades ecosystem and to plan for the 
storage and conveyance of our water rights. The Tribe's Everglades 
Restoration Initiative is designed to mitigate the degradation the 
ecosystem has suffered through decades of flood control projects and 
urban and agricultural use and ultimately to restore the nation's 
largest wetlands to a healthy state.
    The Seminole Tribe's critical project provides for the design and 
construction of water control, management, and treatment facilities on 
the western half of the Big Cypress reservation. The project elements 
include conveyance systems, including major canal bypass structures, 
irrigation storage cells, and water resources areas. This project will 
enable the Tribe to meet proposed numeric target for low phosphorus 
concentrations that is being used for design purposes by state and 
federal authorities, as well as to convey and store irrigation water 
and improve flood control. It will also provide an important public 
benefit: a new system to convey excess water from the western basins to 
the Big Cypress National Preserve, where water is vitally needed for 
rehydration and restoration of lands within the Preserve.

                               CONCLUSION

    Improving the water quality of the basins feeding into the Big 
Cypress National Preserve and the Everglades National Park is vital to 
restoring the Everglades for future generations. By granting this 
appropriation request, the Federal Government will be taking a 
substantive step towards improving the quality of the surface water 
that flows over the Big Cypress Reservation and on into the delicate 
Everglades ecosystem. Such responsible action with regard to the Big 
Cypress Reservation, which is federal land held in trust for the Tribe, 
will send a clear message that the Federal Government is committed to 
Everglades restoration.
    The Seminole Tribe is ready, willing, and able to begin work 
immediately. Doing so will require substantial commitments from the 
Tribe, including the dedication of over 2,400 acres of land for water 
management improvements. However, if the Tribe is to move forward with 
its contribution to the restoration of the South Florida ecosystem, a 
substantially higher level of federal financial assistance will be 
needed as well.
    The Tribe has demonstrated its economic commitment to the 
Everglades Restoration effort; the Tribe is asking the Federal 
Government to also participate in that effort. This effort benefits not 
just The Seminole Tribe, but all Floridians who depend on a reliable 
supply of clean, fresh water flowing out of the Everglades, and all 
Americans whose lives are enriched by this unique national treasure.
    Thank you for the opportunity to present the request of the 
Seminole Tribe of Florida. The Tribe will provide additional 
information upon request.
                                 ______
                                 

              OHIO RIVER VALLEY INLAND NAVIGATION PROJECTS

              Statement of the National Mining Association

                                SUMMARY

    The National Mining Association (NMA) represents companies whose 
products often must depend on the availability of adequate safe, and 
efficient inland waterways barge freight services. NMA's member 
companies are producers of coal and other metallic and nonmetallic 
minerals, manufacturers of mining machinery and equipment, and 
providers of mining-related services. With that in mind, NMA urges the 
Congress to approve fiscal year 2001 appropriations needed for 
justifiable improvements in waterway transportation and for effective 
operation and maintenance of the inland waterways system.
    Specifically, NMA urges the Congress to fund certain inland 
waterways lock and dam construction and rehabilitation at selected lock 
and dam (L&D) projects required to assure that the Ohio River System is 
capable of continuing its important function as a principal component 
of the intermodal rail/barge and truck/barge bulk freight distribution 
network in the United States, including the Ohio River main stem and 
connecting Monongahela, Kanawha, and Tennessee Rivers.


------------------------------------------------------------------------
                                               Pre-
                                           construction   Construction &
   Lock and Dam project recommendation     engineering/   rehabilitation
                                              design
------------------------------------------------------------------------
Ohio River Main Stem:
    Olmsted L&D-IL&KY...................  ..............               X
    McAlpine L&D-IN&KY..................  ..............               X
    J.T. Myers L&D-IN&KY................               X  ..............
    Newburgh L&D-IN&KY..................               X  ..............
    Cannelton L&D-IN&KY.................               X  ..............
    Greenup L&D-KY&OH...................               X  ..............
Monongahela River: L&D 2,3,4-PA.........  ..............               X
Kanawha River:
    Marmet L&D-WV.......................  ..............               X
    London L&D-WV.......................  ..............               X
Tennessee River: Kentucky L&D-KY........  ..............               X
------------------------------------------------------------------------


    After the termination of Conrail in mid-1999, the states in the 
Ohio River Basin from Pennsylvania to Illinois were left with only two 
long-haul railroads, a circumstance that magnifies the need to place a 
higher priority on Ohio River lock improvements to enable adequate, 
safe, and efficient barge services from Pittsburgh to the confluence of 
the Ohio and Mississippi Rivers at Cairo, Illinois. The Ohio River 
serves the Nation as a vital transportation asset making possible fuel 
efficient, low emission, cost-effective distribution of bulk 
commodities, including coal and other products like limestone and 
materials used in building construction and public and private 
infrastructure projects free of congestion that would be caused 
otherwise if those commodities were transported using other surface 
transportation modes.

      COAL, IN PARTICULAR, IS A PRINCIPAL COMMODITY MOVED BY BARGE

    During 1998, the Ohio River was utilized to move 132.7 million tons 
of coal, approximately 55 percent of the 241.9 million tons of total 
bulk freight commodities carried by barge. The Ohio River System 
including the main stem of the Ohio River, the Monongahela River in 
Pennsylvania, the Kanawha River in West Virginia, the Big Sandy River 
in Kentucky and West Virginia, the Green River in Kentucky, the 
Cumberland River in Kentucky, together with its connecting Tennessee 
and Mississippi River Systems, represents vast freight transportation 
network serving traffic originating both in the Ohio River Basin and in 
western states having railroad access to the inland waterways system. 
That interconnected waterways system must be considered an integral 
component of the Nation's freight transportation network providing wide 
opportunities for intermodal rail/barge and truck/barge shipments, with 
ton-miles of barge traffic characterized importantly by its fuel-
efficiency, low emissions, and cost-effectiveness in interstate 
commerce and in furnishing direct access to the Gulf of Mexico for 
coastal movements and international trade. NMA places emphasis on 
adequate funding for waterways improvements, especially on the Ohio 
River and its Upper Ohio River Basin Tributaries and additional 
connecting rivers in light of five principal considerations:
  --The Ohio River is the leading waterway for barge coal traffic, 
        serving distribution of coal produced in Pennsylvania, Ohio, 
        West Virginia, Kentucky, Indiana, Illinois, and Tennessee in 
        eastern and midwestern coal fields, as well as coal produced in 
        the western states and carried by railroad to the rivers.
  --Numerous coal-fueled power plants are located on the Ohio River and 
        connecting segments of the waterways system.
  --With the termination of Conrail, only two railroads remain in the 
        east for long-haul coal distribution services, CSX 
        Transportation and Norfolk Southern Corporation, each of whom 
        have acquired portions of Conrail, a circumstance that 
        increases the importance of having ready access to barge coal 
        distribution services.
  --The four mega-railroads in the United States today, i.e. CSXT, NS, 
        Burlington Northern Santa Fe (BNSF), and Union Pacific (UP), 
        each have river terminal connections with the inland waterways, 
        making intermodal rail/barge coal traffic both viable in many 
        situations and attractive in enabling greater intermodal rail/
        barge competition with all-rail coal distribution, a factor in 
        stimulating higher cost-effectiveness in overall coal 
        distribution.
  --Barge transportation is fuel efficient, a critical factor in regard 
        to fuel conservation and reduction of emissions. In fact, coal 
        traffic moved by barge eliminates much of the surface traffic 
        congestion associated with freight transportation because river 
        barges flow separated from other surface transport modes. The 
        non-intrusiveness of barge movements through, and in the 
        vicinity of, large and small communities located on river banks 
        not only reduces emissions but also contributes substantially 
        to reduction of noise associated with surface traffic, adding 
        to the quality of life enjoyed by the residents while still 
        having local economies strengthened by sound access to 
        essential transportation services required for power generation 
        and the delivery of commodities consumed in construction 
        activities.
      recommended inland waterways projects both continue ongoing 
construction and focus on expediting directly related inland waterways 

           IMPROVEMENTS EMANATING FROM YEARS OF STUDY EFFORTS

    NMA urges Congress to approve fiscal year 2001 appropriations 
requests presented in the February 2000 Civil Works Budget Request for 
the U.S. Army Corps of Engineers with regard to construction and 
rehabilitation ongoing at several locations for which NMA previously 
submitted recommendations on appropriations for prior years. This 
projects are:
    Olmsted L&D on the Ohio River.--New L&D incorporating twin 1,200-
foot by 110-foot lock chambers, replacing L&D 52 and L&D 53.
    McAlpine L&D on the Ohio River.--New L&D incorporating a second 
1,200-foot by 110-foot lock chamber.
    L&D 2,3,4 on the Monongahela River.--Replacement of two obsolete 
L&D's and removal of one L&D.
    Marmet L&D on the Kanawha River.--New L&D incorporating an 800-foot 
by 110-foot lock chamber.
    London L&D on the Kanawha River.--Rehabilitation of existing L&D.
    Kentucky L&D on the Tennessee River.--Addition of a 1,200-foot by 
110-foot lock chamber.
    Further, NMA urges the Congress to approve Fiscal year 2001 
appropriations requests presented in the Civil Works Budget Request for 
pre-construction engineering and design that would add second 1,200-
foot by 110-foot lock chamber at two projects on the Ohio River; and, 
in addition, NMA urges the Congress to approve two more pre-
construction engineering and design activities required for adding 
second 1,200-foot by 110-foot lock chambers at two other projects on 
the Ohio River. The first two projects are presented in the Budget 
Request and the second two projects also are recommended by NMA:
    J.T. Myers L&D on the Ohio River.--Pre-construction Engineering and 
Design.
    Greenup L&D on the Ohio River.--same.
    Newburgh L&D on the Ohio River.--same.
    Cannelton L&D on the Ohio River.--same.
    NMA is aware of, and has followed closely, an Ohio River Main Stem 
Study performed by the U.S. Army Corps of Engineers over many years of 
dedicated efforts supported by previous appropriations. The provision 
of a second 1,200-foot by 110-foot lock chamber at each of the four 
projects NMA recommends is desirable and warranted in order to 
accommodate current and projected river traffic adequately, safely, and 
efficiently. If built, those projects would complete construction of 
second 1,200-foot by 110-foot lock chambers at all L&D projects from 
Louisville to the confluence of the Ohio and Mississippi Rivers. That 
segment of the Lower Ohio River is at the heart of the interconnected 
Ohio/Tennessee/Mississippi Rivers navigation infrastructure offering 
interconnected, multi-directional intermodal rail/barge services.
    In closing, NMA cites the following statement in the report, An 
Assessment of the U.S. Marine Transportation System: A Report To 
Congress, September 1999, submitted by the Secretary of Transportation. 
NMA participated in the report preparation.

          ``By 2000, more than 44 percent of the inland waterway locks 
        and dams will be at least 50 years old. Many are undersized for 
        modern commercial barge tows, which must then be broken up and 
        reassembled at each lock. This lengthens travel times, produces 
        queues at locks--increasing operating costs and decreasing 
        efficiency--and causes safety and environmental concerns. These 
        delays will become more severe as system traffic grows and as 
        aging infrastructure requires increased maintenance and repair 
        time. In 1998, 36 lock chambers on the system averaged delay 
        times greater than 1 hour.'' (at page 34)

    NMA, in presenting this statement on recommendations for approval 
of fiscal year 2001 appropriations for construction and rehabilitation 
at selected lock and dam sites, both does so by virtue of a long-
standing awareness of the benefits to the Nation attributable to having 
an exceptionally valuable system of commercially navigable inland 
waterways, and in recognition of the veracity of the language taken 
from the September 1999 report to Congress cited above.

                   ENVIRONMENTAL RESTORATION PROGRAM

    NMA's membership has participated in the Acid Drainage Technology 
Initiative (ADTI) since its inception in 1995 with the goal of 
developing cost-effective and practical technologies to predict and 
remediate acid mine drainage from active and inactive coal and metal 
mines. This initiative is not a regulatory or policy development 
program. The ADTI is comprised of representatives from the mining 
industry, Federal and State agencies, universities and consulting 
firms.
    In fiscal year 1999, House Report No. 105-581 acknowledged that 
acid mine drainage is a serious environmental problem and that the U.S. 
Army Corps of Engineers possessed the experience and capability to 
assist in the ADTI's efforts. Further, the subcommittee directed the 
Corps to participate in this initiative with available funds. Since 
that time, the Corps' participated in a workshop with members of the 
ADTI to exchange information on mining and related environmental issues 
and to explore the nature and extent of the Corps' involvement. In 
order for the Corps to continue its participation, we respectfully 
request that the Corps be provided funds to commit $100-200,000 
annually (with other Federal agencies involved, such as OSM, BLM, DOE, 
EPA, and USGS) to further the Corps' goals of ecosystem restoration.
                                 ______
                                 

  Prepared Statement of The Association for the Development of Inland 
                  Navigation in America's Ohio Valley

    Mr. Chairman and Members of the Subcommittee: I am Barry Palmer, 
Executive Director of DINAMO, The Association for the Development of 
Inland Navigation in America's Ohio Valley. DINAMO is a multi-state, 
membership based association of business and industry, labor, and state 
government leaders from throughout the Ohio Valley, whose singular 
purpose is to expedite the modernization of the lock and dam 
infrastructure on the Ohio River Navigation System. Largely through the 
leadership of this subcommittee and the professional efforts of the 
U.S. Army Corps of Engineers, we in the Ohio Valley are beginning to 
see the results of 19 years of continuous hard work in improving our 
river infrastructure.
    Lock and dam modernization at Robert C. Byrd Locks and Dam, Grays 
Landing Locks and Dam, Point Marion Locks, and Winfield Locks are 
largely complete. These projects were authorized for construction in 
the Water Resources Development Act of 1986. The immediate problems 
really are focused on completing in a timely manner lock and dam 
modernization projects authorized by the Congress in subsequent water 
resources development acts. Substantial problems remain for adequate 
funding of improvements at the Olmsted Locks and Dams, Ohio River, IL/
KY; Lower Monongahela River Locks and Dams 2, 3 & 4, PA; McAlpine Locks 
and Dam, Ohio River, IN/KY; Marmet Lock, Kanawha River, WV; and for the 
Kentucky Locks, Tennessee River, KY. The construction schedules for all 
of these projects have been severely constrained, and we are requesting 
increased funding for these construction projects at an ``efficient 
construction rate.'' Following is a listing of the projects and an 
efficient funding level determined by the U.S. Army Corps of Engineers 
to advance these projects, in order to complete construction by 2008 or 
earlier:

                 RECOMMENDATIONS FOR FISCAL YEAR 2001:

    1. For the Robert C. Byrd Locks and Dam modification project, 
formerly the Gallipolis Locks and Dam on the Ohio River, OH/WV, about 
$2,700,000 for continued construction.
    2. For the Winfield Lock Replacement on the Kanawha River, WV, 
$300,000 for continued construction of the lock and relocations related 
to environmental mitigation.
    3. For the Olmsted Locks and Dam, replacing Locks and Dams 52 and 
53 on the Lower Ohio River, IL/KY, $72,000,000 for continued 
construction of the twin 110, <greek-e> 1,200, locks and design of the 
new gated dam.
    4. For improvements to Monongahela River Locks and Dams 2,3 & 4, 
PA, $75,00,000 for continued construction of Dam 2, for relocations 
related to the construction project, and initiation of construction at 
Lock 4.
    5. For the McAlpine Lock Project on the Ohio River, IN/KY, 
$20,000,000 to continue design of the new 110, <greek-e> 1,200, lock 
addition and for continued construction of the new 110, <greek-e> 
1,200, lock.
    6. For the Marmet Lock Replacement on the Kanawha River, WV, 
$14,000,000 for real estate acquisition and for continuing Plans and 
Specifications on the main construction contracts.
    7. For the Kentucky Lock Addition on the Tennessee River, KY, 
$40,000,000 to continue design on the new highway and bridge work and 
for relocation and construction of the TVA tower.
    8. For continuing major rehabilitation of London Locks and Dam, 
Kanawha River, $5,000,000.
    9. For the Ohio River Mainstem Study, including studies related to 
completing an Interim Feasibility Report for Emsworth, Dashields, and 
Montgomery Locks and Dams by spring 2002, approximately $10,000,000. 
This level of funding is needed to complete the work leading to a 
construction authorization document for additional capacity at these 
three lock and dam locations in WRDA 2002. See attached ORMSS fact 
sheet update 3 March 2000.
    10. For Pre-Construction Engineering and Design for the John T. 
Myers Locks and Dam, Ohio River, IN/KY, $2,120,000.
    11. For Pre-Construction Engineering and Design for the Greenup 
Locks and Dam, Ohio River, OH/KY, $$1,300,000.
    For the five projects identified in Points 3-7, the fiscal year 
2000 Civil Works Budget of the U.S. Army Corps of Engineers allocates 
only $108,542,000, when the ``efficient'' construction level for fiscal 
year 2001 identified by the Corps is $221,000,000. This difference 
accounts for an additional $112.458 million of construction spending 
that is needed for these five projects in fiscal year 2001. Attached is 
a chart outlining fiscal year 1998, fiscal year 1999, and fiscal year 
2000 appropriations, fiscal year 2001 budget requests by the 
Administration, and fiscal year 2001 efficient funding levels for Ohio 
Valley lock and dam modernization projects. The information related to 
efficient funding levels was provided to DINAMO by the Commander, Great 
Lakes and Ohio River Division, U.S. Army Corps of Engineers.
    Completion dates for the Lower Mon project have already been 
delayed 5 years from 2003 to 2008. Failure to win increased funds for 
this project in fiscal year 2001 will push the completion schedule 
further into the future. For McAlpine Lock the completion date has been 
delayed five years from 2002 to 2007. DINAMO has been told that the 
McAlpine project could be fully operational in 2005 if an efficient 
funding level for this project could be achieved in fiscal year 2001 
and then later years. The current completion date for the Marmet Lock 
project is 2009, but this project with adequate funding could be 
completed two years ahead of current schedule and fully operational in 
2006. The Kentucky Lock Addition could be constructed by 2008 with 
``efficient,'' or ``optimum'' schedule funding.
    These construction projects, in addition to the Olmsted Locks and 
Dam, should be completed in a timely and orderly manner. It is 
important to note that taxes are being generated by a 20 cents per 
gallon diesel fuel tax by towboats operating on America's inland 
navigation system. These tax revenues are gathering in the Inland 
Waterways Trust Fund, in order to finance 50 percent of the costs of 
these project costs. There is about $370 million in the Inland 
Waterways Trust Fund. The real challenge is not the private sector 
contribution to completing these lock and dam construction projects in 
a timely manner, but rather the commitment of the Federal Government to 
matching its share.
    Delaying the construction of these vitally needed infrastructure 
investments is a terribly inefficient practice. Inefficient 
construction schedules cost people a lot of money. A recent study by 
the Institute for Water Resources concluded that $1.02 billion of 
cumulative benefits (transportation savings) for the aforementioned 
five lock and dam modernization projects on the Ohio River Navigation 
System and the Inner Harbor project in New Orleans harbor on the Lower 
Mississippi River have been lost forever. The benefits foregone 
represent the cumulative annual loss of transportation cost savings 
associated with postponing the completion of these projects from their 
``optimum,'' or ``efficient'' schedule. In addition, this study 
concludes that $682 million of future benefits that will be foregone 
based on fiscal year 1999 schedules could be recovered if funding is 
provided to accelerate design and construction activities in accordance 
with ``efficient'' schedules.
    Expenditures for lock and dam modernization are an investment in 
the physical infrastructure of this nation. The Corps of Engineers 
construction budget of $1.38 billion for fiscal year 2001 falls 
hundreds of millions of dollars less than needed for fiscal year 2001. 
Mr. Chairman, we have great confidence in the Corps of Engineers and 
urge your support for a funding level more in line with the real water 
resources development needs of the nation. For lock and dam 
modernization on America's inland navigation system, targeted 
construction funding ought to be at a level of about $250-300 million 
annually. Last year Congress provided about $4.1 billion for the Corps 
of Engineers program and about $160 million for lock and dam 
modernization on America's inland navigation system. It is reasonable 
that funding for the Corps program should be increased to levels closer 
to $4.5 billion and about $250 million for lock and dam modernization 
on our nation's river system. With this kind of increased funding, as 
amply supported in both the House and Senate appropriations committee 
report language in previous years, it is clear that a national lock and 
dam modernization program could be sustained at a level commensurate 
with the needs for improving the nation's inland navigation system.
    We thank you for the opportunity to present this request and our 
thoughts on these matters.
                                 ______
                                 

           MISSISSIPPI AND LOUISIANA WATER RESOURCE PROJECTS

  Prepared Statement of the Upper Mississippi River Basin Association

                        [In millions of dollars]
------------------------------------------------------------------------
                                        President's          UMRBA
                                          request       recommendation
------------------------------------------------------------------------
Construction General:
    Upper Mississippi River System            18.0                25.0
     Environmental Management
     Program........................
    Major Rehabilitation of Locks             19.22               19.22
     and Dams.......................
Operation and Maintenance: O&M of            134.896             151.00
 the UMR Navigation System..........
General Investigations:
    Upper Mississippi and Illinois             1.2                 1.2
     Navigation Study...............
    Upper Mississippi River System              .888                .888
     Flow Frequency Study...........
    Missouri & Middle Mississippi               .500                .500
     Rivers Enhancement Project.....
    Land Management System (Research            .250               2.750
     & Development).................     (of 26)             (of 26)
------------------------------------------------------------------------

                              INTRODUCTION

    The Upper Mississippi River Basin Association (UMRBA) is the 
organization created 18 years ago by the Governors of the states of 
Illinois, Iowa, Minnesota, Missouri, and Wisconsin to serve as a forum 
for coordinating river-related state programs and policies and for 
collaborating with federal agencies on regional issues. As such, the 
UMRBA works closely with the Corps of Engineers on a variety of 
programs for which the Corps has responsibility. Recent disclosures 
regarding the U.S. Army Corps of Engineers' ``Program Growth 
Initiative'' and allegations specifically related to the Upper 
Mississippi River Navigation study are serious matters. However, these 
controversies do not obviate the fundamental need for a wide variety of 
on-going Corps programs and projects. Of particular interest to the 
basin states are the following:

                    ENVIRONMENTAL MANAGEMENT PROGRAM

    The 1999 Water Resources Development Act (WRDA) reauthorized the 
Upper Mississippi River System Environmental Management Program (EMP), 
which was originally authorized in 1986. What was at first a novel 
approach to interagency environmental management, has now become a 
widely recognized and respected regional program.
    The EMP consists of two primary components: the construction of 
individual projects to rehabilitate or enhance critical habitat areas 
and a long term monitoring program to track the environmental health of 
the system. The habitat projects, which vary in size and range in cost 
from about $200,000 to over $10 million, employ different types of 
techniques, including such measures as island creation, water level 
control features, side channel closures or openings, and selective 
dredging to remove sediment. The long term monitoring program uses six 
field stations throughout the river system that routinely collect 
standardized data on water, sediment, fish, and vegetation at over 150 
sites.
    The 1999 WRDA increased the annual authorized appropriations for 
the EMP from $19.455 million to $33.17 million. Despite this clear 
indication from Congress and the public that the EMP is an important 
program, the President's fiscal year 2001 budget request for the EMP is 
only $18 million, well below even the old authorized funding level. It 
is very disappointing that the Administration continues to underfund 
the EMP. In three of the past four years, Congress has needed to 
increase EMP funding above that requested by the Administration. The 
states are hopeful that Congress will again affirm its support for this 
important program by providing $25 million for the EMP in fiscal year 
2001. While $25 million is not the full amount of the increased 
authorization, it represents a funding level that (a) the states are 
confident the Corps can effectively utilize in fiscal year 2001, (b) 
will lay the foundation for a fully funded program in the future, and 
(c) demonstrates the on-going federal commitment to balanced management 
of this river system as ``a nationally significant ecosystem and a 
nationally significant commercial navigation system.'' Funding beyond 
the $18 million requested by the Administration is critical:
  --A habitat needs assessment (HNA) is currently being developed, as 
        mandated by the 1999 WRDA. The HNA will help to identify 
        habitat restoration needs at the pool, reach, and system level. 
        It is anticipated that these needs will far exceed the EMP 
        habitat projects currently programmed for construction. 
        Increased funding in fiscal year 2001 will allow a number of 
        projects to proceed to construction and, perhaps even more 
        importantly, initiate planning and design of future projects to 
        meet the needs identified in the HNA.
  --The Long Term Resource Monitoring (LTRM) component of the EMP has 
        been significantly constrained as a result of funding 
        shortfalls in the past few years. It is critical that the LTRM 
        be expanded to monitor components such as mussels, birds, and 
        forests; to expand spatial coverage beyond the six key pools 
        that have been the focus in the past; and to identify cause and 
        effect linkages between physical and ecological processes. 
        These and other unmet data and analysis needs were the reason 
        why the EMP monitoring program was reauthorized in 1999. Now, 
        it is necessary to provide sufficient funding for this 
        important work to proceed.

                 MAJOR REHABILITATION OF LOCKS AND DAMS

    Given that most of the locks and dams on the Upper Mississippi 
River System are over 60 years old, they are in serious need of repair 
and rehabilitation. For the past 14 years, the Corps has been 
undertaking major rehabilitation of individual facilities throughout 
the system in an effort to extend their useful life. This work is 
critical to ensuring the system's reliability and safety.
    The UMRBA supports the Corps' fiscal year 2001 budget request of 
approximately $19.22 million for major rehabilitation work at 4 locks 
and dams on the Upper Mississippi River. Half of this amount is to be 
provided by the Inland Waterways Trust Fund. The fiscal year 2001 major 
rehabilitation funds will support continuing work at Locks and Dams 3, 
12, and 24, and initiate rehabilitation of Lock and Dam 11. Work at 
these facilities will include lock rehabilitation, auxiliary lock 
closure rehabilitation, miter gate installation, electrical and 
mechanical rehabilitation, scour protection, rehabilitation of 
embankment systems that are subject to overtopping during flood events, 
and work on outdraft bendway weirs and wall openings.

    OPERATION AND MAINTENANCE (O&M) OF THE UPPER MISSISSIPPI RIVER 
                           NAVIGATION SYSTEM

    The Corps of Engineers is responsible for operating and maintaining 
the Upper Mississippi River System for navigation. This includes 
channel maintenance dredging, placement and repair of channel training 
structures, water level regulation, and the daily operation of 29 locks 
and dams on the Mississippi River and 7 locks and dams on the Illinois 
River. The fiscal year 2001 budget includes nearly $135 million for O&M 
of this river system, including $97.1 million for the Mississippi River 
between Minneapolis and the Missouri River, $13.4 million for the 
Mississippi River between the Missouri River and Ohio River, and $24.4 
million for the Illinois Waterway.
    These funds are critical to the Corps' ability to maintain a safe 
and reliable commercial navigation system. The efficiency of this 
system is vital to the agricultural economy of the five states. In 
addition, these funds support a variety of activities that ensure the 
navigation system is maintained while protecting and enhancing the 
river's environmental values. For example, O&M funds support innovative 
environmental engineering techniques in the open river reaches such as 
bendway weirs, chevrons, and notched dikes that maintain the navigation 
channel in an environmentally sensitive manner. In addition, water 
level management options for a number of pools in the impounded portion 
of the river are being evaluated under the O&M program. Pool level 
management is a promising new approach for enhancing aquatic plant 
growth and overwintering conditions for fish without adversely 
affecting navigation.
    While the funds that the Corps has requested for fiscal year 2001 
are expected to be adequate to meet basic O&M requirements, the UMRBA 
supports additional funding of $16 million, which could be effectively 
utilized in fiscal year 2001 for critical needs such as electrical 
repairs, bulkhead repairs, repairs to cracks and spalls on lockwalls, 
concrete repairs, repairs to liftgates, revetment and dike repairs, and 
replacement of roller gate chains at various lock locations on the 
upper river. Additional funds are also needed to support work related 
to fish passage at locks.

                            NAVIGATION STUDY

    The UMRBA supports the President's fiscal year 2001 budget request 
of $1.2 million for the Upper Mississippi River and Illinois Waterway 
Navigation Study. Recent allegations regarding the study's economic 
analysis are indeed serious and need to be addressed. However, the 
feasibility study, which was initiated in 1993, is nearing completion 
and the funding request for fiscal year 2001 is intended to be used to 
complete all aspects of the study. In particular, the draft report and 
draft Environmental Impact Statement have yet to be completed and the 
public review process, including public meetings, will need to be 
conducted. It is essential that the Corps has sufficient funds to 
complete these important tasks and produce a sound economic and 
environmental assessment of navigation capacity expansion needs.

          UPPER MISSISSIPPI RIVER SYSTEM FLOW FREQUENCY STUDY

    Flow frequencies for the Upper Mississippi River System badly need 
revision. The flood profiles currently in use were developed in 1979 by 
an interagency task force and replaced profiles previously adopted in 
1966. However, the accuracy of the 1979 profiles has come into question 
now that there are over 20 years of new data, including flow records 
from several high water events like the Great Flood of 1993.
    Flood elevation profiles have a variety of important uses including 
flood insurance; floodplain management; and the study, design, and 
construction of flood control projects. Thus, the five states of the 
Upper Mississippi River Basin have been strong supporters of the Corps' 
efforts to reassess the methodology, update the data, and develop more 
sophisticated and accurate models.
    The UMRBA supports the fiscal year 2001 budget request of $888,000 
for the Upper Mississippi River Flow Frequency Study. These funds will 
be used to complete the hydraulic model which was begun in fiscal year 
2000 and to develop the new flood profiles.

       MISSOURI AND MIDDLE MANAGEMENT RIVERS ENHANCEMENT PROJECT

    Section 514 of the 1999 Water Resources Development Act (WRDA) 
authorized a new Missouri and Middle Mississippi Rivers Enhancement 
Project to address the unique habitat needs of specific portions of 
these two great rivers. The fiscal year 2001 budget request includes 
$500,000 to develop the plan that, as described in 1999 WRDA, would 
include activities such as modifying channel training structures and 
side channels, island creation, creation of riverine habitat, and 
biological and physical monitoring. The basin states support this 
funding request and further request that the planning phase of the 
project be completed at full federal expense given the interstate 
character of the plan.

                         LAND MANAGEMENT SYSTEM

    The Corps of Engineers' Research and Development (R&D) budget for 
fiscal year 2001 includes $26 million, $250,000 of which is to be 
allocated to development of a Land Management System (LMS) 
demonstration project on the Upper Mississippi River System. Past LMS 
funding shortfalls have resulted in numerous scheduling set-backs. The 
UMRBA supports funding for the LMS project, including an additional 
$2.5 million, that could effectively be utilized in fiscal year 2001.
    The Waterways Experiment Station (WES) in Vicksburg, Mississippi is 
leading the effort, which focuses on three specific locations in the 
basin: Peoria Lakes on the Illinois River, the Minnesota River (Redwood 
Basin), and Pool 8 on the Mississippi River. Problems such as wetland 
loss, poor water quality, and habitat loss are common to all these 
locations and are related to sediment transport and deposition. 
Evaluation of the ecological consequences of hydrologic and sediment 
dynamics at these sites within the Upper Mississippi River System will 
enhance LMS applications to other large river systems. This current 
research investment should pay long term dividends, allowing the Corps 
to design and manage more effective and efficient projects nationwide.
                                 ______
                                 
Prepared Statement of the St. Francis Levee District Board of Directors

    My name is Bill Felty. I live in West Memphis, Arkansas which is 
located on the West side of the Mississippi River in the St. Francis 
River Basin. I am Chief Engineer of the St. Francis Levee District of 
Arkansas. Our District is the local cooperation organization for the 
St. Francis Basin Project in Northeast Arkansas.
    The St. Francis Basin is comprised of an area of approximately 
3,500 square miles in Southeast Missouri and Northeast Arkansas. The 
basin extends from the foot of Commerce Hills near Cape Girardeau, 
Missouri to the mouth of the St. Francis River seven miles above 
Helena, Arkansas a distance of 235 miles. It extends to the West to the 
uplands of Bloomfield and Crowley's Ridge, having a maximum width of 45 
miles.
    The St. Francis Basin Project provides essential flood protection 
to over 2,500 square miles in Northeast Arkansas alone. Within the 
Arkansas portion of the St. Francis River Basin there is roughly 
1,500,000 acres of some of the most fertile farmland in the world. This 
land has provided food and fiber for the United States and the World 
for well over 200 years. In the past agriculture has been the primary 
basis of economy along the Mississippi River. However, resources and 
infrastructure have allowed Northeast Arkansas to evolve into a 
prosperous commercial and industrial region as well. This growth and 
prosperity could not exist without the drainage and flood control 
efforts made possible by the appropriations from your committee.
    As your Subcommittee reviews the Civil Works Budget for fiscal year 
2001 Appropriations for the Mississippi River and Tributaries Project, 
please consider the significance of this project to the Lower 
Mississippi Valley and to the Nation's security, economy, and 
infrastructure. The amount of $309,000,000 included in the President's 
Budget for the overall Mississippi River and Tributaries Project is 
significantly less than the amount needed to keep this project on 
schedule. Timely completion of this project is of paramount importance 
to the citizens of the Lower Mississippi Valley. As each day passes 
with this project incomplete, the Lower Mississippi Valley is at 
enormous risk of major flood devastation. Therefore, we support the 
amount of $370,000,000 requested by the Mississippi Valley Flood 
Control Association for use in the overall Mississippi River and 
Tributary Projects. This is the minimum amount that the Executive 
Committee of the Association feels is necessary to maintain a 
reasonable time line for completion of the overall Mississippi River 
and Tributaries Project.
    Also, the amounts included in the President's Budget for the St. 
Francis Basin Project, construction and maintenance are not sufficient 
to fund proposed projects. The declined amounts that have been 
appropriated for this project in the past have resulted in a 
significant backlog of work within the St. Francis Basin. Therefore, 
our District is requesting $3,795,000 for St. Francis Basin Project 
construction funds and $12,000,000 for St. Francis Basin Project 
maintenance funds. This includes an additional capability of $600,000 
for construction funds and an additional capability of $6,000,000 for 
maintenance funds. The amounts requested for the St. Francis Basin 
Project are a part of the total amount requested for the Mississippi 
River and Tributary Appropriations of the Civil Works Budget.
    I feel the Subcommittee will give fair consideration to the needs 
of the Mississippi River and Tributaries Appropriations. I appreciate 
the time given and the work you do to advance the development of the 
water resources projects.
                                 ______
                                 

  Prepared Statement of the Tennessee-Tombigbee Waterway Development 
                               Authority

    Dear Mr. Chairman, we appreciate the opportunity to once again 
submit to you for your Committee's consideration our requests for 
appropriations for the Tennessee-Tombigbee Waterway and other waterway 
related projects for fiscal year 2001. This is the 40th consecutive 
year the Authority has had this opportunity.
    We also want to thank you for the leadership and support you have 
given to water resources development while serving as Chairman of the 
Energy and Water Resources Appropriations Subcommittee.
    The Tennessee-Tombigbee Waterway continues to have a profound 
impact on trade and economic development. Some 9 million tons of 
commerce are shipped each year at great savings in costs to shippers 
and producers. The waterway's low transportation costs have helped 
stimulate nearly $4 billion of new and expanded industrial development. 
These private investments have created more than 50,000 new jobs. Its 
recreational attractions draw more than 3.5 million visitors each year 
that generate about $200 million of additional economic spending 
annually.
    Tenn-Tom's ability to continue generating such impressive economic 
benefits to the nation will depend upon the Federal Government 
adequately maintaining the waterway and its facilities. Regrettably, 
this has not been the case for the past 4 years and the waterway's 
structural integrity has deteriorated because of lack of funds.

                  TENNESSEE-TOMBIGBEE WATERWAY FUNDING

    Current Level.--$21.5 million.
    Proposed 2001 Level.--$23.5 million.
    Requested 2001 Level.--$25.7 million.
    We are very concerned about the growing backlog of needed but 
unfunded maintenance and repairs for the waterway. Although the Tenn-
Tom is a relatively new project compared to others, deferred 
maintenance has now reached $9 million most all of which have 
accumulated since 1997.
    While the President's budget includes an increase in funding for 
the waterway for the first time in memory, these funds are earmarked 
for costs associated with closure of three locks for inspection and 
major repairs in 2001. This is the first major closure of the Tenn-Tom 
for repairs since the waterway opened some 15 years ago.
    We respectfully request the committee approve $25.7 million for O&M 
of the Tenn-Tom for next fiscal year. The additional funds of $2.2 
million will be used to curtail the deferred maintenance now 
accumulating on the waterway. These additional funds are needed as 
follows:
  --$1 million for additional dredging to ensure authorized channel 
        depths for commercial traffic.
  --$250 thousand for increasing capacity of upland disposal areas for 
        dredged material.
  --$300 thousand for emergency repairs at Whitten Lock.
  --$650 thousand to fully fund the needs of the conservation agencies 
        in Alabama and Mississippi to adequately manage over 135,000 
        acres of federal lands as part of the Tenn-Tom Wildlife 
        Mitigation Project. The States assumed the management of these 
        lands on the assumption that adequate funds would be provided. 
        This has not been the case.
    The availability of these funds will stop the physical 
deterioration of the waterway caused by underfunding since 1997 and 
allow the project to generate its expected benefits. It would be penny 
wise and pound foolish not to do so.

                             KENTUCKY LOCK

    Current Level.--$24.2 million.
    Proposed 2001 Level.--$15.0 million.
    Recommended 2001 Level.--$40.0 million.
    One of the worst bottlenecks on the nation's entire waterway system 
is the antiquated and out-moded lock at Kentucky Dam on the Tennessee 
River. Congress appropriated funds last year to start construction of a 
new 1200-foot lock. The President's recommendations for this project in 
2001 are woefully inadequate and, if approved, will delay completion of 
the project by at least one year.
    If the new lock is not completed by 2008, shippers and the nation 
will incur as much as $250 million in losses when the old lock is 
closed for a total of 8 months for extensive repairs beginning in 2009. 
The request of $40 million is needed to keep construction on its 
current schedule of completion by 2008 and preclude these losses.

                            CHICKAMAUGA LOCK

    We support the President's request of $1.9 million to the Corps of 
Engineers to continue repairs to this 60 year-old lock. These repairs 
will help stem the structural deterioration of this project and permit 
the lock to remain in operation until the Congress has the opportunity 
to make a decision on its replacement. The study to determine the 
economic feasibility of building a new lock at Chickamauga Dam is 
expected to be completed in the fall of 2000.

                       WARRIOR-TOMBIGBEE WATERWAY

    The Authority supports the Warrior-Tombigbee Waterway Association 
and its request for $20.275 million that will adequately fund the 
operation and maintenance of this waterway in 2001. The reliability of 
the Tenn-Tom as a viable shipping artery is dependent on the 
navigability of the connecting Warrior-Tombigbee system, especially its 
southern 215-mile reach.
    Thank you again for your careful consideration of our request for 
the continued funding of these most important projects.
                                 ______
                                 

      Prepared Statement of the Warrior & Gulf Navigation Company

    I am J. Craig Stepan, General Manager of Warrior & Gulf Navigation 
Company. Our company is an active member of the Warrior-Tombigbee 
Waterway Association. I wish to take this opportunity to highlight the 
impact that the Black Warrior-Tombigbee Waterway and the Port of Mobile 
have on the success and development of our Company and to solicit your 
support on behalf of several critical waterway issues.
    Warrior & Gulf is a barge line and terminal operator headquartered 
in Chickasaw, Alabama, and owns 20 towboats and 240 barges, moving 
approximately 8 million tons of bulk materials on the Black Warrior-
Tombigbee River System. This makes WGN the dominant water carrier 
operating in the region. Additionally, we own and operate two bulk and 
general cargo terminals at Port Birmingham and Mobile, Alabama, 
providing storage, transloading and intermodal services for truck, rail 
and water transportation. Our total employment is 235 people.
    Warrior & Gulf has provided barge transportation on the Black 
Warrior-Tombigbee River Systems since 1940 for export and domestic 
coal, iron ore, coke, import and export steel products, export and 
domestic wood chips, and several other types of bulk commodities. An 
efficient and properly maintained waterway system integrated with the 
Port of Mobile is vital to Warrior & Gulf and its customers. This 
waterway system has made the entire region world competitors through 
the reliable, efficient movement of raw materials and finished products 
both for domestic and overseas consumption. In order to encourage 
continued economic development along this great waterway we must 
continue in our efforts to ensure this viable low cost transportation 
alternative remains in place. The continued efficiency of this waterway 
is extremely critical to the viability of the industries it serves and 
helps to develop. This waterway system and harbor hold great 
opportunity for developing trade initiatives with Mexico, South America 
and the world.
    We have worked closely with the Corps of Engineers and 
wholeheartedly endorse the President's budget request of $19,204,000 in 
O&M funds for the Black Warrior-Tombigbee system for fiscal year 2001 
to ensure continued transportation operations. In addition, we support 
an add-on request of $1.0 million to fund an engineered solution to the 
critical Bankhead Lock lower gate problem.
    Lastly, it goes without saying that the maintenance of the Mobile 
harbor is vital to our waterway and the entire southern region. We, 
therefore, support the appropriation of $21,165,000 to adequately fund 
Mobile harbor's O&M needs.
    Our company and its employees respectfully request your continued 
support of funding for these very important issues concerning the Black 
Warrior-Tomibigbee System, the Port of Mobile and those they serve.
                                 ______
                                 

                     Letter From Anthony J. Topazi

                                          Southern Company,
                                    Birmingham, AL, March 14, 2000.
Hon. Pete V. Domenci,
Chairman, Subcommittee on Energy and Water Development,
U.S. Senate, Washington, DC.
    Dear Senator Domenici: On behalf of Southern Company and it 
subsidiaries, Alabama Power Company, Gulf Power Company, and 
Mississippi Power Company, I am writing to express our support for the 
Warrior-Tombigbee Development Association in their efforts before your 
committee. Because of the importance of the Warrior-Tombigbee Waterway 
to local, national, and international trade, the Southern Company joins 
with the Warrior-Tombigbee Development Association in an effort to 
improve the efficiency and reliability of the Warrior-Tombigbee 
Waterway.
    Alabama Power Company, Gulf Power Company and Mississippi Power 
Company have used the Warrior-Tombigbee and the facilities in the Port 
of Mobile to transport coal to their respective electrical generating 
plants at Demopolis, Alabama; West Jefferson, Alabama; Mobile, Alabama; 
Pensacola, Florida; Sneads, Florida and Biloxi, Mississippi. In 2000, 
we project to move over 8.5 million tons, through the use of contracted 
barge carriers, by way of the Warrior-Tombigbee Waterway. The Warrior-
Tombigbee Waterway allows the barges to move up and down the Warrior-
Tombigbee River from in-state and out-of-state coal suppliers to our 
generating plants. The significant importance of this capability to our 
system is obvious from a transportation flexibility standpoint. 
Additionally, the Port of Mobile is the hub of the Central Gulf Coast 
and has become a major focus of our coal movement plans. The continued 
development of its facilities and support services is critical to the 
economy of the tri-state area served by the Southern Company.
    Alabama Power Company, Gulf Power Company and Mississippi Power 
Company utilize water transportation because of the economic advantage 
to two million customers. Any expenditures for maintenance or upgrading 
which improve the efficiency and reliability of the waterway will have 
a positive impact on our customers. At the same time, higher cost 
resulting from inefficiency or the unreliability of the Warrior-
Tombigbee Waterway will have a direct and adverse effect upon our 
customers.
    Adequate funding of programs required to maintain the efficiency 
and reliability of our nation's waterways and associated infrastructure 
is critical to its superior economic health and welfare. I strongly 
urge and solicit your support.
            Sincerely,
                                            Anthony Topazi,
                                                    Vice President.
                                 ______
                                 

      Prepared Statement of the Alabama Electric Cooperative, Inc.

                         BACKGROUND INFORMATION

    Alabama Electric Cooperative, Inc. (AEC) is a wholesale power 
supplier for 21 member-owners located in central and south Alabama and 
northwest Florida. The member-owners serve over 330,000 customer-
members. AEC operates the Charles R. Lowman Power Plant, located at 
Milepost 89.5 on the Tombigbee River, a coal-fired power plant which 
burned 1,512,658 tons of coal in 1999. Also, AEC has a site on the 
Black Warrior-Tombigbee River which is a possible location for a future 
base-load fossil fired generating plant.

                   STATEMENT OF INTEREST AND SUPPORT

    AEC joins the collective effort to improve the efficiency and 
reliability of the Warrior-Tombigbee Waterway because of the lower fuel 
transportation costs which the waterway provides to AEC's Lowman 
electric generating plant. The Black Warrior-Tombigbee Waterway (BWT), 
the Tenn-Tom Waterway, and the Port of Mobile are vital to our delivery 
of coal economically and efficiently to this plant, which is located on 
the Tombigbee River near Jackson, Alabama. During calendar year 1999, 
we received 363,199 tons of coal via the BWT which accounts for over 23 
percent of total coal received.
    Because delivered coal cost is such an important factor in our 
ability to maintain competitive rates to our member systems, AEC 
supports the Black Warrior-Tombigbee project and level funding for the 
Corps of Engineers' fiscal year 2001 budget. In addition, AEC supports 
the additional request of $1,000,000 urgently needed for work on the 
Bankhead Lock.
    In addition to the dependency which AEC has upon the BWT, there are 
benefits to our region and our end-consumers as a direct result of a 
viable BWT waterway and the Port of Mobile. These systems provide an 
invaluable link between our region and the world markets. As such, they 
stimulate the region's economy, provide jobs, and help reduce the trade 
deficit.

  SPECIFIC BENEFITS OF THE WARRIOR-TOMBIGBEE WATERWAY AND THE PORT OF 
                             MOBILE TO AEC

    The amount of coal moved to AEC's Plant Lowman by barge on the BWT 
for the past five years is as follows:

        Year                                                        Tons
1995..........................................................   874,044
1996.......................................................... 1,103,919
1997.......................................................... 1,052,575
1998..........................................................   938,483
1999..........................................................   363,199
                    --------------------------------------------------------------
                    ____________________________________________________

    Total..................................................... 4,332,220

    The savings in transportation costs represented by the above 
tonnage exceeds $25 million compared to AEC's next viable option of 
delivery via rail.
    AEC plans to continue to move its barge coal via the BWT in 2000 
and beyond. AEC has recently entered into a six-year contract for 
supply of imported coal into the Port of Mobile. This coal will supply 
Lowman Plant with up to 50 percent of its total coal by barge.

             STATEMENT WITH REGARD TO APPROPRIATION AMOUNTS

    AEC supports the President's request for funding ($19,204,00) for 
Operation and Maintenance in the Corps of Engineers' fiscal year 2001 
Budget. We view this as a minimum requirement in that this level of O&M 
funding is necessary to cover the minimum expected needs within the 
Mobile District for fiscal year 2001.
    AEC also supports the appropriation of adequate O&M funds of 
$21,165,000 for Mobile Harbor.
    Lastly, AEC supports an amount of $1,000,000 for engineering and 
designs for the lower gates on the Bankhead Lock. The status of this 
project has been identified as urgent, and is nearing the emergency 
state.

                               CONCLUSION

    We appreciate the opportunity to submit a statement on behalf of 
our member owners in central and south Alabama and northwest Florida 
pertaining to the benefits of the BWT waterway and the Port of Mobile. 
AEC and its member-owners fully support the Corps of Engineers' 2001 
budget request for $19.2 million in operations and maintenance funds 
for the BWT waterway, as well as $1 million for urgent work on the 
Bankhead Lock, and $21.2 million for Mobile Harbor O&M. While we are 
well aware of budget constraints, we believe these projects should be 
funded at these levels to assure a viable transportation system. With 
the money that has already been spent in construction of the BWT 
transportation system, proper funding for operations and maintenance 
is, in our view, prudent management of what is undoubtedly a national 
asset.
                                 ______
                                 

         Prepared Statement of Stevedoring Services of America

    Our company, Stevedoring Services of America (SSA), is a 55 year-
old stevedoring and marine terminal operating company that utilizes the 
Warrior-Tombigbee Waterway and the Port of Mobile, Alabama, in our 
daily operations. We handle approximate annual tonnage, via the 
Tombigbee Waterway and Port of Mobile as follows: 1.7 million tons of 
forest products, 1.5 million tons of bulk cargo (coal) through Mobile 
and 270,000 tons of bulk and breakbulk products through the Port of 
Columbus, MS. This business results in direct employment of fifty 
people and an additional 300,000 man hours per year for four local 
International Longshoremen Association unions generating an annual 
total of over $12.5 million in wages and benefits.
    SSA supports the President's fiscal year 2001 budget request of 
$19,204,000 for the operation and maintenance of the Black Warrior-
Tombigbee Waterway by the Corps of Engineers. We also request you 
provide an add-on request for the urgent need of $1,000,000 for 
engineering and designs of the lower gates on the Bankhead Lock. 
Additionally, maintaining the Mobile Harbor is critical to SSA's 
business, and the Alabama State Docks. Therefore, we urge your support 
for appropriation of $21,165,000 for maintaining and improving the 
Mobile Harbor.
    SSA fully supports the collective effort to improve the efficiency 
and reliability of the Warrior-Tombigbee Waterway (BWT). The waterway 
is a vital national transportation artery providing access to low cost, 
energy efficient, environmentally safe barge transportation. Moreover 
it is critical to SSA's business, to maintaining international commerce 
at the Port of Mobile and growing our local, state and national 
economy. Maintaining and improving the efficiency and reliability of 
the waterway is essential to protect and grow SSA's business.
    We strongly urge you to support the aforementioned budget request. 
The BWT is an important segment of our national transportation 
infrastructure. After all, our nation's transportation infrastructure 
is what keeps America moving and competitive in the global economy.
    We very respectfully appreciate your consideration of this matter.
                                 ______
                                 

          Prepared Statement of the Velasco Drainage District

    Mr. Chairman and members of the committee: As Chairman of the Board 
of Supervisors of the Velasco Drainage District (VDD) in Southern 
Brazoria County, Texas, I would like to testify in support of the 
fiscal year 2001 budget request the Corps of Engineers (COE), Galveston 
District has made for a New Start Reconnaissance Study of the Freeport 
Hurricane Levee System. This request was made as subsequent to a 
request from VDD for a review of the Freeport Hurricane Levee Project 
under Section 216 of the 1970 Flood Control Act.

                               BACKGROUND

    The Brazosport area is protected by a Hurricane Levee System that 
protects approximately 236 square miles from hurricane damage of 
industrial and residential property and loss of life.
    When the COE completed the latest upgrade of the project in mid-
1970's, the VDD assumed the operational and maintenance responsibility 
of the System. It includes 53 miles of levees, 66 miles of major 
outfall ditches, 13 pump stations with a pumping capacity of 3.4 
million gpm, and assets of invested taxpayers funds of approximately 
$60 million. The levee system was studied in 1957 and 1966, which 
resulted in a major upgrading of the levee system in the early 1970's 
including several miles of extension and elevation increases along the 
entire levee system.
    In 1998, as a part of an internal risk management review, a large 
local chemical company commissioned an independent study of the 
existing levee system to evaluate the probability and potential 
property and business loss of various size hurricanes hitting the Texas 
Gulf Coast at or in the near vicinity of Freeport, TX. The study 
results indicated that a large Category 3 or Category 4 storm would 
likely over top the existing levee system, causing significant flooding 
and property damage to both residential and industrial property.

                           WHAT IS REQUESTED

    The people and businesses living within the hurricane protection 
levee crucially need to know whether the levee is adequate. Therefore, 
VDD urges the committee to include $100,000 for a New Start 
Reconnaissance Study as requested by the COE in the fiscal year 2001 
appropriations.

                            WHAT IS AT RISK

    Lives.--Close to 50,000 residents rely on the levee to protect 
their lives, homes and property.
    Property.--In addition, the area inside the levee is heavily 
developed, with over $4.8 billion of buildings and other improvements, 
according to our tax rolls. This does not include the value of or 
operation interruption of the Strategic Petroleum Reserve facility at 
Bryan Mound.
    Income.--The area within the levee is highly industrialized. If a 
storm surge overtopped the levee, the business interruption losses 
would be catastrophic, and the effects could be felt nationwide.
    Environment.--Still further, the levee protects numerous large 
chemical plants. Therefore, an inadequacy of the levee height could 
well result in an environmental disaster, in addition to loss of lives, 
property and revenues.

                      WHY A NEW STUDY IS NECESSARY

    The existing levee was designed almost a half a century ago, in 
1957, and the design has not been reviewed since 1966, roughly 34 years 
ago. Obviously, conditions have changed dramatically in that time, as 
follows:
  --The quantity of lives, chemical plants, and other property 
        developments now depending on the levee is several orders of 
        magnitude greater than when the levee was designed in the 
        1950's.
  --Modern computer modeling technology for hurricanes makes the 1957 
        technology seem primitive. Yet the people, property, and 
        environment of southern Brazoria County are still depending on 
        a levee with 1958 knowledge and technology. There now is 40 
        more years of actual hurricane data compiled that could be used 
        with vastly improved modeling technology.
  --The economic value of existing properties within the levee has also 
        risen significantly over the decades.
  --The damage that a storm surge overtopping the levees might inflict 
        on the coastal environment has expanded apace with the 
        profusion of chemical plants within the levee.
  --The number of lives and property now at risk justify a greater 
        public investment than quantities in 1957.
  --Development has reduced the floodwater storage (ponding) areas in 
        this vicinity since the 1957 study.
  --The VDD has added significant pumping capacity relative to the 
        recommended capacity in the 1958 study.
  --Subsidence in the coastal plain may well have increased since 1957, 
        especially considering the increase in groundwater use over the 
        years as industrial and residential development have 
        multiplied.
  --The Bryan Mound Strategic Oil Storage facility is now protected by 
        the levee system.

                         HISTORY OF THE REQUEST

    In October 1998, based on the risk analysis study conducted by 
local industry and after several meetings and discussions with local 
industry, community leaders and the COE, the VDD requested a review of 
the Freeport Hurricane Levee Project under Section 216 of the 1970 
Flood Control Act
    Based on that request the COE began an Initial Appraisal (IA) of 
the Freeport Levee project in January 1999. The completed IA assessed 
the current conditions of the levee system to determine if there was a 
need for further studies. These studies evaluated the need and 
justification for additional construction to avoid future hurricane 
damages to life and property. The IA indicated that the project might 
potentially not function as intended. Therefore, the COE proposed to 
initiate a full study and prepared to budget for a New Start 
Reconnaissance Study in fiscal year 2001. This would require funding of 
$100,000 for the New Start Reconnaissance Study. The COE did submit 
their request in their fiscal year 2001 budget submittal. That request 
for a New Start has been deleted from the Administration/OMB budget 
submitted to Congress on February 7.
    The VDD, local industry and community leaders were of the opinion 
that the need was more urgent and made an unsuccessful effort to have 
the New Start study added as a line item in the COE fiscal year 2000 
budget. The VDD has offered to fund the New Start Study; however, there 
is no mechanism in place to allow an outside entity to fund a COE New 
Start Study. Reprogramming was considered as an alternate to expedite 
the study; however, reprogramming is not allowed on a New Start Study.
    Due to the potentially large liability of hurricane damage and loss 
of life, the VDD urges the committee not allow the small size 
($100,000) of the funding request to negatively impact the real need 
for the study.

                               CONCLUSION

    Therefore, with a great deal of concern and urgency on the part of 
the VDD, local industry and community leaders we ask that the committee 
include the funding for the New Start Reconnaissance Study per the 
COE's request in their fiscal year 2001 appropriations.
                                 ______
                                 

                        Letter From J. Mark Cook

                                          R&W Marine, Inc.,
                                    Paducah, KY, February 24, 2000.
Hon. Ron Packard,
Chairman, Subcommittee on Appropriations for Energy and Water 
        Development,
U.S. House of Representative, Washington, DC.
Hon. Pete V. Domenici,
Chairman, Subcommittee on Appropriations for Energy and Water 
        Development,
U.S. Senate, Washington, DC.
    Dear Congressman Packard and Senator Domenici: I am writing to 
express my support for the continued maintenance and improvement of the 
Black Warrior-Tombigbee Waterway system.
    R&W Marine, Inc. is one of the largest tramp towing companies in 
the inland river system. This means that R&W Marine, Inc., is engaged 
in the business of towing barges for many companies, as it does not own 
any barges itself. A significant number of our customers require 
service to and from both the Black Warrior-Tombigbee Waterway system 
and the Port of Mobile. The tonnages flowing through these waters are 
significant to the economies of the states in that region, from the 
points of view of both producers and consumers. Barging is a very low 
cost method of transportation, responsible for moving more than 15 
percent of all of the United States total freight for less than 2 
percent of the nation's total transportation costs, which translates 
into savings for the consumer, such as lower rates for electricity.
    Another important aspect of the Black Warrior-Tombigbee Waterway 
system is that it provides the only alternative to the Mississippi 
River to move product to the Gulf Coast. This was extremely important 
during the drought year of 1988 when the lower portion of the Ohio 
River was closed for an extended period and the lower Mississippi River 
was severely restricted for approximately five months. The availability 
of the Black Warrior-Tombigbee Waterway system allowed us to continue 
to serve utility and industrial customers and kept those customers from 
having to shut down operations because they could not receive raw 
material.
    R&W Marine, Inc., fully supports and recommends appropriation of 
$21.1 million for Mobile Harbor in fiscal year 2001. In addition, we 
support the appropriation of $19.2 million for operation and 
maintenance of the Black Warrior-Tombigbee Waterway system for fiscal 
year 2001. Finally, we recommend additional funding to permit the Corps 
of Engineers to proceed with engineering and design of the lower gates 
on Bankhead Lock, which totals $1,000,000. All of these funds are 
necessary to assure that the Port of Mobile and the Black Warrior-
Tombigbee Waterway remain important parts of the inland waterways 
system. The Port of Mobile is an integral part of the waterway system, 
especially as an alternative origin to the Port of New Orleans. 
Improvement of the Mobile Harbor will increase utilization of the Black 
Warrior-Tombigbee Waterway overall and generate significant additional 
monies for the states in this region. We request your support in 
reviewing and approving these project-funding limits for fiscal year 
2001.
            Sincerely,
                                              J. Mark Cook,
                                                         President.
                                 ______
                                 

                    Letter From Robert L. Doetting,

                                  Red Circle Transport Co.,
                                 Cincinnati, OH, February 24, 2000.
Hon. Ron Packard,
Chairman, Subcommittee on Appropriations for Energy and Water 
        Development,
U.S. House of Representative, Washington, DC.
Hon. Pete V. Domenici,
Chairman, Subcommittee on Appropriations for Energy and Water 
        Development,
U.S. Senate, Washington, DC.
    Dear Congressman Packard and Senator Domenici: I am writing to 
express my support for the continued maintenance and improvement of the 
Port of Mobile.
    Red Circle Transport Co., is a subsidiary of one of the nation's 
largest barge transportation companies and provides service to Puerto 
Rico. The Port of Mobile is a port of call for ConAgra, one of Red 
Circle's major customers. Products from Mobile are transported to San 
Juan, Puerto Rico, enhancing the economic viability of both locations. 
In addition, products from Mobile help sustain the viability of Puerto 
Rico, an island nation dependent upon cost effective, reliable water 
transportation service. Barging is a very low cost method of 
transportation, responsible for moving more than 15 percent of all of 
the United States total freight for less than 2 percent of the nation's 
total transportation costs, which translates into savings for the 
consumer, such as lower rates for food products and electricity.
    Red Circle Transport Co., fully supports and recommends 
appropriation of $21.1 million for Mobile Harbor in fiscal year 2001. 
In addition, we support the appropriation of $19.2 million for 
operation and maintenance of the Black Warrior-Tombigbee Waterway 
system for fiscal year 2001. Finally, we recommend additional funding 
to permit the Corps of Engineers to proceed with engineering and design 
of the lower gates on Bankhead Lock, which totals $1,000,000. All of 
these funds are necessary to assure that the Port of Mobile and the 
Black Warrior-Tombigbee Waterway system remain important parts of the 
inland waterways system.
    We request your support in reviewing and approving these project-
funding limits for fiscal year 2001. Continued support for improvement 
of Mobile Bay and the water systems that support commerce at Mobile 
will result in a significant economic benefit to the United States and 
the Caribbean Region.
            Sincerely,
                                        Robert L. Doetting,
                             Senior Vice President, Transportation.
                                 ______
                                 

                      Letter From Jerry L. Stewart

                                          Southern Company,
                                 Birmingham, AL, February 22, 2000.
Hon. Pete V. Domenici,
Chairman, Subcommittee on Energy and Water Development,
U.S. Senate, Washington, DC.
    Dear Congressman Domenici: On behalf of Alabama Power Company, I am 
writing to express our support for the Warrior-Tombigbee Development 
Association and its president in their efforts before your Committee. 
Because of the importance of the Warrior-Tombigbee Waterway to local, 
national and international trade, Alabama Power Company joins with the 
Warrior-Tombigbee Development Association in an effort to improve the 
efficiency and reliability of the Warrior-Tombigbee Waterway.
    Alabama Power Company has used the Warrior-Tombigbee to transport 
coal to its electrical generating plants at Demopolis, Alabama; West 
Jefferson, Alabama; and Mobile, Alabama. Also, a barge unloader was 
constructed in 1999 at Plant Gorgas located near Parrish. During 2000, 
a majority of the coal for Plant Gorgas will be delivered by barge. In 
1999, through the use of contracted barge carriers, Alabama Power 
Company moved over 5.8 million tons of coal by way of the Warrior-
Tombigbee Waterway. Barge movements to Alabama Power Company plants are 
projected to increase to 9.5 million tons in 2000. The Warrior-
Tombigbee Waterway allows the barges to move down the Warrior-Tombigbee 
River to Mobile and other destinations. The significant importance of 
this capability to our system is obvious from a transportation 
flexibility standpoint. Additionally, the Port of Mobile is the hub of 
the Central Gulf Coast and the continued development of its facilities 
and support services is critical to the economy of the tri-state area 
served by the Southern electric system. During 2000, Alabama Power 
Company is projected to import over 3.5 million tons through the Port 
of Mobile.
    Alabama Power Company utilizes water transportation because of the 
economic advantage to our 1.3 million customers. Any expenditures for 
maintenance or upgrading which improves the efficiency and reliability 
of the waterway will have a positive impact on our customers. At the 
same time, higher cost resulting from inefficiency or the unreliability 
of the Warrior-Tombigbee Waterway will have a direct and adverse effect 
upon our customers.
    It is imperative that there be a continuous program for maintenance 
and upgrading of the Warrior-Tombigbee Waterway channels and locks. 
Alabama Power Company supports the proposed budget request for $19.2 
million in Operations and Maintenance funds for the Black Warrior-
Tombigbee River for the fiscal year 2001. Additionally, we support an 
urgent add-on request of $1.0 million for engineering and design of the 
lower gates on the Bankhead Lock, as well as the appropriation of funds 
for Mobile Harbor in the amount of $21.2 million.
    Adequate funding of programs required to maintain the efficiency 
and reliability of our nation's waterways is critical to its superior 
economic health and welfare. I strongly urge and solicit your support.
            Sincerely,
                                          Jerry L. Stewart,
                                             Senior Vice President.
                                 ______
                                 

                 Prepared Statement of the Hunt Company

    The Warrior-Tombigbee Waterway System and the Port of Mobile are 
critical to the operation of our Refinery in Tuscaloosa, Alabama. We 
barge over 40 percent of our crude oil and over 25 percent of our 
refined products using both the Port of Mobile and the WTWA system. We 
use the Port of Mobile as a starting point to pipeline or barge foreign 
and domestic crude north at the rate of approximately 12 million 
barrels per year.
    Hunt Refining Company presently employs over 250 residents of West 
Alabama and has been an important participant in the local economy 
since 1946. An inability to run our Refinery efficiently and at maximum 
capacity will have a long-term impact on employment at Hunt Refining 
Company and ultimately, the surrounding counties.
    Hunt Refining Company supports the Warrior-Tombigbee project and 
joins the collective effort to improve the efficiency and reliability 
of the WTWA system. We are currently limited by draft restrictions most 
of the year, high river the other part of the year, and to a special 
combination of two-barge tows all year. Through improvements, we hope 
to save a minimum of $0.15 per barrel additional transportation costs 
we incur during periods when the river is above flood stage or at very 
low levels. Naturally, the more barrels we are able to haul on each 
two-barge tow, the lower our cost per barrel. At the present time we 
are limited as to how many barrels we can haul north at one time. Our 
concern long term is to have more flexibility as to the types of tows 
we can hire and the number of barrels we can load per tow. Increased 
navigability of the waterway, increases our transporter choice, 
ultimately keeping costs competitive.
    Two rivers merge at Demopolis Lock (MM213.4). Our dock at Womack 
Hill (MM126.1), which is south of Demopolis Lock and north of 
Coffeeville Lock (MM116.6), is inaccessible for numerous days during 
high river season. We have the same problem at our dock in Tuscaloosa 
(MM337.0) due to the pressure put on the Black Warrior River by 
Bankhead Lock (MM365.5) and the backing up of water from Demopolis 
Lock.
    The Corps of Engineer's Budget request for the BWT Operations and 
Maintenance is $19.2 million. We believe the BWT needs at least this 
level of funding to cover the expected needs of the system. The Corps 
also has two projects identified to improve the efficiency of the 
system. These are the engineering and design of modifications to the 
Bankhead Lock and replacement of the CSX Railroad Bridge. Both of these 
projects would improve the efficiency of the waterway at a cost of $2 
million for both. We are asking for your support for a total of $21.2 
million for the waterway system.
    We further support the funds needed for the Mobile Harbor in the 
amount of $21.2 million.
                                 ______
                                 

         Prepared Statement of David Volkert & Associates, Inc.

    Volkert & Associates, Inc. (Volkert) is an engineering/
architectural/design firm which employs 500 people and maintains 
Alabama offices in Mobile, Birmingham, and Gulf Shores. Volkert 
strongly supports funding for the Warrior-Tombigbee Waterway and the 
Port of Mobile for fiscal year 2001.
    We believe the President's budget request of $19,204,000 for 
Operations and Maintenance of the Black Warrior-Tombigbee Waterway, as 
submitted by the Corps of Engineers, is justified since this amount is 
necessary to cover the known and reasonably expected needs for fiscal 
year 2001, support the day-to-day O&M program, and continue on-going 
channel improvement projects. We also support appropriating $1,000,000 
for engineering and designs, etc. of the lower gates on the Bankhead 
Lock. We understand this need has reached an emergency status. This 
funding is needed to bring the waterway efficiency to the expected 
level.
    Since the City of Mobile's largest industry is her Port and the 
City's present economy and future progress depend upon her Port, 
Volkert also supports $21,165,000 for funding of necessary improvements 
for the Mobile Harbor. This will insure the Harbor's continued 
viability.
    Confidence in the Waterway and its efficiency and modernization of 
its facilities are important in bringing much needed new industry to 
Mobile and to the State of Alabama. Lower operating costs to users of 
the Waterway and Port of Mobile are essential in obtaining a reasonable 
balance of the international export market allowing the U.S. to 
continue to reduce our trade deficit. Increases in shipping and 
commerce result in opportunities for many companies, similar to 
Volkert, to obtain business and offer meaningful employment to citizens 
of the State of Alabama and other parts of the U.S.
    Volkert appreciates this opportunity to express our support of 
Chairman Charles A. Haun and President Sheldon L. Morgan, of the 
Warrior-Tombigbee Waterway Association, and the testimony to be given 
by them before the Appropriations Committee of the Senate and House. We 
are proud to join in the collective effort to improve the efficiency 
and reliability of the Warrior-Tombigbee Waterway and the Port of 
Mobile.
                                 ______
                                 

            Prepared Statement of Navios Ship Agencies Inc.

    We request that you support the U. S. Army Corps of Engineers' 
Operations and Maintenance Budget request for the Black Warrior-
Tombigbee Waterway of $19,204,000. We further support an add-on request 
for $1,000,000 for engineering and designs of the Bankhead Lock. The 
Bankhead Lock is an extremely urgent request and has a potential 
critical status. Thus, we request your support on this additional add-
on of $1,000,000. We also support the Mobile Harbor request of 
$21,165,000.
    Our vessels and our principal's vessels carry 3.8 million tons of 
iron ore and 1.9 million tons of furnace coke per year with the 
majority bound for industries in the State of Alabama. The Port's 
ability to maintain its present draft has enabled us to remain 
competitive on the world market. The continued dredging of the Warrior-
Tombigbee allows this cargo to go through the waterway system of the 
Tombigbee. The U.S. Army Corps of Engineers has done an outstanding job 
maintaining this system.
    A large portion of this cargo is for steel operating in the 
Birmingham, Alabama area. These import raw materials enable the steel 
mills to supply steel for various supplies to this nation. Some of 
these cargo products from the steel mills are re-exported through the 
Port of Mobile, which helps to reduce our trade imbalance. The 
efficiency and reliability of waterways commerce is essential for us to 
provide the raw materials necessary for our principals to meet the 
demands of the various markets within the State of Alabama and the 
United States.
    We have been in operation since 1957 utilizing the Port of Mobile, 
the Warrior-Tombigbee and the Black River systems. We realize the 
importance of tight budget control, yet the benefits on industry, 
commerce and trade, as well as job return, must be recognized. 
Therefore, we solicit your support. We join in the collective efforts 
of all those affiliated companies who realize the importance of 
maintaining this waterway system so that we may continue to bring in 
the necessary raw materials for our manufacturing industries within the 
State of Alabama. For these reasons, we request you to support the 
programs for fiscal year 2001.
                                 ______
                                 

    Prepared Statement of the Warrior-Tombigbee Waterway Association

    The Warrior-Tombigbee Waterway Association represents a broad 
cross-section of shippers, carriers, and the general business community 
in the Warrior-Tombigbee basin in Alabama, and users in nine southern 
states. The Association began in 1950 to work with Alabama's 
Congressional Delegation and the Army Corps of Engineers to plan for 
modernization of the waterway. The Warrior-Tombigbee Waterway now has 
modern and standard sized locks throughout its length. These six new 
locks replaced the seventeen old, turn-of-the-century locks, and today, 
this system represents a most noteworthy example of the positive impact 
of the Federal water resource development program. The most persuasive 
evidence of the validity of this project and the wisdom of those who 
made it possible comes from the record compiled during and following 
the investment in its redevelopment. During the economic studies which 
justified these investments, it was projected that by 1980, the 
Waterway would carry some eight million tons annually, producing a 
positive benefit to cost ratio. These levels were reached in 1966 and, 
by 1980, twice the projected tonnage was being moved. Traffic has since 
reached 25 million tons annually, a level three times that which had 
been projected. Clearly this has been a valid investment in 
infrastructure.
    This Waterway must continue to be efficient and reliable if its 
users are to remain competitive in world markets. Shipments of ore, 
steel, and related products have increased because of the new and 
modern facilities in Birmingham, and a new steel mill at Tuscaloosa and 
Mobile.
    Coal comes out of Kentucky and Colombia to electric generating 
plants on the Warrior-Tombigbee. The Colombian Coal is transhipped at 
the Port of Mobile. Also, there are new facilities at the Port of 
Mobile, which handle more forest products than the total handled by all 
other Gulf Coast ports. The efficiency and reliability of the waterway 
are key factors in the development and competitiveness of these 
facilities, upon which thousands of jobs depend.
    These are some examples of how this waterway is so central to the 
economy of this entire region, impacting both domestic and 
international markets. You will be receiving letters from our users 
further highlighting this importance. These represent a broad cross-
section of the economic heartbeat of an entire region. In these 
statements you will find repeated references to the importance of 
confidence in the waterway to the willingness of business and industry 
to continue to invest in the region. Shippers depend on the reliability 
for the movement of their products. There are wide ranges of interests 
represented by our Association members: financial institutions; public 
utilities; port facilities; coal mining; manufacturers; suppliers; 
marine interests; petroleum and chemical processors and general 
business.
    We support the President's recommendation for O&M funds of 
$19,204,000 and ask for add-ons of $1,000,000 for additional capability 
be provided for the Warrior-Tombigbee Waterway for engineering and 
design for new lock gates at Bankhead Lock and Dam. With the 
Committees' help, we have been able to complete several deferred 
projects following several years of postponements. These projects 
address long-standing problems and have required extensive research and 
coordination and reflect excellent teamwork by the Corps and the 
industry. But for the support of this committee, they would not have 
been reality. We wish to emphasize that this level of funding is the 
minimum essential level.
    Mr. Chairman, we look forward to working with you and are extremely 
pleased that our own Congressman Callahan is a member of your 
Committee. As he knows, industry and the Corps of Engineers in the 
Mobile District have developed a true partnership and enjoy the finest 
of professional and mutually supportive relationships. From this have 
come both short and long range programs which have provided a basis for 
orderly progress toward keeping the Waterway efficient and reliable. 
The funding requirements to which I have referred stem from work we 
need to continue now under these programs. I respectfully repeat that 
the performance of this waterway in successfully handling a level of 
tonnage some three times the projections made during its design, attest 
to foresight of this Committee.
    To summarize, the Warrior-Tombigbee Waterway Association request 
for Operations & Maintenance funding in fiscal year 2001 for the Black 
Warrior-Tombigbee Waterway in the amount of $19,204,000 and $521,000 
for General Investigation. This is level funding for the normal O&M 
work, and is the minimum to keep navigation capability at a nominal 
level. However, additional capability of the Corps is important to the 
continuing improvements for safety and efficiency. They include 
replacement of gates at Bankhead Lock and Dam totaling $1,000,000 for 
engineering and design. Our total request is for a total of $20,725,000 
for fiscal year 2001.
                                summary
    The following is a summary of the funding items for the U. S. Army 
Corps of Engineers for fiscal year 2001 to meet the needs of the 
Warrior-Tombigbee Waterway, and which we ask the Committee to approve:

Warrior-Tombigbee Waterway:
    Operations & Maintenance Funds for Corps' Budget 
      fiscal year 2001 (President's request)............     $19,204,000
    Funds for Additional Capability not included in 
      Corps' O&M Budget Request \1\.....................       1,000,000
    For General Investigations (Long Range Study).......         521,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total funds required..............................      20,725,000
                    ========================================================
                    ____________________________________________________
Other needs allied to the Warrior-Tombigbee are:
    Mobile Harbor:
        Operations & Maintenance Funds, for Corps' 
          Budget fiscal year 2001 \1\...................      21,165,000
        Construction....................................         499,000
                    --------------------------------------------------------
                    ____________________________________________________
          Total funds required..........................      21,664,000

\1\ Funds for Additional Capability items are not included in the Corps' 
Budget request, so it is not likely that the committee has been informed 
of the need of funding for this particular Additional Capability. We are 
requesting the additional funds for replacement of gates at Bankhead 
Lock (near an emergency status), upland disposal sites recycling (these 
substantially reduce annual dredging costs) and rock removal.
---------------------------------------------------------------------------
                                 ______
                                 

             Prepared Statement of the Alabama State Docks

    Enclosed is a statement of requirements for operation and 
maintenance funding for the Mobile Harbor and Ship Channel Federal 
Project for fiscal year 2001 in the amount of $21,165,000. In addition, 
the Alabama State Docks also supports fully funding the operations and 
maintenance budgets designated for the six inland waterways internal to 
or transiting the State of Alabama. We respectfully request that these 
requirements be made a part of the record of your committee and be 
appropriated for funding of the U.S. Army Corps of Engineers' budget 
for fiscal year 2001.

     STATEMENT OF REQUIREMENTS--MOBILE (AL) HARBOR FEDERAL PROJECT

    The purpose of this statement is to identify the requirements for 
the Port of Mobile (POM) in conjunction with the fiscal year 2001 
appropriations for the U.S. Army Corps of Engineers (COE) Civil Works 
Budget.
    The Alabama State Docks (ASD) is the local cost-sharing partner for 
the Mobile Harbor Federal Project. Recent (fiscal year 1998) waterborne 
commerce statistical data ranked the POM as the sixteenth largest port 
in the United States. Cargo transiting the POM is equally divided 
between foreign and domestic. As such the Alabama State Docks (ASD) 
supports fully funding the COE Civil Works requirements, not only for 
the Mobile Harbor but also for the six waterway systems serving the 
State of Alabama and five other States in this region (MS, TN, KY, GA & 
FL).
    In authorizing the deepening of the Mobile Harbor Federal Project 
in 1986, environmental considerations resulted in a substantial 
increase in dredging costs. The Mobile District COE and ASD have worked 
closely and diligently to identify alternative methods of dredging and 
environmentally beneficial methods of disposal with the objective of 
reducing the cost of maintaining the project. One technique that has 
been successful is to create sumps within the channel, especially in 
areas with a history of high shoaling sedimentation rates. Such sumps 
allow for consolidation of the sediment, thereby extending the time 
between dredging events and (potentially) a reduced cost of removal. A 
second approach was to allow the shoaling of the channel toes thereby 
reducing the channel width while reducing the volume of material to be 
dredged. Thirdly, one-way vessel traffic was implemented to insure safe 
operations within the reduced channel width.
    During the period of 1996-1998, all of these measures were used to 
control the cost of maintaining the Project. Actual maintenance costs 
average approximately $20,300,000 per year over this three year period. 
Unfortunately, the use of such measures is not without risk. In 1997 
and 1998, the mid-Gulf Coast and Mobile Bay were directly impacted by 
the effects of hurricanes Danny and Georges. As a result the Corps of 
Engineers expended approximately $32,300,000 and nine months of 
dredging effort in 1999 to restore the authorized operational 
dimensions of the channel.
    This experience, and its negative impact upon the POM's operational 
capabilities, significantly hampered the region's ability to compete in 
the world bulk commodities market in 1999. The Port's vulnerability to 
again suffer severe impact is directly proportional to the maintained 
channel conditions. Given the Port's most recent five-year history, a 
normal scenario would project an annual maintenance cost of 
approximately $22,160,000 per year. Fortunately, the Project is 
currently in the best shape it has been in the last several years. It 
is, therefore, requested that the operation and maintenance budget for 
the Mobile Harbor Project for fiscal year 2001 be set at $21,165,000.
    We thank you very much for this opportunity to present out 
supporting statement.
                                 ______
                                 

   Prepared Statement of the Council of Alabama Waterway Associations

    The following is a summary of the funding items for the U.S. Army 
Corps of Engineers for fiscal year 2001 to meet the needs of the 
several projects and which we ask the Committees to approve:

                                    COUNCIL OF ALABAMA WATERWAY ASSOCIATIONS
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                 Appropriation       President's
                                                          --------------------------    budget      Our request
                         Waterway                          Fiscal year  Fiscal year  fiscal year    for fiscal
                                                               1999         2000         2001        year 2001
----------------------------------------------------------------------------------------------------------------
Coosa-Alabama River Improvement Association: Coosa-            $27,025      $31,756      $27,525     \1\ $29,155
 Alabama.................................................
Tennessee River Valley Association: Tennessee-Cumberland       112,519      122,555       84,935     \2\ 121,435
 Navigation..............................................
Tennessee-Tombigbee Waterway Development Council:               20,200       21,500       23,547      \3\ 25,700
 Tennessee-Tombigbee.....................................
Tri-Rivers Waterway Development Association:                     5,200        6,500        5,055       \4\ 7,255
 Appalachicola-Chattahoochee-Flint.......................
Warrior-Tombigbee Waterway Association: Warrior-Tombigbee       20,000       19,200       19,805      \5\ 20,725
Alabama State Docks Department: Mobile Harbor............       21,000       19,562       18,665      \6\ 21,665
Tennessee-Tombigbee and Tennessee River Association:            26,000       24,200       15,000      \7\ 40,000
 Kentucky Lock (Nashville Dist. COE).....................
----------------------------------------------------------------------------------------------------------------
\1\ Includes $5,865,000 for navigation O&M and $1,630,000 add-on for Mayo's Bar, Alltoona Lake and Coosa
  navigation project.
\2\ Includes $40,000,000 for KY Lock Construction, $11,400,000 for 202 Program, $1,900,000 Chicamauga lock O&M.
\3\ Includes $1,100,000 add-on for deferred maintenance.
\4\ Includes $2,200,000 add-on for alternative dredging and disposal projects and environmental work.
\5\ Includes $521,000 for General Investigations, $1,000,000 add-on for lock gates at Bankhead L&D.
\6\ Includes $2,500,000 add-on to properly consider historical dredging needs and $499,000 for construction.
\7\ See (2), Tennessee Cumberland request.

    Request for Interior Appropriations; $400,000 for USF&WS Sturgeon 
Conservation Plan 2-9-2000.
    Request for DOT Appropriations to USCG: $1,000,000 for 14 Mile 
Bridge, Mobile River.
                                 ______
                                 

      Prepared Statement of the Steamship Association of Louisiana

                                summary
    Mississippi River Ship Channel, Gulf to Baton Rouge, Louisiana 
(Construction General).--We recommended the Corps be funded to full 
capability in fiscal year 2001 to perform required work on the 
saltwater intrusion mitigation plan and complete design studies for 
phase III of the 55-foot channel.
    Maintenance dredging of the Mississippi River from Baton Rouge to 
the Gulf of Mexico.--We urge approval of the $63,359,000 in the 
President's fiscal year 2001 budget under O&M General.
    Mississippi River-Gulf Outlet maintenance dredging and bank 
stabilization.--In addition to the $11,286,000 in the President's 
fiscal year 2001 Budget under O&M General, we urge that the Corps be 
funded an increased capability in fiscal year 2001 to maintain this 
channel, which includes bank stabilization on both banks and jetty 
maintenance.
    Inner Harbor Navigation Canal (IHNC) Lock.--Recognizing that only 
$14,349,000 is included in the President's fiscal year 2001 Budget for 
construction funds, we urge that the Corps be funded to full capability 
in fiscal year 2001 to continue lock construction and fully fund the 
community impact mitigation plan.
    Calcasieu River and Pass, Louisiana.--We urge approval of the 
$12,117,000 in the President's fiscal year 2001 Budget under O&M 
General.
    J. Bennet Johnston Waterway, Mississippi River to Shreveport, 
Louisiana.--Recognizing that $18,040,000 is in the President's fiscal 
year 2001 Budget for Construction General and $8,907,000 for O&M, we 
urge the Corps be funded to full compatibility for fiscal year 2001 to 
complete work already underway on this vital project.
    The President's proposed Harbor service fee.--As in past years, we 
do not support the President's proposed fees to replace the Harbor 
Maintenance Tax. The strength of our nation's transportation system is 
its foreign and domestic waterborne commerce. It benefits the entire 
nation through revenue and jobs it provides the country. Therefore, the 
maintenance of our nation's ports should be handled through the general 
fund and not by placing another tax on this vital industry.

                               STATEMENT

    Mr. Chairman: I am President of the Steamship Association of 
Louisiana (SALA). Our Association represents ship owners, operators, 
agents, and stevedores who handle the majority of the approximately 
8,000 deep-draft vessels in waterborne commerce that call Louisiana's 
deep-water ports each year. SALA is dedicated to the safe, efficient 
movement of maritime commerce through the state's deep-water ports. We 
endorse the testimony of Mr. Donald T. Bollinger, Chairman of the 
Governor's Task Force on Maritime Industry.
    Channel stabilization and maintenance dredging in Southwest Pass 
(SWP) are critical to keep project draft. Project draft ensures the 
Mississippi River's deep-water ports will continue to handle the 
country's foreign and domestic waterborne commerce in the most cost-
effective way possible.
    For years we have urged this Committee to provide funds to maintain 
project draft at SWP. You have responded, and your wisdom has 
benefitted the entire American heartland served by the Mississippi 
River system. SWP was greatly restricted throughout the 1970s. From 
1970 to 1975, the channel was at less than project draft 46 percent of 
the time. In 1973 and 1974, the channel was below the 40-foot project 
draft 70 percent of the time. During some periods, drafts were limited 
to 31 feet. Fortunately, those conditions have not recurred because of 
a combination of factors: Your help, and the constant vigilance of the 
Pilots, the Corps, and the maritime community. The years 1990 through 
1999 show a tremendous improvement in channel stability. We have only 
been below project draft 3 percent of the time for vessels under 
100,000 deadweight tons and 8 percent of the time for vessels 100,000 
deadweight tons or greater. The funding you provided was money well 
spent. The repairs to the jetties and dikes and the Corps' ability to 
rapidly respond to shoaling have been instrumental in maintaining 
project dimensions. However, the lack of available hopper dredges has, 
at times, jeopardized the stability of the channel.
    The Pilots have taken advantage of tidal flows and other factors to 
recommend the maximum draft possible consistent with safe navigation. 
This stability represents additional sales and increased 
competitiveness for U.S. products on the world market. Industry's 
partnership with you has kept Mississippi River ports competitive and 
attractive to vessels. Twelve inches to a large vessel with a loading 
capacity of 250 tons per inch is an additional 3,000 tons of cargo. As 
of this writing, freight rates for grain moving from the Mississippi 
River to the Far East are $21.75 per ton. Using this figure, each foot 
of draft represents an additional $65,250 in vessel revenue, or 
$326,250 for the five additional feet over the old 40-foot project 
draft.
    The funds we request for maintenance dredging and other works are 
essential for the Corps to maintain a reliable channel and respond 
rapidly to potential problems. This builds the confidence of the bulk 
trade in a reliable Mississippi River draft, which is critically 
important. Much of Louisiana's bulk trade is export agricultural 
products and coal and imports of petroleum products. These export 
commodities are neither captive to Louisiana nor the United States if 
they can be shipped from competing countries at a consistently lower 
cost.
    The deeper the channel, the more important channel stabilization 
is. Adequate channel stabilization work minimizes the maintenance cost 
of the deeper channel--a cost-effective investment. The faster the 
project is stabilized, the faster and greater the benefits of reduced 
O&M costs will be realized. Also, we recommend that the Corps conduct 
research on prototype dredging techniques.
    Funds are also needed for dustpan dredges to work the crossings 
above New Orleans. These crossings control the draft to eight of our 
ten major grain elevators, plus many mid-stream and other bulk cargo 
facilities. This area caters to the bulk trade and must have a stable 
channel depth consistent with the depth at SWP. Only two dredges in the 
world are available to maintain the deep-draft crossings between New 
Orleans and Baton Rouge. There are times when a high river is followed 
by a rapid drop in the river's stage. In such cases, the dustpan 
dredges may not be available, or both dredges may not be capable of 
restoring the 12 crossings within a reasonable time. When this happens, 
hopper dredges are used to assist in the work.
    For all of the above reasons, we request full funding for the 
mitigation features of the O&M General, 45-foot Mississippi River 
project.
    We also support Phase III of the Mississippi River channel 
deepening project and urge that the Corps be funded to proceed with 
design studies for the 55-foot channel, Baton Rouge to the Gulf of 
Mexico.
    The Mississippi River Gulf Outlet (MR-GO) is also a viable channel 
for the State of Louisiana. The funds you provided in past fiscal years 
have allowed the Corps to improve the channel considerably. However, 
the channel width has remained limited primarily because of erosion. 
For safety reasons in this narrow channel, one-way traffic restrictions 
apply to vessels with a draft of 30 feet or more, causing delays to the 
tightly-scheduled container traffic using the MR-GO. These specialty 
vessels serving the Port's facilities are becoming larger. The highest 
wages under the International Longshoreman's Association's contract 
($24 per straight-time hour) is paid for work at the MR-GO container 
facilities. Anything that threatens the MR-GO jeopardizes these high-
paying jobs, which are held mostly by minority workers.
    To improve safety on the MR-GO and protect Louisiana's container 
trade (and the well-paying, minority employment it produces), we 
request that the Corps be funded to an increased capability for the MR-
GO in fiscal year 2001. This will allow annual maintenance dredging, 
north and south bank stabilization, and jetty maintenance, which is 
essential to provide the stability needed for vessel and port 
operations.
    With facilities located on both the MR-GO and the Mississippi 
River, an adequate route between the two is essential for efficient 
transit between these facilities. The shortest route is the inadequate, 
antiquated Inner Harbor Navigation Canal (IHNC) Lock built in the 1920s 
with a width of 75 feet and limited depth of 30 feet. Its maximum 
capacity has long been exceeded. The average waiting time for passage 
through the Lock has increased from 8\1/2\ hours in 1985 to about 12 
hours at present; however, we understand that waiting time can be more 
than a day in some instances. A much larger ship lock is necessary to 
accommodate today's traffic.
    The replacement project for the IHNC Lock is important to the ports 
on the lower Mississippi River and to the nation's commerce since it is 
on the corridor for east/west barge traffic. The President's fiscal 
year 2001 budget of $14,349,000 is not sufficient. Without full 
funding, the project will be delayed and increase the overall cost of 
the project. We urge Congress to provide the Corps' full fiscal year 
2001 capability for this important project to insure its completion. 
Delays are unthinkable since the new lock is long overdue.
    The Port of Lake Charles, Louisiana, is served by the Calcasieu 
River, which is often below project depth and width. This is another of 
Louisiana's major deep-water ports that benefits the economy of the 
state and the nation. According to the Port's figures, the import and 
export tonnage at their facilities was 5 million tons in 1999. Also in 
1999, there was a total of 1,132 vessels, both deep draft and barges, 
that utilized the Port's Facilities. These figures do not take into 
account the other private facilities that utilize this valuable 
waterway. The public and private facilities along this waterway provide 
thousands of jobs for the Lake Charles area. This channel, because of 
its project deficiencies, requires one-way traffic for many ships, 
causing delays that disrupt cargo operations. This is costly and 
inefficient for industry. The Port area's growth and continued success 
depends on a reliable and safe channel that should be at full project. 
We request funding to the full capability of the Corps to maintain this 
channel at its project dimensions.
    The J. Bennett Johnston Waterway, Mississippi River to Shreveport, 
Louisiana, Project is directly related to our deep-water ports. The 
continuation and completion of this work will stimulate the economy all 
along the Red River Basin with jobs and additional international trade. 
This stimulated trade will service the Port of Shreveport and the ports 
on the lower Mississippi River, providing needed growth and benefitting 
the States of Louisiana, Texas, Oklahoma, and Arkansas, which are 
served through the Shreveport distribution center. Therefore, we 
strongly recommend that the Corps be funded to full capability for 
fiscal year 2001.
    The proposed Harbor Service Fee (HSF) in the President's budget, 
which would replace the Harbor Maintenance Tax, is ill-advised. What it 
fails to recognize is that there is no equitable way in which the cost 
can be spread fairly among the shipping community. Whether the HSF is 
to the cargo or to the ship, the fee will change trade patterns and 
even jeopardize our trading position in the world market. The proposal 
will disrupt jobs and the economies of port areas. It will circumvent 
the normal, healthy competition among U.S. ports. Ships carrying low-
valued cargo, primarily bulk cargoes, operate on a very low profit 
margin; therefore, cargoes like grain and coal can least afford the 
tax. The end result could well be that the U.S. could lose its ability 
to compete in the world market for the export of these cargoes. This 
impact on bulk trade will be particularly detrimental to Louisiana 
because of the high volume of such cargoes that move through our state. 
We encourage Congress to fund the maintenance of our nation's ports 
through the General Fund. After all, it is the people of our entire 
nation who benefit from a strong U.S. position in world trade, not only 
the shipping industry. If our nation is to remain competitive in the 
world market, we must maintain and improve our waterways and deliver 
U.S. goods at the lowest possible price to foreign markets.
    Thank you for allowing the Association to submit testimony on the 
Corps' funding needs.
                                 ______
                                 

     Prepared Statement of the Gulf Intracoastal Canal Association

    This testimony for the record, March 10, 2000, before House and 
Senate Energy and Water Development Appropriations Subcommittees is 
submitted by Douglass W. Svendson, Jr., Executive Director of the Gulf 
Intracoastal Canal Association. Ours is the oldest of the regional 
waterway associations, having been established in Victoria, Texas in 
1905. The Gulf Intracoastal Waterway transports 115 million tons of 
freight annually, the third highest volume among our inland and coastal 
waterways after the Mississippi and Ohio Rivers.
    GICA's membership includes both shallow draft and deep draft ports, 
port commissions and navigation districts, barge and towing companies, 
petroleum refineries, chemical manufacturers, shipyards, marine 
fabricators, fuel terminal facilities, and individuals whose businesses 
are waterway related and dependent. We have 180 members in the five 
States of Texas, Louisiana, Mississippi, Alabama, and Florida served by 
the Gulf Intracoastal Waterway. In addition, the GIWW is the link that 
binds the North-South rivers to the Intracoastal canal, the coastal 
ports, and ultimately the heartland of America. The Mississippi River 
intersects the GIWW at New Orleans, one of our busiest ports, and the 
Tennessee-Tombigbee Waterway intersects the GIWW at Mobile.
 the overall civil works budget of $4.064 billion for fiscal year 2001
    While this civil works budget request for fiscal year 2001 is 
larger than those submitted by the Administration in recent previous 
years, it causes our membership concern about adequacy of specific 
levels allocated to construction, operations and maintenance, and flood 
control. The reason for our concern is the large amount in the 2001 
budget proposed to be appropriated for port construction and 
maintenance ($950 million) and the size of the environmental portion of 
the proposed 2001 budget (22 percent of overall Corps request and 
slightly over $895 million). O and M and flood control remain about the 
same level in comparison to appropriated amounts for fiscal year 2000, 
but construction funding for 2001 is less than the 2000 figure.

                 THE PORT FEE AND HARBOR SERVICES FUND

    The combination user fee and Harbor Services Trust Fund for port 
maintenance proposed by the administration in its budget raises several 
very serious issues for waterborne transportation, our domestic 
economy, and international trade.
    Whatever the constitutional infirmities of the previous harbor 
maintenance tax, it was spread over a large base of commerce. This fact 
alone helped mitigate a potentially harsh economic impact which might 
otherwise have been injurious to many of our ports, our trade, and our 
economic jobs base.
    The proposed fee will be based on volume or tonnage, not value. 
Those most injured will be our ports that ship large volumes of 
commodities. This negative impact will ultimately fall on farmers, mine 
operators, chemical and petroleum sectors, and all commodities 
producers. Farmers and other producers have historically benefited 
economically by retaining more of the ultimate sales price in their own 
pockets, as a result of water transportation efficiencies.
    A user fee, as proposed, is much more likely, we believe, to be 
port and/or vessel specific, thus location dependent, and harm many but 
the very largest ports. Even large ports stand to lose as a result of 
the fees that could be levied on many bulk commodities which are 
routinely traded on world markets. For commodities, successful trades 
often are determined by pennies per unit of measure, or less. Margins 
are exceedingly thin and relatively large fees will easily disrupt 
normal buyer-seller patterns. Our commodities producers such as coal, 
chemicals, and agricultural products stand to lose sales and market 
share.
    A related problem involves the nature of our ports in the overall 
economy. Ports generate jobs themselves and also provide the impetus 
for related industries to establish themselves adjacent or nearby. 
Benefits of port spending are therefore quite broad in terms of 
regional and national economies. Port related growth is not 
characterized by only a few, specific identifiable beneficiaries we 
usually associate with the obligation to pay user fees. Port 
beneficiaries, including jobs creation and revenue enhancement, are the 
thousands of citizens in the affected locale or region. The numbers 
involved are broad and diverse--just such a class of people we usually 
call the general population. General revenues are employed to fund 
programs for this large a segment of the population
    Thus, the national benefits and economic significance associated 
with the sum total of port activities places these entities in a 
category which is easily able to justify the use of general revenues in 
support of broad, general economic benefits. Our association recommends 
that the Congress look seriously at funding port activities from 
general revenues, as was done prior to WRDA 1986.

             SPECIFIC BUDGET REQUESTS FOR FISCAL YEAR 2001

    The Gulf Intracoastal Canal Association supports the 
Administration's budget request of $53.5 million for deepening and 
widening the Houston--Galveston Ship Channel. This project has enormous 
favorable economic implications for the regional and national economy. 
It also offers an opportunity to increase deep draft/shallow draft 
navigation safety.
    Approximately 100,000 barge tows and 20,000 ships transit the 
Houston Ship Channel each year. In response to the last major barge and 
ship collision causing a serious oil spill in 1992, the Houston 
Galveston Area Navigation Safety Committee (HOGANSAC) began studying 
how to prevent ship/barge collisions on the Channel. With the work of a 
broad coalition of deep and shallow draft mariners, shippers, the 
Houston Pilots, environmental groups, the Corps and the Coast Guard, a 
solution was developed. The plan was to move the beacons to a straight 
line 500 feet either side of the centerline of the channel between 
Bolivar and Morgans Point and dredge the area between the beacons and 
the deep draft channel to a depth of 12 feet to allow barge tows to 
operate outside the deep draft channel.
    We also support funding for the GIWW Section 216 Studies in the 
President's budget, identified as RCP, Review of Completed Projects. 
They are Brazos River to Port O'Connor, Texas, High Island to Brazos 
River, Texas, and Port O'Connor to Corpus Christi, Texas. Within the 
Brazos River to Port O'Connor study, we support the PED request of 
$100,000 referred to as GIWW Matagorda Bay, Texas. In particular, we 
strongly encourage funding for the re-route of the GIWW through 
Matagorda Bay as well as funding for the Colorado and Brazos River lock 
and floodgate studies, in excess of levels contained in the President's 
budget.
    Our association also endorses the President's budget request of 
$6.1 million for construction of the channel to Victoria, Texas. We 
urge the committee to provide funds for completion as soon as possible, 
consistent with the Corps' full capability.
    We support surveys funding in the President's budget for Calcasieu 
Lock, Louisiana ($399,000) and Intracoastal Waterway Locks Study, 
Louisiana ($686,000).
    We support funding for the replacement of the Inner Harbor 
Navigation Canal Lock to the extent of the Corps' full capability. We 
encourage the committee to make certain this project is expedited, 
rather than stretched out. The Inner Harbor Navigation Canal Lock is 
now in construction and has a solid favorable benefit to cost ratio. 
While some political environmental organizations would like to put the 
IHNC lock replacement project in the same controversial category in 
which several Upper Mississippi and Illinois lock replacement projects 
now find themselves, this is a stretch of monumental proportions. The 
economic justification for the IHNC has not been questioned, either by 
honest, objective efforts, or otherwise, in the same way the recent 
Upper Mississippi Study has.
    The Gulf Intracoastal Canal Association also supports the 
operations and maintenance funding request for Tri Rivers Waterway 
Development Association. We support sound economic development efforts 
to improve the ACF waterway as a vital link for southeast Alabama, 
southwest Georgia, and northwest Florida to export goods to other 
national and international markets via the Gulf Intracoastal Waterway.
    We support inland waterway navigation as an environmentally sound 
and cost effective transportation mode in the Gulf South region, 
helping to reduce freight rates and promoting trade and development.
    GICA supports additional funding for section 423 of WRDA 1999. This 
section directs the Secretary of the Army to do a study of GIWW bank 
erosion in the State of Louisiana and thereafter to cost share with the 
Louisiana Department of Natural Resources bank stabilization work. The 
study was not funded in the President's Year 2001 budget, but is vital 
as a necessary component of the state and U.S. Army Corps of Engineers' 
ongoing effort to deal effectively with land loss in coastal areas and 
old river deltas of South Louisiana.
    In addition, we support the President's budget request for 
Pascagoula, Mississippi harbor project ($6,663,000) and Mobile, Alabama 
harbor project ($499,000).
    Because of the high visibility of the recent Washington Post and 
political environmental organizations' charges against the U.S. Army 
Corps of Engineers, it is important to share with this committee our 
general views on this subject.
    Neither our association nor I personally have been involved in the 
Upper Mississippi Study. However I, as well as GICA, work with the U.S. 
Army Corps of Engineers on studies and navigation, flood control, and 
environmental projects in the Gulf South Region, which includes the New 
Orleans District and the Mississippi Valley Division. In addition, I 
have worked with Corps personnel from Headquarters, and from Division 
and District offices for many years on issues involving standards for 
evaluating navigation, flood control, and environmental projects. Never 
in my years of experience have I observed any actions even closely 
resembling those charged by the Post and its political environmental 
organization allies.
    I would like to point out to the Committee that the standards for 
measuring and evaluating criteria applicable to Corps' projects of all 
kinds are not without some controversy on a case by case basis. 
Economics, including formulas and models developed by those who pursue 
this field, is usually characterized by subjective judgments. When and 
under what circumstances shippers decide to alter freight patterns from 
one mode to another is not usually announced in advance. Estimates of 
relevant factors in models, devised to predict future economic 
behavior, can be as subjective as objective.
    As these allegations are reviewed I believe it is important to keep 
in mind that project economic justification as it relates to 
environmental impacts and consequences, is not always reducible to 
clean ``yes'' and ``no'' answers.
    This concludes our prepared testimony. We appreciate the 
opportunity to provide this statement for the record.
                                 ______
                                 

 Prepared Statement of the Louisiana Governor's Task Force on Maritime 
                                Industry

    Mississippi River Ship Channel, Gulf to Baton Rouge, LA. 
(construction General).--Recommend the Corps be funded to full 
capability in fiscal year 2001 to perform required work on the 
saltwater intrusion mitigation plan and complete design studies for 
potential phase III 55-foot channel.
    Mississippi River, Baton Rouge to the Gulf, maintenance dredging.--
Recommend approval of President's fiscal year 2001 Budget of 
$63,359,000 under O&M General.
    Mississippi River-Gulf Outlet (MR-GO), LA., maintenance dredging.--
President's fiscal year 2001 Budget is $11,286,000 under O&M General. 
Recommend that Corps be funded increased capability for bank 
stabilization.
    Inner Harbor Navigation Canal (IHNC) Lock, LA..--President's fiscal 
year 2001 Budget includes $14,349,000 in construction funds for the IH-
NC New Ship Lock. Recommend that Corps be funded to full capability to 
continue lock construction and fully fund the community impact 
mitigation plan.
    Mississippi River Outlets at Venice, LA.--Recommend approval of 
President's fiscal year 2001 Budget is $2,773,000 under O&M General.
    Intracoastal Waterway Locks, LA.--Recommend approval of the 
President's fiscal year 2001 budget of $686,000 to complete the 
feasibility study and to develop plans for replacement of Bayou Sorrel 
Lock on the Gulf Intracoastal Water Way (GIWW), Morgan City-to-Port 
Allen alternate route.
    Gulf Intracoastal Waterway, LA. and TX.--President's fiscal year 
2001 Budget is $19,478,000 under O&M General. Recommend that Corps be 
funded increased capability to construct a set of two miter gates for 
Leland Bowman Lock and 20 additional mooring buoys at various locations 
along the GIWW.
    Calcasieu Lock, LA.--Recommend approval of President's fiscal year 
2001 budget of $339,000 in GI funds to continue the feasibility phase 
of the study to replace Calcasieu Lock on the GIWW.
    Calcasieu River and Pass, LA.--Recommend approval of the 
President's fiscal year 2001 Budget of $12,117,000 under O&M General to 
continue dredging and operation and maintenance of the Saltwater 
Barrier.
    J. Bennett Johnston Waterway, Mississippi River to Shreveport, 
LA.--President's fiscal year 2001 is $18,040,000 in Construction 
General and $8,907,000 for Operations and Maintenance. Recommend that 
Corps be funded to full capability to complete work already underway.
    As Chairman of the Louisiana Governor's Task Force on Maritime 
Industry, I hereby submit testimony to the Senate Subcommittee on 
Energy and Water Development on behalf of the ports on the lower 
Mississippi River, the J. Bennett Johnston Waterway and the Calcasieu 
River waterway and the maritime interests related thereto of the State 
of Louisiana relative to Congressional appropriations for fiscal year 
2001.
    The U.S. Army Corps of Engineers reports that in 1998 a total of 
418.1 million tons of foreign and domestic waterborne commerce moved 
through the consolidated deepwater ports of Louisiana situated on the 
lower Mississippi River between Baton Rouge and the Gulf of Mexico. 
Deepening of this 232-mile stretch of the River to 45 feet has been a 
major factor in tonnage growth at these ports. Due in large part to the 
efforts of Congress and the New Orleans District of the Corps, 
Louisiana's ports and the domestic markets they serve can compete more 
productively and effectively in the global marketplace. Ninety-one 
percent of America's foreign merchandise trade by volume (two-thirds by 
value) moves in ships, and 20.3 percent of the nation's foreign 
waterborne commerce passes through Louisiana's ports. Given the role 
foreign trade plays in sustaining our nation's growth, maintaining the 
levels of productivity and competitiveness of Louisiana's ports is 
essential to our economic well-being.
    In terms of transportation services and global access, Louisiana 
ports enjoy a distinct competitive advantage. Hundreds of barge lines 
accommodate America's waterborne commerce on the lower Mississippi 
River. The high level of barge traffic on the river is indicated by the 
passage of more than 229,000 barges through the Port of New Orleans 
annually. In 1998, 2,536 ocean-going vessels operated by more than 80 
steamship lines serving U.S. trade with more than 150 countries called 
at the Port of New Orleans. The Port's trading partners include: Asia 
(33.7 percent); Latin America (32.1 percent); Europe (25 percent); 
Africa (7.6 percent) and North America (1.5 percent). During the same 
year, more than 6,377 vessels called at Louisiana's lower Mississippi 
River deepwater ports.
    The foreign markets of Louisiana's lower Mississippi River ports 
are worldwide; however, their primary domestic market is mid-America. 
This heartland region currently produces 60 percent of the nation's 
agricultural products, one half of all of its manufactured goods and 90 
percent of its machinery and transportation equipment.
    The considerable transportation assets of Louisiana's lower 
Mississippi River ports enable mid-America's farms and industries to 
play a vital role in the international commerce of this nation. In 
1998, the region's ports and port facilities handled 216 million tons 
of foreign waterborne commerce. Valued at $34.4 billion, this cargo 
accounted for 17.7 percent of the nation's international waterborne 
trade and 24.4 percent of all U.S. exports. Bulk cargo, primarily 
consisting of tremendous grain and animal feed exports and petroleum 
imports, made up approximately 89 percent of this volume. Forty-five 
million tons of grain from 17 states, representing 54.75 percent of all 
U.S. grain exports, accessed the world market via the 10 grain 
elevators and midstream transfer capabilities on the lower Mississippi 
River. This same port complex received 79.4 million short tons of 
petroleum and petroleum products, 14.6 percent of U.S. waterborne 
imports of petroleum products.
    In 1998, public and private facilities located within the 
jurisdiction of the Board of Commissioners of the Port of New Orleans, 
the fourth largest port in the United States, handled a total of 88.8 
million tons of international and domestic cargo worth. International 
general cargo totaled 14.1 million tons. Although statistically dwarfed 
by bulk cargo volumes, the movement of general cargo is of special 
significance to the local economy because it produces greater benefits. 
On a per ton basis, general cargo generates spending within the 
community more than three times higher than bulk cargo. Major general 
cargo commodities handled at the Port include: iron and steel products; 
coffee; forest products; copper; aluminum products; and natural rubber.
    Fostering the continued growth of lower Mississippi River ports is 
necessary to maintain the competitiveness of our nation's exports in 
the global marketplace and, consequently, the health of the nation's 
economy. Assuring deep water access to ports has been a priority of our 
trading partners around the world. Moreover, an evolving maritime 
industry seeking greater economies of scale continues to support 
construction of larger vessels with increased draft requirements. 
Because it facilitated the provision of deepwater port access, passage 
of the Water Resources Development Act of 1986, played a most 
significant role in assuring the competitiveness of ports on the lower 
Mississippi river and throughout the U.S.
    By December, 1994, the Corps completed dredging of the 45-foot 
channel from the Gulf of Mexico to Baton Rouge, LA (Mile 233 AHP). 
Unfortunately, mitigation features associated with the first phase of 
the channel deepening project in the vicinity of Southwest Pass of the 
river, accomplished in 1988, have yet to be completed. We urge the 
inclusion of additional funding above the President's budget in fiscal 
year 2001 to complete an ongoing contract for improvements to the Belle 
Chasse water treatment plant. This will complete the approximate $15 
million in payments to the State of Louisiana for construction of a 
pipeline and pumping stations to deliver potable fresh water to 
communities affected by saltwater intrusion. We further urge that the 
Corps be provided funding to proceed with design studies for Phase III 
which will allow deepening of the river to the 55-foot authorized 
depth.
    Along with the Port of New Orleans, the Port of South Louisiana, 
the nation's largest port with 196.6 million tons of foreign and 
domestic cargo in 1998, and the Port of Baton Rouge, the nation's sixth 
largest port with 66.8 million tons of foreign and domestic cargo in 
1998, and other lower Mississippi River ports are dependent upon timely 
and adequate dredging of Southwest Pass to provide deep draft access to 
the Gulf of Mexico. Based on past experience--spring thaws bringing 
higher river stages and higher siltation rates--we strongly urge full 
funding of the President's fiscal year 2001 Budget amount of 
$63,359,000 under O&M General for maintenance of the 45-foot project 
channel. Funding includes monies for both dredging and repairs to 
foreshore dikes; lateral dikes; and jetties. Revetment construction has 
reduced the number and size of deep draft anchorages. To mitigate this 
loss, we recommend that the Corps be authorized under the O&M General 
appropriation to construct new anchorages and maintain new and existing 
anchorages to accommodate increased ship traffic.
    Maintenance of adequate depths and channel widths in the 
Mississippi River Gulf Outlet Channel (MRGO) is also of great concern. 
This channel provides deep draft access to the Port of New Orleans' 
principal container terminals and generates an annual economic impact 
of nearly $800 million. In 1998, 455 general cargo vessels calling on 
the MRGO Tidewater facilities accounted for 22.4 percent of the general 
cargo tonnage handled over public facilities at the Port of New Orleans 
and 80.21 percent of Louisiana's containerized cargo.
    Because of the MRGO's demonstrated vulnerability to coastal storm 
activity, annual channel maintenance dredging and bank stabilization 
are essential to assure unimpeded vessel operations. In 1998, heavy 
shoaling related to Hurricane Georges resulted in the imposition of a 
draft restriction from the project depth of 36 feet to 25 feet. The 
President's fiscal year 2001 Budget amount is $11,286,000 under O&M 
General. We, however, strongly recommend that the Corps be funded 
increased capability for bank stabilization projects.
    The Inner Harbor Navigation Canal (IHNC) Lock is a critical link in 
the Gulf Intracoastal Waterway (GIWW), and provides a connection 
between the Port of New Orleans' Mississippi River and IHNC terminals. 
In 1998, the Corps approved a plan for replacement of this obsolete 
facility. The Corps estimates that the lock replacement project will 
have a cost-benefit ratio of 1.7 to one and will provide $110 million 
annually in transportation cost savings. In addition to minimizing 
adverse impacts to adjacent neighborhoods, the project includes a $33 
million Community Impact Mitigation Program. The President's fiscal 
year 2001 Budget of $14,239,000 for the IHNC New Ship Lock will pay for 
continued engineering and design work, construction, and partial 
funding of the mitigation program. Therefore, funding the Corps to full 
capability to continue lock construction and fully implement the 
mitigation program is recommended.
    Operation and maintenance of the Mississippi River Outlets at 
Venice, La. are essential to providing safe offshore support access to 
energy-related industries. In 1998, these channels accommodated cargo 
movements exceeding 3.4 million tons. In addition to routine traffic, 
Baptiste Collette Bayou is used by shallow draft vessels as an 
alternate route between the MRGO, GIWW and the Mississippi River. The 
President's fiscal year 2001 Budget amount is $2,773,000 under O&M 
General.
    More than 78.6 million tons of cargo transverse the GIWW in the New 
Orleans District annually. The President's fiscal year 2001 Budget for 
Gulf Intracoastal Waterway, Louisiana and Texas is $19,478,000 under 
O&M General. We recommend that the Corps be funded increased O&M 
capability to construct a set of two miter gates for Leland Bowman lock 
and 20 additional mooring buoys at various locations along the GIWW.
    To assure the efficient flow of commerce on the GIWW, approval is 
urged for the President's fiscal year 2001 budget of $686,000 in GI 
funds to complete the feasibility study and to develop plans for 
replacement of the Bayou Sorrel Lock, Morgan City-to-Port Allen 
alternate route. We further recommend approval of the President's 
budget fiscal year 2001 of $339,000 in GI funds to continue the 
feasibility phase of the study to replace Calcasieu Lock on the GIWW.
    The Port of Lake Charles, Louisiana, is served by the Calcasieu 
River, which often does not meet project depth and width requirements. 
This Port is one of Louisiana's major deep-water ports, benefitting the 
economy of the state and the nation. In 1998, the Port handled 34.3 
million tons of import cargo and 15.8 million tons of export cargo. The 
Port and private facilities along this waterway provide thousands of 
jobs for the Lake Charles area. In 1997, 1,037 ships and 7,219 barges 
used the Calcasieu River waterway. The Port area's growth and continued 
success depends on the provision of a reliable and safe channel at full 
project dimensions. We recommend approval of the President's fiscal 
year 2001 budget of $12,117,000 under O&M General to continue dredging 
and operation of the saltwater barrier.
    One additional project warrants consideration. The J. Bennett 
Johnston Waterway, Mississippi River to Shreveport, La. Project 
provides 236 miles of navigation improvements, 225 miles of channel 
stabilization works and various recreational facilities. Project 
completion will stimulate economic growth along the Red River Basin and 
increase cargo flows through the deep draft ports on the lower 
Mississippi River. The President's fiscal year 2001 Budget includes 
$18,040,000 in Construction General and $48,907,000 for Operations and 
Maintenance. We recommend that the Corps be funded to full capability 
for this project to complete work already underway.
    The need and impetus to reduce the Federal budget is certainly 
acknowledged; however, reduced funding on any of the above projects 
will result in decreased maintenance levels which will escalate 
deterioration and, ultimately, prevent them from functioning at their 
full authorized purpose. Reduction in the serviceability of these 
projects will cause severe economic impacts not only to this region, 
but to the nation as a whole that will far outweigh savings from 
reduced maintenance expenditures. Therefore, we reiterate our strong 
recommendation that the above projects be funded to their full 
capability.
    Supporting statements from Mr. J. Ron Brinson, President and CEO of 
the Port of New Orleans; Mr. Gary P. LaGrange, Executive Director of 
the Port of South Louisiana, Mr. Roger Richard, Executive Director of 
the Greater Baton Rouge Port Commission, Mr. Glenwood Wiseman, 
Executive Director of the Lake Charles Harbor and Terminal District, 
Mr. Benny Rousselle, President of Plaquemines Parish, Mr. Channing 
Hayden, President of the Steamship Association of Louisiana; Capt. John 
Levine, President of the Associated Branch Pilots and Capt. Mark 
Delesdernier, President of the Crescent River Port Pilots Association 
are attached. Please make these statements along with my statement part 
of the record. Supplemental graphics relating to my statement have been 
furnished separately for staff background use. Thank you for the 
opportunity to comment to the subcommittee on these vital projects.
    [Clerk's note: The referenced material above can be found in the 
Energy and Water Development Subcommittee's files for an extended 
time.]
                                 ______
                                 

         Prepared Statement of the Red River Valley Association

                              INTRODUCTION

    The Red River Valley Association is a voluntary group of citizens 
bonded together to advance the economic development and future well-
being of the citizens of the four state Red River Basin area in 
Arkansas, Louisiana, Oklahoma and Texas.
    For the past 75 years, the Association has done notable work in the 
support and advancement of programs to develop the land and water 
resources of the Valley to the beneficial use of all the people. To 
this end, the Red River Valley Association offers its full support and 
assistance to the various Port Authorities, Chambers of Commerce, 
Economic Development Districts and other local governmental entities in 
developing the area along the Red River.
    The Resolutions contained herein were adopted by the Association 
during its 75th Annual Meeting in Bossier City, Louisiana on February 
24, 2000, and represent the combined concerns of the citizens of the 
Red River Basin area as they pertain to the goals of the Association, 
specifically:
  --Economic and Community Development
  --Environmental Restoration
  --Flood Control
  --Bank Stabilization
  --A Clean Water Supply for Residential, Commercial, Industrial and 
        Agriculture Uses.
  --Hydroelectric Power Generation
  --Recreation
  --Navigation
    The Red River Valley Association is aware of the constraints on the 
federal budget, and has kept those restraints in mind as these 
Resolutions were adopted. Therefore, and because of the far-reaching 
regional and national benefits addressed by the various projects 
covered in the Resolutions, we urge the members of Congress to review 
the materials contained herein and give serious consideration to 
funding the projects at the levels requested.

                               STATEMENT

    Mr. Chairman and members of the Committee. I am Wayne Dowd, 
Arkansas State Senator, and I am pleased to represent the Red River 
Valley Association as its President. Our organization was founded in 
1925 with the express purpose of uniting the Citizens of Arkansas, 
Louisiana, Oklahoma and Texas to develop the land and water resources 
of the Red River Basin.
    We appreciate the President's fiscal year 2001 Civil Works budget 
submission of approximately $4.1 billion from his fiscal year 2000 
submission of $3.9 billion; however, it does not come close to the real 
needs of our nation. $5 billion is a realistic funding level to meet 
the requirements for continuing programs. The traditional programs, 
inland waterways and flood protection remain at the low, unacceptable 
level as in past years. These traditional civil work projects are the 
backbone to our nation's infrastructure for waterways, flood control 
and water supply. We remind you that these projects are a true `jobs 
program' in that 100 percent of the construction is contracted to the 
private sector as is much of the architect and engineer work. Not only 
do these funds provide jobs, but provide economic development 
opportunities for our communities to grow and prosper.
    The civil works program is a catalyst that is responsible for the 
great economy we now experience. It would be irresponsible to allow our 
nations infrastructure to deteriorate, or worse, stop its growth in a 
time when America must be the leader in the world market. Our inland 
waterways is the key to our dominance in world trade. This is a pivotal 
budget year where critical decisions must be made which will determine 
our future economic strength.
    In recent months there has been negative publicity, generated by 
the Environmental Defense Fund (EDF), toward Red River projects and the 
U.S. Army Corps of Engineers, Civil Works programs, as a whole. The 
economic information and analysis made by the EDF is simply unfounded. 
The accusations are not correct and in fact the Red River Navigation 
project has been a success economically and environmentally. A group of 
organizations, to include the RRVA, will be presenting a `white paper' 
to demonstrate the true benefits associated with the Red River 
Waterway. This document will be presented to the subcommittee members 
once it is completed.
    I would now like to comment on our specific requests for the future 
economic well-being of the citizens residing in the four state Red 
River Basin area.
    Navigation.--The J. Bennett Johnston Waterway is living up to the 
expectations of the benefits projected. The tonnage moved in 1998 was 
3.7 million tons with the projected tonnage, to justify the project, at 
3.6 million tons. Estimates for 1999 are close to 4.0 million tons. We 
are extremely proud of our public ports, municipalities and state 
agencies who have created this success. New facilities opened in 1999 
included a fertilizer terminal at the Port of Shreveport-Bossier and 
stone distribution at the Port of Natchitoches. Liquid petroleum 
shipments increased in 1999 as did commercial stone operations. 
Currently under construction, at the public ports , are a wood chip 
barge loading system, liquid petroleum tank farm, and general cargo 
warehouse facility. You are reminded that the Waterway is not complete, 
ten percent remains, $200 million. We appreciate the President's budget 
level of $18 million; however, we respectfully request the expressed 
Corps capability of $23 million. In order to keep the waterway safe and 
reliable we must continue at a funding level higher than the 
President's Budget. The RRVA formed a Navigation Committee for 
industry, the Corps and Coast Guard to partner in making our Waterway a 
success. This effort has reaped many benefits. We can not sacrifice 
what has been accomplished by inadequate funding levels.
    In fiscal year 2000 you reprogrammed funds to initiate the 
feasibility study to extend navigation from Shreveport-Bossier City, 
Louisiana into the State of Arkansas. It is imperative that you 
continue funding this important study and support the $200,000 included 
in the President's Budget. Many areas continue to suffer major 
unemployment, and the navigation project, although not the total 
solution, will help revitalize the economy in this region. The U.S. 
Fish and Wildlife Service `Planning Aid Report' indicated minimal 
impact and most probably an enhancement to environmental value. Last 
summer colonies of least terns (an endangered species) were found on 
stabilized sandbars in the Waterway in Louisiana as well as an increase 
in numbers and species of migratory birds due to the newly formed 
pools. This will be a multipurpose project addressing navigation, 
hydropower, bank stabilization and environmental restoration. I want to 
stress that the local sponsor, the Arkansas Red River Commission, has 
available their 50 percent cost share for the complete feasibility 
study. Few local sponsors have `funds in the bank' and are also willing 
to fund additional studies to insure a complete and accurate analysis 
is made.
    Bank Stabilization.--One of the most important continuing programs 
on the Red River is bank stabilization in Arkansas and North Louisiana. 
We must stop the loss of valuable farmland that erodes down river and 
interferes with the navigation channel. In addition to the loss of 
farmland is the threat to public utilities such as roads, electric 
power lines and bridges; as well as increased dredging cost in the 
navigable waterway. These revetment projects are compatible with 
subsequent navigation and we urge that they be continued in those 
locations designated by the Corps of Engineers to be the areas of the 
worst erosion. We appreciated Congressional funding in fiscal year 2000 
and request you again fund this project at a level of $10 million.
    It is essential to protect the banks from caving and erosion along 
the Red River below Denison Dam, Texas to Index, Arkansas along the 
Texas/Oklahoma border. The Federal Government constantly encourages its 
farmers to protect their lands against all forms of erosion, so it only 
makes sense to be consistent. An authorized project exists; `Red River 
Waterway, Index, AR to Denison Dam, TX, Bank Stabilization', so the 
issue lies with the benefit/cost ratio. We believe that the authorized, 
on going `Sediment Transport Study' will identify benefits due to 
reduced dredging cost in the navigable Waterway in Louisiana.
    There is a new technique for bank stabilization which could be 
tested as a demonstration project under this authorization. This new 
technique, underwater bendway weirs, has proven to be less expensive 
than conventional methods and more efficient in controlling the energy 
of the river as well as providing environmental benefits. Over 1,000 
acres of prime farmland in Oklahoma and Texas is lost each year to 
river erosion and we must investigate all avenues to correct this 
problem. You funded the initiation of this project in fiscal year 1999 
and we request you continue that initiative, in this appropriation, at 
a level of $5.5 million, the expressed Corps capability.
    Flood Control.--You will recall that in 1990 major areas of 
northeast Texas, Southwest Arkansas and the entire length of the Red 
River in Louisiana were ravaged by the worst flooding to hit the region 
since 1945 and 1957. More than 700,000 acres were flooded with total 
damages estimated at $20.4 million. However, it could have been much 
worse. The Corps of Engineers estimates that without the flood control 
measure authorized by Congress over the past several decades an 
additional 1.3 million acres would have been flooded with an estimated 
$330 million in additional flood damage to agriculture and urban 
developments.
    We continue to consider flood control a major objective and request 
you continue funding the levee rehabilitation projects ongoing in 
Arkansas and Texas. Four of eleven items have been completed on levees 
rehabilitated to meet federal standards. $4 million will construct two 
more items; completing Miller County, AR and starting levees in 
Lafayette County, AR.
    In addition, Bowie County levee, in Texas, is crucial to the 
integrity of the Arkansas levee system. Should the Bowie levee fail 
flood waters will inundate behind the just competed Miller County 
levees in Arkansas. It is important to have this project funded at 
$900,000, for the `locally preferred' option, according to cost sharing 
under the Flood Control Act of 1946, not withstanding economic 
justification.
    The levees in Louisiana have been incorporated in the Federal 
system; however, do not meet current construction standards due to 
their age. These levees do not have a gravel surface, on top, 
threatening their integrity during times of flooding. It is essential 
for personnel to traverse the levees during a flood to inspect them for 
problem areas. Without the gravel surface the vehicles used cause 
rutting and themselves can create conditions for the levees to fail. 
Gravel surfaces will insure inspection personnel can check the levees 
during the saturated conditions of a flood. We propose a three phase, 
three year project to correct this Valley wide problem in Louisiana. 
The first year requires a funding level of $2,654,000 with the whole 
project costing $8,361,000.
    Clean Water.--Nearly 3,500 tons of natural salts, primarily sodium 
chloride, enter the upper reaches of the Red River each day, rendering 
downstream waters unusable for most purposes. The Truscott Brine Lake 
project, which is located on the South Fork of the Wichita River in 
King and Knox Counties, Texas became operational in 1987. An 
independent panel of experts found that the project not only continues 
to perform beyond design expectations in providing cleaner water, but 
has an exceptionally favorable cost benefit ratio. $16 million dollars 
was appropriated in fiscal year 1995, by the Administration, to 
accelerate engineering design, real estate acquisition and initiate 
construction of the Crowell Brine Dam, Area VII and Area IX. Due to a 
conflict over environmental issues, raised by the U.S. Fish and 
Wildlife Service, completion of the SFEIS was delayed pending further 
study to determine the extent of possible impacts to fish and wildlife, 
their habitats and biological communities along the Red River and Lake 
Texoma. In an effort to resolve these issues and insure that no harmful 
impact to the environment or ecosystems would result, a comprehensive 
environmental and ecological monitoring program was implemented. It 
evaluates the actual impacts of reducing chloride concentrations within 
the Red River watershed. This base line data is crucial to 
understanding the ecosystem of the Red River basin west of Lake Texoma 
and funding for this must continue.
    Dr. Westphal, Assistant Secretary of the Army (Civil Works), in 
October 1998 agreed to support a re-evaluation of the Wichita River 
Basin portion of the project. Completion of this tributary will reclaim 
Lake Kemp as a usable water source for the region. As was done in 
fiscal year 2000 we support the reprogramming of $1,351,000 to continue 
this important project. The drought experienced in the Red River 
Valley, these past two years, has highlighted the critical need for 
this usable water source.
    Operation & Maintenance.--We appreciate the support of your 
subcommittee to support navigation to Shreveport/Bossier City which is 
now providing an increase to our industrial base, creating jobs and 
providing economic growth. We request that O&M funding levels remain at 
the expressed Corps capability to maintain a safe, reliable and 
efficient transportation system. As experienced two years age failure 
to maintain a revetment for $500,000, when the problem was first 
identified, resulted in a catastrophic failure of the revetment and 
adjacent levee. This led to an emergency repair of $5 million which 
could have been prevented. The President's budget level of $8.9 million 
does not address the backlog of maintenance at the five lock and dams 
or deteriorating dikes and revetments. The Corps capability of 
$15,237,000 million is required to maintain a safe waterway.
    Full O&M funding levels is not only important for the Waterway 
project but for all our Corps projects and flood control lakes.
    We are sincerely grateful to you for the past support you have 
given our various projects. We hope that we can count on you again to 
fund our needs and complete the projects started that will help us 
diversify our economy and create the jobs so badly needed by our 
citizens. We have included a summary of our requests for easy 
reference.
    Thank you for the opportunity to present this testimony and project 
details of the Red River Valley Association on behalf of the 
industries, organizations and citizens we represent throughout the four 
state Red River Valley region. We believe that any federal monies spent 
on civil work projects are truly investments in our future and will 
return several times the original investment in benefits that will 
accrue back to the Federal Government.
    I am always available to provide you and your staff additional 
information or clarification on any issue presented.

                            GRANT DISCLOSURE

    The Red River Valley Association has not received any federal 
grant, subgrant or contract during the current fiscal year or either of 
the two previous fiscal years.

                  SUMMARY OF FISCAL YEAR 2001 REQUESTS

    Note.--Projects are NOT in any order of priority.
Studies
    Red River Navigation, SW Arkansas.--This is a feasibility study 
initiated on March 24, 1999 to investigate the potential to extend 
navigation from Shreveport/Bossier, LA to Index, AR. To date $1,783,000 
has been ``reprogrammed'' for this study from another Red River study. 
The President's budget included $200,000 for fiscal year 2001. An 
additional $417,000 is required to complete the study in fiscal year 
2002. The study is cost shared 50 percent with the Arkansas Red River 
Commission, the local sponsor.
            President's Budget--$200,000
            Total Request--$200,000
    Millwood Lake, Grassy Lake, AR (Section 1135).--An environmental 
restoration project to 15,000 acres of wetlands located downstream from 
Millwood Dam. The Dam interrupted the flow and this project would be a 
water delivery system to include restoring flow to a 400 acre pristine 
wetland area. It is private land; however, there is a national interest 
for migratory birds. A potential sponsor is the Arkansas Soil & Water 
Conservation Commission.
            Total Request--$300,000
    Southwest Arkansas Study.--Conduct a reconnaissance report in the 
four county area of the Red River/Little River basins. Included would 
be the four Corps lakes; DeQueen, Dierks, Gillham and Millwood. The 
watershed study would evaluate; flooding, irrigation, fish and wildlife 
habitat, water quality, recreation and water releases for navigation. 
The State of Arkansas has expressed an interest in cost sharing 
feasibility study.
            Total Request--$300,000
    Bois d'Arc Creek, Bonham, TX.--This is a reconnaissance study to 
address the flooding on 16,100 acres on the lower two-thirds of the 
basin. The towns of Whitewright and Bonham are within the basin. A dam 
was determined feasible in the 1960's; however, there was no local 
sponsor. Currently there are local sponsors interested in this project.
            President's Budget--$200,000
            Total request--$300,000
    Southeast Oklahoma Water Resource Study.--Conduct a reconnaissance 
study to evaluate the water resources in the study area. The study area 
includes the Kiamichi River basin and other tributaries of the Red 
River. A comprehensive plan will be developed to determine how best to 
conserve and utilize this water.
            President's Budget--$200,000
            Total Request--$200,000
    Big Cypress Valley Watershed (Section 1135).--The main focus of 
this study is within the City of Jefferson, Texas. Informal 
coordination with Jefferson has showed their continued support and 
intent to participate. Their total share is estimated to be $601,600 
with annual O&M costs of approximately $21,000.
            Total Request--$100,000

                              CONSTRUCTION

Red River Waterway Project
    J. Bennett Johnston Waterway.--Ten projects have been awarded in 
fiscal year 2000 and need to be completed as well as the initiation of 
six new projects. Upon implementation of the Project Cooperation 
Agreement funds will be used for recreation features, as well as 
continued efforts with mitigation.
            President's Budget--$18,040,000
            Construction Adds--$5,000,000
            Total Request--$23,040,000
    Index, AR to Denison Dam, TX; Bendway Weir Demo Project.--This 
stretch of Red River experiences tremendous bank caving. A 
demonstration project using this bendway weir technique is needed to 
determine if this method will work in the Red River. The U.S. Highway 
271 bridge was selected due to the threat to this infrastructure and 
accessibility for evaluation. The project will include bendways 6 miles 
upstream and 5.5 miles downstream of the bridge. There are 
environmental enhancement potential with this project.
            Total Request--$5,500,000
    Red River Basin Chloride Control Project.--A reevaluation for the 
Wichita River Basin features has been ongoing using reprogrammed funds. 
The office of the ASA(CW) has approved this and is expected to 
reprogram funds in fiscal year 2001. In addition to the reevaluation 
and NEPA process, environmental monitoring activities will continue.
            Total Reprogram Request--$1,351,000
Red River Below Denison Dam Levees & Bank Stabilization
    Levee Rehabilitation, AR.--Funds are required to complete 
construction of Levee Item #5 initiated in fiscal year 2000; initiate 
construction of the next Levee Item and initiate design for the follow 
on Levee Item. Design and initiate construction of Dillard Revetment 
downstream extension. An Incorporation Report must be accomplished for 
Twelve Mile Bayou Levee, Caddo Parish, LA as directed by WRDA 99.
            Total Request--$4,000,000
    Bowie County Levee, TX.--The local sponsor wants the `locally 
preferred option' authorized for construction.
            Total Request--$900,000
    Upgrade Levees, LA.--Approximately 220 miles of levees do not have 
gravel surfaces on top of the levee as is the present standard. These 
levees are in the federal system and must be upgraded. This surface is 
required for safe inspections of the levees during flood fights and to 
maintain the integrity of the levee. The total project can be completed 
in three phases over three years.
            Total Request--$2,654,000
Red River Emergency Bank Protection
    Arkansas.--Funds are required to complete construction of Hunter's 
Island Revetment initiated in fiscal year 2000; award contracts for 
Pleasant Valley and Dickson Revetments; complete the design for Bois 
D'Arc and initiate design for the next priority item.
            Total Request--$10,000,000
    Louisiana.--A sediment transport study, Phase II will determine if 
sediments being transported downstream, into the navigation channel, 
are increasing the dredging costs. Phase I determined that 1.6 million 
tons of sand sediment enter the navigation pools each year. Phase II 
will examine total sediments. There are enough funds on hand to 
complete this study.
            Total Request--$0
    Aloha-Rigolette Flood Control, LA.--The local sponsor is expected 
to contribute more funds than originally anticipated due to the 
performance and termination of the original contractor. These 
additional overruns were through no fault of the local sponsor, Town of 
Colfax, and they can not bear the burden of the additional cost. In 
addition to federal funding language is required to relieve the Town of 
Colfax from this extra cost.
            Total Request--$286,000
    Little River County (Ogden Levee), AR.--A Reconnaissance report in 
1991 determined that flood control levees were justified along Little 
River. The project sponsor, Arkansas Water Conservation Commission 
requested that the project proceed directly to PED, without a cost 
shared feasibility study. We request language and funding to accomplish 
this.
            Total Request--$300,000
    McKinney Bayou.--The Reconnaissance Report showed a favorable 
project to clear and reshape this drainage canal. Presently, the local 
sponsor is unable to cost share continuation of this project.
            Total Request $0

                        OPERATION & MAINTENANCE

    Red River Waterway.--The President's budget is sufficient to only 
operate and perform preventive maintenance items. There are major, 
unfunded backlog maintenance items that must be done. These items 
include inspection and certification of lock & dam stoplogs, repairs to 
tainter gate diagonal bracing and revetment repairs.
            President's Budget--$8,907,000
            Revetment Repair--$2,500,000
            Backlog Maintenance--$3,830,000
            Total Request--$15,237,000
    We support that O&M at projects be funded at the full Corps 
capability.

                 MISSISSIPPI RIVER & TRIBUTARIES (MR&T)

    Lower Red River, South Bank Levees, LA.--The Bayou Rapides Flood 
Control Structure is located in Alexandria, LA and serves to contain 
flows and reduce interior flooding from high stages of the red River. 
Without this structure the Federally authorized project could not 
function properly. We support this MR&T funded project.
            President's Budget--$5,739,000
            Total Request--$8,239,000.
                                 ______
                                 

 Prepared Statement of the Louisiana Department of Transportation and 
                              Development

    The Louisiana Department of Transportation and Development, Office 
of Public Works and Intermodal Transportation, is the agency designated 
to represent the State of Louisiana in the planning and orderly 
development of its water resources. This statement is presented on 
behalf of the State of Louisiana and contains recommendations for 
fiscal year 2001 appropriations for work in Louisiana under the 
Mississippi River and Tributaries Project.
    Louisiana contains the terminus of the Mississippi River, which has 
the third largest drainage basin in the world, exceeded only by the 
watersheds of the Amazon and Congo Rivers. The Mississippi River drains 
41 percent, or 1\1/4\ million square miles, of the contiguous United 
States and parts of two Canadian provinces. All of the runoff from 
major river basins, such as the Missouri and Upper Mississippi, the 
Ohio including the Tennessee and others, and the Arkansas and White, 
flow into the Lower Mississippi, which empties into the Gulf of Mexico 
through Louisiana.
    The jurisdiction of levee boards in Louisiana includes one-third of 
the State's total area. However, the importance of this one-third of 
the State can be seen by the fact that it contains nearly 75 percent of 
the State's population and about 90 percent of the State's disposable 
personal income. Traditionally, the levee district areas are water rich 
and have fallen heir to industrial development that ranks high in the 
nation. It has been estimated that about 60 percent of the State's 
agricultural products come from levee district areas. So you can see 
why Louisiana and its twenty levee districts are so interested in 
seeing the completion of the Mississippi River and Tributaries Project.
    In making the following recommendations regarding construction, 
studies, and some selected operation and maintenance items, the State 
of Louisiana would hope that Congress and the Administration will honor 
their prior commitments to infrastructure development and fund our 
requests.
    The following Louisiana projects are only those for which we are 
requesting an increase to the President's budget. For those Louisiana 
projects not listed we agree with the President's budget. See the 
attached ``Summary of Recommended Appropriations'' for a complete 
listing.

Operation and Maintenance

                                                                 Request
Atchafalaya Basin.......................................     $13,582,000
Old River Request.......................................      11,320,000
Lower Red River, South Bank Levees (Bayou Rapides 
    Drainage Structure and Pumping Plant)...............       8,239,000
Mississippi River Levees (total MR&T)...................      10,000,000
Channel Improvement (total MR&T)........................      60,000,000

    The operation and maintenance of completed works are essential to 
achieving the full benefits of the projects. In times of budget 
constraints it is essential that operation and maintenance not be 
delayed which would hamper the effectiveness of the projects and cause 
more expensive maintenance at a later date.
    The Bayou Rapides Drainage Structure and Pumping Plant Project, 
located in Alexandria, Louisiana, is authorized under the Lower Red 
River, South Bank Levees of the Mississippi River and Tributaries 
Project. The replacement of an existing pumping plant is needed to 
contain flows and reduce interior flooding from high stages of the Red 
River. Additional funds of $2.5 million are needed to continue 
construction.
    All the above listed projects have reached a point where delayed 
maintenance is now essential and we urge you to fund these projects in 
the amounts requested.

Mississippi River Levees (total MR&T)--Request: $50,000,000
    The Mississippi River and Tributaries Project above Louisiana is 
about 90 percent complete, but to a much lesser extent in Louisiana. 
Because of the improvements upstream, increased flows are a major 
problem in Louisiana where the project is lagging behind the 
construction in the upper valley. Of the total request for levee 
construction, $20,072,000 is needed for Louisiana projects. This 
includes an additional $4,200,000 for the Vicksburg District where 
there is a deficiency of 4 to 7 feet on mainline Mississippi River 
levees in the Fifth Louisiana Levee District. It is also requested that 
Federal funds be provided to purchase rights-of-way for this critical 
work as the Levee District is in an economically depressed area and 
does not have a tax base capable of producing the funds necessary for 
both maintenance and rights-of-way purchase.

Channel Improvement (total MR&T)--Request: $45,000,000
    Channel improvement and bank stabilization provide protection to 
the levees and the development behind them, as well as, preventing 
unsatisfactory alignment where the river's bank is unstable. The 
additional funds we are requesting will provide for the dredging and 
revetment work necessary to accommodate increased flows caused by 
upstream improvements.

Tensas Basin, Red River Backwater Area (Sicily Island Area Levee 
        Project)--Request: $8,533,000
    The budgeted funds for fiscal year 2001 are to be used to continue 
construction of levee Items 1C and 1D. An additional $6,203,000 is 
requested to complete Item 1C and 1D, advance the award of Billys and 
Falcon Bayou and acquisition of lands.

Morganza to the Gulf of Mexico--Request: $5,000,000
    Funds are requested to advance preconstruction engineering and 
design and start construction. This study is scheduled for completion 
and is expected to be authorized in the next Water Resources 
Development Act.

Local Contributions for Flood Control Improvements
    Historically, Louisiana has always done its part in cooperation 
with the Federal agencies concerned with flood control. The Louisiana 
State Board of Engineers, the forerunner of the Department of 
Transportation and Development, Office of Public Works and Intermodal 
Transportation, was created in 1879, the same year as the Mississippi 
River Commission, to coordinate the planning and construction of the 
required flood control facilities to protect the State. Since that 
time, local expenditures for flood control have exceeded $730,000,000. 
This amount adjusted to 1979 dollars represents expenditures in excess 
of $5.3 billion. Nearly one-half of the potential flooded area of the 
Lower Mississippi River Valley lies in Louisiana. Local expenditures 
for flood control have increased with the growth of the valley. This 
record not only meets, but exceeds any National Water Policy local 
participation requirement ever put into practice.

                               CONCLUSION

    The Mississippi River and Tributaries Project has been underway 
since 1928 and isn't scheduled for completion until the year 2031--a 
date that continually keeps moving further into the future. We 
understand the need for budget constraints, but the President's budget 
request of $309,000,000 for the total MR&T Project is not adequate. We 
endorse the recommendation of the Mississippi Valley Flood Control 
Association in their request for a minimum of $370,000,000 MR&T budget 
for funding to the full capability of the Corps throughout the whole 
valley.
    The State of Louisiana, Department of Transportation and 
Development, Office of Public Works and Intermodal Transportation, in 
particular, wishes to commend the Appropriations Subcommittees on 
Energy and Water Development, and express our appreciation for the 
foresight and understanding exhibited for water resources projects 
which are vital to the national interest. We solicit your further 
consideration of the recommendations presented herein.

 MISSISSIPPI RIVER AND TRIBUTARIES SUMMARY OF RECOMMENDED APPROPRIATIONS
                 FOR FISCAL YEAR 2001 STATE OF LOUISIANA
------------------------------------------------------------------------
                                                             Lousiiana
           Louisiana projects             Budget request      request
------------------------------------------------------------------------
Operation and Maintenance:
    Mississippi River Levees (total           $6,160,000     $10,000,000
     MR&T)..............................
    Atchafalaya Basin...................       9,482,000      13,582,000
    Channel Improvement (total MR&T)....      58,954,000      60,000,000
    Old River Control Structure.........       4,720,000      11,320,000
    Bonnet Carre Spillway...............       1,340,000       1,340,000
    Lower Red River, SBL--Bayou Rapides        5,739,000       8,239,000
     Drainage Structure & Pumping Plant.
    Tensas Basin:
        Boeuf & Tensas Rivers...........       2,384,000       2,384,000
        Red River Backwater Area........       3,048,000       3,048,000
    Atchafalaya Basin, Floodway System,        1,499,000       1,499,000
     LA.................................
    Baton Rouge Harbor--Devil Swamp, LA.         210,000         210,000
    Bayou Cocodrie and Tributaries......          56,000          56,000
    Mississippi Delta Region,                    916,000         916,000
     Caernarvon, LA.....................
Construction:
    Mississippi River Levees (total           40,621,000      50,000,000
     MR&T)..............................
    Louisiana State Penitentiary Levee..       5,500,000       5,500,000
    Atchafalaya Basin...................      26,000,000      26,000,000
    Channel Improvements (total MR&T)...      35,690,000      45,000,000
    Tensas Basin, Red River Backwater          2,330,000       8,533,000
     Area...............................
    Morganza to the Gulf of Mexico......  ..............       1,000,000
    Atchafalaya Basin, Floodway System..      10,000,000      10,000,000
    Mississippi Delta Region, Davis Pond       5,000,000       5,000,000
    Mississippi & Louisiana Estuarine            100,000         100,000
     Area (Bonnet Carre)................
Preconstruction Engineering & Design:          2,000,000       4,000,000
 Morganza to the Gulf of Mexico \1\.....
General Investigations:
    Donaldsonville to the Gulf of Mexico       1,100,000       1,100,000
    Alexandria to the Gulf of Mexico....         750,000         750,000
    Spring Bayou........................         100,000         100,000
------------------------------------------------------------------------
\1\ Need WRDA authorization.
Note.--The projects listed above are only those in Louisiana (except
  where noted) and directly affect the State. We realize that there are
  other projects in the Valley. We endorse the recommendations of the
  Mississippi Valley Flood Control Association.

                                 ______
                                 

        Prepared Statement of the Caddo/Bossier Port Commission

    On behalf of the citizens of Northwest Louisiana, the Caddo-Bossier 
Parishes Port Commission strongly urges the Congress of the United 
States to allocate in fiscal year 2001 the necessary monies to ensure 
safe and reliable Red River navigation.
    The water resources needs of this nation must be met in order to 
assure our commerce, international trade and national defense needs are 
not shortchanged. Our water highways, including the Red River, are 
national assets. Their ports' activities link every community in our 
nation to the world. The Port of Shreveport-Bossier, owned and operated 
by the Caddo-Bossier Port Commission, is part of this waterways 
network, linking the Ark-La-Tex with the vast midcontinent and coastal 
and Great Lakes ports.
    The Port of Shreveport-Bossier, which lies at the head of Red River 
navigation, is one of the newest ports in this network, having been in 
regular operation now only three years. We are proud of its evolution, 
the impact it is having on the communities it serves and the speed with 
which the Commission's goals of providing water transportation and 
economic development are progressing. For example, each year there has 
been an increase in tonnage over port docks. This spring the One 
Millionth Ton of Cargo milestone will be reached, a timetable far ahead 
of many very successful inland ports. And just as importantly, the port 
is prompting jobs and dollar investment. Oakley Louisiana began 
operation at the Port in April, 1999 and Omni Specialty Packaging and 
Omni Terminal Systems will begin operation this spring. These companies 
joined Red River Terminals, Shreveport Fabricators, Arch Chemicals and 
U.S. Liquids at the 2,000 acre Port complex.
    Contrary to recent national publicity sparked by a particular 
political agenda, the facts speak for themselves--the Port of 
Shreveport-Bossier is a success. Federal investment in civil works 
programs for the Red River must be adequate to ensure an efficient 
transportation system, thereby assuring local citizens and private 
business that their investments in the Port are not only worthwhile 
today but will be a sound and ongoing investment in the future economic 
growth of the Ark-La-Tex.
                                 ______
                                 

        Prepared Statement of the Red River Waterway Commission

    On behalf of the citizens of the Red River Waterway District of 
Louisiana, the Red River Waterway Commission urges the Congress of the 
United States to allocate the funds necessary for fiscal year 2001 for 
Red River Waterway Project. Adequate funding will allow continued 
construction progress toward actual project completion, stimulate 
continued growth in tonnage movement, encourage the continuation of 
private and public development as well as facilitate total reliability 
in project function for industrial and recreational development. While 
this project is still in its infancy stage, the infrastructure 
investment has been justified by commercial and recreational 
development along the Red River and intermodal transportation cost 
savings because of water induced rates resulting from the project.
    Tonnage volumes continue to steadily increase and cargo 
classifications diversify providing numerous business opportunities for 
this region. Further development will continue to take place with the 
knowledge that users can rely on an efficient, functional and user 
friendly river system.
    Construction on Red River is over 90 percent complete, however, it 
is vitally important that we understand the importance of steady 
progress toward project completion with full knowledge of the financial 
constraints this country, the President and the Congress are wrestling 
with during the budget process.

            AREAS OF NEED FOR THE RED RIVER WATERWAY PROJECT

    Navigation Structures (Revetments and Dikes).--The completion of 
these structures is necessary to maintain the channel alignment so as 
to provide reliable navigation to the commercial users. In addition, 
the structures help insure that barges can be loaded to the maximum 
depths allowable for profitable operation and continued industrial 
growth.
    Recreation Development.--Design and Construction in Pools 3, 4 and 
5 should begin immediately. Important projects such as Shreveport 
Riverfront, Teague Parkway Trails, Colfax and Hampton Lake establish an 
excellent recreation foundation.
    Operations & Maintenance Program.--Channel Maintenance (Dredging) 
is critical to the viability of the waterway system. The Corps of 
Engineers needs sufficient resources to adequately maintain the 
navigation channel to provide dependable and reliable depths so that 
barges moving on the system can be loaded to the maximum nine foot 
draft. Maintenance of existing navigation structures at strategic 
locations is vital for continued development. The backlog of 
maintenance items at the lock & dam structures could be devastating to 
the nation's investment in the navigation system.
    Construction/Maintenance Program.--The Corps of Engineers needs 
resources available to react quickly to landowner bank caving 
complaints that are a result of the project and are fully justified.
    Aids to Navigation.--As commercial use continues to increase, the 
Coast Guard presence and resources must reflect a similar growth to 
adequately maintain the buoy system on the Red River and stimulate 
confidence in the river system.
    Mitigation and Bendway Dredging.--Continue with land acquisition 
and developmental cost analysis associated with the mitigation portion 
of the project to enhance the bottomland hardwood acreage within the 
Red River Valley area of Louisiana. Continue the bendway dredging 
operations to maintain the backwater connection to the channel of Red 
River for ingress and egress of nutrient rich river water and numerous 
species of freshwater fish.


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
Alabama Electric Cooperative, Inc., prepared statement...........   640
Alabama River Pulp Company, Inc., prepared statement.............   616
Alabama State Docks, prepared statement..........................   649
American Chemical Society, prepared statement....................   521
American Museum of Natural History, prepared statement...........   507
American Public Power Association, prepared statement............   527
American Rivers, prepared statement..............................   545
Arkansas River Basin Interstate Committee, prepared statement....   560
Association for the Development of Inland Navigation in America's 
  Ohio Valley, prepared statement................................   633
Association of State Floodplain Managers, Inc., prepared 
  statement......................................................   540

Ballard, Lt. General Joe N., Chief of Engineers, Corps of 
  Engineers--Civil, Department of the Army, Department of 
  Defense--Civil.................................................     1
    Prepared statement...........................................    16
    Recognition of...............................................     2
    Statement of.................................................    11
Biomass Energy Research Association, prepared statement..........   522
Bowman, Adm. Frank L., Director, Naval Nuclear Propulsion 
  Program, National Nuclear Security Administration, Department 
  of Energy......................................................    95
    Prepared statement...........................................   133
    Statement of.................................................   131
Burns, Hon. Conrad, U.S. Senator from Montana:
    Prepared statement...........................................    25
    Statement....................................................    24
Business Council for Sustainable Energy, prepared statement......   517
Butte County, California, prepared statement.....................   497
Byrd, Hon. Robert C., U.S. Senator from West Virginia, questions 
  submitted by..................................................62, 397

Caddo/Bossier Port Commission, prepared statement................   666
California Industry and Government Central California Ozone Study 
  Coalition, prepared statement..................................   427
California Resources Agency Reclamation Board, prepared statement   475
California Water Commission, prepared statement..................   439
Caver, Thomas F., Jr., Chief, Programs Management Division, 
  Directorate of Civil Works, Corps of Engineers--Civil, 
  Department of the Army, Department of Defense--Civil...........     1
Cawelo Water District, prepared statement........................   491
Central Arizona Water Conservation District, prepared statement..   580
City of Marshall, Minnesota, prepared statement..................   607
City of Metumpka, AL, prepared statement.........................   614
City of Miami Beach, Florida, prepared statement.................   621
City of Morro Bay, California, prepared statement................   426
City of Newark, New Jersey, prepared statement...................   531
City of Oceanside, California, prepared statements.............410, 486
City of Phoenix, prepared statement..............................   408
City of Rainbow City, AL, prepared statement.....................   615
City of Rancho Palos Verdes, California, prepared statement......   435
City of Rome, Georgia, prepared statement........................   616
City of Sacramento, prepared statement...........................   413
City of San Leandro, California, prepared statement..............   409
City of San Rafael, CA, prepared statement.......................   436
City of Selma, AL, prepared statement............................   615
City of Stockton, prepared statement.............................   498
Clark County Regional Flood Control District, prepared statement.   437
Coachella Valley Water District, prepared statement..............   478
Cochran, Hon. Thad, U.S. Senator from Mississippi, questions 
  submitted by..................................................56, 393
Colorado River Basin Salinity Control Forum, prepared statement..   573
Colorado River Board of California, prepared statement...........   420
Colusa Basin Drainage District, prepared statement...............   415
Contra Costa County, California, prepared statement..............   432
Cook, J. Mark, letter from.......................................   644
Coosa-Alabama River Improvement Association, Inc., prepared 
  statement......................................................   610
Cottingham, David, Counselor to the Assistant Secretary for Water 
  and Science, Department of the Interior........................    73
Council of Alabama Waterway Associations, prepared statement.....   650
County of San Bernardino Board of Supervisors, prepared statement   492
County of San Joaquin and the San Joaquin County Flood Control 
  and Water Conservation District, prepared statement............   502
County of Santa Cruz, prepared statement.........................   477
County of Tulare, prepared statement.............................   491
County of Volusia, Florida, prepared statement...................   627
Craig, Hon. Larry, U.S. Senator from Idaho, ques182, 296, 311, 320, 397

David Volkert & Associates, Inc., prepared statement.............   647
Decker, Dr. James, Acting Director, Office of Science, Department 
  of Energy......................................................   187
    Prepared statement...........................................   192
    Statement of.................................................   190
Deschutes Basin Working Group, prepared statement................   590
Doetting, Robert L., letter from.................................   645
Domenici, Hon. Pete V., U.S. Senator from New Mexico:
    Opening statements........................................... 1, 95
    Questions submitted by.........43, 87, 154, 283, 284, 301, 312, 378
    Statement of.................................................   189
Dorgan, Hon. Byron, U.S. Senator from North Dakota:
    Questions submitted by......................................71, 299
    Statement of.................................................   187

Fort Peck Assiniboine and Sioux Tribes, prepared statement.......   595

Garrison Diversion Conservancy District, prepared statement......   549
Gioconda, Gen. Thomas F., Acting Deputy Administrator, Defense 
  Programs, Principal Deputy Assistant Secretary for Military 
  Applications, National Nuclear Security Administration, 
  Department of Energy...........................................    95
    Prepared statement...........................................   105
    Statement of.................................................   100
Gorton, Hon. Slade, U.S. Senator from Washington:
    Questions submitted by............................56, 293, 304, 396
    Statement of.................................................   187
Gottemoeller, Rose, Acting Deputy Administrator, Atomic Energy 
  Defense and Nonproliferation Programs, National Nuclear 
  Security Administration, Department of Energy..................    95
    Prepared statement...........................................   123
    Statement of.................................................   120
Green Brook Flood Control Commission, prepared statement.........   529
Gulf Intracoastal Canal Association, prepared statement..........   653

Habiger, Gen. Eugene E., Director, Security and Emergency 
  Operations, National Nuclear Security Administration, 
  Department of Energy...........................................    95
    Prepared statement...........................................   141
    Statement of.................................................   140
Hermiston Irrigation District, prepared statement................   595
Hoopa Valley Tribal Council, prepared statement..................   417
Humboldt Bay Harbor, Recreation, and Conservation District, 
  prepared statement.............................................   411
Hunt Company, prepared statement.................................   646
Huntoon, Carolyn, Assistant Secretary, Office of Environmental 
  Management, Department of Energy...............................   323
    Prepared statement...........................................   338
    Statement of.................................................   335

Integrated Petroleum Environmental Consortium, prepared statement   546
Itkin, Ivan, Director, Office of Civilian Radioactive Waste 
  Management, Department of Energy...............................   323
    Prepared statement...........................................   325
    Statement of.................................................   323

Johnston, J. Ronald, Program Director, Central Utah Project 
  Completion Act Office, Department of the Interior..............    73
    Prepared statement...........................................    77
    Statement of.................................................    77
Jordan, James T., letter from....................................   616

Kansas Arkansas River Basin Interstate Committee, prepared 
  statement......................................................   566
Kaweah Delta Water Conservation District, prepared statement.....   416
Kohl, Hon. Herb, U.S. Senator from Wisconsin, questions submitted 
  by.............................................................    69

Little River Drainage District, prepared statement...............   559
Los Angeles County Board of Supervisors, prepared statement......   433
Los Angeles County Department of Public Works, prepared statement   500
Louisiana Department of Transportation and Development, prepared 
  statement......................................................   664
Louisiana Governor's Task Force on Maritime Industry, prepared 
  statement......................................................   655

Magwood, Bill, Director, Office of Nuclear Energy, Science and 
  Technology, Department of Energy...............................   187
    Prepared statement...........................................   249
    Statement of.................................................   246
Martinez, Eluid L., Commissioner, Bureau of Reclamation, 
  Department of the Interior.....................................    73
    Prepared statement...........................................    74
McConnell, Hon. Mitch, U.S. Senator from Kentucky, questions 
  submitted by...................................................   305
Merced Irrigation District, prepared statement...................   495
Metropolitan Water District of Southern California, prepared 
  statement......................................................   429
Metropolitan Water Reclamation District of Greater Chicago, 
  prepared statement.............................................   542
Mid-Dakota Rural Water Project, prepared statement...............   553
Missouri River Bank Stabilization Association, prepared statement   557
Missouri-Arkansas River Basins Association, prepared statement...   545
Mni Wiconi Project, prepared statement...........................   549
Monroe County Commission, prepared statement.....................   614
Monterey County Water Resources Agency, prepared statement.......   422
Monterey Regional Water Pollution Control Agency, prepared 
  statement......................................................   421
Moss Landing Harbor District, prepared statement.................   424
Murray, Hon. Patty, U.S. Senator from Washington, questions 
  submitted by.................................................298, 320

National Audubon Society, prepared statement.....................   617
National Mining Association, prepared statement..................   630
National Urban Agriculture Council, prepared statement...........   541
Natomas Mutual Water Company, prepared statement.................   416
Navios Ship Agencies Inc., prepared statement....................   647
New Mexico Interstate Stream Commission, prepared statement......   575
New York University, prepared statement..........................   532
Northwest Power Planning Council, prepared statement.............   587
Nuclear Energy Institute, prepared statement.....................   514

Ohio State University, prepared statement........................   505
Oklahoma Arkansas River Basin Interstate Committee, prepared 
  statement......................................................   569
Oregon Water Resources Congress, prepared statement..............   594

Pacific Northwest Waterways Association, prepared statement......   585
Port Authority of New York and New Jersey, prepared statement....   537
Port of Houston Authority, prepared statement....................   582
Port of Long Beach, prepared statement...........................   400
Port of Stockton, prepared statement.............................   399

Red River Valley Association, prepared statement.................   658
Red River Waterway Commission, prepared statement................   667
Reicher, Dan, Assistant Secretary of Energy, office of Energy and 
  Renewable Energy, Department of Energy.........................   187
    Prepared statement...........................................   224
    Statement of.................................................   220
Reid, Hon. Harry, U.S. Senator from Nevada:
    Questions submitted by.......................................    59
    Prepared statement...........................................   261
    Statement of.................................................    97
Riverside County Flood Control and Water Conservation District, 
  prepared statement.............................................   488

Sacramento Area Flood Control Agency, prepared statement.........   404
San Joaquin Area Flood Control Agency, prepared statement........   501
Santa Clara Valley Water District, prepared statement............   479
Santa Cruz Harbor, prepared statement............................   436
Seminole Tribe of Florida, prepared statement....................   628
Southeastern Colorado Water Conservancy District, prepared 
  statement......................................................   563
St. Francis Levee District Board of Directors, prepared statement   637
State of Arizona, prepared statement.............................   579
State of New Jersey, Department of Transporation, prepared 
  statement......................................................   537
State of New York, Empire State Development Corporation, prepared 
  statement......................................................   537
State of Wyoming, prepared statement.............................   578
Steamship Association of Louisiana, prepared statement...........   650
Stevedoring Services of America, prepared statement..............   642
Stewart, Jerry L., letter from...................................   645

Tennessee-Tombigbee Waterway Development Authority, prepared 
  state- 
  ment...........................................................   638
Topazi, Anthony J., letter from..................................   640
Tule River Association, prepared statement.......................   496
Tumalo Irrigation District, prepared statement...................   595

University Corporation for Atmospheric Research, prepared 
  statement......................................................   509
University of Medicine and Dentistry of New Jersey, prepared 
  statement......................................................   535
University of Miami, prepared statement..........................   619
University of Michigan, prepared statement.......................   624
University of Rochester, prepared statement......................   511
Upper Mississippi River Basin Association, prepared statement....   634

Van Winkle, General Hans A., Deputy Commanding General for Civil 
  Works Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................     1
Velasco Drainage District, prepared statement....................   642
Ventura Port District, prepared statement........................   435

Warrior & Gulf Navigation Company, prepared statement............   639
Warrior-Tombigbee Waterway Association, prepared statement.......   648
Western Coaliton of Arid States, prepared statement..............   576
Westphal, Dr. Joseph, Assistant Secretary of the Army (Civil 
  Works), Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................     1
    Prepared statement...........................................     5
    Statement of.................................................     3
Whitewater River Basin, prepared statement.......................   478


                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system.......................................    54
Additional committee questions...................................    43
Administrative appeals process...................................    51
Alamogordo flood control system..................................    55
Alaska National Defense System missile sites.....................    34
Army civil works new initiatives.................................     6
Backlog, construction and maintenance............................    36
Bluestone Lake (dam safety assurance), West Virginia.............    62
Capability disclosure statement..................................    32
Caspian Terns....................................................    57
Challenge 21 initiative..........................................     5
Civil program mission, current...................................    18
Civil Works Program:
    Fiscal year 2001.............................................     6
    Summary of budget............................................    16
Columbia River navigation channel deepening..................32, 33, 58
Columbia/Snake River preferred alternative.......................    30
Comprehensive river basin studies................................    52
Construction backlog.............................................    61
Corps:
    Civil works program, ``growing'' the.........................    45
    Historic role in service to the Nation.......................    17
    Maintenance backlog, reducing................................    16
    Media coverage of the........................................ 2, 12
    Review.......................................................    40
    Study process, integrity of..................................    44
Corps of Engineers Finance Center................................    56
Credits and reimbursements.......................................    47
Devils Lake, North Dakota........................................    28
Direct program...................................................    16
Disaster response assistance.....................................    22
Ecosystem restoration and flood hazard mitigation program........    49
Engineering capability, maintaining..............................     2
Environmental management.........................................    21
Espanola Valley, Rio Grande and tributaries study................    54
Everglades restoration...........................................    60
Fallon, Nevada...................................................    38
Fiscal year 2001:
    Budget.......................................................    24
        Priorities...............................................    38
    Continuing program, highlights of the........................     7
Flood protection.................................................    20
Formerly utilized sites remedial action program (FUSRAP).........    50
Fox River, Wisconsin.............................................    69
Funding priorities and schedule..................................    49
Greenbrier River basin, West Virginia............................    63
Harbor services:
    Fund and fee.................................................    61
    Fund proposal................................................     7
Infrastructure renovation........................................    22
John Day:
    Drawdown study...............................................    58
    Lock and dam.................................................    31
La Farge Dam deauthorization.....................................    69
Las Cruces.......................................................    55
Levisa and Tug Forks of the Big Sandy River and Upper Cumberland 
  River, West Virginia, Virginia and Kentucky--West Virginia Tug 
  Fork flood protection projects.................................    65
London locks and dam, West Virginia..............................    67
Lower Mud River, West Virginia...................................    66
Maintenance backlog.............................................. 4, 61
Maple River, near Enderlin, North Dakota.........................    71
Marmet locks and dam, West Virginia..............................    64
Nation's water and land resource needs, meeting the..............    12
National trends..................................................    18
Navigation.......................................................    20
New investment program...........................................     7
Ocean climate changes & EIS......................................    58
Paducah gaseous diffusion plant..................................    26
Picatinny arsenal heavy metal cleanups...........................    41
Preferred alternative, timeframe for.............................    56
Program overview.................................................    43
Project delays...................................................    43
Proposed work, examples of.......................................    48
Recreation modernization funding profile.........................    49
Recreation modernization program.................................    48
Red River Valley, Grand Forks, North Dakota......................    28
Regulatory program...............................................    61
    Studies......................................................    51
Reimbursed program...............................................    16
Remedial action program, formerly utilized sites.................    42
Rio Grande floodway, San Acacia to Bosque del Apache unit........    55
Rio Grande River Basin:
    Comprehensive Study..........................................    53
    Study........................................................    41
Robert C. Byrd locks and dam, West Virginia and Ohio.............    62
Rural Nevada water supply infrastructure.........................    36
Salmon through dams, delayed mortality of........................    57
Shore protection.................................................    60
Snake River predicted chinook runs vs. Columbia River............    57
Snake/Columbia corridor..........................................    30
Standards, rigid regulatory......................................    38
U.S. Army cold regions research and engineering laboratories.....    35
Upper Mississippi and Illinois navigation study, Illinois, Iowa, 
  Minnesota, Missouri and Wisconsin..............................    70
Upper Mississippi River Navigation Study.........................13, 46
Upper Snake River dams, comparison to............................    57
Watershed studies................................................     4
West Fork River, West Virginia...................................    67
West Virginia statewide flood protection plan, West Virginia.....    68
Wetland proposals................................................    37
Wheeling riverfront, West Virginia...............................    66
Williston, North Dakota..........................................    71
Winfield locks and dam, West Virginia............................    62
Wrongdoing, allegations for......................................    15

                          DEPARTMENT OF ENERGY

                National Nuclear Security Administration

Accelerated strategic computing initiative (ASCI)..............103, 168
Accelerator Production of Tritium (APT) and Accelerator 
  Transmutation of Waste (ATW), combining........................   162
Accomplishments..................................................   106
ADAPT............................................................   111
Advanced manufacturing technology..............................101, 119
Arms control and nonproliferation................................   126
BN-350 shut-down.................................................   182
Budget structure, revised........................................   101
Critical infrastructure protection...............................   144
Critical skills..................................................   167
Cyber security............................................144, 157, 182
Declassification.................................................   143
Defense programs, megastrategy for...............................    98
Device assembly facility.........................................   147
DOE/NIH partnership for technology development...................   173
Emergency operations.............................................   145
Experimental programs............................................   112
Fiscal year 2000 supplemental budget request.....................   101
Fiscal year 2001 budget:
    Amendment....................................................   142
    Request................................102, 120, 123, 133, 141, 142
        Adequacy of..............................................   154
Fiscal year 2001 DOE budget request..............................   135
Fissile materials disposition..................................128, 185
General Accounting Office report.................................   122
Industrial partnerships..........................................   173
Infrastructure at the labs and plants............................   163
Infrastructure requirements......................................    96
Integrated strategy..............................................   148
International Centers for Environmental Safety...................   184
Laboratory directed research and development (LDRD)............169, 182
Labs, travel limitations at the..................................   170
Manufacturing capabilities.......................................   110
Materials protection control and accounting...................(125, 177
Megastrategy.....................................................    98
Military requirements, ability to meet...........................   157
National Ignition Facility............................97, 102, 146, 158
Naval reactor:
    Operational safety...........................................   138
    Programs.....................................................   131
Naval reactors...................................................   185
    Department of Energy budget detail...........................   136
    Operations...................................................   131
    Organization.................................................   132
Nevada test site, utilization of the.............................    98
New budget and reporting structure...............................   156
New initiative for $100 million..................................   178
NIF-technological breakthroughs still needed.....................   159
NIF--SEAB conclusion.............................................   159
NN R&D contracts, competing......................................   180
NNSA
    Implementation...............................................   138
    Need for functional..........................................   148
Nonproliferation
    Program for Russia, long-term................................   184
    Task force on................................................   176
Nuclear:
    Cities initiative..........................................122, 179
    Safety and cooperation, international........................   129
    Safety centers...............................................   183
    Weapons production...........................................   151
Nuclear weapons:
    Stockpile, condition of the..................................   154
    United States helping the Russians control their.............   139
Overall budget--priorities for additional funding................   176
People...........................................................   108
Pit production.................................................103, 167
    New designs or remanufactured................................   168
Plutonium disposition............................................   175
Polygraph tests..................................................   150
Polygraphs.......................................................   181
Production plants, recapitalization of...........................   163
Production readiness.............................................   171
Program direction..............................................130, 145
Program planning and budgeting, major changes in.................   105
Radiographic diagnostic facilities...............................   174
Research and development.........................................   130
Russia, long term nonproliferation program with..................   124
Russia, relationship with........................................   153
Russian:
    Initiative, long-term........................................   120
    Nuclear infrastructure.......................................   121
    Reactors, core conversion of.................................   179
Safety...........................................................   166
Security affairs.................................................   142
Separate security budget, proposal to establish..................   180
Separated civil plutonium, moratorium on.........................   121
Simulation and computation.......................................   114
Stockpile:
    Life extension and surveillance..............................   109
    Stewardship:
        Accomplishments..........................................   103
        Budget, long-term........................................   152
        Program, adequacy of.....................................   149
        Program--30-day review...................................    96
        30-day study.............................................   100
        Works, how...............................................   109
Strategic Arms Reduction Treaty (START)..........................   164
Technology partnerships programs.................................   115
10 year $45 billion budget framework, adequacy of................   155
Test readiness...................................................   172
Transportation safeguards division...............................   170
Tritium..........................................................   111
    APT funding..................................................   160
    Status of reactor decision...................................   161
Tritium production.............................................104, 151
Uranium transparency and implementation, highly enriched.........   129
Urban encroachment on laboratories...............................    99
Weapons systems, dual revalidation of............................   165
Women service on submarines......................................   139
WVU national educational and technology center...................   283

            Office of Civilian Radioactive Waste Management

Carlsbad issues..................................................   392
Deactivation and Decommissioning Program funding.................   397
Defense nuclear waste:
    Appropriation requirements...................................   390
    Future growth requirements...................................   390
EM privatization.................................................   387
Fiscal year 1999-fiscal year 2000 highlights.....................   331
Fiscal year 2001:
    Activities.................................................324, 327
    Appropriations request, summary of...........................   326
    Budget request, summary of...................................   324
Hanford tank waste remediation project (TWRS)....................   384
Hanford tanks....................................................   396
Litigation.......................................................   331
    Status of....................................................   397
NNSA:
    Impacts at Savannah River site...............................   391
    Labs, working with...........................................   378
Nuclear waste:
    Disposal.....................................................   387
    Fund current balance and future estimate.....................   391
Out-year funding requirements....................................   389
Performance measures...........................................324, 327
Program management and integration.............................330, 334
Radiation protection standards...................................   397
Rocky Flats......................................................   382
    Closure......................................................   383
Savannah River Site (SRS)--Nuclear Materials Stabilization.......   380
Science and technology...........................................   386
Spent Nuclear Fuel Cleanup Program at Hanford....................   379
Vitrification technology.........................................   393
Waste acceptance, storage, and transporation...................330, 334
WIPP.............................................................   392
    Waste storage transparency test bed..........................   393
Yucca mountain.................................................324, 327

                 Office of Energy and Renewable Energy

Agriculture and carbon sequestration...........................294, 298
Alternative energy source from oil...............................   220
Bioenergy:
    And biobased products initiative.............................   230
    Initiative...................................................   263
Biomass..........................................................   222
Budget request...................................................   223
    Solar and renewable..........................................   189
Carbon cost saving initiative....................................   288
Climate change technology initiative.............................   292
Departmental Energy Management Program...........................   245
Distributed energy resources (DER).............................223, 232
Energy and Environmental Research Center (EERC), biomass research 
  at the.........................................................   300
Energy efficiency investments....................................   264
Energy systems, life cycle evaluation of.........................   287
Fiscal year 2001 budget request................................229, 233
Fish friendly turbines...........................................   269
Funding shortfall................................................   293
Geopowering the west.............................................   280
Geothermal.....................................................221, 268
    Energy.......................................................   265
        Research, DOE laboratory involvement in..................   282
    Program......................................................   282
    Projects.....................................................   293
Hydroelectric....................................................   222
Hydropower.....................................................269, 296
Improved management..............................................   224
International clean energy initiative............................   232
    And international nuclear energy research initiative.........   285
International solar industry.....................................   222
Memorandum for Understanding.....................................   295
Million solar roofs initiative...................................   232
National renewable energy laboratory.............................   291
NNSA labs, working with..........................................   293
No year funds....................................................   300
No-year money....................................................   224
Oil imports through increased biomass, reducing..................   264
Photovoltaic energy systems....................................288, 290
Photovoltaics/Solar Programs.....................................   299
Pilot-scale fish friendly turbine................................   270
Program direction................................................   245
R&D:
    Challenges, continuing.......................................   228
    Success, recent..............................................   227
Renewable energy:
    Benefits to family farmers...................................   296
    Progress in..................................................   220
    Pros and cons of.............................................   272
    Sources......................................................   273
Solar............................................................   221
Solar and renewables at the New Mexico labs, funding for.........   284
Solar energy:
    In remote locations..........................................   266
    Programs.....................................................   233
    Progress of..................................................   266
Strategic management.............................................   226
Tribal...........................................................   299
Wind.............................................................   220
Wind energy......................................................   297
    On private land..............................................   268
    Production on public lands...................................   267
Wind powering America............................................   285

                   Office of Environmental Management

Compliance agreements, adequacy of funding to meet...............   375
Fiscal year 2001 request.........................................   341
Paducah gaseous diffusion plan...................................   369
Pit 9 at Idaho National Engineering and Environmental Lab........   376
Privatization activities.........................................   337
Research and development funding, laboratory directed............   374
Uranium:
    Cylinder conversion, depleted................................   371
    Enrichment D&D fund, adequacy of the.........................   371
Waste:
    Alternative technologies for treating high-level.............   375
    Isolation pilot project......................................   336
    Tank waste, privatization of high-level......................   373
    Tanks at Hanford, cleanup of the high-level..................   371
    To Hanford, shipments of low-level and mixed low-level.......   373
    Treatment project, advanced mixed............................   377

            Office of Nuclear Energy, Science and Technology

Accelerator transmutation of waste...............................   301
Advanced computing initiative....................................   317
Advanced reactor development.....................................   302
Budget request:
    Environmental management.....................................   190
    Nuclear energy...............................................   311
Civilian research programs.......................................   320
Computing research...............................................   320
Cylinder conversion..............................................   275
Cylinder maintenance...........................................278, 279
    Program......................................................   278
DOE material storage areas (DMSAs)...............................   306
Doe's Nuclear Energy Research Advisory Committee.................   252
EBR-II sodium processing.........................................   280
EMSL, computational upgrade for the..............................   322
Fast Flux Test Facility..........................................   304
Fiscal year 2001 program focus...................................   253
Fusion energy sciences...........................................   313
Gaseous diffusion plants worker layoffs..........................   277
Generation IV nuclear power systems..............................   247
Low dose radiation effects research..............................   318
Medical iosotopes................................................   247
Microbial cell project...........................................   315
Nanoscale science, engineering and technology....................   314
National Nuclear Security Administration Labs....................   303
    Working with.................................................   319
Nuclear energy...................................................   272
    Research and development, a strategic shift in...............   251
    Research initiative..........................................   247
    Supply, trends and challenges in.............................   250
Nuclear Energy Plant Optimization (NEPO).........................   303
Nuclear Energy Program...........................................   301
Nuclear reactor technology.......................................   271
Oak Ridge, Tennessee, new ``Mouse House''........................   316
Program direction................................................   261
Radioisotopes Power Systems Program, advanced....................   248
Reprogramming....................................................   312
Sodium bonded spent nuclear fuel.................................   270
Spallation neutron source......................................313, 318
Supercomputing...................................................   312
Transuranic contamination........................................   277
University reactor fuel assistance and support...................   311
Uranium hexafluoride cylinder management, depleted...............   307
Uranium hexafluoride, depleted.................................305, 310
Uranium, sale of low enriched....................................   276

                           Office of Science

Accomplishments..................................................   190
    And recent successes, our....................................   193
Basic energy sciences............................................   205
Bioengineering...................................................   191
Biological and environmental research............................   207
Energy research analyses.........................................   217
Energy supply--technical information management..................   218
Fusion energy sciences...........................................   210
High energy physics..............................................   212
Looking to the future--fiscal year 2001..........................   197
Microbial cell...................................................   191
Multiprogram energy laboratories--facilities support.............   215
Nanotechnology.................................................191, 274
North Dakota wind energy potential...............................   188
Nuclear physics..................................................   214
Office of Science budget request.................................   189
Performance measures.............................................   202
Science program direction........................................   217
Science programs--advanced scientific computing research.........   202
Scientific computing research, advanced..........................   191
Spallation neutron source......................................191, 275

                       DEPARTMENT OF THE INTERIOR

                         Bureau of Reclamation

Accounts, other..................................................    77
Additional committee questions...................................    87
California Bay-Delta restoration.................................    76
Carlsbad.........................................................    91
Central Valley Project restoration fund..........................    76
Desalination.....................................................    87
    Coordination.................................................    83
    Costs........................................................    83
    Expertise....................................................    84
    Next steps...................................................    84
    Research.....................................................    82
Drought..........................................................    90
    Authority language...........................................    80
    Emergency authorities........................................    81
    Policy commission report.....................................    81
    Situation in the west........................................    79
Endangered species recovery......................................    85
    Implementation program.......................................    92
Endangered species/water acquisition.............................    86
ESA workgroup....................................................    85
Federal Government's role........................................    86
Fort Hall........................................................    79
Fort Hall Indian Reservation groundwater contamination...........    79
Idaho investigations.............................................78, 79
Middle Rio Grande................................................    92
Mission..........................................................    74
Rio grande.......................................................    93
    Initiative...................................................    85
    Restoration..................................................    87
Taos water supply study..........................................    94
Water and related resources......................................    75


</pre></body></html>
